<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-187, Part 2]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-187
 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2012 

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 2219

  AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENT OF DEFENSE FOR THE 
     FISCAL YEAR ENDING SEPTEMBER 30, 2012, AND FOR OTHER PURPOSES

                               __________

                                PART 2

                         Department of Defense
                       Nondepartmental Witnesses

                               __________

         Printed for the use of the Committee on Appropriations


       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

64-594 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





















                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 KAY BAILEY HUTCHISON, Texas
PATTY MURRAY, Washington             LAMAR ALEXANDER, Tennessee
DIANNE FEINSTEIN, California         SUSAN COLLINS, Maine
RICHARD J. DURBIN, Illinois          LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            LINDSEY GRAHAM, South Carolina
MARY L. LANDRIEU, Louisiana          MARK KIRK, Illinois
JACK REED, Rhode Island              DANIEL COATS, Indiana
FRANK R. LAUTENBERG, New Jersey      ROY BLUNT, Missouri
BEN NELSON, Nebraska                 JERRY MORAN, Kansas
MARK PRYOR, Arkansas                 JOHN HOEVEN, North Dakota
JON TESTER, Montana                  RON JOHNSON, Wisconsin
SHERROD BROWN, Ohio

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

                        Subcommittee on Defense

                   DANIEL K. INOUYE, Hawaii, Chairman
PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
RICHARD J. DURBIN, Illinois          RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         KAY BAILEY HUTCHISON, Texas
BARBARA A. MIKULSKI, Maryland        LAMAR ALEXANDER, Tennessee
HERB KOHL, Wisconsin                 SUSAN COLLINS, Maine
PATTY MURRAY, Washington             LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            LINDSEY GRAHAM, South Carolina
JACK REED, Rhode Island              DANIEL COATS, Indiana

                           Professional Staff

                              Betsy Schmid
                            Nicole Di Resta
                            Kate Fitzpatrick
                             Colleen Gaydos
                               Katy Hagan
                              Kate Kaufer
                               Erik Raven
                               Gary Reese
                              Teri Spoutz
                             Bridget Zarate
                       Stewart Holmes (Minority)
                       Alycia Farrell (Minority)
                         Brian Potts (Minority)
                     Rachelle Schroeder c(Minority)

                         Administrative Support

                              Rachel Meyer























                            C O N T E N T S

                              ----------                              

                         Tuesday, March 1, 2011

                                                                   Page

Department of Defense............................................     1

                       Wednesday, March 16, 2011

Department of Defense: Department of the Navy: Office of the 
  Secretary......................................................    35

                       Wednesday, March 30, 2011

Department of Defense: Department of the Air Force: Office of the 
  Secretary......................................................   131

                        Wednesday, April 6, 2011

Department of Defense: Medical Health Programs...................   187

                        Wednesday, May 11, 2011

Department of Defense:
    National Guard...............................................   301
    Reserves.....................................................   335

                        Wednesday, May 18, 2011

Department of Defense: Department of the Army: Office of the 
  Secretary......................................................   413

                        Wednesday, May 25, 2011

Department of Defense: Missile Defense Agency....................   479

                        Wednesday, June 15, 2011

Department of Defense: Office of the Secretary of Defense........   501

                        Wednesday, June 22, 2011

Nondepartmental Witnesses........................................   559


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              


                         TUESDAY, MARCH 1, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:34 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Mikulski, Reed, Cochran, 
Alexander, Collins, and Murkowski.

                         DEPARTMENT OF DEFENSE

STATEMENT OF WILLIAM J. LYNN III, DEPUTY SECRETARY OF 
            DEFENSE
ACCOMPANIED BY ROBERT F. HALE, UNDER SECRETARY OF DEFENSE, COMPTROLLER


             opening statement of chairman daniel k. inouye


    Chairman Inouye. Good morning. This morning marks our first 
Defense Appropriations Committee hearing of the 112th Congress. 
And I would like to remind my colleagues and the new members of 
the subcommittee that our first defense hearing of the year is 
typically reserved for the rollout of the coming year's budget.
    However, this morning, we will hear from Deputy Secretary 
of Defense Mr. William Lynn and the Under Secretary of Defense, 
the Comptroller, Mr. Robert Hale regarding the impact of a 
long-term continuing resolution on the Department of Defense. 
Today marks the first 5 months into the fiscal year 2011 and 3 
days before the current continuing resolution expires.
    The path forward on completing the appropriations bills for 
fiscal year 2011 is still challenging. Unless cooler heads 
prevail and both houses of Congress begin to make progress on 
passing this year's budget, there remains the possibility that 
the whole Government could be funded through a full-year 
continuing resolution. This hearing is intended to examine the 
consequences of putting the defense budget on autopilot for the 
next 7 months.
    We have military men and women fighting a war in 
Afghanistan, training forces in Iraq so that we can safely draw 
down our forces there, and operating around the globe to 
protect our national security. Yet under the current funding 
situation, each of the military services has already been 
adversely impacted by the current continuing resolution.
    The readiness of our forces is beginning to be threatened 
as flying hours and steaming days are reduced, exercises and 
training events are canceled, equipment is foregoing much-
needed maintenance, and the list goes on and on.
    The Department's acquisition programs are also being 
adversely impacted. The Army has no funds to refurbish war-
torn, high-mobility, multipurpose Humvees, which means that 300 
personnel have been released from two critical Army maintenance 
depots. The Navy cannot award contracts for a second Virginia-
class submarine, a second DDG-51, or the first Mobile Landing 
Platform. The Air Force will not be able to procure additional 
MQ-9 Reaper unmanned aerial vehicles to increase the number of 
much-needed combat air patrols in Afghanistan. And these are 
just but a few examples.
    The military personnel accounts will face serious 
shortfalls if forced to operate at the fiscal year 2010 funding 
levels for the rest of the year. The Navy would be underfunded 
by $456 million, the Marine Corps by $468 million, and the Air 
Force would experience a $1 billion shortfall in military 
personnel accounts.
    The Defense Health Program would have to reduce the number 
of hours on patient care provider contracts and take other 
actions that will have an adverse effect on the quality and 
timeliness of medical care and resources for our military and 
their families.
    The list of affected programs and challenges goes on and 
on, but ultimately, it is the men and women in uniform that 
will pay the price. Secretary Gates summed it up best in late 
January when he said that continuing work under a continuing 
resolution would be ``the worst of all possible reductions.'' 
He went on to say, ``That is how you hollow out a military, 
even in wartime.''
    So, Mr. Secretary and Mr. Hale, I look forward to hearing 
more from you about the specific actions the Department will 
have to take if forced to operate under a continuing resolution 
for the remainder of the fiscal year.
    But first, let me turn to Vice Chairman Cochran for his 
opening remarks.


                   statement of senator thad cochran


    Senator Cochran. Mr. Chairman, I join you in welcoming our 
distinguished witnesses to the subcommittee today. We 
appreciate their service to the Government and their continued 
willingness to serve in these important positions of 
responsibility with respect to the Department of Defense.
    We are kind of up against it, as they say down home. When 
you look at the facts about the needs and the funds that are 
required to maintain our deployments in key places around the 
world that are important to our national security, and then 
compare that with the reality of the squeeze on the budget and 
the lack of funds being requested for some programs that really 
need more funding than are being requested by the 
administration.
    So we have a hill to climb. We have a big challenge. And 
your being here and keeping it in perspective for us, and 
letting us know what the realities are from your point of view 
is a very helpful part of the process, and we thank you for 
your cooperation with our committee and your presence here 
today.
    Chairman Inouye. Senator Mikulski.


                statement of senator barbara a. mikulski


    Senator Mikulski. Well, first of all, we want to welcome 
Secretary Lynn and Mr. Hale. I know we want to move right on to 
the hearing, but I am going to make two points.
    Number one, I really want to congratulate Secretary Gates 
on his reform effort in terms of really bringing the Department 
of Defense budget under control. I believe the reforms led by 
Secretary Gates, and that you and Dr. Carter have been 
pursuing, will give us a lot of guideposts for 2012. And you 
can count me on the reformer side of the ledger. But when we 
get into the areas of reform, I am going to talk about the 
impact on the continuing resolution and also the long-term.
    The other is--just as a general statement before we get 
into the specifics of the area--again, Mr. Lynn, if Secretary 
Gates were here, I would say this to him, and I would ask you 
to carry the message back.
    During the Walter Reed scandal, when it first broke, 
Secretary Gates responded with such swiftness that we all 
really appreciated that. He responded like a human being. He 
responded like a Secretary of Defense. He responded swiftly and 
effectively. We really are tremendously grateful for that as we 
worked in a very steadfast way to deal with that. Now we will 
be opening the new facility at Naval Bethesda, which will be a 
wonderful day.
    But so much remains on the area of military medicine, 
particularly how we deal with the post traumatic stress 
syndrome, the fact that I am calling it ``the 50-year war'' 
because the permanent wounds of war and the permanent impact of 
war will go on with these men and women and their families for 
years. So we want to continue that. I will reserve those 
questions for the separate hearing.
    But Gates really led the way. He is leading the way on 
reform. He is leading the way, he led the way, and we look 
forward to working with you at really trying to get highest 
value for our dollar, both to our troops when they fight over 
there, but for them and their families when they come back 
here.
    Chairman Inouye. Thank you.
    Senator Collins.


                   statement of senator susan collins


    Senator Collins. Thank you, Mr. Chairman. Let me thank you 
and the vice chairman for holding this very important hearing.
    Last fall, when it was evident that we had reached an 
impasse on many issues, I went to both the majority leader and 
the minority leader to suggest that we pass a combination of 
the DOD appropriations bill, the Homeland Security bill, and 
the VA/MilCon bill--a so-called ``minibus.'' I believe that 
such a package would have passed last fall and avoided the 
problems that we now face.
    I subsequently, this year, wrote to both leaders, and I am 
sending a second letter today that I would ask unanimous 
consent be included in the hearing record, urging them to 
immediately go to the defense appropriations bill.
    [The information follows:]
                                       U.S. Senate,
                Homeland Security and Governmental Affairs,
                                     Washington, DC, March 1, 2011.
Hon. Harry Reid,
Majority Leader, U.S. Senate,
Washington, DC.
Hon. Mitch McConnell,
Minority Leader, U.S. Senate,
Washington, DC.
    Dear Senator Reid and Senator McConnell: As we approach the March 4 
expiration of the resolution that is currently funding Government 
operations, I want to reiterate my strong belief that the Senate must 
pass, as soon as possible, a funding bill that provides the Department 
of Defense the resources it needs to sustain current operations and 
readiness and to prepare to meet future challenge.
    The leadership of the military services have warned repeatedly that 
a year-long CR at reduced funding levels could negatively affect both 
their effectiveness and efficiency. Equipment maintenance would be 
deferred; facility repairs and construction would be curtailed; and 
military acquisition would be hampered. Last week, Secretary Gates 
testified before the Senate Armed Services Committee that operating 
under a CR or substantially reduced funding would lead to procurement 
delays and increasing costs for high demand assets, such as Unmanned 
Aerial Vehicles.
    The Congressional Research Service confirmed that an extension of a 
``clean'' CR will result in insufficient funding for military personnel 
budgets and defense health programs, all of which are critical to 
supporting our men and women in uniform and their families. The 
operations & maintenance accounts would also face significant 
shortfalls, including a six percent reduction in war-related operations 
funding. For these reasons, Secretary Gates stated in his testimony 
that, ``Cuts in operations would mean fewer flying hours, fewer 
steaming days, and cutbacks in training for home-stationed forces--all 
of which directly impacts readiness. That is how you hollow out a 
military--when your best people, your veterans of multiple combat 
deployments, become frustrated and demoralized and, as a result, begin 
leaving military service.''
    The impact of a full-year CR on the $16 billion Navy shipbuilding 
budget, an account that makes up just three percent of the defense 
budget request for fiscal year 2011, is indicative of how a full-year 
CR would negatively affect the servicemen and women who rely on stable 
funding from Congress. The result would be higher costs for the 
taxpayers and fewer ships towards the Navy's goal of a 313-ship fleet.
    Admiral Gary Roughead, the Chief of Naval Operations, described 
this impact to me last week during a visit to Bath Iron Works in Maine. 
He said that, ``the lack of a final budget for the military could 
undermine the Navy's shipbuilding plans,'' including the Virginia-class 
attack submarine program and the DDG-51 destroyer program. The 
shipbuilding program faces executability challenges under the CR 
because of increases in fiscal year 2011 ship quantities and funding 
levels compared to fiscal year 2010 levels. Although the shipbuilding 
budget request for fiscal year 2011 is about $1.9 billion more than the 
amount appropriated in fiscal year 2010, the potential shortfall is 
actually $5.6 billion because a CR may not include transfer authority 
or provide funding increases in other budget lines. The disruptive 
impact of a full-year CR on the shipbuilding account is just one 
example of the result that congressional inaction is having on our 
military service members and their families.
    While there are a number of areas where our two parties may have 
significant differences, providing our military the funding it needs to 
succeed should not be among them. Traditionally, senators from both 
parties have been able to work together to provide our men and women in 
unifolin the resources they need to accomplish what is asked of them. 
It concerns me that this process of keeping security spending separate 
from the spirited disagreement regarding domestic spending appears to 
be over. I truly hope that is not the case, and I urge you to work 
together to bring the fiscal year 2011 funding bill to the Senate floor 
as soon as possible so that can work with our colleagues in the House 
to send a bill to the President for signature.
            Sincerely,
                                          Susan M. Collins,
                                                      U.S. Senator.

    Senator Collins. The patent reform bill, which is on the 
floor this week, is important legislation. But it is a bill 
that has been pending for years and does not have the urgency 
of the defense appropriations bill.
    So I join in the frustration of our military leaders and 
Secretary Gates that Congress has not completed its work in 
this vital area. That is what we ought to be doing on the 
Senate floor right now, in my view.
    Finally, let me just quote further from Secretary Gates's 
testimony before the Armed Services Committee last week. And it 
goes along with what the chairman said about hollowing out the 
force. He could not have been clearer. He said cuts in 
operations would mean fewer flying hours, fewer steaming days, 
and cutbacks in training for home station forces, all of which 
directly impacts our readiness.
    The Chief of Naval Operations was with me in Maine last 
week. He made very similar comments about the dramatic and 
draconian impact on the Navy if we continue to operate under a 
continuing resolution. So we need to get our job done, and I 
think we should bring this bill to the Senate floor as a 
separate bill today.
    Thank you, Mr. Chairman.
    Chairman Inouye. I thank you very much.
    And now may I call upon the Deputy Secretary, the Honorable 
Mr. Lynn.
    Mr. Lynn. Thank you very much, Mr. Chairman, Senator 
Cochran, members of the subcommittee.
    If it pleases the subcommittee, what I would like to do is 
summarize the written statement, enter the written statement in 
the--the full written statement in the record.
    Chairman Inouye. Your statement will be part of the record.
    Mr. Lynn. What I would start with is a few opening comments 
on the fiscal 2012 bill, but then turn to impact of the year-
long continuing resolution as the primary subject of the 
hearing.
    The fiscal year 2012 budget that we have submitted seeks 
$671 billion from Congress in discretionary budget authority. 
That is divided between $553 billion in the base defense 
program and nearly $118 billion in the overseas contingencies 
operation budget. In our judgment, this budget is both 
reasonable, in that it meets our national security needs, and 
prudent, in that it supports the administration's plans for 
deficit reduction.
    Through the efficiencies initiative that Senator Mikulski 
has already referenced, the services have identified $100 
billion in savings and then reinvested those savings into 
higher-priority programs that strengthen our warfighting 
capabilities. At the same time, we identified at a department-
wide level $78 billion from outside the service accounts in 
defense-wide efficiencies, and we devoted that savings to the 
administration's efforts to hold down the deficit across the 
period of fiscal year 2012 to 2016.
    The overall budget itself takes care of our people. It 
continues to rebalance the U.S. defense posture to ensure that 
we meet immediate warfighting needs, as well as longer-term 
modernization needs. And it provides our deployed forces with 
everything that they need to carry out their mission.
    And finally, it continues the Secretary's reform agenda by 
focusing on streamlining business operations. In short, it is 
our hope that the Congress will support this request and enact 
an appropriations bill for fiscal year 2012 at the start of the 
fiscal year in October.
    But as has been referenced by all the members of the 
subcommittee, even as we discuss the fiscal year 2012 budget, 
there is unfinished business that concerns us greatly. The 
Department of Defense has been operating under a continuing 
resolution for more than 5 months.
    If the Congress is unable to enact an appropriation, the 
Department would presumably continue to operate under a 
continuing resolution like the one currently in effect for 
months more, or perhaps even for the entire year. In our view, 
this is not a workable approach.
    The existing continuing resolution has caused regrettable 
complications. A year-long continuing resolution would have a 
further deleterious impact on the people who make up our 
fighting forces and their readiness to defend the Nation. 
Simply put, the continuing resolution would provide inadequate 
resources. It would put funding in the wrong places. In other 
words, we wouldn't have the money to pay must-pay bills in the 
medical and personnel area. And it would not allow for the 
management flexibility, particularly new start authority and 
the ability to start new military construction projects.
    With regard to the funding levels, a year-long continuing 
resolution would cut DOD's fiscal 2011 base budget by $23 
billion below the President's request of $549 billion, the 
request he made in February of last year. At this low base 
budget level, the services will be forced to reduce their 
operating tempo, and DOD would not receive even enough 
additional funds to cover must-pay bills, including $8 billion 
for military pay raises and increases in the costs of medical 
care, fuel, and inflation.
    To cover these unavoidable expenses, we would be forced to 
play a shell game. We would rob Peter to pay Paul. Moving funds 
in this way is detrimental to our readiness, our modernization, 
and to efficient business practices.
    For example, funding would likely be reduced for some or 
all of the three brigade combat teams that will be returning 
from Iraq and Afghanistan soon. The Navy would likely be forced 
to reduce flying hours and steaming days and to cancel 
exercises and training events. The Air Force would face a 10 
percent cut in its flying hours. Equipment maintenance would 
also have to be deterred--deferred, excuse me. All of these 
cuts would impact on readiness.
    Continuation of the current continuing resolution 
throughout the year would also prohibit us from starting new 
weapons programs or increasing production rates of existing 
ones. Already, the Navy was unable to purchase Government-
furnished equipment for the second DDG-51 destroyer as planned, 
and it has been unable to contract for the second Virginia-
class submarine.
    The Army has had to defer a contract for new Chinook 
helicopters and delay refurbishment of war-torn Humvees. If the 
current continuing resolution continues throughout the year, 
problems like these will snowball.
    The facilities we need to carry out our national security 
mission will also be affected. Under the continuing resolution, 
the services have had to delay 75 projects across the Nation. 
These delays not only affect our capabilities, but also the 
quality of life for our servicemen and women.
    Finally, there will be harmful management consequences 
associated with the year-long continuing resolution, many of 
them difficult to notice from here in Washington. But program 
managers will delay contracting actions out of necessity, only 
to be required at a later date to hastily make up for that by 
contracting too quickly without the appropriate safeguards.
    In the face of uncertainty, other managers will resort to 
short-term contracts that add expense for the taxpayer and 
instability for the industrial base. In a time of war, with 
soldiers, sailors, airmen, and Marines on the front lines, DOD 
needs an appropriations bill with the reasonable level of 
spending and the flexibility necessary to meet our warfighters' 
needs.

                           PREPARED STATEMENT

    In short, a year-long continuing resolution will damage 
national security. It presents the Department and the Nation 
with what Secretary Gates has aptly described as a crisis at 
our doorstep. For all of these reasons, we strongly urge 
Congress to enact the defense appropriations bill for fiscal 
year 2011.
    With that, Mr. Chairman, happy to take the subcommittee's 
questions.
    [The statement follows:]
               Prepared Statement of William J. Lynn III
    Mr. Chairman and members of the committee, thank you for this 
opportunity to discuss the fiscal year 2012 budget proposal for the 
Department of Defense, as well as the serious problems we face if we 
are required to operate under a Continuing Resolution for the remainder 
of fiscal year 2011.
                  budget proposal for fiscal year 2012
    The budget request, submitted to Congress 2 weeks ago to support 
the mission of the Department in fiscal year 2012, seeks about $671 
billion of discretionary budget authority--including $553.1 billion to 
fund base defense programs and $117.8 billion to support Overseas 
Contingency Operations (OCO), primarily in Afghanistan and Iraq.
    In our judgment, this budget is both reasonable, in that it meets 
national security needs, and responsible, in that it supports the 
administration's plan to hold down deficits. It is built around several 
broad themes:
  --The proposed budget takes care of our people. That is our top 
        priority, since the all-volunteer force is America's greatest 
        security asset. We propose a military pay raise of 1.6 percent, 
        which will match the Employment Cost Index and keep growth in 
        military salaries on a par with those in the private sector. We 
        are also asking for $8.3 billion for family support programs, a 
        sum that fully supports the President's military families 
        initiative. For military healthcare, we are asking for $52.5 
        billion, including $677 million for research and support for 
        traumatic brain injury and psychological healthcare, and more 
        than $400 million to continue medical research on behalf of 
        wounded, ill, and injured Service Members.
  --The proposed budget also continues to rebalance the U.S. defense 
        posture to provide the capabilities needed to fight current 
        wars while also building capability for potential future 
        conflicts. To support current war efforts, we plan substantial 
        investment ($4.8 billion) in intelligence, surveillance, and 
        reconnaissance capabilities, including various unmanned 
        aircraft, which are in high demand by Combatant Commanders. We 
        are also proposing to invest $10.6 billion in rotary wing 
        aircraft. In addition we are requesting funding for cyber 
        activities, chemical and biological defenses, and security 
        assistance programs to build up the capabilities of our allies.
  --To prepare our forces for potential future conflicts, our budget 
        proposal for fiscal year 2012 invests in advanced capabilities. 
        We request $9.4 billion for the Joint Strike Fighter (JSF) 
        program, including funds to purchase 32 aircraft and to support 
        continued development. We will also instill discipline in this 
        major program by imposing a 2-year ``probation'' period for the 
        STOVL (Short Take Off and Vertical Landing) variant while we 
        seek to fix various design challenges. Meanwhile, we plan to 
        buy 41 additional F/A-18 aircraft and extend production through 
        fiscal year 2014. We plan an aggressive shipbuilding program of 
        11 ships in fiscal year 2012 and 56 over the next 5 years, 
        investment in a family of long-range strike options, including 
        a new long-range bomber program, and $900 million for the KC-X 
        tanker program. We have a new family of armored vehicles in the 
        works, and we are requesting $10.7 billion for ballistic 
        missile defenses, including $8.6 billion for the Missile 
        Defense Agency.
  --The proposed budget provides our deployed forces with everything 
        they need to carry out their mission. It includes significant 
        expenditures for reset of damaged and destroyed equipment, for 
        purchases of force protection equipment, for high priority 
        infrastructure projects in Afghanistan that support 
        counterinsurgency objectives, for the Commander's Emergency 
        Response Program (CERP)--a valuable tool in theater--and for 
        funding to assist the transition to a civilian-led mission in 
        Iraq.
    In addition to these broad themes, our proposed budget continues 
the Secretary's reform agenda. That agenda began in fiscal year 2010 
and 2011, with a focus on the restructuring and termination of a number 
of weapons programs. Some programs, such as the F-22 and the C-17, were 
cancelled because we had already purchased enough of the capabilities 
they provide. Other programs, like the VH-71 Presidential helicopter, 
were terminated because of cost overruns, development problems, or 
because they would have provided what Secretary Gates has termed 
``exquisite'' capabilities that are not central to our current security 
challenges.
    Secretary Gates has continued his reform agenda in fiscal year 
2012-2016 by focusing on streamlining business operations. Through his 
Efficiencies Initiative, the Services have identified $100 billion in 
savings and reinvested those savings into high-priority programs that 
strengthen warfighting capability. These savings will be realized 
through better business practices, reorganizations, and by terminating 
or restructuring weapons programs. Examples of proposed changes include 
the elimination of unneeded task forces, combining of air operations 
centers, consolidation of e-mail servers, and cutting back on lower-
priority tasks associated with facilities sustainment and construction. 
The Services also propose terminating the Non-Line of Sight Launch 
System, the SLAMRAAM surface-to-air missile, and the Marine 
Expeditionary Fighting Vehicle (EFV).
    The EFV program alone would have consumed $12 billion in future 
procurement costs, including about half of all anticipated Marine Corps 
procurement funding from 2018 to 2025. While the planned EFV would have 
been a highly capable vehicle, its capability was needed only for a 
narrow range of high-end missions. After careful evaluation, both the 
Secretary of the Navy and the Commandant of the Marine Corps 
recommended termination of the EFV. The Marine Corps will sustain its 
amphibious assault mission by reinvesting EFV savings into upgrades of 
existing vehicles as well as a new amphibious vehicle designed to meet 
a more focused set of requirements.
    In addition, our budget identifies $78 billion in further defense-
wide efficiencies in fiscal year 2012 through 2016. These efficiencies 
allow the defense topline to be reduced in support of the 
administration's deficit-reduction efforts, beginning with a $13 
billion reduction in fiscal year 2012. This topline reduction was 
largely achieved through changes in the portion of our budget less 
directly related to warfighting capability. These changes include 
revisions in military healthcare, changes in the economic assumptions 
that underlie the budget, and defense-wide personnel changes, including 
a freeze on civilian pay and personnel levels through fiscal year 2013 
(with limited exceptions) and a reduction in the number of contractors 
who augment Government staffs. We are also reducing, over 2 years, the 
number of general and flag officer billets by about 100 and civilian 
senior executive billets by about 200.
    DOD's medical costs have shot up from $19 billion in fiscal year 
2001 to $52.5 billion in fiscal year 2012. We offer proposals in this 
budget to slow the growth in medical care costs while continuing to 
provide high-quality military healthcare for our troops and their 
families. We also propose changes in pharmacy co-pays designed to 
increase the use of generic drugs and mail-order delivery. We are also 
propose a modest increase in TRICARE enrollment fees for working-age 
retirees--the first such increase since the mid 1990s--and indexing of 
those fees to a medical deflator. We intend to phase out subsidies for 
a number of non-military hospitals where the Department pays premium 
claims rates.
    This budget also proposes a decrease in the permanent end strength 
of the Army and Marine Corps starting in fiscal year 2015. In one of 
his first acts in office 4 years ago, and in the midst of our 
engagements in Iraq and Afghanistan, Secretary Gates increased 
permanent end strength by 65,000 for the Army and 27,000 for the 
Marines. By 2014 we will have completed the military mission in Iraq 
and largely shifted the security mission in Afghanistan from allied to 
Afghan forces. As a result, we believe that, in fiscal year 2015 and 
fiscal year 2016, we can reduce active duty end strength by 27,000 
within the Army and by 15,000 to 20,000 in the Marine Corps with 
minimal risk. If our assumptions about Iraq and Afghanistan prove 
incorrect or global conditions change for the worse, there will be 
ample time to adjust the size and schedule of this change, or reverse 
it altogether.
    The budget also requests $524 million in fiscal year 2012 for the 
Office of Security Cooperation--Iraq (OSC-I), which will assist in 
executing foreign military sales. OSC-I will also support military-to-
military efforts to advise, train, and assist Iraq's security forces. 
The OSC-I is jointly funded with the State Department. In order to 
provide timely assistance, and help provide a timely transition to a 
civilian-led mission in Iraq, we need to begin funding OSC-I 
initiatives in fiscal year 2011 and then provide the requested funds in 
fiscal year 2012. DOD needs legislative authority to provide this 
assistance, and we ask Congress to include this authority in our 
appropriation bill for fiscal year 2011.
    Mr. Chairman, this is a thumbnail sketch of the Department's budget 
proposal for fiscal year 2012. We look forward to working with this 
Committee and the Congress as you consider our request. It is our hope 
that Congress will support this request and enact an appropriations 
bill for fiscal year 2012 before the start of the new fiscal year on 
October first.
   serious problems associated with a year-long continuing resolution
    Even as we start the debate over the fiscal year 2012 budget, there 
is unfinished business that concerns us greatly. The Department still 
needs an appropriation for fiscal year 2011. As members of this 
committee are aware, the Department of Defense has been operating under 
a Continuing Resolution (CR) for more than 5 months. The present CR is 
due to expire in 3 days.
    If the Congress is unable to enact an appropriation, the Department 
would presumably continue to operate for the remainder of the year 
under a CR like the one currently in effect--which I will refer to as a 
``year-long CR'' in the remainder of my statement. In our view, this is 
not a workable approach.
    A year-long CR would adversely affect the people who make up and 
support our fighting forces and their readiness to defend the Nation. 
Serious problems are already occurring. Both the Army and the Marine 
Corps have imposed temporary civilian hiring freezes. This means that, 
for example, when a maintenance position becomes open due to normal 
attrition, that position cannot be filled. Such decisions save money, 
but they also plant the seeds for future problems with essential 
equipment. Because of the CR, the Navy has had to reduce its notice of 
Permanent Change of Station moves from the usual 6 months to 2, which 
hurts Navy personnel and puts a greater strain on their families.
    If the current CR continues throughout the year, it will cause 
significantly more harm. While the exact effects depend on decisions 
yet to be made, the broad consequences are already known. A year-long 
CR would force the Services to reduce their operating tempo, harming 
both training and readiness. For example, funding would likely be 
reduced for some or all of three Brigade Combat Teams returning from 
Iraq and Afghanistan. This would mean reductions in training at a time 
when these units will need it most. The Navy would likely be forced to 
reduce flying hours and steaming days and to cancel exercises and 
training events. The Air Force is likely to face at least a 10 percent 
cut in flying hours. All of these cuts would have a significant impact 
on readiness.
    If there were a year-long CR, it would be necessary for each 
Service to defer equipment maintenance. The Army estimates that a 
reduction of $200 million in depot maintenance could be required, 
adversely affecting the Blackhawk and Kiowa Warrior helicopters, among 
other platforms. The Navy may need to reduce maintenance by $900 
million, which would result in the cancellation of as many as 29 
surface ship maintenance availabilities out of a total of 85. A year-
long CR would also mean deferred depot maintenance on as many as 70 
airframes and 290 aircraft engines, deferred maintenance on 
expeditionary equipment, and deferred torpedo and missile 
certifications. Deferring maintenance in this way does serious damage 
to the readiness of the world's finest military.
    A year-long CR would also seriously harm DOD acquisition programs--
first because of a lack of funding and second because continuation of 
the current CR would prohibit us from starting new weapons programs or 
increasing production rates of existing ones. These prohibitions cost 
us the flexibility necessary to meet warfighter needs.
    As a result of the CR serious acquisition problems are already 
occurring. The Navy was unable to purchase Government Furnished 
Equipment for the second DDG-51 destroyer as planned on January 31, 
which will delay the program and add to its cost. Nor could the Navy 
contract the second Virginia class submarine. We are struggling to 
avoid disrupting the workforce at the shipyard as a result. Meanwhile, 
the Army has had to defer a contract for new Chinook helicopters and 
delay refurbishment of war-torn Humvees.
    If the current CR continues through the year, problems like these 
will snowball. The Air Force would be unable to increase the buy of 
Reaper unmanned aircraft from 24 to 36, delaying receipt of these 
critical assets. Under our current planning, the Air Force would let 
the Joint Air-to-Surface Standoff Missile (JASSM) slip by 1 year, and 
the Army would cancel procurement of Sentinel radars, leaving four 
battalions without advanced air defense. The Navy would buy fewer 
helicopters. The Missile Defense Agency would face a delay in the 
production of Terminal High Altitude Defense interceptors (known as 
THAAD), and the Special Operations Command would slow rotary wing 
capability improvements.
    The facilities we need to carry out our national security mission 
would also be affected. Under the CRs passed to date, the Services have 
not been able to start any new major construction projects. About 75 
projects across the country have already been delayed. Among them are 
training facilities in California and Texas, a test and evaluation 
facility in Maryland, a fuel tank project at Hickam Air Force Base in 
Hawaii, a new mess hall at Camp Lejeune, North Carolina, and an 
environmental, safety, and occupational health facility in Ohio. These 
delays not only affect our capabilities, but also the quality of life 
for servicemen and servicewomen. And they have a negative impact on 
project costs.
    Under a year-long CR, the Department would have to protect 
readiness at the expense of long-term facilities sustainment. As a 
result, conditions on bases and installations would deteriorate. The 
Army would meet only 75 percent of its Facilities, Sustainment, 
Restoration, and Modernization (FSRM) requirements, including delays in 
upgrades to training barracks. The Navy would meet only half of its 
FSRM requirements, jeopardizing bachelor quarters projects, dry dock 
certifications, and air station improvements. The Air Force is likely 
to face a cut of $400 million to its FSRM, forcing the deferment of 
maintenance contracts, dormitory projects, and utilities privatization.
    Finally, there will be harmful management consequences associated 
with a year-long CR, many of them difficult to notice from inside the 
Beltway. Program managers will delay contracting actions out of 
necessity, only to be required to act hastily at a later time in an 
effort to catch up. In the face of uncertainty, other managers will 
resort to short-term contracts that add expense for the taxpayer and 
instability for the industrial base.
    Wartime funding for OCO would also be impacted. Although funding 
levels would remain roughly equivalent, the funds would not be in the 
categories that meet current warfighter needs. For example, there would 
be too much funding for Mine Resistant Ambush Protected (MRAP) vehicles 
and not enough for Afghan National Security Forces. In order to move 
funds to where they are needed for warfighter requirements, the 
Department would need special transfer authority of about $13 billion.
    Although we may be able to surmount the transfer problem for OCO 
funding, deficits in the base budget under a year-long CR cannot be so 
easily overcome. Such a CR would cut DOD's fiscal year 2011 base budget 
by $23 billion below the $549 billion requested in the President's 
budget a year ago. This level of funding would not permit us to carry 
out our national security commitments properly. At this low base budget 
level, with many cuts coming half way through the year, DOD would not 
even receive enough additional funds to cover must-pay expenses, 
including $8 billion for military pay raises and increases in the costs 
of medical care, fuel, and inflation. To cover these unavoidable 
expenses, we would be forced to play a shell game, ``robbing Peter to 
pay Paul.'' Investment accounts would be especially hard hit, and we 
would exacerbate the detrimental effects I have just described to our 
readiness, modernization, and business practices.
    In a time of war--with soldiers, sailors, airmen and Marines on the 
front lines--DOD needs an appropriations bill with a reasonable level 
of spending. Again, the President's defense budget request for fiscal 
year 2011 asks for $549 billion. Based on a number of factors that have 
changed since our initial budget submission a year ago--including 
policy changes that led to lower personnel costs and reduced activity 
forced by the Continuing Resolution--we believe that the Department can 
now operate effectively with a budget lower than our initial request. 
However, in our judgment the Department needs an appropriation of 
approximately $540 billion for the fiscal year, in order for the 
military to carry out its missions properly and to maintain readiness 
and prepare for the future.
    In short, a year-long CR will damage national security. It presents 
the Department--and the Nation--with what Secretary Gates has aptly 
described as ``a crisis at our doorstep.'' For all of these reasons, we 
strongly urge Congress to enact a Defense appropriation bill for fiscal 
year 2011, and to provide funding for the Government as a whole.
    This concludes my prepared remarks. I welcome the committee's 
questions.

    Chairman Inouye. Thank you very much.
    I shall begin the questioning. Let me preface by saying 
emphatically that we have no intention or desire to shut down 
the Government. But as you know, there are press accounts 
suggesting that this might be a possibility. Now, if that 
should take place, I would like to know what DOD will do about 
it.
    Mr. Lynn. We will certainly agree with the chairman that no 
one, we think, wants a shutdown. And we certainly hope and 
believe a shutdown can be averted. That said, DOD, like all 
other agencies, has plans for a shutdown. These plans are 
routinely updated.
    In the aggregate, it would mean that we would have to do an 
unannounced furlough of probably up to one-half of our 
employees. The other one-half of our civilian employees would 
be exempt and would be able to continue to work, as would all 
members of our military, but we would be unable to pay them.
    So that when the first pay dates came, which now come in 
the middle of March, we would be unable to make good on those 
pay dates. It would certainly cause enormous disruption. It 
would cause an enormous distraction. And it is something I 
think that the country would want to avoid when the Nation is 
at war.

                SHORTFALL IN MILITARY PERSONNEL ACCOUNTS

    Chairman Inouye. Under full continuing resolution, how much 
is the shortfall in the military personnel accounts?
    Mr. Lynn. We think that there are must-pay bills of about 
$8 billion. I think roughly one-half of those are in the 
military personnel accounts.
    Bob.
    Mr. Hale. Yes. I think best answer to say, given the fact 
that we won't have the pay raise funded and that we are seeing 
extraordinarily high retention, we would be short at least 
around $2.5 billion in the DOD personnel accounts. And since 
they are essentially entitlements--if you work for us, we are 
going to pay you--we would be forced into some really fairly 
brutal reprogramming actions to try to move that money into 
personnel in order to meet paydays.
    Chairman Inouye. And what about health programs?
    Mr. Lynn. There is a shortfall there, we think, of over $1 
billion, and we would have to find resources from other 
accounts to meet those bills because those, again, are must-pay 
bills we cannot avoid paying.
    Chairman Inouye. And my final question, a very important 
one, what impact would it have on readiness?
    Mr. Lynn. Well, I think the effect on readiness would be 
fairly far-reaching. We would reduce our operating tempo. We 
would be forced to reduce steaming days, flying hours, training 
days for the Army. So there would be a direct impact on 
readiness.
    There would be less direct, but equally problematic, 
impacts on equipment maintenance, which we would have to defer, 
and on base operating support and facility sustainment, which, 
over time, has an impact on quality of life and has an impact 
on readiness. So we think it would be a fairly far-reaching and 
broad-gauged effect on readiness.
    Chairman Inouye. Are you concerned about what is happening 
in Libya, Egypt, and Tunisia?
    Mr. Lynn. We are very concerned about what is happening 
across all of those nations. There is certainly an enormous 
amount of instability that has been caused by this, and we are 
trying to work with all those nations to ensure that the 
reforms are able to be made without further violence, that we 
end up with stable, broad-based governments in each of those 
states.
    Chairman Inouye. Senator Cochran.

                OPERATING UNDER A CONTINUING RESOLUTION

    Senator Cochran. Mr. Chairman, I wonder if the witnesses 
can tell us what the practical consequences of operating under 
a continuing resolution for 5 months will have on the 
Department of Defense and the programs that it administers?
    Mr. Lynn. Well, Senator, you indicate, we have already been 
operating for 5 months under a continuing resolution. We have 
operated under continuing resolutions in the past. But usually, 
it is for 1 or 2 months, and the short-term nature of those 
reduces the impact.
    Now that we are into a much longer term, we have had an 
impact on contracts. As I mentioned, we have been unable to 
contract for the second submarine, for equipment for a DDG-51, 
for Chinook helicopters.
    Those cost the Government money. When we do do this, we 
will have to do it at greater expense. And of course, it delays 
the influx of greater new capabilities and better technology 
into the force.
    Senator Cochran. Secretary Hale.
    Mr. Hale. Senator Cochran, picking up what Mr. Lynn said, 
there will be a variety of effects, and some of them are 
already occurring. The Army and the Marine Corps both have 
freezes, temporary freezes, on civilian hiring. So if a tank 
mechanic leaves, we can't fill the job. If a clerk handling 
training orders leaves, we can't fill the job.
    The Navy has decided to make people aware of Permanent 
Change of Station (PCS) moves, with only 2 months of notice 
rather than 6. That preserves funding flexibility for the Navy, 
and I understand why they are doing it. But, of course, it is 
hard on the members, and it puts greater strain on military 
families.
    And these kinds of changes are going to snowball if we have 
to continue under a continuing resolution. We will try, and we 
are trying now, to postpone those actions that would be most 
damaging to readiness as long as we can. But we are going to 
hold our breath so long, but we are starting to turn blue. We 
really do need help.
    Senator Cochran. I wonder, too, about the impact this has 
on recruiting and retention of well-qualified and experienced 
people to stay in the military. Is there any effect that you 
know that can be measured, or surmised even, with the fact that 
we are not able to have a predictable level of funding for 
these activities?
    Mr. Lynn. I think, in theory, you would be right, Senator. 
We haven't seen that yet. And in fact, at this point, we are 
blessed with extraordinarily high retention levels, and we are 
hitting all of our recruiting targets. So I would have to say 
we have not seen any immediate impact, but that type of erosion 
over time could occur.
    Mr. Hale. I think there is good news here, Senator Cochran, 
is that troops are paying attention to their job, and they are 
letting us worry about this, which is how they should do. We 
need to come through for them.
    Senator Cochran. Well, thank you very much for your service 
in helping manage these important functions of our Federal 
Government.
    Chairman Inouye. Thank you.
    Senator Mikulski.
    Senator Mikulski. Thanks.

                           MILITARY MEDICINE

    I am going to pick up on two issues. One, military medicine 
and the other on the must-pay bills. In terms of military 
medicine, you talked about the fact that it could be $1 
billion. Now we are talking about a $600 billion defense 
appropriations, $1 billion doesn't seem like a lot. But it 
seems a lot to doctors, nurses, lab technicians, the 
contractors who provide so many of the supplies necessary.
    Could you go into more detail, if we continue the 
continuing resolution, both at military hospitals, and then 
also what you think--and perhaps Mr. Hale could help--also the 
impact on TRICARE, where the troops really and their families, 
really are relying on this health infrastructure. Could you 
share with us what that means?
    Does it mean TRICARE won't get paid? Does it mean the 
nurses at Naval Bethesda won't get paid? Does it mean the 
people selling the bandages and the petri dishes and all that 
won't get paid? And so, we are going to ask them to work for 
nothing, or not get paid?
    Mr. Lynn. Senator, we consider the military, the health of 
our military force, particularly that of our wounded warriors, 
to be other than the war itself, frankly, the highest priority 
that we have.
    So that there would be shortfalls in the medical accounts 
if there were a year-long continuing resolution, frankly, we 
would transfer money from other accounts to ensure the medical 
accounts are fully funded. And so, the impact of the continuing 
resolution would more be on the accounts that we transferred 
from rather than the medical accounts themselves.
    As you indicated, $1 billion in a $600 billion or $550 
billion, $530 billion budget seems like a small amount of 
money. But, in fact, even with a budget that size, all of the 
money is spoken for. All of the money is dedicated to a 
particular mission, whether it is a readiness mission or an 
acquisition mission or a medical mission.
    So we would have to deprive one of those readiness or one 
of those acquisition missions of probably $1.3 billion in order 
to ensure that we paid our military medical bills.

                                TRICARE

    Senator Mikulski. Does that also mean that TRICARE will 
continue to be funded?
    Mr. Lynn. We would continue to fund TRICARE, but we would 
have to reprogram resources to do that. And that is a difficult 
process.

                             REPROGRAMMING

    Senator Mikulski. Then let us go to the reprogramming and 
then--first of all, thank you for that. Which means we will 
meet our obligation both to the wounded warriors and the 
troops, but also to their families who, in many instances, bear 
other kinds of wounds because of this repeated deployment. The 
impact on children, on mental health for both spouses and 
children, you know are quite severe.

                             MUST-PAY BILLS

    Now let me go to the must-pay bills. I was at a constituent 
meeting with small business yesterday with Senator Cardin. And 
one of the things that we heard from small business--it was 
going on with this SBA deal. That is another topic. But they 
were worried about what happens now in this contract world.
    So you hear from woman-owned veteran herself--disabled, 
female, small business contractor. She says, ``Wow, if we don't 
get paid, I have very thin margins in order to even compete.'' 
What happens now to these small to medium-size contractors, and 
will they get paid?
    And number two, as you talked about the reprogramming and 
so on that goes on, and perhaps Mr. Hale can provide it, you 
didn't give a dollar figure. You know, that one day we are 
going to have to do it. It is either going to be--in MilCon, it 
is going to be deferred maintenance. It is going to be deferred 
contracts, paying more for these contracts.
    So here is the question. Are the medium to small business 
contractors going to be paid, number one? And number two, if 
either you or Mr. Hale have a dollar figure on really what 
deferment means? That deferment isn't saving money. We are 
really burning money, and we will burn it later at a faster 
rate and perhaps even get into more of a jackpot on waste.
    Mr. Lynn. Well, let me, and then I will ask Mr. Hale to 
follow on. The first question is would we be paying small and 
other business owners? And the answer is we can't say 
precisely, but we would have to move resources from areas, 
particularly in contracts.
    So we would have to defer and cancel some contracts. 
Surely, some of those would be small and disabled businesses. 
That would be, I think, inevitable in order to pay those 
medical and personnel bills that the department is obligated to 
pay.
    So there would have to be some impact. It would require 
decisions at multiple levels to decide exactly which contracts 
you are going to defer and which contracts you are not. So I 
can't give you a precise answer.
    In terms of your second question, which was what does this 
cost? That is really impossible to answer because what you are 
talking about is friction at multiple levels. We are going to 
defer some contracts. We are going to cancel some contracts. 
Then we are going to reengage with contractors later on to do 
that same work.
    The charges are going to go up. We are going to lose 
options. We are going to lose the bids that we have. We are 
going to pay more. But trying to total that up, these are 
thousands and thousands of different contractors.

                      MILCON/DEFERRED MAINTENANCE

    Senator Mikulski. But what about in MilCon and deferred 
maintenance on the things that you really know are very 
specific?
    Mr. Lynn. Well, I think we can tell you right now we have 
deferred--because we don't have the authority to go forward--75 
military construction projects. And if this goes on, we will 
have to defer hundreds of millions of facility maintenance 
projects because we won't have the resources.
    Senator Mikulski. And then presuming, say, we pass the 
continuing resolution maybe around like April, and we kind of 
get into it before the Easter-Passover break. Do you have any 
sense about how, when you go back to do some of these must-do, 
must-pay projects what it will cost? In other words, won't it 
increase the cost?
    Mr. Lynn. It will certainly increase the cost, but I can't 
give you a precise figure. I don't know, Bob, whether you----
    Mr. Hale. Well, I can't give you a figure, either, but I 
know it will. I mean, it will do so in a variety of ways. We 
will have a contracting workforce that is essentially treading 
water to some extent right now. At least for some of these 
projects, they can't move forward.
    If, in April--and I hope it is before then, that we get a 
bill, they will have to catch up from the last 6 months and do 
the next 6 months of work. And it just inevitably means they 
will have less time to do good market surveys to find the best 
prices. And again, I can't give you a precise number, but it 
will be expensive.

                          REPROGRAMMING ISSUE

    Let me address the reprogramming issue. In the unfortunate 
event--I would call it tragic event--that we find ourselves 
under a year-long continuing resolution, we will have to 
reprogram extensively. I can't give you a precise number, but 
it would start with that $2.5 billion in personnel and the $1 
billion, $1.3 billion that we need in the healthcare program. 
And there will be many others.
    And we will need the help of the subcommittee at that point 
and all of the Congress in a couple of respects. First, there 
are some who believe we don't have the authority to reprogram 
in the absence of a budget. But we can't meet our national 
security needs without reprogramming if we did end up under a 
continuing resolution.
    And second, we will need help with agreement on sources, 
which is always very difficult. We will have to look to some 
probably acquisition programs and terminate them, or at least 
cut back significantly on them. And that is always very painful 
because we are affecting jobs and commitments that were made by 
the Congress, but we won't have a choice.
    So if we do end up under a year-long continuing resolution, 
we really will need the help of the committee and the Congress 
in order to make this work.
    Senator Mikulski. Thank you. Thank you.
    Chairman Inouye. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.

                  IMPACT ON PRIVATE SECTOR EMPLOYMENT

    Secretary Lynn, Mr. Hale, I want to follow up on some of 
the issues that my colleague from Maryland has just raised with 
you. The military leaders and Secretary Gates have talked a lot 
about the extraordinarily adverse impact on the military 
itself. But there is also a very negative impact on the private 
sector.
    New starts won't occur. The new destroyer contract, the new 
submarine contract will not be signed. There is an impact on 
defense contractors and the thousands of people that they 
employ as well.
    We are at a time in our economy where we are very concerned 
that unemployment remains so high. Has the Department done any 
estimate of what the impact would be on private sector 
employment in terms of jobs lost if the Pentagon continues to 
operate under a continuing resolution? I know I saw a statistic 
that the Navy put together that indicated that thousands of 
jobs would be in jeopardy. Do you have an overall estimate?
    Mr. Lynn. We don't. I think the only thing that you could 
do to produce that kind of estimate is that if we requested 
$549 billion under the a year-long continuing resolution, that 
would go to something probably $23 billion lower than that. 
That has employment impacts.
    You could try and translate that number into employment 
impacts. We have not tried to do that, but clearly, you are 
right. You know, the economy is in something of a fragile 
state. The defense budget represents 3 percent or 4 percent of 
that economy, and so it would have an impact if we go to a 
year-long continuing resolution.

                              PAYING MORE

    Senator Collins. I also believe that another negative 
consequence is that the Pentagon would end up paying more for 
certain goods, services, and weapons than it would if we were 
funding you at an appropriate level. As we know from our 
experience in shipbuilding, if you don't have a sustainable 
procurement rate, you end up paying more per ship than if the 
contractors can plan the workload in an orderly way.
    Is it a concern of yours that we may end up having to spend 
more money if you do not receive the funding that you have 
requested in a timely way?
    Mr. Lynn. I think, Senator, you are absolutely right. I 
think there is no question that we will spend more money for 
the same goods if we don't receive the money in a timely way.
    Indeed, it goes in exactly the opposite direction of the 
efficiencies initiative that Secretary Gates is moving forward 
on, which is to try and get the same things for less money. 
This undercuts that greatly. And the instability that it 
creates and the friction that it creates costs the taxpayers 
real dollars.
    Mr. Hale. I think it has probably already happened, Senator 
Collins.
    Senator Collins. I think so, too.
    Mr. Hale. The GFE delay and the DDG-51, I think that will 
add to costs, not being able to award that second Virginia-
class submarine. The Army just issued a stop-work order on the 
Striker Mobile Gun System.
    These are costly actions that we will want to reverse. But 
we won't do it at the same price.
    Senator Collins. Mr. Hale, let me now switch to a provision 
in the President's budget request. The Department of Defense 
offers a managed care option that is known as the Uniformed 
Services Family Health Plan, through six specific healthcare 
providers in six geographic regions. I know that Johns Hopkins 
is one for Maryland. Martin's Point is one based in Portland, 
Maine.

                 UNIFORMED SERVICES FAMILY HEALTH PLAN

    And these have been very successful managed care providers 
that have helped to deliver, in my view, higher quality care at 
an effective price. Yet the Department's budget would preclude 
enrollment in the Uniformed Services Family Healthcare Plans 
for beneficiaries that reach 65 years of age and instead would 
ship them to Medicare.
    Now this sounds to me like an example of DOD just shifting 
costs to another agency. So we are going to end up paying in 
any event. But I would appreciate assurances from you that the 
Department is committed to working with these six managed care 
healthcare providers.
    First of all, it is my understanding that no current 
enrollee in the plan would be affected. Is that accurate?
    Mr. Hale. That is accurate. And moreover, they could 
continue to receive their care at the hospitals, and they would 
still be under TRICARE for life.
    But the major change that would occur is that they would be 
under Medicare, like all of our retirees are. They would need 
to pay Part B of the Medicare premiums, like all of our 
retirees. And the hospitals would be compensated, or payments 
would be made for claims, at the same level as for all of our 
hospitals, namely, at the Medicare rates.
    But we are committed to avoiding adverse effects on 
hospital care. And if those appear likely, we will work with 
the hospitals in terms of a phase-in plan.
    Senator Collins. And it is broader than hospital care, I 
might add. And I would really encourage you to take a look at 
the managed care that is being done by these organizations 
because I think you will find that the recipients are extremely 
satisfied.
    I have looked at the satisfaction rates. They are extremely 
high. And that particularly in the management of chronic 
diseases----
    Senator Mikulski. That is exactly right.
    Senator Collins [continuing]. Like diabetes, congestive 
heart failure, that they are able to actually hold down costs 
and deliver better care. So I look forward to working with my 
colleague from Maryland, since I know her State has the same 
program.
    Senator Mikulski. Mr. Chairman, I just would like to 
associate myself with the remarks from the Senator from Maine. 
We have, in these six managed care institutions, really iconic, 
world-class, internationally branded institutions taking care 
of our military and having spectacular results not only in 
treating acute care, but in managing chronic illness, which are 
lessons learned.
    So it is not--really, we want you to work with them not 
only if they are in trouble, but we want you to work with them. 
And I look forward to working with Senator Collins. Perhaps we 
could have a meeting with the leadership to see where we are 
going with this. We understand the fiscal reality, but they are 
really doing breakthrough stuff that are lessons learned even 
for the rest of the military and the VA.
    So thank you very much for raising it, Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Hale. It is definitely not our goal to adversely affect 
the quality of care. But we would like to pay claims on a 
consistent basis across the Department.
    Chairman Inouye. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Gentlemen, welcome.
    I recognize that today's hearing is on the impacts of a 
long-term continuing resolution, and I have been following 
closely the questions and the answers that have been provided. 
I think we all share those same concerns about the impact to 
the men and women who serve us and the level of care, whether 
it is while they are serving or whether they are home. And I 
appreciate your responses here today.

                             ENERGY ISSUES

    I will have to admit, I have been a little bit single-
focused this past week up in the State, focusing on energy 
issues. Mr. Chairman, you asked the Deputy Secretary if he is 
concerned about Tunisia, Egypt, Libya--I think we all are--and 
the implications of what is happening in the Middle East.
    We are seeing an increase in the price of oil, over $100 a 
barrel. We are seeing that translate at the local level, at the 
price at the pump. It is certainly getting the attention of 
folks.
    And in my State, where we have been providing a level of 
domestic supply of oil for the past 30-some odd years, at one 
point in time 20 percent of our domestic supply, we are now 
looking at a situation where, with lower throughput coming down 
through the line, that oil pipeline could actually be 
decommissioned because our throughput is so low.
    Which puts us in a situation, as a Nation, we are still 
reliant. Last time I checked, you still needed that product to 
get the planes in the air, to get the tanks moving, to move the 
trucks. And we know that within Department of Defense, one of 
the biggest consumers of energy is the Department.
    What we do to ensure, from a national security perspective, 
our opportunities as a Nation--and again, from a security 
angle--is critically import. I would like just a general sense 
from you, Mr. Secretary, in terms of the direction that we are 
going as a Nation in becoming more increasingly reliant on 
foreign sources of oil, while at the same time, we see the 
Middle East in a state of--it is beyond a state of unrest at 
this point in time.
    We can't predict which nation is going to be on the front 
page of the news next week, in terms of who is going to be 
overthrown. Can you give me just a sense from the Department of 
Defense's perspective, in terms of our national security 
implications with what is going on in the Middle East and what 
is happening domestically with our available supplies of oil?
    Mr. Lynn. As you indicated, Senator, the Department is one 
of the or perhaps the largest consumer of fuel. So we are very 
concerned both about the price in the short term. The price is 
now over $100 a barrel. And we have concerns about what that 
means for our working capital funds.
    In some of the marks, we think, that were originally placed 
in indicated that we would have lower fuel prices and could 
reduce working capital funds. We think that is not going to 
come through in current circumstances. So we want to ensure 
that as we move to enact a fiscal 2011 bill, we take account of 
those short-term fuel increases.
    Over the longer term, I think the instability in the Middle 
East just reinforces the direction the Department is already 
trying to move, which is to develop much greater and much 
broader approaches to fuel efficiency, to use the fuel that we 
have much more effectively, to develop more fuel-efficient 
vehicles, to develop more fuel-efficient practices in our bases 
so that we are able to deal with these kinds of instabilities 
by reducing the reliance that we have on that source of fuel.

                           ALTERNATIVE FUELS

    Senator Murkowski. One of the things that, of course, has 
been looked at with great scrutiny is the possibility of the 
synfuels, whether it is using natural gas or whether it is 
coal, using the Fischer-Tropsch process. What is the commitment 
from Department of Defense to go in this direction, to using 
these alternative fuels?
    Mr. Lynn. We have a very broad-gauged effort that includes 
synthetic fuels. It includes fuel cells. It includes trying to 
save on fuel. So we are trying to pursue an across-the-board 
approach and not rely on just a single avenue to address this 
issue.
    Senator Murkowski. We are looking at some proposals up 
north that I would like to be able to speak with some in the 
Department about in terms of opportunities to advance these 
synfuels and how we can really reduce that reliance on oil. So 
I look forward to working with you on that.
    Mr. Lynn. If you have something specific, Senator, I would 
be happy to take a look at that and get back to you.

                             ARCTIC POLICY

    Senator Murkowski. Yes. It is a little bit of a detour from 
the long-term continuing resolution. But last week, there was 
an article that was written. It came out of the Heritage 
Foundation. And the comment from the individual was it is time 
for the United States to jumpstart an Arctic policy that is as 
cold as a dead car battery.
    Well, coming from the Arctic and recognizing that the 
United States is an Arctic nation, that is somewhat disturbing 
to hear the policy described that way. I have been working with 
Secretary Clinton from the time that she was still here in the 
Senate, to her work now as Secretary of State, trying to do 
what we can to advance that Arctic policy.
    But again, from a national security perspective, do you 
think that, in fact, we do have a policy that is as dead as a 
car battery? And if so, how do we jumpstart that at a time when 
we are clearly concerned about budget implications?
    We are trying to get an icebreaker online. We have one 
functioning icebreaker in this country right now. China beats 
us considerably. What are your thoughts, very quickly, on where 
we are with the Arctic policy?
    Mr. Lynn. Well, I wouldn't say that we couldn't make 
improvements in our Arctic policy. I think that description is 
probably overblown.
    We have been working with the Canadians on Arctic policies 
and frankly, I think where you are going with the implications 
of global warming and the gradual opening of the Arctic, it has 
been part of, as NATO starts to reshape itself to focus on the 
new world, Arctic policy is an important piece of that. There 
are several Arctic nations involved, and they are very focused. 
And we have been working with them.
    I think we need to go further and shape those policies, but 
it is certainly a concern. And as I think you rightly 
indicated, Secretary Clinton and the State Department are 
certainly taking a lead internationally in developing the U.S. 
position on Arctic policy.
    Senator Murkowski. Thank you, Mr. Chairman.
    Chairman Inouye. Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Thank you, gentlemen.
    Just a point of clarification, Secretary Lynn. In your 
testimony, you essentially say that the overseas contingency 
operations funding is adequate, but it has to be reprogrammed 
to the tune of about $13 billion. And you would need authority 
to do that from us?
    Mr. Lynn. Yes.
    Senator Reed. And those are ongoing operations--Iraq and 
Afghanistan?
    Mr. Lynn. Yes, sir.

                 OVERSEAS CONTINGENCY OPERATIONS BUDGET

    Senator Reed. A related question. Mr. Hale was at the Armed 
Services Committee hearing with Secretary Gates and Admiral 
Mullen, where they talked very passionately about the overseas 
contingency operations budget for the State Department.
    Now if that is a casualty of this long-term continuing 
resolution, does that put pressure on you within your OCO funds 
to sort of compensate for the failure in transition? Or is 
there no coordination, or is it going to be just, sorry, you 
know, you are on your own? We get our funding, and we are 
headed out of town in Iraq, and we are doing what we should do 
in Afghanistan.
    Mr. Lynn. No, I don't think we can afford to take that 
attitude, Senator. This is an important partnership we have 
with State, in particular in the areas that you mentioned. We 
are at a critical juncture in Iraq, where we are handing over 
many of the functions that we have carried out for several 
years, such as police training.
    We are transitioning those to the State Department. If the 
State Department doesn't get adequate funding for things like 
police training, I think we risk losing the gains that we have 
made in Iraq at great sacrifice of not only dollars, but of 
lives.
    So I think it is critical that not only Congress address 
the defense needs, but address the State Department needs as 
well.
    Mr. Hale. If I could add to that briefly?
    Senator Reed. Yes, Mr. Hale.

                               COST-SHARE

    Mr. Hale. And that is in many cases, we don't have 
authority to help the State Department. And if I can take an 
opportunity to ask the committee's help on one specific 
instance, there is a group called the Officers Security 
Cooperation in Iraq, which overseas foreign military sales. We 
are trying to cost-share with the State Department as we move 
toward setting up that office and try to support the Iraqi 
military.
    And we need legislative authority to do that cost-sharing. 
We have been working with your staff to provide that. And I am 
hopeful that that might find its way onto an appropriations 
bill that I know you are going to pass soon for the Department 
of Defense.
    So if there is anything we can do to be helpful, we would 
like to. But there are authority issues in terms of our 
cooperation.
    Senator Reed. Clearly, under the agreements entered into in 
the Bush administration, our military presence is ending in 
Iraq in the end of this year. And we are on track to do that. I 
was there about 1 month ago.
    The problem I think is, is what you suggested, that on the 
ground, you are going to be faced with some ingenious ways to--
if we don't fully fund your accounts and give you the authority 
to move money around within DOD accounts, if we don't fund 
State, et cetera, you are going to have to figure out how we 
can keep the lights on literally and keep this effort going 
forward, which is going to be more expensive in the long run 
and less effective than passing the legislation, the 
appropriate appropriations.
    Is that a fair sort of judgment or estimate?
    Mr. Lynn. I think that is an entirely fair judgment, 
indeed. What we are trying to do--the transition we are trying 
to make between defense and State has not, at least at this 
scale, been done before. So it is going to be extraordinarily 
difficult in normal times to try and I think make this 
transition.
    And as you said, you were just there. I think the forces on 
the ground are working very closely with the Embassy. I think 
they have a terrific plan. I think that they understand the 
challenges, and they are working through those. But if they are 
forced to try and do it without adequate resources, I think you 
are really, really undercutting the likelihood that we will 
have success.
    Senator Reed. Let me just follow up with one final area. 
And that is we have just focused briefly on the overseas 
contingency operations fund. But you have got, as you have 
suggested before in your comments, a number, perhaps hundreds 
of different specific changes in reprogramming and issues, as 
Mr. Hale suggested, in terms of setting up this new office in 
Iraq.
    So, effectively, without a real bill, if we are just going 
with a year-long continuing resolution, this continuing 
resolution is going to be full of essentially what looks like, 
in some cases, a normal appropriations/authorization bill, full 
of different twists and turns, some of them coordinated, some 
of them just what you could get in the list, luckily enough, 
and some things falling by the wayside.
    That just doesn't strike me as a very efficient way to 
appropriate money, and particularly in the context of the 
Department of Defense.
    Mr. Lynn. No, I think it would be very strongly negative. 
As I said at the outset, if we had a year-long continuing 
resolution, we would not have enough money, we think, to meet 
the national security needs. The money that we do have wouldn't 
be in the right places. So we would have to move enormous 
amounts of money around, which is a very difficult process and 
causes great inefficiency.
    And then, finally, we wouldn't have the management 
authority that we would need to do new starts, to increase 
production, to do new military construction projects. So on all 
three of those grounds--it isn't just money. It is management 
and having the money in the right places.
    Mr. Hale. Did you see the movie ``Groundhog Day,'' Senator? 
I mean, that is what we are talking about here, the ``Groundhog 
Day'' of budgeting.
    Senator Reed. I am a big Bill Murray fan. And that was one 
of the great films.

                      CONTRACT OVERSIGHT AND AUDIT

    This follows, too, in terms of the context of managing, and 
the comment is that one of the problems we have, frankly, is 
contract oversight and audit. It is ubiquitous, but it is 
particularly ubiquitous when it is not clear what the contract 
is, who is in charge.
    It is just an opportunity really for, in some cases, not 
just inefficiency, but criminality. And I would assume that you 
are having problems developing good audit trails, good 
oversight, good contract enforcement if you are not quite clear 
what the contract is or whatever it is a short-term contract or 
it is something you are writing sort of just to get through the 
day.
    Is that fair? Or can you comment on the scope of this audit 
issue and contract supervision issue?
    Mr. Hale. Well, in terms of the audit, let me talk first 
about contract audits, which I think is what you were focusing 
on. We will certainly make every attempt, whether it is a 
continuing resolution or not, to maintain verifiable contracts. 
We will go ahead with the audit process.
    I hope it wouldn't be seriously adversely affected, 
although, frankly, the continuing resolution has caused us to 
slow hiring at the Defense Contract Audit Agency, which we are 
trying to grow modestly in size. And we have had to actually 
stop the increase in hiring for the moment there to preserve 
our funding flexibility.
    I am not sure whether you were asking the broader audit 
question, audit ability in the Department. Was that something 
of interest?
    Senator Reed. No, it just, strikes me that we have 
recognized over the last several years, particularly in these 
contingency operations, where there is a significant amount of 
money flowing into areas where there is not good tried and true 
practice locally.
    And yet, through principally, I have to say, Senator McCain 
and Senator Levin, their acquisition reforms, we started on a 
path of better oversight. That is going to be disrupted, as you 
suggest.
    Mr. Hale. I think that is fair. I mean, this will cause 
inefficient practices. It will leave our contracting officers 
with less time to do a good job. I can't see anything good 
coming out of that in terms of acquisition reform.
    Senator Reed. Secretary Lynn, any comment?
    Mr. Lynn. No, I just add to what Bob said by saying, we 
have tried to, in preparing for today's testimony, to identify 
the impacts that we can see and project. In many ways, since we 
have never had a year-long continuing resolution for DOD and 
certainly never had one during a war, it is, in many ways, the 
effects that we can't see that I am, in many ways, more worried 
about.
    And I think the kind of audits concerns and unintended 
consequences that you are talking about may well be the worst 
effects, rather than the ones that we have already described.
    Senator Reed. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman.

                        RESEARCH AND DEVELOPMENT

    I would like to ask about research and development. There 
is I think I see about a $75 billion figure for R&D in the 
continuing resolution. Tell me a little bit about how research 
and development is affected by the continuing resolution. And I 
am especially interested in what is going on these days in 
Defense Advanced Research Projects Agency (DARPA), which is a 
small amount of money, and wondering what you can tell me about 
that.
    Over time, Defense Department R&D has been a big part of 
our country's sponsored research and development. And out of 
that has come a lot of remarkable inventions that affect our 
standard of living, like the Internet and other things.
    So what can you tell me about the effect of the continuing 
resolution on R&D generally? And what can you tell me about the 
condition of DARPA, especially as it might be exploring new 
ways to produce energy that might be useful to the military 
first and to the country second?
    Mr. Lynn. Senator, I think you could broadly say there 
would be three impacts on the research and development 
accounts. One is that the resources wouldn't be able to 
increase as they are projected to do. You would stay at the 
fiscal 2010 level.
    Second, you probably would not be able to keep all of those 
resources, even at that level, in the R&D account because, as 
in the discussion we talked about earlier, there would be must-
pay bills in the medical area and the personnel area. 
Undoubtedly, we would have to reach into some of the R&D 
accounts and pull resources from there, move them to medical 
and personnel accounts, in order to pay those bills that are 
the obligation of the department to pay.
    And then, finally, under a year-long continuing resolution, 
we wouldn't be able to any new starts. So any further ideas--
you mentioned DARPA. When DARPA has a new idea on energy, they 
would have to wait until they had a full appropriations bill 
before they could act on that request. And what happens to the 
research in that interim period is anybody's guess.
    Senator Alexander. What is the condition of DARPA these 
days? Is it healthy and functioning and innovating, as it did 
before?
    Mr. Lynn. They are. We have a terrific director in Regina 
Dugan, who had enormous amount of energy and is building on the 
success of the past and taking DARPA into new areas. In 
particular, in the fiscal 2012 request, we have moved about 
$500 million more into DARPA over a 5-year period to do 
research on cybersecurity.
    DARPA has--as you indicated, they were part of the origin 
of the Internet, and they have enormous expertise in 
information technology. And we want to build on that and try 
and get to the next level using DARPA's great resources.
    Senator Alexander. Recently, the Congress decided, through 
the America Competes Act, to try to emulate DARPA at the Energy 
Department with something called ARPA-E. And it is off to a 
good beginning.
    I think that--just as one voice, I think as we deal with 
this very tough challenge we are faced with, a Government that 
is spending $3.7 trillion and collecting $2.2 trillion, I want 
to make sure that we are smart and not cheap, and that we 
remember that it is out of our research and development in 
defense and in the universities, the laboratories, and these 
small agencies like DARPA and ARPA, which spend relatively very 
small amounts of money, out of which have come the ideas that 
have been a big part of our ability as a country to produce 
about 25 percent of all the money in the world each year.
    So as we wade through this unpleasant task over the next 
year or two, I am going to be one voice that keeps trying to 
put the spotlight on the importance of research and development 
and making it easier, not harder, to fund that as a priority 
within a reduced level of spending.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you very much.
    I listened to the questions of Senator Mikulski and Senator 
Collins and Senator Alexander. And it just reminded me of the 
numbers of letters I receive on the same theme.
    Why are medical costs so expensive in the military, much 
more than nonmilitary sector of our country? I would like to 
point out that in World War II, most of the men and women in 
uniform were single. Today, most of the men and women are 
married and have dependents.
    Secondly, I would like to point out that it took 9 hours to 
evacuate me from the battlefield to the field hospital. Today, 
if I were injured in Afghanistan, I would be in a hospital 
within an hour.
    Third, the technology research that we have been doing is 
so successful that the survival rates have just increased 
tenfold. This is hard to believe, but in the regiment which I 
served with, with all the casualties, not a single double 
amputee survived. Today, double amputees are commonplace 
because of the speed of rescuing and the medical practices.
    However, we have one other problem that we did not see in 
World War II. Today, we have instant communication. Wives talk 
to their husbands on a daily basis by cell phone. Then in the 
evening, they watch CNN and see their husbands in action. And 
to top it off, they come home, and after 6 months go back 
again. I can't imagine what the stress is like.
    So I hope that the people of the United States would keep 
in mind that the sacrifices being made by men and women in 
uniform are intense, and they have consequences that we may not 
know about. I am always grateful to them for what they have 
done and what they are doing.
    So, with that, do you have any other questions?
    If not, thank you, Mr. Secretary, Under Secretary Hale, for 
your testimony. I will assure you that we look forward to 
continue working with you, especially on matters involving the 
continuing resolution.

                     ADDITIONAL COMMITTEE QUESTIONS

    It is my hope, however, that we can complete our work on 
this fiscal year 2011 defense appropriations bill and turn our 
attention to the fiscal year 2012.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted to Hon. William J. Lynn III
               Questions Submitted by Senator Tom Harkin
    Question. As I understand it, the Department of Defense (the 
``Department'') intends to reduce its overhead costs by $54 billion 
over the next 5 years. The bulk of that reduction will come from a 
freeze of civilian employee pay and the size of the workforce. Are 
concurrent reductions being required of the service contractor 
workforce? If not, will such a one-sided approach just increase 
reliance on service contractors regardless of cost, given that the 
workforce freeze will make it very difficult to use civilian employees, 
even when it would be less costly or is required by law?
    Answer. The Secretary directed reductions to all overhead, 
including both planned growth in the civilian workforce and current 
levels of contract support. In particular, the Department will reduce 
service support contract levels, focusing on those contracts designed 
to augment the civilian workforce.
    The Department will strive to find the appropriate balance between 
civilian employees and contract staff, working to ensure that 
appropriate controls remain in place and that civilians remain 
responsible for the work best suited for Government employees.
    Question. I am interested in getting a better sense of how the 
Department reviewed its service contracts as part of the Efficiency 
Initiative. As I understand it, the Department limited its review to 
support service contracts. However, support service contracts are a 
relatively small portion of all service contracts. Given the 
Department's concern about the growth of contractor costs generally, 
can you explain why the review was so limited? How will the cuts in 
support service contracts be enforced? How will growth in non-support 
service contracts be constrained?
    Answer. The Department explicitly focused on service support 
contractors given the continued cost growth in this area over the past 
few years. These contracts, particularly those providing administrative 
and staff support, are lower priority and do not represent best value 
or practice for the Department.
    The President's fiscal year 2012 budget represents efficiencies in 
other areas as well, impacting a broad range of contract types. So 
while service support contracts received significant attention, the 
Secretary remains committed to broadening the scope of the initiative. 
Rather than a one-time reduction, these decisions as well as the 
ongoing work represent an effort to inculcate a ``culture of savings'' 
within the Department at all levels.
    In keeping with this approach, the Department will closely monitor 
the execution of the service support contract efforts in the future, 
through the established budget formulation and execution processes. The 
Secretary expects full adherence to the execution goals laid forth in 
the budget submission.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                           operations in iraq
    In accordance with a Status of Forces Agreement, by the end of 
calendar year 2011, all US military servicemembers will leave Iraq. A 
small cadre will remain, working in the Office of Security 
Cooperation--Iraq in order to facilitate foreign military sales and to 
provide training assistance to the Iraqi military. Many of the missions 
the military are currently leading will transition to the Department of 
State. I am specifically interested in the training of Iraqi police and 
the important work being done by the Provincial Reconstruction Teams. 
In multiple statements this year, both Secretary of Defense Gates and 
Chairman of the Joint Chiefs of Staff Admiral Mullen have reiterated 
the importance of funding the Department of State's transition 
activities in Iraq ahead of their assuming those missions. This was 
also addressed in the January 30, 2011 Special Inspector General for 
Iraq Reconstruction report.
    Question. Secretary Lynn, what would be the consequences if the 
Department of State is unable to assume those missions effectively?
    Answer. The United States' continued engagement in Iraq remains 
vital. We are now at the point where the strategic dividends of our 
sacrifice are within reach as long as we take the proper steps to 
consolidate them. A long-term strategic partnership with Iraq, based on 
mutual interests and mutual respect, presents many advantages for the 
United States. Recent turmoil in the Middle East highlights the 
importance of active U.S. engagement and building and maintaining 
relations with our key regional partners. U.S. support in recent years 
has proven critical to the emergence of a sovereign, stable, and self-
reliant Iraq that is a long-term strategic partner of the United 
States. We must stay focused on Iraq in order to advance our broader 
regional objectives of peace, prosperity, and security.
    Reduced funding for the State Department's Iraq program would 
severely affect our ability to meet national objectives in Iraq. As 
Secretary Gates has stated, these cuts threaten the enormous national 
investment and sacrifices the United States has made in Iraq. Fully 
resourcing the State Department mission to its completion is vital to 
ensuring that investment produces enduring results. We are 10 yards 
from the goal line and need one final push. A sovereign, stable, self-
reliant Iraq that is a partner with the U.S. and a force for stability 
in a strategically critical region is within reach.
    Question. If the Department of State is unable to successfully 
assume those missions in 2012 and a new agreement can be reached with 
the Government of Iraq, is the military prepared to stay longer?
    Answer. We should not engage in speculation. The Government of Iraq 
has not asked for a new agreement for U.S. forces to remain after 
December 31, 2011. In compliance with the U.S.-Iraq Security Agreement 
and consistent with Presidential direction articulated on February 27, 
2009, the United States is committed to completing the drawdown of U.S. 
forces from Iraq by the end of 2011.
    All departments and agencies of the U.S. Government have undertaken 
unprecedented levels of coordination and planning for the transition in 
Iraq to ensure that the Department of State is able to assume lead for 
the U.S. mission in Iraq successfully in 2012. As one would expect with 
a transition of this scope and complexity, challenges exist. DOD is 
working very closely with the State Department to ensure their success.
                    overseas contingency operations
    I am concerned that a year-long continuing resolution at 2010 
levels might jeopardize the operational readiness of our military and 
their ability to successfully conduct the missions we have asked them 
to do. In your statement, you said that a year-long continuing 
resolution at 2010 levels would require the services to defer equipment 
maintenance.
    Question. Secretary Lynn, how would this affect operations in Iraq 
and Afghanistan? I am not only concerned about the military currently 
operating in Afghanistan and Iraq, but units training for future 
deployments to those operations.
    Answer. Contingency Operations in Iraq and Afghanistan will be our 
highest priority and will be fully funded. Forward deployed forces and 
next to deploy forces are receiving, and will continue to receive, the 
gear and equipment needed to sustain current in theatre operations. 
Training for all other forces, and maintenance of equipment and weapons 
systems not assigned to next deploying forces would be reduced.
    Specific impacts on readiness include reductions in Army Depot 
Maintenance and High Mobility Multipurpose Wheeled Vechicle 
Recapitalization programs. The Navy will cancel ship maintenance, 
cancel participation in four Global Employment Force planned 
deployments, and reduce noncontingency flying hours and steaming days. 
The Air Force will defer depot maintenance and reduce weapon system 
sustainment. The USSOCOM has already delayed the implementation of the 
congressionally approved Underwater Systems Acquisition Strategy, and 
delayed other actions resulting in negative impacts to USSOCOMs ability 
to sustain flight testing, test support and analysis timelines for the 
MH-60 platform.
    Many of the Defense Agencies and Defense-wide Activities are 
restricting the hiring of civilians to fill only the most critical 
positions which slow the accomplishment of key areas such as contract 
management audits (DCAA and DCMA) and joint operational contract 
support planners to the Combatant Commands (DLA). While operations in 
Iraq and Afghanistan will be fully funded, operating under a year-long 
continuing resolution will negatively impact readiness during fiscal 
year 2011 and into fiscal year 2012.
                          defense procurement
    Department of Defense leaders have been clear that a year-long CR 
including defense will have disruptive impacts on every aspect of our 
national security infrastructure including our military personnel and 
both public and private sectors. One specific example is the inability 
under a continued CR to execute shipbuilding contracts for a number of 
fiscal year 2011 Navy and Marine Corps programs including the Mobile 
Landing Platform (MLP). The MLP shipbuilder in San Diego, our last 
full-service Navy shipbuilder on the West Coast, recently had to notify 
employees that it may have to lay-off up to 1,500 workers soon unless 
the Navy is able to execute the construction contract for the first-of-
three MLP ships. This program received initial funding in fiscal year 
2010 for design and long-lead material procurement. Failure to execute 
the MLP shipbuilding contract very soon will not only impact the 
shipyard and her employees but also the ultimate costs of acquiring 
this military capability.
    Question. Secretary Lynn, would you please comment on the impact 
the current CR has already had and what impact a year-long CR would 
likely have on the Navy's ability to execute the MLP and other major 
ship construction contracts in a timely and cost-efficient manner?
    Answer. In terms of major ship construction contracts, to date, the 
Department has not been able to award a second Virginia-class SSN as 
planned in January. Under a year-long CR, without authority to increase 
production levels, the Department would not be able to go from one to 
two DDG-51s and Virginia-class SSNs; without the authority for new 
starts, the Department would not be able to procure the Mobile Landing 
Platform, the LHA(R) and the Oceanographic Ship. Additionally, Carrier 
construction and refueling overhauls will face schedule and cost 
disruption because we will be constrained at fiscal year 2010 levels 
for CVN 79 ($425 million less than planned fiscal year 2011 funding) 
and Refueling Overhaul for USS Abraham Lincoln ($197 million less than 
planned fiscal year 2011 funding). The impact on CVN 79 will result in 
insufficient funding to accomplish planned work, affecting 
approximately 600 contractor employees. The impact on the Lincoln 
overhaul will delay the start of the RCOH and follow on RCOHs. All of 
these actions would disrupt workload across the shipbuilding industrial 
base, increase costs, and delay providing operational capabilities to 
the fleet.
    Question. Is it fair to assume that a year-long CR will add 
hundreds of millions if not billions cumulatively to the cost of 
procuring required defense systems including ships?
    Answer. Yes. It is fair to assume that a year-long CR will add 
hundreds of millions if not billions cumulatively to the cost of 
procuring required defense systems. In fact, a year-long CR will add 
approximately $15 billion in deferred requirements to the Future Years 
Defense Program, given the fiscal year 2010 enacted baseline 
restriction and the inability to reprogram funds to higher strategic 
priorities.
                           military equipment
    The January test flight of the Chinese J-20 stealth aircraft 
reiterated the need for our military forces to have the most capable 
equipment we can provide them. In the fiscal year 2012 budget, only 32 
F-35 Joint Strike Fighters are being procured. The shortfall in 
aircraft is being made up with F/A-18's and F-16's. The F-22 stealth 
program has been cancelled.
    Question. Secretary Lynn, will this aircraft mix provide our 
military with the necessary capabilities to counter threats like the J-
20 in the future?
    Answer. When the J-20 is just reaching its initial operating 
capability at the end of this decade, the U.S. will have procured 187 
F-22 Raptors and about 800 F-35 Joint Strike Fighters. The aero 
performance, stealth, and sensing of the F-22, combined with the sensor 
fusion, stealth, electronic warfare, and munitions capabilities of the 
F-35, will ensure our air supremacy for years to come.
    Question. How much funding is being dedicated to research and 
development of technologies aimed at countering emerging threat 
capabilities? How would a year-long continuing resolution affect that 
research and development?
    Answer. The Department does not have a precise definition of 
emerging threats for the purpose of identifying specific funds 
supporting emerging threat capabilities. However, within the 
Department, we have a Rapid Fielding office within Assistant Secretary 
of Defense (Research and Engineering) organization responsible for 
initiating programs countering new threats quickly.
    The impact would be severe because emerging threats require new 
starts; since new starts are not allowed, a one year CR means we lose 
12 months in a dynamic technology world. Without funding for new 
projects in fiscal year 2011, the Quick Reaction Special Projects and 
the Joint Capability Demonstration Programs will be unable to start 
more than 77 new projects totaling $71 million from their planned 
fiscal year 2011 funding. The delay in receipt of a fiscal year 2011 
appropriation is limiting opportunities to develop: unmanned systems 
command and control and unmanned resupply helicopters; protection from 
cyber attacks; automated processing and rapid distribution of very high 
volume wide area surveillance data; improved information operations; 
open source data exploitation; expanded red teaming; maritime security; 
surveillance capabilities that would afford our forces the ability to 
operate within the enemy's cycle of adaptation; increased force 
protection and situational awareness; and enhancing our understanding 
of networks that can threaten our security before they strike.
    Question. How would a year-long continuing resolution at fiscal 
year 2010 levels affect the procurement of these advanced aircraft?
    Answer. A year-long Continuing Resolution (CR) at fiscal year 2010 
levels would have a significant impact on F-35 procurement. The fiscal 
year 2011 President's budget requested procurement for 42 total 
aircraft as follows: 22 Conventional Take-Off and Landing (CTOL); 13 
Short Take-Off and Vertical Landing (STOVL); and 7 Carrier Variant 
(CV). However, because of production rate caps imposed by a CR, the 
Department would be limited to the fiscal year 2010 procurement rates, 
30 in total. This would limit the procurement of CTOL aircraft to no 
more than 10, and CV aircraft would be capped at 4, rather than the 7 
requested in the budget. The CR would not affect the procurement of 
STOVL aircraft because the Department seeks to buy fewer in fiscal year 
2011 (3) than the fiscal year 2010 procurement quantity (16).
    H.R. 1473, the Department of Defense and Full-Year Continuing 
Appropriations Act, 2011, was signed into law on April 15, 2011. H.R. 
1473 provides appropriations for up to 35 total F-35 aircraft. The 
Department is reviewing the adequacy of appropriated funding to 
determine the final quantity.
                     defense department budget cuts
    As a member of the Department of Defense Appropriations 
Subcommittee and Chairman of the Select Committee on Intelligence, I 
strongly believe that our first responsibility is to the safety and 
security of the United States and its citizens. While the Defense 
Department has and will be subject to some budget reductions, many 
other Government agencies, also involved in national security 
activities, have had their budgets deeply cut. I believe that we can 
make targeted, prudent reductions to the Defense portion of a 
continuing resolution that would provide billions in additional funds 
for the non-defense discretionary accounts with national security 
interests.
    Question. Secretary Lynn, please identify some lower priority 
Defense Department programs where that money can be applied to other 
national security activities outside of the Defense Department.
    Answer. The Department just completed a thorough program review 
that identified programs that should be eliminated or reduced in order 
to ensure that the Department can meet current and future operational 
requirements. While we will continue to look for more opportunities to 
improve both efficiency and effectiveness, we cannot recommend 
additional programs for elimination at this time.
    Question. Please identify programs in the Defense Department and 
the military services where activities are redundant and can be 
consolidated to achieve budget savings.
    Answer. The Department just completed a thorough program review 
that included the identification and elimination of redundant and low-
priority activities. While we will continue to look for more 
opportunities to improve both efficiency and effectiveness, we cannot 
recommend additional activities for elimination at this time.
                                 ______
                                 
            Questions Submitted by Senator Barbara Mikulski
    fiscal year 2012 legislative proposal on u.s. family health plan
    The U.S. Family Health Plan (USFHP) designed by Congress in 1996 
provides the full TRICARE Prime benefit for military beneficiaries in 
16 States and the District of Columbia for over 115,000 beneficiaries. 
Beneficiaries are highly satisfied with this healthcare option. In 
fact, the subcommittee understands that in 2010 over 91 percent of 
USFHP beneficiaries were highly satisfied with the care they received, 
making it the highest rated healthcare plan in the military health 
system. The fiscal year 2012 President's budget request includes a 
proposed legislative provision that future enrollees in USFHP would not 
remain in the plan upon reaching age 65.
    Question. Public Law 104-201 Sec. 726(b) mandates the Government 
cannot pay more for the care of a USFHP enrollee than it would if the 
beneficiary were receiving care from other Government programs. Is the 
Department of Defense (DOD) in compliance with this requirement? If you 
are not in compliance with the law or disagree with the above, please 
explain. In that this requirement implies that the offset to the DOD 
budget would be exactly offset by the cost increases to Medicare please 
elaborate in detail how the fiscal year 2012 USFHP legislative proposal 
will result in a net savings to the taxpayer?
    Answer. This proposal has no impact on current USFHP enrollees. The 
proposed change to USFHP would only affect future USFHP enrollees, once 
they attain Medicare eligibility. Upon reaching age 65, those enrolled 
in USFHP could enroll in Medicare Part B and receive the TRICARE for 
Life (TFL) benefit as a supplement to their Medicare coverage. USFHP 
beneficiaries are not required to pay Part B premiums as other 
Medicare-eligible beneficiaries must do to receive a comprehensive 
benefit from DOD. Under current law, these enrollees are allowed to 
remain in USFHP, whether they enroll in Medicare Part B or not.
    The administration estimates the proposal will save the Government 
$279 million over the next decade. Under the proposal, Medicare would 
see an increase in Part B premiums collected. While current law 
precludes DOD from spending more on USFHP than it would cost the 
Government to provide care through TFL and Medicare, the law requires a 
negotiation and mutual agreement between the Secretary of Defense and 
designated providers in determining payments to USFHP. Since the 
inception of this program in 1995, the rates provided to these plans 
have been based primarily on data from the general Medicare population. 
However, since the TFL program began in 2001, the Department has been 
able to gather detailed data specific to the Medicare-eligible TRICARE 
beneficiary population. The savings estimated for the proposal are 
based on the delta between the historically used rates and estimates 
derived from the actual data accumulated for Medicare-eligible TRICARE 
beneficiaries.
    More importantly, this proposal provides equitable treatment for 
all Medicare-eligible retirees by offering a single program design 
across the country. Most retirees do not live in one of the USFHP 
service areas, and their only option for healthcare is Medicare and TFL 
(requiring payment of their Medicare Part B premium).
    Question. Of the total DOD TRICARE population over the age of 65 
years, how many beneficiaries are covered under the USFHP? How many 
beneficiaries over the age of 65 are covered by a combination of 
TRICARE and Medicare Part A and B but not covered by USFHP?
    Answer. There are approximately 37,000 DOD beneficiaries over the 
age of 65 who are covered by the USFHP program. Approximately 1.9 
million DOD beneficiaries over the age of 65, who have both Medicare 
Part A and Part B, are not covered by USFHP.
    Question. The USFHP provides prevention and wellness programs as 
well as effective disease and care management programs designed to care 
for beneficiaries' healthcare needs over their lifespan. Given the 
longitudinal approach of the program in managing the healthcare needs 
of the USFHP beneficiaries, and the Department's interest in the 
medical home model, why would you not consider expanding such 
innovative techniques in healthcare delivery?
    Answer. The Military Health System (MHS) has embraced the Patient-
Centered Medical Home (PCMH) as the key paradigm for the provision of 
primary care services for all of our enrolled beneficiaries. Plans and 
activities are moving forward to implement the PCMH in multiple sectors 
of the MHS, with the target of providing this model of care to all of 
our enrolled beneficiaries over the next few years. Likewise, each of 
the Military Services are moving forward with transforming their 
primary care services to a PCMH model and options are being intensively 
explored for similar efforts in the Purchased Care Sector. In addition, 
the Centers for Medicare & Medicaid Services has launched PCMH 
demonstration projects for Medicare populations in several States. It 
is anticipated that those efforts will be expanded as well and provide 
even broader access to the PCMH for all of the Medicare population 
including Department of Defense beneficiaries enrolled in TFL.
    Question. The proposed legislation, if enacted, would force future 
enrollees to disenroll from this effective and well managed program 
upon reaching age 65. The remaining beneficiaries would be at risk 
because the ability to sustain disease management and prevention 
programs for them, a core aspect of the plan's success, would be 
compromised, effectively removing the option of long term participation 
in clinical programs aimed at actively engaging beneficiaries in 
managing their health. Is this consistent with the DOD's stated 
priorities of population health, improved health management and 
continuity of care?
    Answer. The MHS considers population health, optimal health 
management, and continuity to be high priorities for all of our 
beneficiaries. The TRICARE benefit, including the TFL provision, was 
dynamically designed to enforce those priorities and to optimize care 
and access for Department of Defense beneficiaries throughout their 
life. Beneficiaries who age out of TRICARE Prime will continue their 
relationship with their medical providers and continue disease 
management and prevention programs--hallmarks of quality patient 
management--just as other TRICARE enrollees who age out of Prime. 
Although Medicare becomes the primary payer when our beneficiaries age 
out of Prime, with TFL, our beneficiaries continue to be eligible for 
the much richer TRICARE benefit. TFL has been a valuable addition for 
our beneficiaries over age 65 and has greatly enhanced access and 
continuity beyond the basic Medicare benefit. More importantly, this 
proposal provides equitable treatment for all Medicare-eligible 
retirees by offering a single program design across the country. Most 
retirees do not live in one of the U.S. Family Health Plan service 
areas, and their only option for health care is Medicare and TFL 
(requiring payment of their Medicare Part B premium).
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                         efficiency initiatives
    Question. Secretary Hale, how will the budget documents provided to 
Congress track savings from the Department's ``efficiency initiatives'' 
on a year-to-year basis?
    Answer. The fiscal year 2012 budget included efficiencies that 
contributed to the $78 billion reduction to the Department of Defense 
(DOD) projected budget over the next 5 years; and efficiencies that 
contributed to reinvesting $100 billion in key combat capabilities and 
higher than expected operating costs. The Department is currently 
working on new processes and metrics that will be used to monitor 
progress by Components in meeting these efficiency goals. As part of 
the efficiencies initiative we are specifically monitoring: service 
support contract reductions; report studies, boards and commissions 
reductions; senior leadership positions reductions; and the overall 
freeze in personnel levels. Actual performance will be reviewed by 
Department leadership throughout the year and results will be reflected 
in the prior year data submitted in budget documents.
    Tracking these efficiency savings from year-to-year will be part of 
the dynamic nature of the budget process. The Military Departments, 
Defense Agencies, and the Department are in a continuous process of 
planning and budgeting that reacts to execution realities and 
reprioritizes programs to balance capability with affordability. The 
Service specific efficiencies that contributed to reinvesting in key 
combat capabilities will be monitored and evaluated by the Services as 
they formulate the next year's plan and budget. Adjustments required 
due to execution realities will be reflected as program adjustments in 
the Service budget documents.
                        dod financial statements
    Question. Secretary Hale, the Department is one of the few cabinet 
level agencies not to produce auditable financial statements despite 
many years of investment by the Department. Do you have the necessary 
resources and people in place to meet the Department's goal for 
achieving fully auditable financial statements by September 2017?
    Answer. Yes. Until recently the Army and Air Force had not devoted 
sufficient resources to achieving auditable financial statements. We 
have remedied that and feel that the approximately $200 million to $300 
million we are investing to improve processes and internal controls 
over the next several years is the appropriate amount to achieve 
success. The Department is also investing significant amounts in modern 
systems to support auditability. While these systems have broad 
operational improvement goals they are also working to improve business 
processes in a way to support audited financial statements. The 
Department does not need further resources to achieve auditable 
financial statements at this time.
                             iraq drawdown
    Question. Secretary Lynn, as U.S. efforts in Iraq transition from 
the Department of Defense to the Department of State at the end of 2011 
will the Iraqi Government or contractors be able to provide the 
security, logistics and emergency medical care for Department of State 
personnel? If the Iraqi Government or contractors cannot provide the 
necessary security, logistics and other basic requirements for State 
Department personnel to operate in 2012, will the U.S. military be 
forced to make-up the capability shortfall? Is your Department doing 
any contingency planning for this eventuality?
    Answer. The Iraqi Government is not yet able to provide security, 
logistics, or emergency medical care for Department of State personnel. 
Although the Iraqi Government dedicates a significant portion of 
revenues to security, Iraq is still a post-conflict, developing country 
facing considerable fiscal challenges. The Iraqi Government's fiscal 
management is improving with each passing year, but its available 
fiscal resources are not yet sufficient to meet security requirements. 
Even with increases in oil production, Iraq may not see significant net 
revenue increases for the next 3 to 5 years.
    DOD and the State Department are working together to ensure that 
the State Department can execute the civilian-led mission in Iraq. With 
the exception of medical services, DOD will provide Embassy Baghdad 
basic life support, core logistics services, and contract management on 
a reimbursable basis through the U.S. Army Logistics Civil Augmentation 
Program (LOGCAP IV), and other contracted support.
    DOD plans for a whole variety of different contingencies, but the 
preponderance of effort has been on facilitating transition to the 
State Department. DOD is doing everything it can to help set up the 
State Department for success. The State Department, DOD, and other 
agencies and offices have undertaken unprecedented levels of 
coordination and planning for the transition in Iraq. The State 
Department and DOD have an excellent working relationship and are 
working together at all levels to achieve a successful transition. As 
one would expect with a transition of this scope and complexity, 
challenges exist.
                         efficiency initiatives
    Question. Secretary Lynn, the budget request includes a number of 
initiatives to streamline Department of Defense business operations and 
overhead. Does the Department have the tools and processes in place to 
measure the effectiveness of these initiatives and to determine if they 
achieve the saving assumed in the budget?
    Answer. The Department currently has a number of tools in place 
that will help to monitor both execution and effectiveness of the 
initiatives laid out in the President's fiscal year 2012 budget 
submission. Additionally, the various components have developed a 
number of internal processes and tools to assist with implementation, 
monitoring, and assessment. The Secretary and I are strongly committed 
to meeting the goals and to finding new ways to improve how the 
Department conducts business, thereby better using the scarce resources 
of the Nation.
                 decreased nasa funding--impact on dod
    Question. Secretary Lynn, has the Defense Department's budget for 
space capabilities been adjusted or impacted to compensate for the 
President's decision to freeze NASA funding at the 2010 level?
    Answer. No, the Defense Department's budget for space capabilities 
currently has not been adjusted or impacted to compensate for the 
President's decision to freeze NASA funding at the 2010 level.
     handheld global positioning systems (gps) for platoon leaders
    Question. Secretary Lynn, on page three of your prepared testimony, 
you state ``the proposed budget provides our deployed forces with 
everything they need to carry out their mission.'' However, I have been 
informed that Army platoon leaders deployed to Afghanistan do not have 
handheld GPS Receivers which would improve their situational awareness 
and targeting. Would you look into this and let the committee know if 
this useful piece of gear is being issued at the platoon level in 
sufficient quantities?
    Answer. The Global Positioning System (GPS) is issued at the 
platoon level according to Army authorizations. For an Infantry 
formation, a GPS capability is issued to commanders, S3/operations, S4/
logistics, platoon leaders, squad leaders and other vehicle platforms 
as well to include our Force XXI Battle Command Brigade and Below/Blue 
Force Tracker systems and Mine Resistant Ambush Protected vehicle 
platforms. All deploying forces are equipped with their required 
authorization quantity and if required, our industrial production line 
has ample quantities to support any shortfall. There is no current 
Operational Need Statement for GPS. There is no indication of any 
significant shortfall in Defense Advanced GPS Receiver (DAGR) in 
theater. Theater has a large number of the Precision Lightweight GPS 
Receivers (PLGR) devices which can augment the DAGR.
                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchinson
    Under a Continuing Resolution (CR) at fiscal year 2010 levels, the 
Army would be limited to acquisition of only 8 AH-64 Apache helicopters 
instead of the 16 requested in the fiscal year 2011 President's budget, 
and could not acquire the 1 combat loss replacement helicopter. Also, 
under a CR at fiscal year 2010 levels, the Army would be limited to 
acquisition of only 34 CH-47 Chinook helicopters instead of the 40 
requested in the fiscal year 2011 President's budget, and could not 
acquire the 6 helicopters added in the Overseas Contingency Operations 
(OCO) account.
    Question. Can you talk about how these limited acquisitions would 
affect adversely the Army's ability to carry out its missions?
    Answer. The limited acquisition of Apache Block III will delay the 
First Unit Equipped (FUE) by 6 months and delay that capability from 
deploying to theater as scheduled. While this will have minimal impact 
on the Army's ability to carry out its immediate missions in Operation 
Enduring Freedom (OEF) and Operation New Dawn (OND); it will extend the 
timeframe necessary to modernize the Apache fleet. Limiting fiscal year 
2011 quantities and funding levels to the fiscal year 2010 equivalents 
will also have cost and contract implications. It will result in a 
decrease in Low Rate Initial Production (LRIP) aircraft quantities and 
the reduced procurement in fiscal year 2011 will adversely affect the 
overall procurement unit cost of the helicopters by an unknown amount. 
The prime contractor has already submitted a proposal for the LRIP 
effort. Any decrement to aircraft quantities will invalidate the 
current contractor proposal. These resulting inefficiencies and the 
loss of cost and schedule synergies with current the Foreign Military 
Sales, will result in a total decrease of up to ten aircraft during 
LRIP .
    The limited acquisition of Chinooks due to a year-long continuing 
resolution will extend modernization of the Army National Guard's CH-
47D to CH-47F program by 3 months. The limited acquisition will have 
minimal immediate impact on the Army's ability to carry out its 
missions in OEF and OND. The ARNG's Chinook shortages will be filled by 
1st Qtr fiscal year 2013 with a mix of CH-47D and CH-47F aircraft. The 
ARNG's pure fleet to the CH-47F will extend to 1st Qtr fiscal year 2018 
vice 4th Qtr fiscal year 2017.
    The Texas and Mississippi National Guards need a fiscal year 2011 
programmatic increase of $654,200 to convert Apache ``A'' models to the 
``D'' models required for a deployment in Central Command. The House 
Defense Appropriations Subcommittee, the Senate Appropriations 
Committee, and the proposed defense omnibus appropriations bill all 
provide such funds. The CR does not.
    Question. How will this limitation on funding affect Central 
Command's ability to prosecute the wars in Afghanistan and Iraq?
    Answer. The absence of Apache conversion funding for elements of 
the Texas and Mississippi Nation Guard (1-149 TX/MS) in the fiscal year 
2011 CR will not impact U.S. Central Command's ability to conduct 
operations in Afghanistan and Iraq because 1-149 TX/MS will be deployed 
to Iraq or Afghanistan.
    The conversion (and training) for Apache ``A'' to ``D'' models for 
1-149 TX/MS is expected to be complete in fiscal year 2016. When the 
conversion and training is completed, 1-149 TX/MS will be ready for 
deployment and available for consideration to meet future operational 
requirements.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. The Defense Subcommittee will reconvene on 
Wednesday, March 16, at 10:30 a.m. And at that time, we will 
receive testimony from the Navy and Marine Corps on the fiscal 
year 2012 budget request.
    And we now stand in recess. Thank you very much.
    Mr. Lynn. Thank you, Mr. Chairman.
    [Whereupon, at 11:42 a.m., Tuesday, March 1, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, March 16.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              


                       WEDNESDAY, MARCH 16, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 11:17 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Cochran, Murkowski, and Coats.

                         DEPARTMENT OF DEFENSE

                         Department of the Navy

                        Office of the Secretary

STATEMENT OF HON. RAY MABUS, SECRETARY OF THE NAVY

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. The subcommittee meets this morning to 
receive testimony on the fiscal year 2012 budget request for 
the Navy and Marine Corps.
    And I'm pleased to welcome the Secretary of the Navy, Mr. 
Ray Mabus, and the Chief of Naval Operations, Admiral Gary 
Roughead, and the Commandant of the Marine Corps, General James 
Amos. I look forward to your testimony. I'd like to thank all 
of you for your prepared testimony. And, without objection, the 
full statement will be made part of the record.
    For fiscal year 2012, the President's budget requests $161 
billion in base funding for the Department of the Navy. This is 
an increase of just one-half of 1 percent over last year's 
request. In addition, the budget seeks to reduce overseas 
contingency operation funding from $18.5 billion to $15 
billion, reflecting the changing missions in Iraq and 
Afghanistan.
    The very low growth of the Navy and Marine Corps budget is 
partly attributable to the Secretary of Defense's efficiency 
program. The request includes many commendable proposals, such 
as cutting energy costs by making our ships, aircraft, and 
facilities more efficient and increasing the use of alternative 
energy sources.
    But, the subcommittee may have questions about other 
programs that are claimed as cost savings. For example, the 
Marine Corps' expeditionary fighting vehicle (EFV) has been 
terminated, and three new programs are being established to 
fill the void. While we know how much money will be saved by 
canceling the EFV, it is hard to estimate how much money we 
will spend on the three follow-on programs.
    In an age of tightening budgets, Congress needs to have a 
clear understanding of what budgetary proposals will produce 
real savings that can be better invested for our 
servicemembers, as opposed to delaying tough spending decisions 
for another day.
    While the subcommittee will have many questions about the 
proposed budget over the coming months, there is no doubt about 
the importance of the Navy and the Marine Corps in the world 
today. Even while supporting combat missions overseas, marines 
and sailors are now performing life-saving humanitarian relief 
efforts in Japan after the catastrophic earthquake and tsunami. 
They are delivering supplies, searching for survivors, and 
rendering aid to the victims of this disaster. The people of 
the United States and Japan are grateful for the life-saving 
efforts of these men and women, and our thoughts are with all 
of the victims of this terrible catastrophe.
    In these challenging fiscal times, it is all the more 
important that each dollar that Congress provides to the Navy 
and Marine Corps is put to its fullest use. I'm mindful that 
many of the budget proposals that were delivered to Congress in 
February were based on deliberations that occurred last summer 
and last fall. No matter how well planned the budget may be, it 
cannot predict the future. It is the job of this subcommittee 
and Congress to make adjustments to the defense budget, to 
redirect unneeded spending to higher priorities, based on new 
information and new developments.
    This hearing is just the beginning of the process of 
learning how the budget request will support our national 
priorities. So, I look forward to working with our 
distinguished panel throughout the year so that our fiscal year 
2012 appropriations bill will best reflect the needs of our 
Armed Forces.
    And I'd like to now call upon Senator Cochran, the vice 
chairman, for his statement.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much.
    I'm pleased to join you in welcoming our distinguished 
panel of witnesses this morning. Secretary Mabus, our former 
distinguished Governor of Mississippi, is doing a fine job, in 
my opinion, as Secretary of the Navy. He's reflecting credit on 
our State and our Nation and the United States Navy. And 
Admiral Roughead has become almost like a citizen of 
Mississippi. It seems like we turn around and he's down there 
at a commissioning or a christening, helping to ensure that our 
shipbuilding maintains a pace that will help defend our 
national interests in the waters of the world. And he has had a 
distinguished career in the Navy, and we're pleased to call him 
a friend.
    General Amos, we appreciate very much your being a part of 
this panel and your leadership for the Marine Corps. We're glad 
to have you here.
    Mr. Secretary, I know that we've had an opportunity to 
visit and stay in close touch on issues here. There will be 
questions that'll arise during the hearing, but I think I'll 
reserve my further comments or questions until later in the 
hearing.
    Welcome.
    Chairman Inouye. Thank you very much.
    May I now call upon the Secretary.
    Secretary Mabus.

                  SUMMARY STATEMENT OF HON. RAY MABUS

    Mr. Mabus. Mr. Chairman, vice chairman, members of the 
subcommittee, I have the honor of appearing here today, 
representing the sailors, marines, and civilians that make up 
the Department of the Navy.
    Please let me to first express my deepest sympathies to 
those affected by the terrible events in Japan. Our thoughts 
and our prayers go out to the families of the thousands of 
people who have lost their lives in the earthquake and the 
subsequent tsunami.
    The Navy and Marine Corps are absolutely committed to 
humanitarian assistance and disaster relief operations. Ships 
from the 7th Fleet, including carrier USS Ronald Reagan and its 
strike group, the USS Essex amphibious group, with the 31st 
Marine Expeditionary Unit, embarked, and the command ship USS 
Blue Ridge, as well as helicopters and marines from the 3rd 
Marine Expeditionary Force in Okinawa, are already on station 
or moving to provide assistance. And they will stay in place as 
long as they are needed.
    Ongoing operations in Japan underscore the fact that, 
across the world, Navy and Marine Corps are conducting missions 
over the full range of military operations. They remain the 
most formidable expeditionary force the world has ever known. 
And, thanks to your support, they will continue to meet the 
multiplicity of missions entrusted to them by our Nation.
    Today, I want to spend just a minute talking about an 
immediate crisis that we face: the absence of a Defense 
appropriations bill and the increasingly serious problems of 
operation under a continuing resolution. The pressure of the 
continuing resolution has already significantly impacted 
procurement and reduced the resources available to maintain 
readiness. If the continuing resolution continues for the 
entire year, we will be forced to reduce aircraft flight hours 
and ship-steaming days, cancel up to 29 of 85 ship 
availabilities, defer maintenance on as many as 70 aircraft and 
290 aircraft engines, and defer up to 140 maintenance and 
construction projects across the country. In addition, we will 
be prevented from constructing one Virginia-class submarine, 
two Arleigh-Burke destroyers, and one mobile landing platform. 
It will prevent procurement of two nuclear reactor cores and 
delay increased funding for the Ohio-class submarine 
replacement. It will reduce Marine Corps procurement by up to 
one-third, after the Marine Corps rebalances its manpower 
counts. And it will create nearly a $600 million shortfall in 
combined Navy and Marine Corps manpower accounts. These 
measures not only place additional stress on the force and our 
families, they will weaken the industrial base and affect over 
10,000 private-sector jobs.
    The disruption to our fleet and shore maintenance and 
modernization schedules may take years to recover from and will 
come at a much greater cost. We strongly request congressional 
action to address the implications of this continuing 
resolution. It's particularly important, considering that the 
submission of the 2012 budget was keyed off the 2011 numbers.
    As you pointed out, Mr. Chairman, the budget request for 
the Department of the Navy is a one-half of 1 percent increase 
over the fiscal year 2011 request. It includes funds for 10 
ships and 223 aircraft. It maintains our commitment to take 
care of our people, build a strong R&D and industrial base, and 
to grow the fleet.
    The OCO request, which, as you pointed out, again, 
represents a drop of $3.5 billion, includes funds to sustain 
operations, manpower, and infrastructure, as well as procure 
equipment to support operations in Afghanistan.
    During this budget development, and today, we are keenly 
aware of the fiscal position of the country and the necessity 
to be, in your words, responsible stewards of taxpayer dollars. 
This request, we believe, is a strategy-driven document that is 
informed by fiscal realities. It balances competing 
requirements and does what is best for the country, the Navy 
and Marine Corps, and our sailors and marines.
    We started this cycle by examining every aspect of 
everything we do. Consequently, $42 billion in Department of 
the Navy efficiencies were identified over the 5-year period. 
As a result of these efficiencies, we've been able to add one 
aegis destroyer, three TAO(X) oilers, and one T-AGOS ocean 
surveillance ship to our shipbuilding program. With a dual-
block littoral combat ship (LCS) strategy, this increases the 
total number of ships in the FYDP from 50 to 56, including one 
joint high-speed vessel to be built for the Army. The savings 
also allow us to buy additional F-18s, extend the service life 
of up to 150 aircraft, as a hedge against any delay in the 
deployment of the F-35 Bravo, and allow us to continue 
investing in unmanned systems.
    The upcoming year will see deployment of the unmanned Fire 
Scout system to Afghanistan, and continuing testing of the 
UCLASS D, the forerunner of an integrated carrier-based system.
    In 2010, one of the most important efforts was a decision, 
endorsed by Congress, to pursue the new littoral combat ship 
through a dual-block-buy procurement strategy. At an average 
cost of less than $440 million per ship, and with the cost 
reductions we have seen on LCS-3 and -4, the new strategy will 
save taxpayers $2.9 billion. This is a plan that's good for the 
Navy, good for the taxpayers, and good for the country, and 
shows what can be accomplished when sound acquisition 
principles are enforced.
    We heard the message from Congress very clearly: We need 
more ships, but they have to be affordable. The LCS strategy 
supports the industrial base by keeping workers employed at two 
shipyards, and is indicative of the Department's push to ensure 
acquisition excellence. We believe that the fixed-price 
contracts used for LCS are a model.
    Significant additional savings were also achieved through 
the termination, as you pointed out, Mr. Chairman, of the 
expeditionary fighting vehicle for the Marine Corps. I believe 
it's very important to emphasize that this decision in no way 
changes our Nation's commitment to amphibious warfare. We have 
to maintain an amphibious assault capability that will put 
marines ashore, ready for the fight. But, the EFV is simply not 
the vehicle to do this. Its cost per unit would have consumed 
one-half the Corp's total procurement and 90 percent of its 
vehicle-related operation and maintenance account in the years 
2018 to 2025.
    In aviation programs, we're closely monitoring the Joint 
Strike Fighter (JSF), particularly the Marine Corps variant, 
the B. After a 2-year period of very focused scrutiny, we'll 
make an informed recommendation about resolving the technical 
and the cost issues.
    Ashore, we continue to confront rising healthcare costs 
caused by an increasing number of beneficiaries, expanded 
benefits, and increased utilization. To deal with these trends, 
we must implement systematic efficiencies in specific 
initiatives that improve the quality of care and customer 
satisfaction, but, at the same time, much more responsibly 
manage costs. We concur with the recommendations made by the 
Secretary of Defense to ensure fiscal solvency and benefit 
equity for our retirees.
    Finally, as the chairman pointed out, we are continuing 
efforts to invest in and develop alternative energy. The latest 
headlines from around the world reinforce this basic point. 
Energy is, first and foremost, an issue of national security. 
We cannot allow volatile regions of the world to control the 
price and affect the supply of fuel we use.
    In the last year, the Navy and Marine Corps took huge steps 
forward, flying an F-18 Hornet on biofuel, conducting a large-
scale expansion of solar power, and beginning extensive 
expeditionary energy initiatives in Afghanistan. What we're 
doing in Afghanistan is already saving lives as we reduce our 
reliance on fossil fuels.
    In closing, I want to thank you again for your support. 
Thank you for always looking out for our sailors, marines, and 
their families, and for your support of efforts to make the 
Navy and Marine Corps better, stronger, and better able to 
defend our Nation.

                           PREPARED STATEMENT

    It's a solemn privilege to lead the naval services during 
an era of protracted war and national challenge. I have been 
profoundly moved by the sacrifice and devotion I have witnessed 
in the sailors and the marines who defend us. The Navy and 
Marine Corps are, and will remain, ready to do any mission 
America gives.
    Thank you.
    Chairman Inouye. I thank you very much, Mr. Secretary.
    [The statement follows:]
             Prepared Statement of the Honorable Ray Mabus
    Chairman Inouye and Vice Chairman Cochran, I have the honor of 
appearing here today on behalf of the nearly 900,000 Sailors, Marines, 
and civilians that make up the Department of the Navy. I have appeared 
before this Committee on a number of occasions, and I am happy to be 
here again, along with the Chief of Naval Operations and the Commandant 
of the Marine Corps, to report on the readiness, posture, progress, and 
budgetary requests of the Department. We consider ourselves privileged 
to lead the dedicated men and women of the Department who are 
selflessly serving the United States all around the world.
    Today, your Navy and Marine Corps are conducting missions across 
the full range of military operations. They are engaged in combat in 
Afghanistan, stability operations in Iraq, deterrence and ballistic 
missile defense in the Pacific, Arabian Gulf, and the Mediterranean, as 
well as humanitarian assistance and disaster relief operations across 
the globe. Our unmatched global reach, endurance, and presence continue 
to allow the Navy and Marine Corps--in partnership with our sister 
services--to secure and advance America's interests wherever challenges 
or crises have arisen, as well as operate forward to prevent crises 
from occurring. We remain the most formidable expeditionary fighting 
force the world has ever known, and with your continued support, the 
Navy and Marine Corps will continue to meet the multiplicity of threats 
that endanger international peace and security.
    But today we are very concerned about the absence of a Defense 
Appropriations Bill for fiscal year 2011 and the negative effects of 
operating under a continuing resolution for the remainder of the year. 
We are equally concerned about passage of a bill that reduces the 
topline from the level requested in the fiscal year 2011 President's 
budget. Either course of action significantly impacts the resources 
available to grow the fleet and jeopardizes recent efforts to restore 
and maintain readiness levels commensurate with the standards expected 
of the Navy and Marine Corps.
    Without legislative action, limiting fiscal year 2011 procurement 
accounts to fiscal year 2010 levels will:
  --Prevent start of construction of one Virginia-class submarine to be 
        built in Groton and Newport News which will break the existing 
        Multi-year Contract.
  --Prevent start of construction of one Mobile Landing Platform to be 
        built in San Diego.
  --Prevent start of construction of one or possibly both programmed 
        Arleigh Burke-class destroyers to be built in Bath and 
        Pascagoula due to DDG 1000/DDG 51 swap language that prevents 
        award of either ship unless both are authorized and 
        appropriated.
  --Preclude fourth and final increment of full funding for 
        construction of CVN 78 (U.S.S. Gerald Ford) and advance 
        procurement for CVN 79.
  --Prevent procurement of two nuclear reactor cores for refueling of 
        one aircraft carrier and one ballistic missile submarine, as 
        well as delay increased funding for research and development of 
        the Ohio-class replacement and replacement of two Moored 
        Training Ships that provide half of the force's nuclear 
        training capability.
  --Prevent completion of one Arleigh Burke-class modernization.
  --Reduce Marine Corps procurement by $563 million. This would add to 
        equipment shortfalls generated by 9 years of conflict and 
        prevent equipment replacement or purchase of 4 H-1 helicopters, 
        numerous LAVs, MTVRs, LVSRs; tech upgrades to counter IED 
        jammers; communication and intelligence equipment; tactical 
        fuel systems to power our vehicles and generators; engineering 
        equipment to move ammo, gear and supplies; air conditioners and 
        heaters to take care of Marines and sensitive gear; and EOD 
        improvements to protect them.
    Reductions to expected procurement levels will create additional 
stress on the force, as units in service pick up additional commitments 
to cover the seams created by fewer available platforms.
    Likewise, fixing fiscal year 2011 operations to fiscal year 2010 
levels has created a $4.6 billion shortfall in Navy and Marine Corps 
operations, maintenance, and training accounts. Faced with this 
prospect, the Department began efforts in January to mitigate the 
impacts of operating under the continuing resolution, which over the 
course of the fiscal year will cause us to:
  --Reduce aircraft flight hours and ship steaming days, including a 
        reduction of four non-deployed air wings' flight hours to 
        minimal flight-safety levels.
  --Cancel up to 29 of 85 Surface Ship availabilities.
  --Defer maintenance on 70 aircraft and 290 aircraft engines, bringing 
        the combined backlog of aviation maintenance close to 1-year 
        redlines.
  --Defer 41 facilities maintenance projects and 89 new construction 
        projects in Arizona, California, Florida, Georgia, Hawaii, 
        Louisiana, Maryland, North Carolina, Rhode Island, South 
        Carolina, Virginia, and Guam. These cuts equal an approximate 
        50 percent reduction and will eliminate, among many projects, 
        dry dock certifications, bachelor quarters maintenance 
        projects, repairs to Explosive Handling Wharves (EHW) at Bangor 
        and Kings Bay that support ballistic missile operations, and 
        modernization projects to support introduction of new training 
        aircraft.
    The combined effects of the continuing resolution will directly 
impact the strength of the industrial base and over 10,000 private 
sector jobs at shipyards, factories, and Navy and Marine Corps 
facilities across the country. The degradation or loss of perishable 
skill-sets within our workforce, including many nuclear workers, and 
the disruption to both our fleet and shore maintenance and 
modernization schedules will take 3 years to recover based on 
rotational schedules alone--and only at significantly greater cost than 
requested in the fiscal year 2011 President's budget.
    Finally, there is almost a $600 million shortfall in Navy and 
Marine Corps manpower accounts. As a result of this shortfall, the 
Services must raid other accounts in order to meet payroll for the 
duration of the year. We are currently living within funding 
constraints by limiting or conducting short-notice permanent change of 
station moves; however, this tactic places significant hardship on our 
military families and is not sustainable over the entire fiscal year.
    We strongly request congressional action to address the 
implications of the continuing resolution on our forces and our people 
by taking action to enact the fiscal year 2011 President's budget.
                        departmental priorities
    As I testified last year, there are four imperatives I believe the 
Department of the Navy must address to maintain preeminence as a 
fighting force and successfully meet the challenges of the future. They 
are: Taking care of our Sailors, Marines, civilians, and their 
families; treating energy as a strategic national security issue; 
creating acquisition excellence; and continuing development and 
deployment of unmanned systems.
    These priorities underpin every action of the Department, from 
supporting current operations to developing the current year's budget 
request, finding efficiencies within the Department, and preparing our 
Navy and Marine Corps for the future.
    Fundamentally, it comes down to a question of resources, of 
ensuring that our people have what they need to do their jobs, ensuring 
the Nation that the Navy and Marine Corps uses our fiscal and energy 
resources wisely, and ensuring that seapower, as a resource, remains 
readily available to meet the Nation's policy requirements and the 
orders of the Commander in Chief.
                 seapower: a critical strategic enabler
    It is clear that we live in a time of sweeping change and an era of 
strategic realignment. The President has stated that we ``must pursue a 
strategy of national renewal and global leadership--a strategy that 
rebuilds the foundation of American strength and influence.'' Seapower 
has always been a part of that foundation and will continue to be an 
indispensible asset to American leadership and economic strength in the 
global community of nations. American seapower, as it has done for 
generations, continues to guarantee freedom of navigation and 
international maritime trade, underpinning global economic stability 
and facilitating continued global economic growth. No other component 
of American military power is as flexible or adaptable as seapower. I 
see one of my primary responsibilities as Secretary to be ensuring 
continuation of this responsiveness, flexibility, and adaptability 
through the policies we adopt and in the ships, aircraft, and weapons 
systems that we build.
    Maritime nations have many inherent strategic advantages. Naval 
forces operating in the open ocean provide an effective conventional 
deterrent to those who threaten regional stability or promote 
extremism. Strong expeditionary forces can swiftly respond to crises 
and make potential adversaries pause before committing hostile actions. 
But should deterrence fail, our combat ready naval forces must be 
prepared to conduct sustained combat operations.
    The Navy and Marine Corps are America's ``Away Team.'' They exist 
primarily to protect our Nation far from home and respond quickly to 
crises wherever and whenever they occur. Exploiting their inherent 
mobility and maneuverability at sea, naval forces gather information, 
perform surveillance of seaborne and airborne threats, defend regional 
partners, deter prospective adversaries, interdict weapons of mass 
destruction, disrupt terrorist networks, conduct humanitarian 
assistance and disaster relief, and support the work of American 
diplomacy. This variety of capabilities is a primary feature of 
seapower, and it provides the President and our Nation with unmatched 
flexibility to deter conflict and, if necessary, project power from the 
sea to defend U.S. national security interests. The ability to 
accomplish these tasks without placing a large presence ashore and 
absent concerns of sovereignty is absolutely critical in our world of 
increasingly sophisticated threats and growing geopolitical complexity.
    It is for these reasons, and in order to improve global force 
projection capabilities that the Navy, Marine Corps, and Air Force are 
working on an Air Sea Battle (ASB) concept to improve joint 
capabilities and cooperation in addressing anti-access/area-denial 
challenges.
    Unique in history, the blanket of maritime security and stability 
provided by American maritime power is the first to be used for the 
good of the whole world. But in order to ensure continued American 
leadership in issues of maritime policy and security, we strongly 
recommend accession of the United States to the Convention on the Law 
of the Sea, an action that has been similarly and repeatedly 
recommended by multiple Secretaries of the Navy and Chiefs of Naval 
Operation. Accession by the United States would enhance stability of 
the navigational rights inherent to the Convention and would strengthen 
our bargaining position in international discussions of Arctic Policy 
and access to resources and sea lines of communication.
                           current operations
    Over the past year, our forces have successfully navigated the 
world's growing complexity and have consistently demonstrated the 
utility, effectiveness, and flexibility of seapower and maritime 
forces.
    Following completion of the Marines Corps' mission in Iraq, the 
primary operational focus of the Department has been supporting the war 
effort in Afghanistan. Over 30,000 Marines and Sailors are committed to 
the fight there, working all across the country, with the largest 
concentration operating as Regional Command Southwest (RC-SW) along the 
Helmand River Valley.
    In my visits to the Marines on the ground throughout the year, I 
had the opportunity to look firsthand at the progress made by our 
increased presence in Helmand. In December, I visited three Forward 
Operating Bases (FOBs) with increasing levels of stability in three 
separate districts of Helmand: Sangin, Marjah, and Nawa--or as the 
Marines put it, I went to look at where the fight is, where the fight 
was, and where there is no fight.
    In Nawa, I saw a strong partnership between the local government, 
Afghan National Police, the Afghan National Army, and our Marines--who 
have built the capacity of their partners so that they may shortly 
assume responsibility for their own security. The district is very 
safe, and because of the success of the counter-insurgency effort, Nawa 
is growing in both political strength and economic activity.
    In Marjah, after successful operations to clear it last spring, the 
markets are open, schools are being built, and a local government is 
working to build capacity. In my visit just 3 months ago, I personally 
walked the streets of Marjah to witness the progress, something that 
even in the summer of 2010 would have been unthinkable. Then, just 
stepping outside the gates of our forward operating base would have 
generated a pitched battle. Now, it brought out street vendors and men 
on motorbikes.
    I also went to Sangin District near the Kajaki Dam in Northern 
Helmand, which has been a Taliban stronghold for years and for the past 
few months has been the main effort of the fight in Helmand. Our 
Marines in Sangin have been conducting intensive combat and security 
missions in support of the counterinsurgency strategy, and 
concurrently--even in the midst of the fight, have been testing new 
solar energy equipment to expand their operational reach. Together with 
their partners from the Afghan National Security Forces, they have 
taken the fight to the Taliban and are facilitating the Afghan 
Government's reestablishment of local control.
    Elsewhere across Central Command, the Navy has over 14,000 Sailors 
on the ground supporting joint and coalition efforts and another 10,000 
Sailors at sea supporting combat operations, including from our 
carriers operating in the Indian Ocean, where we are launching 
approximately 30 percent of the strike or close air support missions 
that watch over our Marines and Soldiers on the ground in Afghanistan.
    In addition to combat operations, the Navy and Marine Corps remain 
globally engaged in a host of other security and stability operations. 
On any given day, more than 72,000 Sailors and Marines are deployed and 
almost half of our 286 ships are underway, ready to respond where 
needed.
    It was the Navy and Marine Corps that were the first on scene after 
both the devastating earthquake in Haiti and the summer's catastrophic 
floods in Pakistan. Within hours of the January 12th earthquake, both 
Navy and Marine Corps assets were en route to Haiti. A total of over 
10,000 Sailors and Marines and 23 ships, including the carrier U.S.S. 
Carl Vinson, the Bataan and Nassau Amphibious Ready Groups, and the 
hospital ship U.S.N.S. Comfort ultimately participated in Operation 
Unified Response.
    Halfway around the world, after Pakistan was struck by devastating 
August floods that impacted nearly a fifth of its population, 
helicopters from the U.S.S. Peleliu and the 15th Marine Expeditionary 
Unit supported the Government of Pakistan through delivery of 2,000 
tons of relief supplies and by contributing to the rescue of over 
10,000 people. Later, the ships of the Kearsarge Amphibious Ready Group 
deployed early to provide a continuous U.S. humanitarian presence.
    In response to the administration's strategic direction, the Navy 
is scaling up our ballistic missile defense (BMD) force and their 
deployments to enhance our deterrent posture, especially in the defense 
of Europe. Our multi-mission, BMD-capable, Aegis cruisers and 
destroyers now routinely deploy to the Mediterranean and the Arabian 
Gulf, as well as the Western Pacific to extend our deterrent umbrella 
for our allies. I had the opportunity a few months ago to visit the 
destroyer U.S.S. Ramage after she completed her first BMD deployment, 
and I can assure you that the Sailors on these ships are some of the 
most professional and dedicated men and women in the country, and they 
are incredibly excited about their work. We appreciate Congress' 
continued support of the destroyer and cruiser modernization programs 
that are bringing additional BMD capability to the fleet.
    Our growing BMD capability is complemented by our traditional sea-
based, strategic nuclear deterrent centered upon our globally deployed 
and proficient ballistic missile submarine force.
    In the Western Pacific, as an integral part of U.S. diplomatic 
actions, several times last year the U.S.S. George Washington sortied 
to the South China Sea and the Sea of Japan in response to territorial 
disputes with North Korea and open North Korean provocation. In late 
November, after the North Korean artillery attacks on Yeonpyeong Island 
west of Inchon, the George Washington strike group conducted a training 
exercise with the South Korean Navy in order to demonstrate the 
continuing value and strength of our alliance.
    We are also working to build regional capacity and resolve security 
issues of common international concern.
    In support of our Maritime Strategy, both the Navy and Marine Corps 
routinely engage with nations all around the world to build capacity 
and forge stronger maritime partnerships. In the ``Rim of the Pacific'' 
or RIMPAC exercise, 32 ships, five submarines, and more than 170 
aircraft from 14 nations participated in the world's largest 
multinational maritime exercise encompassing every aspect of 
traditional naval warfare.
    Global Partnership Stations in Africa, South America, and the 
Pacific are training hundreds of Sailors, Marines, and Coast Guardsmen 
from dozens of nations and are bringing advanced medical and civil 
engineering assistance to those in need. The Africa Partnership Station 
alone has trained with 32 African and European partners since 2007. And 
between them, Pacific Partnership 2010--conducted by the U.S.N.S. 
Mercy--and Continuing Promise 2010--conducted by the U.S.S. Iwo Jima--
treated over 100,000 patients and conducted over 20 civil engineering 
projects.
    In the Caribbean and South America, we continue to work with the 
Coast Guard-led Joint Interagency Task Force--South to synchronize 
forces from 13 nations and interdict the flow of illegal narcotics into 
the United States. In 2010 naval forces contributed to the seizure of 
over 133.2 tons of cocaine, 3.2 tons of marijuana, 92 boats and 
aircraft, and $2.7 billion in drug revenue.
    In the Gulf of Aden and western Indian Ocean, the Navy remains 
committed to counter-piracy efforts with approximately 16 partner 
nations. Combined Task Force 151, in cooperation with forces from the 
EU, NATO, and other nations deploying individual units or task groups, 
is operating off of Yemen and in the Somali Basin to protect the safe 
passage of maritime commerce. Where our forces are located, pirate 
activity has fallen, but the areas involved are huge, and as Secretary 
of State Clinton said in April 2009, the solution to Somalia piracy 
lies largely with Somalia, through building its capacity to police 
itself and offering young pirates viable alternatives to that way of 
life. We are treating the symptoms of piracy, rather than its 
fundamental cause: Somalia's failure as a state. Despite the 
international community's commitment, piracy has both continued to 
increase and move further offshore, a measure of pirate resiliency and 
the strong economic incentives that underpin it. Nine of ten pirates 
captured are ultimately freed as there is often insufficient evidence 
or political will to prosecute them, or to incarcerate them after 
conviction. We strongly endorse additional international efforts to 
address these concerns.
                   fiscal year 2012 budget submission
    Over the past year, I have visited with thousands of Sailors and 
Marines stationed with our forward operating forces at sea and our 
combat forces in Afghanistan. I can report, based on both the direct 
observations I mentioned and from personal inputs from Joint and 
Combined commanders, that the quality of our Sailors and Marines is 
superb and we are continuing to protect America's interests abroad. But 
while we are prevailing today, we must also build the foundation for 
the Navy and Marine Corps of tomorrow.
    During the development of the President's fiscal year 2012 budget 
submission our Navy and Marine Corps leadership team made numerous 
difficult tradeoffs to preserve current readiness while better 
posturing the Navy and Marine Corps for the challenges of the future. I 
believe that the result provides a balanced approach that will enable 
the Services we lead to successfully perform our assigned missions, 
even while setting a course for future success. It is important, 
however, to reiterate that the fiscal year 2012 budget was developed 
based upon ultimate passage of the President's fiscal year 2011 budget. 
If the continuing resolution now in place remains the de facto budget 
for the year, or if a Defense appropriations bill is passed that 
reduces the amounts requested in the fiscal year 2011 President's 
budget, the proposed fiscal year 2012 budget will not be sufficient to 
recover from delays, cancellations, and mitigations we have been forced 
to put in place this year.
    Over the past year, we have examined every aspect of what we do and 
how we do it in order to eliminate waste and move every resource 
possible toward operations and successfully executing our missions now, 
and in the future. At the direction of the Secretary of Defense, in 
June 2010, the Services were formally asked to continue this process 
through an efficiencies review, which we developed through three 
complementary approaches; buying smarter, streamlining our organization 
and operations, and being more efficient in the way we use, produce, 
and acquire energy. This effort has had a substantial impact on our 
overall budget, allowing us to invest more in our core warfighting 
missions and enhance our acquisition plans. Savings were also derived 
from OSD-mandated, Defense-wide efficiencies.
    Since the review began, the Department of the Navy has identified 
approximately $35 billion in self-generated efficiencies over the next 
5 years. When DOD-wide efficiencies are factored in we will achieve $42 
billion in savings. These savings will facilitate adding one guided-
missile Aegis destroyer, three T-AO(X) fleet oilers, and one T-AGOS 
ocean surveillance ship to our shipbuilding plan, which with our dual-
block LCS strategy will increase the total number of ships in the FYDP 
from 50 to 56, including one JHSV to be built for the Army, an average 
of more than 11 ships per year. We were also able to accelerate a 
Mobile Landing Platform from fiscal year 2015 to fiscal year 2012 and 
increase R&D funding to support the accelerated procurement of the T-
AO(X), and the development of the next amphibious dock-landing ship 
(LSD(X)).
    The savings allowed additional investments in the Next Generation 
Jammer to provide greater protection for tactical aircraft, electronic 
warfare systems, ballistic missile sets, and the new air and missile 
defense radar that will equip our DDG-51 Flight III destroyers. The 
savings allowed increased funding for a new generation of sea-borne 
unmanned strike and surveillance aircraft; and gave us the ability to 
buy additional F/A-18s and extend the service life of 150 aircraft as a 
hedge against more delays in the deployment of the F-35B, the Short 
Take-Off and Vertical Landing (STOVL) variant of the Joint Strike 
Fighter.
    We addressed Marine Corps needs by increasing equipment funding for 
units in dwell and for repair and refurbishment of Marine equipment 
used in Iraq and Afghanistan. Based on heavy usage rates, we requested 
$2.5 billion for Marine reset in the fiscal year 2012 OCO request, and 
estimate a $5 billion reset liability upon termination of the conflict 
in Afghanistan. We also added funding for fire and maneuver platforms, 
command and control capabilities, and intelligence, surveillance, and 
reconnaissance.
    We found the $35 billion through a close and systematic review of 
our programs and by cutting excess capacity in our support 
establishment. Over the FYDP, with congressional support we will reduce 
Navy manpower ashore and reassign over 6,000 personnel to operational 
missions at sea; use multi-year procurement and production efficiencies 
to save more than $1.1 billion on the purchase of new airborne 
surveillance, jamming, and fighter aircraft; and disestablish both 
Second Fleet and excess staffs for submarine, patrol aircraft, and 
destroyer squadrons plus one carrier strike group staff.
    Programmatically, one of the most important efficiency efforts was 
the decision endorsed by Congress to pursue the new Littoral Combat 
Ship (LCS) through a dual-block buy procurement strategy. Over the past 
years the message from Congress has been clear, we must build more 
battle force ships as affordably as we can, consistent with the 
statutory requirements laid out in the Weapons System Acquisition 
Reform Act of 2009. We heard that message clearly, and are grateful to 
the administration for its support and to the many Members of Congress 
who worked with the Navy to make the LCS program an example of what can 
be done right when strict acquisition standards are laid out and 
enforced.
    With an average cost of $440 million per ship, and with the cost 
reductions we have seen demonstrated on LCS 3 and 4, the Navy will save 
taxpayers approximately $1.9 billion in fiscal year 2012-16. More 
importantly, the fact that prices were so dramatically reduced from the 
initial bids in 2009 will allow us to save an additional $1 billion--
for a total of $2.9 billion--through the dual award of a 10-ship 
contract to each bidder. This plan is truly one that is good for the 
Navy, good for taxpayers, and good for the country.
    At the recommendation of both the Commandant and myself, 
significant additional savings were also achieved by the Department of 
Defense through termination of the Expeditionary Fighting Vehicle (EFV) 
program. The Nation absolutely must retain and rebuild an amphibious 
assault capability that will get Marines from ship to shore in a 
protected amphibious tracked vehicle ready for the fight. This is a 
core capability the Marine Corps must have. But the EFV is not the 
vehicle to do this. Conceived in the 1980s, the EFV was the previous 
generation's solution to a tactical problem that has since 
fundamentally changed. Just as importantly, the EFV's cost per unit 
would have eaten up over half of the Corps' total procurement account 
and 90 percent of the Corps' vehicle-related operation and maintenance 
account; the requirements levied on the vehicle outstripped what could 
affordably be achieved.
    We are committed to developing and fielding an effective, 
survivable and affordable amphibious capability that will meet the 
Corps' amphibious requirements. This will be done through upgrading 
existing vehicles, through service-life extensions, and by working with 
OSD and industry to go as fast as possible in the acquisition and 
contracting process to develop a successor program to the EFV, one that 
will meet today's requirements for this critical Marine Corps 
capability.
    We are also closely overseeing the Joint Strike Fighter program. In 
particular, we are providing additional focused attention on the Marine 
Corps variant, the F-35B, which the Secretary of Defense has placed on 
a 2-year probation. During this time, solutions to the unique F-35B 
technical issues will be engineered and assessed while production will 
be held to a minimum sustaining production rate of six aircraft per 
year in fiscal year 2012 and fiscal year 2013. This low-production rate 
is required to ensure continuity in the engineering workforce involved 
in the design and assembly of the F-35B at the prime contractor and key 
vendors without a loss in learning and to sustain the supplier base of 
F-35B unique parts. After this 2-year period of focused F-35B scrutiny, 
an informed decision will be made about how to proceed with development 
and production of this variant, to include the potential for program 
cancellation.
    I want to point out that it is only the F-35B (STOVL) variant that 
is on probation. The F-35C variant, which will be flown off of our 
aircraft carriers, is doing satisfactorily and will be procured by both 
the Navy and the Marine Corps.
    The President's budget request of $161 billion will maintain our 
commitment to take care of our people, build a strong R&D and 
industrial base, and grow a fleet capable of sustaining our preeminence 
as the world's most formidable expeditionary force. The fiscal year 
2012 request of $15 billion for contingency operations includes 
incremental costs to sustain operations, manpower, equipment and 
infrastructure repair as well as equipment replacement to support our 
operations in Afghanistan and elsewhere.
    The fiscal year 2012 President's budget request includes funds for 
10 Navy battle force ships, including: 2 Virginia-class submarines, 1 
Arleigh Burke-class destroyer, 1 Mobile Landing Platform ship, 1 Joint 
High Speed Vessel, 1 Amphibious Transport Dock Ship, and 4 Littoral 
Combat Ships.
    In aviation, we have requested 223 aircraft in the fiscal year 2012 
baseline budget, including: 13 F-35 Joint Strike Fighters for both the 
Navy and Marine Corps, 24 MH-60R and 11 P-8As to replace the aging 
current ASW and maritime patrol squadrons, 18 MH-60S for logistics 
support, 1 KC-130J, 25 H-1 variant helicopters, 30 MV-22 tilt-rotor 
aircraft, 28 F/A-18E/F fighter/attack planes, 12 E/A-18G to continue 
replacing the veteran EA-6B, 5 E-2D Advanced Hawkeyes, 36 Joint Primary 
Aircraft Trainers for our student aviators, and 20 Unmanned Aircraft.
    The fiscal year 2012 President's budget request also contains 
funding for the Navy Unmanned Combat Aerial System demonstration and 
continues development of the Broad Area Maritime Surveillance (BAMS) 
unmanned system.
    The individual efficiency initiatives the Department has put in 
place will continue to further streamline our organizations and 
operations, will reshape and reduce both capacity and personnel 
associated with the Department's ``tail,'' and will contribute to the 
dramatic transformation already underway in how the Department does its 
business. More importantly, they will sharpen the operating ``tooth,'' 
free up critical resources for maintaining and accelerating our 
shipbuilding and aviation acquisition plan, maximize fleet 
capabilities, and help preserve a strong industrial base.
     taking care of sailors, marines, civilians, and their families
    The Navy and Marine Corps have continued to recruit and retain the 
high quality men and women we brought into the Services in the past 
years, and 2010 was no exception. Both the Navy and Marine Corps met or 
exceeded their mission quotas and quality standards.
    We recognize that quality of life programs are important for morale 
and the military mission. We recruit Sailors and Marines, but we retain 
families. We continue to provide a wide array of readiness programs, 
including deployment support services, morale and welfare services, and 
child and teen programs. These award winning career management, 
training, and life-work balance programs are nationally recognized for 
their excellence not only by respected national human resource 
organizations, but even more by the Marines and Sailors that benefit 
directly from them.
    Medical care for our Wounded Warriors, already outstanding, 
continued to get better throughout the year. Since Operations Enduring 
Freedom and Iraqi Freedom began, over 12,000 Marines and Sailors have 
been wounded in action. Their service and sacrifice mandates that we 
provide quality care for those who have given so much for our country. 
Our medical community continues to meet this challenge and make 
advances in dealing with the signature wounds of the current wars: 
traumatic brain injuries, mental health issues, amputation, and 
disfiguring injuries, and Navy Medicine continues to reach out to its 
colleagues in both civilian and Veterans Affairs hospitals to improve 
our understanding and improve overall care for our people.
    But care for our Wounded Warriors does not end in the hospital. We 
have undertaken a commitment to bring our Veterans back into the 
workforce of the Department of the Navy through several Wounded Warrior 
outreach programs and hiring conferences. We are not there yet, but we 
are moving toward the goal of being able to say to every Wounded 
Warrior--if you want a job, we have one for you. As a representative 
example, in the past year alone, the Naval Sea Systems Command hired 
200 Wounded Warriors. In 2011 we will continue to make employment 
opportunities for Wounded Warriors a priority for the Department.
    It is important to note that rising healthcare costs within the 
Military Health System continue to present a fiscal challenge for the 
Department. Like the Secretary of Defense, both I and Departmental 
leadership are particularly concerned that the rate at which healthcare 
costs are increasing and the relative proportion of the Department's 
resources devoted to healthcare cannot be sustained; the Military 
Health System is not immune to the pressure of inflation and market 
forces evident in the civilian healthcare sector.
    The military faces a growing number of eligible beneficiaries, 
expanded benefits, and increased utilization throughout the military 
healthcare system. As a Department, we must be resolute in our 
commitment to implement systemic efficiencies and specific initiatives 
which will improve quality of care and customer satisfaction but will 
at the same time more responsibly manage cost. We have made progress, 
but there is more to do. We concur with the recommendations made by the 
Office of the Secretary of Defense; we must create incentives such as 
the Home Delivery Pharmacy Program and implement modest fee increases, 
where appropriate, to both ensure the fiscal position of the system and 
ensure equity in benefits for our retirees.
    Taking care of Sailors and Marines also means aggressively 
addressing the issues of sexual assault prevention and response. Last 
year, you supported the establishment of a new Office of Sexual Assault 
Prevention and Response (SAPRO) reporting directly to me to focus 
attention on the issue, develop effective training, and coordinate 
prevention and response programs across the Navy and Marine Corps. 
However, it is clear through sexual assault surveys that this crime 
remains a significant problem in the services, and within some 
populations we have seen a negative trend of an increased number of 
assaults. But I can assure you that we are not accepting this trend, 
and we will not rest while any cases of this awful crime continue to 
occur.
    In 2010, the Department moved forward on expanding the 
opportunities for women in the Navy. We established a comprehensive 
plan to integrate women into the submarine force, beginning with our 
ballistic missile and guided missile Ohio-class submarines. This 
summer, the first 21 women officers were selected for nuclear 
training--and they have begun their approximately 15-month training 
pipeline. The first of these officers will get to their boats beginning 
in November 2011.
    We are preparing to move forward with successfully implementing 
congressional guidance with respect to repeal of ``Don't Ask, Don't 
Tell'' in 2011.
    Overall, the fiscal year 2012 budget reflects a carefully crafted 
request for the fiscal support and resources necessary to sustain the 
force in light of the ongoing demands on our people and their families. 
Thank you for your continuing support.
                     energy security and leadership
    Energy consumption in the Navy and Marine Corps has become a 
strategic vulnerability, an operational Achilles' heel, and a readiness 
challenge. This has made our energy usage a national security issue of 
rising importance. As a Department, we rely too much on fossil fuels, 
making our forces susceptible to fluctuations in both price and supply. 
Dramatic shifts in cost and availability can be caused by a host of 
man-made or natural events in volatile areas of the world. Those 
potential shocks could have, in turn, strategic, operational, and 
tactical effects upon our forces. A survey of headlines around the 
world today demonstrates exactly the point we are trying to make--
energy is first and foremost an issue of national security.
    Without sustainable and reliable sources of energy and increased 
efficiency in our platforms, we may find ourselves paying an exorbitant 
price for operating our fleet, training our aviation and ground forces, 
and running our installations that support them. The ability to train 
and prepare forces for deployment could be curtailed. Worse still, our 
naval forces may find that future adversaries target our operational 
dependence on petroleum, as we see in attacks on fuel convoys in 
Afghanistan today. Our dependence on a fragile fuel distribution 
network increases our footprint, drains resources from the tip of the 
spear to supporting logistics lines, and ties up combat forces for 
security. Thus, energy diversity and efficiency are essential to 
maintain our warfighting capabilities and enhance our combat 
effectiveness.
    This is a topic I have spoken on a great deal, in front of this 
committee last year, around the world in speeches to industry and 
military audiences, and in conversations with international leaders. 
Through these events and discussions, it has become clear that energy 
security is not just an American issue--it is an issue that affects 
both our allies and potential adversaries alike. History has taught us 
that competition for resources has been one of the fundamental causes 
of conflict for centuries, and today, competition for energy still 
provides one of the most inflammatory sources of potential conflict.
    Energy, or more specifically denial of energy, could affect many of 
our NATO partners in Europe and indeed the strength of the alliance 
itself. Many of our partners are dependent upon external sources for 
their energy, so for them--denial of energy is a weapon, one just as 
real as the threat of tanks or airplanes.
    For all these reasons, and in order to improve our long-term 
strategic position and enhance the future operational effectiveness of 
our forces, I have charged the Navy and Marine Corps with accelerating 
the exploration and exploitation of new ways to procure, produce, and 
use energy.
    This effort began in October 2009, when I issued my five energy 
goals for the Department, the most important of which commits the Navy 
and Marine Corps to generate at least 50 percent of all the energy we 
use from alternative sources no later than 2020. Alternative sources 
include all renewable forms of energy such as solar, wind, geothermal, 
and ocean energy, as well as biofuels and nuclear energy.
    We are on track to meet all our goals, and throughout 2010, we 
demonstrated progress through many energy programs, partnerships, and 
initiatives. Throughout the year, we successfully conducted both ground 
and airborne tests of an F/A-18 Hornet and MH-60 Seahawk helicopter, 
and ran a Riverine Command Boat (experimental) on renewable biofuel 
blends made from either camelina or algae. Recently, we also completed 
testing of a marine gas turbine engine that will enable us to certify 
our frigates, destroyers and cruisers for biofuel operations. In each 
case, there was no impact on performance and no degradation to engine 
reliability. Together, these tests represent critical milestones for 
the Department's goal of demonstrating the Great Green Fleet in 2012 
and its planned deployment in 2016. In late 2010, the Navy conducted 
concurrent but unrelated tests of a more efficient F/A-18 engine in 
order to generate an increase in the aircraft's range.
    Afloat, as I discussed last year, the U.S.S. Makin Island is using 
a hybrid-electric drive to dramatically lower its fuel usage at slow 
speeds, which we estimate will generate life-cycle savings of up to 
$250 million at today's fuel prices. Over the next few years, we will 
continue to move forward with installation of a similar system on new 
construction DDGs and look at the feasibility of retrofitting the fleet 
with these systems in the course of routine shipyard availabilities.
    The Marine Corps is also aggressively exploring energy efficiency 
solutions in its operating forces in theater and in the supporting 
establishment. The Marines realize that energy as a resource influences 
a Commander's operational freedom of maneuver, and its conservation and 
wise use can save lives on the battlefield. Reduced logistics support 
and fewer convoys for expeditionary forces would free up resources and 
limit the exposure of Marines to ambush and IEDs. Energy efficiency 
equals better combat effectiveness.
    At home, the Marine Corps demonstrated their traditional spirit of 
innovation by scouring the commercial world for rugged solutions, 
building two Experimental Forward Operating Bases (ExFOB) at Quantico 
and Twentynine Palms. New alternative energy technologies tested at the 
ExFOB deployed this fall with the Third Battalion, Fifth Marines (3/5), 
posted to Sangin District in the north of Helmand Province. Immediately 
upon arrival, they began evaluating expeditionary solar power 
generators at their forward operating bases and combat outposts to 
supplement or replace fossil fuels. They have done this even while 
engaged in near constant combat against a determined enemy in one of 
the most hotly contested districts of the war.
    When I visited Sangin, I heard first-hand from a Marine First 
Lieutenant about what worked, what did not, and how his Marines in 
India Company of 3/5 were using the equipment. Two patrol bases are 
operating entirely on renewable energy, and another with a 90 percent 
reduction. One of the team-portable systems, called GREENS (Ground 
Renewable Expeditionary Energy Network System), is being used to 
provide power for the Operations Center, small radios, and small 
electronic equipment. And across the battalion's operating area, man-
portable SPACES (Solar Portable Alternative Communications Energy 
System) are being used by individual squads to recharge their radios 
and other combat electronics. This capability made it possible for a 
foot patrol to operate for 3 weeks without battery resupply, reducing 
their burden by 700 pounds and saving more than $40,000.
    By deploying these renewable solar energy technologies the Marines 
in Sangin have been able to expand their operational reach, eliminate 
or minimize their need for fossil fuels in their generators, and 
dramatically reduce the need for often dangerous logistic support.
    At Camp Leatherneck, the Marines have likewise begun a small bio-
fuel pilot project for Helmand Province, purchasing locally produced 
cotton oil from an Afghan facility to mix with their own fuel. At 
Leatherneck, a standard generator is producing power from a 20-80 mix 
of cotton oil to fuel, yielding a 20 percent reduction in demand for 
fuel, while simultaneously demonstrating to Afghan farmers that there 
are alternatives to opium, and demonstrating to Afghan leaders that 
they can power their own economy from within Afghanistan. I am 
monitoring its progress closely.
    As the ExFOB gets all this feedback from returning Marines, our 
expeditionary energy systems and programs will continue to improve and 
we will move even further down the road of energy efficient, combat 
effective forces.
    In addition to these tactical and platform applications, we have 
implemented a number of energy projects at our facilities ashore. We 
are actively exploring for new geothermal resources to augment our 
existing 270 MW geothermal powerplant at China Lake. Last year we 
established the Nation's first grid-connected wave buoy at MCB Kaneohe 
Bay, Hawaii. Last December the Marines completed a 1.5 MW solar 
installation situated atop six acres of a landfill. The installation 
was unique because the equipment foundations were designed not to 
perforate the membrane covering the garbage below. Our budget request 
asks for continued support of these and similar projects in order to 
enhance our efficiency and maximize our move to greater independence 
and more resilient infrastructure.
    And finally, throughout the year we developed partnerships with a 
number of Federal agencies, States, academic institutions, and industry 
partners including the Departments of Energy and Agriculture, NASA, and 
the Small Business Administration.
    It is precisely because of the spirit of innovation that these 
partnerships embody that our Nation remains a world leader in its 
unrivaled capacity to stimulate and exploit cutting-edge ideas and new 
technologies. The U.S. Navy has always been a technological leader and 
has excelled at embracing change, particularly in propulsion systems 
and energy sources. We moved from wind to coal in the 19th century, 
from coal to oil early in the 20th century, and added nuclear power 60 
years ago. In every transition there were opponents to change, but in 
every case these changes increased our combat effectiveness by an order 
of magnitude.
    I have tasked the Navy and the Marine Corps to once again pioneer 
technological change through alternative energy sources. I am pleased 
with the progress to date, and expect it to sharply enhance the long-
term strategic agility of our operating forces, as well as better 
posture the Department for an age of fiscal austerity and potential 
energy volatility. I want to stress, however, that every action and 
program we undertake is focused on generating improved warfighting 
capability and strategic flexibility, it is not just change for 
change's sake.
                    creating acquisition excellence
    Our future combat readiness is dependent upon the design, 
development and acquisition of weapons, platforms, and information 
technology. The current ships and aircraft of the Navy and Marine Corps 
provide decisive advantages over today's threats. But that edge must be 
constantly sharpened and modernized against constantly evolving 
technologies. We must continue to invest in intelligence, precision 
missiles and munitions, networked command systems, stealth technology, 
unmanned vehicles and ground fighting systems. To retain our advantage 
across multiple warfighting areas, we rely heavily upon both our 
dedicated personnel and the expertise resident in America's private 
sector. Throughout my tenure, I have taken the opportunity to visit 
shipyards, aircraft plants, vehicle factories, maintenance facilities, 
and warfare centers for detailed briefings and a firsthand look at the 
people responsible for designing and building our fleet and equipping 
our Sailors and Marines with vital weapon systems and technologies 
necessary to do their jobs. One cannot fail to recognize the 
creativity, dedication, and skills of our Nation's workforce.
    Yet, with Government spending increasingly constrained, 
affordability, cost containment and total ownership costs are more 
important than ever. Because acquisition costs are rising faster than 
our top-line and because replacement systems can be more expensive than 
the platforms or weapon systems being replaced, we are putting 
tomorrow's force at risk.
    Both on our own and as a result of Secretary Gates' guidance, the 
Department has devoted considerable effort to finding efficiencies, 
reducing support costs, and scrubbing our acquisition process to 
mitigate this impact. In accordance with the Weapons System Acquisition 
Reform Act passed by Congress in 2009, we have made the requirements 
and acquisition processes more rigorous in order to better manage the 
resources entrusted to us by the American taxpayer, and we are working 
with OSD to develop a streamlined process for acquiring information 
technology in a more responsive manner to better equip the warfighter 
with emerging technologies and ward off the cyber threat.
    This requires constant examination of every single one of our 
policies, practices, priorities, and organizations, with a clear focus 
on controlling cost. Our acquisition community has been extensively 
engaged with industry and the Services to streamline processes, and 
they are ruthlessly evaluating both requirements and the supporting 
analyses in order to get more value out of the overall acquisition 
system.
    The Navy and Marine Corps will continue initiatives already in 
place to improve processes and to instill discipline in procurement. In 
2010, we strengthened our cost estimating group and met statutory 
requirements to obtain independent cost estimates, and we have 
incorporated Defense-wide best practices in the formulation of all our 
major programs. We have made our cost estimates more realistic and are 
using these improved cost and schedule plans to make necessary 
capability tradeoffs and difficult investment decisions at the front 
end of the requirements process rather than during design or 
construction.
    A professional acquisition workforce is a key element in our 
overall acquisition excellence initiative and a driver in our strategy 
to preserve our fighting edge at an affordable cost. Accordingly, and 
with your strong support, we are rebuilding the acquisition workforce 
within Government to fulfill Federal oversight of the acquisition 
process and ensure that accountability to taxpayers is the foremost 
concern of our employees. In the last year, the Department has added 
nearly 1,300 acquisition professionals toward the goal of increasing 
the community by 5,090 over the FYDP.
    Our acquisition strategies have been shaped to expand the use of 
fixed price contracts, leverage competition, and tighten up on the use 
of incentive and award fees to ensure quality systems are consistently 
delivered on budget and on schedule. The new acquisition plan for the 
Littoral Combat ship epitomizes this strategy, and is indicative of the 
type of fixed price contracts that will be the model for the future. 
The LCS block-buy contracts are the result of effective competition and 
give the Government full ownership of the technical data package used 
in construction. This will ensure our ability to pursue competitive 
strategies for LCS Seaframe requirements in fiscal year 2016 and beyond 
and affords greater congressional oversight of the program. With the 
new LCS strategy, we get more ships, at a faster rate, and at less 
cost.
    The LCS dual-block procurement strategy also contributes to meeting 
another acquisition goal of both this committee and the Navy through 
its strong support of the industrial shipbuilding base. Modernizing 
today's force and recapitalizing the fleet affordably cannot be 
accomplished without a healthy industrial base and strong performance 
by our industry partners. We have worked hard to procure our ships, 
aircraft, and weapon systems at a rate intended to bring stability to 
the industrial base and enable efficient production. The Navy's 
shipbuilding and aviation plans were developed with particular regard 
to maintaining the unique characteristics and strength of the 
industrial base and our efforts have promoted increased competition, 
greater innovation, and better capacity within the base.
    Over the FYDP, we will continue to build upon our progress to date 
and we will work with our shipyards, aircraft manufacturers, weapon 
systems providers and systems integrators to build the best possible 
fleet for the future.
             development and deployment of unmanned systems
    The complex nature of today's security environment, as well as 
current and future anti-access/area-denial threats faced by the United 
States, require that the Navy and Marine Corps continue to advance in 
unmanned systems and exploit the contributions they make to warfighting 
capability. Unmanned systems are unobtrusive, versatile, persistent, 
and they reduce the exposure of our Sailors and Marines to unnecessary 
threats or dangerous environments. They can perform a vast array of 
tasks such as intelligence, surveillance and reconnaissance, 
hydrographic monitoring, mine detection, targeting, and precision 
strike.
    Navy and Marine Corps unmanned systems have already made key 
contributions to operations in Iraq and Afghanistan. In Operation Iraqi 
Freedom and Operation Enduring Freedom, unmanned aircraft systems have 
flown thousands of flight hours, enhancing the effectiveness of our 
combat operations and undoubtedly saving lives. Unmanned ground 
vehicles employed by the Marine Corps have conducted thousands of 
missions detecting and/or neutralizing improvised explosive devices. 
And off the Horn of Africa, unmanned systems contribute to surveillance 
and tracking of suspected or confirmed pirate vessels.
    The range of tasks that these capabilities may fulfill will grow 
substantially over time. I am determined to ensure that your Navy and 
Marine Corps are at the cutting edge of this military capability.
    Our vision for the future will exploit unmanned systems in every 
domain of our operating environment (sea, air, and land) while 
maintaining an affordable price. The Department's Unmanned Systems will 
move from adjunct capabilities supporting manned systems and platforms 
to providing autonomous, networked, and interoperable independent 
capabilities--much as naval aviation matured from an adjunct to the 
Battle Fleet to a combat capability in its own right in the first half 
of the 20th century.
    We will field unmanned systems in the near term to:
  --Provide sensing, influence and effects where manned systems are 
        limited by range, endurance or risk.
  --Shift from relying primarily on manned platforms to accomplish 
        missions to combinations of manned platforms, robots, augmented 
        human performance, and remotely operated and unmanned systems 
        that make operational sense.
  --Increase the combat effectiveness of Sailors and Marines, their 
        platforms and combat organizations to better operate against 
        multiple types of threats.
    In implementing this vision, we will embrace Unmanned Systems as 
critical tools in our warfighting quiver of capabilities. We will 
integrate them into everything we do across the full range of military 
operations to enhance our combat effectiveness and efficiency. And we 
will invest in the infrastructure to ensure we have the capabilities 
and capacity to properly task, collect, process, exploit and 
disseminate the information so the intelligence data gets to the 
decisionmakers and warfighters. The initiatives and investments 
contained in the fiscal year 2012 budget request will continue moving 
us along this desired track. I look forward to reporting our progress 
toward this vision throughout the year.
                               conclusion
    Today I have laid out our strategic posture as well as the goals 
and priorities that guide the Department's investment portfolio and 
future direction. These goals and programs will significantly influence 
our future capabilities and ensure we remain ready to deter regional 
conflict or respond rapidly and decisively to emerging crises. Our 
specific requests are reflected in the President's fiscal year 2012 
budget submission.
    In order to retain a ready and agile force capable of conducting 
the full range of military operations, we must carefully weigh risks 
and apply our available resources efficiently and carefully. This 
year's request reflects our strategy-driven priorities and the 
disciplined trade-offs that you and the American taxpayer expect of us. 
The Department's efficiency efforts have been beneficial in terms of 
enhancing our ability to invest in the future even while preserving and 
extending our force structure.
    This is not a one-time event, as we will continuously work to 
increase efficiencies in every project, program, and operation, afloat 
and ashore. The budget request ensures that we will retain the world's 
most powerful and agile expeditionary force. The CNO, Commandant, and 
myself are committed to that aim and to being effective stewards of the 
Nation's resources.
    As Secretary, I have seen firsthand the selfless courage of our 
young Marines and Sailors in Helmand; the dedication of our medical 
community caring for our wounded; the professionalism of our surface, 
submarine and aviation Sailors; and the incredible technical skills of 
the maintenance crews that sustain them. I have also borne witness to 
the sacrifices of our personnel in hospitals in theater and at the 
National Naval Medical Center. A single visit to Bethesda will make you 
marvel at the resilience of the human spirit and the unflagging 
patriotism of our American service men and women.
    Your Navy and Marine Corps are performing at a high operational 
tempo, at unparalleled levels of skill and dedication, and with 
remarkable results afloat, at depth, aloft, in cyberspace, and ashore. 
Thanks to your support, this level of performance has been sustained 
with the modern platforms, weapons systems, and training necessary to 
underwrite our readiness. Your continued support recognizes and 
sustains the sacrifice of our Sailors, Marines, civilians and their 
families. The support of this committee for our key programs and our 
people has been instrumental to operational success of the Navy and 
Marine Corps and maintenance of the world's most flexible instrument of 
national policy--a modernized and ready naval expeditionary force.
    It is a solemn privilege to lead the Naval Services during an era 
of protracted war and national challenge. I have been honored by the 
trust the President and Congress have placed in me, and even more 
honored by the sacrifice and sterling devotion I have witnessed by 
those Sailors and Marine who go forward into harm's way to defend us. 
Preserving our values and our way of life is ultimately dependent upon 
our being prepared to use decisive force against those who threaten 
them. The Navy and Marines have been ready to do so for 235 years, and 
will continue to be ready. You can count on it.
    Thank you again for your support. Godspeed.

    Chairman Inouye. And now, may I call upon the Chief of 
Naval Operations (CNO), Admiral Roughead.
STATEMENT OF ADMIRAL GARY ROUGHEAD, CHIEF OF NAVAL 
            OPERATIONS, UNITED STATES NAVY
    Admiral Roughead. Thank you very much, Mr. 
Chairman.Chairman Inouye, Vice Chairman Cochran, and members of 
the subcommittee, it's my honor to appear before you in my 
fourth year as the Chief of Naval Operations, representing more 
than 600,000 sailors, Navy civilians, and families who operate 
and live globally. I appreciate your continued support for them 
as they continue to carry out our maritime strategy.
    I echo the Secretary's comments in extending our 
condolences to the people of Japan, with whom we enjoy a very 
unique relationship with our forward-deployed naval forces 
assigned there.
    Our Navy continues to meet operational commitments and 
respond to crises as they emerge. We're engaged in Afghanistan 
and in Iraq, with about 14,000 sailors on the ground in those 
countries, and another 14,000 at sea in the region. From our 
aircraft carriers there, we fly about 30 percent of the fixed-
wing aircraft sorties over Afghanistan.
    Our presence in the Middle East also gave us the 
flexibility to respond to the events that we see taking place 
there and elsewhere. We have elements of the Kearsarge 
amphibious ready group, with the 26 MEU, in the waters off of 
Libya, and several destroyers and submarines in the 
Mediterranean, available for tasking, as required.
    But, our interests extend beyond the Middle East, and so do 
our operations. Today, we have about 70,000 sailors deployed 
globally, with 40 percent of our ships, aircraft, and 
submarines deployed, as well. They're globally present, 
persistently engaged.
    We provide deterrence in Northeast Asia and forward 
presence in the western Pacific, which has enabled our swift 
response to the natural disaster in Japan, and our good friends 
and allies there. The ships of the USS Ronald Reagan carrier 
strike group remain underway off the east coast of Honshu, with 
significant fixed-wing and helicopter assets supporting search-
and-rescue and humanitarian assistance. At least five more 
ships will soon arrive from exercises in Southeast Asia. These 
include ships from the USS Essex amphibious ready group, which 
has the 31st MEU embarked, and which will bring additional 
humanitarian aid, advanced medical capability, and seaborne 
lift support to the Japanese Government.
    We continue our counterpiracy efforts in the Indian Ocean, 
and we continue to build maritime partnerships in Africa and 
South America and throughout the Pacific.
    These operations represent part of the growing demand for 
the offshore option that our Navy and Marine Corps team 
provides the Nation. We assume the lead for the first phase of 
ballistic missile defense of Europe, and are working with the 
Missile Defense Agency on providing that same capability 
ashore. We created the new Information Dominance Directorate, 
on my staff, which has enabled us to make better decisions and 
investments in countering the anti-access and area-denial 
strategies that we see in the world today. We recently 
established the U.S. 10th Fleet, our cyberfleet, which has 
demonstrated its expertise by conducting joint and naval 
operations in cybernetwork, cryptology, and space arenas.
    To deliver the above, we've been pushing the fleet hard. We 
have 288 ships today. It is the smallest fleet since 1916, when 
our interests and responsibilities were nowhere near what they 
are today. And that's why 313 ships remains the floor of our 
future force, and why sustaining fleet capacity is essential to 
reaching that floor.
    Since I became CNO, I've focused on ensuring that the Navy 
is ready, that our quality of work and quality of life are 
fulfilling to the men and women of our Navy, and that we place 
underperforming programs back on track. We have introduced 
stability, affordability, and capacity into our shipbuilding 
and aviation plans, and, with the assistance of Congress, we've 
advanced capabilities to meet the most likely evolving threats. 
We've secured a fixed-price dual award for 20 littoral combat 
ships, as the Secretary has mentioned. We've addressed our 
strike fighter capacity with a multiyear F/A-18 procurement. 
And pending a decision on the continuing resolution, we will 
build two Virginia-class submarines a year, another DDG-51, 
start the mobile landing platform, construct and refuel our 
aircraft carriers as planned, and continue the design of our 
replacement strategic submarine.
    I'm pleased with our accomplishments to date, and I thank 
Congress for their continued support of our acquisition 
strategy. Our fiscal year 2012 budget request is a balanced 
approach to increasing fleet capacity, maintaining warfighting 
readiness, and developing and enhancing our Navy total force. 
This budget goes beyond ships and aircraft. It enhances 
electronic warfare, information dominance, integrated air and 
missile defense, and antisubmarine warfare capabilities for 
evolving challenges. It continues to develop a family of 
unmanned systems that will work in concert with our manned 
systems to secure access and establish maritime superiority 
where and when we choose. It continues our effort, over the 
last 2 years, to reduce total ownership costs, and leverages 
the opportunity presented by the Secretary of Defense's 
efficiencies to reduce excess overhead, improve readiness, and 
reinvest in warfighting capability and capacity that improves 
the long-term sustainability of our force.
    Importantly, it supports the Secretary of Defense's 
healthcare initiatives, included in the President's budget, 
which continues our efforts to improve healthcare, improve 
internal efficiency, incentivize behavior, and ensure all our 
beneficiaries are treated equitably, and enhance our ability to 
deliver high-quality healthcare for years to come.
    You can be exceptionally proud of our sailors and our Navy 
civilians, who they are and what they do. Today's sailors are 
the best with whom I have ever served.

                           PREPARED STATEMENT

    I ask for your strong support of our fiscal year 2012 
budget. And I thank you for all that you do to support the men 
and women of the United States Navy, our enduring global force 
for good.
    Thank you very much.
    Chairman Inouye. All right. Thank you very much, Admiral.
     [The statement follows:]
              Prepared Statement of Admiral Gary Roughead
    Chairman Inouye, Vice Chairman Cochran, and members of the 
Committee, it is my honor and pleasure to appear before you, in my 
fourth year as CNO, representing the more than 600,000 Sailors and 
civilians of the United States Navy. As we have done for more than 235 
years, our Navy is forward-deployed around the world protecting our 
national security and prosperity. Today, our dedicated Navy men and 
women are operating globally at sea, on land, in the air, and in space 
and cyberspace. I appreciate your continued support for them and their 
families.
    As the demand for our Navy continues to grow, our Maritime 
Strategy, which I issued more than 3 years ago with the Commandants of 
the Marine Corps and the Coast Guard, continues to guide our Navy's 
operations and investments. Its core tenets are enduring and our Navy 
is executing daily the six core capabilities it articulates for our sea 
Services: forward presence, deterrence, sea control, power projection, 
maritime security, and humanitarian assistance and disaster response.
    With your support, since becoming CNO, our Navy has placed 
underperforming programs back on track; we have introduced stability, 
affordability, and capacity into our shipbuilding and aviation plans; 
and we have advanced capabilities to meet the most likely evolving 
threats. We improved the performance of several programs, most notably 
the Littoral Combat Ship. After cancelling the LCS ships we had planned 
for 2007 because of unacceptable costs, last year we were able to 
secure a price for 20 ships through a dual award strategy that will add 
new and needed capabilities to our Fleet, bring important stability to 
the industrial base, and get us closer to the minimum of 313 ships our 
Navy needs. I thank Congress for their support of this strategy. We 
delivered five new ships in 2010, including one Virginia class 
submarine, two Arleigh Burke Destroyers, and two T-AKE logistics ships. 
We commenced testing and low rate initial production of the P-8A 
Poseidon Multi-Mission Maritime Aircraft and continued testing and low 
rate initial production of the E-2D Advanced Hawkeye. Through multi-
year procurement contracts for F/A-18E/F and EA-18G, and Virginia class 
submarines, and planned multi-year procurements for the MH-60R/S and E-
2D, we are introducing affordability in our aviation and shipbuilding 
plans and realizing significant savings. For example, on the Virginia 
class multi-year procurement alone, the savings has been $3.2 billion. 
We are advancing capability to meet emerging threats, particularly in 
Ballistic Missile Defense (BMD) and information dominance. In BMD, we 
assumed lead for the first phase of the President's Phased Adaptive 
Approach (PAA) for BMD of Europe and we are working with the Missile 
Defense Agency on providing Aegis Ashore capability to support the 
second phase of the PAA. Our newly established Fleet Cyber Command/U.S. 
Tenth Fleet demonstrated its expertise conducting joint and naval 
exercises and operations in the cyber, network, cryptology, signals 
intelligence, information warfare, electronic warfare, and space 
arenas. We also achieved the early operational deployment of the MQ-8B 
Fire Scout Vertical Takeoff and Landing Tactical Unmanned Air Vehicle, 
the first successful flight of our Navy Unmanned Combat Air System 
demonstrator, and a memorandum of agreement with the Air Force to 
pursue increased commonality between the Global Hawk and Broad Area 
Maritime Surveillance programs.
    Our Navy continues to meet planned operational commitments and 
respond to crises as they emerge globally. We remain engaged in 
operations in Afghanistan and in Iraq. Our Navy has more than 14,000 
active and reserve Sailors on the ground and another 10,000 at sea in 
Central Command, including ongoing Individual Augmentee support to both 
operations. Our aircraft carriers provide about 30 percent of the close 
air support for troops on the ground in Afghanistan and our Navy and 
Marine Corps pilots fly an even greater percentage of electronic attack 
missions there.
    Because our national interests extend beyond Iraq and Afghanistan, 
so do the operations of our Navy. More than 40 percent of our Navy is 
underway daily; globally present and persistently engaged. Last year, 
our Navy provided deterrence against North Korea; conducted counter-
piracy operations in the Indian Ocean with a coalition of several 
nations; trained local forces in maritime security as part of our 
Global Maritime Partnership initiatives in Africa and the Pacific; 
responded with humanitarian assistance and disaster relief to the 
earthquake in Haiti and the flood in Pakistan; and conducted the 
world's largest maritime exercise, which brought together 14 nations 
and more than 20,000 military personnel, to improve coordination and 
trust in multi-national operations in the Pacific. Navy sealift 
continues to deliver the lion's share of heavy war and humanitarian 
equipment in the Central Command and Pacific Command areas of 
responsibility, while Navy logisticians operate the seaport and airport 
facilities that ensure this vital materiel arrives on time. Our Sailors 
remain forward throughout the world, projecting U.S. influence, 
responding to contingencies, and building international relationships 
that enable the safe, secure, and free flow of commerce that underpins 
our economic prosperity.
    Our Navy's global presence guarantees our access and freedom of 
action on and under the sea. We are developing with the Air Force and 
Marine Corps the Air Sea Battle concept that will identify the 
doctrine, organization, training, procedures, and equipment needed for 
our Navy to counter growing military threats to our freedom of action. 
This joint effort will inform the conceptual, institutional, and 
material actions needed to employ integrated forces that support U.S. 
operations to project power and influence, protect allies and partners, 
and secure our national objectives in peace and war.
    I remain committed to supporting our active and reserve Sailors, 
Navy civilians, and their families. Our Navy continues to be recognized 
as a highly ranked place to work as a result of its workforce planning, 
life-work integration, diversity, and training opportunities. We met or 
exceeded overall officer and enlisted active recruiting goals last year 
and we are accessing a force of extreme high quality. We continue to 
move forward on assigning women into our submarine force, with the 
first women submariners on track to report aboard SSBNs and SSGNs by 
the end of this year. We remain committed to performance as a criterion 
for promotion in our Navy, and have successfully transitioned the 
majority of our civilian personnel out of the National Security 
Personnel System (NSPS). Our remaining NSPS employees are scheduled to 
convert by the end of this year. I appreciate the support of Congress 
for our Fleet and the dedicated Sailors, Navy civilians, and their 
families that serve our nation every day.
    My priorities for the Navy remain unchanged: to build tomorrow's 
Navy, to remain ready to fight today, and to develop and support our 
Sailors, Navy civilians, and their families. We continue to advance our 
Navy in each of these areas thanks to your support.
    Our Navy remains the most capable maritime force in the world; 
however, we are stretching our force to meet Combatant Commander 
demands. Since 2000, our Navy's ship-underway days have increased by 
approximately 15 percent, yet we have about 10 percent fewer ships in 
our Fleet. Greater demand for our forces has led to longer deployments 
and shorter dwell, or turnaround times, which increase stress on our 
Sailors and drive up maintenance requirements for our ships and 
aircraft. We are implementing force management measures in the near 
term to stretch the capacity of our 286-ship force to meet increasing 
global requirements while providing the necessary maintenance our Fleet 
needs to reach its expected service life. Our Navy is different from 
other Services in that we reset our force ``in stride''; that is, we 
rely upon regular maintenance of our ships and aircraft, and training 
and certification of our crews between deployments, to sustain our 
force. I thank Congress for their support of our fiscal year 2011 
Operations and Maintenance (O&M) request, which would enable our Navy's 
continuous reset and translate into decades of service for each ship 
and aircraft, a significant return on investment.
    Regrettably, the continuing resolution (CR) for fiscal year 2011 
prevents us from applying the increased fiscal year 2011 O&M funding to 
improve our readiness, and it negatively impacts our ability to procure 
our future Navy and support our Sailors, Navy civilians, and their 
families. It has forced us to take mitigation measures that include: 
reducing operations, limiting numerous contracts for base operating 
support, slowing civilian hiring, reducing Permanent Change of Station 
notifications for our Sailors from about 6 months lead time to less 
than 2 months, not initiating the Small Business Innovative Research 
program, and delaying procurement contracts for new capabilities and 
existing production lines. Starting this month, we will cancel or scale 
back ship maintenance availabilities in Norfolk, Mayport, and San 
Diego, and cancel more than a dozen Milcon projects in several States. 
If the CR lasts all year, we will have no choice but to make permanent 
these mitigations and others, significantly reducing our operations, 
maintenance, and training. We will be forced to further reduce 
facilities sustainment, cancel training events and additional surface 
ship availabilities, and defer maintenance on our aircraft, which would 
result in almost a 1-year backlog in aviation maintenance. The impact 
of these actions will jeopardize the efforts we made in recent years to 
restore Fleet readiness. Without relief, we will procure only one 
Virginia class submarine and break the multiyear contract. Agreements 
made with our surface combatant builders, as a result of the DDG 1000/
DDG 51 swap, precludes us from awarding any DDG 51s in fiscal year 2011 
unless both ships are appropriated. In addition, without relief, we 
will delay the new start Mobile Landing Platform; we will constrain 
aircraft carrier construction and refueling, negatively impacting 
operational availability, increasing costs, and delaying CVN 79 
delivery by up to 1 year; and we will limit aviation and weapons 
procurement to fiscal year 2010 quantities, impacting E-2D and Standard 
Missile production. A full-year continuing resolution will also defer 
essential research and development in unmanned aerial systems and 
significantly delay the design of our replacement strategic deterrent 
submarine and the recapitalization of our nuclear operator training 
infrastructure. It will eliminate our ability to source out-of-cycle 
overseas contingency operations demands for increased Fleet presence 
and activated Navy Reserve Sailors. Operating under a continuing 
resolution for a full year at the fiscal year 2010 level would have 
negative effects on our Fleet, on the ship and aviation industrial 
base, and on the many workers who support naval facilities. Your 
support in addressing this critical current and long term readiness 
issue is appreciated greatly.
    Our fiscal year 2012 budget submission achieves the optimal balance 
among my priorities, but it is based on our funding request for fiscal 
year 2011. If the CR lasts all year, we will need to revisit our fiscal 
year 2012 request to properly balance our Navy for today and in the 
future. Our fiscal year 2012 budget request continues to rely on a 
combination of base budget and overseas contingency operations (OCO) 
funding, but it reduces the extent to which we rely on OCO funding for 
enduring missions. Our fiscal year 2012 request continues the effort we 
started 2 years ago to reduce the cost to own and operate our Fleet. We 
leveraged the opportunity presented by the Secretary of Defense to 
significantly reduce excess overhead costs, and apply the savings to 
warfighting capability and capacity, by executing a deliberate, 
thoughtful, and integrated approach to finding efficiencies that 
improve the long-term sustainability of our force. We are taking steps 
to buy smarter, streamline our organizations and operations, realign 
manpower, and pursue energy efficiencies. Through these efforts, and 
with your support, we will improve readiness and warfighting 
capabilities and optimize organizations and operations, including 
increasing the number of ships and aircraft in our procurement plans 
and enhancing or accelerating anti-access capabilities, unmanned 
systems, and energy initiatives.
    Our fiscal year 2012 budget request supports our Maritime Strategy 
and continues to support our forces, take care of our people, rebalance 
our force to meet current and future challenges, and reform how and 
what we buy. Highlights follow.
                         build tomorrow's navy
    Since the release of our Maritime Strategy, I have stated our Navy 
requires a minimum of 313 ships to meet operational requirements 
globally. This minimum remains valid; however, we continue to examine 
this requirement to address increased operational demands and expanding 
requirements for ballistic missile defense, intra-theater lift, and 
forces capable of confronting irregular challenges. Our fiscal year 
2012 submission funds 10 ships, including two Virginia class fast 
attack submarines, one Joint High Speed Vessel (JHSV), one LPD 17, one 
Mobile Landing Platform (MLP), one DDG 51, and four Littoral Combat 
Ships (LCS), which reflects our new LCS procurement plan under the dual 
award strategy. Our submission also supports the acquisition of an 
oceanographic ship. I thank Congress for their support of our LCS 
acquisition strategy and for our shipbuilding program. With your 
support over the last 3 years, we have been able to improve the balance 
among capability, capacity, affordability, and executabilty in our 
shipbuilding plan.
    As I reported last year, I remain concerned about the capacity of 
our Fleet in the future. Starting in the 2020s, many of our existing 
cruisers, destroyers, and submarines will reach the end of their 
service lives. During this period, it will be particularly critical to 
procure sufficient new ships to offset these decommissionings to avoid 
a rapid decline in force structure. In the same timeframe, we will 
begin to procure the replacement for our Ohio class ballistic missile 
submarine, the most survivable leg of our Nation's nuclear deterrent 
triad. While we have reduced the cost of that submarine substantially, 
our total shipbuilding budget will be pressurized in that decade as we 
seek to recapitalize our surface and submarine forces while sustaining 
warfighting readiness and supporting our people. I am confident our 
near-term force structure plans provide the capability and capacity we 
need to meet demands today, but in this decade we must address how to 
best resource the shipbuilding programs required in the 2020s.
    Our fiscal year 2012 program funds 203 manned aircraft. We have 
increased our procurement of P-8A Poseidon Maritime Patrol Aircraft to 
provide needed anti-submarine warfare capacity to our Fleet and 
facilitate a successful transition from our legacy P-3 Orion aircraft. 
Our fiscal year 2012 submission also procures 28 F/A-18 E/F aircraft, 
extending the F/A-18 procurement through fiscal year 2014 and 
purchasing 41 more aircraft than requested in last year's budget 
submission. I remain committed to the F-35 Joint Strike Fighter, and 
was pleased to see the first flight of the F-35C last year. The timely 
delivery of the F-35C remains critical to our future carrier airwing 
strike fighter capacity; however, we are procuring additional F/A-18 
Super Hornets to address the decrease in strike fighter capacity we 
have identified. I thank Congress for their continued support of the F-
35 program and our overall strike fighter fleet.
    Our Navy is also looking beyond our ships and aircraft and 
investing in information capabilities that span space, cyberspace, and 
the electromagnetic spectrum. We moved boldly last year with the 
establishment of U.S. Tenth Fleet and the Deputy CNO for Information 
Dominance. That restructuring has enabled us to focus on enhancing our 
electronic warfare, information dominance, integrated air and missile 
defense, and anti-submarine warfare capabilities. I request Congress' 
support for these programs as they position our Navy to successfully 
conduct operations in an evolving anti-access environment today and in 
the future.
    A viable, highly technical, and specialized industrial base is 
essential to sustaining the capability and capacity of our future Navy. 
Our shipbuilding and aviation industrial base is a strategic national 
asset and a significant contributor to our Nation's economic 
prosperity, employing more than 97,000 uniquely skilled Americans while 
indirectly supporting thousands more through second and third tier 
suppliers. The highly specialized skills in our shipbuilding base take 
years to develop; and, if lost, cannot be easily or quickly 
reconstituted. A viable shipbuilding industrial base, underpinned by 
predictable, level-loaded ship procurement, is essential to meet our 
nation's naval requirements.
    I remain committed to delivering a balanced and capable Fleet that 
will meet our national security requirements. I seek your support for 
the following initiatives and programs:
                           aviation programs
Aircraft Carrier Force Structure
    Our nuclear-powered aircraft carrier fleet is capable of flexibly 
employing capabilities that span from power projection and deterrence 
to humanitarian assistance and disaster response. Our 11-carrier force 
structure is based on worldwide presence and surge requirements, while 
also taking into account training and maintenance requirements. Our 
Navy has put in place measures to minimize the impact of the 10-carrier 
period between the inactivation of U.S.S. Enterprise (CVN 65) and 
commissioning of U.S.S. Gerald R. Ford (CVN 78). After the delivery of 
CVN 78, we will maintain an 11-carrier force by continuing the 
refueling program for Nimitz class ships and delivering our Ford class 
carriers at 5-year intervals starting in 2020.
    CVN 78, which is approximately 20 percent complete, is the lead 
ship of our first new class of aircraft carriers in nearly 40 years. 
These new carriers incorporate an innovative flight deck design that 
provides greater operational flexibility, a nuclear propulsion plant 
that generates more than 50 percent greater energy while decreasing 
maintenance requirements, and a combination of measures that reduce 
manning by more than 1,200 Sailors. Among the new technologies being 
integrated in these ships are the Dual Band Radar, the Electromagnetic 
Aircraft Launch System (EMALS), and the Advanced Arresting Gear (AAG), 
which will enable the carrier to increase its sortie generation rate by 
25 percent and lower total ownership costs. AAG is currently undergoing 
commissioning testing at our land-based testing facility and, in 
December, EMALS successfully launched an F/A-18 aircraft. Both systems 
are on schedule to support delivery of CVN 78 in September 2015.
Strike Fighter Capacity
    I remain committed to the F-35 Joint Strike Fighter (JSF) program. 
The timely delivery of the F-35C carrier variant is critical to our 
future carrier airwing strike fighter capability and capacity. As a 
result of delays in the F-35 program, we are closely managing our 
strike fighter inventory to address the decrease in strike fighter 
capacity that is projected to peak in 2018 as our F/A-18A-D aircraft 
reach the end of their service life. Our actions include managing the 
service life of our A-D aircraft, extending the service life of our A-D 
aircraft, buying new F/A-18E/F Super Hornet aircraft, and maintaining 
wholeness in the F-35C program. With these measures, we can manage our 
current strike fighter inventory to meet TACAIR requirements.
            F-35 Lightning II Joint Strike Fighter (JSF)
    The F-35 program gives us the advanced sensor, precision strike, 
firepower, and stealth capabilities our Fleet needs. I continue to base 
our Initial Operating Capability (IOC) timeline for the F-35C on the 
level of capability delivered at the completion of Initial Operational 
Test and Evaluation of the F-35C equipped with Block 3 software. We are 
reviewing the results of the in-depth Technical Baseline Review and 
restructuring of the System Development and Demonstration (SDD) phase 
to determine our IOC. While the overall system demonstration and 
development schedule has slipped, we have not reduced the total number 
of airplanes we plan to buy. Our fiscal year 2012 request procures 
seven F-35C aircraft. We are monitoring the program closely and 
managing our existing strike fighter capacity to meet power projection 
demands until the F-35C is delivered. Procurement of an alternate 
engine for the F-35 increases our risk in this program. The Navy does 
not have a requirement for an alternate engine; indeed, we would only 
take one model to sea. Its additional costs threaten our ability to 
fund currently planned aircraft procurement quantities, which would 
exacerbate our anticipated decrease in strike fighter capacity 
throughout the remainder of this decade.
            F/A-18A-D Hornet and F/A-18E/F Super Hornet
    Our F/A-18A-D Hornet aircraft were originally designed for a 
service life of 6,000 flight hours. Through a life assessment program 
and High Flight Hour (HFH) inspections, which have been in place for 3 
years, we have been able to extend the service life of our legacy F/A-
18A-D aircraft to 8,600 flight hours. Our fiscal year 2012 budget 
requests funding to pursue a Service Life Extension Program (SLEP) for 
150 F/A-18A-D aircraft, commencing in fiscal year 2012 at a rate of 
about 40 per year, that would further extend the service life of these 
aircraft to 10,000 flight hours. We are also conducting a life 
assessment program for our Super Hornet aircraft to extend their 
original 6,000-hour service life design to 9,000 hours. The F/A-18A-D 
HFH and SLEP are necessary measures to address our strike fighter 
inventory while preserving our investment in F-35C. To further reduce 
risk, we are accelerating the transition of 10 legacy F/A-18C squadrons 
to F/A-18 E/F Super Hornets, and our fiscal year 2012 budget requests 
funding to procure more F/A-18E/F Super Hornets than we requested last 
year. I thank Congress for their support of the F/A-18 program as we 
introduce F-35C into our Fleet.
EA-18G Growler
    The Navy has been a leader in Airborne Electronic Attack (AEA) for 
more than half a century and AEA is in high demand. AEA provides one of 
the most flexible offensive capabilities available to the joint 
warfighter and is becoming increasingly important as technology capable 
of manipulating the electromagnetic spectrum matures. We are leveraging 
the mature and proven F/A-18E/F Super Hornet airframe to recapitalize 
our AEA capability with the EA-18G Growler. Although the EA-18G 
currently utilizes the same ALQ-99 Tactical Jamming System as the EA-
6B, we are developing a new system, the Next Generation Jammer, as a 
replacement for the aging ALQ-99. The Next Generation Jammer will 
incorporate a Modular Open System Architecture and improved reliability 
and maintainability to provide a robust, flexible jamming capability 
that can evolve to address emerging threats. The EA-18G is in full rate 
production and we have accepted delivery of 43 aircraft. We have 
transitioned three EA-6B Prowler squadrons to EA-18G Growlers and two 
more squadrons are currently in transition. Our first EA-18G squadron 
deployed in November to Iraq. Our program of record will buy 114 total 
EA-18G aircraft, recapitalizing 10 carrier-based EA-6B squadrons and 
four expeditionary squadrons, all to be stationed at NAS Whidbey 
Island. The program continues to deliver on schedule and our fiscal 
year 2012 budget requests funding for 12 EA-18Gs.
P-3C Orion and P-8A Poseidon Multi-Mission Maritime Aircraft
    Our P-3C Orion aircraft remain in high demand today across a range 
of missions including Anti-Submarine Warfare, Anti-Surface Warfare, and 
time-critical Intelligence, Surveillance and Reconnaissance. Our 
Maritime Patrol Aircraft (MPA) force is a direct enabler for troops on 
the ground in Central Command while also ensuring access and battle 
space awareness at sea. Because we are operating our P-3Cs at a high 
rate, about 100 P-3 aircraft have been grounded since February 2005 for 
fatigue life and we anticipate continued groundings through the 
remainder of the P-3 program. Through significant congressional support 
for P-3C wing repairs and sustainment, as of February, we have a 
current inventory of 84 mission aircraft; a 58 percent increase since 
last year. Our fiscal year 2012 budget requests about $100 million to 
continue our P-3C sustainment program. Continued investment in this 
program and in the modernization of our P-3s is critical to ensure we 
retain sufficient capacity to conduct maritime battle space awareness 
and support to land forces in Central Command, while successfully 
transitioning to the P-8A.
    The P-8A Poseidon Multi-Mission Maritime Aircraft is ideally suited 
for regional and littoral operations, and is our pre-eminent airborne 
capability against submarine threats. Procurement of P-8A will deliver 
needed capacity for these missions. The P-8A is scheduled to reach 
initial operating capability and will begin replacing our aging P-3 
Fleet in 2013. The current delivery schedule enables transition of two 
squadrons per year. Our fiscal year 2012 budget requests funding for 11 
P-8A aircraft. I request Congress' support for the P-8A program 
schedule and for our P-3 sustainment and modernization program, the 
combination of which is essential to our transition to the next 
generation of MPA capability while avoiding future gaps in our MPA 
force.
E-2D Advanced Hawkeye
    The E-2D Advanced Hawkeye aircraft, will replace the E-2C and 
represents a two-generation leap in airborne radar surveillance 
capability. The E-2D will improve nearly every facet of tactical air 
operations and add overland and littoral surveillance to support 
theater Integrated Air and Missile Defense (IAMD) against air threats 
in high clutter, complex electro-magnetic and jamming environments. The 
airborne radar on the E-2D, with its improved surveillance capability, 
is a key pillar of the Navy Integrated Fire Control-Counter Air (NIFC-
CA) concept. Four test aircraft have been delivered to the Navy and we 
will commence operational test and evaluation in late 2011. The first 
Fleet squadron transition is planned for 2013, with an IOC scheduled 
for late 2014. Our fiscal year 2012 budget requests six E-2D aircraft. 
We plan to procure 75 aircraft, with the final aircraft procurement in 
2019 and Full Operational Capability (FOC) in 2022.
MH-60R/S Multi-Mission Helicopter
    The MH-60R and MH-60S are in full rate production. The MH-60R 
multi-mission helicopter replaces the surface combatant-based SH-60B 
and carrier-based SH-60F with a newly manufactured airframe and 
enhanced mission systems. With these systems, the MH-60R provides 
focused surface warfare and anti-submarine warfare capabilities for our 
strike groups and individual ships. The MH-60S supports surface 
warfare, combat logistics, vertical replenishment, search and rescue, 
air ambulance, airborne mine counter-measures, and naval special 
warfare mission areas. We have delivered 85 MH-60R and 187 MH-60S to 
our Fleet and our fiscal year 2012 budget requests funding for 24 MH-
60R and 18 MH-60S helicopters.
                         surface ship programs
Littoral Combat Ship (LCS)
    LCS is a fast, agile, networked surface combatant optimized to 
support naval and joint force operations in the littorals with 
capability to support open-ocean operations. It will operate with 
focused-mission packages to counter mine, small boat, and submarine 
threats in the littorals. The modular design and open architecture of 
the seaframe and mission modules provide the inherent flexibility to 
add or adapt capabilities as new technologies mature or to counter 
threats that emerge beyond the Mine Countermeasures, Surface Warfare, 
and Anti-Submarine missions currently planned for LCS. These ships will 
employ a combination of manned helicopters and unmanned aerial, 
surface, and undersea vehicles.
    U.S.S. Freedom (LCS 1) completed her first operational deployment 
to the Southern and Pacific Commands in April 2010, 2 years early. 
While deployed, U.S.S. Freedom successfully conducted counter-drug 
missions and validated its open ocean capability, allowing us to learn 
valuable lessons from these real-world operations. U.S.S. Independence 
(LCS 2) was commissioned in January 2010 and is currently in Norfolk 
undergoing post-delivery tests and trials. We are seeing demonstrated 
performance and stability in the construction of LCS 3 and LCS 4 that 
captures lessons learned from the first ships. PCU Fort Worth (LCS 3) 
was launched and christened in December and is completing final 
construction. PCU Coronado (LCS 4) is almost 50 percent complete and is 
scheduled to be launched and christened later this year. Both LCS 3 and 
LCS 4 are experiencing minimal change and are scheduled to be delivered 
to the Navy in 2012 on cost and on schedule.
    I thank Congress for approving the Navy's dual award strategy in 
December 2010. This strategy enables the Navy to save over $2 billion 
in acquisition costs and acquire these ships well below the 
congressionally mandated $480 million cost cap set in 2009. It allows 
our Navy to acquire an additional Littoral Combat ship, increasing 
needed capacity in our Fleet. I am impressed and satisfied with the 
capabilities of both LCS designs and remain committed to procuring 55 
of these ships. Consistent with the dual award strategy, our fiscal 
year 2012 budget requests four LCS seaframes at a total cost of $1.8 
billion. The budget also requests two mission packages in fiscal year 
2012. These packages provide the vital center for LCS's combat 
capability and we have aligned LCS mission module procurement with that 
of our LCS seaframes. I request your continued support as we continue 
to acquire the future capacity and capability the Fleet requires.
Ballistic Missile Defense (BMD)
    The Navy's mature and proven maritime Ballistic Missile Defense 
(BMD) capability will play a primary role in the first phase of our 
Nation's Phased Adaptive Approach (PAA) for the missile defense of our 
NATO Allies in Europe. Our fiscal year 2012 budget requests funding to 
increase our current BMD ship capacity from 21 ships (5 cruisers and 16 
destroyers) to 41 BMD capable ships by 2016. This planned capacity 
expansion will eventually include all of the Navy's Arleigh Burke class 
destroyers and nine Ticonderoga class cruisers. Until we grow our BMD 
ship capacity, our existing BMD ships may experience longer deployment 
lengths and less time between deployments as we stretch our existing 
capacity to meet growing demands.
    As part of the PAA, we are working with the Missile Defense Agency 
to adapt Navy's proven and flexible Aegis BMD capability for use in an 
ashore configuration by repackaging components of the afloat Aegis 
Weapons System into modular containers for deployment to pre-prepared 
forward sites. The Aegis Ashore Missile Defense Test Complex is 
currently under development, with fabrication to begin in Kauai, Hawaii 
in 2013. This complex is a key enabler of the Aegis Ashore capability, 
which will be tested prior to shore placement overseas in 2015. This 
phased approach provides needed technology and capacity to pace the 
threat; it serves as a conventional counter to trends in global 
ballistic missile technology; and it allows for technological 
maturation through 2020.
DDG 51 Flight IIA and Flight III
    To keep pace with the evolving air and missile defense threats, we 
restarted the DDG 51 Flight IIA production line in the fiscal year 2010 
and fiscal year 2011 budgets with advanced procurement buys for DDG 
113, 114, and 115. The restarted DDG 51 Flight IIA destroyers provide 
Navy with a proven multi-mission combatant that fills critical 
warfighting needs across the spectrum, and is the first warship built 
from the keel up to conduct maritime Ballistic Missile Defense. They 
will be the first Aegis ships to be built with the Open Architecture 
Advanced Capability Build (ACB) 12 Aegis Combat System. ACB-12 will 
allow these surface combatants to be updated and maintained with 
commercial off-the-shelf (COTS) technology, yielding reduced Total 
Ownership Cost and enhancing the ability to adapt to future military 
threats. Our fiscal year 2012 budget requests funding for the 
construction of DDG 116 as part of our plan to build seven more of the 
Flight IIA class over the FYDP (an increase of one DDG 51 over last 
year's budget). We also request just over $75 million to support 
Research and Development for ACB-12, which will support the integration 
of this critical system on DDG 113 and our development of Aegis Ashore.
    The follow-on to DDG 51 Flight IIA is the DDG 51 Flight III, which 
will commence with the construction of DDG 123. Flight III ships will 
be tailored for Integrated Air and Missile Defense (IAMD) and include 
the Air and Missile Defense Radar (AMDR), upgraded command and control 
software and hardware, and enhanced electrical power and cooling. Our 
fiscal year 2012 budget requests funding for a total of eight DDG 51 
class ships, including funding for the first Flight III ship in fiscal 
year 2016.
Modernization
    To counter emerging threats, we continue to make significant 
investments in cruiser and destroyer modernization to sustain our 
combat effectiveness and to achieve the 35 year service life of our 
Aegis fleet. Our destroyer and cruiser modernization program includes 
Hull, Mechanical, and Electrical (HM&E) upgrades, as well as advances 
in warfighting capability and open architecture to reduce total 
ownership costs and expand mission capability for current and future 
combat capabilities. In addition to HM&E upgrades, key aspects of our 
Destroyer and Cruiser modernization programs include the installation 
or upgrade of the Aegis weapons system to include an open architecture 
computing environment, addition of the Evolved Sea Sparrow Missile 
(ESSM), an upgraded SQQ-89A(V)15 anti-submarine warfare system, and 
improved air dominance with processing upgrades and Naval Integrated 
Fire Control-Counter Air capability. Our Destroyers also receive 
integration of the SM-6 missile, while our Cruisers receive 
installation of the AN/SPQ-9B radar and an upgrade to Close In Weapon 
System (CIWS) Block 1B. Maintaining the stability of the cruiser and 
destroyer modernization program is critical to our ability to provide 
relevant capability and capacity in our future Fleet. Our fiscal year 
2012 budget requests funding for the modernization of four cruisers 
(three Combat Systems and one HM&E) and three destroyers (one Combat 
System and two HM&E).
DDG 1000
    The DDG 1000 Zumwalt guided missile destroyer will be an optimally 
crewed, multi-mission surface combatant optimized for long-range 
precision land attack. In addition to providing offensive, distributed 
and precision fires in support of forces ashore, these ships will serve 
as test-beds for advanced technology, such as integrated power systems, 
a sophisticated X-Band radar, and advanced survivability features, 
which can inform future ship designs. Following a Nunn-McCurdy breach 
due to the reduction in procurement to three ships, we restructured the 
DDG 1000 program to remove the highest risk technology, the Volume 
Search Radar, from integration into the platform. DDG 1000 is more than 
37 percent complete and is scheduled to deliver in fiscal year 2014 
with an initial operating capability in fiscal year 2016.
Joint High Speed Vessel (JHSV)
    The JHSV will deliver a new level of organic logistic and maneuver 
flexibility for Combatant Commanders. JHSV is a high speed, shallow 
draft ship. Its unique design allows the ship to transport medium 
payloads of cargo and/or personnel to austere ports without reliance on 
port infrastructure. JHSV-1 and -2 are currently under construction by 
Austal USA in Mobile, AL and are scheduled to be delivered in fiscal 
year 2012 and 2013. Our fiscal year 2012 budget requests funding for 
the construction of the third JHSV. We are currently developing a 
Memorandum of Agreement with the Army that would transfer programmatic 
oversight and responsibility for the entire JHSV program, including 
operations and maintenance, to the Navy. Upon the signing of the 
agreement, all JHSVs when delivered would be operated by the Navy's 
Military Sealift Command and manned by civilian or contract mariners.
                           submarine programs
Virginia Class SSN
    The Virginia class submarine is a multi-mission submarine designed 
to dominate the undersea domain in the littorals, access denied 
environments, and the open ocean. Now in its 14th year of construction, 
the Virginia program is demonstrating its continued ability to deliver 
this critical undersea asset affordably and on time. The Navy continues 
to realize a return on investment in the Virginia cost reduction 
program and construction process improvements through enhanced 
shipbuilder performance on each successive ship. A majority of the 
submarines contracted via multiyear procurement have delivered under 
budget and ahead of schedule, and their performance continues to exceed 
expectations with every ship delivered. I am pleased with the 
accomplishments of the combined Navy-Industry team and anticipate 
additional improvements as we ramp up production to two submarines per 
year, as requested in our fiscal year 2011 and 2012 budget submissions.
SSBN and Ohio Replacement
    The Navy remains committed to recapitalizing the Nation's sea-based 
strategic deterrent, the most survivable leg of our nuclear triad. With 
a fleet of 14 Ohio class ballistic missile submarines (SSBN), we have 
been able to meet the strategic needs of the Nation since 1980. This 
class will begin retirement after more than 40 years of service in 
2027.
    The 2010 Nuclear Posture Review reaffirmed that our Nation will 
continue to rely on a reliable and survivable sea-based strategic 
deterrent for the foreseeable future. To ensure the Navy is able to 
meet the Nation's demand in this critical capability, our fiscal year 
2012 budget requests research and development funds for the design of 
the Ohio class replacement, enabling construction of the class 
beginning in 2019. The Ohio replacement will possess the endurance and 
stealth required for continuous, survivable strategic deterrence for 
decades to come. Appropriate R&D investment is essential to design a 
reliable and survivable submarine capable of deterring all potential 
adversaries. Over the past year, the Ohio replacement program has been 
thoroughly reviewed and all aspects of the program were aggressively 
challenged to drive down engineering and construction costs. Our fiscal 
year 2012 request represents best balance of needed warfighting 
capabilities with cost. The Ohio replacement program will leverage the 
many successes of the Virginia SSN program to achieve acquisition and 
total ownership cost goals. These efficiencies and a record of 
acquisition excellence are critical to minimize risk to our total force 
structure while recapitalizing sea-based strategic deterrence between 
fiscal year 2019 and fiscal year 2033.
                        amphibious warfare ships
LPD 17 Class Amphibious Warfare Ship
    The San Antonio class LPD (LPD 17) amphibious warfare ships provide 
the Navy and Marine Corps the ability to embark, transport, control, 
insert, sustain, and extract combat marines and sailors on missions 
that range from forcible entry to forward deployed crisis response. 
These ships have a 40-year expected service life and will replace four 
classes of older ships: the LKA, LST, LSD 36, and the LPD 4. Of the 11 
ships in our program of record, five ships have been delivered, three 
have completed their initial deployments, and four are under 
construction. We continue to resolve material reliability concerns with 
the class and apply the lessons learned during initial operation of the 
early ships to those under construction. Quality continues to improve 
with each ship delivered as we work closely with the shipbuilder to 
address cost, schedule, and performance issues. Our fiscal year 2012 
budget requests funding to procure the final ship in the program.
LHA Replacement (LHA(R))
    LHA(R) is the replacement for our aging Tarawa class ships, which 
will reach the end of their extended service life between 2011-2015. 
LHA(R) will provide flexible, multi-mission amphibious capabilities by 
leveraging the LHD 8 design. The America (LHA 6) is now more than 30 
percent complete and on schedule for delivery in fiscal year 2014. 
Beginning with LHA 8, the Navy will reintegrate the well deck into the 
large deck amphibious assault ships. Our fiscal year 2012 budget 
requests funding for research and development to support reintegration 
of the well deck into the design of the large deck amphibious ship and 
the construction of LHA 8 in fiscal year 2016.
Mobile Landing Platform (MLP)
    Based on commercial technology, the Mobile Landing Platform (MLP) 
will enable the transfer of equipment, personnel, and sustainment at-
sea, and delivery ashore in support of a wide range of contingency 
operations. Our fiscal year 2012 budget requests funding for one MLP 
and we intend to procure a total of three MLPs. We expect the first 
ship to deliver in fiscal year 2013 and project initial operating 
capability and incorporation into the Maritime Prepositioning Force 
(MPF) for 2015. In the Maritime Preposition Force, each of our existing 
Maritime Preposition Squadrons will be augmented by one MLP, one T-AKE 
combat logistics ship, and a Large Medium-Speed Roll-on/Roll-off (LMSR) 
cargo ship. The three T-AKE are all under contract with projected 
delivery dates beginning this year and going through fiscal year 2013.
                     information dominance programs
Unmanned Systems
    Our Navy is developing a ``family'' of unmanned systems over, on, 
and under the sea to provide unique capability, in concert with our 
manned platforms, to rapidly secure access and establish maritime 
superiority at the time and place of our choosing. We are developing 
information architecture that will allow us to rapidly assimilate data 
into information for our commanders, enabling shorter decision cycles 
that will give us an advantage in joint and maritime operations.
            Unmanned Aircraft Systems (UAS)
    Our unmanned aircraft family of systems includes the Broad Area 
Maritime Surveillance (BAMS) UAS, which will enhance our situational 
awareness and shorten the sensor-to-shooter kill chain by providing 
persistent, multiple-sensor capabilities to Fleet and Joint Commanders. 
Through our recent memorandum of agreement with the Air Force, we are 
pursuing greater commonality and interoperability between BAMS and the 
Air Force's Global Hawk UAV. Our Vertical Take-off and Landing Tactical 
Unmanned Air Vehicle (VTUAV) is on its second deployment aboard the 
U.S.S. Halyburton (FFG 40) and will deploy in an expeditionary role to 
support combat operations in Afghanistan later this year. Our fiscal 
year 2012 budget includes about $12 million in research and development 
funding to facilitate development of a weapons-capable VTUAV ready for 
deployment in late fiscal year 2012. Our fiscal year 2012 request also 
includes funding to develop a medium range maritime-based UAS (MRMUAS) 
and a Small Tactical Unmanned Aerial System (STUAS) that will support a 
variety of ships, Naval Special Warfare and Navy Expeditionary Combat 
Command units, and Marine Corps elements.
    The Navy Unmanned Combat Aircraft System Demonstration (NUCAS-D) 
will prove carrier suitability of an autonomous, unmanned, low-
observable, carrier-based aircraft. This effort includes maturing 
technologies for aircraft carrier catapult launches and arrested 
landings, as well as integration into carrier-controlled airspace. 
Initial flight tests to demonstrate carrier suitability are scheduled 
to start next year and autonomous aerial refueling demonstrations are 
planned for 2014. We will leverage the lessons learned from operating 
the demonstrator in developing a low-observable unmanned carrier-
launched airborne surveillance and strike system (UCLASS). The UCLASS 
program will shorten the timeline to find, fix, track, target, engage, 
and assess time sensitive targets. UCLASS will integrate with the 
carrier air wings and increase the flexibility, versatility, and 
capability of the carrier force. We are currently developing the UCLASS 
acquisition strategy with OSD.
            Unmanned Underwater Vehicles (UUV)
    UUVs provide an innovative technological solution to augment manned 
platforms. Our Navy has logged more than 85,000 hours of UUV operations 
to improve battlespace awareness. Our small-body Littoral Battlespace 
Sensing (LBS) oceanographic autonomous undersea gliders have 
demonstrated the ability to conduct 6-month long autonomous operations 
and will achieve Initial Operating Capability this year. Our fiscal 
year 2012 budget requests about $13 million for research, development, 
and procurement of the LBS glider. We are also developing Large 
Displacement UUVs (LDUUVs) with the capability to autonomously deploy 
and manage a variety of sensors and payloads. The development of these 
highly capable vehicles will require investment in commercially and 
militarily beneficial alternative energy technologies, including 
refinement of fuel cell technology and cutting edge battery 
technologies. Our fiscal year 2012 budget requests about $50 million to 
develop an LDUUV, and I remain committed to conduct fully independent 
UUV missions with durations of 2 months by 2017. This capability will 
allow full scale employment and deployment of LDUUV squadrons in the 
2020s.
Mobile User Objective System (MUOS)
    Our Maritime Strategy demands a flexible, interoperable, and secure 
global communications capability that can support the command and 
control requirements of highly mobile and distributed U.S. and 
coalition forces. Satellite communications give deployed forces a 
decisive military advantage and often offer the only communication 
means to support ongoing operations. Rapidly expanding joint demand for 
more access at ever-higher data rates requires moving beyond our 
current legacy Ultra High Frequency (UHF) satellite capabilities. The 
Mobile User Objective System (MUOS) will help satisfy those demands 
when initial operational capability is reached in fiscal year 2012. The 
first satellite in our planned constellation of five is scheduled for 
on-orbit capability in May 2012. Our fiscal year 2012 budget submission 
continues our investment in MUOS to replace the aging UHF Follow-On 
(UFO) constellation. I request your continued support of MUOS and the 
critical narrowband communication capability it will provide to the 
joint warfighter.
Next Generation Enterprise Network (NGEN)
    The Next Generation Enterprise Network (NGEN) is a Department of 
the Navy (DON) enterprise network that will provide secure, net-centric 
data and services to Navy and Marine Corps personnel after the current 
Navy-Marine Corps Intranet (NMCI) network stands down. In July, Navy 
awarded Hewlett Packard Enterprise Services with the Navy-Marine Corps 
Intranet (NMCI) continuity of services contract to transition the Navy 
out of Navy-Marine Corps Intranet (NMCI) and into NGEN. NGEN will 
sustain the services currently provided by NMCI, while increasing 
government command and control of our network and enabling secure, 
reliable, and adaptable global information exchange. The initial NGEN 
contracts are expected to be awarded in the first quarter of fiscal 
year 2012. Our fiscal year 2012 budget requests an additional $22 
million to support government command and control of our networks and 
improve our network situational awareness and defense.
                      remain ready to fight today
    Our Navy continues to experience a high tempo of global operations 
which I expect to continue even as combat forces draw down in 
Afghanistan. Global trends in economics, demographics, resources, and 
climate change portend an increased demand for maritime power and 
influence. America's prosperity depends upon the seas: 90 percent of 
world trade moves on the world's oceans and underwater 
telecommunications cables facilitate about $3.2 trillion of commerce 
each year. As new trade patterns emerge, such as those that will result 
from the expansion of the Panama Canal and the opening of the Arctic, 
and as disruption and disorder persist in our security environment, 
maritime activity will evolve and expand. Seapower allows our Nation to 
maintain U.S. presence and influence globally and, when necessary, 
project power without a costly, sizeable, or permanent footprint 
ashore. We will continue to maintain a forward-deployed presence around 
the world to prevent conflict, increase interoperability with our 
allies, enhance the maritime security and capacity of our traditional 
and emerging partners, confront irregular challenges, and respond to 
crises.
    High operational demand for our force over the last decade has led 
to longer deployments, lower dwell time, and reduced maintenance time 
for our surface ships. If these trends continue, our force will be less 
ready and less available than it is today because of increased stress 
on our Sailors and a reduction in our Fleet capacity as ships fail to 
reach their expected service lives. We have initiatives currently 
underway to address these trends. We are moving approximately 1,900 
Sailors from shore billets onto our ships to meet operational demands 
while maintaining acceptable Fleet readiness levels and Sailor dwell 
time. To enhance the material readiness of our Fleet, we are improving 
our ability to plan and execute maintenance by increasing manning at 
our Regional Maintenance Centers (RMCs), and by institutionalizing our 
engineered approach to surface ship maintenance, converting the 
successes of our Surface Ship Lifecycle Maintenance (SSLCM) initiative 
I began 2 years ago into the Surface Maintenance Engineering Planning 
Program Activity (SURFMEPP). I remain focused on ensuring our Navy has 
a force that is maintained and trained to provide the capability and 
forward presence required in the two areas of interest identified in 
our Maritime Strategy, the Western Pacific and the Arabian Gulf, while 
preserving our ability to immediately swing from those regions and our 
Fleet concentration areas in the United States to respond to 
contingencies globally.
    Our fiscal year 2012 base budget and Overseas Contingency 
Operations (OCO) funding requests balance the need to meet increasing 
operational requirements, sustain our Sailors' proficiency, and conduct 
the maintenance required to ensure our ships and aircraft reach their 
full service lives. It does not address the potential impacts of a 
full-year continuing resolution on our ongoing operations and 
maintenance afloat and ashore. Highlights follow of initiatives that 
ensure our Navy remains ready to fight today.
Depot Level Maintenance
    Our ships and aircraft are valuable capital assets that operate in 
unforgiving environments. Keeping these assets in acceptable operating 
condition is vital to their ability to accomplish assigned missions and 
reach their expected service lives. Timely depot level maintenance, 
based on an engineered assessment of expected material durability and 
scoped by actual physical condition, will preserve our existing force 
structure. Continued investment in depot level maintenance is essential 
in achieving and sustaining the force structure required to implement 
our Maritime Strategy. Our combined fiscal year 2012 base budget and 
OCO funding requests fulfill 94 percent of the projected ship depot 
maintenance requirements necessary to sustain our Navy's global 
presence and 95 percent of our aviation depot maintenance requirements, 
servicing 742 airframes and 2,577 engines. The actual extent of our 
depot maintenance requirements will be determined by the final funding 
levels for fiscal year 2011. I request that you fully support our 
baseline and contingency funding requests for operations and 
maintenance to ensure the effectiveness of our force, safety of our 
Sailors, and longevity of our ships and aircraft.
Shore Readiness
    Our shore infrastructure enables our operational and combat 
readiness, and is essential to the quality of life and quality of work 
for our Sailors, Navy civilians, and their families. High operational 
demands, rising manpower costs, and an aging Fleet of ships and 
aircraft cause us to take deliberate risk in shore readiness, 
specifically in sustaining our shore infrastructure. We have focused 
our facilities sustainment, restoration, and modernization funds on 
improving our housing for unaccompanied Sailors and investing in energy 
efficient building modifications. To source these enhancements, we have 
temporarily cancelled our demolition program and reduced our facilities 
sustainment posture to 80 percent of the modeled requirement. We have 
targeted our shore readiness investments in areas that have the 
greatest impact on achieving our strategic and operational objectives. 
These areas include support to our warfighting missions and 
capabilities, nuclear weapons security, quality of life for our Sailors 
and their families, and energy enhancements. We remain on track in our 
Homeport Ashore initiative to provide sufficient accommodations to our 
junior single Sailors by 2016, and we continue our support for family 
services. We plan to complete an expansion of 7,000 child care spaces 
in fiscal year 2011, allowing us to meet OSD's mandate of providing 
child care for 80 percent of the potential need in fiscal year 2012.
Training Readiness
    Our Navy is leveraging Modeling and Simulation (M&S) extensively 
across the Fleet training continuum to reduce at-sea training 
requirements and associated operating costs and energy use. These 
virtual environments stress critical command and control warfare skills 
and fine tune basic warfighting competencies without going to sea. They 
provide synthetic events that are scalable and repeatable, including 
the ability to train multiple strike groups simultaneously. Synthetic 
training provides a complex, multi-faceted threat environment that 
cannot be efficiently recreated at sea on a routine basis. Ship command 
and control simulations, in conjunction with the Fleet Synthetic 
Training (FST) program, support unit level and integrated pre-
deployment training and certification, including Joint Task Force 
Exercises (JTFEX), Ballistic Missile Defense Exercises (BMDEX), and LCS 
qualification and certification training. In fiscal year 2012, our 
Navy's use of simulators will reduce steaming days by 603 days for a 
savings of $30 million, and flying hours by 5,400 hours, for a savings 
of $35 million. The Fleet has placed FST as a top training priority 
with the objective to increase simulator use and synthetic training to 
reduce Fleet operating costs.
    Although we are maximizing our use of synthetic training, it cannot 
completely replace our need to conduct live training. Simulators cannot 
replicate the physical environment, risks, stress, or experiences that 
live training provides. Naval units must be able to practice and hone 
their skills in the air and at sea. Having the right facilities and the 
ability to practice skill sets in a live operating environment are 
necessary for the proficiency and safety of our Sailors and for the 
warfighting effectiveness of our Fleet.
    The proliferation of advanced, stealthy submarines continues to 
challenge our Navy's ability to guarantee the access and sustainment of 
joint forces. Robust Anti-Submarine Warfare (ASW) training with active 
sonar systems is vital for our Navy to effectively address this threat. 
The Navy remains a world leader in marine mammal research and we will 
continue our investment in this research in fiscal year 2012 and 
beyond. Through such efforts, and in full consultation and cooperation 
with other Federal agencies, we have developed effective measures that 
protect marine mammals and the ocean environment from adverse impacts 
of mid-frequency active (MFA) sonar while not precluding critical Navy 
training. We continue to work closely with our interagency partners to 
further refine our protective measures as scientific knowledge evolves. 
It is vitally important that any such measures ensure the continued 
flexibility necessary to respond to future national security 
requirements.
    In January, we announced our plan to initially focus Joint Strike 
Fighter (JSF) homebasing on the west coast in accordance with 2010 
Quadrennial Defense Review direction and the JSF Transition Plan. We 
also announced that we are suspending work on the Outlying Landing 
Field (OLF) draft environmental impact statement (EIS) planned for the 
east coast until at least 2014. At that time, we will re-evaluate the 
requirement for an OLF based on our east coast JSF basing and training 
requirements. We continue to experience capacity shortfalls at our 
current east coast field carrier landing practice sites that present 
challenges to meeting our current training requirements under both 
routine and surge conditions for existing Navy aircraft. We will 
continue to ensure we meet all our training requirements by 
implementing the measures necessary to use all available facilities.
Energy and Climate Change
    The Secretary of the Navy and I are committed to advancing our 
energy security. I consider energy an operational imperative and I 
established the Navy's Task Force Energy more than 2 years ago to 
improve combat capability, assure mobility, and green our footprint. We 
will achieve these goals through energy efficiency improvements, 
consumption reduction initiatives, and the aggressive adoption of 
alternative energy and fuels. Reducing our reliance on fossil fuels 
will improve our combat capability by increasing time on station, 
reducing time spent alongside replenishment ships, and producing more 
effective and powerful future weapons.
    Our tactical energy efforts fall into two categories: technical and 
behavioral changes that use energy more efficiently, and testing/
certification of alternative fuels. We are making good progress on our 
efficiency initiatives. The U.S.S. Makin Island (LHD 8) uses hybrid 
propulsion and we are installing the same system on LHA-6 and LHA-7. We 
are developing a hybrid electric drive system for the DDG-51 class and 
I anticipate a land-based test as early as this summer. We continue to 
introduce advanced hull and propeller coatings and solid state lighting 
in our ships, and we are developing the Smart Voyage Planning Decision 
Aid to achieve more efficient ship routing. We are also implementing 
policies that encourage Sailors to reduce their personal energy usage. 
These incremental initiatives add up to significant efficiency 
improvements.
    Our alternative energy programs are progressing. We are 
aggressively certifying elements of our operational force for biofuel 
use. To date we have operated the ``Green Hornet'' F/A-18 and MH-60S on 
camelina-based JP-5 fuel and the RCB-X riverine craft on algal-based F-
76 fuel. Operational testing of energy efficiency upgrades to the 
Allison 501k engine completed last month and is a key milestone toward 
certification of our Navy combatants with marine gas turbine engines.
    We have reduced our energy use ashore by more than 14 percent since 
2003, as a result of our energy efficiency efforts, including energy 
efficiency building upgrades, energy management systems, procurement of 
alternative fuel vehicles, and achievement of sustainable building 
standards for all new construction and major renovation projects. Our 
continued investments in advanced metering and energy audits will help 
identify further opportunities for efficiency gains and alternative 
energy use. Our approach remains focused on integrating the right 
technology at the right time in the right place while transforming Navy 
culture and behavior for long term sustainability.
    Since establishing Task Force Climate Change in 2009, our Navy has 
taken several actions to better understand and address the potential 
impacts of climate change on our Navy. We have increased our 
operational engagement in the Arctic, participating this past summer in 
Operation NANOOK/NATSIQ with Canada. We are re-assessing regional 
security cooperation, through our African, Southern, and Pacific 
Partnership station missions to include consideration of climate change 
adaptation, especially with respect to improving water security. We are 
also participating with the National Oceanographic and Atmospheric 
Administration (NOAA) and other Federal agencies to survey in the 
Arctic and improve our environmental observation and prediction 
capability worldwide. Scientific observations indicate that current 
changes to the climate are occurring on a decadal scale, giving our 
Navy enough time to conduct the studies and assessments necessary to 
inform future investment decisions.
Second East Coast Carrier-Capable Homeport
    The Navy continues to focus on achieving the 2010 Quadrennial 
Defense Review direction to upgrade the carrier port of Mayport. Much 
like the dispersal of west coast aircraft carriers between California 
and Washington, a second homeport on the east coast to maintain 
aircraft carriers is prudent in the event of a natural or man-made 
disaster in Hampton Roads. The dredging project funded in fiscal year 
2010 is underway and will ensure unimpeded access to Mayport. Our 
fiscal year 2012 budget requests funding for the Massey Avenue corridor 
improvement projects. We plan to request funding for the Wharf F 
recapitalization in fiscal year 2013, and the remaining projects within 
the FYDP, to establish Naval Station Mayport as nuclear carrier-capable 
homeport by 2019.
United Nations Convention on the Law of the Sea
    The Navy has consistently supported a comprehensive and stable 
legal regime for the exercise of navigational rights and other 
traditional uses of the oceans. The Law of the Sea Convention provides 
such a regime with robust global mobility rules. I believe it essential 
that the United States become a full Party to the treaty. The 
Convention promotes our strategic goal of free access to and public 
order on the oceans under the rule of law. It also has strategic 
effects for global maritime partnerships and American maritime 
leadership and influence. Creating partnerships that are in the 
strategic interests of our Nation must be based on relationships of 
mutual respect, understanding, and trust. For the 160 nations who are 
parties to the Law of the Sea Convention, a basis for trust and mutual 
understanding is codified in that document. The treaty provides a solid 
foundation for the United States to assert its sovereign rights to the 
natural resources of the sea floor out to 200 nautical miles and on the 
extended continental shelf beyond 200 nautical miles, which in the 
Arctic Ocean is likely to extend at least 600 nautical miles north of 
Alaska. As a non-Party to the treaty, the United States undermines its 
ability to influence the future direction of the law of the sea. As the 
only permanent member of the U.N. Security Council outside the 
Convention, and one of the few nations still remaining outside one of 
the most widely subscribed international agreements, our non-Party 
status hinders our ability to lead in this important area and could, 
over time, reduce the United States' influence in shaping global 
maritime law and policy. The Law of the Sea Convention provides the 
norms our Sailors need to do their jobs around the world every day. It 
is in the best interest of our Nation and our Navy to ratify the Law of 
the Sea Convention. We must demonstrate leadership and provide to the 
men and women who serve in our Navy the most solid legal footing 
possible to carry out the missions that our Nation requires of them.
   develop and support our sailors, navy civilians and their families
    Our Sailors, Navy civilians, and their families are the backbone of 
our Maritime Strategy. They make us who we are. Their skill, 
innovation, and dedication turn our ships, aircraft, weapons and 
systems into global capabilities that prevent conflict, build 
partnerships, and, when necessary, project combat power to prevail in 
war. Our investment in our Sailors, Navy civilians, and their families 
ensures our Navy's continued maritime dominance today and in the 
future.
    Our fiscal year 2012 budget requests authorization and funding for 
325,700 active and 66,200 reserve end strength. This request includes 
the migration of more than 1,800 military billets from shore and staff 
activities into the Fleet to man new ships and squadrons, restore 
optimal manning cuts, add needed information technology and nuclear 
operators to our force, and restore billets for fiscal year 2013 to 
extend U.S.S. Peleliu in commission. This migration will enhance our 
forces afloat; however, the transition will present challenges to our 
ability to maintain sea-shore flow for some of our enlisted Sailors and 
sustain manning levels across the force. We are aware of these 
challenges and believe the transition is manageable. Our fiscal year 
2012 end strength request also begins to move end strength previously 
supported by OCO funding, namely our Navy Individual Augmentees (IAs), 
into our baseline program. We will execute a phased draw down of our 
OCO end strength as we project a gradual reduction of IA demands in 
Iraq and Afghanistan. Should IA demand remain at current levels, or 
increase over time, we will be challenged to meet manning requirements 
for our Fleet. Our Navy continues to size, shape, and stabilize our 
force through a series of performance-based measures designed to retain 
the skills, pay grades, and experience mix necessary to meet current 
and future requirements.
    Our fiscal year 2012 endstrength reflects efficiencies in our 
manpower account that reduce excess overhead by disestablishing several 
staffs, but not their associated ships and aircraft, for submarine, 
patrol aircraft, and destroyer squadrons, as well as one Carrier Strike 
Group staff. We are disestablishing the headquarters of Second Fleet 
and transferring responsibility for its mission to U.S. Fleet Forces 
Command. These efficiencies streamline our organizations and allow us 
to reinvest the savings into warfighting capability and capacity.
    I would like to touch briefly on the issue of changes to the 
healthcare benefit. Navy Medicine has been a leader in implementing 
pilot testing for the Department in a new concept called the Patient-
Centered Medical Home. Beneficiaries have welcomed Navy Medicine's 
Medical Home Port initiative and it shows in their satisfaction scores. 
I am convinced that our beneficiaries will readily accept very modest 
changes to copayments as long as we continue to invest in these 
transformational approaches to delivering high quality healthcare. The 
proposals in the President's budget are consistent with our efforts 
over the last several years: a focus on internal efficiency, 
incentivizing the health behaviors we want, and ensuring all of our 
beneficiaries are treated equitably. I request you support these timely 
and appropriate efforts.
    The tone of our force continues to be positive. In 2010, we 
conducted the Navy Total Force Survey, which was the first of its kind 
to assess the work-related attitudes and experiences of active and 
reserve Sailors and Navy civilians. The survey reported that Navy 
personnel are, overall, satisfied with the quality of their leadership, 
benefits, compensation, and opportunities within the Navy for personal 
growth and development. The survey results reaffirmed what more than 20 
national awards have recognized: that our Navy is a ``Top 50'' 
organization and an employer of choice among today's workforce.
    Our fiscal year 2012 budget request represents a balanced approach 
to supporting our Sailors and their families, sustaining the high tempo 
of current operations, and preserving Fleet and family readiness. 
Highlights follow of our efforts to develop and support our Sailors, 
Navy civilians and their families.
Recruiting and Retention
    Our Navy has enjoyed strong recruiting success over the past 3 
years, and we expect this trend to continue through fiscal year 2011. 
Fiscal year 2010 marked the third consecutive year Navy met or exceeded 
its overall enlisted recruiting goals in both the Active and Reserve 
Components and we continue to exceed Department of Defense quality 
standards in all recruit categories. We accessed the highest quality 
enlisted force in history last year, with more than 97 percent having 
traditional high school diplomas. Active officer recruiting for fiscal 
year 2010 also exceeded our overall goals. Reserve officer recruiting 
exceeded our fiscal year 2009 levels, but achieved only 95 percent of 
our fiscal year 2010 goal. Reserve medical officer recruiting continues 
to be our greatest challenge as the requirement for medical officers 
has increased by more than 100 percent since fiscal year 2008. We 
continue to explore new avenues for recruiting, including expanding our 
social media engagement to maintain a dialogue with potential 
applicants and influencers nationwide.
    Navy will remain competitive in the employment market through the 
disciplined use of monetary and non-monetary incentives. Using a 
targeted approach, we will continue our recruiting and retention 
initiatives to attract and retain our best Sailors, especially those 
within high-demand, critical skill areas that remain insulated from 
economic conditions. We are taking advantage of current high retention 
rates and success in accessions by reevaluating all special and 
incentive pays and bonuses and reducing them where possible. Judicious 
use of special and incentive pays remains essential to recruiting and 
retaining skilled professionals in the current economic environment, 
and will increase in importance as the economic recovery continues. Our 
goal remains to maintain a balanced force, in which seniority, 
experience, and skills are matched to requirements.
    To ensure we stay within our congressionally authorized end 
strength, we are executing force stabilization measures that include 
Perform-to-Serve (PTS) for enlisted Sailors and a series of Selective 
Early Retirement (SER) boards for Unrestricted Line (URL) Captains and 
Commanders. PTS considers the manning levels in each enlisted rating 
and reviews the record of Sailors eligible for reenlistment to 
determine if the Sailor should remain in the rating, convert to an 
undermanned specialty, transition to the reserves, or separate from the 
Navy. The SER boards will address the excess inventory of active 
component Captain (O6) and Commander (O5) URL officers in our Navy to 
ensure sufficient senior officers are available at the right time in 
their careers to serve in critical fleet billets. We project 
approximately 100 URL Captains and 100 URL Commanders will be selected 
for early retirement through this process. With these performance-based 
measures, we expect to meet our fiscal year 2011 authorized active end 
strength of 328,700 and reserve end strength of 65,500 by the end of 
the fiscal year. We will be challenged to meet our active and reserve 
end strength targets in fiscal year 2012 using existing force shaping 
measures. As a result of continued high retention and low attrition 
across the force, we are facing increasing pressure to use involuntary 
force shaping measures to remain within our authorized end strength.
Diversity
    Demographic projections estimate that today's minorities will make 
up more than one-third of our Nation's workforce by 2020; by 2050, that 
projection increases to about half of our workforce. Our ability to 
access and retain the talents of every component group in our society 
is critical to our mission success. Recruiting and retaining a diverse 
workforce, reflective of the Nation's demographics at all levels of the 
chain of command, remains a strategic imperative and a focus area for 
leaders throughout our Navy. To foster a Navy Total Force composition 
that reflects America's diversity, we are focusing our efforts on 
outreach, mentoring, leadership accountability, training, and 
communication. Our diversity outreach efforts have contributed to our 
2014 U.S. Naval Academy and NROTC classes being the most diverse 
student bodies in our history. We have increased diverse accessions 
through targeted recruiting in diverse markets, developing 
relationships with key influencers in the top diverse metropolitan 
markets, and aligning Navy assets and organizations to maximize our 
connection with educators, business leaders and government officials to 
increase our influencer base. We continue to expand our relationships 
with key influencers and science, technology, engineering, and 
mathematics (STEM)-based affinity groups to inform our Nation's youth 
about the unique opportunities available in our Navy. We are also 
building and sustaining a continuum of mentorship opportunities that 
includes the chain of command, individual communities, social 
networking, peer-to-peer relationships, and affinity groups. We will 
continue to ensure that all Sailors are provided with opportunities to 
develop personally and professionally.
Women on Submarines
    After notifying Congress last year of our intent to assign women to 
submarines, the Secretary of the Navy and I have authorized female 
officers to serve aboard Ohio class SSBN and SSGN submarines. This will 
enable our submarine force to leverage the tremendous talent and 
potential of the women serving in our Navy. The first 18 female 
submarine officers commenced the standard 15-month nuclear and 
submarine training pipeline in 2010, and will begin arriving at their 
submarines at the end of this year. These officers will be assigned to 
two ballistic missile (SSBN) and two guided missile (SSGN) submarines 
which have the space to accommodate female officers without structural 
modification. The plan also integrates female supply corps officers 
onto SSBNs and SSGNs at the department head level. In December, the 
Secretary of Defense notified Congress of Navy's intent to expend funds 
to commence design and study efforts regarding reconfiguration of 
existing submarines to accommodate female crew members, as well as to 
design the Ohio replacement SSBN with the flexibility to accommodate 
female crew members.
Don't Ask, Don't Tell
    I am pleased Congress voted to repeal section 654 of Title 10, 
United States Code, commonly referred to as the ``Don't Ask, Don't 
Tell'' (DADT) statute. Legislative repeal affords us the time and 
structured process needed to effectively implement this significant 
change within our Armed Forces. As I testified in December, we will be 
able to implement a repeal of DADT in our Navy. I assess the risk to 
readiness, effectiveness, and cohesion of the Navy to be low. Our 
implementation process will be thorough, but timely. We are preparing 
the necessary policies and regulations to implement this change in law 
and training Sailors and leaders at all levels to ensure they 
understand what repeal means to them, their families, and the Navy. 
Before repeal can occur, the President, Secretary of Defense, and 
Chairman of the Joint Chiefs must certify that the change can be made 
in a manner consistent with the standards of military readiness, 
military effectiveness, unit cohesion, and recruiting and retention of 
the Armed Forces. I will provide Navy's input to the certification 
process and I remain personally engaged in this process.
Sailor and Family Continuum of Care
    We remain committed to providing our Sailors and their families a 
comprehensive continuum of care that addresses all aspects of medical, 
physical, psychological, and family readiness. Our fiscal year 2012 
budget request expands this network of services and caregivers to 
ensure that all Sailors and their families receive the highest quality 
healthcare available.
    Navy Safe Harbor is at the forefront in Navy's non-medical care for 
all seriously wounded, ill, and injured Sailors, Coast Guardsmen, and 
their families. We have expanded our network of Recovery Care 
Coordinators and non-medical Care Managers to 12 locations across the 
country. Safe Harbor continues to provide exceptional, individually 
tailored assistance to a growing enrolled population of more than 600 
individuals. Over 116,000 Sailors and their spouses have participated 
in Operational Stress Control (OSC) training, which actively promotes 
the psychological health of Sailors and their families by encouraging 
them to seek help for stress reactions early, before they become 
problems. The Warrior Transition Program (WTP) and Returning Warrior 
Workshops (RWW) are essential to post-deployment reintegration efforts. 
The WTP offers an opportunity for IA Sailors redeploying from a combat 
zone to decompress, turn in their gear, and receive tools that will 
help them ease their transition back to their home and families. The 
RWW is designed to address personal stress that may be generated by 
deployment activities and it supports and facilitates the reintegration 
of the deployed Sailor with his/her spouse and family. The RWW also 
provides a safe, relaxed atmosphere in which to identify and address 
potential issues that may arise during post-deployment reintegration.
Stress on the Force
    While the overall tone of our force remains positive, current 
trends suggest that high operational tempo, increasing mission demands, 
lean manning, force shaping, and economic conditions are placing 
increased stress on our Navy personnel. Our fiscal year 2012 budget 
requests increased funding to improve our program manager-level support 
of our suicide prevention and stress control programs.
    Suicide dramatically affects individuals, commands and families. 
Over the last year, we expanded our approach to preventing suicides 
from historic suicide surveillance and annual awareness training to 
include more comprehensive resilience building and tailored suicide 
prevention training, peer intervention, research and analysis. We saw a 
reduction in our number of suicides from 46 in calendar year 2009 to 38 
in calendar year 2010. Our calendar year suicide rate also decreased 
from 13.3 per 100,000 Sailors in 2009 to 10.9 per 100,000 Sailors in 
2010. Our 2010 suicide rate is below the national rate of 19.0 per 
100,000 individuals for the same age and gender demographic; however, 
any loss of life as a result of suicide is unacceptable. Suicide 
prevention is an ``all hands, all the time'' effort involving our 
Sailors, families, peers, and leaders. We continue to work toward a 
greater understanding of the issues surrounding suicide to ensure that 
our policies, training, interventions, and communications are meeting 
intended objectives.
    We are integrating our suicide prevention efforts into the broader 
array of programs we offer to improve the resilience of our force. 
These programs, aimed at reducing individual stress, address issues, 
such as substance abuse prevention, financial management, positive 
family relationships, physical readiness, and family support.
    We continue our efforts to eliminate sexual assault by fostering a 
culture of prevention, victim response and offender accountability. 
Sexual assault is incompatible with our Navy core values, high 
standards of professionalism, and personal discipline. We have 
organized our efforts in this critical area under the Navy Sexual 
Assault Prevention and Response (SAPR) program. The SAPR program and 
the Naval Safety Center and Alcohol and Drug Prevention Program are 
currently developing an integrated approach to sexual assault 
prevention that includes clear leadership communication, bystander 
intervention training for Sailors to help them recognize and interrupt 
risky situations, and training for military investigators and lawyers 
on issues specific to sexual assault investigation and prosecution.
Learning and Development
    Education and training are strategic investments that give us an 
asymmetric advantage over adversaries. To develop the highly skilled, 
combat-ready force necessary to meet the demands of the Maritime 
Strategy and the Joint Force, we have 15 learning centers around the 
country providing top-notch training to our Sailors, Navy civilians and 
members of the other Services. In fiscal year 2010, we completed 
learning and development roadmaps for all enlisted ratings, providing 
Sailors with detailed information about the required training, 
education, qualifications and assignments they need to succeed in their 
career fields. We continue to leverage a blended training approach, 
integrating experienced instructors, advanced technology, and state-of-
the-art delivery systems with modularized content in order to provide 
the right training at the right time in a Sailor's career. We are 
balancing existing education and training requirements with growth in 
important mission areas such as cyber defense, missile defense, and 
anti-submarine warfare. Cultural, historical, and linguistic expertise 
remain essential to successfully accomplishing the Navy's global 
mission, and our budget request supports our Language, Regional 
Expertise, and Culture (LREC) program as well as the Afghanistan-
Pakistan (AF-PAK) Hands Program sponsored by the Joint Staff. Last year 
the LREC program provided language and cultural training to more than 
120,000 Sailors en route to overseas assignments. We recognize the 
importance of providing our people meaningful and relevant education, 
particularly Joint Professional Military Education (JPME), which 
develops leaders who are strategically minded, capable of critical 
thinking, and adept in naval and joint warfare. Our resident courses at 
Naval War College, non-resident courses at Naval Postgraduate School 
and in the Fleet Seminar program, and distance offerings provide ample 
opportunity for achievement of this vital education.
                               conclusion
    You can be exceptionally proud of our Sailors. They are our 
Nation's preeminent force at sea, on land, and in air, space, and 
cyberspace. While the future is not without challenges, I am optimistic 
about our future and the global opportunities our Navy provides our 
Nation. Our fiscal year 2012 budget request represents a balanced 
approach to increasing Fleet capacity, maintaining our warfighting 
readiness, and developing and enhancing our Navy Total Force. I ask for 
your strong support of our fiscal year 2012 budget request and my 
identified priorities. Thank you for your unwavering commitment to our 
Sailors, Navy civilians, and their families, and for all you do to make 
our United States Navy an effective and enduring global force for good.

    Chairman Inouye. And may I now call upon the Commandant of 
the Marine Corps, General Amos.
STATEMENT OF GENERAL JAMES F. AMOS, COMMANDANT, UNITED 
            STATES MARINE CORPS
    General Amos. Mr. Chairman, Ranking Member Cochran, members 
of the subcommittee, it's my honor to appear before you today, 
for the first time, as our Nation's Commandant of the Marine 
Corps.
    The Corps serves as America's expeditionary force in 
readiness, a balanced air-ground logistics team of 202,000 
Active, 39,000 Reserve, and 35,000 civilian marines.
    Today, there are over 32,000 marines forward-deployed 
around the world. As we sit here in the comfort of this hearing 
room, it's just past 8:30 in the evening in Afghanistan. The 
rainy season has hit. The evenings remain cold and damp. It's 
in this nation where 20,000 of our young men and women are 
engaged in full-spectrum combat and counterinsurgency 
operations. I'm encouraged by the significant progress they 
have made in the Helmand Province. And you have my assurance 
that this effort remains my top priority.
    Sergeant Major Kent and I spent Christmas with our marines 
and sailors in Afghanistan, and I'm happy to report that their 
morale is high and their belief in their mission remains 
strong.
    Partnered with the United States Navy, we are forward-
deployed and forward-engaged. This past year alone, our float 
forces conducted humanitarian assistance missions in Pakistan, 
Haiti, and the Philippines, recaptured the pirated ship, 
Magellan Star, from its Somali pirates. And 2 weeks ago, 
marines from the 1st Battalion, 2d Marine Regiment, rapidly 
deployed to the Mediterranean to join their brothers and 
sisters on board two amphibious ships. This formidable force is 
underway now, prepared to do our Nation's bidding.
    Likewise, on the opposite side of the world, marines based 
on Okinawa rapidly responded to our ally, Japan, following this 
week's devastating earthquake and tsunami. Within hours of this 
tragedy, marine aviation units from the Marine Corps Air 
Station Futenma Okinawa began transporting humanitarian 
assistance goods, disaster response planning teams, and 
personnel to impacted areas. We have established a forward-
refueling and operating base, just west of the devastation, to 
facilitate around-the-clock search-and-rescue and transport 
operations. Our marines already on the ground are being joined 
by 2,200 marines and sailors from the three amphibious ships of 
the 31st Marine Expeditionary Unit. In addition to a multitude 
of other capabilities, the 31st MEU is optimized for 
humanitarian assistance and disaster response operations.
    Evidenced by what has unfolded globally just within the 
last 2 weeks, our role as America's crisis response force 
necessitates that we maintain a high state of readiness. Our 
mission is simple. We need to be ready to respond to today's 
crisis, with today's force, today.
    I am keenly aware of the fiscal realities confronting our 
Nation. During these times of constrained resources, the Marine 
Corps remains committed to being the best stewards of scarce 
public funds. We maintain a longstanding tradition in Congress 
as the Department of Defense's penny-pinchers. Our 
institutionalized culture of frugality positions us as the best 
value for the Defense dollar.
    For approximately 8.5 percent of the annual Defense budget, 
the Marine Corps provides the Nation 31 percent of its ground 
operating forces, 12 percent of its fixed-wing tactical 
aircraft, and 19 percent of its attack helicopters. This year's 
budget submission was framed by my four service-level 
priorities: We will, one, continue to provide the best-trained 
and -equipped marine units to Afghanistan; two, rebalance our 
Corps and posture it for the future in a post-Afghanistan 
environment; three, better educate and train our marines to 
succeed in increasingly complex environments; and last, but not 
least, we will keep faith with our marines, our sailors, and 
our families.
    While these priorities will guide our long-term planning 
for the Marine Corps, there are pressing issues that face our 
Corps today that concern me, issues for which I ask for 
Congress' continued assistance in solving. Our equipment abroad 
and at home stations has been heavily taxed in the nearly 10 
years of constant combat operations. The price tag for reset 
today is $10.6 billion. The F-35B STOVL Joint Strike Fighter is 
vital to our ability to conduct expeditionary airfield 
operations. Continued funding and support from Congress for 
this important program is of utmost importance to me and the 
Marine Corps.
    You have my promise that, during the next 2 years of F-35B 
scrutiny, I will remain personally engaged with the program, 
closely supervising it. Both the Secretary of Defense and the 
Secretary of the Navy have reaffirmed the necessity of the 
Marine Corps' amphibious assault mission. We must develop an 
affordable and capable amphibious vehicle to project marines 
from sea to land in permissive and uncertain and in hostile 
environments. I ask for your support to reach this goal.
    To ensure the Marine Corps remains a relevant force with a 
capacity and capability to respond to the demands of the future 
security environment, we recently conducted a detailed and 
internally driven force-structure review. The results of this 
effort provide America a strategically mobile, middleweight 
force, optimized for forward presence in crisis response.
    Finally, I would like to comment on the impact of--the 
current continuing resolution has had on our operations and 
programs. As of this morning, $1 billion in military 
construction contracts have not been awarded; $2.4 billion of 
Milcon is at risk for the remainder of the year. These project 
impact--projects impact the lives of marines, the local 
economies and communities around our bases and stations, and 
are projected to generate over 63,000 jobs, from the Carolinas 
to Hawaii.
    If the continuing resolution extends through the entire 
fiscal year, 13 bachelor enlisted quarters (BEQ), totaling 
5,000 affected spaces, will not be built, thus stymieing our 
BEQ modernization plans. These 13 BEQs will allow eight 
infantry battalions to move out of 50-year-old cold war-era 
barracks.
    Finally, a continuing resolution could prove catastrophic 
to our procurement accounts, resulting in the loss of almost 
one-third or our procurement budget.
    Last, you have my promise that, in these challenging times 
ahead, the Marine Corps will only ask for what it needs, not 
what it might want. We will make the hard decisions before 
coming to Congress, and we will redouble our efforts toward our 
traditional culture of frugality.

                           PREPARED STATEMENT

    Once again, Mr. Chairman, I thank you, and each of you, for 
your continued support. I'm prepared to answer your questions.
    Chairman Inouye. Thank you very much, Commandant.
     [The statement follows:]
              Prepared Statement of General James F. Amos
               america's expeditionary force in readiness
    The Marine Corps is America's Expeditionary Force in Readiness--a 
balanced air-ground-logistics team. We are forward-deployed and 
forward-engaged: shaping, training, deterring, and responding to all 
manner of crises and contingencies. We create options and decision 
space for our Nation's leaders. Alert and ready, we respond to today's 
crisis, with today's force . . . Today. Responsive and scalable, we 
team with other services, allies and interagency partners. We enable 
and participate in joint and combined operations of any magnitude. A 
middleweight force, we are light enough to get there quickly, but heavy 
enough to carry the day upon arrival, and capable of operating 
independent of local infrastructure. We operate throughout the spectrum 
of threats--irregular, hybrid, conventional--or the shady areas where 
they overlap. Marines are ready to respond whenever the Nation calls . 
. . wherever the President may direct.

                                              General James F. Amos
               america's expeditionary force in readiness
    Today, your United States Marine Corps is foremost America's 
Expeditionary Force in Readiness. Established originally by an act of 
the Second Continental Congress on November 10, 1775, your Marine Corps 
has evolved over 235 years into a balanced air-ground-logistics team 
that is forward deployed and forward engaged: shaping, training, 
deterring, and responding to all manner of crises and contingencies.
    Through the ongoing support of Congress and the American people, 
your Marine Corps is a cohesive force of 202,100 Active Duty Marines; 
39,600 Selected Reserve Marines; and 35,000 Civilian Marines. At any 
given time, approximately 30,000 Marines are forward deployed in 
operations supporting our Nation's defense.\1\ This year, as our Nation 
recognizes a decade since the tragic events of 9/11, your Marine Corps 
has been conducting Overseas Contingency Operations for an equal amount 
of time. From Task Force 58 with 4,400 Marines launching from six 
amphibious ships to secure critical lodgments in Afghanistan in late 
2001 to our counterinsurgency efforts in the Al Anbar province of Iraq 
and to our current operations in the Helmand River Valley of 
Afghanistan, your Marines have been forward deployed in the service of 
our Nation.
---------------------------------------------------------------------------
    \1\ As of December 2010, there were approximately 20,700 Marines in 
Afghanistan including Marines serving in external billets (e.g. 
transition teams and joint/interagency support, etc.); 6,200 at sea on 
Marine Expeditionary Units; and 1,600 Marines engaged in various other 
missions, operations and exercises. The 30,000 statistic excludes over 
18,000 Marines assigned to garrison locations outside the continental 
United States such as in Europe, the Pacific, etc.
---------------------------------------------------------------------------
    Yet, during this time the Marine Corps has not been confined solely 
to major combat operations and campaigns. From our rapid response 
aiding fellow Americans and enabling joint and interagency relief 
efforts following Hurricane Katrina's floods, to our non-combatant 
evacuation operation of 14,000 American citizens from Lebanon in 2006, 
to our numerous and ongoing security cooperation missions with nations 
of Africa, Eastern Europe, the Pacific Rim, and Latin America, the 
United States Marine Corps continues to demonstrate the agility and 
flexibility expected of America's principal crisis response force. Over 
the course of the past year alone, your brave men and women who wear 
the Marine uniform and who bring a diversity of talent in service to 
our Nation, have simultaneously:
  --Waged an aggressive full-spectrum counterinsurgency operation in 
        Afghanistan while concurrently increasing combat power nearly 
        two-fold (i.e. from 10,600 to 19,400) in accordance with the 
        President's December 2009 Afghanistan-Pakistan strategy;
  --Successfully completed our mission in Iraq, bringing stability to 
        Al Anbar province. This achievement was not without sacrifice 
        and suffering in that 1,022 \2\ Marines gave their lives and 
        8,626 Marines were wounded in action;
---------------------------------------------------------------------------
    \2\ 1022 deaths = 851 killed in action (hostile) and 171 deceased 
(non-hostile).
---------------------------------------------------------------------------
  --Partnered with allied forces in engagement missions throughout 
        every Geographic Combatant Commander's Area of Responsibility;
  --Conducted foreign humanitarian assistance and disaster relief 
        missions in Pakistan, Haiti, and the Philippines;
  --Participated in maritime security operations to ensure freedom of 
        navigation along vital sea lines of communication, to include 
        the recapture of the vessel Magellan Star and rescue of its 
        crew from Somali pirates; and
  --Rapidly reinforced U.S. Embassies in Port au Prince, Haiti; 
        Conakry, Guinea; Bishkek, Kyrgyzstan; and most recently Cairo, 
        Egypt to assist and protect diplomatic personnel amidst crises 
        in these foreign capitals.
    Their actions align with the functions of our Corps as seen in the 
new Department of Defense Directive 5100.01, Functions of the 
Department of Defense and Its Major Components, and are a critical link 
to the continued prosperity and security of our Nation and the survival 
of our friends, allies and partners. The performance of your Marines on 
the global stage adds to our storied legacy of sacrifice and success--
under even the most adverse conditions--inspiring a sense of pride and 
confidence in the American public that their Marines are able to 
respond quickly, ensuring the Nation's interests will be protected.
                      future security environment
    Public law, defense policy, our doctrine and operating concepts, 
and the future security environment shape how we organize, train, and 
equip our forces. As we look ahead, we see a world of increasing 
instability, failed or failing states, and conflict characterized by: 
Poverty, unemployment, urbanization, overpopulation, and extremism; 
competition for scarce natural resources; and rapid proliferation of 
new technologies to include capabilities to disrupt cyber networks, 
advanced precision weaponry, and weapons of mass destruction.
    These troubling socio-economic and geopolitical trends converge in 
the littorals--regions along the world's coastline where the sea joins 
with the land. The majority of the world's population lives near the 
sea. The trend toward accelerated birth rates in the developing world, 
coupled with ongoing migration from rural to urban landscapes, results 
in hyper-populated coastal regions, burdened by the cumulative 
stressors of criminality, extremism, and violence.
    Littoral cities increasingly may assume what some have called feral 
qualities, raising the potential for conflict, providing a measure of 
sanctuary for our adversaries, and posing challenges to governmental 
sovereignty and regional security. It is in this complex environment 
that your United States Marine Corps will operate. We stand optimally 
postured to conduct a range of operations for Joint Force commanders, 
bridging the gap between operations at sea and on land.
    Nonetheless, we are committed to the prevention of conflict as we 
are to responding to it. Indeed, 21st century security challenges 
require expansion of global engagement--facilitated through persistent 
forward naval presence--to promote collective approaches to addressing 
common security concerns. Accordingly, forward deployed Marine forces 
will increasingly conduct theater security cooperation activities and 
will build partnership capacity through security force assistance 
missions with our allies and partners around the globe. The goal of our 
engagement initiatives is to minimize conditions for conflict and 
enable host nation forces to effectively address instability as it 
occurs.
                        role of the marine corps
    The United States is a maritime nation with global 
responsibilities. With a naval tradition as the foundation of our 
existence, we remain firmly partnered with the U.S. Navy. Forward 
deployed, we retain the ability to come from the sea rapidly to conduct 
missions across the range of military operations. Our persistent 
forward presence and multi-mission capability present an unparalleled 
ability to rapidly project U.S. power across the global commons--land, 
sea, air, space, and cyber.
    Amphibious forces with robust and organic logistical sustainment 
provide a maritime Super Power significant advantages, including the 
ability to overcome the tyranny of distance and to project power where 
there is no basing or infrastructure--a strong deterrent capability for 
our Nation. To Marines, ``expeditionary'' is a state of mind that 
drives the way we organize our forces, train, develop and procure 
equipment. By definition, our role as America's crisis response force 
necessitates a high state of unit readiness and an ability to sustain 
ourselves logistically. We must be ready to deploy today and begin 
operating upon arrival, even in the most austere environments. The 
United States Marine Corps affords the following three strategic 
advantages for our Nation:
  --A versatile ``middleweight'' capability to respond across the range 
        of military operations. We fill the gap in our Nation's defense 
        as an agile force capable of operating at the high and low ends 
        of the threat spectrum or the indistinct areas in between.
  --An inherent speed and agility that buys time for National leaders. 
        Our flexibility and rapid response capability present unique 
        opportunities to develop strategic options, shape the 
        environment, and set conditions to deploy the full capabilities 
        of the Joint Force and other elements of National power.
  --An enabling and partnering capability in joint and combined 
        operations. Our unique forward posture aboard amphibious ships, 
        manned by well trained, uniformed sailors, positions us to be 
        the ``first to fight.''
                            usmc priorities
    My four service level priorities informed this year's budget 
submission. These priorities were influenced by and derived from a 
number of factors to include our understanding of the 21st century 
battlefield based on lessons learned over nearly a decade at war, our 
examination of the future security environment, our doctrine and 
operating concepts, and our current and future budgetary and 
programmatic requirements.
    These priorities are aligned with the principal recommendations of 
the 2010 Quadrennial Defense Review, meeting its end state of ensuring 
that the Marine Corps is able to ``prevail in today's wars, prevent and 
deter conflict, prepare to defeat adversaries and succeed in a wide 
range of contingencies, and preserve and enhance the All-Volunteer 
Force.'' My priorities also support America's four enduring strategic 
interests as identified in the 2010 National Security Strategy.\3\ To 
that end, we will:
---------------------------------------------------------------------------
    \3\ (1) Security of the United States, its citizens, and U.S. 
allies and partners; (2) a strong, innovative, and growing U.S. economy 
in an open international economic system that promotes opportunity and 
prosperity; (3) respect for universal values at home and around the 
world; (4) and an international order advanced by U.S. leadership that 
promotes peace, security, and opportunity through stronger cooperation 
to meet global challenges. 2010 National Security Strategy Pg, 7.
---------------------------------------------------------------------------
  --Continue to provide the best trained and equipped Marine units to 
        Afghanistan;
  --Rebalance our Corps, posture it for the future, and aggressively 
        experiment with and implement new capabilities and 
        organizations;
  --Better educate and train our Marines to succeed in distributed 
        operations and increasingly complex environments; and
  --Keep faith with our Marines, our Sailors and our families.
    The above priorities guide my long-term plan for the Marine Corps; 
however, there are pressing issues facing our Corps today that give 
cause for concern.
  --Equipment.--Our equipment abroad and at home station has been 
        ``heavily taxed'' in the nearly 10 years of constant combat 
        operations. We require funding to reset equipment being 
        utilized overseas and to reconstitute home-station equipment 
        and modernize for the future. This is critical to maintaining 
        readiness throughout the Corps.
  --The Short Take-Off and Vertical Landing F-35B Joint Strike 
        Fighter.--The F-35B is vital to our ability to conduct combined 
        arms operations in expeditionary environments. Continued 
        funding and support from Congress for this program is of utmost 
        importance.
  --Amphibious Combat Vehicle.--We will begin the development of an 
        affordable and capable amphibious combat vehicle to replace the 
        recently cancelled Expeditionary Fighting Vehicle program. The 
        capability inherent in a ship-to-shore connector is critical to 
        our expeditionary nature, as affirmed by the Secretary of 
        Defense.
  --End Strength.--The drawdown of our active component from 202,100 to 
        186,800 must be conditions-based, and only after completion of 
        our mission in Afghanistan. We must keep faith with our Marine 
        Corps family by allowing appropriate time and support for those 
        departing the force and to ensure the resiliency of our units 
        still engaged in war.
  --Family Readiness Programs.--Like our equipment, Marines and their 
        families have been ``heavily taxed'' since 9/11. We will 
        continue to fund family readiness and family support programs 
        that are vital to the health and welfare of our entire Marine 
        Corps family.
  --Amphibious Ships.--The Navy and Marine Corps have determined a 
        minimum force of 33 ships represents the limit of acceptable 
        risk in meeting the 38-ship amphibious force requirement for 
        the Assault Echelon. Marines are best postured to engage and 
        respond to the Nation's security interests from amphibious 
        ships.
    The Marine Corps needs the continued support of Congress in 
confronting these critical issues and the many others discussed below. 
My promise to Congress is that we will do our part by continuing to be 
good stewards of our taxpayers' dollars.
                 fiscal year 2012 budgetary submission
    The Marine Corps maintains a longstanding tradition in the 
Department of Defense as being ``Penny Pinchers.'' A prime example of 
our many noteworthy cost-saving measures is our practice of units 
deploying to Afghanistan utilizing equipment sets maintained and 
repaired in country--a measure saving significant funds annually on 
costs associated with the cycle of deployment and redeployment. Our 
institutionalized culture of frugality, streamlined business practices, 
lean structure, and multi-mission capability, position us as the ``best 
value'' for the defense dollar. This fiscal year we are seeking over 
$40 billion \4\ to fund ongoing operations, provide quality resources 
for our Marines, Sailors and their families, conduct reset of equipment 
stressed from nearly 10 years at war, and prepare our forces for future 
missions. For approximately 8.5 percent \5\ of the annual Defense 
budget, the Marine Corps provides the Nation approximately 31 percent 
of its ground operating forces (Combat, Combat Support and Combat 
Service Support), 12 percent of its fixed wing tactical aircraft, and 
19 percent of its attack helicopters.
---------------------------------------------------------------------------
    \4\ This sum includes both ``Blue in Support of Green'' funding, 
Overseas Contingency Operation funding, and other Navy funding for USMC 
needs (e.g. chaplains, medical personnel, amphibious ships, etc)
    \5\ Based on provisions of the fiscal year 2010 National Defense 
Authorization and Appropriation Acts.
---------------------------------------------------------------------------
    During these times of constrained resources, the Marine Corps 
remains committed to streamlining operations, identifying efficiencies, 
and reinvesting savings to conserve scarce public funds. At the 
direction of the Secretary of Defense in June 2010, the services 
conducted an efficiencies review and our fiscal year 2012 budget is the 
result of a thorough study of all of our business activities. Already 
one of the most economical of the military services, we achieved our 
DOD efficiency goal. We captured overhead efficiency savings by 
focusing on three main efforts: Buying smarter through acquiring 
platforms more intelligently; streamlining our operations; and being 
more efficient in the way we use, produce, and acquire energy.
    This effort has had a marked impact on our overall budget, allowing 
us to invest more in our core warfighting missions and enhancing our 
acquisition plans. The efficiency initiative drove adjustments to our 
programs and ensured restoration of funding in areas where needed most. 
Additionally, we used funds realized from efficiencies to support 
programs originally not funded. We re-invested savings into critical 
war fighting programs to enhance readiness. We anticipate unit 
equipment readiness to increase by fiscal year 2014 through the 
purchase of additional equipment beginning in fiscal year 2012. This 
readiness increase will allow the Marine Corps to equip, train, and 
prepare units earlier in the pre-deployment cycle. Other expansions 
that we were able to address include enhancing funding for facilities 
with direct operational impact, energy and water investments at bases 
and installations, command and control and logistics programs, and 
equipment modernization.
    In addition to our frugality and aggressive pursuit of finding 
efficiencies to enhance our warfighting capacity inherent in our budget 
request, your Marine Corps remains the first and only military service 
whose financial statements have been deemed audit ready. We are 
continually striving to be good stewards of the public trust and know 
the ongoing financial audit will serve to both strengthen our financial 
management practices and give us actionable business intelligence to 
support our decisionmaking process in supporting our operational forces 
at home, abroad and in harm's way.
priority #1: continue to provide the best trained and equipped units to 
                              afghanistan
    Operation Enduring Freedom.--We have made great progress in 
Afghanistan; this effort remains our number one priority until we 
attain our National objectives. At present over 20,000 Marines are 
deployed in Afghanistan. This mission ultimately involves almost 60,000 
Marines, or just under one-third of our active duty force, factoring in 
deployment, redeployment, training cycles and other direct support. We 
will continue providing forces in Afghanistan capable of full-spectrum 
combat and counterinsurgency operations, while balancing our 
capabilities to perform what the Nation will likely ask of us in the 
future. We will ensure that Marines, Sailors, and the units in which 
they serve, receive the best possible training and equipment to succeed 
in the many types of missions we are conducting in this complex, 
dynamic environment.
    Our successes within Helmand Province are paving the way for 
economic development and governance. Marine commanders on the ground 
and Afghan officials indicate that freedom of movement for the local 
populace has improved. Bazaars and markets are flourishing; critical 
infrastructure projects are underway. Today, 10 of 13 districts in 
Helmand Province are under the control of the Afghan central 
government. Daily, 135,000 children attend school, which is more than a 
60 percent increase from 2008 levels. Formerly dangerous places like 
Marjah, Now Zad, and Garmsir, un-trafficable due to improvised 
explosive devices just 1 year ago, now have significant activity 
occurring in commercial centers. Yet, other challenges remain as we now 
seek to capitalize on our 2010 successes. We are currently expanding 
battle-space northward into other hostile locations such as the 
district of Sangin, where our forces are going ``head-to-head'' with 
Taliban resistance.
    As America's Expeditionary Force in Readiness, we are ready to 
execute any mission assigned in support of crisis and contingency 
response. In addition to our Afghanistan commitment, we continue to 
source forward-based and deployed forces to meet Geographic Combatant 
Commander requirements. In light of our operational demands, and 
through the support of Congress in authorizing our end strength of 
202,100 active duty forces, our combat units are beginning to realize 
an approximate 1:2 dwell time.\6\ Other units vary at more favorable 
dwell time levels depending on their mission. We anticipate the 1:2 
dwell ratio for combat units to remain relatively stable provided 
current deployed force levels are not increased; however, increased 
operational demands in Afghanistan or elsewhere may result in dwell 
times inconsistent with fostering a resilient Total Force.
---------------------------------------------------------------------------
    \6\ Infantry battalions will continue to remain just below 1:2 
dwell time due to relief in place/transfer of authority requirements.
---------------------------------------------------------------------------
    Some Marines in select military occupational specialties continue 
to fall into what is known as a high-demand, low-density status. This 
is a key indicator that the combat demand for Marines with these skills 
does not match, or exceeds, the current manpower requirement and/or 
inventory. In addition, there are currently 14 of 211 occupational 
specialties where the on-hand number of Marines is less than 90 percent 
of what is required.\7\ Our recently completed force structure review 
addressed all these concerns. We are working actively to recruit, 
promote, and retain the right number of Marines in the right 
occupational specialties thus promoting resiliency of our Total Force.
---------------------------------------------------------------------------
    \7\ Our most stressed occupational specialties based on percentage 
of Marines beyond a 1:2 dwell are (1) Geographic Intelligence 
Specialist, (2) Imaging Analyst/Specialists, (3) Signals Collection 
Operator/Analyst, (4) Unmanned Aerial Systems Operator/Mechanic, and 
(5) European, Middle East, and Asia-Pacific Cryptologic Linguists.
---------------------------------------------------------------------------
    Training for Full Spectrum Counter-Insurgency Operations.--Our 
comprehensive training program conducted at our premiere desert 
training base in Twentynine Palms, California, has been credited by 
leaders throughout the Corps with providing a dynamic environment that 
replicates the many tasks, challenges, and requirements required of 
units in a counterinsurgency setting. Our newly instituted Infantry 
Immersion Trainers are realistic, reconfigurable, and provide 
comprehensive training environments that develop small unit tactics and 
individual skills for deploying infantry squads. The Infantry Immersion 
Trainer supports essential training such as control of supporting arms, 
language, improvised explosive device recognition and defeat measures, 
human terrain understanding and close quarters battle. Introducing 
battlefield effects simulators, culturally appropriate role players, 
and interactive avatars at the Infantry Immersive Trainers teaches 
Marines to make legally, morally, ethically, and tactically sound 
decisions under situations of great stress. It also contributes to 
reducing the effects of combat stress. I view this training program to 
be of vital importance to our Operating Forces.
    Equipping for the Afghan Effort.--Marine units are operating in 
Afghanistan with high rates of ground equipment readiness. Through the 
generosity of Congress, we have received funds for the rapid fielding 
of urgent need items in support of our Afghanistan effort. The Mine 
Resistant Armor Vehicle Program continues to meet urgent requirements 
while we actively pursue vehicle upgrades to outpace emerging threats, 
enhance mobility, and improve vehicle performance. We can accomplish 
this goal through engineering changes and capability insertions in 
current production, planned orders, and fielded vehicles. We have a 
requirement for 3,362 vehicles in the family of Mine Resistant Armor 
Protected vehicles, including 1,454 Mine Resistant Armor Protected All 
Terrain Vehicles. To date, we have fielded 1,214 Mine Resistant Armor 
Protected All Terrain Vehicles to our units in Afghanistan and have met 
the theater requirement.
    To date, we have fielded 34 Assault Breacher Vehicles, 5 of which 
are in Afghanistan, to enhance the mobility of the Marine Air Ground 
Task Force (MAGTF). We plan to field a total of 52 Assault Breacher 
Vehicles. Production of the remaining 18 vehicles remains on schedule 
and is fully funded with final delivery scheduled for the second 
quarter of fiscal year 2012.
    In our continuing efforts to find improvised explosive devices by 
all possible means, we are tripling our successful Improvised Explosive 
Device Dog Detection program and are also undertaking a research and 
development effort to train dogs with improved detection capabilities 
with fielding expected this fall. This year, we will have fielded 647 
specially trained Labrador Retrievers who work off-leash, supporting 
our infantry units in ground combat operations. We also have fielded a 
wide array of intelligence collection sensors and analytic and 
processing systems to include the Multimedia Archival Analysis System, 
the Ground Based Observational Surveillance System, the Tactical Remote 
Sensor System, the Communication Emitter Sensing and Attacking System, 
and improvements to the Tactical Exploitation Group, to name a few.
    Last, in December 2010, we deployed a reinforced company of 17 M1A1 
Main Battle Tanks to join our efforts in Regional Command SouthWest to 
provide increased force protection and firepower. Today, these tanks 
are fully integrated with our forces operating in our most highly 
contested regions, and are rapidly proving their utility in this 
environment by enabling our Marines to increase operational tempo. They 
also demonstrate the commitment of Coalition Forces to the security of 
Southern Afghanistan.
     priority #2 rebalance the corps, posture for the future, and 
    aggressively experiment with and implement new capabilities and 
                             organizations
    Posture for the Future and Force Structure Review.--The Marine 
Corps has deployed MAGTFs in support of irregular warfare missions such 
as our counterinsurgency effort in Afghanistan, humanitarian assistance 
and disaster relief efforts in Pakistan, Haiti, and the Philippines, 
and engagement missions such as our theater security cooperation 
exercises in support of every Geographic Combatant Commander.
    Despite these and many other operational successes over the past 
decade, new challenges await us requiring the same spirit of innovation 
and institutional flexibility that have been the bedrock of our Corps 
for 235 years. The 2010 Quadrennial Defense Review highlights an 
expanding need over the next two decades for military forces skilled at 
countering irregular threats,\8\ and the 2010 National Security 
Strategy signals a need for increased engagement activities. Both of 
these thrusts necessitate Marines who are not only fighters, but also 
trainers, mentors, and advisors. The 2011 National Military Strategy 
advances the idea that ``strengthening international and regional 
security requires that our forces be globally available, yet regionally 
focused.'' \9\ Likewise, Geographic Combatant Commanders have continued 
to register their growing need for forward--postured amphibious forces 
capable of conducting security cooperation, regional deterrence, and 
crisis response.\10\
---------------------------------------------------------------------------
    \8\ ``The wars we are fighting today and assessments of the future 
security environment together demand that the United States retain and 
enhance a whole-of-government capability to succeed in large-scale 
counterinsurgency, stability, and counterterrorism operations in 
environments ranging from densely populated urban areas and mega-
cities, to remote mountains, deserts, jungles, and littoral regions.'' 
2010 Quadrennial Defense Review Report, Pg 20.
    \9\ 2011 National Military Strategy of the United States, pg 10.
    \10\ In the past 20 years, U.S. amphibious forces have responded to 
crises and contingencies 114 times--a response rate double that during 
the Cold War.
---------------------------------------------------------------------------
    This past fall, we conducted a detailed force structure review to 
develop the optimum mix of capabilities for our role as America's 
Expeditionary Force in Readiness in the post-Afghanistan security 
environment. The force structure review addressed 21st century 
challenges confronting our Nation and its Marine Corps, aiming to build 
on our historic role as the Nation's crisis response force. The review 
sought to provide the ``best value'' in terms of capability, cost, and 
readiness relative to the operational requirements of our forward-
engaged Geographic Combatant Commanders. The results of that effort 
provide for a strategically mobile, ``middleweight'' force optimized 
for forward-presence and rapid crisis response. We will be light enough 
to leverage the flexibility and capacity of amphibious ships, yet heavy 
enough to accomplish the mission when we get there. Sea-based forces, 
in particular, will be invaluable for discreet engagement activities, 
rapid crisis response, and sustainable power projection.
    Our review also aimed for a force structure that provides 
capability and capacity across the range of military operations, while 
simultaneously providing for resiliency in our Total Force. With likely 
reductions in forward basing and strategic transportation, the 
importance of regionally focused headquarters and forces, both forward-
postured and immediately deployable with a minimum of strategic lift, 
is paramount. We have thus built a Joint Task Force capable 
headquarters at several Geographic Combatant Command locations. As we 
aim to implement signature outcomes of the force structure review, 
Marines on a day-to-day basis will be forward-deployed and engaged, 
working closely with our joint and allied partners. When crises or 
contingencies arise, these same Marines will respond--locally, 
regionally, or globally if necessary--to accomplish whatever mission 
the Nation asks of us.
    To best meet Geographic Combatant Commander needs and ensure 
optimal configuration as America's Expeditionary Force in Readiness, we 
require Congressional support to reset our equipment, develop new 
organizational structures, and begin implementing initiatives from our 
force structure review. These measures ultimately will improve our 
ability to function within the Joint Force, execute distributed 
operations, command and control in complex environments, and conduct 
persistent engagement missions. As we are entrusted with the resources 
and funding to posture ourselves for the future, we will continue to 
conduct responsible examination required of a disciplined force to 
ensure that we implement every refinement--from the smallest to the 
most sweeping--in a manner that provides the Nation with a lean force, 
capable of rapidly projecting the Nation's power and strategic 
influence.
Equipping
    Reset of the Total Force.--Resetting the Marine Corps for the 
future after nearly a decade at war is my number one equipping 
priority. This past year, we completed our mission in Iraq, effecting 
the retrograde of more than 25,000 Marines,\11\ 382,000 items of 
equipment, 10,800 short tons of aviation support equipment, and nearly 
11,000 containers from Al Anbar province via Jordan and Kuwait to the 
United States and elsewhere. This drawdown of equipment over the course 
of 1 year was a significant logistical and operational achievement. We 
also accomplished the rapid shift of critical equipment from Iraq to 
Afghanistan in support of the deployment of the 2d Marine Expeditionary 
Brigade. This shift of materiel within a theater of operation became 
one of the largest redeployments in U.S. history, both in terms of 
equipment moved and distances involved.
---------------------------------------------------------------------------
    \11\ At present, approximately 100 Marines remain in Iraq serving 
in individual augment, transition team and other miscellaneous billets.
---------------------------------------------------------------------------
    The Marine Corps is currently sourcing highly trained and ready 
forces to meet global combatant commander requirements.
  --Approximately 98 percent of deployed units report the highest 
        levels of readiness for their assigned mission.
    However, high deployed-unit readiness has come at the expense of 
home-station, non-deployed units, which have sourced organic equipment 
and personnel to meet the needs of our deployed forces.
  --Approximately 68 percent of non-deployed units report degraded 
        levels of readiness. The largest contributing factor is 
        equipment; approximately 37 percent of non-deployed forces 
        report degraded levels of equipment supply. This lack of 
        equipment impacts the ability of non-deployed forces to respond 
        rapidly to other potential contingencies and represents lost 
        core training opportunities early in the deployment cycle in 
        preparation for Overseas Contingency Operations.
    The equipment redeployed from Iraq to Afghanistan in support of the 
2009 surge included most of our deployed medium tactical fleet, the 
majority of our fleet of Mine Resistant Armor Protected vehicles, light 
armored reconnaissance vehicles, other hard-to-move equipment, and 
theater-specific items. While shifting this equipment directly to 
Afghanistan enabled the Marine Corps to meet critical operational 
timelines, it resulted in the deferment of previously planned post-
Operation Iraqi Freedom reset actions. These same assets comprise a 
significant portion of the Marine Corps' total reset liability and 
depot maintenance costs. Thus, a consequence of delaying reset actions 
on this equipment is the acceptance of considerable risk in the long-
term readiness and future availability of our ground equipment. In 
addition, increased usage rates of our ground equipment and harsh 
operating environments over these many years at war have resulted in 
our ground equipment far exceeding planned peacetime usage rates by a 
factor of six.
    It is vital that we reset our equipment from nearly 10 years at war 
to maintain the necessary levels of readiness to posture ourselves for 
the future.
  --We estimate the cost of reset for the Marine Corps to be $10.6 
        billion. $3.1 billion has been requested in fiscal year 2011 to 
        reduce this liability, leaving a $7.5 billion deficit. $5 
        billion of the $7.5 billion reset liability will be incurred 
        upon termination of the conflict in Afghanistan. (Note: $2.5 
        billion has been requested for reset in fiscal year 2012. These 
        estimates assume no reset generation beyond fiscal year 2012 
        and thus do not include any reset requirements for fiscal year 
        2013 and fiscal year 2014.)
    This funding will support the depot-level maintenance of our 
Operation Enduring Freedom equipment, procurement of combat vehicles 
and major weapons systems, engineering equipment, ammunition 
expenditures, and combat losses. The reset estimate is based on current 
circumstances and will change as operational requirements are re-
evaluated. Moreover, as long as the war continues, our costs for reset 
will grow accordingly.
    Reconstitution of Equipment.--Our experiences in combat operations 
over the past decade have shown us that our legacy 20th century tables 
of equipment are inadequate with regard to the demands of the modern 
battlefield. As we move toward finalizing our force structure review by 
conducting a thorough Doctrine, Organization, Training, Materiel, 
Leadership and Education, Personnel, and Facilities assessment, we will 
finalize determination on the costs associated with modernization of 
equipment sets necessary to support our future operations.
  --However, at this time, our initial estimate of reconstituting our 
        tables of equipment is $5 billion, which is an amount entirely 
        separate from our reset costs. We have begun to address our 
        reconstitution shortfall by requesting $253 million in fiscal 
        year 2012 for equipment procurement.
    As our force structure review is implemented, we will continue with 
deliberate assessments of the modernization requirements for equipment 
that optimizes our post-Afghanistan posture while simultaneously 
reinforcing our frugal and responsible roots. Our Service 
Reconstitution Equipment Strategy will guide the identification of 
emerging requirements for refining the capabilities of our status as a 
middleweight force, our support to the Geographic Combatant Commanders, 
our service level prioritization, and resource allocation.
    Marine Aviation.--We are transitioning our entire inventory of 
fixed and rotary wing aircraft to support our future force and require 
ongoing support from Congress for this comprehensive aviation 
modernization effort. The continued development and fielding of the 
short take-off and vertical landing (STOVL) F-35B Joint Strike Fighter 
remains the centerpiece of this effort. The capability inherent in a 
STOVL jet facilitates our maneuver warfare doctrine and fills our need 
for close air support in the many austere conditions and locations 
where we will likely operate in the future. Around the world, there are 
10 times as many 3,000-foot runways capable of handling a STOVL jet as 
there are 8,000-foot runways required of conventional fighter aircraft. 
Additionally, we maintain the organic ability to build an expeditionary 
3,000-foot runway in a matter of days in support of aviation 
operations. The capabilities of the STOVL F-35B enable the Marine Corps 
to replace three legacy aircraft types--F/A-18, EA-6B, and AV-8B--which 
once fielded will save the Department of Defense approximately $1 
billion per year in operations and maintenance costs. The F-35B program 
has made significant progress to date including 22 successful vertical 
landings so far this year which is more than double that achieved all 
last year. I am confident that we will field this aircraft in 
accordance with responsible timelines. This matter has my unwavering 
attention, and I am personally overseeing this program. With a fully 
fielded fleet of F-35Bs, the Nation will maintain 22 capital ships--11 
carrier and 11 amphibious assault--with fifth generation strike assets 
aboard--a significant deterrent and response capability for our Nation.
    Our legacy aircraft supporting operational missions are consuming 
service life at a rate up to three times faster than scheduled. 
Averaged across our complete fleet, we are consuming aircraft service 
life at a rate 1.85 times faster than planned. This reality results in 
compressed timelines between re-work events and in earlier retirement 
of aircraft than originally programmed. The majority of our legacy 
platforms are nearing the end of their service lives, and most 
production lines are closed. New aircraft with low average ages and 
robust service life projections are the future of our aviation force 
and its support of Marine Corps and joint operations. As we transition 
to these new capabilities, we are mindful of the need to ensure a fully 
integrated and networked force to provide Marine aviation to the MAGTF 
and the Joint Force.
    We are exploring the viability of transformational platforms such 
as the Cargo Unmanned Aircraft System. The Cargo UAS will facilitate 
the delivery of logistics to remote locations when weather or threat 
systems preclude manned aviation sorties or overland resupply convoys.
    Our new aircraft will provide increased range, speed, standoff, 
time on station, lift capability, and will be critical to tomorrow's 
MAGTF. By 2020, we will transition more than 50 percent of our aviation 
squadrons to new aircraft and complete fielding of the tilt-rotor MV-22 
Osprey assault support aircraft and the upgraded UH-1Y Huey utility 
helicopter. We will field new close air support platforms such as the 
AH-1Z attack helicopter and the STOVL F-35B. We also will have new 
platforms for intelligence, surveillance and reconnaissance and an 
entirely new family of Unmanned Aircraft Systems. Last, we will 
introduce greater lifting power to the MAGTF with a new model of the 
heavy-lift CH-53 cargo helicopter.
    Ground Combat and Tactical Vehicle Strategy.--The priority for our 
Ground Combat Element is our ship to shore tactical mobility. The 
seamless transition of our Operating Forces from the sea to conduct 
sustained operations ashore, in particular to support three balanced 
Marine Expeditionary Brigades (i.e. two sea-based Joint Forcible Entry 
Marine Expeditionary Brigades reinforced by a third Maritime 
Prepositioning Force-based Marine Expeditionary Brigade) as well as for 
conducting irregular warfare missions, necessitates an appropriate mix 
of ground combat vehicles. We are focusing our efforts on developing 
and fielding a family of vehicles with a balance of performance, 
protection, payload, transportability, fuel efficiency, and 
affordability that supports the rapid concentration and dispersion of 
combat power, supports strategic deployment concepts and meets our 
world-wide operational commitments.
    Our Ground Combat and Tactical Vehicle Strategy is currently in its 
third phase of development. Its overall goal is to field a ground 
combat vehicle portfolio structured to support the ground combat 
element. Vehicles in this portfolio include the Joint Light Tactical 
Vehicle, the Marine Personnel Carrier, and a new amphibious combat 
vehicle.
    In the complex future security environment, the execution of 
amphibious operations requires the use of the sea as maneuver space. An 
amphibious combat vehicle is essential to our ability to conduct 
surface littoral maneuver and seamlessly project ready-to-fight Marine 
units from sea to land in permissive, uncertain, and hostile 
environments. As the Secretary of Defense affirmed earlier this year, 
the cancellation of the Expeditionary Fighting Vehicle is by no means a 
rejection of the Marine Corps amphibious assault mission.
    The standing, validated requirement for, and development of, an 
amphibious combat vehicle will ensure we continue to develop the right 
platform--at the right price--to support rapid ship to shore movement. 
To that end, we are now pursuing an integrated new vehicle program with 
three components, crafted from inception for affordability and 
leveraging the investment made in the EFV. We intend to mitigate risks 
associated with a new vehicle program and to maximize value by use of 
an integrated acquisition portfolio approach. This approach will have 
three synchronized efforts: Acceleration of the procurement of Marine 
Personnel Carriers; investment in a service life extension program and 
upgrades for a portion of the existing amphibious assault vehicles; and 
development of a new amphibious combat vehicle.
    We intend to manage these complementary capabilities, requirements 
and acquisitions from a portfolio perspective.
Navy Support
    The Navy Marine Corps Team.--As part of the Joint Force, the Marine 
Corps and the Navy partner to leverage the significant advantages 
provided by amphibious forces--a point reinforced by joint 
doctrine.\12\ The Navy and Marine Corps team will be postured and 
engaged forward to be most operationally relevant to the needs of our 
Nation. Together, we provide the capability for massing potent forces 
close to a foreign shore while maintain a diplomatically sensitive 
profile. And, when needed, we are able to project this power ashore 
across the range of military operations at a time of our Nation's 
choosing, collectively demonstrating the essence of naval deterrence.
---------------------------------------------------------------------------
    \12\ ``Timely response to crisis situations is critical to U.S. 
deterrent and warfighting capabilities. The timeliness of U.S. response 
is a function of U.S. forward deployed forces and prepositioned forces 
with adequate organic movement capability . . ..'' Joint Publication 3-
35, Joint Deployment and Redeployment Operations, 7 May 2007, pg I-8.
---------------------------------------------------------------------------
    Amphibious Shipping.--The Marine Corps' requirement to deploy 
globally, rapidly respond regionally, and train locally necessitates a 
combination of tactical airlift, high-speed vessels, amphibious ships, 
maritime preposition shipping, organic tactical aviation, and strategic 
airlift. The inherent flexibility and utility of amphibious ships is 
not widely understood, as evidenced by the frequent--and erroneous--
assumption that ``forcible entry capabilities'' alone define the 
requirement for amphibious ships. The same capabilities that allow an 
amphibious task force to deliver and support a landing force on a 
hostile shore enables it to support forward engagement and crisis 
response. In fact the most frequent employment of amphibious forces is 
for steady state engagement and crisis response. The Geographic 
Combatant Commanders have increased demand for forward-postured 
amphibious forces capable of conducting security cooperation, regional 
deterrence, and crisis response reflecting the operational value of 
amphibious forces for missions across the range of military 
operations.\13\ In an era of declining access and strategic 
uncertainty, I anticipate that this upward demand trend will continue.
---------------------------------------------------------------------------
    \13\ Since 9/11 U.S. amphibious forces have responded to crises and 
contingencies at least 50 times, a response rate more than double that 
of the Cold War.
---------------------------------------------------------------------------
    Our principal contribution to U.S. Global Defense Posture is our 
``rotationally responsive'' forces aboard amphibious ships. These 
forces combine the advantages of an immediate, yet temporary, presence, 
graduated visibility, and tailored, scalable force packages structured 
around the MAGTF. Rotational Amphibious Ready Groups/Marine 
Expeditionary Units forward deployed in three Geographic Combatant 
Command areas of responsibility, not only provide the capability for 
crisis response, but also present a means for day-to-day engagement 
with partner nations. Rotational forces also offer additional 
flexibility for decisionmakers in the event that forces are required to 
rapidly re-deploy across divergent regions and conflicts.
    In January 2009, the Navy and Marine Corps agreed that the force 
structure requirement to support a 2.0 Marine Expeditionary Brigade 
lift is 38 total amphibious assault ships. In light of the fiscal 
constraints, the Department of the Navy agreed to sustain a minimum of 
33 total amphibious ships in the assault echelon. This number gives a 
capability needed for steady state operations and represents the 
minimum number of ships needed to provide the Nation with a sea based 
power projection capability for full spectrum amphibious operations--
including the amphibious assault echelon of two Marine Expeditionary 
Brigades.
    The Marine Corps is committed to the spiral development of the 
America Class LHA (R), which is 27 percent complete. We expect the Navy 
to take delivery of LHA-6 in fiscal year 2014 with availability to 
deploy beginning in fiscal year 2017. In terms of LHA-7, we anticipate 
the contract award in late fiscal year 2011 with fabrication commencing 
the following year. These two ships are maximized for aviation, and I 
believe it is essential that a well-deck be reintroduced in LHA-8 as 
currently planned. The ongoing procurement and commissioning of the 
final 2 of our planned 11 San Antonio class LPD-17 ``Common Hull 
Forms'' is critical to providing the lift capacities and operational 
capabilities to support the full range of military operations up to and 
including forcible entry.
    Maritime Prepositioning Assets.--The Maritime Prepositioning Force 
(MPF) program exists to enable the rapid deployment and engagement of a 
Marine Air Ground Task Force anywhere in the world in support of our 
National Military Strategy. The current MPF force, which has been 
employed 55 times since 1985, is composed of a fleet of 16 ships 
divided into three Maritime Pre-Positioning Ships Squadrons located in 
the Mediterranean Sea, Indian Ocean (Diego Garcia), and Pacific Ocean 
(Guam and Saipan). With the restructure of the Maritime Prepositioning 
Force-Future, the Marine Corps and Navy have focused on an interim 
solution to enhance current MPF with three new ships to enable future 
sea-basing concepts. The addition of three Mobile Landing Platforms 
(MLP) and three T-AKE auxiliary dry cargo ships to the Maritime 
Prepositioning Ship Squadrons, coupled with existing Large, Medium-
Speed, Roll-On, Roll-Off (LMSR) cargo ships, will enable the MPS 
squadrons to conduct at-sea, sea-state three, selective offload of 
vehicles, personnel, and equipment without complete reliance on fixed 
ports ashore. The introduction of MLPs, T-AKEs, and LMSRs provide the 
Navy and Marine Corps team a substantial step in enhancing our current 
sea-basing capabilities.
    The Department of the Navy is currently funding the full MPF 
program of 16 ships through fiscal year 2012; however, the DON POM-13 
places one Maritime Prepositioning Squadron (six ships) in a Reduced 
Operational Status beginning in fiscal year 2013. We will continue to 
optimize the MPF program to remain responsive and relevant to 
Geographic Combatant Commander requirements.
    Naval Surface Fire Support.--The Marine Corps has an enduring 
requirement for fire support from naval vessels in the range of 41-63 
nautical miles to support amphibious operations in the littorals. These 
fires are needed by tactical commanders to maneuver toward battlefield 
objectives once ashore, contributing to joint doctrine for assured 
access. They serve as a component of the balanced and complementary 
joint triad of fires. Yet, unlike tactical aviation and ground fire 
systems, naval surface fires are unique and vital for their volume, 
lethality, accuracy and all-weather capability.
    Planned reductions in the procurement of certain naval ships along 
with cancellation of specific weapons programs over the past few years 
have led to a deficiency in systems available for naval surface fires. 
Completed in 2009, the Joint Expeditionary Fires Analysis of 
Alternatives identified the optimum U.S. Navy programs to support 
Marine Corps naval surface fire support requirements. This study 
established the baseline capabilities of the current naval surface fire 
support program of record (13nm projectile of the 5-inch gun and the 
Advance Gun System of the DDG 1000) to be insufficient in mitigating 
fire support gaps. The study determined that extended range 5-inch 
munitions would serve as a complementary alternative to the three DDG 
1000s. Dramatic improvements in 5-inch projectiles can extend the naval 
surface fire support maximum range, across the 106 guns in the surface 
fleet, from 13 to 52 nautical miles with precision, high angle attack 
for use in operations in urban terrain, and potential effectiveness 
against moving targets. We also support ongoing research and 
development of transformational technologies like the Electro-Magnetic 
Rail Gun with its potential to revolutionize the reach, coverage, and 
responsiveness of ship-based naval gunfire to ranges in excess of 200 
nautical miles.
    Assured Access.--We remain vigilant of burgeoning anti-access/area 
denial threats proliferating around the globe, particularly in the 
Pacific Rim. The family of guided rockets, artillery, mortars, missiles 
and subsurface systems like mines and quiet submarines, pose a 
challenge to the power projection capability of seaborne expeditionary 
forces and threatens DOD's ability to prevent and deter conflicts and 
prepare for a wide range of contingencies.
    Marine Air Ground Task Forces ashore and aboard amphibious shipping 
will support operations to ensure the freedom of action of U.S. and 
Allied forces by establishing expeditionary bases and airfields or 
defending advance bases. Marine Short Take-off and Vertical Landing 
aviation assets will be of particular value in overcoming adversary 
anti-access and area denial capabilities since they can operate from 
short or degraded airfields, can be rapidly dispersed, and can utilize 
both large carriers and amphibious ships for attack, maintenance, force 
protection, and dispersal purposes. The Joint Force Commander can 
leverage these unique capabilities to ensure the sea control necessary 
for the conduct of subsequent joint operations, whether they be power 
projection, forcible entry, or freedom of navigation.
    In this regard, we are partnered with the joint community to 
develop an overarching concept to attain operational access. This year, 
we will employ our war-gaming capability in Expeditionary Warrior 2011 
to examine operations designed to overcome anti-access challenges. We 
are partners with the U.S. Navy and the U.S. Air Force in the 
development of the Air-Sea Battle Concept aimed at integrating 
capabilities to defeat these advanced weapon systems in maritime areas 
of strategic interest. We also continue to participate in the U.S. 
Army's Joint Forcible Entry Warfighting Experiment, examining 
capabilities to conduct airborne and amphibious forcible entry 
operations.
Personnel and Organizatonal Initiatives
    People.--Today's Marine Corps represents less than one-tenth of 1 
percent of the U.S. population, and the individual Marine remains our 
most valuable asset. Our 202,100 Active Duty and 39,600 Selected 
Reserve end strength allow us to meet current operational commitments 
while promoting resiliency throughout our Total Force. In fiscal year 
2010 Marine Corps Recruiting Command accessed 1,703 officers (100.18 
percent of the 1,700 officer goal). Our fiscal year 2011 accession 
mission is 1,650 active duty officer accessions with the same goal 
projected in fiscal year 2012. In terms of enlisted accessions, we are 
exceeding our internal quality standards of 95 percent enlisted 
recruits entering the Marine Corps possessing a high school diploma and 
63 percent qualifying in the DOD I-IIIA mental group categories (DOD 
quality standards are 90 percent and 60 percent respectively). We will 
achieve our mission of 31,500 enlisted active component non-prior 
service recruits in fiscal year 2011. Enlistment Bonuses remain vital 
to meeting the continuing requirement for high demand skills. We are 
continuing to experience unprecedented retention in both first-term and 
career Marines.
    We will continue to shape our Total Force to provide the ideal 
grade and military occupational specialty mix needed for sustainment. 
Our force structure review developed ways to increase unit readiness 
within our operating forces to ensure 99 percent manning of enlisted 
billets and 95 percent manning of officer billets. At the close of the 
Future Years Defense Program, we will work with the Secretary of 
Defense on a responsible drawdown of our end strength that is aligned 
with the future mission demands of a post-Operation Enduring Freedom 
security environment. I am determined to ``keep faith'' with our 
Marines and their families by designing and executing a responsible 
drawdown from our current 202,100 end strength such that we avoid 
reduction-in-force actions and early retirement boards.
    The Marine Corps is committed to making concerted efforts to 
attract, mentor, and retain the most talented men and women who bring a 
diversity of background, culture and skill in service to our Nation. 
Our diversity effort is structured with the understanding that the 
objective of diversity is not merely to achieve representational 
parity, but to raise total capability through leveraging the strengths 
and talents of each and every Marine. The success of our pioneering 
Female Engagement Team program in Afghanistan, which is an offshoot of 
a similar effort we employed in Iraq, is one way that the Marine Corps 
utilizes diversity within our ranks for operational benefit.
    We are currently developing a comprehensive, Service-wide strategy 
on diversity, an effort facilitated through our standing Diversity 
Review Board and a Diversity Executive Steering Committee chartered to 
establish the foundations for diversity success in the Total Force. The 
Marine Corps has established minority officer recruiting and mentoring 
as the highest priority in our recruiting efforts. Along with the other 
Services, we have provided timely input to the congressionally 
sanctioned Military Leadership Diversity Commission and look forward to 
release of the Commission's final report scheduled for March 2011.
    Marine Air Ground Task Force Enhancements.--To further posture 
ourselves for the future, we are evaluating the internal workings of 
our MAGTFs to account for the distributed operations, decentralized 
command and control, dispersed forces and diffuse threats inherent on 
the modern battlefield. We are implementing a diverse suite of command 
and control systems within all elements of the MAGTF. We continue to 
work to build the capacity of new organizations like the Marine Corps 
Information Operations Center to achieve non-lethal effects in today's 
irregular and complex environments. We are ensuring the rapid analysis, 
fusion, and dissemination of intelligence down to the tactical level by 
continuing implementation of the Marine Corps Intelligence, 
Surveillance, and Reconnaissance Enterprise. We also aim to reorganize 
our intelligence collection and exploitation capabilities, increasing 
the ratio of resources to users. We will also capitalize on the 
capabilities of unmanned aircraft systems via an increase in capacity.
    We are developing regionally focused Marine Expeditionary Brigade 
command elements that are joint task force capable, with habitually 
aligned subordinate elements, to improve Geographic Combatant Commander 
effectiveness and speed of response. We have recently stood up one such 
element in Bahrain in support of U.S. Central Command. To better 
standardize operations and training for units and staff in our ground 
combat element, we established the Marine Corps Tactics and Operations 
Group, which reached full operational capability in May 2010. Among 
other measures, this organization's mission is to support the 
refinement of our doctrine, including how our infantry companies will 
fight in the future. Building on the successes of the Marine Corps 
Tactics and Operations Group for the ground combat element, we are also 
developing and establishing a Marine Corps Logistics Operations Group 
capability for the Logistics Combat Element along with reorganizing 
Marine Logistics Groups to establish standing Combat Logistics 
Battalions habitually aligned to specific Marine Expeditionary Units 
and infantry regiments.
    Over the past decade, we have become more reliant on equipment sets 
resulting from the emergence of new threats, perhaps most notably the 
improvised explosive device. This trend has resulted in the acquisition 
of some resources that are incompatible with the ethos of an agile, 
expeditionary force. To that end, we have begun an effort known as 
``Lightening the MAGTF,'' a measure aimed at reducing the size, weight, 
and energy expenditure of our forces from the individual rifleman to 
wholesale components of the MAGTF.
    Sustained combat operations and worldwide theater security 
cooperation and training commitments over the last decade point toward 
an essential requirement for the Marine Corps Reserve to continue 
focusing at the operational, rather than strategic level of warfare. 
Since 9/11, our Marine Corps Reserve has engaged continuously in combat 
operations as well as in regional security cooperation and crisis 
prevention activities in support of the Geographical Combatant 
Commanders. This operational tempo has built a momentum among our war 
fighters and a depth of experience throughout the ranks that is 
unprecedented in generations of Marine Corps Reservists. In fact, 
today's Marine Corps Reserve is more highly trained, capable, and 
battle-tested than at any time since the Korean War.
    The transition in utilization of the Marine Corps Reserve from a 
strategic to operational Reserve, as affirmed by our force structure 
review, expands our ability to perform as America's Expeditionary Force 
in Readiness. Sharing the culture of deployment and expeditionary 
mindset that has dominated Marine Corps culture, ethos and thinking 
since our beginning more than two centuries ago, the Marine Corps 
Reserve is optimally organized, equipped, and trained to perform as an 
operational Reserve.
    Institutions for Irregular Warfare.--Irregular operations (e.g. 
Counterinsurgency, Stability Operations, Foreign Internal Defense, 
Unconventional Warfare and Counterterrorism) often occur in response to 
crisis and are executed in austere conditions--situations often 
entailing employment of Marines. Our experiences countering irregular 
threats in ``Small Wars'' is a result of responding to complex crises 
involving a mix of security, economic, political, and social issues--
usually under austere physical conditions. Our approach to irregular 
warfare is based on the understanding that people, ideas and 
organizations--not platforms and advanced technology--are the keys to 
success in operating in complex and irregular warfare environments. 
Naval forces conducting theater security operations and security force 
assistance to build partnership capacity also provide the Nation the 
potential for immediate crisis response capability and options for 
escalation or de-escalation. Building on our lessons learned in Iraq 
and Afghanistan, we are developing options to re-organize, consolidate, 
and strengthen our institutions that emphasize our irregular warfare 
and multi-mission capability such as the Center for Advanced 
Operational Culture and Learning, the Security Cooperation Training and 
Education Center, and the Center for Irregular Warfare. The objective 
is to gain unity of effort, increase effectiveness and efficiency, and 
reduce redundant capacity.
    We established the Marine Corps Training and Advisory Group (MCTAG) 
within the past 5 years to train, equip, and deploy Marines for 
Security Force Assistance missions in support of Geographic Combatant 
Commander theater security cooperation plans. The MCTAG provides 
conventional training and advisor support to Host Nation Security 
Forces. This organization also offers planning assistance to Marine 
regional component commands in developing and executing partner nation 
training programs. The MCTAG is scheduled to reach full operating 
capability in September 2011 and to date has directly trained more than 
180 Marines and Sailors and assisted in the training of more than 600 
Marines and Sailors, who themselves have conducted in excess of 150 
deployments to more than 50 countries worldwide. The MCTAG has also 
developed programs of instruction to train joint service advisors/
trainers deploying on theater security cooperation missions as well as 
programs of instruction to train light infantry battalions from the 
Republic of Georgia in executing combat operations in Afghanistan.
    Because the Marine Corps functions in an integrated fashion 
throughout all traditional domains--land, sea, air, and space--it is a 
logical step forward for us to be optimally organized, trained and 
equipped to operate synergistically on the modern battlefield, which 
now includes the cyber domain. As U.S. Cyber Command matures and 
sponsors initiatives to increase cyber operational capacity, we are 
taking deliberate steps to build additional Marine Corps cyber 
capability and capacity to meet joint and service-level demands.
    We see the continued development of organic cyber capabilities, 
capacities, and awareness as a critical element to retain speed, 
precision, and lethality across the entire spectrum of operations. We 
are working to incorporate scenarios into our exercises to increase 
opportunities for Marines to leverage cyber capabilities while also 
training Marines to operate where cyber-enabled warfighting capability 
may be degraded and/or contested. Additionally, we are integrating 
tailored cyber education into our officer and enlisted professional 
education programs. We are continuing to examine our options for 
recruiting, training and retaining our cyber workforce. This is 
especially challenging given the highly specialized skill sets and the 
competition for such in both the Federal and Private sectors.
    Formed in 2006, Marine Special Operations Command (MARSOC) is 
currently conducting an internal reorganization into three mirrored 
battalions. Upon completion of this reorganization in fiscal year 2014, 
Marine Special Operations Command will have one regiment consisting of 
three battalions, 12 companies, and 48 Marine Special Operations Teams. 
Since December 2009, MARSOC has maintained an enduring battalion-level 
Special Operations Task Force headquarters and two companies in 
Afghanistan along with persistent Marine Special Operations Team 
engagements in other high priority regions.
    Since its inception, the Marine Corps has resourced Marine Special 
Operations Command with significant investments in military 
construction for training facilities, barracks and headquarters. In the 
near term, MARSOC will have 2,678 personnel. Our force structure review 
recently evaluated ways to increase the number of combat support and 
combat service support Marines (e.g. logisticians, intelligence 
personnel, etc.) enabling MARSOC's operations. I intend to add 1,001 
Marines to MARSOC, which will increase its capacity by 44 percent. 
These Marines, who are above and beyond the planned fiscal year 2014 
personnel increase, will better enable it for effective special 
operations.
    The Marine Corps serves as the Department of Defense Non-Lethal 
Weapons Executive Agent responsible for developing program 
recommendations and stimulating non-lethal weapons requirements. Non-
lethal effects are part of the Department of Defense portfolio of 
capabilities that enhance the Joint Force Commander's ability to act in 
a timely manner to detect, deter, prevent, defeat, or, if necessary, 
mitigate the effects of an attack. Non-lethal capabilities provide the 
Joint Force the ability to selectively target hostile threats, covered 
or concealed by civilian assets, while avoiding collateral damage. 
Geographic Combatant Commands are registering increased demand for non-
lethal weapons options to include items such as arresting nets, dazzler 
lasers, acoustic hailing devices, electric stun guns, blunt impact 
munitions, and non-lethal warning munitions. The Joint Non-Lethal 
Weapons Program continues to support joint and combined non-lethal 
weapons research, development, training and exercises in support of all 
Geographic Combatant Commands.
    Expeditionary Energy.--The Marine Corps is leading the development 
of expeditionary energy solutions for DOD and the Department of the 
Navy--reducing energy demand in our platforms and systems, increasing 
the use of renewable energy, and instilling an ethos of energy and 
water efficiency in every Marine. Our priority is force protection--
saving lives by reducing the number of Marines at risk on the road 
hauling fuel and water. We also aim to help Marines travel lighter and 
move faster through the reduction in size and amount of equipment and 
the dependence on bulk supplies.
    In February 2011, we issued a ``Bases to Battlefield'' 
Expeditionary Energy Strategy Implementation Planning Guidance, which 
sets goals, performance metrics, and a plan for implementation by 2025. 
This strategy supports congressional and Department of the Navy goals 
to increase energy security through the use of alternative fuels and 
energy efficiency. Since 2009 we have aggressively pursued renewable 
energy and energy efficient capabilities that will make Marine units 
more energy self-sufficient, and ultimately increase our combat 
effectiveness.
    Within 1 year, we stood up an Experimental Forward Operating Base, 
sourced commercial and government technologies, trained an infantry 
company with renewable energy technology, and deployed them to 
Afghanistan in the winter of 2010 where they operated two patrol bases 
entirely on renewable energy. As a result, our forces required less 
fuel and batteries, reducing risk to Marines and saving money. This 
year, the Experimental Forward Operating Base will focus on the 
requirements of a major battlefield energy user--the Command Operations 
Center and the Command Element--and will evaluate a second round of 
energy technologies to support expeditionary operations.
    In fiscal year 2012 we are devoting more resources--in current 
programs and new areas--to build a foundation to achieve our goals for 
increased energy efficiency and renewable energy by 2025. As a starting 
point, we anticipate savings of petroleum over the Future Years Defense 
Program in our Overseas Contingency Operations of 100,000 to 150,000 
barrels. For example this year, we are procuring mobile electric power 
sources to achieve 17 percent fuel efficiency using U.S. Army funded 
development and Marine Corps funded procurement monies. We are also 
fielding Enhanced Efficiency Environmental Control Units to achieve 15-
30 percent power efficiency improvements.
    Installation Energy.--We are also devoting more resources to our 
Energy Investment Program than ever before. These funds will be used to 
implement the results of recent and ongoing energy audits at our 
installations; install more efficient systems and reduce overall energy 
consumption. Additionally, new facilities will continue to incorporate 
the latest energy sustainability and efficiency features. This effort 
aboard our installations complements our Corps-wide initiative to 
develop an energy ethos and culture of conservation.
Training
    Training MAGTFs.--We are utilizing our Marine Corps Service 
Campaign Plan as a roadmap to strengthen and maintain our core 
competencies and to ensure we remain America's Expeditionary Force in 
Readiness well into the future. This effort also will also help 
synchronize our Service level security cooperation activities in 
support of national strategy and guide the type of training and 
exercises we must conduct, in particular at the Marine Expeditionary 
Brigade level.
    Our amphibious core competency figures prominently in our Service 
Campaign Plan, and as a result we have undertaken an array of exercise 
planning in this critical skill area. We will soon be conducting a 
MAGTF Large Scale Exercise that will refine our capability to conduct 
amphibious power projection and sustained operations ashore in a joint 
and inter-agency environment. In late-2010 we conducted Exercise Bold 
Alligator 2011, the first large-scale amphibious training exercise with 
the Navy on the east coast in almost 10 years. This synthetic training 
event practiced planning for forcible entry operations against 
conventional and asymmetric threats and a large scale non-combatant 
evacuation operation. We will take lessons learned from this exercise 
and build upon them for the next iteration of this important exercise 
with the U.S. Navy scheduled in the coming year.
    We are reviewing the core functions of our organizations and, where 
appropriate, adding irregular warfare capabilities to reflect the full 
spectrum of possible employment options as a core task set for the 
Marine Expeditionary Brigade. We view integration with other government 
agencies and coordination with non-government organizations as 
essential to our success in irregular warfare and have significantly 
increased interagency participation in numerous exercises and training 
venues such as Expeditionary Warrior-09/10, Emerald Express, Joint 
Urban Warrior-09, and Joint Irregular Warrior-10. We aim to capitalize 
on our current theater security cooperation and partnership capacity 
building activities with our allies and partners in all operational 
environments providing our National leaders with strategic options to 
shape outcomes, prevent and deter conflicts, strengthen ``at risk'' 
states, and deny enemy safe-havens.
    priority #3 better educate and train our marines to succeed in 
      distributed operations and increasingly complex environments
    Professional Military Education and Small Unit Leader 
Development.--We are planning more investments in the education of our 
non-commissioned officers and junior officers, as they have assumed 
vastly greater responsibilities in both combat and garrison. This focus 
on education will better train them for decisionmaking during 
distributed operations against more diffused threats over broader areas 
of the battlefield. The primary initiative to address this priority is 
to increase markedly their opportunities to attend resident 
professional military education. We are currently evaluating ways to 
increase throughput at resident professional military education courses 
with options for both constrained and unconstrained manpower and 
resource increases. We are evaluating traditional paradigms relative to 
course lengths and instructional methodology, with the specific 
objectives of tripling throughput at the Expeditionary Warfare School 
(Career level) and doubling resident Command and Staff College 
(Intermediate Level) throughput.
    These key leaders also impact unit cohesion and our overall 
effectiveness in combat. Introducing these leaders into a unit at the 
right time and stabilizing them in a life cycle continuum of a unit 
positively impacts a unit's effective training, performance and 
resiliency during pre-deployment training and post combat. These 
leaders are in the best position to influence our cultural ethos with 
its emphasis on intangible qualities such as esprit de corps, 
integrity, and ``service to country during time of war.'' We are 
currently reviewing manpower policies and models and will ensure these 
key leaders are present and able to lead a cohesive unit throughout its 
life-cycle continuum, including rigorous pre-deployment training and 
post deployment actions. This effort will ready our units for any 
fight, whether irregular or combat.
    We also intend to infuse Values Based Training, rooted in our core 
values of Honor, Courage and Commitment, at all levels of professional 
development to foster resilience and to enable effective operations, 
especially in complex irregular environments. Our overall goal is to 
institutionalize efforts to develop more mature, educated, and capable 
non-commissioned officers and maneuver unit squad leaders. As these 
concepts mature, there will be costs in terms of military instruction 
and facilities for which we will require congressional support.
    Regionalization and Specialization.--The increased call for 
engagement, as seen in our force structure review and in strategic 
guidance, requires Marines with improved cultural and language skills 
and formal education. To develop better specialization for anticipated 
future missions and operating environments, we will expand our Foreign 
Area Officer and Regional Affairs Officer programs, as well as 
opportunities to send more officers through graduate level training, 
fellowships and research opportunities--ideas supported by findings and 
recommendations of the 2010 Quadrennial Defense Review and the 2010 
Quadrennial Defense Review Independent Panel Report.\14\ This effort 
will extend to our ``Whole of Government'' approach toward irregular 
warfare as we seek greater exchanges and fellowships with the elements 
of the Interagency.
---------------------------------------------------------------------------
    \14\ 2010 Quadrennial Defense Review Report, pg 54; 2010 QDR 
Independent Panel Report, pgs 75-77.
---------------------------------------------------------------------------
    Marine Corps University.--We are continuing to implement 
recommendations of our 2006 Officer Professional Military Education 
Study (the Wilhelm Report) and are making significant strides in terms 
of resources and facilities enhancing the campus of the Marine Corps 
University (MCU). We have programmed approximately $125 million in 
Military Construction between fiscal year 2011-12 for new academic 
facilities for the Marine Corps War College, Command and Staff College, 
and the School of Advanced Warfighting. In addition, we will expand the 
Staff Noncommissioned Officer Academy at the main campus in Quantico. 
These funds represent only a down payment on a larger commitment to 
double the size of the University campus and to upgrade our enlisted 
academies world-wide. Completion of the MCU master plan will require 
the demolition and relocation of tenant units aboard the campus. 
Detailed documentation of costs associated is ongoing; however, we 
estimate over $400 million is needed to complete the master plan. Our 
ultimate goal is to develop the MCU into a premier institution with 
world-class faculty, facilities, students, and curricula; we will 
require the assistance of Congress in this goal.
 priority #4 keep faith with our marines, our sailors and our families
    Keeping Faith.--We expect and demand extraordinary loyalty from our 
Marines--a loyalty to country, family, and Corps. Our Nation has been 
at war for a decade, placing unprecedented burdens on Marines, Sailors, 
families, Wounded Warriors, and the families of the fallen. They have 
all made tremendous sacrifices in the face of danger. We owe them all a 
reciprocal level of loyalty. Our approach to caring for their needs is 
based on the same unwavering faithfulness they have demonstrated to the 
Marine Corps. We will ensure their needs are met during times of 
deployment and in garrison by providing the services, facilities, and 
programs to develop the strength and skills to thrive on the challenges 
of operational tempo. When needed, we will restore them to health. We 
will also transition them back to civilian life, and in the cases of 
our fallen Marines, we will support and protect their surviving spouses 
and dependents. We will do this by focusing on several areas this 
fiscal year.
    Combat Stress, Resiliency, Medical and Mental Health Care.--We 
continue to advocate for the highest quality medical care and 
facilities for our service members, retirees, and their families. To 
ensure the Department can continue to provide the finest healthcare 
benefits in the country to our beneficiaries, we fully support the 
medical efficiencies and adjustments in TRICARE included in the 
President's budget proposal.
    The evolving security environment requires a physically and 
mentally resilient Marine able to endure extended exposure to 
ambiguous, stressful, and ever-changing situations. Young leaders find 
themselves on the vanguard of a protracted war, adapting to a variety 
of situations and scenarios. To improve their resilience, we are 
working aggressively and creatively to build a training continuum that 
better prepares them for the inevitable stress of combat operations and 
to equip them with the necessary skills required to cope with the 
challenges of life as a Marine.
    Instruction founded and focused on our core values helps provide 
some of this resilience, especially in irregular warfare and complex 
environments. A program combining the ``best practices'' of mental, 
emotional and physical fitness will best instill in our Marines the 
resiliency needed to endure the stressors of combat and enhance their 
ability to perform effectively across the range of military operations. 
We are developing a comprehensive program to improve the resiliency of 
our Marines both in garrison and in combat.
    We are partnered with the Navy to address the nationwide dearth of 
qualified mental healthcare providers, which challenges our ability to 
provide care at some of our bases and stations and, in some cases, to 
our reservists in remote locations. During calendar year 2010, we saw a 
nearly 30 percent decrease in the number of suicides within our Total 
Force.\15\ We are too early in our suicide studies to identify what 
specific initiative(s) have resulted in this dramatic turnaround. 
However, we have implemented a number of measures on multiple fronts. 
Some of these include the following:
---------------------------------------------------------------------------
    \15\ Calendar year 2010 suicides = 37 whereas calendar year 2009 
suicides = 52.
---------------------------------------------------------------------------
  --Evocative Peer-led Training Program.--``Never Leave a Marine 
        Behind'' suicide prevention program for non-commissioned 
        officers and Junior Marines. We are expanding this training to 
        include staff non-commissioned officers and commissioned 
        officers this year.
  --DSTRESS Line Pilot Program with TRICARE West.--``By Marines-For 
        Marines'' call center designed to assist with problems at an 
        early stage. The call center is staffed by veteran Marines, 
        providing anonymous service to all current Marines, veteran 
        Marines, their families and loved ones.
  --Combat and Operational Stress Control and Operational Stress 
        Control and Readiness Teams.--Utilizing unique training 
        programs across the Total Force and ensuring the presence of 
        mental health professionals in front-line units as a primary 
        prevention tool to help Marines identify and mitigate stress.
  --Marine Resilience Study to Assess Risk and Resilience.--We are 
        participating in a longitudinal research study that will 
        examine risk across three domains: biological, psychological 
        and social. The outcome of this study will inform our future 
        work in the area of building and maintain resiliency across the 
        Corps.
    We will continue advocating to the medical community for better 
diagnostic and increased treatment options for Marines with severe 
injuries including Post Traumatic Stress and Traumatic Brain Injury. In 
collaboration with the other services, we developed a set of events-
based parameters, mandating that our leaders search out Marines who 
have experienced a concussive event. This measure no longer relies on 
identification of impacted service members solely on their willingness 
to seek help on their own initiative. These protocols are in place now 
in Afghanistan, and we are already seeing a culture change in the 
attitude of Marines about being treated early for a Traumatic Brain 
Injury.
    We have established an in-theater Restoration Center that brings 
comprehensive concussion diagnosis and management as close to the front 
lines as possible to ensure that appropriate care is available as 
quickly as possible. We are currently developing policy and 
applications to track Traumatic Brain Injury from ``point of injury'' 
to ``return to full duty'' separately but in parallel with medical 
documentation. These measures will empower commanders with the 
information they need to monitor the health of a Marine who has 
suffered a concussive event and intervene appropriately for the 
duration of a Marine's career and long after the initial injury.''
    Transition Assistance.--We believe transition assistance should be 
a process not an event. We have established a goal to make the Marine 
Corps Transition Assistance Management Program more value added for our 
departing Marines. From 2009 to 2010, we conducted functionality 
assessments of the Transition Assistance Management Program and the 
Lifelong Learning Program and noted many deficiencies. In response, we 
established two Transition Assistance Operational Planning Teams in 
2010 to assess existing programs. We have developed an ``end to end'' 
process improvement plan that will begin at the point of initial 
accession into the Marine Corps and continue through post separation. 
We are initiating actions and integrating existing capabilities that 
will most directly improve the quality of support provided to Marines 
within 6 months prior to separation and those who have been separated 
at least 6 months.
    Marines have expressed a desire for assistance navigating 
Department of Veterans Affairs benefit processes such as in cases of 
enrollment for and access to education benefits. We will modify 
existing websites to improve access and enhance opportunity for 
separating Marines to speak directly to Marine Corps support personnel 
who are trained to remove administrative benefit processing barriers. 
We will improve networking opportunities to help Marines find 
meaningful employment and are adapting our current job fairs to support 
increased networking opportunities that will allow them to meet mentors 
and employers.
    Marines have asked for an opportunity to connect with employers and 
learn how to translate their intangible and tangible attributes. Our 
transition workshops will be overhauled to address these needs. Marines 
are also seeking help to simplify enrollment processes for the post 9/
11 Montgomery GI bill and to gain access to academic institutions that 
will provide the quality and level of business education and skills 
private industry demands. We have initiated a Leader-Scholar Program, 
which includes academic institutions who value Marines' service 
commitment and pledge special enrollment consideration. While the 
support varies from school to school, we now have 75 participating 
institutions with the goal of an additional 25 by the end of this year. 
As we gain momentum, we will continue to change the transition 
assistance program from its current event focus to that of a process 
that reintegrates Marines into the civilian sector with the knowledge, 
skills, and abilities to leverage and communicate their Marine Corps 
time and experience.
    Family Readiness Programs.--We increased baseline funding for 
family support programs beginning in fiscal year 2010 to ensure 
appropriate wartime footing. Programs benefitting from this measure 
include the Unit, Personal and Family Readiness Program; Marine Corps 
Family Team Building Program; Exceptional Family Member Program; School 
Liaison Program; and other miscellaneous Marine Corps Community 
Services Programs supporting remote and isolated commands, deployed 
Marines, and independent duty Marines and families. We are currently 
conducting a complete review to ensure effectiveness and efficiency of 
these programs. Our goal is to determine where expansion may be needed 
to further assist our families and where programs can be streamlined to 
reduce redundancy.
    Wounded Warrior Care.--Marines continue to suffer numerous wounds, 
trauma, and injuries during operations in combat and during training 
missions. Many of these brave heroes with significant injuries are 
convalescing at military treatment facilities here in the National 
Capital Region and across our Nation at other major military treatment 
facilities. Our Wounded Warrior Regiment provides non-medical care 
management services to wounded, ill, and injured Marines and their 
families. The Wounded Warrior Regiment continues to improve existing 
programs and add new support mechanisms. We have increased support to 
wounded, injured, and ill reserve Marines through additional Recovery 
Care Coordinators, enhanced family support at military treatment 
facilities, and one-on-one orientation sessions. We also provide 
Integrated Disability Evaluation System Support through Regional 
Limited Duty Coordinators and Wounded Warrior Attorneys. We have also 
initiated a mandatory Warrior Athlete Reconditioning Program. Outreach 
is an important aspect of the Regiment's non-medical care delivery and 
management. The Sergeant Merlin German Wounded Warrior Call Center 
extends support to Marines and families through advocacy, resource 
identification and referral, information distribution, and care 
coordination, 24 hours a day, 7 days per week.
    The comprehensive care coordination provided by the Wounded Warrior 
Regiment throughout the phases of recovery has been highly successful. 
The results of internal assessments have substantiated that creation of 
the Wounded Warrior Regiment has had a positive impact on the support 
offered wounded, injured and ill Marines and families. The Marine Corps 
will continue to honor the commitment to our Wounded Warriors and to 
help them return to full duty or successfully reintegrate into their 
communities.
    Behavioral Health Integration.--Behavioral health needs since 9/11 
have become increasingly complex with individuals often requiring 
assistance in a number of areas at one time. Marines with more than two 
deployments have been identified as a higher risk population. According 
to the Joint Mental Health Assessment Team, psychological health 
problems remain steady at 11 percent of Marines for the first and 
second deployments, but increase to 22 percent for those who have 
deployed three or more times. Sixty-five percent of Marines are under 
25 years old. Associated with this young force are high-risk factors 
that include communication and coping skills, isolation, combat-related 
wounds and substance abuse. Drawdown of end strength following 
Operation Enduring Freedom and return to garrison life will likely 
result in additional behavioral healthcare requirements as Marines 
redeploy and adjust to the garrison environment. We continue to move 
forward with our integration of prevention and intervention programs 
initiated in 2009. We have established a Behavioral Health Branch at 
our headquarters for Manpower & Reserve Affairs. Headquarters Marine 
Corps Health Services also has created and filled a new billet for a 
Director of Psychological Health.
    Military Construction.--The Marine Corps maintains its commitment 
to facilities and infrastructure supporting both operations and quality 
of life. Our military construction and family programs are important to 
success in achieving and sustaining our force structure and maintaining 
readiness. For many years, we funded only our most critical facility 
needs. As a result, our installations were challenged to properly house 
and operate the additional forces required to meet our planned end 
strength increase. Between fiscal years 2007-10, we received $6.9 
billion in new construction and design. With this funding, we are 
providing new quality of life facilities, improved operational and 
training facilities, and more modern utility infrastructure systems.
    Our fiscal year 2012 military construction budget request is $1.4 
billion. With these requested funds, we will provide Bachelor Enlisted 
Quarters, aviation support facilities, and improvements to quality of 
life, utilities and infrastructure, and professional military education 
facilities. Additional family housing efforts in fiscal year 2012 
include improvements to existing housing units and funding for the 
operations, maintenance, and leasing of 1,100 units worldwide and 
oversight of 22,000 privatized units.
                               conclusion
    The United States Marine Corps remains the Nation's crisis response 
force-of-choice. Our continued success in Afghanistan and throughout 
the globe is made possible by the loyal sacrifice of our incredible men 
and women in uniform, Civilian Marines, and our Marine Corps family. 
The personnel, equipment, and training that have given us success over 
the nearly past 10 years at war has come through the ongoing support of 
Congress and the American people. I promise that your Marine Corps 
understands the value of each dollar provided and will continue to 
provide maximum return for every dollar spent.
    In the coming year, we will begin a deliberate transformation into 
a force optimized for the likely threats of the next two decades. We 
understand and appreciate the contribution that each Marine has made 
for this great Nation, and we recognize the heavy burden it has placed 
on their loved ones. We remain ``Always Faithful'' to our Marine Corps 
family, to Congress, to our chain of command and to the American 
people.

                  LITTORAL COMBAT SHIP SPLIT BUY PLAN

    Chairman Inouye. If I may, I'd like to begin asking 
questions.
    Mr. Secretary, you have received authorizations to have a 
split buy on the LCS. How will that benefit the Navy?
    Mr. Mabus. Mr. Chairman, as you pointed out, we have 
received authority to buy both variants, both the one made in 
Marinette, Wisconsin, and the one made by Austal in Mobile, 
Alabama. These ships bring us differing but important 
capabilities, each one of them.
    When I became Secretary, this program, in the summer of 
2009, bid out three ships. We had planned to buy both versions 
at the time, but the bids came in just unacceptably high. So, 
we made the decision to reduce that to one version, have the 
two yards compete against each other.
    Over the course of the next year, the bids came in 
dramatically reduced. The average ship cost, over 10 ships, for 
each variant is less than $440 million. By doing both versions 
and using two yards--and we had always planned on using two 
yards, whether we had one version or two--we were able to speed 
up the delivery of the ships. We were able to buy 10 ships, 
from 2011 to 2015, and to buy--from each supplier--which will 
get us almost one-half the class of ships--55--that we're 
planning to build with the littoral combat ship.
    This ship, and its two variants, is incredibly important to 
the Nation's future and to the Navy's ability to do the 
missions that we're given. Shallow draft, very fast, manning of 
about 40 people for the core crew, and another 30 for the 
weapons systems, gives us great flexibility to meet the 
challenges that we see in the future.
    Finally, the fact that it--that both these ships are 
modular, that you can take one weapon system off and put 
another one on, means, as technology improves and as weapon 
systems change, we can keep up with the technology, we can 
change weapon systems without changing the hull, without 
changing the entire ship.
    So, we think that this is going to provide us an incredible 
capability at a greatly reduced cost, almost $3 billion in 
savings, from the first 20 ships, and that it will give us the 
flexibility that we need to perform the missions that the Navy 
has been given.
    Chairman Inouye. You've spoken about the continuing 
resolution, and all of you have done the same. I can assure you 
that this subcommittee is very much against the continuing 
resolution, because that's no way to run the Government. And 
we'll do our best to go back into regular order. As you know, 
in the last fiscal year, we did--12 subcommittees--come through 
with our bills on time.

             CONTINUING RESOLUTION IMPACTS ON 313 SHIP GOAL

    On the matter of 313, as Admiral Roughead stated--the base, 
the minimum--how will the continuing resolution and the 
budgetary crisis affect this number?
    Mr. Mabus. We have, as I pointed out, 56 ships across the 
FYDP. But, because of the continuing resolution, we are unable 
to begin one Virginia-class submarine this year. We have 
planned to build two each year, over the next--well, starting 
in 2011, over the next 6 years. And we have a multiyear 
procurement authorized by Congress to do that. If we are unable 
to start the second Virginia-class, we will break the 
multiyear, and we'll have to go in and renegotiate the cost of 
future Virginia-class submarines. We have two Arleigh-Burke 
DDG-51 destroyers that we cannot start as long as we are 
operating under the current continuing resolution.
    The impact--and one MLP--one mobile landing platform--the 
impact from not beginning those ships will have ripple effects 
as we go forward. It will keep us from reaching the numbers 
that we need as quickly as we need. It will mean that the ships 
will almost inevitably cost more, which may mean fewer ships. 
If our shipbuilding plan, that we submitted for fiscal year 
2011 and updated for fiscal year 2012, is fully built and 
funded, we will not only get to the 313 floor, but we will 
reach in the neighborhood of 325 ships early in the 2020s, 
which will give us what we need to have for a global fleet. 
But, we are very concerned that if we are unable to start these 
ships this year, in fiscal year 2011, that the ripple effects 
will have huge impacts as we go forward.
    Chairman Inouye. Thank you very much.

                        RUSSIAN NAVY ASSESSMENT

    Admiral Roughead, in recent months very little, if 
anything, has been said about the Russian navy. If you look at 
the front pages, you don't see anything about the Russian navy. 
But, at one time, it used to be a formidable force. What is 
your assessment of the Russian navy today?
    Admiral Roughead. Thank you very much, Senator.
    And, to your point, the Russian navy has not been in the 
news that much. And that really, in my opinion, is because, in 
the period of the 1990s, that the navy was significantly 
reduced in capability and capacity. The funding had fallen off. 
Several of the shipbuilding programs had stopped or atrophied.
    That has since changed in recent years. And with the 
economy contributing to the resources that are now made 
available to the Russian navy, I believe you're going to see an 
increase in the capability, the capacity, new shipbuilding 
programs taking hold. Recently, there are negotiations taking 
place, between France and Russia, on construction of a large 
amphibious ship. And so, I believe that the Russian navy, which 
still has great ambition, great pride in the fact that they are 
at a world-class level of capabilities, will now begin to, for 
want of a better term, rebuild itself, bring more modern 
capabilities to bear, and to be able to operate more widely.
    That said, I believe it's important that we work closely 
with the leadership of the Russian navy to see where there are 
opportunities for cooperation, to see where we can join 
together and have a relationship that is constructive and 
globally relevant.
    I think it's also important to note that we have been 
conducting operations with the Russian navy in the 
counterpiracy area.
    But, clearly I think, after a period of stagnation in the 
1990s, the Russian navy is moving again.

                        CHINESE NAVY ASSESSMENT

    Chairman Inouye. Can you give us an assessment of the 
Chinese navy?
    Admiral Roughead. Thank you, Senator.
    And I've been an observer of the Chinese navy now for 
probably over 15 years, where, because of my assignments in the 
Pacific, I've had an opportunity to not only visit China on 
several occasions, but also to be present when Chinese ships 
have called in Hawaii, when I was commanding there, and to have 
had the opportunity to spend several sessions with my Chinese 
counterpart, Admiral Wu Sheng Li. The Chinese navy is--has been 
advancing, developing, expanding their shipbuilding programs, 
increasing the level of technology that is available to them, 
and also beginning to operate more globally.
    Like the Russian navy, we also, for the last 2 years, have 
been operating daily with the PLA navy in counterpiracy 
operations.
    But, we see their submarine fleet expanding, surface 
combatants are expanding. But, it's also how they're using 
command and control and the nature of the operations that tend 
to expand beyond what we call the ``first island chain,'' in 
the western Pacific.
    It's a navy that's also seen the value, as we have, in 
aircraft carriers. And they have an aircraft carrier 
development program that's underway. The initial phase will be 
based on a former Russian aircraft carrier. But, I see that 
developing. And, as you know, the PLA has a longer view of 
time. And it's a very thoughtful approach on how you bring 
these capabilities to bear.
    Similarly, I believe it's important that we look for ways, 
as we're doing off the coast of Somalia, to develop a 
professional relationship, and to also develop personal 
relationships with the leaders in the PLA navy, so that we, 
too, can operate in ways that enhance the safety and the 
security of the world oceans. But, it's a navy that I would say 
is the fastest-growing, not just in capacity, but also in 
capability, in the world today.
    Chairman Inouye. I've been told that the Chinese have more 
submarines than we have. Is that correct?
    Admiral Roughead. Yes, sir, in terms of numbers. But, I 
also believe that there's a qualitative dimension to the 
submarine force. And there is no question in my mind that we, 
in the Navy--in the United States Navy--operate the most 
capable submarine force in the world. And with the advent of 
the Virginia-class submarine into our inventory, there's no 
finer submarine, no more capable submarine in the world today 
than the Virginia. And that's why being able to get to the 
build of two per year, to be able to take advantage of the 
multiyear, that the Secretary pointed out, why getting out from 
under the continuing resolution is key, because the Virginia 
submarine is the most capable warship that we have.
    Chairman Inouye. Thank you.
    May I ask General Amos a few questions.

       UNITED STATES MARINE CORPS FORCE STRUCTURE CHANGE IMPACTS

    The Marine Corps recently announced significant force-
structure changes that will greatly affect the composition of 
your units in the future, making them lighter and more agile. 
This review stated that these changes will impact your budget 
request for fiscal year 2013 and beyond. However, we have 
before us the 2012 request for equipment that will likely start 
delivering when you begin implementing these changes. Can you 
explain to the subcommittee the immediate impact these force-
structure changes on the procurement programs, such as MRAP 
tactical vehicles and other equipment will have?
    General Amos. Chairman, just a quick note on the effort 
itself. It began last fall, spent all fall with a lot of really 
smart folks working to determine what the Marine Corps should 
look like in a post-Afghanistan environment. That was the 
framework we began with. We began with the mission of the 
Marine Corps, which is America's expeditionary force and 
readiness, this crisis response force. So, using that as the 
background, and understanding that--and informed by, this would 
be a force post-Afghanistan, we began to take a look and say, 
``Okay, with the future security environment that we will be 
likely working in for the next two decades, what would that 
force be required to do?'' And, again, informed with history, 
we said, ``What should it do? What kind of equipment would it 
need? How big would it need to be?'' So, the results were 
finished right around Christmas, and briefed to the Secretary 
of the Navy in January, the Secretary of Defense in early 
February.
    Right now, the Marine Corps sits at 202,000 marines. We 
grew--started in 1990---excuse me--started in 2007, from about 
182,000, up to 202,000. And that was so we could get some dwell 
time in our units, in--that are combat units that were 
deploying constantly in and out of Iraq, and certainly now in 
Afghanistan. That's happened, that's been very beneficial. But, 
does the Marine Corps need 202,000 in a post-Afghanistan 
environment? And the answer was no.
    So, based on that, we built a force with capability sets 
learned from the lessons--or, educated by the lessons of 9 
years of combat. I think it's a more capable force. We will go 
down to 186,800 marines. The guidance I have been given by the 
Secretary of Defense and the Secretary of the Navy is that that 
is conditions based. It is not designed to do this now, while 
we have 20,000 marines on the ground in Afghanistan. This is 
post-Afghanistan.
    So, we are looking now--when I made the comment, in my 
statement, that we were--they will have some immediate, during 
fiscal year 2012, changes; that's predominantly within the 
structure that we currently own. In other words, we're going to 
eventually reduce 21 headquarters as we flatten the Marine 
Corps to make it more capable and less complicated by higher 
levels of decisionmaking. So, we've collapsed or eliminated 21 
headquarters. We've eliminated three infantry battalions. But, 
those will not go away until the end of--until our war is over, 
until we come out of Afghanistan.
    So, within fiscal year 2012, there will be very little, 
other than just moving some capabilities around internally 
within the Marine Corps. For example, we'll probably go ahead 
and collapse a couple of these headquarters in fiscal year 
2012. We're going to take some of the structure that we 
currently have, and we're going to start putting it into our 
Cyber Command so we can beef that up. We're going to take some 
of our current 202,000 marines and move them into Marine 
Special Operations Command and begin that migration.
    So, the actual cost in 2012 will be transparent. Where we 
think we're going to begin to see some cost breaks will begin 
in 2013. We don't know precisely what that will be, because 
we're going through all the detailed analysis now of: Precisely 
when do you start drawing down equipment? Or, when do you stop, 
perhaps, buying equipment that you had planned on buying, at 
the rate that you were buying?
    So, we don't know the answers to that yet, Chairman. But, 
we will know that probably by June, as we begin to really get 
serious about the fiscal year 2012 budget. So, the end state 
will be a very capable force, capable of doing everything that 
we have done in the past, be slightly larger than what the 
force was when we began the buildup in 2007. But, it will be 
informed and--by all the lessons learned of almost--really, 
almost 10 years of hard combat.
    Chairman Inouye. Thank you very much.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.

         U.S. NAVY DISASTER RELIEF ASSISTANCE TO JAPAN--SECNAV

    Mr. Secretary, we all have been watching the news reports 
from Japan and the vicinity, about the effects of the 
earthquake and other related collateral damages that may have 
been done in that region. Do we have naval forces that have 
been affected directly by this tragedy? And, if so, what are we 
doing to position for either relief efforts for our own troops 
and ships or land-based personnel who happen to be in the area? 
To what extent is the Navy involved in that?
    Mr. Mabus. Senator, first, thank you for your very kind 
remarks in your opening statement.
    We are very involved in all aspects of the relief effort in 
Japan. As CNO pointed out, we have, or will soon have, 14 ships 
and more than 10,000 people in Japan, or in the waters off 
Japan, to do humanitarian assistance and disaster relief. The 
marines have--from the 3rd Marine Expeditionary Force in 
Okinawa--have brought a headquarters company up, with 500 
marines, to very close to the affected area to do things like 
radiological testing, to do humanitarian assistance planning. 
They've also established a refueling station so that we can use 
our helicopters more effectively.
    We're also flying with fixed-wing aircraft to deliver 
humanitarian assistance. We're flying our helicopters--and we 
will soon have almost 70 helicopters--in the region or in the 
area that was affected. We're moving Japanese first-
responders--Japanese troops--by ship to the affected area.
    In terms of our own folks there, as you well know from your 
visits there, we have ships home-ported in Japan. In Yokosuka, 
we have the USS George Washington and a couple of other support 
ships there. We have been monitoring the--what has been going 
on with this disaster. A couple of days ago, because of a wind 
shift, we recommended that our people in Yokosuka and other 
bases that we have on Honshu, the main island in Japan, remain 
indoors, to the maximum extent possible, because of radiation 
exposure. We didn't believe it was a threat to health or to 
life, but, out of precautions, we urged them to stay inside. 
The wind has since shifted again, and we've removed those 
precautions.
    We have moved our ships off the coast of Japan to keep them 
out of the plume that is developing. We are monitoring 
individuals that are actively engaged in the relief effort, to 
make sure that their radiation exposure is within appropriate 
bounds. We have done decontamination work on equipment, which 
mainly involves just washing them--washing surface radiation 
off--to date.

           U.S. NAVY DISASTER RELIEF ASSISTANCE TO JAPAN--CNO

    But, we're going to continue to, every moment, monitor the 
situation to--and, in case there are changes, to make the 
appropriate changes for our people who are there permanently 
and to the forces that we have sent to help in this 
humanitarian disaster.
    Senator Cochran. Admiral Roughead, do you have any comments 
to make along those lines?
    Admiral Roughead. Just to echo what the Secretary said. I 
think the benefit of having the forces forward-deployed, but 
also the flexibility that we derive from a global forward-
deployed Navy, allowed us to move one of our aircraft carriers 
into position very promptly. The USS Ronald Reagan is off the 
coast of Honshu, operating in areas that are safe to operate 
in. And the nature of being able to close forces, to pick up 
from an exercise in Southeast Asia and, in a matter of days, 
move off the coast of Japan to be able to provide this 
assistance--and it's coming from all of our ships; it's not 
just the aircraft carrier. We have guided-missile destroyers 
that are serving as fueling pads for the helicopters that are 
involved in search and rescue. Our amphibious ships, with their 
capacity--and, as the Secretary mentioned, one of our 
amphibious ships is up on the island of Hokkaido, loading 
Japanese self-defense forces to be able to then go down to 
Honshu.

           U.S. NAVY DISASTER RELIEF ASSISTANCE TO JAPAN--CMC

    And I think what it describes is a global Navy that's 
forward, that's ready, that can respond, but it has a variety 
of capabilities that gives you that balance that can swing 
from, in one case, combat operations, all the way to 
humanitarian assistance. I think it's important to realize that 
the USS Ronald Reagan and her strike group were on its way to 
conduct combat operations in Afghanistan when, on a moment's 
notice, it shifted into a full humanitarian mode. That shows 
the flexibility of our force. Most importantly, it shows the 
flexibility and the compassion of our people.
    Senator Cochran. Thank you.
    General Amos, do you have Marine Corps forces in the 
region? And, if so, what's the effect on them?
    General Amos. Senator, we do. We have about 500 marines on 
the ground right now. They're at various locations. Some are at 
the Naval Air Station Atsugi, which is just south of--it's 
really in the suburbs of Tokyo. We have some at Yokota Air 
Force Base, where we brought in what we call our Expeditionary 
Mobile Command Post, which is a very capable trailer-like 
setup, where we can talk to just about anybody in the world, 
with enormous capability. So, we brought that in. And then we 
set up--just as the Secretary said, just east of the affected 
area, we set up a--what we call a forward arming and refueling 
point. We're certainly not doing any arming, but--that's what 
we call them--but, it's where we bring in the actual fuel and 
bladders. We bring in pumps. We bring in hoses. We can hook up 
to any jet aircraft. We can hook up to any helicopter. And 
that's what we do with expeditionary marine aviation.
    So, for us, being able to work in a very austere 
environment suits our capabilities well. So, we bring that. So, 
we are forward to the east, and we're south with command and 
control. And, as the Secretary and the CNO have said, we've got 
2,200 marines on board the USS Essex and that marine 
expeditionary unit.
    So, yet to be seen what they're going to do, but everybody 
is poised to assist with humanitarian operations. It can be 
everything from medical--it can be just evacuation. It can be 
food and water--clean water. It's a host of things, Senator. 
And so, we do this. We practice it. As I said, in my opening 
statement, we did it in Haiti, just about this time last year. 
We did it in Pakistan, 400 miles deep, when the floods--we've 
done it on the backside of the Philippines, when that super 
typhoon, Megi, came through. So, we actually--this naval force 
has an enormous capability.
    I was particularly proud and pleased that, within 12 hours 
notice, that eight C-130Js and eight 40-year-old CH-46 
helicopters, with their marines and their equipment, flew out 
of the Marine Corps air station, Futenma Okinawa, and headed 
north to help out their brothers and sisters on the mainland 
Japan.
    Senator Cochran. Thank you. We appreciate your leadership 
in monitoring U.S. interests in that region, and being a good 
neighbor at the same time.
    Thank you.
    Chairman Inouye. Thank you.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Gentlemen, thank you.
    And I, too, will echo the comments of the chairman and the 
vice chairman here in thanking you and the men and women that 
are working so hard and in such an incredibly capable way to 
provide for the level of rescue and relief, as we watch, in 
Japan.
    And I appreciate the fact that we have the ability to be 
nimble as a Navy, as the marines, as our armed services are. We 
never know what's going to hit us, whether it's an earthquake 
or a tsunami, or what the disaster might be. But, one way or 
another, we figure it out.

                     EVOLVING ARCTIC CONSIDERATIONS

    We've got a situation, up in the Arctic, that is not 
something that is happening overnight. We are seeing an 
evolving Arctic; an opportunity, viewed by many, but also a 
very noticeable challenge to us, as we, as an Arctic nation, 
work and act to be engaged in an area that, quite honestly, we 
haven't had to look at. When something's been locked up in ice, 
it's kind of put on hold, out of sight, out of mind. That 
situation is changing as we see the impact of receding ice, as 
we see a level of commercial activity, of military activity, of 
tourism up in the Arctic. And it brings to mind the question as 
to, how nimble, how flexible we will be--can be--in an area 
that we just have not really had to have much of a presence?
    There's a report that was released recently by the National 
Academy of Sciences. And they state that, ``Even the most 
modest current trends in climate change, if continued, will 
present new national security challenges for the U.S. Navy, for 
our Marine Corps, and our Coast Guard.''
    We've seen reports that China plans to receive over 150,000 
tons of oil, 600,000 tons of iron ore, and about 400,000 tons 
of gas condensate this year, all of which is going to be 
traveling in the maritime route, up north, through the Northern 
Sea Route. And depending on the size of any of these vessels, 
China's looking to receive anywhere from 7 to 28 tankers 
through the Northern Sea Route this year, an incredible 
increase from what we have seen last year. And it's not just 
what we're seeing from China in that activity. As I mentioned, 
we're seeing cruise ships that are coming up above the top; 
obviously, a greater increase in shipping activity. And the 
expanding role up there is something that--those of us that 
focus on the Arctic issues are concerned about our readiness.
    The question that I have to you, Admiral, is, do we have 
the resources--the assets, the staffing, the training, the 
funding--that is necessary to develop the national security, 
the sovereignty concerns, as we see increased international 
presence within the Arctic?

       EVOLVING ARCTIC CONSIDERATIONS--TASK FORCE CLIMATE CHANGE

    I note that you, in response to the chairman, indicated 
that China has more submarines than we do as a nation. I 
understand that China has more icebreakers than the United 
States has. And we're the Arctic nation, they are not. So, can 
you speak to the--again, the changing role that we have, and 
our readiness?
    Admiral Roughead. Thank you very much, Senator. And I thank 
you for your interest in the Arctic.
    A couple of years ago, I put together something that I 
called Task Force Climate Change, to really look at the changes 
that were taking place, primarily in the Arctic, but it also 
expands into other areas of the globe.
    But, there is no question in my mind that the Arctic is 
changing. I often, in public comments, refer to ``the opening 
of the fifth ocean,'' which is the Arctic Ocean. We have not 
had an ocean open since the end of the ice age. So, this is a 
big deal. And the changes that you described--the fishing 
fleets beginning to migrate with the fishing stocks, mineral 
extraction will be taking place. Ultimately, we'll get to a 
point where we have profitable commercial channels that are now 
open. And that probably is within the next two decades.
    And so, what we've done with Task Force Climate Change is, 
we've begun to look at, what is it that we must be putting in 
place as this ocean opens up? We have put some money toward 
that continued study and thinking about where we have to be. 
We're working very closely with the Coast Guard on how they see 
that future and how we must cooperatively work together to have 
in place the right types of equipment and communications and 
surveillance systems in the polar areas so that we have a 
better understanding of what's going on up there.

          ARCTIC CONSIDERATIONS--CONVENTION ON LAW OF THE SEA

    But, I would say the most important thing that I think we 
should do is to become party to the Convention on Law of the 
Sea. And I know that, in some areas, that may not be a popular 
view, but my sense is that if we are not party to that treaty, 
then we will not have a seat at the table as this unfolds.
    Senator Murkowski. Can you go into, I think, a little more 
detail, in terms of what it means to not have a seat at the 
table? Does this limit our ability, within the U.S. Navy, 
within the Marine Corps, to be engaged, to be responsive, to be 
a participant in what is happening in the evolving Arctic? 
Because this is an issue that I'm very focused on----
    Senator Roughead. Yes, ma'am.
    Senator Murkowski [continuing]. And I'm not seeing the 
urgency that I feel needs to be taking place on this issue.
    Admiral Roughead. I think it--first off, if I could say 
about the convention, there are some who believe that being 
party to this convention will inhibit our ability, as a Navy, 
to conduct the operations that we conduct, and that we must, to 
support the interests of the Nation, be able to conduct. That 
is simply not the case. It in no way inhibits us.
    But, what it does do, as issues of the Arctic and claims 
that are being adjudicated and discussed are taking place--not 
being party to that treaty, we will not be part of that 
discussion.
    I would also submit that we, as a global Navy, as a Nation 
with global interests, the leadership role that we play in many 
venues is significant. And countries look to us to be able to 
take the principled positions that we do, and to lead in those 
positions. And as these issues that are being discussed, 
adjudicated, for example, in the Arctic, not only will we not 
be there, we will not be able to be that leader that I think 
many countries look to and will continue to look to in the 
future. So, I think it will inhibit and, I think, would--will 
be a detriment to us, as a Nation. But, in no way will it limit 
our ability to operate effectively as a Navy.
    Senator Murkowski. Well, I appreciate your leadership and 
your outspokenness on that as an issue. I do feel pretty 
strongly that we need to take the initiative, here in the 
Senate, to move toward ratification of that treaty.
    Thank you, gentlemen.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    I'd like to welcome back Senator Coats. Welcome back, sir.
    Senator Coats. Thank you, Mr. Chairman and Senator Cochran 
and Senator Murkowski. I am pleased to be on the subcommittee, 
and appreciate the opportunity to do this.
    I need to make a bit of a confession. I--during my first 
term of service, I was an authorizer on the Senate Armed 
Services Committee for 10 years, and I must admit, I was--there 
were times when I was grumbling about the role of the Senate 
Defense Appropriations Committee. Now I are one. And so, I'm 
looking forward to working with both the chairman and the 
ranking member and others on the subcommittee, and hopefully 
finding some seamless ways in which we can coordinate with the 
authorization committee to strengthen and make sure we have the 
kind of national security apparatus that has sustained this 
country for so long, and hopefully we can maintain that.
    So, thank you, Mr. Chairman, for your welcome.

                  U.S. NAVY-CHINESE NAVY RELATIONSHIPS

    Admiral Roughead, I was interested in your response, 
relative to the relationships that you've developed with the 
Chinese navy. It wasn't that long ago--just a couple weeks, I 
think--when DNI Director Clapper told a Senate subcommittee 
that China was one of the two major threats. And we have seen a 
significant increase in spending and development of not only 
the Chinese navy, but the Chinese military.
    And so, I wonder if you could just delve a little more into 
that, in terms of your relationship, what your response is to 
DNI Clapper's view, in terms of the Chinese navy being a major 
threat to the United States, and give us some of your thoughts 
in that regard.
    Admiral Roughead. Thank you very much, Senator.
    And whenever I talk about a threat, whether it's another 
navy or simply walking down a road, I think a threat requires 
two things. It requires the capability to do you harm, and it 
also requires an intent to do that. And so, I think those are 
two components of threat. As I look at the PLA navy, and I look 
at how their capabilities are developing, as I do globally, 
with any navies around the world, I look at what those 
capabilities are, how they're employed, what the competence of 
their people are. And so, I continue to watch that. And, as the 
leader of our Navy, my obligation, my duty, is to make sure 
that we, as a navy, are never denied any options when it comes 
to capability.
    And as you look at our programs that we have laid out 
within this budget, they are focused on not just the types of 
wars that we find ourselves in today, but also, where is 
technology taking naval warfare? And how do we, as a navy and 
as a Nation, always enjoy the advantages of being able to be in 
an unfair fight, from our perspective? So, that's what I do, as 
the Chief. So, I'm comfortable with the programs that we have 
put together, with the initiatives that we have put in place 
here.
    I do--as I mentioned, in my earlier remarks, I think it's 
important to try to gain insight into what their intent is and 
how they intend to use that navy. So, watch developments very 
closely, build programs so that we are not disadvantaged. And I 
think that's why you've seen the emphasis on antisubmarine 
warfare in this budget--integrated air and missile defense, 
electronic warfare, cyberwarfare--because that's the world that 
we're going to be operating in for the foreseeable future.

                   CHINESE NAVY STRATEGIC INTENTIONS

    Senator Coats. Well, in listing those decisions, which I 
think are appropriate decisions, I mean, is it fair to--what do 
we think the intent of the Chinese is, relative to their navy 
and its--what is their objective? What is their--what are their 
strategic objectives? Can you give us some insights into that?
    Admiral Roughead. Yes, sir. I would say it's the objective 
that nations and navies have had throughout history. With 
regard to countries whose economies rise, and if those 
economies are built on transoceanic trade, it follows that 
there will be a strong navy. It happened with the Portuguese, 
the Spanish, the Dutch, the British, and with the United 
States. And as China's economy has grown, and as the resources 
have been available, and as they rely on the sea lanes of the 
world to bring resources in and goods out, they want to ensure 
that those sea lanes are able to be used. And that's what 
navies have done throughout history. And so, that's how I see 
the PLA navy developing, being able to control the sea lanes 
that are important to them, the areas around their country that 
are important to them. That's the path I see them on.

                      CHINESE MISSILE DEVELOPMENT

    Senator Coats. What's your read on the Chinese development 
of a new missile capability in taking out carriers? I mean, 
there's a lot been written in--about that. This is more than 
just defending sea lanes for trade. This is a very aggressive 
weapon designed to take out a hugely expensive piece of 
property. That has immense implications, should something like 
that happen.
    Admiral Roughead. Yes, sir. I would say that--and I know 
there's been a lot of discussion about the DF-21 missile, which 
is what has been developed. But, I think throughout war--the 
history of warfare, there have always been, how do you develop 
new capabilities to counter a capability that someone else has?
    I would submit that the DF-21 is no more an anti-access 
weapon than a submarine is. Because I could argue that you can 
take a ship out of action by putting a hole in the bottom 
faster than you can by putting a hole in the top. So, I think 
it's all part of being able to control sea space, control 
access into the ocean areas. So, I think that that has--is part 
of it.
    But, I would also say that, even though the DF-21 has 
become a weapon of--a newsworthy weapon, the fact is that our 
ships, particularly our aircraft carriers, can maneuver. We 
have systems to counter weapons like that. And so, you would 
expect me, as someone who wears this uniform, to prefer to be 
on that aircraft carrier, that can move and do other things, 
than to be on a fixed shore base where the targeting problem is 
extraordinarily easy, relative to trying to find, then target, 
and then hit a moving ship.
    Senator Coats. I don't want to get into a classified area, 
but I assume, on the basis of what you've said, that we are 
pursuing, or have effective--what we believe to be, or will be, 
effective defensive systems to protect against that kind of a 
threat.
    Admiral Roughead. Senator, my objective for our Navy is--
whether it's a submarine, another ship, an anti-ship cruise 
missile, low-flying missile, or a ballistic missile--is to not 
be denied ocean areas where we can operate, or not be 
restricted in our ability to operate.
    Senator Coats. Yeah.

                       F-35B (STOVL) DEVELOPMENT

    Mr. Commandant, General, just one question, in the 
interests of time here. The F-35B, the V/STOL, now under 
moratorium for 2 years--what if the worst-case scenario 
happened--either funding wasn't available to go forward with 
that, or the technical issues associated with the development 
of that were prohibitive, or the combination of the two, the 
funding and the technical problems--and we couldn't build that 
or couldn't source you with that. What are your alternatives? 
How serious an issue is this, relative to your capabilities in 
the future, if we were not able to do that?
    General Amos. Senator, the short answer to your question--
then I'd like to put a little bit more on the back side--is, 
there is no alternative right now. And the impact is more than 
just to the Marine Corps. This is our Nation. Right now, today, 
we have 11 carriers--11 carriers that transit the world, and 
some of which are off the coast of Japan right now, and off the 
coast, doing combat operations in the Southwest Asia area.
    We also have 11 large-deck amphibious ships, one of which 
is the USS Essex, that's--that will arrive off the coast of 
northern Japan later today. So, 22 capital ships flying fixed-
wing aircraft off. Now, our amphibious ships, we fly MV-22 
Ospreys, we fly helicopters, attack helicopters, and we've got 
about 500 marines on board one of those large-deck ships. And 
then we spread the other marines out.
    But, what this means for the Nation is, if we lose this 
capability, the ability to take a fixed-wing aircraft and land 
it vertically on board a--large-deck amphibious ships, then our 
Nation now is reduced, by 50 percent, its ability to influence 
and--its--you know, its will, around the world, at any given 
time.
    You take the F-35B, which is the Marine Corps version, 
short takeoff and vertical landing--we'll take off from that 
amphibious ship. It is a fifth-generation aircraft. It not only 
is a strike aircraft, but it's what we call an ISR platform--
intelligence, surveillance, reconnaissance. It has the ability 
to do electronic jamming, electronic warfare, just inherent in 
the basic platform. It will have the ability to do information 
management, and spread that out over large portions of the 
battlefield, down to a marine corporal who's on the ground. It 
has that ability inherent in the platform. That makes it, along 
with its ability to carry weapons, its stealth, a fifth-
generation fighter.
    So, in a nutshell, if we lose this, our AV-8B Harriers, the 
ones that you see land vertically--and we've been flying them 
for so--for a long time--will begin to run out of service life 
around 2020, 2022. So, if we lose this airplane, then what 
you'll have is, you'll have 11 large-deck ships--carriers--with 
fifth-generation airplanes, and you'll have 11 large-deck 
amphibious ships with rotary-wing aircraft doing rotary-wing-
type missions instead of having the ability to have fifth-
generation fighters on there.
    The last thing I'd say, Senator, is--I've been tracking the 
F-35B--as I said in my opening statement and in my written 
statement--very, very carefully. If--in my office, I watch the 
metrics of how that program is progressing. Tomorrow, the 
program manager and the senior leadership of Lockheed Martin 
and the senior leadership of the Department of Defense come to 
my office--tomorrow will be my first monthly meeting--where we 
sit down and we go over the progress of this airplane. I will 
not be surprised by this. The airplane is--by order of the 
Secretary of Defense, is on a 2-year probation period. I don't 
want it to last 2 years. I don't think it needs to last 2 
years. I think we'll be able to prove the airplane's 
performance and ability to meet standards well before then. 
But, that's the decision my seniors have to make.
    But, I want this subcommittee to know that I'm tracking it. 
I'm watching it. I'm very encouraged by what I've seen, just in 
the last 70 days. This year alone, the airplane has flown over 
140 percent of its scheduled test flights. That's our version, 
the one that's on probation. It's flown more than four times 
the amount of vertical landings that it flew all last year, in 
the first 60 days of this year. This year, it's scheduled for 
480 test points. Every airplane that goes up on a test flight 
has to hit certain specific test points to determine the--how 
the airplane is performing. We've flown almost one-half of 
those test points--not quite; about 40 percent--just in the 
first 70 days of this year's schedule.
    So, I'm encouraged. The engineering fixes are coming along. 
But, I'm not a Pollyanna. I'm going to watch it very, very 
carefully. And as I said to the Secretary of the Navy and the 
Secretary of Defense, that if this airplane is not performing, 
much like the EFV, then I'll be the first person that comes 
forward and says, ``Okay, then we need to cancel it.'' But, I'm 
optimistic. I don't think that that will happen.
    Senator Coats. Okay.
    Mr. Chairman, thank you.
    Mr. Secretary, thank you for your service. I don't have any 
questions.
    I appreciate being a part of the subcommittee and look 
forward to future times together.
    Chairman Inouye. Welcome back.
    I have many other questions I'd like to submit to the panel 
for their responses. But, may I ask one question.
    The front pages have been filled with articles on the 
unrest and the instability of the Middle East. I'd like to know 
about the Navy's readiness posture. Are we ready to respond to 
anything?
    Mr. Mabus. Mr. Chairman, I'll give you the overall answer, 
and then I'd like the CNO to give you details. But, the overall 
answer is, yes, sir, we can respond to whatever mission is 
given to us in the Middle East or anyplace else in the world. 
And we are--we have the readiness and the capability to do 
that.
    Admiral Roughead. To follow up on the Secretary, Mr. 
Chairman, as you know, we maintain a ready force in the Central 
Command area of operations, the Middle East. We currently have 
two aircraft carriers that are deployed there--submarines, 
surface ships. And when they go forward, they are prepared for 
a range of operations, all the way from high-end combat to, as 
we see, humanitarian assistance. But, we train them to go 
forward, to be prepared, to be ready for sustained combat at 
sea. That has not changed, and that will not change.
    And so, the forces that are in the Arabian Gulf, in the 
North Arabian Sea, are prepared and very flexible to do 
whatever would be required of them.
    And then, we've also put some forces into the 
Mediterranean, because of the unrest that has taken place in 
the Magreb, particularly in Libya--took some ships from the 
Amphibious Ready Group that was there, put them in the 
Mediterranean. Destroyers and submarines are also present 
there. So, it's also the place where we have our 5th Fleet 
Headquarters, in Bahrain, where the 5th Fleet commands the 
operations in the Central Command area of operation.

              U.S. NAVY AND MARINE CORPS READINESS POSTURE

    I'm in daily contact with our commander there. The unrest 
has not been manifested toward the United States, or, indeed, 
any Westerners. And the 5th Fleet operations continue.
    In the last couple of days, there was an authorized 
departure that was put in place for our dependents in Bahrain, 
and some of the families have started to take advantage of 
that.
    But, we remain ready. We are ready. Our command and control 
is in place, and our capability is in place. And those naval 
forces are ready to do whatever is asked of them.
    Chairman Inouye. General?
    General Amos. Sir, we have--as you know, most of our forces 
are on the ground, currently, in Afghanistan. Although we have 
a MEU, a marine expeditionary unit, that should be arriving 
there in the next couple of days, we have a portion of a marine 
expeditionary unit currently on the ground, in Afghanistan. So, 
those forces that are attached to naval vessels are ready, sir. 
And we are bringing in this capability from the west coast--
should arrive here shortly. But, all those forces at a very 
high state of readiness before they leave the United States, 
headed toward the Central Command area of operations.
    Chairman Inouye. General Amos, this may be your first 
appearance before a congressional committee, but I'm certain 
your fellow marines would be proud to have seen you respond and 
answer all those questions. You've done very well, sir.

                     ADDITIONAL COMMITTEE QUESTIONS

    I'd like to thank the panel for their testimony, and I'll 
be submitting more questions.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                 Questions Submitted to Hon. Ray Mabus
            Questions Submitted by Chairman Daniel K. Inouye
                         health care proposals
    Question. I believe that the healthcare benefits we provide to our 
servicemembers and their families are one of the most important 
benefits we provide to the men and women serving our Nation. The 
Department of Defense is proposing several changes to the military 
health system that would raise out-of-pocket costs for military 
families. Could you please explain why these changes are necessary, and 
what impact they might have on military personnel and their families?
    Answer. The Secretary of Defense has articulated that the rate at 
which healthcare costs are increasing, and relative proportion of the 
Department's resources devoted to healthcare, cannot be sustained. He 
has been resolute in his commitment to implement systemic efficiencies 
and specific initiatives which will improve quality and satisfaction 
while more responsibly managing cost. We recognize that the Military 
Health System is not immune to the pressures of inflation and market 
forces evident in the healthcare sector. In conjunction with a growing 
number of eligible beneficiaries, expanded benefits and increased 
utilization throughout our system, it is incumbent upon us to ensure 
that we streamline our operations throughout the system in order to get 
the best value for our expenditures.
    The Department of the Navy supports the Secretary's Defense Health 
Care Reform initiatives and believes these proposals are consistent 
with our efforts over the last several years including focusing on 
internal efficiencies, incentivizing healthy behaviors and ensuring all 
of our beneficiaries are treated equitably. These proposals are modest 
and provide an opportunity for all participants--the Government, 
providers of healthcare, and beneficiaries--to share in the 
responsibility to better manage our healthcare costs.
    Question. I believe that the healthcare benefits we provide to our 
servicemembers and their families are one of the most important 
benefits we provide to the men and women serving our Nation. The 
Department of Defense is proposing several changes to the military 
health system that would raise out-of-pocket costs for military 
families. Secretary Mabus, increases in co-pays were proposed and 
rejected just a few years ago. Could you explain how these proposals 
are different, and why they should be reconsidered by Congress at this 
time?
    Answer. The rising healthcare costs within the Military Health 
System continue to present challenges. The Secretary of Defense has 
articulated that the rate at which healthcare costs are increasing, and 
relative proportion of the Department's resources devoted to 
healthcare, cannot be sustained. TRICARE Prime enrollment fees for 
retirees have not changed since 1996. The Secretary's proposals include 
a modest adjustment in TRICARE Prime enrollment fees for all retirees 
under age 65 ($5/month for families or $2.50/month for individuals) as 
well as modest adjustments (none more than $3) to pharmacy co-pays for 
all beneficiaries (except active duty) to promote the use of the 
TRICARE Home Delivery program.
    The Department of the Navy supports the Secretary's reform 
proposals to better manage our health benefit in a way that delivers a 
superb benefit while more responsibly managing cost.
                              navy energy
    Question. Secretary Mabus, for the last 4 years, this Committee has 
added funds to the budget to increase Navy research efforts on 
alternative fuels, and we have supported your initiatives to reduce the 
dependence of the Navy and Marine Corps on fossil fuels. A recent study 
has questioned the value of the military's use of alternative fuels. 
Could you comment on the findings of that report, and explain why your 
initiatives are important to the Navy and Marine Corps?
    Answer. The RAND Corporation Report was not well researched and did 
not take into account the recent research and development advances in 
the biofuels technologies. RAND stated in their report that the 
Fischer-Tropsch coal-to-liquid/biomass-to-liquid fuels are the most 
promising near-term options for meeting the Department of Defense's 
needs cleanly and affordably. Currently, there are no Fischer-Tropsch 
plants here in the United States. Additionally, under the guidelines of 
the Energy Independence and Security Act (EISA) of 2007, section 526, 
any replacement fuel has to have a greenhouse gas emission profile less 
than petroleum. In order to meet this guideline, any Fischer-Tropsch 
coal-to-liquid plant would have to have carbon capture and 
sequestration incorporated into this overall process. While there is 
important carbon capture and sequestration research and development 
ongoing at DOE, there has not been any carbon capture and sequestration 
process built to commercial scale in the United States. In summary, due 
to the EISA 2007, section 526 guidelines and the cost prohibitive 
carbon capture and storage process, we feel that the Fischer-Tropsch 
coal-to-liquid/biomass-to-liquid fuels are not the most promising near-
term option for meeting the Department of Defense's needs cleanly and 
affordably.
    In the RAND report, some of the conclusions suggested that the 
alternative fuel industry is immature, could not scale up to make an 
appreciable difference as a domestic alternative, and recommended that 
DOD not invest in this market. We have found that the biofuel industry 
appears to be well poised to be of commercial size and ready to meet 
Department of Navy (DON) demands by 2016 for the Secretary of the Navy 
(SECNAV) Great Green Fleet goal. According to Biofuels Digest, there 
are 110 companies that are currently working on various biofuel 
products including mixed alcohols, bio-crude oils, and drop-in fuels.
    The Navy prefers to see itself as an ``early adopter'' of available 
biofuels. The military has often led in the development of new 
technologies where there was a compelling military use, even if the 
civilian use was ultimately greater (ex. GPS, the Internet). The 
operational use of alternative fuels by the Department of the Navy will 
be hastened by collaborating with Federal agencies and private industry 
at every step of the research, development, and certification process. 
The alternative fuel program establishes the Department of the Navy as 
an early adopter for investors in a nascent industry that could 
significantly enhance energy security, and thereby national security, 
in the mid- to long-term. By positioning itself as an early adopter by 
testing available biofuels and certifying them ``fit for use across our 
major platforms and leveraging test and certifications accomplished by 
the other services that meets our specifications'', the Navy is better 
poised to reap the following benefits:
  --Cost Savings.--Increasing our use of alternative energy sources 
        helps us achieve a level of protection from energy price 
        volatility. For every $10 increase in the cost of a barrel of 
        oil, the Navy spends an additional $300 million a year. 
        Operating more efficiently saves money by reducing the amount 
        we spend for fuel. Savings can be reinvested to strengthen 
        combat capability. The cheapest barrel of fuel afloat or 
        kilowatt-hour ashore is the one we will never use.
  --Guaranteed Supply.--Our reliance on energy can be exploited by 
        potential adversaries. Efficiency and alternatives may be our 
        best countermeasure. Energy efficiency increases our mission 
        effectiveness by expanding our range and endurance, and 
        reducing our need for logistics support. Efficiency 
        improvements minimize operational risks of that logistics 
        tether, saving time, money, and lives. Alternative fuels 
        provide the Navy an ``off-ramp from petroleum,'' mitigating the 
        risk to a volatile and ever more expensive petroleum market.
  --Early Adopter of Technologies.--The military has often led in the 
        development of new technologies where there was a compelling 
        military use, even if the civilian use was ultimately greater 
        (ex. GPS, the Internet). The operational use of alternative 
        fuels by the Department of the Navy will be hastened by 
        collaborating with Federal agencies and private industry at 
        every step of the research, development, and certification 
        process. The alternative fuel program establishes the 
        Department of the Navy as an early adopter for investors in a 
        nascent industry that could significantly enhance energy 
        security, and thereby national security, in the mid- to long-
        term.
  --Fossil Fuel Independence.--The Navy recognizes that our dependence 
        on fossil fuels and foreign sources of oil makes us more 
        susceptible to price shocks, supply shocks, natural and man-
        made disasters, and political unrest in countries far from our 
        shores.
  --Combat Capability.--Making our ships and aircraft more efficient 
        improves their fuel economy. We can increase the days between 
        refueling for our ships, improving their security and combat 
        capability. We can also extend the range of our aircraft strike 
        missions, allowing us to launch our aircraft farther away from 
        combat areas. Increasing our efficiency and the diversity in 
        our sources of fuel improves our combat capability 
        strategically and tactically.
    Question. Secretary Mabus, are there particular alternative energy 
technologies which you find are most promising at this time?
    Answer. The Department of Navy (DON) is exploring multiple 
solutions to reduce reliance on fossil fuels. It is critical to have a 
broad solution to this issue due to difficulties in predicting which 
solutions will be best suited for production at an industrial scale and 
at an acceptable price point.
    The DON is aggressively moving to demonstrate and certify 
alternative fuels for tactical application. Although the DON has not 
specified any particular feedstock, alternative fuels considered by DON 
must comply with EISA 2007 section 526 and not compete with food 
production. The DON has been evaluating 50/50 blends of hydrotreated 
plant and algal oils with petroleum-vased fuel. These blends have 
looked promising in both laboratory and aircraft and ship operation 
tests conducted to date. The DON is confident that its strategy of 
partnering with a broad coalition and demonstrating its commitment to 
and ability to use alternative sources of energy will lead to the 
successful development of clean alternatives and more secure domestic 
sources of energy.
    Question. The Navy has been working aggressively to identify 
savings which can be reinvested throughout the department. The list of 
initiatives described in your budget rollout includes $2.3 billion of 
savings on energy. Could you please detail the source of these savings?
    Answer. There are numerous energy efficient initiatives and 
renewable/alternative energy programs that the Navy and Marine Corps 
are pursuing. The reduced reliance on fossil fuels will achieve lower 
energy consumption, strategic security, avoided energy cost, and a more 
sustainable Fleet. Here are the major program areas along with examples 
of projects with estimated savings.
Major Energy Program areas
    Shore:
  --Steam plants decentralizations
  --Lighting systems upgrades
  --Renewable energy systems (solar & photovoltaic)
  --Rooftop solar thermal hot water projects
  --LED street lighting projects
  --Ground source heat pumps
  --Boiler heat recovery upgrades
  --Control system improvements
  --Alternative Powered Vehicles
    Tactical/Expeditionary:
  --Hull coatings
  --Propeller coatings
  --Stern Flaps
  --Allison 501K Efficiency Initiatives
  --Aviation Simulators
  --Smart voyage planning software
  --USS Truxtun hybrid energy drive retrofit
  --Alternative fuels testing and certification program
  --Incentivized Energy Conservation Program (i-ENCON)
  --Expeditionary Forward Operating Base (Ex-FOB)
  --SPACES portable solar systems
  --Light Emitting Diode (LED) Lighting
  --Renewable battery charging systems
Examples of Projects for Navy Tactical with estimated savings
    Stern Flaps for Amphibious Ships:
  --Shown to have an average payback period of less than 1 year on FFG/
        CG/DDG platforms
  --Currently undergoing testing on amphibious ships
  --Savings estimated at 5,500 BBLs/ship/year for LHD
    Hull/Propeller Coating:
  --Easy release hull/propeller coating system allows Navy ships to 
        shed bio-fouling once underway
  --Reduces costly periodic hull/propeller cleanings
  --Savings estimated at 1,800 BBLs/ship/year
    Solid State Lighting:
  --Uses LEDs for platform illumination
  --LED lights in commercial applications last almost 50 times longer 
        than Incandescent and 6 times longer than Fluorescent lights; 
        provide the same illumination with 25 percent of the energy
  --Currently testing on DDG-108 and LSD-52
  --Payback estimated at 3 years, depending on fixture (savings of 335 
        BBLs/ship/year for DDG)
    Navy also continues to develop technologies that will be 
implemented in future years; the implementation schedule for these 
initiatives is subject to impacts based on final fiscal year 2011 
budget:
    Hybrid Electric Drive for DDG/LHD/LHA:
  --Fuel savings by securing LM2500 propulsion turbines at low speed 
        while loading gas turbine electric generators to more efficient 
        operating condition (savings estimated at 8,500 BBLs/ship/year)
  --Land-based prototype scheduled for testing mid-2011
  --First afloat hybrid drive installed in USS Makin Island (LHD-8)
  --Hybrid drive will be installed in USS America (LHA-6), which is 
        scheduled for completion in 2012.
  --USS Truxtun (DDG-103) scheduled to be first operational 
        installation in fiscal year 2012 as an afloat test platform
    Engine efficiency modifications for the F-35 Joint Strike Fighter:
  --Improvement in F135 Block 5+ engine fuel economy and lifecycle cost 
        through component upgrades and software cycle optimization
  --Estimated Fleet-wide savings of 35,000 BBLs in 2023 (upon delivery 
        of Block 5 aircraft), increasing to 178,000 BBLs/yr by 2029
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                            military health
    Question. Secretary Mabus, the suicide rate in the military is at 
an all time high. While both the Navy and the Marine Corps numbers seem 
to have decreased, one suicide is one too many.
    What is your department doing to prevent suicides in the Navy and 
the Marine Corps?
    Answer. We believe preventing suicide hinges on our leaders' 
ability to intervene early and lead a culture change to induce help 
seeking behavior. We continually improve the guidance and program 
support provided to leaders at all levels to combat this preventable 
loss of life.
    Suicide prevention initiatives in the Navy include training aimed 
at front line supervisors to boost their understanding of the sailors 
they command, recognize changes in behavior, signs of concern, and 
engage early with appropriate support. Leadership seminars focus 
attention during times of transition and stress due to loss, including 
loss of status or career standing. Seminars also address the concept of 
continuously building and reinforcing connections with families and 
support structures to facilitate communication in times of need. 
Recognizing that people exposed to suicide are an at-risk group, 
expanded post-suicide-event training and guidance has recently been 
added to assist leaders in the aftermath of a tragedy to prevent future 
suicides. Suicide prevention coordinator and first responder training 
were provided world-wide and at Navy Reserve locations via Navy Reserve 
psychological health outreach teams.
    For the Marine Corps leaders educate all marines about the 
relationship between suicide and stressors, warning signs, and risk 
factors--both through annual awareness and prevention training, and 
through additional training embedded in all formal schools from recruit 
training to the Commander's Course. Marines are also taught how to 
fulfill their duty to seek help for themselves or a fellow Marine at 
risk for suicide. The importance of seeking help early, before problems 
escalate to the point of suicide risk is also emphasized.
    The ``Never Leave a Marine Behind'' suicide prevention training 
series is being expanded. In January 2011, we provided a junior Marine 
module as well as an update to the existing award-winning NCO module. 
In development for release soon are officer and staff noncommissioned 
officer modules that will help leaders to manage command climate in a 
way that builds resilience and encourages help-seeking in their 
marines.
    To truly build a resilient force that fosters the ability of 
marines to cope with the widely varying stress of life, we must 
recognize the interconnectedness between physical health, behavioral 
health, wellness, and spirituality. We will accomplish this by better 
integrating our existing resilience programs, improving efficiency and 
effectiveness, and making resources more useful to leaders. To that 
end, many programs have been reorganized under a new behavioral health 
branch with the end state of one mission. Effectively leveraging other 
programming across the spectrum of behavioral health and extending into 
other wellness areas will proactively prevent suicide.
    We recognize that strong partnerships are necessary to stay abreast 
of the latest available information within the suicide prevention arena 
and also to explore programming needs. The Marine Corps has 
collaborated with the American Association of Suicidology. Both the 
Navy and Marine Corps collaborate with Office of the Secretary of 
Defense (Readiness), Sister Services, other Federal, and civilian 
agencies, to continually adapt our efforts and reflect the latest 
public health science; and the ever-changing needs of the Navy and 
Marine Corps family.
    Question. I am concerned that many programs are only directed to 
active duty servicemembers. What are the Navy and the Marine Corps 
doing to assist Reservists with psychological health issues as they 
transition back to civilian life and may not have access to military 
treatment facilities?
    Answer. I agree with you that one suicide is too many, which is why 
the Department of the Navy continues to build a culture of support for 
psychological health and suicide prevention focused on prevention and 
early intervention while working to overcome the stigma associated with 
seeking needed care for the Total Force, including Reservists and their 
families.
    Enabling a continuum of service, Reserve commands have trained 
Combat/Operational Stress Control (C/OSC) caregivers and C/OSC training 
is conducted regularly at all levels in order to prevent suicide, 
sexual assault and family violence, and to normalize buddy-care and 
help-seeking behavior as early as possible. Reserve Psychological 
Health Outreach Program (PHOP) teams, embedded in the Navy and Marine 
Corps Reserve communities geographically, support Commanders in 
identifying Navy and Marine Corps Reservists and their family members 
who may be at risk for stress injuries following deployments or other 
transitions and provide outreach, support, assessment, referrals and 
follow-up to local resources to assist with issue resolution, 
psychological resilience and growth. Along with mental health 
referrals, many successful referrals by the PHOP teams involve helping 
Reservists with financial and employment concerns that can affect 
psychological health and impact performance. Another effective tool is 
the Returning Warrior Workshops (RWW), a 2 day weekend program designed 
specifically to support the reintegration of returning Reservists and 
their families following mobilization. PHOP teams serve as facilitators 
at these Yellow Ribbon Reintegration Program signature events. In 
addition, FOCUS (Families OverComing Under Stress), a family centered 
resilience training program based on evidence-based interventions that 
enhance understanding of combat and operational stress, psychological 
health and developmental outcomes for highly stressed children and 
families, is available for reservists serving in areas with a high-
active duty fleet concentration.
    Question. What programs have been the most successful? I urge you 
to share those best practices with the other services.
    Answer. Leadership at all levels is focused and engaged in suicide 
prevention, working hard to build individual and unit resilience, and 
to encourage sailors and marines to engage helping services.
    The Navy suicide prevention program has been successful on a number 
of fronts. It builds on the premise that suicide prevention must be a 
local effort to be effective. Service level efforts have been designed 
to support local command suicide prevention programs. Navy training and 
communications emphasize a simple message--ACT: Ask, Care, Treat. 
Recent surveys show that more than 80 percent of sailors (and growing) 
know the acronym ACT and understand it. More than 90 percent report 
that they know what to do if someone talks about suicide, can explain 
appropriate actions to take, and believe that their shipmates will get 
needed help. We have an increasing number of reports from commands that 
describe how members either sought help for themselves or a leader, 
peer or family member sought assistance for the individual. We believe 
this is a successful element of our program based on survey results and 
the increasing number of reports of sailors and family members taking 
necessary action.
    Navy policy requires commands to have written crisis response plans 
that itemize suicide safety precautions and appropriate actions to get 
emergency assistance for someone who demonstrates signs of acute 
suicide risk. We know of at least 2 specific instances and have several 
anecdotal reports that such plans made the critical difference by 
reaching someone in time to save their life.
    In 2009, the Marine Corps redesigned its suicide prevention and 
awareness training with the noncommissioned officer Never Leave a 
Marine Behind course. A junior Marine course followed in January 2011, 
and officer and staff noncommissioned officer versions are expected to 
be released in March 2011. Marines from the operating forces were 
included in all stages of course development. The courses contain 
various degrees of training in intervention skills, frontline 
supervisor awareness, and managing command climate to build resilience 
and encourage help-seeking behavior. Marines and instructors in formal 
schools, such as recruit training and Corporal's course, continue to 
receive suicide prevention and awareness instruction.
    The Corps continues to embed behavioral health providers in 
deploying units, and recently began providing awareness and 
intervention training to those who support behavioral health providers, 
such as medical providers, corpsmen, chaplains, and religious 
personnelmen. In addition, 40-50 marines in each deploying unit are 
offered nonmedical training in how to identify fellow marines 
experiencing stress reactions, and how and where to refer them for 
additional help if needed. It is that relationship and interaction 
between individual marines that is so important to maintaining a 
healthy force.
    Our programs have many other evidence-informed elements in our 
suicide prevention programs including peer-to-peer training, front line 
supervisor training, assessment and management of suicide risk for 
mental health providers.
    Both the Navy and Marine Corps collaborate with Office of the 
Secretary of Defense (Readiness), Sister Services, other Federal, and 
civilian agencies, to continually adapt our efforts and reflect the 
latest public health science; and the ever-changing needs of the Navy 
and Marine Corps family.
                            nuclear funding
    Question. Secretary Mabus, in H.R. 1, the House has decided to 
protect Defense spending from massive budget cuts proposed in other 
departments. This includes preserving research and development funding 
for a new generation of Ohio class ballistic missile submarines. It 
cuts funding, however, for the National Nuclear Security Administration 
which would build the nuclear engine to power the submarines. Can you 
reconcile these policy choices?
    Answer. Among its other missions, National Nuclear Security 
Administration (NNSA) enhances global security by providing naval 
nuclear propulsion for the most survivable leg of the nuclear triad, 
developing and maintaining the nuclear warheads which arm this 
platform, and preventing the proliferation of nuclear weapons.
    The funding provided for NNSA in H.R. 1 is approximately $1 billion 
less than the fiscal year 2011 request including a $125 million 
shortfall for Naval Reactor's efforts. If funded at the levels in this 
legislation, Naval Reactors will not be able to deliver on commitments 
made to the Department of Navy. In particular, this bill will adversely 
impact the reactor design work for the OHIO Replacement Submarine and 
delay refueling of the Land-Based Prototype. Within NNSA, Naval 
Reactors has overall responsibility for the reactor plant design for 
the next generation ballistic missile submarine, OHIO Replacement, and 
its NNSA funding request will continue specific work on the reactor 
plant (reactor core and supporting systems). Should the funding level 
in H.R. 1 become law, at a minimum, there would be a:
  --Six to nine month delay to the OHIO Replacement Program and 
        resultant loss of synchronization with the Navy's work on the 
        ship.
  --Staffing reduction of over 50 personnel at shipyards and Naval 
        Reactors' laboratories.
  --Deferral in planned hiring of 150 personnel at shipyards and Naval 
        Reactors' laboratories.
  --Deferral in reactor plant component design subcontract placements.
  --Other impacts to Naval Reactors, including the delays to the 
        manufacturing demonstration of alternate core materials and 
        fuel systems technology, the S8G prototype refueling, and a 
        large majority of previously planned General Plant Projects 
        (GPP).
    These shortfalls are particularly damaging in the early stages of 
the project when we are trying to mature the design and set plant 
parameters that will, for the most part, refine the cost and schedule 
for ultimate delivery of the reactor plant to support ship 
construction.
    Question. What impact will the cut for the nuclear engine program 
have on the new Ohio class ballistic missile submarine program?
    Answer. A strong Navy is crucial to the security of the United 
States, a Nation with worldwide interests that receives the vast 
majority of its trade and energy via transoceanic shipment. Navy 
warships are deployed around the world every hour of every day to 
provide a credible ``forward presence,'' ready to respond on the scene 
wherever America's interests are threatened. Nuclear propulsion plays 
an essential role in this, providing the mobility, flexibility, and 
endurance that today's smaller Navy requires to meet a growing number 
of missions. About 45 percent of the Navy's major combatants are 
nuclear-powered, including 11 aircraft carriers, 53 attack submarines, 
14 strategic submarines (the Nation's most survivable nuclear 
deterrent), and 4 strategic service submarines converted to covert, 
high-volume, precision strike platforms.
    The mission of the Naval Nuclear Propulsion Program, under DOE as 
Naval Reactors, is to provide militarily effective nuclear propulsion 
plants and ensure their safe, reliable, and long-lived operation and 
disposal. This mission requires the combination of fully trained U.S. 
Navy men and women with ships that excel in speed, endurance, stealth, 
and independence from logistics supply chains. Because of the Program's 
demonstrated reliability, U.S. nuclear-powered warships are welcomed in 
more than 150 ports of call in over 50 foreign countries and 
dependencies.
    Within NNSA, Naval Reactors is responsible for naval nuclear 
propulsion design, technology development and regulatory oversight. The 
Navy sets the requirement, and Naval Reactors delivers the reactor 
plants.
    The funding levels proposed by both the House and the Senate's year 
long continuing resolution would not allow Naval Reactors to honor 
commitments made to the U.S. Navy to deliver the OHIO class Replacement 
submarine on the required schedule. If no additional funding is made 
available to Naval Reactors, this would result in at least a 6 month 
deferral of planned reactor plant component design subcontracts, 
including development of the pressurizer, control drive mechanisms, and 
core and reactor component development efforts which support reactor 
compartment design and arrangements; a staffing reduction of over 50 
personnel at Naval Reactors' laboratories and the shipyard in Groton, 
CT for the last 3-4 months of fiscal year 2011; and a deferral in 
required hiring of approximately 150 personnel at Naval Reactors' 
Knolls Atomic Power Laboratory in Schenectady, New York. The 
combination of these factors would result in a delay of at least 6-9 
months to the OHIO Replacement program, and ship design and 
construction schedules would need to be revised and sub-optimized from 
their current cost minimizing approach.
    Among the most significant requirements for the OHIO class 
Replacement is a life-of-the-ship core. To provide a life of the ship 
core for the OHIO class Replacement, NR needs to use an alternate 
cladding material. Failure to receive the full fiscal year 2011 request 
could prevent the required insertion of alternate core materials and 
fuel system technology into the Land-Based Prototype or delay the 
refueling schedule. For the refueling of the Prototype, Naval Reactors 
will test and demonstrate the manufacturability of the alternate core 
materials and fuel system technology required for the OHIO class 
Replacement life-of-the-ship core. This work must continue in fiscal 
year 2011 to establish production processes for the OHIO class 
Replacement core prior to full-scale production and procurement.
    In addition to the important research and development mission this 
platform performs, the prototype serves as a training platform for our 
sailors. Delays to the refueling of the prototype will impact the 
readiness of our nuclear fleet by delaying training of our Nuclear 
qualified operators. All nuclear operators go through a rigorous 
initial training and qualification program that includes qualifying to 
operate either one of the Land-Based Prototype or one of the Moored 
Training Ships. During this training, operators develop a respect for 
the unforgiving nature of nuclear propulsion technology and, from the 
very beginning of their careers in the Program, develop confidence in 
their ability to safely operate a reactor plant. These highly trained 
and qualified operators are key to our record of safe and reliable 
operation.
    The proposed funding levels are concerning on a higher level in 
that Naval Reactors has a long, successful track record of rigorously 
defining requirements and executing major projects efficiently on 
budget, on schedule, and of the quality demanded by complex nuclear 
technology that has a very high consequence of failure.
                          humanitarian relief
    Question. As evidenced by this past year's events, the U.S. 
military's involvement in disaster and humanitarian relief has become 
more and more important. I note specifically aid to Haiti both after 
the earthquake and the hurricane in 2010, aid to Pakistan after the 
2010 floods, and most recently aid to Japan in the aftermath of the 
earthquake and tsunami. This type of assistance is vital to our global 
relationships and I applaud you for your consistent quick reaction and 
comprehensive support. Is the Navy-Marine Corps team adequately 
equipped to conduct these missions?
    Answer. The Department of Navy (DON) is adequately equipped and 
trained to conduct Humanitarian Relief missions when called upon. This 
is exemplified by the recent response to the earthquake, tsunami and 
nuclear reactor disasters in Japan which had minimal impact on DON 
missions. These responses showed the flexibility of Navy and Marine 
Corps assets. The same platforms and the same people can conduct a wide 
range of missions.
    Humanitarian Assistance/Disaster Relief (HA/DR) is crucial to 
fostering and sustaining cooperative relationships in times of calm so 
that during crisis previously established working relationships improve 
response efficiency and efficacy. We will continue to mitigate human 
suffering as the vanguard of interagency and multinational efforts, 
both in a deliberate, proactive fashion and in response to crises. 
Human suffering moves us to act, and the expeditionary character of the 
maritime forces uniquely positions us to provide assistance. With HA/DR 
being a core capability as outlined in the current maritime strategy, 
it has been, and will continue to be, part of who we are as maritime 
services.
    Our greatest current concern related to Humanitarian Relief is the 
fiscal strain placed on DON by the voluntary departure of military 
dependents from the Island of Honshu, Japan. With an estimated cost of 
$54.5 million through April 8, and the tremendous strain our sailors 
are already bearing due to the reduction of PCS order lead-time from 6 
months down to as little as 2 months, we simply cannot absorb these 
costs within MILPERS accounts under the Continuing Resolution (CR). The 
Department has submitted a CR exception request to the President's 
Office of Management and Budget (OMB) for additional cash under the 
``Safety of Human Life'' exception to fund the additional cost for 
travel, lodging, meals, and per diem for evacuees through April 8, 
2011. This short-term solution has been approved by OMB. The annual 
funding picture remains unresolved and a full year funding strategy 
cannot be determined until congressional action on the fiscal year 2011 
President's budget is complete. We appreciate any help you can provide 
on this matter.
    Question. What kind of training do our sailors and marines receive 
with respect to humanitarian missions?
    Answer. The Navy established Humanitarian Assistance and Disaster 
Response (HA/DR) as a core capability of our Maritime Strategy. As 
such, it is now a competency that is woven into the fabric of daily 
naval operations. The conduct of Global Maritime Partnership missions, 
as well as other partner building activities, connect development and 
diplomacy priorities to fleet-planned activities. When disasters occur, 
the Navy's globally distributed and regionally concentrated forces are 
ideally suited for HA/DR operations in the littorals where the 
preponderance of the world's population resides. Naval forces can 
quickly respond to security related crisis operations in large measure 
due to how naval forces are trained, organized, deployed, and employed. 
The Department of Navy (DON) sailors and marines provide support for 
humanitarian missions by performing functions which are already part of 
their daily Service mission.
    Two enduring missions that practice proactive HA/DR are PACIFIC 
PARTNERSHIP, conducted in East Asia and Oceania, and CONTINUING 
PROMISE, conducted in South America and the Caribbean. These missions, 
which are coordinated with each Country Team, build critical partner 
capacity and improve disaster response readiness for both our partners 
and our sailors through the development of habitual relationships with 
relevant partner ministries, departments, and officials. The deliberate 
day-to-day coordination of the Naval Service with international 
partners, joint, interagency, international, and NGO efforts 
strengthens relationships and sets the conditions for effective 
collaboration and rapid response when an in-extremis response is 
required.
    Recently, the RONALD REAGAN Strike Group's quick response to the 
earthquake and tsunami in Japan highlighted the Navy's unique ability 
to provide expeditious humanitarian relief around the globe.
    Question. Are there additional resources that would make you more 
efficient or effective in providing this type of assistance?
    Answer. Additional resources are not required to make the Navy more 
efficient or effective in providing Humanitarian Assistance (HA) and 
Disaster Relief (DR) to emergent events such as Haiti, Pakistan, and 
Japan. These operations are the core capabilities of the Navy's 
maritime Strategy.
    HA/DR is funded by Overseas Humanitarian, Disaster and Civic Aid 
(OHDACA) funds approved by Office of Secretary of Defense (OSD). OSD 
authorizes designated Combatant Commanders (COCOM) to render 
assistance, including transportation of personnel and supplies, 
assessments of affected areas and purchase of relief supplies in 
coordination with U.S. Agency for International Development (USAID)--
lead agency for Disaster response.
    With no timetables for disasters, DR cannot be budgeted and OHDACA 
reimburses Navy for use of OMN funds to support HA/DR operations.
                                 ______
                                 
                Questions Submitted by Senator Herb Kohl
                        ship to shore connector
    Question. Secretary Mabus, the Navy is in the middle of the process 
of choosing a contractor for a new Ship to Shore Connector (SSC) to 
replace the LCAC's that currently move equipment between ships and the 
shore. As the Navy prepares to evaluate the two proposals that are 
expected at the end of this month, can you explain how the Navy will 
take into account Total Ownership Costs as it makes its decision?
    Answer. The exact number of proposals which will be received for 
the Ship to Shore Connector (SSC) is unknown. An Offeror's proposal 
will be evaluated in accordance with the criteria set forth in the 
final Request for Proposals (RFP). Currently, in the draft RFP, Total 
Ownership Cost (TOC) is included in the technical evaluation of the 
Offerors' Detail Design and Engineering Approach, as well as Build 
Approach.
    The evaluation process will consider, among other things, an 
Offeror's top three TOC reduction initiatives inherent in their 
proposed approaches to developing the SSC Detail Design and producing 
the resultant craft. This will be part of the overall best value 
determination.
    Question. Is there a defined process for considering Total 
Ownership Costs (TOC)? If so, how does that work?
    Answer. Yes, for this solicitation there is a defined process for 
considering Total Ownership Costs outlined in the draft Ship to Shore 
Connector (SSC) Request for Proposal (RFP) released on March 1, 2011 
via a FedBizOps announcement.
    According to the draft RFP, evaluation factors include non-price 
(technical evaluation) factors and a price factor. These factors will 
be used to evaluate the extent to which proposals address, and meet or 
exceed, the requirements of the SSC solicitation. These evaluation 
factors are as follows:
  --Technical Evaluation: Factor 1--Detail Design and Engineering 
        Approach; Factor 2--Build Approach; Factor 3--Management 
        Approach; and Factor 4--Past Performance.
  --Price Evaluation: Factor 5--Price.
    Total Ownership Cost is included in the technical evaluation of 
Factor (1), Detail Design and Engineering Approach, and Factor (2), 
Build Approach. For Factors (1) and (2), the evaluation process will 
consider, among other things, an Offeror's top three Total Ownership 
Cost (TOC) reduction initiatives inherent in their proposed approaches 
to developing the SSC Detail Design and producing the resultant craft. 
The corresponding technical factors will then be assigned an adjectival 
rating, which will be part of the overall best value determination.
    Question. What are some examples of TOC initiatives in acquisition 
programs?
    Answer. Total Ownership Costs (TOC) reduction initiatives include 
the following areas: Training, Maintenance, Energy Usage, Supply 
Support, Configuration Management, Operations, Environmental Impact, 
and Craft Disposal.
    Some examples of TOC reduction initiatives in surface shipbuilding 
programs include:
  --The T-AKE contract was awarded on the basis of TOC, not primarily 
        acquisition costs. In addition, a formal TOC reduction program 
        was instituted which incorporated design features projected to 
        save over $700 million over the life of the class. The ship is 
        outfitted with an integrated electric drive that allows for 
        optimum fuel economy over the full range of operation.
  --The Mobile Landing Platform design leverages an existing production 
        design (General Dynamics NASSCO's BP Tanker). As a result, 
        program risk was greatly reduced and coupled with requirements 
        tradeoffs, the Navy saved over $2 billion.
  --Provided Auxiliary Propulsion System in LHD 8 and LHA 6.
  --Reduced permanent manning levels in LPD 17 class, DDG 1000 and 
        Littoral Combat Ship programs.
  --Combined Government Furnished Equipment (GFE) buy across the ship 
        classes for the Commercial Broadband Satellite Program (CBSP). 
        The DDG 113 Advance Procurement, T-AKE and JHSV planned buys 
        were adjusted to take advantage of the stepped pricing 
        structure of the CBSP equipment contract, which resulted in 
        approximately $1.4 million in savings per system.
  --Issued Stern Flap Modification for DDG 79-112, resulting in a total 
        savings through the 35-year life span.
  --Deleted the port anchor and forward kingpost on DDG 113 and follow-
        on ships.
  --Combined GFE buys for machinery control system between DDG 
        Modernization and DDG 113 and follow-on ships.
  --Maximize competition for subcomponent procurements for DDG 113 and 
        follow-on ships (e.g., Main Reduction Gears).
  --Use refurbished equipment on DDG 113 and follow-on ships (e.g., 
        High Frequency Radio Group).
    Question. How does the evaluation process ensure that a competitor 
is not penalized for increased acquisition cost that may be necessary 
for a TOC initiative that will dramatically reduce operating or 
maintenance costs?
    Answer. For Ship to Shore Connector (SSC), an Offeror's proposal 
will be evaluated based on four non-price (technical) factors and a 
price factor. Total Ownership Cost is included in the technical 
evaluation of Factor (1), Detail Design and Engineering Approach, and 
Factor (2), Build Approach.
    For Factors (1) and (2), the evaluation process will consider, 
among other things, an Offeror's top three Total Ownership Cost 
reduction initiatives inherent in their proposed approaches to 
developing the SSC Detail Design and producing the resultant craft. The 
corresponding technical factors will then be assigned an adjectival 
rating, which will be part of the overall best value determination. A 
best value determination is based on an assessment as to which proposal 
demonstrates the greatest technical merit at a reasonable cost.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                              p-8a basing
    Question. In the President's budget for fiscal year 2012, no money 
was included for military construction projects at Naval Air Station 
Whidbey Island to begin preparing the facility for P-8A aircraft 
basing. When does construction on the necessary MILCON projects need to 
begin in order to have NAS Whidbey prepared to receive aircraft by 
2017?
    Answer. Naval Air Station (NAS) Whidbey Island is currently planned 
to transition to P-8 outside the FYDP, in 2017 or later. Preliminary 
design and subsequent construction would require approximately 3 years 
to complete prior to P-8 arrival. As the P-8 program matures and 
delivery schedules, operational employment, and transition plans are 
implemented, the specific timeline will be determined.
    Question. What construction projects are required to upgrade the 
base and how much do they cost? Has the Navy given any consideration to 
less expensive alternatives for military construction at Whidbey?
    Answer. Naval Air Station (NAS) Whidbey Island is currently planned 
to transition to P-8 outside the Future Years Defense Plan, in 2017 or 
later. To support P-8 operations, approximately $330 million would be 
required for a 3-bay P-8 hangar, a Fleet Training Center, and P-8 
related base infrastructure modifications. The Navy will continue to 
give consideration to less expensive alternatives such as reuse and or 
consolidation of existing facilities at NAS Whidbey Island as the 
transition to P-8 progresses.
    Question. When will the Navy make a final decision regarding 
whether or not to follow the ROD?
    Answer. The 2008 Record of Decision (ROD) is the Navy's current 
guidance for long term basing of the P-8 force. The ROD identified five 
operational squadrons and one Fleet Replacement Squadron at Naval Air 
Station (NAS) Jacksonville, Florida; three squadrons in Marine Corps 
Base Hawaii (MCBH) Kaneohe Bay; and four squadrons in NAS Whidbey 
Island, Washington. Within the current Future Years Defense Plan 
(FYDP), P-8 will be introduced in NAS Jacksonville and MCBH Kaneohe 
Bay. NAS Whidbey Island is currently planned to transition to P-8 
outside the FYDP, in 2017 or later. Unless otherwise amended by a new 
ROD, NAS Whidbey Island will continue to support Airborne Electronic 
Attack, Fleet Reconnaissance, and Maritime Patrol squadrons.
    Question. What justification (both budget and strategic) would 
support an alternate basing plan for stationing P-8A aircraft only at 
Jacksonville and Kaneohe Bay? And, are those facilities able to sustain 
the additional four squadrons that would have been based at Whidbey?
    Answer. The 2008 Record of Decision (ROD) is the Navy's current 
guidance for long term basing of the P-8 force. NAS Whidbey Island is 
currently planned to transition to P-8 outside the FYDP, in 2017 or 
later. Unless otherwise amended by a new ROD, NAS Whidbey Island will 
continue to support Airborne Electronic Attack, Fleet Reconnaissance, 
and Maritime Patrol squadrons. Any change to the ROD to station four 
operational squadrons in NAS Whidbey Island would require strategic, 
fiscal, environmental, and facilities assessments to address impacts 
across the force.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
                    aegis ballistic missile defense
    Question. Secretary Mabus, the Navy has assumed the lead for the 
first phase of the European missile defense plan. This first phase 
began last Monday with the USS Monterey beginning a 6 month deployment 
to the Mediterranean. With the immediate need to support the European 
missile defense plan along with the current demand from Combatant 
Commanders in other parts of the world for ships, are there enough 
ships available to support the ballistic missile defense mission? Can 
the current ship maintenance schedule support deployment of phase one 
and phase two of the European missile defense plan?
    Answer. The Navy currently has sufficient capacity to meet the most 
critical demands for multi-mission surface combatants; however, Navy 
does not have the capacity to meet all Geographic Combatant Commander 
(GCC) demands for Ballistic Missile Defense (BMD)-capable ships without 
breaking established Personnel Tempo program limits for deployment 
lengths, dwell and homeport tempo.
    In the near-term, surface combatants with Aegis BMD capability are 
allocated to GCCs through the Department of Defense Global Force 
Management (GFM) process taking into consideration GCC surface 
combatant requirements all mission areas. The Navy employs the Fleet 
Response Plan (FRP) as the framework to structure, prepare and posture 
ready Navy forces to meet GFM requirements, to include BMD. The FRP 
balances the requirements to maintain and upgrade equipment, train for 
the full spectrum of operations and deploy in support of GCC 
requirements.
    The required ship maintenance and Aegis Modernization plan supports 
the expected requirements of Phase 1 and Phase 2 of the European 
missile defense plan. To meet the increasing demand for these ships and 
reduce the risk to our long term force structure caused by the 
increased operational tempo from longer deployment lengths, the Navy, 
in conjunction with MDA, has established a plan to increase the number 
of BMD-capable Aegis ships from 23 in fiscal year 2011 to 41 in fiscal 
year 2016 (see Figure 1 below). This plan balances the need for meeting 
current operational requirements against the need to upgrade existing 
surface combatants with BMD capability to pace the future threat. 
Included in this plan are increases in both the Navy's capacity and 
capability of Aegis ships through the installation of Aegis BMD 3.6.1/
4.0.1 suite, the Aegis Modernization program (Aegis BMD 5.0 suite), and 
new construction (commencing with DDG-113). The current Continuing 
Resolution (CR) and the President's budget for fiscal year 2012 may 
impact this plan.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Figure 1.--Aegis BMD Ship Profile, Presidential budget for fiscal year 
                                 2012.

                                 ______
                                 
              Question Submitted by Senator Susan Collins
                  brunswick naval air station closure
    Question. The Brunswick Naval Air Station is slated to close as an 
active military installation on May 31, bringing to a close a proud era 
in naval aviation in Brunswick, Maine. The Senate Armed Services 
Committee has provided the necessary conveyance authorities to transfer 
property under BRAC quickly. Recently, several of the initial 
conveyance packages to Southern Maine Community College have been 
delayed without explanation. Buildings 151 and 512 at NAS Brunswick, 
which are projected to serve as the new Maine Advanced Technology and 
Engineering Center (MATEC) and Southern Maine Community Residence Hall 
respectively, are essential resources for the start of the College's 
upcoming Fall Semester. The property was originally scheduled to be 
conveyed to the College in January through the Department of Education, 
but the properties still remain under the Navy's control. Given that 
these properties require up to 6 months of redevelopment and the start 
of the Fall semester is August 2011, the education of students relying 
upon the College's new campus is in jeopardy unless this conveyance 
occurs in the near future. Secretary Mabus, will you review the status 
of this conveyance and commit to a conveyance date in the near future?
    Answer. I share your desire to transfer the property to the 
Brunswick community as expeditiously as possible. On March 29, 2011, 
Navy assigned 10 acres of Brunswick Naval Air Station, including 
Buildings 151 and 512, to the Department of Education for conveyance.
    The Department of Education will conduct the conveyance of 
Brunswick Naval Air Station property to Southern Maine Community 
College through a public benefit conveyance.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
              u.s. navy environmental remediation on adak
    Question. As you might be aware, environmental remediation at 
multiple sites on the island of Adak has been ongoing since 1986. The 
U.S. Navy, in conjunction with the EPA and the State of Alaska, have 
been working since that time to restore the lands on Adak to an 
environmentally stable state following the Navy occupation of those 
lands. While through fiscal year 2009, the Navy has spent $289.8 
million on restoration activities on Adak, it is my understanding that 
the Navy anticipates that another $102.5 million would be needed to 
complete the restoration projects. I have been recently informed that 
the majority of restoration efforts that the Navy has conducted have 
been focused on lands that are not available for habitation or economic 
development by the communities on Adak. Is there a process by which the 
Navy determines which lands receive remediation funding and projects 
before others?
    Answer. The Navy funds cleanup to protect human health and the 
environment and meet legal obligations, including agreements with 
States and the U.S. EPA, such as the Adak Federal Facility Agreement 
(FFA). For BRAC sites, cleanup schedules are also aligned with property 
redevelopment timelines to the best extent possible. If additional 
funds are made available by Congress, projects that accelerate property 
transfer are then considered.
    Question. Does the Navy have a long term plan in place that defines 
which lands will be remediated and in which order?
    Answer. The Navy has a plan which includes a schedule for 
investigation, cleanup and long-term monitoring of all Navy 
environmental sites on Adak. The Navy consults with the local 
Restoration Advisory Board (RAB) and regulatory agencies when 
developing and updating the plan.
    Question. What is the Navy's projected timeframe for the completion 
of the remediation projects on Adak?
    Answer. The Navy has a schedule to complete all cleanup actions by 
fiscal year 2016. The remedy selected for some environmental sites 
include long-term monitoring consisting of periodic inspection and 
repair of landfills, groundwater sampling and analysis, marine tissue 
sampling and analysis, and inspection and repair of institutional 
controls. Long-term monitoring requirements are documented in the Adak 
Comprehensive Monitoring Plan (CMP) and are scheduled to continue until 
fiscal year 2041.
              Questions Submitted to Admiral Gary Roughead
            Questions Submitted by Chairman Daniel K. Inouye
                       navy shift in sea billets
    Question. Admiral Roughead, the Navy recently announced its plans 
to shift approximately 6,800 billets through fiscal year 2016 to 
realign them for warfighting capabilities. A portion of this shift will 
increase the number of sea billets while cutting shore billets. What 
led the Navy to initiate this shift, and what effect will this have on 
the ship to shore rotation of sailors?
    Answer. The Navy shifted these billets from support staff to 
operational roles to improve warfighting readiness and support the 
Navy's future force and warfighting capabilities. The reduction in 
staff billets allowed us to increase operational, sea going billets for 
the LHA-7, DDG-51 class destroyers, LCS class ships, unmanned and 
helicopter aviation detachments to support the LCS, Virginia class 
submarines, new E-2D Advanced Hawkeye aircrews, and the outfitting of 
an additional Riverine Squadron.
    With Navy's increased focus on enhancing efficiencies in our 
operations, this will require some sailors to serve longer sea tours. 
The necessary realignments toward operations will likely require 
implementation of risk mitigation strategies to support sea intensive 
communities and ratings. Some of the initiatives being considered are 
Sea Duty Incentive Pay (SDIP), increased general shore duty billeting 
in recruiting commands, and increased in-rate shore duty billets at 
regional maintenance centers and waterfront school houses.
    Question. Are you concerned that this tighter ship to shore 
standard will have a negative effect on families and retention?
    Answer. While sea/shore rotation does factor in to retention 
decisions, we do not anticipate this realignment to cause retention 
statistics to fall outside of historic norms. Currently, the Navy is 
experiencing unprecedented retention, which is expected to continue, 
based on current economic indicators. Disregarding the current positive 
impact of the economy and the high operational tempo, 65 percent of 
sailors beyond 6 years of service remain in the Navy and 80 percent of 
sailors with greater than 10 years of service decide to Stay Navy based 
on historical averages. The Navy has established maximum allowable sea 
tour lengths to preserve positive tone-of-the-force and to minimize 
retention risk.
    The billet realignment was approved only after careful analysis of 
operational needs, fleet readiness requirements, and input from fleet 
sailors. The increase in manning at sea is anticipated to have positive 
effects that will reduce the workload of sailors currently on sea duty 
and increase the opportunity for sailors to obtain professional 
qualification through participation in Fleet operations.
    We remain steadfast in our commitment to provide exceptional 
support to mitigate the adverse impacts families may experience during 
deployments. We offer a broad array of services through Navy Fleet and 
Family Support Centers, military medical treatment facilities, child 
care centers, and morale, welfare and recreation programs. These, 
coupled with ready access to command ombudsmen and referral services 
through Military OneSource, provide a network of support to sustain 
families enduring the hardships associated with prolonged family 
separations while their loved ones are away.
                         aegis missile defense
    Question. Admiral Roughead, Aegis cruisers and destroyers provide a 
crucial capability for conducting ballistic missile defense operations. 
The administration's Phased Adaptive Approach (PAA) for ballistic 
missile defense operations includes operating Aegis ships in European 
waters. Do you have sufficient resources to carry out this additional 
mission?
    Answer. The Navy currently has sufficient capacity to meet the most 
critical demands for its multi-mission Aegis ships; however, we do not 
have the capacity to meet all Geographic Combatant Commander (GCC) 
demands for Ballistic Missile Defense (BMD) without exceeding 
established Personnel Tempo program limits for deployment lengths, 
dwell tempo, or homeport tempo. Based on threat analysis and current 
indications from GCCs, and assuming standard 6 month deployment 
lengths, the Navy and the Missile Defense Agency (MDA) concluded that 
GCC demand for surface combatants with Aegis BMD capability will 
outpace capacity through approximately 2018.
    To meet the increasing demand for these ships and reduce the risk 
to our long term force structure caused by the increased operational 
tempo from longer deployment lengths, the Navy, working in conjunction 
with MDA, has established a plan (see Figure 1 below) to increase the 
number of BMD-capable Aegis ships from 23 in fiscal year 2011 to 41 in 
fiscal year 2016. This plan balances the need for meeting current 
operational requirements against the need to upgrade existing BMD-
capable Aegis ships to pace the future threat. Included in this plan 
are increases in the Navy's capacity and the capabilities of Aegis 
ships through the installation of an Aegis BMD 3.6.1/4.0.1 suite, the 
Aegis Modernization program, or new construction (commencing with DDG-
113).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Figure 1.--Aegis BMD Ship Profile, Presidential budget for fiscal year 
                                 2012.

    Question. Admiral Roughead, are you concerned that the heightened 
demand for Aegis Ballistic Missile Defense will detract from other, 
non-BMD missions?
    Answer. With the exception of our SSBN's strategic deterrence 
patrols, the Navy does not deploy ships with a single mission purpose. 
Single mission use of our Aegis ships for Ballistic Missile Defense 
(BMD) will result in shortages in other mission areas and a loss of 
operational flexibility for the Geographic Combatant Commanders (GCCs).
    To ensure GCCs demands are met, the Navy employs Aegis ships in 
multi-mission roles rather than for exclusive missions on an enduring 
basis. These ships can perform a variety of other non-BMD missions such 
as strike warfare, air warfare, submarine warfare, surface warfare, 
information warfare, high-value asset protection, or maritime 
interdiction either concurrently or sequentially as the GCC requires. 
The Navy has created a flexible operating concept for maritime BMD 
which features a graduated readiness posture that allows BMD-capable 
Aegis ships to be on an operational tether and available for other 
tasking when not directly involved in active BMD operations. Aegis 
ships operating in support of a BMD mission do not lose the capability 
to conduct other missions; however, specific mission effectiveness may 
be affected by ships' position and/or application of ship resources to 
those missions.
               aegis ballistic missile defense operations
    Question. Admiral Roughead, the USS Monterey recently deployed as 
the first asset in European missile defense. Could you provide the 
Committee with an update on those operations?
    Answer. While the Navy has previously deployed BMD-capable ships to 
the European region, USS Monterey is the first deployed BMD-capable 
multi-mission ship to support the European Phased Adaptive Approach 
(EPAA). This deployment will lay the foundation for the EPAA, by 
developing a better understanding of what is necessary to execute 
ballistic missile defense from the sea in Europe and how to operate in 
coordination with Allies and partners.
    USS Monterey will engage with our NATO Allies and European partners 
to promote the U.S. commitment to the EPAA mission and the broader 
U.S.-NATO theater security cooperation efforts. To date, this 
engagement included participation in the NATO Air Defense Committee 
conference in Antwerp, Belgium and future engagements are planned with 
our Allies and partners in the Black Sea and Eastern Mediterranean.
    During her deployment, USS Monterey will continue integration and 
testing of U.S. BMD capabilities with NATO's existing missile defense 
framework, including the emerging NATO command and control network.
    As a BMD-capable multi-mission ship, USS Monterey also remains 
ready to provide a wide range of capabilities enabling her to promote 
peace and security, preserve freedom of the seas and provide 
humanitarian aid and disaster response as necessary.
                      bow wave in ship procurement
    Question. Admiral Roughead, the Navy's stated force structure goal 
is 313 ships. However, your most recent 30-year shipbuilding plan 
submitted to Congress shows that beginning in fiscal year 2027, the 
Navy fleet will fall well below that number and drop to less than 290 
ships. What steps are you taking to mitigate these projected 
shortfalls?
    Answer. With the need for multi-mission platforms vice single 
mission platforms, and recognizing the significantly increased 
capabilities of current new construction ships, the Navy cannot 
recapitalize our battle inventory to replace its legacy ships at the 
same rate at which they were originally procured in the 1980s and 1990s 
and maintain an affordable, balanced procurement plan. To manage this 
inventory issue with our current fiscal constraints, the Navy will 
manage the service lives of our existing ships through modernization 
and maintenance over the Future Years Defense Plan and into the 2020s 
to mitigate the impact of the upcoming block obsolescence of the ships 
procured in large quantities during the 1980s. This management approach 
will minimize gaps in capacity through the 2020s in a cost efficient 
manner. To enhance our combat capability for our existing ship designs 
we will continue our spiral capability upgrades to prevent 
technological obsolescence and to extend the service lives of specific 
ship classes. Both of these initiatives will mitigate the decline in 
our battle force inventory during the 2020s and early 2030s.
    During the period fiscal year 2031 to fiscal year 2040, we have 
assumed a procurement strategy based on sustaining procurement rates. 
Wherever feasible, the Navy will procure new ships at a steady state 
reducing the magnitude of annual funding variations and providing a 
more stable demand to industry. In some cases, where rapid retirement 
rates are anticipated, it may be necessary to start procurement of next 
generation ships earlier than might otherwise be required or accept 
``bathtubs'' in certain ship classes until procurement rates catch up 
with retirement of ships procured during the 1980s. As requirements, 
resources and the industrial landscape come into better focus for the 
post-2020 timeframe, the Navy will continue to consider mitigation 
strategies for these anticipated shortfalls in future plans.
    Question. Admiral Roughead, the Congressional Budget Office 
estimates that the Navy's ship procurement budget is 19 percent below 
what is required to execute your current 30-year shipbuilding plan. Do 
you agree with this assessment?
    Answer. No, I do not agree with this assessment. Navy's anticipated 
annual procurement budget averages about $15.9 billion in fiscal year 
2010 per year over the 30 year shipbuilding plan period. This average 
includes those funds necessary to recapitalize the OHIO Class ballistic 
missile submarines. The Navy and Congressional Budget Office (CBO) 
estimates for the near-term (fiscal year 2011-fiscal year 2020) reflect 
a less than 5 percent difference. Given known ship capability and 
quantity requirements, the Navy cost estimates are judged to be 
accurate in this period.
    What has driven the 19 percent difference in our estimates has been 
the far term (fiscal year 2031 to fiscal year 2040) where CBO and Navy 
estimates differ by 37 percent. The requirements during this period are 
not as well defined as those for the near or mid-term. The CBO made 
several different assumptions than the Navy in its assessment, 
particularly in the far-term. Those differences result partly from 
different methods of estimating shipbuilding inflation during the 
period as well as different assumptions about the design and 
capabilities of future ships. The number, types and capabilities of 
ships are estimated based on anticipated Joint and Navy war-fighting 
requirements, and cost estimates are fluid due to both the uncertainty 
of business conditions affecting the shipbuilding industry and the 
inherent technology costs of future combat systems.
    There are several uncertainties that must be resolved regarding the 
Navy's missions in the next decade; the relative threat levels that 
will exist at that time and the extent to which we will adjust the 
force to meet these challenges. Each of these issues will have a direct 
bearing on the overall costs required to recapitalize this force. 
Ultimately, this will require that we set funding priorities properly, 
adjust capabilities in the ships being built and readdress risk in 
those mission areas where appropriate. We must and will continue to 
conduct thorough reviews of each facet of our budget to ensure we are 
providing the Nation with the needed level of capability in all areas 
in the most cost efficient manner.
    Question. Admiral Roughead, do you intend to provide an updated 
long-range shipbuilding plan to Congress this year?
    Answer. No, we do not intend to submit an updated long range 
shipbuilding plan to Congress. Section 231 of Title 10, United States 
Code (section 231) was amended by the National Defense Authorization 
Act for fiscal year 2011, deleting the requirement for the Secretary of 
Defense (SECDEF) to submit with the Defense Budget an annual long-range 
plan for construction of naval vessels commonly know as ``The 30-Year 
Shipbuilding Plan''. As amended, section 231 now requires that 
concurrent with submission of the President's budget (PRESBUD) during 
each year in which SECDEF submits a Quadrennial Defense Review (QDR), 
the Secretary of the Navy (SECNAV) shall submit a long-range 
shipbuilding plan that supports the force structure recommendations of 
the QDR and will be assessed by Cost Assessment and Program Evaluation 
Office (CAPE) to determine if the level of funding is adequate and 
determine potential risk in supporting the requirements of the 
Combatant Commanders.
    In any year in which a QDR is not submitted and the number of ships 
decreases in the Future Years Defense Plan (FYDP), SECNAV shall submit 
an addendum to the most recent QDR that fully explains and justifies 
the decrease.
    Consistent with the amended section 231, the Navy does not intend 
to submit an updated long-range shipbuilding plan to Congress this year 
because the number of ships has increased with the PRESBUD 2012 Future 
Years Defense Plan (FYDP); however, we are providing updated 10-year 
data tables per the House Committee of Armed Services request of 
February 15, 2011.
         effects of continuing resolution on military personnel
    Question. Admiral Roughead and General Amos, how has the series of 
short-term continuing resolutions negatively affected the Navy and 
Marine Corps's ability to manage its military personnel accounts? For 
example, how much notice is being given for sailors and marines to 
prepare to move to their next assignment, and what is the goal?
    Answer. Operating the military personnel accounts under a series of 
short-term continuing resolutions (CR) and reduced funding has 
presented many execution challenges. Under the full year CR, the 
Military Personnel, Navy (MPN) appropriation is underfunded by $415 
million. This shortfall is due to the difference between the annualized 
amount of the fiscal year 2010 appropriation and the requested fiscal 
year 2011 President's budget. Additionally, the MPN account is 
underfunded by an additional $41 million from additional requirements 
and work in the year of execution resulting from high retention. The 
added costs associated from the evacuations of Japan and Bahrain, as 
well as Operation Odyssey Dawn, will further pressurize the MPN 
account.
    To preserve cash to pay our sailors and civilians and to avoid an 
Anti-Deficiency Act (ADA) violation, the Navy deferred 20,000 Permanent 
Change of Station (PCS) moves and reduced lead times from 6 months down 
to 2 months. Lack of lead time on PCS orders hurts military families as 
they have less time to plan for major life changes associated with 
moves (i.e. home sales, lease expirations, overseas screening, 
uncertainty, etc). Historical goals for lead time are approximately 4 
months for CONUS moves and 6 months for overseas moves.
    Navy has also reduced Active Duty for Operational Support Orders 
(ADOS) by $20 million. ADOS is used to facilitate emergent, unplanned 
and non-recurring short term projects. This reduction restricts our 
ability to support Fleet operations.
                 navy cybersecurity and the tenth fleet
    Question. Admiral Roughead, as you know, cyber security is one of 
the most significant challenges facing our Nation today. Modern warfare 
has become highly dependent upon computers and networks; therefore 
protecting this capability is vitally important. Could you explain the 
cyber security initiatives in the budget, and what are the near-term 
priorities you have established for this critical mission area?
    Answer. The Navy's focus in cyber security is on delivering game-
changing information capabilities that advance our operational 
proficiency in cyberspace and enhance our other information 
capabilities. Navy is improving its cyber-security by implementing an 
improved Defense in Depth infrastructure that is aligned to the 
Department of Defense (DOD) Information Assurance Boundary 
Architecture. In our PB 2012 budget request, we include the following 
cyber security initiatives:
  --Computer Network Defense (CND).--This program's capabilities secure 
        Navy networks and information systems. This program oversees 
        our firewall components, Virtual Private Networks (VPNs), 
        Intrusion Prevention/Detection Systems, Boundary Protection, 
        Host Based Security System (HBSS), Administrator Access 
        Controls, and diverse network security tools and filtering 
        routers.
  --Cyber Security Inspection and Certification Program (CSICP).--CSICP 
        provides the capability to detect vulnerabilities in Navy 
        networks, provide assistance to network operators to correct 
        and prevent vulnerabilities, and ensure compliance with Navy 
        and DOD Information Assurance directives.
  --Communications Security (COMSEC).--The Navy's cryptographic 
        equipment procurements are facilitated through these accounting 
        lines and include procurement of KIV-7M, a replacement 
        cryptography suite, Cryptographic Universal Enclosures (CUE), 
        and various other cryptographic devices.
  --DOD-wide deployment of PKI certificates for identity 
        authentication.
  --Procurement of secure voice tactical hardware, Next Generation 
        Internet Protocol Phones and Navy, and Certificate Validation 
        Infrastructure Cards.
  --Electronic Key Management System (EKMS) upgrades and initiatives 
        for web based order support.
  --Secure Communication Interoperability Protocol (SCIP) Inter-Working 
        Function (IWF) capabilities to provide sea-shore secure 
        telephony communications.
    Question. Admiral, what advantages do you anticipate as a result of 
classifying your Cyber Command as a weapons system?
    Answer. Last year, I established the U.S. Tenth Fleet and the 
Deputy CNO for Information Dominance. This restructuring has enabled 
the Navy to focus on enhancing our capabilities in electronic warfare 
and cyber operations. However, Fleet Cyber Command/U.S. Tenth Fleet is 
not considered a weapons system. It is a Navy component command that 
executes its unique cyber capability at the operational level of war 
through the forces under the command of Tenth Fleet. This approach has 
provided an alignment of effort through the use of a single operational 
commander for Cyber operations that is responsible for the 
orchestration of the Navy's global resources and activities in 
cyberspace.
    Question. Admiral, recently you turned on a new system that gives 
the Navy its first real-time view of all traffic into and out of the 
networks. What have you learned about the health of your network since 
initiating the use of this system?
    Answer. We are learning a tremendous amount about the trends and 
patterns of information flow. The insights from our trend analysis and 
the new data on information flow has allowed us to characterize network 
activity faster and allows us to recognize areas that require further 
analysis earlier.
              next-generation ballistic missile submarine
    Question. The Navy has initiated a program to replace the Ohio-
class submarines beginning in 2029, but concerns have persisted about 
the price tag of the replacement. These submarines are an indispensible 
part of our nuclear triad, and it is important that we have them ready 
on schedule at an affordable cost. Admiral Roughead, could you comment 
on the steps that are being taken to make sure that this program does 
not suffer the all-too-common problems of being over budget and past 
schedule?
    Answer. Through thorough research by the Navy and OSD on the 
history of the last 50 years of survivable sea-based strategic 
deterrence, we have been able to determine the high-level baseline ship 
characteristics to establish affordability goals to be used during ship 
design for the OHIO Replacement (OR). This early and well understood 
basis for all requirements is necessary to prevent cost growth and 
control costs.
    The Department is committed to provide the required and proper 
level of investment in up-front research and development to mature 
critical technologies and prove construction techniques to support lead 
ship construction. The use of appropriately mature technologies will be 
a major driver in controlling construction costs while recapitalizing 
the SSBN fleet. Likewise, achieving a sufficient level of maturity in 
the overall design will be critical to cost effective construction. 
Where practical, OR will use existing VIRGINIA Class technologies and 
components.
    The OHIO Replacement Program will leverage design and construction 
lessons learned from the VIRGINIA Class to continue our ongoing and 
highly successful cost reduction initiatives. In addition, Navy will 
leverage the same design contract strategies from VIRGINIA to ensure OR 
is designed and procured at the lowest possible cost. The Navy is 
investing an additional $50 million/year in fiscal year 2012-fiscal 
year 2014 to enhance designing the OR for affordability. The Design for 
Affordability (DFA) effort will be a joint Government and Shipbuilder 
effort focused on reducing Total Ownership Costs. The DFA process will 
specifically target reductions in lead ship Non-Recurring Engineering 
(NRE) cost, reducing construction time and cost, balancing acquisition 
and lifetime operations and support (O&S) costs, and the process will 
provide shipbuilder research & development incentives based on 
validated proposals for cost estimate reductions, DFA design schedule, 
and additional cost reduction initiatives.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                       chinese military advances
    Question. Admiral Roughead, we have recently seen a great deal of 
discussion about China's development of a new anti-ship missile, the 
DF-21D or ``carrier killer'' which is intended to hit a well-defended 
target, such as one of our carriers, with pinpoint accuracy. The 
concern is that such a missile will put our carriers at risk and hamper 
the Navy's ability to intervene in a conflict over Taiwan or North 
Korea. Vice Admiral Scott van Buskirk, commander of the U.S. 7th Fleet, 
downplayed concerns about the missile noting that it was just ``one 
weapons system, one technology that it out there.'' What is your 
assessment of the threat this weapon poses to our carrier fleet?
    Answer. The DF-21D Anti-Ship Ballistic Missile (ASBM) is but one 
system in China's arsenal that challenges naval operations in contested 
areas. To successfully employ an ASBM, or any long-range maritime 
weapon, China needs a robust command, control, communications, 
computers, intelligence, surveillance and reconnaissance (C\4\ISR) 
capability to find and relay targeting information to decision makers 
and firing units. While China operates a wide range of ISR assets, the 
aggregation of near-real-time information that is required for the PRC 
to move quickly from initial detection to engagement is a highly 
complex problem, especially against one of our aircraft carriers that 
would be maneuvering at sea. Additionally, the Navy has made 
significant investment in kinetic and non-kinetic capabilities to 
counter anti-ship ballistic missiles and advanced cruise missiles, 
including increased investment in Aegis modernization, which will 
upgrade our existing Aegis technology to continually improve our 
Integrated Air and Missile Defense capability. More details in response 
to this question are best provided in a classified setting.
    Question. What is the U.S. response?
    Answer. The Navy has made significant investment in kinetic and 
non-kinetic capabilities to counter the threat of anti-ship ballistic 
missiles and advanced cruise missiles, including increased investment 
in Aegis modernization, which will upgrade our existing Aegis 
technology to continually improve our Integrated Air and Missile 
Defense capability. A more detailed response to this question is best 
provided in a classified setting.
    Question. What other challenges to the U.S. Navy's presence in the 
Pacific do you see arising from China and how should we respond?
    Answer. There are an increasing number of foreign capabilities, 
including those of China, that have the potential to slow or disrupt 
the deployment of friendly forces into a theater or cause our forces to 
operate from distances farther from a conflict than desired. 
Capabilities that impact our forces in this manner are termed ``anti-
access'' capabilities and include long-range, precise, anti-ship and 
land attack ballistic and cruise missile systems; advanced combat 
aircraft and electronic warfare technologies; advanced Integrated Air 
Defense systems; submarines and subsurface warfare capabilities; 
surface warfare capabilities; C\4\ISR capabilities, and cyber warfare 
technologies. The Navy has and will continue to develop programs and 
capabilities to address the anti-access environment emerging in the 
Western Pacific and other theaters of operation. Accordingly, we are 
mindful of the need to be prepared to respond to all challenges by 
strengthening our alliances and partnerships, modernizing our forces, 
fielding new capabilities and technologies, and developing new 
operational concepts.
                   naval tactical aircraft shortfall
    Question. In June 2009, the Navy testified to Congress that its 
aircraft fleet was facing a potential shortfall of 243 tactical 
aircraft in the next decade. We understand that the less than 2 years 
later, the Navy is now stating a shortfall of only 65 aircraft. I am 
interested in how the Navy determined this new shortfall estimate. Has 
the Navy assumed additional risk in order to reduce the shortfall? If 
so, what are those risks?
    Answer. Based on the 2012 President's budget, the Department of the 
Navy projects it will experience a peak inventory shortfall of 65 
aircraft in 2018, should the following conditions exist: accelerated 
transition of 10 F/A-18 legacy Hornet squadrons into Super Hornets; the 
service life extension of approximately 150 legacy Hornets; and 
procurement of a total of 556 F/A-18E/F Super Hornets. This aircraft 
shortfall is manageable.
    Question. What are the practical consequences of the strike fighter 
shortfall?
    Answer. Based on the 2012 President's budget, the Department of the 
Navy projects it will experience a peak inventory shortfall of 65 
aircraft in 2018, should the following conditions exist: accelerated 
transition of 10 F/A-18 legacy Hornet squadrons into Super Hornets; the 
service life extension of approximately 150 legacy Hornets; and 
procurement of a total of 556 F/A-18E/F Super Hornets. This aircraft 
shortfall is manageable.
    Question. What is the Navy doing to mitigate this shortfall?
    Answer. Based on the 2012 President's budget, the Department of the 
Navy projects it will experience a peak inventory shortfall of 65 
aircraft in 2018, should the following conditions exist: accelerated 
transition of 10 F/A-18 legacy Hornet squadrons into Super Hornets; the 
service life extension of approximately 150 legacy Hornets; and 
procurement of a total of 556 F/A-18E/F Super Hornets. This aircraft 
shortfall is manageable.
                              shipbuilding
    Question. Admiral Roughead, your budget request includes funding 
for 10 ships in fiscal year 2012 with a total of 50 ships over the 
Future Year Defense Plan. Will this production rate support your stated 
goal of a 313 ship Navy?
    Answer. Yes. The Navy plans to procure a total of 55 ships in the 
PB 2012 Future Years Defense Program (FYDP), an increase of 5 from last 
year's plan. This production rate will reach a battle force inventory 
of 313 ships in the near-term (fiscal year 2011-fiscal year 2020) 
reaching 315 ships in fiscal year 2020. President's budget (PB) 2012 
achieves a balanced and executable shipbuilding program which provides 
additional capability while gaining stability and efficiency in the 
shipbuilding industrial base.
    Question. How will the current set-backs related to the constraints 
of the Continuing Resolution affect the fiscal year 2012 procurement 
rates?
    Answer. Without the fiscal year 2011 requested SCN budget, the 
future build plan for shipbuilding, including fiscal year 2012, would 
have to be reprioritized and rephased. There could be future cost 
impacts attributed to revised workload at major shipbuilders, rate 
increases associated with protracted schedules, and inefficient 
procurement of major systems. There are secondary impacts to the Navy 
as delays in delivery could result in delays to initial operating 
capabilities or the ability to retire fleet assets as planned. Under 
the CR, the inability to increase procurement quantities, initiate new 
starts, increase funding levels, or reallocate funding constitutes a 
considerable impact to the FYDP for shipbuilding.
    Currently, the Navy plans to procure a total of 55 ships in the 
fiscal year 2012 President's budget FYDP with 10 ships budgeted in 
fiscal year 2012. The CR's limitation in the shipbuilding program to 
the fiscal year 2010 funding levels and procurement quantities 
negatively impacts Navy's fiscal year 2011 build program. Specifically, 
the CR prohibits the procurement of a second Virginia Class Submarine, 
a second DDG-51 Class Destroyer, a LHA replacement amphibious ship, an 
oceanographic ship, a Mobile Landing Platform, and several smaller 
programs. Available funding under the CR does not provide required 
advanced procurement funding for future platforms to include the 
Carrier Replacement and Carrier Refueling Overhaul Programs, nor does 
it provide the final increment of funding required for the CVN 78.
    Question. How will the Navy mitigate those effects?
    Answer. In developing our shipbuilding plan, we assessed risk 
mindful of the uncertainties of the future to achieve the best balance 
of missions, resources and requirements possible for our PB 2012 Navy 
procurement request.
    PB 2012 achieves a balanced and executable shipbuilding program 
which provides additional capability while gaining efficiency in the 
shipbuilding industrial base. The Navy has requested to procure a total 
of 55 ships in the PB 2012 FYDP, 5 more than last year due to our 
efficiencies and acquisition strategies. This request includes ten 
ships in fiscal year 2012. These ships include: a continuation of the 
fiscal year 2010 restart of the DDG 51 program, with an additional ship 
in fiscal year 2014; an additional Littoral Combat Ship (LCS) in fiscal 
year 2012 to support an acquisition strategy of two 10 ship block 
procurements from each contractor, continuation of the SSN 774 program 
at two ships per year through fiscal year 2016; acceleration of the new 
Mobile Landing Platform (MLP) program aimed at increasing the capacity 
and capability of the existing Maritime Prepositioning Ship (MPS) 
fleet; continuation of the CVN 78 program; procurement of the eleventh 
LPD 17 ship, meeting the Marine Corps lift requirements for this class 
of ship; and a substantive increase in the Navy's ability to meet 
theater cooperation demands and intra-theater lift requirements through 
capitalization of a more robust Joint High Speed Vessel (JHSV) program. 
Overall, the fleet additions represented by the additions to the PB 
2012 FYDP will position the Navy to meet its obligations and mission 
requirements through the next decade.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                           great green fleet
    Question. Has the composition and homeport of the Great Green Fleet 
been decided?
    Answer. No final decision regarding the composition of the Great 
Green Fleet has been made. The individual Navy units that would deploy 
in 2016 have not been identified, but the Great Green Fleet will be 
composed of ships from various home ports. As such, it will not have a 
single home port.
    Question. Will the fiscal year 2011 Continuing Resolution impact 
the timeline for the 2012 Green Strike Group? If so, what specifically 
will be impacted?
    Answer. The continuing resolution (CR) necessitated the 
reprogramming of $5.5 million above the $4.5 million received in fiscal 
year 2010. This reprogrammed funding for fiscal year 2011 was not 
received until April 2011, causing schedule delays to the program. 
Currently Navy has received $10 million of $10.8 million programmed for 
the testing and certification needed to support the Great Green Fleet. 
Efforts are ongoing to identify avenues to mitigate delays. Navy plans 
to be back on track within the next 3 months to complete the fuel 
certification required for ship and aircraft systems to conduct the 
demonstration of the Green Strike Group in 2012.
    Question. Where is the Navy getting the fuel currently being used 
for testing? When does the Navy think the fuel will be ready for 
certification?
    Answer. The Navy receives all of its fuels through the Defense 
Logistics Agency--Energy through competitive procurement. The test and 
certification process of the fuels necessary for the Great Green Fleet 
is currently underway. Current funding puts the Navy on track to 
complete the fuel certification required for ship and aircraft systems 
to conduct the demonstration of the Green Strike Group in 2012.
    Question. After the 2012 test, is the Navy planning to transition 
more bio-fuels capability to the fleet or will that occur after the 
2016 demonstration?
    Answer. The Navy plans to use certified, cost-competitive 
alternative fuels as they become available. If certified bio-fuels are 
commercially available at a competitive price earlier then the 
objectives set by the Secretary of the Navy, the Navy will pursue their 
competitive procurement.
    Question. What is the cost to modify ship and aircraft engines to 
use bio-fuels instead of conventional? What are the potential long term 
savings for using a renewable energy source for fuel?
    Answer. There is no need to modify ship and aircraft engines to use 
bio-fuels instead of conventional fuel. Navy requires alternative fuel 
suppliers to engineer the fuel so that it closely mirrors the current 
fossil fuels of F-76 and JP-5; the fuels are a 'drop-in' replacement 
for 100 percent petroleum and can be mixed freely with it. There is a 
potential for long-term cost savings by using renewable biofuels if the 
cost of petroleum keeps rising and eventually exceeds the declining 
cost to produce biofuels.
    Question. Does the Navy have any plans to add hybrid tugs to the 
Fleet? If so, what is the timeframe by which they intend to acquire 
them?
    Answer. The Navy does not currently have any plans to add hybrid 
tugs to the Fleet.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
                       high performance computing
    Question. Admiral Roughead, The Naval Meteorology and Oceanography 
Command and its associated supercomputing capability have proven to be 
valuable assets in a host of mission areas including ocean modeling, 
weather modeling, and disaster relief, such as, the Gulf oil spill last 
year. Can you describe for the Committee the importance of 
Supercomputing capacity and how it has assisted the Navy in 
accomplishing its mission?
    Answer. The Department of the Navy utilizes High Performance 
Computing (HPC) resources to accelerate development and transition of 
advanced defense technologies into superior war-fighting capabilities, 
and to support our operational needs. Specifically, the Navy Research, 
Development, Test, and Evaluation (RDT&E) community utilizes HPC assets 
for modeling and simulation. HPC allows the Navy to develop physics-
based simulations, which create realistic warfare environments that 
allow us to evaluate the performance of new technologies and tactics in 
real-time. The simulated environments enabled by HPC are essential, 
especially in cases where no test range exists to emulate combat 
environments, where physical testing has unacceptable safety risks, 
where physical testing is prohibitively expensive, and where we have to 
rapidly test new systems to counter emerging threats in ongoing 
conflicts. HPC allows us to conduct classified and unclassified early 
advanced research, and it reduces the cost, acquisition time, and risk 
for our major defense programs by optimizing the mix of simulation with 
physical testing. The use of HPC enables Navy's RDT&E infrastructure to 
deliver necessary capabilities to our sailors faster and cheaper.
    The Navy also relies on HPC to support our operations. The Naval 
Oceanographic Office (NAVOCEANO) relies on HPC resources for 
operational oceanographic applications, including numerical ocean 
prediction, and our Fleet Numerical Meteorology and Oceanography Center 
(FNMOC) greatly benefits from HPC resources that support R&D and 
production of operational products designed to keep Navy assets safe 
from weather threats.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell
                     phalanx close-in weapon system
    Question The Phalanx Close-In Weapons System is an important aspect 
of our naval defense, protecting our sailors and marines against 
threats ranging from anti-ship missiles to small boats and unmanned 
aerial vehicles. I am informed that the Navy has recognized the 
importance of this system by investing $1.42 billion to upgrade 252 
Phalanx mounts to the appropriate configuration. In your letter to me 
dated December 3, 2010, you stated that to maintain these systems the 
Navy needed to begin funding 36 overhauls per year, starting with the 
fiscal year 2012 budget. I see that the fiscal year 2012 budget request 
includes funding for only three Phalanx overhauls in a year, which 
would take the Navy 80 years to complete. Given the clear safety and 
security implications for our sailors and marines, what is the Navy's 
plan to meet this shortfall in fiscal year 2012?
    Answer. Navy continues to procure and install Phalanx Block 1B 
systems at an accelerated pace and is on schedule to have 252 Phalanx 
Block 1B mounts in service by fiscal year 2014. This accelerated 
schedule of installations replaces normal Class ``A'' overhauls 
necessary to maintain system reliability and maintenance. We will 
complete Phalanx Block 1B upgrades as follows: 37 in fiscal year 2011; 
29 in fiscal year 2012; 21 in fiscal year 2013; 55 in fiscal year 2014. 
As a result of this accelerated upgrade plan, the fiscal year 2011 CIWS 
maintenance backlog (all variants) will decrease from 60 systems today 
to less than 40 systems in fiscal year 2014.
    Question And is there any progress being made to re-prioritize this 
overhaul in future years?
    Answer. We are not planning to adjust our approach to the Phalanx 
Close-In Weapons System. The Navy continues to procure and install 
Phalanx Block 1B systems at an accelerated pace and is on schedule to 
have 252 Phalanx Block 1B mounts in service by fiscal year 2014. This 
accelerated schedule of installations replaces normal Class ``A'' 
overhauls necessary to maintain system reliability and maintenance. We 
will complete Phalanx Block 1B upgrades as follows: 37 in fiscal year 
2011; 29 in fiscal year 2012; 21 in fiscal year 2013; 55 in fiscal year 
2014. As a result of this accelerated upgrade plan, the fiscal year 
2011 CIWS maintenance backlog (all variants) will decrease from 60 
systems today to less than 40 systems in fiscal year 2014.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
                      ddg 51 multiyear procurement
    Question. The fiscal year 2012 President's budget request would 
continue DDG 51 ship procurement at a single ship in fiscal year 2012, 
two ships in fiscal year 2013 through fiscal year 2015, and returning 
to a single ship in fiscal year 2016. The addition of a second ship in 
fiscal year 2014 represents an improvement over last year's budget plan 
for DDG 51 procurement, which I applaud. However, buying an average two 
or fewer DDG 51s per year raises a number of near-term and long-term 
concerns. Admiral Roughead, you have previously expressed concern in 
testimony before Congress about the Navy's future force structure in 
the next decade, stating that, ``many of our existing cruisers and 
destroyers will reach the end of their service lives,'' and in the mean 
time, ``our existing BMD ships may experience longer deployments and 
less time between deployments as we stretch current capacity to meet 
growing demands.'' Would you agree then, that if a way could be found 
to procure DDG 51s at a rate greater than one or two per year, the 
Fleet would face less operational risk in meeting mission requirements, 
there would be less concern regarding the looming cruiser and destroyer 
retirements, and the shipbuilding industrial base could produce these 
ships at a lesser, and more affordable, unit cost per ship?
    Answer. The Navy's shipbuilding plan, combined with our plan for 
DDG/CG modernization to upgrade our existing ships, provides the best 
balance among capability, capacity, and affordability for our Navy. The 
current shipbuilding plan allows continuous, stable construction of 13 
ships and related combat system components from fiscal year 2010-fiscal 
year 2017, which address the Navy's near term requirements while 
mitigating technology/design risk and production limitations. The 
shipbuilding plan also permits economic order quantity procurements and 
the efficient production and delivery of materiel and services, which 
reduces the cost of material and labor. Navy will continuously analyze 
force structure requirements over the next decade relative to future 
threats, requirements, and fiscal conditions to determine what the 
composition of the future force should be and the ability of our Fleet 
to meet those challenges.
                         navy shipbuilding plan
    Question. The Navy's current 30-year shipbuilding plan calls for a 
minimum of 88 cruisers/destroyers. Implementing the Navy's current 
shipbuilding plan would result in a cruiser-destroyer force that falls 
below the 88-ship minimum requirement beginning in fiscal year 2028 and 
would remain below the 88-ship floor for 14 years. The shortfall exists 
for more than one-third of the timeframe covered by the 30-year 
shipbuilding plan and reaches a shortfall of 20 ships in fiscal year 
2034. This projected cruiser-destroyer shortfall is the single largest 
projected shortfall of any ship category in the Navy's 30-year 
shipbuilding plan. Given funding pressures the Navy faces in its 
shipbuilding budget during the 2020's by the Navy's need to procure new 
SSBN(X) ballistic missile submarines, it would seem prudent to program 
additional DDG 51s to the shipbuilding plan in the fiscal years prior 
to fiscal year 2019. Admiral Roughead, if the Navy increased the 
production rate for DDG 51's under the forthcoming Force Structure 
Assessment, would that help reduce the projected cruiser-destroyer 
shortfall in fiscal year 2027-fiscal year 2040?
    Answer. If the Navy increased the procurement rate of our large 
surface combatants in the near-term it would mitigate the shortfall in 
the far-term. However, the Navy's current shipbuilding plan represents 
a balance among Fleet requirements for presence, partnership building, 
humanitarian assistance, disaster relief, deterrence, and war-fighting 
by the COCOMs and our resources.
    The procurement rates in the late 1980s and early 1990s for large 
surface combatants should not necessarily be replicated today. The DDG 
51s in the restart program represent three decades of technological 
evolution. The warfighting demands for this ship class will define the 
inventory requirement for the future and it is undetermined whether 
this will involve one-for-one replacement. The inventory objective for 
this ship class will be the subject of further study in the future. The 
ships procured between fiscal year 2016 and fiscal year 2031 will 
replace our existing CG 47 Class cruisers with Air and Missile Defense 
Radar (AMDR) capable destroyers.
    The options to shift resources within the budget to increase force 
structure are limited. Within the President's budget submittal for 
fiscal year 2012's Future Year Defense Plan (FYDP), several ship 
construction programs cannot be accelerated at this time due to 
technological, design risk or industrial production limitations. For 
programs without these risks, the Fleet inventory will reach its 
objective with current construction plans. Due to the Navy's 
efficiencies and cost savings through our LCS acquisition strategy, 
Navy had sufficient resources within the FYDP to procure an additional 
DDG 51 in fiscal year 2014. If additional funding was provided to fund 
SSBN(X) procurement during the period from fiscal year 2020-fiscal year 
2029, the Navy would be able to apply its shipbuilding funds to raise 
other ship procurement rates to reduce the impact on the shipbuilding 
industry and to increase the overall battleforce inventory. This 
additional funding would help reduce future ship inventory shortfalls 
and provide a more stable production base.
                      ddg 51 multiyear procurement
    Question. Admiral Roughead, I understand that for each of the 
previous two DDG 51 multiyear procurement (MPY) contracts, in fiscal 
year 1998-2001 and fiscal year 2002-2005, the Navy received MYP 
authority 1 year in advance (in fiscal year 1997 and fiscal year 2001). 
The Navy states that it wants another DDG-51 MYP starting in fiscal 
year 2013, but the Navy has not requested authority for this MYP as 
part of its fiscal year 2012 budget submission. When does the Navy plan 
to submit to Congress its request for authority for a DDG-51 MYP 
starting in fiscal year 2013?
    Answer. The fiscal year 2012 President's budget highlights the 
Navy's intent to request congressional approval for a DDG 51 fiscal 
year 2013-fiscal year 2017 Multiyear Procurement (MYP). The Navy 
intends to submit the MYP legislative proposal as part of the fiscal 
year 2013 President's budget commensurate with the first year of 
funding for the MYP.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
                               earthquake
    Question. Two weeks ago we conducted a hearing in this subcommittee 
on the impact that the failure to complete a fiscal year 2011 Defense 
Appropriations Bill is having on our military services. That was before 
the Navy and Marine Corps were pressed into service in response to the 
devastating earthquake and tsunami in Northern Japan which comes over 
and above everything else your services are doing around. If the Navy 
and Marine Corps were financially stressed in performing their missions 
before how does the unanticipated challenge of responding to an 
earthquake and tsunami further stress the ability of your service to 
perform its mission?
    Answer. The Department of Navy (DON) response to the earthquake, 
tsunami and nuclear reactor disasters in Japan has had minimal impact 
on DON missions. Total costs through March 25, 2011 were $26.5 million 
with at least $10.5 million recoverable by reimbursement from the 
Overseas Humanitarian Disaster Assistance and Civic Aid (OHDACA) 
appropriation.
    The greatest impact to our mission and budget has been the prudent, 
but voluntary, departure of military dependents from the island of 
Honshu, Japan. Through April 8, this operation has cost approximately 
$54.5 million. Navy cannot simply absorb these costs within MILPERS 
accounts that have already been stressed under the Continuing 
Resolution (CR). Navy has submitted a CR exception request to the 
President's Office of Management and Budget (OMB) for additional 
appropriation under the ``Safety of Human Life'' exception to fund the 
additional cost for travel, lodging, meals, and per diem for evacuees 
through April 8, 2011. This short-term solution has been approved by 
OMB.
    Question. In Alaska we are no stranger to earthquakes and as you 
know we are home to the Pacific Alaska Tsunami warning center. Events 
such as those in Japan have refocused Alaska on our own level of 
preparedness if we were to experience an event like we did in Japan. 
And like Japan our runways in the Anchorage Bowl not only vulnerable to 
earthquake damage but also to flooding. If Alaska were to experience a 
catastrophic earthquake what role would you expect the Navy to play in 
a response?
    Answer. The Navy in its supporting role to Combatant Commands 
(COCOMs) provides maritime forces to accomplish their assigned 
missions, which include humanitarian assistance and disaster relief. In 
the event of a catastrophic earthquake in Alaska, U.S. Northern Command 
and U.S. Pacific Command would coordinate with the Joint Chiefs of 
Staff to determine specific Requests for Forces and/or Requests for 
Assistance to the Navy and other Services. Navy's forces would 
contribute capabilities to the overall response effort performing 
evacuation, medical assistance, delivery of relief supplies, and 
possibly reconstruction. Additionally, other U.S. Government agencies 
such as DHS and FEMA would contribute their capabilities to provide a 
more robust, whole-of-Government response to a natural disaster.
                                 ______
                                 
              Questions Submitted to General James F. Amos
            Questions Submitted by Chairman Daniel K. Inouye
         effects of continuing resolution on military personnel
    Question. Admiral Roughead and General Amos, how has the series of 
short-term continuing resolutions negatively affected the Navy and 
Marine Corps's ability to manage its military personnel accounts?
    Answer. This question is overcome by events due to passage of the 
fiscal year 2011 Appropriations bill.
    Question. General Amos, what is the current dwell time ratio for 
the Marine Corps, and what is the goal?
    Answer. Our deployment to dwell ratio goal is 1:2. In light of our 
operational demands, and through the support of Congress in authorizing 
our end strength of 202,100 active duty forces, our combat units are 
beginning to realize an approximate 1:2 dwell time.\1\ Other units vary 
at more favorable dwell time levels depending on their mission. We 
anticipate the 1:2 dwell ratio for combat units to remain relatively 
stable provided current deployed force levels are not increased; 
however, increased operational demands in Afghanistan or elsewhere may 
result in dwell times inconsistent with fostering a resilient Total 
Force.
---------------------------------------------------------------------------
    \1\ Infantry battalions will continue to remain just below 1:2 
dwell time due to relief in place/transfer of authority requirements.
---------------------------------------------------------------------------
    Some marines in select military occupational specialties continue 
to fall into what is known as a high-demand, low-density status. This 
is a key indicator that the combat demand for marines with these skills 
does not match, or exceeds, the current manpower requirement and/or 
inventory. In addition, there are currently 14 of 211 occupational 
specialties where the on-hand number of marines is less than 90 percent 
of what is required.\2\ Our recently completed force structure review 
addressed all these concerns. We are working actively to recruit, 
promote, and retain the right number of marines in the right 
occupational specialties thus promoting resiliency of our Total Force.
---------------------------------------------------------------------------
    \2\ Our most stressed occupational specialties based on percentage 
of marines beyond a 1:2 dwell are (1) Geographic Intelligence 
Specialist, (2) Imaging Analyst/Specialists, (3) Signals Collection 
Operator/Analyst, (4) Unmanned Aerial Systems Operator/Mechanic, and 
(5) European, Middle East, and Asia-Pacific Cryptologic Linguists.
---------------------------------------------------------------------------
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                     usmc f-35 joint strike fighter
    Question. General Amos, you have testified to the importance of 
having strike aircraft that can operate from amphibious shipping and 
austere airfields. You have placed the F-35B on a 2-year probation. Can 
you please explain what that probation entails?
    Answer. Establishing a period of scrutiny for the F-35B was prudent 
in light of the progress the Joint Strike Fighter program has made. The 
STOVL technical challenges are typical of this developmental stage and 
none of the known issues are considered to be insurmountable. 
Corrective actions have either already been incorporated into 
production aircraft or they are being proactively analyzed. We now have 
the time to focus resources, ensure the solutions are effective, and 
incorporate them in the most efficient means possible while avoiding 
costly design changes.
    Question. What are the problems with the program and what are you 
expecting to occur over the next 2 years?
    Answer. There are three factors impacting delivery of the Joint 
Strike Fighter: production delivery delays, flight test progress, and 
the rate of software development. For the F-35B, the STOVL variant, 
developmental testing lagged last year as the program identified some 
anomalies in the design that need to be corrected.
    I am personally engaged with the Joint Program Office and prime 
contractors to ensure we have instituted the most efficient and 
effective processes for resolving these challenges. As a result, the 
program will deliver a higher quality of aircraft in the shortest 
amount of time.
    Question. If there are problems with the aircraft, why are we 
purchasing 6 of them in fiscal year 2012?
    Answer. Our plan is to reduce fiscal year 2012 and fiscal year 2013 
production to a rate of 6 per year. This will prevent the loss of 
valuable manufacturing experience gained since the start of production 
while the program develops and implements solutions for the technical 
challenges discovered in developmental testing. It is prudent to 
optimize the production rate to incorporate lessons learned into as 
many of the early lot aircraft as possible, to deliver a higher quality 
of aircraft in the shortest amount of time.
    Question. If the F-35B program does not meet the requirements to 
continue, do you have a plan to replace the aging AV-8B Harrier II 
population?
    Answer. Within our current inventory of our operational tactical 
aircraft, the AV-8B is the least affected by service life longevity. We 
anticipate flying the AV-8B well into the next decade, giving us time 
to develop a replacement plan if F-35B falters. However, the 
improvements we have seen in F-35B program since the first of the year 
indicate the STOVL challenges will be solved and will meet or exceed 
our requirements.
    Question. To quote your testimony, ``The F-35B is vital to our 
ability to conduct combined arms operations in expeditionary 
environments.'' What are the implications to the Marine Corps mission 
if they do not have this capability?
    Answer. The F-35B is the tactical aircraft we need to support our 
Marine Air Ground Task Force from now until the middle of this century. 
Our requirement for expeditionary tactical aircraft has been 
demonstrated repeatedly since the inception of Marine aviation. Our 
ability to tactically base fixed wing aircraft in the hip pocket of our 
ground forces has been instrumental to our success on the battlefield. 
Given the threats we will face in the future, the F-35B is clearly the 
aircraft of choice to meet our operating requirements.
    The implications of not having a STOVL tactical aviation capability 
reach far beyond the Marine Corps and directly affect our ability to 
support our national strategy. I am confident the F-35B will surpass 
expectations and be a key resource in our arsenal of expeditionary 
capabilities.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
         operational impact of amphibious ship decommissionings
    Question. General Amos, the Department of the Navy has determined a 
minimum force of 33 amphibious ships is the limit of acceptable risk in 
meeting a 38-ship amphibious force requirement. However, the number of 
amphibious ships in inventory will reach 29 ships this year as more 
ships are decommissioned. With the current unrest in Africa and the 
Middle East, and the earthquake in Japan what is the demand for 
amphibious ships currently and what has been the demand from the 
combatant commanders over the last year or so?
    Answer. Demand by Combatant Commanders (CCDR) for naval forces has 
remained high during the last 5 years.


----------------------------------------------------------------------------------------------------------------
                                          COCOM ARG/MEU Requirement \1\     COCOM Independent Amphib Requirement
                                     --------------------------------------                  \1\
             Fiscal year                                                   -------------------------------------
                                        Demand/Sourced        Percent         Demand/Sourced        Percent
----------------------------------------------------------------------------------------------------------------
2008................................           3.4/2.62                 77           3.5/1.88                 54
2009................................           3.4/2.47                 73          2.58/1.09                 42
2010................................          4.57/2.62                 57          3.89/1.49                 38
2011 \2\............................           4.4/2.68                 61          3.83/0.76                 20
2012 \2\............................          4.44/2.54                 57          4.41/0.93                 21
----------------------------------------------------------------------------------------------------------------
\1\ COCOM Amphib Ship Demand Based on Fleet Forces Command Data (Ships required computed at a 1:3.7 Rotation
  Rate).
\2\ 2011/2012 Demand reflects Global Force Management Allocation Plan (GFMAP) Baseline data . . . does not
  include Requests for Forces.

    While not able to meet the cumulative annual global CCDR ARG/MEU 
demand, the Navy is meeting SECDEF tasks as noted in the Global Force 
Management Allocation Process information above. The table shows that 
CCDR demand for crisis response forces and engagement are only being 
partially met.
    As current events in North Africa, the Horn of Africa, much of 
Central Command, and in the Pacific reinforce, amphibious forces remain 
the cornerstone of our Nation's ability to respond to crisis and 
overcome access challenges.
    The current inventory of amphibious ships will not support 
continuous deployments in the PACOM, CENTCOM, EUCOM and AFRICOM that 
are being requested by the combatant commanders today. An inventory of 
33 ships (11 large deck/11 LPD/11 LSD) would adequately support these 
regions with an ARG/MEU presence. Thirty-eight ships would support the 
ARG/MEU demand plus single ship deployments to meet the CCDR 
requirements to support additional forward engagement activities.
                                 ______
                                 
              Question Submitted by Senator Lisa Murkowski
                               earthquake
    Question. Two weeks ago we conducted a hearing in this subcommittee 
on the impact that the failure to complete a fiscal year 2011 Defense 
Appropriations Bill is having on our military services. That was before 
the Navy and Marine Corps were pressed into service in response to the 
devastating earthquake and tsunami in Northern Japan which comes over 
and above everything else your services are doing around the world.
    If the Navy and Marine Corps were financially stressed in 
performing their missions before, how does the unanticipated challenge 
of responding to an earthquake and tsunami further stress the ability 
of your service to perform their mission?
    Answer. Recent USMC support to humanitarian assistance/disaster 
relief operations in Japan combined with no-fly zone enforcement 
support in Libya has forced the Marine Corps to reprioritize some of 
its resources in order to provide maximum support. The Marine Corps 
anticipates Overseas Humanitarian Disaster and Casualty Assistance 
(OHDACA) reimbursements from the State Department to provide funding 
for many of the costs incurred from the Humanitarian Relief effort 
associated with Operation Tomodachi. Outside of the relief efforts in 
Libya, the Marine Corps has incurred approximately $600,000 in expenses 
which are not eligible for OHDACA reimbursement. Reprioritizing 
includes the delayed support to a wide range of Theater Security 
Cooperation (TSC) events. Specifically, Marine forces postponed planned 
exercises with India, Sri Lanka, and the Maldives during the late 
March-early April timeframe. Two other planned exercises with South 
Korea and Indonesia were cancelled during this same period.
    In the cases noted above, events were postponed or cancelled due to 
higher priority missions, not because of a lack of funding.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. And the next hearing of this subcommittee 
will be on March 30. At that time, we'll receive testimony from 
the Department of the Air Force.
    Thank you very much.
    [Whereupon, at 12:40 p.m., Wednesday, March 16, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              


                       WEDNESDAY, MARCH 30, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:31 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Johnson, Cochran, Hutchison, 
Collins, Murkowski, and Coats.

                         DEPARTMENT OF DEFENSE

                      Department of the Air Force

                        Office of the Secretary

STATEMENT OF MICHAEL B. DONLEY, SECRETARY

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. This morning, we welcome back the 
Secretary of the Air Force, the Honorable Michael Donley, and 
the Air Force Chief of Staff, General Norton Schwartz.
    Gentlemen, we thank you for being here with us today as we 
review the Air Force's budget request for fiscal year 2012. And 
we thank you also for submitting your prepared testimony. 
Without objection, the full statement will be made part of the 
record.
    For fiscal year 2012, the Air Force is requesting $150 
billion in base budget. This funding level is roughly equal to 
your fiscal year 2011 request. The Air Force is also requesting 
$16.4 billion for overseas contingency operations for fiscal 
year 2012, which is a decrease of $4.4 billion from last year's 
request, and reflects the ongoing drawdown from our forces in 
Iraq.
    The lack of growth in the Air Force is partly a result of 
the Secretary of Defense's efficiency initiatives, and I look 
forward to hearing today how the Air Force plans to reduce 
overhead, streamline logistics, improve satellite procurement, 
and reduce energy consumption as part of your efficiencies.
    The subcommittee commends the Department of Defense for 
examining ways to make operations more efficient and 
affordable; however, we must ensure that we are achieving true 
savings and not just deferring tough decisions to a later date.
    In addition to achieving the efficiency savings that have 
been identified, in the near term the Air Force must meet 
growing demands for cyber security and nuclear security and 
intelligence, surveillance, reconnaissance (ISR).
    In theater, the situational awareness requirements of our 
forces continue to grow. Good progress has been made toward 
achieving this goal of operating 65 continuous combat air 
patrols in theater with remotely piloted vehicles. However, the 
Air Force must still address how to fulfill long-term manpower 
requirements of these operations and how to incorporate the 
ever increasing number of ISR assets into the Air Force's force 
structure.
    Over the next decade, the Air Force will face growing 
budgetary pressures as several expensive recapitalization 
programs get underway. But, first, let me commend both of you 
on the successful award of the aerial refueling tanker 
contract. This is a critical step in replacing our aging tanker 
fleet.
    But as you know, the commencement of work on the new tanker 
comes at the same time as the development of a new penetrating 
bomber begins and Joint Strike Fighter (JSF) production ramps 
up. These efforts will place significant pressure on the budget 
at a time of tightening budgets.
    To this end, to add to the Air Force's already full plate, 
you are now heavily engaged in operations in Libya. And I look 
forward to hearing from you today about the extent of Air Force 
support to the coalition forces operating in Libya, as well as 
the cost of these operations, and what you see as the end game 
of our involvement there.
    Gentlemen, these are challenging times, to say the least, 
and we have many difficult choices in front of us. I look 
forward to working with both of you to ensure that the fiscal 
year 2012 appropriations reflects the current and future needs 
of the Air Force.
    And now, I wish to turn to our vice chairman, Senator 
Cochran, for his opening statement.
    Senator Cochran.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you. I am pleased to 
join you in welcoming our panel of witnesses at our hearing 
today. We are looking, of course, at the budget request that 
has been submitted for the Department of the Air Force, and 
anxious to learn what the reaction of the Uniformed Services 
and the Secretary are to the budget request, and whether it 
meets the needs that you have, particularly in light of 
developments in Libya. We are interested to know what are the 
consequences in terms of the budget request of--for the actions 
that we are taking and the obligations that we have assumed in 
that part of the world. Your insights would be helpful to us to 
understand what we are facing there in terms of the need for 
appropriated dollars.
    I join the chairman in thanking you for your service. We 
appreciate very much what you are doing for the safety and 
security of our country.
    Thank you.
    Chairman Inouye. I thank you very much. And, Mr. Secretary?
    Mr. Donley. Thank you. Mr. Chairman, Senator Cochran, 
members of the subcommittee, it is certainly a pleasure to be 
here today representing more than 690,000 active duty, Guard, 
Reserve, and civilian airmen. I am also joined this morning 
with my teammate and a tireless public servant, General Norty 
Schwartz.
    We are pleased to report that America's Air Force continues 
to provide the Nation's unmatched global vigilance, reach, and 
power as part of the joint team, with an uncompromising 
commitment to our core values of integrity, service before 
self, and excellence in all we do.

                      AIR FORCE GLOBAL OPERATIONS

    Today, we are bringing this capability to bear in 
operations across the full spectrum, from humanitarian support 
to our Japanese friends in need, to the ongoing stability and 
counter insurgency operations in Iraq and Afghanistan, to the 
no fly zone enforcement and protection of the civilian 
population in Libya, to the continuous air sovereignty, space, 
and cyber, and nuclear deterrence missions--the speed, 
precision, and versatility of your Air Force is being tested 
and proven daily.
    We are, as you suggested, Mr. Chairman, requesting $150 
billion in our baseline budget, and $16 billion in the overseas 
contingency operations supplemental appropriation to support 
this work. Our budget request represents a careful balance of 
resources among Air Force core functions necessary to implement 
the President's national security strategy, and between today's 
operations and investments in the future.
    Before discussing our fiscal year 2012 budget request, I 
would like to address some unfinished business from fiscal year 
2011, and also set in context the changes in your Air Force 
over the last several years.

   EFFECTS OF OPERATING UNDER FISCAL YEAR 2011 CONTINUING RESOLUTIONS

    Operating without a defense appropriations bill in fiscal 
year 2011 is having a significant impact on the Air Force. A 
decision to extend the continuing resolution at fiscal year 
2010 levels through the remainder of this year would delay our 
ability to reach and sustain the Secretary of Defense's 
directed goal of reaching 65 MQ-1/9 Combat Air Patrols by 2013 
in support of operations in Afghanistan. And it would cause a 
production break and the likely increase in the unit cost of F-
15 radar modernization, among other programs. Deeper reductions 
to our modernization programs would be required to fund over $4 
billion in must-pay bills for urgent operational needs, like 
those in Afghanistan, Iraq, military healthcare, and the 
military pay raise of 1.4 percent, which Congress authorized, 
but which has not yet been funded. Without fiscal year 2011 
appropriations, we would face delay or cancellation of some 
depot maintenance, facilities maintenance, and other day-to-day 
activities in order to prioritize our most critical needs under 
the lower funding levels in a full year continuing resolution. 
Finally, fiscal year 2011 appropriations are also required for 
44 military construction projects now on hold, which support 
ongoing operational needs and improve the quality of life for 
airmen and their families. Passing a fiscal year 2011 Defense 
appropriations bill is essential to avoid the severe 
disruptions. And we certainly appreciate, Mr. Chairman, your 
personal leadership, Senator Cochran, your personal leadership, 
and the help of this subcommittee currently underway to resolve 
this situation.

         RESHAPING THE AIR FORCE FOR PRESENT AND FUTURE THREATS

    Over the past decade, the Air Force has substantially 
reshaped itself to meet the immediate needs of today's 
conflicts and position itself for the future. While we have 
grown in some critical areas, it has been at the expense of 
others. We have added intelligence, surveillance, and 
reconnaissance capacity with 328 remotely piloted aircraft and 
over 6,000 airmen to collect, process, exploit, and disseminate 
intelligence. We added over 17 aircraft and nearly 2,400 airmen 
to bolster special operations capacity necessary in counter 
insurgency operations. We added over 160 F-22s and 120 C-17S to 
our inventory and funded over 30 satellites. We added 2,200 
airmen for critical nuclear and cyber operations and to support 
our acquisition process.
    In the same period, however, we retired over 1,500 legacy 
aircraft. We cancelled or truncated procurement of major 
acquisition programs. We shed manpower in career fields less 
critical for the current fights, and deferred much-needed 
military construction in order to balance these capabilities 
within the resources available. In all, during the past 7 
years, the size of the active duty Air Force has been reduced 
from 359,000 in 2004 to approximately 333,000 today. And the 
Air Force's baseline budget, when adjusted for inflation and 
setting aside the annual wartime supplemental appropriations, 
has remained flat.
    Looking ahead, we face a multiyear effort to recapitalize 
our aging tanker, fighter bomber, and missile forces; continue 
to modernize critical satellite constellations; meet dynamic 
and growing requirements in the cyber domain; and also replace 
aging air frames for pilot training and presidential support.
    We continue to recognize the requirement for fiscal 
restraint and are committed to remaining good stewards of every 
taxpayer dollar, improving management and oversight at every 
opportunity.

                      EFFICIENCIES ACROSS THE FYDP

    The fiscal year 2012 budget request incorporates over $33 
billion in efficiencies across the future year's defense plan, 
which will be shifted to higher priority combat capability by 
reducing overhead costs, improving business practices, and 
eliminating excess troubled or lower priority programs. By 
consolidating organizational structures, improving our 
acquisition processes, procurement, and logistic support, and 
streamlining operations, we have been able to increase 
investment in core functions, such as global precision attack, 
intelligence, surveillance, and reconnaissance (ISR), in space 
and air superiority, reducing risk by adding tooth through 
savings in tail.
    We are fully committed to implementing these planned 
efficiencies and have already assigned responsibilities to 
senior officials, and put in place the management structure to 
oversee this work and track progress on a regular basis. Having 
faced the need to reshape our force structure and capabilities 
within constrained manpower and resources over the last several 
years, we do not view the current need for efficiencies as a 
singular event, but rather as an essential and continuing 
element of prudent management in our Air Force.
    Our investment priorities remain consistent with minimizing 
risk and maximizing effectiveness and efficiency across the 
full spectrum of potential conflict. Proceeding with the 
development and production of the KC-46 tanker aircraft, 
implementing the Joint Strike Fighter restructure, and meeting 
the Combatant Commanders' need for more ISR, investing in the 
long-range strike family of systems, including a new 
penetrating bomber, and enhancing space control and situational 
awareness, all remain critical capabilities for both today's 
and tomorrow's Air Force.
    In addition to these investments, we will continue to 
address challenges in readiness, in particular, the slow, but 
persistent, decline in materiel readiness most notable in our 
non-deployed forces, and the personnel challenges across 
roughly 28 stressed officer and enlisted career fields, both of 
which are the result of today's high operational tempo.

                     CARING FOR TOTAL FORCE AIRMEN

    And, of course, Mr. Chairman, we will continue to support 
our Active, Guard, Reserve, and civilian airmen and their 
families with quality housing, healthcare, schools, and 
community support.
    With respect to healthcare, I would like to convey the Air 
Force's support for DOD's TRICARE reforms that will modestly 
increase premiums for working-age retirees, premiums that have 
not changed since they were initially sent--set in 1995.
    Going forward, we must continue to seek and develop reforms 
in the benefits that our men and women in uniform earn to make 
them economically sustainable over the long term.

                           PREPARED STATEMENT

    Mr. Chairman, good stewardship of the United States Air 
Force is a responsibility that General Schwartz and I take very 
seriously, and we remain grateful for the continued support and 
service of this subcommittee. We look forward to discussing our 
proposed budget.
    Thank you.
    Chairman Inouye. All right. Thank you very much, Mr. 
Secretary.
    [The statement follows:]
         Prepared Statement of the Honorable Michael B. Donley
    The United States faces diverse and complex security challenges 
that require a range of agile and flexible capabilities. From the 
ongoing conflicts in Afghanistan and Iraq, to potential confrontation 
with aggressive state and non-state actors, to providing humanitarian 
assistance, the United States Air Force continues to provide 
capabilities across the full spectrum of potential military operations. 
The Air Force's fiscal year 2012 budget request aims for balance and 
versatility to meet the demands of this environment. We believe the 
request enables our efforts to prevail in today's wars, prevent and 
deter conflict, and prepare to defeat adversaries across the range of 
military operations--all the while preserving and enhancing the all-
volunteer force.
    We remain mindful of our Nation's budgetary challenges and fiscal 
constraints, because fiscal responsibility is a national security 
imperative. This environment requires that we balance our capabilities 
between current combat operations and the need to address emerging 
threats and challenges. We continue to pursue cost-effective systems 
that leverage existing capabilities and maximize interoperability and 
integration of legacy and future systems. The commitment of the Air 
Force to collectively discern, access and provide tailored and scalable 
effects with Global Vigilance, Reach, and Power virtually anywhere in 
the world is reflected in our acquisition priorities. These priorities 
are:
  --Tanker Recapitalization (KC-X);
  --Joint Strike Fighter (F-35) Restructure and F-16 Service Life 
        Extension Program (SLEP);
  --Intelligence, Surveillance, and Reconnaissance (ISR) Systems;
  --Long-Range Strike Family of Systems; and
  --Space Systems and Launch Capability Acquisition Strategy.
    Global Vigilance is the ability to provide surveillance around the 
world. As the demand for ISR continues to grow, the Air Force is 
aggressively fielding enhanced ISR capability and capacity across the 
widest range of military operations to counter threats and defeat our 
adversaries. The Air Force will continue to enhance space control and 
situational awareness capabilities, as well as space management, to 
ensure we operate effectively in the increasingly competitive, 
congested and contested space domain. This includes implementing the 
Evolutionary Acquisition for Space Efficiency (EASE) concept to drive 
down costs, improve stability in the fragile space industrial base, 
invest in technology that will lower risk for future programs, and 
achieve efficiencies through block buys of satellites. There is also an 
ongoing collaboration between the Air Force, the National 
Reconnaissance Office (NRO) and the National Aeronautics and Space 
Administration (NASA) to maintain a healthy industrial base to meet 
government launch and range requirements in an efficient manner.
    Global Reach is the ability to project capability responsively and 
advantageously without regard to distance. Air Force mobility assets 
are essential to Joint, Interagency and Coalition operations in peace 
and war as we provide critical supplies and personnel through strategic 
and tactical delivery--airlift and airdrop. Air refueling aircraft play 
an integral role by providing reach and persistence for aircraft to 
operate inter-theater and intra-theater, alike. As such, the 
procurement of the KC-X remains the top acquisition and 
recapitalization priority for the Air Force.
    Global Power is the ability to hold at risk any target in the 
world. The Air Force must continue to modernize and recapitalize our 
aircraft inventory to remain effective against global and regional 
competitors as they continue to modernize and improve their own air 
defense capabilities and harden valued targets. We will continue to 
work with Congress to enhance capabilities in our existing fighter and 
bomber fleets to mitigate delays in the F-35 development and 
procurement programs. One key to that mitigation effort is a focused F-
16 SLEP. We must sustain our ability to consistently hold any target on 
the planet at risk with the development of a Long-Range Strike Family 
of Systems capability--including a new penetrating bomber--to create 
desired effects across the full range of military operations in both 
permissive and contested environments. Last, a multi-faceted effort is 
underway to enhance our air superiority legacy fighters, maximize the 
capabilities of the F-22 fleet, invest in preferred air-to-air 
munitions, and optimize our electronic warfare systems.
    The Air Force must take the necessary steps today that will allow 
future generations to continue to provide consistent, credible and 
effective air, space and cyber capabilities on which our Nation 
depends. Our ability to do so is constrained by the increasing costs to 
design and build platforms and by the accelerating costs of personnel 
benefits and other must-pay operational bills in a particularly 
challenging budget environment. We will ensure we maximize combat 
capability out of each taxpayer dollar by identifying waste, 
implementing efficiencies, pursuing continuous process improvement 
initiatives and making smart investments. We will provide the necessary 
capability, capacity and versatility required to prevail today and in 
the future.
    Last, our fiscal year 2012 budget request recognizes the need to 
properly manage our force structure. We recognize that our most 
valuable assets--our people--are critical to achieving our broadest 
strategic goals, and our near- and far-term mission success is 
inextricably linked to the overall well-being of our Airmen and their 
families.
    Operating without a defense appropriations bill in fiscal year 2011 
is having a significant impact on the Air Force. Under a Continuing 
Resolution (CR), we are unable to raise procurement to requested levels 
in several critical areas. Constraining MQ-9 procurement to 24 aircraft 
versus the 48 requested will delay our ability to reach the Secretary 
of Defense's directed goal of 65 MQ-1/9 Combat Air Patrols (CAPs) by 
2013 in support of ongoing operations in Afghanistan. The inability to 
initiate a contract for the Wideband Global SATCOM (WGS)-7 satellite 
will cause a production break and a likely increase in unit cost. 
Production breaks and delayed procurements will also negatively affect 
the Joint Air-to-Surface Standoff Missile (JASSM), F-15 active 
electronically scanned array (AESA) radar, F-15 APG 63 radar, and other 
programs. In addition to these impacts, deeper reductions to our 
modernization programs would be required to fund over $3 billion in 
must-pay bills for urgent operational needs in Afghanistan and Iraq, 
military healthcare, and the military pay raise of 1.4 percent, which 
was authorized by Congress and is being implemented, but was not 
funded. Fiscal year 2011 appropriations are also required for 75 
military construction (Milcon) projects, now on hold, which support 
ongoing operational needs and improve the quality of life for Air Force 
personnel and their families. Last, the Air Force would have to delay 
or cancel some depot maintenance, weapon system sustainment and other 
day-to-day activities in order to prioritize our most critical needs 
under the lower funding levels in a full year CR.
    In summary, continuing the CR far beyond March 4 would severely 
impact program and budget execution in the Air Force, delaying 
modernization and causing significant restructuring and potential cost 
increases to many acquisition programs, and creating larger backlogs 
for maintenance and other operations. Passing a fiscal year 2011 
defense appropriations bill is essential to avoid these severe 
disruptions.
    In June 2010, the Secretary of Defense challenged the Services to 
increase funding for mission activities by identifying efficiencies in 
overhead, support and other less mission-essential areas. The 
efficiency target for the Air Force was $28.3 billion across this 
Future Years Defense Program (FYDP). The Air Force is committed to 
enhancing capabilities by reducing expenses allocated to overhead and 
support functions, while shifting resources to modernization and 
readiness programs.
    As part of the fiscal year 2012 budget, the Air Force exceeded our 
efficiency target by $5 billion and identified $33.3 billion in 
efficiencies in an effort to make resources available to better support 
warfighter and readiness programs across the FYDP. Examples of these 
efficiencies include:
  --Consolidating three Numbered Air Forces with colocated Major 
        Command staff and consolidating the activities of four Air and 
        Space Operations Centers into two, thereby achieving a 
        redistribution of 347 military authorizations (228 in fiscal 
        year 2012 and 119 in fiscal year 2013) across the FYDP and 
        eliminating 212 civilian authorizations beginning in fiscal 
        year 2013 which will save $100.1 million across the FYDP;
  --Consolidating installation support management to improve Air Force-
        wide standardization and prioritization;
  --Reallocating 5,600 active duty billets over the FYDP from lower 
        priority support functions to higher priority, growth areas;
  --Saving more than $3 billion from anticipated growth in Weapon 
        System Sustainment (WSS) portfolio efficiencies across the FYDP 
        by reviewing operational requirements, depot processes and the 
        sustainment of the supply chain without degrading operational 
        capabilities or support to the warfighter;
  --Reducing fuel consumption within the Mobility Air Forces by 
        leveraging proven commercial aviation practices for flight 
        planning and weight reduction, and implementing other 
        initiatives to save $715 million (net) across the FYDP;
  --Reducing acquisition costs by consolidating services, scrutinizing 
        contracts, reducing contract support, and more efficiently 
        using resources to deliver capabilities and support to the 
        warfighter;
  --Reducing information technology costs by more than $1.2 billion 
        over the FYDP by adopting DOD-level Enterprise Information 
        Services including enterprise core services, consolidating and 
        standardizing the network information technology infrastructure 
        from nine Air Force and Air National Guard Regional Processing 
        Centers to five centrally controlled centers, and migrating 
        current and developmental applications, services and data to 
        DOD-provided enterprise computing centers; and
  --Improving our procurement of satellites with a new acquisition 
        strategy which, subject to congressional approval, will lower 
        procurement costs and stabilize the defense industrial base.
    The realization of these efficiencies allowed the Air Force to 
reallocate funding to modernize and recapitalize weapons systems, 
improve capabilities and enhance warfighter operations. Examples of 
these enhancements include:
  --Investing in the Long-Range Strike Family of Systems, including a 
        new penetrating bomber as a key component of the Joint 
        portfolio;
  --Investing an additional $3.5 billion to fund the Evolved Expendable 
        Launch Vehicles (EELV) program to the Office of the Secretary 
        of Defense (OSD) Independent Cost Assessment, with the 
        Department of Defense (DOD) committed to buying five boosters 
        per year to meet national space launch requirements and 
        stabilize the industrial base;
  --Repurposing 5,600 active duty billets over the FYDP to support ISR 
        capability, U.S. Pacific Command force structure requirements, 
        Total Force Integration, the U-2 continuation, building 
        partnership capacity, increasing support to the Air Force 
        District of Washington UH-1N mission, among other increases;
  --Procuring an additional 16 simulators for F-35 aircrew training 
        bringing the total procurement to 30 simulators to ensure an 
        effective training pipeline throughput and operational unit 
        pilot proficiency and cost control;
  --Recapitalizing the aging special operations forces MC-130H/W 
        aircraft;
  --Improving the aircraft computer infrastructure of the B-52 to 
        enable more rapid machine-to-machine retargeting;
  --Enhancing combat capability of the F-15C and F-15E with additional 
        AESA radars and electronic protection software upgrades;
  --Continuing to fund the development of next-generation Global 
        Positioning System (GPS) III Operational Control Segment;
  --Researching and developing electronic protection and suppression of 
        enemy air defense (SEAD) capabilities for the F-22;
  --Transitioning MC-12W Liberty Project from Overseas Contingency 
        Operations (OCO) funding into the Air Force baseline budget 
        beginning in fiscal year 2013;
  --Continuing maximized production of the MQ-9 Reaper to ensure 
        delivery of 65 CAPs by the end of fiscal year 2013;
  --Extending U-2 operations through fiscal year 2015 to ensure a 
        smooth high-altitude transition; and
  --Baselining the Air Sovereignty Alert program across the FYDP to 
        solidify support to homeland security operations.
    The Air Force leadership recognizes the importance of achieving 
planned efficiencies to avoid future bills and a negative impact to our 
mission and our Airmen. We are taking a long-term view of this 
initiative and will address our efficiency targets annually to further 
refine and identify follow-on opportunities. We assigned responsibility 
for initiatives to individual senior leaders who are developing their 
detailed implementation plans to oversee our efforts. Quarterly 
executive-level reviews will monitor plans and progress, and ensure 
that efficiency initiatives do not inadvertently impact readiness, 
mission performance, or quality of life for our Airmen. Our continuous 
process improvement program, Air Force Smart Operations for the 21st 
Century (AFSO21), is well-established and provides our Airmen with the 
tactics, techniques and procedures to improve performance while 
achieving efficiencies.
    In order to ensure Air Force leadership has reliable and relevant 
financial information to monitor our efficiency goals, we are further 
emphasizing our work in Financial Improvement and Audit Readiness. In 
fiscal year 2012, the Air Force is dedicating $29 million to audit 
readiness and validation and $327 million to modernize our business 
systems.
    Mission effectiveness of the Air Force is linked to the overall 
well-being of our Airmen and their families. The Air Force will 
continue to find innovative and efficient ways to provide and sustain 
programs that support our Airmen and their families, including our 
critical civilian personnel. We must ensure programs and services 
foster a greater sense of community, strengthen a sense of belonging 
and value to the Air Force, and improve Airman and family resiliency.
    As mission demands continue to evolve and budgets flatten, the Air 
Force is making key strategic choices to leverage the collective talent 
and experience of our Total Force. Through improved integration across 
the Total Force Enterprise of active, Guard and Reserve forces, we are 
seeking greater Service-wide efficiencies and effectiveness to maximize 
combat capability for the Joint warfighter. We are developing business 
case analyses to inform decisions on how best to structure Active and 
Reserve Component relationships, especially in new areas. As missions 
such as cyber and dynamic battlefield ISR mature, so too will the Total 
Force investment in these areas.
    End Strength, Retention and Recruiting.--The overall programmed Air 
Force end strength for fiscal year 2012 is more than 690,000 personnel. 
This includes 332,800 active duty, 71,400 Reserve, 106,700 Air National 
Guard, and more than 182,000 civilian personnel. To support the efforts 
of our Airmen and to recruit and retain the highest quality Air Force 
members, the fiscal year 2012 budget request includes $30.2 billion in 
military personnel funding and a military pay raise in fiscal year 2012 
of 1.6 percent.
    The retention rates in the Air Force are the highest they have been 
in 16 years and recruiting has also been successful. Therefore, the 
$626.6 million requested in the fiscal year 2012 budget for recruiting 
and retention bonuses is highly targeted. Bonuses are proposed for 
specific career fields with critical wartime skills including pilots, 
control and recovery, intelligence, contracting, security forces, 
health professionals, civil engineering, special operations and 
explosive ordnance disposal.
    In addition, the current economy has slowed attrition from the Air 
Force and had the effect of increasing active duty manning above 
planned levels. As a result, the Air Force is making difficult, but 
fiscally responsible decisions to implement force management programs 
that allow us to remain within authorized end strength ceilings. 
Specifically, we continue to progress toward an active duty end 
strength goal of 332,800 by the end of fiscal year 2012. To address 
excess end strength, particularly in the officer force, we will reduce 
accessions, continue to waive Active Duty Service Commitment and Time 
in Grade requirements for voluntary separations and retirements, 
continue to conduct enlisted Date of Separation rollbacks, and 
institute involuntary separation and retirement programs for officers 
through Selective Early Retirement, Reduction in Force and Force 
Shaping boards. We will also work with OSD to seek additional 
legislative authority to help the Air Force meet end strength ceilings 
by the end of fiscal year 2012 and maintain the appropriate level in 
fiscal year 2013 and beyond.
    Civilian Workforce.--The Secretary of Defense has limited our 
civilian workforce to fiscal year 2010 levels, with limited growth 
allowed for specific priorities like the acquisition workforce. This 
policy will require significant changes to previously planned civilian 
growth. The Air Force will also conduct an enterprise-wide review of 
civilian personnel end strength to facilitate DOD's efforts for 
efficiencies and reinvestment possibilities.
    Contractor Reductions.--The Air Force is looking at the way we 
utilize the contract workforce as we answer the Secretary of Defense's 
challenge to find efficiencies and to reduce duplication, overhead, and 
excess, and reinforce our culture of efficiency and restraint across 
the Air Force. This will impact the service support contract workforce 
in the following areas:
  --Reduce our staff support contractor workforce by 10 percent per 
        year, over the next 3 years in accordance with DOD's guidance 
        with an estimated fiscal year 2012 savings of $127 million; and
  --Reduce the funding for advisory studies by 25 percent from the 
        fiscal year 2010 levels over the FYDP with an estimated fiscal 
        year 2012 savings of $41 million.
  --The Air Force identified two other areas that will result in 
        reductions to its headquarters contract workforce and release 
        resources for warfighter use. These include: Knowledge-based 
        services estimated at $252 million in fiscal year 2012; and 
        Program Management Administration estimated at $191 million in 
        fiscal year 2012.
    Man-Days.--Active Duty Operational Support days play a critical 
role in resourcing extended military operations. They allow for the 
active duty appropriation to pay for temporary use of National Guard 
and Reserve personnel to support military missions beyond the regular 
component's capability. In support of the Secretary of Defense's 
efficiency initiative, the Air Force reduces, by 1,250 work years, the 
Reserve Component fiscal year 2012 man-day program that supports non-
critical administrative and overhead activities.
    The demand for global mobility and related airlift support remains 
high in fiscal year 2012 as the Air Force will continue to support a 
large footprint in Afghanistan. The Air Force identified $1.4 billion 
to support fiscal year 2012 OCO requirements. Our reliance on the Total 
Force is by design, and we recognize and value the contributions of the 
members of the Reserve Components who have performed tirelessly in 
support of our Nation. The Air Force will continue to prioritize 
Reserve Component requirements prudently and in accordance with mission 
needs as we transition to a lower steady state tempo.
    Diversity.--The Air Force widened the aperture beyond traditional 
views of diversity, and defined it to include personal life 
experiences, geographic background, socioeconomic background, cultural 
knowledge, educational background, work background, language abilities, 
physical abilities, philosophical/spiritual perspectives, age, and 
more. We declared diversity a military necessity, as both a source of 
greater combat effectiveness and as means toward a force that more 
closely mirrors American society. Deliberate plans are being developed 
to attract, recruit, develop, and retain a more diverse force.
    Repeal of ``Don't Ask, Don't Tell''.--The Air Force will execute 
the plan established by OSD for the effective implementation of the 
repeal of Section 654 of Title 10 of the United States Code, known as 
``Don't Ask, Don't Tell.'' We are also developing strategic 
communications, and we will provide initial and sustainment education 
and training at all levels.
    Readiness.--With Air Force personnel deployed to more than 135 
locations worldwide on an average day, we rely heavily on the Total 
Force. Currently, more than 37,000 Airmen are deployed and more than 
57,000 are forward-stationed. In addition, approximately 134,000 Airmen 
are directly supporting Combatant Commander requirements from their 
home stations daily. These Airmen contribute in a variety of ways, to 
include operating the Nation's space and missile forces, processing and 
exploiting remotely collected ISR data, providing national intelligence 
support, operating and defending our networks, and executing air 
sovereignty alert missions.
    The Air Force has flown more than 419,000 sorties in support of 
Operations Iraqi Freedom and New Dawn and more than 244,000 sorties in 
support of Operation Enduring Freedom since September 11, 2001. During 
this time, we delivered over 6.3 million passengers and 3.3 million 
tons of cargo, employed almost 23,800 tons of munitions, flew more than 
15,750 personnel recovery sorties recording over 2,900 saves and 6,200 
assists, and transported more than 85,000 patients and more than 15,400 
casualties from the U.S. Central Command alone. In 2010, our Airmen 
averaged approximately 400 sorties every day.
    This level of activity reflects our commitment to provide Global 
Vigilance, Reach, and Power in today's Joint fight. However, our high 
operations tempo (OPTEMPO) has also had some detrimental effects on our 
overall readiness. Readiness for full spectrum military operations is a 
challenge for our combat air forces and some other limited-supply/high-
demand aviation units. Since 2003, we have seen a slow but steady 
decline in reported readiness indicators. Our OPTEMPO since 2001 has 
produced lower deploy-to-dwell ratios for high-demand skills. At 
present, 19 enlisted and nine officer career fields are ``stressed.'' 
We have improved funding to WSS; however, sustainment challenges 
continue as we field new weapon systems and balance contract versus 
organic sources of repair. To address these readiness issues, we must 
keep aircraft recapitalization and procurement programs on track and 
continue managing our force to ensure the right numbers and mix of 
skills in our highly tasked and highest priority mission areas.
    The Air Force Core Functions, assigned by the Secretary of Defense 
and recognized by the Joint community, provide a framework for 
balancing investments across Air Force capabilities. While this 
document describes the Core Functions individually, we recognize the 
inherent interdependence of these capabilities within the Air Force, 
the Joint force, and throughout the United States Government. When 
considered together, the Core Functions encompass the full range of Air 
Force capabilities. The budget request in this posture statement 
provides an appropriate balance of investment across our Core 
Functions. The table below depicts the fiscal year 2012 budget request 
and the projected allocation of resources across the FYDP, by Air Force 
Core Function.

                        [In billions of dollars]
------------------------------------------------------------------------
                                                Fiscal Year
            Air Force Core Function               2012 PB        FYDP
                                                  Request
------------------------------------------------------------------------
Nuclear Deterrence Ops........................          5.2         28.0
Global Precision Attack.......................         16.0         93.7
Air Superiority...............................          9.2         46.1
Rapid Global Mobility.........................         15.9         89.5
Global Integrated ISR.........................          8.2         41.4
Space Superiority.............................         11.6         56.2
Cyberspace Superiority........................          4.6         21.9
Command and Control...........................          6.3         33.5
Special Operations............................          1.4          6.5
Personnel Recovery............................          1.6          9.0
Building Partnerships.........................          0.5          1.9
Agile Combat Support..........................         33.8        175.0
------------------------------------------------------------------------
Note 1: This table does not include OCO, Non-Blue or classified
  programs.
Note 2: The funding for Nuclear Deterrence Operations includes weapon
  systems, support systems, as well as nuclear command, control, and
  communications requirements.

                     nuclear deterrence operations
    Continuing to strengthen our nuclear enterprise remains the number 
one Air Force priority, and we have taken positive steps within the 
fiscal year 2012 budget request to continue to strengthen and improve 
this Core Function.
    Air Force Global Strike Command achieved full operational 
capability (FOC) on September 30, 2010, moving all Air Force nuclear-
capable bombers and Intercontinental Ballistic Missiles (ICBMs) under 
one command. The Air Force Nuclear Weapons Center continues to pursue 
vital and deliberate sustainment of the nuclear enterprise through 
efforts such as the Air Force Comprehensive Assessment of Nuclear 
Sustainment process. Bomber force modernization continued in an effort 
to maintain a viable force beyond 2030. We have completed the 
transition to four B-52 operational squadrons with the addition of the 
69th Bomb Squadron at Minot Air Force Base, North Dakota. ICBM 
modernization and sustainment also continued with investments in new 
test equipment and launch facility environmental control systems. 
Although an initial study for the Ground Based Strategic Deterrent to 
replace the Minuteman III will begin in fiscal year 2011, we must 
continue sustainment efforts to ensure Minuteman III viability through 
2030.
    An important event for the ICBM force in 2010 was a temporary loss 
of the ability to monitor the status of 50 missiles at F.E. Warren Air 
Force Base, Wyoming. At no time was there any danger to the public or 
to the safety and security of the weapon system. The missiles are 
protected by multiple and redundant safety, security, and command and 
control features. The root cause of this communication interruption was 
identified, and the necessary technical and procedural changes to 
prevent future occurrences have ensued. In addition, the Air Force has 
completed a number of assessments including initiatives to address 
systemic issues with ICBM infrastructure and operating procedures as 
well as a report on the age and pedigree of the infrastructure and 
equipment associated with the ICBM system. Based on these assessments, 
it is clear that a significant portion of the existing infrastructure 
will eventually require modernization or complete replacement in the 
years ahead.
    The fiscal year 2012 budget request of $5.2 billion continues to 
invest in the future of nuclear deterrence. The Air Force is committed 
to sustaining the ICBM force through 2030 with investment including 
command and control, cryptographic improvements and ballistic missile 
fuze sustainment. Bomber modernization and sustainment efforts include 
the B-52 Combat Network Communications Technology program, the B-2 
Extremely High Frequency communications program and the Defensive 
Management Systems program. The Air Force removed early-to-need 
procurement funding in bomber extremely high frequency communications 
and the ground element of the Minimum Essential Emergency 
Communications Network program due to program delays. The Air Force is 
committed to continuing to strengthen the nuclear enterprise through 
other programs such as the tail kit portion of the B61 nuclear weapon 
life extension program, the future long-range standoff weapon, and the 
Common Vertical Lift Support Platform. Beyond weapon system sustainment 
and modernization, the Air Force is focusing on human capital as we 
carefully balance requirements for our limited, intensively 
scrutinized, high-demand Airmen in the nuclear enterprise.
    The Air Force is prepared for a new verification regime and is 
planning for the elimination and conversion of launchers under the New 
Strategic Arms Reduction Treaty. We will work with the OSD and U.S. 
Strategic Command to identify and assess options for future force 
structure adjustments consistent with the Treaty provisions.
                        global precision attack
    Many of our global precision attack forces are meeting the current 
requirements of ongoing contingency operations by performing precision 
strike and ISR support roles. However, the proliferation of anti-access 
and area-denial capabilities will challenge the ability of current 
fourth-generation fighters and legacy bombers to penetrate contested 
airspace in the longer term.
    The Air Force used a balanced approach across the global precision 
attack portfolio in fiscal year 2011, prioritizing investment in fifth-
generation aircraft while sustaining legacy platforms as a bridge to 
the F-35, Joint Strike Fighter. We continue to modernize our bomber 
fleet to sustain our capability and capacity as we invest in a Long-
Range Strike Family of Systems.
    The fiscal year 2012 budget request for this Core Function is $16 
billion. Investments in global precision attack will fund modernization 
of legacy fighters and the B-1B, development and procurement of the F-
35A, preferred munitions, and simulators for Tactical Air Control 
System training. The fiscal year 2012 budget request adds $15 million 
to begin design and development of structural and capability 
modifications for the F-16 Block 40/42/50/52 fleet. The SLEP 
initiatives for the F-16 airframe are scalable and responsive to the 
Air Force's total fighter requirements. The Air Force is also studying 
F-16 modernization efforts, to include a new AESA radar, center 
displays, electronic warfare defensive suite, and an improved data-link 
in anticipation of F-35A delivery delays.
    The multi-role F-35A is the centerpiece of the Air Force's future 
precision attack capability. In addition to complementing the F-22's 
world class air superiority capabilities, the F-35A is designed to 
penetrate air defenses and deliver a wide range of precision munitions. 
This modern, fifth-generation aircraft brings the added benefit of 
increased allied interoperability and cost-sharing across Services and 
partner nations. It will also serve to fulfill our commitment to NATO's 
dual-capable aircraft mission. The fiscal year 2012 budget includes 
$5.3 billion for continued development and procurement of 19 F-35A, 
Conventional Take-Off and Landing (CTOL), production aircraft.
    The F-35A program team achieved a number of accomplishments over 
the past year, including the first flight of the first mission systems 
aircraft, arrival of the first four F-35A test aircraft at Edwards Air 
Force Base, California, completion of F-35A static structural testing 5 
months ahead of schedule with no failures, roll out of the first Low 
Rate Initial Production (LRIP) F-35A, completion of 410 total F-35 test 
flights in 2010 of which 171 were F-35A flights, negotiation of the 
first fixed price type production contract (LRIP Lot 4--10 CTOL 
aircraft), and the signing of a Letter of Acceptance to procure the F-
35A by Israel.
    Also in 2010, the Air Force announced the preferred alternatives 
for F-35A operational and training bases. Those bases are Hill Air 
Force Base, Utah, and Burlington Air Guard Station, Vermont for 
operational squadrons and Luke Air Force Base, Arizona for training.
    The program continues to experience challenges as it transitions 
from development to production despite the significant accomplishments. 
The Secretary of Defense announced a program restructure in February 
2010. The restructure resulted in increased funding for development and 
production in accordance with Joint Estimate Team II estimates, reduced 
procurement by 122 aircraft over the FYDP in the fiscal year 2011 PB, 
upgraded the Program Executive Office position from a 2-star to 3-star 
flag rank, extended development by 13 months, added an additional LRIP 
lot prior to entering full rate production, and reduced the ramp rate 
to less than 150 percent of the previous year's production. Program 
cost growth, including growth from the restructure, resulted in a 
critical Nunn-McCurdy breach in March 2010. The Under Secretary of 
Defense for Acquisition, Technology, and Logistics subsequently 
certified the program in accordance with the Nunn-McCurdy statute, 
allowing the F-35 program to continue.
    The DOD tasked the program office to perform a bottom-up review of 
the remaining development effort after the program Nunn-McCurdy 
certification. This Technical Baseline Review (TBR), completed in 
November 2010, became the basis for additional program restructuring 
within the fiscal year 2012 PB. The TBR informed the need for an 
additional $4.6 billion to complete the Joint development effort. To 
fund this new development effort, and recognizing a continued lagging 
performance in production, the DOD reduced procurement by 124 aircraft 
over the FYDP in the fiscal year 2012 PB, 57 of which were F-35As.
    The Air Force intends to accelerate the procurement of the F-15E 
AESA radar modernization program, funding 88 radars and electronic 
protect software upgrades across the FYDP to keep our legacy platforms 
viable well into the future. Other legacy fighter improvements in the 
fiscal year 2012 budget include the continuation of the A-10C wing 
replacement program.
    The fiscal year 2012 budget request includes funds to modernize the 
B-1B fleet, including the central integrated test system, fully 
integrated data link, and vertical situation display unit. To provide 
the funds to modernize the B-1B fleet, the fiscal year 2012 budget 
request also reduces B-1B force structure by six primary aircraft 
authorizations leaving 60 B-1Bs in our inventory. Investing in a new 
penetrating bomber is critical to maintaining our long-range strike 
capability in the face of increasing risk associated with anti-access 
and area-denied environments.
    To this end, the Secretary of Defense announced on January 6, 2011, 
that the Air Force will invest in a new long-range, penetrating, and 
nuclear-capable bomber capable of both manned and unmanned operations. 
A major focus of this program is to develop an affordable, long-range 
penetrating strike capability that delivers on schedule and in 
quantity. This aircraft will be designed and built using proven 
technologies, will leverage existing systems to provide sufficient 
capability, and allow growth to improve the system as technology 
matures and threats evolve. This program should start now to ensure 
that the new bomber can be ready before the current aging B-52 and B-1 
bomber fleets go out of service. The follow-on bomber represents a key 
component of a Joint portfolio of conventional deep-strike 
capabilities, an area that must be a high priority for future defense 
investment given the anti-access challenges our military faces. It is a 
central element in a Family of Systems that includes enabling 
electronic warfare, ISR, and communications capabilities, as well as 
new weapons.
    Anti-access and area-denial challenges have also caused us to 
pursue the Air-Sea Battle concept in partnership with the U.S. Navy and 
Marine Corps, so that together we can preserve and bolster our Nation's 
freedom of action in the air, maritime, space, and cyberspace domains. 
Once implemented, Air-Sea Battle will guide us to develop a more 
permanent and better-institutionalized relationship between Departments 
that will ultimately shape our Service organizations, inform our 
operational concepts, and guide our materiel acquisitions.
    This budget request also includes Developmental Test (DT)/
Operational Test (OT) and procurement of the Joint Air-to-Surface 
Stand-off Missile baseline and Extended Range programs. As Small 
Diameter Bomb (SDB)-1 production concludes in fiscal year 2011, the Air 
Force plans to transition to development and production of the SDB-II 
in fiscal year 2012. Additionally, the fiscal year 2012 budget request 
continues funding for integration of the Hard Target Void-Sensing Fuze 
onto the BLU-113 and BLU-109 weapons, and funds weapon DT/OT for the 
Massive Ordnance Penetrator.
    Fiscal year 2012 budget investments in global precision attack 
reflect the requirement to win today's fight while recognizing that 
proliferation of anti-access and area-denial capabilities will 
increasingly challenge America's ability to penetrate contested 
airspace. The Air Force continues to modernize the legacy fighter and 
bomber fleet to maintain sufficient capability and capacity as we 
transition to a fully operational F-35A fleet and field a modern Long-
Range Strike Family of Systems.
                            air superiority
    Air superiority is crucial in modern warfare. It enables air, land 
and maritime operations in support of our Joint, Interagency and 
Coalition partners. For over five decades, Air Force investments, 
expertise and sacrifice in achieving air superiority have ensured that 
friendly ground forces operate without threat of attack from enemy 
aircraft. Airspace control remains vitally important in all operating 
environments to ensure the advantages of rapid mobility, ISR and 
precision strike are broadly available to the Combatant Commander. 
Ongoing air defense modernization efforts by global and regional 
competitors will challenge the Air Force's ability to attain the same 
degree of control in the future. The fiscal year 2012 budget request 
for air superiority is $9.2 billion.
    We plan to continue upgrading to a fifth-generation fleet with F-22 
modifications to provide fleet commonality and ensure the viability of 
our legacy weapons systems. We will also continue the development of 
preferred air-to-air munitions and defenses such as the AIM-9X, AIM-
120D and electronic warfare capabilities.
    We are currently modernizing our legacy fleet of F-15 fighter 
aircraft with AESA radars to ensure their viability well into the 
future. Other F-15C/D modernization programs underway include an 
advanced display core processor upgrade with vertical situation 
display, beyond line of sight radios, and Link-16 cryptographic 
upgrades. The fiscal year 2012 budget request continues funding for the 
F-15C/D AESA radar modernization program. The Air Force has recently 
restructured this program, procuring 90 radars across the FYDP and an 
additional eight radars in fiscal year 2017.
    The Air Force is also incrementally modernizing the F-22 Block 30/
35 aircraft and requests funding in the fiscal year 2012 budget for the 
F-22 Block 20/30/35 Common Configuration, Reliability and 
Maintainability Maturation Program and enhancement of the air-to-air 
and SEAD capabilities on F-22 Block 30/35 aircraft.
    Select electronic warfare enhancements continue in fiscal year 
2011, including EC-130H Compass Call fleet upgrades, and a flight deck 
and mission crew simulator to increase training capacity. The fiscal 
year 2012 budget request begins funding 13 electronic attack pod sets 
for MQ-9s and the conversion of a C-130 to EC-130H Compass Call 
aircraft, adding two mission aircraft authorizations across the FYDP. 
The fiscal year 2012 budget also funds concurrent production of 
Miniature Air-Launched Decoy (MALD)/MALD-Jammer (MALD-J) and 
development of MALD-J Increment II to improve the system's electronic 
warfare capabilities.
    The Air Force continues to enhance development, production, and 
integration of critical munitions for air superiority. The fiscal year 
2012 budget requests funds for the development and full-rate production 
of the AIM-9X Block 2; development, integration, and production of the 
AIM-120D; and development and integration of the AGM-88 HARM control 
section modification. The fiscal year 2012 budget also requests 
research and development funding for the ``Next Generation Missile,'' 
an air launched missile to replace both the AIM-120D and the AGM-88. 
This funding will provide for a competitive prototype demonstration and 
technical development preceding entrance into the Engineering and 
Manufacturing Development phase of the program.
    Other key enhancements in the fiscal year 2012 budget request 
include the development and fielding of new training range equipment 
and updates to threat systems to provide realistic combat training. 
Among these are the P5 Combat Training System and Joint Threat 
Emitters. Also, the fiscal year 2012 budget request provides 
procurement of F-16 Block 40/50 Full-Mission Simulators, affording 
high-fidelity simulation for use in Distributed Mission Operations. 
Enhanced opportunities to migrate aircrew training into high fidelity 
simulators will help realize efficiencies in the peacetime flying hour 
program, as well as support energy efficiency.
    The proposed fiscal year 2012 investments will sustain America's 
air superiority advantage and expand the multi-role capability of the 
Air Force's most advanced aircraft. Additionally, these investments 
continue the development and procurement of electronic warfare 
capabilities and preferred air-to-air munitions.
                         rapid global mobility
    The Air Force continues to provide unparalleled airlift and air 
refueling capability to support our national defense. Mobility forces 
provide a vital deployment and sustainment capability for Joint and 
Coalition forces, globally delivering equipment, personnel, and 
materiel essential for missions ranging from major combat to 
humanitarian relief operations worldwide.
    The Air Force is accelerating the retirement of our oldest legacy 
airlifters, the C-5A and C-130E, in fiscal year 2011. Airlift capacity 
and capability will be maintained through continued recapitalization 
and modernization. The Air Force will take delivery of seven C-130Js, 
and continue to ensure world-wide airspace access through avionics 
modernization of C-130H2/3, KC-10 and the C-5. In 2010, the C-27J 
completed transition from a Joint to an Air Force-led program, and we 
continued C-27J procurement as an investment in overall fleet 
viability.
    The fiscal year 2012 budget request balances tanker and airlift 
requirements to ensure that we sustain the critical needs of the 
warfighter. This is accomplished by prioritizing recapitalization of 
the tanker aircraft while ensuring the continued viability of the 
legacy fleet. Tanker capability investments of $877 million are heavily 
weighted toward our top acquisition priority, the KC-X program. The Air 
Force submitted a Request for Proposal for a KC-X replacement tanker in 
February 2010, and is anticipating contract award in early 2011. While 
moving aggressively to recapitalize the tanker fleet, we also continue 
maintaining the health of legacy aircraft. The budget includes $147.4 
million in fiscal year 2012 for the airspace access requirement and 
sustainment of the KC-10 and KC-135 fleets.
    In conjunction with the continued procurement of C-130Js, the 
fiscal year 2012 budget continues to modernize C-130Hs through the 
Avionics Modernization Program, ensuring continued global airspace 
access. Similar efforts to modernize C-5 avionics remain on track and 
the C-5B/C Reliability Enhancement and Re-engine Program (RERP) has 
completed operational testing. In October 2010, OSD approved RERP for 
full rate production with the final C-5M ``Super Galaxy'' scheduled for 
delivery in the third quarter of fiscal year 2016. Additionally, in 
accordance with the results of the Mobility Capabilities and 
Requirements Study 2016, and subject to authorization by the Congress, 
we intend to retire some of the oldest, least capable C-5As and C 
130H1s. The C-17 Globemaster III remains the backbone of our Nation's 
strategic airlift fleet, and the Air Force takes delivery of 11 new C-
17s in fiscal year 2011 and eight in fiscal year 2012. These additions 
bring the total C-17 fleet to 221 aircraft. The Air Force will continue 
to modernize its mature C-17s to the production line standard by 
accelerating the Block 13-17 upgrade program, and retrofitting the 
aircraft with extended range fuel tanks and an improved on-board inert 
gas generating system.
    Efforts to increase direct support airlift continue, with plans to 
beddown 38 C-27Js in the Air National Guard. The Air Force continues 
Operational Support Aircraft/Very Important Person Special Airlift 
Mission modernization with the upgrade of VC-25 avionics, with 
completion in fiscal year 2018 enabling unrestricted global access for 
the Presidential aircraft.
    global integrated intelligence, surveillance and reconnaissance
    The Air Force continues to rapidly increase its ISR capability and 
capacity to support all military operations. Air Force ISR provides 
timely, fused, and actionable intelligence to the Joint force from 
forward-deployed locations and distributed processing centers around 
the globe.
    The exceptional operational value of Air Force ISR assets has led 
Joint force commanders in Iraq, Afghanistan and the Horn of Africa to 
continually increase their requests for support. To help meet this 
demand, the Air Force currently has more than 90 percent of all 
available ISR assets deployed. Over the last 2 years, the Air Force 
increased the number of remotely piloted aircraft (RPA) and completed 
deployment of 30 MC-12W Project Liberty aircraft to theater to 
complement remotely piloted capabilities. This is being accomplished as 
we transitioning MC-12W Liberty Project from OCO funding into the Air 
Force baseline budget beginning in fiscal year 2013. Additionally, the 
Air National Guard, already full partners in the RPA enterprise, has 
also deployed the RC-26B in support of operations in Iraq. Finally, 
both the Air Force and Air National Guard operate the RC-135 Rivet 
Joint and Senior Scout, respectively, in support of global signals 
intelligence taskings.
    In fiscal year 2011, we will increase the number of CAPs in theater 
to 50, maximize the MQ-9 production rate to 48 per year, complete the 
procurement of 11 RQ-4 Block 40, and will deliver five additional MC-
12W aircraft. We also will maintain our current Joint Surveillance 
Target Attack and Radar System-based Ground Moving Target Indicator 
(GMTI) capability as we complete an Analysis of Alternatives to 
determine the future of GMTI.
    Our fiscal year 2012 ISR budget request of $8.2 billion fully 
supports the Joint force emphasis on ISR capacity and allows the Air 
Force to sustain maximum MQ-9 production and achieve 65 RPA CAPs in 
theater by the end of fiscal year 2013. In intelligence production, we 
corrected an internal Operation and Maintenance shortfall within the 
Air Force Distributed Common Ground System to sustain intelligence 
analysis and dissemination. The budget request also continues support 
for the U-2 Dragon Lady manned aircraft through the end of fiscal year 
2015 to ensure a smooth high-altitude transition to the unmanned RQ-4 
Global Hawk. This extension enables a measured reduction of the U-2 
program as RQ-4 Block 30 aircraft become operational and ensures 
continued support to national leadership, Combatant Commanders and 
Joint warfighters.
    The fiscal year 2012 ISR budget also realigns resources within the 
RQ-4 program to correct a $979 million diminishing manufacturing 
sources disconnect across the FYDP. To optimize our support of the 
overall RQ-4 program, the Air Force decided to curtail production of 
the RQ-4 Block 40 at 11 aircraft. This decision allows the Air Force to 
fully support and sustain the required RQ-4 Block 40 capability already 
procured and concentrate on fielding effective Block 30 multiple 
intelligence platforms on time.
                           space superiority
    The DOD, civilian agencies and our Nation rely on space 
capabilities developed and operated by the Air Force. The fiscal year 
2012 space superiority budget request of $11.6 billion will enable the 
Air Force to field, upgrade and sustain vital space systems for the 
Joint warfighter. As part of the Joint force, we integrate and operate 
these capabilities to execute the space support, force enhancement, 
space control and force application missions; and, as launch agent for 
both the defense and intelligence sectors, provide reliable and timely 
space access for national security purposes.
    Space capabilities provide the United States and our allies' 
unprecedented national security advantages in national decisionmaking, 
military operations, and homeland security. The Air Force's budget 
priorities align closely with the goals and principles outlined in the 
National Space Policy (NSP) and support the DOD's National Security 
Space Strategy (NSSS) and the National Military Strategy with specific 
emphasis on building international partnerships to establish mutually 
beneficial space capabilities and developing a better understanding of 
the space domain. International agreements are being pursued to expand 
space-based communication capability through the procurement of a ninth 
Wideband Global SATCOM satellite (WGS-9), and to meet National Search 
and Rescue requirements by working to integrate the Canadian-provided 
Distress Alerting Satellite Systems as a secondary payload on GPS Block 
III Increment B & C satellites. Additionally, realizing the space 
domain is becoming increasingly congested, contested and competitive, 
we will continue efforts to establish a Space Situational Awareness 
(SSA) partnership with Australia by jointly employing and operating a 
space object detect and track radar in Australia. This system will 
provide better understanding of the current and future strategic space 
environment and establish a foundation for continuing nation-to-nation 
cooperation.
    In close cooperation with OSD and the Office of Management and 
Budget, the fiscal year 2012 Air Force budget request proposes a new 
acquisition strategy for buying military spacecraft, Evolutionary 
Acquisition for Space Efficiency (EASE). The current practice of 
procuring satellites one-at-a-time or on a just-in-time basis has 
inadvertently increased costs due to production line breaks, parts 
obsolescence, and inefficient use of labor. Numerous space experts and 
congressional committees have expressed concern with the inefficiency 
and disruption caused by the status quo approach to procuring 
satellites. EASE is an acquisition strategy that encompasses the 
following tenets: block buys of satellites, fixed price contracting, 
stable research and development investment, and a modified annual 
funding approach. We believe this approach will result in savings that 
can be reinvested in research and development that will further improve 
the performance and lower the cost of follow-on systems. Commitment to 
satellite production and reinvestment in technology development 
provides stability and predictability for a fragile space industrial 
base.
    The Air Force budget request reflects the use of EASE for 
acquisition of the next blocks of Advanced Extremely High Frequency 
(AEHF) protected communications satellites in fiscal year 2012 and 
Space Based Infrared System (SBIRS)-Geosynchronous missile warning 
satellites in fiscal year 2013. Once the EASE approach is proven, we 
will examine the application of this acquisition strategy to a wider 
portfolio of space programs. Relying on a combination of regular 
appropriations, advance appropriations, and multi-year procurement 
authority, the EASE proposal is consistent with the full funding 
principle and is a critical part of the Air Force's efficiency agenda. 
The Air Force recognizes the need to work with Congress to define and 
obtain the necessary legislative authorities to achieve our vision.
    Spacelift is a critical component of the national security space 
enterprise. Despite our having achieved a record 76 consecutive 
successful launches since 1999, spacelift is still a complex and costly 
undertaking. Three recent launch studies reached the same conclusion 
that immediate commitment to a fixed annual production rate for launch 
vehicles is imperative to sustain the industrial base and control 
costs. To ensure this commitment, the fiscal year 2012 budget 
submission requests an additional $3.5 billion across the FYDP to 
procure five DOD launches each year. In addition, the Air Force is 
working aggressively to reduce the cost of providing this critical 
launch capability. Additionally, the Air Force is collaborating with 
the NRO and NASA to explore synergistic solutions to maintain a healthy 
industrial base and meet government launch requirements.
    Our Combatant Commanders and national leadership rely on satellite 
communications for continuous secure communications around the world. 
In fiscal year 2010, we successfully launched the third Wideband Global 
SATCOM (WGS) satellite and first AEHF satellite. AEHF will provide 10 
times the throughput and greater than 5 times the data rate of the 
current MILSTAR II Satellite Communication System. To increase the 
effectiveness of our Joint warfighting operations, we are expanding 
communications capability with the launch of another WGS satellite in 
fiscal year 2012. Each WGS satellite delivers the equivalent capacity 
of the entire existing Defense Satellite Communications System 
constellation. WGS has become the keystone for international 
cooperation measures in space, with our Australian allies funding the 
sixth WGS satellite in return for a portion of the overall bandwidth. 
We requested $469 million in the fiscal year 2012 budget request to 
fully fund WGS to meet Combatant Commander's bandwidth requirements. 
These essential systems provide our forces the vital communications 
needed to remain effectively coordinated, synchronized, and responsive 
in global operations.
    For over 20 years, GPS has been the global standard for 
positioning, navigation and timing (PNT) and is used in everything from 
consumer automobiles, precision farming and smart phones, to enabling 
the Nation's most sophisticated weaponry and financial systems. In 
fiscal year 2011, we will continue to launch GPS Block IIF satellites 
to maintain the constellation as a global utility. The fiscal year 2012 
budget request includes $1.7 billion for PNT capability and 
incorporates initial funding of the next generation GPS III satellite 
production, development of the next-generation operational control 
segment and upgraded military user equipment.
    Our fiscal year 2012 budget request also includes $87 million for 
the Operationally Responsive Space program to pursue innovative 
capabilities that can be rapidly developed and fielded in months rather 
than years to respond to Combatant Commanders' immediate space 
requirements. In the critical areas of missile warning and SSA, we 
requested $1.2 billion for the SBIRS program, which will launch the 
first geosynchronous satellite in fiscal year 2011 to begin our 
transition to a highly effective space-based missile warning system, 
and $122.1 million for the Joint Space Operation Center Mission System. 
We will continue to improve SSA ground-based systems and space-based 
capabilities to ensure continued freedom to operate in the space 
domain. The Air Force also recognizes that space capabilities are 
essential to the nuclear enterprise for its operational readiness, 
providing key decisionmaking information through missile warning and 
nuclear event detection, along with essential communications. Weather 
and forecasting data is another important source of information for our 
forces in peacetime and in conflict. We requested $444.9 million for 
the Defense Weather Satellite System in fiscal year 2012. This system 
will replace the Defense Meteorological Satellite Program in the early 
morning orbit slot, ensuring continuity of detailed overhead weather 
imagery and sensing information. All elements of space capability must 
operate through the full spectrum of potential contingencies.
    While participating, last year, in the DOD's development of the 
national long-term space strategy as part of the Space Posture Review 
and Quadrennial Defense Review, the Air Force recognized a need to 
review our own internal space governance structure to better position 
us to properly execute the direction resulting from these reviews. 
During our review, the position of the Under Secretary of the Air Force 
was identified as the focal point for oversight of all Air Force space 
activities. In addition, space acquisition responsibilities were 
consolidated in the Office of the Assistant Secretary of the Air Force 
for Acquisition. At the DOD level, the Secretary of the Air Force was 
revalidated as the DOD Executive Agent (EA) for Space. The EA is 
charged with the integration and assessment of the DOD overall space 
program, the conduct and oversight of long-term space planning and 
architecture development, and the facilitation of increased cooperation 
with the intelligence community. The EA also chairs the newly 
established Defense Space Council with representatives from across the 
DOD, and was directed to establish a jointly manned space office to 
restructure and replace the current National Security Space Office. 
This organization will not only better position the DOD to coordinate 
implementation of space policy and strategy, it will also provide the 
framework for the DOD's support for development of new national 
security space capabilities. Furthermore, the Secretary of the Air 
Force, in his role as the EA for Space is fully engaged with the DOD in 
the implementation of the recent NSP and NSSS.
                         cyberspace superiority
    The Air Force fiscal year 2012 budget request includes $4.6 billion 
to sustain and maintain our critical cyberspace capabilities and to 
enable Air Force expeditionary and Conus-based operations in support of 
Joint force commanders. The Air Force contributes to the Joint force by 
developing, integrating, and operating cyberspace capabilities in three 
mission areas: support, defense, and offense.
    Cyberspace superiority enables precise force application in all 
domains, generates effects across the full spectrum of operations, and 
preserves an agile and resilient cyberspace infrastructure for assured 
mission execution.
    Access to cyberspace is increasingly critical to meet Joint and 
allied requirements for freedom of maneuver in all domains. Air Force 
networks face a continuous barrage of assaults from State-sponsored 
actors, terror networks, international criminal organizations, 
individual hackers, and all level of threats in between. We are 
expanding collaboration with Service, Joint, Interagency, academic, and 
international partners on several cyber initiatives to safeguard our 
access to the cyberspace domain. To this end, we are operationalizing 
our approach to cyberspace with emphasis in this budget request on 
protecting the Air Force infrastructure, developing expertise to meet 
mission needs, and accelerating our acquisition processes.
    The 24th Air Force, the Air Force component of U.S. Cyber Command, 
achieved FOC on October 1, 2010, and the Air Force will expand the 
cyber rapid acquisition process to cope with constantly evolving 
technologies. The Air Force is also aligning education and training 
programs with our operational approach to cyberspace to properly 
develop our cyberspace professionals. In December 2010, we graduated 
our first cadre of cyberspace operators. Additionally, efforts to 
enhance the cyber-related investigative and forensic capabilities 
resident in the Air Force are forging a solid foundation for Service 
and Joint cooperation. For example, Air Force Space Command 
transitioned the Defense Cyber Crime Center back to the Air Force 
Office of Special Investigations to help strengthen the ties.
    The Air Force has strengthened its efforts in the support mission 
area by continuing work on the Single Air Force Network migration, 
which increases situational awareness of Air Force networks while 
securely improving information sharing and transport capabilities. 
Examples of this support are reflected in several investments in this 
budget. The Air Force continues to support its capability for live, 
virtual, and constructive simulation and training. Based on the Fort 
Hood follow-on review, enhancements were made to the Installation 
Emergency Management system to ensure a standardized, robust emergency 
notification system.
    For the defense mission area, the Air Force invested in additional 
network defenders to increase protection of information vital to Joint 
force operations. The Air Force continues to invest in network defense 
tools and other advanced technologies to monitor and secure classified 
and unclassified networks.
    In the offensive mission area, the Air Force seeks to field 
appropriate and sanctioned capabilities supporting assigned missions. 
The Air Force established formal training programs for both initial and 
mission qualification to provide trained forces to U.S. Cyber Command 
when tasked. Additionally, as the lead support agency to U.S. Cyber 
Command, the Air Force is responsible for the construction and 
installed infrastructure for the new U.S. Cyber Command Integrated 
Cyber Center at Fort Meade, Maryland.
                          command and control
    Command and Control (C\2\) of our forces has never been more vital 
or more difficult than in the 21st century. Supporting the National 
Security Strategy requires commanders to integrate operations in 
multiple theaters, at multiple levels, and across the full range of 
military activity. Secure strategic and nuclear C\2\ remains an Air 
Force priority. The Air Force must sustain, modify, and enhance current 
command and control systems, and develop deployable, scalable and 
modular systems that are interoperable with Joint, Interagency and 
Coalition partners.
    In fiscal year 2011, we will improve assured communication links 
for U.S. Strategic Command's Distributed Command and Control Node and 
U.S. Northern Command's National Capital Region-Integrated Air Defense 
System. The Air Force has also done the following: expanded the 
training pipelines for Joint Terminal Attack Controllers (JTACs); began 
fielding advanced video downlinks, and airborne radio and datalink 
gateways to improve the connectivity of air support operations centers 
and JTACs; and modernized the 1970s-era technology of the E-3 airborne 
C\2\ node with the Block 40/45 program. In addition, the Air Force 
created pipeline training in support of the warfighting elements of the 
Commander, Air Force Forces theater staff.
    In fiscal year 2012, the Air Force requests $6.3 billion for full 
spectrum C\2\ sustainment, replacement, and development efforts. Of 
note, $19.1 million is requested to bolster the Air and Space 
Operations Center's (AOC) C\2\ capability and interoperability with 
programmed Joint systems to execute the Integrated Air and Missile 
Defense mission. Secure and reliable strategic level communications are 
improved with a $53.2 million request for modernization to Senior 
Leader Command and Control Communication Systems for senior leader 
support aircraft and the E-4 National Airborne Operations Center. 
Support to Combatant Commanders is also enhanced with almost $60 
million in fiscal year 2012 for improved airborne and mobile C\2\ 
systems. The Air Force maintained our commitment to the Joint 
development of the Three-Dimensional Expeditionary Long-Range Radar. 
Three-Dimensional Expeditionary Long-Range Radar will be the future 
long-range, mobile ground-based sensor for detecting, identifying, 
tracking, and reporting aircraft and missiles in defended airspace. 
Additionally, the United States secured a cooperative development 
position in the NATO Airborne Warning and Control System avionics and 
navigation modernization program.
                           special operations
    Geographic Combatant Commanders and U.S. Special Operations Command 
rely heavily on Air Force Special Operations (AFSOC) capabilities to 
support missions worldwide. As the DOD continues to develop 
capabilities effective against irregular and hybrid threats, increased 
Air Force Special Operations close air support, foreign internal 
defense and ISR capabilities will be required.
    In fiscal year 2011, the Air Force will continue procurement of 
five CV-22s and MC-130Js for the recapitalization of AFSOC's MC-130E/P 
and AC-130H aircraft. The fiscal year 2012 budget request includes an 
investment of $503.7 million toward recapitalization of AFSOC's MC-
130H/W fleet, with an additional investment of $26 million across the 
FYDP to align MC-130J program funding with OSD cost estimates. 
Additional investments were made to enhance CV-22 mission capability 
with upgraded cockpit data recording and Communication Navigation 
System/Air Traffic Management modifications. Finally, a low-cost engine 
wiring modification allowed the Air Force to realize a $9.6 million 
efficiency and reduce MC-130J spare engine inventories.
                           personnel recovery
    Personnel recovery (PR) remains a vital core function in support of 
every contingency operation. The increased utilization of military and 
civilian personnel in support of OCO has significantly increased the 
demand for Air Force rescue forces beyond the conventional combat 
search and rescue mission. Air Force PR forces are fully engaged in 
Afghanistan, Iraq and the Horn of Africa, accomplishing lifesaving 
medical and casualty evacuation missions, while also supporting 
domestic civil land and maritime search and rescue, humanitarian 
assistance/disaster relief (HA/DR) and mass casualty evacuation 
missions.
    In fiscal year 2011, the Air Force will continue to recapitalize 
HC-130N/P aircraft and procure H-60 Blackhawk helicopters under the 
operations loss replacement (OLR) program to restore the fleet to 112 
HH-60G aircraft. The fiscal year 2012 request funds four HH-60G OLR 
aircraft, and provides a $2 billion investment for procurement of 54 
HH-60 replacement aircraft across the FYDP. We will also accelerate the 
procurement of our HC-130J rescue/tanker aircraft by procuring three 
aircraft in fiscal year 2012 to replace the 1960s-era HC-130P fleet on 
a one-for-one basis, up to 37 aircraft. Finally, the fiscal year 2012 
budget funds $73 million for the Guardian Angel program which will 
standardize and modernize mission essential equipment for an additional 
five pararescue teams.
                         building partnerships
    Developing mutually beneficial partnerships with militaries around 
the world is vital for the Air Force. Successful partnerships ensure 
interoperability, integration and interdependence between Coalition 
forces while providing our partner nations the capability and capacity 
to resolve their own national security challenges. Today's engagements 
require Airmen to perform their duties effectively and achieve 
influence in culturally complex environments around the globe.
    The Air Force continues to emphasize extensive language skills and 
regional knowledge in its growing cadre of Regional Affairs 
Strategists. These personnel possess a regionally focused advanced 
academic degree and language proficiency. They work with partner 
nations as attaches and Security Cooperation Officers. Political-
Military Affairs Strategists and best-fit officers also fill positions 
requiring in-depth understanding of the interagency processes key to 
building partnerships. The Air Force has also increased the culture and 
language content of selected pre-deployment training courses and 
recently inaugurated a new language learning program--the Language 
Enabled Airman Program. This program provides an opportunity to create 
a cadre of language-capable Airmen who are deliberately developed for 
requirements, leverages the capability attained in foreign language 
accession programs, and provides a systemic opportunity for these 
Airmen to maintain these skills throughout their careers. Our fiscal 
year 2012 budget request includes funding to expand foreign language 
instruction for officer commissioning programs as well.
    The Air Force continues to engage our international partners across 
the spectrum of operations. The fielding of the F-35, Joint Strike 
Fighter, will further our partnerships with more established allies, 
while the three C-17s procured for the 12-nation Strategic Airlift 
Capability are fully operational and currently meeting the airlift 
requirements of our European allies. We are funding new initiatives 
which support longer term Building Partnerships Capacity (BPC) efforts. 
For instance, $65.7 million was budgeted toward the procurement of 15 
Light Mobility Aircraft (LiMA) to assist partner nations in building 
their airlift capability in fiscal year 2011. These aircraft are 
scheduled to be fielded and achieve initial operating capability (IOC) 
in the second quarter of fiscal year 2012. We are also requesting $159 
million in fiscal year 2012 to procure the first nine of 15 Light 
Attack/Armed Reconnaissance (LAAR) aircraft. These LAAR aircraft will 
be used to train a cadre of pilots who will subsequently export their 
BPC aviation skills to international partners who may operate the same 
or similar platforms. To ensure the proper capability is provided to 
build partner capacity by Contingency Response Forces, LiMA and LAAR 
personnel, we funded the formal establishment of an Air Advisor Academy 
in fiscal year 2011 to expand our current efforts that include training 
air advisors heading to Iraq and Afghanistan and training air advisors 
for engagements globally. English language proficiency is a 
prerequisite to nearly all of the education and training that the 
Services provide to our partner nations. To meet increasing partner 
demand for English language training, the fiscal year 2012 Air Force 
program expands the capacity at the Defense Language Institute English 
Language Center.
                          agile combat support
    Underpinning the work of all Air Force Core Functions are the 
capabilities included in agile combat support (ACS). ACS is the ability 
to create, protect, and sustain air and space forces across the full 
spectrum of military operations and spans a diverse set of Air Force 
functional capabilities. The fiscal year 2012 budget request of $33.8 
billion for ACS accounts for efforts affecting our entire Air Force--
from the development and training of our Airmen to regaining 
acquisition excellence.
    Airmen and Families.--The Air Force is proud of its commitment to 
supporting its Airmen and families. The nearly two decades of sustained 
combat operations has imposed extraordinary demands on them and 
underscores the need to remain focused on sustaining quality of life 
and supporting programs as a top priority. To help address the demands, 
in 2010 the Air Force executed the Year of the Air Force Family and 
highlighted support programs focused on three outcomes: Fostering a 
Strong Air Force Community; Strengthening an Airman's Sense of 
Belonging; and Improving Airman and Family Resiliency.
    The Year of the Air Force Family deepened leadership's 
understanding of current support services and capabilities and what 
needs to be done in the future to maintain and improve outcomes in the 
three primary focus areas.
    First, the Air Force will maintain an enduring emphasis on Airmen 
and families by actively engaging the entire Air Force Community: Total 
Force Airmen, Department of the Air Force civilians, single and married 
personnel, primary and extended family members, retirees, and on and 
off-base community partners. The Air Force will maintain an atmosphere 
that is supportive, team-oriented, and inclusive, but diverse enough to 
meet the current and emerging needs of the entire Air Force Community. 
Policy and process priorities have been translated into actions and 
tasks that will be accomplished over the next few years, perpetuating 
the Air Force's commitment to strengthening our ties to one another, 
improving our operational abilities and ensuring our Air Force 
Community is best positioned to meet future commitments and 
requirements.
    Second, we continue to strengthen our Air Force Community by 
expanding child care through different programs such as the Extended 
Duty Program, Home Community Care, Missile Care, and the new 
Supplemental Child Care initiative to provide flexibility in meeting 
child care needs. In fiscal year 2011, the Air Force will continue to 
demonstrate our commitment to military child education, funding full 
time School Liaison Officers (SLO) Air Force-wide. SLOs and our new Air 
Force Exceptional Family Member Program Coordinators will work in close 
collaboration to address educational and other assistance for families 
with special needs. The Air Force fiscal year 2012 budget request 
includes $4 million to assist with respite child care for military 
family members with special needs children.
    Third, the budget reflects a $4.4 million increase to our Air Force 
Mortuary Affairs program, supporting travel for family members from 
home of record to Dover Port Mortuary to receive and honor fallen loved 
ones. Increases also reflect our commitment to maintaining the Port 
Mortuary's Center for the Families of the Fallen, used as the reception 
facility and host site for visiting family members at Dover Air Force 
Base, Delaware.
    Airman dining facilities remain an important commitment of the Air 
Force as we plan to increase funding for dining facilities at basic 
military training and technical training bases by $14.9 million in 
fiscal year 2012. In fiscal year 2011, we launched the Food 
Transformation Initiative (FTI) to address Airmen's concerns with 
dining facility closings, lack of healthy food options, and 
insufficient hours of operation. FTI is designed to enhance food 
quality, variety and availability while maintaining home base and 
warfighting capabilities.
    The Air Force continues to expand our efforts to improve resiliency 
of Airmen and their families before, during, and after deployments and 
has significantly expanded capabilities to ensure support and 
reintegration of our Total Force. In continuing its efforts to improve 
the resiliency of Airmen and their families, the Air Force moved 
forward with several initiatives in 2010.
    We established a new Resiliency Division at the Air Force level to 
take the lead and develop an overarching Air Force Resiliency Roadmap. 
The Deployment Transition Center (DTC) was established at Ramstein Air 
Base, Germany on July 1, 2010. The DTC and Chaplain Corps Care for the 
Caregiver programs provide valuable decompression, reintegration and 
resiliency training for those exposed to significant danger and stress 
in combat zones. To support these efforts, the Air Force fiscal year 
2012 budget request includes $8 million for the Air Force Resiliency 
Program for research, curriculum development, materials and 
intervention training for the DTC. We will continue to develop our 
Airman Resiliency Program by identifying needs, researching best 
practices, partnering with internal and external organizations, and 
developing targeted and tiered training that is integrated into an 
Airman's career to allow a building block approach that leads to life-
long resiliency that benefits both Airmen and their families. We are 
also requesting an increase in the Chaplain Recruitment program by $1.5 
million in fiscal year 2012 to better provide for religious 
accommodation and support of Airmen. This includes chaplain-led 
MarriageCare Retreats, that help heal and save marriages, and 
deployment reintegration programs expanded to meet the needs of 
redeploying Airmen.
    The Air Force is highly committed to the Wounded Warrior Program 
that ensures access to medical and rehabilitation treatments for the 
ill and wounded. The Air Force Warrior and Survivor Care Division is 
dedicated to building a culture of understanding and concern for 
wounded, ill and injured Airmen. The Air Force has hired 33 Recovery 
Care Coordinators and a Program Manager to support 31 locations across 
the Air Force. Recovery Care Coordinators serve as the focal point for 
non-clinical case management, development of comprehensive recovery 
plans and creation of timelines for personal and career 
accomplishments. Additionally, the Air Force has implemented new 
personnel policies regarding retention, retraining, promotions, 
assignments and evaluation of Wounded Warriors. In fiscal year 2012, 
the Air Force is requesting $2.8 million for additional case workers 
and program managers to provide non-clinical case management services 
to meet the growing demands of the Wounded Warrior population.
    Healthcare Initiatives and Costs.--As key team members of the 
Federal and Military Health System (MHS), the Air Force Medical Service 
(AFMS) is seeking innovative solutions to deliver world class care 
while slowing the rising costs of healthcare. For example, the AFMS is 
taking the lead in building the largest patient centered medical home 
capability in the DOD over the next 12 months. This includes the Family 
Health Initiative, designed to improve continuity of care and healthier 
outcomes. Additional emphasis is being placed on delivering better care 
by streamlining our hospital surgical operations and improving the 
experience of care. Current efforts have demonstrated recapture of 
services in key market areas with the overall results of reduced cost, 
increased currency of our surgeons, and improved patient satisfaction. 
In addition, the AFMS is transitioning from healthcare delivery to 
delivering health. Through patient-centered care, improved teamwork 
with our patients, and leveraging partnerships with DOD, VA and 
civilian institutions, Air Force medicine is shaping the future of 
healthcare.
    Our strategy to control DOD healthcare costs is the right approach 
to manage the benefit while improving quality and satisfaction. 
Adjustments to the benefit such as raising TRICARE enrollment fees for 
working retirees, phasing out enrollment for some high-cost health 
plans, paying community hospital Medicare rates, and incentivizing the 
use of the most effective outlets for prescriptions is prudent. There 
will be limited impact (prescription only) on active duty family 
members. By implementing these important measures, we will be able to 
positively address the rising costs of healthcare and improve the 
health of our population.
    Suicides.--Air Force suicide rates have been on the rise since 
2007, although primary risk factors for suicide among Airmen remain the 
same. The most commonly identified stressors and risk factors have 
remained the same over the last 10 years: relationships, financial 
problems and legal problems. Although deployments can stress Airmen and 
their families, deployment does not seem to be an individual risk 
factor for Airmen--many Airmen who have committed suicide have never 
deployed. The Air Force is providing additional support to our most at-
risk Airmen by providing additional frontline supervisor suicide 
prevention training to all supervisors in career fields with elevated 
suicide rates. In addition, mental health providers are based in 
primary care clinics across the Air Force to counsel patients who may 
not otherwise seek care in a mental health clinic because of the 
perceived stigma. The Air Force has significantly expanded counseling 
services in addition to those available through the chaplains or the 
mental health clinic.
    Other helpful programs that provide non-medical counseling include 
Military Family Life Consultants, which can see individuals or couples, 
and Military OneSource, which provides sessions for active duty for up 
to 12 off-base sessions.
    Fort Hood.--In the wake of the Fort Hood shooting, the Secretary of 
Defense directed the Air Force to conduct a follow-on review to 
identify ways to better protect Airmen and families. Our review yielded 
118 findings and 151 recommendations. The key revelation of the study 
is that we must do a better job of preventing and responding to 
violence. Specifically, we must improve our ability to identify 
indicators of potential violence and share that information with those 
who are best positioned to prevent a violent outcome. This will require 
improved understanding, education, processes and training, as well as 
more integrated processes at both the installation and interagency 
levels. To undertake these efforts, the fiscal year 2012 budget request 
includes $37 million across the FYDP. We anticipate that our resource 
requirements will increase as we refine the implementation of our 
recommendations. We are confident that the resources Congress provides, 
coupled with our sustained effort, will help the Air Force reduce the 
likelihood of tragedies like Fort Hood and position us to respond more 
effectively should prevention fail.
    Information Protection.--The Air Force will enhance its 
capabilities to assess and mitigate risks to national security 
information across the enterprise. It will advance efforts to identify 
risks that reduce the surety of research, development, and acquisition 
and operations or enable potential opponents to illicitly increase 
their technological capabilities. These efforts will enable commanders 
to effectively execute intelligence-led, risk based protection across 
the Air Force.
    Science and Technology.--Air Force warfighting capabilities have a 
proud heritage of being born from the very best science and technology 
(S&T) our Nation can produce. The creation of the Air Force is closely 
intertwined with the development of advances in S&T. In 2010, the Air 
Force presented the ``Technology Horizons Study'' to serve as a roadmap 
for guiding Air Force science and technology investments during the 
next 20 years. Despite current fiscal constraints, the Air Force is 
increasing its investment in basic research by $18 million and in 
Advanced Technology Development by $76 million, while continuing fiscal 
year 2011-level investment in Applied Research.
    Acquisition Excellence.--The Air Force continues to strive for 
acquisition excellence by increasing the rigor and transparency of its 
processes and by stabilizing requirements and funding. As one of our 
top five Air Force priorities, we have taken a multi-faceted approach 
to recapturing acquisition excellence to include:
  --Rebuilding the acquisition workforce;
  --Delivering a fully implemented Acquisition Improvement Plan (AIP) 
        to guide and shape current and future efforts;
  --Creating a foundation for a robust Continuous Process Improvement 
        (CPI) function within acquisition; and
  --Implementing approximately 75 efficiency initiatives that range in 
        scope and impact throughout the acquisition enterprise.
    Continued improvements support moving resources from ``tail to 
tooth'' to fully support the Air Force's direct mission activities. 
Efficiency savings in overhead, support and other less mission-
essential areas will increase funding available for our critical 
mission functions. The Air Force, as a good steward of taxpayer 
resources, is committed to delivering products and services that 
perform as promised--on time, within budget, and in compliance with all 
laws, policies and regulations.
    An example of the successful implementation of recapturing 
acquisition excellence is the consolidation of fiscal year 2008 OCO, 
fiscal year 2009 OCO and base-year funding, fiscal year 2010 base-year 
funding, and Foreign Military Sales C-130J contracts into one 
negotiation. By taking advantage of economies of scale, the Air Force 
realized a savings and was able to procure two additional C-130Js. This 
effort reduced the number of aircraft the Air Force needs to buy in the 
out-years to meet its requirement.
    Installations and Operational Energy.--The Air Force views energy 
efficiency as a mission enabler that can increase combat effectiveness, 
expand reach and minimize operational risks. The Air Force is 
integrating energy considerations across the Air Force enterprise with 
a three-pronged approach: reduce demand, increase supply, and culture 
change. We can identify efficiencies that increase our capabilities and 
reduce our costs, while also increasing and diversifying our energy 
supply to improve our energy security and our ability to meet our 
critical operational requirements. Finally, by creating a culture that 
makes energy a consideration in everything we do, and that values 
energy as a limited mission-critical resource, we ensure enduring and 
far-reaching utilization improvements and savings.
    As part of our institutional effort to utilize energy to maximize 
mission effectiveness, the Air Force is requesting over $550 million 
for energy initiatives in fiscal year 2012. Initiatives include 
investments in reliable alternative energy resources, enhancing energy 
efficiency, and reducing environmental impacts and life cycle costs. In 
addition, the Air Force is continuing to take steps to reduce mission 
risk by increasing critical infrastructure resiliency to ensure 
reliable energy availability at Air Force installations.
    We have reduced energy use at facilities by nearly 15 percent since 
2003, and expect to achieve nearly a 30 percent reduction by 2015. In 
addition, we have instituted a number of fuel saving initiatives and 
reduced the amount of fuel our aircraft have consumed by over 46 
million gallons since 2006, despite increased operational requirements 
associated with ongoing operations. The Air Force is continuing to 
explore opportunities to reduce demand for aviation fuel. For example, 
the 618th Tanker Airlift Control Center is optimizing flying routes by 
working clearances to allow flights to transit through previously 
denied airspace. We can save the Air Force an estimated 2.6 million 
gallons of fuel per year by optimizing our flight routes and 
clearances. Some of the initiatives we will pursue to achieve fuel 
efficiencies are:
  --Providing aircrews in-flight guidance on the optimum airspeed and 
        altitude based on current flight conditions;
  --Expanding the use of simulators to conduct training;
  --Implementing a program, already an industry standard, that cleans 
        components allowing the engine to run cooler saving fuel and 
        prolonging engine life; and
  --Refining fuel and cargo policies to reduce carrying costs and 
        potentially the number of missions required to support the 
        Combatant Commanders.
    We are also increasing the energy supplies we can use to meet our 
mission. We have certified over 99 percent of our aircraft fleet for 
unrestricted operational use of a synthetic aviation fuel blend. This 
fuel can be produced domestically, and we are looking to industry to 
help us meet our needs. We are in the process of certifying our fleet 
to use biofuel blends as well. These alternatives provide our fleet 
with additional flexibility and enable our freedom of action. The Air 
Force is also looking at alternative sources for energy at our 
facilities. In the upcoming years, we will quadruple on-base solar 
energy production and dramatically increase the amount of wind energy 
consumed. These clean sources of energy will serve to enhance our 
energy security.
    The Air Force is working cooperatively with the Army and the 
Marines to reduce fuel requirements at forward operating bases by 
decreasing energy demand, utilizing efficient power distribution and 
increasing alternative supplies. These bases require generators, 
typically running on diesel, that require fuel to be brought in by 
convoy. We are working to improve the energy efficiency of our Basic 
Expeditionary Airfield Resources assets, commonly called BEAR, in the 
expeditionary environment. One of the Air Force's efforts is focused on 
reducing the energy demand for expeditionary shelters by 50 percent, 
while using photovoltaic tent flys to generate a minimum of three 
kilowatts per shelter. We are also working with industry to design a 
portable, expandable microgrid for our remote airfields. The system 
will integrate solar, wind and other renewable sources of energy into 
the existing BEAR power grid, reducing the system's reliance on 
traditional, carbon-based fuel by as much as 25 percent. It will be 
able to withstand the harsh conditions in which our military operates. 
More importantly, it will help reduce the inherent wartime dangers that 
come with delivering the fuel by convoy.
    We have made significant and positive progress in reducing our 
consumption, increasing the energy available to the operational Air 
Force and changing the culture within the Air Force to ensure energy is 
a consideration in everything we do. Energy availability and security 
impact all Air Force missions, operations and organizations. The Air 
Force will increase warfighting capabilities, and efficiency, and help 
the Nation reduce its dependence on imported oil by continuing to 
ensure energy availability and re-engineering our business processes to 
become more efficient.
    Reducing Excess Physical Plant and Infrastructure.--The fiscal year 
2012 budget request includes a $300 million demolition and $100 million 
consolidation investment to reduce long-term fixed costs through the 
consolidation and demolition of unneeded facilities and infrastructure. 
In line with the June 10, 2010 Presidential memorandum, the Air Force 
intends to reduce energy use and curtail unnecessary sustainment 
activities by eliminating physical plant that is no longer needed.
    Military Construction.--The Air Force's fiscal year 2012 $1.4 
billion Milcon request provides funding for our most critical 
requirements including new construction aligned with weapon system 
deliveries and the Combatant Command priorities. This includes projects 
supporting beddowns and upgrades for F-22, F-35, HC-130J, EC-130H, RPA 
and B-52, as well as projects supporting our mission support facilities 
most in need of recapitalization. The Air Force Milcon program supports 
the U.S. Strategic Command Headquarters replacement facility in three 
increments beginning in fiscal year 2012, the new U.S. Cyber Command 
Headquarters in fiscal year 2013, an additional phase of the Blatchford 
Preston Dormitory Complex at Al Udeid, Qatar, and an air freight 
terminal on Guam.
    Additionally, the budget request sustains our effort to provide 
quality housing for Airmen and funds $254 million in improvements to 
meet DOD performance standards to provide 90 percent of our permanent 
party dorm rooms in good or fair (Q-1 or Q-2) condition. The Air Force 
investment strategy is to fund improvements in all Q-3 and Q-4 dorms, 
referred to as Tier 1 dorms in the 2008 Dorm Master Plan, by 2017.
    The Air Force recognizes the critical role Milcon holds in 
successful mission execution and is taking action to increase Milcon 
funding in the near years of the FYDP--the Air Force proposes to 
increase Milcon in fiscal year 2012, fiscal year 2013, and fiscal year 
2014 by a combined $1.8 billion over the fiscal year 2011 PB 
submission.
    Finally, in an effort to ensure the most critical mission and 
infrastructure projects are funded first, the Air Force used asset 
management and efficient facility operations processes to evaluate 
Milcon requirements. In essence, the Air Force is considering how these 
projects and programs help reduce our out-year investment needs as part 
of our overall cost control strategy.
    Logistics.--WSS is a vital element in sustaining Air Force 
readiness. The Air Force faced a $7 billion increase in WSS 
requirements across the FYDP at the beginning of the fiscal year 2012 
budget cycle, largely due to increasing numbers of weapon systems, such 
as C-17, F-22 and MQ-1/9 aircraft that use contractor logistics 
support. We recognized that we cannot sustain that kind of growth in 
requirements, so we implemented a WSS end-to-end assessment to identify 
efficiencies with respect to supply chain management, centralized asset 
management, and depot performance.
    We were able to reduce WSS investment from $7 billion to $4 billion 
through efficiencies in depot and supply chain processes identified in 
the assessment. While we will still experience growth, this $3 billion 
FYDP offset represents important savings that the Air Force applied 
elsewhere. Prior to the WSS end-to-end assessment, the sustainment 
funds requested in fiscal year 2012 would have supported 80 percent of 
the WSS requirement. Following the assessment, and the resulting 
reduction in growth, the same amount of funds requested will actually 
support 84 percent of the fiscal year 2012 WSS requirement.
    While the peacetime flying hour program is fully funded, 
reprogramming may be necessary to cover increased fuel costs due to the 
volatility of fuel prices. Over the longer term, enactment of the DOD's 
legislative proposal for the Refined Petroleum Products Marginal 
Expense Transfer Account would reduce disruptions to operations and 
investment programs by providing the flexibility to meet fuel price 
fluctuations.
    The Air Force is successfully fielding a pilot of the first 
increment of the Expeditionary Combat Support System (ECSS). We will 
conduct an independent cost estimate as part of, and in conjunction 
with, the ongoing Critical Change Review to assess the cost 
effectiveness of proceeding with additional ECSS releases that support 
retail and wholesale supply and depot maintenance activities. The Air 
Force will continue to maintain legacy logistics support systems while 
determining the best course of action for developing information 
technology tools to enhance the visibility and management of supplies 
and equipment.
    Financial Improvements.--The Chief Financial Officers' Act provides 
direction for achieving a clean audit through leadership commitment, 
modernized government financial management systems, and strengthened 
financial reporting. Sound financial management helps to ensure the 
maximum combat capability for each taxpayer dollar. The Air Force is 
committed to achieving the legislative requirement for a clean audit by 
2017. While 2017 is a challenging deadline for a military organization 
as large and diverse as the Air Force, the strong engagement of Air 
Force leadership, additional financial resources provided in recent 
years, and focus on fielding effective financial systems will help 
achieve it. We are focusing our efforts on the information most 
relevant to decision makers, and the Air Force Financial Improvement 
Plan is closely aligned with the DOD strategy to achieve a clean audit.
    Strategic Basing.--In 2009, the Air Force established a 
standardized, repeatable, and transparent Strategic Basing Process. 
Guided by the Strategic Basing Executive Steering Group and coordinated 
through the lead Major Commands, over 115 basing actions have been 
accomplished ensuring that mission and Combatant Commander requirements 
are linked to installation attributes that identify those locations 
that are best suited to support any given mission. This process 
supports IOC, aircraft delivery, personnel movement, and other mission 
requirements. Recent improvements in the process have formalized 
actions to expedite simple, specialized or particularly time-sensitive 
basing initiatives, to support more timely decisions.
    During 2011, the Air Force will utilize the Strategic Basing 
Process to support basing decisions for the MQ-1/9, LiMA, LAAR, and KC-
X.
    In developing our fiscal year 2012 budget request, we looked at 
ways to maximize combat capability out of each taxpayer dollar by 
identifying waste, implementing efficiencies, pursuing continuous 
process improvement initiatives and making smart investments. 
Recognizing the need to shift resources from ``tail to tooth,'' the Air 
Force identified efficiencies across the enterprise that will enable 
investments in enhancements to increase our warfighting capabilities. 
This includes the continued pursuit of cost-effective systems that 
leverage existing capabilities and maximize interoperability and 
integration of legacy and future systems.
    Our ability to project Global Vigilance, Reach, and Power is 
constrained by the increasing costs to design and build platforms in a 
particularly challenging budget environment. Our fiscal year 2012 
budget request reflects the difficult choices that will allow the Air 
Force to provide the necessary capability, capacity, and versatility 
required to prevail in today's wars, prevent and deter conflict, 
prepare to defeat adversaries and succeed across the range of potential 
military operations--all the while preserving and enhancing the all-
volunteer force.
    We are confident in our Airmen. They are the best in the world, and 
we rely on them to meet any challenge, overcome any obstacle and defeat 
any enemy as long as they are given adequate resources. We are 
committed to excellence and we will deliver with your help. We ask that 
you support the Air Force budget request of $119 billion for fiscal 
year 2012.

    Chairman Inouye. And now, General Schwartz.
STATEMENT OF GENERAL NORTON A. SCHWARTZ, CHIEF OF STAFF
    General Schwartz. Mr. Chairman, Senator Cochran, and 
members of the subcommittee, I am privileged to be here today 
with Secretary Donley, representing the men and women of our 
United States Air Force.
    Our airmen continue to inspire us with their dedication and 
their service, quietly and proudly serving alongside their 
Army, Navy, Marine, and Coast Guard teammates. Every day airmen 
act on behalf of the American people as stewards of the 
Nation's trust and defenders of her security.

                    FULL SPECTRUM OF AIR OPERATIONS

    This budget request, fully appreciating the Nation's 
extraordinary fiscal conditions, supports our airmen and our 
continuing efforts to structure the force for maximum 
versatility and the full spectrum of operations. This includes 
humanitarian relief operations in Japan, where several hundred 
airmen and Air Force civilians have deployed, with more on the 
way, to assist 13,000 Air Force personnel already stationed in 
Japan. Along with their joint and interagency teammates, they 
are all working hard to provide some measure of comfort to the 
victims of multiple concurrent disasters.
    In the immediate aftermath, airmen at Yokota Air Base 
received a dozen or so commercial aircraft and more than 500 
passengers that were bound for Narita International Airport in 
an ongoing support to Operation Tomodachi, they continue to 
receive more than triple the average amount of aircraft on 
their flight line.
    Members of the 33d Rescue Squadron from Kadena Air Base in 
Okinawa continue to partner with their Japanese self-defense 
force counterparts to conduct search and rescue operations, 
while teammates from the 352d Special Operations Group, also 
from Kadena, work to open a couple of hard hit airfields, 
including Sendai and Matsushima.
    For the world--the wide angle view, RQ-4 Global Hawks and 
the U-2 aircraft continue to gather imagery of the devastation, 
while WC-135s operate in international airspace to collect 
atmospheric data to support ecological awareness efforts.
    Airmen who provide inter- and intra-theater airlift 
capability have transported more than 900 passengers, including 
aeromedical patients, and delivered more than 5 million pounds 
of cargo via C-17s, C-130s, and other airborne assets, while on 
the ground, other airmen have contributed to transport and 
deliveries of critical supplies and equipment.
    Meanwhile, in North Africa, B-2 bombers from Whiteman Air 
Force Base in Missouri led U.S. strikes on a variety of 
strategic targets, for example, military command and control 
sites as well as air defense systems, that posed a direct 
threat to Libya civilian population and partner nation forces.
    Other Air Force assets, F-15Es and F-16 CJs, along with a 
multitude of AWACs, tankers, and other support aircraft, joined 
coalition aircraft from Britain, France, and others to help 
gain control of the airspace, establish a no fly zone over 
Libyan opposition forces, and protect Libyan citizens from any 
further harm from Moammar Gadhafi's regime. The Joint Task 
Force Odyssey Dawn leaders closely monitor the situation and 
ensure close coordination and transition to our NATO allies. 
Airmen stand ready to continue supporting the enforcement of 
U.N. Security Council Resolution 1973 by providing unique air 
and space power for United States, allied, and coalition 
forces.

        OPERATING UNDER FISCAL YEAR 2011 CONTINUING RESOLUTIONS

    As you can see, airmen and their joint teammates are doing 
tremendous work on behalf of the American people, and we would 
be remiss to allow current budgetary pressures to adversely 
affect their performance and their safety. I, therefore, echo 
Secretary Donley's concerns about operating under a continuing 
resolution. Without a fiscal year 2011 Defense appropriations 
bill, we will have to further reduce flying hours, cancel 
training and exercise opportunities, delay or cancel weapon 
system sustainment and depot maintenance activities, and 
disrupt a multitude of other day-to-day activities.
    Current reductions to the President's budget request not 
only create inefficiencies that basically reverse the 
efficiency measures that Secretary Gates has directed, they 
adversely affect military readiness and performance as well.
    We appreciate your efforts to pass a Defense appropriations 
bill to provide for the critical needs for our uniformed men 
and women.
    Airmen are committed to the task of leveraging the air and 
space power with all of its inherent versatility, and 
presenting to the President and the national leadership a range 
of strategic options to meet the following national military 
objectives: countering violent extremism, deferring and 
defeating aggression, strengthening international and regional 
security, and shaping the future force.

                      COUNTERING VIOLENT EXTREMISM

    To counter violent extremism, airmen continue to make vital 
contributions to our Nation's strategic objective of 
disrupting, dismantling, and defeating Al Qaeda and its 
affiliates, and inhibiting their return to former sanctuaries. 
More than 42,000 airmen--approximately 6 percent of our force--
are forward deployed worldwide. Of this group, nearly 30,000 
are on a continually rotating basis to directly contribute to 
operations in the U.S. Central Command area of responsibility, 
including nearly 11,000 airmen in Afghanistan providing close 
air support, air mobility, personnel rescue, air medical 
evacuation, leadership of provincial reconstruction teams, and 
training to develop our partner air force.
    In direct support of combatant and command requirements, we 
have 57,000 total force airmen--or about 11 percent of the 
force--who were forward stationed overseas, as well as 
approximately 218,000 airmen, or some 43 percent of the Air 
Force force--who stand nuclear alert, operate our satellites, 
process intelligence, surveillance, and reconnaissance data, 
and do much, much more.
    To deter and to defeat aggression, we maintain vigilance 
across the entire spectrum of conflict, from our recent 
experience in counter insurgency operations, to more 
traditional roles of air mobility and precision strike.
    At the upper end of the continuum, we continue to provide 
two of the Nation's three arms of nuclear deterrence with 
steadfast excellence, precision, and reliability.
    And across the remainder of the operational spectrum, we 
will maintain robust conventional deterrence by building on our 
comprehensive portfolio of air, space, and cyber capabilities, 
with multirole systems that can flex to fulfill different 
warfighting requirements.

           STRENGTHENING INTERNATIONAL AND REGIONAL SECURITY

    To strengthen international and regional security, we will 
translate air power's inherent versatility and ability to 
traverse vast distances with unmatched speed, ensuring U.S. 
forces are globally available, yet tailored to be regionally 
focused. And we will continue to coordinate efforts to build 
international partner capabilities, which can help prevent 
lower intensity problems from escalating into full-scale 
crises. For instance, nearly 300 airmen are deployed as members 
of the Iraq Training and Advisory Mission Air Force, supporting 
the development of counterpart capabilities in some 425 
specialties. Similarly, airmen supporting combined Air Power 
Transition Force not only advise and train Afghanistan airmen, 
they help to set the conditions for a viable and self-
sustaining Afghan national army/air force to meet a range of 
security requirements.
    Finally, to shape the future force we will work hard to 
ensure readiness, training, and equipage because mission 
success relies on resilient airmen as much, if not more, than 
on weapons systems.

                  CARING FOR AIRMEN AND THEIR FAMILIES

    Airmen are the lifeblood of our Air Force, to whom we owe 
our fullest commitment--particularly our wounded warriors and 
their families. And during this time of sustained and frequent 
deployments, we will bolster our capacity to assist our airmen 
in managing both the obvious and the less obvious challenges of 
returning home from war.
    We intend to continue to progress since July when we 
established the Deployment Transition Center at Ramstein Air 
Base in Germany. Nearly 1,200 personnel have attended programs 
to decompress and begin their healthy reintegration into family 
life and unit of assignment. And we will further strengthen our 
efforts to develop the Air Force Resiliency Program in its 
ongoing assessment of the fitness of the Force, which will 
inform our continued efforts to improve quality of 
comprehensive support services.

                    CONTROLLING DOD HEALTHCARE COSTS

    In closing, I'd like to affirm my personal support for 
efforts to better control the cost of DOD healthcare. I respect 
and I celebrate the service and sacrifice of our retirees. They 
are, and always will be, honored members of the Air Force 
family. But I do believe that current DOD proposals are both 
modest and responsible.

                               CONCLUSION

    Mr. Chairman and subcommittee members, the Air Force 
remains committed to providing global vigilance, reach, and 
power for America's requirements today and for her challenges 
tomorrow. Thank you for your continued support of the United 
States Air Force and for our airmen and their families.
    Sir, I look forward to your questions.
    Chairman Inouye. All right. Thank you very much, General 
Schwartz.

                         NEW PENETRATING BOMBER

    I'd like to begin the questioning with a question on the 
new penetrating bomber. When is the initial operating 
capability planned for this aircraft?
    Mr. Donley. We estimate initial operating capability in the 
mid-2020s, Mr. Chairman. This is a very important initiative 
for us.
    Chairman Inouye. And how many do you plan to acquire?
    Mr. Donley. Between 80 and 100 is the target. This program 
is very much focused on affordability and poised for technical 
success, lower technological risk. We plan on taking advantage 
of existing technologies and other programs that are mature, a 
streamlined management process, and a strict limitation on 
requirements for the system going forward as ways to control 
cost curves and to keep it on schedule.
    Chairman Inouye. To the extent possible, realizing this is 
not a classified hearing, can you describe this new penetrating 
bomber's capabilities?
    General Schwartz. Mr. Chairman, the platform we envision 
would be a nuclear capable, optionally manned in either 
remotely or piloted variants, as the case may be, and it will 
be part, sir, of a family of systems. This will not be a lone 
wolf platform. It will be a platform that is part of the family 
of systems that includes direct and stand-off munitions, that 
includes intelligence, surveillance, and reconnaissance 
capabilities, that includes electronic attack capabilities, not 
necessarily all on board the aircraft, but provided, again, in 
a family of systems of context.
    Chairman Inouye. Mr. Secretary, General, thank you very 
much.
    The word efficiency has been used quite a bit today. When 
you do feel that you have realized this efficiency?

                      REALIZATION OF EFFICIENCIES

    Mr. Donley. Well, Mr. Chairman, the effort to identify 
lower priority programs and activities and to wring out greater 
productivity and efficiency in our organizations and how we 
manage our acquisition process and other dimensions, was a 
major focus for the Department of Defense, including the Air 
Force, at the end of last year. So the $33 billion that we have 
identified has been moved inside our future year defense 
program for over the next 5 years. So it is spread out over the 
5 years. We are tracking it in about 12 different categories, 
and each of those categories has a lead senior official, a 
general officer, or a Senior Executive Service (SES) senior 
civilian, who is tracking the progress of that work. And much 
of that work has already started. We are already down the track 
of restructuring our air operations centers, and we are in the 
process of making decisions on collapsing and combining some of 
our headquarters activities.
    The acquisition community has already booked in excess of 
$600 million in savings from tougher negotiations and smarter 
management of our acquisition programs. So these are--also fuel 
is a major issue for us. We have booked about $700 million in 
savings across the--on more efficient operational and 
infrastructure practices to get savings from fuel.
    Chairman Inouye. In bringing about this efficiency program, 
do you work together with other services because you are part 
of a team?
    Mr. Donley. We are working with other services. Sometimes 
we are taking best practices, if you will, from other services 
and bringing them over. In the case of, for example, the 
evolved expendable launch vehicle (EELV), we have worked 
carefully with the National Reconnaissance Office and NASA to 
get a stable investment--in that case, an investment rather 
than an efficiency, but to control costs and get a stable 
industrial base for the EELV program. So, that has been a focus 
of cross-agency work, to get the best value for the taxpayer 
across the full scope of government interaction with that 
contractor.
    Chairman Inouye. In describing the light attack on 
reconnaissance plane, you spoke of building partnership 
capacity. What do you mean by that?

             BUILDING PARTNERSHIPS WITH EMERGING AIR FORCE

    General Schwartz. Mr. Chairman, many air forces we interact 
with can operate--have the sophistication and the resources to 
operate F-16 equivalent aircraft or C-17 equivalent aircraft. 
But the reality is, is that many nascent air forces around the 
world with whom we want to establish a relationship, that are 
strategically important, cannot afford and do not have the 
level of technical expertise yet to operate those kind of 
aircraft. And so, it is a recognition of that reality that we 
need to be able to interact with them with something that is 
not quite what we routinely operate in our own Air Force.
    And, therefore, both on the lift side and on the light 
strike side, we are proposing to field modest aircraft that 
will enable us, again, to train with and advance these nascent 
air forces in a more resource conservative way that can be 
sustained by these nations.
    And in the process, Mr. Chairman, what we do is not just 
airplane stuff, but this is really about the whole of what an 
air force does, from operating air fields, to having 
engineering capacity, to how you care medically for aviators 
and others, and air traffic control, and logistics. These are 
the things that enable an air force to fulfill national 
taskings, and this is what we are talking about when we address 
building partner capacity.
    Chairman Inouye. All right. Thank you very much. My time is 
up.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, I am pleased to join you in 
thanking the leadership of the Air Force for the excellent job 
they are doing.
    And I wonder, is it a concern to you that we may be trying 
to do too much, given the current economic realities that have 
changed the price of fuel, the cost of operations, maybe 
realignment of foreign governments, resource allocations to its 
military forces? Is it time to sit back or step back and take a 
new look at our obligations that we are assuming and that we 
are asking you to perform, and say, hey, wait a minute, you 
know, we really need to start cutting back in some areas that 
have been perceived to be immune from cuts or sacrosanct for 
whatever reasons for morale. A pilot we know is not going to be 
interested in staying in the Air Force for a career if there is 
not going to be any flying hours, or if the equipment and 
material that they are given to use and operate is dangerous 
because of lack of repair and that kind of thing.
    Have we gotten to a point where we need to take a hard look 
at some of these huge dollar amount costs that are 
skyrocketing, and we are just keeping on flying right up into 
the ionosphere with them? I worry about that. Do you?

                DIFFICULT RESOURCE ALLOCATION DECISIONS

    General Schwartz. We certainly do. In fact, all the chiefs 
do. And the commitment that each of us has made is that we are 
not going to follow the path that has occurred in the past 
where the forces became hollow, Senator Cochran. We would much 
prefer to be good--great, if you will--and smaller than to 
maintain our current size, if that is what is in the cards, and 
not be ready and not be capable. So if the resources require us 
to make these trades, as painful as they are, we prefer to 
remain the quality Air Force and the quality Army and the 
quality Marine Corps and Navy that the American people expect.
    Senator Cochran. Mr. Secretary?
    Mr. Donley. Well, sir, I think the President's national 
security strategy, the space strategy, other aspects of our 
work are effectively addressing the issues that you raise here, 
trying to balance internal commitments with overseas 
commitments, and really broadening the aperture for how we look 
at national security. We recognize in the Department of 
Defense, certainly in the counter insurgency operations that we 
have experienced in the USCENTCOM area of responsibility, that 
this is not just momentary work. There is whole of Government 
work that is required here where we require the commitment and 
the capabilities of other Government agencies and civilian 
expertise to help build capacity for self-government and 
economic sustainability in these challenged environments. So 
the military solution is not the only tool that we need to 
apply in these situations.
    I think we are also taking a broader look, and you see it 
in the President's policy with respect to Libya, toward 
coalition operations. Again, these complex political military 
situations we find ourselves in do not belong solely to the 
United States. They have a regional context. They have a global 
context that applies to our allies and partners in those 
affected regions, who need to be part of our work going 
forward. And so, I think you see that in the space policy as 
well, and I think you see a broadening perspective of how we 
need to work more closely with industries in the cyber field 
and also in reducing the cost of our acquisition process. I 
mean, it is getting major attention in DOD.
    Senator Cochran. At the time the budget request was 
submitted to Congress for the Air Force for the next fiscal 
year, we did not have the Mediterranean crisis on our hands and 
calling on us to supply airplanes and other defense forces to 
that region if we are called when needed. What is the impact on 
the budget of this situation in the Mediterranean right now? 
Have you had time to assess? Are you going to be submitting a 
supplemental request for the Congress to review any time soon?

                      OPERATION ODYSSEY DAWN COSTS

    General Schwartz. Sir, I can tell you that the current 
monetary investment is in the neighborhood of $50 million for 
the Air Force for what we have already done in terms of 
employment, and it is substantially higher than that, of 
course, for the entire DOD. I am not in a position to predict 
whether the administration will submit a supplemental request 
for operations in Libya.
    Senator Cochran. Mr. Secretary, what is your take on that?
    Mr. Donley. Well, the first thing we did was to start 
tracking the additional costs. We--again, we are in 
conversation with the DOD Comptroller, the Office of Management 
and Budget, and others on how these bills will be paid, and 
that is unresolved. But as the Chief indicated, the cost, 
depending on the expenditure of munitions, has been running for 
the Air Force roughly $4 million a day, so we are at the $50 
million point today. At the end of the 2-week--first 2 weeks, 
we will probably be in the $70 million range, and then we will 
have to assess, based on the changes in operational emphasis, 
which the President has announced and which are underway now in 
which coalition partners will take a stronger role on the 
strike side, and the U.S. Air Force and other parts of the U.S. 
military will provide--continue to provide much of the enabling 
capabilities underneath. As that stabilizes, then we will be 
able to see what sustaining costs would be going forward.
    Senator Cochran. Thank you, Mr. Chairman.
    Thank you very much.
    Chairman Inouye. Thank you.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Secretary Donley and General Schwartz, thank you for being 
here today, and thank you for your service to this country.
    Secretary Donley, I appreciated speaking to you--with you 
in February about the proposed retirements of the B-1 fleet. At 
that time, you assured me that my staff and I would receive a 
detailed briefing in the coming weeks. Six weeks have passed. 
Can you tell me when we can expect a briefing?

                        B-1 FLEET MODERNIZATION

    Mr. Donley. Very soon, Senator. That work is coming to 
closure. The Chief and I have had preliminary briefs outlining 
how this will work.
    As you are aware, the B-1s are deployed, of course, at----
    Senator Johnson. Yeah.
    Mr. Donley [continuing]. Ellsworth, and also at Dyess Air 
Force Base, Texas and so we are working through the details of 
where those aircraft will come from. I can tell you, the 
solution will involve both bases, and it will be taking into 
account that the schoolhouse is at Dyess. It is not completely 
an apples-to-apples comparison in terms of how those 
adjustments are made. But we are working through the final 
stages of that and should have that ready for your staffs in 
the next week or two.
    Senator Johnson. Mr. Secretary, how has the Air Force 
determined that 60 aircraft will be enough to meet both current 
and future operational needs?
    Mr. Donley. Well, Senator, for the B-1 and for other 
aircraft in our fleet, this is a fleet management issue in 
terms of how much resources are available and what draw those 
fleets are making on our maintenance requirements going 
forward. And it is part, I think, of a pattern of managing a 
fleet across the Air Force. We have often in the past adjusted 
the size of the fleet by a few tails at a time to help provide 
the resources required to modernize the fleet, in this case, to 
upgrade some cockpit avionics for the B-1, make some other 
modifications, and also meet the increasing requirements for 
maintenance for this aircraft as well. So those are the factors 
that go into the sizing of----
    General Schwartz. Senator Johnson, I would only mention----
    Senator Johnson. Yeah. Yeah.
    General Schwartz [continuing]. That it is important to take 
the entire bomber fleet----
    Senator Johnson. Yeah.
    General Schwartz [continuing]. Into consideration when we 
address a question such as you asked, that it is the 60 or 66 
B-1s, but it is also the 76 B-52s. It's the 20----
    Senator Johnson. Yes.
    General Schwartz [continuing]. B-2s that we take into 
consideration in making that assessment.
    Senator Johnson. Yeah. Are efforts--Mr. Secretary, are 
efforts still on track for the MQ-9 squadron to arrive at 
Ellsworth Air Force Base in early 2012? Does the Air Force 
still estimate the assignment of about 280 personnel to 
Ellsworth to support this mission? General?
    General Schwartz. Yes. It is still on track. It would be 
about 280 folks. And, again, that particular unit is part of 
our growth path to 65 orbits of remotely piloted aircraft 
capability by 2013.
    Senator Johnson. General, the extended comment period for 
the Powder River Training Complex environmental impact 
statement ended on January 20, 2011. When does the Air Force 
anticipate issuing the final environmental impact statement on 
the proposed expansion of the training area?

                   POWDER RIVER TRAINING COMPLEX EIS

    General Schwartz. Senator, I do not have that right off the 
top of my head. With your permission, I would like to present 
that for the record.
    [The information follows:]

    The Air Force is preparing a Powder River Training Complex 
Environmental Impact Statement (EIS) for the expansion of the 
current Powder River Military Operations Area and Powder River 
Air Traffic Control Assigned Airspaces to help meet military 
flight training needs and enhance training capabilities in 
regions of South Dakota, North Dakota, Wyoming and Montana. A 
Federal Register Notice of Availability (NOA) for the Draft EIS 
was published on August 20, 2010. In response to a 
congressional request, the Air Force extended the public 
comment period beyond the required 45 days, from November 15, 
2010 to January 20, 2011.
    The EIS process is continuing to move forward with a target 
issuance of an NOA for the Final EIS in the first half of 2012. 
To issue the NOA, the Air Force is working to resolve all 
aeronautical issues identified by the Federal Aviation 
Administration (FAA) (a Cooperating Agency for this EIS) and to 
complete the consultation process for the National Historic 
Preservation Act (NHPA) and the Endangered Species Act. A 
mandatory 30-day waiting period will begin after the NOA for 
the Final EIS is published in the Federal Register after which 
the Air Force can sign a Record of Decision. The FAA has 
overall authority for charting new airspace and its own 
procedural requirements. The FAA will consider the Air Force 
decision and its own findings before making the final decision 
on the Powder River airspace proposal.

    Senator Johnson. Yeah. When the Air Force Financial 
Services Center was created, it was touted as a way to save 
money and promote efficiency. Now, just 5 years later, I 
understand the Air Force is proposing undoing many of those 
changes. Has the Air Force come to determine that those changes 
are necessary? Can you speak specifically as to what services 
will be sent back out to the bases, and what financial services 
will remain at Ellsworth Air Force Base? How many jobs, both 
military and civilian, will be impacted by those changes?

                  AIR FORCE FINANCIAL SERVICES CENTER

    Mr. Donley. Sir, we are working through the numbers that 
you refer to as part of our briefing to you in the next couple 
of weeks, which will include the B-1 adjustments you previously 
referenced.
    Our experience on the consolidation of financial services 
simply was that, with respect to military, I believe there were 
individual specific changes for each airman that would be more 
effectively accomplished, in terms of adjustments to their 
military pay, if we had personnel more closely connected to 
these airmen. And at the recommendation of our major commands, 
the financial management community made the decision to 
redistribute those folks from a centralized posture at 
Ellsworth Air Force Base, South Dakota back to the major 
commands. So that is the big picture for what is intended. We 
are working through the numbers, and you will get a full 
briefing on that in the next couple of weeks.
    General Schwartz. Senator, I would only add that that part 
of the reason this has occurred--sort of the head fake, if you 
will----
    Senator Johnson. Yeah.
    General Schwartz [continuing]. Is that the Enterprise 
Resource Planning System, that was supposed to underwrite 
this--it is the defense integrated military human resources 
system (DIMHRS)--never came to pass.
    Senator Johnson. Yeah.
    General Schwartz. And so, given the absence of that 
architecture, it became necessary to move back away from a 
centralized model to something more distributed.
    Senator Johnson. My time has expired. Thank you.
    Chairman Inouye. Thank you.
    Senator Coats.
    Senator Coats. Thank you, Mr. Chairman. Thank you, 
gentlemen, for your testimony here.
    I wonder if I could drill down and do a specific topic, and 
I am trying to get my knowledge base built on this alternative 
engine issue.
    The--I generally hold the principle view--foundational 
view--that competition generally results in a better product at 
a lower price over a period of time. And I have supported 
competition in systems on a number of occasions for that 
reason.
    However, we are in a unique time now relative to our 
deficit, our costs. We are stretched thin. You are stretched 
thin. You have to prioritize in ways perhaps you have not had 
to do in some time. And so, I am trying to get a handle on what 
potential--there have been a number of estimates--potential 
long-term savings would be over the life of the F-35 or the 
engine--the 135, 136--as compared to what the cost is going to 
be in the short term, and potentially how that savings--
potential savings could be directed to either lowering the cost 
per copy of the plane--and I understand some allies are 
concerned and some others are concerned about the increasing 
cost per copy of that plane--or perhaps moved and shifted to 
some other higher priority. So can you help me a little bit 
better understand that, why that decision was made? I know it 
was made by the Department, but how--what the Air Force take on 
that is?

                 JOINT STRIKE FIGHTER ALTERNATE ENGINE

    Mr. Donley. Senator, I think you put your finger on it, 
that the Department's analysis of this issue at the highest 
level really was that the sure costs in the near term of 
funding a second engine were more clear than the long-term 
savings to the program, which were more murky. That economic 
analysis is down at the DOD level.
    There are, I think, two additional perspectives on this. I 
know General Schwartz can add to this as well. The Joint Strike 
Fighter Program, is our largest program, but it has had 
difficulty, and we have had to restructure that program twice 
in the last year. We think we are getting a better handle on 
it, but committing to a second engine in this program now would 
add to the cost of the Joint Strike Fighter Program even more. 
And we are reallocating dollars to get this program on track, 
so it would be yet another brick on top of the Joint Strike 
Fighter Program at a time where we are trying to get control 
over costs in that program.
    And finally, we like competition. We like the idea of 
having backups and backups to backups, and backups to backups 
in the Department of Defense. But in this fiscal environment, 
we need to make some tough choices about where to put marginal 
dollars. And in this case, we felt like the reliability that 
goes with modern engines compared to those of a generation or 
two ago justified this decision. Chief?
    General Schwartz. Sir, if I may just elaborate at the 
practical level. As the Secretary suggested, this is a question 
of balancing near term firm costs versus longer-term soft 
savings.
    But fundamentally, the question for us is, a second engine 
means a second supply chain. It means a second training 
pipeline. There are costs in manpower associated with that.
    The truth of the matter is that we operate a number of our 
aircraft with one engine. Now admittedly, it is not a single 
engine plane like the F-35, but the F-22 has one engine. The 
FA-18 EF has one engine. The big airplanes all have a single 
engine, although multiple engines on one machine. And so, the 
notion that there is inherent risk in this, based on our 
experience, we think that is manageable.
    Equally important is that the F135 is a descendant of the 
F119, which is in the F-22, and we have had pretty good 
experience with that. So, on balance, this is one of those 
close calls. I think the Secretary and I endorse the notion of 
competition, but the question is, what can we afford? And at 
the moment, the judgment is this is one of those things that we 
can pass on, sir.
    Senator Coats. Relative to the F-22, let me ask a question 
about their current activities in North Africa. We have been 
launching a lot of Tomahawks. Would it have been more cost 
effective to use the F-22? Could we have accomplished the same 
mission at lower cost? What is your take on that?

                  F-22 AND ACTIVITIES IN NORTH AFRICA

    General Schwartz. Senator, clearly had the F-22s been 
stationed in Europe, both closer in proximity and, therefore, 
more available, they undoubtedly would have been used. But as 
this came together fairly quickly, the judgment was made to 
apply the various tools that we have in our tool kit, as we 
did, using the resources that were in close proximity, both in 
Europe, in southern Europe, in the Mediterranean, and so on. 
So, the fact that the F-22 did not perform in this particular 
mission was not an ad hominem against that weapon system at 
all. It really was an expedient judgment with respect to 
putting the plan together, to executing on a very rapid time 
line, and so on.
    Mr. Donley. Just to amplify briefly as well, the F-22, of 
course, has some air-to-ground capability, but it is optimized 
for air-to-air engagements. So the air-to-ground capability is 
somewhat more limited than that of the F-15Es, for example, 
which were already available in Europe. And I would say, in 
terms of operational efficiency--and the Chief is more of an 
expert on this than I am--I would say one of the initial 
outcomes--very premature and still early in the Libya 
operation--has been just to reinforce the effectiveness and the 
efficiency of the bomber forces in environments, such as this, 
where they have been able to, with very few missions, drop lots 
of ordnance very accurately against multiple targets. The 
bomber force has proven to be very effective in this operation.
    Senator Coats. Mr. Chairman, I noticed that my time is 
running out. Let me just say at the end here, I like to 
associate myself with the remarks of Senator Cochran relative 
to the fiscal crunch that we are now in and the need to really 
establish priorities. The realities are that--and I am not 
picking on any one service here or even the Department of 
Defense. Everybody that's come before me personally relative to 
their program or appropriation request or in public here, I 
have basically made the same pitch, and that is, I think it is 
incumbent on all of us to, in a sense, think in terms of a plan 
B. What if we do not get the budget line that we think we need? 
And I know everything has been scrubbed, and efficiencies have 
been built in, and so forth, but even having said that, I think 
it is possible that we are not going to get the numbers we need 
in the future. And, so, therefore I think the prioritization 
of, you know, what is absolutely essential, what is very, very 
important, but not absolutely essential, what is important, but 
not very, very important, and on down the line is something 
that we need to look at. And I know the Department is looking 
at that, and it is unfortunate that we are in this situation, 
even when it comes to national security issues. I think the 
reality is we are going to have to make some of those tough 
decisions, and it really is going to be helpful if we are able 
to turn to each of the agencies and say, have you scrubbed this 
thing through and, because we cannot go here, but can go here, 
how do we do it? It is, I think, much better if you can present 
us with your plan as to how that can be best accomplished 
rather than having us try to make that determination. So I 
would just throw that out there as a two cents worth of counsel 
and advice in terms of what I think is coming down the line.
    Thanks, Mr. Chairman.
    Chairman Inouye. Thank you. Senator Hutchison.
    Senator Hutchison. Well, thank you very much, Mr. Chairman.
    And just following up on a couple of areas, one that 
Senator Coats was just mentioning. I mean, that is a 
realization that we all agree with. The F-35, you have said 
that they are performing satisfactorily, and yet you are 
cutting back on the production--57 aircraft over the next 5 
years. And that is going to raise the price of each model 
approximately $5 million per unit. So I just would ask in that 
context, is that saving money now, but paying the piper later? 
And what is your thinking on doing that?

                            F-35 PRODUCTION

    Mr. Donley. Well, Senator, the F-35 has a long history. It 
has been a very concurrent program from its origins, and a very 
aggressive program from its origins. Bringing on new 
technologies, even after the F-22's capabilities and experience 
from that program, additional capabilities into the F-35 
program. But a lot of concurrent development and planning for 
production that was a very high risk venture from the 
beginning.
    Senator Hutchison. Now are you talking about the vertical 
capability factor?
    Mr. Donley. The fact that we were building three variants 
at the same time. The fact that we had all our international 
partners in from the beginning is a good thing, but, again, a 
complicating factor. We had to invent new capabilities for the 
F-35 that had not been demonstrated previously in any other 
fighter platform. So, it had a number of challenges with it.
    And the last 2 or 3 years of this program, we have focused 
very carefully on balancing the continuation of development and 
the need to work the kinks out of the program--before we get 
too far up the production ramp. And that is really where we 
are, making that delicate transition from development to 
production, where both are going on at the same time.
    Senator Hutchison. So you are really experimenting 
continually, and that is why you are slowing down?
    Mr. Donley. We have stretched out the development and 
slowed down the production. We paid for the additional 
development by taking dollars from the plan for production and 
putting them into the development program. So that is where we 
have been the last couple of years.
    We have this year, I think, 32 Joint Strike Fighters across 
all the services proposed for this fiscal year 2012 budget. And 
we are building them at low rates, but they will not have all 
the capability that we want, so we do not want to build too 
many of those early.
    But we are committed to this program. There have been cost 
increases. There is no question we are very frustrated with 
this, but we are also very focused on how to wring the cost out 
of that program where we can. But we are committed to going 
forward with this program. Our Air Force is committed to this 
program, and so are about eight or nine other allied air forces 
as well. So, we are committed to completing this program and 
getting on with it.
    Senator Hutchison. Let me ask you on the B-1, you are 
cutting back, as was mentioned earlier, six of the aircraft. 
And yet it is certainly performing in Afghanistan on a 
continuing basis. You are saying that the savings in the out-
years will be about $357 million. You will reinvest in 
modernization about $125 million. My question is, of course, 
are you thinking that that is enough modernization to get us to 
the mid-20s when you intend to start replacing? I am concerned 
that you are cutting back six, and then only modernizing at 
maybe a modest level. So what is the thinking there?

                        B-1 FLEET MODERNIZATION

    General Schwartz. Ma'am, your numbers are exactly right. 
And in 2012, we are talking about $67 million in savings to 
be--with about $32 million reinvested.
    What we are doing on the airplane is what we need to do--
make improvements in the cockpit, communications, and so on. It 
is a good airplane, as you suggested. It is serving extremely 
well in Afghanistan in what essentially is a close air support 
role. It currently flew missions in Libya departing from 
Ellsworth Air Force Base, South Dakota, went all the way into 
theater, and has since returned.
    But our belief, again, based on that theme I mentioned 
earlier on quality is that this is a rational fleet management 
decision in order to maintain the remaining aircraft at the 
level of capability and reliability that we want for the next 
decade at least.
    Senator Hutchison. And--but the 6, when they are retired, 
are they going to be unable to be returned if you did need 
them?
    General Schwartz. Ma'am, we have not made that decision in 
terms of precisely what status it would have in the bone yard. 
There are different levels of maintaining aircraft. My hunch 
would be, given the financial situation we face, that it would 
be in long-term storage and not immediately recoverable.

        PREPARING/DELIVERING SPACE SHUTTLE ``ATLANTIS'' TO OHIO

    Senator Hutchison. Let me just ask you. I was interested 
and also somewhat concerned about a $14 million request for the 
Air Force budget for the preparation and delivery of the Space 
Shuttle Atlantis to the museum in Ohio. And I am concerned 
about that because presumably the administration says that they 
have not made a decision about those, and there are other 
places where the National Aeronautics and Space Administration 
has had a significant impact, including Houston, that very much 
wants to have something so significant to our history. And my 
question is, is that a subsidy that would give a preference to 
the Air Force and to Ohio, and is that warranted with this kind 
of a budget constraint? Secretary Donley, or either one of you.
    General Schwartz. Ma'am, I----
    Senator Hutchison. Whoever would like to take that ball.
    General Schwartz. I would just say that whoever gets these 
platforms will have to have certain expenses in terms of 
transporting them to their ultimate destination and preparing 
them for safe display in a non-operational mode. So that is 
what these dollars were intended to do. The dollars were in our 
budget request. We were planning ahead, and obviously we put 
the 2012 budget submission together last year in anticipation 
of a positive decision.
    I might just mention that with respect to the Atlantis, 
that platform has flown more dedicated DOD missions than any 
other space shuttle. Thirty-eight members of the various 
services flew on the Atlantis, so it has some legacy with 
respect to DOD.
    Senator Hutchison. I understand that totally. I mean, and I 
relate to that. I think there are several areas that have 
legacy claims. I think you are one. I just hope that there is 
not a decision that puts it ahead of legacies in basically 
Florida, Houston, and California. I mean, there--I wish there 
were four or five that we could split up, but I was concerned 
that there might be an advantage already in place, and I hope 
that is not the case.
    Thank you.
    Chairman Inouye. Thank you.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    General and Mr. Secretary, thank you for your testimony 
this morning, and thank you for your service. Appreciate it.
    Talking a little bit about energy this morning, and the 
President is going to be speaking to that just about now, I 
guess, and our energy policy. I know that within the Air Force, 
it is my understanding now that about 99 percent of the Air 
Force fleet is certified for the Fisher-Tropsch process using 
either coal to liquids or gas to liquids technology. I think 
that that is--that is a good move, that it is positive. We 
certainly encourage that.
    Back in the 2009 the Defense appropriations bill, the Air 
Force was directed to conduct a study on a coal to liquids 
plant up in Eielson Air Force Base, Alaska. And we have had 
conversation in previous subcommittee hearings about the status 
of that study and the monies that were spent.

                       COAL TO LIQUIDS TECHNOLOGY

    The question that I have to you gentlemen this morning is, 
give me a little bit more of an update in terms of where you 
feel the Air Force is going with regard to the development of 
alternative fuel sources, and particularly in relation to our 
Alaska facilities. Our Alaska bases, as you know, we have got 
incredible coal supplies, incredible natural gas supplies. I 
happen to think that we could be the fueling station for the 
country in many regards.
    I would also like a little bit of an update in terms of 
where the $10 million kind of went in terms of studying that 
feasibility on the coal to liquids plant at Eielson Air Force 
Base, Alaska. So, if you could give me an update on that, and 
then kind of project out a little, if you will.
    Mr. Donley. Sure. We have expended the $10 million. It was 
divided into basically two halves. Part of that went to the 
Patel Corporation. I think the University of Alaska, if I'm not 
mistaken. Part of the money was spent to investigate the 
feasibility of the basic technology and the work at Eielson, 
and then part of it went to the site survey work at that 
location. I do not have a specific outcome of that for you. I 
can provide that----
    Senator Murkowski. That would be appreciated.
    Mr. Donley [continuing]. For the record.
    Senator Murkowski. Thank you.
    [The information follows:]

    The Air Force is interested in environmentally friendly, 
domestically produced and cost competitive alternative aviation 
fuels to enhance its energy security posture through diverse 
fuel sources. In support of this, the Air Force conducted 
several analyses to study viability of a coal-to-liquid plant 
at Eielson Air Force Base in Alaska using funds authorized by 
Congress ($5 million for operations and maintenance; $5 million 
for research, development, testing and evaluation).
    The $5 million in operations and maintenance funds was used 
by the Air Force, led by the Air Force Real Property Agency, to 
complete a mission impact analysis and a business case analysis 
in August 2010. The mission impact analysis determined there 
would be minimal impact to operational and support missions. 
However, the business case analysis concluded that development 
of coal-to-liquid production facility was not feasible due to 
high capital costs, limited local market for fuels, low crude 
oil prices (less than $99/barrel), uncertainty in carbon 
requirements and sequestration, and availability of government 
loan guarantees to secure lower financing costs.
    The $5 million in research, development, testing and 
evaluation funds was used by the Air Force, led by the Air 
Force Research Laboratory, to complete a scientific survey and 
a technical analysis. Both technical reports are currently 
under review and thus have not been publically released. The 
scientific survey, which was done by the Alaska Center for 
Energy and Power at the University of Alaska, Fairbanks, 
assessed options for geologic sequestration, biological 
sequestration, and other carbon management and disposal 
options. The initial analyses do not identify any engineering 
issues; however, the lack of technical maturity adds high 
project risk.
    The technical analysis performed by the Air Force Research 
Laboratory in February 2011, preliminarily found that, although 
the project is technically feasible, there are a number of 
significant concerns with implementation. These concerns 
include the disposal of generated waste (i.e., slag, coal ash, 
and sulfur); major environmental issues (i.e., PM2.5 emissions, 
ice fog formation, and effects on local hydrology, particularly 
ground water); transportation impacts; air emission permitting; 
and a chemical process hazard subject to the Department of 
Homeland Security's chemical security requirement.

    Mr. Donley. At the larger level, obviously we are a primary 
consumer of energy. We are very interested in having developed 
alternative sources of energy, whether it be coal to liquid, 
gas to liquid, biomass, or other renewables, both for our 
flying operations and our installations as well. But we do not 
see ourselves as a manufacturer or a provider, so we are very 
interested in working with the rest of the Department of 
Defense and with the Department of Energy to sort through what 
the optimal aviation fuel blends will be for the future--which 
of those will--are not just scientifically feasible, but which 
are most economically viable and sustainable going forward.
    Senator Murkowski. Are you sorting that through now?
    Mr. Donley. Those discussions are being undertaken at the 
DOE and DOD level. It is not an Air Force decision. And the 
aviation industry is part of this as well going forward. But 
not all of that work has gelled yet. As you indicated, we 
certified our engines for alternative sources, so we have 
confidence that we can fly our airplanes with these alternative 
fuels. So, that work is largely complete. The issue now in 
front of us is where will alternative fuels come from, and 
which will be the most economically viable. But we are ready to 
buy them, and especially if they will be available at 
competitive economic prices.
    Senator Murkowski. Well, I think we would be interested in 
perhaps learning a little bit more as you sort through where 
you feel not only the most economic, but really in terms of 
greatest efficiencies and performance needs, because, again, we 
have got a little bit of everything up there. But we need that 
customer, and happy to be working with the Air Force--with the 
military to advance this.

                         PACIFIC RANGE COMPLEX

    General Schwartz, I wanted to ask you just very quickly, 
your comments on the proposed enhancements to the Joint Alaska 
Pacific Range Complex. In my visit to Afghanistan, as we were 
doing the fly over, looking down over so many parts of that 
country, it sure reminded me of home. And your time in Alaska 
and your opportunity to fly over our ranges, and I am sure you, 
too, have noted the comparison of the extreme open spaces and 
big mountains and lots of snow.
    The question that I have, as we look to the various 
proposals that are out there to modernize the Alaska Range 
Complex--we have got an environmental study that is underway 
right now--can you comment on the proposed enhancements--the 
value of these to the Joint War Fighter, the additional 
capabilities that would be provided?
    General Schwartz. Clearly, you know, Alaska is unique and 
the Pacific Range Complex is a unique installation, both in 
terms of its scope, the air space available, the land ranges 
beneath, and so on. At the moment, we have five exercises a 
year, three of which are known as Red Flag Alaska, and two of 
which are Joint Chiefs of Staff sponsored exercises yearly. 
That tempo we expect to remain at least at that level. And so, 
this is, along with just a handful of other ranges in the lower 
48, this is a very important place that we, as a joint team, 
will continue to utilize in the years ahead. There is no doubt 
about that.
    And so, the study that you referred to, in terms of the 
improvements, is not yet final, and that certainly will inform 
decisions as we go forward. But I think the key thing is there 
is not another location that has the combination of land and 
air space that the Pacific Range Complex does.
    Senator Murkowski. Well, as you indicated, that study is 
still underway. There have been issues that have been raised 
within the State about the proposed expansion. I think it is 
fair to say, though, that Alaskans--the Alaskan civilian 
community wants to work with the Air Force, with our military 
community, as we provide this incredible training range to the 
Nation.
    With that, I thank you, Mr. Chairman.
    Chairman Inouye. Thank you very much.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    I want to begin my questioning by just making two comments.
    First, and I know the chairman and the vice chairman share 
this concern, I am increasingly worried about the impact not 
only on the Air Force, but on the entire Department, of the 
Pentagon having to operate under short-term continuing 
resolutions. At a time when we are involved in three wars, I 
just think it is an irresponsible situation, and we have got to 
get the work done on the budget. If it cannot be done, then I 
really hope that we will move the DOD appropriations bill 
separately and to get that done, because I know it is creating 
very real problems. And ironically, it is going to end up 
increasing costs in the long term if you are having to put out 
stop orders, and disrupting the supply chain, and juggling your 
accounts. We are going to end up paying more.
    So, I just--I realize I sound like a Johnny one note on 
this issue, but I feel so strongly about it.
    Second, I do want to take a moment to recognize and thank 
all the Air Force personnel who have been so involved in the 
military operations in Libya. Regardless of my individual view 
on whether that is a wise operation or not, there is no doubt 
that as usual our military has operated superbly. And I know 
that the Air National Guard Air Refueling Wing in Bangor, 
Maine, where I live, has been playing a supporting role by 
refueling aircraft en route to supporting the North Atlantic 
Treaty Organization (NATO) operation and the efforts in Libya. 
So, I just want to express my thanks to the men and women of 
the Air Force as they are involved in this mission.
    Mr. Secretary, the chairman asked you about the 
efficiencies that the Air Force had identified, and you 
indicated fuel savings would be part of those efficiencies, and 
Senator Murkowski also sort of followed up in that area as 
well. The Comptroller of the Pentagon has indicated that the 
increase in oil prices is increasing the cost of fuel, and that 
is a potentially very serious problem for the Pentagon. And 
obviously, the Air Force is particularly affected when there 
are increases in oil prices.

               STRATEGIC BASING PROCESS FOR KC-46A TANKER

    I understand that the Air Force is currently in the 
strategic basing process to select the locations for basing the 
first KC-46A aircraft. Earlier this year, I wrote to you 
encouraging the Air Force to consider the proximity of 
candidate bases to operational air refueling tracks. And to me, 
this makes all the sense in the world because it minimizes the 
fuel that is consumed in the time that it takes to fly from the 
home base to the point where the aircraft are actually 
refueled. And in learning more about this, because of the 
critical role that the Air National Guard base in Bangor has 
been playing with our operations in Afghanistan, Iraq, any 
overseas operations, I learned that taxpayers pay about $85 per 
minute in fuel costs alone for the current tanker in our fleet.
    My question is to you, Mr. Secretary, where--will these 
real world operational costs, such as the distances to 
operational refueling tracks, be considered in the basing 
criteria?
    Mr. Donley. Senator, we are still working through the 
criteria. We have not settled on them yet. General Schwartz and 
I will be reviewing those probably in the summer timeframe. 
This work is scheduled to get underway to the back half of this 
calendar year.
    First of all, we will want to take advantage of and 
understand completely the new capabilities that will be 
available through the KC-46, and take into account the 
operational improvements that come with that. We will be 
looking at obviously the Air Force operational requirements 
across the United States and elsewhere, but also the Combatant 
Commanders' requirements in various regional contingencies. 
That is our starting point at this point in time. We have not 
zeroed down beyond that.
    I would say that the current KC-135 fleet is in excess of 
400 aircraft. This initial KC-46--the KC-46 buy is 179 
aircraft, and it is going to take the better part of 12 years 
roughly to buy those 179 aircraft. So we are not going to make 
the beddown decisions on the KC-46 in advance of need. We need 
to let the time unfold as those tankers are being delivered, 
make sure we make the decisions in advance of but not too far 
in advance of need.
    So, just as a reminder, there are many bases that want to 
be the first in the Air Force to get the KC-46, but there will 
be 179 of them, and hopefully modernized tankers beyond that. 
We will be taking the kinds of issues that you raised into 
consideration.
    Senator Collins. General.
    General Schwartz. If you would allow me just to brag on the 
Air National Guard a little bit, the wing that is flying in 
support of Libya out of Moron, Spain is led by an Air National 
Guard colonel from the Pittsburgh unit, and aircraft from 
Bangor are there as well. So, I think the key thing is here 
that the Air National Guard has been all in, and we certainly 
salute that.
    Senator Collins. Absolutely. They have been absolutely 
critical, and that base in Bangor is much busier than many 
active duty bases, in fact, in its refueling mission.
    Just a very quick follow-up. There have been reports that 
can be read to suggest that you have already made tentative 
decisions to select 11 bases. That has appeared twice. If you 
have not settled on the criteria, then I assume that those 
reports are not accurate. General Schwartz.
    General Schwartz. They are not accurate. What happened was 
in order to run the competition for source selection of the KC-
46, we had to have representative bases to look at in order to 
do the bed down analysis. And there were 11 bases, nine United 
States and two overseas. That was not presumptive in terms of 
what the actual bed down would be, as the Secretary suggested, 
in the years ahead, not presumptive at all.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Chairman Inouye. All right. Thank you very much. The vice 
chairman and I will be submitting questions for your 
consideration. And we thank you for your testimony this 
morning.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted to Michael B. Donley
            Questions Submitted by Chairman Daniel K. Inouye
          affordability of air force recapitalization strategy
    Question. Secretary Donley, over the next several years the Air 
Force is planning to recapitalize portions of its fighter, tanker, 
bomber, and helicopter fleets which will cost billions of dollars per 
year. Given the current budgetary environment, how does the Air Force 
plan to afford all of these programs simultaneously?
    Answer. Based on strategic and fiscal guidance, the Air Force 
Corporate Structure develops a Program Objective Memorandum (POM) that 
achieves the right balance of resources between providing capabilities 
for today's commitments and posturing for future challenges. During 
Corporate Structure deliberations, savings through efficiencies, cost 
growth issues, and program phasing and quantities are thoroughly 
reviewed to ensure the resources allocated to Air Force operations and 
capabilities investment are optimized to the greatest extent practical. 
Using this process, we intend to maximize use of every dollar in the 
fiscal year 2012 PB through prioritizing our requirements to meet 
strategic guidance, force structure management, and resource 
management. Strategic resource management will include evaluation of 
our investment in existing fleets during transition to maintain the Air 
Force operational capability. As resources are further constrained, 
more difficult decisions will be required.
    Question. Secretary Donley, which recapitalization program has the 
largest risk of cost overruns and what is the Air Force doing to 
mitigate those issues?
    Answer. The F-35 program, in particular, has seen significant cost 
growth due to a multitude of reasons, as discussed and examined in many 
forums. Going forward, the Air Force believes the F-35 program is on 
solid ground, with realistic development and production goals and a 
significant reduction in concurrency, as a result of the recent 
Technical Baseline Review. Also, the Government awarded a fixed price 
contract for the fourth low rate initial production lot (LRIP Lot 4) on 
November 19, 2010. This is the first fixed price production contract 
for the program, and it occurred 2 years earlier than envisioned in the 
acquisition strategy. With regard to engine affordability, the F-35 
engine Joint Assessment Team (JAT) investigated F135 propulsion costs 
in 2010 and provided a should cost objective. The propulsion team is in 
the process of implementing the JAT recommendations with a focus in the 
coming year to ensure we make the necessary investments to achieve F135 
cost reduction goals.
    The Air Force is committed to reducing the risk of cost overruns in 
this and other recapitalization programs using techniques we are 
applying across the force; by improvements in our program management 
processes, including cost estimation, contracting, and acquisition 
strategies that emphasize competition and using proven technology when 
possible.
    One key step to avoiding an overrun in the future is to start with 
an accurate estimate up front. The Air Force has made a concerted 
effort to utilized Fixed-Price and Fixed-Price Incentive Firm Target 
type contracts whenever possible and at the earliest phases of a 
program to stabilize costs. These incentives encourage contractor 
innovation to bring programs in below target cost by sharing those 
savings with the contractor.
    The Air Force is also focused on managing the cost of our 
acquisition programs with continuing efforts to manage technology 
maturation and transfer to development, understand and reduce overhead 
costs, negotiate better prices, and execute more economical and 
efficient production rates.
    The KC-46A and the helicopter recapitalization programs will use 
competitively selected non-developmental aircraft platforms as their 
foundations, thus avoiding the large cost uncertainty of development 
and testing of a new platform.
                          healthcare proposals
    Question. Secretary Donley, the increases in co-pays have been 
proposed previously. Could you explain how these proposals are 
different and why they should be reconsidered by Congress at this time?
    Answer. The TRICARE Prime enrollment fee was established in 1995 
and set at $230/$460 for individuals/families. This fee has not changed 
in 16 years. Enrollees who pay this fee subsequently pay no TRICARE 
deductible (reducing the effective cost of enrollment to $80/$160 per 
year). The expectation had always been to raise the enrollment fee on a 
periodic basis, but this has never happened. In 2005, DOD attempted to 
increase the TRICARE enrollment fee by approximately 300 percent over 3 
years to again have some parity with civilian health premiums. This 
proposal was met by significant resistance from beneficiary 
organizations, and Congress ultimately decided the increase was too 
severe and prohibited any increase in TRICARE Prime enrollment fees. 
Having learned lessons from the previous attempts at increasing TRICARE 
enrollment fees, and out of genuine concern to not introduce unexpected 
and steep hikes in out-of-pocket costs, the Department has put forward 
the most modest fee increase possible ($2.50 or $5/month for 
individuals/families). The proposal indexes any future enrollment fees 
to a medical inflation rate, thereby moving to a regular and gradual 
increase from year to year, and also excludes from fee increase the 
following special populations of retirees: survivors (regardless of 
when or how the service member died), and medically retired military 
members and their families.
    We believe this proposal represents a fair and responsible increase 
in TRICARE Prime enrollment fees, and provides a balanced approach to 
managing the escalating healthcare costs of our Military Health System 
while ensuring we continue to provide the best healthcare in the world 
for our warriors and their families.
            remotely piloted aircraft personnel requirements
    Question. Secretary Donley, the Air Force has quickly expanded its 
unmanned aerial vehicle missions in the past few years.
    How is the Air Force doing in meeting the requirement for pilots 
for these Remotely Piloted Aircraft (RPA)?
    Answer. The Air Force is training at maximum capacity and has 
enough pilots to meet the current RPA requirement. Due to increased 
operational demands, the Air Force continues to operate MQ-1 and MQ-9 
aircraft at surge manning levels. As the operations tempo slows, pilot 
production will enable the Air Force to begin normalizing RPA pilot 
manning levels.
    Question. With the information being generated from this increase 
in Remotely Piloted Aircraft patrols, does the Air Force have enough 
personnel to process the additional data?
    Answer. Yes. The Air Force has planned, programmed, and is fielding 
the requisite number of analysts to support the RPA mission growth 
through streamlined operations. Using streamlined crewing procedures, 
Air Force Distributed Common Ground System (DCGS) analysts are aligned 
against the highest priority intelligence requirements to address the 
exponential increase in ISR demand. Due to the training lead times, 
much of the programmed manpower increases in Air Force DCGS have not 
yet reached the field, but the Air National Guard, through volunteerism 
at its Air Force DCGS sites, has surged to help mitigate any current 
shortfalls. Additionally, the Air Force is taking steps to maximize the 
analytical effectiveness of our ISR force by (1) partnering with 
National Geospatial-Intelligence Agency, Air Force Research 
Laboratories, Defense Advanced Research Projects Agency, and industry 
to find and integrate automated target cueing and exploitation tools; 
and (2) federating mission exploitation with other military Services 
and Coalition partners.
                     satellite acquisition strategy
    Question. Over the years, the Air Force has struggled with many of 
its satellite acquisition programs, with schedule delays measured in 
years, and cost overruns measured in the billions. The budget includes 
a proposal to bring satellite costs under control through incremental 
funding and $3.2 billion in advance appropriations for fiscal years 
2013 through 2017.
    Secretary Donley, what other options did the Air Force consider to 
control satellite costs? How much will the Air Force save under this 
strategy, and when do you expect those savings to start?
    Answer. The Air Force is proposing the Evolutionary Acquisition for 
Space Efficiency (EASE) approach to address some of the cost and 
schedule difficulties experienced in satellite acquisition. Over the 
past several Program review cycles, as many of our complex satellite 
systems have begun transitioning from development to production 
programs, we have been struggling with how to most affordably procure 
these systems under our current policies and procedures. We have tried 
and employed several methods and strategies including: buying on need; 
inducing production pauses to spread funding requirements; stretching 
Advanced procurement limits in both dollar limits and number of years; 
breaking out components of cost from the full funding requirements 
(e.g. Government Support and launch operations). Unfortunately, none of 
these options could address the bottom line of overall efficiency and 
affordability to these systems, and instead often created more 
inefficient behavior in order to balance budget issues. OSD-CAPE has 
collected and analyzed comprehensive satellite development and 
procurement data on both unclassified and classified programs over the 
past several years. The EASE strategy incorporates the cost 
efficiencies demonstrated in block buying of large satellite systems, 
within the constrained budgetary environment. The Air Force envisions 
implementing the EASE concept to drive down costs, improve stability in 
the fragile space industrial base, invest in technology that will lower 
risk for future programs, and achieve efficiencies through block buys 
of satellites.
    The satellite unit cost savings gained from this strategy will vary 
by program. The estimated savings for the Advanced Extremely High 
Frequency (AEHF) block buy in fiscal year 2012 is greater than 10 
percent but is contingent on contract negotiations. Through aggressive 
negotiations with the contractor, the Air Force will work to achieve 
the best possible savings for the taxpayer at AEHF contract award in 
fiscal year 2012. Savings realized through block buys will be 
reinvested in research and development for technology enhancement to 
advance mission area capabilities.
                        air force role in libya
    Question. Secretary Donley, now that there is an agreement that 
NATO will assume command and control responsibility for the no-fly zone 
over Libya and that the role of the U.S. forces is projected to 
decline, do you have a cost estimate for the Air Force operations to 
date and the anticipated costs to continue this level of support to 
coalition forces?
    Answer. The Air Force's costs for the first 14 days of operations 
were $75 million, or $5.4 million per day. With NATO assuming command 
and control responsibility for the no-fly zone over Libya, the 
projected costs will decrease to approximately $1.1 million per day. If 
operations continue through the fiscal year, the Air Force's estimate 
is an additional $199 million, bringing the total to $275 million for 
the entire operation. If the cost to replace munitions is included, 
this estimate would increase by $48 million, to $323 million.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
            large military aircraft defense industrial base
    Question. The ability of the U.S. industrial base to support the 
production of large military aircraft is a growing concern. Today C-17 
production shutdown is imminent. A former Commander of Air Mobility 
Command testified before Congress that, I would like to see the C-17 
line stay open, because it's our only insurance policy right now if 
anything else goes wrong or if there's another development that we need 
to look at. Instead of preserving the insurance policy and the 
industrial base, we are conducting a study of how to store the tooling 
for potential future use. A restart of this production capability in 
the future would cost billions.
    How are we going to protect our vitally important strategic airlift 
capability and maintain America's current leadership in the area of 
producing large military aircraft?
    Answer. The Air Force is conducting a major Aircraft Industrial 
Base study that is expected to complete in the summer of 2011 and 
results from this study should help inform Air Force decisions 
impacting the industrial base. The Air Force is concerned with 
maintaining and enhancing its ability to perform all 12 of its Core 
Functions to include rapid global mobility. We depend on the industrial 
base to design, develop, produce, and sustain the components and 
systems used to perform these Core Functions; however, the simple 
reality is our leadership, in any of these functions, comes with a 
price tag. In the current fiscal planning environment, it is clear the 
Air Force must take a very critical look at its processes and programs 
to improve efficiencies and increase our internal multipliers. The 
results of these analyses will be reflected in future budget requests; 
however, it is imperative that our investment decisions provide the 
capabilities the Air Force needs to continue to fly, fight, and win in 
air, space, and cyber.
    Question. What are you doing to maintain the U.S. industrial base 
and ensure our Nation retains its technology and capability edge in 
supporting and winning future wars?
    Answer. The Air Force is concerned about the current and projected 
state of the domestic industrial base, particularly with respect to its 
capabilities to support emerging Air Force requirements across the 
three Air Force domains air, space, and cyber. We recognize that 
today's fiscal realities will drive some very difficult budget choices. 
In that regard, it becomes even more critical for the Air Force to make 
data-driven investment decisions whether on research, engineering 
design and development, sustainment, or weapon systems upgrades. The 
Air Force is working with the Office of the Secretary of Defense as it 
leads a sector-by sector, tier-by-tier review of the current network of 
the Department's suppliers. We expect this initial review, and 
subsequent updates, to provide all of the Department of Defense with a 
shared view of how the industrial base segments interface to support 
each of our capabilities. With this knowledge of the industrial base, 
the Air Force will be better informed so that our investment decisions 
can preserve the critical domestic industrial base capabilities needed 
for the Air Force to continue to fly, fight, and win in air, space, and 
cyber.
    Question. What alternatives do you see for future airlift 
production if the C-17 production line shuts it doors and closes?
    Answer. The United States has a diverse aerospace industrial base 
with sales in 2010 of over $200 billion as reported by the Aerospace 
Industries Association [Source: AIA, 2010 Year-end Review and Forecast, 
accessed at: http://www.aia-aerospace.org/assets/YE_Analysis.pdf on 
April 8, 2011]. While aircraft designed and produced to enable the Air 
Force to perform our rapid global mobility Core Function do differ from 
their commercial cousins, there are commonalties in areas such as 
avionics, propulsion, environmental controls, and others. In the past, 
the Air Force has leveraged both the intellectual and physical assets 
of the commercial aerospace industry and we expect to do so in the 
future. In those areas needed to provide military-unique capabilities, 
the Air Force uses its research and development programs to grow those 
capabilities.
    Question. Is modernizing the C-5 fleet the most cost effective 
means of meeting the U.S. military's strategic airlift requirements?
    Answer. During the C-5 Reliability Enhancement and Re-engining 
Program (RERP) Nunn-McCurdy certification process, the Department 
examined several alternatives for meeting strategic airlift 
requirements. In the final analysis, a restructured C-5 RERP (or C-5M) 
effort of 52 aircraft was certified as the least costly alternative to 
meet strategic airlift requirements. Subsequently, the Mobility 
Capability and Requirements Study 2016 (MCRS-16) demonstrated that a 
strategic airlift fleet with the capacity to provide 32.7 million ton 
miles/day (MTMs/D) was sufficient to satisfy the most demanding case in 
the study. The programmed fleet with a mix of 222 C-17s, 52 modernized 
C-5Ms, and 59 legacy C-5As provided MTMs/D in excess of the 32.7 MTM/D 
requirement. It is not cost effective for the Air Force to maintain 
aircraft in excess of requirements; therefore, a plan to retire 32 
excess C-5A aircraft will be executed assuming fiscal year 2010 
National Defense Authorization Act fleet limits are lifted by Congress.
                         helicopter acquisition
    Question. I understand that the Air Force is planning to replace 
their Combat Search and Rescue helicopters with an upgraded version of 
the HH-60 they are currently flying. I am also told that the Air Force 
plans to replace the UH-1 Huey's currently being used for force 
protection at the ICBM fields and for transport of government officials 
in the event of an emergency in Washington, DC with the Common Vertical 
Lift Support Platform (CVLSP). There seems to be a disconnect in the 
Air Force message regarding the sourcing of this helicopter. In 
February, Lieutenant General Jim Kowalski of the Air Force Global 
Strike Command told reporters he wanted to avoid competition while last 
week, Secretary Donley told the Senate Armed Services Committee that he 
is ``absolutely sure competition will be involved''.
    What is the Air Forces plan for sourcing the Common Vertical Lift 
Support Platform?
    Answer. General Schwartz and I approved proceeding with the Common 
Vertical Lift Support Platform acquisition program based on a full and 
open competition and contract award in fiscal year 2012 leading to an 
initial operational capability in fiscal year 2015. Following an 
Acquisition Strategy Panel in the third quarter of fiscal year 2011, we 
anticipate release of a request for proposal in the fourth quarter of 
fiscal year 2011 for a Non-Developmental Item/Off-The-Shelf solution to 
program requirements. Source selection will be conducted in fiscal year 
2012.
    Question. Will there be a competitive process or will the Air Force 
choose from a platform currently in production?
    Answer. The Common Vertical Lift Support Platform program will 
award a contract on the basis of a full and open competition. However, 
we anticipate the request for proposal to solicit a non-developmental, 
off-the-shelf solution to the meet the warfighters' requirements.
  increased intelligence surveillance and reconnaissance capabilities
    Question. I was pleased to hear this month that the final decision 
was made to base MC-12 Liberty aircraft at Beale Air Force Base in 
California. I understand that the MC-12 has been very successful in 
Iraq and Afghanistan and we are proud to host them. Over the years, the 
success of our manned and unmanned intelligence, surveillance, and 
reconnaissance systems has been well documented. There seems to be an 
insatiable need for the information that these assets provide. In the 
fiscal year 2012 budget, the Air Force wants to procure 48 MQ-9 Reaper 
unmanned aerial systems and 3 RQ-4 Global Hawk systems. With this 
increase in platforms, there will be in increase in the amount of 
information available that will need to be processed and analyzed.
    The intelligence professional force is already stretched thin, do 
you have enough personnel to support the increase in platforms both 
operationally and to exploit the intelligence?
    Answer. The Air Force is extremely proud of California's 
longstanding support for all of our intelligence, surveillance, and 
reconnaissance (ISR) assets and personnel that are hosted at Beale AFB, 
California, a relationship that I hope will continue to flourish after 
the MC-12W Liberty fleet arrives. The concern over the ability of our 
analysts to analyze the amount of data being produced by a variety of 
new ISR platforms and sensors is certainly a valid one; however, I 
believe the Air Force has planned, programmed, and is fielding the 
requisite number of analysts in order to support ongoing mission 
requirements. The Air Force is taking steps to maximize the analytical 
effectiveness of our ISR force by (1) partnering with the National 
Geospatial-Intelligence Agency, Air Force Research Laboratories, 
Defense Advanced Research Projects Agency, and industry to find and 
integrate automated target cueing and exploitation tools; and (2) 
federating mission exploitation with other military Services and 
Coalition partners.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                          kc-46a clear winner
    Question. The words ``the clear winner'' were used when referring 
to the Air Forces selection of Boeing to build the new tanker aircraft. 
Can you elaborate on how the decision was made and what aspects of 
their bid delineated them as the clear winner, including value and 
cost?
    Answer. In accordance with Section M of the Request for Proposal, 
Boeing was rated acceptable for all subfactors in Mission Capability, 
Factor 1. Additionally, the difference between the Total Evaluated 
Prices in present value terms of the offerors was greater than 1 
percent, yielding substantial savings. The Total Evaluated Price (TEP) 
is the sum of the Total Proposal Price (TPP), Integrated Fleet Aerial 
Refueling Assessment (IFARA) Fleet Effectiveness adjustment, military 
construction adjustment, and Fuel Burn adjustment.
    Boeing was considered the clear winner because the TEP was more 
than 1 percent less than their competitors. In the overall source 
selection strategy, had both offerors' TEPs been within 1 percent of 
each other, the score of the non-mandatory capabilities would have been 
used to determine the winner. This was not the case as Boeing's TEP was 
more than 1 percent lower than their competitor's. Consequently, they 
were considered the ``clear'' winner.
                            kc-46a timeline
    Question. What is the current timeline for the KC-46A Tanker 
Program?
    Answer. The contract for the KC-46A was awarded to Boeing on 
February 24, 2011. The Engineering Manufacturing Development (EMD) 
contract includes 4 RDT&E aircraft that will be converted after testing 
is complete into production representative aircraft. The initial flight 
of the KC-46A aircraft is scheduled for late calendar year 2014. By 
fourth quarter fiscal year 2017, the Air Force will have 18 operational 
aircraft. The KC-46 Program is working toward a late August Integrated 
Baseline Review (IBR) that will generate a Program Management Baseline 
(PMB). This Baseline may result in an overall schedule adjustment, 
although that is not anticipated.
                         kc-46a basing process
    Question. What is the status of the KC-46A Tanker basing process 
and what is the timeline for the decisionmaking process?
    Answer. The Air Force is using its Strategic Basing Process to 
determine the future locations for the KC-46A. Our Strategic Basing 
process uses criteria-based analysis and the application of military 
judgment, linking mission and Combatant Commander requirements to 
installation attributes to identify locations that are best suited to 
support any given mission. The results of this analysis will be used to 
inform the basing decisions made by General Schwartz and me.
    In support of KC-46A basing decisions, Air Mobility Command (AMC) 
is developing basing criteria in a way that best quantifies both 
operational and support requirements related to KC-46A basing from a 
Total Force perspective. After the criteria are finalized and approved 
later this year, a briefing will be made available to interested 
Members of Congress and their staffs. AMC will then evaluate all Air 
Force installations against the criteria in an Enterprise-wide Look, to 
identify candidate bases.
    After the release of the candidate bases list, Air Force site 
survey teams will conduct detailed, on-the-ground, evaluations at each 
candidate location covering a range of operational and facility issues. 
The results of the site surveys will be briefed to General Schwartz and 
I, and we will then select the preferred and reasonable alternatives 
for beddown locations.
    Once the preferred and reasonable alternatives are identified, 
environmental analysis will be conducted in accordance with the 
National Environmental Policy Act. The site location decision will 
become final after the Environmental Impact Analysis Process is 
completed.
                   kc-46a milestone in basing process
    Question. When is the next milestone in this basing decision?
    Answer. The Air Force is using its Strategic Basing Process to 
determine the future locations for the KC-46A. Our Strategic Basing 
process uses criteria-based analysis and the application of military 
judgment, linking mission and Combatant Commander requirements to 
installation attributes to identify locations that are best suited to 
support any given mission. The results of this analysis will be used to 
inform the basing decisions made by General Schwartz and me.
    The next milestone for the KC-basing process is determining the 
criteria on which to analyze potential beddown locations. Air Mobility 
Command is developing basing criteria in a way that best quantifies 
both operational and support requirements related to KC-46A basing. 
After the criteria are finalized and approved by the Secretary later in 
2011, a briefing will be made available to interested members of 
Congress and their staffs.
              kc-46a base selection and number of aircraft
    Question. When do you expect to identify the bases selected to 
house the KC-46A and how many aircraft they will receive?
    Answer. The Air Force is using its Strategic Basing Process to 
determine the future locations for the KC-46A. Our Strategic Basing 
process uses criteria-based analysis and the application of military 
judgment, linking mission and Combatant Commander requirements to 
installation attributes to identify locations that are best suited to 
support any given mission. The results of this analysis will be used to 
inform the basing decisions made by General Schwartz and me.
    In support of KC-46A basing decisions, Air Mobility Command (AMC) 
is developing basing criteria in a way that best quantifies both 
operational and support requirements related to KC-46A basing. After 
the criteria are finalized and approved by the Secretary later in 2011, 
a briefing will be made available to interested Members of Congress and 
their staffs. AMC will then evaluate all Air Force installations 
against the criteria in an Enterprise-wide Look, to identify candidate 
bases.
    After the release of the candidate bases list, Air Force site 
survey teams will conduct detailed, on-the-ground, evaluations at each 
candidate location covering a range of operational and facility issues. 
The results of the site surveys will be briefed to General Schwartz and 
me who will then select the preferred and reasonable alternatives for 
beddown locations.
    Once the preferred and reasonable alternatives are identified, 
environmental analysis will be conducted in accordance with the 
National Environmental Policy Act (NEPA). The Secretary and Chief of 
Staff site location decision will become final after the Environmental 
Impact Analysis Process is completed. No specific dates/timelines have 
been identified for the preferred alternative decisions and no final 
decision dates can be identified until NEPA actions have been 
completed.
                         kc-46a basing criteria
    Question. When will the Air Force share the basing criteria for the 
KC-46A?
    Answer. The Air Force is using its Strategic Basing Process to 
determine the future locations for the KC-46A. Our Strategic Basing 
process uses criteria-based analysis and the application of military 
judgment, linking mission and Combatant Commander requirements to 
installation attributes to identify locations that are best suited to 
support any given mission. The results of this analysis will be used to 
inform the basing decisions made by General Schwartz and me.
    In support of KC-46A basing decisions, Air Mobility Command is 
developing basing criteria in a way that best quantifies both 
operational and support requirements related to KC-46A basing. After 
the criteria are finalized and approved by the Secretary later in 2011, 
a briefing will be made available to interested Members of Congress and 
their staffs.
                                 ______
                                 
               Questions Submitted by Senator Tim Johnson
                 b-1 fleet reductions and consolidation
    Question. During the last round of B-1 fleet reduction and 
consolidation, the Air Force said that they would reinvest the savings 
into the B-1 fleet and additional investments would be made in B-1 
modernization. Unfortunately, over the years, much of that funding did 
not materialize. Now we again find ourselves being told that there's a 
need to cut the B-1 fleet and that some of the savings would be 
reinvested in B-1 modernization.
    Secretary Donley, what reassurances can you provide that this time 
when the Air Force says it will reinvest the savings, it means it?
    Answer. During the previous round of B-1 fleet reductions and 
consolidation, the Air Force did reinvest in capability enhancements 
based on anticipated program performance. Today's ongoing modernization 
efforts, critical to the continued viability of the B-1 fleet, were 
born as a result of funding made available from previous fleet 
reductions, as well as the cancellation of the Defensive Systems 
Upgrade Program in 2002 due to cost and schedule overruns. The Air 
Force fully intends to make the required investments in B-1 
modernization to ensure the remaining fleet is viable to conduct its 
assigned missions. These actions also contribute toward the objectives 
of the 2010 Quadrennial Defense Review; to rebalance capabilities to 
prevail in today's war while building the capabilities needed to deal 
with future threats.
    The retirement of six B-1s will provide a total savings of $61.9 
million in fiscal year 2012 in procurement and sustainment funding. Of 
these savings, the Air Force is reinvesting $32.9 million in fiscal 
year 2012 into critical B-1 sustainment and modernization programs to 
ensure the health of the remaining fleet. These programs include 
procurement and installation of Vertical Situation Display Upgrade and 
Central Integrated Test System sustainment efforts, Fully Integrated 
Data Link capability upgrade, and procurement of critical initial 
spares for these modifications. The Department applied the remainder of 
the savings from the B-1 reduction to other Air Force and Department of 
Defense priorities including strengthening the nuclear enterprise.
    Question. I appreciate the Air Force's efforts to pursue 
alternative fuels. I am told that alternative fuel producers would 
require contracts of 15 to 20 years in order to attract the private 
financing needed to build a ``first-of-a-kind'' plant.
    Does the Air Force have sufficient statutory authority to enter 
into contracts of this length for alternative fuels?
    As the largest buyer of fuel within the government, DOD could 
catalyze the development of multiple plants and technologies to produce 
domestic alternative fuels, particularly jet fuel. In order to do so, 
it is my understanding that DOD would need to enter into long-term (15-
20 year) supply agreements with fuel producers, which would allow those 
producers to attract private investment to build the plant(s) that 
would make the fuel to meet the military's needs. However, currently 
there is uncertainty surrounding what authority the Pentagon has to 
enter into long term agreements.
    Question. How do you anticipate using these contracts to get new 
domestically produced alternative fuel plants up and running to meet 
the military's goals?
    Answer. Currently, over 99 percent of the Air Force fleet is 
certified for unrestricted operational use of a 50/50 synthetic fuel 
blend, where the synthetic component is produced via the Fischer-
Tropsch process. The Air Force is in the process of certifying the RQ-
4, commonly called the Global Hawk, which represents the only remaining 
Air force-owned platform not yet certified, and is working with the 
Navy to test and certify the CV-22 and F-35. Both airframes are Navy-
owned assets.
    The Air Force is positioning itself to integrate cost competitive, 
environmentally friendly, domestically produced alternative fuel blends 
by 2016, and will purchase available alternative fuel blends if they 
meet the Air Force technical, legal, environmental and economic 
requirements. Currently, there is no significant commercial scale 
market in place that is developing sufficient enough quantities at 
price cost competitive with traditional JP-8; however, even the limited 
production is yielding falling prices for alternative aviation fuels.
    Question. Can you also tell me when the Air Force expects to 
conclude testing of Fischer-Tropsch fuels?
    Answer. Certification activities are expected to be completed for 
the synthetic fuel blend by the end of 2011 completion. To date, no 
performance or safety-of-flight anomalies have been identified.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
                new penetrating bomber aircraft program
    Question. Secretary Donley, how is the Air Force going to be able 
to afford to buy this new long-range bomber given other high costs Air 
Force programs, such as, the Joint Strike Fighter aircraft, the new 
aerial refueling tanker aircraft, and satellite programs?
    Answer. The fiscal year 2012 Air Force budget request represents a 
careful balance of resources among Air Force Core Functions necessary 
to implement the President's National Security Strategy and our 
Nation's defense. The Air Force realizes that it must balance between 
today's operations and investments to develop capabilities for the 
future.
    The fiscal year 2012 budget request incorporates over $33 billion 
in efficiencies across the Future Years Defense Program to improve 
business practices and eliminate excess troubled or lower priority 
programs. By consolidating organizational structures, improving 
acquisition processes, procurement, and streamlining operations, we 
have been able to increase investment in Core Functions, such as global 
precision attack in ISR in space and air superiority, and enhance 
combat capability through such programs as the new penetrating bomber.
    The DOD aircraft procurement plan for fiscal years 2012-2041, 
presented to Congress on April 12, 2011 provides a comprehensive look 
at the Department of Defense's plan to ensure we have the capabilities 
needed to meet current and projected national security objectives, 
while prudently balancing security risks against fiscal realities.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
             kc-46a basing and active duty associate units
    Question. Secretary Donley, it was of interest to me that of the 
National Guard bases among the 11 bases included in the KC-X RFP each 
of them had an active duty ``associate unit.'' Given your previous 
comments that these bases are not tied to the actual bed down selection 
process, can you reassure the committee that the presence of an 
associate Active Duty Unit will not be a requirement for National Guard 
candidate bases competing in the KC-46A basing process?
    Answer. The Air Force is using its Strategic Basing Process to 
determine the future locations for the KC-46A. Our Strategic Basing 
process uses criteria-based analysis and the application of military 
judgment, linking mission and Combatant Commander requirements to 
installation attributes to identify locations that are best suited to 
support any given mission. The results of this analysis will be used to 
inform the basing decisions made by General Schwartz and me. There is 
nothing in this process to preclude an Air National Guard base from 
competing.
    In support of KC-46A basing decisions, Air Mobility Command (AMC) 
is developing basing criteria in a way that best quantifies both 
operational and support requirements related to KC-46A basing from a 
Total Force perspective. After the criteria are finalized and approved, 
a briefing will be made available to interested Members of Congress and 
their staffs. AMC will then evaluate all Air Force installations 
against the criteria in an Enterprise-wide Look, to identify candidate 
bases.
    After the release of the candidate bases list, Air Force site 
survey teams will conduct detailed, on-the-ground, evaluations at each 
candidate location covering a range of operational and facility issues. 
The results of the site surveys will be briefed to General Schwartz and 
I, and we will then select the preferred and reasonable alternatives 
for beddown locations.
    Once the preferred and reasonable alternatives are identified, 
environmental analysis will be conducted in accordance with the 
National Environmental Policy Act. The site location decision will 
become final after the Environmental Impact Analysis Process is 
completed.
                                 ______
                                 
           Questions Submitted to General Norton A. Schwartz
            Questions Submitted by Chairman Daniel K. Inouye
                          healthcare proposals
    Question. General Schwartz, I believe that the healthcare benefits 
we provide to our servicemembers and their families are one of the most 
basic benefits we can provide to the men and women serving our Nation 
and I also believe it is one of the most effective recruiting and 
retention tools you have at your disposal. The Department of Defense is 
proposing several changes to the military health system that could go 
into effect as early as October of this year.
    Do you support these cost saving measures? Could you please explain 
what impact they might have on recruiting and retention?
    Answer. As stated in our February 11, 2011, letter, I strongly 
support these modest changes to the military healthcare program in the 
fiscal year 2012 budget request.
    I believe we have included the appropriate safeguards to ensure a 
careful and measured approach to protect our most vulnerable 
beneficiaries, while continuing to provide free healthcare to our 
active duty personnel. Additionally, all Services and the TRICARE 
Management Activity have looked internally to identify efficiencies and 
incorporate those into the system before the decision to pursue these 
changes.
    Our commitment to our beneficiaries remains unchanged, with 
continued investment in wounded warrior care and enhanced access to 
superior health services to all our beneficiaries. I believe these 
changes to the military health system are critical to our continuing to 
provide the finest healthcare benefit in the world while also slowing 
the cost growth in that same healthcare system.
    While there are many dynamics that impact military recruiting and 
retention, we do not believe the proposed change to TRICARE fees for 
working age retirees will adversely impact our recruiting and 
retention. Without these adjustments, we will need to reduce funding in 
other areas such as those programs supporting Airmen and their 
families. The latter funding reductions would more adversely impact 
recruiting and retention.
            remotely piloted aircraft personnel requirements
    Question. General Schwartz, what is the status of using technology 
to ease some of the burden of processing, exploiting, and disseminating 
the additional data derived from the increase in Remotely Piloted 
Aircraft flights?
    Answer. The Air Force is aware of the enormous tasking, processing, 
exploitation, and dissemination burden that the rapid expansion in the 
number of intelligence, surveillance, and reconnaissance (ISR) Remotely 
Piloted Aircraft missions is placing on our ISR analysts. While 
automation cannot completely replace the need for human analysis, the 
Air Force is taking the following steps to maximize the analytical 
effectiveness of our ISR force:
  --Partnering with the National Geospatial-Intelligence Agency, Air 
        Force Research Laboratories, Defense Advanced Research Projects 
        Agency, and industry to find and integrate automated target 
        cueing and exploitation tools that reduce overall analyst 
        workload.
  --Working with other military Services and Coalition partners to 
        federate mission data, employing technology and forming 
        habitual relationships to bring to bear more intelligence 
        expertise from distributed locations.
    The long-term solution for reducing the burden on Air Force 
analysts is through the continuous evaluation and integration of 
available technologies while also leveraging industry, other Service, 
and intelligence community investment in emerging technologies.
                        air force role in libya
    Question. General Schwartz, now that there is an agreement that 
NATO will assume command and control responsibility for the no-fly zone 
over Libya and that the role of the U.S. forces is projected to 
decline, how dependent will the coalition air forces be on continuing 
U.S. support for fighter and tanker aircraft and intelligence, 
surveillance, and reconnaissance (ISR) assets to enforce the no-fly 
zone?
    Answer. The Air Force will provide tanker and ISR support to meet 
NATO requirements. Strike support is in reserve and will require 
additional coordination between NATO and the United States.
    Question. Will you have to reallocate assets from other ongoing 
operations in the region to continue to provide this level of support 
to the coalition?
    Answer. No reallocation is anticipated at this time.
    Question. How long do you expect this operation to continue?
    Answer. The Air Force cannot speculate on the length of the Libya 
operation; however, the Air Force will provide capabilities as long as 
our civilian leadership deems this support vital to U.S. national 
interests.
    Question. General Schwartz, could you tell us what types of 
aircraft and capabilities the coalition nations are contributing to 
enforce the no-fly zone.
    Answer. Coalition forces provide the following capabilities: Strike 
(Mirage, Tornado, F-16); Air Intercept (Rafale, F-16); Command and 
Control (E-2, E-3); Air Refueling (KC-135F, VC-10, KC-150); 
Intelligence, Surveillance, Reconnaissance (ISR) (specific aircraft are 
classified); and Theater Airlift (C-160).
                         role for f-22 in libya
    Question. General Schwartz, there has been speculation in the press 
as to why the F-22 has not participated in Operation Odyssey Dawn over 
Libya. Could you explain why the F-22 was not used?
    Answer. Whenever forces are required to support an operation, they 
are allocated via Global Force Management, a joint structure to 
identify and provide the most appropriate and responsive force or 
capability that best meets the Combatant Commander's requirement. For 
Operation Odyssey Dawn, adequate capabilities were available in Europe 
to meet the Combatant Commander's needs.
    Question. Was the F-22's limited air-to-ground capability a factor 
in the decision not to deploy it?
    Answer. The F-22's air-to-ground capability was not a factor in the 
deployment decision. The Air Force had sufficient assets available in 
the area of responsibility to satisfy the Combatant Commander's request 
to accomplish the desired mission sets.
    Question. General Schwartz, do you have a funded program to upgrade 
the F-22's air-to-ground capability? How much will it cost?
    Answer. Yes, the F-22 has a funded program to upgrade the F-22s 
air-to-ground capability. Follow-on Test and Evaluation for F-22 
Increment 3.1 began in January 2011 and is expected to be complete in 
June 2011 and will begin fielding in July 2011. Increment 3.1 will add 
air-to-ground capabilities including electronic location of surface 
threat emitters, radar ground mapping, and carriage of small diameter 
bombs.
    Note, these upgrades are in addition to current F-22 air-to-ground 
capabilities provided through internal carriage and supersonic delivery 
of two 1,000 pound Joint Direct Attack Munitions.
    The fully funded Increment 3.1 retrofit program will cost $150 
million in fiscal year 2011 through fiscal year 2016.
                                 ______
                                 
                Questions Submitted by Senator Herb Kohl
         primary aircraft authorized by truax field, wisconsin
    Question. Recently, the Air Force and National Guard Bureau 
announced a decision to reduce the Primary Aircraft Authorization at 
Truax Field in Madison, Wisconsin from 18 to 15 F-16 fighters. I 
understand that this was part of a larger reduction in the Primary 
Aircraft Authorization for F-16 fighters, which is being implemented 
over several years at many bases.
    Did the Air Force consult the leadership of the Wisconsin Air 
National Guard in this decision? When was the decision made to reduce 
the Primary Aircraft Authorization at Truax Field, and when were the 
Wisconsin Air National Guard leaders informed of the decision?
    Answer. The decision to reduce the Primary Aircraft Authorization 
at Truax Field was made early in 2006 as part of the fiscal year 2008 
President's budget request. The leadership of the Wisconsin Air 
National Guard was informed of this action in December 2010 by the 
Director of the Air National Guard, approximately 4 months prior to the 
planned official force structure announcement.
    Question. I understand that the decision to reduce the Primary 
Aircraft Authorization at Truax Field will lead to the loss of one 
full-time technician job and 76 drill-status guardsmen.
    How will the people in these positions transition into other jobs 
and responsibilities with the Wisconsin Air National Guard?
    Answer. With regard to the 76 drill-status guardsmen positions that 
will be affected by the reduction of primary aircraft authorization at 
Truax Field, there are provisions in written guidance, (Air National 
Guard Instruction 36-2101), that allow for the reassignment of 
personnel based on force structure changes. These force management 
decisions would be made by the wing commander and the squadron 
commanders of the units affected in conjunction with State Headquarters 
Human Resources department. The National Guard Bureau would function in 
an advisory capacity to assist units with interpreting the above 
mentioned guidance and on how best to apply it to their situations.
    In regard to the one full-time technician who is impacted by the 
reduction of the primary aircraft authorization at Truax Field, 
Wisconsin, there are provisions in written guidance, reference TPR 300, 
The Technician Personnel Regulation and TPR 303, The Military 
Technician Compatibility Program, that provide procedural directions 
based on force structure changes and manpower criteria. The National 
Guard Bureau, J1-Technician Program Division, will function in an 
advisory capacity to assist the Wisconsin Joint Forces Headquarters-HRO 
to execute the proper notification procedures, in compliance with the 
Technician Program Regulations, to reassign this technician into 
another full-time technician position that will closely align with 
their current position series, pay, duties, and responsibilities.
    Question. On March 18, 2011, the Air Force Magazine reported that 
senior Air Force leaders are concerned about a shortfall in fighters 
over the next several years.
    Given this concern, is this the right time to reduce the Primary 
Aircraft Authorization for F-16 fighters in the Air National Guard?
    Answer. The Air Force manages a balanced Total Force mix of 
approximately 1,200 Primary Mission Aircraft Inventory and 2,000 Total 
Aircraft Inventory combat fighter aircraft to execute the National 
Defense Strategy at a moderate risk level. The small aircraft reduction 
in the Air National Guard F-16 fleet transitions aircraft to the Backup 
Aircraft Inventory while retaining them in the total aircraft 
inventory. The Air Force's warfighting analysis accounted for this 
planned F-16 reduction over the recent budgetary cycles since it was 
implemented in the fiscal year 2008 program. The reduction does not 
increase current shortfall projections, but rather was a deliberate 
decision to accept near term risk while bridging to a fifth generation 
fleet.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                analysis of alternatives on jstars gmti
    Question. We understand that Air Combat Command (ACC) is finalizing 
an Analysis of Alternatives (AOA) on the Joint STARS Ground Moving 
Target Indicator (GMTI) Mission Area, which is planned to be completed 
this year.
    Is the Air Force looking at efficient alternatives such as existing 
systems like the Navy P-8 that DOD has already invested in as an 
alternative for Joint STARS?
    Answer. The ACC analysis underway is studying 29 alternatives 
ranging from existing systems to future concepts. The 29 alternatives 
being evaluated were provided by both the Office of the Secretary of 
Defense, Cost Assessment and Program Evaluation (OSD-CAPE) and 
identified via industry days. The analysis is considering the P-8 
option, future KC-X platforms, a Business Jet, multiple remotely 
piloted aircraft (RPA), and an airship among others.
    Question. Would the re-engining of the E-8 platform create a 
significant increase in the fleet's overall mission capability and what 
is the cost of that program?
    Answer. We believe re-engining the E-8 would increase overall 
mission capability. However, until the results of both the analysis of 
alternatives and the Fleet Viability Board are complete and presented, 
it is premature to invest in fleet-wide re-engining.
    Question. Beyond re-engining, are the current E-8 cockpits fully 
compliant with all operational requirements?
    Answer. Yes, the E-8 cockpit is currently fully compliant. ACC is 
working an avionics Diminishing Manufacturing Source (DMS) program to 
ensure the E-8 is compliant with pending FAA/ICAO regulations.
    Question. What would be needed to upgrade the E-8 to the same 
capabilities as a P-8 AGS and how much would the program cost?
    Answer. Until the results of both the analysis of alternatives and 
the Fleet Viability Board are completed and presented, it is premature 
to speculate in favor of one system or another. We will know much more 
as these studies report out.
    Question. When will the new AOA be completed?
    Answer. The analysis of alternatives is scheduled to complete by 
September 2011.
    Question. What specifically will be addressed in the AOA?
    Answer. As detailed in the original Resource Management Directive 
700 direction, the analysis of alternatives team will evaluate materiel 
solutions to fulfill all, or part of, the Departments overall Synthetic 
Aperture Radar/MTI requirements. The team was further instructed by 
OSD-CAPE to investigate alternatives to replace, refurbish, modernize 
JSTARS and to support acquisition of JSTARS replacement, refurbishment 
or other SAR/MTI system(s).
    Question. Will the Air Force consider other platforms in lieu of 
the E-8, such as capitalizing on other DOD programs with similar 
requirements?
    Answer. The ACC analysis underway is studying 29 alternatives which 
were provided by both the Office of the Secretary of Defense, Cost 
Assessment and Program Evaluation (OSD-CAPE) and identified via 
industry days. The analysis is considering the P-8 option, future KC-X 
platforms, a Business Jet, multiple remotely piloted aircraft, and an 
airship among others.
                                 ______
                                 
               Question Submitted by Senator Tim Johnson
                             b-1s in libya
    Question. To what extent are B-1s being used in Libya?
    Answer. B-1B aircraft based in Continental United States (CONUS) 
were utilized in support of Operation Odyssey Dawn. A pair of B-1 
aircraft conducted two sorties, striking over 40 fixed targets in Libya 
in order to protect the Libyan population as outlined in United Nation 
Security Council Resolution 1973. This marked the first time CONUS B-1 
aircraft were launched to strike overseas targets. CONUS aircraft were 
utilized to minimize impact to OND/OEF missions. Currently, B-1 
aircraft are not directly tasked in support of Operation Unified 
Protector (previously Operation Odyssey Dawn); however, aircraft remain 
postured to support Global Strike Command missions if tasked.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
                new penetrating bomber aircraft program
    Question. General Schwartz, your prepared testimony indicates that 
the Air Force is developing a new long-range, penetrating bomber with a 
focus on affordability. Our experience with the B-1 and B-2 bomber 
programs resulted in very high development and production costs for 
relatively few aircraft. Can you share with the Committee in further 
detail how the Air Force plans to meet requirements while controlling 
costs and maintaining schedule on this new bomber program?
    Answer. The new penetrating bomber program is very much focused on 
affordability, constraining requirements, and lowering technological 
risk. The program will use a streamlined management and acquisition 
approach to balance capability with affordability. The new bomber will 
use existing, mature technologies and leverage systems and subsystems 
from other programs to the maximum extent practical. Additionally, the 
Air Force will limit requirements based on affordability using 
realistic cost targets to inform capability and cost trade-offs.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
                        military sexual assault
    Question. Concerning sexual assault in the Air Force, can you 
comment on what is being done on the front lines of this fight to 
protect airmen. Is specialized training given to the most vulnerable, 
which studies consistently indicate are the female, junior enlisted?
    Answer. All Airmen receive initial accessions training, that is 
scenario/vignette based education, when they first enter military 
service that incorporates learning what constitutes sexual assault; 
differences between offenders, victims, facilitators, and bystanders; 
and effective risk reduction strategies that include the following:
  --Clearly communicate boundaries. If you are in any kind of 
        relationship, talk with your partner. If you are unsure about 
        what your partner wants or is thinking, ask. Don't make 
        assumptions. State your boundaries and be aware of non-verbal 
        communications that could send unintended messages.
  --Assert yourself. If you don't want to do something, say ``No'' 
        clearly. Avoid phrases meant to let him/her down easy; these 
        are often misunderstood. ``I don't know,'' ``I don't think 
        so,'' and ``We'll see,'' can each be interpreted as ``Keep on 
        coming.'' When you mean no, say, ``No!''
  --Be ``situation smart.'' Don't drink alone with people you do not 
        know well or who are all drinking. Leave a public place with a 
        peer, not alone. Don't go to a room after a night of drinking 
        alone with another person.
  --Use the buddy system. Your job may be to protect your wingman--but 
        it's also your wingman's job to protect you. Make a plan for 
        getting home together. Give each other feedback on how much 
        you've been drinking to reduce the risk of assault. Develop a 
        signal you can use when you are in an uncomfortable situation.
  --Be smart if using alcohol. Drink responsibly and don't accept 
        ``freebies.'' Watch out for dates who try to get you drunk or 
        high. Don't EVER leave your drink alone or accept a drink from 
        someone else. Date rape drugs are used by perpetrators to take 
        advantage of victims.
  --Trust your instincts. You know when things don't feel right or 
        safe. Have the intelligence and strength to trust yourself in 
        those situations, and get out of danger. Tell your wingman you 
        need support to get out now--then do it. Furthermore, annual 
        refresher training incorporates the cycle of sexual assault, 
        circumstances in which it occurs, and broad awareness of 
        situations when Airmen may be most at risk. The Air Force is 
        committed to eliminating behavior that may lead to sexual 
        assault and implemented bystander intervention training (BIT): 
        BIT is designed based on specific target populations for women, 
        men, and leaders. Bystander intervention is a strategy that 
        motivates and mobilizes people who may see, hear or otherwise 
        recognize signs of an inappropriate or unsafe situation, to 
        act. Using an interactive and dynamic model, the 90-minute 
        courses provide basic education about recognizing dangerous 
        situations/behavior, analyzing for best approach, and 
        practicing effective bystander intervention strategies. The Air 
        Force has a keen focus on key learning objectives for all of 
        its target populations; here are key learning objectives for 
        the women's (includes junior enlisted members) module:
    --Raise awareness of female Airmen regarding the continuum of 
            behaviors that can lead to a sexual assault.
    --Empower female Airmen to develop concrete Bystander Intervention 
            Strategies and problem solving competencies.
    --Foster female Airman responsibility, for ourselves and fellow 
            Airmen, in addressing inappropriate sexual behaviors at all 
            levels of conduct.
      Additionally, the Air Force is finalizing a Risk Reduction module 
        designed uniquely for the female most at-risk population. The 
        design of Risk Reduction includes education for those actions 
        and choices individuals may make to ensure their own safety and 
        increase situational awareness. However, this must be done 
        carefully to avoid any inherent victim self-blame/guilt if 
        sexually assaulted even after following all possible safety 
        measures.
    Question. Alcohol is prominent as a factor in reported sexual 
assaults and from reviewing specific cases, is an obstacle to 
prosecuting offenders. How are you addressing the role of alcohol in 
your prevention efforts?
    Answer. The Air Force remains committed to eliminating situations 
and circumstances which may lead to sexual assault through educating 
Airmen in effective bystander intervention training (BIT) in separate 
sessions for men, women, and leaders. Since the majority of known 
reports involve alcohol, and the vast majority of sexual assaults are 
committed by males, the men's BIT module has specific learning points 
focused exclusively on alcohol related sexual assault. As part of the 
interactive, facilitated sessions, dialogue introduced includes:
  --People are always looking for a bright line where alcohol and 
        consent are involved. There isn't one. The legal definition of 
        consent in this area is ``Words or overt acts indicating a 
        freely given agreement to the sexual conduct at issue by a 
        competent person.'' When alcohol is involved, you can't consent 
        if you are ``substantially incapable of appraising the nature 
        of the sexual conduct at issue due to mental impairment or 
        unconsciousness resulting from consumption of alcohol, drugs, a 
        similar substance, or otherwise.''
  --You have to look at the facts of each situation, and if there isn't 
        ``freely given agreement to the sexual conduct at issue by a 
        competent person'' because the person was too drunk to 
        understand what was going on, there isn't consent.
  --Participants are provided an alcohol based scenario to further 
        discussion of the issues surrounding alcohol and sexual 
        consent. This is a highly realistic and common scenario. Most 
        Airmen have been in this situation, either as participants or 
        observers.
  --Alcohol impairs cognitive functioning, specifically increases focus 
        on short-term positive outcomes, and lessens consideration of 
        long-term negative consequences of actions. Alcohol makes it 
        easier for individuals to cross their personal violence 
        threshold and feel justified for using force. Perpetrator 
        motives may vary. It takes multiple motives and the ``right'' 
        circumstances when sexual assault may occur. Alcohol increases 
        the likelihood that an individual will cross his/her personal 
        violence threshold more easily.
      After consuming two standard alcoholic drinks, cognitive 
        impairments may include: Abstraction. conceptualization, 
        planning, problem solving, integration of conflicting 
        information, response inhibition, and focus on short-term 
        rewards.
  --The facilitated learning also includes highlighting some ``pre-
        game'' strategies that offenders develop in trying to 
        facilitate sex for themselves and their friends. Examples 
        include having punch with higher alcohol content at parties for 
        women to drink and beer for men.
      Again, the Air Force remains committed to eliminating situations 
        and circumstances which may lead to sexual assault.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. And the Defense Subcommittee will 
reconvene next Wednesday, April 6, at 10 a.m., at which time we 
will receive testimony from defense health activities.
    We stand in recess.
    [Whereupon, at 11:55 a.m., Wednesday, March 30, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
April 6.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              


                        WEDNESDAY, APRIL 6, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Leahy, Mikulski, Cochran, and 
Murkowski.

                         DEPARTMENT OF DEFENSE

                        Medical Health Programs

STATEMENT OF LIEUTENANT GENERAL ERIC B. SCHOOMAKER, 
            SURGEON GENERAL, DEPARTMENT OF THE ARMY

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. I would like to welcome all of you to this 
special hearing.
    There will be two panels this morning. First, we will hear 
from the Surgeons General, Lieutenant General Eric B. 
Schoomaker, Vice Admiral Adam Robinson, Jr., and Lieutenant 
General Charles Green. Then we will hear from our Chiefs of the 
Nurse Corps, Major General Patricia Horoho, Rear Admiral 
Elizabeth Niemyer, and Major General Kimberly Siniscalchi.
    I understand that this will be the last hearing for General 
Schoomaker and Admiral Robinson, and I would like to thank both 
of you for your dedicated service and wish you well in your 
future endeavors.
    General Green, I look forward to continuing our work to 
ensure the future of our military medical programs and 
personnel.
    Every year, the subcommittee holds this hearing to discuss 
the critically important issues related to the care and well-
being of our service members and their families. As such, the 
Surgeons General and nurses have been called upon to share 
their insight on medical issues that need improvement and areas 
that are seeing continued success and progress.
    The healthcare benefits we provide to our service members 
and their families are one of the most basic benefits we can 
provide to the men and women serving our Nation. It is also one 
of the most important effective recruiting and retention tools 
we have at our disposal.
    The advancements military medicine has made over the last 
several decades has not only dramatically improved medical care 
on the battlefield, but also enhanced healthcare delivery and 
scientific achievements throughout the aspects of medicine. The 
result impacts millions of Americans who likely have no idea 
that these improvements were initiated by the military.
    While there has been significant success and momentum 
advanced in modern medicine and the care we provide, there is 
much more to be done. The Department of Defense must stay ahead 
of the curve and remain vigilant to the ever-changing 
healthcare needs of our forces and their families. Even in this 
challenging fiscal environment, we must continue to provide the 
resources required to maintain and grow the expertise needed to 
stay at the forefront of military medicine.
    Times have certainly changed since I was a soldier. For 
instance, when I was injured in World War II, it took 9 hours 
to evacuate me. Now the military's goal is to evacuate within 
the so-called Golden Hour. In my regiment, for example, there 
were no double amputee or traumatic brain injury survivors 
because they died en route. Today, thanks to military medicine 
advancements and helicopter and other transport devices, our 
men and women in uniform survive these grave injuries.
    Despite the great progress made by the military medical 
community, more and more of our troops are suffering from 
medical conditions that are much harder to identify and treat, 
such as traumatic brain injury (TBI), post-traumatic stress, 
and depression. I know that all of you here today are striving 
to address these issues, and I applaud your efforts to place 
more mental health providers throughout the medical facilities, 
and especially within primary care offices. In addition, you 
employ more of these specialists in theater to provide early 
intervention and prevent further escalation.
    Due to the prolific number of medical assistance efforts 
being offered, there can be confusion on where to seek help. I 
have heard many stories of service members who have six 
different magnets on their refrigerators identifying a website 
or a phone number for where to seek help. I believe it is 
essential that we offer these services, both anonymously and 
officially, but it can also be very difficult to navigate 
through this maze of options that are available. It is my hope 
that in your efforts to provide increased and advanced 
services, that you work to consolidate these services and make 
it easier for service members and their families to find the 
help they need.
    These are some of the issues we hope to discuss today. I 
look forward to your testimony and note that your full 
statements will be included in the record.
    I wish to now call upon the vice chairman of this 
subcommittee, Senator Cochran, for his opening statement.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much.
    I am pleased to join you in welcoming this distinguished 
panel of witnesses to our subcommittee today, the Surgeons 
General of our military forces. We appreciate your 
distinguished service, and thank you for your cooperation with 
our subcommittee to assess and review the budget request for 
the next fiscal year.
    Thank you.
    Chairman Inouye. All right. Thank you very much.
    Our witnesses on the first panel are Lieutenant General 
Eric B. Schoomaker, Surgeon General of the Army, Vice Admiral 
Adam Robinson, Jr., Surgeon General of the Navy, and Lieutenant 
General Charles B. Green, Surgeon General of the Air Force.
    Surgeon General of the Army.
    General Schoomaker. Thank you, sir.
    Chairman Inouye, Vice Chairman Cochran, and distinguished 
members of the subcommittee, thank you for providing me this 
opportunity to talk with you about the dedicated men and women 
of the United States Army Medical Department, who bring value 
and inspire trust in Army medicine.
    As you noted, Mr. Chairman, I am joined today by my Deputy 
Surgeon General and our Chief of the Army Nurse Corps, Major 
General Patty Horoho. Some of my staff have characterized this 
as an awful Broadway production of ``Beauty and the Beast''.
    Despite over 9 years of continuous armed conflict, every 
day our soldiers and their families are kept from injuries, 
illnesses, and combat wounds through our health promotion and 
prevention measures, are treated in state-of-the-art fashion 
when prevention fails, and supported by a talented medical 
force, including those with a warrior on the battlefield.
    Army medicine partners with our soldiers, their families, 
our veterans, our fellow service members, and the interagency 
to provide innovations in trauma care and preventive medicine. 
We save lives and we improve the well-being of our warriors, 
delivering the very best care at the right time and place.
    Let me discuss our work through the lens of five Es: 
Enduring, early, effective, efficient, and in an enterprise 
fashion.
    We have an enduring commitment through initiatives, such as 
our Warrior Care and Transition Program and the soldier medical 
readiness campaign plan. We have an enduring responsibility as 
part of the military health system and with the Department of 
Veterans Affairs to provide care and rehabilitation for our 
wounded, ill, and injured for many, many years to come.
    The United States Army's Warrior Transition Command, under 
the leadership of Brigadier General Darryl Williams, is a key 
part of the enduring provision of care and provides oversight 
of the Army's Warrior Care and Transition Program. Since the 
inception of these Warrior Transition Units in June 2007, more 
than 40,000 wounded, ill, and injured soldiers and their 
families have either progressed through or are now being cared 
for by these dedicated caregivers. Over 16,000 of these 
soldiers have rejoined the force, and the remainder remain--
have been returned to the community with dignity and respect.
    The Soldier Medical Readiness Campaign helps to maintain a 
healthy and resilient force. Major General Richard Stone, our 
Deputy Surgeon General for Mobilization, Readiness, and Reserve 
Affairs, leads that campaign. Among the campaign's tasks are 
the--are to provide commanders with a tool to manage their 
soldiers' medical requirements, identify those medically non-
ready soldiers, and reduce this population so that we can have 
a fully fit and capable, ready Army. The end state is healthy 
soldiers and increased medical readiness.
    Those soldiers who no longer meet retention standards must 
navigate the Physical Disability and Evaluation System. 
Assigning disability has long been a contentious issue. The 
Department of Defense and VA have jointly designed a new 
Disability Evaluation System that integrates DOD and the 
Veterans Administration (VA) processes with a goal of 
expediting the delivery of VA benefits to service members. The 
pilot of the new Integrated Disability Evaluation System, or 
the IDES, began in November 2007 at Walter Reed. It is now in 
16 medical treatment facilities, and it will be the DOD and VA 
replacement for this Legacy Disability Evaluation System that 
we have had for upwards of 60 years.
    But even with this improvement, disability evaluation 
remains complex and adversarial. Our soldiers still undergo 
dual adjudication with the military rates only for unfitting 
conditions and the VA rates for all service-connected 
conditions. Dual adjudication is confusing to soldiers. It 
leads to serious misperceptions about the Army's appreciation 
of the wounded, ill, and injured soldiers' complete medical and 
emotional situation. The IDES has not changed the fundamental 
nature of the dual adjudication process. Under the leadership 
of our Army Chief of Staff General George Casey and the Army G-
1, we continue to forge the consensus necessary for a 
comprehensive reform of the Physical Disability and Evaluation 
System, which the Army and DOD only determines fitness for duty 
and the VA determines disability compensation.
    Our second strategic aim is to reduce suffering, illness, 
and injury through early prevention. Army Public Health 
protects and improves the health of Army communities through 
education, the promotion of healthy lifestyles, and disease and 
injury prevention.
    The health of the total Army is essential for readiness, 
and prevention is the key to health. Examples of our practices 
include the implementation of the Patient-Centered Medical Home 
for Primary Care Delivery, something that we are doing in 
concert with our fellow service members, led by the Air Force, 
frankly, the Army's development and use of vaccines, and the 
early advocation of management of battlefield concussion.
    We lead in the recognition and treatment of mild traumatic 
brain injury, or concussion, through what's called the educate, 
train, treat, track strategy. Under the personal leadership of 
the Vice Chief of the Army, General Pete Chiarelli, and refined 
by Brigadier General Richard Thomas, our Assistant Surgeon 
General for Force Projection, we have fielded a program that 
has led to increased awareness and screening for traumatic 
brain injury and decreased the stigma associated with seeking 
early diagnosis and treatment.
    This leads into the use of evidence-based practices aimed 
at the most effective care. As an example, Army medicine now 
strengthens our soldiers' and families' behavioral health and 
emotional resiliency through a campaign to align the various 
behavioral health programs with the deployment and reset cycle, 
a process we call the Comprehensive Behavioral Health System of 
Care. Under the leadership of the Deputy Surgeon General, Major 
General Patty Horoho, this program uses multiple touch points 
to assess both the health and behavioral health for a soldier 
and the family. Coupled with the advances in battlefield care 
under the Joint Theater Trauma System, we have made great 
strides in managing the physical and emotional wounds of war.
    Additionally, we have developed a comprehensive pain 
management strategy to address chronic and acute pain that many 
of our soldiers face. This strategy uses state-of-the-art 
modalities and technologies. It focuses on the use of non-
medication pain management modalities, incorporating 
complementary and alternative or integrative approaches, such 
as acupuncture and massage therapy, yoga, and other tools. We 
were recently recognized by the American Academy of Pain 
Medicine with a Presidential commendation for the impact on 
pain management in the United States.
    Our fourth strategic aim is optimizing efficiencies through 
leading-edge business practices, partnerships with our other 
services and veterans organizations, to support the DOD and VA 
collaboration on treating post-traumatic stress disorder, and 
pain, and other healthcare issues, and electronic health 
records should seamlessly transfer patient data between 
partners to improve efficiencies, effectiveness, and the 
continuity of care.
    No two health organizations in the Nation share more non-
billable health information than the Department of Defense and 
the Veterans Administration. The Departments continue to 
standardize sharing activities and deliver information 
technologies to improve the secure sharing of information.
    Finally, our fifth aim is the Army enterprise approach. We 
have reengineered Army medicine, such as the creation of a 
provisional Public Health Command, to optimally serve the 
soldier. We have aligned our regional medical commands with the 
TRICARE regions, resulting in improved readiness and support 
from the managed care support contractor to our regions. Three 
standardized continental United States-based regional medical 
commands are now aligned with the three TRICARE regions in the 
continental United States.
    We also have regional readiness cells now that can reach 
out to our Reserve components within their areas of 
responsibility, ensuring that all medical services required are 
identified and provided at all times. Part of this 
reorganization has been the standup of a public health command 
under the command of Brigadier General Tim Adams. This 
consolidation has already resulted in an increased focus on 
prevention, health promotion, and wellness.
    As you have noticed here, this is my last congressional 
hearing cycle as the Army Surgeon General and the Commanding 
General of the United States Army Medical Command. I thank the 
subcommittee for allowing me to highlight the accomplishments 
we have made, the challenges we continue to face, to hear your 
perspectives regarding health of our extended military family 
and the healthcare we provide. I have appreciated your 
questions, your insights, and your commitment to our Army 
soldiers and their families.

                           PREPARED STATEMENT

    On behalf of the over 140,000 soldiers, civilians, and 
contractors that make up my command in Army medicine, I also 
thank Congress for your continued support and for providing the 
resources that we have needed to deliver leading edge health 
services and build healthy and resilient communities.
    I welcome your questions.
    Chairman Inouye. All right. Thank you very much, General 
Schoomaker.
     [The statement follows:]
      Prepared Statement of Lieutenant General Eric B. Schoomaker
    Chairman Inouye, Vice Chairman Cochran and distinguished members of 
the committee. Thank you for providing me this opportunity to talk with 
you today about some of the very important work being performed by the 
dedicated men and women--military and civilian--of the U.S. Army 
Medical Department (AMEDD) who bring value and inspire trust in Army 
Medicine.
    Now in my last congressional hearing cycle as the Army Surgeon 
General and Commanding General, U.S. Army Medical Command (MEDCOM), I 
would like to thank the committee for the opportunities provided over 
the past 4 years that have allowed me to share what Army Medicine is, 
to highlight the accomplishments we have made, to detail the challenges 
we have faced, and to hear your collective perspectives regarding the 
health of our extended Military Family and the military healthcare we 
provide. On behalf of the over 70,000 dedicated Soldiers, civilians, 
and contractors that make up Army Medicine, I also thank Congress for 
your continued support of Army Medicine and the Military Health System, 
providing the resources we need to deliver leading edge health services 
to our Warriors, Families and Retirees.
    Despite over 9 years of continuous armed conflict for which Army 
Medicine bears a heavy load, every day our Soldiers and their Families 
are kept from injuries, illnesses, and combat wounds through our health 
promotion and prevention efforts; are treated in state-of-the-art 
fashion when prevention fails; and are supported by an extraordinarily 
talented medical force including those who serve at the side of the 
Warrior on the battlefield.
    Army Medicine is a dedicated member of the Military Health System 
and is equally committed to partnering with our Soldiers, their 
Families, and our Veterans to achieve the highest level of fitness and 
health for each of our beneficiaries. Army Medicine historically is a 
leader in developing innovations for trauma care and preventive 
medicine that save lives and improve well-being for our uniformed 
personnel, improvements which have also favorably influenced civilian 
care. We are focused on delivering the best care at the right time and 
place. Army Medicine operates using the following strategic aims--The 
Five E's: Enduring, Early, Effective, Efficient, and Enterprise to 
reflect our commitment to selfless service.
  --To provide Enduring care through initiatives such as the Warrior 
        Care and Transition Program and the Soldier Medical Readiness 
        Campaign Plan.
  --To reduce the need for subsequent care through Early prevention; 
        for example, Army Medicine identifies medical issues early with 
        its concussive protocols and behavioral health practices, and 
        promotes healthy lifestyles with the patient-centered medical 
        home model of primary care delivery.
  --To use evidence-based practices which provide the most Effective 
        treatment for medical issues such as pain management and post-
        traumatic stress (PTS).
  --To optimize Efficiencies through leading edge business processes 
        and partnerships with other services and veterans 
        organizations.
  --To be an integral part of the Army Enterprise approach through re-
        engineering Army Medicine such as the provisional Public Health 
        Command (PHC) to keep the Army strong and with other Army 
        commands and agencies to optimally serve the Soldier and 
        Family.
    We must continue to provide the very best ongoing care for wounded, 
ill, or injured Soldiers. We have an enduring responsibility--alongside 
our sister services and the Department of Veterans Affairs (VA)--to 
provide care and rehabilitation of our wounded, ill, and injured for 
many years to come. The U.S. Army Warrior Transition Command (WTC) is a 
Major Subordinate Command under the MEDCOM and a key part of the 
enduring provision of care. The WTC Commander, Brigadier General Darryl 
Williams is also the Assistant Surgeon General for Warrior Care and 
Transition. The WTC's mission is to provide centralized oversight of 
the Army's Warrior Care and Transition Program. This includes providing 
the necessary guidance and advocacy to empower wounded, ill, and 
injured Soldiers and Families with dignity, respect, and the self-
determination to successfully reintegrate either back into the force or 
into the community. The WTC supports Army Force Generation (ARFORGEN) 
by supporting those who have returned from combat and require 
coordinated, complex care management to help them cope with and 
overcome the cumulative effects of war and multiple deployments.
    At the heart of the Warrior Care and Transition Program are 29 
Warrior Transition Units (WTUs) located at major Army installations 
worldwide, and nine Community Based Warrior Transition Units (CBWTUs) 
located regionally around the United States and Puerto Rico. Today, 
4,280 highly trained cadre and staff oversee a current population of 
10,011 wounded, ill and injured Soldiers. Since their inception in June 
2007, more than 40,000 wounded, ill, or injured Soldiers and their 
Families have either progressed through or are being currently cared 
for by these dedicated caregivers and support personnel. Over 16,000 of 
those Soldiers have been returned to the force.
    The Army, with great support of Congress, has spent or obligated 
more than $1.2 billion in military construction projects to improve the 
accessibility and quality of Wounded Warrior barracks, including the 
development of Warrior Transition complexes that will serve both 
Warriors in Transition and their Families. Construction of complexes 
continues through fiscal year 2012 at which time 20 state-of-the-art 
complexes will be in operation.
    Since 2004, the Army Wounded Warrior Program (AW2) has supported 
the most severely wounded, ill, and injured Soldiers. Soldiers are 
assigned an AW2 Advocate who provides personalized assistance with day-
to-day issues that confront healing Warriors and their Families, 
including benefits counseling, educational opportunities, and financial 
and career counseling. AW2 Advocates serve as life coaches to help 
these wounded Warriors and their Families regain their independence. 
Since its inception, AW2 has provided support to nearly 8,000 Soldiers 
and Veterans.
    The WTC is refining a policy change to enhance the Army's ability 
to ensure Reserve Component Soldiers recovering at home from wounds, 
illnesses, or injuries incurred while on Active Duty benefit from the 
same system of care management and command and control experienced by 
Soldiers who are recovering in WTUs. The revised policy makes it easier 
for Reserve Component Soldiers who do not require complex medical care 
management to heal and transition closer to home.
    To support each wounded, ill, or injured Soldier in their efforts 
to either return to the force or transition to Veteran status, the Army 
has created a systematic approach called the Comprehensive Transition 
Plan (CTP). The CTP is a six-part multidisciplinary and automated 
process which enables every Warrior in Transition to develop an 
individualized plan that will enable them to set and reach their 
personal goals. These end goals shape the Warrior in Transition's day-
to-day work plan while healing.
    Additionally to help Warriors in Transition achieve their physical 
fitness goals, WTUs offer several adaptive sports options to supplement 
the Warrior in Transition's therapy, often in coordination with the 
U.S. Olympic Committee's Paralympic Military Program. The WTC is also 
coordinating the Army's participation in the 2011 Warrior Games to be 
held at the U.S. Olympic Training Center in Colorado Springs, Colorado 
May 16-21, 2011.
    We created a Soldier Medical Readiness Campaign to ensure we 
maintain a healthy and resilient force. Major General Richard Stone, 
Deputy Surgeon General, Mobilization, Readiness, and Reserve Affairs, 
is the campaign lead. The deployment of healthy, resilient, and fit 
Soldiers and increasing the medical readiness of the Army is the 
desired end state of this campaign.
    The campaign's key tasks are to provide Commanders the tools to 
manage their Soldiers' medical requirements; coordinate, synchronize 
and integrate wellness, injury prevention and human performance 
optimization programs across the Army; identify the medically not ready 
(MNR) Soldier population; implement medical management programs to 
reduce the MNR Soldier population, assess the performance of the 
campaign; and educate the force.
    Those Soldiers who no longer meet retention standards must navigate 
the Physical Disability Evaluation System (PDES). Assigning disability 
has long been a contentious issue. The present disability system dates 
back to the Career Compensation Act of 1949. Since its creation 
problems have been identified include long delays, duplication in DOD 
and VA processes, confusion among Service members, and distrust of 
systems regarded as overly complex and adversarial. In response to 
these concerns, DOD and VA jointly designed a new disability evaluation 
system to streamline DOD processes, with the goal of also expediting 
the delivery of VA benefits to service members following discharge from 
service. The Army began pilot testing the Disability Evaluation System 
(DES) in November 2007 at Walter Reed Army Medical Center and has since 
expanded the program, now known as the Integrated Disability Evaluation 
System (IDES), to 16 military treatment facilities. DOD is now planning 
on replacing the military's legacy disability evaluation system with 
the IDES.
    The key features of the of the IDES are a single physical 
disability examination conducted according to VA examination protocols, 
a single disability rating evaluation prepared by the VA for use by 
both Departments for their respective decisions, and delivery of 
compensation and benefits upon transition to veteran status for members 
of the Armed Forces being separated for medical reasons. The DOD PDES 
working group continues to reform this process by identifying steps 
that can be reduced or eliminated, ensuring the service members receive 
all benefits and entitlements throughout the process.
    The WTC is also working with U.S. Army Medical Command staff to 
develop the concept of ``Medical Management Centers.'' Medical 
Management Centers utilize the case management approaches developed for 
the WTUs to assist Soldiers who remain in their units but require a 
PDES determination. The WTC is also working closely with Army Reserve 
and Army National Guard leadership to develop and provide necessary 
support to the Reserve Component Soldier Medical Support Center 
(RCSMSC) being established in Pinellas Park, Florida. The RCSMSC is 
intended to ensure the PDES process also runs smoothly and efficiently 
for Reserve Component Soldiers not on Active Duty or in WTUs.
    Army Medicine strives to reduce the need for subsequent care 
through early prevention and the emphasis on health promotion. Over the 
past year Army medicine has initiated multiple programs in support of 
this aim and I would like to highlight a few of those starting with the 
new U.S. Army Public Health Command (Provisional) (PHC).
    As part of the overall U.S. Army Medical Command reorganization 
initiative, all major public health functions within the Army, 
especially those of the former Veterinary Command and the Center for 
Health Promotion and Preventive Medicine have been combined into a new 
PHC, located at Aberdeen Proving Ground in Maryland, under the command 
of Brigadier General Timothy K. Adams. The consolidation has already 
resulted in an increased focus on health promotion and has created a 
single accountable agent for public health and veterinary issues that 
is proactive and focused on prevention, health promotion and wellness. 
The PHC reached initial operational capability in October 2010 and full 
operational capability is targeted for October 2011.
    Army public health protects and improves the health of Army 
communities through education, promotion of healthy lifestyles, and 
disease and injury prevention. Public health efforts include 
controlling infectious diseases, reducing injury rates, identifying 
risk factors and interventions for behavioral health issues, and 
ensuring safe food and drinking water on Army installations and in 
deployed environments. The long-term value of public health efforts 
cannot be overstated: public health advances in the past century have 
been largely responsible for increasing human life spans by 25 years, 
and the PHC will play a central role in the health of our Soldiers, 
deployed or at home.
    The health of the total Army is essential for readiness, and 
prevention is the best way to health. Protecting Soldiers, retirees, 
Family members and Department of Army civilians from conditions that 
threaten their health is operationally sound, cost effective and better 
for individual well-being. Though primary care of our sick and injured 
will always be necessary, the demands will be reduced. Prevention--the 
early identification and mitigation of health risks through 
surveillance, education, training, and standardization of best public 
health practices--is crucial to military success. Army Medicine is on 
the pathway to realizing this proactive, preventive vision.
    While the PHC itself is relatively new, a number of significant 
public health accomplishments already have been achieved. Some 
examples:
  --Partnering with Army installations to standardize existing Army 
        Wellness Centers to preserve or improve health in our 
        beneficiary population. The centers focus on health assessment, 
        physical fitness, healthy nutrition, stress management, general 
        wellness education and tobacco education. They partner with 
        providers in our Military Treatment Facilities (MTFs) through a 
        referral system. I hold each MTF Commander responsible for the 
        health of the extended military community as the installation 
        Director of Health Services (DHS).
  --Hiring installation Health Promotion Coordinators (HPCs) to assist 
        the MTF Commander/DHS and to facilitate health promotion 
        efforts on Army installations. HPCs are the ``air traffic 
        controllers'' or coordinators of services and identifiers of 
        service needs; they work with senior mission commanders and 
        installation Community Health Promotion Councils to synchronize 
        all of the installation health and wellness resources.
  --Providing behavioral health epidemiological consultations to advise 
        Army leaders and program developers on the factors that 
        contribute to behavioral health issues including high-risk 
        behaviors, domestic violence and suicide.
  --Identifying Soldier physical training programs that optimize 
        fitness while minimizing injuries and resultant lost-duty days 
        and improve Soldier medical readiness.
  --Decreasing the rate of overweight and obese Family members and 
        retirees by adopting the Healthy Population 2010 goals for 
        weight and obesity and implementing a standardized weight-
        management program developed by the VA.
  --Integrating human and animal disease surveillance to better assess 
        health risks.
    The Army recognizes that traumatic brain injury or TBI is a serious 
concern, and we will continue to dedicate resources to research, 
diagnose, treat and prevent mild, moderate, severe, and penetrating 
TBI. The Army is leading the way in early recognition and treatment of 
mild TBI or concussive injuries with our ``Educate, Train, Treat, and 
Track'' strategy. Under the personal leadership of the Vice Chief of 
Staff of the Army, General Peter Chiarelli and refined by Brigadier 
General Richard Thomas, Assistant Surgeon General for Force Projection, 
we are fielding a program which some have called ``CPR for the brain''. 
Our education and training efforts have led to increased awareness and 
screening for TBI and have contributed to decreasing the stigma 
associated with seeking diagnosis or treatment for TBI. TBI training 
has been integrated into education and training initiatives of all 
deploying units to increase awareness and education regarding 
recognition of symptoms as well as emphasize commanders and leaders' 
responsibilities for ensuring their Soldiers receive prompt medical 
attention as soon as possible after an injury.
    DOD policy changes in June 2010 implemented mandatory event-driven 
protocols following exposure to potentially concussive events in 
deployed environments. Events mandating an evaluation include any 
Service Member in a vehicle associated with a blast event, collision, 
or rollover; all personnel within close proximity to a blast; or anyone 
who sustains a direct blow to the head. Additionally, the command may 
direct a medical evaluation for any suspected concussion under other 
conditions. All new medics and Physician Assistants at the Army Medical 
Department Center and School are being trained on their roles in 
supporting this policy. During my recent visit to Afghanistan with my 
fellow Surgeons General in February 2011, discussions with Warriors and 
medical personnel at a number of sites lead me to conclude that these 
protocols are aggressively endorsed by commanders and are being 
complied with.
    The Army along with the DOD is implementing computerized tracking 
of these events for the purposes of providing healthcare providers with 
awareness of an individuals' history of proximity to blast events, 
allowing for greater visibility of at risk Soldiers during post-
deployment health assessment, informing Commanders, and to provide 
documentation to support Line of Duty investigations for Reserve and 
Guard members. The program from August to December 2010 has documented 
1,472 Soldiers. We are working hard to overcome the technical barriers 
for complete data input. My fellow Surgeons General and I saw this 
first hand in our trip to Afghanistan last month. We saw, as well, the 
complete commitment of all field commanders, small unit leaders, and 
medical professionals to the implementation of these protocols.
    To further the science of brain injury recovery, the Army relies on 
the U.S. Army Medical Research and Materiel Command's TBI Research 
Program. The overwhelming generosity of Congress and the DOD's 
commitment to brain injury research has significantly improved our 
knowledge of TBI in a rigorous scientific fashion. Currently, there are 
almost 350 studies funded by DOD to look at all aspects of TBI. The 
purpose of this program is to coordinate and manage relevant DOD 
research efforts and programs for the prevention, detection, mitigation 
and treatment of TBI. Some examples of the current research include 
medical standards for protective equipment, measures of head impact/
blast exposure, a portable diagnostic tool for TBI that can be used in 
the field, blood tests to detect TBI, medications for TBI treatment, 
and the evaluation of rehabilitation outcomes. The TBI Research Program 
leverages both DOD and civilian expertise by encouraging partnerships 
to solve problems related to TBI. The DOD partners with key 
organizations and national/international leaders, including the VA, the 
Defense Centers of Excellence for Psychological Health and TBI, the 
Defense and Veterans Brain Injury Center, academia, civilian hospitals 
and the National Football League, to improve our ability to diagnose, 
treat and care for those affected by TBI.
    Similar to our approach to concussive injuries, Army Medicine 
harvested the lessons of almost a decade of war and has approached the 
strengthening of our Soldiers and Families' behavioral health and 
emotional resiliency through a campaign plan to align the various 
Behavioral Health programs with the human dimension of the ARFORGEN 
cycle, a process we call the Comprehensive Behavioral Health System of 
Care (CBHSOC). This program is based on outcome studies that 
demonstrate the profound value of using the system of multiple 
touchpoints in assessing and coordinating health and behavioral health 
for a Soldier and Family. The CBHSOC creates an integrated, 
coordinated, and synchronized behavioral health service delivery system 
that will support the total force through all ARFORGEN phases by 
providing full spectrum behavioral healthcare. We leveraged experiences 
and outcome studies on deploying, caring for Soldiers in combat, and 
redeploying these Soldiers in large unit movements to build the CBHSOC. 
Some have been published, such as the landmark studies on concussive 
brain injury and PTSD by Charles Hoge, Carl Castro and colleagues or 
the recent publication of a forerunner program to the CBHSOC in the 3rd 
Infantry Division by Chris Warner, Ned Appenzeller and their co-
workers. These studies will be discussed further later.
    The CBHSOC is a system of systems built around the need to support 
an Army engaged in repeated deployments--often into intense combat--
which then returns to home station to restore, reset the formation, and 
re-establish family and community bonds. The intent is to optimize care 
and maximize limited behavioral health resources to ensure the highest 
quality of care to Soldiers and Families, through a multi-year campaign 
plan.
    Under the leadership of Major General Patricia Horoho, the Deputy 
Surgeon General, the CBHSOC campaign plan has five lines of effort: 
Standardize Behavioral Health Support Requirements; Synchronize 
Behavioral Health Programs; Standardize & Resource AMEDD Behavioral 
Health Support; Access the Effectiveness of the CBHSOC; and Strategic 
Communications. The CBHSOC campaign plan was published in September 
2010, marking the official beginning of incremental expansion across 
Army installations and the Medical Command. Expansion will be phased, 
based on the redeployment of Army units, evaluation of programs, and 
determining the most appropriate programs for our Soldiers and their 
Families.
    Near-term goals of the CBHSOC are implementation of routine 
behavioral health screening points across ARFORGEN and standardization 
of screening instruments. Goals also include increased coordination 
with both internal Army programs like Comprehensive Soldier Fitness, 
Army Substance Abuse Program, and Military Family Life Consultants. 
External resources include VA, local and state agencies, and the 
Defense Centers of Excellence for Psychological Health.
    Long-term goals of the CBHSOC are the protection and restoration of 
the psychological health of our Soldiers and Families and the 
prevention of adverse psychological and social outcomes like Family 
violence, DUIs, drug and alcohol addiction, and suicide. This is 
through the development of a common behavioral health data system; 
development and implementation of surveillance and data tracking 
capabilities to coordinate behavioral health clinical efforts; full 
synchronization of Tele-behavioral health activities; complete 
integration of the Reserve Components; and the inclusion of other Army 
Medicine efforts including TBI, patient centered medical home, and pain 
management. Integral to the success of the CBHSOC is the continuous 
evaluation of programs, to be conducted by the PHC.
    For those who do suffer from PTSD, Army Medicine has made 
significant gains in the treatment and management of PTSD as well. The 
DOD and VA jointly developed the three evidenced based Clinical 
Practice Guidelines for the treatment of PTSD, on which nearly 2,000 
behavioral health providers have received training. This training is 
synchronized with the re-deployment cycles of U.S. Army Brigade Combat 
Teams, ensuring that providers operating from MTFs that support the 
Brigade Combat Teams are trained and certified to deliver quality 
behavioral healthcare to Soldiers exposed to the most intense combat 
levels. In addition, the U.S. Army Medical Department Center & School, 
under the leadership of Major General David Rubenstein, collaborates 
closely with civilian experts in PTSD treatment to validate the content 
of these training products to ensure the information incorporates 
emerging scientific discoveries about PTSD and the most effective 
treatments.
    Work by the Army Medical Department and the Military Health System 
over the past 8 years has taught us to link information gathering and 
care coordination for any one Soldier or Family across the continuum of 
this cycle. Our Behavioral Health specialists tell us that the best 
predictor of future behavior is past behavior, and through the CBHSOC 
we strive to link the management of issues which Soldiers carry into 
their deployment with care providers and a plan down-range and the same 
in reverse.
    As mentioned previously, the results of a recent Army study 
published in January in the American Journal of Psychiatry by Major 
Chris Warner, Colonel Ned Appenzeller and colleagues report on the 
success of pre-deployment mental health support and coordination of 
care that dramatically reduced adverse behavioral health outcomes for 
over 10,000 Soldiers who received pre-deployment support prior to 
deployment compared to a like group of over 10,000 Soldiers who were 
deployed to the same battle space but were unable to receive the pre-
deployment behavioral health assessment and care coordination. These 
results show the Army, as part of its Comprehensive Behavioral Health 
System of Care Campaign Plan, is moving in the right direction 
implementing new policies and programs to enhance pre- and post-
deployment care coordination for Soldiers. This study demonstrates the 
ability to bridge the gap between identification through pre-deployment 
screening, as required by the National Defense Authorization Act for 
Fiscal Year 2010, Sec. 708 and actively managing and coordinating care 
for Soldiers with existing behavior health concerns to insure a 
successful deployment that benefits the Army and continued support to 
Soldiers and Families.
    The results are significant and provide the first direct evidence 
that a program that combines pre-deployment support and coordination of 
care that includes primary care managers, unit surgeons and behavioral 
health providers is effective in preventing adverse behavioral health 
outcomes for Soldiers. The study results move away from a perception of 
use of mental health screenings by Army and DOD as a tool to ``weed 
out'' Soldiers and service members deemed mentally unfit, to one of use 
and integration of behavioral health screenings as a routine part of 
Soldiers' and service members primary care during deployment. Coupled 
with insights provided by Walter Reed Army Institute of Research 
(WRAIR) researchers, such as Dr. Charles Hoge and COL Carl Castro about 
the relationship between concussive injury and PTSD as well as 7 years 
of annual surveys of BH problems and care in the deployed force through 
the WRAIR Mental Health Advisory Teams, we are making giants steps 
forward in prevention, early recognition, and mitigation of the 
neuropsychological effects of prolonged war on our Soldiers and 
Families.
    Much of the future of Army Medicine will be practiced at the 
Patient-Centered Medical Home (PCMH). The PCMH is a model of primary 
care-based health improvement and healthcare services being adopted 
throughout the Military Health System and in many venues in civilian 
practice. I commend the Air Force for taking the lead on some PCMH 
practices. The PCMH will be the principal enabler to improve readiness 
of the force and continuity of access to tailored patient services. It 
is a design that the Army will apply to all primary care settings.
    Dr. Paul Grundy, Director of Healthcare Transformation at IBM, 
pointed out that ``a smarter health system forges partnerships in order 
to deliver better care, predict and prevent disease and empower 
individuals to make smarter choices.'' In his estimation, the PCMH is 
``advanced primary care.'' According to Dr. Grundy the PCMH can build 
trust between patient and physician, improve the patient experience of 
care, reduce staff burnout, and hold the line on expenditures.
    The Medical Home philosophy concentrates on what a patient requires 
to remain healthy, to restore optimal health, and when needed, to 
receive tailored healthcare services. It relies upon building enduring 
relationships between patient and their provider--doctor, nurse 
practitioner, physician assistant and others--and a comprehensive and 
coordinated approach to care between providers and community services. 
This means much greater continuity of care, with patients seeing the 
same physician or professional partner 95 percent of the time. The 
result is more effective healthcare for both the provider and the 
patient that is based on trust and rapport.
    The PCMH integrates the patient into the healthcare team, offering 
aggressive prevention and personalized intervention. Physicians will 
not just evaluate their patients for disease to provide treatment, but 
also to identify risk of disease, including genetic, behavioral, 
environmental, or occupational risk. The healthcare team encourages 
healthy lifestyle behaviors, and success will be measured by how 
healthy they keep their patients, rather than by how many treatments 
they provide. The goal is that people will live longer lives with less 
morbidity, disability and suffering.
    Community Based Medical Homes (CBMHs) are part of the Army's 
implementation of the Patient Centered Medical Home. CBMHs are Army 
operated primary care clinics located in leased space in the off-post 
communities in which many of our active duty Families live. These 
clinics are extensions of the Army Hospital and staffed by government 
civilians. Active duty Family members receive enrollment priority. This 
initiative was undertaken to improve access and continuity to 
healthcare services, including behavioral health, for active duty 
Family members by expanding capacity and extending MTF services off-
post. The Army has grown and consumption of healthcare services is on 
the rise as a result of the war. These clinics will help Army Medicine 
improve quality of care and the patient experience; improve value 
through standardization and optimization of resources enabling 
operations at an economic advantage to the DOD; and improve the 
readiness of our Army and our Army Families. Clinics are placed where 
Families lacked access to Army primary care services and currently 17 
clinics are being developed in 13 markets. Recently clinics supporting 
Fort Campbell, Fort Sill, Fort Stewart and Fort Bragg have opened and 
initial feedback has been outstanding.
    The CBMHs build upon and are in many ways the culmination of a 
MEDCOM--wide campaign to closely monitor and reduce barriers to access 
and continuity; improve clinic productivity through standardization of 
administrative operations and support; to leverage improved health 
information management tools like AHLTA; and to incentivize commanders 
and providers to provide the right kind of care so as to improve 
individual and community health and outcomes of healthcare delivery in 
accordance with evidenced-based practices for chronic illness.
    We are adopting other methods as well to ensure better outcomes for 
patient care. At the MEDCOM, we have implemented a performance-based 
adjustment model (PBAM) to increase hospital and department 
responsibilities for how our funding is spent in health improvement and 
the delivery of healthcare services. PBAM creates a justifiable budget 
by a business planning process that links to outputs, such as volume or 
complexity of procedures. With the need for greater accountability and 
transparency, the MEDCOM has used PBAM to create performance measures 
that are consistent and can be compared across our facilities. We have 
experienced gains in total output, gains in provider efficiency, and 
increases in coding accuracy all aimed at improved outcomes of care--a 
more effective system for our beneficiaries and the Army. Incentives 
which are built into the program have measurably improved health and 
compliance with science--or--evidence-based care for chronic disease 
like diabetes and asthma.
    Army Medicine is committed to using evidence-based practices which 
provide the most effective treatment for the variety of medical issues 
confronting our patient population and especially those issues caused 
by the almost 10 years of war such as pain management. An Army at war 
for almost a decade recognizes it has accumulated significant issues 
with acute and chronic pain amongst its Soldiers. In August 2009, I 
chartered the Army Pain Management Task Force to make recommendations 
for a MEDCOM comprehensive pain management strategy. I appointed 
Brigadier General Richard Thomasas the Task Force Chairperson. Task 
Force membership included a variety of medical specialties and 
disciplines from the Army, as well as representatives from the Navy, 
Air Force, TRICARE Management Activity, and VA.
    The Pain Management Task Force developed 109 recommendations that 
lead to a comprehensive pain management strategy that is holistic, 
multidisciplinary, and multimodal in its approach, utilizes state of 
the art/science modalities and technologies, and provides optimal 
quality of life for Soldiers and other patients with acute and chronic 
pain. The Army Medical Command is operationalizing recommendations 
through the Pain Management Campaign Plan. I am proud to say that Army 
Medicine was recognized by the American Academy of Pain Medicine with 
the Presidential Commendation for its impact on pain medicine in the 
United States.
    An important objective of the Pain Management Task Force calls for 
building a full spectrum of best practices for the continuum of pain 
care, from acute to chronic, which is based on a foundation of the best 
available evidence based medicine. This can be accomplished through the 
adoption of an integrative and interdisciplinary approach to managing 
pain. Pain management should be handled by integrated care teams that 
use a biopsychosocial model of care. The standard of care should 
decrease overreliance on medication driven solutions and create an 
interdisciplinary approach that encourages collaboration among 
providers from differing specialties.
    The DOD should continue to responsibly explore safe and effective 
use of advanced and non-traditional approaches to pain management and 
support efforts to make these modalities covered benefits once they 
prove safe, effective and cost efficient. One way to achieve an 
interdisciplinary, multimodal and holistic approach to pain management 
is by incorporating complementary and alternative therapies--
integrative approaches--into an individualized pain management plan of 
care to include acupuncture, massage therapy, movement therapy, yoga, 
and other tools in mind-body medicine. To best address the goal of 
patient-centered care, providers must work in partnership with patients 
and Families in providing health promotion options while maintaining 
efficacy and safety standards. This integration needs to be methodical, 
appropriate, and evaluated throughout the process to ensure the best 
potential outcomes.
    While the Pain Management Task Force has worked to expand the use 
of non-medication pain management modalities, as combat operations 
continue, more Soldiers are presenting with physical or psychological 
conditions, or both, which require clinical care, including medication 
therapy. Consequently, some of them may be treated for multiple 
conditions with a variety of medications prescribed by several 
healthcare providers. While the resulting ``polypharmacy''--the use of 
multiple prescription or other medications--can be therapeutic in the 
treatment of some conditions, in other cases it can unwittingly lead to 
increased risk to patients. New Army policies and procedures to 
identify and mitigate polypharmacy have reduced the risk of these 
factors in garrison and deployed environments.
    Polypharmacy is not unique to military medical practice and is also 
a patient safety issue in the civilian medical community. The risks of 
polypharmacy include overdose (intentional or accidental); toxic 
interactions with other medications or alcohol; increased risk of 
adverse effects of medications; unintended impairment of alertness or 
functioning that may result in accident and injury; and the development 
of tolerance, withdrawal, and addiction to potentially habit-forming 
medications.
    U.S. Army Medical Command has issued guidance for enhancing patient 
safety and reducing risk via the prevention and management of 
polypharmacy. For example, Soldiers and Commanders are educated to take 
responsibility for, and active roles in, ensuring effective 
communication between patients and primary care managers to formulate 
treatment plans and address potential issues of polypharmacy. Annual 
training on managing polypharmacy patients is required for clinicians 
who prescribe psychotropic agents or central nervous system 
depressants. And through the electronic health record, patient health 
information, including prescriptions, is shared among providers to 
increase awareness of those patients with multiple medications.
    Evidence-based science makes strong Soldiers and we rely heavily on 
the U.S. Army Medical Research and Material Command (MRMC). Under the 
leadership of Major General James Gilman, MRMC manages and executes a 
robust, ongoing medical research program for the MEDCOM to support the 
development of new healthcare strategies. I would like to highlight a 
few research programs that are impacting health and care of our 
Soldiers today.
    The Combat Casualty Care Research Program (CCCRP) reduces the 
mortality and morbidity resulting from injuries on the battlefield 
through the development of new life-saving strategies, new surgical 
techniques, biological and mechanical products, and the timely use of 
remote physiological monitoring. The CCCRP focuses on leveraging 
cutting-edge research and knowledge from government and civilian 
research programs to fill existing and emerging gaps in combat casualty 
care. This focus provides requirements-driven combat casualty care 
medical solutions and products for injured Soldiers from self-aid 
through definitive care, across the full spectrum of military 
operations.
    The mission of the Military Operational Medicine Research Program 
(MOMRP) is to develop effective countermeasures against stressors and 
to maximize health, performance, and fitness, protecting the Soldier at 
home and on the battlefield. MOMRP research helps prevent physical 
injuries through development of injury prediction models, equipment 
design specifications and guidelines, health hazard assessment 
criteria, and strategies to reduce musculoskeletal injuries.
    MOMRP researchers develop strategies and advise policy makers to 
enhance and sustain mental fitness throughout a service member's 
career. Psychological health problems are the second leading cause of 
evacuation during prolonged or repeated deployments. MOMRP 
psychological health and resilience research focuses on prevention, 
treatment, and recovery of Soldiers and Families behavioral health 
problems, which are critical to force health and readiness. Current 
psychological health research topic areas include behavioral health, 
resiliency building, substance use and related problems, and risk-
taking behaviors.
    The Clinical and Rehabilitative Medicine Research Program (CRMRP) 
focuses on definitive and rehabilitative care innovations required to 
reset our wounded warriors, both in terms of duty performance and 
quality of life. The Armed Forces Institute of Regenerative Medicine 
(AFIRM) is an integral part of this program. The AFIRM was designed to 
speed the delivery of regenerative medicine therapies to treat the most 
severely injured U.S. service members from around the world but in 
particular those coming from the theaters of operation in Iraq and 
Afghanistan. The AFIRM is expected to make major advances in the 
ability to understand and control cellular responses in wound repair 
and organ/tissue regeneration and has major research programs in Limb 
Repair and Salvage, Craniofacial Reconstruction, Burn Repair, Scarless 
Wound Healing, and Compartment Syndrome.
    The AFIRM's success to date is at least in part the result of the 
program's emphasis on establishing partnerships and collaborations. The 
AFIRM is a partnership among the U.S. Army, Navy, and Air Force, the 
Department of Defense, the VA, and the National Institutes of Health. 
The AFIRM is composed of two independent research consortia working 
with the U.S. Army Institute of Surgical Research. One consortium is 
led by the Wake Forest Institute for Regenerative Medicine and the 
McGowan Institute for Regenerative Medicine in Pittsburgh while the 
other is led by Rutgers--the State University of New Jersey and the 
Cleveland Clinic. Each consortium contains approximately 15 member 
organizations, which are mostly academic institutions.
    MRMC is also the coordinating office for the DOD Blast Injury 
Research Program. The Blast Injury Research Program is addressing 
critical medical research gaps for blast-related injuries and is 
developing partnerships with other DOD and external medical research 
laboratories to achieve a cutting-edge approach to solving blast injury 
problems. One of the program's major areas of focus is the improvement 
of battlefield medical treatment capabilities to mitigate neurotrauma 
and hemorrhage. Additionally, the program is modernizing military 
medical research by bringing technology advances and new research 
concepts into DOD programs.
    We created a systematic and integrated approach to better organize 
and coordinate battlefield care to minimize morbidity and mortality, 
and optimize the ability to provide essential care required for 
casualty injuries--the Joint Theater Trauma System (JTTS). JTTS focuses 
on improving battlefield trauma care through enabling the right 
patient, at the right place, at the right time, to receive the right 
care. The components of the JTTS include prevention, pre-hospital 
integration, education, leadership and communication, quality 
improvement/performance improvement, research and information systems. 
The JTTS was modeled after the civilian trauma system principles 
outlined in the American College of Surgeons Committee on Trauma 
Resources for Optimal Care.
    Effectiveness and efficiency are also enhanced by electronic tools. 
To support DOD and VA collaboration on treating PTSD, pain, and other 
healthcare issues, the Electronic Health Record (EHR) should seamlessly 
transfer patient data between and among partners to improve 
efficiencies and continuity of care. The DOD and the VA share a 
significant amount of health information today and no two health 
organizations in the nation share more non-billable health information 
than the DOD and VA. The Departments continue to standardize sharing 
activities and are delivering information technology solutions that 
significantly improve the secure sharing of appropriate electronic 
health information. We need to include electronic health information 
exchange with our civilian partners as well--a health information 
systems which brings together three intersecting domains--DOD, VA, 
civilian--for optimal sharing of beneficiary health information and to 
provide a common operating picture of healthcare delivery. These 
initiatives enhance healthcare delivery to beneficiaries and improve 
the continuity of care for those who have served our country. 
Previously, the burden was on service members to facilitate information 
sharing; today, we are making the transition between DOD and VA easier 
for our service members.
    The Office of the Surgeon General (OTSG) works closely with Defense 
Health Information Management System of Health Affairs/TRICARE 
Management Activity in pursuing additional enhancements and fixes to 
AHLTA. The OTSG Information Management Division also continues to 
implement the MEDCOM AHLTA Provider Satisfaction Program, which now 
provides dictation and data entry software applications, tablet 
computing hardware, business process management, clinical business 
intelligence, and clinical systems training and integration to the 
providers and users of AHLTA. OTSG is taking the EHR lead in designing 
and pursuing the next generation of the EHR by participating in DOD and 
Inter-agency projects such as the EHR Way Ahead, the Virtual Lifetime 
Electronic Record Pilot Project, Nationwide Health Information Network, 
In-Depth EHR Training, and VA/DOD Sharing Initiatives. We are aligned 
with the Air Force's COMPASS program in ensuring that our providers and 
our clinics have the best and most user-friendly EHR.
    The Medical Command was reorganized in October 2010, to align 
regional medical commands (RMCs) with TRICARE regions with the 
resulting effect of improved readiness and support for the Army's 
iterative process of providing expeditionary, modular fighting units 
under the ARFORGEN cycle. We are well on the way to standardizing 
structure and staffing for RMC headquarters to provide efficiencies and 
ensure standardized best practices across Army Medicine. Three CONUS-
based regional medical commands, down from four, are now aligned with 
the TRICARE regions to provide healthcare in a seamless way with our 
TRICARE partners.
    In addition to TRICARE alignment, each region will contain an Army 
Corps headquarters, and health-care assets will be better aligned with 
beneficiary population of the regions. Each RMC has a deputy commander 
who is responsible for a readiness cell to coordinate and collaborate 
with the ARFORGEN cycle. This regional readiness cell will reach out to 
Reserve Component elements within their areas of responsibility to 
ensure that all medical and dental services required during the 
ARFORGEN cycle of the Reserve units are also identified and provided.
    In recent years, the Army has transformed how it provides 
healthcare to its Soldiers, with improvements impacting every aspect of 
the continuum of care. The Patient Centered Medical Home and the 
Warrior Transition Command are examples of the Army's strong commitment 
to adapt and improve its ability to provide the best care possible for 
our Soldiers and their Families. We have a duty and responsibility to 
our Soldiers, Families, and retirees. The level of care required does 
not end when the deployed Soldier returns home; there will be 
considerable ongoing healthcare costs for many years to support for our 
wounded, ill, or injured Service members. They need to trust we will be 
there to manage the health related consequences of over 9 years of war, 
including behavioral healthcare, post-traumatic stress, burn or 
disfiguring injuries, chronic pain or loss of limb. We will require 
ongoing research to establish more effective methodologies for 
treatment. Army Medicine remains focused on developing partnerships to 
achieve the aims of the MHS as we work together to provide cost 
effective care to improve the health of our Soldiers. The goal is to 
provide the best care and access possible for Army Families and 
retirees and to ensure optimal readiness for America's fighting forces 
and their Families.
    Last, I would like to join General Casey in expressing support for 
the military healthcare program changes included in the fiscal year 
2012 budget. The changes include modest enrollment fee increases for 
working-age retirees, pharmacy co-pay adjustments, aligning Defense 
reimbursements to sole community hospitals to Medicare consistent with 
current statute, and shifting future Uniformed Services Family Health 
Plan enrollees into the TRICARE-for-Life/Medicare program established 
by Congress in the fiscal year 2001 National Defense Authorization Act.
    In closing, over the past 40 months as the Army Surgeon General I 
have had numerous occasions to appear before this subcommittee, meet 
individually with you and your fellow members and interact with your 
staff. I have appreciated your tough questions, valuable insight, sage 
advice and deep commitment to your Army's Soldiers and their Families. 
Thank you for this opportunity to share Army Medicine with you. I am 
proud to serve with the Officers, Non-commissioned Officers, the 
enlisted Soldiers and civilian workforce of Army Medicine. Their 
dedication makes our Nation strong and our Soldiers and Families 
healthy and resilient.
    Thank you for your continued support of Army Medicine and to our 
Nation's men and women in uniform.
    Army Medicine: Building Value . . . Inspiring Trust

    Chairman Inouye. And now may I call upon Admiral Robinson.
STATEMENT OF VICE ADMIRAL ADAM M. ROBINSON, JR., 
            SURGEON GENERAL, DEPARTMENT OF THE NAVY
    Admiral Robinson. Good morning.
    Chairman Inouye, Vice Chairman Cochran, I am pleased to be 
with you today, and I want to thank the subcommittee for the 
tremendous confidence and unwavering support of Navy medicine, 
particularly as we continue to care for those who go in harm's 
way, their families, and all beneficiaries.
    Force health protection is the bedrock of Navy medicine. It 
is our duty, our obligation, and our privilege to promote, 
protect, and restore the health of our sailors and marines. The 
mission spans the full spectrum of healthcare from optimizing 
the health and fitness of the force, to maintaining robust 
disease surveillance and prevention programs, to saving lives 
on the battlefield. It also involves providing humanitarian 
assistance and disaster response around the world, and this is 
no more evident than in our efforts currently underway in Japan 
following the devastating earthquake and tsunami last month. I, 
along with my fellow surgeons general, traveled to Afghanistan 
in February and again witnessed the stellar performance of our 
dedicated men and women, both Active and Reserve, delivering 
expeditionary combat casualty care. At the NATO Role 3 
Multinational Medical Unit, Navy medicine is currently leading 
the joint and combined staff to provide the largest medical 
support in Kandahar. We are working side by side with Army and 
Air Force medical personnel, rapidly implementing best 
practices and employing unique skill sets in support of their 
demanding mission, leaving no doubt that the historically 
unprecedented survival rate from the battlefield is the direct 
result of better trained and equipped personnel, in conjunction 
with improved systems of treatment and casualty evacuation.
    We spend a lot of time discussing what constitutes world 
class healthcare. There is no doubt in my mind that the trauma 
care being provided in theater today is truly world class, as 
are the men and women delivering it. I am pleased to report to 
you that their morale is high and professionalism is unmatched.
    We also had the opportunity to visit our Concussion 
Restoration Care Center at Camp Leatherneck in Helmand 
Province. The center, which opened last August, assesses and 
treats service members with concussion, or mild traumatic brain 
injury, and musculoskeletal injuries. The goal is safely 
returning them to duty--to full duty following recovery. The 
Restoration Center, along with the initiatives like OSCAR, our 
Operational Stress Control and Readiness Program, where we 
embed full-time mental health personnel with deployed marines, 
continues to reflect our priority of positioning our medical 
personnel with deploying marines--our medical personnel and 
resources where they are most needed.
    Navy medicine has no greater responsibility than caring for 
our service members, wherever and whenever they need us. We 
understand that preserving the psychological health of service 
members and their families is one of the greatest challenges we 
face today. We also know that nearly a decade of continuous 
combat operations has resulted in a growing population of 
service members suffering with traumatic brain injury. We are 
forging ahead with improved screening, surveillance, treatment, 
education, and research; however, there is still much we do not 
yet know about these injuries and their long-term impact on the 
lives of our service members.
    I would specifically highlight the issuance of the 
directive-type memorandum in June 2010, which has increased 
line leaders' awareness of potential traumatic brain injury 
exposure, and, importantly, it mandates post-blast evaluations 
and removal of blast-exposed warfighters to promote recovery.
    We also recognize the importance of collaboration and 
partnership. Our collective efforts include those coordinated 
jointly with the other services, the Department of Veterans 
Affairs, the Centers of Excellence, as well as leading academic 
and research institutions.
    Let me now turn to patient and family centered care. 
Medical Home Port is Navy medicine's patient-centered medical 
home model, an important initiative that will significantly 
impact how we provide care to our beneficiaries. Medical Home 
Port emphasizes team-based, comprehensive care and focuses on 
the relationship between the patient, their provider, and the 
healthcare team. We continue to move forward with the phased 
implementation of Medical Home Port at our medical centers and 
family medicine teaching hospitals. An initial response from 
our patients and our providers is very encouraging.
    Finally, I would like to address the proposed Defense 
Health Program cost efficiencies. Rising healthcare costs 
within the military health system continue to present 
challenges. The Secretary of Defense has articulated that the 
rate at which healthcare costs are increasing and the relative 
proportion of the Department's resources devoted to healthcare 
cannot be sustained. The Department of the Navy fully supports 
the Secretary's plan to better manage costs moving forward and 
ensure our beneficiaries have access to the quality care that 
is the hallmark of military medicine.
    In summary, I am proud of the progress we are making, but 
not satisfied. We continue to see groundbreaking innovations in 
combat casualty care and remarkable heroics in saving lives. 
But all of us remain concerned about the cumulative effects of 
worry, stress, and anxiety on our service members and their 
families brought about by a decade of conflict. Each day 
resonates with the sacrifices that our sailors, marines, and 
their families make quietly and without bravado. It is this 
commitment, this selfless service, that helps inspire us in 
Navy medicine. Regardless of the challenges ahead, I am 
confident that we are well positioned for the future.
    As my last cycle of hearings is now coming to a close, as 
is my Navy career, I would like to thank this subcommittee and 
the entire Congress for their support of Navy medicine and 
everything that you have done to make sure that our men and 
women have the best in every possibility, both on the 
battlefield, in their recovery, and after they are out of the 
service.

                           PREPARED STATEMENT

    I appreciate the opportunity to be here today, and I look 
forward to your questions. Thank you very much.
    Chairman Inouye. Thank you very much, Admiral.
     [The statement follows:]
        Prepared Statement of Vice Admiral Adam M. Robinson, Jr.
                              introduction
    Chairman Inouye, Vice Chairman Cochran, distinguished Members of 
the Subcommittee, I am pleased to be with you today to provide an 
update on Navy Medicine, including some of our accomplishments, 
challenges and strategic priorities. I want to thank the Committee 
Members for the tremendous confidence and unwavering support of Navy 
Medicine, particularly as we continue to care for those who go in 
harm's way, their families and all beneficiaries.
    Navy Medicine delivers world class care, anytime, anywhere. We are 
forward-deployed and engaged around the world every day, no matter what 
the environment and regardless of the challenge. The operational tempo 
of this past year continues to demonstrate that we must be flexible, 
adaptable and ready to respond globally. We will be tested in our 
ability to meet our operational and humanitarian assistance 
requirements, as well as maintain our commitment to provide patient and 
family centered care to a growing number of beneficiaries. However, I 
am proud to say that Navy Medicine is responding to these challenges 
with skill, commitment and compassion.
           strategic alignment, integration and efficiencies
    Strategic alignment with the priorities of the Secretary of the 
Navy, Chief of Naval Operations and Commandant of the Marine Corps is 
critical to our ability to meet our mission. As a world-wide healthcare 
system, Navy Medicine is fully engaged in carrying out the core 
capabilities of the Maritime Strategy and the Cooperative Strategy for 
the 21st Century Seapower around the globe. Our ongoing efforts, 
including maintaining warfighter health readiness, conducting 
humanitarian assistance and disaster relief missions, protecting the 
health of our beneficiaries, as well as training our future force are 
critical to our future success.
    We also recognize the importance of alignment within the Military 
Health System (MHS) as evidenced by the adoption of the Quadruple Aim 
initiative as a primary focus of the MHS Strategic Plan. The Quadruple 
Aim applies the framework from the Institute for Healthcare Improvement 
(IHI) and customizes it for the unique demands of military medicine. It 
targets the MHS and Services' efforts on integral outcomes in the areas 
of readiness, population health and quality, patient experience and 
cost. The goal is to develop better outcomes and implement balanced 
incentives across the MHS.
    Within Navy Medicine, we continue to maintain a rigorous strategic 
planning process. Deliberative planning, constructive self-assessment 
and alignment at all levels of our organization, have helped create 
momentum and establish a solid foundation of measurable progress that 
drives change. It's paying dividends as we are seeing improved and 
sustained performance in our strategic objectives.
    This approach is particularly evident in our approach to managing 
resources. We are leveraging analytics to target resource decisions. An 
integral component of our Strategic Plan is providing performance 
incentives that promote quality and directly link back to workload, 
readiness and resources. We continue to evolve to a system which 
integrates requirements, resources and performance goals and promotes 
patient and family centered care. This transformation properly aligns 
authority, accountability and financial responsibility with the 
delivery of quality, cost-effective healthcare that remains patient and 
family centered.
    Aligning incentives helps foster process improvement particularly 
in the area of quality. Our Lean Six Sigma (LSS) program continues to 
be highly successful in identifying projects that synchronize with our 
strategic goals and have system-wide implications for improvement. 
Examples include reduced cycle time for credentialing providers and 
decreased waiting times for diagnostic mammography and ultrasound. I am 
also encouraged by our collaboration with the Johns Hopkins' Applied 
Physics Laboratory to employ industrial engineering practices to 
improve clinical processes and help recapture private sector workload.
    Navy Medicine continues to work within the MHS to realize cost 
savings through several other initiatives. We believe that robust 
promotion of TRICARE Home Delivery Pharmacy Program, implementation of 
supply chain management standardization for medical/surgical supplies 
and the full implementation of Patient-Centered Medical Home (PCMH) 
will be key initiatives that are expected to successfully reduce costs 
without compromising access and quality of care.
    Rising healthcare costs within the MHS continue to present 
challenges. The Secretary of Defense has articulated that the rate at 
which healthcare costs are increasing and relative proportion of the 
Department's resources devoted to healthcare, cannot be sustained. He 
has been resolute in his commitment to implement systemic efficiencies 
and specific initiatives which will improve quality and satisfaction 
while more responsibly managing cost.
    The Secretary of the Navy, Chief of Naval Operations and Commandant 
of the Marine Corps recognize that the MHS is not immune to the 
pressure of inflation and market forces evident in the healthcare 
sector. In conjunction with a growing number of eligible beneficiaries, 
expanded benefits and increased utilization throughout our system, it 
is incumbent upon us to ensure that we streamline our operations in 
order to get the best value for our expenditures. We have made 
progress, but there is more to do. We support the efforts to 
incentivize TRICARE Home Delivery Pharmacy Program and also to 
implement modest fee increases, where appropriate, to ensure equity in 
benefits for our retirees.
    The Department of the Navy (DON) fully supports the Secretary's 
plan to better manage costs moving forward and ensure our beneficiaries 
have access to the quality care that is the hallmark of military 
medicine. As the Navy Surgeon General, I appreciate the tremendous 
commitment of our senior leaders in this critical area and share the 
imperative in developing a more affordable and sustainable healthcare 
benefit.
    Navy Medicine has worked hard to get best value of every dollar 
Congress has provided and we will continue to do so. The President's 
budget for fiscal year 2012 adequately funds Navy Medicine to meet its 
medical mission for the Navy and Marine Corps. We are, however, facing 
challenges associated with operating under a potential continuing 
resolution for the remainder of the year, particularly in the areas of 
provider contracts and funding for facility special projects.
                        force health protection
    Force Health Protection is the bedrock of Navy Medicine. It is what 
we do and why we exist. It is our duty--our obligation and our 
privilege--to promote, protect and restore the health of our Sailors 
and Marines. This mission spans the full spectrum of healthcare, from 
optimizing the health and fitness of the force, to maintaining robust 
disease surveillance and prevention programs, to saving lives on the 
battlefield. When Marines and Sailors go into harm's way, Navy Medicine 
is with them. On any given day, Navy Medicine is underway and forward 
deployed with the Fleet and Marine Forces, as well as serving as 
Individual Augmentees (IAs) in support of our global healthcare 
mission.
    Clearly, our focus continues to be combat casualty care in support 
of Operation Enduring Freedom (OEF). I, along with my fellow Surgeons 
General, recently returned from the Central Command (CENTCOM) Area of 
Responsibility (AOR) and again witnessed the stellar performance of our 
men and women delivering expeditionary combat casualty care. At the 
NATO Role 3 Multinational Medical Unit, Navy Medicine is currently 
leading the joint and combined staff to provide the largest medical 
support in Kandahar with full trauma care to include 3 operating rooms, 
12 intensive care beds and 35 ward beds. This state-of-the-art facility 
is staffed with dedicated and compassionate active and reserve 
personnel who are truly delivering world-class care. Receiving 70 
percent of their patients directly from the point of injury on the 
battlefield, our doctors, nurses and corpsmen apply the medical lessons 
learned from 10 years of war to achieve a remarkable 97 percent 
survival rate for coalition casualties.
    The Navy Medicine team is working side-by-side with Army and Air 
Force medical personnel and coalition forces to deliver outstanding 
healthcare to U.S. military, coalition forces, contractors, Afghan 
national army, police and civilians, as well as detainees. The team is 
rapidly implementing best practices and employing unique skill sets 
with specialists such as an interventional radiologist, pediatric 
intensivist, hospitalist and others in support of their demanding 
mission. I am proud of the manner in which our men and women are 
responding--leaving no doubt that the historically unprecedented 
survival rate from battlefield injuries is the direct result of better 
trained and equipped personnel, in conjunction with improved systems of 
treatment and casualty evacuation.
    Combat casualty care is a continuum which begins with corpsmen in 
the field with the Marines. We are learning much about battlefield 
medicine and continue to quickly put practices in place that will save 
lives. All deploying corpsmen must now complete the Tactical Combat 
Casualty Care (TCCC) training. TCCC guidelines for burns, hypothermia 
and fluid resuscitation for first responders have also been updated. 
This training is based on performing those interventions on the 
battlefield that address preventable causes of death. In addition, we 
have expanded the use of Combat Application Tourniquets (CATs) and 
hemostatic impregnated bandages as well as improving both intravenous 
therapy and individual first aid kits (IFAKs) and vehicle medical kits 
(VMKs).
    We continue to see success with our Forward Resuscitative Surgical 
System (FRSS) which allows for stabilization within the ``golden 
hour''. The FRSS can perform 18 major operations over the course of 72 
hours without being re-supplied. Our ability to send medical teams 
further forward has improved survivability rates. To this end, we are 
clearly making tremendous gains in battlefield medicine throughout the 
continuum of care. Work being conducted by the Joint Theatre Trauma 
Registry and Joint Combat Casualty Research Teams are enabling us to 
capture, evaluate and implement clinical practice guidelines and best 
practices quickly.
              humanitarian assistance and disaster relief
    Navy Medicine continues its commitment to providing responsive and 
comprehensive support for Humanitarian Assistance/Disaster Relief (HA/
DR) missions around the world. We are often the first responder for HA/
DR missions due to the presence of organic medical capabilities with 
forward deployed Navy assets. Our hospital ships, USNS Mercy (T-AH 19) 
and USNS Comfort (T-AH 20) are optimally configured to deploy in 
support of HCA activities in South America, the Pacific Rim and East 
Asia.
    Navy Medicine not only responds to disasters around the world and 
at home, we also conduct proactive humanitarian missions in places as 
far reaching as Africa through Africa Partnership Station to the 
Pacific Rim through Pacific Partnership and South America through 
Continuing Promise. Mercy's recent deployment in support of Pacific 
Partnership 2010, the fifth annual Pacific Fleet proactive humanitarian 
mission, is strengthening ongoing relationships with host and partner 
nations in Southeast Asia and Oceania. During the 144-day, six nation 
mission, we treated 109,754 patients, performed 859 surgeries and 
engaged in thousands of hours of medical subject matter expert 
exchanges.
    Our hospital ships are executing our Global Maritime Strategy by 
building the trust and cooperation we need to strengthen our regional 
alliances and empower partners around the world. With each successful 
deployment, we increase our interoperability with host and partner 
nations, non-governmental organizations and the interagency partners. 
Today's security missions must include humanitarian assistance and 
disaster response,
    Enduring HA missions such as Pacific Partnership and Continuing 
Promise, as well other Medical Readiness Education Training Exercises 
(MEDRETEs) provide valuable training of personnel to conduct future 
humanitarian support and foreign disaster relief missions. Our 
readiness was clearly evident by the success of Operation Unified 
Response (OUR) following the devastating earthquake in Haiti last year. 
Our personnel were trained and prepared to accomplish this challenging 
mission.
                            concept of care
    Patient and family centered care is our core philosophy--the 
epicenter of everything we do. We are providing comprehensive, 
compassionate healthcare for all our beneficiaries wherever they may be 
and whenever they may need it. Patient and family centered care helps 
ensure patient satisfaction, increased access, coordination of services 
and quality of care, while recognizing the vital importance of the 
family. Navy Medicine serves personnel throughout their treatment 
cycle, and for our Wounded Warriors, we manage every aspect of medicine 
in their continuum of care to provide a seamless transition from 
battlefield to bedside to leading productive lives.
    Medical Home Port is Navy Medicine's Patient-Centered Medical Home 
(PCMH) model, an important initiative that will significantly impact 
how we provide care to our beneficiaries. In alignment with my 
strategic goal for patient and family centered care, Medical Home Port 
emphasizes team-based, comprehensive care and focuses on the 
relationship between the patient, their provider and the healthcare 
team. The Medical Home Port team is responsible for managing all 
healthcare for empanelled patients, including specialist referrals when 
needed. Patients see familiar faces with every visit, assuring 
continuity of care. Appointments and tests get scheduled promptly and 
care is delivered face-to-face or when appropriate, using secure 
electronic communication. PCMH is being implemented by all Services and 
it is expected to improve population health, patient satisfaction, 
readiness, and is likely to impact cost in very meaningful ways.
    It is important to realize that Medical Home Port is not brick and 
mortar; but rather a philosophy and commitment as to how you deliver 
the highest quality care. A critical success factor is leveraging all 
our providers, and supporting information technology systems, into a 
cohesive team that will not only provide primary care, but integrate 
specialty care as well. We continue to move forward with the phased 
implementation of Medical Home Port at our medical centers and family 
medicine teaching hospitals, and initial response from our patients is 
very encouraging.
          caring for our heroes, their families and caregivers
    We have no greater responsibility than caring for our service 
members, wherever and whenever they need us. This responsibility spans 
from the deckplates and battlefield to our clinics, hospitals and 
beyond. This commitment to provide healing in body, mind and spirit has 
never been more important. Our case management programs, both medical 
and non-medical, play a vital role in the development of Comprehensive 
Recovery Plans to provide our war-injured service members' optimal 
outcomes. Case management is the link that connects resources and 
services for our Wounded Warriors and their families.
    Associated with this commitment, we must understand that preserving 
the psychological health of service members and their families is one 
of the greatest challenges we face today. We recognize that service 
members and their families are resilient at baseline, but the long 
conflict and related deployments challenge this resilience. DON is 
committed to providing programs that support service members and their 
families.
    The Navy Operational Stress Control program and Marine Corps Combat 
Operational Stress Control programs are the cornerstones of our 
approach to early detection of stress injuries in Sailors and Marines 
and are comprised of line-led programs which focus on leadership's role 
in monitoring the health of their people; tools leaders may employ when 
Sailors and Marines are experiencing mild to moderate symptoms; and 
multidisciplinary expertise (medical, chaplains and other support 
services) for more affected members.
    Navy Medicine's Psychological Health (PH) program supports the 
prevention, diagnosis, mitigation, treatment and rehabilitation of 
post-traumatic stress disorder (PTSD) and other mental health 
conditions, including planning for the seamless transition of service 
members throughout the recovery and reintegration process. We have 
increased the size of the mental health workforce to support the 
readiness and health needs of the Fleet and Marine Corps throughout the 
deployment cycle and, during fiscal year 2010, funded 221 clinical and 
support staff positions at 14 Navy military treatment facilities (MTFs) 
to help ensure timely access to care.
    Stigma remains a barrier; however, Navy and Marine Corps' efforts 
to decrease stigma have had preliminary success--with increased active 
leadership support and Operational Stress Control (OSC) training 
established throughout the Fleet and Marine Forces.
    Within the Marine Corps, we continue to see success with the 
Operational Stress Control and Readiness (OSCAR) program as well as the 
OSCAR Extender program. OSCAR embeds full-time mental health personnel 
with deploying Marines and uses existing medical and chaplain personnel 
as OSCAR Extenders and trained senior and junior Marines as mentors to 
provide support at all levels to reduce stigma and break down barriers 
to seeking help. Our priority remains ensuring we have the service and 
support capabilities for prevention and early intervention available 
where and when it is needed. OSCAR is allowing us to move forward in 
this important area.
    We recently deployed our third Navy Mobile Mental Health Care Team 
for a 6-month mission in Afghanistan. The team consists of three mental 
health clinicians, a research psychologist and an enlisted psychiatry 
technician. Their primary tool is the Behavioral Health Needs 
Assessment Survey (BHNAS). The results give an overall assessment of 
real time force mental health and well-being every 6 months, and can 
identify potential areas or sub-groups of concern for leaders. It 
assesses a wide variety of content areas, including mental health 
outcomes, as well as the risk and protective factors for those outcomes 
such as combat exposures, deployment-related stressors, positive 
effects of deployment, morale and unit cohesion. The Mobile Care Team 
also has a mental health education role and provides training in 
Psychological First Aid to Sailors in groups and individually. 
Ultimately, Psychological First Aid gives Sailors a framework to 
promote resilience in one another.
    Our Naval Center for Combat & Operational Stress Control (NCCOSC) 
is one way we are developing an environment that supports 
psychologically fit, ready and resilient Navy and Marine Corps forces. 
The goal is to demystify stress and help Sailors and Marines take care 
of themselves and their shipmates. NCCOSC continues to make progress in 
advancing research for the prevention, diagnosis and treatment of 
combat and operational stress injuries to include PTSD. They are 
involved in over 64 ongoing scientific projects with 3,525 participants 
enrolled. NCCOSC has recently developed a pilot program, Psychological 
Health Pathways, which is designed to ensure that clinical practice 
guidelines are followed and evidence-based care is practiced and 
tracked. To date, 1,554 patients have been enrolled into the program 
with 600,062 points of clinical data gathered. The program involves 
intensive mental health case management, use of standardized measures, 
provider training and comprehensive data tracking.
    In November 2010, we launched a pilot program, Overcoming Adversity 
and Stress Injury Support (OASIS) at the Naval Medical Center, San 
Diego. Developed by Navy Medicine personnel and located onboard the 
Naval Base Point Loma, California, OASIS is a 10-week residential 
program designed to provide intensive mental healthcare for service 
members with combat related mental health symptoms from post-traumatic 
stress disorder, as well as major depressive disorders, anxiety 
disorders and substance abuse problems. The program offers a 
comprehensive approach, focusing on mind and body through various 
methods including yoga, meditation, spirituality classes, recreation 
therapy, art therapy, intensive sleep training, daily group therapy, 
individual psychotherapy, family skills training, medication management 
and vocational rehabilitation. We will be carefully assessing the 
efficacy of this pilot program throughout this year.
    Associated with our Operational Stress Control efforts, suicide 
prevention remains a key component. Suicide destroys families and 
impacts our commands. We are working hard at all levels to build the 
resilience of our Sailors and Marines and their families, as well as 
foster a culture of awareness and intervention by the command and 
shipmates. Our programs are focused on leadership engagement, 
intervention skills, community building and access to quality 
treatment. All of us in uniform have a responsibility to care for our 
shipmates and remain vigilant for signs of stress. A-C-T (Ask--Care--
Treat) remains an important framework of response. In 2010, both the 
Navy and Marine Corps saw reductions in the number of suicides from the 
prior year, with the Navy seeing a reduction of 17 percent while the 
Marine Corps realized a 29 percent drop.
    We are also committed to improving the psychological health, 
resiliency and well-being of our family members. When our Sailors and 
Marines deploy, our families are their foothold. Family readiness is 
force readiness and the physical, mental, emotional, spiritual health 
and fitness of each individual is critical to maintaining an effective 
fighting force. A vital aspect of caring for our Warriors is also 
caring for their families and we continue to look for innovative ways 
to do so.
    To meet this growing challenge, Navy Medicine began an unparalleled 
approach in 2007 called Project FOCUS (Families OverComing Under 
Stress) to help our families. FOCUS is a family centered resiliency 
training program based on evidenced-based interventions that enhances 
understanding, psychological health and developmental outcomes for 
highly stressed children and families. FOCUS has been adapted for 
military families facing multiple deployments, combat operational 
stress, and physical injuries in a family member. It is an 8-week, 
skill-based, trainer-led intervention that addresses difficulties that 
families may have when facing the challenges of multiple deployments 
and parental combat related psychological and physical health problems. 
It has demonstrated that a strength-based approach to building child 
and family resiliency skills is well received by service members and 
their family members. Notably, program participation has resulted in 
statistically significant increases in family and child positive coping 
and significant reductions in parent and child distress over time, 
suggesting longer-term benefits for military family wellness.
    Project FOCUS has been highlighted by the Interagency Policy 
Committee on Military Families Report to the President (October 2010) 
and has been recognized by the Department of Defense (DOD) as a best 
practice. Given the success FOCUS has demonstrated thus far, we will 
continue to devote our efforts to ensuring our service members and 
their families have access to this program. To date, over 160,000 
Service members, families and community support providers have received 
FOCUS services, across 23 locations CONUS and OCONUS.
    Our programs must address the needs of all of our Sailors, Marines 
and families, including those specifically targeted to the unique needs 
of reservists and our caregivers. The Reserve Psychological Health 
Outreach Program (RPHOP) identifies Navy and Marine Corps Reservists 
and their families who may be at risk for stress injuries and provides 
outreach, support and resources to assist with issue resolution and 
psychological resilience. An effective tool at the RPHOP Coordinator's 
disposal is the Returning Warrior Workshop (RWW), a 2-day weekend 
program designed specifically to support the reintegration of returning 
Reservists and their families following mobilization. Some 54 RWWs have 
been held since 2008 with over 6,000 military personnel, family members 
and guests attending.
    Navy Medicine is also working to enhance the resilience of 
caregivers to the psychological demands of exposure to trauma, wear and 
tear, loss, and inner conflict associated with providing clinical care 
and counseling through the Caregiver Occupational Stress Control 
(CgOSC) Program. The core objectives are early recognition of distress, 
breaking the code of silence related to stress reactions and injuries, 
and engaging caregivers in early help as needed to maintain both 
mission and personal readiness.
    In addition, the Naval Health Research Center (NHRC) produced ``The 
Docs'', a 200-page graphic novel, as a communication tool to help our 
corpsmen with the stresses of combat deployments. ``The Docs'' is the 
story of four corpsmen deployed to Iraq. While some events in the novel 
are specific to Operation Iraqi Freedom (OIF), it is not intended to 
depict any specific time period or conflict but rather highlight 
general challenges faced by corpsmen who serve as the ``Docs'' in a 
combat zone. It was developed with the intent to instill realistic 
expectations of possible deployment stressors and to provide examples 
for corpsmen on helpful techniques for in-theater care of stress 
injuries. This format was chosen for its value in providing thought-
provoking content for discussion in training scenarios and to appeal to 
the targeted age group.
    Nearly a decade of continuous combat operations has resulted in a 
growing population of service members suffering with Traumatic Brain 
Injury (TBI), the very common injury of OEF and OIF. The majority of 
TBI injuries are categorized as mild, or in other words, a concussion. 
We know more about TBI and are forging ahead with improved 
surveillance, treatment and research. However, we must recognize that 
there is still much we do not yet know about these injuries and their 
long-term impacts on the lives of our service members.
    Navy Medicine is committed to ensuring thorough screening for all 
Sailors and Marines prior to expeditionary deployment, enhancing the 
delivery of care in theater, and the identification and testing of all 
at-risk individuals returning from deployment. We are committed to 
enhancing training initiatives, developing better tools to detect 
changes related to TBI and sustaining research into better treatment 
options.
    Pre-deployment screening is prescribed using the Automated 
Neuropsychological Assessment Metrics (ANAM). Testing has expanded to 
Navy and Marine Corps worldwide, enhancing the ability to establish 
baseline neurocognitive testing for expeditionary deployers. This 
baseline test has provided useful comparative data for medical 
providers in their evaluation, treatment and counseling of individuals 
who have been concussed in theater.
    In-theater screening and treatment has also improved over time. The 
issuance of the Directive-Type Memorandum (DTM) 09-033 in June 2010 has 
increased leaders' awareness of potential TBI exposure and mandates 
post-blast evaluations and removal of blast-exposed warfighters from 
high risk situations to promote recovery. Deploying medical personnel 
are trained in administering the Military Acute Concussion Evaluation 
(MACE), a rapid field assessment to help corpsmen identify possible 
concussions. Additionally, deploying medical providers receive training 
on the DTM requirements and in-theater Clinical Practice Guidelines 
(CPGs) for managing concussions.
    In August 2010, the Marine Corps, supported by Navy Medicine, 
opened the Concussion Restoration Care Center (CRCC) at Camp 
Leatherneck in Helmand Province to assess and treat service members 
with concussion or musculoskeletal injuries, with the goal of safely 
returning as many service members as possible to full duty following 
recovery of cognitive and physical functioning. The CRCC is supported 
by an interdisciplinary team including sports medicine, family 
medicine, mental health, physical therapy and occupational therapy. I 
am encouraged by the early impact the CRCC is having in theatre by 
providing treatment to our service members close to the point of injury 
and returning them to duty upon recovery. We will continue to focus our 
attention on positioning our personnel and resources where they are 
most needed.
    Post-deployment surveillance for TBI is accomplished through the 
Post-Deployment Health Assessment (PDHA) and Post-Deployment Health 
Reassessment (PDHRA), which are required for returning deplorers. 
Further evaluation, treatment and referrals are provided based on 
responses to certain TBI-specific questions on the assessments.
    TBI research efforts are focused on continuing to refine tools for 
medical staff to use to detect and treat TBI. Two specific examples are 
a study of cognitive and physical symptoms in USMC Breacher instructors 
(who have a high lifetime exposure rate to explosive blasts) and an 
ongoing surveillance effort with USMC units with the highest identified 
concussion numbers to determine the best method for identifying service 
members requiring clinical care. These efforts are coupled with post-
deployment ANAM testing for those who were identified as sustaining at 
least one concussion in theater. Other efforts are underway to identify 
physical indicators and biomarkers for TBI, such as blood tests, to 
help in diagnosis and detection. We are also conducting evaluations of 
various neurocognitive assessment tools to determine if there is a 
``best'' tool for detecting concussion effects in the deployed 
environment. Our efforts also include those coordinated jointly with 
the other Services, the Defense and Veterans Brain Injury Center 
(DVBIC), and the Defense Centers of Excellence for Psychological Health 
and Traumatic Brain Injury (DCoE).
    I am committed to ensuring that we build on the vision advanced by 
the Members of Congress and the hard work of the dedicated 
professionals at all the Centers of Excellence, MTFs, research centers 
and our partners in both the public and private sectors. These Centers 
of Excellence have become important components of the Military Health 
System and their work in support of clinical best practices, research, 
outreach and treatment must continue with unity of effort and our 
strong support.
    Our service members must have access to the best treatment, 
research and education available for PH and TBI. We continue to see 
progress as evidenced by the opening of the National Intrepid Center of 
Excellence (NICoE) onboard the National Naval Medical Center campus. As 
a leader in advancing state-of-the-art treatment, research, education 
and training, NICoE serves as an important referral center primarily 
for service members and their families with complex care needs, as well 
as a hub for best practices and consultation. NICoE also conducts 
research, tests new protocols and provides comprehensive training and 
education to patients, providers and families--all vital to advancing 
medical science in PH and TBI.
    Navy Medicine is also working with the DCoE, its component centers 
including DVBIC, the Department of Veterans Affairs, research centers, 
and our partners in both the public and private sectors to support best 
clinical practices, research and outreach. We continue to see gains in 
both the treatment and development of support systems for our Wounded 
Warriors suffering with these injuries; however, we must recognize the 
challenging and extensive work that remains. Our commitment will be 
measured in decades and generations and must be undertaken with urgency 
and compassion.
                         the navy medicine team
    Our people are our most important assets, and their dignity and 
worth are maintained through an atmosphere of service, professionalism, 
trust and respect. Navy Medicine is fortunate to have over 63,000 
dedicated professionals working to improve and protect the health of 
Sailors, Marines and their families. Our team includes officers, 
enlisted personnel, government civilians and contractors working 
together in support of our demanding mission. I have been privileged to 
meet many of them in all environments--forward-deployed with the 
operating forces, in our labs and training facilities, at the bedside 
in our medical centers and hospitals--and I'm always inspired by their 
commitment.
    We are working diligently to attract, recruit and retain our Navy 
Medicine personnel. Overall, I remain encouraged with the progress we 
are making in recruiting and overall manning and we are seeing the 
successes associated with our incentive programs. In fiscal year 2010, 
we met our Active Medical Department recruiting goal and attained 90 
percent of Reserve Medical Department goal, but there was a notable 
shortfall in Reserve Medical Corps recruiting at 70 percent. Given the 
relatively long training pipeline for many of our specialties, we 
clearly recognize the impact that recruiting shortfalls in prior years, 
particularly in the Health Professions Scholarship Program (HPSP), can 
have in meeting specialty requirements today and moving forward. 
Recruiting direct accession physicians and dentists remains 
challenging, requiring our scholarship programs to continue recent 
recruiting successes to meet inventory needs. Retention has improved 
for most critical wartime specialties, supported by special pay 
initiatives; however, some remain below our requirements and continue 
to be closely monitored.
    Within the active component Medical Corps, general surgery, family 
medicine and psychiatry have shortfalls, as does the Dental Corps with 
general dentistry and oral maxillofacial surgery specialties. We are 
also experiencing shortfalls for nurse anesthetists, perioperative and 
critical care nurses, family nurse practitioners, clinical 
psychologists, social workers and physician assistants.
    The reserve component shortages also exist within anesthesiology, 
neurosurgery, orthopedic surgery, internal medicine, psychiatry, 
diagnostic radiology, comprehensive dentistry and oral maxillofacial 
surgery as well as perioperative nursing, anesthesia and mental health 
nurse practitioners.
    We appreciate your outstanding support for special pays and bonus 
programs to address these shortages. These incentives will continue to 
be needed for future success in both recruiting and retention. We are 
working closely with the Chief of Naval Personnel and Commander, Naval 
Recruiting Command to assess recruiting incentive initiatives and 
explore opportunities for improvement.
    For our civilian personnel within Navy Medicine, we are also 
coordinating the National Security Personnel System (NSPS) replacement 
for 32 healthcare occupations to ensure pay parity among healthcare 
professions. We have been successful in hiring required civilians to 
support our Sailors and Marines and their families--many of whom 
directly support our Wounded Warriors. Our success in hiring is in 
large part due to the hiring and compensation flexibilities that have 
been granted to the DOD's civilian healthcare community over the past 
several years.
    Our priority remains to maintain the right workforce to deliver the 
required medical capabilities across the enterprise, while using the 
appropriate mix of accession, retention, education and training 
incentives.
    I want to also reemphasize the priority we place on diversity. Navy 
Medicine has continued to emerge as a role model of diversity as we 
focus on inclusiveness while aligning ethnic and gender representation 
throughout the ranks to reflect our Nation's population. Not only are 
we setting examples of a diverse, robust and dedicated healthcare 
force, but this diversity also reflects the people for whom we provide 
care. We take great pride in promoting our message that we are the 
employer of choice for individuals committed to a culturally competent 
work-life environment; one where our members proudly see themselves 
represented at all levels of leadership.
    For all of us in Navy Medicine, an excerpt from the Navy Ethos 
articulates well what we do: ``We are a team, disciplined and well-
prepared, committed to mission accomplishment. We do not waiver in our 
dedication and accountability to our Shipmates and families.''
      excellence in research and development and health education
    World-class research and development capabilities, in conjunction 
with outstanding medical education programs, represent the future of 
our system. Each is a force-multiplier and, along with clinical care, 
is vital to supporting our health protection mission. The work that our 
researchers and educators do is having a direct impact on the treatment 
we are able to provide our Wounded Warriors, from the battlefield to 
the bedside. We will shape the future of military medicine through 
research, education and training.
    The overarching mission of our Research and Development program is 
to conduct health and medical research, development, testing, and 
evaluation (RDT&E), and surveillance to enhance the operational 
readiness and performance of DOD personnel worldwide. In parallel, our 
Clinical Investigation Program activity, located at our teaching MTFs 
is, to an increasing degree, participating in the translation of 
appropriate knowledge and products from our RDT&E activity into proof 
of concept and cutting edge interventions to benefit our Wounded 
Warriors and our beneficiaries. We are also committed to connecting our 
Wounded Warriors to approved emerging and advanced diagnostic and 
therapeutic options within and outside of military medicine while 
ensuring full compliance with applicable patient safety policies and 
practices.
    Towards this end, we have developed our top five strategic research 
goals and needs to meet the Chief of Naval Operations and Commandant of 
the Marine Corps warfighting requirements. These include:
  --Traumatic brain injury (TBI) and psychological health treatment and 
        fitness for both operational forces and home-based families.
  --Medical systems support for maritime and expeditionary operations 
        to include patient medical support and movement through care 
        levels I and II with emphasis on the United States Marine Corps 
        (USMC) casualty evacuation (CASEVAC) and En Route Care systems 
        to include modeling and simulation for casualty prediction, 
        patient handling, medical logistics, readiness, and command, 
        control, communications and intelligence (C\3\I).
  --Wound management throughout the continuum of care, to include 
        chemical, molecular, and cellular indicators of optimum time 
        for surgical wound closure, comprehensive rehabilitation; and 
        reset to operational fitness.
  --Hearing restoration and protection for operational maritime surface 
        and air support personnel.
  --Undersea medicine, diving and submarine medicine, including 
        catastrophe intervention, rescue and survival as well as 
        monitoring and evaluation of environmental challenges and 
        opportunities.
    During my travel overseas this past year, including Vietnam, 
current partnerships and future partnerships possibilities between Navy 
Medicine and host nation countries were evident. Increasing military 
medical partnerships are strengthening overall military to military 
relationships which are the cornerstone of overarching bilateral 
relations between allies. These engagements are mutually beneficial--
not only for the armed forces of both countries, but for world health 
efforts with emerging allies in support of global health diplomacy.
    Graduate Medical Education (GME) is vital to our ability to train 
our physicians and meet our force health protection mission. Vibrant 
and successful GME programs continue to be the hallmark of Navy 
Medicine and I am pleased that despite the challenges presented by a 
very high operational tempo and past year recruiting shortfalls, our 
programs remain strong. All of our GME programs eligible for 
accreditation are accredited and most have the maximum or near maximum 
accreditation cycle lengths. In addition, our graduates perform very 
well on their Specialty Boards--significantly exceeding the national 
pass rate in almost every specialty year after year. The overall pass 
rate for 2009 was 97 percent. Most importantly, our Navy-trained 
physicians continue to prove themselves to be exceptionally well 
prepared to provide care in austere settings from the battlefield to 
disaster relief missions.
    In addition to GME, we are leveraging our inter-service education 
and training capabilities with the new state-of-the-art Medical 
Education and Training Campus (METC) in San Antonio, Texas. Now 
operational, METC represents the largest consolidation of Service 
training in the history of DOD, and is the world's largest medical 
training campus. Offering 30 programs and producing 24,000 graduates 
annually, METC will enable us to train our Sailors, Soldiers and Airmen 
to meet both unique Service-specific and joint missions. Our corpsmen 
are vital to saving lives on the battlefield and the training they 
receive must prepare them for the rigors of this commitment. I am 
committed to an inter-service education and training system that 
optimizes the assets and capabilities of all DOD healthcare 
practitioners yet maintains the unique skills and capabilities that our 
corpsmen bring to the Navy and Marine Corps--in hospitals, at sea and 
on the battlefield.
                        collaboration engagement
    Navy Medicine recognizes the importance of leveraging collaborative 
relationships with the Army and Air Force, as well as the Department of 
Veterans Affairs (VA), and other Federal and civilian partners. These 
engagements are essential to improving operational efficiencies, 
education and training, research and sharing of technology. Our 
partnerships also help create a culture in which the sharing of best 
practices is fundamental to how we do business and ultimately helps us 
provide better care and seamless services and support to our 
beneficiaries.
    The progress we are making with the VA was clearly evident as we 
officially activated the Captain James A. Lovell Federal Health Care 
Center in Great Lakes, Illinois--a first-of-its-kind fully integrated 
partnership that links Naval Health Clinic Great Lakes and the North 
Chicago VA Medical Center into one healthcare system. We are grateful 
for all your support in helping us achieve this partnership between the 
Department of Veterans Affairs, DOD and DON. We are proud to able to 
provide a full spectrum of healthcare services to recruits, active 
duty, family members, retirees and veterans in the Nation's first fully 
integrated VA/Navy facility. We look forward to continuing to work with 
you as we improve efficiencies, realize successes and implement lessons 
learned.
    Navy Medicine has 52 DOD/VA sharing agreements in place for medical 
and ancillary services throughout the enterprise as well as 10 Joint 
Incentive Fund (JIF) projects. When earlier JIF projects ended, they 
were superseded by sharing agreements. Naval Health Clinic Charleston 
and the Ralph H. Johnson VA Medical Center celebrated the opening of 
the new Captain John G. Feder Joint Ambulatory Care Clinic. This newly 
constructed outpatient clinic located on Joint Base Charleston Weapons 
Station is a state-of-the-art 188,000 square foot facility that is 
shared by the VA and the Navy Health Clinic Charleston. This project is 
another joint initiative such as the Joint Ambulatory Care Center in 
Pensacola that replaced the former Corry Station Clinic; and another in 
Key West where the VA's Community Based Outpatient Clinic (CBOC) and 
the Navy Clinic are co-located, continuing collaboration and providing 
service at the site of our first VA/DOD Joint Venture.
    We are also continuing to work to implement the Integrated 
Disability Evaluation System (IDES) at our facilities in conjunction 
with VA. To date, this program has been implemented at 15 of our MTFs. 
This world-wide expansion, to be completed in fiscal year 2011, follows 
the DES Pilot program and the decision of the Wounded, Ill and Injured 
Senior Oversight Council (SOC) Co-chairs (Deputy Secretary of Defense 
and Deputy Secretary of Veterans Affairs) to move forward to streamline 
the DOD DES process.
    One of our most important projects continues to be the successful 
transition of the new Walter Reed National Military Medical Center 
(WRNMMC) onboard the campus of the National Naval Medical Center, 
Bethesda. This realignment is significant and the Services are working 
diligently with DOD's lead activity, Joint Task Force Medical--National 
Capital Region to ensure we remain on track to meet the Base 
Realignment and Closure (BRAC) deadline of September 15, 2011. Our 
priority continues to be properly executing this project on schedule 
without any disruption of services. We also understand the importance 
of providing a smooth transition for our dedicated personnel--both 
military and civilian--to the success of WRNMMC. We recognize that 
these dedicated men and women are critical to our ability to deliver 
world class care to our Sailors, Marines, their families and all our 
beneficiaries for whom we are privileged to serve.
                            the way forward
    I am proud of the progress we are making, but not satisfied. We 
continue to see ground-breaking innovations in combat casualty care and 
remarkable heroics in saving lives. But all of us remain concerned 
about the cumulative effects of worry, stress and anxiety on our 
service members and their families brought about by a decade of 
conflict. Each day during my tenure as the Navy Surgeon General, we 
have been a Nation at war. Each day resonates with the sacrifices that 
our Sailors, Marines and their families make, quietly and without 
bravado. They go about their business with professionalism, skill, and 
frankly, ask very little in return. It is this commitment, this 
selfless service, that helps inspire us in Navy Medicine. Regardless of 
the challenges ahead, I am confident that we are well-positioned for 
the future.
    I will be retiring from Naval Service later this year and I want to 
express my thanks for all the support you provide to Navy Medicine and 
to me throughout my tenure as the Navy Surgeon General.

    Chairman Inouye. And now, may I call upon General Green.
STATEMENT OF LIEUTENANT GENERAL CHARLES B. GREEN, 
            SURGEON GENERAL, DEPARTMENT OF THE AIR 
            FORCE
    General Green. Good morning.
    Chairman Inouye, Senator Cochran, distinguished members of 
the subcommittee, I truly appreciate the opportunity to meet 
with you today and represent the men and women of the Air Force 
Medical Service. We could not achieve our goals of better 
readiness, better health, better care, and best value for our 
heroes and their families without your support. And we thank 
you.

                  MILITARY HEALTH SYSTEM ACHIEVEMENTS

    Military Health System achievements have changed the face 
of war. We deploy and set up hospitals within 12 hours of 
arrival anywhere in the world. We move wounded warriors from 
the battlefield to operating rooms within minutes and have 
achieved and sustained the less than 10 percent died of wounds 
rate.
    We move our sickest patients in less than 24 hours of 
injury and get them home to loved ones within 3 days to hasten 
their recovery.
    We have safely evacuated more than 85,000 patients since 
October 2001, 11,300 just this last year, many of them 
critically injured.
    The Air Force Medical Service has a simple mantra: 
``Trusted Care Anywhere.'' This fits what we do today and will 
continue to do in years ahead. It means creating a system that 
can be taken anywhere in the world and be equally effective, 
whether it is for war or for humanitarian assistance.
    Air Combat Command's new Expeditionary Medical System, the 
Health Response Team, is capable of seeing the first patient 
within 1 hour of arrival anywhere in the world, and performing 
surgery within 3 to 5 hours. Our Radiological Assessment Team 
was in place quickly to assist Japan in measuring the levels of 
radiation, food and water safety, overall impact on health, and 
to distribute personal dosimeters for protection of our 
personnel. Our deployed systems are linked back to American 
quality care and refuse to compromise on patient safety.
    Providing trusted care anywhere requires the Air Force 
Medical Service to focus on patients and populations. By the 
end of 2012, the Air Force Patient-Centered Medical Home will 
provide 1 million of our beneficiaries new continuity of care 
via single provider-led teams at all Air Force facilities.
    Patient-Centered Care builds new possibilities in 
prevention by linking the patient to a provider team, and both 
the patient and the provider team to decision support from 
informatics networks dedicated to improving care. Efficient and 
effective health teams allow recapture of care in our medical 
treatment facilities to sustain our currency and offer best 
value. We will do all in our power to improve the health of our 
population while working to control the rising costs of 
healthcare.
    The Air Force Medical Service treasures our partnership 
with OSD, the Army, Navy, VA, civilian and academic partners. 
We leverage all the tools that you have given us to improve 
retention and generate new medical knowledge. We will continue 
to deliver nothing less than world class care to military 
members and their families, wherever they may serve around the 
world.

                           PREPARED STATEMENT

    And I stand ready to answer your questions. Thank you.
    Chairman Inouye. All right. Thank you very much.
     [The statement follows:]
    Prepared Statement of Lieutenant General (Dr.) Charles B. Green
    Military Health System achievements have changed the face of war. 
We deploy and set up hospitals in 12 hours of arrival almost anywhere 
in the world. We move wounded warriors from the battlefield to an 
operating room within minutes and have achieved and sustained less than 
10 percent died-of-wounds rate. We move our sickest patients in less 
than 24 hours of injury and get them home to loved ones within 3 days 
to hasten recovery. We have safely evacuated more than 86,000 patients 
since October 2001, 11,300 in 2010 alone, many of them critically 
injured. This is all pretty amazing.
    The Air Force Medical Service (AFMS) has a simple mantra: ``Trusted 
Care Anywhere.'' This fits what we do today and will continue to do in 
the years ahead. It means creating a system that can be taken anywhere 
in the world and be equally as effective whether in war or for 
humanitarian assistance. This system is linked back to American quality 
care and refuses to compromise on patient safety. These are formidable 
challenges, but we have the foundation we need and the best creative 
minds working with us to achieve this end.
    Providing Trusted Care Anywhere requires the AFMS to focus on 
patients and populations. Patient-centered care builds new 
possibilities in prevention by linking the patient to a provider team 
and both patient and provider team to an informatics network dedicated 
to improving care. Efficient and effective health teams allow recapture 
of care in our medical treatment facilities (MTFs) to sustain currency. 
Continually improving our readiness ensures patients and warfighters 
always benefit from the latest medical technologies and advancements.
                     patient-centered medical home
    To improve Air Force primary care and achieve better health 
outcomes for our patients, we implemented our Family Health Initiative 
(FHI) in 2009, which is a team-based, patient-centered approach 
building on the Patient-Centered Medical Home (PCMH) concept 
established by the American Academy of Family Physicians. We aligned 
existing resources and now have PCMH at 32 of our MTFs caring for 
340,000 enrolled patients. By the end of 2012, 1 million of our 
beneficiaries will have a single provider and small team of 
professionals providing their care at all AFMS facilities. This means 
much greater continuity of care, with our patients seeing the same 
physician or their professional partner 95 percent of the time. The 
result is more effective healthcare based on trust and rapport for both 
the patient and the provider.
    Air Force Medical Home integrates the patient into the healthcare 
team, offering aggressive prevention and personalized intervention. 
Physicians will not just evaluate their patients for disease to provide 
treatment, but also to identify risk of disease, including genetic, 
behavioral, environmental and occupational risks. The healthcare team 
will encourage healthy lifestyle behavior, and success will be measured 
by how healthy they keep their patients, rather than by how many 
treatments they provide. Our goal is that people will live longer lives 
with less morbidity. We are already seeing how PCMH is bringing that 
goal to fruition. For example, diabetes management at Hill AFB, Utah, 
showed an improvement in glycemic control in 77 percent of the diabetic 
population, slowing progression of the disease and saving over $300,000 
per year.
    Patient feedback through our Service Delivery Assessment survey 
shows an overall improvement in patient satisfaction for patients 
enrolled in PCMH, with the greatest improvement noted in the ability to 
see a personal provider when needed. As relationships develop, our 
providers will increase their availability to patients after hours and 
through secure patient messaging. This will further enhance patient 
satisfaction and reduce costs by minimizing emergency department 
visits.
    Our next step is to embark on an innovative personalized medicine 
project called Patient Centered Precision Care, or PC\2\, that will 
draw and build on technological and genetic based advances in academia 
and industry. Effective, customized care will be guided by patient-
specific actionable information and risk estimation derived from robust 
Health Information Technology applications. We're excited about our 
collaboration opportunities with renowned partners, such as the Duke 
Institute for Genome Sciences and Policy, IBM, and others.
    Patient-centered care includes caring for Air Force special needs 
families, and we are working closely with our personnel community to 
ensure these families receive the specialized medical or educational 
support they require. The Air Force Exceptional Family Member Program 
(EFMP) is a collaborative and integrated program that involves medical, 
family support, and assignment functions to provide seamless care to 
these families. Enhanced communication of the program will be 
facilitated by an annual Caring for People Forum at each installation, 
giving families an opportunity to discuss concerns and receive advice. 
Starting in fiscal year 2012, the Air Force will begin adding 36 full-
time Special Needs Coordinators at 35 medical treatment facilities 
(MTFs) to address medical concerns and assignment clearance processes.
    An important aspect of patient-centered preventive care includes 
safeguarding the mental health and well-being of our people and 
improving their resilience, because no one is immune to the stresses 
and strains of life. While Air Force suicide rates have trended upward 
since 2007, our rate remains below what we experienced before the 
inception of our suicide prevention program in 1997. The most common 
identified stressors and risk factors have remained the same over the 
last 10 years: relationship, financial and legal problems. Although 
deployment can stress Airmen and their families, it does not seem to be 
an individual risk factor for Airmen, and most Airmen who complete 
suicide have never deployed. We are redoubling our efforts to prevent 
suicide and specifically target those identified at greatest risk.
    We use the Air Force Post-deployment Health Assessment (PDHA) and 
Post-deployment Health Reassessment (PDHRA) to identify higher risk 
career groups for post-traumatic stress disorder (PTSD). While most Air 
Force career fields have a very low rate of PTSD, others such as EOD, 
security forces, medical, and transportation have higher rates of post 
traumatic stress symptoms.
    Advances in treatment, such as the Virtual Reality Exposure Therapy 
(VRET) system we call ``Virtual Iraq,'' have been fielded to treat 
service members returning from theater with PTSD and other related 
mental health disorders. This system is founded on two well established 
forms of psychotherapy: Cognitive-Behavioral Therapy and Prolonged 
Exposure Therapy. VRET is now deployed at 10 Air Force mental health 
clinics and is lauded by patients.
    The Air Force provides additional support to our most at-risk 
Airmen with frontline supervisor's suicide prevention training given to 
all supervisors in career fields with elevated suicide rates. Mental 
health providers are seeing patients in our primary care clinics across 
the Air Force. They see patients who may not otherwise seek care in a 
mental health clinic because of perceived stigma. We have significantly 
expanded counseling services beyond those available through the 
chaplains and mental health clinic. Other helping programs include 
Military Family Life Consultants, who see individuals or couples; and 
Military OneSource, which provides counseling to active duty members 
off-base for up to 12 sessions.
    A recent example of how suicide prevention skills saved a life is 
the story of how Senior Airman Jourdan Gunterman helped save a friend 
from halfway around the world in Afghanistan. His training first helped 
him recognize the warning signs of a friend in trouble: drinking 
heavily, violent outbursts, disciplinary actions, and recent discharge 
from the Air Force following a challenging deployment. A cryptic 
emotional message on Facebook from the friend led Airman Gunterman to 
question his friend's disturbing behavior. He discovered his friend had 
ingested a bottle of pills.
    When his troubled friend no longer responded, Airman Gunterman 
obtained the friend's phone number on-line from another friend, Senior 
Airman Phillip Sneed, in Japan. Airman Sneed promised to keep calling 
the friend until he picked up. Meanwhile Airman Gunterman enlisted the 
help of his chaplain to locate the suicidal friend. Finally, locating a 
hometown news release about his friend, Airman Gunterman was able to 
learn his friend's parents' names and then used a search engine to find 
their address. He contacted the local police, who rushed to the 
friend's house and saved him. Airman Gunterman is an expert with social 
media--but more important--he is an incredible wingman who saved his 
buddy's life.
    Resiliency is a broad term that describes the set of skills and 
qualities that enable Airmen to overcome adversity and to learn and 
grow from experiences. It requires a preventive focus based on what we 
have learned from individuals who've been through adversity and 
developed skills to succeed. Distilling those skills and teaching them 
will lead to a healthier force.
    The Air Force uses a targeted resiliency training approach, 
recognizing different Airmen will be in different risk groups. For 
those who have higher exposure to battle, we have developed initiatives 
such as the Deployment Transition Center (DTC) at Ramstein Air Base, 
Germany, which opened in July. The DTC provides a 2-day reintegration 
program en route from the war zone, involving chaplain, mental health, 
and peer facilitators. The DTC provides training, not treatment--the 
focus is on reintegration into work and family. Feedback from deployers 
has been overwhelmingly positive.
    We teach our Airmen that seeking help is not a sign of weakness, 
but a sign of strength. Lieutenant Colonel Mary Carlisle is an Air 
Force nurse who struggled with PTSD following her deployment. She 
shares her story of how she was able to overcome PTSD by seeking help 
and treatment. She realized that she would be affected forever, but is 
now more resilient from her experience and treatment. She shared her 
story with over 700 of my senior medics at a recent leadership 
conference. Lt. Col. Carlisle's openness and leadership are an 
invitation to others to tell their stories, and in so doing change our 
culture and shatter the stigma associated with mental healthcare.
    In addition to the Air Force-wide approach, some Air Force 
communities are pursuing other targeted initiatives. The highly 
structured program used by Mortuary Affairs at Dover AFB, Delaware, 
where casualties from OIF and OEF are readied for burial, is now being 
used as a model for medics at our hospitals in Bagram, Afghanistan, and 
Balad, Iraq, where the level of mortality and morbidity are much higher 
than most medics see at home station MTFs. The Air Force continually 
seeks to leverage existing ``best practice'' programs such as Dover's 
for Air Force-wide use. If we can help our Airmen develop greater 
resiliency, they will recover more quickly from stresses associated 
with exposure to traumatic events.
               recapturing care and maintaining currency
    Trusted Care means good stewardship of our resources. In an era of 
competing fiscal demands and highly sought efficiencies, recapturing 
patients back into our MTFs is critical. Where we have capability, we 
can provide their care more cost-effectively by managing care in our 
facilities. Equally important is building the case load and complexity 
needed to keep our providers' skills current to provide care wherever 
the Air Force needs them. We have expanded our hospitals and formed 
partnerships with local universities and hospital systems to best 
utilize our skilled professionals.
    We value our strong academic partnerships with St. Louis 
University; Wright State University (Ohio); the Universities of 
Maryland, Mississippi, Nebraska, Nevada, California and Texas, among 
others. They greatly enrich our knowledge base and training 
opportunities as well as provide excellent venues for potential 
resource sharing.
    Since the early 1970s, many Air Force Graduate Medical Education 
(GME) programs have been affiliated with civilian universities. Our 
affiliations for physician and dental education at partnership sites 
have evolved to include partnership sponsoring institutions for 
residencies. In addition, our stand-alone residency programs have 
agreements for rotations at civilian sites. Our Nurse Education 
Transition Program (NETP) and Nurse Enlisted Commissioning Program 
(NECP) have greatly benefited from academic partnerships. The NETP is 
available at 11 sites with enrollment steadily increasing, while the 
NECP enrolls a total of 50 nursing students per year at the nursing 
school of their choice. A nursing program partnering with Wright State 
University and Miami Valley College of Nursing in Ohio, and the 
National Center for Medical Readiness Tactical Laboratory has produced 
a master's degree in Flight Nursing with Adult Clinical Nurse 
Specialist in disaster preparedness, a first of its kind in the 
country.
    Our GME programs are second to none. Our first-time pass rates on 
specialty board exams exceed national rates in 26 of 31 specialty 
areas. Over the past 4 years, we've had a 92 percent overall first time 
board pass rate. I am very proud of this level of quality in our medics 
and grateful to our civilian partners who help make Air Force GME a 
success.
    Partnerships leveraging our skilled work force prepare us for the 
future. Our Centers for the Sustainment of Trauma and Readiness (C-
STARS) in Baltimore, Cincinnati and St. Louis continue to provide our 
medics the state-of-the-art training required to treat combat 
casualties. In 2009 we complemented C-STARS with our Sustainment of 
Trauma and Resuscitation Program (STARS-P) program, rotating our 
providers through Level 1 trauma centers to hone their war readiness 
skills. Partnerships between Travis AFB and University of California at 
Davis; Nellis AFB, and University Medical Center, Nevada; Wright-
Patterson AFB and Miami Valley Hospital; Luke AFB and the Scottsdale 
Health System; MacDill AFB and Tampa General Hospital; and others, are 
vital to sustaining currency.
    Our hospitals, C-STARS and STARS-P locations are enhanced by the 
Air Force medical modeling and simulation Distributed High-Fidelity 
Human Patient Simulator (DHPS) program. There are currently 80 programs 
worldwide and the AFMS is the Department of Defense lead for medical 
simulation in healthcare education and training. Over the next year, we 
will link the entire AFMS using Defense Connect Online and our new Web 
tele-simulation tool. This will enable all Air Force MTFs to play real 
time medical war games that simulate patient management and movement 
from point of injury to a Level 3 facility and back to the States.
    Our partnership with the Department of Veterans Affairs (VA) has 
provided multiple avenues for acquiring service, case mix, and staffing 
required for enhancing provider currency. Direct sharing agreements, 
joint ventures and the Joint Incentive Fund (JIF) have all proved to be 
outstanding venues for currency and collaboration.
    A great example is the JIF project between Wright-Patterson Medical 
Center and the Dayton VA. The expansion of their radiation-oncology 
program includes a new and promising treatment called stereotactic 
radio surgery. This surgery, really a specialized technique, allows a 
very precise delivery of a single high dose of radiation to the tumor 
without potentially destructive effects to the surrounding tissues. 
Without a single drop of blood, the tumor and its surrounding blood 
supply are destroyed, offering the patient the hope of a cure and 
treatment that has fewer side effects.
    In another Air Force/VA success story, Keesler AFB, MS and VA Gulf 
Coast Veterans Health Care System Centers of Excellence Joint Venture 
is receiving acclaim. Ongoing clinical integration efforts have shown 
an increase in specialty clinic referrals. Plans for continued 
integration are on track, with many departments sharing space and staff 
by fiscal year 2012 and the joint clinic Centers of Excellence in place 
by fiscal year 2013.
    Providing a more seamless transition for Airmen from active duty to 
the VA system remains a priority. This process has been greatly 
enhanced with the Integrated Disability Evaluation System (IDES). 
Expansion of the initial pilot program is occurring by region in four 
stages, moving west to east, and centered around the VA's Veteran 
Integrated Service Networks (VISN). Phase 3 of the expansion has added 
an additional 18 Air Force MTFs for a total of 24. The Services and the 
VA continue to conduct IDES redesign workshops to further streamline 
the process to be more timely and efficient for all transitioning 
Service members. The goal is to provide coverage for all Service 
members in the IDES by September 2011.
    We continue to look for innovative ways and new partnerships to 
meet our currency needs and provide cutting-edge care to our military 
family. We will expand partnerships with academic institutions and the 
VA wherever feasible to build new capabilities in healthcare and 
prevent disease.
                continuously improving readiness assets
    We have made incredible inroads in our efforts to be light, lean 
and mobile. Not only have we vastly decreased the time needed to move 
our wounded patients, we have expanded our capabilities. Based on 
lessons learned from our humanitarian operations in Indonesia, Haiti 
and Chile, we developed obstetrics, pediatrics and geriatrics modules 
that can be added to our Expeditionary Medical System (EMEDS). We 
simply insert any of these modules without necessarily changing the 
weight or cube for planning purposes. Medics at Air Combat Command are 
striving to develop an EMEDS Health Response Team (HRT) capable of 
seeing the first patient within 1 hour of arrival and performing the 
first surgery within 3-5 hours. We will conduct functional tests on the 
new EMEDS in early 2011.
    On the battlefield, Air Force vascular surgeons pioneered new 
methods of hemorrhage control and blood vessel reconstruction based on 
years of combat casualty experience at the Air Force Theater Hospitals 
in Iraq and Afghanistan. The new techniques include less invasive 
endovascular methods to control and treat vascular injury as well as 
refinement of the use of temporary shunts. Their progress has saved 
limbs and lives and has set new standards, not only for military 
surgeons, but also for civilian trauma.
    A team of medical researchers from the 59th Medical Wing Clinical 
Research division has developed a subject model that simulates leg 
injuries seen in Iraq and Afghanistan to enable them to try 
interventions that save limbs. The team is also studying how severe 
blood loss affects the ability to save limbs. Their findings show blood 
flow should be restored within the first hour to avoid muscle and nerve 
damage vs. traditional protocol that allowed for 6 hours. Team member 
and general surgery resident Captain (Dr.) Heather Hancock, stated, 
``You cannot participate in research designed to help our wounded 
soldiers and not be changed by the experience.''
    We are also advancing the science and art of aeromedical evacuation 
(AE). We recently fielded a device to improve spinal immobilization for 
AE patients and are working as part of a joint Army and Air Force team 
to test equipment packages designed to improve ventilation, oxygen, 
fluid resuscitation, physiological monitoring, hemodynamic monitoring 
and intervention in critical care air support.
    We are finding new ways to use specialized medical equipment for 
our wounded warriors. In October, we moved a wounded Army soldier with 
injured lungs from Afghanistan to Germany using Extracorporeal Membrane 
Oxygenation (ECMO) support through the AE system--the first time we 
have used AE ECMO for an adult. The ECMO machine provides cardiac and 
respiratory support for patients with hearts and/or lungs so severely 
diseased or damaged they no longer function. We have many years of 
experience with moving newborns via the 59th Medical Wing (Wilford 
Hall) ECMO at Lackland AFB, Texas, but the October mission opened new 
doors for wounded care.
    Another new tool in battlefield medicine is acupuncture. The Air 
Force acupuncture program, the first of its kind in DOD, has expanded 
beyond clinic care to provide two formal training programs. Over 40 
military physicians have been trained. We recognize the success of 
acupuncture for patients who are not responding well to traditional 
pain management. This is one more tool to help our wounded Soldiers and 
Airmen return to duty more rapidly and reduce pain medication usage.
    We've made progress with electronic health records in the Theater 
Medical Information Program Air Force (TMIP-AF), now used by AE and Air 
Force Special Operations. TMIP-AF automates and integrates clinical 
care documentation, medical supplies, equipment and patient movement 
with in-transit visibility. Critical information is gathered on every 
patient and entered into our deployed system. Within 24 hours, records 
are moved and safely stored in our databases stateside.
    Established in May 2010 with the Air Force as lead component, the 
Hearing Center of Excellence (HCE) is located at Wilford Hall in San 
Antonio, TX. This center continues to work closely with Joint DOD/VA 
subject matter experts to fine-tune concepts of operation. Together we 
are moving forward to achieve our goals in the areas of outreach, 
prevention, care, information management and research to preserve and 
restore hearing.
    DOD otologists have worked internally and with NATO allies to 
investigate emerging implant technologies and have developed plans to 
test a central institutional review board (IRB) in a multi-site, 
international study to overcome mixed hearing loss. The HCE is also 
pursuing standardization of minimal baseline audiometric testing and 
point of entry hearing health education within DOD. They are working 
with the Defense Center of Excellence for Psychological Health and 
Traumatic Brain Injury (DCoE) to establish evidence-based clinical 
practice guidelines for management of the post-traumatic patient who 
suffers from dizziness. The HCE has worked with analysts within the 
Joint Theater Trauma System to develop the Auditory Injury Module (AIM) 
to collect auditory injury data within the Joint Theater Trauma 
Registry (JTTR). These, among others, are critical ways the HCE 
supports the warfighter in concert with our partners at DCoE and the 
VA.
    All of these advances I've addressed are critical to improving 
medical readiness, but the most important medical readiness assets are 
our people. Recruiting and retaining top-notch personnel is 
challenging. We continue to work closely with our personnel and 
recruiting partners to achieve mission success. Optimizing monetary 
incentives, providing specialty training opportunities, and maintaining 
a good quality of life for our members are all essential facets to 
maintaining a quality workforce.
    The AFMS continues to optimize the use of monetary incentives to 
improve recruiting and retention. We are working with the Air Force 
personnel and recruiting communities to develop a sustainment model 
specific for each of the AFMS Corps. Specifically, we are targeting the 
use of special pays, bonuses, and the Health Professions Scholarship 
Program (HPSP) to get the greatest return on investment. Congress' 
support of these programs has helped to maintain a steady state of 
military trained physicians, dentists, nurses, and mental health 
professionals.
    The new consolidated pay authority for healthcare professionals 
allows greater flexibility of special pays to enhance recruitment and 
retention of selected career fields. While we use accession bonuses to 
attract fully qualified surgeons, nurses, mental health specialists, 
and other health professionals to the AFMS, HPSP remains the number one 
AFMS pipeline for growing our own multiple healthcare professionals.
    We were able to execute 100 percent of HPSP in fiscal year 2009 and 
fiscal year 2010 and were able to graduate 219 and 211 new physicians, 
respectively, in these years. In fiscal year 2010, 49 medical school 
graduates from the Uniformed Services University of the Health Sciences 
also joined the Air Force Medical Service. These service-ready 
graduates hit the ground running. Specialized military training and 
familiarity with the DOD healthcare system ensures more immediate 
success when they enter the workforce. Once we have recruited and 
trained these personnel, it is essential that we are able to keep them. 
We are programming multiyear contractual retention bonuses at 
selectively targeted healthcare fields such as our physician and dental 
surgeons, operating room nurses, mental health providers, and other 
skilled healthcare professions to retain these highly skilled 
practitioners with years of military and medical expertise.
    For our enlisted personnel, targeted Selective Reenlistment 
Bonuses, combined with continued emphasis on quality of life, generous 
benefits, and job satisfaction, positively impact enlisted recruiting 
and retention efforts. Pay is a major component of recruiting and 
retention success, but we have much more to offer. Opportunities for 
education, training, and career advancement, coupled with state-of-the-
art equipment and modern facilities, serve together to provide an 
excellent quality of life for Air Force medics. Successful and 
challenging practices remain the best recruiting and retention tool 
available.
    We look 20 to 30 years into the future to understand evolving 
technologies, changing weapon systems, and changes in doctrine and 
tactics to protect warfighters from future threats. This ensures we 
provide our medics with the tools they need to fulfill the mission.
    We continue to build state-of-the-art informatics and telemedicine 
capabilities. Care Point now allows individual providers to leverage 
our vast information databases to learn new associations and provide 
better care to patients. These same linkages allow our Applied Clinical 
Epidemiology Center to link healthcare teams and patients with best 
practices. VTCs are now deployed to 85 of our mental health clinics 
broadening the reach of mental health services, and our teleradiology 
program provides digital radiology systems interconnecting all Air 
Force MTFs, enabling diagnosis 24/7/365.
    We are engaged in exciting research with the University of 
Cincinnati to enhance aeromedical evacuation, focusing on the 
challenges of providing medical care in the darkened, noisy, moving 
environments of military aircraft. We are studying how the flight 
environment affects the body, and developing possible treatments to 
offset those effects. Clinical studies are examining the amount of 
oxygen required when using an oxygen-concentrating device at higher 
altitudes. Simulators recreate the aircraft medical environments and 
are used extensively to train our medical crews. This new research 
expands our knowledge and training opportunities, and offers the 
possibility of future partnering efforts.
    We are also developing directed energy detection and laser assisted 
wound healing; advancing diabetes prevention and education; and 
deploying radio frequency identification technology in health 
facilities. We partner with multiple academic institutions to advance 
knowledge and apply evidence based medicine and preventive strategies 
with precision. These are some of the critical ways we seek to improve 
readiness, advance medical knowledge and keep the AFMS on the cutting 
edge for decades to come.
                             the way ahead
    While at war, we are successfully meeting the challenges of Base 
Realignment and Closure as we draw near to the 2011 deadline. We have 
successfully converted three inpatient military treatment facilities to 
ambulatory surgery centers at MacDill AFB, Florida; Scott AFB, 
Illinois; and the USAF Academy, Colorado. By September of this year, 
the medical centers at Lackland AFB, Texas; and Joint Base Andrews, 
Maryland are on track to convert to ambulatory surgery centers. The 
medical center at Keesler AFB, Mississippi, is poised to convert to a 
community hospital. Medical Groups at Joint Base Lewis-McChord, 
Washington and Pope AFB, North Carolina have been effectively realigned 
as Medical Squadrons. Military treatment facilities at Shaw AFB, South 
Carolina; Eglin AFB, Florida; Joint Base McGuire, New Jersey; and Joint 
Base Elmendorf, Alaska; have been resourced to support the migration of 
beneficiaries into their catchment areas as a result of BRAC 
realignments.
    At Wright-Patterson AFB, Ohio, we have relocated cutting-edge 
aerospace technology research, innovation, and training from Brooks 
AFB. In tandem with our sister Services, we have also relocated basic 
and specialty enlisted medical training to create the new Medical 
Education and Training Campus (METC), the largest consolidation of 
training in DOD history.
    Our strategy to control DOD healthcare costs is the right approach 
to manage the benefit while improving quality and satisfaction. 
Adjustments to the benefit such as minimally raising TRICARE enrollment 
fees for working retirees, requiring future enrollees to the U.S. 
Family Health Plan to transition into TRICARE-for-Life upon turning 65 
years of age, paying sole-source community hospitals Medicare rates, 
and incentivizing the use of the most effective outlets for 
prescriptions are prudent. There will be limited impact (prescription 
only) on active duty family members. By implementing these important 
measures we will be able to positively affect the rising costs of 
healthcare and improve the health of our population.
    The AFMS is firmly committed to MHS goals of readiness, better 
health, better care and best value. We understand the value of teaming 
and treasure our partnerships with the Army, Navy, VA, academic 
institutions, and healthcare innovators. We will continue to deliver 
nothing less than world-class care to military members and their 
families, wherever they serve around the globe. They deserve, and can 
expect, Trusted Care Anywhere. We thank this Subcommittee for your 
support in helping us to achieve our mission.

                    RECRUITING MEDICAL PROFESSIONALS

    Chairman Inouye. General Green, let us start with you.
    The subcommittee has been advised that an important aspect 
of your work is the recruiting of medical professionals, and 
you need them to carry out the services. But I have been told 
that it is a challenge because, for example, the Government 
Accountability Office (GAO) reported that hiring civil servants 
at the Defense Centers of Excellence for Traumatic Brain Injury 
took an average of about 4 months. And the nomination of 
medical officers can take just as long. What are you doing to 
streamline this effort?
    General Green. Sir, your information is correct. It can 
take significant time to bring a fully qualified individual on 
board. Our major effort in terms of what we as medics have been 
doing is to shift some of our recruiting for fully qualified 
and the dollars associated into our scholarship programs. And 
over the last 3 to 4 years, we have expanded our scholarships 
through the Health Professional Scholarship Program by nearly 
400, from about 1,266 to 1,666. This is not just used for 
physicians, but also for pharmacists and for psychologists, 
trying to bring in the right expertise. And although there is a 
longer trail to get these folks, we now have a more reliable 
understanding of what is in the pipeline and when we will we 
have solutions.
    With regard to the specific questions regarding hiring 
civilians, we find frequently that we have to go after 
contractors rather than using general schedule (GS). It takes a 
little longer to get GS positions on our books, and so, when we 
have a more immediate need, we will substitute a contractor 
until we can get those positions into our books where we can 
use them. There has been a lot of effort in our A-1 community 
to try and streamline civilian hiring, and we are making 
progress. If you would have asked me this same question really 
within the last 1\1/2\ or 2 years, you would not have been 
talking to me about 4 months; you might have been talking about 
6 months and longer. And so, we are making progress in terms of 
our civilian hiring.
    When you talk to the military side and the scroll process 
in terms of how we get our officers, we continue to work with 
our A-1 personnel community to try and shorten that process. 
And when needed for specific expertise, we have been able to 
come through the process more rapidly. But it remains a 
process, as defined in law, that is fairly lengthy to ensure we 
bring the right people when we are bringing them on our books 
as Federal employees.

                           MEDICAL PAY SCALES

    Chairman Inouye. Do you find that the pay scale provided is 
competitive?
    General Green. I think that we have many special pays 
available, not just to the military, but also to our GS that 
does make them competitive. It is on the Active duty side, we 
certainly have a dynamic ability to move dollars to the 
specialties that we need and make ourselves competitive. On the 
civilian side, it is sometimes more difficult, but there are 
pays associated that do drive for the non-super specialist 
competitive pay. If you are asking me if I can get in the GS 
world a competitive salary for a neurosurgeon, the answer is 
no, and it has to do with what the civilian world is driving in 
terms of salaries for these folks. But that is not true 
necessarily for some of the areas where we are the shortest in 
terms of our flight surgeons and our family practitioners. When 
you start talking to trauma surgeons, particularly to try and 
hire them into a GS position, that is more difficult.
    And so, from a military perspective, the answer is, we have 
the authorities we need to offer pay that will retain and 
recruit new members on the GS side. I think that we are 
competitive in the primary care specialties, but not as 
competitive in the sub-specialties.
    Chairman Inouye. All right. Thank you very much. I will be 
submitting questions, if I may.
    General Green. Yes, sir, of course.
    Chairman Inouye. Admiral Robinson, when I first visited 
Afghanistan, I was impressed and surprised to note that the 
Navy was running the hospital, and it was landlocked.

                  MEDICAL SERVICES TO DEPLOYED MARINES

    Admiral Robinson. It still is.
    Unidentified Speaker. We are under the bridge now.
    Admiral Robinson. We tried to move it to the water, but it 
did not work.
    Chairman Inouye. How do you provide services to, say, the 
marines that are usually deployed to forward operating bases? I 
notice that some of the reports coming in indicate the 
difficulty involved in evacuating them. Do you have any special 
techniques?
    Admiral Robinson. No, sir. I am not sure I understand your 
question. How do we provide support to forward deployed medical 
personnel or forward deployed naval personnel?
    Chairman Inouye. Forward deployed marines.
    Admiral Robinson. Marines, I am sorry. Forward deployed 
marines have--we have a methodology that includes having with 
them FRSs, forward resuscitative surgical teams, and also 
surgical trauma platoons that usually operate with the marines 
in their forward areas.
    The first line of medical defense or the first line of 
medical operations would be the corpsmen. The corpsmen are 
there and are going to provide the type of emergency care with 
tourniquets and with the ABCs, airway, breathing, and 
circulation control. That is going to be followed by the 
corpsmen teaching buddy care to the other marines that are in 
the units that are there. This is very important because very 
often my corpsmen are also injured and injured in very grave 
ways. So often, the immediate care that they need has to come 
from a buddy who has in fact been instructed in the proper 
utilization and the use of tourniquets.
    As the injuries occur and as the word gets out that we have 
injuries, we then have the FRSs, the forward resuscitative 
surgical teams, that are forward deployed and can do 
resuscitative surgery in a very timely fashion. The 
resuscitative surgery is meant to be lifesaving only--to 
staunch the bleeding, to meet the immediate needs of the 
patient to restore circulation, to restore volume, and then to 
evacuate the patient to a higher level of care, which is 
usually at a Role 3 facility, such as Kandahar.
    Chairman Inouye. All right. Thank you very much. And I will 
be submitting more questions, if I may.
    Admiral Robinson. Yes, sir.
    Chairman Inouye. General, I am constantly amazed at the 
advancements we have made in medicine, plus other things like 
body armor and greater armor on our trucks and vehicles. And, 
for example, I was pleased with some of the advancements made 
in protecting hearing because of the explosions in the cars. 
But I am well aware that you are currently working on many 
other advancements. I will give you an opportunity to brag 
about it now. What are we doing?
    General Schoomaker. Well, sir, I think you have heard my 
colleagues describe--and you yourself described--some of the 
things that you have seen improvements in since you were a 
soldier in the Second World War. And those advances are 
really--have taken place, as you point out, all the way from 
protecting soldiers--changing combat tactics on the 
battlefield--to further protect soldiers and reduce risks, to 
the development of improved body armor, vehicles, combat 
goggles, ballistic goggles, hearing protection, better helmets, 
and the like. In fact, we have a program that is done in a 
joint environment. In fact, most of what is being described 
here and what you have alluded to is actually a joint effort, 
meaning all services are involved in either--even other 
agencies.
    The program to improve body armor, personal protective 
equipment for the soldier or their vehicles, and aviation 
equipment is known as the Joint Theater Analysis for Protection 
of Injury in Combat, the JTAPIC program. And this tracks 
injuries, both survivable and non-survivable injuries, and then 
looks at the vehicle, the personal protective equipment, and 
goes to the next level to develop a better protection, a better 
vehicle for them. And that has been very successful.
    But we have done what Admiral Robinson talked about. We 
have better trained the individual combatant as to how they can 
do lifesaving on themselves. We have issued better bandages to 
the individual soldier, a tourniquet for every soldier, and we 
train young soldiers to be almost medics, combat lifesavers. 
So, it is frequent that a combatant who is injured in combat 
would be first treated by himself or a colleague, and then a 
medic would appear on the scene, or a corpsmen in the case of 
the Navy. That corpsman is better trained and that medic is 
better trained than in past wars.
    And then evacuation has improved. We have seen recently in 
Afghanistan when we visited that the footprint of air 
evacuation, which is largely through the Army, is very robust. 
In fact, every casualty in which a aircraft is not launched 
within 15 minutes of having a request or does not complete the 
mission within 60 minutes, is briefed all the way up to the top 
of the Department of Defense really, and they have to explain 
why they could not meet that Golden Hour. And that is generally 
because of weather or operational, or someone makes a 
decision--an appropriate clinical decision--to overfly the most 
immediate, you know, surgical site to go to a better and more 
definitive care site. That has been very successful.
    We have also placed critical care nurses now on the--
selected medivac flights and have seen improvements in 
survival.
    A consequence of all of this through the Joint Theater 
Trauma System is that incrementally we have improved every 
stage of care of the combatant from the point of injury through 
the evacuation chain to forward resuscitative care and how 
surgeons are doing. We are really directing even trauma care 
for the world at large in the civilian sector, who benefited 
greatly from and have contributed to our understanding of this.
    What we are currently seeing as a consequence of that--I 
will just make a note of this--is that the survivors of some of 
these really grievous wounds now are not they themselves very 
grievously wounded. And we are working in concert with the 
other services and the VA to better care for a much more 
complex injury than we have seen in previous conflicts, or even 
earlier in this conflict.
    I hope that addresses your question, sir.
    Chairman Inouye. Yes. I have just one other.
    A couple of years ago, I learned at one of these hearings 
that the man who is deployed out on the front lines has on his 
body something like 100 pounds of armor and equipment. And so, 
I took a special effort to weigh what I had to carry, and mine 
was less than 25 pounds. That included a medical kit and 
ammunition boots, helmet, my gun. Can we lighten the load?
    General Schoomaker. Yes, sir. There is a very active 
program in the Army, and I think in all the services. The 
Soldier Program is intended to do exactly what you have talked 
about, but I think there are limitations to the weight and 
cube. Every item that goes into the basic load for a combat 
soldier, right down to the packaging of their meals or the 
material that goes into their uniforms, is evaluated for its 
relative contribution for cost and weight.
    But you heard Sergeant Giunta, who is our first living 
recipient of the Medal of Honor, when you honored him here in 
Congress, mentioned that he used to complain about those 
ceramic sappy plates and his body armor until he was shot twice 
and survived it. And he said, I'll never complain about 
carrying that load again. It is a very delicate balance, and I 
do not mean to trivialize or minimize what the soldier or the 
marine, any combatant is carrying. But I think it is an active 
process of looking at reducing that weight.
    Chairman Inouye. Thank you very much.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.
    Thank you all for being here this morning and helping us 
with your assessment of the needs for funding of the programs 
and activities of the U.S. military. We appreciate your careers 
of service.
    I was especially taken with the comments about how in our 
medical assessment of fitness for duty--I think General 
Schoomaker made this point--after a person has fulfilled a 
requirement of service of tours of duty on a voluntary basis, 
and there is a question about fitness or physical impairment 
caused by service in the military, that there are two really 
distinct questions that have to be answered when there is a 
claim for disability. One is an assessment of fitness for duty, 
which is a military issue, and the other is a medical issue. 
How do you sort out the differences and what the impacts are in 
terms of individual claims under our current state of the law? 
Would you like to take a shot at that first, General 
Schoomaker?
    General Schoomaker. I will, then I would love to hear from 
General Green, who is actually one of the co-chairs of the 
Disability Evaluation System for the--a review for the 
Department of Defense. I do not mean to pass the buck here, but 
we have been sort of fighting this war for, literally and 
figuratively, for a very long time, Senator, so I appreciate 
that question.
    The current law and policy that governs the disability 
adjudication for an individual soldier--I am a solider, so I 
will use the term soldier, but it extends to sailors, airmen, 
and marines as well--is a dual system in which the military 
makes a judgment about any conditions which are unfitting for 
service, and then makes a decision about the unfitting 
condition that would lead to separation of that soldier.
    Ironically, the termination of the disability that derives 
from that condition is identical to what the Veterans 
Administration uses. We actually use the same tables; they were 
developed in concert. But then the Veterans Administration--the 
Veterans Benefits Administration--looks at the same soldier and 
the same constellation of problems, but adjudicates disability 
on the basis of the whole person concept, in which every 
individual illness or injury, current or past, can be put into 
the equation, and comes up with a whole person disability kind 
of equation.
    The two are high disparate. The difficulty we face is that 
soldiers get direct benefits from the military on the basis for 
that single unfitting condition. And as benefits have improved, 
especially--health benefits under the TRICARE program, if you 
can pass in the military side a critical threshold of 30 
percent disability, you are entitled then to the benefits of 
healthcare for yourself, which follow any military medical 
disability, but for your family as well. It has become a very, 
very desirable benefit to have. And soldiers are confused and 
their families are angered by the fact that we adjudicate for 
only that one unfitting condition and yet pass to the VA, and 
they see that, you know, had you been evaluated by a much 
more--a much larger, more composite system, it might have been, 
I would have been eligible for a higher degree of benefit from 
that.
    So we have eliminated some of the confusion and 
miscommunication, and we have accelerated the rate at which 
soldiers and their families can get VA benefits by this 
integrative process whereby a single physical exam is conducted 
by the VA in an adjudication of the total disability. But we 
still are required under the current state to adjudicate in the 
military system for the unfitting condition and in the VA 
system for the total person. We are advocating for the DOD--the 
Army--to adjudicate for--excuse me, determine unfitness, which 
is our title X authority and requirement, but then pass to the 
VA, which is--are the experts in disability adjudication, the 
responsibility for doing more comprehensive disability 
evaluation.
    With that, with your permission, sir, I will just pass to 
General Green.
    Senator Cochran. Sure.
    General Green.

                     ASSESSING PHYSICAL DISABILITY

    General Green. Yes, sir. I am the co-chairman with Dr. 
Karen Guice from the VA on the Recovering Warrior Task Force, 
which has now had three meetings and basically three site 
visits. We are still in our discovery phase, if you will, in 
terms of the differences in approach between the services.
    Within the current constraints, we do see--or current laws, 
basically--we do see some differences as--in terms of each 
service's approach. But there are similarities, and that is the 
area where Dr. Schoomaker is talking. Basically, we now are all 
using a single physical for the assessment of disability. 
Because we all use the same tables, it makes sense for everyone 
to use the same physical assessment.
    The place where there is some variance is in the service's 
assessment of ability to continue on active duty. Today once 
the average soldier, sailor, or airman go through the DES 
process, the current return to duty, even having gone all the 
way through the DES, is about--I will use the Air Force's 
numbers--17 to 20 percent in terms of being a little high. And 
so, you would think that once the physical is done that we 
could assess whether that person could stay on Active duty or 
not and that it would not necessarily go through the remainder 
of the disability system evaluation. But the way it is 
currently being run, there are slight differences in terms of 
each service.
    The other thing that happens, as Dr. Schoomaker was 
outlining, is that the VA looks at a total person for their 
disability rating. So, whereas--I will use something non-combat 
related. Whereas your cardiovascular disease may be significant 
enough to prevent you from being able to stay on Active duty, 
some of the other things that are rated in terms of the total 
disability are not necessarily disabling for DOD service, 
things like flat feet, or a recurrent rash, or mild hearing 
loss, things that could actually--you could stay on Active duty 
if you did not have the cardiovascular disease. And so, if we 
were to move to a system wherein the DOD simply paid for the 
total disability, there is a significant cost to the 
Government, whereas the current system basically has DOD paying 
for that ailment, if you will, that is disabling from further 
service.
    I think that as the task force continues, we will have some 
recommendations. You folks have been kind enough to give the 
task force some time to look at this as we kind of check out 
whether the systems that have been put in place are providing 
the best service to our recovering warriors. I do not want to 
speak for the committee because we really are still in 
discovery phase, but just to reaffirm the things we are seeing 
confirmed, some of the things that Dr. Schoomaker is talking 
about.

                          DISABILITY SERVICES

    Senator Cochran. Admiral Robinson, do you have any comments 
you would like to share with the subcommittee on that subject?
    Admiral Robinson. Sir, I think it has been covered very 
well. I just would make one comment. Usually General Schoomaker 
makes a note about the fact that the disability system that we 
use needs an overhaul since it is about 40 or 50 years old. And 
I think that actually General Green's committee and a lot of 
the input that we have given as SGs through the last 3 or 4 
years--is getting us there. We are working hard on this.
    Senator Cochran. Thank you very much.
    Thanks, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Mikulski.
    Senator Mikulski. Mr. Chairman, and the Surgeon Generals.
    First of all, we in Maryland feel very close to military 
medicine. We are the home of Naval Bethesda, and in a short 
time, sir, will be the home to Walter Reed Naval Bethesda, and 
I hope this later this summer, perhaps the subcommittee could 
go out and take a tour of what is being done there. And I think 
we would be very proud of it.
    We are proud of USU, which is the Military Medical School 
in Nursing and Public Health, and Battleship Comfort--or, I 
should say, not battleship. It fights other battles, but 
Hospital Ship Comfort and Fort Detrick. So, we feel very close 
to you.
    In terms of our work here today, I am going to pick up on 
the Dole-Shalala report. And I would like, General, to talk to 
you because we went through a lot. And I want to just use that 
as kind of the grid to see progress made and where we are 
heading, okay?
    So, in Dole-Shalala, first of all, remember what happened--
the terrible national scandal at Walter Reed. Secretary Gates 
immediately responded. There was a change in personnel and I 
think a real commitment to upgrade. And then, our own 
colleague, Senator Dole, and Secretary Shalala issued this 
great report.
    Now, I am going to focus on issues related to preventing 
and treating post-traumatic stress disorder and brain injury, 
strengthening support for the families, and their 
recommendations to transfer the work with VA-DOD, and the 
workforce issues at Walter Reed.
    The workforce issues, though, I think go well beyond acute 
care medicine, and I will be raising that with our nurses in a 
short time.
    But, General, let us go to what Dole-Shalala recommended, 
and I know you might not have the report before you. But it 
said that we should aggressively treat post-traumatic stress 
and traumatic brain injury, and yet now we are seeing in that--
so, could you tell me where we are in the progress made, how 
you see it improving, and then tell me why we have such 
increased rates of suicides and such increased rates of 
addictions to the very drugs that are supposed to treat post-
traumatic stress?
    General Schoomaker. Well, ma'am, a complex question with 
several parts.
    I think the last----
    Senator Mikulski. But it goes to the heart of kind of where 
we are in this.
    General Schoomaker. Yes, ma'am. I do not deny that.
    Let me try to address, first, suicides. I think the suicide 
question is--remains a challenge and is perplexing for all of 
the services. The Army saw a very disturbing doubling or more 
of the suicide rate from where it was 6 or 7 years ago in which 
it was age and employment adjusted and gender adjusted 
comparison to the public at large, kept by the Centers for 
Disease Control and Preventive medicine in Atlanta. We went 
from roughly one-half of a comparable population in the United 
States to being on par, if not exceeding that.
    This is a problem that was tackled by the Vice Chief of 
Staff of the Army himself, stood up a task force, which has 
been in operation for almost 2 years now looking very carefully 
at all the factors. And as it recently----
    Senator Mikulski. But what are we doing where we are?
    General Schoomaker. We have made this a commanders' and a 
leaders' issue and problem. The factors that go into reducing 
risks and identifying soldiers and families at risk, and the 
many factors that lead to our soldiers turning to suicide in 
desperation--as we have said, a permanent solution to temporary 
problems that they may suffer----
    Senator Mikulski. But do you feel that you are on track to 
cracking this?
    General Schoomaker. I think we are making progress, ma'am. 
We are beginning to see--let me give you a----
    Senator Mikulski. And this is not meant to be aggressive to 
you. We have been down this road now for over 4 years.
    General Schoomaker. Yes, ma'am, and it is--frankly, it has 
involved bringing in national leaders in this--the National 
Institutes for Mental Health for the $50 million Stars Program.
    But as a real quick example of this, we got a notice the 
other day from one of our posts that one of our warriors in 
transition--that is, one of the soldiers going through an 
injury and illness recovery--in interacting with the small unit 
leader, dropped clues that she was in distress, wanted a 
chronic pain problem solved permanently for her. And when she 
could not be reached, the NCO leadership reached out to her, 
actually drove to her home off post. When they could not get in 
the door or she would not respond, they called the police. The 
police broke down the door and found her hung in the home, but 
still alive, got her to the hospital in time. So, I think that 
is a small example of what we see as----
    Senator Mikulski. Yes, but, General, that is indeed a 
poignant problem. And, I mean, that is a very poignant story. I 
have very limited time here.
    General Schoomaker. Yes.
    Senator Mikulski. So, here are my questions. Let us go at 
this way. I love hearing stories. Remember me, I am the social 
worker at the table.
    General Schoomaker. Yes, ma'am, I know.
    Senator Mikulski. So, and I am going to approach it as a 
social worker. Do you feel you have adequate mental health 
personnel? And do you feel that they are adequately trained in 
the warrior culture? As you know, there is a great gap growing 
between civilian culture and military culture. Also, from what 
I understand from other data, that often in the first hour of 
the first treatment, the military facing this problem walks out 
and tells the counselor essentially to go to hell because they 
do not feel they get it, and they are so upset. So, my question 
is, let us go to adequacy of capacity and adequacy of training. 
And then we will go to new techniques and approaches, because 
obviously standard talk therapy and meds, as we know it, are 
not working. Can you----
    General Schoomaker. We are working very actively in finding 
evidence-based approaches to the treatment of post-traumatic 
stress disorder, which I think in the main is--can be treated 
successfully. And we are seeing that.
    Suicide, I think, is far more complex. It is not a medical 
problem. I think this is one of the things that vice has said, 
it is a larger command problem. Frankly, one-half or more of 
people who commit suicide have never seen a mental health 
provider or been identified as having a problem.
    We are working very hard----
    Senator Mikulski. Do you have adequacy of mental health 
professionals?
    General Schoomaker. I think the Nation is facing a problem 
with mental health professionals----
    Senator Mikulski. No, do you have it? I am not talking 
about the Nation.
    General Schoomaker. As a microcosm of the Nation, we have 
problems, especially as----
    Senator Mikulski. Again, I am not being--I really----
    General Schoomaker. We have problems, ma'am.
    Senator Mikulski. I so admire what you have done and the 
leadership you have provided. I want to be very clear about 
that. But do you see my level of frustration? They are calling 
my office because they need help accessing services, not 
knowing where to go. So----
    General Schoomaker. I think the two things that we face----
    Senator Mikulski. And what about the tying in the warrior 
culture?
    General Schoomaker. The things that we face most--and, 
frankly, I think is a subordinate element of this warrior 
culture issue might be present in some cases, but not 
universally. Our people do a good job with that. We are working 
hard to prevent post-traumatic stress by rapid identification 
of concussion on the battlefield and reducing that. We have got 
a comprehensive behavioral health system of care now that ties 
every phase of soldier deployment to each other phase and 
passes information. That has resulted in remarkable reductions 
in stress problems.
    And what we have residual problems with in the Reserve 
component who go home to communities where access to care is a 
problem for all care, but especially behavioral health, and in 
remote size within the Army where it is tough to compete for 
civilian employees of any kind. But in some of our places where 
we have camps, posts, and stations, in the desert in 
California, for example, it is hard to recruit and retain high-
quality people.
    Senator Mikulski. All right. So, here is what I would like 
in my limited time. I appreciate that and the challenges. But I 
would really like to hear, based on the Dole-Shalala 
recommendations, what, from your--and I mean the group--
perspective--on what is the progress made. But the Army assumed 
primary responsibility for implementing Dole-Shalala. And then 
also on the adequacy of training.
    The other question I have is, we have to--and, Mr. 
Chairman, with your indulgences--support for the families. You 
know, when a warrior bears this either permanent wound or 
permanent impact, it is the spouse or the mother or the family, 
and it is also the children who bear this often--well, there is 
a saying in both the civilian and military world, post-
traumatic stress is contagious. In other words, if one person 
has it, the family has it. So, it is not like isolated like 
cardiovascular disease where you have got it. Maybe the spouse 
is helping with a better diet and lifestyle. Can you tell me--
again, going to Dole-Shalala--where we are in the support for 
the family?
    General Schoomaker. Yes, ma'am. We are working very 
actively on programs to support families, especially children, 
but spouses as well. We are reaching out into communities, 
engaging schools, churches, other community members, to extend 
the reach of insulation-based services into the communities to 
highlight that these are families of the military that face 
great stresses in their lives and identify children who are at 
risk and spouses who are at risk.
    Ma'am, in an earlier meeting several years ago, you 
challenged me, without any data at the time, to rank order 
three elements of deployment in terms of their impact on 
soldiers and families: the frequency of deployment, the length 
of a deployment----
    Senator Mikulski. Right.
    General Schoomaker [continuing]. The time between 
deployments we call dwell. And what I told you was we suspect 
that probably of the three, the most important is the dwell 
between deployments, and then after that, the length of the 
deployment, and then the frequency of deployment. We have 
special operations units that have deployed and individuals 
that have deployed a dozen times or more. But they are shorter 
deployments and they have adequate dwell between.
    One thing we cannot--we now have good science to document, 
through surveys on the battlefield and from returning soldiers, 
that not allowing a soldier and a family to have a minimum of 
24 months of dwell between deployments does not allow them to 
restore their psychological state.
    Senator Mikulski. That is a good point.
    General Schoomaker. And one of the things that I think we 
need real support from the Congress in is to not--is to allow 
us to resume a, we call boots on the ground to dwell rate of 
one to two; that is, 2 years back home for every year that you 
are in combat. That, I think, will make a significant--have a 
significant impact on the mental state and the psychological 
state of both families and soldiers.
    Senator Mikulski. Well, General Schoomaker, thank you.
    Mr. Chairman, you have been indulgent. I could talk all day 
with this panel. Perhaps you and I could meet and talk over 
this in more detail, and then take some ideas to the chairman.
    Thank you very much.
    Chairman Inouye. Thank you.
    Senator Mikulski. But, you know, this deployment is a big 
issue. If we are going to cut the military, then we got to 
cut--like, we are going to shrink the Marine Corps, you know, 
the old budget? But if we are going to shrink the Marine Corps, 
then we should shrink what we ask the Marine Corps to do. And 
that would go for every military service, so I think we have 
got to keep this in mind.
    Chairman Inouye. It is a major challenge to all of us here.
    Senator Mikulski. For every year you are deployed, you need 
2 years at home to stay connected to your family to deal with 
exactly some of these really horrific situations you and I have 
just discussed.
    General Schoomaker. Yes, ma'am. And the Army, in 10 years 
of war, has never been able to achieve a 2-year dwell. In fact, 
on average it has been at 1.3 years----
    Senator Mikulski. Well----
    General Schoomaker [continuing]. Of dwell for every year of 
deployment.
    Senator Mikulski. Thank you.
    Chairman Inouye. Thank you very much.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    And I want to recognize the comments of my colleague from 
Maryland, talking about not only the impact to the individual, 
to the soldier, to those that are actively serving, but to the 
health and well-being of the families that are at home and 
supporting them. So I appreciate, General, your comments and 
recognition that it is the health of the whole family, not just 
the soldier, that we need to address here. It is a considerable 
challenge, but I think when we think about our effectiveness, 
our ability to recruit, our preparedness, it all has to come 
together. And I appreciate the discussion here this morning.
    Gentlemen, welcome, and thank you all for your service, 
greatly appreciate it in so many ways.
    General Green, it was a pleasure to have the opportunity to 
meet with you when you were in Alaska to attend the retirement 
ceremony for a friend of ours, Colonel Powell. At that time, we 
discussed the efforts to bring Fisher House to Alaska, and that 
is now a reality. We greatly appreciate that--your efforts and 
then your support for what Colonel Powell was trying to do, 
which was to focus on the hometown healing, has been remarkably 
successful. So we have got some good news to report up north.
    My question today, and this is for you, General Green, is 
regarding the Elmendorf Hospital facility. As you know, it is a 
joint venture facility with the Air Force and the VA. And 
recognizing that it truly is joint venture in the sense that we 
have got the other services involved--Air Force, Army, and also 
serving our Coast Guard families. So, it clearly is a benefit 
to the region.
    What I want to ask you today is whether or not the Air 
Force and the VA are in alignment when it comes to meeting the 
staffing needs there at Elmendorf Hospital.
    We have got a situation where within the VA, far too many 
of our veterans are being sent outside--being sent to Seattle 
and parts outside the State simply because the services cannot 
be obtained there, or because the VA says we are going to do it 
outside, even when the services are available. I had an 
opportunity to discuss this with Secretary Shinseki at an 
Approps meeting last week, and he has pledged to me we are 
going to work to do better in purchasing care for our veterans 
there.
    But what I am trying to determine is whether or not within 
this joint venture hospital we are truly able to meet the 
needs, given the strains that we have on capacity within the 
community, given the issues that we have in meeting the needs 
for certain specialties. And what I am looking for this morning 
is an assurance that we can be working to ensure that the joint 
venture hospital has what it needs--the people--to serve both 
the active military populations as well as our veteran 
population.

              ELMENDORF HOSPITAL--A JOINT VENTURE FACILITY

    General Green. Yes, ma'am. Thank you, and I appreciate our 
luncheon with Eli Powell, too, who is a good friend of mine.
    Senator Murkowski. Yeah.
    General Green. In answer to your question, I think that you 
will kind of get a sense of the commitment we have to this 
venture.
    The joint venture with the VA at Elmendorf is one of six 
that the Air Force is now doing with the VA. We have now 
invested about $7 million in JIF funds just at Elmendorf. We 
have about $100 million in all of our joint ventures across the 
world where we are partnered with the VA. My commitment up 
there has been to basically increase the manpower by about just 
under 200 positions to try and augment the staffing at 
Elmendorf to pick up on some of the workload, strongly 
encouraging further joint ventures with the Indian Health 
Service, which, as you know, is one of the larger hospitals in 
the Federal system there. And we have had people working in the 
Indian health hospital as well as we try to--they are a level 2 
trauma hospital now--as we try to maintain skills.
    We have also increased the budget up at Elmendorf by about 
$4 million annually in addition to just adding manpower, and we 
have seen an output from that of nearly 40 percent increase in 
surgeries that can be now in Alaska instead of people being 
sent elsewhere.
    My commitment to the joint venture is very solid. I would 
love to see Elmendorf thrive. We have talked about whether or 
not we can bring graduate medical education up there. I have 
worked with some of your community physicians as they look to 
bring a pediatric residency to see if we can join them in that 
effort. And we have also talked with the family practice 
residency up there to see how we can basically partner.
    Some of this has to do with how the hospital grows and how 
long it takes for construction in your State sometimes. The new 
VA clinic up there has been very successful, and my hope is we 
can do even more. And my hope is we can do even more. So, you 
have my commitment, and I won't speak for the VA, but when I 
talk with them, they are very committed also to expanding 
services.
    Senator Murkowski. Well, what we would like to do is to be 
able to identify those areas or perhaps those gaps within the 
VA system, whether it is in orthopedics, ENT, neurology, 
wherever that is, and see if in fact there is a--there is the 
ability within the Air Force to kind of reach in and fill those 
gaps as we look to how we staff and truly meet the needs of, 
again, our Active service men and women and our veterans up 
there. But I appreciate your commitment, and I look forward to 
working with you on that.
    General Green. Yes, ma'am. We send you very talented people 
that I----
    Senator Murkowski. Yes, you do.
    General Green [continuing]. Expect to help me grow that 
particular area.
    Senator Murkowski. We appreciate that as well.
    General Schoomaker, this is probably for you as the Army is 
the one that administers the congressionally directed Medical 
Research Program. And my question to you this morning is about 
the research program as it pertains to ALS, or Lou Gehrig's 
disease, a horrible disease for all--those of us that know of 
it, but a concern for us in the military as we look to the 
exceptionally high incidence--incident rate of those who 
contract ALS, who are our military heroes. It strikes those in 
the military at approximately twice the rate as the general 
public.
    Back in 2008, ALS, as I understand, was determined to be a 
presumptive disability by the VA, a service-related disease. 
And again, those of us who have been in a situation where we 
know someone with ALS know that this is a condition that moves 
quickly--5- to 6-year life expectancy from diagnosis, and a 
terribly, terribly horrific and debilitating disease that cost 
incredible amounts of money as we provide for that level of 
care and that level of treatment.
    And so, when we look to the statistics, it causes one to 
wonder, well, what will the impact to our military systems be 
as we pick up the costs for those that are afflicted with ALS? 
We are all very cognizant that we are in times of greatly 
reduced budgets, and some would look at these programs--these 
congressionally directed medical research programs--as being 
something that are perhaps nice, but not necessary. So, I would 
like to hear from you this morning kind of where you are coming 
from on these congressionally directed medical research 
programs, more specifically, ALS, whether you think that it is 
something that should be continued to be funded in terms of the 
research, and whether or not you think that that research is 
making a difference in the lives of our service members who 
have been afflicted.
    General Schoomaker. Yes, ma'am. Thanks for that question. 
And I think you have made exactly the case I would make for 
these programs.
    Congress has been remarkably enlightened and forthcoming 
with funds for congressionally directed research dollars and 
for programs which are, as you point out, ma'am, administered 
through the Medical Research and Materiel Command at Fort 
Detrick under the congressionally directed medical research 
program and other congressional special interest programs.
    They currently--we have got a very effective, I think, and 
efficient process by which research dollars and programs are 
targeted for our review for both scientific credibility and for 
programmatic integrity; that is, that they will be successfully 
executed. We have a very good program of soliciting the best 
investigators from across the country, both inside and outside 
the military, but largely outside the military, to conduct 
this. And the programs that they--that are addressed in these 
include amyotrophic lateral sclerosis that you have talked 
about, ALS, but also prostate cancer, breast cancer, and a 
variety of other problems that afflict not only the population 
at large, but military members and families as soldiers, 
sailors, airmen, and marines.
    We try to make these as appropriate as possible to the 
military population, but we admit that a lot of these 
breakthroughs have overflow or application to other neurologic 
problems. I mean, insights into ALS will give us insights into 
other problems from an injury or illnesses that afflict 
soldiers.
    Currently, the limit on earmarks is going to threaten about 
50 percent of the total research that is done within the 
Medical Research and Materiel Command.
    Senator Murkowski. What do you think that will do to the 
status of research?
    General Schoomaker. Well, I mean, it is going to take down 
my structure. It is very hard to rebuild the structure that is 
the people and the programs that administer these programs for 
the military. You cannot snap your fingers and rebuild them, 
and so we are going to have to take those down over the next 
few months and have already started that process.
    I am very eager to see the Congress come up with a solution 
that allows us to keep some of the critical programs because 
they have been very innovative and been very successful in 
delivering, you know, insights into new products to improve the 
lives of people who are suffering from these problems.
    Senator Murkowski. Well, it is difficult to hear that we 
would go backward on our research--go backward on the progress 
that we have made. And I hate to try to put a dollar on, you 
know, what it costs to deal with somebody that is afflicted, 
again, with a disease where, again, you are looking at 
incidence rates within our military that are twice the number 
within the general population out there. You would hate to 
think that somebody would hesitate to join up and become a 
member of our military because they are concerned that somehow 
or other they may be afflicted with a disease that they really 
want to steer clear of.
    I recognize that these are difficult budget times, but I 
also recognize that the advancements that we have made, the 
investments that we have made in our research and technology, 
are not something that we want to dial back on. So, I would 
hope that we could work with you as we try to make more forward 
progress in this area.
    Mr. Chairman, I have yet another question, but I have taken 
plenty of time this morning. But I will defer to Senator Leahy.
    Chairman Inouye. Thank you very much.
    Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman.
    I have found the questions here and answers interesting. 
You have a panel of three very, very well qualified people to 
answer them, and I appreciate that.
    General Schoomaker, recently 42 Members of Congress joined 
me in sending a letter to the Army and the Guard Bureau asking 
them to fund eight States' National Guard outreach programs. 
The programs are going to expire soon. Now, in full disclosure, 
one of them is in my own State of Vermont.
    But I think when we have heard the questions, especially 
those of the last two Senators, I would add to their points by 
saying these programs fill a serious gap in the Guard 
behavioral health. These programs are kind of like the MRAP, 
although it was an entirely different thing, but the program 
seemed like an idea where the Army and the Congress can work 
together to do the right thing. We did, getting the troops that 
equipment. Now we are talking about our soldiers and how we 
take care of them.
    You have made great strides, and I listened to what you and 
Senator Mikulski were saying about suicide prevention in recent 
years. But last year's doubling of Army Guard suicides shows 
that the Army falls short when it comes to the needs of the 
Army Guard and Reserve. They do not have a base. They are not 
going back to a port or a base where you can have the services 
within a limited geographical area. A State like Vermont, which 
has no active duty installations, the Guard uses its outreach 
programs to reach out to personnel where they live in home 
towns across the State. That may be a town like the one I live 
in with 1,500 people; it may be in one with 100 people, or it 
may be a community like Burlington that has a larger 
population. And our own adjutant general, Mike Dubie, whom I 
believe you know, told me that there had been many potential 
suicides that had been averted by this outreach program.
    Now, the funds needed to preserve these programs are less 
than $10 million for the remainder of the fiscal year. Are 
these programs going to be funded for this year and for the 
future?
    General Schoomaker. Well, sir, first of all, I want to 
thank you for the advocacy you showed for the 86th Infantry 
Brigade Combat Team that did deploy and then redeployed through 
Fort Drum, and I think illustrated the progress we have made in 
trying to bring back, redeploy, and then demobilize our Guard 
and Reserve.
    What you have highlighted, and other members of the 
subcommittee have highlighted, are the problems that are 
inherent within the operationalization of the Reserves. The--
our Guard and Reserve, which was within the Army, conceived of 
in past times as a strategic reserve ready to get launched one 
time for a major Nation-threatening, you know, war or conflict 
has now been, for the last 10 years, integrated fully into the 
deployment of the Army through an operational Reserve. And in 
doing that, what we have identified are shortcomings and 
challenges in providing care for National Guard and Reserve 
soldiers and families when they get back to their communities.
    Senator Leahy. And providing that care is a little bit 
different than going back to a base, going back to----
    General Schoomaker. Sure. No question.
    Senator Leahy [continuing]. Fort Hood or somewhere else.
    General Schoomaker. And the rules that govern access to 
that care are quite different. I mean, while the soldier is on 
Active duty, if the soldier incurs an injury or an ailment as a 
consequence of that deployment or that training to go to 
deployment, there is no question we have ready access to 
military units and military healthcare, and our TRICARE 
network, for that matter. But it does become a challenge when 
soldiers are redeployed and demobilized and then sent back home 
where they may face environments. And you are not alone in 
Vermont in facing this problem.
    I am working very closely with the Guard and Reserve. I 
think one of the major efforts that Major General Rich Stone, 
who is a mobilized reservist in the South out of Michigan, and 
a physician in practice, but has left his practice to work with 
us and orchestrate a program to look at how we can better 
support the Guard and Reserve. We have been looking for the 
last couple of years at exactly how we can better care for and 
reach out to the Guard and Reserve through TRICARE and our 
other efforts. So, we are looking at the programs that are 
threatened by the loss of funding, sir.
    Senator Leahy. Well, please look carefully and work with my 
office. We have had, you know, a redeployment. We talked about 
the Warrior Transition Program. And I know that there is a 
pilot program established at Fort Drum which still has some 
issues to work out. It is far superior than what the 86th 
Brigade had before, though. And I just would like to see these 
things around the country because when you have been in Iraq 
and you have been in Afghanistan, as I have, and you see these 
people out in the field, you cannot look at the soldiers going 
in and say, well, that one is a Guard member and--you cannot 
tell, nor are their duties any different.
    And I have one other question, and actually I pass this on 
to all of you, General, to you, and Admiral Robinson, and 
General Green. I have long supported improvements in military 
medical care through information technology and increased use 
of it. I have supported a military medical decisionmaking tool 
called CHART. The Office of the Secretary of Defense plans to 
mandate it for use by the services in pre- and post-deployment 
healthcare screening. A recent study by an Army doctor in the 
American Journal of Psychiatry linked deployment screenings to 
improved mental health outcomes. Are your services going to be 
using CHART and interface with your readiness systems?
    Admiral Robinson, would you like to----
    Admiral Robinson. Sir, I----
    Senator Leahy [continuing]. Take a swing at that one?
    Admiral Robinson. I will take a swing at it. I am not 
familiar with CHART, so I do not know whether we will be using 
it or not. But I can certainly take this for the record and get 
back to you.
    Senator Leahy. Would you please?
    Admiral Robinson. I certainly will do that.
    Senator Leahy. Thank you.
    [The information follows:]

    An electronic tool to integrate multiple health assessment 
questionnaires and display results in the DOD electronic health 
record system would he beneficial. In its current Conn, CHART 
has multiple shortcomings, and requires major enhancement 
before it can be considered as an acceptable solution for the 
Services.
    Each of the Services currently possesses operational 
readiness information systems with an integrated health 
assessment questionnaire capability. These systems manage each 
Service's unique readiness requirements and operate in their 
unique fielding environments. CHART as a health assessment 
questionnaire tool would duplicate and fragment our ability to 
assess and monitor readiness of Soldiers, Airmen, Sailors, and 
Marines. For these reasons, CHART is currently ranked very low 
in the overall funding priority.

    General Schoomaker. Sir, and for the Army, I am not 
familiar with that as well, but I will--this is a good point 
for me to make a pitch for this behavioral health system of 
care that Major General Horoho is taking personal leadership 
in. It allows us to look at programs like CHART, or any other 
program, in an objective way and do a head-to-head comparison 
with our existing systems, and see if it delivers a better 
outcome. So, I think----
    Senator Leahy. I mean, we all want the same thing. We want 
the best outcome. And I am just pushing to make sure we have 
it.
    And, General Green? And certainly all three of you please 
do give me something for the record on this.
    General Green.

                       ELECTRONIC HEALTH RECORDS

    General Green. Yes, sir. And I will take the question for 
record on the CHART, specific question.
    I would add that we now have almost 5 years of data from 
our electronic health record. And so, leveraging the data that 
is in AHLTA and basically linking that with the pharmacy 
transaction databases as well as the M-2, we are now leveraging 
informatics to try and get to new levels of decision support 
that will really change medicine over time. I strongly believe 
that if we can get better information to the patient so that 
they make sound decisions, that we can then also get them to 
the healthcare team which can augment and give them even 
further information, we will see tremendous change in medicine 
because we will be able to pinpoint prevention back to the--
what is necessary for patient care.
    Senator Leahy. Well, take a look at this one and take a 
look at any of the DOD directives on it, because there has to 
be follow-up to make it work, and that is what I am most 
concerned about. I worry very, very much that some of these 
brave men and women we have deployed fall off the screen 
because they are not treated properly. I do not pretend to be 
knowledgeable on this, but I know when my wife was working as a 
registered nurse, she saw a lot of these people that should 
have been helped--that was a different time--should have been 
helped, could have been helped. And I go to some places where 
the care is superb, and the person might have committed suicide 
somewhere else, or might have dropped off the screen somewhere 
else, or had debilitating illness that could have been 
corrected and was not. We ask them to put their lives on the 
line, then--I mean, you know that, and you believe as I do. I 
think we owe them something when they come back. So, let us see 
what this is going, let us see what the directives are, and let 
us see what the implementation might be.
    Thank you.
    Mr. Chairman, thank you for this hearing.
    Chairman Inouye. All right. Thank you very much.
    And, General Schoomaker, Admiral Robinson, General Green, I 
thank you very much on behalf of the subcommittee. And I wish 
you well also.
    And now we will have the second panel: Major General 
Patricia Horoho, Chief, Army Nurse Corps, Rear Admiral 
Elizabeth S. Niemyer, Director of the Navy Nurse Corps, Major 
General Kimberly Siniscalchi, Assistant Air Force Surgeon 
General for Nursing Services.
STATEMENT OF MAJOR GENERAL PATRICIA HOROHO, CHIEF, ARMY 
            NURSE CORPS, DEPARTMENT OF THE ARMY
    General Horoho. Good morning, sir.
    Chairman Inouye, Vice Chairman Cochran, and distinguished 
members of the subcommittee, it is an honor to speak before you 
today on behalf of the nearly 40,000 officer, civilian, and 
enlisted team members that represent Army nursing. Your 
continued support has enabled Army nursing in support of Army 
medicine to provide exceptional care to those who bravely 
defend and protect our Nation.
    It is a privilege to share with you today what is happening 
across Army nursing.
    Our strategic priority, the Patient CareTouch System, was 
implemented in February of this year at three medical treatment 
facilities, Madigan, Brooke, and Womack Army Medical Centers, 
and then this month we began the roll out of the remaining 
facilities. Army-wide implementation of Patient CareTouch will 
be complete by December 2011. This system is fully embraced by 
all medical leaders and is successfully being implemented 
across Army medicine.
    The Patient CareTouch System is comprised of five elements, 
which we truly believe guide, gauge, and ground patient-
centered care delivery. The elements are patient advocacy, 
enhanced care team communication, clinical capability building, 
evidence-based practices, and healthy work environments. There 
are 10 supporting components that enhance these elements.
    A key element of the Patient CareTouch System is evidence-
based practice, and nursing researchers, embedded in newly 
formed centers for nursing science and clinical inquiry, 
translating research into practice to optimize the quality of 
care provided to our patients.
    Army nursing is continuing to answer the call of the 
combatant commander for critical care nurses who are prepared 
and dedicated to care delivery in the back of medical 
evacuation helicopters.
    In December 2007, nurses assigned to the Medical Task Force 
in Iraq leveraged the capabilities of our critical care and 
emergency nurses. We created and then codified a premier en 
route care transport program that ensured our wounded, ill, and 
injured receive the right care at the right time by the right 
provider. Since last year, we have performed nearly 450 en 
route care transport missions. This capability directly 
impacted the 98 percent survival rate for wounded service 
members in Iraq, and is now the standard across all theaters of 
operation.
    The demand for increased numbers of trauma nurses in both 
theaters of operation prompted me to make a decision this year 
to establish a separate area of concentration for trauma 
nurses. This required a consolidation of critical care and 
emergency nursing specialties from which this new specialty, 
the 66th Tango, was established. This consolidation will 
provide unparalleled level of trauma nursing capability for 
military medicine, and it will be the force multiplier in both 
our fixed and deployed hospitals.
    I would like to provide you with an update of several 
programs that I introduced to you last year.
    The Brigadier General Retired Anna May Hayes Clinical Nurse 
Transition Program continues to prepare our novice nurses to 
provide patient-centered care. Since 2009, over 520 novice 
nurses have completed this program, achieving a higher advanced 
beginner competency. This program continues to exceed the 
national standard.
    Since the inception of the Virtual Leader Academy, we have 
graduated over 500 officers, non-commissioned officers, and 
civilians from our courses. This Academy focuses on capability 
and facilitates lifelong learning.
    Army nursing is committed to the education of its advanced 
practice nurses. To that end, Uniformed Services University has 
once again proven to be the stalwart partner of Army nursing, 
as well as to our sister services to ensure the development of 
the curriculum to tackle the requirements for transition from 
Masters to DMP Program by 2015.
    An area that we have focused our effort pertains to 
behavioral health. We have refined the clinical capability for 
the Advanced Practice Army Behavioral Health Nurse 
Practitioners, a key member of the behavioral health team. We 
have leveraged their capability toward building resiliency in 
our deployed service members and their families.
    Over the past year, 424 Army nurses deployed with two 
medical brigades and four combat support hospitals in support 
of Operation New Dawn and Operation Enduring Freedom. We had 
the extreme honor of celebrating the successful command tour of 
two combat support hospital nurse commanders. These nurses were 
integral in leading healthcare delivery and facilitating 
medical diplomacy across Iraq.
    Army nurses are writing our history with each patient they 
touch, with each experience they have, and each story that they 
tell.
    On February 2, we celebrated 110 years of proud service to 
our Nation. We thank you, Mr. Chairman, and Senator Murkowski 
for introducing Senate Resolution 31 to commemorate this 
historic occasion.
    Mr. Chairman, we also thank you for the very touching, 
heartfelt video message for the many years of unwavering 
support of Army and Army nursing.
    I continue to envision an Army Nurse Corps of the future 
that we leave its mark on military nursing and will be a leader 
of nursing practice reform at the national level. We are 
committed to leveraging lessons learned from the past, engaging 
present innovation, and shaping the future of professional 
nursing. Our priority remains our patients and their families, 
and our common purpose is to support and maintain a system for 
health. In order to achieve this common purpose, we serve with 
the courage to care, the courage to connect, and the courage to 
change, so that we may provide the best possible healthcare to 
those that wear the cloth of our Nation.

                           PREPARED STATEMENT

    On behalf of the entire Army Nurse Corps, serving both home 
and abroad, I would like to thank each of you for your service 
to our Nation and your unwavering support.
    Thank you.
    Chairman Inouye. General Horoho, thank you very much for 
you testimony. We appreciate it very much.
    [The statement follows:]
         Prepared Statement of Major General Patricia D. Horoho
    Chairman Inouye, Vice Chairman Cochran and distinguished members of 
the committee, it is an honor and a great privilege to speak before you 
today on behalf of the nearly 40,000 Active component, Reserve 
component and National Guard officers, non-commissioned officers, 
enlisted and civilians that represent Army Nursing. It has been your 
continued tremendous support that has enabled Army Nursing, in support 
of Army Medicine, to provide exceptional care to those who bravely 
defend and protect our Nation.
                        patient caretouch system
    I am pleased to provide you with an update on Army Nursing and to 
share with you my strategic priority, the Patient CareTouch System. The 
Patient CareTouch System implementation began on February 7, 2011 at 
three medical treatment facilities: Madigan Army Medical Center, Brooke 
Army Medical Center, and Womack Army Medical Center. Seven facilities 
will begin their roll out this month: Walter Reed Army Medical Center, 
DeWitt Army Community Hospital, Tripler Army Medical Center, Landstuhl 
Regional Medical Center, William Beaumont Army Medical Center, Carl 
Darnall Army Medical Center, and Blanchfield Army Community Hospital. 
The remaining facilities will join the process in three implementation 
phases beginning in mid-May. Army-wide implementation at every patient 
touch point will be completed by December 2011. The Patient CareTouch 
System spans all care environments where nurses touch patients by 
ensuring quality care is delivered carefully, compassionately and in 
accordance with standards for best practice. The Patient CareTouch 
System is comprised of five elements, which we believe guide, gauge, 
and ground patient centered care. These elements include: Patient 
Advocacy, Enhanced Care Team Communication, Clinical Capability 
Building, Evidence-Based Practices, and Healthy Work Environments. The 
elements are supported by 10 components that include core values for 
patient care, care teams, peer feedback, standardized documentation, 
skill building, talent management, clinical leader development, 
optimized clinical performance, Centers for Nursing Science and 
Clinical Inquiry (CNSCI), and shared accountability for quality of 
patient care delivery.
    The Patient CareTouch System provides a sustainable framework for 
our transition from a healthcare system to a system for health. It 
cultivates trust by providing a standard by which care can be measured 
across Army Medicine, and it allows us to look critically at what we 
do, how we do it, and how we can improve. The Patient CareTouch System 
ensures that our patients know that we have their best interest at the 
forefront of all care decisions and it promotes standards, not 
standardization, for nursing care Army-wide. We found, when we piloted 
the Patient CareTouch System at Fort Campbell, Kentucky, that we had a 
positive impact on patient outcomes, patient satisfaction, clinical 
communication, provider-nursing staff collaboration, and provider 
satisfaction. We believe these results will be reproducible across Army 
Medicine and we are using evidence based metrics to benchmark nurse 
sensitive indicators against national standards. This will validate our 
firm belief that our patients are receiving world class, high quality 
nursing care.
                    optimizing patient care delivery
    Evidence based practice is a key element in the Patient CareTouch 
System and nursing researchers, embedded within newly formed CNSCIs are 
translating research into practice to optimize the quality of care 
provided to our patients. The CNSCIs are promoting enhanced nursing 
decision support, evidence-based practice and research. Nurse 
scientists, Clinical Nurse Specialists, and Nurse Methods Analysts 
comprise the CNSCI. These experts working together are affecting the 
transition from a ``question-to-answer model'' to the more valuable 
``question-to-translation-to-evaluation model.'' Consolidating nursing 
support assets who are working on a common sense research priority 
agenda increases the capacity for evidence-based management and 
evidence-based practice Army Nursing wide.
    Research and evidence-based practice are overarching and core 
constructs in the Army Nursing Campaign Plan. Army Nursing is 
transforming from an expert-based practice model to a systems-based 
care model in order to leverage nursing assets and realize the benefits 
of knowledge management and research translation. This is critical to 
improve patient outcomes, safety, healthcare value, and quality. Tenets 
of a systems-based care model includes system resourcing, healthcare 
economics, teamwork, cost-benefit considerations, and practice 
management. Key to success is uniting various types of nursing support 
experts to better meet the needs of bedside nurses and the nurse 
leaders who provide and direct the delivery of patient care.
    Army Nurse scientists are collaborating in joint, multinational and 
academic settings to infuse nursing practice with evidence based 
science. The premier Army Nursing Practice Council (ANPC), established 
in the fall 2010, is providing the critical connection between nursing 
science and nursing practice. The ANPC meets monthly to review 
evidence, data, and science to develop evidence-based nursing tactics, 
techniques and procedures (TTP) that then become the standards across 
Army Medicine. Recently published standards include an innovative falls 
prevention program, structured nursing hourly rounding, and bedside 
shift reporting. TriService Nurse Research Program (TSNRP) funded 
studies support several evidence-based nursing TTPs. For example, in 
the Emergency Room at Bayne Jones Army Community Hospital, Fort Polk, 
Louisiana, white boards in the patient rooms facilitate real time 
status updates on medications, procedures, and tests completed to 
enhance communication between emergency room staff and the patient and 
family members.
    The TSNRP funded an evidence-based practice project titled: 
``Evaluating Evidence-Based Interventions to Prevent Falls and Pressure 
Ulcers.'' This study was the basis for revising clinical practice 
guidelines for prevention of falls and skin breakdown within the 
Madigan Army Medical Center. It was also the means by which their CNSCI 
team introduced patient-centered rounds and monitoring of nurse-
sensitive outcomes such as nurse satisfaction, patient satisfaction, 
and rates of falls and pressure ulcers.
                              warrior care
    Enroute care transport is not a new mission for Army Nursing; we 
have been providing this type of care for over 60 years. In 1943 the 
first Army nurses formally trained in air evacuation procedures were 
assigned to secret missions in North Africa, New Guinea, and India. 
Army nurses cared for patients on helicopter ambulances, transporting 
over 17,700 U.S. casualties of the Korean War. During the Vietnam war, 
Army Nurses were aboard helicopters moving almost 900,000 United States 
and allied sick and wounded Soldiers.
    Army Nursing is continuing to answer the call of the combatant 
commander for critical care nurses who are prepared and dedicated to 
care delivery in the back of a medical evacuation helicopter. In 
December 2007, nurses assigned to the medical task force in Iraq 
leveraged the capabilities of our critical care and emergency nurses 
and created, then codified, a premier enroute care transport program 
that ensured our wounded, ill and injured service members received the 
right care, at the right time, by the right provider. This program 
directly impacted and sustained the 98 percent survival rate for 
wounded service members in Iraq.
    The Army Nursing Enroute Care Transport Program was so successful 
in Iraq in decreasing the incidence of hypothermia, accidental 
endotracheal tube extubation, and prevention of hypovolemic shock in 
our Wounded Warriors that the program is currently in place in 
Afghanistan. Army nurses continue to refine and improve the program, 
maintaining a focus on nursing TTPs for critical care patients 
transports. I am so proud of our Army nurses who, at the beginning of 
the war in Iraq, saw a gap in rotor wing critical care patient 
transport and identified processes to fill the gap. As a result, our 
enroute care transport program is unparalleled in terms of the quality 
of nursing care that our combat veteran critical care nurses provide to 
Wounded Warriors. The quality of care during the strategic evacuation 
care continuum does not end in the theater of operation. Landstuhl 
Regional Medical Center's (LRMC) unique TriService Air Evacuation 
mission processes all casualties through the Deployed Warrior Medical 
Management Center. The nursing care provided to wounded, ill and 
injured Warriors and coalition armed forces air evacuated from 
Operation Iraqi Freedom, Operation Enduring Freedom, Operation New Dawn 
and other Overseas Contingency Operations to LRMC significantly 
contributed to LRMC being awarded the Association of Military Surgeons 
of the United States (AMSUS) 2010 Facility-based Healthcare (Hospital) 
Top Federal Hospital for fiscal year 2010. Continuing their high 
operational tempo, the LRMC's triservice nursing team cared for 11,185 
casualties (4,284 inpatient casualties and 6,901 outpatients) in fiscal 
year 2010.
    Nursing staff augmented the Contingency Aeromedical Staging 
Facility on Ramstein Air Base, enabling continuous casualty flow from 
LRMC to CONUS medical centers. Receiving casualties from over 500 Air 
Evacuation flights, LRMC nurses have significantly supported the 
aeromedical evacuation process. On any given day at LRMC, nursing staff 
on the medical-surgical units will discharge 10 inpatients and admit 11 
new patients, illustrative of the high operational tempo that is 
commonplace at LRMC.
    Nurse researchers like Lieutenant Colonel Betty Garner, are 
augmenting warrior care efforts by conducting studies designed to 
produce evidence for new nursing care modalities. Lieutenant Colonel 
Garner and her team are determining the impact nursing care has on 
injured Soldiers and their families after a traumatic brain injury 
(TBI). Understanding the needs of the Wounded Warrior and their 
families are imperative to improve the quality of life among those 
affected by TBI.
    These examples of Army Nursing's clinical initiatives illustrate an 
amazing flexibility and agility to ensure that we are responsive to the 
needs of our wounded, ill, and injured service members. I would like to 
provide you with an update of several programs that I introduced to you 
last year, and are key enablers of Army Nursing's strategic 
initiatives.
                          capability building
Talent Management
    Inherent in clinical capability building is leadership, and in 
order to best leverage the capabilities of our nursing team, we 
examined the methods by which we identified, managed, and developed 
clinical leader talent. The Army Nurse Corps' (ANC) talent management 
strategy is a mission critical process that ensures the Corps has the 
right quantity and quality of leaders in place to meet the current and 
future Army Medical Department missions and priorities. Our strategy 
covers all aspects of the ANC life cycle, to include aligning the Corps 
strategic goals with capability requirements and distributing the right 
talent for the right position at the right time and rank.
    We partnered with U.S. Army Accessions Command and implemented 
precision recruiting to ensure we are recruiting the right capability 
in order to develop clinical leader talent. In spring 2010, for the 
first time, our Human Resources Command, Army Nurse Corps Branch 
executed a formalized capability-based assignment process, placing 
senior officers in key positions based on their skills, knowledge, and 
behaviors instead of on availability. In addition, we defined and 
established a sustained succession plan for key leadership positions in 
the ANC. Our talent management strategy enables us to assign full 
spectrum leaders across all care environments in support of the Army 
Medicine mission.
Leader Academy
    Since the inception of our virtual Leader Academy, we have 
graduated over 500 officers, non-commissioned officers and civilians 
from our courses. Over the past year we analyzed ways to optimize the 
Leader Academy to ensure agility in meeting evolving requirements. We 
have sequenced learning and redesigned a ``building block'' curriculum 
to facilitate lifelong learning at all professional development phases. 
The five core elements of the Patient CareTouch System serve as the 
foundational framework for the Leader Academy and the key components 
are threaded throughout the curriculum of all courses offered.
    The BG(R) Anna Mae Hays Clinical Nurse Transition Program (CNTP) 
continues to prepare our novices with good results. Preliminary program 
evaluation results presented at the 2010 Phyllis J. Verhonick Nursing 
Research conference indicate that of the four cohorts evaluated, all 
participants achieved advanced beginner competency at the end of the 
program. In order to stabilize the program, all director positions are 
now being filled by competitively selected non-rotating civilians, two 
of which are Doctoral prepared and the remaining are Master's prepared. 
A review of current studies revealed that standardized preceptorship 
programs (preceptor training and tracking) increases nurse transition 
from academia to practice. As a result of this evidence, the CNTP 
directors adopted a Preceptor Development Program and established 
guidelines now being implemented at all transition sites. The Patient 
CareTouch System provides a framework for the program and the evidence 
and science inform the standards by which nurses deliver care across 
the age spectrum. Patient responses have been favorable, specifically 
complimenting nurse transition program participants in hospital 
satisfaction surveys. As we interview new lieutenants in the program, 
we have found that many, who were planning to leave at the end of their 
initial service commitment, are instead continuing their careers in the 
ANC as a result of the enculturation process that is inherent in the 
CNTP. Retaining new graduate nurses preserves the knowledge, experience 
and confidence gained during the first year of professional practice 
and has a positive impact on the quality of patient care.
    There has been an array of secondary benefits resulting from the 
creativity of the nurses participating in the CNTP. At Madigan Army 
Medical Center, novice nurses developed and implemented a program to 
track chart audits and produced a training video on ``Preventing 
Patient Falls.'' At Womack Army Medical Center, novice nurses presented 
an abstract entitled ``Response to Enhance the Quality and Consistency 
of Shift Reports'' at the Karen A. Reider Federal Nursing Research 
poster session during the AMSUS conference.
                         portfolio of expertise
    We are constantly refining our clinical capabilities to meet the 
ever-changing complexity of providing care in challenging care 
environments. As a result of increasing demands for trauma nurses and 
the complexity of care required in both theaters of operation we made 
the decision to establish a separate area of concentration 
consolidating intensive care unit (ICU) and emergency nursing with the 
educational and clinical focus on combat trauma care. This new area of 
concentration will provide us a flexible and agile economy of force, 
while providing an economy of effort for training.
    We are re-shaping our ICU and emergency nursing courses into one 
curriculum focused on acquisition of trauma nursing and critical care 
competencies. The Army trauma nurse area of concentration will result 
in assignment flexibility in both our hospitals and deployed combat 
support hospitals (CSH) and provide an unprecedented level of trauma 
nursing capability for military medicine. We are also analyzing ways to 
leverage potent Army medicine force multipliers such as our psychiatric 
nurse practitioners and psychiatric nurses.
    This year, in response to increasing requirements for trauma 
trained nurse, we expanded our emergency nursing course by adding a 
second training site at Madigan Army Medical Center and graduated our 
first class at this location in December 2010. This additional program 
doubles the number of emergency nurses trained annually and enhances 
our ability to provide world class care at home and abroad.
    Through the efforts of our Perioperative Nurse Consultant, in 
collaboration with the national perioperative nursing organization, we 
have added additional sterilization procedures to the curriculum for 
both our Perioperative Nurse and Operating Room Technician programs. 
This proactive initiative addresses a national health concern regarding 
potential infectious disease transmission resulting from improper 
sterilization processing of surgical scopes. Currently, we are 
developing a pilot program for the utilization of graduate prepared 
Perioperative Clinical Nurse Specialists as Perioperative Nurse Case 
Managers responsible for the coordination of clinical care across the 
perioperative continuum from preoperative preparation to post-
anesthesia care. We are closely examining operating room processes, 
with a focus on the perioperative nurse.
    The operating room can be one of the busiest touch points in a 
facility, and as a result an area that we want to ensure quality and 
safe care delivery. We believe that a critical examination of an 
expanded role of the perioperative clinical nurse specialist is needed. 
This role will concentrate on quality assurance with a focus on patient 
safety and perioperative arena efficiency to include the operating room 
and the centralized sterile processing department. This role is unique 
in that it cannot be replaced by a non-perioperative advanced practice 
nurse.
    Last year I discussed our initiative related to critical care 
skills for our enlisted licensed practical nurses (LPN). In October, we 
conducted our first pre-deployment critical care course for enlisted 
practical nurses from one of our deploying CSH. The Soldiers received 
didactic instruction and clinical rotations in critical care and burn 
care at Brooke Army Medical Center and the Institute of Surgical 
Research. Three enlisted practical nurses from the deploying 115th CSH 
attended a ``critical care skills during deployment'' pilot. On 
average, students demonstrated a 42 percent increase in self-reported 
skills related to chest tube drainage system set up, cardiac strip 
interpretations, and patient report/handoff. With the success of this 
pilot, we are currently developing a pre-deployment LPN course that 
will prepare deploying LPN's for the complex trauma missions they will 
support. Every Army Nurse is a trauma nurse.
    During calendar year 2010, Army nurses deployed with two Medical 
Brigades and four CSHs in support of Operation New Dawn and Operation 
Enduring Freedom to provide force health protection and combat health 
support to United States and coalition forces. Two CSHs were commanded 
by Army nurses--Colonel Barbara Holcomb, Commander of 21st CSH, Iraq 
and Colonel Judy Lee, Commander of 14th CSH, Iraq--who facilitated 
healthcare delivery and medical diplomacy.
    Major Pamela Atchison, an Army nurse, deployed with Task Force MED 
East in support of Operation Enduring Freedom, developed the 
Afghanistan Trauma Mentorship Program for the Afghanistan Theater of 
Operation. Major Atchison implemented the Afghanistan Trauma Mentorship 
Program at two Afghanistan civilian hospitals and trained over 500 
medical personnel (Physicians, Medics and Nurses) assigned to the 
Afghanistan National Security Force and Afghanistan National Army. Her 
contribution to Health Sector Development for Afghanistan, will have a 
lasting effect for both the civilian and military medical communities 
throughout the Afghanistan Theater of Operation.
    Major Michael Barton developed the United States Forces Afghanistan 
policies for Infectious Diseases, Needle Stick Injuries, and 
Surveillance. Major Barton's efforts had a significant impact on the 
quality of care that U.S. Service Members and Coalition Forces received 
throughout the Afghanistan Theater of Operation. Major Barton also 
compiled monthly reports for Task Force Medical commanders throughout 
the theater, which consisted of information regarding epidemiological 
investigations and disease non-battle injuries. The report enabled the 
Task Force Medical commanders to focus on medical readiness issues for 
both U.S. and Coalition Soldiers.
    Colonel William Moran deployed with Task Force (TF) 62 MED as the 
Patient Safety Officer for the Afghanistan Theater of Operation. He 
implemented the first ever formal Patient Safety Program in that 
theater that positively impacted over 1,900 service members, 3 Level 
III hospitals, and 12 Level II Forward Surgical Teams/Elements. In 
order to decrease variance in patient safety management, Colonel Moran 
travelled to each TF 62 MED subordinate units to train 28 Patient 
Safety Officers and establish unit based patient safety programs. 
Colonel Moran significantly improved patient safety and the overall 
delivery of healthcare in theater by establishing an environment of 
trust, teamwork, and communication based on standards that improved 
patient safety and prevented adverse events.
    Army nurses are contributing significantly to the success of 
multinational operations and working collaboratively with coalition and 
Afghan healthcare professionals. I'm very proud of the medical 
diplomacy efforts, displayed by the nursing leaders in command of the 
Forward Surgical Teams (FST) in Afghanistan.
    Lieutenant Colonel Ruth Timms commanded the 160th FST in support of 
Operation Enduring Freedom. Her team was embedded within a German NATO 
Role III hospital and provided direct support to over 11,000 U.S. and 
Coalition Soldiers that comprised 15 nations. Lieutenant Colonel Timms 
was an integral proponent for initiating mentorship programs between 
United States, German, and Afghan providers which is enabling an Afghan 
Healthcare system fully capable of providing comprehensive healthcare 
services to the people of Afghanistan.
    Captain Roger Beaulieu commanded the 934th FST in support of 
Operation Enduring Freedom. He and his team cared for over 460 wounded 
service members, performed over 160 surgeries and improved the medical 
capabilities of the local national hospital by training four Afghan 
Surgeons and nearly 100 Afghan medical support personnel.
    These Army nurses are writing Army nursing history, and on February 
2 of this year, we celebrated 110 years of proud service to our country 
as a recognized Corps of the United States Army. We thank you, Mr. 
Chairman, Vice Chairman Cochran and Senator Murkowski for introducing 
Senate Resolution 31 to commemorate this historic occasion. Chairman 
Inouye, we also thank you for the very touching, heartfelt video 
message and for your many years of unwavering support of Army nursing. 
We marked this day and its meaning by laying a wreath at the Nurse 
Memorial located in Arlington Cemetery to pay respect to all Army 
nurses who came before us. We honor them for their service, dedication, 
and vision.
    In the National Capital Area over 500 nurses, active, retired, 
reserve, and civilian, family and friends of nursing gathered on 
February 5, 2011 to commemorate this monumental milestone in our rich 
history. Together, we celebrated ``Touching Lives for 110 Years,'' 
which really resonated with me and illustrated what I believe is the 
true essence of Army Nursing. We have been on the battlefield, serving 
with our fellow Soldiers, throughout our remarkable history and we 
continue to do so today. Our collective success has been the result of 
compassion, commitment, and dedication. I am inspired by the pride, 
enthusiasm, and openness to change that I see across the ANC in support 
of Army Medicine and our Nation's missions. My number one priority is 
the Patient CareTouch System that will serve as the cornerstone to 
improving the healthcare that provides patient care to our Soldiers and 
the Families that support them.
    I continue to envision an ANC of the future that will leave its 
mark on military nursing, and will be a leader of nursing practice 
reform at the national level. Our priority remains our patients and 
their families, and our common purpose is to support and maintain a 
system for health. In order to achieve this common purpose, we serve 
with the courage to care, the courage to connect, and the courage to 
change so that we may provide the best possible care to those who wear 
the cloth of our Nation. The ANC is committed to leveraging lessons 
learned from the past, engaging present innovations, and shaping the 
future of professional nursing.
    On behalf of the entire Army Nurse Corps, serving both at home and 
abroad, I would like to thank each of you for your unwavering support, 
and I look forward to continuing to work with you. Thank you.

    Chairman Inouye. Admiral Niemyer.
STATEMENT OF REAR ADMIRAL ELIZABETH S. NIEMYER, 
            DIRECTOR, NAVY NURSE CORPS, DEPARTMENT OF 
            THE NAVY
    Admiral Niemyer. Good morning.
    Chairman Inouye, Vice Chairman Cochran, and distinguished 
members of the subcommittee, thank you for the opportunity to 
speak today on the state and future vision of the Navy Nurse 
Corps.
    Nowhere is Navy nursing's commitment to the operational 
forces more evident than in our active engagement in military 
operations in Southwest Asia, at the Expeditionary Medical 
Facilities in Kuwait and Kandahar, and with the 1st Marine 
Logistics Group in Afghanistan. We are clearly essential to our 
military's medical successes on the front lines of Operation 
Enduring Freedom.
    Nurse practitioners manage the clinical operations at NATO 
Role 3 in the urgent care clinic and participate in the 
Shoulder-to-Shoulder Project at Kandahar Regional Military 
Hospital. In this role, they mentor Afghan nurses in the 
classroom and in the clinical setting. The promise of enhanced 
clinical care in the Afghan healthcare system is a vision 
shared by all those stationed at NATO Role 3.
    Navy nurses are also members of embedded training teams and 
provincial reconstruction teams, collaborating with Coalition 
partners and offering assistance to military and civilian 
healthcare providers in Afghanistan.
    We played a key role in humanitarian assistance and 
disaster relief operations in support of Operation Unified 
Response in Haiti, Pacific Partnership 2010, and Continuing 
Promise 2010. These operations present a unique opportunity to 
test our education and clinical skills in rudimentary 
healthcare environments while strengthening our capability to 
partner with host nations, U.S. Government agencies, non-
governmental agencies, and academic institutions.
    Navy nurses continue to support the fleet and expand the 
services they provide to our sailors and marines at sea. Nurses 
assigned to aircraft carriers and fleet surgical teams are 
actively involved in operational missions around the globe and 
are essential members of shipboard medical teams.
    The role of Navy nurses assigned to the Marine Corps 
continues to expand and diversify. Currently, 18 nurses are 
directly attached to the Marine Corps serving in clinics and 
advanced leadership roles. For the first time in our history, 
the 2d Marine Expeditionary Fleet surgeon is a nurse.
    Today Navy Nurse Corps' active component is manned at 92 
percent, and for the fifth consecutive year, we have achieved 
Navy nursing's active component recruiting goal. The Reserve 
component is 85.9 percent manned and has reached 48 percent of 
their fiscal year 2011 recruiting goal. I attribute our 
recruiting successes to the continued funding and support for 
our accession and incentive programs, the local recruiting 
efforts of Navy recruiters, direct involvement of Navy nurses, 
and the continued positive public perception of service to our 
country.
    Mr. Chairman, I am privileged to provide an update to you 
and your subcommittee on the progress of our initiative for 
doctoral preparation of nurse practitioners and nurse 
anesthetists.
    For the past 2 years, we have selected nurses to transition 
their education programs to a doctorate of nursing practice, 
either to transition from a master's program to the Doctorate 
of Nursing practice, or transition from a bachelors program 
directly to doctoral level work.
    Staff members from my office are diligently working on a 
promotion and schooling plan to maximize opportunities to send 
newly trained nurse practitioners and nurse anesthetists to 
study directly for their doctoral education. I am committed to 
making this education transition the standard for our advanced 
practice nurses.
    We have numerous Navy nursing and joint research and 
evidence-based projects in progress, and continue to be 
extremely grateful for your ongoing support of the Tri-Service 
Nursing Research Program. One study of interest is a 
collaborative project the Navy is leading that will gather 
first-person accounts of nurses caring for wounded service 
members and the memories of the experience from the service 
members themselves. The knowledge gained about their wounded 
care journey is essential in order to develop and sustain 
nursing competencies, and to examine the factors affecting 
reintegration of the wounded warrior.
    Coordination of seamless care is a top priority for the 
ongoing care of our wounded warriors. This year, we will staff 
a Navy Nurse Corps officer directly to a newly created position 
at the VA headquarters. This nurse will work directly with the 
Federal Recovery Coordinator Program to uncover process issues 
and craft solutions to streamlined care.
    In September 2010, I met with a core group of leaders to 
formulate my 2011 Navy Nurse Corps Strategic Plan. We 
identified objectives within five areas of focus: workforce, 
nursing knowledge, nursing research, strategic partnerships, 
and information management. I look forward to updating you on 
Nurse Corps accomplishments on these initiatives in support of 
Navy medicine.
    Being in the military has its challenges, yet it is these 
challenges that allow Navy nurses to excel both personally and 
professionally. Our Navy medicine concept of care is patient 
and family focused, never losing perspective in the care for 
those wounded, ill, or injured, their families, our retirees 
and their families, and each other.

                           PREPARED STATEMENT

    Chairman Inouye, thank you for your unwavering support of 
the commitment to the Navy Nurse Corps, and thank you for 
providing me this opportunity to speak today. I am honored to 
represent the total force, Navy Nursing Team, and look forward 
to continued service as the 23d Director of the Navy Nurse 
Corps.
    Thank you.
    Chairman Inouye. I thank you very much, Admiral.
    [The statement follows:]
        Prepared Statement of Rear Admiral Elizabeth S. Niemyer
                              introduction
    Good Morning. Chairman Inouye, Vice Chairman Cochran, and 
distinguished members of the subcommittee, I am Rear Admiral Elizabeth 
Niemyer, the 23d Director of the Navy Nurse Corps. Thank you for the 
opportunity to speak today on the state and future vision of the Navy 
Nurse Corps. I first want to recognize Rear Admiral Karen Flaherty, the 
22d Director of the Navy Nurse Corps, who turned over the helm to me 
this past August, and now serves as the Deputy Surgeon General. I 
sincerely thank her for her hard work and dedication which provided for 
a smooth transition for the Nurse Corps.
    Dr. Jonathan Woodson, our new Assistant Secretary of Defense for 
Health Affairs, recently spoke about the well-being of service members 
at the 2011 Warrior Resiliency Conference. The 2-day conference focused 
on Total Force Fitness, an initiative by the Joint Chiefs of Staff. 
Attendees delved into a more holistic approach to the health of service 
members and their families. Woodson said; ``Resiliency is key to the 
welfare of the modern troop, as extended warfare is now commonplace.'' 
He echoed Admiral Michael Mullen, Chairman of the Joint Chiefs of 
Staff, by saying; ``Resiliency training must be incorporated into all 
levels of leadership and stages of a service member's military 
career.'' Navy nurses understand the importance of fostering resiliency 
in our patients, their families, our staff, and ourselves as we adapt, 
overcome, and grow stronger in the enormous challenge of supporting 
healthcare in a variety of contingencies.
    Today, I will highlight the accomplishments of the Navy Nurse Corps 
over the past year and discuss issues facing the Navy Nurse Corps in 
2011, as we care for the health of the Force. The total Navy Nurse 
Corps is comprised of 3,987 Active and Reserve component nurses and 
almost 2,000 government service civilian nurses. Working together, we 
are a collegial team of clinicians, patient advocates, mentors, and 
leaders, who are a caring and compassionate face to those affected by 
armed conflict, natural disasters and the day-to-day challenges of 
work, life and family.
    I will also tell you about the successes and accomplishments 
achieved by our Corps since we last presented to you, concluding with a 
discussion of the future of the Navy Nurse Corps as we forge ahead to 
advance nursing care, integrate evidence into practice, and elevate 
nursing at all levels. My strategic focus is on five key areas: Our 
Workforce, Nursing Knowledge, Research, Strategic Partnerships, and 
Information Management. It is within these five areas that I will talk 
about our successes and address our future efforts. However, before 
discussing these areas of focus, I want to share the many incredible 
accomplishments of Navy nurses in operational settings with the Fleet 
and Fleet Marine Forces, as well as review the increasingly important 
role that Navy nurses play in humanitarian and disaster relief 
missions.
                          operational support
    Nowhere is Navy nursing's commitment to the operational forces more 
evident than in our active engagement in military operations in 
southwest Asia at the Expeditionary Medical Facilities in Kuwait and 
Kandahar, and with the 1st Marine Logistics Group in Afghanistan. 
Currently there are over 70 Active and 60 Reserve component nurses 
deployed in a variety of missions in the Central Command Area of 
Responsibility. At the NATO Role 3 Multinational Medical Unit in 
Kandahar, Afghanistan, Navy nurses have taken unprecedented leadership 
positions both in the hospital and in the battle space of southern 
Afghanistan. We are clearly essential to our military's medical 
successes on the front lines of Operation Enduring Freedom. For 
example, nurse practitioners manage the clinical operations of the NATO 
Role 3 Urgent Care Clinic, responsible for providing urgent, emergent, 
and non-emergent healthcare services to 30,000 NATO, coalition, and 
civilian Afghan personnel residing on the Kandahar Air Field. Navy 
nurses have taken a lead role in the highly successful enroute care 
program where specially trained flight nurses are being stationed with 
outlying Forward Surgical Teams, providing critical care in the air 
during patient transfers from distant locations to the NATO Role 3. 
Having flown over 100 flights in 2010, this program has recorded a 
remarkable 100 percent survival rate. An initiative undertaken by Navy 
nurses at the NATO Role 3, and one which contributes greatly to our 
efforts to improve conditions in Afghanistan is their participation in 
the Afghan National Army Nurse Corps' Shana baShana (Shoulder-to-
Shoulder) Project at the Kandahar Regional Military Hospital. In this 
project, Navy nurses work in concert with a U.S. Air Force mentoring 
team in a recurring 2-week curriculum where Navy nurses enhance and 
update the nursing skills of Afghan military nurses in both a classroom 
and clinical setting. The promise of enhanced clinical care in the 
Afghan healthcare system is a vision all those stationed at the NATO 
Role 3 share.
    Navy nurses are also members of Embedded Training Teams and 
Provincial Reconstruction Teams, collaborating with coalition partners 
and offering assistance to military and civilian healthcare providers 
in Afghanistan. Let me share with you the experience of one of our 
nurses, LCDR Zaradhe Yach, who served with the Provincial 
Reconstruction Team (PRT) at the Forward Operation Base (FOB) Ghazni. 
This base is located in one of the largest and most dangerous provinces 
in the Regional Command East. During the first 90 days in country, FOB 
Ghazni was rocketed by enemy forces over 40 times. During this same 
timeframe the PRT experienced more than 15 significant activities while 
conducting mounted combat patrols throughout the province and LCDR Yach 
was present each time, providing medical assessments and emergency 
treatments to wounded service members. Patrols were engaged in complex 
attacks of multiple improvised explosive devices (IEDs), rocket 
propelled grenades (RPGs), indirect fire, and small arms fires. One IED 
struck her vehicle, causing catastrophic damage and injuries. The 
convoy was able to suppress fire and return, while LCDR Yach and her 
team, along with the Air Force Forward Surgical Team (FST) staff, 
ensured all injuries were thoroughly evaluated and treated.
    During her deployment LCDR Yach facilitated health sector 
development between coalition partners, meeting multiple times with 
Afghan leaders. Additionally, she served as a mentor while leading the 
daily operations of the PRT aid station which provided care for 
coalition forces, contractors and local interpreters. Under her 
leadership and guidance, her clinic was able to help over 3,000 
patients and distribute over $150,000 in humanitarian aid and medical 
supplies, greatly enhancing the quality of life of the Afghan people. 
Her selfless performance of duties in a combat zone resulted in 
awarding of the Bronze Star Medal by the Secretary of the Army.
    Navy nurses played a key role in humanitarian assistance and 
disaster relief operations in support of Operation Unified Response in 
Haiti. On January 16, 2010 USNS Comfort (T-AH 20) deployed to Haiti 
within 72 hours notice to provide disaster relief following a magnitude 
7.0 earthquake that devastated the Haitian capital and surrounding 
countryside. The first patient was received on January 19, just 7 days 
after the disaster. Nearly 200 patients were admitted within the first 
40 hours on station, and the inpatient census peaked at 411 patients on 
January 28. There were a total of 1,002 admissions and 931 surgical 
procedures conducted during this mission. Seven operating rooms ran 12 
hours per day and three ran ``around the clock'' to accommodate 
surgical emergencies. For three weeks, Comfort was the most advanced 
and busiest orthopedic trauma center in the world.
    Nurses aboard USS Bataan (LHD 5) and USS Carl Vinson (CVN 70) also 
made significant contributions to Operation Unified Response. Fleet 
Surgical Team EIGHT nurses aboard the Bataan participated in the care 
of 97 patients who were evacuated to the ship and assisted in the 
delivery of a healthy newborn. The sole Ship's Nurse on Carl Vinson 
worked with a small group of medical augmentees in caring for 60 
patients admitted to the ship for medical, surgical and post-partum 
care. The magnitude of the mission brought an unprecedented number and 
complexity of casualties. Once again, Navy nursing demonstrated its 
flexibility, commitment, and professionalism in responding to a 
humanitarian crisis. Mr. Chairman, I am exceedingly proud of this 
amazing demonstration of how nurses from joint and international 
military services and non-governmental organizations united together as 
a global force to support the population of Haiti in their time of 
need.
    Other significant humanitarian operations included the deployments 
of USNS Mercy (T-AH 19) during Pacific Partnership 2010, and USS Iwo 
Jima (LHD 7) for Continuing Promise 2010. In support of these missions, 
Navy nurses traveled to Vietnam, Cambodia, Indonesia and Timor-Leste, 
as well as Haiti, Colombia, Guatemala, Nicaragua, Costa Rica, Panama, 
Suriname and Guyana. These operations presented a unique opportunity to 
test our education and clinical skills in rudimentary healthcare 
environments, while strengthening our capability to partner with host 
nations, U.S. government agencies and academic institutions, 
international military medical personnel, regional health ministries, 
and nongovernmental agencies through medical, dental, and engineering 
outreach projects
    Navy nurses continue to support the Fleet and expand the services 
they provide to our Sailors and Marines at sea. Nurses assigned to 
aircraft carriers and Fleet Surgical Teams are actively involved in 
operational missions around the globe and are essential members of 
shipboard medical teams. The nurse aboard USS Harry S. Truman (CVN 75) 
deployed with Strike Group 10 and Carrier Air Wing 3 in support of the 
wars in Afghanistan and Iraq. During this deployment, our nurse 
provided training to over 5,000 personnel, to include instruction in 
basic wounds, First Aid, and Basic Cardiac Life Support. Aboard Iwo 
Jima, a certified registered nurse anesthetist (CRNA) from Fleet 
Surgical Team FOUR assisted in a research study conducted by the Navy 
Environmental and Preventive Medicine Unit to evaluate occupational 
exposure to anesthetic gases among operating room personnel at sea. 
Furthermore, Fleet Surgical Team nurses flew 20 medical evacuation 
missions from large deck amphibious ships to USNS Comfort or various 
shore-based facilities, configuring rotary wing aircraft to accommodate 
critically ill or injured patients, and providing life sustaining 
enroute nursing care under dangerous and austere conditions.
    The role of Navy nurses assigned to the Marine Corps continues to 
expand and diversify. Currently, 18 nurses are directly attached to the 
Marine Corps, serving in clinics and in advanced leadership roles. For 
the first time in the history of the Navy Nurse Corps, the Second 
Marine Expeditionary Fleet Surgeon is a nurse. Battalion nurses provide 
operational nursing support to the Forward Resuscitative Surgical 
Systems (FRSS), the Shock Trauma Platoons (STPs), and to enroute care 
missions. The nurse at the Marine Corps Training and Education Command 
oversees the training plans and the Readiness Manual for Marine Corps 
Health Services, while nurses at the Field Medical Training Battalions 
provide training for all corpsman and officers attached to Marine units 
in support of operational missions.
    Navy nurses remain inherently flexible and capable of supporting 
multiple missions in many settings and various platforms. I am 
continually awed by the men and women in the Navy Nurse Corps. They 
demonstrate daily that they are uniquely suited to answer the call when 
a medical response is required.
    Mr. Chairman, the remainder of my testimony is organized around my 
five key areas of strategic focus: Our Workforce, Nursing Knowledge, 
Research, Strategic Partnerships and Information Management.
                             our workforce
    Today's Navy Nurse Corps active component (AC) is manned at 92.0 
percent with 2,852 nurses currently serving around the world. For the 
fifth consecutive year, we have achieved Navy nursing's AC recruiting 
goal. This is quite an accomplishment only 7 months into the current 
fiscal year. The reserve component (RC) is 85.9 percent manned with 
1,135 nurses in inventory, and has reached 48 percent of their fiscal 
year 2011 recruiting goal with 5 months remaining this fiscal year. I 
attribute our recruiting successes to the continued funding support for 
our accession and incentive programs, the local recruiting activities 
of Navy Recruiters, direct involvement of Navy nurses, and the 
continued positive public perception of service to our country.
    The top two direct accession programs that favorably impact our 
recruiting efforts in the Active component include the Nurse Accession 
Bonus and the Nurse Candidate Program. The Nurse Accession Bonus 
continues to offer a $20,000 sign-on bonus for a 3-year commitment and 
$30,000 for a 4-year commitment; and the Nurse Candidate Program, 
tailored for students who need financial assistance while attending 
school, provides a $10,000 sign-on bonus and $1,000 monthly stipend. I 
would like to thank you Mr. Chairman, Vice Chairman Cochran, and all 
committee members for this ongoing and vital support.
    For the RC, a vigorous recruiting plan requires flexible tools to 
ensure we target high quality officers with appropriate skill sets. 
Incentive programs have proven to be key to recruiting the correct 
number of officers with the right skills. It is essential that our 
critical shortage of registered nurses in the specialties of CRNAs, 
critical care, medical-surgical, perioperative, and psychiatric nursing 
as well as mental health nurse practitioners are offered competitive 
incentives. The new officer affiliation and incentive program available 
to registered nurses in our critical shortage specialties is favorably 
impacting our reserve component recruiting efforts this fiscal year. 
The new incentives offer $10,000-$25,000 per year depending on the 
specialty area of practice and service obligation incurred. Loan 
repayment programs have also proven to be of great value in attracting 
critical shortage specialties, such as, advanced practice CRNAs and 
mental health nurse practitioners.
    We know that as the economy improves and civilian nursing 
opportunities expand through the Affordable Care Act we might once 
again be faced with recruiting and retention challenges. In 
anticipation of these challenges, we are inviting nursing students and 
new graduate nurses to participate as American Red Cross volunteers at 
our hospitals and clinics to enhance exposure to the military. 
Additionally, we assigned a Nurse Corps fellow to my staff to monitor 
recruitment and retention, and to ensure that both remain a priority.
    The education and training department at Naval Medical Center 
Portsmouth assists with a monthly recruitment seminar in which Corps 
representatives speak to prospective nurses and physicians about Navy 
Medicine. These sessions allow for arranging tours and one-on-one 
meetings with junior nurses to answer questions about military 
healthcare. Additionally, nurses aboard aircraft carriers, hospital 
ships and on Fleet Surgical Teams contribute to the recruiting effort 
by providing shipboard tours to prospective nurses, dentists, 
physicians and other healthcare professionals, ultimately enhancing 
their knowledge of and exposure to operational medicine and shipboard 
life.
    With the ongoing war, we are keenly aware of the need to grow and 
retain nurses in our critical war-time subspecialties. Though loss 
rates have improved overall, there remains a gap in the inventory to 
authorized billets for junior nurses with 5 to 10 years of commissioned 
service. Key efforts which have positively impacted retention continue 
to include Registered Nurse Incentive Special Pay (RN-ISP), which 
targets bonuses to undermanned clinical nursing specialties, and the 
Health Professional Loan Repayment Program (HPLRP), which offers 
educational loan repayment up to $40,000 per year. Full-time Duty Under 
Instruction (DUINS) further supports Navy recruitment and retention 
objectives by encouraging higher levels of professional knowledge and 
technical competence. Training requirements are selected on Navy 
nursing needs for advanced skills in war-time critical subspecialties. 
Seventy-six applicants were selected for DUINS through the fiscal year 
2011 board.
    We remain diligent in our efforts to grow and sustain our community 
of mental health nurses. The Navy Nurse Corps is entering its fourth 
year of officially recognizing the psychiatric mental health nurse 
practitioner specialty. Restructuring this manpower shift has not been 
without its challenges, but we are actively involved in building and 
expanding the close network of advanced practice psychiatric mental 
health nurses with their peers outside the mental health arena. We 
currently have two mental health nurse practitioners assigned to the 
U.S. Marine Corps at the 1st and 2d Marine Divisions, and a majority of 
our mental health nurse deployments have been in support of Joint 
Medical Task Force, Guantanamo Bay, Cuba. Many of our Navy psychiatric 
mental health nurses remain fully integrated in one collaborative 
mental healthcare approach and are active members of Wounded, Ill and 
Injured programs.
                           nursing knowledge
    Care for both service members and their families is the top 
priority for Navy Nursing, Navy Medicine and the Department of Defense. 
Nurses are a key component of Family and Patient Centered Care 
initiatives, and I would like to share with you a few success stories 
where Navy nurses are leading the charge.
    Nurse Case Managers provide services to the Wounded Warrior that 
span the entire care continuum from point of injury to either return to 
active duty or medical separation from service. The journey from 
theatre to stateside care is only the beginning of a long road of 
recovery for returning Wounded, Ill and Injured warriors who are often 
facing extensive care and rehabilitation for life-changing physical, 
psychological and cognitive injuries. The complexity of medical 
healthcare and military systems is often overwhelming to the Wounded, 
Ill and Injured service members, thus driving a critical need for 
someone to coordinate care and support services. Nurse case managers 
are the ``SOS or 1-800'' contact for the patient and family throughout 
the continuum of care. The nurse case managers, along with Navy Safe 
Harbor and the U.S. Marine Corps Wounded Warrior Regiment, bring a more 
holistic approach to transition of the Wounded, Ill and Injured into 
the Veterans Affairs (VA) or civilian care by addressing the medical 
and the non-medical needs concurrently. This collaboration is important 
to reducing stress and confusion during transition. I am proud to 
report that our Clinical Case Management Program has been recognized 
nationally by being awarded the 2010 Platinum Award for the Best 
Military Case Management Program. This award was presented by the Case 
Management Society of America and was featured in their journal, Case 
In Point in May 2010. Case management is at the heart of ensuring the 
development of comprehensive plans of care and ensuring smooth 
transitions for all Wounded, Ill and Injured service members and their 
families.
    In support of the Navy's efforts to develop resilience in Sailors, 
Marines, families and commands, we have detailed a senior mental health 
nurse to the Chief of Naval Personnel to implement the Navy's 
Operational Stress Control (OSC) program. This comprehensive effort is 
line-owned and led, integrating policies and initiatives under one 
overarching umbrella. The program is designed to build resilience and 
to increase the acceptance of seeking help for stress-related injuries 
through education, training and communication. Twenty-three modules of 
formal curriculum have been developed and are being taught at key nodes 
in a Sailor's career--from boot camp to the Naval War College, with 
more than 206,000 receiving training to date. We are working hard to 
develop a culture that rewards preventive actions and recognizes that 
seeking help is a sign of strength. Navy nurses are uniquely qualified 
to function in this non-traditional role where the focus is on building 
resilience and prevention vice treating injury or illness.
    During the past year we completed a nurse led Navy Medicine 
assessment of caregiver occupational stress. Not surprisingly, the 
study found evidence of caregiver occupational stress. The study also 
identified that meaningful work, good training, and engaged clinical 
leaders all contribute to building caregiver resilience. Our future 
efforts will continue to invest in strategies that enhance resilience 
and performance while identifying and mitigating expected caregiver 
demands.
    Clinical excellence is the cornerstone of Navy Nursing. An 
innovative program titled ``The Immersion in Critical Care and 
Emergency Nursing'' (ICE) program at Naval Medical Center Portsmouth 
has been designed to train and sustain skills essential to our critical 
wartime specialties. This three-part program, consists first of 
prerequisite training with introductory courses and modules available 
to and within the Military treatment facility (MTF). The second phase 
is the Simulation/Skills Lab which targets skills review and specific 
patient scenarios for high risk situations encountered by the nurse. 
The final phase involves a practicum with time spent delivering hands-
on patient care, focused on specific areas of the specialty. The first 
nurses to attend this program are just weeks into their deployment 
rotation at the Expeditionary Medical Facility in Kuwait, so feedback 
has not been obtained post-deployment. However, we anticipate that ICE 
will be of great value in introducing nurses to critical care and 
emergency nursing situations prior to future deployments.
    To promote clinical excellence for families of Sailors and Marines 
we are preparing nurses for unexpected emergencies both stateside and 
overseas. This year our nurses participated in Mobile Obstetric 
Emergencies Simulator training at Madigan Army Medical Center, Fort 
Lewis, along with health providers from all branches of the armed 
forces. Additionally, we joined in community outreach by partnering 
with Baby Connections, a care-giver and infant learning/play group 
facilitated by the local county health department, providing 
information to caregivers regarding development, infant care, 
breastfeeding, and dental care for newborns to 3 year olds. Navy nurses 
serve as members of breastfeeding coalitions and have established 
lactation consultant presence in hospitals, clinics, and at fleet 
commands, all in support of initiatives to meet the Healthy People 2020 
goals. Nurses are involved in numerous programs which support family 
centered care, including the Happiest Baby on the Block and parent-
infant bonding programs. Family centered care is the foundation of our 
care delivery model in all treatment facilities.
    Nurse Corps officers are actively involved in mentoring 
baccalaureate and master's students at universities throughout Navy 
Medicine. Naval Medical Center Portsmouth identified the need for a 
Nurse Education Coordinator who has the responsibility of coordinating 
the activities for over 30 local and distance learning schools of 
nursing from the licensed practical nurse-level to the facilitation of 
graduate-level clinical experiences. We realize that community 
involvement with the future nursing workforce is key to both our 
recruiting and retention efforts as well as to creating a multi-
talented, diverse workforce. We are committed to providing high quality 
clinical experiences to students whenever possible.
    For the third year, I am pleased to tell you that funding has 
allowed us to continue support of the Graduate Program for Federal 
Civilian Registered Nurses (GPFCRN). We recognize the challenges 
associated with recruitment and retention of civilian nurses for 
Federal service positions, and continue to see this program as a way to 
cultivate clinical expertise and future nursing leaders from our 
civilian workforce by offering graduate nursing education. In the fall 
we will select another five nurses to attend programs across the 
country to develop skills as a clinical nurse specialist. After 
graduation, they will continue their Federal service, directing expert 
clinical nursing practice across the enterprise.
    Navy nurses are at the forefront of Navy Medicine leadership. There 
are currently eight Nurse Corps Officers serving as commanding 
officers. In addition, nurses are encouraged to assume leadership 
positions as associate directors and directors, sometimes in non-
traditional nursing roles. Our operational nurses also serve in key 
leadership roles while underway. This year, the first Nurse Corps 
Officer held the position of Deputy Commander for the Joint Medical 
Group with the Joint Task Force Guantanamo, Guantanamo Bay, Cuba. 
Leaders in executive medicine positions showcase the versatility of our 
Corps and pave the path for an expanded role for future Nurse Corps 
leaders.
    This year, 22 nurses aboard aircraft carriers and amphibious ships 
earned the Surface Warfare Medical Department Officer qualification. 
This qualification is earned by Medical Department officers who attain 
extensive shipboard knowledge and experience outside of the medical 
professions. This includes knowledge of engineering systems, navigation 
methods, communication and weapon systems and offensive and defensive 
capabilities. The qualification requires knowledge of watch standing 
responsibilities on the Bridge and in the Combat Information Center and 
culminates with a final qualifying oral board. Nurses also earn and 
wear the Fleet Marine Force (FMF) Qualified Officer Insignia. The FMF 
insignia is earned by Navy officers assigned to the Fleet Marine Force, 
and it clearly makes a statement that the wearer is a key member of the 
Marine Corps team. Earning this designation requires serving for 1 year 
in a Marine Corps command, passing an arduous written test, completing 
the Marine physical fitness test, and passing an oral board conducted 
by FMF qualified officers. To date, we have 56 nurses holding this 
qualification, from our junior lieutenant junior grades officers, to 
officers holding the rank of captain.
    Nurses are not just caregivers, but are a vital part of our 
organizational structure as mentors to junior officers and our enlisted 
personnel. Navy-wide, nurses are seen leading Junior Officer Career 
Development seminars, speaking at local high schools, health fairs, and 
community colleges. We are actively involved with Navy Nurse Corps 
students at our Reserve Officer Training Corps (NROTC) programs, 
frequently attending activities to support and mentor students during 
their time in school. These experiences are mutually beneficial, 
providing opportunities for junior nurses to be involved within our 
community by establishing and maintaining professional relationships, 
and allowing junior nurses and nurse candidates to seek guidance from 
senior nurses.
    Deployed nurses also serve as mentors and educators for other 
officers and enlisted personnel. One Navy Nurse recently returned from 
a 6-month deployment as an individual augmentee in Camp Bastion, 
Helmand Province, Afghanistan. He was an integral part of the 
Emergency/Trauma Department where they provided direct patient care to 
4,000 combat and non-combat injured patients, delivering over 3,600 
units of blood products. During his deployment, this officer conducted 
TeamSTEPPS Essential training to the Emergency Department. The 
Department of Defense, in collaboration with the Agency for Healthcare 
Research and Quality (AHRQ), developed the TeamSTEPPS program to serve 
as a powerful, evidence-based teamwork system to improve communication 
and teamwork skills. I am proud this energetic Navy Nurse took this 
training to the deck plate, recognizing that we demand excellence in 
healthcare quality even at our most remote locations. It is this type 
of engaged leadership that is the hallmark of Navy Nursing.
    Mr. Chairman, I am privileged to provide an update to you and your 
Committee on the progress of the Navy Nurse Corps initiative for 
doctoral preparation of our nurse practitioners and nurse anesthetists. 
As you recall, the 2009 National Defense Authorization Act (Senate 
Report 111-74, page 275) provided direction from this committee, 
describing your support of graduate nursing education through our Duty 
Under Instruction (DUINS) program for training nurse practitioners. The 
Committee directed the Service Surgeons General, in coordination with 
the Nurse Corps Chiefs, to provide a report outlining a critical 
analysis of emerging trends in graduate nurse practitioner education, 
with an emphasis on the consideration of replacing Master's in Nursing 
preparation with a Doctorate of Nursing Practice degree program. We 
submitted that Report to Congress in March 2009, and I am pleased to 
tell you we immediately identified top performers who were completing 
their Masters degrees, selecting them to add additional time onto their 
schooling to complete their Doctorate of Nursing Practice. This past 
November, we selected seven additional nurses to either transition 
their Master's program to a Doctorate of Nursing Practice, or to pursue 
education which will take them from their Bachelor's nursing degree 
directly into doctoral level work, bypassing the Masters degree. Staff 
members from my office are diligently working on a promotion and 
schooling plan to send newly trained nurse practitioners and nurse 
anesthetists to study directly for their doctoral education.
                            nursing research
    The National Institute of Health (NIH), through The National 
Institute of Nursing Research (NINR), defines nursing research as the 
development of knowledge to build a scientific foundation for clinical 
nursing practice, prevent disease and disability, manage and eliminate 
symptoms caused by illness, and enhance end-of-life and palliative 
care. We have numerous Navy Nursing and joint research and evidence-
based projects in process, and continue to be extremely grateful for 
your ongoing support of the TriService Nursing Research Program. 
Research projects are currently being conducted by active and reserve 
component nurses on clinical topics such as; heat illness, hemorrhagic 
shock, development of Navy-wide evidence-based guidelines for wound 
care management and pressure ulcers, ultrasound guided and peripheral 
nerve stimulation techniques, catheter removal and motor function 
recovery, the role of nursing in implementation of a Patient Centered 
Medical Home (PCMH) in MTFs, virtual reality for stress inoculation, 
clinical knowledge development and continuity of care for injured 
service members, competency and work environments of perioperative 
nurses, moral distress, and nurse-managed clinics.
    One study of interest is a collaborative project Navy is leading 
which includes nurse researchers from the Army, Air Force and the VA. 
The purpose of this study is to gather first person experience-near 
accounts of experiential learning of military and civilian nurses 
caring for wounded service members, along with first person accounts of 
service members' memories of all levels of care and transitions from 
the combat zone to rehabilitation. The knowledge gained about their 
wounded care journey is essential in order to develop and sustain 
nursing competencies, and to examine the acute and rehabilitative 
factors affecting reintegration of the wounded warrior. This study also 
has critical utility for optimal functioning of service members 
returning to the United States, transitioning into the military and 
Veterans Affairs healthcare systems, and for developing training 
programs with military healthcare personnel who work with service 
members in acute and rehabilitation healthcare settings. Preliminary 
data analysis is underway. Nurses have shared their expertise and 
knowledge, and lessons learned are being formulated to improve patient 
care throughout the Department of Defense and VA healthcare systems.
    Nurse researchers are also actively conducting research to explore 
retention of recalled reservists, psychometric evaluation of a triage 
decisionmaking, and construction of learning experiences using clinical 
simulations. Without your initial support of the TriService Nursing 
Research Program in the early 1990's this would have been a very 
difficult task to achieve. Ongoing support of military nursing research 
as a unique and distinct entity is vital to the advancement of this 
important niche of science to our Nation.
                         strategic partnerships
    A collaborative approach between Services and Federal agencies has 
never been more important than it is today. Navy nurses, find 
themselves serving as individual augmentees (IAs) with sister Services, 
working in Federal healthcare facilities such as the James Lovell 
Federal Health Care Center in Great Lakes, supporting academia in 
facilities such as the Uniformed Services University Graduate School of 
Nursing and serving in Joint Commands.
    The Captain James A. Lovell Federal Health Care Center (FHCC) is 
the Nation's first fully integrated medical facility between the VA and 
DOD. Established on October 1, 2010, the facility integrates all 
medical care into a Federal healthcare center with a single combined VA 
and Navy mission, serving military members, Veterans, military family 
members and retirees. Integrating many ``types'' of nurses has been 
rewarding, and had very few challenges. Combining the strengths of 
active duty, DOD, VA nurses and contract nurses, we have formed one 
orientation nursing program, increased the venues for active duty 
nurses to obtain their clinical sustainment hours, and combined forces 
for one Executive Committee of the Nursing staff, with Navy and VA 
Nursing Executives as equal co-chairs.
    Coordination of seamless care is a top priority for the ongoing 
care of our Wounded Warriors. I am pleased to tell you about a joint 
initiative between the Deputy Secretary of Veterans Affairs and the 
Deputy Secretary of Defense to staff a Navy Nurse Corps officer 
directly to a newly created position at the VA Headquarters in 
Washington, DC. This nurse will work directly with the Federal Recovery 
Coordinator Program to uncover process issues and craft solutions to 
streamline care. The nurse will serve as a vital link between the 
Veterans Affairs Federal Recovery Coordination Program and the MTFs to 
assist severely Wounded, Ill and Injured patients and their family 
members in the complex coordination of their care throughout the 
rehabilitation continuum. I look forward to providing additional 
information to you next year on this important role.
    Our nurses in Guam have joined their civilian counterparts from 
Guam Memorial Hospital and Air Force nurses from Anderson Air Force 
Base to share their skills and experiences. Navy nurses provide the 
Trauma Nursing Core Course both for providers and instructors. This 
course has been instrumental in building the confidence and honing 
assessment skills of nurses who normally do not work in an Emergency 
Department setting. Naval Hospital Guam also included Joint Medical 
Attendant Transport Team (JMATT) members in their Emergency Department, 
allowing them to receive this training at no-cost.
    The nurses in the Primary Care Clinic at Naval Health Clinic Corpus 
Christi (NHCCC) collaborated with our Air Force Nursing counterparts at 
Wilford Hall Medical Center Diabetes Center of Excellence in San 
Antonio regarding Diabetes Education. The staff at Wilford Hall Medical 
Center routinely travels to Naval Health Clinic Corpus Christi to 
provide monthly diabetic education classes to our patients. In 
addition, they provide ``train the trainer'' sessions so our staff can 
assume the role as the trainer. Naval Health Clinic Corpus Christi also 
established a collaborative relationship with Brooke Army Medical 
Center for supplementary clinical experiences.
    Naval Hospital Pensacola maintains a Memorandum of Understanding 
with the local trauma center, allowing collaboration for training and 
clinical sustainment in critical care, pediatrics, neonatal, and high 
risk obstetrics. Additionally, the civilian community nurses provide 
trainers for our specialty neonatal course that prepares staff in the 
care of high acuity newborns needing transfer to a higher level of 
care. Recognizing that our nurses must be operationally prepared for 
deployment, but may have limited inpatient nursing care exposure while 
working in the clinic environment similar arrangements with inpatient 
facilities have been made in Hawaii at Tripler Army Medical Center and 
Newport, Rhode Island with the Providence Veteran's Hospital. We remain 
grateful to the Army, Air Force, Veterans Affairs and civilian 
facilities for these partnerships.
    Our RC nurses routinely participate in joint initiatives. Through 
their reserve commands, Nurse Corps Officers take part in joint 
training exercises with the Coast Guard, Seabee forces through Naval 
Mobile Construction Battalions, and Air Force and Army medical teams. 
Our Operational Hospital Support Units have agreements with Veterans 
Affairs Medical Centers in several States to provide real time patient 
treatment both for nurses and hospital corpsmen during drill weekends. 
This not only supports their continued training and clinical 
sustainment requirements, but provides additional resources for the VA 
facility.
    I am excited to tell you about our annual ``Host Nation Symposium'' 
event at Naval Hospital Rota, Spain, where healthcare providers in the 
community and military gather to share education and best practices 
between the two unique healthcare systems. It also provides an 
opportunity for members of Navy Medicine to meet their counterparts and 
build camaraderie. We are also partnering with the head of the Spanish 
Nurse Corps in Rota to allow newly graduated Spanish military nurses to 
work in our facility. Their graduates spend approximately 2 weeks at 
our hospital shadowing fellow American nurses. In turn, select military 
nurses then travel to a trauma course hosted in Madrid. Both the 
Commanding Officer and Surgeon General from Spain are very optimistic, 
seeing this exchange as an opportunity to provide diverse experiences 
and better understand the diverse cultures and healthcare needs of our 
allies.
                         information management
    The sharing and quick dissemination of news, resources and 
announcements is a top priority of the Navy Nurse Corps. From a needs 
assessment, we know that nurses want rapid and easy online access to 
information which can be accessed at work whether in a traditional or 
deployed environment. Navy Knowledge Online serves as one platform for 
that capability and we are working to maximize its utility while we 
leverage other means of communication.
    Last year we reported the launch of the active duty Nurse Corps 
Career Planning Guide, a web-based mentoring tool for nurses at each 
stage of their career. Informally the feedback received has been 
overwhelmingly positive. Within the past several months we deployed 
similar Career Planning Guides for Reserve Nurse Corps Officers and 
Government Service Civilian nurses on Navy Knowledge Online. Both 
groups play a critical role in contributing to the Nurse Corps and Navy 
Medicine as we meet our peace and wartime missions. As ``One Team,'' 
our civilian nurses work with our military staff, providing continuity, 
experience, and enabling our military nurses to deploy in support of 
our warriors in the field. Navy Nursing is committed to providing all 
of our nurses the opportunities to enhance their understanding of 
operational medicine, grow professionally, and give them the tools to 
be leaders in Navy Medicine. The web-based Career Planning Guides 
(active, reserve and government service) provide a ``point and click'' 
list of resources to maximize career opportunities and knowledge for 
all nurses commensurate with rank and time in service. For example, 
under ``Operational Support,'' information on Navy War College Distant 
Learning Courses are provided, plus numerous links, and articles to 
enhance their operational skills & knowledge. To help nurses grow 
professionally, all the Bureau of Medicine and Surgery training and 
reimbursement opportunities are placed in a ``one stop'' shop. Finally, 
civilian nurses serve in leadership positions as directors, department 
heads and division officers. Our Civilian Career Planning Guide gives 
them comprehensive information and links to help them manage their 
military and civilian workforce, and grow as a leader in Navy Medicine. 
We are able to meet our mission requirements because of our dedicated 
civilian nurses, and it is an honor to work with them side-by-side in 
today's Navy Medicine. We will formally evaluate all three Career 
Planning guides and will to continue to adjust information based on 
feedback from the end users.
                            future direction
    In September 2010, I met with a core group of leaders to formulate 
my 2011 Navy Nurse Corps Strategic Plan. Included in the discussions 
were Specialty Leaders representing over 70 percent of all Nurse Corps 
officers; headquarters staff; junior officers from Navy Medicine East, 
West, and the National Capital Region; and the Army Deputy Commander 
for Nursing Services from the National Naval Medical Center. During 
this 2-day offsite meeting, five key goals were identified and Team 
Champions named. Since then, the Strategic Goal teams--comprised of 
nurses from around the world--have collaborated on projects to meet 
identified objectives within the five areas of focus: Workforce 
(maximizing human capital), Nursing Knowledge, Nursing Research, 
Strategic Partnerships, and Information Management. I recently had my 
first quarterly update, and I am confident the teams are on track to 
make solid recommendations for action. I look forward to my next report 
when I can share with you the accomplishments of Navy nurses throughout 
2011 and update you on their initiatives in support of Navy Medicine.
                               conclusion
    Navy Nurse Corps officers are healers of mind, body and spirit; 
ambassadors of hope; respected nursing professionals and commissioned 
officers. Being in the military has its challenges, yet it is these 
challenges that allow Navy nurses to excel both personally and 
professionally. Mr. Chairman, Vice Chairman Cochran, and distinguished 
members of the subcommittee, thank you for providing me this 
opportunity to share the state and future direction of the Navy Nurse 
Corps and our continuing efforts to meet Navy Medicine's mission. Our 
Navy Medicine concept of care will remain patient and family focused; 
never losing perspective in the care for those wounded, ill, or 
injured, their families, our retirees and their families, and each 
other. I am honored to be here today to represent the Navy nursing 
team, and I look forward to continuing to serve as the 23d Director of 
the Navy Nurse Corps.

    Chairman Inouye. And now may I call upon General 
Siniscalchi. General.
STATEMENT OF KIMBERLY SINISCALCHI, ASSISTANT SURGEON 
            GENERAL FOR NURSING SERVICES, DEPARTMENT OF 
            THE AIR FORCE
    General Siniscalchi. Mr. Chairman, Mr. Vice Chairman, and 
esteemed members of this subcommittee, it is my distinct honor 
and privilege to once again represent over 18,000 men and women 
of the Air Force Nurse Corps and share our successes and 
challenges as we execute our strategic plan for global 
operations, force development, force management, and patient-
centered care.

                      AEROMEDICAL CREWS SAVE LIVES

    Across the globe, our Aeromedical Evacuation and Critical 
Care Air Transport Teams continue to be a vital link in saving 
lives.
    In 2010, our Aeromedical Evacuation crews accomplished 
26,000 patient movements on over 1,800 missions. David Brown, 
from the Washington Post, reported on an Army sergeant from 
California who was critically injured in Afghanistan in October 
2010. In his article, Brown stated, ``In any U.S. hospital, 
Sergeant Solorzano would be considered too sick to put on an 
elevator and take to the CT-scan suite. Now, he's about to fly 
across half of Asia and most of Europe. The U.S. military's 
ability to take a critically ill soldier on the equivalent of a 
7-hour elevator ride epitomizes an essential feature of the 
doctrine for treating war wounds in the 21st century: Keep the 
patient moving.''
    Members of Congress, thank you for passing Resolution 1605 
recognizing airmen who perform our aeromedical evacuation 
mission.
    Recently, I was afforded the opportunity to meet my nursing 
colleague, Brigadier General Rahimi Razia of the Afghanistan 
National Army. She expressed appreciation for the many 
contributions our senior mentors and training teams are making 
to advance nursing. They are helping her create a fundamental 
nursing education program and a scope of practice.

                       NURSE TRANSITION PROGRAMS

    Our outstanding success could not be possible without 
investing in our future. We completely transformed our nurse 
transition program for new graduates into four strategically 
located centers of excellence in an effort to broaden clinical 
training. Tampa General Hospital was recently approved as our 
newest site, and a training affiliation agreement was signed in 
February. This site will complement our other three sites at 
Scottsdale, Arizona, University of Cincinnati, Ohio, and San 
Antonio Military Health System, Texas. We also created a Phase 
2 component enabling us to advance the National Council of 
State Boards of Nursing Transition to Practice Model. Our pilot 
program at the 59th Medical Wing in San Antonio is leading the 
charge to deliberately develop our Nurse Transition Program 
graduates through a comprehensive, 9-month mentoring program.
    The American Association of Colleges of Nursing declared 
entry for advanced practice nurses to be at the doctorate level 
by 2015. Mr. Chairman, sir, your support of this initiative has 
been instrumental in our progression from masters to doctorate 
at the Uniformed Services University of the Health Sciences. We 
are preparing to send students to this program in 2012 and have 
three students starting the civilian programs in 2011.

                      ADVANCED IN MEDICAL TRAINING

    We continue to advance enlisted training. A ribbon-cutting 
was held in May 2010 at the new Medical Education and Training 
Campus in San Antonio, where all services will train their new 
enlisted medical personnel. This state-of-the-art training 
platform will graduate technicians in 15 different specialties 
to support the Department of Defense mission and optimize our 
interoperability across services.
    As we are developing our airmen, we are also developing our 
civilians. In January 2011, we conducted our first Nurse 
Civilian Developmental Board. This inaugural event served as a 
benchmark to create a civilian force development model that 
aligns with our officer and enlisted programs.
    Our goal of force management is to design and resource our 
nurse corps to sustain a world-class healthcare force. In 2010, 
we achieved 102 percent of our recruiting goal. Consistent with 
the line of the Air Force initiative to meet end strength 
requirements, our recruiting goals were reduced in 2011. 
However, we continue to work with the Office of Manpower 
Personnel and Services to ensure we maintain a robust 
recruiting program to preserve our quality force.
    Our Nurse Enlisted Commissioning Program creates a legacy 
career path in Air Force nursing. In 2010, 45 enlisted 
graduates were commissioned into the Nurse Corps. As we enter 
our third year of the Incentive Special Pay Program, we are 
seeing positive impacts on professional satisfaction and 
retention.
    We recognize the value of keeping clinical experts at the 
bedside, table side, and litter side. We developed a clinical 
track for master clinicians and researchers through the rank of 
colonel to foster a higher level of excellence within our 
nursing practice. One of our critical care master clinicians, 
Colonel McNeil, is currently deployed to Afghanistan and is 
making a significant difference in trauma and critical care 
outcomes.
    As we aim to provide better health, better care, best 
value, we are committed to the family health initiative, the 
Air Force's Pathway to Patient-Centered Medical Home. Our 
advanced practice nurses, clinical nurses, and technicians are 
positively impacting access, quality of care, patient outcomes, 
disease management, and case management. Within our patient-
centered care philosophy is the need to address resiliency and 
mental health of our airmen and families. Last year, I reported 
that a mental health nurse course was being developed at Travis 
Air Force Base in California. I am pleased to announce our 
first students started in February.
    The psychiatric Mental Health Nurse Practitioner Program at 
the Uniformed Services University of the Health Sciences is one 
of the few in the country that includes psychopharmacology and 
addresses behavioral techniques specific to the unique needs of 
our military population. We currently have four students 
enrolled in this program and four to start this summer.

                           PREPARED STATEMENT

    Mr. Chairman and distinguished members of the subcommittee, 
it is an honor to represent such a dedicated, strong nurse 
corps. Your continued support as we execute our priorities to 
advance military nursing is greatly appreciated. Our wounded 
and their families deserve nothing less than educated, skilled 
nurses and technicians who have mastered the art of caring. It 
is through the medic's touch, compassion, and professionalism 
that we answer our Nation's call to care for those who served 
yesterday, today, and will serve tomorrow.
    Thank you, and I welcome your questions.
    Chairman Inouye. All right. Thank you very much, General.
    [The statement follows:]
      Prepared Statement of Major General Kimberly A. Siniscalchi
    Mr. Chairman, and distinguished members of the committee, it is 
again my honor to represent the over 18,000 members of our Total 
Nursing Force (TNF). Together, with my senior advisors, Brigadier 
General Catherine Lutz of the Air National Guard (ANG), and Colonel 
Lisa Naftzger-Kang of the Air Force Reserve Command (AFRC), along with 
my Aerospace Medical Service Career Field Manager, Chief Master 
Sergeant Joseph Potts, we thank you for your continued support of our 
many endeavors to advance military nursing. It is a privilege to report 
on this year's achievements and future strategies.
    We are a total force nursing team delivering evidence-based, 
patient-centered care to meet global requirements. We have developed 
four strategic priorities in consonance with those of the Secretary and 
the Chief of Staff of the Air Force. They are: (1) Global Operations, 
(2) Force Development, (3) Force Management, and (4) Patient-Centered 
Care. These priorities are built on a foundation of education, training 
and research. This testimony will reflect our successes and challenges 
as we strive to execute our strategic priorities.
                           global operations
    For over two decades, our TNF has been supporting humanitarian 
missions and contingency operations that span the globe. We recognize 
that our mission effectiveness is contingent upon medics who are 
equipped, trained, and proficient at implementing Air Force 
capabilities across the full spectrum of operational environments. Air 
Force medics are truly expeditionary, and frequent deployments are a 
part of our culture. The nature of our current operating environment 
has reshaped the Air Force Medical Service (AFMS) and our Corps. 
Together we have experienced amazing success in the global environment.
    At a flight nurse and technician graduation ceremony at Brooks City 
Base in San Antonio, Texas on January 29, 2011, the guest speaker, Army 
Master Sergeant Todd Nelson, gave a poignant talk to our new flight 
crews. Sergeant Nelson was the personal recipient of aeromedical care 
after being injured by an Improvised Explosive Device blast during a 
convoy in Afghanistan. The explosion and shrapnel caused massive head 
and facial injuries; he was in grave status from the beginning. After 
receiving initial life-saving surgeries, Sergeant Nelson started his 
journey home, his condition still life-threatening. Despite the 
severity of his injuries, Sergeant Nelson remembers the aeromedical 
team as ``a phenomenal team of flight nurses and technicians who did 
not see me as a statistic, but as someone for whom they would do 
everything to ensure I survived and got home to my family. They didn't 
just see me as another patient, but as a person.'' In his closing 
comments to the class, he concluded, ``for those of you who are 
starting out and who will be caring for warriors such as myself, I 
thank you. It is because of you that I am standing here today. It is 
not only I who thank you, but my wife and my children for enabling me 
to continue to be a part of this family and their lives.''
    Aeromedical Evacuation (AE) Crews and Critical Care Air Transport 
Teams (CCATT) remain busy. In 2010, our Total Force Flight Nurses and 
Technicians accomplished 26,000 patient movements on over 1,800 
missions globally; approximately 11,500 of these patients originated in 
Central Command. Nearly 10 percent of these missions were for 
critically injured or ill patients who required a CCATT. While the 
number of patients has not drastically changed, there has been a shift 
of casualties from Iraq to Afghanistan. Battle injuries in Iraq have 
decreased but patients continue to require evacuation for medical 
illnesses and non-battle related injuries. We continue to see many 
polytrauma and critically injured patients originating in Afghanistan. 
Over 1,100 medics deploy each year supporting the AE mission.
    Validating this success, a major research study from the Tri-
Service Nursing Research Program was concluded this year. This study 
evaluated the care of over 2,500 critically ill and injured casualties 
as they moved through the continuum of care from the battlefield to 
home. As published in the July-September 2010 quarterly journal for the 
American Association of Critical-Care Nurses, Colonel Elizabeth 
Bridges, U.S. Air Force Reserves (USAFR), reported that despite having 
higher acuity than civilian trauma patients, and undergoing a 7,000 
mile transport in less than 7 days, the outcomes for critically injured 
combat casualties are equal to, or better than, outcomes for patients 
in the most sophisticated trauma systems in the United States. 
Additionally, the results of this study, along with research which has 
validated operational nursing competencies, has the potential to 
standardize and advance evidence-based practices for nurses in all 
Services, and to ensure training is focused on the highest priority 
areas including blast injuries, head trauma, shock, amputations, pain 
management, and patient transport.
    David Brown from The Washington Post reported in November 2010 on 
Army Sergeant Diego Solorzano, who was injured in Afghanistan, ``In any 
U.S. hospital, Solorzano would be considered too sick to put on an 
elevator and take to the CT-scan suite. Now he's about to fly across 
half of Asia and most of Europe . . . the U.S. military's ability--not 
to mention its willingness--to take a critically ill soldier on the 
equivalent of a 7-hour elevator ride epitomizes an essential feature of 
the doctrine for treating war wounds in the 21st century: Keep the 
patient moving.'' Despite the noise, vibration, temperature extremes, 
and pressure changes, AE and CCATT have truly been the critical link 
providing world-class care across the continuum from the battlefield to 
the United States.
    On September 28, 2010, members of the U.S. House of Representatives 
unanimously passed a resolution honoring the Airmen who support and 
perform AE. House Resolution 1605 recognizes the service of the medical 
crews and aircrews in helping our Wounded Warriors make an expeditious 
and safe trip home to the United States, commending the personnel of 
the Air Force for their commitment to the well-being of all our service 
men and women who help to guarantee wounded service men and women are 
quickly reunited with their families and given the best medical care. 
During a press release, Congressman Mike Thompson stated ``These men 
and women put their lives on the line on a regular basis to protect 
their fellow Americans.'' The ability to rapidly move patients from 
point of injury, to initial intervention, and then on through the 
system to the United States in 3 days or less for definitive care 
continues to sustain the lowest mortality rate of any war in United 
States history.
    While our AE crews and CCATT members are the most visible members 
of our AE system, it is the men and women in our Patient Movement 
Requirements Centers who work behind the scenes to coordinate all 
patient movements. Be it a tactical or strategic transport, patient 
movement requests are validated at the requirements center and then 
passed through an AE Control Team to match patients to AE crews, air 
crews, and aircraft. Personnel in these centers have knowledge in both 
the challenges of AE and an understanding of clinical pathologies. They 
use this combined knowledge to facilitate patient movement in the most 
timely and efficient manner possible. These individuals are integral to 
the extraordinary patient outcomes we are experiencing.
    Within the Pacific Theater, we constantly battle the tyranny of 
distance to meet patient movement requests. Our Theater Patient 
Movement Requirements--Pacific created a Joint-Medical Attendant 
Transport Team (JMATT) Training Program to augment our AE system. These 
multi-service medical attendants move critically ill or injured 
patients within and across the Pacific Command Theater of Operations. 
Since 2008, 98 Joint Department of Defense, Hawaii's Disaster Medical 
Assist Team, and international medics from Australia, India, Indonesia 
and Singapore have been trained to move high-acuity patients to augment 
our AE system. This permits us to optimize critical care resources for 
expedited patient movement.
    In addition to the over 100 AE flyers in the combat environment, 
over 1,300 nursing personnel support ground missions to include theater 
taskings such as trauma hospitals, provincial reconstruction and 
teaching teams, and forward-deployed and convoy medical missions. 
Working side-by-side with our sister Services and Coalition Partners 
enables us to integrate into the Joint environment and support our 
Secretary and the Chief of Staff's priorities to partner to win today's 
fight.
    Captain Denise Ross, who is currently deployed to Kandahar, 
Afghanistan, is a member of an Air Force multidisciplinary Medical 
Embedded Training Team (METT) which enables Afghan National Security 
Force nurses to train within their own hospitals using their own 
personnel and equipment resources. This program empowers the staff to 
problem solve using available resources. The development of this 
internal reliance is leading the creation of a self-sustaining program 
in order to ensure its continued success after North Atlantic Treaty 
Organization forces are no longer required.
    During a recent visit to Afghanistan, Brigadier General Rahimi 
Razia, Chief Nurse of the Afghanistan National Army, expressed her 
deepest appreciation for the contributions the METTs and our Senior 
Military Mentors have made to advance nursing for the Afghan National 
Army. These teams are assisting General Razia in developing a 
sustainable, 1 year basic nursing education program, and defining a 
fundamental scope of practice. This elemental program is essential to 
the evolution of nursing practice in Afghanistan. As we transition to 
an advisory role in Iraq and support ongoing operations in Afghanistan, 
we continue to educate and mentor the local national healthcare 
providers as they evolve their own healthcare system.
    Building partnerships is all about developing trust-based 
relationships in the global environment. Across the globe our medics 
collaborate with our Joint colleagues and National partners to advance 
the practice of nursing. Under the direction of Colonel Elizabeth 
Bridges, USAFR, the Defense Institute of Medical Operations initiated a 
new international trauma course. The course, which is the first of its 
kind, was developed to advance trauma nursing in developing nations. 
Additionally, the course focuses on the leadership role of nurses in 
developing trauma systems and in responding to disasters. Since May, 
the course has been presented to over 120 nurses from five nations, 
including Estonia, Latvia, Lithuania, Pakistan, and Nigeria, with a 
future course to be presented in Iraq. Feedback from the participants 
and the host nations has been positive, as exemplified by the feedback 
from Brigadier General Raiz, Commandant of the Pakistani Military 
Academy, who had glowing praise for the Trauma Nursing and First 
Responder courses. With regards to the nursing course, he stated that 
45 nurses have already returned to their home stations and are teaching 
other nurses using the course materials provided by the team.
    Another exciting area within this global spectrum is our 
International Health Specialist Program. This program is comprised of 
Total Force officers and enlisted members who focus on capacity 
building efforts and forging medical partnerships through humanitarian, 
civic assistance, and disaster response. One such example is Operation 
Pacific Angel in the Philippines, which is aimed at improving military-
civilian cooperation. During this operation in February 2010, the 
medical teams treated nearly 2,000 Filipino patients. This program 
assists Philippine officials to build capacity within their cities, 
focusing on basic life support, infectious disease prevention and 
treatments, disaster readiness, and public health.
    This year, officials from the United States and Republic of the 
Philippines co-hosted the 4th annual Asia-Pacific Military Nursing 
Symposium in Manila, Republic of the Philippines for more than 200 
nurses from 13 countries. This annual conference ignites the spirit of 
collaboration to focus on nursing education, career development, global 
pandemic preparedness, and disaster management. Through this unique 
symposium, participants learn about each other's healthcare systems, 
infection control practices, and nursing services. Colonel Narbada 
Thapa, the head delegate from the Nepalese Armed Forces, commented on 
the opportunity to build relationships and acquire knowledge on nursing 
from many armed forces from around the world, making the symposium a 
memorable event for all.
                           force development
    Our outstanding success in mission support could not be possible 
without a solid investment in developing our nursing force. Grounded in 
education, training and research, we are generating new knowledge and 
advancing evidence-based care necessary to enhance interoperability in 
nursing operations. Stepping into the future, we are preparing our 
Total Nursing Force to meet emerging challenges as we develop globally 
minded medics capable of providing world-class healthcare on the 
strategic battlefields of today and tomorrow.
    Our Nurse Transition Program (NTP) continues to be an integral 
component in developing our new nurses. We graduated 212 nurses in 
fiscal year 2010 from eight military and two civilian locations. In 
December 2010, we graduated the third class from Scottsdale Healtcare 
System in Arizona. This outstanding civilian program has produced 56 
nurses since its inception. As a Magnet facility, Scottsdale Healthcare 
System is one of only 382 hospitals recognized world-wide for nursing 
excellence. This program provides complex clinical training under a 
preceptor-led transition model for new graduates. Under the supervision 
of Lieutenant Colonel Deedra Zabokrtsky, NTP Course Director--
Scottsdale, our new nurses are clinically prepared and gaining the 
confidence to take on their own clinical practice. Program excellence 
can be noted in a diary entry from one NTP student who had just begun 
her week in Obstetrics (OB). This student was assigned a patient who 
was failing to progress in labor and was informed that a cesarean 
section was believed inevitable. Based on current research, she decided 
to take an evidence-based approach as encouraged by her preceptor. 
Garnering support from her fellow nurses and agreement from her patient 
to try a new approach, a unique plan of care was initiated, to include 
rotation of the patient's position every 15-30 minutes. The final 
result: a vaginal birth of a beautiful baby boy. As the student stated, 
``This situation has affected the way I will educate my OB patients in 
the future . . . the best we can do as nurses is make sure our patients 
are well informed . . . this is true for all areas of nursing.'' This 
exemplar highlights the critical thinking and sound, evidence-based 
nursing practice needed from today's nurses.
    Due to the resounding success of this military-civilian 
collaboration, we decided to consolidate resources and create four NTP 
Centers of Excellence. A civilian Magnet facility, Tampa General 
Hospital, Florida, was recently approved as one of these sites and the 
training agreement was signed February 24, 2011. The remaining three 
Centers of Excellence will be in Scottsdale, Arizona; San Antonio, 
Texas; and Cincinnati, Ohio; and will provide our new nurses with the 
experiences so crucial to their professional development.
    Our Nurse Enlisted Commissioning Program (NECP) continues to be a 
balanced source of nurse accessions as we ``grow our own'' from our 
highly trained enlisted medics. In fiscal year 2010 we enrolled 46, 
students nearing our goal of 50 students per year. The graduates from 
this program are commissioned as Second Lieutenants and will continue 
their active duty service in the Nurse Corps.
    As we strive to create full-spectrum leaders and nursing 
professionals, our recently launched Project Lieutenant is designed to 
improve skills and reinforce training with increased oversight and 
mentoring during our new nurses' first year. Over the years, the 
National Council of State Boards of Nursing (NCSBN) has researched the 
issues of education, training, and retention of novice nurses and found 
that the inability of new nurses to properly transition from student 
into a new practice can have grave consequences. The NCSBN reported 
that approximately 25 percent of new nurses leave a position within 
their first year of practice. The increased turnover, consequently, has 
a potentially negative effect on patient safety and healthcare 
outcomes. The NCSBN's Transition to Practice Model provides a way to 
empower and formalize the journey of newly licensed nurses from 
education to practice. Project Lieutenant is our pilot program to 
support our nurses' successful completion of the nurse residency 
program and transition into new clinical practice areas. Established at 
the 59th Medical Wing, Joint Base San Antonio, Texas, Project 
Lieutenant is leading the charge to deliberately develop our newly 
graduated NTP nurses through a comprehensive 9 month mentoring program. 
The deliberate development of the novice nurse is in step with the 
NCBSN's model and will be replicated at several sites to ensure 
consistent quality of patient care and address the concerns of the new 
nurse, ultimately promoting public safety and positive patient 
outcomes.
    As we aim to improve upon positive patient outcomes, we are 
committed to serving our Wounded Warriors. As we enter our 10th year of 
intensive combat operations, we are not only faced with the challenge 
of caring for those with physiological wounds but also those with 
psychological wounds as well. As Secretary Gates stated, there is ``no 
higher priority in the Department of Defense, apart from the war 
itself, than taking care of our men and women in uniform who have been 
wounded, who have both visible and unseen wounds.'' The National 
Defense Authorization Act 2010, Section 714, directed an increase in 
the number of active duty mental health personnel and, to meet the 
Secretary's priority of taking care of our Airmen and families, we are 
launching a program to develop mental health nursing professionals from 
within our Corps. Our pilot class started at Travis Air Force Base, 
California, on February 14, 2011, and our next class is set to begin in 
June 2011, projecting eight graduates this year.
    The Uniformed Services University of Health Sciences (USUHS) 
Graduate School of Nursing recently stood up a Psychiatric Mental 
Health Nurse Practitioner Program (PMH-NP). This new program has 
graduated two Air Force advance-practice nurses, with two Air Force 
students currently enrolled and four more students planned for 2011. 
The PMH-NP is one of the few programs in the country that includes 
psycho-pharmacology and addresses behavioral techniques specifically 
designed for clinical care of the military population. The program also 
has specific training in the logistics of delivering healthcare in 
military populations and education in Compassion Fatigue/Resiliency to 
decrease the risk of mental health issues and burnout.
    We also recognize our unique role in supporting the AE System 
within the AFMS. In 2009, we developed an Air Force Institute of 
Technology Master's degree in Flight Nursing with a concentration in 
Disaster Preparedness. This program was developed in partnership with 
Wright State University, the Miami Valley College of Nursing, Dayton, 
Ohio, and the Health and National Center for Medical Readiness Tactical 
Laboratory. Additionally, a disaster training facility, called 
Calamityville, is being created and may be incorporated into civilian 
and military training programs. Our first student started the flight 
nurse graduate program in July of 2010 and another student is 
programmed to begin this summer. Upon graduation, these individuals 
will have been educated in emergency and disaster preparedness and they 
will be eligible to take the Adult Health Clinical Nurse Specialist and 
American Nurse Credentialing Center certification exams. This expertise 
will be invaluable to our current and future operational environment.
    A major movement in advanced practice nursing education was 
stimulated by the American Association of Colleges of Nursing (AACN) as 
they voted to move the current level of educational preparation from 
the master's level to the doctorate level by 2015. To maintain 
professional standards and remain competitive for high quality students 
amongst military advanced practice nurses, Senator Inouye addressed 
Congress in December to recognize the need to make this transition at 
USUHS. Along with our sister Service nursing colleagues, we are working 
with USUHS to develop the curriculum for a Doctorate of Nursing 
Practice (DNP) with a transition plan to meet this goal. By 2015, all 
students entering the nurse practitioner career path will graduate with 
a DNP. This entry level to advanced practice will apply also to direct 
advanced practice nurse accessions. The Health Professions Education 
Requirements Board (HPERB) allocated nine DNP positions for an August 
2011 start. Four of the candidates will go from a master's to doctorate 
level and five will progress from the baccalaureate level to the 
doctoral level to meet the new requirement.
    In addition to our DNP programs, we continue to bolster our 
evidence-based care through investment in nurse researchers. We 
recently developed a nursing research fellowship and the first 
candidate began in August 2010. This 1 year pre-doctoral research 
fellowship focuses on clinical and operational sustainment platforms. 
The intent of this program is for the fellow to develop a foundation in 
nursing research and ultimately pursue a Ph.D. Following the 
fellowship, they will be assigned to work in Plans and Programs within 
the Human Performance Wing of the Air Force Research Laboratory. This 
direction also reflects the National Research Council of the National 
Academies recommendation that those planning for careers with a heavy 
concentration in research have doctoral preparation.
    Major Candy Wilson and Major Jennifer Hatzfeld both received their 
Ph.D.s in Nursing Science through the Air Force Institute of Technology 
civilian institution program. The Air Force's investment in doctorally 
prepared researchers equipped these nurses to deploy as integral 
members of the Joint Combat Care Research Team with the clinical and 
scientific expertise needed to make a difference for our Wounded 
Warriors. The research and statistic expertise of these nurses in 
conjunction with their clinical expertise was pivotal in projecting the 
medical resources needed for casualties during the surge in combat 
operations and assisting the Afghan government in evaluating the effect 
of a Strong Food program supported by the U.S. Agency for International 
Development. The investment in military nurse education is critical for 
improving the lives of deployed U.S. military members, coalition 
partners, and host nationals.
    With a goal to advance cutting-edge, evidence-based nursing 
practice, we have further developed the clinical career track for 
Master Clinicians and Master Researchers through the rank of Colonel. 
Master Clinicians are board certified nursing experts with a minimum 
preparation of a master's degree and at least 10 years of clinical 
experience in their professional specialty. They serve as the 
functional expert and mentor to junior nurses. Our Master Researchers 
are Ph.D. prepared and have demonstrated sustained excellence in the 
research arena. Both of these highly respected positions facilitate 
critical thinking and research skills, and foster the highest level of 
excellence in care across our healthcare system. We currently have 
eight Master Clinicians and three Master Researchers within designated 
medical and research facilities.
    In addition to training our newest nurses, we have realized the 
efficiencies in Joint training for our enlisted medical technicians as 
well. Teaming with our Joint partners, a ribbon cutting ceremony was 
held in May 2010 at the new Joint Service Medical Education and 
Training Campus (METC). This training campus will grow to be home to 
nearly 8,000 students with an operating staff and faculty of over 1,400 
civilian and Joint military personnel. In March 2011 a Memorandum of 
Agreement and Board of Governers Charter was signed by all three 
service Surgeon Generals. Creating this state-of-the-art training 
platform will produce technicians in 15 different specialties to 
support the DOD mission and optimize our interoperability amongst the 
next generation of medics in the ever-growing Joint environment.
    An ongoing effort in the development of our enlisted members is the 
transition of our Independent Medical Technicians (IDMTs) and Aerospace 
Medical Technicians (4NOs) to certified paramedics. This advancement 
will continue to decrease our reliance on contract emergency response 
systems and with an end goal of 700 paramedics. In 2010 we certified 46 
paramedics, bringing our total over 200. To enhance the tremendous 
capability of our IDMTs, our goal is to reach 100 percent within this 
constrained career field over the next 5 years.
    We believe this advancement in the development of our medics will 
eliminate the stove pipe that has limited career opportunities within 
the IDMT specialty field and over the long run enhance career 
progression for these highly qualified medics. Additionally, our IDMTs 
are eligible for the selective reenlistment bonus which has aided in 
the recruitment and retention of these highly valuable assets. Our 
IDMTs are enlisted professionals who serve as physician extenders and 
force multipliers and who are capable of providing medical care, often 
in isolated locations. Senior Master Sergeant Patrick McEneany, who is 
just one of these valued medics, deployed for 7 months as an IDMT to 
Iraq with a Joint Special Operations task force. As a provider in a 
remote location, he supervised an urgent care medical clinic, serving a 
camp of 1,200 individuals. His accomplishments during this deployment 
included the resuscitation and stabilization of combat traumas and 
emergencies and the treatment of 1,500 ill and injured patients. 
Additionally, he evaluated multiple Combat Search and Rescue exercises 
at forward operating bases to validate the care for Special Operations 
Pararescuemen. For his efforts, Sergeant McEneany was awarded the 
Bronze Star.
    Further opportunities to maximize the potential of our Airman and 
grow the next generation of Noncommissioned Officers are available 
through the Air Force Institute of Technology (AFIT) for certain key 
enlisted specialties. To date, we have three such positions identified; 
one in education and training at the Air Force Medical Operations 
Agency, another within our Modeling and Simulation program at Air 
Education and Training Command, and the third within the research cell 
at Wilford Hall Medical Center. Our most recent addition to the 
research cell is Senior Master Sergeant Robert Corrigan, who just 
arrived to Wilford Hall Medical Center.
    Just as we are developing our Airmen, the development of our 
civilians is critical to our overall mission success. We are 
establishing a career path from novice to expert and offering 
deliberate, balanced, and responsive career opportunities for our 
civilians. Just as the career path for our military nurses and medics, 
this career path will focus on the right experience, training, and 
education, at the right time. In January 2011, we conducted our first 
Civilian Developmental Board at the Air Force Personnel Center. The 
goal of this board is to present the opportunity to our civilian nurses 
for deliberate development and vectoring from the Force Development 
team, similar to the feedback given to their military counterparts. 
During this inaugural event, Level I and Level II Civilian Nurse 
Supervisors volunteered their records for this formal review and career 
counseling opportunity. This program will be a benchmark for the AFMS 
as we continue to expand this vectoring process across all of our 
Corps.
                            force management
    The goal of Force Management is to design, develop, and resource 
the Air Force Nurse Corps to sustain a world-class healthcare force in 
support of our National Security Strategy and align our inventory and 
requirements by specialty and grade. We must have the right number of 
people to accomplish the mission. In fiscal year 2010, we recruited 170 
fully qualified nurses and selected 126 new nursing graduates exceeding 
our recruiting goal of 290. In line with initiatives to decrease Air 
Force end-strength, Nurse Corps recruiting service goals were reduced 
in 2011. As we face force shaping initiatives, it is critical that we 
continue to develop programs that provide the clinical ability 
essential to the sustainment of our nursing force.
    In fiscal year 2008, the long-needed increase in colonel 
authorizations for the Nurse Corps created a deficit to the grade 
ceiling. With current personnel and year-group sizes, filling the 
authorized grades at the senior level remains challenging. In an effort 
to resolve the persistent grade level imbalances, nursing leadership 
has been working closely with the Office of Deputy Chief of Staff, 
Manpower, Personnel and Services to develop options, to include the 
possibility of the Defense Officer Personnel Management Act relief. 
This scenario would allow the colonel grade ceiling to reach allowable 
guidelines by 2016. The Nurse Corps is continuing to pursue the optimal 
solution in keeping with the Chief of Staff of the Air Force's 
direction. These critical Nurse Corps positions are not affected by 
current Air Force efforts to reduce its endstrength to authorized 
levels.
    In light of the significant limitations placed on direct 
accessions, it is imperative that we focus on the retention of our 
experienced nurses. As we enter our third year of the Incentive Special 
Pay (ISP) program, we continue to see the positive impact this program 
has on enhancing the professional satisfaction and retention of our 
experienced clinical experts. This program, which incentivizes clinical 
excellence at the bedside, tableside and litter-side, is crucial in 
maintaining the needed staffing in career fields that are critically 
manned.
    Another incentive for our nursing force is the Health Professions 
Loan Repayment Program targeted at those specialties with identified 
shortages. Health professionals who qualify for the program are 
eligible for up to $40,000 of school loan repayment in exchange for an 
extended service agreement. In 2010, 53 nurses elected to use this 
opportunity for financial relief in paying back school loans.
    With Chief Master Sergeant Joseph Potts leading our enlisted force, 
he is pleased to report success in securing a Selective Reenlistment 
Bonus (SRB) for the 4N enlisted career field fiscal year 2010. As 
mentioned, our IDMTs, along with medical technicians in several other 
critically manned career fields such as the surgical sub-specialties, 
Ear Nose and Throat, urology and orthopedics, are eligible for this 
bonus. The SRB allows us to focus our resources in areas where we can 
best retain medics in our critically needed specialties.
    The Graduate School of Nursing (GSN) at USUHS continues to provide 
cutting-edge academic programs to prepare nurses with military unique 
clinical and research skills in support of delivery of patient care 
during peace, war, disaster, and other contingencies. The GSN helps to 
ensure the Services meet essential mission requirements and has a 
history of rapidly responding to Service needs that is not possible in 
civilian institutions. For example, the GSN established the 
Perioperative Clinical Nurse Specialist and Psychiatric Mental Health 
Nurse Practitioner Program; as well as focusing research and evidence-
based practice initiatives on pain management, traumatic brain injury, 
and the care of deployed and Wounded Warriors.
                         patient centered care
    As we mold our nursing force today, we are shaping our capabilities 
for tomorrow's fight. Our success will be measured continuously through 
conscious and deliberate planning and development. We strive to 
establish leadership and professional development opportunities to meet 
current and future Joint and Air Force requirements while building 
trust through continuity and patient centered care. ``Trusted Care 
Anywhere'' is the mantra of the Air Force Medical Service. 
Understanding the value of patient-centered care, the AFMS is focusing 
on ``Better Health, Better Care, Best Value'' through the Family Health 
Initiative.
    Across the globe, our healthcare teams are focused on building 
patient-centered platforms able to perform the full scope of medical 
and preventive care to our patients at home and abroad. We are 
committed to the execution of the Family Health Initiative (FHI), the 
Air Force's pathway to Patient-Centered Medical Home, which provides 
continuity of care, team work and fosters improved communication; all 
maximizing patient outcomes. Our Disease Managers and Clinical Case 
Managers (CCMs) play an integral part in this process. At several 
locations, our telephone consults have decreased by 21 percent from 
2009, and our network referrals to an Urgent Care Clinic have decreased 
by 50 percent since the FHI was started. This decrease in urgent care 
referrals has saved over $174,000 for Joint Base Elmendorf Richardson 
in Alaska. As well, a set of performance measures developed by the 
National Committee for Quality Assurance, Healthcare Effectiveness Data 
and Information Set (HEDIS), is used to measure clinical outcomes since 
FHI inception. The HEDIS results demonstrated an overall improvement in 
diabetic screening results and reporting. F.E. Warren Air Force Base, 
Wyoming reports patient satisfaction is at an all time high of 96 
percent for 2010. Additionally, many other sites are reporting similar 
experiences as a result of this modification in how we care for our DOD 
beneficiaries.
    Alongside our Disease Managers, our CCMs are helping patients 
receive safe, timely, cost-effective healthcare. The Air Force has 113 
CCMs and in fiscal year 2010 there were 47,000 CCM encounters, a 50 
percent increase over fiscal year 2009. Additionally, 4,000 of these 
encounters were with Wounded Warriors, a 100 percent increase over 
fiscal year 2009. Based on Air Force Audit projections, CCMs have 
generated over $300,000 in savings compared to fiscal year 2009. The 
CCM is integral to patient care coordination and the FHI, ensuring our 
patients see the right provider, at the right time, and at the right 
place. The goal of the Medical Home Model is to strengthen the 
partnership between the patient and the healthcare team, and continue 
to look at ways to provide timely, cost-effective care while focusing 
on patient safety, and decreasing variance at every point of healthcare 
delivery.
    Patient safety remains paramount. For AE, the rate of patient 
safety incident reports was less than 5 percent of patient moves. Of 
note, most of these events were near-miss, meaning the event was 
prevented and never reached the patient. To strengthen our Patient 
Safety Program, Air Mobility Command has created an Aeromedical 
Evacuation Patient Safety Course modeled on the principles of the 
Department of Defense's Patient Safety Program. Ms. Lyn Bell, a retired 
Lieutenant Colonel flight nurse and Chief, Aeromedical Evacuation 
Patient Safety, taught the first class in December 2010. She trained 17 
safety monitors from 10 total force agencies including AE Squadrons, 
the Patient Movement Requirements Center and Staging Facilities. This 
new program focuses on accurately capturing and documenting actual and 
potential patient safety concerns. It teaches units how to incorporate 
patient safety into their training scenarios and prepare the units for 
the high operations tempo in the combat theater. With these continued 
efforts, we hope to further enhance our culture that protects patients 
and advances process improvements.
    Beginning November 2010 through June 2011, the Air Force Medical 
Operations Agency (AFMOA), in conjunction with the DOD, is implementing 
the Patient Safety Reporting (PSR) System in Air Force military 
treatment facilities worldwide. The PSR provides staff with a simple 
process for reporting patient safety events using DOD standard 
taxonomies, which enhance consistency and timely event reviews. The PSR 
event data will be analyzed for trends and assist in identifying 
targets for process improvement, both at Air Force and DOD levels.
    A final note on patient safety: We have initiated a 1 year 
fellowship in Patient Safety incorporating all areas within the AFMS, 
to include the clinical, logistical, financial, and environment aspects 
of care. This fellowship includes education on patient safety event 
reporting, sentinel and adverse events, root cause analysis, proactive 
risk assessment, and risk management. The fellow will also become 
knowledgeable in patient safety database systems and strategic 
communication to allow them to engage with Air Force and DOD 
leadership.
    We also recognize our responsibility in caring for victims of 
sexual assault within our military healthcare system. Medical treatment 
facilities team with installation Sexual Assault Response Coordinators 
to deliver care to victims via coordination with Victim Advocates and 
Medical Specialists. To ensure the integrity of forensic evidence and 
guarantee access to care, most sexual assault exams are done off-base 
via a memorandum of understanding with local treatment facilities. In 
the deployed environment, seven of eight medical treatment facilities 
perform exams on-site while one location uses a co-located Army 
hospital. Upgraded First Responder training has been implemented to 
increase training efficiency; over 6,000 medics completed First 
Responder Training in fiscal year 2010.
    At the root of patient care is nursing research yielding evidence 
based practices. In fiscal year 2010, the Tri-Service Nursing Research 
Program (TSNRP) awarded 18 research grants, including five awards 
totaling $1,015,045 to Air Force nurse scientists. These investigators 
are now studying military unique and military relevant topics such as 
positive emotion gratitude, the resilience of active duty Air Force 
enlisted personnel, and military medics' insight into providing women's 
health services in a deployed setting.
    Under Colonel Marla De Jong's leadership, and for the first time in 
its history, TSNRP offered research grant awards to nurses at all 
stages of their careers--from novice nurse clinician to expert nurse 
scientist. The Military Clinician-Initiated Research Award is targeted 
to nurse clinicians who are well-positioned to identify clinically 
important research questions and conduct research to answer these 
questions under the guidance of a mentor. The Graduate Evidence-Based 
Practice Award is intended for DNP students who will implement the 
principles of evidence-based practice and translate research evidence 
into clinical practice, policy, and/or military doctrine. It is 
critical that funded researchers disseminate the results of their 
studies so that leaders, educators, and clinicians can apply findings 
to practice, policy, education, and military doctrine as appropriate. 
This grant will enhance this dissemination and uptake of evidence.
    This year, Air Force nurses authored more than 10 peer-reviewed 
publications and delivered numerous presentations at nursing and 
medical conferences. Also in 2010, the TSNRP's Battlefield and Disaster 
Nursing Pocket Guide and clinical practice guidelines were established 
as the primary performance criteria for the Air Force Nurse Corps 
readiness skills verification program. The integration of these 
evidence-based recommendations will ensure that all nurses are prepared 
and provide the highest quality, state-of-the-art care under 
operational conditions.
    We are also leveraging data gained from the Joint Theater Trauma 
Registry to create innovative solutions for the battlefields of 
tomorrow, today. In summer of 2011, in collaboration with our Joint and 
Coalition Partners, we are establishing an enroute critical care 
patient movement system to augment our existing tactical transport. 
Once wounded, a patient is transferred as quickly as possible to a 
forward surgical team, normally within 1 hour. These patients may 
undergo life-saving damage control resuscitation and surgery.
    Most often these patients are then transferred via helicopter to a 
trauma center where their wounds can be treated more extensively by 
medical specialists. These seriously and critically injured patients 
receive en-route care by an Emergency Medical Technician with basic or 
intermediate clinical skills or a facility must provide an attendant to 
accompany the patient. This latter option limits the availability of 
these skilled clinicians who may be needed for other incoming patients.
    Neither solution was considered optimal in terms of ensuring 
clinicians with the right skill sets are available while not reducing 
the availability of care providers. As a result, of these challenges, 
the Air Force developed Tactical Critical Care Evacuation Team, or 
TCCET, to augment these inter-hospital transfers. The current TCCET 
composition consists of two certified registered nurse anesthetists and 
an emergency room physician. This team possesses advanced clinical 
skills to support ventilated patients as well as patients who are 
hemodynamically unstable. The team can function as a whole or each 
provider can perform separately to meet the patient or mission needs. 
The TCCET will augment the Army flight medic, or Air Force 
pararescuemen on missions, and will also be able to support AE missions 
or augment the CCATT, if needed.
    Prior to deployment, these providers will hone their critical care 
skills by attending our Centers for Sustainment of Trauma and Readiness 
Skills (CSTARS) program at University of Cincinnati, Ohio. They will 
attend the Joint Enroute Care Course at Fort Rucker, Alabama to become 
familiar with rotary wing operations. The team will carry backpack 
sized equipment packs to support most critical care patients, to 
include pediatric patients. By inserting this higher level of 
specialized care at the earliest juncture in the injury spectrum, we 
hope to improve overall outcomes for the Wounded Warrior.
    In the area of skills sustainment, our partnerships with high 
volume civilian trauma centers continue to thrive. Our CSTARS platforms 
provide invaluable opportunities to hone war-readiness skills. In 2010, 
907 doctors, nurses, and medical technicians completed vital training 
at one of these three centers located in Baltimore, Maryland; 
Cincinnati, Ohio; and St. Louis, Missouri. Another example of our 
skills sustainment initiatives lies within the 88th Medical Group at 
Wright Patterson AFB, Ohio. The Medical Group stood up a state-of-the-
art Human Patient Simulation Center for providing realistic training 
opportunities for healthcare personnel in 2009 with completion of the 
center in 2010.
    The Center has incorporated simulation into various training 
courses including Advanced Cardiac Life Support, Pediatric Advanced 
Life Support, and the Neonatal Resuscitation Programs as well as the 
Aerospace Medical Service Apprentice Phase II and III program, and the 
Nurse Transition Program. The Simulation Center also initiated monthly 
Mock Code drills using human patient simulators and implemented Team 
Strategies and Tools to Enhance Performance and Patient Safety 
(TEAMSTEPPS) into simulation training scenarios. This center is also 
the primary pediatric simulation site for military and civilian medical 
students attending the region's Dayton Area Graduate Medical Education 
Consortium.
    Because of their efforts, the 88th Medical Group won the Air Force 
Modeling and Simulation Annual Innovative Program Team Award for their 
live training via a remote presence robot on the care of burn 
casualties. The team connects via laptop with a robot at Brooke Army 
Medical Center's burn unit during interventional patient care, and an 
on-site facilitator describes the treatment procedure in real time. The 
program was coordinated through the Army Institute of Surgical 
Research.
    Within our patient-centered care philosophy is the recognition of 
the need to address the resiliency of our Airmen and families as well 
as to care for the caregiver. As an experienced critical care nurse, 
Lieutenant Colonel Mary Carlisle thought she could handle anything on 
deployment to Iraq. But the casualties she saw daily took a toll on her 
psychological health. When Colonel Carlisle returned home, her war 
wounds were invisible. She became increasingly lost in sorrow, becoming 
absorbed and distracted by thinking ``What if?'' and ``Why?'' She 
sought solace at the National Mall in Washington, DC, studying the 
faces of the Vietnam Women's Memorial monument, identifying with each 
of the women depicted in the monument. During her 2010 Memorial Day 
speech at the Vietnam War Memorial she reflected how she was, during 
different times of her deployment, each one of those women. She states 
``I was the woman kneeling, looking down, defeated, holding the helmet 
that will never be worn again. I was the woman cradling the Wounded 
Warrior, fighting with everything I had to save his life. And, I was 
the woman gazing skyward; grasping the arm of my colleague, 
anticipating whatever was to come.''
    Colonel Carlisle found the courage to seek help for her wounds and 
hidden trauma. She further states ``now I am at peace knowing I--we--
did the best we could, and the fallen angels were not lost in vain, and 
America's freedom still reigns.'' Colonel Carlisle became a spokeswoman 
for nurses and other medical personnel with post-traumatic stress or 
other war-related adjustment issues. Instead of being rebuked by her 
upper command for openly talking about her experiences, Colonel 
Carlisle is praised for her efforts to encourage other troubled nurses 
and medical technicians to see help. Colonel Carlisle helps to show our 
Airmen that she is a senior officer who has experienced the same 
feelings they may be having and they should feel comfortable talking 
about their experiences and feelings. We are changing our culture to 
promote the building of resilience, facilitate recovery, and support 
reintegration of returning Service members.
                               way ahead
    The United States Air Force Nurse Corps consistently achieves 
excellence in all that we do. The use of professional clinical judgment 
in delivering evidence-based care is essential in enabling our Airman 
and their families to improve, maintain, or recover health, and achieve 
the best possible quality of life. By partnering with our civilian 
institutions, Joint, and Coalition partners we are building the next 
generation of care and capability. As we step into the 21st century, we 
are forging our future by addressing our stressors, embracing our 
professional diversity, and fortifying our Total Nursing Force with 
education, training and research.
    Mr. Chairman, and distinguished members of the Subcommittee, it is 
an honor to be here with you today and represent a dedicated, strong 
Total Nursing Force. Our Wounded Warriors and their families deserve 
nothing less than educated and skilled nurses and technicians who have 
mastered the art of caring. It is through the medic's character, 
compassion and touch that we answer our nations call to care for those 
who served yesterday, today and tomorrow.

    Chairman Inouye. And now, if I may, I was in the Army about 
69 years ago. That is a long time ago. And at that time, the 
highest-ranking nurse, I believe, was a colonel--one colonel. 
And in the hospital that I spent 2 months in Italy, the 
highest-ranking nurse was a major. The theater commander of the 
nurse corps was a lieutenant colonel. In the hospital in 
Atlantic City and Michigan, the highest-ranking nurse was a 
lieutenant colonel.
    As we all know, in 2003, we made nurses two stars. Now I 
have been told that the Secretary of Defense has come up with 
efficiencies, and he recommends a reduction from two stars to 
one star.
    I would just like to have your views, General Horoho.
    General Horoho. Yes, sir.
    First, sir, I would like to thank you very much for the 
support because I would not be sitting here as a two-star 
general without your support. So, thank you.
    We used the launching of the rank of two star to actually 
leader develop across all of our corps across Army medicine. We 
have right now nurses that are commanding at the level 2 
command within the theaters of operation. We also have them 
commanding across Army medicine. We have nurses that have 
strategic input into decisionmaking at the strategic level, and 
so we now have I think a very competitive field for our nurses 
to be able to be competitive for branch materiel one star and 
then also at the two-star level.
    Chairman Inouye. So, you are not in favor of the 
Department's recommendation?
    General Horoho. Sir, I will support the Secretary of 
Defense and his efficiencies, and I----
    Chairman Inouye. You are a good soldier.
    General Horoho [continuing]. Am very, very grateful for the 
rank of two star. Thank you.
    Chairman Inouye. Well, I will make certain you keep your 
two stars. I think it is about time we recognize the value of 
nurses. When I was in the hospital, other than the time spent 
on the operating table, in the wards I saw the doctor about 
once a week, nurses 24 hours per day. She is the one who 
provided minor surgery, all the medicine, all the care. But she 
was a second lieutenant. I think it is about time we recognize 
their value, and I think if a man gets two stars for commanding 
10,000 troops, I think a nurse should get two stars for 
commanding 18,000 troops.
    Senator Mikulski. Hear hear.
    Chairman Inouye. That is how I get my votes.
    Does the Navy support----
    Admiral Niemyer. Well, sir, I want to extend our grateful 
appreciation for the support you have provided to military 
nurses. It has enabled us to achieve both civilian nursing and 
military medicine respect commensurate with the rank of a two 
star, and the scope of responsibility of a two star as well.
    I have had the unique opportunity of being able to be 
selected as a one star and work in a very challenging joint 
position, which I believe enabled me to better lead the Nurse 
Corps today. We are extremely grateful, and I, too, would not 
be sitting here as a two star without your support and this 
subcommittee's support.
    Thank you.
    Chairman Inouye. General, does the Air Force support two 
stars or one star?

                      MILITARY NURSING LEADERSHIP

    General Siniscalchi. Sir, military nurses will continue to 
provide the best patient care possible and will continue to 
lead at whatever rank we are asked to lead at. But having 
served as a two star, and I thank you for your continued 
advocacy for military nursing and for the support that military 
nursing received in 2003, to have the leadership position 
raised to a two star. And when you look at our scope of 
leadership and our scope of responsibility and for the Air 
Force having to include our total force Active, Guard, Reserve, 
officer, enlisted, and civilian, we are close to 19,000. And to 
provide policy and directives for a total nursing force of that 
size, the two star rank has served us very well. And it is 
commensurate given our total nursing force engagement in global 
operations. But we will continue to support whatever decision 
is made, sir. Thank you.
    Chairman Inouye. Today's war has much trauma, brain 
injuries, multiple amputations, and it is a bloody war, much 
more severe than World War II. Are the nurses getting 
specialized training for this type of service?
    General Horoho. Mr. Chairman, we are looking at the Joint 
Trauma Tracking Registry System to get lessons learned, and we 
have changed, over these last several years, our training 
platform in the area of trauma nursing. We also made a decision 
with--over the last couple of years that every single nurse 
needs to be a trauma nurse. It is at our core competency. So, 
we have the combat trauma tactical course that our medics focus 
on. Everyone who deploys gets trauma training prior to their 
deployment, whether that is in San Antonio or it is in Florida 
at the University of Miami. And then we are constantly refining 
and looking out at what is occurring in the civilian sector, 
which is part of what develops our Virtual Leader Academy, is 
that we looked at competencies and capabilities, and we 
redesigned all of our training programs to better support the 
complexity of the wounds that we are seeing in this war.
    Chairman Inouye. Before I call upon Senator Cochran, 
listening to our two ladies, I could not help but think about 
the trauma that families have to go through. For example, today 
a spouse can call her husband in Afghanistan every day----
    General Horoho. Yes, sir.
    Chairman Inouye [continuing]. On a telephone that is not 
censored. Every evening she can watch CNN or whatever it is and 
see her husband's unit in action, and she has to sweat it out 
until the next day, and she does not hear from him. And you 
wonder why someone gets stress disorders. In my time, I made a 
telephone call before I left Hawaii. The next telephone call I 
made to Hawaii was 3 years later on my way home. The letters 
that I wrote to my family were all censored. All I could say 
was the food is terrific, Italy is a wonderful place, I love 
France and Paris--nothing about action or injuries.
    I can understand why there are more suicides today. I can 
imagine coming back, getting together with your family and 6 
months later have to ship off again. That is not the way to 
serve. We will have to do something about this.
    What are the nurses thinking about stress disorder and 
suicides?

                          MENTAL HEALTH ISSUES

    General Horoho. I will let you, and then we will just kind 
of go down the line.
    Admiral Niemyer. Thank you, Senator.
    The issue of families and our service members with post-
traumatic stress and mental health is a concern for all of us. 
We have tried to build resilience programs, not just for the 
service members themselves, but for our families as well. I 
know we have FOCUS, which is Families Overcoming Under Stress 
for our Navy personnel and Marine Corps personnel, and use that 
as a training platform to discuss those issues proactively. The 
goal currently is to build resilience and strengthen our 
soldiers, sailors, airmen, and marines, as well as each other. 
And that is just one type of program that we are using to 
address the families.
    We have also looked at building stigma reducing portals for 
our service members and their families to access mental health. 
An area where mental health psychiatric nurse practitioners are 
making a difference, as well as all of our mental health 
personnel, is to embed them in primary care areas where they 
are accessible to those that need them in an attempt to ward 
off and address those issues before they become problematic. 
Any one suicide is one too many, so building that resilience 
and looking proactively is one of the ways that we are trying 
to address that.
    General Horoho. Mr. Chairman and the subcommittee, part of 
what we learned over the last 10 years of supporting a Nation 
at war is that we cannot just treat the warrior, that we 
absolutely have to treat the family. And where social 
networking came in, which you mentioned, is that because of 
that, it connects the home to the battlefield, and all of the 
stressors that are at home are felt by the soldiers, and 
sailors, airmen, and marines, and Coast Guards that are 
deployed, as well as what is going on in theater is also known 
by the families.
    A couple of things that we have done: We have implemented 
in nursing as part of all of this--we have implemented the 
Comprehensive Behavioral System of Care, which has five touch 
points. And we evaluate 100 percent, so to try to reduce the 
stigma, it is mandatory from our privates to our general 
officers to be evaluated by either a psychologist, a 
psychiatrist, a psych nurse practitioner, or a social worker, 
and then primary care that are trained in behavior health. That 
evaluation then allows us to get them help as soon as possible 
if it is needed. We have also embedded our behavior health into 
primary care because what we found is a lot of our patients 
come in for healthcare, and it is a low back pain or maybe a 
headache when it really is something that has to do with stress 
or anxiety. Then when they are in the deployed theater and we 
have our nurses as part of the combat support teams, 100 
percent are evaluated prior to them redeploying back. That 
information of whether they are high risk, moderate, or a low 
risk is then sent back to the installation that is going to 
receive them. And we have behavior health and nursing as part 
of that team. When we talk behavior health, it is the entire 
complement from our medics, our nurses, psychiatrists, 
psychologists, and social workers, so when I use that, that is 
the team that I am talking about. They evaluate at each one of 
those touch points.
    We also found that we needed to leverage virtual behavior 
health when we talked about how difficult it is to be able to 
get a--national shortage of resources--how do we get that? So 
we leveraged virtual behavioral health, and we have over hired, 
and we have platforms in Europe as well as at Fort Louis, 
Washington, Walter Reed, and Brooke Army Medical Center, and 
then Eisenhower. And we use those electrons to be able to get 
healthcare to those that are needed. And when we marry the 
family up, what we are testing right now is using virtual 
behavior health and counseling of a family of children and the 
wife with a service member that is deployed to be able to keep 
continuity of care and look at trying to reduce the stressors 
of healthcare if we can deal with those issues now instead of 
delaying that till they redeploy back.
    And then on the children's side, we are also working, and 
actually all of our services are working with us and Department 
of Defense, to embed behavior health into the school system so 
that we can help with the young children that are stressed 
because of either multiple deployments of their parents. And so 
that is part of our school-based programs that we are using as 
pilots across, and we are starting to see whether or not that 
impacts by being proactive.
    Thank you, sir.
    Chairman Inouye. Thank you very much.
    General.

                    TIERED-BASED MODEL OF RESILIENCY

    General Siniscalchi. Sir, it is a very stressful time for 
our military members and their families. But what we are 
finding is that prevention is key, and it has to start from the 
very beginning and continue throughout their entire 
professional career.
    We are looking at a tiered-based model of resiliency that 
incorporates multi-dimensions of human wellness from the 
physical to the social to the psychological and the spiritual. 
And our tier-based resiliency model begins from the beginning, 
whether it be in basic military training, technical training, 
and officer training. And we instill a culture of resiliency, 
recognizing signs and symptoms of post-traumatic stress, de-
stigmatizing behavioral care, and encouraging our military 
members, their families, to seek behavioral health when 
necessary.
    And as we continue throughout the professional career, we 
look at multiple points throughout the career to introduce 
training, whether it be through professional military education 
or through leadership training. And then as we identify groups 
that are at high risk for post-traumatic stress, for 
depression, for suicide, then the training and the education is 
tailored to them and their families to help minimize and help 
to moderate their risk.
    We have used a Mortuary Affairs Model from Dover Air Force 
Base that has incorporated strength-based training and 
resiliency, and we incorporated that model throughout our 
different levels of command-based resiliency programs.
    We have targeted pre- and post-deployment training, and 
while in theater, those individuals who have been serving 
outside the wire or have been exposed to multiple trauma, then 
as they pass through Germany, they go through our Deployment 
Transition Center, and that helps to prepare them as they go 
back to their families and to their bases. And it better 
enables them to reintegrate and rejuvenate as they come back 
from deployment.
    We have reached out to our senior leaders, who have 
deployed and have experienced post-traumatic stress. And we 
have two of our senior leader nurse officers--critical care 
nurses, Lieutenant Colonel Mary Carlisle and Lieutenant Colonel 
Blackledge. And they came back from multiple deployments and 
recognized that they were experiencing signs of post-traumatic 
stress. And in our effort to incorporate behavioral health into 
our family home model and to de-stigmatize behavioral health, 
both of these senior nurses sought behavioral healthcare, and 
then decided to take their message forward. And they have 
produced videos in multiple forums. They have shared their 
experiences that not only they went through individually, but 
what their families also went through when it came to post-
traumatic stress.
    We recently had a nursing conference last week in Dallas, 
and Lieutenant Colonel Blackledge came and shared her message 
to close to 500 nurses and technicians. And we also had a 
social worker on site who met in small groups with our nurses 
and technicians recently coming back from deployment who 
experienced post-traumatic stress.
    I think the best approach that we can take is the tiered 
model for resiliency, targeting those groups that are at high 
risk, de-stigmatizing mental health, encouraging all of our 
members to openly communicate when they are recognizing signs 
of stress, to focus pre-deployment, during deployment, and 
post-deployment, and then looking at success stories out there, 
which have been the Mortuary Affairs Group at Dover, and then 
emulating programs that they have put in place.
    Chairman Inouye. Thank you very much.
    General Siniscalchi. Thank you, sir.
    Chairman Inouye. Senator Cochran.
    Senator Cochran. Mr. Chairman, I have been impressed with 
the comments that I have read and the testimony that you 
prepared for our subcommittee before the hearing. And we thank 
you for that. I was particularly impressed with the training 
programs, and I was looking at the Air Force experience as 
defined in your testimony that you prepared, General 
Siniscalchi.
    We appreciate the fact that it does not just happen on 
instinct or spontaneous judgment, but a lot of people spend a 
lot of time drawing on their experiences and presenting it to 
others who would be confronted with long flight times coming 
back from combat areas, critically injured soldiers and sailors 
who have to have special care and treatment. And the scope and 
involvement of so many people in the success of these 
operations is really quite awesome. I cannot imagine any 
military force in the world being able to come close to what 
our military, and particularly the Nursing Corps in all of our 
services, have done to help make it such a successful and 
caring, lifesaving experience for many men and women.
    Do you have any comments about that, and is there funding 
available in the request for funding that will continue these 
programs and help support what you have designed as the best 
that you know, the state of the art?

          FUNDING TO SUPPORT AN INCENTIVE SPECIAL PAY PROGRAM

    General Siniscalchi. Sir, funding is available. Our 
Incentive Special Pay Program, first and foremost, is helping 
us to retain our clinical experts. So, being able to have 
funding to support an Incentive Special Pay Program is helping 
us to retain seasoned clinicians.
    Our strength in the care that we are to provide and to have 
the successes that we--that you have just mentioned comes 
through our ability to build partnerships. As we continue to 
partner with our sister services in critical care training, as 
we continue to partner with academic institutions for our nurse 
transition program, we currently have partnerships at 
Baltimore, at St. Louis, University of Cincinnati for our C-
Stars, our critical skills sustainment training. We have, 
again, academic partnerships and partnerships with civilian 
trauma centers that allow us to send our nurses into their 
facilities for sustained training. So our goal is to ensure 
that if we do not have robust training platforms within our 
military treatment facilities, that we establish robust 
partnerships with our sister services, with academic 
institutions, academic--or civilian trauma centers, and the VA 
so that we have a ready force with sustainment training, that 
we have platforms in place for going out the door so they can 
hone their critical care and trauma skills, so that we can 
continue to provide the care that we provide. But we do that 
through training affiliation agreements and robust 
partnerships.
    Senator Cochran. Thank you.
    Mr. Chairman, thank you.
    Chairman Inouye. Thank you.
    Senator Mikulski.
    Senator Mikulski. Mr. Chairman.
    First of all, I would like to say to the entire nursing 
leadership of all the services, we just want to thank you for 
what you do every day. Every day in every way, you do high tech 
and high touch patient-centered healthcare, and I just want you 
to know I think all the Members of the Congress, they do not 
thank you every week--we cannot thank you enough for what you 
do.
    And, Admiral Niemyer, I understand you are a graduate of 
the University of Maryland. Is that right?
    Admiral Niemyer. Yes, ma'am. I am in your State. I am a 
home grown Annapolis girl.
    Senator Mikulski. I know. I have got the accent, you know. 
We both have the same accent, and I graduated from the 
University of Maryland School of Social Work.

               NAVAL BETHESDA--WALTER REED NURSE STAFFING

    Admiral Niemyer. Yes, ma'am, I saw that.
    Senator Mikulski. I think we were a couple of yearbooks 
away from each other, but nevertheless, we were at the downtown 
campus.
    I have two questions, one related to acute care, and then 
the other to this more chronic behavioral post-deployment care.
    Admiral, we are going to be opening a Naval Bethesda Walter 
Reed, and my question is, number one, as we gear up, first of 
all, who is going to actually be in charge of the nursing 
clinical services? It is an unusual governance mechanism. We 
are looking forward to it. I am really excited about it. And, 
perhaps, General, you could help. Who is going to be in charge? 
And then the second question: Do you feel that as we are 
gearing up, that there will be adequacy for both nursing care 
as well as the very important Allied Health Services?
    Admiral Niemyer. Yes, ma'am. The current Director of 
Nursing Services at the now National Naval Medical Center, soon 
to be Walter Reed Military Medical Center, is Colonel Ellen 
Forster, she is an Army colonel. The nurses there, and at Fort 
Belvoir and Walter Reed, have blended nicely to create an 
executive nursing staff to work together. So, to answer your 
question, the governance and who is in charge of the nurses at 
Bethesda, it will be Colonel Ellen Forster. I believe she is 
here in the room today as well.
    Senator Mikulski. Is she here? Could she hold up her hand? 
Well, we are glad to see you, and we will be out to see you.
    Tell me about adequacy. Thank you.
    Admiral Niemyer. In terms of adequacy, from my 
understanding, yes. As we move the patients over, we have the 
nursing staff and the facility support to take care of the 
patients there. So, in terms of adequacy, I do not see any 
issues in bringing our patients and combining our patient force 
there.
    Senator Mikulski. General.
    General Horoho. Ma'am, one of the things is looking a 
little bit broader than Walter Reed Military Medical Center is 
actually looking at Belvoir, because both Belvoir and Walter 
Reed are Tri-Service-based hospitals, and looking at an 
integrated healthcare system. And so, with that, one of the 
things that we did on the nursing side is we have already sent 
Army, Navy, and Air Force nurses to Champion training to 
support the Patient CareTouch System, to really look at 
providing one standard of nursing care, decreasing variance, 
and really focusing on the patient being in the center, and 
improving the health of the patient and their family members. 
So, I think adequacy of training is going to be just fine, and 
I actually think it may be expanded as we learn from each of 
our services what we offer the best in a large beneficiary 
population in the National Capital Area.
    Senator Mikulski. First of all, that is so heartening to 
hear. I go back, again, to the awful times of Walter Reed in 
2007. And now we are looking ahead, and part of the looking 
ahead was not only the immediate treatment of acute care, which 
I think everybody says is actually stunning, stunning in the 
annals of medicine, military or civilian. It is truly stunning 
in battlefield to back home.
    But I want to hear, if I could just for a minute, this 
Patient CareTouch System, because I think that was what I was 
trying to get at with General Schoomaker. It says patient 
advocacy, enhanced care team communication, clinical capacity, 
and evidence-based, which we want, and healthy environment. 
Could you describe for me, from the patient standpoint, what 
does that mean, because we hear touch tones, benchmarks, yadda 
yadda.
    General Horoho. Yes, ma'am. If I can back up first and just 
explain how we even came to develop the Patient CareTouch 
System. We actually looked across Army, Navy, and Air Force, 
and looked at what were the common elements of high-performing 
systems. We also then looked across the civilian sector to see 
the magnet hospitals and what did they have in common. And then 
we realized that there was not one system out there that put 
all of those elements together. So we developed that and we 
piloted it at Fort Campbell, Kentucky. And what we found is 
that we actually had an increase in patient satisfaction. We 
had an increase in communication between our clinicians and the 
ancillary staff and the physicians. We had patient involvement 
with the family members and positive feedback. We had a 
decrease in left without being seen in our emergency rooms. We 
had a decrease in medical errors. We had an increase in 
critical lab value reporting. So, all of our nurse-centric and 
nurse-sensitive measures we saw very positive outcomes. So, 
after we piloted that for about 9 months and made some 
adjustments is when we then developed the training program to 
support that.
    And the Patient CareTouch System, what it does is it 
actually focuses on having the patient in the center of every 
touch point--every place, whether it is in the ambulatory arena 
or whether it is inpatient, that we make sure that the patient 
is involved in decisionmaking. We do hourly nursing rounds. We 
actually use white boards to communicate so that if family 
members come in, instead of the patient having to say, this is 
what the physician just told me, this is what the nurse just 
did, these are the reports we are waiting for, we take that 
burden off of our patient, and it is the clinical team working 
together, better communicating that information.
    We also identified data mechanisms and data that we wanted 
to track that really led to positive outcomes in healthcare, 
because we needed to be able to say what is the value of nurses 
providing patient care, whether it is inpatient or outpatient? 
And how do I know, as the Chief of the Army Nurse Corps, 
whether or not we are making improvements in patient care? So, 
we have a database now that looks at the health of our 
patients, that the head nurse or the clinical officer in charge 
can look at their patient and see how they are doing in patient 
care performance. That is rolled up to the Deputy Commander of 
Nursing, and then I across the Corps can then look at the 
health of our patients.
    We also added a peer review, so if you look at our officer 
evaluation----
    Senator Mikulski. My time is going to run out.
    General Horoho. I am sorry.
    Senator Mikulski. But that is the evaluation.
    General Horoho. There is a lot. There is a lot----
    Senator Mikulski. I am going to stick to--well, what I 
would appreciate, because the chairman has been generous with 
my time, though I know he is very passionate about this because 
it is the follow through. As nurses, social workers, we say 
this. It is not only when they are in the ER or the OR, it is 
the rest of the R; it is rehabilitation, it is follow through, 
it is the management of chronic pain, etc.
    What I would like is a white paper actually, or any color--
a paper describing really what it is and what it does, and 
perhaps some casing samples, I think in case examples, which I 
think you do, too, in addition to this epidemiology and all you 
are looking at. So, I really would follow this through because 
I think you are on to something, and I think you are on to 
exactly what I am on to, that you need a patient advocate and 
all the way through inside. So, let us work together.
    [The information follows:]

    A top to bottom review of Army Nursing revealed that high 
quality care was being delivered but that it varied from 
facility to facility. The variability challenged patients, 
their families, and the nurses providing care. Notable in this 
review was the impact that the high technology environment had 
on patient care and a shift from those things that are 
considered unique to the art of nursing.
    The Patient CaringTouch System was developed in order to 
optimize care delivery. A pilot program was conducted at 
Blanchfield Army Medical Center in 2008 and this pilot revealed 
performance improvement across multiple dimensions within 6 
months of implementation, and suggested that broad 
implementation of the Patient CaringTouch System can create 
real value for Army Medicine. The following areas showed 
statistically significant improvement: (1) Decreased medication 
errors, (2) decreased risk management events, (3) decreased 
left without being seen from the emergency department, (4) 
increased pain reassessment, (5) increased critical lab 
reporting, (6) increased nurse retention and intent to stay
    The Patient CaringTouch System is what Army Nursing (AN) 
believes and values about the profession of nursing, delineates 
AN professional practice, articulates a capability-building and 
talent management strategy to ensure the right quantity and 
quality of AN leaders, and describes how AN delivers evidence-
based care in accordance with best practice standards across 
care environments.

    Senator Murkowski. I worked with your predecessors on the 
nursing shortage. We want to continue that. And we have a real 
champion in Senator Inouye. We all--we are all in love with 
Senator Inouye. And--but we want to thank you again for your 
service and look forward to working with you.
    General Horoho. Thank you.
    Admiral Niemyer. Thank you, Senator.
    Chairman Inouye. Thank you very much.
    Senator Murkowski.

                             SEXUAL ASSAULT

    Senator Murkowski. Thank you, Mr. Chairman. And I 
appreciate the time that the subcommittee has given to this 
very important testimony here today. Thank you all again for 
your service.
    I want to ask a question this morning about military sexual 
trauma. The fact that the three of you, this panel, is all 
female has nothing to do with my question. I had actually hoped 
to ask it to panel one, but I ran out of time. So, but it is 
equally applicable from the nursing perspective as well.
    As you are aware, the Women's Veterans Health Care 
Improvement Act put these new responsibilities on the VA to 
care for our discharged members of the armed forces who are 
suffering from military sexual trauma. The question to you all 
is, are we doing enough within the military medicine field here 
to identify, to treat these cases of military sexual trauma at 
the time that the service member has been victimized, or is 
this going to be a situation where the treatment for these 
individuals will be at the end when the service member is now 
part of the VA system and then discharged? And then, in 
addition to answering that question, if you will, are we doing 
okay, I guess, in terms of maintaining the records that we will 
need in determining the incidence of military sexual trauma and 
the outcomes in treating these victims? Is the process set up 
to work, and then, again, are we tending to the situation at 
the time that the sexual trauma has occurred, or are we waiting 
until this individual is part of the VA system? So, if you 
could just very quickly--and I recognize that this is an issue 
of time here this afternoon, but this is a very important 
issue, I think, as we know within all branches of our service 
right now. And I will throw it out to anyone who wants to 
start.
    Admiral Niemyer. I would be happy to just make a comment. I 
think the issue is so much broader than the medical parts, and 
although I cannot speak directly to your question about the 
records at this point, I would be happy to provide that back as 
a Navy response.
    The issue is so much broader than medical, and even today, 
I read this morning a white paper on sexual trauma. We have not 
progressed where we need to be. It is still a prevalent issue, 
and despite much of the training that we have done and the 
focus, it still remains an issue.
    That being said, I think we are doing a great deal in the 
military today with our line leadership to highlight this very 
prevalent issue and to focus on decoupling the alcohol 
incidence that at times accompanies sexual assault. We have a 
zero tolerance in the Navy, and I know for the other services 
as well.
    So, I can speak on the broad sense and would be happy to 
provide a more detailed medical response on that. But like 
suicide, any assault, and any particularly when it is our own 
folks, it is something that we clearly have zero tolerance for.
    Senator Murkowski. Oh, I would welcome a follow-up from you 
from the Navy's perspective if I could.
    Admiral Niemyer. Yes, ma'am.
    [The information follows:]

    Senator, Navy Medicine has taken an active role in 
supporting victims of sexual assault through the provision of 
medical care and the ability to support legal action by the 
completion of a sexual assault forensic examination when a 
victim presents to our facilities after an assault. Specific 
Navy Bureau of Medicine and Surgery (BUMED) initiatives include 
the establishment of a training program on the sexual assault 
forensic examination for medical providers stationed at 
overseas (OCONUS) commands. Not all of our medical treatment 
facilities (MTFs) within the United States offer in-house 
forensic evidence exams after an assault, but great care has 
been taken to establish Memorandums of Understanding (MOUs) at 
high-quality civilian facilities to meet this need. In 
addition, BUMED has initiated a study with the Center for Naval 
Analysis to gain understanding why some victims are choosing 
not to seek medical care or have a forensic examination at the 
time the assault occurs. Interventions will be initiated based 
on the finding of the study.
    The incidence and tracking of sexual assaults is reported 
via two sources. Naval Criminal Investigative Services reports 
and tracks unrestricted cases and the Sexual Assault Response 
Coordinators monitor and track the cases for victims who choose 
a restricted report. The challenge of accurate record keeping 
in the Navy is two pronged. First is the issue of under 
reported data. As many victims of sexual assault, both in the 
military and our society in general, continue to be concerned 
with the stigma associated with the crime and the fear of 
privacy breaches. Second, and specific to Navy Medicine, is the 
electronic medical record. Currently the required documentation 
for the forensic medical exam is Defense Form 2911 (per the 
DOD-I 6495.02). This form is not in electronic format but 
requires a scanned entry to be maintained in the electronic 
medical record, which is happening.
    Navy Medicine has an important and specialized role in 
caring for sexual assault victims. Our care for sexual assault 
victims encompasses the full scope of medical and psychological 
care with a priority on care that includes access to personnel 
trained to perform forensic examinations and psychological care 
aimed at providing the means to resume a healthy lifestyle. We 
realize that sexual assault affects more than just our Sailors 
and Marines. Sexual assault erodes unit cohesion, denigrates 
Navy core values and can adversely affect fleet readiness and 
retention. We allow victims of sexual assault the right to 
choose the option for care that is best for them, allowing them 
time to regain control of normal life functions. Our leaders 
are highly encouraged to use Sexual Assault Awareness Month to 
further educate sailors about the Navy sexual assault 
prevention and response program to include the role of medical 
personnel. Posters, educational leadership guides and other 
materials are readily available for download to assist in 
providing quality educational programs, encouraging an emphasis 
on a climate that values responsible behavior and active 
intervention. Navy Medicine, along with all Navy leaders stands 
ready to meet the challenge of eliminating sexual assault from 
our ranks.

    Senator Murkowski. General.
    General Horoho. Ma'am, we started about 2 years ago with 
Secretary Geren of having a campaign to increase awareness, 
that it really was an affront to our warrior ethos, whether it 
is a female being assaulted, or if it is a male being 
assaulted. So we looked at it with both demographics.
    I believe we have enough trained counselors to provide that 
level of care. Part of it, though, is creating that safe 
environment for people to feel comfortable coming forward, 
which is what you are talking about, the early intervention. 
And I think that is a work in progress, to be perfectly honest.
    We have also worked very closely with the VA. We have a 
midwife, Colonel Carol Hage, who actually works at the Office 
of the Surgeon General that has established a partnership with 
the VA to look at women's health issues, and this is one piece 
of that, because the demographics of the VA have changed, and 
then the impact of deployment with behavioral health and other 
issues, we wanted to make sure that we had the right programs 
in place to support. So we are evolving as time goes on.
    Senator Murkowski. Are you satisfied with the records that 
are being kept at this point, or do you know?
    General Horoho. Ma'am, if they come in and it gets into our 
electronic health record, then absolutely it is being 
documented and it is being kept in the system. And then we have 
got a lot of work that is being done right now with DOD 
partnering with the VA so that we have one electronic health 
record sharing that information. So, I think once it is in the 
system, it is absolutely in the system and is being maintained.

              INCIDENCE OF SEXUAL ASSAULT IN THE MILITARY

    Senator Murkowski. We've got to get in the system.
    General Horoho. Yes, ma'am.
    Senator Murkowski. General.
    General Siniscalchi. Thank you, ma'am, for your question. 
And we all are concerned about the incidence of sexual assault 
in the military.
    In 2004, General Casey McLean from the Air Force was 
charged to stand up a task force, and did a remarkable amount 
of work to advance training and prevention regarding sexual 
assault. As a result of the work done by the group that she 
led, we moved to restricted and unrestricted reporting of 
sexual assault. There had been numerous years from this initial 
task force where the Air Force focused on various training 
programs, various approaches to reduce sexual assault, and ways 
to advance treatment when sexual assault did occur, and then 
focusing on restricted and unrestricted reporting.
    Now in 2010, there was a Gallup survey that the Air Force 
did to establish a baseline looking at the incidence of sexual 
assault. When the results of that Gallup survey came out, there 
was a Sexual Assault Prevention Council that was stood up, and 
I was asked to represent the medical--surgeon general--on this 
council. So, this group of senior leaders did a very in-depth 
analysis of this Gallup survey, the result. And what we found 
was that once a sexual assault occurs, that across 100 percent 
of our military treatment facilities within the United States, 
overseas, and at deployed locations, that we have the 
appropriate response teams in place, whether they be sexual 
assault forensic examiners, sexual assault trained nurses, or 
sexual assault examiners, that they are either within the 
facilities or that we have memorandums of understanding 
established with a civilian facility to provide that level of 
response.
    And so, the response to a sexual assault, we have made 
tremendous strides. When it occurs, the care--the immediate 
care--we found that one of our longest treatment lines to 
response was at one of our overseas locations, and that 
treatment was still under 2 hours. We have really made great 
strides in treating sexual assault.
    However, what the Gallup report showed is that there still 
is significant improvement that needs to be made when it comes 
to prevention and training. Our working group is now looking at 
ways to enhance training and areas that were identified focused 
on leadership. We are looking at training programs, whether 
they be through, you know, modular training, distance learning 
programs, face-to-face training, to enhance awareness and 
sexual assault training, and then put better programs in place 
that focus on prevention.
    Senator Murkowski. Well, I appreciate what you have 
provided me. If there is any follow-up that you can offer, I 
would be interested in that as well. I often wonder whether the 
same stigma that attaches to just the need for services for 
behavioral health might also attach when it comes to issues as 
they relate to sexual trauma, sexual harassment, because that 
is also part of what we deal with within the definition of 
military sexual trauma. And it is something that as we think 
then as to the treatments beyond, again, it is not just the 
physical, but it is as we deal with those mental health issues 
that may last for considerable periods of time. So, this is an 
issue that I appreciate your attention to and to the surgeon 
generals that I know are all still here. I thank you for that. 
But any efforts that we can make to improve this is greatly 
appreciated.
    With that, I thank the chairman and the vice chairman.
    Chairman Inouye. Thank you very much.

                     ADDITIONAL COMMITTEE QUESTIONS

    General Schoomaker, Admiral Robinson, General Green, 
General Horoho, Admiral Niemyer, and General Siniscalchi, thank 
you very much for your testimony, and, above all, thank you for 
your service to our Nation.
    [The following questions were not asked at the hearing, but 
were submitted to the Department of response subsequent to the 
hearing:]
Questions Submitted to Lieutenant General Eric B. Schoomaker and Major 
                        General Patricia Horoho
            Questions Submitted by Chairman Daniel K. Inouye
         sources of help for servicemembers and their families
    Question. General Schoomaker, are there efforts within the 
Department of Defense and amongst the Surgeons General to coordinate 
their approach on access to psychological healthcare needs and work 
towards one dedicated DOD Web site and phone line for all services?
    Answer. The Defense Centers of Excellence for Psychological Health 
and Traumatic Brain Injury (DCoE) is the Department of Defense (DOD) 
effort to coordinate psychological healthcare needs for servicemembers 
and their families across all services. The DCoE was established to 
assess, validate, and oversee prevention while facilitating the 
resilience, recovery and reintegration of servicemembers and their 
families needing help with psychological health and traumatic brain 
injury. The DCoE Web site (www.dcoe.health.mil) has a wealth of 
information to include information on the 24/7 outreach center. This 
center can be reached via phone at 866-966-1020, email at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ddafb8aeb2a8afbeb8ae9db9beb2b8b2a8a9afb8bcbeb5f3b2afba">[email&#160;protected]</a>, or via live chat.
    Military One Source is a single virtual portal to behavioral health 
(BH) care to meet the needs of all servicemembers and their families, 
including Guard and Reserve, regardless of activation status. This DOD 
level resource serves as an extension of installation services to 
improve access to BH care while reducing stigma.
                          psychological health
    Question. General Schoomaker, there has been an effort to expand 
psychological treatment options across the Army healthcare system. How 
is the Army providing expanded access to these services, both for 
soldiers and their families?
    Answer. In the past year the Army implemented the Comprehensive 
Behavioral Health System of Care Campaign Plan. This initiative is 
nested under the Army Campaign Plan for Health Promotion, Risk 
Reduction and Suicide Prevention. The Comprehensive Behavioral Health 
System of Care is intended to further standardize and optimize the vast 
array of behavioral health policies and procedures across the Medical 
Command to ensure seamless continuity of care to better identify, 
prevent, treat and track behavioral health issues that affect soldiers 
and families during every phase of the Army Force Generation cycle.
    The U.S. Army Medical Command currently supports over 90 behavioral 
health programs. The ``Virtual Behavioral Health program for 
Redeploying Soldiers'' (VBH) was established to maximize behavioral 
health assets and modern communications technology to provide uniform 
contact with all redeploying soldiers. VBH is meant to provide a 
positive experience for soldiers, so that they are more likely to seek 
behavioral health assistance in the future if needed. Additionally, the 
Army is enhancing behavioral health services provided to its Family 
members through Child, Adolescent and Family Assistance Centers and the 
School Behavioral Health Programs.
    In theater there has been a robust Combat and Operational Stress 
Control presence since the beginning of the war, with deployed 
behavioral health assets supporting both Operation Enduring Freedom and 
Operation New Dawn. Beginning in fiscal year 2012, the Army will 
increase behavioral health teams assigned to all its brigade size 
operational units. The increase will provide two behavioral health 
providers and two behavioral health technicians assigned to every 
Brigade Combat Team, Support Brigade and Sustainment Brigade in the 
Active, Reserve and National Guard Army inventory. The process will be 
complete by fiscal year 2017 and increase the total available uniformed 
behavioral health force by over 1,000 additional personnel.
                     patient centered medical homes
    Question. General Schoomaker, the Army's new community-based 
medical homes are located off-post in communities in order to provide 
increased capacity for primary care. How is the Army expanding this 
program and when will it be available service-wide?
    Answer. By the end of fiscal year 2011 the Army will have opened 17 
Community Based Medical Homes (CBMHs) in 11 markets. Two additional 
CBMHs will open in early 2012 bringing the total to 19 clinics in 13 
markets and complete phase 1 of the project. Phase 1 focused on meeting 
the primary care needs of our active duty family members. Once our 
CBMHs are proven to achieve desired results (improved access, 
satisfaction and health, and reduced utilization and cost), the Army 
plans to expand our community based presence. Phase 2 of the project 
will move some primary care services off-post to generate on-post space 
for specialty services and Warrior care. By doing so we will be able to 
better leverage our advanced on-post medical infrastructure, 
consolidate on-post services, and achieve the advantages of CBMHs. 
Phase 2 will begin in late 2012. Phase 3 of the project will explore 
opening additional services such as physical therapy, obstetrics, 
pediatrics, imaging, and refill pharmacy in community-based settings to 
generate positive value for DOD. Phase 3 planning will begin in late 
2011 with clinic expansion possible by 2013.
                       recruitment and retention
    Question. General Horoho, as the United States enters our tenth 
year of intensive combat operations, nurses have been heavily engaged 
in both wartime and humanitarian missions. How has the deployment tempo 
of nurses serving in critical nursing career fields affected the 
ability of the Army to recruit and retain nurses in these particular 
high demand fields?
    Answer. Six month deployments were initiated in summer of 2008 
which has had a positive effect on improving and maintaining the 
resiliency among Army critical care nurses. These deployments are 
better for the nurses and their Families. The critical care nurses as a 
group are very resilient and the majority do well post-deployment. In 
fiscal year 2010, the Army was able to recruit 642 nurses, meeting 105 
percent of its active duty need and 94 percent for the reserve. This 
includes some precision recruiting of experienced critical care nurses.
                            nursing research
    Question. General Horoho, I understand that the Army Nurse Corps 
has realigned nursing research assets, has embraced evidence based 
practice, and is an active participant in the TriService Nursing 
Research Program. How has this impacted nursing research opportunities 
in the Army?
    Answer. Army Nursing follows the American Nurses Association 
research participation guidelines that it is the expectation that 
nurses at every level participate in research activities appropriate to 
their educational preparation. Every nurse is involved in Evidence 
Based Practice (EBP) of which, research is one component.
    We are building a culture in all nurses at all levels that evidence 
drives practice. The goal is to have a core group of champions at all 
levels to sustain the application of research and use of evidence. EBP 
is built into curriculum at every level for Army professional nursing 
courses. This includes EBP and research lectures to the Clinical 
Transition Program, hospital or facility orientation, all specialty 
courses (Intensive Care Unit, Perioperative) and preceptor training. 
Army nursing has the support of Tri-Service Nursing Research Program in 
EBP and research grant camps.
                             nursing issues
    Question. General Horoho, are Army military treatment facilities 
staffed to the actual patient load or to the number of beds?
    Answer. The Army staffs to nursing care hours, the same as both the 
civilian community and Veterans Administration, using a research-based 
workload management system which adjusts for complexity of patient care 
and type of nursing care provider required.
    Question. General Horoho, nurses working in patient care areas 
often voice concerns that there are not enough nurses performing 
patient care duties. What is the ratio of Army nurses delivering 
traditional hands on nursing care to those conducting research, 
performing administrative duties or involved in functions that are not 
directly involved in the delivery of patient care?
    Answer. The ratio of nurses delivering direct patient care vs. 
research and administrative duties is approximately 5:1 or 83 percent.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                           medical community
    Question. General Schoomaker, when the Army made the decision to 
``Grow the Force,'' did it factor the size of its medical community 
into its billet needs? Was military construction for medical facilities 
factored into this process?
    Answer. Yes, the U.S. Army Medical Command (MEDCOM) participates in 
the Total Army Analysis (TAA) which is a phased force structure 
analysis process. Furthermore, MEDCOM employed a multi-factorial 
process in determining specific needs to support Grow the Army that 
included population changes, access to care challenges, network 
availability, the inability to hire civilian staff, medical treatment 
facility productivity and new operational requirements. Military 
construction of medical facilities was factored into the process.
    Question. How has the Army evaluated the capacity of its medical 
community against the current and future structure?
    Answer. The Army evaluates capacity annually using the enrollment 
capacity model (ECM). Inputs to the ECM are current and expected force 
structure, productivity benchmarks, and expert clinical input. The ECM 
allows the Army to project needed or unused capacity for all Army 
military treatment facilities to meet the needs of its beneficiaries.
                             mental health
    Question. Does the Army have enough mental health providers to meet 
soldier and family member needs?
    Answer. While the Army has increased its behavioral health 
inventory by 90 percent since 2007, we still do not have enough 
providers and continue to work toward hiring more. As of February 2011, 
the Army had 4,998 behavioral healthcare providers. The current 
estimated active component Army behavioral health requirement is 6,107 
providers, which represents an unmet requirement of 1,109 providers.
    Question. If there is a gap in mental health providers, what 
efforts are being taken to get more providers in the system?
    Answer. The Army is using numerous mechanisms to recruit and retain 
both civilian and uniformed behavioral health (BH) providers including 
bonuses, scholarships, and an expansion in training programs. The U.S. 
Army Medical Command has increased funding for scholarships and bonuses 
to support expansion of our provider inventory and provided centrally 
funded reimbursement of recruiting, relocation, and retention bonuses 
for civilian BH providers to enhance recruitment of potential 
candidates and retention of staff. The Army expanded the use of the 
Active Duty Health Professions Loan Repayment Program and offers a 
$20,000 accessions bonus for Medical and Dental Corps health 
professions scholarship applicants; has allowed recruitment of legal 
non-resident healthcare personnel to fill critical shortages; used a 
one-time Critical Skills Retention Bonus (CSRB) for social workers and 
BH nurses and the Army Medicine CSRB for clinical psychologists; and 
implemented an officer accessions pilot program that allows older 
healthcare providers to enter the Army, serve 2 years, and return to 
their communities.
    Additionally, in partnership with Fayetteville State University, 
MEDCOM developed a Masters of Social Work program which graduated 19 in 
the first class in 2009. The program has a current capacity of 30 
candidates. This program is fully funded by the Army with all graduates 
incurring a 62 month service obligation. To improve the accession of 
Clinical Psychologists, MEDCOM increased the number of Health 
Professions Scholarship Allocations dedicated to Clinical Psychology 
and the number of seats available in the Clinical Psychology Internship 
Program.
    Question. What programs are being undertaken to address the mental 
health needs of spouses and dependent children?
    Answer. The Army has an extensive array of behavioral health (BH) 
services and resources that have long been available to address the 
strain on military Families. These services include but are not limited 
to routine BH care, Chaplains, Military One Source, Comprehensive 
Soldier Fitness, Psychological School Programs and Army Community 
Service (ACS), Family Assistance for Maintaining Excellence (FAME), and 
the Warrior Resiliency Program (WRP). New initiatives include the 
Comprehensive Behavioral Health System of Care Campaign (CBHSOC) and 
our Child and Family programs available through the Child, Adolescent 
and Family Behavioral Health Office (CAF-BHO).
    The CAF-BHO is the lead office within the Army Medical Command 
(MEDCOM) for integrating and coordinating Child and Family BH programs. 
CAF-BHO promotes optimal military readiness and wellness in Army 
Children and Families through the Child and Family Assistance Centers 
(CAFAC), School Behavioral Health (SBH) and Medical Home BH support. 
Plans are being considered to implement CAFACs and SBHs across the Army 
to meet the goals of the Army's CBHSOC Plan.
    CAFACs provide cost-effective, comprehensive, integrated BH system 
of care to support military Children, their Families, and the Army 
Community throughout the Army Force Generation (ARFORGEN) and Family 
Life Cycle. CAFACs focus on coordinating, integrating, and 
synchronizing available BH and related services on an installation, and 
filling identified service gaps. The programs use a Public Health Model 
continuum of care, focusing on prevention and early intervention to 
promote wellness and resilience, and providing a higher level of BH 
care when needed.
    SBH programs provide cost-effective, comprehensive BH services to 
support military children, their families, and the Army community in 
schools. The overarching goal is to facilitate access to care by 
embedding BH within the school setting, and to provide state of the art 
prevention, evaluation, and treatment through standardization of SBH 
services and programs. Services are directed at improving student 
academic achievement, maximizing wellness and resilience of Army 
children and families, and ultimately promoting optimal military 
readiness.
                         alternative treatment
    Question. What efforts are being taken to provide for alternate 
sources of pain management? Has the Army looked at civilian best 
practices? What are their plans for incorporating them?
    Answer. The U.S. Army Medical Command (MEDCOM) Comprehensive Pain 
Management Campaign Plan (CPMCP) is a phased effort that has been 
working to standardize pain care across MEDCOM, establish 
interdisciplinary pain centers in each Regional Medical Command, de-
emphasizing medication-only treatment of pain, address the challenge of 
poly-pharmacy with improved oversight of those on multiple medications, 
and improve access to non-medication pain treatments--complementary and 
alternative medicine (such as acupuncture, massage therapy, and 
movement therapies such as yoga.
    Expanding the availability of non-medication approaches for pain 
management has been an area of special emphasis and careful execution. 
The Army has continued to reach out to civilian experts who have had 
experience and success in incorporating integrative medicine into their 
medical practices and healthcare systems. Clinical practice and 
research initiatives with Samuelli Institute and Bravewell 
Collaborative are two examples of the MEDCOM's ongoing collaboration 
with civilian experts.
    MEDCOM has also been developing a model for MEDCOM/Veterans 
Affairs/civilian academic medicine pain management consortiums. These 
collaborative efforts have been developed to share clinical expertise, 
best practices, and education/training opportunities across these 
organizations. The first of these consortiums is located in the 
Seattle, Washington area and involves Madigan Army Medical Center, 
Puget Sound Veterans Affairs Hospital, and University of Washington 
Center for Pain Relief.
                          task force treatment
    Question. I am concerned about the increasing amputation rates 
among servicemembers and understand there was a task force recently 
established with experts in trauma, orthopedic surgery, wound patterns 
and analysis and rehabilitation specialists.
     What is the status of this task force?
     What best practices have been identified with treating these 
casualties?
     What do these trends mean for future combat care?
     Is there any applicability to civilian trauma care? Has the Army 
looked at public-private ventures to create more training opportunities 
for state-side medical personnel?
     Have any additional methods been identified to prevent, protect 
and reduce the impact of these injuries?
    Answer. The Dismounted Complex Blast Injury Task Force was 
established in early February 2011 and recently completed an analysis 
of trauma data that addresses many of these concerns. The Task Force 
report is nearly complete and will include recommendations on the best 
clinical practices to care for these soldiers and their families from 
the point of injury and throughout the evacuation, care, and 
rehabilitation continuum. The report will also include recommendations 
for future combat care and protection of our Warriors, and strategies 
for the mitigation of injury severity.
    These injuries represent the extreme of combat injuries, and go far 
beyond the most severe injuries ever encountered in civilian trauma. 
Our surgeons and rehabilitation experts have the most current 
experience in these uncommon injuries. Where we rely upon civilian 
expertise and cooperation is in the area of regenerative medicine 
approaches, skin and muscle reconstruction and associated 
rehabilitation.
                            medical training
    Question. The Army is producing medics with a wealth of experience 
in a variety of medical specialties like trauma care. Has there been 
any effort to align training programs with civilian training 
requirements? If no, then why not?
    Answer. The Army aligns training programs with civilian training 
requirements in areas where civilian requirements match military 
medicine mission. Applying civilian trauma care principles without 
adapting them to the tactical environment is not only frequently 
ineffective but may lead to more casualties. In October 2001, evidence 
based research drove the Army to incorporate the National Registry of 
Emergency Medical Technicians--Basic (EMT-B) as the necessary baseline 
for all students of the U.S. Army Combat Medic course. This program 
emphasizes increased trauma training by incorporating a standardized, 
externally validated civilian curriculum into the Army's program. 
National certification is a Combat Medic (68W) graduation and 
sustainment requirement. The basic skills of the Combat Medic overlap 
with competencies of the EMT-B; however, the Combat Medic has been 
trained to be more uniquely skilled and capable of providing advanced 
combat casualty care. Care in combat is focused not just on injuries 
suffered by the soldier but on the tactical situation surrounding the 
event. The Department of Combat Medic Training holds annual curriculum 
committee meetings to assess training needs, considering civilian 
training requirements, evidence-based research, and lessons learned.
                   acquisition community interaction
    Question. How well does your medical community interact with your 
acquisition community? As different injuries are identified as 
prevalent within your service, what are the procedures to work with the 
acquisition community to acquire equipment, tools, or clothing to limit 
or prevent these injuries?
    Answer. The U.S. Army Medical Department (AMEDD) is fully 
integrated with the Acquisition community under the DOD 5000 process 
which governs and implements policies of the defense acquisition 
system. The U.S. AMEDD Center and School serves as the Combat Developer 
defining requirements and the U.S. Army Medical Research and Materiel 
Command (USAMRMC) serves as the Materiel Developer providing materiel 
solutions. The Commanding General, USAMRMC, serves as the Deputy for 
Medical Systems to the Assistant Secretary of the Army for Acquisition, 
Logistics, and Technology (ASA(ALT)). In this role the Commanding 
General, USAMRMC, is the senior medical officer providing information 
to the ASA(ALT) regarding medical acquisition initiatives and the 
medical implications of non-medical acquisition initiatives.
    There are multiple ways that the needs identified on the 
battlefield are incorporated into the acquisition process to include 
working with the Rapid Equipping Force, the Army Materiel Command's 
Forward Area Support Team--which is deployed in Theater and includes at 
least one medical representative, the Combatant Command Technology 
Assessment and Requirements Analysis, the other services, and the 
operational needs statement process to name a few. In each initiative 
mentioned above, personnel closely affiliated with the acquisition 
community are intimately involved with every step of the process from 
capturing the Warfighter's requirements, through fielding a potential 
solution. Each of these initiatives complements the traditional 
acquisition process and allows the AMEDD to respond to Warfighter 
identified needs in a timely and controlled fashion. The Army utilizes 
the Joint Theater Trauma Registry to analyze the types and trends of 
injuries and the causes to inform the developers on improving 
operational approaches and materiel solutions.
                                 ______
                                 
               Questions Submitted by Senator Tim Johnson
                        electronic health record
    Question. Secretary Gates and Secretary Shinseki recently announced 
that the Department of Defense and the Department of Veterans Affairs 
will develop a joint electronic health record. On April 1, 2011, the 
Department of Veterans Affairs also announced that it will form an open 
architecture community around the VA's electronic health record, VISTA. 
Are these the same thing or will each Department still keep its own 
version of VISTA and AHLTA?
    Answer. Yes, these are the same. Secretary Gates and Secretary 
Shinseki met in March and agreed to a joint electronic health record 
called iEHR (integrated electronic health record) that will replace 
VISTA and AHLTA.
    Question. Do the Departments envision the joint electronic health 
record replacing VISTA and AHLTA?
    Answer. Yes, Secretary Gates and Secretary Shinseki met in March 
and agreed to a joint electronic health record called iEHR (integrated 
electronic health record) that will replace VISTA and AHLTA.
    Question. When will the Departments release details and a 
comprehensive plan forward on the joint electronic health record?
    Answer. The two Departments will meet over the coming months to 
develop a comprehensive implementation plan. Once complete, we envision 
the plan and details will be released by the Departments.
                                 ______
                                 
       Questions Submitted to Vice Admiral Adam M. Robinson, Jr.
            Questions Submitted by Chairman Daniel K. Inouye
         sources of help for servicemembers and their families
    Question. Each service has taken a different approach to address 
the psychological health needs of their service members and their 
families. In addition, the Department of Defense and the Tricare 
contractors have also instituted programs to help provide this type of 
care. Rather than streamlining those services, new Web sites and phone 
lines are created. On top of those efforts, the private sector, the 
Department of Veteran's Affairs, and non-profits are all trying to 
address these issues. This is all well intended but more often than not 
it is challenging for servicemembers and family members to guide their 
way through a maze of avenues to seek for sources to help.
    On one Navy pamphlet to combat operational stress there are 16 
different Web sites and phone numbers and on another there eight. Each 
one has very little information associated with them, forcing the 
individual to access each Web site to decipher if that meets their 
needs. One Air Force pamphlet has 13 and on one Army pamphlet there are 
19. People seeking help should not have to go through a maze like this.
    Admiral Robinson, as I mentioned in my opening statement it can be 
quite confusing for a servicemember who is seeking help to deal with 
combat stress or other psychological health needs. On one Navy pamphlet 
provided to me there is a list of 16 different Web sites or phone 
numbers for sources of help. It takes so much to get someone to seek 
the help they need, we don't want to discourage them by making it 
difficult to find the appropriate help. Could you explain how you are 
attempting to consolidate these efforts and make the process less 
confusing for those that need it?
    Answer. The Navy is committed to fostering a culture that promotes 
resilience and wellness, and that empowers leaders to ensure the health 
and readiness of service members and their families. We concur that 
there have been a proliferation of services available to service men 
and women affected by post traumatic stress and traumatic brain injury. 
We must balance the desire to provide service members with options; 
understanding that one size does not fit all, with the possibility of 
creating confusion by providing too many alternatives.
    To address this issue we are working with the Naval Center for 
Combat and Operational Stress Control (NCCOSC) to develop consolidated 
strategic communications for psychological health initiatives across 
the Department of the Navy. Similarly we are working with the Defense 
Center of Excellence to consolidate resources and Web sites supported 
by the Military Health System and Department of Defense.
    Furthermore, across DOD strides are being taken to address 
effecencies within the multiple programs offered to our wounded, ill 
and injured service members. The Department of Defense (DOD) Task Force 
on the Care, Management and Transition of Recovering Wounded Ill and 
Injured Members of the Armed Forces, also known as the Recovering 
Warrior Task Force (RWTF) provides DOD with advice and recommendations 
on matters related to the effectiveness of the policies and programs 
developed and implemented by DOD, and by each of the military services 
in caring for our wounded, ill and injured service members. The goal of 
this task for is to look at best practices and various ways in which 
DOD can more effectively address matters relating to the care, 
management, and transition of these warriors.
                        recruiting and retention
    Question. The Air Force is short surgeons, family practitioners, 
clinical psychologists, and technicians. In addition to compensation, 
the Air Force identifies the lengthy hiring process for both officers 
and civil service health professionals as a top recruiting challenge.
    The Army faces personnel shortages in numerous healthcare 
specialties including: neurosurgeons, nurse anesthetists, behavioral 
health experts, physical therapists, oral surgeons, and others. Some of 
these areas are staffed at less than 50 percent of need. The Army is 
seeking to increase compensation for critical skills to reduce the gap 
between civilian and military pay, as well as leverage its Health 
Professions Scholarship Program.
    Overall, the Navy has somewhat improved recruitment and retention 
of medical officers over the last 3 years. The greatest challenges 
remain in the areas of general surgery, family medicine, oral surgeons, 
general dentists, and psychiatry. The problem is more severe in the 
reserve component.
    Admiral Robinson, some medical specialties are severely 
understaffed, particularly in the reserve component. For example, less 
than one-quarter of critical care medicine and cardiology positions are 
filled. How is the Navy ensuring that it has the number of reserve 
physicians it needs?
    Answer. Direct appointment recruiting of physicians and dentists 
remains a challenge, primarily because these healthcare professionals 
have well-established medical practices and are very well compensated 
in the civilian market. Interrupting their civilian medical careers is 
often personally and financially unattractive to many private medical 
providers. Additionally, retention has improved in the active forces, 
reducing Navy Veterans available for Reserve appointments.
    We are developing incentives within budgetary constraints to target 
specific communities that are, and will remain, critical to our 
mission. A credible recruiting bonus is critical and remains the 
primary incentive to attracting these professionals.
    We have collaborated with Navy Recruiting Command at a recently 
held Medical Stakeholders Conference and have developed a Medical 
Professionals Task Force Charter group in an effort to improve access 
and to collaboratively market targeted specialties to achieve 
recruiting goals. Working closely with Navy Recruiting Command, we have 
also restructured the Training Medical Specialties Drilling option (one 
of the most successful Physician recruiting options) to ensure the 
program is meeting the needs of Navy Medicine as well as attracting 
candidates.
    Despite these Reserve shortages, Navy Medicine continues to meet 
its global commitments in support of all contingency operations.
                           military medicine
    Question. Since fiscal year 2010, the Department of Defense (DOD) 
has requested funds for the advancement of military medicine. Prior to 
that, the majority of these funds were provided to the Department 
through earmarks and nationally competed programs added to the Defense 
budget by Congress. In the fiscal year 2012 budget request the 
Department is requesting $438 million through the Defense Health 
Program and the Defense Advanced Research Projects Agency (DARPA) to 
further these efforts.
    Admiral Robinson, we are currently investing in medical research 
applicable to the needs of our current warfighter but what do we know 
about the issues we might face in the future and how are we attempting 
to stay ahead of that curve?
    Answer. In my testimony, I outlined a strategic vision for Navy 
Medicine that keeps us as a world leader in patient and family centered 
medical care. We manage the spectrum of current needs, while ensuring 
that the urgencies of the present do not diminish the intensity of our 
focus on the future. That focus is a critical element of our RDT&E and 
medical education vision and mission.
    One-third of our research portfolio of over 1,200 individual 
research studies is focused on the delivery of technologies to the 
Warfighter in the near-term through advanced development. Another third 
targets the next 10 to 20 years (technology development), with the 
balance addressing technology innovation for 20 to 50 years out (basic 
research). Where appropriate, this research is executed both at our 
research and development facilities in CONUS and overseas as well as in 
our Medical Treatment Facilities (MTF) by our experienced clinicians 
and our most promising graduate trainees, where appropriate. Navy 
Medicine demonstrates excellence in research in each domain. While our 
research focuses on Navy and Marine Corps requirements, our efforts 
complement and are closely coordinated with our sister services, the 
Defense Health Program, and DARPA.
    We are expanding the envelope of the possible, providing 
technologies, procedures, and practices that promote reintegration of 
our wounded warriors into productive roles in the services and in 
society. We will continue to expand on our progress in the areas of 
rehabilitative and regenerative medicine. The revolutionary advances we 
have made in wound management are a prelude to upcoming developments in 
prosthetics, transplantation, and regeneration.
    We recognize the critical role personalized medicine will play in 
maintaining the capabilities of our Fleet and Marine Forces. With small 
unit, agile forces on the ground and reduced manned ships at sea, the 
importance of each individual is magnified. Our progress in 
individualized medical care, personalized health maintenance and 
promotion, and enhanced individual and unit readiness will play a 
critical role in the future effectiveness of the DOD.
    History tells us that during peace-time and during armed conflict, 
more of our service members are rendered less than fully operational by 
disease than by bullets and bombs. As we evolve our global military 
presence, Navy Medicine is enhancing our capabilities through global 
health initiatives with our international partners and through a global 
presence. We are at the forward edge of battle in combating emerging 
diseases and solving health problems worldwide.
    Every day, the CONUS and OCONUS Navy Medical Research labs and the 
MTF-based Clinical Investigation Programs conduct cutting edge research 
to answer issues, both current and projected to arise. These facilities 
are necessarily lean and our researchers are few in number, but they 
have made significant contributions to the men and women who wear the 
cloth of our Nation and for the world. We will continue to develop 
innovative technologies to save the life and limb and to expand the 
operational envelope of our Navy and Marine Corps Warfighters.
                          psychological health
    Question. There has been a significant expansion of psychological 
healthcare across the military health system. This includes increasing 
the number of specialists in psychiatry, psychology, mental health, and 
social work, to provide more services at a greater number of locations. 
Psychological treatment options are also being integrated into primary 
care to provide more comprehensive and holistic support.
    Early identification and treatment of psychological health issues 
can accelerate healing and improve long-term outcomes. This is 
supported by numerous campaigns to train service members to identify 
warning signs of excessive stress, suicidal tendencies, depression, or 
other mental health concerns. Given the stress of combat operations and 
repeated deployments, the services are striving to place more 
psychological health providers in theater, as well as continued 
screening for symptoms long after service members return.
    Admiral Robinson, the services are seeking to provide early 
identification and treatment of psychological health needs in theater 
by deploying additional psychological health professionals to forward 
operating bases. Since the Marines are sometimes located in remote 
locations with limited access to even basic services, how can the Navy 
ensure this care reaches them?
    Answer. Within the Marine Corps, we continue to see the 
effectiveness of the Operational Stress Control and Readiness (OSCAR) 
program, as well as the OSCAR Extender program. OSCAR embeds full-time 
mental health personnel with deploying Marines and uses existing 
medical and chaplain personnel as OSCAR Extenders together with trained 
senior and junior Marines as mentors to provide support at all levels 
to reduce stigma and break down barriers to seeking help. Embedded 
mental health providers can provide coordinated, comprehensive primary 
and secondary prevention efforts throughout the deployment cycle, 
focusing on resilience training, stress reduction efforts, and when 
necessary, timely access to a known provider with reduced stigma 
associated with mental health intervention. Our priority remains 
ensuring we have the service and support capabilities for prevention 
and early intervention available where and when it is needed. OSCAR is 
allowing us to make progress in this important area.
                     patient centered medical homes
    Question. The fiscal year 2012 budget request supports the phased 
implementation of the Patient Centered Medical Home concept for 
delivering primary care for all three services. This concept, 
originating in the private sector, seeks to improve quality of care and 
the patient experience by integrating primary care into a comprehensive 
service. Patients will have an ongoing relationship with a personal 
physician leading a team of professionals that collectively takes 
responsibility for the individual's or family's healthcare needs.
    The Army is beginning with Community Based Medical Homes, which are 
Army-run clinics located off-post. They function as extensions of the 
Army hospital and are staffed by civil servants. Seventeen are 
currently underway in communities which needed increased access to 
primary care, including one in Hawaii.
    The Air Force was the first service to implement the concept, which 
it termed the Family Health Initiative, beginning in 2008. It will soon 
be expanding the concept across all the clinics service-wide. The Navy 
is also ramping up its program to convert its facilities, started in 
May 2010, called Medical Home Port. Over 200,000 sailors and family 
members are already enrolled.
    Admiral Robinson, as the Navy creates additional Medical Home 
Ports, how will this new reorganization lead to more comprehensive 
service to patients and better continuity of care?
    Answer. Medical Home Port is Navy Medicine's Patient-Centered 
Medical Home (PCMH) model, an important initiative that will 
significantly impact how we provide care to our beneficiaries. In 
alignment with my strategic goal for patient and family centered care, 
Medical Home Port emphasizes team-based, comprehensive care and focuses 
on the relationship between the patient, their provider and the 
healthcare team. The Medical Home Port team is responsible for managing 
all healthcare for empanelled patients, including specialist referrals 
when needed. Patients see familiar faces with every visit, assuring 
continuity of care. Appointments and tests get scheduled promptly and 
care is delivered face-to-face or when appropriate, using secure 
electronic communication.
    It is important to realize that Medical Home Port (MHP) is not 
brick and mortar; but rather a philosophy and commitment as to how you 
deliver the highest quality care. A critical success factor is 
leveraging all our providers, and supporting information technology 
systems, into a cohesive team that will not only provide primary care, 
but integrate specialty care as well. We continue to move forward with 
the phased implementation of Medical Home Port at our medical centers 
and family medicine teaching hospitals, and initial response from our 
patients is very encouraging. To date, there are 68 MHP teams across 
seven Navy Medical Treatment Facilities with over 225,000 beneficiaries 
enrolled.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                        medical force structure
    Question. Has the Navy evaluated the capacity of its medical 
community against the current and future structure?
    Answer. Navy Medicine evaluates annually and as needed our current 
and future total force structure in response to changing requirements 
to ensure that the correct mix of medical, dental, medical service, 
nurse and hospital corps professions are available to support our 
Nation's needs. Included in these analyses are our total force of 
active, reserve, civilian and contract professional to meet the 
operational and beneficiary missions.
                     mental health force structure
    Question. Does the Navy have enough mental health providers to meet 
soldier and dependent needs? If there is a gap in mental health 
providers, what efforts are being taken to get more providers in the 
system? What programs are being undertaken to address the mental health 
needs of spouses and dependent children?
    Answer. We are committed to improving the psychological health, 
resiliency and well-being of our Sailors, Marines and their family 
members and ensuring they have access to the programs and services they 
need. We recognize that shortfalls within the market of qualified 
mental health providers has led to challenges in contracting and 
filling provider and support staff positions; however, recruitment and 
retention of uniformed personnel have improved. Current Navy inventory 
for mental health professionals (February 2011) is as follows:
  --Psychiatrist: 73 percent--projected to be at 86 percent end of 
        fiscal year 2012.
  --Psychologist: 75 percent--projected to be at 93 percent end of 
        fiscal year 2012.
  --Clinical Social Worker: 48 percent--projected to be at 44 percent 
        end of fiscal year 2012. This is due to significant billet 
        growth, from 35 billets in fiscal year 2010 to 86 billets in 
        fiscal year 2012.
  --Mental Health Nurse Practitioner: 57 percent--projected to be 100 
        percent end of fiscal year 2012.
  --Mental Health Nurse: 111 percent.
    Mental Health Professional recruiting remains a top priority. Navy 
uses numerous accession and retention bonuses to attract and retain 
mental health professionals. Medical Special and Incentive Pays are 
critical to attracting and retaining Navy medicine professional staff 
inventory.
  --Psychiatrists.--In fiscal year 2011 there is a $272,000 critical 
        wartime skills accession bonus available to Psychiatrists 
        entering the Navy. In addition, up to $63,000/year is available 
        through Incentive Special Pay/Multi-Year Special Pay for 
        current Navy psychiatrists who qualify.
  --Psychologists & Clinical Social Workers.--The Accession Health 
        Professionals Loan Repayment Program pays out up to $40,000 to 
        qualified licensed clinical social workers up to $80,000 to 
        clinical psychologists. The Health Professions Scholarship 
        Program is available to attract and train clinical 
        psychologists by paying for tuition, books, fees and a stipend. 
        The Health Services Collegiate Program is available to attract 
        and train licensed clinical social workers paying E6 salary and 
        benefits while candidates are in training. In addition, a 
        clinical psychologist accession bonus pays up to $60,000 for a 
        4 year obligation, and clinical psychologist incentive pay is 
        $5,000/year. The clinical psychologist retention bonus pays up 
        to $80,000 for a 4 year obligation, and the licensed clinical 
        social worker accession bonus pays up to $30,000 for a 4 year 
        obligation. Board certification pay of $6,000/year for both 
        specialties is also available to these mental health 
        professionals. A retention bonus for clinical social workers 
        has recently been submitted and is pending review and approval.
  --Mental Health Nurse Practitioner & Mental Health Nurse.--In fiscal 
        year 2011 there is up to $30,000 available through the Nurse 
        Corps accession bonus for nurses entering the Navy. In addition 
        up to $20,000/year is available through Registered Nurse 
        Incentive Special Pay.
    When our Sailors and Marines deploy, families are their foothold. 
Family readiness is force readiness and the physical, mental, 
emotional, spiritual health and fitness of each individual is critical 
to maintaining an effective fighting force. A vital aspect of caring 
for our service members is also caring for their families. FOCUS is a 
family centered resiliency training program based on evidenced-based 
interventions that enhances understanding, psychological health and 
developmental outcomes for highly stressed children and families. FOCUS 
has been adapted for military families facing multiple deployments, 
combat operational stress, and physical injuries in a family member. 
The program provides community outreach and education, resiliency skill 
building workshops and at the center of the program a 8-week, skill-
based, trainer-led intervention that addresses difficulties that 
families may have when facing the challenges of multiple deployments 
and parental combat related psychological and physical health problems. 
It has demonstrated that a strength-based approach to building child 
and family resiliency skills is well received by servicemembers and 
their family members. Notably, program participation has resulted in 
statistically significant increases in family and child positive coping 
and significant reductions in parent and child distress over time, 
suggesting longer-term benefits for military family wellness. To date 
over 200,000 Service members, families and community providers have 
received FOCUS services.
    In addition to FOCUS, the Reserve Psychological Health Outreach 
Program (RPHOP) identifies Navy and Marine Corps Reservists and their 
families who may be at risk for stress injuries and provides outreach, 
support and resources to assist with issue resolution and psychological 
resilience. An effective tool at the RPHOP Coordinator's disposal is 
the Returning Warrior Workshop (RWW), a 2-day weekend program designed 
specifically to support the reintegration of returning Reservists and 
their families following mobilization.
    The Naval Special Warfare (NSW) Family Resiliency Enterprise (FRE) 
program was designed toward enhancing the performance and readiness of 
the force by increasing resilience of the service member and his or her 
family--and thus the team, squadron, group and overall NSW community. 
To date, each NSW SEAL Team has conducted seven or more consecutive 
combat deployments resulting in cumulative exposure to wartime events 
and extensive familial separations. The goal has been to build 
resilience by collecting baseline information (seven main areas: 
psychological, neuropsychological, physiological, relationships, 
spirituality, finances, and lifestyle) about service members and their 
spouses/significant others; identifying areas of concern and providing 
training as indicated; and providing forums (overnight retreats) for 
family members to network to build support during deployments, as well 
as celebrate return from deployment and facilitate reintegration. To 
date, about 5,500 participants have attended NSW FRE retreats.
                       medical training programs
    Question. The Navy is producing medics with a wealth of experience 
in a variety of medical specialties like trauma care. Has there been 
any effort to align training programs with civilian training 
requirements? If no, then why not?
    Answer. Yes, our enlisted training programs are aligned and often 
exceed civilian training programs. Similar to civilian medical 
training, military medical training is nationally accredited by the 
American Council on Education and the Council on Occupational 
Education, representing higher education and quality for the U.S. 
Government. The academic programs for enlisted medic training are under 
the auspices of the National License Practical Nursing guidelines for 
our basic hospital course and the National Emergency Medical Technical 
for field training.
    The Navy Credentialing Opportunity Online (COOL) program provides 
expanded opportunities to earn civilian occupational licenses and 
certifications. The program promotes recruiting and retention and 
further enhances the Sailor's ability to make a smooth transition to 
the civilian workforce. The Navy's credentialing program has two key 
components--dissemination of information on civilian licensure and 
certification opportunities and payment of credentialing exam fees.
    Community College of Air Force (CCAF) is a multi-campus community 
college accredited through the Southern Association of Colleges and 
awards course college credits to the enlisted personnel of the Air 
Force (AF) Medical Program. Navy corpsman participating in consolidated 
courses with the Air Force (AF), such as those offered at Medical 
Enlisted Training Campus (METC) in San Antonio, Texas or Sheppard AFB, 
are awarded college credits for training (i. e. emergency medicine, 
biomed tech, surgical tech, radiology, etc.) in both hospital corpsman 
basic and technical medical course work.
    In addition, Navy Medicine is formally affiliated with the LA 
County Trauma Center, California, approved by American College of 
Surgeons and sends medical teams (nurses, physicians and corpsman) to 
train in level 1 trauma care. This training opportunity allows for 
integration of knowledge and skill performances of civilian and 
military working side by side in trauma teams.
                      medical acquisition programs
    Question. How well does your medical community interact with your 
acquisition community? As different injuries are identified as 
prevalent within your service, what are the procedures to work with the 
acquisition community to acquire equipment, tools, or clothing to limit 
or prevent these injuries?
    Answer. Let me share how various aspects of Navy Medicine work 
together to improve medical care for Wounded Warriors.
    In the scenario you describe, surgeons at a forward operating base 
would note a change in the type or severity of injuries being treated. 
The change might be caused by new weapons or tactics employed by the 
enemy. The surgeons at the forward operating base would describe the 
new injuries and define a new medical capability needed to meet the 
threat. In this scenario, this information would go to the Navy 
Medicine Specialty Leader for Surgery. This senior surgeon represents 
the entire surgical community to Navy Medicine at large. There are 
specialty leaders for all aspects of clinical care.
    The Surgical Specialty Leader validates the new capability that is 
needed and determines whether the new capability can be satisfied by 
using a new surgical protocol or through the use of new or additional 
equipment not currently in theater. If the new capability can be 
achieved through the use of new surgical protocols, the Surgical 
Specialty Leader initiates the change in procedure.
    If the Surgical Specialty Leader determines new or additional 
medical equipment is needed, Navy Medicine's clinical engineers will 
write the specifications for the new equipment and our acquisition 
office will purchase it. These three groups--specialty leaders, 
clinical engineers, and acquisition professionals--have established 
procedures to validate, define, and procure medical supplies and 
equipment for our forward deployed providers.
    If the Surgical Specialty Leader determines that the new and needed 
medical capability cannot be satisfied using existing equipment or 
techniques, then the requirement is turned over to the Navy Medicine 
Research Center. These skilled and dedicated researchers work with 
colleagues in academia and industry to put new medical capability into 
the hands of our clinicians.
                                 ______
                                 
               Questions Submitted by Senator Tim Johnson
                       electronic health records
    Question. Secretary Gates and Secretary Shinseki recently announced 
that the Department of Defense and the Department of Veterans Affairs 
will develop a joint electronic health record. On April 1, 2011, the 
Department of Veterans Affairs also announced that it will form an open 
architecture community around the VA's electronic health record, VISTA. 
Are these the same thing or will each Department still keep its own 
version of VISTA and AHLTA?
    Do the Departments envision the joint electronic health record 
(EHR) replacing VISTA and AHLTA?
    When will the Departments release details and a comprehensive plan 
forward on the joint electronic health record?
    Answer. Department of Defense (DOD) is leading the way forward on 
Electronic Health Records (EHR) and Navy Medicine is providing support 
for this mission.
    DOD and Veterans Affairs (VA) will continue to synchronize EHR 
planning activities for a joint approach to EHR modernization. The 
Departments have already identified many synergies and common business 
processes, including common data standards and data center 
consolidation, common clinical applications, and a common user 
interface. The VA has released a request For proposal to evaluate open 
source management options, and DOD is working with the VA to identify 
opportunities to contribute and participate in the open source 
collaboration. As the open source communities mature, DOD and VA will 
continue to analyze open source components that fit the architectural 
construct for use in the future EHR.
    The following excerpt from the April 6, 2011 testimony of Ms. Beth 
McGrath, DOD Deputy Chief Management Officer, before the House Armed 
Services Subcommittee on Emerging Threats and Capabilities additionally 
supports the commitment by both the DOD and VA to develop a joint 
approach to EHR modernization.

    ``In the field of health IT, DOD and the Department of Veterans 
Affairs (VA) have committed to a full and seamless electronic exchange 
and record portability of healthcare information in a secure and 
private format, wherever needed, to ensure the highest quality and 
effective delivery of healthcare services for our military 
servicemembers and Veterans, from their accession into service and 
throughout the rest of their lives. To this end, the Departments are 
collaborating on a common framework and approach to modernize our 
Electronic Health Record (EHR) applications. On March 17, the Secretary 
of Defense and Secretary of Veterans Affairs affirmed we will continue 
to synchronize our EHR planning activities to accommodate the rapid 
evolution of healthcare practices and data sharing needs, and to speed 
fielding of new capabilities. The Departments have already identified 
many synergies and common business processes, including common data 
standards and data center consolidation, common clinical applications 
and a common user interface.''
                      vision center of excellence
    Question. As Chairman of the Military Construction and VA 
Appropriations Subcommittee, I have closely followed the development of 
the Vision Center of Excellence and pressed for better cooperation 
between the Department of Defense and the VA. I have been frustrated 
with the delays in funding, full military staffing, and operational 
support for this important project.
    Admiral Robinson, what are the Navy's budgetary plans for fiscal 
year 2012-fiscal year 2015 for the Vision Center of Excellence? Where 
is the Navy currently at with staffing the Vision Center of Excellence? 
What staffing levels--military, Federal, and contractor support--are 
necessary to be fully operational and when do you anticipate reaching 
that point?
    Answer. The Joint DOD/VA Vision Center of Excellence (VCE) is a 
demonstration of a high level of cooperation between the DOD and VA. It 
continues to advance the coordination of vision care and research 
across both Departments and the VCE's work on the Joint Defense and 
Veterans Eye Injury and Vision Registry is an excellent example of how 
the two Departments can integrate processes. Further, the VCE has an 
integrated staff and is funded by both Departments.
    Oversight and direction of the VCE is accomplished jointly, 
specifically by the VA/DOD Health Executive Council (HEC) and the Joint 
Executive Council (JEC). The VCE is included in the VA/DOD JEC Joint 
Strategic Plan reported to Congress annually.
    The Navy has operational authority for the VCE, and the Assistant 
Secretary of Defense for Health Affairs has funding responsibility. The 
Navy is developing a transition plan for the transfer of funding and 
staffing responsibility from Health Affairs to the Navy.
    My office works closely with Health Affairs to adequately fund the 
VCE. Most of the leadership is in place now and additional key staff 
will be on board in fiscal year 2012. The VCE is funded at $17.9 
million in fiscal year 2012, which will support requisite operations, 
registry development, contractors, and DOD civilians (an increase of 18 
from the current 6 DOD civilian staff). Additionally, there are a total 
of 13 Federal staff members at the VCE, including 5 VA and 2 military. 
Our estimate is 111 staff will be required to achieve full operating 
capability by fiscal year 2017. We will continue to work with the VCE 
the requirements, as well as continue to evaluate all of our 
organizations to support DOD efficiency initiatives.
             joint veterans eye injury and vision registry
    Question. Admiral Robinson, what is the status of the 
implementation of the Joint Defense Veterans Eye Injury and Vision 
Registry? How soon will this become fully operational? Does the Navy 
have the funding necessary for full implementation?
    Answer. Development of the Defense and Veterans Eye Injury and 
Vision Registry is progressing very well and is 6 months ahead of 
schedule. During the first year of operations of the Vision Registry, 
the Joint Department of Defense (DOD) and Department of Veterans 
Affairs (VA) Vision Center of Excellence (VCE) will validate the 
registry capabilities; collect and enter ocular data of Service Members 
and Veterans with ocular injuries into the registry; and identify 
future registry requirements and capabilities. We expect the Vision 
Registry to be fully operational by first quarter fiscal year 2013.
    The VCE is developing the Vision Registry to be a dynamic tool. As 
the first central repository of DOD and VA clinical ocular related 
data, the Vision Registry will provide the quantitative data necessary 
to perform longitudinal analyses for the development of preventative 
measures and for recognition of best practices for treatment and 
rehabilitation of injuries and disorders of the visual system.
    Personnel and operational costs for the Vision Registry sustainment 
and continued development are included in the proposed VCE fiscal year 
2013-17 POM.
                                 ______
                                 
       Questions Submitted to Lieutenant General Charles B. Green
            Questions Submitted by Chairman Daniel K. Inouye
         sources of help for servicemembers and their families
    Question. General Green, what role do you see the private sector 
playing in your efforts to reach out to servicemembers and their 
families to provide access to psychological health services?
    Each Service has taken a different approach to address the 
psychological health needs of their servicemembers and their families. 
In addition, the Department of Defense and the Tricare contractors have 
also instituted programs to help provide this type of care. Rather than 
streamlining those services, new Web sites and phone lines are created. 
On top of those efforts, the private sector, the Department of 
Veteran's Affairs, and non-profits are all trying to address these 
issues. This is all well intended but more often than not it is 
challenging for servicemembers and family members to guide their way 
through a maze of avenues to seek for sources to help.
    On one Navy pamphlet to combat operational stress there are 16 
different Web sites and phone numbers and on another there eight. Each 
one has very little information associated with them, forcing the 
individual to access each Web site to decipher if that meets their 
needs. One Air Force pamphlet has 13 and on one Army pamphlet there are 
19. People seeking help should not have to go through a maze like this.
    Answer. Private sector organizations and individual providers play 
a critical role in the delivery of psychological health services to 
service members and families. TRICARE providers, community resources 
and non-medical counseling options supplement the direct military 
medical care system. They also offer options which may be perceived as 
bearing lower stigma for military families.
    In the Air Force, most formal mental healthcare for family members 
is provided by TRICARE providers or through other community agencies. 
Unfortunately, anecdotal reports from geographically remote bases 
particularly indicate that child and adolescent mental health services 
may be hard to find. There is a nation-wide shortage of qualified 
mental health providers. This situation becomes more problematic in 
remote locations or where there are low numbers of providers accepting 
TRICARE.
    While not providing formal mental healthcare, Military One Source 
counselors available through on-line or toll-free call referral, or 
Military and family life consultants and child and youth behavioral 
consultants working out of base Airman and Family Readiness Centers 
provide confidential, non-medical, short term counseling services to 
address issues common in the military community, with no medical 
documentation.
    Case management and referral management occurs both through private 
and military offices. Medical treatment facilities assist in locating 
specialty care for their enrolled patients and TRICARE regional 
contractors offer this service as well. Additionally, there are 
numerous private and local advocacy groups and offices that aid with 
access to services. The Defense Veterans Brain Injury Center provides 
coordination of care for individuals suffering from a Traumatic Brain 
Injury (TBI).
    Indeed there are many Web sites, agencies and advocacy groups 
providing resources for individuals and families with needs in the area 
of mental health. There are DOD/VA workgroups in place which are 
working to further consolidate and simplify these resources and 
establish one site for patients to seek medical information regarding 
psychological health. The breadth of resources is reflective of the 
wide array of topics being addressed: from type of problem (post 
traumatic stress disorder, depression, suicide, deployment related 
issues, TBI) to demographic or beneficiary issues (Guard/Reserve, 
Active Duty, family/individual, and age). Fortunately, in the military 
medical system, each patient has his/her own primary care physician as 
the first and best advocate to assist in the management of services.
    Because of the importance of the relationship with a primary care 
manager, the Air Force is placing behavioral health providers in 
primary care clinics. Where this is in place, patients see mental 
health providers for targeted, brief care in the primary care clinic 
avoiding the stigma of making a mental health clinic appointment. When 
further care is required the provider can refer the patient to the 
community to see a private sector or TRICARE provider or other 
appropriate resources.
                           military medicine
    Question. General Green, a key element to the improvement of care 
is how fast we are able to transport servicemembers from the point of 
injury to the care they need. Can you detail some of the advancements 
in our aeromedical evacuations and what areas you are researching to 
further these efforts?
    Since fiscal year 2010, the Department of Defense has requested 
funds for the advancement of military medicine. Prior to that, the 
majority of these funds were provided to the Department through 
earmarks and nationally competed programs added to the Defense budget 
by Congress. In the fiscal year 2012 budget request the Department is 
requesting $438 million through the Defense Health Program and the 
Defense Advanced Research Projects Agency to further these efforts.
    Answer. Evolutionary advancements in technology, and improvements 
in clinical interventions enable movement of the most severely injured 
or ill patients. Recent technology advancements introduced by the Air 
Force include: advanced ventilators, video assisted intubation devices, 
improved aircraft configuration equipment for litter patients, improved 
aircraft lighting systems, an extracorporeal membrane oxygenation 
device for adult patients, and improved virtual training for medical 
personnel to name a few.
    Aeromedical evacuation today is done flawlessly but must always be 
focused on continuous improvement to care for ever more complex 
patients. Based on operational outcomes, effects, and well defined 
capability gaps, the major focus areas for enroute care research are: 
patient stabilization; patient preparation for movement; patient 
staging; impacts of in-transit environment on patient physiology and 
medical crew/attendant performance; occupational concerns for medical 
staff; human factors and patient safety; medical personnel training and 
equipment; environmental health issues; infectious disease and cabin 
infection control; burn and pain management; resuscitation; life saving 
interventions; nutrition; alternative medicine; and a wide variety of 
organ system effects (neurologic, psychologic, orthopedic, pulmonary, 
cardiovascular, gastrointestinal, renal, and respiratory). Air Force, 
Army, Navy, public and private academia, and industry partners are 
engaged in research in these focus areas.
                     patient centered medical homes
    Question. General Green, the Air Force continues to transition its 
clinics to the patient centered medical home model. This concept 
organizes health professionals into teams able to provide more 
comprehensive primary care. Each patient's personal physician leads the 
team and serves as a continuous point of contact for care. Has the Air 
Force seen improvements in patient satisfaction or cost control with 
this initiative?
    The fiscal year 2012 budget request supports the phased 
implementation the Patient Centered Medical Home concept for delivering 
primary care for all three services. This concept, originating in the 
private sector, seeks to improve quality of care and the patient 
experience by integrating primary care into a comprehensive service. 
Patients will have an ongoing relationship with a personal physician 
leading a team of professionals that collectively takes responsibility 
for the individual's or family's healthcare needs.
    The Army is beginning with community based medical homes, which are 
Army-run clinics located off-post. They function as extensions of the 
Army hospital and are staffed by civil servants. Seventeen are 
currently underway in communities which needed increased access to 
primary care, including one in Hawaii.
    The Air Force was the first service to implement the concept, which 
it termed the Family Health Initiative, beginning in 2008. It will soon 
be expanding the concept across all the clinics service-wide. The Navy 
is also ramping up its program to convert its facilities, started in 
May 2010, called Medical Home Port. Over 200,000 sailors and family 
members are already enrolled.
    Answer. The Air Force Medical Service has seen improvement in 
patient satisfaction and access at locations that have implemented FHI. 
Early data from the RAND (Research and Development) evaluation of the 
Air Force Medical Home Model (RPN PA06R-R190) study show a 1.3 percent 
increase in patient satisfaction. Additionally, continuity between 
patients and their providers is on the rise changing from an average of 
40 percent of patients seen by their assigned clinical to 60 percent 
following FHI implementation. Continuity with the assigned team is even 
higher averaging greater than 80 percent of the time seeing either the 
physician or the extender on the health team. A secondary effect of 
this improved continuity is decreased demand for acute appointments and 
improved access to care. Patients have shown less need for follow-up 
appointments as their assigned providers are able to provide more 
comprehensive care to patients they know, driving down the total number 
of overall healthcare visits. Provider satisfaction with this model of 
care has also led to a 5 percent reduction in attrition of our family 
physicians.
    We are also monitoring Emergency Department (ED)/Urgent Care Clinic 
utilization to see if the increased continuity can reduce high cost ED 
visits. As continuity increases patients learn that visits to their 
assigned provider, who are familiar with their medical history, offer 
advantages over convenience of acute care clinics. The roll out of 
Relay Health secure patient messaging over the next year will allow 
simpler communication with patients electronically and further enhance 
continuity.
    Disease management and case management programs built into PCMH are 
maturing and health indicators (such as diabetes compliance) are 
improving. The patient linked as partner with a specific healthcare 
team allows our extensive informatics network to provide decision 
support to both patients and the care team. Aggregating patient data 
into the informatics network will allow better care to populations as 
we tie specialty consultants and analytic experts together to improve 
care. It all starts with the partnership between patient and the 
healthcare team in PCMH.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
    Question. Has the Air Force evaluated the capacity of its medical 
community against the current and future structure?
    Answer. Yes, the Air Force uses current and projected mission 
changes to align resources where most appropriate. Beginning with Base 
Realignment and Closure 2005, and continuing in subsequent program 
objective memorandum (POM), the Air Force Medical Service (AFMS) has 
realigned manpower and medical facility capability based on changing 
mission requirements, including those mission changes associated with 
BRAC decisions or other Department of Defense mission movements or 
beneficiary changes.
    We continue to use staffing models, beneficiary population, and 
projected mission changes from the Air Force and the Office of the 
Secretary of Defense communities to place resources where they can be 
most effective, and where our deploying medics can receive the most 
current, diverse case-mix. Beginning in the fiscal year 2010 POM, and 
continuing today, the AFMS is aligning resources back into our 
inpatient platforms, with plans to increase enrollment by 35,000 and 
increasing inpatient capability at several of our larger Military 
Treatment Facilities. Specifically, the AFMS increased Joint Base 
Elmendorf by 200 personnel to account for force structure changes, 
beneficiary recapture opportunity, and to improve currency. Similar 
initiatives are in progress at Joint Base Langley-Eustis, and Eglin and 
Nellis Air Force Bases in response to mission changes. These efforts 
will result in medical personnel being better prepared for deployment 
to the area of responsibility), and will bring care back into the 
Direct Care System, a critical long-term goal to reduce costs and 
improve efficiency.
    The AFMS reviews current and future healthcare needs and directs 
changes within the assigned force structure (specialties) of each 
Corps. Under direction of the National Defense Authorization Act 2010, 
Section 714, the AFMS is increasing the active duty mental health 
authorizations by 25 percent to better address the needs of our service 
members and their families. These additional authorizations are built 
based both on the identified needs of our beneficiaries as well as our 
projected ability to recruit and retain professionals in these 
specialties. Although all active duty mental health professions will 
increase in the next 5 years, the largest growth will be in social 
workers, who we have had recent success in recruiting. We will also 
increase both psychiatrists and psychiatric nurse practitioners to 
increase our ability to provide psychiatric medication management 
services. We recently reviewed our current force structure to realign 
mental health resources and support the needs of our beneficiary 
population while maintaining manning levels within the current Air 
Force manpower constraints. Additionally, the AFMS is adding more 
contract mental health professionals as a gap-fill measure until the 
added active duty manpower needs are filled. This increase in mental 
health manning does not increase the overall manning numbers of the 
AFMS, but realigns the mix of specialty resources of our current 
medical program to more effectively recapture costs and provide 
expanded mental health services of these essential programs.
    Question. Does the Air Force have enough mental health providers to 
meet soldier and dependent needs?
    Answer. Through the TRICARE network and community organizations, 
the Air Force Medical Service (AFMS) has the mental health staffing to 
meet the treatment needs for Airmen and family members. The 
availability of resources varies depending on geographical region and 
catchment area but it is adequate to provide for mental health needs in 
a manner equal to other types of insurance.
    Question. If there is a gap in mental health providers, what 
efforts are being taken to get more providers in the system?
    Answer. There is a nationwide shortage of mental health providers 
which the AFMS confronts in a three-pronged approach addressing: (a) 
educational programs and scholarships, (b) direct compensation, and (c) 
quality of life (QOL) initiatives.
    (a) Due to historical difficulties recruiting fully qualified 
specialists, the AFMS places emphasis and funding into educational 
scholarships.
    (b) We use accession bonuses to recruit fully qualified specialists 
into the Air Force and retain them through the use of retention 
bonuses.
    (c) The AFMS addresses QOL initiatives such as family services, 
medical practice, educational or leadership opportunities, or frequency 
of moves and deployments to recruit and retain our health 
professionals.
    Question. What programs are being undertaken to address the mental 
health needs of spouses and dependent children?
    Answer. A variety of programs provide support for the mental health 
needs of spouses and dependent children. Each installation has a Family 
Advocacy Program (FAP) that provides outreach and prevention services 
to families. One novel FAP approach is the New Parent Support Program 
(NPSP), which provides support and guidance in the home to parents 
screened as high risk for family maltreatment. Educational and 
Development Intervention Services (EDIS) are provided by a child 
psychologist for special education children in DOD schools. Other 
programs provide education on common family issues like good parenting, 
couples communication, or redeployment integration. Counseling for 
families is also available. Military One Source is a DOD program using 
a civilian network that provides face-to-face, telephonic, or online 
counseling/consultation to service members and families for up to 
twelve sessions. Also providing nonmedical counseling, Airman and 
Family Readiness Centers have Military and family life consultants and 
child and youth behavioral consultants. These provide confidential, 
non-medical, short term counseling services to address issues common in 
military families such as deployment stresses and relocation. Other 
nonmedical counseling alternatives for family members not able to be 
seen at military medical treatment facilities have access to services 
through community TRICARE providers. These providers offer an array of 
services from individual counseling and group therapy, to inpatient 
behavioral healthcare.
    Question. The Air Force is producing medics with a wealth of 
experience in a variety of medical specialties like trauma care. Has 
there been any effort to align training programs with civilian training 
requirements? If no, then why not?
    Answer. We have established multiple training affiliations with our 
civilian counterparts in numerous settings aimed at providing mutual 
exchange of education. The purpose is not to align our training 
programs with civilian requirements, but to optimize the respective 
programs for both military and civilian students for the best outcomes. 
We have military instructors embedded in civilian institutions where we 
have military students for both GME (Graduate Medical Education) and 
sustainment training. In turn, several civilian schools use our medical 
facilities for student training with experiences unique to the 
military.
    Many of our surgical trauma experts are now in faculty positions in 
different private sector university hospitals. Our Centers for 
Sustainment of Trauma and Resuscitation Skills share expertise at 
University of Maryland, University of Cincinnati and St Louis 
University. Our Sustainment of Trauma and Resuscitation Skills Programs 
also share expertise with Tampa General Hospital, University of 
California--Davis, Scottsdale Medical Center, Miami Valley Medical 
Center, and University of Texas-San Antonio. We also have surgeons 
working closely with the Veterans Administration Hospitals, University 
of Alabama-Birmingham and University of Pittsburgh Medical Centers.
    Three of the four Centers of Excellence for the Nursing Transition 
Program are civilian medical centers, two having achieved Magnate 
status. These institutions provide a rich environment for our new nurse 
graduates as they transition from new nurse graduate to military nurse. 
Our military instructors and students provide our civilian colleagues 
with unique training opportunities as experiences with the phenomenal 
care we give our wounded warriors, establishing a collaborative process 
of information sharing for optimal patient outcomes.
    Question. How well does your medical community interact with your 
acquisition community? As different injuries are identified as 
prevalent within your service, what are the procedures to work with the 
acquisition community to acquire equipment, tools, or clothing to limit 
or prevent these injuries?
    Answer. The medical community and acquisitions community work 
closely together. Human Systems Integration has been a focus of the Air 
Force Medical Service and the Vice Chief of Staff of the Air Force for 
over 7 years to ensure new high cost military equipment addresses the 
needs of the human that will operate it. There are continuous efforts 
with Air Force logistics and the Army to mitigate the impact of combat 
injuries by evaluating protective equipment and improving it. Once 
protective equipment is identified as needed, our Air Force Medical 
Service Medical Logistics Division at Fort Detrick, Maryland, works 
with the acquisition community to contract for needed medical supplies, 
equipment and services based on clinically identified requirements and 
specific items are obtained as needed.
                                 ______
                                 
               Question Submitted by Senator Tim Johnson
    Question. Secretary Gates and Secretary Shinseki recently announced 
that the Department of Defense and the Department of Veterans Affairs 
will develop a joint electronic health record. On April 1, 2011, the 
Department of Veterans Affairs also announced that it will form an open 
architecture community around the VA's electronic health record, VISTA. 
Are these the same thing or will each Department still keep its own 
version of VISTA and AHLTA?
    Do the Departments envision the joint electronic health record 
replacing VISTA and AHLTA?
    When will the Departments release details and a comprehensive plan 
forward on the joint electronic health record?
    Answer. The Department of Veterans Affairs and the Department of 
Defense are collaborating on the Integrated Electronic Health Record 
(iEHR) program which will operate in the future as a common EHR. Given 
the iEHR is a complex, multi-year development program, a DOD-VA 
Integrated Program Office is being created to coordinate the 
development and deployment of the iEHR and then the sun-setting of 
VISTA and AHLTA. During the initial planning, the Departments have 
identified common business processes and practices, including common 
data standards, data center consolidation, common clinical 
applications, and a common user interface. Coordinating the efforts 
between the Departments sets the course toward a seamless electronic 
health record exchange and portability of health information in a 
secure and private format.
    The EHR Senior Working Group and various subgroups are currently 
assembling the information needed to put together a comprehensive plan. 
The plan is considering the budget, architecture, security, policies, 
and business processes. A high level project plan is being constructed 
that includes cost models, proposed timelines, and joint assumptions. 
The Secretary of Defense and the Secretary of the Veterans Affairs are 
scheduled to receive a status brief on cost, schedule and performance 
on May 2, 2011.
                                 ______
                                 
        Questions Submitted to Rear Admiral Elizabeth S. Niemyer
            Questions Submitted by Chairman Daniel K. Inouye
                 pediatric injuries on the battlefield
    Question. Since 2002, DOD hospitals in Iraq and Afghanistan have 
treated over 2,000 injured children with over 1,000 of these children 
having suffered from blast injuries. Children have unique physiological 
responses to illness and injury. Therefore, the treatment of children 
demands specific training, equipment and approaches that are different 
than those required for adults. Children injured in war zones are 
sometimes treated as ``little adults'', and the healthcare 
professionals do not have the experience or training necessary to 
appropriately care for pediatric trauma injuries.
    Admiral Niemyer, our military medical personnel in theater are 
treating a wide array of civilian cases in addition to caring for our 
servicemembers. As a result, they are seeing numerous pediatric 
injuries similar to injuries sustained by adults. Has the Navy 
implemented any pre-deployment training for nurses to address the 
unique needs of pediatric casualties of war?
    Answer. In 2002, the Navy established the Navy Trauma Training 
Center (NTTC), a joint cooperative medical venture with the Los Angeles 
County-University of Southern California Medical Center, to train our 
nurses, doctors, and corpsmen in real world trauma medicine skills and 
experiences. Staff teaching this course solicit feedback from students 
who have completed the course and deployed. Over time our personnel 
noted a change in the demographic population of those injured in 
Afghanistan to include children. This feedback was used to begin 
incorporating a more robust training module highlighting the 
physiologic differences and responses to pediatric trauma, injury 
patterns, and pediatric specific treatments. Furthermore, because of 
this feedback clinical rotations in the Pediatric Intensive Care Unit 
and Pediatric Trauma Emergency Department have increased. Approximately 
75 percent of NTTC students deploy with Marine units.
    One of our pediatricians, Captain Jon Woods, was involved with 
extensive pediatric trauma in Afghanistan. He identified the 
requirement for qualified nurses trained specifically in military 
transport of pediatric patients. Staff at Naval Medical Center San 
Diego took this information and are in the process of creating a 
certified training program using their extensive simulation resources. 
The plan is to create a simulated space equivalent to that found inside 
a Blackhawk transport helicopter, where students in full battle gear 
will have pediatric trauma simulation experiences in which care is 
affected by significant limitations in visibility, communication, and 
movement.
                       recruitment and retention
    Question. Despite well known shortages in the nursing profession, 
the three services have continued to do well in recruiting nurses into 
the military. Last year, the Air Force testified that one of the 
challenges the nurse corps faced was the development of new flight 
nurses and technicians in the pipeline to meet the needs of the ever 
growing aeromedical evacuation mission. Flight nurses remain the lowest 
manned specialty in the nurse corps (78 percent), and have one of the 
highest demands. For the fifth consecutive year the Navy has achieved 
their active component nursing goal (92 percent manning) and they have 
2,852 nurses currently serving around the world. In fiscal year 2010, 
the Army was able to recruit 642 nurses, meeting 105 percent of its 
active duty need and 94 percent for the reserve.
    Admiral Niemyer, how are deployments affecting the Navy nurse 
corps' ability to retain experienced nurses, particularly those working 
in high demand, low occupancy nursing career fields?
    Answer. With the ongoing war efforts, we are keenly aware of the 
need to grow and retain nurses in our critical war-time subspecialties. 
Though loss rates have improved overall, there remains a gap in the 
inventory to authorized billets for junior nurses with 5 to 10 years of 
commissioned service.
    Key efforts which have positively impacted retention include 
Registered Nurse Incentive Special Pay (RN-ISP), which targets bonuses 
to undermanned clinical nursing specialties, and the Health 
Professional Loan Repayment Program (HPLRP), which offers educational 
loan repayment up to $40,000. Full-time Duty Under Instruction (DUINS) 
further supports Navy recruitment and retention objectives by 
encouraging higher levels of professional knowledge and technical 
competence through graduate education. Training requirements are 
selected based on Navy nursing needs for advanced skills in war-time 
critical subspecialties. Seventy-six applicants were selected for DUINS 
through the fiscal year 2011 board.
    Tracking specific reasons for losses is complex, but currently the 
Center for Naval Analysis is completing a follow-up study where intent 
to leave is one of the outcome variables. As the economy improves and 
civilian nursing opportunities expand through the Affordable Care Act, 
we might once again be faced with recruiting and retention challenges. 
In anticipation of these challenges, we are inviting nursing students 
and new graduate nurses to participate as American Red Cross volunteers 
at our hospitals and clinics to enhance exposure to the military. 
Additionally, we assigned a Nurse Corps Fellow to my staff to monitor 
recruitment and retention, and to ensure that both remain a priority.
                            nursing research
    Question. Scientific inquiry, planned and conducted by nurses, is a 
vital part of improving the health and healthcare of Americans. Nursing 
research has been a long time catalyst for many of the positive changes 
that we have seen in patient care over the years. The National 
Institute of Nursing Research defines nursing research as the 
development of knowledge to build a scientific foundation for clinical 
nursing practice, prevent disease and disability, manage and eliminate 
symptoms caused by illness, and enhance end-of-life and palliative 
care. The TriService Nursing Research Program (TSNRP) is one such venue 
to help ensure nursing care remains evidence based.
    Admiral Niemyer, nurses have a long history of promoting quality 
healthcare that is not only focused on the needs of the patient but 
also on the needs of their families. Nursing research has played a big 
part in how we take care of patients today. How are you ensuring that 
Navy nurses at all levels in the organization understand the research 
process and are given opportunities to participate in nursing research 
efforts?
    Answer. The Navy Nurse Corps has aligned nursing research 
priorities with military relevant Surgeon General's priorities and has 
embraced evidence based practice. ``Invigorating Nursing Research'' is 
a priority and one of the five Navy Nurse Corps' Strategic Goals for 
2011. It is aligned with the Navy Medicine Goal of Research and 
Development and Clinical Investigation programs. Also an active 
participant in the Tri-Service Nursing Research Program (TSNRP), the 
Navy Nurse Corps' aim is to continually increase the interest, 
submission, and subsequent selection of military relevant funded 
research projects to improve the health of our patients and/or add to 
the body of nursing knowledge.
    Our Nursing Research assets are aligned regionally and are aimed at 
providing guidance, communication, and mentoring to nurses at all 
levels of the organization. These assets actively advertise and provide 
TSNRP and other educational research and evidence based practice course 
offerings through presentations, site visit training, postings on the 
Navy Knowledge Online Navy Nurse Corps Web site, and enterprise-wide 
emails. Due to the efforts of the Strategic Goal Team and the synergy 
of the research assets in the region (both active component and reserve 
component), an overwhelming successful number of nurses have applied to 
participate in the TSNRP Research Development Course offered in San 
Diego in May 2011. Twenty-one Navy Nurses were selected to fill 25 Tri-
Service seats.
                                 ______
                                 
              Questions Submitted to Kimberly Siniscalchi
            Questions Submitted by Chairman Daniel K. Inouye
                       recruitment and retention
    Question. General Siniscalchi, last year you testified that one of 
the challenges the nurse corps faced was the development of new flight 
nurses and technicians in the pipeline to meet the needs of the ever 
growing aeromedical evacuation mission. Would you please provide us 
with an update on the status of those initiatives to increase this 
career field?
    Despite well known shortages in the nursing profession, the three 
services have continued to do well in recruiting nurses into the 
military.
    Last year, the Air Force testified that one of the challenges the 
nurse corps faced was the development of new flight nurses and 
technicians in the pipeline to meet the needs of the ever growing 
aeromedical evacuation mission. Flight nurses remain the lowest manned 
specialty in the nurse corps (78 percent), and have one of the highest 
demands.
    For the fifth consecutive year the Navy has achieved their active 
component nursing goal (92 percent manning) and they have 2,852 nurses 
currently serving around the world.
    In fiscal year 2010, the Army was able to recruit 642 nurses, 
meeting 105 percent of its active duty need and 94 percent for the 
reserve.
    Answer. Despite this critically manned, high demand specialty, 
Aeromedical Evacuation (AE) nurses and technicians continue to perform 
superbly with a 100 percent mission success. In fiscal year 2010, AE 
authorizations increased and as a result, the percentage of staffed 
versus authorized dropped significantly. At the same time, we relocated 
the Air Force School of Aerospace Science from Brooks City-Base, San 
Antonio to Wright-Patterson AFB, Ohio, which temporarily affected our 
training pipeline.
    Several initiatives are now underway to fill AE requirements. To 
improve retention, flight nurses are now offered Incentive Special Pay 
(ISP). The ISP program is making a positive impact on professional 
satisfaction and retention. To maximize our training investment in both 
AE nurses and technicians, the Air Force Personnel Center initiated 
several changes to allow nurses and technicians to complete a full 3-
year tour with the option to extend. An AE force development model was 
developed to allow nurses and technicians to weave in and out of flying 
assignments throughout their career. Developmental leadership positions 
were also established so nurses and technicians can return to AE and 
provide the much needed leadership and clinical mentorship for our 
junior AE nurses and technicians. Previous flyers are being asked to 
volunteer to return to flying assignments and many are eager to have 
the opportunity to return to flying. We project filling 100 percent of 
our allocated training seats this year.
    In addition, we are currently working on AE training 
transformation. We scheduled a utilization and training workgroup in 
fiscal year 2011 to streamline training by leveraging distance learning 
and creating modular training. The new format will increase the volume 
of Phase I students and decrease training time needed for Phase II 
students with a flying assignment pending. Our partnership with Wright 
State University in Dayton, Ohio is progressing well as we continue to 
refine the new graduate program in Flight Nursing. This new program 
offers didactic and clinical training in flight nursing, disaster 
preparedness/homeland defense, and adult health clinical nurse 
specialist. Our first student graduates in May 2012.
                            nursing research
    Question. General Siniscalchi, how are you fostering nurse 
researchers in the Air Force?
    Scientific inquiry, planned and conducted by nurses, is a vital 
part of improving the health and healthcare of Americans. Nursing 
research has been a long time catalyst for many of the positive changes 
that we have seen in patient care over the years. The National 
Institute of Nursing Research defines nursing research as the 
development of knowledge to build a scientific foundation for clinical 
nursing practice, prevent disease and disability, manage and eliminate 
symptoms caused by illness, and enhance end-of-life and palliative 
care. The TriService Nursing Research Program (TSNRP) is one such venue 
to help ensure nursing care remains evidence based.
    Answer. In addition to our Master Clinician's and Master Research 
career paths, we recently developed a nursing research fellowship and 
the first nurse started in August 2010. This 1 year, pre-doctoral 
research fellowship, focuses on clinical and operational sustainment 
platforms. The intent of this program is for the fellow to develop a 
foundation in nursing research and ultimately pursue a Ph.D. Following 
the fellowship, they will be assigned to work in Plans and Programs 
within the Human Performance Wing of the Air Force Research Laboratory. 
This direction is consistent with the National Research Council of the 
National Academies recommendations for research career paths.
    Under Air Force Colonel Marla De Jong's leadership, and for the 
first time in its history, TSNRP offered research grant awards to 
nurses at all stages of their careers--from novice nurse clinician to 
expert nurse scientist. The Military Clinician-Initiated Research Award 
is targeted to nurse clinicians who are well-positioned to identify 
clinically important research questions and conduct research to answer 
these questions under the guidance of a mentor. The Graduate Evidence-
Based Practice Award is intended for Doctor of Nursing Practice 
students who will implement the principles of evidence-based practice 
and translate research evidence into clinical practice, policy, and/or 
military doctrine. It is critical that funded researchers disseminate 
the results of their studies so that leaders, educators, and clinicians 
can apply findings to practice, policy, education, and military 
doctrine as appropriate. This grant will enhance this dissemination and 
uptake of evidence.
    Further opportunities to maximize the potential of our Airman and 
grow the next generation of noncommissioned officers are available 
through the Air Force Institute of Technology for certain key enlisted 
specialties. To date, we have three such positions identified; one in 
education and training at the Air Force Medical Operations Agency, 
another within our Modeling and Simulation program at Air Education and 
Training Command, and the third within the research cell at Wilford 
Hall Medical Center. Our most recent addition to the research cell is 
Senior Master Sergeant Robert Corrigan, who just arrived to Wilford 
Hall Medical Center.
                             nursing issues
    Question. General Siniscalchi, the acuity of patients, level of 
experience of nursing staff, layout of the unit, and level of ancillary 
support are all key components in establishing the ``right'' nurse-
patient ratio for any unit. This year I reintroduced The Registered 
Nurse Safe Staffing Act which addresses those concerns. How does the 
Air Force ensure adequate nurse staffing levels on inpatient units?
    A new study published in the New England Journal of Medicine shows 
that inadequate staffing is tied to higher patient mortality rates 
which supports the principles that call for nurse staffing to be 
flexible and continually adjusted based on patients' needs and other 
factors.
    Answer. A workload data review is conducted on a facility's patient 
census and acuity to establish a workload average over a 4 year period. 
From this data review, staffing levels are set at 15 to 20 percent 
greater than the average census to cover the anticipated patient load. 
Through the Tri-Service Patient Acuity and Staff Scheduling System 
Working Group, a model is being developed to staff according to patient 
need, nurse experience, and acuity versus a fixed nurse to patient 
ratio. Currently, there is no national standard for nurse staffing, 
however, the American Nurses Association provides a compilation of 
State regulated requirements which are taken into consideration for the 
current Air Force manpower model.
    In step with our manpower and staffing initiatives, our Air Force 
Medical Operations Agency in conjunction with the Department of Defense 
(DOD), implemented the Patient Safety Reporting (PSR) System in Air 
Force Military Treatment Facilities worldwide. The PSR provides staff 
with a simple process for reporting patient safety events using DOD 
standard taxonomies, which enhance consistency and timely event 
reviews. The PSR event data will be analyzed for trends and assist in 
identifying targets for process improvement, both at Air Force and DOD 
levels.
    Question. General Siniscalchi, how many nursing positions does the 
Air Force have for senior nurses to remain in direct patient care?
    Answer. We have developed a career track for Master Clinicians and 
Master Research positions through the rank of Colonel. This career 
track will allow our expert clinicians and researchers to stay within 
their realm of expertise without sacrificing promotion opportunity.
    Master Clinicians are board certified nursing experts with a 
minimum preparation of a master's degree and at least 10 years of 
clinical experience in their professional specialty. They serve as the 
functional expert and mentor to junior nurses. Our Master Researchers 
are Ph.D. prepared and have demonstrated sustained excellence in the 
research arena.
    Both of these highly respected positions are critical in the 
advancement of nursing practice and to the mentoring of our novice 
nurses. Currently we have 19 Master Clinician and 3 Master Researcher 
positions established at designated areas. In addition to our Master 
Clinicians, 3,073 of our 3,355 nurses or 92 percent of our nurses are 
in direct patient care positions.
    Question. General Siniscalchi, how many nursing positions does the 
Air Force have for senior nurses to remain in direct patient care?
    A new study published in the New England Journal of Medicine shows 
that inadequate staffing is tied to higher patient mortality rates 
which supports the principles that call for nurse staffing to be 
flexible and continually adjusted based on patients' needs and other 
factors.
    Answer. We have developed a career track for Master Clinicians and 
Master Research positions through the rank of colonel. This career 
track will allow our expert clinicians and researchers to stay within 
their realm of expertise without sacrificing promotion opportunity.
    Master Clinicians are board certified nursing experts with a 
minimum preparation of a master's degree and at least 10 years of 
clinical experience in their professional specialty. They serve as the 
functional expert and mentor to junior nurses. Our Master Researchers 
are Ph.D. prepared and have demonstrated sustained excellence in the 
research arena.
    Both of these highly respected positions are critical in the 
advancement of nursing practice and to the mentoring of our novice 
nurses. Currently we have 19 Master Clinician and 3 Master Researcher 
positions established at designated areas. In addition to our Master 
Clinicians, 3,073 of our 3,355 nurses or 92 percent of our nurses are 
in direct patient care positions.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. The subcommittee will reconvene on 
Wednesday, April 13 at 10:30 for a classified briefing with the 
Commander of the United States Pacific Command. Until then, we 
stand in recess.
    [Whereupon, at 12:34 p.m., Wednesday, April 6, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              


                        WEDNESDAY, MAY 11, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:04 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Leahy, Murray, Cochran, Graham, 
and Coats.

                         DEPARTMENT OF DEFENSE

                             National Guard

STATEMENT OF GENERAL CRAIG R. McKINLEY, CHIEF, NATIONAL 
            GUARD BUREAU

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. Before proceeding with the hearing, I 
would like to make an announcement of some good news.
    Last evening, the National Lupus Foundation presented their 
highest award to the senior Senator from Mississippi, Senator 
Thad Cochran, the vice chair of this committee. It was an award 
for his tireless leadership in providing funds for biomedical 
research to find a cure for lupus.
    And at the same time, the Food and Drug Administration 
announced the approval of the first drug that can be used for 
the cure of lupus. So I would like to publicly congratulate my 
colleague.
    Senator Cochran. Mr. Chairman, thank you very much for 
those very generous comments. But without your leadership, I 
don't think it would have been possible for us to get the 
funding that is necessary to do what is being done in the 
research and treatment field of this very troubling, dangerous 
disease.
    So thank you for your continued support for all of those 
efforts.
    Chairman Inouye. This morning, the subcommittee meets to 
receive testimony on the fiscal year 2012 budget of the 
National Guard and Reserve components.
    From the National Guard, we are pleased to have the Chief 
of the National Guard Bureau, General Craig McKinley; and the 
Director the Army National Guard, General Raymond Carpenter; 
and the Director of the Air National Guard, General Harry 
Wyatt.
    And from the Reserve, we will welcome the Chief of the Army 
Reserve, General Jack Stultz; the Chief of the Naval Reserve, 
Admiral Dirk Debbink; the Acting Commander, Marine Forces 
Reserve, General Darrell Moore, who is appearing before this 
subcommittee for the first time; and the Chief of the Air Force 
Reserve, General Charles Stenner.
    And I thank all of you for joining us this morning as the 
subcommittee reviews the fiscal year 2012 budget for the 
Reserve components.
    Over the last several years, the Guard and Reserve have 
made important changes as they transition from a strategic to 
an operational reserve. This shift requires them to have 
deployment-ready units available at all times.
    The Department has improved this resourcing with the Guard 
and Reserve, and the services have made significant strides in 
integrating the Reserve components in an effort to create one 
total force. The subcommittee is interested in hearing your 
views on how best to utilize this new operational reserve as we 
draw down our military involvement in Iraq and Afghanistan.
    The Guard and Reserve have also recovered from the 
recruiting and retention difficulty they confronted over the 
last several years. Although retaining personnel in certain 
high-demand career fields remains a challenge, the significant 
personnel shortages seen a few years ago have been eliminated, 
and the Reserve components now have the opportunity to focus on 
refining their personnel mix to get the right person in the 
right position.
    However, many challenges remain. The Guard and Reserves 
must continue to improve reintegration and family support 
programs. Reservists and their families lack the support 
network provided at active duty installations. So it is 
essential that we do everything we can to support Reserve 
families during deployment and as reservists transition back to 
civilian life.
    The Yellow Ribbon program is a step in the right direction, 
but I encourage you to continue improving the program to better 
fit the needs of service members. So I look forward to hearing 
today what each component is doing to improve support to our 
reservists and their families.
    The Guard and Reserves still face significant equipment 
shortfalls. For this reason, last year Congress provided $850 
million for the National Guard and Reserve equipment account to 
allow the Reserve components to purchase additional equipment 
they need for pre-deployment training and operation at home and 
abroad.
    Congress has provided additional equipment funding for the 
Guard and Reserve in each of the last 31 years because, year 
after year, the President's budget fails to sufficiently fund 
the Reserve components. Some critics decry the additional funds 
by this subcommittee as unnecessary earmarks. But I am certain 
that the witnesses here today agree that without this 
additional funding, our Reserve components would be woefully 
underequipped.
    We owe it to the men and women of the Guard and Reserve who 
are called on, just like their active duty counterparts, to 
deploy in harm's way to make certain they are adequately 
trained and equipped.
    As citizen warriors, members of the Guard and Reserve rely 
heavily on the support of their civilian employers. The 
commitment, dependability, and discipline that they learn and 
exhibit in their military capacity are all valuable skills that 
they can contribute to the civilian workforce. We must continue 
to promote this concept to ensure that we maintain the support 
of the business community in hiring and supporting reservists.
    So I look forward to hearing your perspective on these 
issues and working with you this year in support of our 
guardsmen and reservists. And I thank all of you for your 
testimony this morning. And may I assure you that your full 
statements will be included in the record.
    And we will begin this hearing with the panel from the 
National Guard, but first, I would like to turn to the vice 
chairman, Senator Cochran, for his remarks.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, I am pleased to join you in 
welcoming the leaders of the National Guard and Reserve 
components to today's hearing.
    I have a prepared statement, which I will ask unanimous 
consent be printed at this point in the record.
    Chairman Inouye. Without objection.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I am pleased to join you in welcoming the 
leaders of the National Guard and Reserve Components to today's 
hearing.
    The Guard and Reserve components are an essential element 
to the success of our military forces. They contribute at home 
as citizens and serve our Nation in uniform to help protect our 
freedom and liberty. They must always be ready, trained and 
equipped to help defend our homeland, and be ready to deploy 
overseas in support of our national security interests. Our 
successes overseas and in response to natural disasters would 
not be possible without these dedicated men and women.
    We appreciate the efforts and unselfish service of those 
who are keeping this Reserve force ready to protect our 
national security interests.

    Chairman Inouye. And now may I call upon General McKinley.
    General McKinley. Chairman Inouye, Vice Chairman Cochran, 
Senator Coats, Senator Murray, thank you very much for the 
opportunity to be here today.
    I am obviously joined by my colleagues in the National 
Guard, Bud Wyatt, former Adjutant General of Oklahoma; Ray 
Carpenter, South Dakota guardsman. I have also got Randy Manner 
in the room with me, who is our Director of our Joint Staff, a 
significant new contribution that the National Guard has made 
to homeland security.
    Today, we have about 460,000 members of the Army and the 
Air National Guard on duty, serving here at home and abroad. 
Our strength, as you said, Mr. Chairman, is good, and our 
retention is even better. As the United States Armed Forces 
continue to conduct operations in Iraq, Afghanistan, and 
elsewhere around the world, the National Guard participates as 
a full partner with our United States Army and our United 
States Air Force.
    As a member of the total force, the National Guard has 
successfully transformed into an operational force. This 
transformation would not be possible without the significant 
investments this subcommittee has made in the National Guard 
and Reserve, and we thank you all very much for that support.
    We must continue to be utilized as a part of the 
operational force, so that this significant investment is not 
squandered. We are in the midst of a transition, bordering on 
transformation, and must maintain readiness and continue to be 
part of the national security framework.
    I would say that during the past 10 years, the Department 
of Defense has initiated a series of fundamental changes in 
both culture and operational capability in order to better 
protect the United States homeland from catastrophic events, 
natural and man-made.
    The citizen soldiers and airmen of the National Guard are a 
great value for America, as are our colleagues in the Reserve. 
The citizen soldiers who work side-by-side with our active duty 
do bring that unique blend of civilian skills, Senator, 
enabling them to conduct smart power missions with exceptional 
effectiveness.
    We have demonstrated that unique capability through a 
number of National Guard specific missions, including our 
support to the combatant commanders around the world through 
the State Partnership Program, which I know you all are very 
familiar with; the agribusiness development teams in 
Afghanistan; and as a critical partner in the Department of 
Defense CBRNE Enterprise.
    None of these missions would succeed without the dedication 
of our National Guard men and women. Today's men and women 
volunteer to join or stay in the National Guard fully expecting 
to be deployed. This shift in expectation is a central aspect 
of the National Guard shift from strategic reserve to 
operational force.
    Overall, we can say that the budget request for fiscal year 
2012 meets the critical needs of the Army and the Air National 
Guard. In this era of persistent conflict overseas and dealing 
with the ongoing threats to American lives and property here in 
the homeland, of particular importance to us is continued 
funding to sustain the National Guard as an operational force.
    As the fiscal year 2012 budget was developed, we worked 
closely with the Office of the Secretary of Defense to ensure 
adequate funding for the entire CBRNE Enterprise, including 
standing up the remaining eight new Homeland Response Forces. I 
am especially proud of Ohio and Washington State, who have 
taken on this very daunting challenge to be the first two 
States to stand up our Homeland Response Force units.
    The transformation to an operational force has increased 
stress on families, as you stated, Chairman. And that is why it 
is critical that family programs within the fiscal year 2012 
request are fully funded.
    All of us in the National Guard are highly mindful and 
deeply grateful for the strong support this subcommittee has 
shown to us in the past. We are particularly grateful for the 
additional funds which this subcommittee has provided to the 
National Guard and Reserve equipment account.
    We have used those funds to fill critical shortages in the 
Army National Guard and to provide technological modernization 
and enhancements in our Air National Guard capabilities.
    We are proud to have increased our obligation rates and our 
efficient use of those funds, and we are working closely with 
the services to improve these obligation rates. And we will 
continue to work with the subcommittee to ensure we are good 
stewards of the funds and to make your National Guard stronger 
than ever.
    A top priority during my tenure as Chief is to ensure the 
organization of the National Guard Bureau supports our new role 
as an operational force and fosters the development and 
mentorship for future general officers to serve in my current 
position. I will continue to work within the Pentagon to 
validate and fund the necessary general officer positions 
required to support the National Guard Bureau.
    In order to move quickly to your questions, Senators, I 
would like to ask the two Directors to make brief statements.
    [The statement follows:]
            Prepared Statement of General Craig R. McKinley
                            opening remarks
    Chairman Inouye, Ranking Member Cochran, distinguished members of 
the subcommittee; I am honored to appear before you today, representing 
465,000 Citizen-Soldiers and Airmen in the Army and Air National Guard, 
an organization that is historically part of the foundation of our 
great democracy.
    America's National Guard remains ready, reliable, and accessible. 
As members of an operational force, regularly used by the President and 
State Governors, the Soldiers and Airmen of the National Guard 
contribute daily to our Nation's overseas and domestic security 
objectives.
                        national guard overview
    The National Guard is at a crossroads. As we approach fiscal year 
2012, a national debate is addressing the most cost-effective way to 
run the Nation, the Federal Government, and the Department of Defense. 
One of the main issues concerning our military forces involves 
determining the appropriate mix of active duty and reserve forces. To 
that end, we need to ascertain the correct balance of utilization 
rates--somewhere between the current National Guard operations tempo 
and what is sustainable over the long term.
    On average, 63,000 National Guard members are either deployed or 
mobilized at any given time for Federal missions and about 5,800 are 
activated for domestic missions. I believe that this utilization rate 
of National Guard personnel is appropriate and that we can sustain this 
level of activation providing the deployments are programmed as far in 
advance as reasonably possible.
    In the coming months, the Department of Defense, the 
administration, and Congress will analyze the current status of the 
National Guard. I am confident they will conclude that our organization 
is as strong as it has ever been. The investment made in the National 
Guard over the past decade must be capitalized upon and leveraged for 
the future.
    The National Guard has effectively used its appropriated funds over 
the past year, and we as an organization, intend to continue being good 
stewards of the taxpayers' dollars entrusted to us in fiscal year 2012. 
As we embark upon this new fiscal year, we plan to make the National 
Guard stronger, more capable, and more ready.
    The National Guard Bureau's Army, Air, and Joint Directorates each 
work with the Adjutants General of the 50 States, three territories, 
and the District of Columbia to execute the strategies set forth by 
National and State leaders. This synergistic effort is at the heart of 
our success. The National Guard fosters and nurtures a deep-rooted 
connection to the more than 3,300 communities across our country that 
allows the men and women of the National Guard to be an accessible, 
strong, and capable asset--one that is always ready, always there.
    The Army National Guard and Air National Guard are full partners 
with their respective services in providing combat resources and 
enabling units for the overseas fight. However, the National Guard also 
makes ground and air forces available to the Governors when needed. The 
National Guard Bureau team works closely with the Army and Air staffs 
to:
  --Maintain endstrength at or above 358,200 for the Army National 
        Guard (ARNG) and 106,700 for the Air National Guard (ANG), with 
        a primary focus on caring for the Guard members and their 
        Families.
  --Modernize and re-capitalize the ARNG and ANG equipment. This means 
        equip the ARNG to no less than 80 percent of its equipment 
        requirements, ensuring that the ARNG always has the level of 
        equipment needed to meet domestic operational requirements 
        regardless of a unit's status.
  --Ensure the ANG is equipped concurrently and in balance with the 
        Total Air Force.
  --Stabilize the force to build readiness and train forces to the 
        ARFORGEN level of proficiency and to support the Air 
        Expeditionary Force.
    Since the National Guard Bureau's official designation as a joint 
activity of the Department of Defense (DOD), we have been forging ahead 
to develop our dual-mission capabilities, both domestic and overseas. 
We have focused on developing strategic relationships within DOD and 
other Federal agencies to implement efficient and effective response 
capabilities. The goal is to ensure the American people have ready 
access to the essential capabilities of homeland response. To support 
our domestic response priorities, the National Guard Bureau is:
  --Enhancing Chemical, Biological, Radiological, Nuclear, and high-
        yield Explosive (CBRNE) Enterprise response capability at the 
        State level;
  --Establishing a Homeland Response Force (HRF) in each FEMA region; 
        and
  --Documenting the State Joint Force Headquarters requirements to 
        further improve command and control capacity during the 
        response.
    The tremendous value that the National Guard provides can be 
effectively described through our four broad mission areas--our core 
competencies: Overseas defense mission; support to global engagements; 
domestic response mission; and Soldier, Airman, and Family support 
programs.
                        overseas defense mission
    Overseas, the National Guard will continue its full engagement in 
current operations. As of September 30, 2010, the National Guard have 
mobilized nearly 650,000 Soldiers and Airmen in support of Overseas 
Contingency Operations since the attacks of September 11, 2001. In many 
cases, these men and women have mobilized for combat multiple times. 
Most Americans know that the Army and Air National Guard provide many 
of the forces in Afghanistan and Iraq, but few are aware that the vast 
majority of the forces in Bosnia, Kosovo, the Sinai, and Guantanamo 
Bay, Cuba are National Guard members. These missions are critical to 
our National security and garner significant international support in 
keeping peace across the globe.
                     support to global engagements
    Global engagement is another National Guard core competency. Since 
the end of the cold war the National Guard, through its State 
Partnership Program (SPP), has established enduring and mutually 
beneficial relationships between American States and more than 60 
foreign nations. Working with the Department of State, military 
commands, and other agencies, the State Partnership Program is an 
integral component of the Defense Department's global security 
cooperation strategy, the geographic Combatant Commanders' theater 
engagement programs, and the U.S. Ambassadors' Mission Strategic 
Resource Plans. These partnerships work to advance regional security, 
stability, and prosperity. By fostering relationships with other 
countries, we develop more understanding and familiarity with each 
other, thereby creating a foundation of trust, appreciation, and 
burgeoning global security.
    Furthermore, as the demand for Overseas Contingency Operations 
forces declines, there is opportunity to preserve operational National 
Guard capability by expanding the experience gained through the SPP. 
Using contingency forces in its 1 year of rotational availability 
permits it to prepare for 5 years with personnel costs that are a small 
fraction of the active component. National Guard units that are used 
for these purposes can offer the Combatant Commander the predictability 
and stability inherent in the operational RC, which in turn provides 
the benefit of continuity in sourcing and building long-term 
relationships.
    The National Guard is ideally suited for providing support to 
Combatant Commanders. Soldiers with valuable civilian skills and 
expertise from professional, technical, and managerial fields in the 
private sector make up the National Guard. Moreover, retaining specific 
skill sets within particular units is possible because National Guard 
Soldiers characteristically spend their entire career in the same unit. 
Skill sets not only apply to those that are civilian acquired, but also 
military investments made in language training and cultural awareness. 
The National Guard's proven track record in recruiting and retaining 
prior service personnel preserves the training expense already invested 
while on active duty.
    The Afghanistan Agribusiness Development Program is a unique 
engagement program of the National Guard. The Agribusiness Development 
Teams provide training and advice to Afghan agricultural universities, 
provincial ministries, and local farmers, leading to increased 
stability and improved opportunities for Afghanistan's reemerging 
agribusiness realm. Thanks to the National Guard, Afghanistan reports 
declines in poppy production and increases in harvests of apples, 
grapes, pomegranates, cherries, almonds, wheat, corn, alfalfa, and 
saffron.
                       domestic response mission
    Domestically, the National Guard is ready to respond on a moment's 
notice to any emergency, manmade or natural. The National Guard will 
have 10 Homeland Response Force units that are either dedicated to or 
dual-hatted for this critical homeland mission. These units will 
complement and enhance the existing civil-support structure in National 
Guard units across the Nation.
             soldiers, airmen, and family support programs
    The National Guard seeks to provide exemplary support to our 
Soldiers, Airmen, and their Families. Programs, such as the Army's 
Warrior Transition Units (WTUs) and Community-Based Warrior Transition 
Units (CBWTUs), focus on caring for wounded warriors from across the 
Army. The Army National Guard supports the Army's WTUs and CBWTUs at 
all levels of the organization from squad leader to battalion 
commander.
    The Yellow Ribbon Reintegration Program provides information, 
services, referrals, and proactive outreach to Soldiers, spouses, 
employers, and youth throughout the different stages of mobilization: 
pre-alert, alert, pre-deployment, deployment, post-deployment, and 
reintegration.
    Our Citizen-Soldiers, who in their civilian lives are in positions 
of influence across the spectrum of business, education, and 
Government, make up the backbone of the National Guard Youth ChalleNGe 
Program (NGYCP). This award-winning, community-based program leads, 
trains, and mentors high school dropouts to become productive citizens 
in America's future. ChalleNGe has 32 sites in 28 States and Puerto 
Rico, offering a 5-month ``military style'' residential phase and a 1-
year post-residential mentoring phase for unemployed youth ages 16-18. 
ChalleNGe saves States approximately $175 million annually in juvenile 
corrections costs, while keeping youths off Federal assistance.
                       a great value for america
    Investment in the National Guard is a great value for America. 
These brief examples display only a fraction of what we currently 
accomplish and I am confident that we can provide more in the years to 
come.
    We must sustain the National Guard as a ready and accessible force. 
We must find a sustainable balance between operational utilization and 
overuse of these dedicated Citizen-Soldiers and Citizen-Airmen. The 
National Guard currently provides 35-40 percent of the Army and Air 
Force operational force for less than 7 percent of the base defense 
budget--precisely the type of efficiency the Department of Defense is 
seeking. With the proper disbursement of scarce defense dollars, the 
National Guard is an investment with a very high return.
    Today and in the future, the National Guard will continue to 
simultaneously defend the Nation's interests overseas, support the 
homeland, and serve as an indispensable, cost-effective military option 
for the United States. For 375 years, our National Guard has proven 
itself a great value for America. With a deliberate decision to support 
the Reserve Component as an operational force, and the discovery of the 
critical balance between funding and use, the National Guard will be 
successful in fiscal year 2012, and emerge as an even greater value in 
the future.
                            closing remarks
    Thank you for the opportunity to be here today, I look forward to 
your questions.

    Chairman Inouye. Bud. General Wyatt.
STATEMENT OF LIEUTENANT GENERAL HARRY M. WYATT III, 
            DIRECTOR, AIR NATIONAL GUARD
    General Wyatt. Chairman Inouye and Vice Chairman Cochran, 
Senator Murray, Senator Coats, I also want to thank the 
subcommittee for its support for the extraordinary men and 
women who serve in America's Air National Guard, some 106,700 
strong.
    I am privileged to have with me today the Command Chief 
Master Sergeant of the Air National Guard, my senior enlisted 
adviser, Chris Muncy from Ohio, who is seated behind me in the 
audience.
    Before I get into the future of the Air National Guard, I 
would like to open with a brief review of 2010 before looking 
to the future of the Air National Guard.
    Your Air Guard airmen continue to make a significant 
contribution to the Nation's defense, both here at home and 
around the globe. Last year, Guard airmen filled 52,372 
requests for manpower. Eighty-nine percent of these requests 
were filled by volunteers. Forty-eight thousand five hundred 
thirty-eight served in Federal or title X status primarily 
overseas, with the bulk of those serving in Iraq and 
Afghanistan and surrounding areas.
    But Air Guard members also served in Central and South 
America, Asia, Europe, Africa, and Antarctica. The Air National 
Guard is currently providing nine remotely piloted aircraft 
combat air patrols over Afghanistan and has been asked to do a 
10th, which we will accept and take on.
    And the Air Guard airmen serving in harm's way are not just 
flying airplanes. In fact, some of the skills in greatest 
demand are not in flight operations, but rather security 
forces, intelligence, computer support, and vehicle 
maintenance.
    Domestically, your Guard airmen are helping with Southwest 
border security, the counterdrug program, and guarding the 
skies above our Nation in the Air Sovereignty Alert Mission. In 
addition, Guard airmen almost daily are in our communities 
protecting property and saving lives.
    Guard combat search and rescue personnel in Alaska, 
California, and New York are frequently called upon to help 
search for lost hikers or rescue stranded climbers. The Air 
National Guard modular air firefighting units have supported 
the Forest Service in numerous missions and, in fact, have just 
returned from missions in western Texas.
    Guard airmen also made significant contributions to 
earthquake relief in Haiti, the oil clean-up in the gulf, 
floods and tornadoes in the Midwest, and recently, the Hawaii 
Air Guard airmen even helped with the State flu vaccination 
program in public schools.
    Every day, somewhere in America, there are Air Guard 
members supporting civil authorities and protecting our 
citizens. Congress' investment has created the greatest Air 
National Guard in the organization's history, but continued 
investment in the Air National Guard is critical for national 
security, and the Air National Guard continues to be a great 
value to America.
    As we prepare for the future, the Air National Guard wants 
to build upon the lessons of the past. Today's Air National 
Guard integrates seamlessly into Air Force global operations 
because we have the same equipment with similar capabilities. 
And our Air Guard airmen maintain the same standards of 
training and education.
    Our goal is to continue to be an equal partner through the 
Air Force's recapitalization and modernization process. Since 
9/11, the Air National Guard has increased its role in domestic 
operations, including participation in joint domestic response 
teams such as the new Homeland Response Forces that General 
McKinley referenced.
    With continued support from Congress, we will continue to 
improve and enhance our ability to support civil authorities 
through prudent investment in dual-use capabilities.
    Mr. Chairman, thank you and the members of the 
subcommittee. I am grateful for the opportunity to be here, 
look forward to your questions.
    Thank you, sir.
    Chairman Inouye. Thank you, General Wyatt.
    [The statement follows:]
      Prepared Statement of Lieutenant General Harry M. Wyatt III
                            opening remarks
    Chairman Inouye, Ranking Member Cochran, and distinguished members 
of the subcommittee; I am honored to appear before you today on behalf 
of the outstanding men and women serving in our Nation's Air National 
Guard. I would like to begin by expressing my sincere appreciation to 
the Committee for its tremendous support to the Air National Guard. 
Your work ensures America continues to have a ready, reliable, and 
accessible Air National Guard, responsive to our domestic needs as well 
as providing operational capabilities critical to the success of our 
Total Force. As we face increasingly limited resources and tight or 
declining defense budgets, we must accentuate the strength of the Air 
National Guard--our cost effectiveness.
                 air national guard in national defense
    Facing a need to reduce the Defense budget in response to domestic 
priorities and the need to sustain defense capabilities in light of 
growing foreign challenges, Secretary of Defense Melvin B. Laird put 
his faith in the Reserve Components. Secretary Laird wrote, ``Within 
the Department of Defense . . . economics will require reductions in 
overall strengths and capabilities of the active forces, and increased 
reliance on the combat and the combat support units of the Guard and 
Reserves.'' \1\ He understood that by increasing the readiness of the 
Guard and Reserves and then relying upon them ``to be the initial and 
primary source for augmentation of the active forces in any future 
emergency'' \2\ the Nation would maintain its defense capability and 
capacity while decreasing the overall costs.
---------------------------------------------------------------------------
    \1\ Melvin B. Laird, Memorandum to the Secretaries of the Military 
Departments, Subj: Support for Guard and Reserve Forces, August 21, 
1970.
    \2\ Ibid.
---------------------------------------------------------------------------
    The U.S. Air Force leadership recognized that as the Nation's first 
military responder, increased reliance on the Reserve Components meant 
the Air Force Reserve and Air National Guard must be able to respond 
quickly and integrate seamlessly into any operation; they would require 
equipment and training comparable to the regular, active duty Air 
Force. The ANG, with significant help from Congress, began trading in 
its obsolete Korean War vintage equipment for newer, and in some cases 
brand new aircraft. The ANG also received additional funds for 
training, including modern flight simulators, and full-time Guard 
Airmen (Active Guard and Reserve (AGR) and Technicians) to oversee the 
increased training regimen.
    Improved operational readiness brought with it a rejuvenated desire 
by Guard Airmen to do more than just train--to demonstrate their 
capabilities. ANG units began volunteering to augment the Regular Air 
Force by participating in ongoing operational missions around the 
world. To the customer, the Air National Guard became indistinguishable 
from the Regular Air Force. This was done within the fundamental 
framework of a part-time professional force.
    Today's National Guard Airmen have been fighting alongside our 
regular, active duty and Air Force Reserve brothers and sisters since 
Operation Desert Shield in 1991, and they have proven to be equal 
partners in our Nation's defense. Last year (CY2010), Guard Airmen 
filled 48,538 manpower requests, and 89 percent of these Guard Airmen 
responded to the call voluntarily, without the need for ``involuntary 
mobilization.'' They have served honorably in Iraq and Afghanistan, but 
also in Bosnia, throughout Africa, South America, Europe (including 
countries of the former Soviet Union), Korea, and, under Operation Deep 
Freeze, New Zealand and Antarctica.
    The world is a very different place today than when Secretary Laird 
established the Total Force, but the underlying principle of the Total 
Force remains true: the Nation can maintain defense capabilities at 
less total cost through careful balance of Active Component and Reserve 
Component forces.
    Secretary Gates has charged the Department ``to generate efficiency 
savings by reducing overhead costs, improving business practices, or 
culling excess or troubled programs.'' \3\ While our leadership is 
making tough decisions, we know the Air National Guard is well situated 
as a cost-effective answer in both our defense and domestic response 
roles.
---------------------------------------------------------------------------
    \3\ Robert M. Gates, Statement on Department Budget and 
Efficiencies, January 6, 2011.
---------------------------------------------------------------------------
    The Air Guard provides a trained, disciplined, and ready force for 
a fraction of the cost. The Air National Guard savings are due to our 
part-time business model. Approximately 70 percent of our Guard Airman 
are traditional part-time professionals, meaning that they are only 
paid when serving or on active duty for training. Also, the Air 
National Guard seldom pays subsistence or housing allowances, or for 
permanent change of station moves for the members and their families.
    Another key factor to our cost effectiveness is the infrastructure 
savings inherent in the Air National Guard basing model that not only 
allows us to operate efficiently, but also allows us to be a part of, 
and contribute to, communities across the country. With some of our 
leases costing as little as $1 annually, the Air Guard is able to 
realize even more cost savings through its supporting infrastructure. 
In fact, for less than $4 million annually through Joint Use 
Agreements, the Air National Guard provides stewardship to 
approximately $12 billion in infrastructure.
                          domestic operations
    This year the Air National Guard began a process to better define 
and prepare for its role in domestic operations. In CY2010, 3,739 
National Guard Airmen performed domestic missions under Title 32 
including U.S. air defense, border security, counterdrug operations, 
and search and rescue. Many other Guard Airmen were called to State 
Active Duty by their governors to augment local police forces and help 
with disaster relief.
    Many are unaware of the contributions and skills our Guard Airmen 
provide to domestic support. The Air National Guard has particular core 
capabilities for which we are uniquely trained and equipped. Many have 
been used in the past year alone, to include: Air Defense (Air 
Sovereignty Alert); Air Traffic Control; Airlift (transportation, 
supply, and evacuation); Civil engineering; Specialized medical care; 
Law enforcement; Aerial firefighting; Mortuary affairs; Urban search 
and rescue; and Communications.
    The Air National Guard's support to civil authorities is based upon 
the concept of ``dual use,'' i.e., equipment purchased by the Air Force 
for the Air National Guard's Federal, combat mission, can be adapted 
and used domestically when not needed overseas. For example, an Air 
National Guard F-16 wing contains not only F-16 fighter aircraft but 
fire trucks, forklifts, portable light carts, emergency medical 
equipment including ambulances, air traffic control equipment, 
explosives ordinance equipment, etc., as well as well trained experts--
all extremely valuable in response to civil emergencies. If the F-16 
wing converts to a non-flying mission or even a Remotely Piloted 
Aircraft mission, much of this equipment may leave with the F-16 
aircraft. As the Air Force proceeds with its recapitalization and 
modernization plans, we need to ensure our citizens are not left 
without essential disaster response capabilities.
    Looking to the future, the Air National Guard recognizes the 
growing importance of its domestic response capabilities and the many 
threats to domestic peace. Our Airmen are working closely with the 
National Guard Bureau, USNORTHCOM, the Department of Homeland Security, 
as well as other local, State, and Federal agencies to help identify 
and fill capability gaps in the U.S. regional response framework.
                            closing remarks
    Our National Guard Airmen have proven themselves to be ready, 
reliable, and accessible in recent actions here at home and overseas. 
Every dollar spent on the Air National Guard provides our Nation an 
unmatched return on investment. Given adequate equipment and training, 
the Air National Guard will continue to fulfill its Total Force 
obligations and seamlessly integrate into the Joint theater operations 
and respond to domestic emergencies.
    We need your help to ensure that the Air National Guard of tomorrow 
is as a ready, reliable, accessible, and cost effective as it is today.
    Thank you for the opportunity to be here today, I look forward to 
your questions.

    Chairman Inouye. General Carpenter.
STATEMENT OF MAJOR GENERAL RAYMOND W. CARPENTER, 
            DIRECTOR, ARMY NATIONAL GUARD
    General Carpenter. Chairman Inouye, Vice Chairman Cochran, 
Senator Murray, Senator Coats, it is my privilege and honor to 
be here today to represent 360,000 plus soldiers in the Army 
National Guard. Of those soldiers, nearly 34,700 are currently 
mobilized, and more than half have had combat experience.
    The sacrifice of these soldiers, their families, and 
employers is something we not only acknowledge, but deeply 
appreciate. Today, I wish to thank you for the opportunity to 
share relevant information about the Army National Guard and 
also thank you for your continued support.
    I am accompanied today by Command Sergeant Major Burch, the 
senior enlisted soldier in the Army National Guard and Nebraska 
guardsman, and Command Chief Warrant Officer Nisker, the Senior 
Command Chief Warrant for the Army National Guard.
    The last decade has seen the Army National Guard transform 
to an operational force. The congressional initiatives and 
investments in the Army National Guard have contributed to our 
transformation and enhanced readiness as we continue to deploy 
in service to our Nation.
    Recent initiatives include soldier and support programs 
that allow us to recruit and retain the best and brightest. You 
have supported the resourcing for equipment modernization for 
our brigade combat teams, including One Stryker Brigade and our 
Combat Aviation Brigades, among other forces inside the Army 
National Guard.
    Through the support of this subcommittee, our Nation has 
invested billions of dollars in equipment for the Army National 
Guard in the past 6 years. The delivery of that equipment has 
nearly doubled our equipment on-hand rates for the critical 
dual-use equipment over the last 5 years.
    I would be remiss if I did not point out how important 
NGREA and, again, the work of this subcommittee have been in 
modernizing and equipping the Guard. This year, we have 
achieved a critical dual-use equipment. That is equipment that 
has utility both in the war fight and homeland. The fill rate 
is 89 percent, 76 percent on-hand in the units available to the 
Governors should they need it tonight.
    The Army National Guard Aviation Program is a great 
example. Both fixed- and rotary-wing aircraft have provided 
huge benefits in support of domestic and overseas operations 
since 9/11. Army Guard aircraft regularly respond by 
transporting emergency supplies and personnel during floods, 
wildfires, during the Deepwater Horizon oil spill, and most 
recently, the tornadoes across the South and flooding we are 
now experiencing from Minnesota to Louisiana.
    Army Guard aviation provides a critical dual-use 
capability, whether in the mountains of Afghanistan or the 
Mississippi Delta. Through your efforts, we have come a long 
way in moving to modernize our aircraft from the venerable Huey 
to the LUH-72, UH-60 Lima and Mike models, CH-47 Delta 
Chinooks, and the AH-64 Delta Apaches. Again, we are well on 
our way in the modernization effort, but there remains work to 
do.
    Turning to our human dimension, we have learned a lot about 
support to our soldiers, their families, and employers over the 
past decade. It is critical that we work to ensure our force is 
employed, that they are physically and mentally fit, and that 
we understand the stresses that we ask them to endure, whether 
deployed or at home.
    It is vital that we continue to fund soldier and family 
outreach programs. In calendar year 2010, the number of 
reported Army Guard suicides nearly doubled--62 in calendar 
year 2009, compared to 113 in calendar year 2010. Within the 
Army Guard, we have set a goal to cut that number by one-half 
to 60 in 2011, knowing full well 1 suicide is too many.
    Most States have developed comprehensive social support and 
mental health initiatives. These programs emerged out of a need 
to strengthen soldier resilience. Several of our States, 
including Michigan, Nevada, Nebraska, California, Wisconsin, 
Kansas, Hawaii, Vermont, and Illinois, have innovative 
resiliency programs. Across the Nation, the adjutant generals 
are committed and actively engaged in this effort. I credit 
them with the current downward trend we are experiencing in 
reported suicides.
    The Nation will benefit from the past investment and 
experience of the Army National Guard in the future. In a 
budget-constrained environment, the operational Army National 
Guard is a cost-effective solution.
    Again, I would like to acknowledge the critical role this 
subcommittee has played in building and sustaining the best 
National Guard I have seen in my career of nearly four decades. 
I look forward to your questions and comments.
    Chairman Inouye. Thank you very much, General.
    [The statement follows:]
        Prepared Statement of Major General Raymond W. Carpenter
                            opening remarks
    Chairman Inouye, Ranking Member Cochran, distinguished members of 
the subcommittee; I am honored to appear before you today, representing 
360,000 plus Citizen-Soldiers in the Army National Guard, an 
organization that is historically part of the foundation of our great 
democracy.
           citizen soldiers as part of the operational force
    Our Army National Guard (ARNG) is approaching a decade of war with 
an all-volunteer force. Our Army National Guard Mobilizations in 
Support of Overseas Contingency Operations in fiscal year 2010, 
including Soldiers who have mobilized multiple times, were 41,744 for 
Operation Enduring Freedom (Afghanistan) and Operations Iraqi Freedom 
and New Dawn, and another 3,054 mobilizations to the Balkans, Sinai, 
and elsewhere around the world. A staggering 477,323 Soldiers have been 
activated since 9/11, and 34,700 Soldiers are currently mobilized as of 
March 5, 2011.
    We are an operational force in a transition mode within the 
ARFORGEN rotational cycle. To the credit of our Soldiers and their 
leaders, we are experiencing huge successes in our homeland defense and 
overseas missions. We continue to see young and not-so-young people who 
want to join and serve in the ARNG. Just as impressive are the 
retention rates of our current serving force; most are combat veterans 
who make the decision to continue to serve at historic rates; they 
clearly understand we are at war. Our reenlistment rate as of EOM 
February 2011 for enlisted Soldiers is 72.4 percent of our total force 
and 73.8 percent of our Soldiers with Mobilization experience. These 
retention numbers are especially impressive when we consider that at 
the end of fiscal year 2010 the average dwell time for our Soldiers 
with mobilization experience was 2.4 years. As a first step, the Army 
goal is to achieve 4 years dwell by 2014, but balancing the force will 
not happen overnight.
    The experience we have gained since 9/11, the modern equipment 
fielded, the training delivered to our Soldiers, and the frequency of 
deployments, have resulted in a highly seasoned, well-equipped combat 
force. As of end of month December 2010, 53 percent of ARNG Soldiers 
are combat veterans; more than half of our force--and we hope to retain 
that level of experience. Our force has truly become an operational 
force. At the end of fiscal year 2010, 84.45 percent of ARNG forces 
were Duty Military Occupational Specialty (MOS) Qualified--an 
escalating increase from 73.27 percent at the end of fiscal year 2008 
and 83.06 percent in fiscal year 2009. The experience of our Army 
National Guard in recent years has strengthened our Soldiers and units 
to the benefit of our Nation like no other time in recent history. 
Several high-level research studies have been commissioned to guide the 
future of our Army National Guard operational force including an OSD-RA 
study and the General Reimer study. Ultimately, these studies agree 
that for a relatively modest investment, an Operational Army National 
Guard can be sustained. In return, the Nation will benefit from the 
past investment and experience of the ARNG. In a budget-constrained 
environment, the Army National Guard is an extremely cost-effective, 
substantially paid-for option that the Nation needs to sustain. It is 
important that we maintain our key force structure elements of 8 
Divisions, 8 Combat Aviation Brigades, and 28 Brigade Combat Teams 
(BCTs).
                    equipment and critical dual use
    Our Nation has invested over $37 billion in equipment for the Army 
National Guard in the past 6 years. That investment was made in both 
Critical Dual Use (CDU) and other required equipment, used for both 
domestic homeland crisis response missions and overseas contingency 
operations. Overseas contingency operations have spurred improvements 
in the capacity of the ARNG to support the war effort, to respond to 
natural and man-made disasters, to provide critical assistance during 
State and national emergencies, and to be prepared to respond to 
potential terrorist attacks in defense of the homeland. Our homeland 
response enterprise includes 10 Homeland Response Forces (HRFs)--2 
validated in fiscal year 2011 and 8 in fiscal year 2012, 17 Chemical, 
Biological, Radiological, Nuclear and High Yield Explosive (CBRNE) 
Enhanced Response Force Packages (CERFPs), and 57 Civil Support Teams 
(CSTs).
    CDU equipment includes tactical radios, rotary aircraft, ground 
transportation vehicles, and digital command and control enablers. The 
Army has made significant efforts to improve the ARNG CDU equipment 
posture and remains committed to ensuring the ARNG has the CDU 
equipment required to support Homeland Defense/Homeland Security (HLD/
HLS) and Defense Support to Civil Authorities (DSCA) operations. To 
highlight this level of commitment, ARNG equipment-on-hand rates for 
Critical Dual Use equipment are projected to increase to 94 percent by 
October 2012. That's an increase of 19 percent over the 4 years since 
the ARNG began monitoring CDU rates.
    During fiscal year 2010, the ARNG received over 154,000 pieces of 
new equipment valued at $9.8 billion. With this influx of new 
equipment, the on-hand percentage for all equipment is currently at 92 
percent and continues to be maintained at levels greater than 90 
percent. The Army continues to improve the equipment on hand and 
modernization levels for the Army National Guard. The Army views this 
as critical for the ARNG to be employed as an operational force. The 
Army Equipping Strategy established equipping aim points for units as 
they progress through the Army Force Generation (ARFORGEN) process 
which will help build unit readiness and maintain unit parity in terms 
of both modernization and interoperability.
                           quality facilities
    The Army National Guard is a community based force. As such, our 
facilities are often the foundation for community support of an all-
volunteer force. The ARNG has made some great progress with several 
LEED (Leadership in Environmental and Energy Design) Silver certified 
facilities meeting the qualifying requirements for recycled material 
usage, natural lighting, and energy conservation. We have further 
opened the call for volunteer installations to take part in Army 
IMCOM's Net Zero initiative. The ARNG, however, still has much work to 
do to provide quality facilities to perform our dual mission across the 
54 States and Territories. Quality facilities link directly with 
Soldier readiness, family, youth, and morale programs such as Yellow 
Ribbon and Youth ChalleNGe. The ARFORGEN model requires increased usage 
of ARNG facilities. Forty percent of ARNG readiness centers are more 
than 50 years old and require substantial modernization or total 
replacement to meet the needs of an operational force. To achieve 
quality in facilities, we have thus far executed 99 percent of Milcon 
funds in fiscal year 2010 and estimate we will need $774 million in 
Milcon dollars for fiscal year 2012.
                            aviation support
    The Army National Guard (ARNG) aviation program, both fixed and 
rotary wing aircraft, provided huge benefits in supporting Domestic 
Operations this past year. Every year offers ARNG aviation a new set of 
challenges. Last year, fixed-wing aircraft transported emergency 
supplies and personnel during floods, wildfires, and other emergencies 
across the Nation and throughout the gulf coast during the aftermath of 
the Deepwater Horizon oil spill. During the oil spill recovery effort, 
ARNG aviation crews logged 3,722 hours and moved over 16 million pounds 
of cargo. The Operational Support Airlift Agency provided critical 
combat support by transporting blood donations and Wounded Warriors 
across the United States. Fixed-wing aircraft also transported much-
needed supplies and personnel to Haiti after the January 2010 
earthquake. At home and abroad, these aircraft flew 53,029 hours, 
completed 11,312 missions, transported over 3.5 million pounds of 
cargo, and carried more than 70,000 passengers.
    Rotary wing units and aircraft in fiscal year 2010 flew 
approximately 50,000 hours in civil support. These missions included 
support of disasters and declared emergencies in which Guard aviation 
displayed versatility and flexibility such as responding to the largest 
oil spill to affect the United States, the Deepwater Horizon spill. 
ARNG rotary wing crews flew missions such as sand bag emplacement, 
personnel evacuation, engineer damage assessment, and law enforcement 
agency support. In Haiti the Puerto Rico National Guard flew two UH-60s 
based out of the Dominican Republic in support of the American Embassy 
in Port-au-Prince giving an early signal that help was on the way to 
support the restoration of health services. ARNG Security and Support 
aircraft and crews continue to provide planned support to counterdrug 
operations nation-wide and notably along the Southwest border. Our 
aviation forces responded to floods in Arizona, North Dakota, 
Louisiana, and West Virginia; provided wildfire support in Minnesota; 
and flew search and rescue missions in California, Colorado, New 
Mexico, Nevada, and Oregon. ARNG rotary wing missions crossed the full 
spectrum of domestic support.
    ARNG fixed wing and rotary wing capabilities have been and continue 
to be a critical dual use asset that the Army and Adjutants General 
rely heavily upon. The operational tempo of our ARNG aviation units 
continues to be elevated as overseas commitments and domestic support 
requirements remain steady.
    Army National Guard aviation not only supports Domestic Operations 
such as responses to hurricanes, oil spills, search and rescue 
operations, forest fires, floods, and weather emergencies, in addition, 
we continue to support overseas deployments such as Operation Enduring 
Freedom, Operation New Dawn, and Kosovo. We do so with an aging 
aircraft fleet. Since 2001, the ARNG has retired over 600 legacy 
aircraft and fielded 300 modernized aircraft. The ARNG is 
simultaneously modernizing aircraft to reduce sustainment costs, 
increase readiness, and support interoperability for the deploying 
force. ARNG aviation also includes Unmanned Aircraft Systems and 
related Ground Support Equipment. Aviation and related support systems 
remain persistent items of interest on modernization priority lists.
    The Army needs to continue its modernization plan if the ARNG is to 
meet current and future demands in the Homeland and on missions abroad. 
The ARNG fleet currently has shortfalls in CH-47 Chinook and AH-64D 
Apache airframes.
    The Assistant Secretary of the Army (Acquisitions, Logistics and 
Technology) recently directed the Program Executive Office--Aviation to 
divest the C-23 Sherpa aircraft not later than December 31, 2014. In 
accordance with Army guidance, the ARNG developed a plan to retire the 
42 existing C-23 aircraft in 2011-2015. The 2010 Vice Chief of Staff, 
Army capability portfolio review directed a requirements-based 
assessment on the need for Army utility fixed wing aircraft. The ARNG 
expects more fidelity from HQDA in the coming months on the number of 
utility fixed wing aircraft the ARNG will continue to retain and 
operate to meet Army fixed wing requirements.
           national guard and reserve equipment appropriation
    The National Guard and Reserve Equipment Appropriation (NGREA) is a 
special Defense Appropriation that complements each Service's base 
appropriation. NGREA is intended to procure critical modernization 
items of equipment that the base appropriation is not able to fund.
    The Army's goal is to ensure that ARNG units are equipped properly 
with Critical Dual Use (CDU) capabilities to execute Homeland Defense 
and Defense Support to Civil Authorities (HLD/DSCA) missions 
effectively. These missions include Federal such as overseas 
deployments and state such as disaster relief in support of the 
governors. Our specific ARNG goal is to equip the ARNG with over 80 
percent of the CDU requirement. The Army has committed to keeping CDU 
equipment levels above 80 percent on hand. According to the National 
Guard and Reserve Equipment Report (NGRER) 2010 report, the ARNG has 
the following key equipping challenges: Achieving full transparency for 
procurement and distribution; equipping units for pre-mobilization 
training and deployment; equipping units for their Homeland Missions; 
modernizing our helicopter fleet; and modernizing our Tactical Wheeled 
Vehicle (TWV) fleet.
    The above challenges involve obtaining a full complement of ``heavy 
tactical vehicles, small arms, communications systems, field artillery 
systems, and combat systems'' (NGRER, 2010, p. 1-8)
                     military construction (milcon)
    Currently, 40 percent of or Readiness Centers are over 50 years 
old. Not only do many of these facilities fail to meet the needs of a 
21st century operational force, many fall short of DOD, Federal, or 
State building standards and requirements to include: anti-terrorism/
force protection, energy efficiencies, and Americans with Disabilities 
Act (ACT) requirements. The Army National Guard fiscal year 2012 
military construction request for $774 million is focused on improving 
this situation and making additional Milcon improvements in the 
categories of Grow the Army, Modernization, Transformation, Training 
Support, and Planning and Design and Unspecified Minor Military 
Construction. Under the Grow the Army category, we are submitting a 
request of $101 million for 11 Readiness Centers. These new Readiness 
Centers will be implementing the energy efficiencies. For 
Modernization, our budget request includes $197.7 million for 11 
projects including readiness centers and aviation support centers in 
support of our modern missions. For Transformation, we are requesting 
$197.9 million for 10 projects which include 3 Tactical Unmanned 
Aircraft System Facilities (TUAS), 5 Readiness Centers, 1 Army Aviation 
Support Facility, and 1 Field Maintenance Shop. For Training Support: 
In fiscal year 2012, the Army National Guard is requesting $245 million 
for 16 projects which will support the training of our operational 
force. These funds will provide the facilities our Soldiers require as 
they train, mobilize, and deploy. Included are five Operations 
Readiness and Training Complexes (ORTC), seven range projects, one 
Maneuver Area Training and Equipment Site (MATES), one railhead 
expansion and container facility, and two deployment processing 
facilities. For Other Support Programs, our fiscal year 2012 Army 
National Guard budget contains $20 million for planning and design of 
future projects and $12 million for unspecified minor military 
construction to address unforeseen critical needs or emergent mission 
requirements.
    Lack of a fully funded Milcon request creates a significant backlog 
for construction projects. Deficiencies primarily exist in four main 
areas within ARNG facilities: readiness centers, training facilities, 
maintenance facilities, and infrastructure. The funding backlog for 
readiness centers is $30.3 billion; the majority of these facilities 
cannot meet anti-terrorism/force protection (AT/FP) requirements.
                            arng resilience
    People are our most precious resource. The quality of the Citizen-
Soldiers of the Army National Guard is unprecedented. However, we are 
experiencing a troubling increase in the incidence of suicides. In 
calendar year 2010, the ARNG suicide rate nearly doubled; the number of 
ARNG suicides for calendar year 2009 and calendar year 2010 were 62 and 
112, respectively. Ninety-one percent of the ARNG Soldiers who 
committed suicide were Traditional Drilling Guardsmen vs. full-time 
Army National Guard and are not eligible for many of the support 
services available to the AC or our Title 32 Active Guard and Reserve 
Soldiers. Some had deployed in support of Army operations and over half 
had not deployed or were still in the process of being indoctrinated 
into the ARNG. While we do not know what triggers their decisions, we 
do know that the stressors that may affect their outlook such as 
employment, relationship issues and previous behavioral health issues 
must be identified and mitigated to promote their welfare and well-
being. Subsequently, the ARNG is teaming with DOD and the Army to 
incorporate Traditional Drilling Guardsmen into future studies such as 
the Study to Access Risk and Resilience in Our Service Members 
(STARRS).
    The ARNG has made the promotion of Resilience and Risk Reduction 
with a corresponding decrease in suicidal behavior our top priority. 
The ARNG has developed a holistic approach to enhance the resilience 
and coping skills of our Soldiers, Families, and Civilians by promoting 
risk reduction through leadership awareness, training and intervention 
programs. The ARNG Resilience, Risk Reduction and Suicide Prevention 
Campaign Plan was developed to promote an integrated program of 
prevention, intervention and mitigation at all levels. This document 
nested all other collaborative efforts within DOD, Army and NGB to 
promote unity of effort and synchronize our objectives. The plan was 
also distributed to State Leadership to shape and focus their efforts 
on improving the mental, physical, and spiritual health of their 
Soldiers and Families throughout our formations.
    Since our Citizen-Soldiers are reflective of society as a whole, it 
comes as no surprise that in-depth analysis indicates the increased 
ARNG suicide rate may correspond to an increasing national trend in at-
risk and suicidal ideations and attempts. In addition to our efforts to 
promote Soldier resilience, the ARNG leadership also recognizes the 
role of ARNG Families, Peers, and Employers as providing the foundation 
of each Soldier's support network. These groups are present in the 
Soldier's life between their traditional drill periods and have the 
ability to identify and address negative behaviors before they lead to 
functional impairment or at-risk behaviors. The ARNG provided the 
States with training programs for both family members and employers to 
assist in identifying those that should be referred to unit leadership 
for assistance and the applicable support services available in their 
community. States have capitalized on community based resources and 
solutions to provide services beyond the installation.
    The ARNG resourced 54 Suicide Prevention Program Managers in the 
States in fiscal year 2010 and trained over 200 Master Resiliency 
Trainers assigned to brigades and battalions. We are striving to help 
each of our Soldiers become ready and resilient. For instance, the ARNG 
Leader's Guide to Soldier Resilience was developed to provide ``battle 
drills'' for common Soldier issues; this publication complements the 
ARNG CSM's Soldier to Soldier Peer Support program promoting ``Buddy 
Aid'' including basic intervention skills and trigger points for 
referrals or emergent care. The ARNG CSM has emphasized the roles and 
responsibilities of leadership during his two national CSM conferences 
this past year. Our Soldiers and families are encouraged to take the 
Global Assessment Tool, which identifies individual resilience levels 
and uses the self developmental modules to increase self awareness and 
resilience. Additionally, we increased collaboration with the Army 
Center for Substance Abuse in order to address substance abuse 
prevention, outreach and treatment for Soldiers, as well as Leaders and 
Families, so they understand their roles. Our efforts to increase 
assets available to Commanders to improve Soldier resilience include 
partnerships with national and community organizations such as the 
American Red Cross, Substance Abuse and Mental Health Services Agency, 
counselors and clergy, and use of the Army's Comprehensive Soldier 
Fitness Program.
    Within the Army National Guard, we have set an ultimate goal of 
zero suicides. Our current count is 12 suicides so far this calendar 
year versus 22 this time last year. At this time it is too early to 
determine State level trends but we will continue to monitor them. 
Several States have developed comprehensive social support and mental 
health initiatives. These programs emerged out of a need to promote 
Soldier and family resilience and reduce potential stressors including 
employment and financial issues, domestic strife and promoting 
reintegration following deployment. Several of our States including 
Michigan, Nevada, Nebraska, California, Wisconsin, Kansas, and Illinois 
have innovative resilience programs and the National Guard Bureau is 
encouraging the exchange and expansion of best practices. The Army 
National Guard, in conjunction with the Active Army, the Department of 
Defense, the Department of Veterans Affairs, and each of the States, 
territories, and District of Columbia has made turning this trend 
around a priority. Many more efforts too numerous to cover here are 
ongoing and I am confident that, as a team we will turn this trend 
around. In the end, I believe the Soldiers and Families of the Army 
National Guard will be more resilient and ready in the service to the 
communities, States and the Nation.
    While the ARNG is making great strides within States to integrate 
suicide prevention, intervention, and risk mitigation at all levels, 
more work needs to be done in this area. Desired ARNG capabilities, in 
terms of resilience, risk reduction, and suicide prevention, include 
emergent care and treatment for ARNG Soldiers regardless of status; 
behavioral health and substance abuse treatment for Soldiers, 
regardless of status; resources to train and support State Resilience 
and Crisis Intervention personnel; and embedded behavioral health 
capability at the brigade level to promote healthy lifestyles and 
provide early identification of the potential at-risk Soldiers. After a 
nearly decade-long era of ``persistent engagement,'' ARNG families have 
been truly remarkable and their health and well-being are absolutely 
critical to the security of the Nation. The services are vital to 
sustain our role as an operational force as well as promoting the 
continuum of care for those AC Soldiers who will transition to the RC 
during the upcoming reduction in the Army's end strength.
    Acknowledging unemployment as a stressful challenge affecting our 
Soldiers and Families, the Army National Guard implemented employment 
outreach as a necessary step in building resilience. The Job Connection 
Education Program is an employment initiative designed to help improve 
quality of life for unemployed or underemployed Soldiers. This program 
focuses on how Soldiers seek, obtain, and retain civilian employment.
    In 2009, the Army Reserve and the Army National Guard became 
partners in a collaborative effort to build relationships with 
employers. In 2010, the employment program was renamed to the Employer 
Partnership Office (EPO). The goal of the EPO program is to create 
employment opportunities for Soldiers by establishing a good working 
relationship with the private sector. The program, in 2011, is known as 
the Employer Partnership of the Armed Forces. Members from all the 
Reserve components, their Families, and Veterans have access to the 
tools and benefits of this program.
    Of most importance is the effort to build resilience in our 
Soldiers. We are training ``Master Resilience Trainers'' and 
``Resilience Training Assistants'' both of whom are Soldiers with 
acquired resources and insights. They will be assigned to every 
Company-size unit and will be responsible for teaching Soldiers coping 
skills. There are many more efforts too numerous to cover here that are 
ongoing and I am confident that, as a team we will turn this trend 
around. In the end, I believe the Soldiers and Families of the Army 
National Guard will not just be physically strong, but will be an 
emotionally and spiritually stronger force in service to our States, 
territories, District and Nation.
                           medical readiness
    Medical readiness of the Army National Guard is one of our highest 
priorities and as such we have provided the States with additional 
resources in support of the medical readiness mission. A national Case 
Manager/Care Coordinator contract has been in place since 2006 to 
assist in supporting the management of Soldiers identified with medical 
conditions that prevent deployment. Currently 100 Nurse Case Managers 
and 328 Care Coordinators are supporting all medical issues to ensure 
Soldiers have the best opportunity to regain medical deployability 
status.
    In the past 2 years we have added full-time Medical Readiness NCOs 
(Non-Commissioned Officers) located in Battalion and above 
organizations. Medical Readiness NCOs are responsible for the 
identification of medical conditions which may require some action by 
the case management team and serve as the medical readiness advisor to 
the commander.
    Medical care has always been in place to support any Soldier in the 
ARNG with an injury or illness proven to be in the Line of Duty (LOD). 
The care is coordinated with the Military Medical Support Office 
through our Joint Force Headquarter Health Systems Specialist (HSS). 
Medical care provided based on an LOD is limited to the condition that 
occurred while in a duty status.
    Additional efforts have been made administratively to provide 
assistance to those Soldiers identified that have certain medical 
conditions. The ARNG Medical Management Processing System was 
introduced this past December and provides a framework to manage 
Soldiers identified with medical conditions through the complexities of 
our healthcare systems. Effective use of this framework can assist in 
the return of Soldiers into our formations or into the Physical 
Disability Evaluation System (PDES).
    In an effort to assist reserve component Soldiers who were having 
difficulty in negotiating through the Army PDES, the Army established 
the Reserve Component Soldier Medical Support Center. The purpose of 
the RC SMSC is to expedite and assist Soldiers with PDES processing and 
ensure packets going through this system are complete, validated and 
tracked through the Electronic Medical Board system (eMEB). We are 
currently validating our numbers, however, it appears up to 12,000 
Soldiers in the ARNG may require processing through the Medical 
Evaluation board/Physical Evaluation Board (MEB/PEB).
    When preparing our Soldiers for mobilization much time and effort 
is taken to ensure all Soldiers meet the medical standards as outlined 
by the theater of operation. Today, units arrive at mobilization 
stations with over 90 percent of all Soldiers in the ARNG arriving at 
the mobilization station ready for deployment. The other 10 percent 
have minimal medical actions required in order to clear them for 
deployment. With that said less than 1 percent of the ARNG Soldiers 
sent to mobilize come back to the State with an identified medical 
concern that prevents them from deploying into their theater of 
operation.
    Since September 2001, 640 ARNG Soldiers have paid the ultimate 
sacrifice in combat operations while 5,152 were wounded in action. As 
of March 7, 2011 the ARNG has 1,795 Soldiers assigned to the Warrior 
Transition Unit (WTU), 1,481 assigned to the Community Based Warrior 
Transition Unit (CBWTU) with a combined population of 3,276 Soldiers 
currently assigned. The cumulative numbers of Soldiers assigned since 
September 2001 is 29,007. Additionally, 5,164 Soldiers have been 
wounded in action and 10,702 suffered from disease or non-battle 
injuries while deployed in support of contingency operations.
    Soldiers who have deployed in support of a contingency operation 
have additional medical resources to call upon when the need arises. 
All Soldiers who deploy are eligible for TRICARE Early Eligibility 180 
days prior to mobilization and 180 days post mobilization through the 
Transitional Assistance Management Program (TAMP). Eligible family 
members are also able to participate in TRICARE during the Soldiers 
mobilization. Soldiers can also enroll in the Department of Veterans 
Affairs (VA) healthcare system during demobilization. Recently 
discharged combat Veterans are eligible to take advantage of an 
enhanced healthcare enrollment opportunity for 5 years after discharge. 
After the 5 year period, these Veterans will still be able to apply for 
health benefits with VA, but will have their status for receiving VA 
healthcare determined under normal VA procedures that base healthcare 
priority status on the severity of a service-connected disability or 
other eligibility factors. This would mean some Veterans could face 
income or asset-based restrictions, as well as delays in establishing 
their VA healthcare eligibility while their disability status is 
determined.
    Providing care for our Soldiers who have never deployed has 
improved since Congress passed legislation in 2008 to support 
participation in the TRICARE network via TRICARE Reserve Select (TRS). 
TRS is a premium based health plan available for members of the Ready 
Reserve and their family members. Current premiums are $53.16 per month 
for member only coverage and $197.76 a month for member and family 
coverage. Although that might not seem like a lot of money, for a 
junior enlisted Soldier that could mean his or her entire monthly drill 
check going to pay for healthcare premiums. As of January 2011, 15,769 
Soldiers are currently enrolled in TRS in the Army National Guard. The 
ARNG is focusing on reducing the number of medically non-deployable 
Soldiers within our formations, but without a full-time healthcare 
benefit medical readiness remains a challenge.
                            closing remarks
    I appreciate the opportunity to be here today and invite your 
questions and comments.

    Chairman Inouye. And now, may we begin the questioning?
    General McKinley, as we noted, the equipment levels of the 
Army and Air Guard have improved significantly, and I think it 
is due partly to the funding provided by Congress. The Army 
Guard now is 77 percent of the equipment requirements, up from 
40.
    Now, I have two questions, General. Have these increases 
improved readiness? And second, what additional equipment 
challenges remain?
    General McKinley. Chairman Inouye, I agree explicitly with 
your comment. We have really had a marvelous turnabout in our 
equipment fill rates. And I say that because your adjutants 
general tell me that. And my predecessors, our predecessors, 
working with your subcommittee, you know, put a line in the 
sand and said we need your help.
    And through the National Guard and Reserve equipment 
account, we have been able to fill out most of our critical 
needs. For us, the dual-use critical needs that can be used 
overseas and here at home to protect lives and property.
    I can assure you that it has improved readiness, and I will 
turn to my two colleagues to give you specific examples. But we 
cannot rest on our laurels. And that is the key for this 
operational force. This operational force did not just happen. 
It came on the backs of the taxpayers in this great country and 
by the fact that this subcommittee watched out for its National 
Guard and Reserve so carefully.
    After every major conflict that our country has faced and 
finished, the Guard and Reserve have been put back on a shelf 
to allow to deteriorate and go back to a state of unreadiness. 
And I think that my colleagues here at this table would ask 
that we not squander those gains because it has come at a great 
price. And we do have a magnificent National Guard today that 
all of you have seen, as you have gone home to visit.
    Ray, can you comment on the specific readiness 
improvements?
    General Carpenter. Senator, I would tell you, in the Army 
National Guard over the last 6 years what we have witnessed is 
fill rates inside of the organization that we never experienced 
before. We were short when we started into this global war on 
terrorism about 10,000 Humvees. We have all those Humvees now.
    The task now is modernization of equipment. We have nearly 
60 percent of our UH-60 Alpha model fleet that needs to be 
modernized over the next 7 years, and we have a plan, along 
with the Army, to make sure that that happens.
    We are still in the business of modernization in terms of 
our wheeled vehicle fleet, both in terms of medium trucks and 
heavy trucks. We have got shortfalls in communications 
equipment, night vision goggles, and some of the weapons 
systems. So even though we have the fill of the equipment, much 
of it is legacy, and the work left to do is modernization in 
the Army National Guard.
    General Wyatt. The Air National Guard has been fortunate in 
the past, oh, 10, 15 years in that the Air Force has relied 
upon us to be that operational force and has funded us 
adequately to do that. The issues today, however, are twofold 
for the Air National Guard, very similar to the issues that the 
United States Air Force faces, and that is we have a lot of old 
equipment.
    We have a recapitalization plan that we are working with 
the United States Air Force. We, to remain an operational 
force, need to be recapitalized concurrently at the same time 
as our active brothers and sisters and in a balanced fashion 
across all three of the components.
    To the extent that we must continue to rely upon legacy 
equipment--and we will continue to do that--modernization 
becomes the key. And this is where the NGREA account and the 
support that we have gotten from Congress has been significant 
and will be critical in the out-years. Because we know we are 
going to have to rely upon some of these legacy aircraft, some 
of these legacy systems, to remain that operational force that 
the country needs and that the Air Force needs.
    Right now, our equipment on hand is around 88 percent. 
Historically, it has been a little bit higher than that. With 
the current funding in the out-years, unfortunately we see that 
percentage dropping 1 to 2 percent per year through the next 4 
or 5 years without any additional support.
    So that is where the key support from Congress that we rely 
upon is to make sure that we use those monies smartly to make 
sure that our legacy systems are modernized for not only the 
overseas fight, but for the domestic protection of our citizens 
here at home.
    Chairman Inouye. Gentlemen, it has been suggested that in 
order to maintain effectiveness and readiness, family support 
services are absolutely essential. We have heard a lot about 
Yellow Ribbon. Can you tell us the present status of it?
    General McKinley. I think from my perspective, Senator 
Inouye, these last 10 years have been a challenge for the 
National Guard that they have met, in that our force was never 
designed in the 20th century for what it has been asked to do 
in the 21st century. A huge burden of that redesign has come on 
the backs of our employers and our families.
    Our traditional strategic force very rarely took employees 
in large numbers out of our local businesses, industry, police 
forces, firemen. That has changed dramatically. Our employers 
deserve a great deal of credit for that.
    Most importantly, and to your question, Yellow Ribbon. How 
do we bring our returning airmen and soldiers home, reintegrate 
them with their families, give them the care, and the necessary 
outreach that brings them back here, to treat their medical 
issues, to treat the issues that they experienced while they 
were deployed, and then to have those families come back 
together as a unit?
    I think Yellow Ribbon, and through the support of this 
subcommittee, has done a great deal to bring us back together 
as a family and a team. Our communities have done a great job. 
Our Governors in our States, territories, and the District have 
done exceedingly well. But we are still on the leading edge of 
this, and we will have decades to go to make sure we do not 
leave any guardsman or woman behind.
    Ray, would you like to comment on Yellow Ribbon?
    General Carpenter. Yes, sir.
    Senator, as you well know, the structure of the Reserve 
component is a geographically dispersed force that we only see 
in most cases once a month. And so, the challenge is how do we 
provide the same kind of service that our soldiers or the 
soldiers in the active component get from their installations? 
And Yellow Ribbon has been critical in that effort.
    In fiscal year 2011, we have conducted over 500 events. We 
have touched over 34,000 soldiers and families in that process. 
And it has been critical for us not only to maintain contact 
with those families and with those soldiers, but to provide the 
support and care that is necessary for them to sustain 
themselves and to make sure that we can maintain the Army 
National Guard that I described in my opening statement.
    General Wyatt. The Yellow Ribbon has been critical, I 
think, for the support of our airmen, both pre-deployment, 
during deployment, and post deployment. I have gone out to the 
States on several occasions and helped to present some of those 
programs to our airmen in the field.
    And the thing I want to do is take my hat off to the 
adjutants general because I think they have done a marvelous 
job of leveraging the resources provided through the Yellow 
Ribbon program with volunteers within their States, with some 
of the resources provided by some of the State agencies to take 
care of our airmen.
    I can give you a practical example of how we in the Air 
National Guard have specifically relied upon the Yellow Ribbon 
program to address the suicide issue that General Carpenter 
mentioned on the Army National Guard side of the house. We have 
the same issues in the Air National Guard side of the house, 
and we feel the strength of our organization is at the wing 
level.
    We have 89 wings in all 50 States, Guam, Puerto Rico, 
Virgin Islands, and the District of Columbia. And we made a 
decision this last year when funding was not available for 
embedded mental health professionals in each of the wings to 
use some of the Yellow Ribbon program to access the mental 
health professionals and place them at the wing locations. Had 
it not been for the Yellow Ribbon program, we would probably 
have not been able to do that.
    We are seeing significant improvements this year versus 
last year. We had 19 suicides in the Air National Guard last 
year, an all-time high. At this point in time last year, we had 
seven. So far this year, we have two. Some of the credit to 
that I am sure belongs to the Yellow Ribbon program and the 
health professionals that we have at each of the wings.
    Thank you.
    General McKinley. Senator, I am a little concerned--if I 
could just put something on the table for discussion--that most 
of the funds for our family programs are in overseas 
contingency operations (OCO) funding, supplemental funding. And 
had it not been for this subcommittee to provide monies that 
the Army and the Air National Guard could redirect to Yellow 
Ribbon and other things, we would not have that money in the 
budgets.
    And our Army and our Air Force realize that, and they are 
working hard with us to try to build these family programs into 
the base budget. But as you know, that will be a challenge in 
the future. So we continually depend on your help to make sure 
that the National Guard doesn't get left behind in the critical 
programs that I said will take decades to overcome. And we 
thank you.
    Chairman Inouye. I can assure you that this subcommittee, 
if we are to send men and women into harm's way, make certain 
they are properly equipped and properly trained. That is our 
promise.
    I have many other questions relating to suicides and the 
Southwest border mission and equipment shortfalls, but I will 
submit them to you, if I may?
    And now may I call upon the vice chairman?
    Senator Cochran. Mr. Chairman, thank you.
    I am curious to know what the status is between the panel 
we have here and the assessment of the need to cooperate with 
State and local governments when they are confronted with 
natural disaster challenges, such as the Lower Mississippi 
River Valley flooding situation right now.
    Is there a protocol or a regime for communication? Have you 
been called on to provide any additional resources to the 
States in that general area because of the Mississippi River 
flooding? Would that be something that you are authorized or 
required to respond to under the current state.
    General McKinley. Senator Cochran, by statute, the National 
Guard Bureau, the colleagues that are here in front of you 
today, are the channel of communications between the Department 
of Defense and the States, territories.
    I have talked to General Freeman, your adjutant general in 
Mississippi, on numerous occasions as the flood waters have 
increased. I have offered the services of our directorates here 
in Washington. He and Governor Barbour have asked for 
additional resources. They have sent those requests for 
additional funds to the Secretary of Defense, and the Secretary 
of Defense is working those on a case-by-case basis.
    But as you know, we are dealing with a crisis, multiple 
States, multiple jurisdictions. And it is our role to make sure 
that the adjutants general in those States communicate directly 
with us so that we can convey their issues and concerns to 
Secretary Gates through Secretary Paul Stockton, Secretary for 
Homeland Defense.
    Senator Cochran. Well, I think the good news is, from what 
I understand the facts to be, that the protection system of 
levees and preparation that have been undertaken over the last 
several years have worked to protect against flooding from the 
main stem, the Mississippi River itself, into those States that 
I mentioned.
    But what we are seeing develop is a backing up of waters 
outside the main levee system in the lower reaches of the river 
and backing up against the levees from the outside in and 
thereby causing a lot of farm land and other lands to be 
flooded at a very serious and dangerous level right now.
    That is one concern that I have. And I wonder if that is 
being discussed or your team is assessing all aspects of the 
situation there?
    General McKinley. Our team is more involved in the 
resourcing, providing resources to the National Guard in 
support of the Governor. The Army Corp of Engineers is doing a 
great job looking at those structural issues which you talk 
about. This is a centuries-long process. This flood is going to 
cause issues for months, maybe a year ahead of time.
    And I know it starts up in Indiana. I visited Marty 
Umbarger here last week. All the way down the Mississippi River 
basin, we are seeing the effects of this. So it is going to 
challenge all the Governors, all the States. It is going to 
require the National Guard to be there to support. And I pledge 
my firm commitment to you, Senator, to all of the States along 
the Mississippi River, our full support.
    Senator Cochran. We thank you very much for that 
commitment.
    Thank you, Mr. Chairman.
    Chairman Inouye. Senator Coats.
    Senator Coats. Thank you, Mr. Chairman.
    And thank you, gentlemen, for your service to the country. 
I appreciate that, as we all do.
    General McKinley, you just mentioned our Adjutant General 
Umbarger. It is my understanding you will be in Indiana next 
week. I wish I could be with you because we have a little 
treasure down there in central-southern Indiana that has turned 
into a pretty remarkable training site for any number of 
functions.
    You know, one minute you are--you would swear you are in 
the middle of an Iraqi war zone city. Next moment you are in a 
place where our uniformed personnel are interrogating an Afghan 
tribal leader. The flexibility and the capability of that 
facility down there at Muscatatuck is something that you can 
only appreciate when you see it.
    So I really thank you for taking the time to go down and 
look at that. I think it is somewhat unique. And it is 
adaptable to just any number of situations. You can crawl 
through tunnels. You can storm buildings. You can, as I say, do 
interrogations and be in the simulated war zones, all on the 
same piece of property. So thank you for doing that. Trust you 
have a successful trip.
    General Wyatt, I would like to just ask you a question 
about the 122nd Fighter Wing in Fort Wayne, Indiana. There has 
been a successful conversion from F-16s to A-10s. I don't know 
what your future plans are relative to the A-10 mission, but I 
don't want to put you on the spot here.
    But I would be happy to work with you in terms of whatever 
issues that you might have as we go forward to ultimately, 
hopefully, a transition to the F-35s. But that has been a unit 
up there that has been part of base relocations, and it is a 
facility that I think meets the needs. And again, I would like 
to continue to work with you on that.
    I have been asking this question of just about everybody 
that comes before the Appropriations Committee. So I will ask 
it to you. Each group that comes forward expresses legitimate 
needs, and yet we are facing a serious deficit, debt problem. 
And it looks as if in order to address it we might have to have 
some shared sacrifice on a number of things and swallow hard on 
some decisions.
    And so, I have been urging anyone on the receiving end of 
appropriations going forward to in a sense have at least some 
thoughts about a plan B on the shelf. If the numbers don't come 
in where we would like them to come in, how do we prioritize 
the essential--I mean, the absolute essential from the ``like 
to have but not absolutely essential,'' from the, you know, 
``if we were king and could have everything'' categories?
    So I just encourage you to be thinking along those lines 
because we face some hard realities in terms of the numbers, 
which is going to force all of us, I think, to think smarter, 
work harder, try to do more with less.
    And in that regard, I don't know if any of you want to 
comment on that. I know that you think about this all the time. 
I know that you have been going through these exercises. But is 
this something that is a priority, recognizing the reality of 
our budget situation?
    General McKinley. Senator Coats, let me just start, and 
then I will let my colleagues jump in from their perspectives 
from the Air Force and the Army. First of all, thanks for your 
acknowledgment of the National Level Exercise 11 (NLE 11) that 
will take place along the Mississippi River. It is a New Madrid 
Fault scenario that the Federal Emergency Management Agency 
(FEMA) has put in place for next week.
    They didn't expect to be dealing with real-world 
operations, but we are going to continue with NLE 11. And a 
major part of that will be conducted in Indiana at the Camp 
Atterbury training site and at Muscatatuck. It is hard to learn 
to say that name, but we have finally got it down.
    Senator Coats. It is. It took me a while also.
    General McKinley. Yes, sir. But it is a world-class 
training facility, one of several that the Army National Guard 
and the Air National Guard have around the Nation. And we thank 
you for your support. It is one of a kind.
    Facing hard realities. Obviously, being in the Department 
of Defense, Secretary Gates has set the bar very high for all 
of us to find efficiencies, to drill down and make sure 
everything we do comports with what we believe will be a 
declining budget.
    I am here to say, and I am sure my Reserve colleague chiefs 
will say, that the Reserve and the Guard provide a great value 
to America. About 7 cents of the dollar funds the National 
Guard, the Army and the Air. And our budgets are relatively 
spartan compared to some other budgets that we see.
    But that does not mean we should be immune from any of the 
discussions, the decisions, and the efficiency drills that are 
going on out there. And I can pledge to you that we are doing 
exactly that.
    Bud.
    General Wyatt. On the Air National Guard side of the house, 
you know, the point that you bring to the forefront, Senator, 
when we take a look at whether we will be able to fully 
recapitalize the United States Air Force I think remains to be 
seen.
    And you talked about the fighter wing at Fort Wayne. I had 
the privilege of visiting Fort Wayne in the first year that I 
was in the seat. They were just in that transition period from 
the F-16 to the A-10. And you are correct. They have made that 
transition very smoothly and are combat ready as we speak. That 
unit is a good example of what we are faced with, and I will 
talk about the fighter force in general.
    We have some of the oldest airplanes in the United States 
Air Force. And our challenge is to make sure that they remain 
combat capable, that our people are trained at the operational 
standards that they currently are at, as we take a look to see 
what the final recapitalization decisions will be.
    I don't think that we have the luxury of assuming that the 
recapitalization, as envisioned by the Air Force, will take 
place on time, on schedule, on budget. I think we have to be 
realistic to recognize that some of our legacy platforms are 
going to be around for a while. And the sooner we start--and we 
have started on all of our fighter aircraft and large airplanes 
also to make investments in the modernization of those 
aircraft.
    For example, in the C-130 fleet, we are making investments 
in the AMP program, which Congress has supported, to make sure 
that those aircraft can continue to fly while we wait for C-
130J recapitalization, if and when that might come.
    In the fighter fleet, we are investing in structural 
enhancements through service life extension programs. In the 
Block 30 F-16 fleet, we have done the same thing. In the A-10 
fleet, trying to modernize situational awareness, a fusion of 
intel and sensors across all the platforms. And we will 
continue to do that.
    I think the key, though, is we have a tendency to focus on 
the equipment. But I think our real focus should be on our 
people. Because we have the most experienced, the most mature 
air crew maintenance crews in the Air National Guard that we 
have ever had. And if we don't focus on our people, we will 
find out one of these days that we have allowed our 
capabilities to atrophy.
    We have got to take a look at prioritization and maybe take 
a look at some of the lesser important jobs and capabilities, 
not doing that any more, to make sure that our front-line 
military capability remains what it is. Those are the tough 
decisions that you have talked about.
    As most of the members of the subcommittee know, the 
Quadrennial Defense Review (QDR) requirements for the fighter 
force set forth certain numbers of total aircraft inventory and 
primary aircraft inventory, and that plan is at a moderate risk 
assumption. And we are at that point right now. So we have got 
to be very judicious as we go out in the future, whether it is 
acquisition of new airplanes or modernizing our old ones.
    Senator Coats. Yes, thank you.
    General Carpenter. Senator, I am a veteran of being dragged 
through the tunnels of Muscatatuck by General Umbarger also. 
But it is a great training site, and it provides value not just 
to DOD, but also for the other Government agencies.
    With regard to your comment about looking forward to the 
budget challenges, the reference point for us is we are still 
at two wars. And the Army and the ground forces and marines are 
fully engaged in that.
    Between General Stultz, my Army Reserve partner, we are 
working with the Army to ensure that we make the right 
decisions about where we make reductions and to sustain this 
operational force. Because, frankly, the huge investment that 
has been made in terms of equipment, training, and manpower, if 
we don't take advantage of the Guard and Reserve in that 
particular perspective, we will be poorer, and we will have 
slighted the taxpayer.
    Senator Coats. Thank you.
    Mr. Chairman, thank you.
    Chairman Inouye. Thank you.
    Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman, and 
thank you to all of you.
    General McKinley, it is really disheartening to hear the 
stories from our National Guard members who are coming home 
from deployment into a poor economy and joblessness, no health 
insurance, financial hardship. And after all they have done for 
us, we want them to come home and be able to have good jobs and 
not feel like the ground is shifting underneath them.
    We have to, I believe, work really hard to help them 
assimilate back into the civilian world and be productive 
members in our workforce. It is my understanding that the 
demobilization process has to be done rapidly because the 
service members' deployment orders are cut for a specific 
length of time, and I wanted to ask you what recommendations 
you have to better maximize that transition assistance during 
that very abbreviated process.
    General McKinley. Thanks, Senator Murray.
    Obviously, General Lowenberg in Washington State has done 
some very creative things in working with Chambers of Commerce 
and other organizations to help alleviate some of the 
unemployment problems that we are seeing with some of our 
returning Army Guardsmen.
    That cannot stop. We have to continue and redouble our 
efforts in that area. And I, like you, am concerned about 
assimilation and will continue to focus on it.
    I would like to turn to Ray and talk about the mobilization 
process because it affects mostly the Army National Guard and 
some of my colleagues who will be on the next panel.
    General Carpenter. Senator, I think you are well aware of 
the discussions inside the Army in support of the 41st Brigade 
as they came through Joint Base Lewis-McChord. And the Army 
took that on as a challenge, and what we have done now is 
extended the timeframe that these soldiers spend at the 
demobilization site, as well as their entry into warrior 
transition units, if necessary.
    I think that, you know, your personal experience in the 
State of Washington with the 81st Brigade here almost 1\1/2\ 
years ago, where that brigade came back with almost 33 percent 
unemployment, over 800 soldiers unemployed. And through the 
Joint Services Support program initiated in the State of 
Washington, we now see that number around 250, if my statistics 
are correct.
    But by and large, I just came from Iraq and Afghanistan in 
the last couple of months. And as I talked to the commanders in 
theater, they have already identified the people who are 
unemployed. And they are working with the States and with their 
communities to ensure that when they come back that they will 
have a job or they will be entered into the program to ensure 
that we take action to support them.
    And inside of those discussions, we have one State that has 
recently held a job fair, where 100 employers showed up. Nine 
hundred jobs were found for Guardsmen in that particular 
effort.
    And so, we are being innovative. We are arranging for 
soldiers to go to school there. The new GI bill, which has been 
supported by this subcommittee, is paying huge dividends in 
terms of retraining our soldiers for a job that they could 
access or one that they can get when they get back home.
    But the behavioral health piece is a big deal for us. And 
what we have told soldiers is you need to take the time when 
you go through the demobilization site. There are behavioral 
health specialists. They will counsel every soldier that goes 
through that site.
    It is going to cause them to be at those demob sites 
longer, but it is better to get the service at that point, 
rather than trying to go back and get it later. And we agree 
with you, the soldiers need to get the service equal to the 
service that they have provided to this country.
    Senator Murray. Okay. You have touched on a lot of issues. 
Obviously, the mental health issues, the California model of 
embedding, has been working very well. We are looking at trying 
to make that broader.
    But it is also getting to know what jobs and skills are 
available in the community that you are going back to, not just 
where you go back to your demob site. Are we trying to do a 
better job of actually helping our guardsmen really know what 
jobs are back in their own communities, and not just where they 
are demobilized?
    General Carpenter. Yes, Senator. We have taken that on. The 
53d Brigade that came back to Florida went through Fort Stewart 
in Georgia here about 4 months ago.
    And in conjunction with the employer partnership initiative 
that we have partnered with General Stultz and the Army 
Reserve, we had employers present at Fort Stewart. And in 
conjunction with that, we also had vans there where soldiers 
could get online and look and see what jobs were available in 
their communities through the employment offices there, as well 
as the initiatives for job fairs.
    This is a problem for us. And frankly, some of it is a 
reflection of the unemployment rates in the local populations. 
But we are doing the most innovative things we can to ensure 
that we employ our soldiers because, frankly, if they don't 
have a job, they are not going to stay in the National Guard 
because they won't be able to.
    Senator Murray. Right. And I am introducing legislation 
actually right now, focused on this whole issue of employment 
for all of our service members. And one of the things we are 
going to be looking at is mandating the TAP program for all 
service members, including the Guard, to make sure that our 
unemployed guardsmen are actually able to continue accessing 
some of the resources.
    So that is a critical part of our legislation. I hope to 
share that with all of you because you are right, General 
Carpenter. We have to keep people in the Guard and Reserves. 
And if they go home and can't find a job, they are going to 
abandon us.
    We have spent a lot of money on educating and giving 
training and skills to these service members. We don't want to 
lose that. So you will be hearing more about that.
    General McKinley, I would love for you to look at in-depth 
some of the excellent transition programs that are out there 
and identify some of the elements that have been particularly 
successful so we can consider incorporating them into the 
entire DOD effort.
    General McKinley. Thanks, Senator Murray.
    I will be meeting with the adjutants general in 
Indianapolis first week of June. If I could work with you and 
your staff and we could put out some best practices to all of 
our States, territories, and the District, I think that would 
be very helpful for all of us.
    Senator Murray. Great. Look forward to working with all of 
you on that. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Thank you all for your service. And like you say, the Guard 
and Reserve is a great bang for the buck when it comes to the 
American taxpayer and defending the Nation.
    In recruiting and retention terms, do you have the 
flexibility, in terms of bonuses, focusing on key areas, where 
there is a lot of pressure in terms of OPTEMPO?
    Anything we could do here to give you more flexibility to 
recruit and retain key specialty areas in the Army or the Air 
Force?
    General McKinley. Senator Graham, I will let my colleagues 
talk from their specific service vantages. But I will tell you 
that the Army and the Air Force generally have been very 
supportive during these last 8 years to target bonuses to those 
critical skills that we are losing.
    Obviously, in high cost-of-living areas around the country, 
we have to target certain critical skills so that we can keep 
those guardsmen and women located in those areas.
    I will let General Carpenter start, because the Army has a 
wide range of activities. I think, to your question, can we do 
better? Will we need to be more efficient?
    Senator Graham. I guess my question is, is there anything 
lacking that comes to mind that you would like to have?
    General McKinley. Ray.
    General Carpenter. Senator, at this point, we have got a 
lot of flexibility. The only limitation is the budget, for the 
most part.
    Beyond that, we are experiencing, you know, some difficult 
economic times, which, frankly, has yielded some increases in 
recruiting production and also, you know, an increased 
retention rate that we didn't experience 4 or 5 years ago.
    But when we see the economy turn around, we are going to be 
back probably looking at the bonuses programs and see where we 
go with that. And so, I would say the limiting factor in the 
out-years will be, as you might suspect, the budget.
    Senator Graham. General Wyatt, what percentage of the 
refueling fleet, at any given time, is manned by Guard and 
reservists?
    General Wyatt. Together, we comprise about 45 percent of 
the total air refueling capability across the United States Air 
Force, sir.
    Senator Leahy. What percentage?
    General Wyatt. Forty-five percent, sir.
    Senator Graham. Is there anything you would like to have on 
the Air Force side for critical skills that you don't have, in 
terms of flexibility?
    General Wyatt. Sir, you hit the nail on the head. Our 
actual end strength is right on par with our authorized end 
strength.
    But the issues that we have are getting the right people 
with the right skills in the right place. For example, even 
though our end strength is okay, we are short 1,300 officers.
    Senator Graham. Right.
    General Wyatt. And this comes at a time when the Air Force 
has an abundance of officers and, in fact, has some voluntary 
separation programs to help them leave active duty.
    I would like to see an easier transition from active duty 
to the Guard. We have some policies that we need to address 
inside the United States Air Force that I think would ease that 
transition.
    But some of the hurdles that we have to overcome, I think, 
were appropriately designed for a different time and a 
different era. We need to be able to move people through a 
continuum of service and make it easier for them, for example, 
if they want to come off active duty and serve a period in the 
Guard or the Reserve, to be able to do that. And then if there 
are life opportunities presented and they can go back on active 
duty, that would be great, too.
    We have a tendency to once a person separates, they are 
separated. And I would like to address it more in a transition 
mode, as opposed to separation mode.
    But from a dollar standpoint, the Air Force has been very 
helpful, giving us the flexibility we need to target recruit, 
which is what we are doing right now.
    Senator Graham. And I may not be here for the next panel, 
but I will have the same question, if you could give us any 
ideas about more flexibility? Two quick questions, and I will 
let you go.
    Any recommended changes in the mobilization statutes to 
make life easier for those mobilized and more flexibility for 
the commander to be able to shape the force? And the other 
question is on the budget side, how do we deal with the 
escalating cost of healthcare within DOD's budget? It affects 
you in the sense it absorbs dollars.
    We are talking about 16 percent of the budget in the next 
20 years being spent on DOD healthcare. We haven't had a 
premium increase in TRICARE since 1989. Is that sustainable, 
and what would be your recommendation to the subcommittee as to 
how to address that issue?
    General McKinley. I will let General Carpenter talk on the 
mobilization process question because I think the Army National 
Guard and, obviously, the Army Reserve will have the most 
comments on that.
    On healthcare costs, obviously, Secretary Gates has told us 
all to think about new ways of doing business better. It is a 
huge chunk of our appropriation, and we don't see a lot of 
guardsmen, young guardsmen taking the TRICARE program. They 
must feel like they don't need it. They may not be expected to 
do it.
    But over time, we are going to need to work the healthcare 
budget for Guard equally as hard as the active component, sir. 
So I will work with Secretary Gates and his team to make sure 
that is on our high-priority list.
    But if I could ask Ray to talk about the mobilization 
issues?
    General Carpenter. Senator, very quickly, I think probably 
the best thing that happened to us in mobilization was the 1-
year mobilization for the Reserve component. Because we had 
seen some units go down range, do 1 year boots on the ground, 
extend it for 3 months, end up with 15 months, and by the time 
you put the 6 months in front of that that they had at 
mobilization station, it was almost 2 years away from home. And 
you can't sustain a reserve component with that. And so, the 1-
year mob was terrific for us.
    The other side issue is, is when we get done with what we 
are doing in Iraq and Afghanistan, we think that the Guard and 
Reserve should be engaged in theater cooperation and security-
building in terms of other combatant commands around the world. 
And inside of the Department, we are looking at some provisions 
for involuntary mobilization for doing those kinds of things on 
a lot shorter basis, maybe 60 days or 90 days or something like 
that.
    So we can continue to use, again, the investment we have 
made in the Reserve component to do preventive things out 
there, so we don't end up where we are at right now in the 
current world environment.
    Chairman Inouye. I thank you very much.
    Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman.
    I want to compliment Senator Murray on her legislation, 
which she is introducing today. I will cosponsor and support it 
again.
    And General McKinley, of course, always a pleasure to see 
you, and I want you to know that Senator Graham and I are 
determined to keep empowering the Guard, as Senator Bond and I 
did in the past as the co-chairmen of the National Guard 
Caucus.
    I know you have been without a deputy at the National Guard 
Bureau for some time, and I believe I can speak for both of us 
that we believe it would help you further if your staff 
director was replaced by a vice chief position at the three-
star level. Now what do you think of that proposal?
    General McKinley. That is a rhetorical question, I am sure, 
Senator. But quite frankly, I think for us in the National 
Guard to function as a full-spectrum bureau--because we are not 
a headquarters. We uniquely serve the States. So we are a 
bureau. Without that position filled, we can't represent the 
States and the territories at the critical meetings and the 
junctures that we have to attend.
    And as you know, in our building, if you are not wearing 
the proper grade or rank, you are not going to be offered a 
seat at that table. So we fully support that. We know it is in 
an era of diminished resources and our rank structure is coming 
down, but we appreciate all the support we can get.
    Senator Leahy. Well, both Senator Graham and I have had 
discussions at the highest levels on this, and it will happen, 
I think, at some point. Just like your own position was one 
that Senator Bond and I pushed hard for with the support of 
each of the Senators who are here.
    Now, for a long time earlier, I worked with Senator Bond to 
include funds for the National Guard and Reserve equipment 
account, and we want to continue to do this. We pursued a 
separate funding for the Guard and Reserve components because I 
was concerned they never seemed to get a concurrent and 
proportional amount of equipment.
    And I am just wondering, do you face these kind of 
shortages, and have they been exacerbated by the needs of the 
Guard and Reserve in Iraq and Afghanistan?
    General McKinley. I think it is a very relevant question 
because, as you know, the funding does come through to us 
through the Army and the Air Force, and we do diligence with 
their staffs to obtain the proper amounts of funding. I don't 
think any program gets the full amount, but we have been 
adequately financed by our services over time.
    What concerns me, Senator Leahy, is the fact that the 
domestic operation, the taking care of the homeland, the 
equipping of our units to handle large-scale natural disaster, 
man-made disaster, we have got to make sure, as National Guard 
Bureau staff, that the States get their fair share of that.
    And as we have talked about with Senator Cochran, this 
historic flooding along the Mississippi River, multiple States, 
the States are going to need some resources. FEMA is doing a 
great job. Administrator Fugate doing that exceedingly well, 
but we want to make sure the National Guard is able to do their 
job, too.
    Senator Leahy. Well, let me talk about that because when 
you watch the news--certainly Senator Cochran knows this far 
better than I because he has talked to his constituents along 
there--but just looking at the horrific news and what is 
happening, we know the Guard has got to be called out.
    And I always worry when we have these natural disasters, 
the Pentagon has to shift money around instead of having money 
prepared for it. In my own State, we have had unprecedented 
water this spring from snow runoff. Lake Champlain is at the 
historic high of 102 or 103 feet above sea level.
    I flew up there Friday, and just looking out the windows as 
I flew up, I could see areas that normally have small rivers, 
small streams are now flooding fields, farm land, roads, 
bridges.
    Governor Shumlin has called out the Guard to respond. Of 
course, the Guard responds immediately, as they do, whether it 
is in Vermont or Mississippi or Hawaii, or anywhere else. And 
shouldn't we have special funding for such domestic disasters? 
We would like to think there never will be any, but every year 
there is something.
    General McKinley. It is really my role, and I have tried to 
assume this mantle of working with FEMA, Department of Homeland 
Security, Department of Defense through Secretary Stockton in 
homeland defense and DOD, we feel the adequate funds are there, 
but they are difficult to get.
    The Governors have got to meet certain criteria for what we 
call 502(f) funding sourcing through the department. It is 
cumbersome, and my job has been to try to make this more 
seamless, more easily accessible, and get the funding to the 
States and the Governors when they need it in a timely manner.
    We are not there yet, in my opinion. We have got to 
continue to do a much better job.
    Senator Leahy. Well, let us work on that because the key is 
responding in a timely manner. When the Mississippi is flooding 
or when there is an ice storm, which happened a few years ago 
in the province of Quebec, and it knocks out power to a large 
portion of my State, if it had not been for the Guard, it would 
have been a total disaster. And they were the only ones able to 
move in immediately before commercial entities could go in.
    And General Carpenter, I will work with Senator Murray on 
the issues that she talked about, and I appreciate what you 
said.
    Last, General Wyatt, I don't have to tell you that many of 
the Air Guard wings are already experiencing a drawdown of 
their fighter aircraft. You and I have talked about this 
before. In Vermont, the 158th Fighter Wing is going to have 
three F-16s shifted into back-up inventory, and we assume that 
is just the beginning.
    This was the fighter wing that flew air cover for a long 
period of time over New York City after 9/11. Now some Air 
Guard wings will eventually receive replacement F-35s, but the 
overall number suggests some Air Guard wings don't have any 
planned replacements.
    So what is the Air Force telling you about the future of 
these air wings? There are those back--I don't want to seem too 
parochial, but there are those back home who have some interest 
in your answer.
    General Wyatt. I imagine so, sir. No, I think you see in 
Vermont the issue that faces not just Vermont, but a lot of our 
fighter force and lift force, too, when you take a look at the 
age of our C-130 fleets. And we have only two units with C-130J 
models and one other unit that has some.
    The issue in the fighter fleet is that we are already at 
that number, that QDR number for national security on the 
numbers of total jets, combat fleet in the entire United States 
Air Force, and a lot of those reside in the Air National Guard. 
There are six States, including Vermont, who face what you just 
mentioned with a reduction of 3 of the 18 jets that they have 
on the ramp from primary aircraft inventory to back-up aircraft 
status.
    The good news is that there is weapons system sustainment 
for those monies. The bad news is that there are no flying 
hours for those airplanes that come along. So I am concerned 
about their readiness and the ability to train the pilots and 
the air crews in those particular units.
    Because the Air Force, I think, intends to rely upon the 
capabilities in the Air National Guard for a significant 
portion of the combat fleet. We fly about 33 percent of all the 
combat Air Force sorties. We are currently working with the Air 
Force. We have a few more processes inside the United States 
Air Force to accomplish, but we are working a plan that, if 
successful and depending upon budgets and everything else that 
we are faced with, trying to get those three aircraft back up 
on PAA status at all six of the units.
    Air Combat Command has been particularly helpful in helping 
us through that process and very supportive. And we should know 
here in the next few months whether we are successful or not. 
But the idea is that we cannot afford as a country to lose that 
capability, and we need to preserve the life of those airplanes 
as long as we can with the capabilities that our Air guardsmen 
provide until that point in time when recapitalization does, in 
fact, take place.
    Senator Leahy. Well, please keep me posted.
    Mr. Chairman, I was impressed--if I could just brag a 
little bit? After 9/11, I got a call from our adjutant general 
that we were flying air cover over New York City around the 
clock with our F-16s. And I said, ``Well, where are you basing 
them?'' He said, ``We are doing it right here in Burlington, 
Vermont,'' which is about 250 miles away.
    He did point out--Senator Graham, you will appreciate 
this--that it took them a lot less time to get to New York City 
than I do flying down commercially. But the thing is we had our 
mechanics, our air crews, everybody, a number of whom were 
heading off on vacation when they heard this.
    One senior crew chief did a U-turn on the interstate, 
headed back, got out of the car. At the gate told his wife, 
``Send some clean clothes, you are not going to see me for a 
while.'' And he slept in the hangar and just kept working. He 
recalibrated all the weapons, all the things in a rather aging 
fleet and kept the planes flying. There wasn't any single 
mission that wasn't fulfilled during that time, around the 
clock.
    My last story, and I think General McKinley has heard this, 
my wife and I went to visit with the Air Guard after 2 or 3 
weeks of this to thank them. And I told the story about 
somebody who had written a letter to my office in August, 
complaining about the noise of F-16s and then called the office 
in early September and asked if I had gotten that letter.
    My staff said, ``Well, yes, but he has been a little bit 
busy. What is going on? He hasn't answered?'' My constituent 
said, ``No, no. Please tear up the letter. I think the planes 
sound wonderful.''
    Thank you.
    General McKinley. Thank you, Senator Leahy.
    And to Senator Graham, you will be pleased to know that the 
McEntire Swamp Fox just assumed alert in South Carolina. They 
joined our fleet of air sovereignty alert aircraft, and we 
thank you for that support.
    Chairman Inouye. General McKinley, General Wyatt, General 
Carpenter, the subcommittee thanks you for your testimony this 
morning. And we would like to indicate our appreciation and 
gratitude for your service to our country.
    Thank you very much.
                                Reserves

STATEMENT OF LIEUTENANT GENERAL JACK STULTZ, CHIEF, 
            ARMY RESERVE
    Chairman Inouye. And now, may I call upon General Stultz, 
Admiral Debbink, General Moore, and General Stenner to come 
forward?
    Gentleman, welcome to the subcommittee. And may I now call 
upon General Stultz for his testimony?
    General Stultz. Mr. Chairman, Mr. Vice Chairman, it is an 
honor to be here today on behalf of 206,000 Army Reserve 
soldiers, men and women serving this Nation in uniform around 
the world.
    And I have submitted my statement for the record. So I will 
try to keep this brief in respect of the time we have got.
    But I would just make one comment. You, in your opening 
comment, sir, said you are interested in seeing the Reserve of 
the future. I am here to report to you today I have seen that 
Reserve of the future.
    Because in the past year, I have traveled around the world 
to 17 different countries, and I have visited Army Reserve 
soldiers in Ethiopia, Uganda, Kenya. Army Reserve soldiers just 
returning from Vietnam and Cambodia on their way to Jakarta. 
Army Reserve soldiers in El Salvador, Guatemala, Costa Rica. 
Army Reserve soldiers in Japan, Italy, Germany, Kosovo, as well 
as, we all know, Iraq and Afghanistan.
    And these Army Reserve soldiers are on-point for our 
Nation, standing side-by-side with Army Guard and active Army 
soldiers, and you can't tell the difference. In some cases, you 
can. In some cases, our Army Reserve and Army Guard soldiers 
are actually higher skill level than their active component, 
only because they have the civilian skill sets that create a 
force multiplier for them.
    And I have seen them in the combat role that we need them 
to be prepared and ready to go, and my formation is mostly in 
the combat support and service support formations. But I have 
also seen them in the humanitarian role--in theater engagement, 
security cooperation, providing medical, engineering, foreign 
army training, logistics, and other support to those nations 
that we aren't in conflict with. We are actually preventing 
those nations and helping them establish democracies and 
winning the hearts and minds of their people.
    And as we move forward as a Nation, confronted with the 
budget issues we are going to have, confronted with how do we 
reduce the deficits, confronted with the where do we get the 
biggest bang for our buck, biggest return on investment, what I 
can report to you and the others today is your Reserve 
component--and I speak for all my colleagues here, as well as 
our Guard colleagues--are a great return on investment. They 
have proven themselves.
    And as we are making decisions about what the structure of 
the military for the future needs to look like, my urging to 
you and others is your Reserve components are key, and we need 
to be resourced as such with the equipment. We need to be 
resourced as such with the funds needed to train, and we need 
to be resourced as such to take care of our families.
    And we give you a heck of a return on the investment. We 
have proven ourselves.
    And I think the other thing we have proven, as we have gone 
through the transition from a strategic to an operational, is 
we have got great men and women, a really national treasure 
that raise their hand, volunteer to serve their Nation, leave 
their civilian jobs, leave their families, leave that American 
dream that they are living, knowing that they may be called 
upon to make an ultimate sacrifice on the battlefield. And they 
are doing that in record numbers.
    Our recruiting, our retention is at all-time highs. So we 
know we have got a force there that is there for us. They love 
their country, and they know their country loves them.
    What we cannot afford to do is go back. We cannot afford to 
go back to that strategic model, that one weekend a month, 2 
weeks in the summer, that is all we are going to use you for, 
because we will lose that national treasure. Because they 
joined our force since 9/11, and they joined our force to be 
utilized.
    And as Ray already mentioned, it doesn't have to be for 12 
months. It can be for 3 months in El Salvador and come back 
home and feel good about what you have done, feel good that you 
have been utilized, but make a positive contribution for this 
Nation.
    So on behalf of that 206,000, sir, I appreciate all the 
support you have given us and all the support you will continue 
to give us. And I look forward to your questions.
    Thank you, sir.
    Chairman Inouye. Thank you very much.
    [The statement follows:]
          Prepared Statement of Lieutenant General Jack Stultz
                              introduction
    Chairman Inouye, Senator Cochran, distinguished members of the 
subcommittee; thank you for the invitation to appear before you today 
to discuss the state of your Army Reserve. It is an honor to testify 
before you on behalf of more than 205,000 Army Reserve Soldiers.
    After nearly 10 years supporting the warfight in Afghanistan and 
Iraq, the Army Reserve is a battle-tested, seasoned, and a trusted part 
of the total force.
    Our formations routinely meet the demand for military capabilities 
that support domestic and expeditionary operations.
    As an operational force, we offer strategic agility and depth as a 
cost-effective solution in a resource-constrained environment.
    I strongly contend it is our obligation to the Nation, and to 
future generations of Army Reserve Soldiers, that we remain 
operational.
                      road map for the next decade
2020 Vision and Strategy
    Details my vision for the Army Reserve as an enduring operational 
force and serves as a broad blueprint for achieving it.
    Establishes the foundations for the operational concepts and 
strategies; organized, modernized, postured, and resourced to provide 
support to the Total Army.
                      initial steps taken to date
    The Army Reserve Enterprise--new management culture where leaders 
function for good of the enterprise.
    Realignment of Army Reserve Headquarters, Legacy and Command and 
Control structure.
    Expanded Outreach to all Service Members and Families through three 
Virtual Installation pilot sites.
    Cultivating positive Soldier-Employer relationships--a must for an 
operational force of the future.
                      priorities for the next year
    Expand Virtual Installation to five pilot sites using fiscal year 
2012 Milcon appropriations.
    Strengthen Total Wellness Programs--improved medical and dental 
care, behavioral health support, and spiritual care.
    Develop a Program Objective Memorandum (POM) 13-17 strategy that 
reflects the resource requirements of an operational force in the Base 
Budget.
                an operational force benefits the nation
    Helps the Army mitigate current capability shortfalls and allows 
for a greater role in the Nation's defense with: Combatant Commander 
Security activities; domestic disasters; Security Cooperation 
Operations; Contingency Operations; and Theater Security Cooperation 
Programs.
    The Army Reserve is a ``best value''--the Nation pays the full cost 
for a reserve component Soldier only when he/she is mobilized.
                               conclusion
    We have built an Army that is dependent on having access to the 
reserve when it needs us.
    Choices made now will determine the Army force mix and capability 
for the future.
    Do we turn back the clock and revert to a strategic reserve, with 
limited readiness capabilities as the current conflicts resolve or do 
we ensure the defense of the Nation with an enduring operational force 
with the readiness levels that provide operational capabilities across 
the full spectrum of conflict.
    Thank you once again for inviting me today to speak before this 
committee and for supporting our Citizen-Warriors.
    I am ready to address your questions.
                                 ______
                                 
           United States Army Reserve 2011 Posture Statement
    The annual Army Reserve Posture Statement is an unclassified 
summary of Army Reserve roles, missions, accomplishments, plans, and 
programs. The 2011 Army Reserve Posture Statement also addresses the 
support required by the Army Reserve to continue its transition to an 
operational force during fiscal year 2012.
    Unless otherwise noted, all statistics and facts are current 
through March 2011.
    This document is available on the Army Reserve website at: 
www.usar.army.mil.

                                                        March 2011.
                     an enduring operational force
    For more than 100 years, the United States Army Reserve has served 
as the Nation's Federal strategic force in reserve, supporting the war 
and peacetime needs of the Regular Army. Since our Nation's involvement 
in Afghanistan and Iraq, combatant commanders have urgently called for 
many of the enabling capabilities resident within the Army Reserve, 
including logistics, engineering, security, medical and civil affairs 
support.
    The steady, consistent, and recurring demand for Army Reserve 
capabilities during this decade has posed significant challenges for a 
force organized and resourced as a strategic reserve. In response, the 
Army Reserve recast itself from the part-time strategic reserve role to 
a fully integrated and critical part of an operational, expeditionary 
Army that supports the Nation's evolving and challenging wartime 
requirements.
    In today's national economic and political climate at home and 
around the world, it makes good business sense to sustain the enabling 
capability provided by the Army Reserve. Compared to the cost of 
expanding the full-time Army force, a relatively smaller investment in 
the Army Reserve provides security at home and supports the fight 
against terrorism abroad. The Army Reserve responds to domestic 
disasters, when authorized by the President of the United States, and 
also participates in security cooperation operations while protecting 
national interests around the world. In support of contingency 
operations, the Army Reserve responds to life-threatening situations 
and fosters stability in underdeveloped nations where conditions are 
ripe for terrorists to gain a foothold. The Army Reserve is a ``best 
value'' in that the Nation pays the full cost for a reserve component 
Soldier only when he/she is mobilized.
    Many companies in private industry use a similar strategy. Firms 
that specialize in tax preparation, for example, hire certified 
accounts/tax preparers to handle the heavier customer demand that 
occurs from the beginning of a new year to the filing deadline of April 
15. They too cannot afford, nor would it make good business sense, to 
maintain a full-time accountant force during off-peak seasons. The 
relatively low cost of hiring seasonal workers adds to their bottom 
line.
    The Army Reserve conducted an analysis that shows over a 15-year 
period, an enduring operational Army Reserve provides key capabilities 
for the Army at significant cost savings. We measure the savings by 
comparing the active component and reserve component costs of building 
readiness, deploying and employing forces.
    The Army Reserve prepares for service by employing the Army Force 
Generation (ARFORGEN) model--a 5 year structured progression of 
increased unit readiness over time resulting in periods of available 
trained, ready, and cohesive units prepared for operational deployment.
    Under the current ARFORGEN process, an active component Army 
Soldier spends 2 years in a non-deployed status at a cost of $140,000 
per year--compared to his/her Army Reserve counterpart who spends 4 
years in a non-mobilized/non-deployed status costing $47,000 per year--
that's about one-third the cost of an active component Soldier for 
train-up. This cost savings is achieved by providing cyclical 
capabilities to the Army and predictability for Soldiers and their 
Families.
    During a 15-year period, an active component Soldier spends 5 years 
deployed with an overall average cost of $143,000 per year compared to 
the Army Reserve Soldier who spends 3 years mobilized/deployed with an 
overall average cost of $68,000--that's about half the cost of an 
active component Soldier.
    An operational Army Reserve not only saves money, it helps the Army 
mitigate current capability shortfalls. For example, the Commander of 
Africa Command, General William E. ``Kip'' Ward, and the Commander of 
European Command, Admiral James G. Stavridis related in testimony 
before the Senate Armed Services Committee on March 9, 2010, that 
employing an operational Army Reserve to support combatant commander 
security activities would provide significantly more capability for the 
mission while maintaining invaluable operational experience, hard-won 
from current operations. Using the Army Reserve in security cooperation 
missions also reduces the demand for active Army capabilities, allows 
the active component to maximize time at home between deployments, and 
provides the Army Reserve with the opportunity to employ and refine its 
multifunctional skills.
    An operational Army Reserve can be key to developing cooperative 
security arrangements (collaboration with regional nations, interagency 
and non-governmental organizations, and regional institutions to 
respond to the broad range of regional contingencies) while building 
Partnership Capacity by strengthening and expanding relationships with 
allies and partners. The Army Reserve could also mitigate the costs 
that an active component unit would require in Korea (family housing, 
child-care, medical, etc.) by providing trained and validated units for 
1-year tours.
    It makes good business sense to sustain the enabling capability 
provided by the Army Reserve for now and into the future. Army Chief of 
Staff, General George W. Casey, Jr., has said there is no viable 
alternative to having a fully operational Army Reserve to sustain 
today's combat support needs and those of the future. As the Army 
evaluates the resource requirements to sustain and improve Reserve 
``operational capabilities,'' decisions on full-time staff, funded 
training days, and sequencing of training (pre-mobilization/post-
mobilization) drive the cost.
    Operationalizing the Army Reserve has thus created a requirement 
for an enduring level of readiness support that cannot be sustained 
with current supplemental funding. The Army Reserve must have 
predictable funding in the base budget to ensure Soldiers are well 
trained, well prepared, and well equipped at all times to respond to 
the Nation's needs. An enduring operational force cannot be fully 
effective if it has to borrow personnel and equipment from one unit to 
shore up another to meet mission requirements. Lending creates 
turbulence within units and diminishes gained efficiencies.
    For now and into the foreseeable future, the Army Reserve will 
function as an operational force. The required institutional, policy, 
and systemic resource processes and procedures are being transformed to 
ensure a sustainable and ready force capable of operating across the 
full spectrum of conflict.
    The Army Reserve is a positive investment for the Nation. We 
provide necessary combat support and combat service support to 
combatant commanders where and when needed, thereby saving limited 
resources. We train Soldiers who accomplish daunting tasks and provide 
critical support on the battlefield. We give back to the Nation highly 
trained, mature and refined Soldiers, who also provide civilian 
employers the kind of talent needed to sustain the local economy.
    America can make no better investment than sustaining an enduring, 
operational Army Reserve.

                         Lieutenant General Jack C. Stultz,
                                 Chief, United States Army Reserve.
                 Command Sergeant Major Michael D. Schultz,
                Command Sergeant Major, United States Army Reserve.

    As America remains a Nation at war, the Army Reserve continues to 
be a cost-effective force as evidenced by what we accomplished with the 
fiscal year 2011 budget Congress appropriated to us. The $7.9 billion 
Army Reserve appropriation represented only 4 percent of the total Army 
budget; yet in 2010, we achieved the following results within the four 
core elements (Human Capital, Materiel, Readiness, and Services and 
Infrastructure) of the Army Reserve Enterprise as outlined below.
Human Capital
    Human Resources.--In fiscal year 2010, the Army Reserve conducted 
525 Yellow Ribbon Reintegration Program events, serving 26,000 Soldiers 
and 28,000 Family members.
    Chaplain.--Army Reserve chaplains conducted over 300 Strong Bonds 
events throughout the country and territories, enhancing Soldier and 
Family communication and relationship skills. Some 12,500 Soldiers and 
Family members participated in these events and received this training.
    Behavioral Health.--Licensed clinicians are following up on the 
urgent referrals generated by the Periodic Health Assessment and Post 
Deployment Health Reassessments. Working on an ``Assess and Refer'' 
model, clinicians conduct bio-psycho-social assessments of each 
individual who is referred and determine the appropriate level of 
follow-up. They do not provide treatment. The major illnesses being 
identified that are Post Traumatic Stress, Major Depression and 
Substance Abuse.
    Medical and Dental.--Army Reserve medical readiness improved from 
23 percent on October 1, 2008 to 60 percent as of September 23, 2010. 
Programs such as the Army Select Reserve Dental Readiness System 
(ASDRS) have been highly successful. Dental readiness, which is 
currently at 74 percent, has improved 21 percent over the last 2 years, 
and is one of the key elements improving medical readiness. We 
converted 168,829 Soldiers' paper records to an electronic Health 
Readiness Record, allowing us to take full advantage of efficiencies in 
time, cost, and services over the continued use of paper treatment 
records. The Army Reserve successfully conducted suicide prevention 
training throughout the force. As a result, we have seen an improvement 
in communication with at-risk Soldiers and proactive involvement on the 
part of our subordinate commands.
    Family Programs.--The Army Reserve Virtual Installation Program 
served some 5,501 military members and their families, from all 
branches of the armed services during fiscal year 2010--bringing the 
resources of active military installations to geographically dispersed 
military Families. Three pilot sites at Army Strong Community Centers 
offer information and assistance on many issues, such as concerns with 
TRICARE, legal matters, retirement, GI Bill, and child and youth 
services.
Materiel
    The Army Reserve established new Equipment Fielding facilities to 
increase throughput of new equipment issues to units. This has allowed 
the Army Reserve to execute the largest distribution of new equipment 
in recent history. Over 23,000 pieces of equipment were provided to 
Army Reserve units, enhancing their readiness. Using near real time 
databases in ``bridging'' logistics information and management systems 
led to an automated process to define manpower requirements in 
equipment maintenance support structure. The Army Reserve is on track 
to successfully implement the Army's initiative for managing 
organizational clothing and individual equipment.
Readiness
    Operations.--Army Reserve continues to provide vital capabilities 
to combatant commanders in support of overseas contingency operations. 
More than 196,711 Army Reserve soldiers have mobilized in support of 
Operation Iraqi Freedom/New Dawn (OIF/OND) and Operation Enduring 
Freedom (OEF) since September 11, 2001. Today, more than 15,584 Warrior 
Citizens are serving in Iraq, Afghanistan and 22 other countries around 
the globe. Army Reserve Aviation continues to lead the way in Air 
Traffic Simulation. Thanks to funds approved by Congress, the Army 
Reserve fielded more than 630 Laser Marksmanship Training Systems to 
346 Army Reserve locations during the past year, while having the means 
to develop and field ``bridging'' logistics management and information 
systems.
Services and Infrastructure
    Facilities Management.--The Army Reserve successfully awarded over 
$432 million in Military Construction (Milcon) projects in 2010. 
Several new Army Reserve Centers will achieve net-zero energy usage 
(self-sufficient without drawing additional power from the electrical 
grid). The Army Reserve has developed innovative passive building 
design techniques to achieve low-technology, low-cost energy 
efficiency. We are installing solar collection fields, wind turbines, 
and geothermal plants at several new facilities. The Army Reserve has 
started a retrofit program, replacing lights, windows, roofs, and other 
components with new energy-efficient technology, resulting in 
substantial savings in utility costs.
    The Army Reserved also realized monetary benefits totaling 
approximately $232 million during the last year through the Office of 
Internal Review, which provides Army Reserve leadership timely, 
independent and professional review/audit, evaluation, and consulting 
services.
                        army reserve priorities
    Continue to transform to an enduring operational force.
    Continue to provide the best trained, best led, best equipped 
Soldiers and units to combatant commanders to achieve U.S. objectives 
and ensure national security.
    Recruit, retain, and reintegrate through a Continuum of Service the 
best and brightest Citizen-Soldiers to sustain a robust and capable 
operational Army Reserve.
    Provide Citizen-Soldiers and their Families with the training, 
support, and recognition to sustain a cohesive, effective fighting 
force.
    Build and maintain a partnership with industry to facilitate 
Citizen-Soldier contributions to both a prosperous economy and a 
skilled, experienced, and capable Army.
    To advance these priorities the Army Reserve must: Obtain from 
Congress full support and necessary authorities, in accordance with the 
Army Reserve fiscal year 2012 budget request
                         the president's budget
    The President's budget will allow the Army Reserve to:
  --Continue Army Reserve internal transformation to an Enduring 
        Operational Force.
  --Shape Army Reserve End-strength by recruiting, retaining, and 
        reintegrating, through a Continuum of Service, the best and 
        brightest Citizen-Soldiers.
  --Equip units and Soldiers to train and fight to achieve U.S. 
        objectives and ensure national security.
  --Provide quality medical and dental services and support to Soldiers 
        and their Families.
  --Sustain Army Reserve installations and facilities.
         the posture of the army reserve: where we stand today
    Today's Army Reserve is uniquely positioned and structured to 
provide operational support in complex security environments. We can 
meet Army requirements for combat support or combat service support 
roles. Many civil affairs, psychological operations, medical, 
transportation, engineer, and information operations capabilities 
reside exclusively, or predominately, within the Army Reserve. Our 
ability to mobilize quickly and responsively makes the Army Reserve 
ideally suited to meet our Nation's future requirements. Army Reserve 
Soldiers will remain a vital part of the Total Army Force facing the 
national security challenges of the next decade and beyond.
    During the Cold War era, the Army Reserve principally operated as a 
force in reserve. The first Gulf War, in 1990-1991, served as a 
catalyst for thinking about using the Army Reserve in a more 
operational capacity when large numbers of Reserve forces were engaged. 
Since the Gulf War, the Nation has employed the Army Reserve in many 
different ways and at unprecedented levels, most significantly after 
September 11, 2001. The demands of persistent conflicts over the past 9 
years were--and continue to be--beyond the ability of the Active 
component to meet alone. As a result, the Nation has relied heavily on 
the Army Reserve to fill operational requirements, fundamentally 
changing the role of the Army Reserve from a strategic to an 
operational force.
    Today, with the drawdown of forces in Iraq nearing completion and 
the proposed drawdown in Afghanistan, we can expect to see declining 
Department of Defense budgets for the near-to-mid term, as well as 
potential end-strength reductions, while still preparing for future 
operations in a volatile, uncertain, complex, and ambiguous security 
environment. A Total Force, maximized for strategic agility at reduced 
cost, provides the necessary capabilities to the combatant commander.
    The Nation and the Department of Defense are now at a strategic 
juncture with respect to the Army Reserve. Choices made now will 
determine the Army force mix and capability for the future. The choice 
can be to return to a strategic Reserve with limited readiness 
capabilities as the current conflicts resolve, or become an enduring 
operational force with the readiness levels that provide operational 
capabilities to meet the Nation's defense requirements across the full 
spectrum of conflict.
    Between 2001 and 2010 the Nation invested $52.7 billion to man, 
equip, train, and employ an operational force. The Department can 
choose to forgo the $52 billion investment, and over the next decade, 
the Army Reserve will revert to a strategic Reserve. This change would 
occur slowly over the first few years and then accelerate, by default, 
as the hard-won operational experience of our Soldiers atrophies and 
further resource constraints are implemented. Alternatively, for an 
estimated annual investment of $652 million, the Army can retain and 
sustain an operational Army Reserve. This will provide the Army 
necessary capability on time and at best value.
    Nine years of mobilization and employment for current contingencies 
has produced the most experienced, ready Army Reserve in history. 
Currently the Army Reserve is used as an operational force resourced 
only through Overseas Contingency Operations funding. With minimal 
recapitalization of readiness funded in the base budget and through 
annual employment of Army Reserve forces for operational missions such 
as Theater Security Cooperation, we can maintain these unprecedented 
readiness levels and support the National Security Strategy. This is 
the most efficient and cost-effective answer to the Nation's national 
security requirements.
    The Army Reserve culture has changed since 2001. Many Soldiers of 
the legacy strategic reserve left service in significant numbers 
between 2004 and 2006. Today, the Army Reserve is fully manned to its 
Congressionally authorized end-strength with Army Reserve Soldiers who 
have joined or re-enlisted to be part of an operational force. 
Reverting to a strategic Reserve would entail a similar significant 
loss of our most operationally experienced force and greatest asset--
today's Army Reserve Soldier.
    Today, we are exploring the Army's Continuum of Service initiatives 
as a way of making the Army Reserve more attractive for Soldiers, 
Families, and Employers. When these initiatives become a program of 
record, they will facilitate a Soldier transfer from one Army component 
(for example from the Army Reserve to active duty) to another in a 
seamless, efficient manner that meets the needs of the Soldier as well 
as the readiness requirements for the Total Force. There is no 
degradation in personnel management, career opportunities or benefits 
for a reserve component Soldier's military and civilian career. 
Continuum of Service will provide choices for Soldiers, their Family 
members and Employers, which is essential in family and career 
planning.
    The Army Reserve Posture Statement lays out our accomplishments, 
our plans, and our continuing challenges in the Era of Persistent 
Conflict and it continues to illustrate through its capabilities and 
affordability that it is a good investment for the Nation. An enduring 
operational Reserve will provide the Army necessary capabilities at 
best value. This is the Army Reserve of today and the future.

    ----------------------------------------------------------------

                              document map
    The 2011 Army Reserve Posture Statement (ARPS) is the Army 
Reserve's Annual Report to Congress of the current posture of the Army 
Reserve to fulfill its Title 10 responsibilities. The Posture Statement 
also serves to educate and inform Congress of Army Reserve resourcing 
priorities in the fiscal year 2012 budget request that will enable the 
Army Reserve to continue its transition in support of an operational 
force. This document is organized to help advise Senate and House 
Committee appropriators in Committee Hearings addressing Personnel, 
Readiness and Equipping of the needs of an operational force.
Programs Addressed in the President's Budget Request
    Personnel.--Shaping the Force, Building Resiliency, Health 
Promotion/Risk Prevention, Yellow Ribbon Reintegration Program, 
Spiritual Care, Behavioral Health, Healthcare, Family Programs, Full 
Time Support, Employer Partnerships of the Armed Forces.
    Readiness.--An Operational Force, Homeland Operations, Training, 
Training Equipment, Physical Security, Anti-Terrorism, Aviation, Army 
Reserve Command, Control, Communication, Computers/Information 
Technology (C\4\/IT), Training Facilities.
    Equipping.--Army Reserve Materiel, Equipment Maintenance, Logistics 
Contract Support.

    ----------------------------------------------------------------

        the fiscal year 2012 budget request: where we are going
                               personnel

    ----------------------------------------------------------------

           critical personnel needs of an operational reserve
    Appropriate resources for Recruitment and Retention of the right 
people and skill sets to sustain the force.
    Provide robust Suicide Prevention support and resources for trained 
caregivers, and training for Applied Suicide Prevention Skills.
    Continue support for the Yellow Ribbon Reintegration Program events 
and Family Member training.
    Resource Army Guard Reserve Family Life chaplain authorizations.
    Align and balance Family Programs capabilities/workforce to serve a 
geographically dispersed population.
    Ensure continuity of support to Army Reserve Soldiers and Families 
in the community where they live through Virtual Installations/Army 
Strong Community Centers.
    Deliver responsive and relevant Family Assistance and Support 
services to mobilized and non-mobilized Soldiers, Civilians, and their 
Families during military operations, emergency activities, and natural 
disasters.
    Improve and Sustain Medical, Dental and Behavioral Health 
Readiness.
    Maintain support levels for Full Time Support.

    ----------------------------------------------------------------

Shaping the Force
    The Army Reserve has undergone its largest ever transformation from 
a strategic reserve to an operational force. Additionally, the Army 
Reserve has exceeded its end-strength objective of 205,000--but has an 
imbalance in skills, in particular at the mid-grade ranks. As a result, 
we have shifted our focus to shaping the force to meet the needs of an 
Operational Army Reserve that actively supports current operations via 
the Army Force Generation model, also known as ARFORGEN.
    Our strategy will focus on proper balance and sustainment of the 
force rather than increasing end-strength. The Human Capital Enterprise 
will manage the accumulated end-strength to build and shape a force 
that best meets the Nation's near- and long-term demands. The Army 
Reserve will recruit, retain and transition the best and brightest and 
position them in the right place, in the right job, and at the right 
time.
    As part of shaping the force we requested and received Army 
approval to reimplement several boards that were previously suspended. 
These boards provide management tools that facilitate better management 
of senior grade positions, allow qualified Soldiers to progress at 
proper intervals in their careers, provide career incentives, and allow 
Soldiers to advance to higher grades at the peak years of their 
effectiveness. These boards include the Active Guard and Reserve (AGR) 
Release from Active Duty (REFRAD) Board (convened in April 2010) and 
the Army Reserve Troop Program Unit (TPU) Enlisted Qualitative 
Retention Board (scheduled to convene in 3rd Qtr fiscal year 2011).
Building Resiliency
    The Army Reserve is continuing to build resiliency in our Soldiers, 
Families and Civilians--all of whom have been affected by the 
cumulative effects of 9 years at war. We have developed a comprehensive 
approach that puts mental fitness on the same level as physical fitness 
to build a resilient force for the future. No one individual program 
builds resiliency; rather, it results from combining the benefits of 
health promotion-risk deduction education, Yellow Ribbon Reintegration 
Program events, spiritual care, behavioral health programs, medical and 
dental readiness, and family program services.
            Health Promotion--Risk Reduction
    The Department of the Army and the Army Reserve have been in the 
forefront of health promotion--risk reduction efforts by using the 
Applied Suicide Intervention Skills Training (ASIST) program. Training 
materials ensure the education of first line supervisors, Army Reserve 
leadership, Army Civilians, and suicide prevention programs managers 
(DAC and other full-time support personnel). The key to suicide 
prevention is trained caregivers. The key requirement to success is to 
ensure that an appropriate number of individuals receive ASIST for 
Trainers across the Army Reserve, as well as having these ASIST 
Trainers conduct the required training to personnel throughout the 
fiscal year. The 2-day ASIST workshop conducted by ASIST Trainers is by 
far the most widely used, acclaimed and researched suicide intervention 
skills training for our Soldiers. The ASIST Training done by qualified 
ASIST Trainers is the best way to increase the number of Gatekeepers 
trained to recognize Soldiers who are at risk and know how to intervene 
to prevent the risk of suicidal thoughts becoming suicidal behaviors. 
Since history has shown that Soldiers are better able to help other 
Soldiers at risk when they receive ASIST Suicide prevention training, 
the Army Reserve is committed to early identification of at-risk 
Soldiers before a serious incident occurs or a Soldier seriously 
contemplates suicide.
            Yellow Ribbon Reintegration Program (YRRP)
    The mission for Yellow Ribbon Reintegration Program (YRRP) simply 
stated is to support Army Reserve Families and their Soldiers with 
sufficient information, resources and services, referral, and proactive 
outreach opportunities throughout the entire deployment cycle. The goal 
is to build self-sufficient and resilient Families and Soldiers. We 
accomplish this by developing skills in each Family member and Soldier 
to assure they are prepared and able to cope with the difficulties of 
extended separation and deployment. We help Families network together, 
and connect with each other, and their unit/command and Family 
Programs' Office. We also attend to both the Family members' and 
Soldiers' physical, behavioral and mental health needs. This requires 
trained professional speakers to come to units and regional venues to 
educate and assist attendees with knowledge, skills and practical 
hands-on participation.
    In fiscal year 2010, the Army Reserve conducted 525 YRRP events, 
serving 26,000 Soldiers and more than 28,000 Family members. These 
events proved successful because of direct support from a caring 
command staff, involvement by a myriad of community agencies, and the 
commitment of volunteers. Providing these services and support to Army 
Reserve Families and Soldiers on par with those for the Active 
component is a challenge since most of our Families do not live near a 
fort, camp, post or station where services are readily available. The 
geographic dispersion and numbers of Army Reserve Soldiers and 
Families, combined with the challenges that may exist with a civilian 
employer or educational pursuits, is unparalleled by any other military 
service or service component.
            Spiritual Care
    While resiliency is the operative word in today's Army concerning 
Soldier and Family well-being, it has always been the end state of a 
chaplain's ministry. Spiritual fitness is vital to maintaining a 
healthy and vibrant force. While chaplains are helpful agents during 
times of crisis, their greater value lies in their ability to enable 
Soldiers and Families to endure and successfully overcome a crisis when 
it does occur.
    As an operational force, it is important that we are properly 
structured and manned. In 2007, the Director of Force Management 
approved and directed the addition of Unit Ministry Team (UMT) force 
structure across all Army components. In order to support enduring 
requirements of an operational Reserve, this additional structure would 
enable the Army Reserve to place the Army Chaplaincy's Family Life 
function into its inventory. Family Life chaplains would oversee our 
successful Strong Bonds' program while also supplementing the Army 
Reserve's religious support capabilities in Family ministries and UMT 
training.
    We appreciate the resources Congress has approved for the Army 
Reserve Strong Bonds program. During fiscal year 2010, over 300 Strong 
Bonds events were conducted throughout the United States and its 
territories, enhancing Soldier and Family communication and 
relationship skills. Some 12,500 Soldiers and Family members 
participated in these events and received this training. Our goal is to 
provide Strong Bonds Relationship training to the maximum number of 
Army Reserve Soldiers and Families.

    ----------------------------------------------------------------

    When Families are supported, Soldier problems are lessened and 
Soldier retention increases. The Army Reserve is committed to providing 
its Soldiers and Families a level of benefits and quality of life that 
is commensurate with their service to the Nation.

    ----------------------------------------------------------------

            Behavioral Health
    The Department of Defense Mental Health Task Force of 2006 
recognized that the existing systems for psychological health were 
insufficient for current and future needs. Task Force recommendation 
5.4.1.16 stated that ``Each Reserve Component should appoint a full 
time director of Psychological Health to the staff of the Reserve 
Component Surgeon.'' It went on to specify that ``Where Reservists are 
organized by region, a full time Regional Psychological Health Director 
should be appointed.'' The Army Reserve has acted on these 
recommendations and has developed a limited Behavioral Health program. 
There is a Deputy Surgeon for Behavioral Health at the Surgeon's 
office, whose responsibilities center on program development. Three of 
the four Regional Support Commands have Directors of Psychological 
Health. The licensed clinicians are responsible for following up on the 
urgent referrals generated by the Periodic Health Assessment and Post 
Deployment Health Reassessments. Working on an ``Assess and Refer'' 
model, they conduct bio-psycho-social assessments of each referred 
individual and determine the appropriate level of follow-up. They do 
not provide treatment. The major illnesses being identified , Post 
Traumatic Stress, Major Depression and Substance Abuse are treatable, 
but require a long-term commitment to care. Even as the current 
conflicts wind down, the psychological injuries sustained will require 
treatment far into the future. Four clinicians cannot adequately 
address the case management and monitoring needs that will be required 
by the growing numbers of Soldiers in the Army Reserve who struggle 
with these difficulties, especially considering the geographical 
dispersion of our units.
    A critical step for the future development of Behavioral Health 
programming within the Army Reserve is for all those who have a stake 
in the emotional well-being of Soldiers to share resources and develop 
multidisciplinary teams in order to most efficiently deal with the 
often complex and multidimensional needs of our Troops. The Army 
Reserve will be working with the other military Service reserve 
components and Congress to continue developing improvements to our 
infrastructure and processes to ensure our Soldiers receive appropriate 
care.
            Health Care
    The Army Reserve has served the Nation well while transforming from 
a strategic to an operational force. Soldiers not medically and 
dentally ready impair our ability to ensure predictability and reliance 
for the combatant commander. Army Reserve medical readiness improved 
from 23 percent on October 1, 2008 to 60 percent as of September 23, 
2010. Programs such as the Army Select Reserve Dental Readiness System 
(ASDRS) have been highly successful. Dental readiness, currently at 74 
percent has improved 21 percent over the last 2 years, and is one of 
the key elements improving medical readiness. Influenza compliance 
within the Army Reserve reached its highest compliance rate ever at 77 
percent, with H1N1 compliance at 79 percent.
    In 2010, we converted the paper records of 168,829 Soldiers to an 
electronic Health Readiness Record, allowing us to take full advantage 
of efficiencies in time, cost, and services over the continued use of 
paper treatment records. To improve data sharing, we obtained view 
capability of medical records stored in the Armed Forces Health 
Longitudinal Application, the active component medical database. We 
implemented the Medical Reserve Ready Response unit program, which 
enables our Army Reserve Physicians to review medical profiles and 
approvals from their home, capitalizing on the unique clinical skills 
found in the Army Reserve.
    Caring for our Wounded Warriors and assessing post deployment 
health issues are part of the Army's efforts to protect the health and 
well-being of Soldiers who have redeployed from combat. The Army 
Reserve tracks completion of the Post Deployment Health Reassessments 
to capture data and monitor the medical and behavioral needs of 
redeployed Soldiers. Soldiers complete these health assessments within 
3 to 6 months after returning from theater. As of September 15, 2010, 
84,419 Army Reserve Soldiers have been screened for post deployment 
health issues--a 95 percent compliance rate.
    As medical screening has improved, so has the identification of 
Soldiers who are not medically ready, and much work remains. There are 
approximately 15,500 Medically Non-deployable (MNDs) Soldiers who 
require a medical board and we are moving out aggressively to improve 
the boarding process.
            Family Support Programs
    Transformation from a strategic reserve to an operational force 
resulted in the need for standardizing programs and services to ensure 
Soldier and Family needs are met with the right resources, at the right 
time. Baseline services and outreach capability that sustain the 
quality of life of our Soldiers and Families are being integrated into 
the cycles of the ARFORGEN model. We employ metrics and administer 
surveys to gauge the quality and integrity of family program services 
for effectiveness and their value to our customers. This allows for the 
investment in high return services and the retirement of those that do 
not meet the needs of an operational force.
    An example of a promising high return service is the Army Reserve 
Virtual Installation Program. Operating at three pilot sites within 
three Army Strong Community Centers around the country, Virtual 
Installation brings the services and resources only found on active 
military installations to geographically dispersed military Families--
of all branches of the armed services. These centers provide hands-on 
problem resolution and follow-up for a myriad of concerns ranging from 
military benefits and entitlements to community resources. The Fort 
Family Support & Outreach Center at Fort McPherson, Georgia is the 
nerve center of the Army Reserve Virtual Installation where the 
Outreach Center staff use cutting-edge technology, mapping programs, 
and resource databases as well as live, personal contact with highly 
skilled subject matter experts to serve and build community-based 
capacity for each pilot site.
Full-Time Support (FTS)
    In July 2010, the Secretary of the Army directed the Assistant 
Secretary of the Army for Manpower and Reserve Affairs (ASA (M&RA)) to 
personally lead a study to determine the correct level of full-time 
support required for the Reserve Components. A memorandum and a term of 
reference will be sent to the reserve component leadership advising of 
the M&RA effort and task. There is also an initiative to have the 
reserve component re-validate the models that will identify/inform 
manpower requirements. These efforts will help the Army to determine 
the appropriate size of the FTS program for managing the reserve 
component as an operational force.
    The Army Reserve is currently funded at 75 percent of its 
requirements. This funding level is based on the requirements of a 
strategic reserve and in accordance with the Headquarters, Department 
of the Army ``HIGH RISK'' funding methodology. Funding must be 
maintained at this level.
    Civilian personnel programs (Military Technician and Army 
Civilians) are currently fully funded (based on 75 percent of FTS 
authorizations against validated requirements) and must remain so in 
order to provide required Army Reserve full-time support. The National 
Defense Authorization Act, Subtitle B--Reserve Forces, requires the 
Army Reserve to meet a Military Technician end-strength floor by 
September 30 each fiscal year. The ability to support an operational 
Army Reserve depends on being able to meet, or exceed within 
established standards, the authorized floor.
    The Army Guard and Reserve (AGR) program must also remain fully 
funded (based on 75 percent of FTS authorizations against validated 
requirements) in order to provide the required Army Reserve full-time 
support. Currently authorized 16,261 Soldiers, this program provides 
the bulk of full-time support at the unit level. They provide day-to-
day operational support needed to ensure Army Reserve units are trained 
and ready to mobilize within the ARFORGEN model. The AGR program is 
absolutely vital to the successful transition to, and sustainment of, 
an operational force.

    ----------------------------------------------------------------

    The Employer Partnership of the Armed Forces has more than 1,300 
employers and the list is growing. These Employer Partners represent 95 
of the 2010 Forbes Fortune 500 companies; they are military-friendly; 
and they value the skills, experiences and work ethic of those who 
serve.

    ----------------------------------------------------------------

Employer Partnership of the Armed Forces
    The Army Reserve's Employer Partnership Initiative has expanded far 
beyond serving only Army Reserve Soldiers. Today the Employer 
Partnership provides career continuum resources for the entire Service 
``Family.'' It serves the civilian employment and career advancement 
needs of members of all seven Reserve Components, their Family members, 
Wounded Warriors and the Nation's veterans. With this fully 
encompassing focus the program is now the Employer Partnership of the 
Armed Forces.
    The Employer Partnership of the Armed Forces has more than 1,300 
participating employers and the list is growing. These Employer 
Partners represent 95 of the 2010 Forbes Fortune 500 companies; they 
are military-friendly; and they value the skills, experiences and work 
ethic of those who serve.
    Army Reserve leadership feels the Employer Partnership is realizing 
success, and that the program supports its Human Capital Strategy. 
Accordingly the Chief of the Army Reserve will spend as much as $5 
million during fiscal year 2011 for the program. This funds operations 
which include program support personnel dispersed across the United 
States, and other resources that help connect seekers to jobs.
    Last fall the Employer Partnership launched a state-of-the-art job 
search resource at the portal: www.EmployerPartnership.org. Through 
strategic partnerships the portal accesses approximately 600,000 jobs 
at any given time. In addition to robust search capabilities, seekers 
can use the resume builder and keep a detailed resume readily available 
within the portal. Employers may then reach in and conduct candidate 
searches based on seeker skills/experiences. This in effect allows 
``jobs'' to actually ``find'' our seekers. The portal's user-friendly 
functionality makes it an efficient tool for both seekers and 
employers.
    The partnerships forged with civilian employers build operational 
capacity for the Army Reserve and the Reserve components; they fortify 
the resilience of our Families; they serve those who have served; and 
they strengthen our Employer Partners. The Army Reserve's underwriting 
of Employer Partnership of the Armed Forces program represents a 
positive investment for America.
 the employer partnership promotes skills and opportunity sharing with 
                             the home front
    program provides advantage to local communities and the military
    Employers realize that it makes sense to hire personnel already 
trained and experienced. Reserve Service members and Veterans fit this 
bill. They are skilled in a wide variety of disciplines including 
healthcare, transportation, logistics, supply chain management, law 
enforcement, public safety, construction, engineering, finance, 
information technology and telecommunications. By providing access to 
talented Service members, the Employer Partnership of the Armed Forces 
saves local employers time and money.
    The military also benefits. Best practices from industry, and 
experience with cutting edge technology and medical procedures flows 
into our Armed Forces through Reserve service. And, as the Employer 
Partnership (EP) helps Service members progress in their civilian 
career fields, increased expertise is brought to military assignments.
    Perhaps most important to the home front are the career 
opportunities the EP brings to Service members, their Families and our 
Veterans. The Employer Partnership program truly exemplifies a positive 
investment in America, and our commitment to taking care of our entire 
Military ``Family.''

    ----------------------------------------------------------------

                  career opportunities across america
    The EP program has written agreements with more than 1,300 Employer 
Partners; with jobs in every U.S. State and territory.
                      strengthens local economies
    Efficient access to trained and qualified work force saves time. 
Hiring costs also lowered by reducing need for duplicate drug and 
aptitude screening.
                      inside track to opportunity
    Provides Service members with an inside track to employers who are 
committed to hiring Reservists and Veterans.
                    a concrete way to support troops
    The EP program gives employers a tangible way to support our troops 
while also strengthening America's economy.

    ----------------------------------------------------------------

    ----------------------------------------------------------------

 the army reserve's core competencies: battle tested, skill rich army 
 reserve soldiers in an operational force provide strength for america 
                            and it's economy
                               logistics
    Logistics is one of the most important capabilities of the Army 
Reserve. From supply-chain management to land, water, and air 
operations, the Nation's defense depends on the efficiency of our 
Expeditionary Sustainment Commands; Transportation, Petroleum, 
Quartermaster and Supply units. Army Reserve Soldiers are skilled and 
experienced in delivering the right product at the right time to our 
customers world-wide.
                               healthcare
    Breakthroughs in trauma techniques and procedures often originate 
from battlefield medicine. The majority of the U.S. Military's medical 
capability resides in the Reserve components. As a result of their 
military service, Army Reserve doctors, nurses, technologists and other 
medical service practitioners are able to bring extraordinary practical 
experience to local care providing institutions across the United 
States.
                       information/communications
    Information is critical to successful operations on the modern 
battlefield. Satellite, microwave, cell and fiber-optic are among the 
many means; code-division multiplexing, time division and frequency 
division multiple access are among the technical methods which enable 
this. Data collection, analysis and reporting activities form the 
information and intelligence that is communicated. The Reserve has 
operators, enablers and trainers in all of these disciplines. Army 
Reserve Communicators are information age proficient.
                               management
    The development of leadership and management skills begins early in 
every service member's career. Military training stresses leadership 
principles, sound decisionmaking and overcoming challenges. This is 
important because Soldiers are responsible for major equipment systems, 
and above all, are responsible for the well-being of those they lead. 
Army Reserve Soldiers are responsible and capable leaders.

    ----------------------------------------------------------------

                               readiness

    ----------------------------------------------------------------

           critical readiness needs of an operational reserve
    Adequate resources to respond to Homeland Defense missions.
    Additional mandays in the last 3 years of the ARFORGEN cycle.
    Provide Simulations and Simulators to enable operationally 
relevant, full spectrum training for Soldiers anytime/anywhere.
    Ensure Home station training capabilities to support critical home 
station pre-deployment training.
    Sustain the availability of training equipment.
    Support for programs to Protect the Force.
    Continue support for a fully integrated operational Aviation force.
    Provide a strong Army Reserve Network Defense.
    Funding for essential and mandatory secure communications.
    Creation of a standardized computing environment.
    Construction and upgrade of Army Reserve Centers, and Training 
Facilities.
    Support for programs to reduce energy usage, conserve natural 
resources, and develop alternate renewable energy.
    Continue the work of Army Reserve Virtual Installation Program.

    ----------------------------------------------------------------

Operations
            An Operational Force
    The Army Reserve continues to provide vital capabilities to 
combatant commanders in support of overseas contingency operations. 
More than 196,711 Army Reserve Soldiers have mobilized in support of 
Operation Iraqi Freedom/New Dawn and Operation Enduring Freedom since 
September 11, 2001. Today, more than 15,584 Warrior Citizens are 
serving in Iraq, Afghanistan and 22 other countries around the globe.
    We execute a pre-mobilization readiness strategy that provides the 
Army ready formations and soldiers on an annual, predictable cycle. 
Through the Army Force Generation (ARFORGEN) model, the Army Reserve 
synchronizes the plans and resources necessary to meet the readiness 
goals for units entering their available year. This maximizes ``boots 
on the ground'' time, builds cohesive teams and provides predictability 
for our Soldiers and Families.
            Homeland Operations (HLO)
    Homeland Operations, which includes Homeland Defense, Homeland 
Security and Defense Support of Civil Authorities, has become an 
increasingly important mission for the Army Reserve and its applicable 
capabilities. The Army Reserve currently provides 37 units in support 
of the Chemical Biological Radiological Nuclear Response Enterprise. 
Properly managing this Army Reserve commitment will necessitate growth 
of full-time manning and Troop Program Unit positions within the 
Homeland Defense Division.
    The Army Reserve has relevant and capable units that we leverage in 
a Defense Support of Civil Authorities environment. This includes, but 
is not limited to, the following types of units: medical aviation, 
transportation, engineering, communications, and Civil Affairs. These 
capabilities can be packaged with the appropriate command and staff 
structure to facilitate assistance to civil authorities. This packaging 
can also provide necessary command and control of Title 10 Department 
of Defense resources in a defined joint environment. When combined with 
legislative efforts to amend existing mobilization authorities, the 
U.S. Army Reserve can provide significant resources to support civil 
authorities in domestic disasters and emergencies.
            Theater Security Cooperation Programs (TSCP)
    As requirements for Deployed Expeditionary Forces decrease as the 
result of planned force drawdowns in Operations New Dawn and Enduring 
Freedom, the Army Reserve is exploring other missions in an effort to 
sustain experience and readiness levels. Combatant commander TSCP 
programs require a wide range of forces, such as military police, for 
missions of varying duration. In many cases, Army Reserve formations 
are ideally suited to conduct these missions. The use of Army Reserve 
units: reduces stress on the active component, preserves the readiness 
gains made in the reserve component over the last decade, and spreads 
the burden of defending American interests across a larger portion of 
the citizenry.
Training
            Mandays to support an Operational Reserve
    Using a progressive training strategy, the Army Reserve is 
committed to providing trained companies and battle staffs to combatant 
commands upon mobilization. With adequate resources that support 
reoccurring operational employments, we can effectively fulfill our 
mission. A sufficient number of training mandays, during the last 3 
years of the ARFORGEN cycle, is imperative to meet established 
readiness aim points, which reduces post-mobilization training time and 
increases Boots on the Ground time for theater operations.
            Simulations and Simulators
    The Army Reserve continues to engage the Army's Training Support 
System Enterprise that provides networked, integrated and interoperable 
training support capabilities that enable operationally relevant, full 
spectrum training for Soldiers anytime/anywhere. The use of simulations 
and simulators minimizes turbulence for Soldiers and their Families 
caused by training demands during the first 2 years of the ARFORGEN 
process by enabling individuals and units to train at their home 
station and during exercises in a safe environment without the 
increased wear and tear on equipment. An example of the simulators used 
to train Soldiers is the fielding of more than 630 Laser Marksmanship 
Training Systems to 346 Army Reserve locations over the past year.
            Home Station Training Capabilities
    The Army Reserve remains dedicated to providing suitable platforms 
to support critical home station training for its units. Home station 
for the Army Reserve includes Reserve Centers, Local Training Areas, 
Regional Training Sites, and installations. Home stations must 
adequately portray the operational environment in training venues, 
facilities, and ranges with a mix of Live, Virtual (Simulators), and 
Constructive (Simulations), including gaming technologies. Modernizing 
our facility infrastructure through additional Military Construction 
and the retrofitting of existing facilities with state of the art 
classrooms and simulator/simulation rooms enhances our ability to 
conduct individual and collective training, such as the inclusion of 
the weapons simulator rooms in our new Army Reserve Centers. Upgrading 
our existing Local Training Areas, and Regional Training Sites with 
ranges and training facilities provides units the capability to master 
critical tasks while training close to home.
            Army Reserve Comprehensive Soldier Fitness
    Comprehensive Soldier Fitness marks a new era for the Army Reserve 
by comprehensively equipping and training our Soldiers, Family members 
and Army Civilians to maximize their potential and face the physical 
and psychological challenges of sustained operations. We are committed 
to Comprehensive Soldier Fitness that will enhance resilience and 
coping skills enabling the Force to grow and thrive in today's Army 
Reserve.
    This year, the Army Reserve trained over 100 Non-Commissioned and 
Commissioned Officers at the Department of the Army's Master Resiliency 
Trainer's Course. These trained leaders form the core of our resiliency 
effort and are currently conducting Resiliency Training at Army Reserve 
units globally. Initial feedback from Soldiers and Civilians that have 
attended this training, has been overwhelmingly positive.
            Training Equipment
    The Army Reserve has been able to meet both the logistics readiness 
requirements for mobilizing its units as an Operational Reserve force 
and the enduring standards outlined in regulations and directives. 
These results have been delivered through effective and intensive 
management, innovative programs, and strict adherence to priorities and 
effective enablers such as contracted maintenance and support to our 
units. We have developed and fielded ``bridging'' logistics management 
and information systems to augment those fielded and programmed by the 
Army. These systems have created a near ``real time'' data warehouse 
and responsive tools for our managers to quickly identify and resolve 
issues, especially in maintenance, property accountability and 
equipment distribution. We continue to find innovative ways to 
accomplish our missions with the resources provided as we move towards 
full implementation of our position as an Operational Reserve within 
the Army Force Generation Model.
Security
    The Office of the Provost Marshall (OPM) manages the Force 
Protection of Army Reserve facilities and personnel. OPM's core 
functions are Antiterrorism, Police Operations, Physical Security and 
Law Enforcement. The Army Reserve has identified three mission 
priorities that OPM is responsible for managing which require funding:
            Installation Access Control
    Army Reserve facilities are distinctive because they are stand-
alone facilities in remote parts of the country. Maintaining positive 
control of access to these facilities is paramount to ensuring that the 
Soldiers and equities inside these facilities remain ready and 
available to combatant commanders. Funding to modernize access to 
Reserve facilities supports the Army Reserve objective of Protecting 
the Force.
            Intrusion Detection System (IDS) Maintenance and Monitoring
    IDS systems monitor arms rooms at Army Reserve facilities 24-hours 
a day. Should an arms room at a remote facility be breached, creating 
the possibility that military weapons could fall into the hands of 
criminals or terrorists, the monitoring program ensures that 
authorities will be notified immediately.
            Antiterrorism Program Management
    Antiterrorism (AT) Assessment Specialists are the key component of 
the Antiterrorism Program. AT Specialists conduct inspections of Army 
Reserve facilities across the Nation to ensure facilities are in 
accordance with Department of Defense and Army standards. The Army 
Reserve spans over 1,100 stand-alone facilities across the continental 
United States. With appropriate funding the Army Reserve can protect 
Soldiers and equipment vulnerable to criminal and domestic terrorist 
threats.
Aviation
    Army Reserve Aviation is a fully integrated, operational force with 
a fleet of more than 198 rotary wing and fixed wing aircraft. The 
diverse fleet provides speed, mobility, flexibility, agility, and 
versatility to the Army in support of full spectrum operations. Army 
Reserve Aviation has recently activated two new MEDEVAC companies. The 
MEDEVAC companies are located in Texas, Colorado, Pennsylvania, and 
Kentucky. Additionally, the Army Reserve aviation fixed wing units will 
accept delivery of six new C12V1 aircraft in 2011. These aircraft will 
fill a critical capability gap to meet Continental United States 
(CONUS) based training requirements in preparation for Overseas 
Contingency Operations. The Army Reserve continues to seek funds for 
the procurement four additional C12V1 aircraft. Lastly, Army Reserve 
Aviation continues to lead the way in Air Traffic Simulation. The first 
unit level Air Traffic Control simulator, located in the Marryman 
Simulation Complex, Fort Rucker, Alabama became operational this year. 
The system meets all Federal Aviation Administration requirements for 
certification. The simulator provides qualification and proficiency 
training for all Army controllers. This simulator is also used in 
aviation training exercises to validate controller skills prior to 
deployment.
Base Realignment and Closure
    The Army Reserve is in its final year of the 6-year execution of 
the BRAC 2005 mandated execution--which officially ends on September 
15, 2011. Upon the conclusion of this BRAC window, the Army Reserve 
will have made significant changes shaping the force for relevant 
contributions well into the future. The year's execution will mark the 
culmination of the largest transformation of the Army Reserve since 
World War II by realigning the command and control structure into an 
operational configuration; realigning six major headquarters including 
Office of the Chief, Army Reserve and United States Army Reserve 
Command to new locations; disestablishing 12 Regional Readiness 
Commands; establishing four Regional Support Commands; activating five 
Sustainment Commands and eight Sustainment Brigades; constructing 125 
Armed Forces Reserve Centers; and closing 190 facilities or activities.
    BRAC provides an opportunity for the Army Reserve to power down to 
our major commands some of the functions that are typically managed at 
the Army Reserve Headquarters. We are implementing the Army's 
enterprise approach within our staff, which includes managing things 
like personnel issues and logistics issues at the lowest possible level 
of organization. When we power down some of these management issues to 
our regional and operational/functional commands during our BRAC move, 
it may make sense for those commands to retain management of some of 
those issues.
    Completing the construction of 61 Armed Forces Reserve Centers and 
relocating units into these new facilities remains the largest priority 
of execution for fiscal year 2011 as all actions must be completed by 
September 15, 2011. The relocation of units into these new facilities 
will facilitate the closure and disposal of the remaining 143 of 176 
Army Reserve Centers identified by BRAC for closure.
    Over the next year the Army Reserve will execute and complete the 
remainder of all Army Reserve BRAC actions. These remaining actions 
will mark the end of the largest transformation efforts the Army 
Reserve has seen in its storied history.
Communication (Information Technology)
            Army Reserve Network
    The Army Reserve Network (ARNET) provides the Command and Control 
(C\2\) enablement in operationalizing the Army Reserve. The ARNET 
provides Army Reserve Leaders and Soldiers the ability to make timely 
informed decisions in the execution of overall C\2\ for all Army 
Reserve units throughout the contiguous United States and Puerto Rico. 
Over the past 2 years, the Army Reserve has worked closely with the 
Army in implementing the Global Network Enterprise Construct (GNEC) 
strategy as the way to grow and improve LandWarNet to an Enterprise 
activity. The ideal end-state is to provide Soldiers a universal email 
address, file storage, telephone number and a standardized 
collaboration tool set.
    The Army Reserve's contributions to GNEC began in 2002 with an Army 
Business Initiative Council approved project. Elements of the project 
re-structured the legacy ARNET into a portion of the LandWarNet and 
developed a consolidated Data Center providing centralized core 
services (i.e., Active Directory, email, collaboration, file storage 
and centralized application hosting) for the entire Army Reserve. With 
approximately 85 percent of the consolidation completed, continued 
funding of the ARNET is integral in maintaining a global warfighting 
C\2\ capability. The Army Reserve's accomplishments and experiences 
have been applicable to the Army as we continue to participate in GNEC 
planning forums in aligning Army initiatives and timelines while 
ensuring Army Reserve Title 10 operational capabilities are met.

    ----------------------------------------------------------------

                            cyber operations
    Army Reserve Soldiers offer current skill-sets and leap-ahead 
capabilities in the cyber environment. Warrior-Citizens employed in 
leading-edge technology companies have critical skills and experience 
in fielding the latest information technology systems, networks, and 
cyber security protocols.

    ----------------------------------------------------------------

            Secure Communication
    Secure communications is essential and mandatory, particularly with 
C\2\ and mobilization (i.e., deployment dates, passing mobilization 
orders, and C\2\ theater assets). Secure Internet Protocol Router 
Network (SIPR) and Secure Video Teleconference (SVTC) for all Battalion 
and above units are vital in meeting all pre-mobilization training/
readiness gates, mobilization training actions and day-to-day secure 
operational planning. The security of the Global Information Grid (GIG) 
is a constant challenge and reflected in DOD's standup of Cyber Command 
and the associated service elements. The same is true in the overall 
security posture of the ARNET in ensuring the uninterrupted flow of 
information to all ARNET authorized users. Continued investment in the 
Army Reserve secure communications and defense of the ARNET supplies 
Army Reserve Leaders, Soldiers and Civilians the capability of 
attacking and exploiting network threats.
Army Reserve Facilities
    Reserve Centers, Training Support and Maintenance facilities are 
designed to meet the unique requirements of our community-based force. 
Our Soldiers, Families, and Civilians are strategically located across 
the country in over 1,100 stand-alone facilities--Army Reserve Centers 
or Armed Forces Reserve Centers (which house other Department of 
Defense components along with Army Reserve). However, the needs of the 
Army Reserve are evolving. The Military Construction Army Reserve 
priorities for the fiscal year 2012-2017 Program Objective Memorandum 
are Army Reserve Centers, training support facilities, and maintenance 
facilities. The Army Reserve Centers are essential to training Reserve 
Soldiers for the full spectrum of operations and the operations of the 
Army Reserve. Training Support Facilities are critical to conducting 
Army Reserve and active-component unit and collective training tasks in 
support of the Army Force Generation Model requirements. These 
facilities also provide the training platform to support The Army 
School System, which is composed of the reserve component, the active 
component Military Occupational Skill reclassification, and Officer and 
Non-Commissioned Officer Professional Military Education. Maintenance 
Facilities are the third priority to the facility strategy required as 
the logistics support to Army Reserve Equipment.
    Base Realignment and Closure and emerging Army requirements for 
modular unit design, force protection, and energy efficiency continue 
to require new facilities or renovations to our existing facilities. 
Quality facilities are critical to the Army Reserve's ability to handle 
the increased training, mobilization, and Family and Soldier care 
activities that today's Army Reserve demands.
Energy Conservation
    The Army Reserve is especially proud that our facilities are at the 
forefront of energy sustainability. In 2010, several new Reserve 
Centers will achieve net-zero energy usage (self-sufficient without 
drawing additional power from the electrical grid). We have established 
a solar energy farm at Fort Hunter Liggett, California, and are 
installing wind turbines and geothermal plants at several new 
facilities. The Army Reserve has started a retrofit program, replacing 
lights, windows, roofs, and other components with new energy-efficient 
technology, resulting in substantial savings in utility costs. The Army 
Reserve was the first Defense component to commission partnerships with 
local utility providers and to solicit third-party energy investors. In 
5 years every State and U.S. territory will have Army Reserve 
facilities that are energy self-sufficient (net-zero), with many 
providing renewable energy back to the electrical grid. To continue 
this progress, the Army Reserve must conduct a sustainability 
evaluation of each facility. This will establish a sustainability 
baseline, which will in turn enable us to create a sustainability 
strategy that addresses the unique characteristics of each site. 
Continuing to invest in sustainable facilities will enable the Army 
Reserve to meet or exceed the Department of Defense requirement for a 
completely net-zero footprint by 2025. More importantly, the Army 
Reserve will save American tax dollars, return a valuable energy 
resource to the community, and assure reliable energy for Army Reserve 
Soldiers and Families.
    Until energy independence is realized, it is imperative that the 
Army Reserve have fully funded utilities. In previous years utility 
costs have risen substantially, requiring the Army Reserve to re-
program funds and accept risk in other areas. The Army's increasing 
emphasis on home-station training, ongoing deployments, and the needs 
of Army families in the community means that the Army Reserve needs 
constant, reliable access to energy in our Reserve Centers and training 
facilities now more than ever.

    ----------------------------------------------------------------

    The Army Reserve was the first Defense component to commission 
partnerships with local utility providers and to solicit third-party 
energy investors.

    ----------------------------------------------------------------

                               equipping

    ----------------------------------------------------------------

           critical equipping needs of an operational reserve
    Resource Modernized equipment for the Army Reserve to improve Army 
Reserve readiness and capabilities within the ARFORGEN Model.
    Maintain Army Reserve equipment at or beyond the Army standard of 
90 percent Fully Mission Capable.
    Provide Contracted Support for logistics operations and information 
systems to sustain logistics readiness.
    Funding for state-of-the-art maintenance facilities.

    ----------------------------------------------------------------

Army Reserve Materiel
    The Army Reserve, thanks to the support of Congress, is at an 
aggregate total of nearly 90 percent of its required equipment on-hand. 
Sixty-five percent of our on-hand equipment is classified as 
``modernized.'' However, we remain short in several areas of critical 
equipment. Around 35 percent of our required equipment lines are at 
less than 65 percent on hand. These shortages include tactical 
communications networks (satellite and terrestrial), command and 
control items and night vision systems. We have been able to sustain 
the pace of operations and training as an Operational Reserve by the 
continuous cross-leveling of available equipment among units. This does 
create an unsustainable level of friction, where a critical amount of 
equipment is not immediately available as the equipment is in transit 
(geographical dispersion of our units across the country), undergoing 
maintenance or awaiting deployment. In addition, some of our equipment 
is already deployed. The Army continues to work with us on identifying 
and filling shortages to improve readiness and capability to act as an 
Operational Reserve force under the Army Forces Generation Model.
Equipment Maintenance
    The Army Reserve maintains its equipment at or beyond the Army 
standard of 90 percent Fully Mission Capable. This ensures the 
availability of equipment for training and mobilization to support the 
operational force within the Army Force Generation Model. Units cannot 
train or mobilize without equipment that is ready to perform. Field 
level maintenance keeps the equipment ready for use. Funding for tools, 
consumables, military technician mechanics and contracted support 
sustains our field level maintenance activities. Good maintenance 
reduces the amount of ``friction'' (equipment in shop, in transit, 
etc.) that removes equipment from use. Depot maintenance is important 
in keeping older equipment operable, relevant and safe to employ. 
Recapitalization of equipment provides a source of modernized and more 
capable items when new procurement is insufficient to meet shortfalls 
or inventory losses. Funding for military construction provides new, 
modernized or expanded facilities to perform maintenance and staging of 
equipment.
Logistics Contract Support
    It is prudent to fund the Army Reserve for contract support for 
logistics operations and information systems to sustain logistics 
readiness. Contract support allows the Army Reserve to execute a 
vigorous assistance program in managing inventory and identifying and 
disposing of excess; providing field level repair and services during 
``surge'' periods when units draw equipment for training or 
mobilization and in sustaining our critical logistics information and 
management systems. Contract support also strengthens our ability to 
meet operational demands and serve as an operational force within the 
Army Force Generation Model, while meeting Homeland Defense and Defense 
Support to Civil Authorities missions.

    ----------------------------------------------------------------

    However, we remain short in several areas of critical equipment. 
Around 35 percent of our required equipment lines are at less than 65 
percent on hand. These shortages include tactical communications 
network (satellite and terrestrial), command and control items and 
night vision systems.

    ----------------------------------------------------------------

    Leveraging contracted support, especially during periods of 
``surge'' in mobilizing units, has supplemented our organizational 
capabilities. This enabler assists us in maintaining and preparing our 
equipment for training, mobilization and deployment, in operating and 
sustaining our logistics management and information systems in support 
of logistics operations and in managing the distribution of our 
equipment and identification and disposal of excess. We continue to 
find innovative ways to accomplish our missions with the resources 
provided as we move towards full implementation of our position as an 
operational force within the Army Force Generation Model.
Equipment Facilities Management
    State-of-the-art maintenance facilities are the cornerstone of the 
Army Reserve's ability to sustain large equipment. The Army Reserve 
uses state-of-the-art environmental control features in maintenance 
facility designs that meet or exceed Federal design standards. Data 
ports at vehicle work bays, fluid distribution systems that eliminate 
spillage, and oil/water separators are examples of proven design 
features. These features improve efficiency and enhance collection of 
fossil fuel waste, further safeguarding surrounding communities' land 
and waterways from contamination and pollution. Fire suppression 
systems and eye wash stations are standard safety design elements. The 
Army Reserve will continue to upgrade our older maintenance facilities, 
because the condition of maintenance facilities is directly related to 
our ability to maintain equipment in acceptable condition. Continued 
deployments and heavy training have taken a toll on both equipment and 
facilities. Facility sustainment is critical--in fact, it is a cost-
saving measure realized over the life-cycle of the facilities, if done 
properly. Facility deficiencies, if left unchecked, tend to worsen 
exponentially over time. The ongoing investment in the facilities we 
build will ultimately reduce repair, renovation, and replacement costs 
in the future.
                 conclusion: the force is in good hands
    As we travel around the United States and the world and witness 
what our Soldiers are doing for their country, it's just inspiring to 
see the quality, the dedication and the professionalism of our Soldiers 
serving in the Army Reserve. These are top-notch individuals that have 
put their civilian careers on hold. They are well educated and have 
very bright futures ahead of them--but they joined our ranks to serve 
their country.
    With more than 170,000 Army Reservists mobilized since the 
September 11, 2001 terrorist attacks on the United States, the force is 
more experienced than ever before and the Troops feel good about what 
they've accomplished and proven about the Army Reserve.
    Today's environment of multiple deployments is telling us, however, 
the Army Reserve will need to keep giving these quality Soldiers 
fulfilling training and missions, a fair benefits package and more 
balance in their lives to keep them on our team. We cannot continue to 
expect them to keep up with a rapid operational pace without more time 
at home with their families and civilian employers between deployments, 
and they need predictability about when they will deploy. Toward that 
end, the Army Reserve is working to give its Citizen-Soldiers a bit 
more time to be ``Citizens.''
    Today's Army Reserve recruits are attracted to an operational force 
because it enables them to serve their country in a meaningful way 
while allowing them to pursue a civilian career. When considering the 
future posture of the Army Reserve, we are convinced that after playing 
key roles in an operational force, they'll never be satisfied reverting 
to their long-abandoned ``weekend warrior'' status. We have 
transitioned our personnel and our mentality to an operational force 
and have created an environment and culture our Soldiers want to be 
part of--and that they feel good about. We have told the Army 
leadership and others there's no turning back. We cannot go back to a 
strategic reserve--one, because the Nation needs us; but two, because 
our Soldiers have proven themselves capable of supporting this role.
    Equally compelling, we as a military have come to the realization 
that we can't fight an extended conflict without the reserve. We have 
built an Army that is dependent on having access to the reserve when it 
needs us; and with the expectation that it is going to be trained and 
ready--a predictable capability that is not possible in a strategic 
posture.
    One thing is certain about the future--while looking for ways to 
cut costs and reap a ``peace dividend'' once the troops draw down in 
Iraq and Afghanistan, there will be the temptation to turn back the 
clock and reinstitute a strategic reserve. Such a plan would deprive 
the United States of an important, battle-tested and cost-effective 
resource.
    Operations Enduring Freedom, Iraqi Freedom and now New Dawn have 
demonstrated the capabilities the reserve components bring to the 
military. Particularly important are the ``enabling capabilities'' 
resident in the Army Reserve: logistical, engineer, military police, 
medical and civil affairs support.
    We are now at a point where current and projected demands for Army 
forces will require continued access to the Army's reserve components, 
making real what has been in policy for some time. This means that 
mobilization and operational use of reserve component Soldiers and 
units will have to continue for the foreseeable future. The Army of the 
21st century will require a versatile mix of tailorable and adaptable 
organizations--both active component and reserve component--
interdependently operating on a rotational cycle.
    Transforming the Army's reserve components into an enduring 
operational force provides a historic opportunity for the Army to 
achieve the most cost-effective use of its Total Force through 
investing in and relying on the Army's reserve components to take on a 
greater role in our Nation's defense.

    ----------------------------------------------------------------

    I am an American Soldier.
    I am a Warrior and a member of a team. I serve the people of the 
United States and live the Army Values.
    I will always place the mission first.
    I will never accept defeat.
    I will never quit.
    I will never leave a fallen comrade.
    I am disciplined, physically and mentally tough, trained and 
proficient in my warrior tasks and drills. I always maintain my arms, 
my equipment and myself.
    I am an expert and I am a professional.
    I stand ready to deploy, engage, and destroy the enemies of the 
United States of America in close combat.
    I am a guardian of freedom and the American way of life.
    I am an American Soldier.

    ----------------------------------------------------------------

                           your army reserve
    The United States Army Reserve provides trained units and qualified 
Soldiers available for active duty in the armed forces in time of war 
or national emergency, and at such other times as the national security 
may require. Throughout the United States, the Army Reserve has four 
Regional Support Commands that provide base support functions, and 13 
Operational and Functional Commands available to respond to homeland 
emergencies and expeditionary missions worldwide.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                         army reserve snapshot
    Mission.--The Army Reserve provides trained, equipped, and ready 
Soldiers and cohesive units to meet global requirements across the full 
spectrum of operations.
    Vision.--As an enduring operational force, the Army Reserve is the 
premier force provider of America's Citizen-Soldiers for planned and 
emerging missions at home and abroad. Enhanced by civilian skills that 
serve as a force multiplier, we deliver vital military capabilities 
essential to the Total Force.
Key Leaders
    Secretary of the Army: The Honorable John McHugh
    Army Chief of Staff: General George W. Casey, Jr.
    Chief, Army Reserve and Commanding General, U.S. Army Reserve 
Command: Lieutenant General Jack C. Stultz
    Assistant Chief, Army Reserve: Mr. James Snyder
    Deputy Commanding General, U.S. Army Reserve Command: Major General 
Jon J. Miller
    Deputy Chief Army Reserve, Individual Mobilization AugmenteeMajor 
General Keith L. Thurgood
    Deputy Chief Army Reserve/Human Capital Enterprise: Brigadier 
General Leslie A. Purser
    U.S. Army Reserve Command Chief of Staff: Brigadier General William 
J. Gothard
    Director for Resource Management/Materiel Enterprise: Mr. Stephen 
Austin
    Deputy Chief of Staff, G-3/5/7/Force Programs Division/Readiness 
Enterprise: Colonel (P) Brian J. McKiernan
    Chief Executive Officer/Director, Services and Infrastructure 
Enterprise: Mr. Addison D. Davis
    Command Chief Warrant Officer: Chief Warrant Officer 5 James E. 
Thompson
    Command Sergeant Major: Command Sergeant Major Michael D. Schultz
Army Reserve Basics
    Established: April 23, 1908
    Designated Direct Reporting Unit to Army: October 1, 2007
    2010 Authorized End Strength: 205,000
    Selective Reserve Strength: 205,281
    Accessions for fiscal year 2009: 23,684 (105 percent of actual 
goal)
    Reenlistments for fiscal year 2009: 12,227 (105 percent of annual 
goal)
    Accessions Goal for fiscal year 2010: 20,000
    Soldiers Deployed Around the World: 15,584
    Soldiers Mobilized Since September 11, 2001: 196,711
    Number of Army Reserve Centers: 1,100
Distinctive Capabilities
    The Army Reserve contributes to the Army's Total Force by providing 
100 percent of the:
  --Theater Engineer Commands
  --Civil Affairs Commands
  --Training Divisions
  --Biological Detection Companies
  --Railway Units
  --Replacement Companies
     . . . more than two-thirds of the Army's:
  --Medical Brigades
  --Civil Affairs Brigades
  --PSYOPS Groups
  --Expeditionary Sustainment Commands
  --Dental Companies
  --Combat Support Hospitals
  --Army Water Craft
  --Petroleum Units
  --Mortuary Affairs Units
     . . . and nearly half of the Army's:
  --Military Police Commands
  --Information Operations Groups
  --Medical Units
  --Supply Units
Army Reserve Demographics

------------------------------------------------------------------------

------------------------------------------------------------------------
Ethnicity (in percent):
    Caucasian..............................................        58.9
    Black..................................................        21.8
    Hispanic...............................................        12.8
    Asian..................................................         3.7
    Pacific Isl............................................         1.0
    Native Amer............................................         0.7
    Other..................................................         1.1
Average Age................................................        32.1
    Officers...............................................        40.7
    Enlisted...............................................        30.3
    Warrant................................................        43.1
Married (in percent).......................................        45.3
    Officers...............................................        66.9
    Enlisted...............................................        40.8
    Warrant................................................        72.2
Gender (in percent):
    Male:..................................................        76.6
    Female.................................................        23.4
------------------------------------------------------------------------

Army Reserve Budget Figures

------------------------------------------------------------------------
                                        Total fiscal      Total fiscal
                                          year 2011         year 2012
                                       budgeted: $8.1   programmed: $8.8
                                           billion           billion
------------------------------------------------------------------------
Operations and maintenance..........      $3.2 billion     $3.1 billiion
Military Personnel..................       4.7 billion       5.3 billion
Military Construction...............       318 million   318,175 million
------------------------------------------------------------------------

Army Reserve Installations
    Fort Buchanan, Puerto Rico
    Fort McCoy, Wisconsin
    Devens, Massachusetts
    Fort Hunter Ligget, California
    Fort Dix, New Jersey
    Camp Parks, California

    Chairman Inouye. Admiral Debbink.
STATEMENT OF VICE ADMIRAL DIRK DEBBINK, CHIEF, NAVY 
            RESERVE
    Admiral Debbink. Chairman Inouye, Vice Chairman Cochran, 
thank you for the opportunity to appear before you today.
    I have the great appreciation for your support of our 
64,426 sailors and their families of our Navy Reserve. I would 
like to make a special mention of one of those sailors today, 
and that is our senior enlisted adviser, Force Master Chief, 
Ronney Wright, who is with me today. He will be retiring next 
month after 31 years in our Navy and 3 years as my senior 
enlisted adviser.
    I wanted to publicly wish both he and his wife, Donna, all 
the best in the future. Stand up?
    As I testify today, Navy Reserve sailors are operating 
globally. Approximately 30 percent of the Navy Reserve is 
providing support to Department of Defense operations, 
including more than 5,500 selected Reserve sailors either 
mobilized in support of overseas contingency operations or in 
training for their upcoming mobilization.
    While fully engaged in these operations, your Navy Reserve 
has answered the call to assist with major global crisis events 
during the last several months, including Operations Odyssey 
Dawn and Tomodachi. As our motto and our sailors proudly claim, 
the Navy Reserve, indeed, is ready now--anytime, anywhere.
    We have the ability and the flexibility to meet emergent 
mission requirements such as these, due in large part to this 
subcommittee's continued support. The $70 million in National 
Guard and Reserve equipment appropriations this subcommittee 
provided in fiscal year 2011 will be put to very good and 
timely use by the Navy Reserve.
    I also thank you for your demonstrated support of our Navy 
Reserve fleet, logistic aircraft, including the additional C-
40A aircraft in the fiscal year 20l1 budget.
    Our 2012 budget request will enable your Navy Reserve to 
continue supporting current operations, while optimizing the 
strategic value of the Navy Reserve as a relevant force, valued 
for its readiness, its innovation, its agility, and its 
accessibility.
    Along with the other Guard and Reserve components, we 
played a critical role in the discussion and outcome of the 
recent comprehensive review of the future roles of the Reserve 
components by OSD. One of the products of this review was a 
legislative proposal before this Congress that allows for 
future routine deployments of the Reserve components as a 
resource to meet overseas requirements.
    This proposal signifies a fundamental shift in the use of 
the Reserves, recognizing both the high level of expertise, as 
General Stultz talked about in these forces, as well as a 
desire of today's Reserve sailors to continue performing real 
and meaningful work within the Navy's total force.
    Our Navy Reserve budget request also addresses the health 
and well-being of our sailors and their families. As written in 
the President's report, entitled ``Strengthening Our Military 
Families,'' stronger military families strengthen the fabric of 
America. Our budget request includes funding for vital programs 
in support of the physical, psychological, and financial well-
being of Navy Reserve sailors and their families.
    It is a privilege to serve during this important and 
meaningful time in our Nation's defense, especially as a Navy 
Reserve sailor. I thank you for your continued support and 
demonstrated commitment to both the Navy and the Navy Reserve, 
and I look forward to your questions.
    Thank you, sir.
    Chairman Inouye. I thank you very much, Admiral.
    [The statement follows:]
           Prepared Statement of Vice Admiral Dirk J. Debbink
                              introduction
    Chairman Inouye, Senator Cochran, and distinguished members of the 
Senate Defense Appropriations Subcommittee, as I enter my third year as 
the Chief of Navy Reserve, I thank you for the opportunity to speak 
with you today about the capabilities, capacity, and readiness of the 
64,568 dedicated men and women who serve in our Navy's Reserve 
Component. I offer my heartfelt thanks for all of the support you have 
provided these great Sailors.
    The U.S. Navy is globally deployed, persistently forward, and 
actively engaged. America's Navy, year after year, in peace and war, 
carries out the core capabilities of forward presence, deterrence, sea 
control, power projection, maritime security, and humanitarian 
assistance and disaster response articulated in our maritime strategy A 
Cooperative Strategy for 21st Century Seapower (CS-21). This Nation's 
Navy derives its strength from the active and reserve Sailors and Navy 
civilians who comprise our Total Force. The Navy's Total Force is not 
just a concept; it is an operational and organizational reality. 
Operational Navy missions are executed by the Active Component (AC), 
the Reserve Component (RC), or a combination of both. AC and RC Sailors 
also provide strategic depth for maritime missions to ensure your Navy 
is always ready to respond globally to crisis situations while 
maintaining fiscal efficiency across the spectrum of operations.
    Our maritime strategy establishes naval power as an enduring 
concept and recognizes the Navy must constantly evolve and innovate to 
face emerging and future challenges. These two concepts--the enduring 
mission of our Navy and the reliance we place upon both components of 
Navy's Total Force to accomplish our objectives--inform our efforts as 
we review where we have been and consider our future.
    The Navy Reserve Strategic Plan charts our continued progress 
toward providing valued capabilities as part of Navy's Total Force. On 
October 1, 2010, we released the fiscal year 2011 update to Ready Now: 
The Navy Reserve Strategic Plan. Launched in early 2009, this Strategic 
Plan defines our mission, articulates our vision, and establishes 
strategic focus areas to organize our change efforts. In its third year 
of execution, this plan serves as the blueprint for shaping the Navy 
Reserve so it can effectively and efficiently carry out those Navy 
missions for which the Navy Reserve is well-suited. This year's update 
identifies 12 new initiatives focused on a wide range of improvements 
which include: making it more efficient for our Sailors to attain 
training and medical readiness; improving customer service; and 
determining the proper force mix of active and reserve contributions 
for current and future Navy capabilities across the mission spectrum.
    The foundation of all of our initiatives is to provide the 
necessary support to our Sailors and their families as one of my top 
priorities. This country owes a great debt to the men and women who 
have gone in harm's way to support contingency operations globally. It 
is our obligation to provide our Sailors every opportunity to succeed 
at home station and while deployed, and to provide the means to 
reintegrate once they return from overseas.
    Our Navy Total Force Vision for the 21st Century (NTF 21) clearly 
articulates Navy's vision for a Total Force and emphasizes our active 
Sailors, reserve Sailors, and Navy civilians as Navy's most important 
resource and a critical component to meeting the demands of CS-21. NTF 
21 guides our Navy's personnel policy and strategy and articulates our 
Total Force mission to attract, recruit, develop, assign, and retain a 
highly skilled workforce for the Navy. I discuss our various personnel 
policies in greater detail in Section III below.
                 2010: fully engaged--from peace to war
    Operationally, the Navy Reserve is fully engaged across the 
spectrum of Navy, Marine Corps, and joint operations, from peace to 
war. Right now, approximately 5,800 mobilized or deployed Navy Reserve 
Sailors are providing around half of the Navy's ground forces serving 
in the U.S. Central Command Area of Operations and in other critical 
roles worldwide.
    While executing these mobilizations, we are also providing valued 
capabilities for urgent requirements and ongoing operational support 
missions. In the immediate aftermath of the devastating earthquake in 
Haiti, the Navy Reserve was an important part of ``Operation Unified 
Response'' and Joint Task Force Haiti. Within hours, Navy Reserve Fleet 
Logistics Support Wing (VR) aircraft provided on-demand airlift, 
delivering urgently needed food, water, and medical supplies to the 
Haitian population. Navy Reserve doctors, nurses, and hospital corpsmen 
left their homes and families to serve ashore and on the hospital ship 
USNS Comfort. From medical professionals and Seabees to ground crews, 
logisticians and communicators, providing ``on-demand expertise'' is 
what makes the Navy Reserve a highly valued partner in Navy's Total 
Force.
    More recently, a VR C-40A Clipper was tasked to support the 
Department of State's (DOS) and Department of Defense's (DOD) Egypt 
contingency. The crew launched from Bahrain at 0400L and transported 33 
Marines from the theater's Fleet Anti-terrorism Security Team (FAST) 
and 7 Country Surveillance Assessment Team (CSAT) members from the 
Combined Forces Special Operations Component Command (CFSOCC) to Cairo 
International Airport. The FAST and CSAT members were tasked by DOS and 
DOD leadership to execute the Non-Combatant Evacuation Operation (NEO) 
for American citizens from the U.S. Embassy.
    Also, Navy Reserve assets played a critical role in Operation 
Tomodachi, the Department of Defense's assistance operation to Japan 
providing disaster relief following the 2011 Tohoku earthquake and 
tsunami. Over 5,000 man-days were used by Reserve Sailors participating 
in the relief effort. Such vital expertise as a 30-member Nuclear 
Emergency Response Team (from Norfolk, Virginia) and a 18-member 
Radiological Control Team (from Pearl Harbor) were transported to Japan 
on VR aircraft. These two teams were the primary teams to mitigate the 
contamination of U.S. aircrew and aircraft prior to returning to USS 
Ronald Reagan and other U.S. Navy ships on station.
    Every day Navy Reserve Sailors provide important operational 
support to this Nation with approximately one-quarter of our Sailors on 
full-time active duty, while many others provide their expertise on a 
``part time'' basis. Some examples include the skilled engineers and 
technicians executing shipyard projects in the Naval Sea Systems 
Command's Surge Maintenance program; Full-Time Support (FTS) and 
Selected Reserve (SELRES) aviators serving as instructors for 20 
percent of the training sorties flown in Navy's aviation training 
pipeline; and our Intelligence community providing key global 
intelligence support. Ideally suited to take on periodic and 
predictable work, our ready and accessible force of skilled Sailors 
provides valued capabilities on an ongoing basis. In the case of SELRES 
Sailors, when their work is completed they leave Navy's payroll and 
return to their civilian employers.
    Navy Reserve Sailors are highly skilled professionals. More than 70 
percent of our Force are Navy Veterans--Sailors who still use the 
skills they were taught during their service in the AC. RC Sailors may 
also have industry-honed civilian skills that they bring to the Navy 
during periods of active service. These Sailors bring a wealth of 
experience, including expertise in high-end technology fields, 
knowledge of world-class business practices and an entrepreneurial 
mindset. This diverse work experience brings a unique and valued 
contribution to the Total Force.
    Navy Reserve Sailors are not only highly skilled; they are an 
efficient and effective workforce. In fiscal year 2010, the Navy 
Reserve provided 17 percent of the total Navy Uniform end strength, 
utilizing 7 percent of total Navy personnel costs, while accounting for 
more than 913,000 days of support. Your Navy Reserve is fully engaged 
and prepared to do the work of our Nation--from peace to war.
                           personnel policies
    The success of the Navy Reserve Force is due first and foremost to 
the professionalism of the Sailors who volunteer to serve in a wide 
array of environments. Since the start of the military engagements in 
Afghanistan and Iraq, every member of today's Reserve has enlisted or 
re-enlisted, and I am continually awestruck at the patriotism of these 
young Sailors. Navy Reserve leadership continually reviews policies and 
laws, ensuring our Sailors are afforded the greatest opportunity to 
participate in Navy's Total Force and ensure each Sailor's family and 
employer are appropriately recognized for their sacrifices on behalf of 
the service member. The fiscal year 2012 budget request of $2.005 
billion (including Overseas Contingency Operations (OCO) funding) for 
Reserve Personnel, Navy (RPN) will continue to support the Manpower 
needs and policies of the Navy Reserve.
    One of the Navy Reserve's strategic focus areas is to enable the 
Continuum of Service (CoS). CoS is not just a Reserve imperative, but a 
strategic imperative for the Department of Defense (DOD) and the 
Department of the Navy (DoN). CoS initiatives provide for seamless 
movement between the AC, RC, and civilian service, while delivering 
operational flexibility and strategic depth at the best value for the 
Navy. Enabling the CoS philosophy by fully incorporating opportunities 
unique to the reserve, we recruit Sailors once and retain them for life 
through variable and flexible service options that provide a career 
continuum of meaningful and valued work.
    Building on our CoS efforts is one of my top priorities for fiscal 
year 2011. In the upcoming year, we will investigate a variable service 
option, in which volunteer members in the Individual Ready Reserve 
active status pool with desired critical skill sets (e.g., medical 
professions, SEALs, field Corpsmen, etc.) are identified and ready to 
fill contingency operations requirements if they desire. We will also 
seek to implement a Career Intermission Program with a SELRES Option 
that allows program participants to continue community training and 
qualifications during an intermission from active duty. This initiative 
provides AC Sailors an alternative to permanent separation as they 
pursue personal or professional goals such as caring for an elderly 
family member, continuing education, or starting a family. This 
exciting new lane change option builds on a successful Career 
Intermission Pilot Program initiated in 2009. Further, we are currently 
implementing a process to establish an Intermediate Stop (I-Stop) in 
support of a Sailor's transition from AC to their gaining Navy 
Operational Support Center (NOSC). This initiative will allow Sailors 
to receive orders to their NOSC where the Sailors AC separation and RC 
gain transactions are completed.
    All Sailors returning from overseas mobilizations are encouraged to 
attend a Returning Warrior Workshop (RWW), Navy's ``signature event'' 
within the DOD's Yellow Ribbon Reintegration Program (YRRP). The RWW is 
a dedicated weekend designed to facilitate reintegration of Sailors 
returning from combat zones with their spouses, significant others, 
employment, and communities. Staged at a high-quality location at no 
cost to the participants, the RWW employs trained facilitators to lead 
warriors and their families/guests through a series of presentations 
and tailored break-out group discussions to address post-combat stress 
and the challenges of transitioning back to civilian life. As of 
December 31, 2010, a total of 66 RWWs have been completed, attended by 
4,630 military personnel and 3,687 guests/family members. The fiscal 
year 2011-2012 budget supports 44 events, including four for the Marine 
Corps Reserve. Pioneered by the Navy Reserve, these workshops are 
available for all Navy Individual Augmentees. RWWs are a true success 
story in honoring our Sailors and their families. It is important to 
ensure this program continues to have both the full support of Navy 
leadership and the widest possible participation by all returning 
Sailors.
    RWWs serve as a key component of the Navy Reserve Psychological 
Health Outreach Program (PHOP). The PHOP employs dedicated teams of 
mental health professionals to provide psychological health 
assessments, outreach, and education, including Operational Stress 
Control (OSC) and Suicide Prevention training for the Navy and Marine 
Corps Reserve Communities. Regularly scheduled encounters are used to 
screen service members prior to and after deployment. The program is 
designed to identify potential stress disorders, facilitate early 
intervention, and provide access to psychological health support 
resources. The availability, quality, and effectiveness of 
psychological services utilized by Navy/Marine Corps Reservists and 
their families is closely monitored. In fiscal year 2010, PHOP teams 
conducted mental health assessments for more than 1,600 Reservists, 
provided outreach calls to more than 2,400 returning Reserve Sailors, 
followed up on more than 1,100 cases referred from Reserve commands or 
family members, and provided 300 visits to NOSCs conducting OSC briefs 
to more than 23,000 Sailors. In fiscal year 2011, the PHOP will deploy 
a user-friendly website providing both Sailors and their family members 
an easy-to-access database of PHOP work products and points of contact.
    The policies focused on enhancing the quality of life for Navy 
Reserve Sailors have paid dividends with regards to the end strength of 
the Force. Fiscal year 2010 marked a third consecutive year of notable 
Navy Reserve enlisted and officer recruiting achievements. Reserve 
enlisted recruiting met goal, and the measured educational achievement 
of our recruits was at the highest level ever. Since the active and 
reserve recruiting commands consolidated in 2004, more reserve officers 
were accessed in 2010 than in any year. Overall SELRES retention 
numbers were strong; however, increased pressure on members to prove 
their value to civilian employers, combined with a higher operational 
tempo, has resulted in higher attrition levels for members with 
critical skills sought both in and out of the military. Successful 
recruiting and retention strategies continue to play a critical role in 
attracting the right skill sets and talent to support the Fleet and 
Combatant Commands. Numerous initiatives are underway to get SELRES 
officer communities ``healthy'' by 2014, including targeted officer 
affiliation and future retention bonuses, the increase of accession 
goals, refinements in the Career Transition Office (CTO) process, and 
development of retention measurements and benchmarks. Incentives that 
target high-demand communities are essential in retaining members 
critical to mission accomplishment, and your support toward these 
efforts is very much appreciated.
    As we enter fiscal year 2011, the Navy Reserve expects high 
retention and low attrition rates to continue (similar to active duty 
trends), due to our ``Stay Navy'' campaign, the ability to provide real 
and meaningful work, as well as the effects of the current economy. Our 
close management of planned accessions and losses, coupled with current 
force-shaping and personnel policies, will ensure we retain the most 
qualified/capable Sailors while working toward the fiscal year 2012 
budgeted end-strength of 66,200 SELRES.
    Navy is actively preparing for repeal of ``Don't Ask, Don't Tell.'' 
Sailors and leaders at all levels of the Total Force, including all 
Navy Reserve Sailors, are completing the required training in a face-
to-face environment whenever possible. The central message of this 
training emphasizes the principles of leadership, professionalism, 
discipline, and respect.
    Our fiscal year 2012 budget request supports an emphasis on sexual 
assault prevention while continuing compassionate support for victims. 
This prevention emphasis includes 12 SAPR workshops in fleet 
concentration areas worldwide, execution of a pilot prevention program 
focusing on young Sailors, our most at-risk demographic, and most 
importantly, a clear and consistent message from leadership at all 
levels that sexual assault will not be tolerated in the United States 
Navy.
    There is no question the success of our Navy Reserve is due to the 
dedication, sacrifices and service of our Sailors, and the support they 
receive from their families and employers. I believe our policies 
reflect that same level of commitment, and I thank you for your support 
of our many programs, several of which have been described herein.
                          defining our future
    Numerous formal and informal studies examining the future role of 
the Reserve Components and the National Guard are in various stages of 
completion within and outside DOD. These studies are designed to assess 
the projected security environment of the world after the conclusion of 
the current Overseas Contingency Operations, as well as provide 
guidance on the capabilities that will be needed for our Nation's 
future security and continued prosperity. We are an active participant 
in these studies where appropriate. At the same time, we remain focused 
on the primary driving force defining our future: our integral role as 
an important component of Navy's Total Force.
    Navy's maritime strategy is founded upon the truth that the United 
States of America is a maritime nation. Some facts will not change: 70 
percent of the globe is covered by water; 80 percent of our population 
lives on or near the coast; and 90 percent of our commerce travels via 
the oceans. The oil that provides the energy for our modern world flows 
in tankers via a few strategic sea routes--routes that must be kept 
open. Our digital planet is linked by submerged fiber optic lines that 
transmit money and ideas across the planet 24/7. The enduring mission 
of our Navy to protect the global commons and maintain the stability 
necessary for prosperity will remain whether we are at peace or war.
    Bottom line: Demand for Navy capabilities will remain the same or 
increase in the future. The Navy Reserve will play a vital role in 
Navy's Total Force that will deliver these capabilities. As stated in 
the 2010 Quadrennial Defense Review (QDR) Report, ``prevailing in 
today's wars requires a Reserve Component that can serve in an 
operational capacity--available, trained, and equipped for predictable 
routine deployment. Preventing and deterring conflict will likely 
necessitate the continued use of some elements of the RC--especially 
those that possess high-demand skill sets--in an operational capacity 
well into the future.'' We thank Congress for their demonstrated 
interest in ensuring DOD has appropriate authority to access the RC in 
order to provide a more complete Total Force response to the 
requirements of the future.
    Today's Navy Reserve provides both strategic depth and operational 
capabilities. Depending on the mission, we mirror or complement the AC. 
We mirror the AC and provide rotational forces for those missions where 
it makes operational and fiscal sense. We complement the AC by 
providing unique capabilities in other areas, such as in the Intra-
Theater Fleet Logistics Support, Counter-Narcotics Surveillance, and 
Navy Special Warfare Helicopter Support missions. The correct AC/RC mix 
varies with each of Navy's wide variety of missions and required 
capabilities. As new missions emerge and current missions evolve, AC/RC 
mix solutions are carefully and continually examined. As stated in the 
QDR, ``as the operational environment allows, DOD will seek ways to 
rebalance its reliance on the RC to ensure the long-term viability of a 
force that has both strategic and operational capabilities.'' The Navy 
Reserve's fiscal year 2012 Operations and Maintenance budget request of 
$1.397 billion (including OCO funding) will continue to provide the 
Joint Force with readiness, innovation, and the agility to respond to 
any situation.
    While we have become more operational, we have also become a 
smaller and more cost-effective force. Throughout the post-9/11 era, 
the Navy Reserve has pursued efficiencies while increasing our 
capabilities. We have eliminated staff and organizational redundancies 
wherever possible, leveraging the Navy's schools, bases, organizations 
and information technology infrastructure. We have honed our staff 
overhead to approximately 3,000 Sailors who serve and enable the 
remaining 62,000 Sailors of our Navy Reserve to contribute directly to 
active Navy commands.
    The Navy's RC is a force for innovation across all spectrums, but 
it is especially evident in the realm of Information Technology (IT). 
IT is critical to everything we do as a Navy, and the Navy Reserve is 
in the forefront on several IT initiatives, such as retiring our legacy 
networks and contributing to Navy Cyber Forces. The Navy Reserve is the 
only Navy echelon to have completely retired all legacy networks and 
operate exclusively within Navy Marine Corps Intranet (NMCI). As we 
progress from the NMCI contract to the Next Generation Enterprise 
Network, Navy Reserve is leading the effort to move to thin client 
computing and other efficiencies to provide our Sailors with the most 
secure, robust access available anytime, anywhere.
    In 2011, we are exploring new network access methodologies with 
further testing of the Secure Remote Access Pilot designed to empower 
the workforce to quickly and securely access their digital resources 
from any location, using any asset, at any time. The Navy Reserve will 
also deploy Wi-Fi access to all Navy Reserve facilities, generating 
cost savings and improving Sailor satisfaction. Also, by the end of 
fiscal year 2011, all Reserve travel arrangements and reimbursement 
claims will be handled through the Defense Travel System (DTS). Navy 
Reserve is the lead reserve and guard activity to migrate to DTS. This 
migration will eliminate the manual processing of 125,000 travel claims 
per year, freeing manpower for other customer service requirements and 
speeding pay to the reserve traveler from an average of 45 days to an 
average of 5 days.
    Navy is developing a data system--tentatively called the Integrated 
Pay and Personnel System--Navy (IPPS-N)--which will improve pay and 
service record support to both AC and RC Sailors. Historically, Reserve 
Readiness Commands, Personnel Support Detachments, and NOSCs have been 
unable to attain an accurate picture of manpower and personnel data 
despite exhaustive efforts to reconcile the information found in 
multiple ``authoritative'' sources and Reserve Headquarters Support 
databases. IPPS-N would allow for real-time service record 
documentation, end strength reporting, and pay-accounting across both 
the AC and RC. This is not just the design and building of an IT system 
but rather a complete review of all business processes. The 
Authoritative Data Environment, a key piece of the IPPS-N that the Navy 
Reserve is promoting, will be the single source for Sailor manpower and 
personnel records and provide the base for the complete solution. The 
end-state of this initiative is improved personnel management across 
the CoS and better support for service members and leadership.
    Ensuring our Reserve Force has the proper equipment to bring our 
military acumen to bear is one of my ongoing priorities. I thank 
Congress for the support they provide the Navy Reserve in the many 
appropriations for the Force. In particular, the Navy and the Joint 
Forces benefit greatly from Congress' support for recapitalizing Fleet 
Logistics aircraft by procuring C-40A airframes. The C-40A ``Clipper'' 
is a Navy Unique Fleet Essential Airlift (NUFEA) aircraft that provides 
flexible, time-critical inter- and intra-theater air logistics support 
to Navy Fleet and Component Commanders as well as providing logistical 
support for the Navy Fleet Response Plan. The C-40A is a medium lift 
cargo aircraft, equipped with a cargo door and capable of transporting 
up to 36,000 pounds of cargo, 121 passengers, or a combination of each. 
The C-40A is the designated replacement for the Navy Reserve's legacy 
C-9B and C-20G aircraft. Aircraft recapitalization of the C-9B and C-
20G is necessary due to increasing operating and depot costs, 
decreasing availability, inability to meet future avionics/engine 
mandates required to operate worldwide, and continued long-term use of 
the C-20G in the harsh desert environment. The C-40A has significantly 
increased range, payload, and days of availability compared to the C-9B 
and C-20G, and has the unique capability of carrying hazardous cargo 
and passengers simultaneously. Navy C-40A detachments are forward-
deployed 12 months per year to provide around-the-clock support to the 
U.S. Pacific Command, U.S. Central Command, and U.S. European Command 
Areas of Responsibility. Additionally, these cargo airplanes are an 
integral first-responder in emerging Humanitarian Assistance/Disaster 
Relief core mission sets. Currently, 11 C-40A cargo aircraft are 
operational and one is on contract for an early fiscal year 2012 
delivery. Five aircraft are required to complete the minimum, risk-
adjusted C-40A procurement plan of 17 aircraft which will complete the 
divestiture of the C-9Bs and C-20Gs. Congressional support for the Navy 
Reserve C-40A program has placed the VR fleet closer to realizing a 
more capable and cost-efficient NUFEA capability.
    Also, the National Guard and Reserve Equipment Appropriation 
(NGREA) funds equipment for the Navy Reserve. NGREA has allowed us to 
purchase expeditionary warfighting equipment for the Naval 
Expeditionary Combat Enterprise in support of operations in Iraq and 
Afghanistan, and essential training upgrades to the adversary mission. 
In the past, NGREA Funding has also allowed for the procurement of C-
40A cargo aircraft to replace an aging fleet of C-9s, C-12s, and C-20s. 
The Navy Reserve has a solid record of executing NGREA funding, 
demonstrating our stewardship of these important taxpayer dollars. I 
thank you for all the support you have provided to the Navy Reserve 
through this appropriation in the past.
                               conclusion
    As stated in the 2010 QDR, ``the challenges facing the United 
States today and in the future will require us to employ the National 
Guard and Reserve force as an operational reserve to fulfill 
requirements for which they are well suited.'' Our Navy Reserve Vision 
calls for us to be valued for three very important hallmarks of our 
Force: our ``readiness, innovation, and agility to respond to any 
situation.'' This applies operationally and strategically as Navy 
continuously evaluates and adjusts the AC/RC mix in any given naval 
capability. Through Navy's adaptable, dynamic, and requirements-driven 
process, the Navy Reserve has proven it has much to offer ``America's 
Navy--A Global Force for Good.''
    On a more personal level, as Chief of Navy Reserve I take to heart 
each Sailor has sworn to support and defend the Constitution of the 
United States. My covenant to them is to make each day in the Navy 
Reserve a day filled with real and meaningful work. My obligation to 
the Navy and our Nation is to ensure that your Navy Reserve has the 
right force structure today and in the future. Using our strategic plan 
as our blueprint for the future, we intend to live up to the promise of 
our Force Motto: Ready Now. Anytime, Anywhere.
    On behalf of the Sailors, civilians, and contract personnel of our 
Navy Reserve, we thank you for the continued support within Congress 
and your commitment to the Navy Reserve and Navy's Total Force.

    Chairman Inouye. General Moore.
STATEMENT OF MAJOR GENERAL DARRELL L. MOORE, ACTING 
            COMMANDER, MARINE FORCES RESERVE, UNITED 
            STATES MARINE CORPS
    General Moore. Good morning, sir. Thank you very much for 
this opportunity to be here.
    It was a real pleasure for me last week to meet the 
chairman and vice chairman in their offices, and I enjoyed that 
time with you.
    This morning, sir, thousands of Marine Reserves are on the 
ground in Afghanistan, serving side-by-side in combat 
operations along with active component marine units. Our 
Reserve units are being incorporated into the active deployment 
rotation cycle for the foreseeable future.
    Your Reserve marines work hard to stay ready, and we train 
vigorously for this fight during our annual training. We truly 
do serve in every clime and place. For example, besides this 
summer engaging in training operations in the Pacific and here 
in the United States at Twenty-Nine Palms and the Mountain 
Warfare Training Center, I will have marines engaged in theater 
security cooperation exercises in Morocco, Surinam, Ukraine, 
Georgia, South Africa, Uganda, Burundi, Senegal, Mauritania, 
and Belize.
    Marine Forces Reserve stands ready to deploy anywhere in 
the world as we are needed. We are an essential partner to 
keeping the United States Marine Corps as the Nation's force in 
readiness.
    I look forward to this opportunity to address any questions 
you or Senator Cochran may have.
    Thank you.
    Chairman Inouye. Thank you very much, General.
    [The statement follows:]
          Prepared Statement of Major General Darrell L. Moore
                              introduction
    Chairman Inouye, Ranking Member Cochran, and distinguished Members 
of the Subcommittee, it is my honor to report to you on the state of 
the Nation's Marine Corps Reserve and our Marine Reservists, who truly 
epitomize the Marine Corps' values of honor, courage and commitment. I 
would also like to take this opportunity to discuss what the 
operational Reserve means for the defense of our Nation, support to its 
combatant commanders and commitment to our international partners.
    First and foremost, Marine Forces Reserve continues to be an 
integral element of the Total Force Marine Corps. We share the culture 
of deployment and expeditionary mindset that has dominated Marine Corps 
culture, ethos and thinking since our beginning more than two centuries 
ago. All Marines stand eternally ready to answer this Nation's call to 
arms. Accordingly, the U.S. Marine Corps Reserve is organized, equipped 
and trained in the same manner as the Active Component Marine Corps, 
and consequently, is interchangeable and forever leaning forward to 
deploy in any clime or place.
    Commandant of the Marine Corps Gen. James F. Amos recently stated 
in his planning guidance that ``the Marine Corps is America's 
Expeditionary Force in Readiness.'' General Amos' March 1, 2011, report 
to the House Armed Services Committee on the posture of the United 
States Marine Corps specifically addressed the Marine Corps Reserve's 
operational orientation within the Expeditionary Force in Readiness 
construct: ``The transition in utilization of the Marine Corps Reserve 
from a strategic to operational Reserve, as affirmed by the Marine 
Corps' recent force structure review, expands the Corps' ability to 
perform as America's Expeditionary Force in Readiness.
    The Marines themselves, most of whom came to our Nation's colors 
after 9/11 and have deployed deep into harms way, prefer this model and 
do not desire to assume lives as so called ``weekend warriors.'' This 
high level of flexibility, responsiveness and elan is only possible by 
the ever deepening bench of combat tested and uniquely qualified 
citizen ``Soldiers of the Sea.''
    I continue to be humbled on a daily basis in my interactions with 
these magnificent young Americans. Like their active-duty brothers and 
sisters, they sacrifice so much of their time--and so much of 
themselves--to protect and serve this great Nation. The way they 
balance their family responsibilities, civilian lives, and 
occupations--and still stay Marine--continues to amaze me. They do it 
with humility, without fanfare, and with a sense of pride and 
dedication that is consistent with the great sacrifices of Marines of 
every generation.
                         an operational reserve
    In the previous decade, this great Nation required its Marine Corps 
Reserve to be continuously engaged in combat operations in Iraq and 
Afghanistan as well as in regional security cooperation and crisis 
prevention activities in support of the various geographical combatant 
commanders. This operational tempo has built a momentum among our 
warfighters and a depth of experience throughout the ranks that is 
unprecedented in generations of Marine Corps Reservists.
    In addition to our service in and around combat zones, your Marine 
Corps Reserve's response to our Nation's needs echoes the February 2010 
Quadrennial Defense Review, which called for a Reserve Component that 
can serve in an operational capacity for predictable routine 
deployment. Accordingly, today's Marine Corps Reserve fully embodies 
the operational Reserve concept and has shaped itself to continue in 
this operational manner for the foreseeable future.
    Understanding that we are fighting a transnational enemy and that 
partner nations will continue to seek our training and mentoring 
capabilities, I expect our Marine Reservists to be in great demand 
during the coming years in a sustained manner. I am pleased to report 
that we are prepared to provide that persistent capacity. The nature of 
the fight in Afghanistan, for instance, is particularly suited to our 
Marine Reservists. It is a thinking man's fight that requires solutions 
at the grassroots level where our Marines operate best, which is among 
the population as evidenced by our combat prowess and ``Small Wars'' 
mindset. To be sure, our recent successes in Iraq were hastened by the 
types and quality of individuals we have in our ranks, who often 
utilized civilian skills in ways not necessarily anticipated, but 
ultimately proving pivotal to the success in Al Anbar Province. I 
expect no difference with our Marine Reservists in Afghanistan. That 
maturity, creativity and confidence is what an operational Reserve 
brings to the fight. In fact, your Marine Corps Reserve is more highly 
trained, capable, and battle-tested than at any time since the Korean 
War. Without reservation, your Marine Corps Reserve continues to be an 
integral part of the Total Force Marine Corps, and its strength lies in 
the fact that Marine Corps Reservists blend seamlessly into the gaining 
force regardless of whether they deploy as individual augments, members 
of detachments, or operational units.
    As of January 31, 2011, more than 58,000 Reserve Marines have 
mobilized in support of Overseas Contingency Operations, previously the 
Global War on Terrorism, since September 11, 2001. The vast majority of 
these Marines deployed to the U.S. Central Command's area of 
responsibility, which includes Iraq, Afghanistan, and previously, the 
Horn of Africa. One-hundred percent of Marine Corps Reserve units at 
the battalion and squadron level have either been activated in their 
entirety or activated task-organized detachments. Thousands of other 
Marine Reservists deployed in support of combatant commanders' Theater 
Security Cooperation initiatives to South America, Eastern Europe, 
Asia, Africa, Australia, and various Pacific island nations. This year 
will be no different as Marine Reservists are scheduled to support 
planned exercises in Norway, Peru, Belize, Uganda, Estonia and Morocco, 
and again in various nations in Asia and the Pacific islands.
    Our Force Generation Model is one of the important planning 
mechanisms for an operational Reserve. The Model, which was developed 
and implemented during October 2006, continues to provide long-term and 
essential predictability of future activations and deployments for our 
Reservists. The Model provides my Marines, their families, and their 
employers, the capability to plan their lives 5 or more years out. It 
empowers them to strike the critical balance between family, civilian 
career, and service to the Nation, while allowing employers the time to 
manage the temporary loss of valued employees. The Force Generation 
Model also assists Service and joint force planners in maintaining a 
consistent and predictable flow of fully capable Marine Corps Reserve 
units. Internal to the Marine Corps, this flow of fully trained and 
capable Reserve units has proven essential in enabling Active Component 
combat units to start realizing an approximate 1:2 deployment-to-dwell, 
which was established by the Secretary of Defense.
    The Force Generation Model is a relatively simple management tool 
based on 1-year activations, to 4-plus years in a non-activated status, 
which makes continued programmed utilization of the Marine Corps 
Reserve sustainable at 1:5 deployment-to-dwell over the long term. In 
fact, the Marine Corps Reserve can potentially source 3,000 Marines per 
rotation and 6,000 Marines annually at a 1:5 deployment-to-dwell as 
programmed in the Force Generation Model. Furthermore, projecting 
predictable activation dates, mission assignments and geographical 
destination years in advance enables my units to orient training on 
core mission requirements early in the dwell period, then transition 
the training focus to specific mission tasks as soon as the unit is 12-
18 months from activation.
    Marine Forces Reserve operations continued on a high operational 
tempo as we supported all of the geographical combatant commanders 
across the globe. Our Force units and major subordinate commands--the 
4th Marine Division, 4th Marine Aircraft Wing, and 4th Marine Logistics 
Group--were called upon to provide 1,920 Marines to support Operation 
Enduring Freedom and are in the final stages of preparing another 3,147 
Marines to deploy this fiscal year. Marine Forces Reserve also deployed 
Marines to a plethora of theater specific exercises and cooperative 
security efforts, which were designed to increase interoperability with 
our Partnership For Peace NATO allies as well as for developing Theater 
Security Cooperatives in countries such as Morocco, Mozambique, 
Romania, Georgia, the Black Sea region and partners throughout the 
Pacific Rim.
    Marine Forces Reserve's operational focus will continue to directly 
support the geographical combatant commanders this fiscal year in 
various roles that includes multiple bi-lateral exercises, such as 
Western Accord in Senegal, Sea Breeze in the Ukraine, African Lion in 
Morocco, and Agile Spirit, which is an ongoing effort with the Georgian 
Army in and around Tbilisi. The way ahead for Marine Forces Reserve 
includes building partner capacity in the Black Sea region on behalf of 
the geographical combatant commander by providing Marine Reservists to 
conduct operations of various sizes and complexities throughout the 
region to assure stability and sustainability in this high priority 
geopolitical region.
    For the third year in a row, Marine Forces Reserve will sponsor 
exercise Javelin Thrust stateside this July, which will focus on Marine 
Air-Ground Task Force core competency training. Javelin Thrust 2011 
will be conducted aboard installations throughout the Western United 
States with both virtual and real world aspects to the exercise. The 
scenario of this year's event is tailored to the current operating 
environment. A criterion for participating units was based on their 
future deployment schedule according to the Force Generation Model. 
Javelin Thrust will provide all elements of the Marine Air-Ground Task 
Force with the opportunity to complete some of the training necessary 
to expeditiously forward-deploy competently in any operational 
environment. Additionally, individuals serving on the exercise's Marine 
Air-Ground Task Force staffs will receive training that will enable 
them to competently perform as individual augments on a Marine Air-
Ground Task Force staff or joint staff overseas. In addition to 
involving all of Marine Forces Reserve's Force units and three major 
subordinate commands, this year's exercise will include an integrated 
Active Component and Reserve Component headquarters. This aspect of the 
exercise is aimed at validating the Total Force approach with an 
emphasis on interoperability of Active Component and Reserve Component 
Marine forces.
    In addition to operational requirements, Marine Forces Reserve 
personnel and units conduct community relations events nationwide. Due 
to the command's unique geographical dispersion, Marine Forces Reserve 
personnel and units are advantageously positioned to interact with the 
American public, telling the Marine Corps story to our fellow citizens 
who typically have little or no contact with the Marine Corps.
    During the previous year, Marine Forces Reserve supported more than 
10 significant community relations events, which included among others: 
Marine Week Boston, Armed Forces Bowl in the Dallas/Fort Worth area, 
New York City Fleet Week, Baltimore Fleet Week, Public Service 
Recognition Week and Joint Service Open House in the District of 
Columbia area, and the commissioning of the USS New York. Marine Forces 
Reserve also supported more than 50 community relations events of a 
lesser scale that included various air shows, memorials and assorted 
flyovers across the Nation. Additionally, more than 200 community 
events of a routine nature were supported across the Nation, such as 
color guard details, vehicle and weapon static displays, and guest 
speakers.
    The significant community relations events required a footprint of 
Marine Forces Reserve assets that mirrored an operational Marine Air-
Ground Task Force in structure. Of note is the Marine Week concept, 
which was held in Boston during fiscal year 2010. The Marine Week 
concept is a strategic communication initiative created to articulate 
to the American public what the U.S. Marine Corps stands for, what we 
do, who we are and what the Corps aspires to accomplish in the future. 
This successful week-long event encompassed a series of more than 60 
smaller events, which included formal ceremonies, various static 
displays of aircraft, vehicles and weapons, and other outreach events 
such as sports demonstrations and concerts. Marine Forces Reserve was 
the lead element for Marine Week Boston, with the 24th Marine Regiment 
sourcing the Marine Air-Ground Task Force command element and the 
subordinate units. Marine Forces Reserve will take the lead once again 
for Marine Week St. Louis this June and is likely to form the command 
element on behalf of the Marine Corps for all Marine Weeks hereafter 
due to our national footprint, deep connection with local communities, 
and integration of Active and Reserve Component personnel at our 
Reserve sites across this great Nation.
                               personnel
    Marine Forces Reserve consists of the Selected Marine Corps Reserve 
and the Individual Ready Reserve, which form the Ready Reserve. The 
Selected Marine Corps Reserve is comprised of Marines in Reserve units, 
those in the Active Reserve program, Individual Mobilization 
Augmentees, and those in initial training. These categories of Marines 
form the inventory of the Selected Marine Corps Reserve's authorized 
end strength of 39,600.
    We continue to enjoy strong accessions and an increase in retention 
over the historical norm, which greatly enhanced our ability to improve 
our end strength during fiscal year 2010. Our bonus and incentive 
programs for Reserves were essential tools in achieving more than 99 
percent of our authorized end strength. Continued use of these programs 
will remain critical to both meeting our overall end strength this 
fiscal year and to continue shaping our Force. Our authorized end 
strength of 39,600 is appropriate for providing us with the Marines we 
require to support the Total Force while achieving the Commandant's 
goal of a 1:5 deployment-to-dwell for Selected Marine Corps Reserve 
units.
    I am pleased to report that the Marine Corps/Navy Reserve Team is 
as strong as ever. In the past year the Navy made sure that Marine 
Forces Reserve units were fully manned and supported with Program 9--
U.S. Navy personnel in support of Marine Forces--and Health Service 
Augmentation Program personnel during all deployment phases. Five 
hundred thirty-six U.S. Navy personnel were sourced to staff Marine 
Forces Reserve units that deployed to Iraq and Afghanistan, as well as 
numerous joint and/or combined exercises. These individuals focused 
almost entirely on providing medical, dental and religious services. 
The Navy Mobilization Office works with my headquarters, as well as 
with my major subordinate commands, to source 100 percent of all 
requirements.
    Manning to authorized end strength requires an institutional 
approach. The Marine Corps is unique in that all recruiting efforts 
fall under the direction of the commanding general, Marine Corps 
Recruiting Command. This approach provides tremendous flexibility and 
unity of command in annually achieving Total Force recruiting 
objectives. Like the Active Component Marine Corps, Marine Corps 
Reserve units rely primarily upon a first-term enlisted force. Marine 
Corps Recruiting Command achieved 100 percent of its recruiting goal 
for non-prior service recruiting (5,868) and prior service recruiting 
(4,209) for fiscal year 2010. As of February 28, 2011, 2,576 non-prior 
service and 1,340 enlisted prior service Marines have been accessed, 
reflecting 45.86 percent of the annual enlisted recruiting mission for 
the Selected Marine Corps Reserve. We fully expect to meet our Selected 
Marine Corps Reserve recruiting goals again this year.
    Officer recruiting remains our most challenging area. Historically, 
the Active Component Marine Corps has been the exclusive source of 
senior lieutenants and captains for the Marine Corps Reserve, and it 
remains a source of strength in meeting our company grade requirements. 
Through our transition assistance and educational outreach programs, we 
continue to ensure that each transitioning Active Component Marine is 
educated on continued service opportunities in the Marine Corps 
Reserve. To compliment the Active-to-Reserve Component company grade 
accessions, we continue to offer three recently implemented Reserve 
commissioning initiatives that focus exclusively on the most crucial 
challenge of manning the Marine Corps Reserve with quality company 
grade officers. These Reserve commissioning initiatives are the Reserve 
Enlisted Commissioning Program (RECP), which was expanded to qualified 
active duty enlisted Marines in addition to qualified Reserve enlisted 
Marines; Meritorious Commissioning Program--Reserve (MCP-R), which is 
open to individuals of the Active and Reserve Components who have 
earned an Associate's Degree or equivalent in semester hours; and 
Officer Candidate Course--Reserve (OCC-R). Since 2004, these three 
programs have produced a total of 330 lieutenants for the Marine Corps 
Reserve. The OCC-R program has been the most successful of the three 
Reserve commissioning initiatives, producing 296 officers. It focuses 
on ground billets with an emphasis on ground combat and combat service 
support within specific Reserve units that are scheduled for 
mobilization. The priority to man units with these officers is once 
again tied to the Force Generation Model. All together, these programs, 
combined with our prior service recruiting efforts, are projected to 
provide at least 90 percent manning of critical combat arms and 
engineer company grade officer billets by September 30, 2015.
    Regarding retention, all commanders and senior enlisted leaders 
across Marine Forces Reserve are tasked to retain quality Marines 
through example, mentoring, and information and retention programs. 
This takes place across the Marine experience, not just in the final 
days of a Marine's contract. Those approaching the end of their current 
contracts--Active or Reserve Component--receive more focused counseling 
on the tangible and intangible aspects of remaining associated with, or 
joining, the Selected Marine Corps Reserve.
    Your continued support regarding enlistment, affiliation, and re-
enlistment bonuses along with other initiatives greatly influences my 
ability to gain and retain the very best. I greatly appreciate the 
continuance of all of the many programs that help us recruit and retain 
the best young men and women this nation produces.
                               equipment
    Established by the Commandant in his planning guidance, the Marine 
Corps' number one focus is to provide the best trained and best 
equipped Marine units to Afghanistan. Accordingly, Marine Forces 
Reserve has two primary equipping priorities--equipping individuals who 
are preparing to deploy and sufficiently equipping units to conduct 
home station training. I directed my staff to dedicate its efforts to 
ensure that every member of Marine Forces Reserve deploys fully 
equipped with the most current authorized Individual Combat Equipment 
and Personal Protective Equipment. Accordingly, we continue to equip 
individuals and units during their dwell periods with the best 
available equipment tailored specifically to their next mission in 
accordance with the Force Generation Model.
    Whereas individuals receive 100 percent of the necessary 
warfighting equipment, Marine Forces Reserve units are equipped to a 
level identified as a Training Allowance. The Training Allowance is the 
amount of equipment required by each unit to most effectively conduct 
home station training. My guidance to my commanders is to establish 
their Training Allowance to enable them to maintain the highest 
training readiness as defined by their mission requirements. As a 
contributing component of the Total Force Marine Corps, Marine Corps 
Reserve units are equipped with the same equipment that is utilized by 
the Active Component Marine Corps, but in quantities tailored to fit 
Reserve Training Center capabilities. To be sure, it is imperative that 
our units train with the same equipment they will utilize while 
deployed. I am pleased to report that as a whole, we are adequately 
equipped to effectively conduct home station and Force-level training.
    Although we have been engaged in combat operations for almost a 
decade, our equipment readiness rates remain above 97 percent. To 
maintain this level of readiness, we have relied heavily on 
supplemental funding in the Overseas Contingency Operational funding. 
Your continued support in this category has been critical in 
maintaining our current level of equipment readiness for combat 
operations and resultant contribution to Marine Corps combat 
capability.
    Several resources and programs combine to form the basis to the 
Marine Corps Reserve approach to maintenance. Routine preventive and 
corrective maintenance are performed locally by operator and organic 
maintenance personnel. This traditional approach to ground equipment 
maintenance was expanded to include an increasing reliance on highly 
effective contracted services and depot-level capabilities, which were 
provided by the Marine Corps Logistics Command. Over the past year, we 
experienced significant success with the Marine Corps Logistics 
Command's ``Mobile Maintenance Teams'' that have provided preventive 
and corrective maintenance support to all 183 Marine Corps Reserve 
sites across the United States. This maintenance augmentation effort 
has directly improved our equipment readiness as well as provided 
valuable ``hands on'' training to our organic equipment maintainers. 
Additionally, the Marine Corps Logistics Command's ``Enterprise 
Lifecycle Maintenance Program'' provides for the rebuilding and 
modifying of an array of principal end items, such as the Light Armored 
Vehicle, the Amphibious Assault Vehicle and our entire motor transport 
fleet. Finally, we continue to reap significant benefits from the 
Marine Corps Corrosion Prevention and Control Program. Dollar for 
dollar, this program has proven highly effective in the abatement and 
prevention of corrosion throughout the Force. Collectively, these 
initiatives and the hard work and dedication of our Marines and 
civilian Marines across Marine Forces Reserve sustain our ground 
equipment readiness rates at or above 97 percent.
    National Guard and Reserve Equipment Appropriations have been an 
important element of the Total Force Marine Corps ability to modernize 
the Reserve Component and have ensured that there is maximum 
compatibility between the Reserve and Active Components. During fiscal 
years 2008, 2009 and 2010, Marine Forces Reserve received $45 million, 
$65 million, and $45 million respectively through National Guard and 
Reserve Equipment Appropriations. We used these funds to augment 
regular procurement dollars and accelerate the fielding of various 
programs that touch every element of the Marine Air-Ground Task Force.
    With the fiscal year 2008 National Guard and Reserve Equipment 
Appropriation, we applied funding toward upgrades of aircraft which 
included the KC-130T, the F/A-18 and the UH-1. These upgrades enabled 
us to maintain compatibility with airframes being employed by the 
Active Component Marine Corps. We also purchased an operation support 
airlift UC-12 aircraft for our VMR Detachment at Naval Air Station 
Joint Reserve Base New Orleans. Funds were also used for Tactical 
Remote Sensor Suites and the Rover III Forward Air Control 
communications capability. Both of the previous items added to our 
ability to enhance command and control. Last, we invested in four 
modeling and simulation programs that increased the effectiveness of 
our Reserve training while reducing our training costs. These included 
two mobile HMMWV Egress Assistance Trainers, seven Medium Tactical 
Vehicle Replacement Operator Trainers, one Virtual Combat Convoy 
Training System, and 135 Digital-Virtual Training Environment suites.
    During fiscal year 2009, the Congress initially appropriated $40 
million in National Guard and Reserve Equipment Appropriations. An 
additional $25 million was subsequently provided in that year's 
supplemental. These funds provided Marine Forces Reserve with 
additional aircraft upgrades for the UH-1 and improved survivability of 
our UC-35 aircraft, additional command and control items with purchases 
of additional Tactical Remote Sensor Suites, Digital Terrain Analysis 
Mapping Systems, a Counter Intelligent/Human Intelligence Equipment 
Package, and various tactical laptop computers; supporting arms 
upgrades for our Digital-Virtual Training Environment program; 43 
Logistics Vehicle System Replacements; and 22 upgraded Light Armored 
Vehicles, which are a critical component to the Marine Air-Ground Task 
Force's combat power and mobility.
    With the $45 million in fiscal year 2010 National Guard and Reserve 
Equipment Appropriation, we increased our investment in Light Armored 
Vehicle purchases by ordering nine additional 25 mm canon variants and 
five command and control variants. We also purchased an Air Traffic 
Control simulation package, which will greatly improve the training 
capability for our Air Traffic Control Marines.
    In our fiscal year 2012 National Guard and Reserve Equipment Report 
published in February, we identified four modernization priorities that 
could be funded with the fiscal year 2011 National Guard and Reserve 
Equipment Appropriations you have already provided. The first priority 
is to procure the remaining Light Armored Vehicles for our 4th Light 
Armored Reconnaissance Battalion. At the time the report was published, 
we had 42 vehicles which still needed to be procured at a total cost of 
$109 million. Since that report was published, the Marine Corps has 
taken advantage of its repair depots' ability to convert recently 
returned A1 variant Light Armored Vehicles into A2 variants. This 
reduces our anticipated gap to 27 vehicles at an estimated cost of $68 
million. Using a portion of the $70 million provided in the 2011 
Department of Defense and Full-Year and Continuing Appropriations Act, 
we intend to procure 10 additional Light Armored Vehicle Logistics 
variants, which will further close out our Light Armored Vehicles gap.
    In the fiscal year 2012 National Guard and Reserve Equipment 
Report, we also discussed our priority to accelerate fielding of our 
KC-130J fleet. The KC-130J has already been fielded to the Active 
Component Marine Corps while the KC-130T will remain in service in the 
Reserve Component from now until beyond the year 2020. The first 
Reserve Component KC-130J is not scheduled for delivery until 2014. 
These two aircraft are very different airframes, each requiring 
completely different logistical, maintenance, and aircrew requirements. 
The longer we maintain both airframes, the longer we have to invest in 
twice the logistics, twice the maintenance training, and twice the 
aircrew training. The total cost to purchase all 28 Reserve Component 
KC130J aircraft is more than $2 billion. Currently, only 9 of the 28 
airframes are funded within the Future Years Defense Plan.
    The third priority outlined in the fiscal year 2012 National Guard 
and Reserve Equipment Report is the procurement of a KC-130J Weapons 
System Trainer for the Reserve Component at a cost of approximately $25 
million. As we transition models, there will be a need for this 
simulator in order to maintain combat qualifications. Without one in 
the Reserve Component, our aircrews will be competing for time in 
active component simulators, which are already over-scheduled.
    The fourth priority outlined in the fiscal year 2012 National Guard 
and Reserve Equipment Report is the modernization of our aging 
Logistics Vehicle System fleet. In addition to the 43 Logistics Vehicle 
System replacements purchased with the fiscal year 2009 National Guard 
and Reserve Equipment Appropriation, we requested to purchase an 
additional 108 vehicles using a significant portion of the $70 million 
provided in this year's appropriation Act. This not only provides for 
an additional 58 cargo variants, but also provides 37 tractor variants 
and 13 wrecker variants. The tractor and wrecker variants are just 
reaching full rate production and this investment continues to enhance 
our compatibility with the Active Component.
                                training
    Language and culture training is available to all Marine Reservists 
and is delivered via a variety of techniques, from live instruction to 
portable media to web-based tutorials and applications. Our Afghanistan 
culture training leverages academia, utilizes Afghan-American 
expertise, and includes web-host detailed and tailored courses of 
instruction. These courses can be accessed by any computer and have the 
added functionality of being iPod-compatible to download for 
transportability and accessibility by our Marines. We are also beta-
testing our first Pashtu language course for our next infantry 
battalion deploying to South Asia. This is an 18-week course that is a 
webinar-linked program, which allows geographically separated Marines 
and instructors to ``meet'' in a virtual classroom that consists of 
using course-provided computing systems. It's synonymous with the 
program Special Operations Command has been running for a number of 
years. This course is directed to provide Pashtu language capability 
down to the squad level with participants at the rank of lieutenant, 
sergeant, corporal and below. Additionally, my Marines also participate 
in introductory Pashtu immersion training, which is conducted in 5-week 
blocks of instruction and is supported by the Partner Language Training 
Center Europe (PLTCE) Garmisch, Germany. Last, given that our Marines 
deploy throughout the globe, we access a variety of other sources of 
language and cultural training such as the Marine Corps' Center for 
Advanced Operational Culture and Language, the Defense Language 
Institute and Regional Language Centers. Your continued support for 
these enhanced language and culture learning opportunities is crucial 
to our competence in the current fight in Afghanistan.
    One of the most exciting areas where we continue to transform the 
depth and scope of our training remains the cutting-edge arena of 
Training Simulation. Marine Forces Reserve continues to field several 
immersive complex digital video-based training systems, complete with 
the sights, sounds and chaos of today's battlefield environments. These 
systems are particularly important, considering the limited training 
time and facilities available to our commanders. Last year, we 
completed the fielding and upgrading of the Indoor Simulated 
Marksmanship Trainer-XP. These simulators make it possible for the 
Marines to ``employ'' a variety of infantry weapons--pistol through 
heavy machinegun--in rifle squad scenarios.
    Another simulator, the Virtual Combat Convoy Trainer-Reconfigurable 
Vehicle System, provides invaluable pre-deployment training for the 
drivers of all makes and models of tactical vehicles. This trainer 
provides various conditions of terrain, road, weather, visibility and 
vehicle condition as well as various combat scenarios, which includes 
routine movement, ambush, and IED, among others. The Virtual Combat 
Convoy Trainer-Reconfigurable Vehicle System is a mobile, trailer-
configured platform that utilizes a HMMWV mock-up, small arms, crew-
served weapons, 360-degree visual display with after-action review/
instant replay capability. We are now preparing to accept the fourth 
generation of this system and have doubled student throughput.
    Another training simulation technology that has been fielded is the 
Deployable Virtual Training Environment, which provides small-unit 
echelons with the opportunity to continuously review and rehearse 
command and control procedures and battlefield concepts in a virtual 
environment. The Deployable Virtual Training Environment provides 
individual, fire team, squad and platoon-level training associated with 
patrolling, ambushes and convoy operations. Additional features of the 
Deployable Virtual Training Environment include supporting arms 
upgrades for virtual combined arms indirect fire and forward air 
control training, combat engineer training, small-unit tactics 
training, tactical foreign language training and event-driven, ethics-
based, decisionmaking training.
    Finally, The HMMWV Egress Assistance Trainer and the Mine-Resistant 
Armor Protected (MRAP) Egress Trainer are mechanical simulation 
trainers that familiarize Marines with the techniques and procedures to 
egress a HMMWV or a MRAP vehicle that has overturned. Both Trainers are 
training tools that provide Marines with the opportunity to experience 
vehicle roll-over conditions to enable them to rehearse actions and 
physically execute the steps necessary to survive a vehicle rollover. 
These systems support the U.S. Central Command requirement for all 
Marines to complete vehicle roll-over training prior to deploying to 
designated combat zones.
    It is important to recognize the key role Congress has played in 
the fielding of these advanced training systems, all of which have been 
rapidly acquired and fielded with supplemental and National Guard and 
Reserve Equipment Appropriations funding.
                               facilities
    Marine Forces Reserve is comprised of 183 sites in 48 States, the 
District of Columbia, and Puerto Rico. These facilities consist of 32 
owned sites, 151 tenant locations, three family housing sites, and a 
Marine barracks. Most of our Reserve sites are openly located within 
civilian communities, which require close partnering with State and 
local entities nationwide. Additionally, the condition and appearance 
of our facilities informs the American people's perception of the 
Marine Corps as well as the Armed Forces.
    Department of Defense policy and the use of standardized models for 
Marine Forces Reserve Facilities Sustainment, Restoration, and 
Modernization (FSRM) dollars have greatly improved funding profiles for 
our Reserve facilities over the last several years. We are experiencing 
some of the best levels of facility readiness due to increased funding 
in the last 3 years, which was complemented by an additional $39.9 
million in stimulus dollars from the American Recovery and Reinvestment 
Act (ARRA) of 2009. The ARRA funding was applied to 25 projects 
currently underway across 11 States that are providing much needed 
repairs, renovations or enhancing energy efficiency. Other projects 
funded by ARRA dollars include upgrades to meet antiterrorism force 
protection standards and compliance with American with Disability Act 
access.
    The Base Realignment and Closure 2005 and our normal Military 
Construction Naval Reserve (MCNR) Program enabled us to repair and 
upgrade sites across the country with projects continuing to completion 
in 2011, including replacement of more than 28 of our 183 Reserve 
centers in the next 2 years. This represents the largest movement and 
upgrade in memory for the Marine Corps Reserve.
    Marine Forces Reserve's research and investment for the last 2 
years in energy efficiency, sustainability, and renewable energy is 
coming to fruition this fiscal year. Every new FSRM renovation project 
or Military construction (Milcon) is targeted for energy efficiency and 
sustainability aspects in accordance with policy and Leadership in 
Energy and Environmental Design (LEED) guidelines. We recently 
commissioned our first LEED Silver building at Camp Lejeune--the first 
in the Marine Corps--and are anticipating award this year of our first 
LEED Silver rehabilitation project in Baltimore, Maryland, which is a 
potential first for the Marine Corps as well. All of our MCNR projects 
since fiscal year 2009 are on track to comply with directives to 
achieve LEED silver or higher as funding profiles permit.
    We are presently conducting energy assessments of all our 32-owned 
sites along with preparation of smart metering technology for each to 
enhance conservation and management. The Marine Forces Reserve approach 
combines efficiency, conservation, and renewable aspects to achieve 
optimal return on investment. We completed six solar energy and 
lighting projects at Reserve centers in California and have one solar 
project slated for completion in Louisiana as well. Our six wind 
turbine projects continue to proceed with suitability and environmental 
evaluations. Initial findings indicate that some projects may come on 
line during fiscal year 2012 with an anticipated payback of as little 
as 8 years. Our investment and implementation of these technologies 
provides energy security, efficiency, and cost avoidance for our 
geographically dispersed sites.
    Marine Forces Reserve Facilities Sustainment, Restoration, and 
Modernization (FSRM) program funding levels continue to address 
immediate maintenance requirements and longer-term improvements to our 
older facilities. Sustainment funding has allowed us to maintain our 
current level of facility readiness without further facility 
degradation. Your continued support for both the MCNR program and a 
strong FSRM program are essential to addressing the aging 
infrastructure of the Marine Corps Reserve.
    The MCNR program for exclusive Marine Corps Reserve construction 
has been effectively prioritized by the Marine Corps within the FYDP to 
optimize our efforts in addressing the estimated $132 million in needed 
construction projects for our aging infrastructure. Increases in our 
baseline funding over the last 6 years have helped Marine Forces 
Reserve improve our overall facility readiness. More than 27 percent of 
the Reserve centers our Marines train in are more than 30 years old and 
of these, 55 percent are more than 50 years old. Past authorizations 
have improved the status of facilities in the 30 to 50 year range and 
continued investment will allow for further modernization. The $35 
million in additional MCNR funding in fiscal year 2010 enabled Marine 
Forces Reserve to commence several additional projects that further 
improved our readiness in both training and improvement of facilities 
infrastructure at greater rates than normal.
    The Base Realignment and Closure 2005 continues to move forward and 
the Marine Corps Reserve will relocate units to 10 consolidated Reserve 
centers this fiscal year. Marine Forces Reserve is executing 25 of the 
Marines Corps' 47 Base Realignment and Closure-directed actions. Of 
these 25 Base Realignment and Closure actions, 21 are linked to Army 
and Navy military construction projects. Our Base Realignment and 
Closure plans are tightly linked to those of other Services and 
government agencies as we develop cooperative agreements to share 
Reserve centers and coexist in emergent joint bases. All remaining 
Marine Corps Reserve Base Realignment and Closure closures are on track 
for successful completion within the directed timelines.
    Of special note is the movement of my Headquarters--Marine Forces 
Reserve--and consolidation of our major subordinate commands in New 
Orleans, Louisiana. This unique Base Realignment and Closure project, 
which integrated State, local and Federal efforts, is now well underway 
for the new headquarters compound and is tracking for an early 
completion. The State of Louisiana is providing construction dollars 
for the new headquarters facility, which saves the Federal Government 
more than $130 million. The Department of the Navy is providing the 
interior finishings, information technology, and security 
infrastructure in accordance with the lease agreement. This building 
will incorporate multiple energy and environmentally friendly processes 
to meet Leadership in Energy and Environmental Design certifiable 
standards. We were assisted by the Department of Energy's Federal 
Energy Management Program to identify future projects, which will 
further maximize the sustainability and energy efficiencies of the 
buildings and compound. Upon completion and certification, this 
building and its surrounding acreage will become the newest Marine 
Corps Installation: Marine Corps Support Facility, New Orleans.
                 health services and behavioral health
    Our Marines, Sailors and their families remain our highest 
priority. Therefore, we remain keenly attentive to their health and 
resiliency. Taking care of them is a sacred trust and a continuous 
process. During dwell, our health services priority is to attain and 
maintain the Department of Defense goal of 75 percent Fully Medically 
Ready. In fiscal year 2010, Marine Forces Reserve individual medical 
and dental readiness rates were 70 percent and 78 percent respectively. 
This reflects a continued improvement trend in overall individual 
medical readiness for the Force.
    Healthcare for the Reserve Component integrates many diverse 
programs across the spectrum of the deployment cycle--pre-mobilization, 
deployment and post-deployment--and is categorized into two areas: unit 
medical readiness and behavioral health. Unit medical readiness 
programs include the Reserve Health Readiness Program and TRICARE 
Reserve Select. Behavioral health programs include the Post Deployment 
Health Reassessment and the Psychological Health Outreach Program.
    The Reserve Health Readiness Program is the cornerstone for 
individual medical and dental readiness. This program funds contracted 
medical and dental specialists to provide healthcare services to units 
not supported by a military treatment facility. During fiscal year 
2010, the Reserve Health Readiness Program performed 10,947 Periodic 
Health Assessments; 2,803 Post-Deployment Health Reassessments; and 
7,821 Dental Procedures. TRICARE Reserve Select, a premium-based 
healthcare plan, is also available to our Marines, Sailors and their 
families.
    Behavioral health has increasingly become an integral part of 
medical readiness over the past few years. Navy medicine continues to 
address this complex issue through various independent contracted 
programs, such as the Post Deployment Health Reassessment and the 
Psychological Health Outreach Program. The Post Deployment Health 
Reassessment identifies health issues with specific emphasis on mental 
health concerns, which may have emerged since returning from 
deployment. The Psychological Health Outreach Program addresses post-
deployment behavioral health concerns through a referral and tracking 
process. The above programs have proven effective in the overall 
management of identifying those Marines needing behavioral health 
assistance and have provided an avenue to those Marines seeking 
behavioral health assistance.
    The Commandant has also directed that we more fully integrate 
behavioral health services to help reduce redundancies and ultimately 
improve the overall quality and access to care. The Marine Corps is 
taking action to develop an integrated service delivery that provides 
innovative, evidence-based practices to commanders, Marines, and their 
families. This service delivery will be woven into the larger support 
network of our command structures and health and human services across 
the Marine Corps to better build resilience and strengthen Marines and 
families. This efficiency initiative successfully integrates our Combat 
and Operational Stress Control, Suicide Prevention, Sexual Assault 
Prevention and response, Substance Abuse Prevention and Family Advocacy 
Programs and will be instrumental in synchronizing our prevention 
efforts.
    Combat and Operational Stress Control training for leaders is being 
incorporated throughout Marine Forces Reserve at all levels. All units 
deploying more than 90 days receive pre-deployment training for 
Marines, Sailors, leaders, and families.
    Currently, we are implementing the Operational Stress Control and 
Readiness (OSCAR) training. This training provides knowledge, skills, 
attitudes, and tools required to assist commanders to prevent, 
identify, and manage combat and operational stress problems as early as 
possible. Your continued support enables us to continue to take care of 
our Marines, Sailors and their families.
                            quality of life
    My commitment to our Marines and Sailors in harm's way extends to 
their families at home. As part of Marine Corps reforms to enhance 
family support, we continue to place full-time Family Readiness Officer 
(FROs), which will be staffed entirely by civilians, at the battalion/
squadron level and above to support the Commandant's family readiness 
mission. As you might imagine, an organization that is spread across 
the Nation and overseas has unique challenges, but communication 
technologies, improved procedures, and processes have effectively 
integrated our efforts to more effectively inform and empower family 
members--spouses, children and parents--who often have little routine 
contact with the Marine Corps and live far from large military support 
facilities. The installation of FROs at the battalions and squadrons 
bridges many gaps and overcomes many challenges that are unique to the 
Reserve Component. To be sure, the placement of Family Readiness 
Officers is a low cost solution that provides a significant return on 
investment.
    We fully recognize the strategic role our families have in personal 
and operational readiness, particularly with mobilization preparedness. 
We prepare our families for day-to-day military life and the deployment 
cycle by providing education at unit family days, pre-deployment 
briefs, return and reunion briefs, and post-deployment briefs. To 
better prepare our Marines and their families for activation, Marine 
Forces Reserve has fully implemented the Yellow Ribbon Reintegration 
Program, much of which we've had in place for quite some time. We are 
particularly supportive of Military OneSource, which provides our 
Reservists and their families with an around-the-clock information and 
referral service via toll-free telephone and Internet access on 
subjects such as parenting, childcare, education, finances, legal 
issues, deployment, crisis support, and relocation.
    The Marine Forces Reserve Lifelong Learning Program continues to 
provide educational information to service members, families, retirees, 
and civilian employees. More than 1,400 Marine Forces Reserve personnel 
(Active and Reserve) enjoyed the benefit of Tuition Assistance, 
utilizing more than $3.6 million that funded more than 4,600 courses 
during fiscal year 2010. The Marine Corps' partnership with the Boys 
and Girls Clubs of America and the National Association for Child Care 
Resources and Referral Agencies continues to provide a great resource 
for service members and their families in accessing affordable child 
care before, during, and after a deployment in support of overseas 
contingency operations. We also partnered with the Early Head Start 
National Resource Center Zero to Three to expand services for family 
members of our Reservists who reside in isolated and geographically 
separated areas.
    The Chaplain Corps--Active and Reserve Component chaplains--is 
fully engaged to support my commitment to ensure care is provided for 
our Marines, Sailors, and their families. Working alongside FROs, they 
conduct informational briefs and provide counsel during all phases of 
the deployment cycle. One Religious Ministries Team works with the FRO 
through video-teleconferencing to provide pre-deployment, deployment 
and post deployment briefs for the entire Individual Ready Reserve 
population. The chaplains have also worked directly with the Casualty 
Assistance Calls Officers, providing them with immediate support, 
counsel and assistance during the time of deep emotional crisis.
  supporting our wounded, ill, and injured marines and their families
    The non-medical needs of our wounded, ill, and injured (WII) 
Marines and their families can be extensive and vary in type and 
intensity during the phases of recovery. There is not an ``one size 
fits all'' approach to WII care. The Marine Corps' Wounded Warrior 
Regiment (WWR) makes a concerted effort to ensure that WII Marine 
Reservists receive exemplary support as they transition through the 
recovery process. The WWR holds high levels of subject matter expertise 
with regard to the unique challenges faced by Marine Reservists and has 
set up component of care accordingly. For example, the WWR has 
dedicated staff--the Reserve Medical Entitlements Determinations 
Section--to specifically maintain oversight of all cases of Reservists 
who require medical care beyond their contract period for service-
connected ailments. Additionally, the WWR has Reserve-specific recovery 
care Coordinators who provide one-on-one transition support and 
resource identification required to support WII Reservists and families 
who are often living in remote and isolated locations away from the 
support resident on bases and stations. Another significant support 
component of the WWR that makes a positive difference in the lives of 
our WII Reservists is the Sergeant Merlin German Wounded Warrior Call 
Center. This 24/7 Call Center provides support on numerous issues to 
include: referral for psychological health matters; pay and entitlement 
questions; financial assistance resources; awards; and information on 
benevolent organizations. The WWR also uses its Call Center to conduct 
important outreach calls to various populations to check on their well-
being and update them on changes in benefits and entitlements.
            casualty assistance and military funeral honors
    Casualty assistance remains a significant responsibility of Active 
Component Marines who are assigned to our Inspector--Instructor and 
Reserve Site Support staffs. Continued operational efforts in 
Afghanistan and Iraq have required that these Marines remain ready at 
all times to support the families of our fallen Marines in combat 
abroad, or in unforeseen circumstances at home. By virtue of our 
geographic dispersion, Marine Forces Reserve personnel are best 
positioned to accomplish the vast majority of all Marine Corps casualty 
assistance calls and are trained to provide assistance to the families. 
Historically, my personnel have been involved in approximately 76 
percent of all Marine Corps casualty notifications and follow-on 
assistance calls to the next of kin. There is no duty to our families 
that we treat with more importance, and the responsibilities of our 
Casualty Assistance Calls Officers continue well beyond notification. 
We ensure that our Casualty Assistance Calls Officers are adequately 
trained, equipped, and supported by all levels of command. Once a 
Casualty Assistance Calls Officer is designated, he or she assists the 
family members from planning the return of remains and the final rest 
of their Marine to advice and counsel regarding benefits and 
entitlements. In many cases, our Casualty Assistance Calls Officers 
provide a permanent bridge between the Marine Corps and the family 
while providing assistance during the grieving process. The Casualty 
Assistance Calls Officer is the family's central point of contact and 
support, and he or she serves as a representative or liaison to the 
funeral home, Government agencies, or any other agency that may become 
involved.
    Additionally, Marine Forces Reserve units and personnel provide 
significant support for military funeral honors for our veterans. The 
active duty Reserve Site Support staff, with augmentation from their 
Reserve Marines, performed more than 14,550 military funeral honors 
during calendar year 2010, which was 90 percent of the Marine Corps 
total. We anticipate providing funeral honors to more than 17,500 
Marine veterans in calendar year 2011. Specific authorizations to fund 
Reserve Marines in the performance of military funeral honors have 
greatly assisted us at sites such as Bridgeton, Missouri, where more 
than 10 funerals are consistently supported each week. As with Casualty 
Assistance, we place enormous emphasis on providing timely and 
professionally executed military funeral honors support.
                               conclusion
    Your Marine Corps Reserve continues to be operational in mindset 
and action and is fully committed to train and execute the Commandant's 
vision for the Total Force Marine Corps. The momentum gained over the 
last decade in Iraq, Afghanistan, and in support of theater engagements 
around the globe, remains sustainable through coordinated focus, 
processes and planning. To be sure, this momentum bears witness to the 
operational nature of your Marine Corps Reserve.
    In everything we do, we remain focused on the individual Marine and 
Sailor in combat. Supporting that individual requires realistic 
training, proper equipment, the full range of support services and 
professional opportunities for education, advancement and retention. 
Your continued unwavering support of the Marine Corps Reserve and 
associated programs enables my Reservists to competently perform as an 
operational Reserve and is greatly appreciated. Semper Fidelis.

    Chairman Inouye. Now, may I call upon General Stenner.
STATEMENT OF LIEUTENANT GENERAL CHARLES E. STENNER, 
            JR., CHIEF, AIR FORCE RESERVE
    General Stenner. Thank you, Chairman Inouye and Vice 
Chairman Cochran.
    I appreciate the opportunity to be here today to discuss 
Reserve component funding priorities for fiscal year 2012 and 
the other important issues that are also affecting the 72,000-
plus citizen airmen making up our Air Force Reserve.
    But I would like to first take the opportunity to introduce 
Chief Master Sergeant Dwight Badgett. He is the command chief 
for the Air Force Reserve Command. And I will report he is not 
retiring, unless I don't know something.
    And he is going to assist me in the years to come managing 
this vital force called the enlisted members. It is the 
backbone of what we take. And Chief, if you would give a 
standup for a second? Thanks.

                      AIR FORCE RESERVE PRIORITIES

    My written testimony outlines our priorities. But briefly, 
I would like to mention the fact that our reservists continue 
to play an increasing role in ongoing global operations, no 
matter what service. They support our Nation's needs, providing 
operational capabilities around the world.
    As we speak, Air Force reservists are serving in every 
combatant command area of responsibility. There are 
approximately 4,300 Air Force reservists currently activated to 
support those missions. That number includes our force's 
contributions to the Japanese relief effort and direct support 
to coalition operations in Libya.
    Despite an increasing operations tempo, aging aircraft, and 
increases in depot scheduled downtime, we have improved fleet 
aircraft availability and mission-capable rates. The Air Force 
Reserve is postured to do its part to meet the operational and 
strategic demands of our Nation's defense, but that mandate is 
not without its share of challenges.
    Our continued ability to maintain a sustainable force with 
sufficient operational capability is predicated on having 
sufficient manpower and resources. And the work of this 
subcommittee is key to ensuring Reserve component readiness, 
and the National Guard and Reserve equipment account (NGREA) is 
our means for preserving that combat capability. That account 
guarantees that our equipment is relevant and allows for 
upgrades to be fielded in a timely manner.

                     NGREA AND SUPPLEMENTAL FUNDING

    Current levels of NGREA and supplemental funding have 
allowed the Air Force Reserve to make significant strides in 
meeting urgent warfighter requirements. Since 1997, the Air 
Force Reserve has obligated and executed 99.7 percent of our 
NGREA dollars, and we continue to work with the Air National 
Guard and regular Air Force communities to improve our process 
to obligate NGREA faster and in line with the OSD standards.
    Air Force NGREA funding of at least $100 million per year 
will provide parity and greatly enhance readiness, because, as 
we all know, our Nation relies on our capabilities, more today 
than ever before. Properly equipping the Reserve components 
will ensure the Nation continues to have a force in reserve to 
meet existing and future challenges.
    Equally as important as readiness is support to our airmen 
and their families. Our efforts in this area go toward 
resiliency training, suicide prevention, the Yellow Ribbon 
reintegration, and Employer Support of the Guard and Reserve 
(ESGR) and other programs that help support the all-important 
Reserve triad. That is the family, the reservists, and their 
employer, all a part of the fabric of this Nation's defense.
    In a time of constrained budgets and higher costs, in-depth 
analysis is required to effectively prioritize our service 
needs, for we must all appreciate the vital role the Reserve 
components play in supporting our Nation's defense and 
concentrate our resources in areas that will give us the most 
return on the investment.
    Thank you for asking me here today and discussing the 
important issues that are affecting us all. And I do look 
forward to your questions.
    [The statement follows:]
    Prepared Statement of Lieutenant General Charles E. Stenner, Jr.
                              introduction
    The 21st century security environment requires military services 
that are flexible--capable of surging, refocusing, and continuously 
engaging without exhausting their resources and people. The United 
States Air Force continues to present capabilities in support of joint 
operations, and the Reserve Component has evolved to the point that we 
are critical to those operations. In an increasingly limited fiscal 
environment, Reservists remain efficient and cost-effective solutions 
to our Nation's challenges.
    In this dynamic environment, the Air Force Reserve (AFR) excels. 
Reserve Airmen support our Nation's needs; providing operational 
capabilities around the globe. Today, Air Force Reservists are serving 
in every Area of Responsibility (AOR), and there are approximately 
4,300 Air Force Reservists activated to support operational missions. 
Despite increased operations tempo, aging aircraft and increases in 
depot-scheduled down time, we have improved fleet aircraft availability 
and mission capable rates. We have sustained our operational 
capabilities for nearly 20 years--at a high operations tempo for the 
past 10. We accomplish this while continuing to provide a cost-
effective and combat ready force available for strategic surge or 
ongoing operations.
    This year brings continued opportunities. Air Force Reserve Airmen 
are integrated into a wider variety of missions across the full 
spectrum of not only inherently Air Force operations, but joint 
operations as well. The Department of Defense (DOD) continues to seek 
innovative ways in which to gain greater access to, and leverage the 
unique experiences and skills of, Reservists. This effort recognizes 
our Citizen Airmen have talents that have been developed in the Air 
Force Reserve, but are strengthened in employment with civilian 
employers.
    While we remain focused on the Air Force's five priorities \1\, we 
are also guided by the following Reserve Component-unique focus areas 
that could be applied to the Total Force and will serve as the basis 
for this testimony: Force Readiness, Force Rebalance and Force Support.
---------------------------------------------------------------------------
    \1\ The Air Force Priorities are: (1) Continue to strengthen the 
nuclear enterprise; (2) Partner with the Joint and Coalition team to 
win today's fight; (3) Develop and care for our Airmen and their 
families; (4) Modernize our air, space, and cyberspace inventories, 
organizations, and training; and (5) Recapture acquisition excellence.
---------------------------------------------------------------------------
                                overview
    The Air Force Reserve is helping to lead the way in improving Air 
Force capability for fiscal year 2012 and beyond. The fiscal year 2012 
President's budget request would fund Air Force Reserve requirements of 
approximately $5 billion. It provides for the operation and training of 
34 wings, funds 117,769 flying hours, maintains 344 aircraft, and 
provides for the readiness of 71,400 Reservists and 4,157 civilian 
employees. Our budget request is about 4 percent of the total Air Force 
budget, and includes $2.27 billion for operations and maintenance for 
air operations, service support and civilian pay; $1.7 billion for 
military personnel; and $34 million for military construction.
    Not only does our fiscal year 2012 budget request ensure Air Force 
Reservists are trained and prepared to support Air Force and Combatant 
Command requirements, but it also demonstrates our commitment to the 
DOD's focus on efficiencies. Through better business practices, by 
leveraging new technology, and by streamlining our force management 
efforts, we identified $195 million in efficiencies for fiscal year 
2012 alone. With your continued support and assistance in the coming 
year, we will be focused on rebalancing our force, recapitalizing our 
equipment and infrastructure, and supporting our Reservists and the 
balance between their civilian and military lives.
                            force readiness
    Reservists continue to play an increasing role in ongoing global 
operations. This reliance can be seen during surges such as those in 
Iraq and Afghanistan. Properly equipping the Reserve Components will 
ensure the Nation continues to have a ``Force in Reserve'' to meet 
existing and future challenges.
Air Force Reserve Modernization
    A number of trends continue to influence dependence on Air Force 
Reserve forces to meet the operational and strategic demands of our 
Nation's defense: sustaining operations on five continents and the 
resulting wear and tear on our aging equipment; increasing competition 
for defense budget resources; and increasing integration of the three 
Air Force components. The Air Force leverages the value of its Reserve 
Components through association constructs in which units of the three 
components share equipment and facilities around a common mission. 
Increasing integration of all three Air Force components requires us to 
take holistic approach. To ensure our integrated units achieve maximum 
capability, the precision attack and defensive equipment the Air Force 
Reserve employs must be interoperable not only with the Guard and 
Active Component, but the Joint and Coalition force as well.
    The National Guard Reserve Equipment Account (NGREA) appropriation 
has resulted in an increase in readiness and combat capability for both 
the Reserve and the Guard. For example, using fiscal year 2009 NGREA, 
fiscal year 2009 OCO and fiscal year 2010 NGREA funds, the Air Force 
Reserve responded to a Combatant Commander Urgent Operation Need (UON) 
related to the capabilities of our A-10 and F-16 fleet. Through 
acquisition of the Helmet Mounted Integrated Targeting (HMIT) system we 
were able to enhance our pilots' capability to cue aircraft sensors and 
weapons well outside the Heads-Up Display (HUD) field of view of their 
aircraft. This commercial-off-the-shelf (COTS) system is a common 
solution for both the A-10 and F-16 aircraft. Additionally, HMIT 
incorporates color displays in its system and is compatible with 
current night vision goggle systems to enhance night time flying 
capabilities. These capabilities have the potential to increase the 
situational awareness of our A-10 and F-16 pilots by 400 percent and to 
decrease incidents of fratricide caused when pilots move their heads 
away from their controls to see targets on the ground. Actual purchases 
are expected to start at the end of fiscal year 2011 with delivery in 
fiscal year 2012.\2\
---------------------------------------------------------------------------
    \2\ In past years, the Air Force Reserve purchased HC-130 8.33 
radios to upgrade 5 AFR HC-130 aircraft. This upgrade allows these 
aircraft to comply with Certified Navigation System--Air Traffic 
Management (CNS-ATM), world-wide air traffic rules and requirements. 
The 8.33 radios also provided a situational awareness data link that 
allows crews to better identify ``friends'' versus ``foes'' and prevent 
``friendly fire'' incidents. Without this upgrade, the movements of 
AFRC's HC-130s were limited and in some cases prevented in certain 
restricted airspace around the globe.
---------------------------------------------------------------------------
    Since the start of combat operations in Afghanistan and Iraq, the 
majority of our equipment requirements have been aircraft upgrades. 
These upgrades provide our aircraft with better targeting, self 
protection and communication capabilities. As legacy aircraft are 
called upon to support operational missions, the equipment is stressed 
at a greater rate. As new equipment is identified that will satisfy our 
capability shortfalls, we begin procurement, normally buying enough 
assets with ``first year'' dollars to equip a single unit of aircraft. 
With subsequent year funding we continue purchasing until our 
requirements are met. This method of procurement allows the expedient 
fielding of capabilities to our deploying units, but equipment levels, 
especially in the first few years of a program's execution, are not at 
sufficient levels to meet our overall requirements.
    In fiscal year 2008, we modified our requirements process to align 
with the Air Force Reserve corporate process. This alignment provides 
total visibility and support for our modernization needs from 
identification of a requirement until it is fully mission capable. The 
process also incorporates input from our units received through Combat 
Planning Councils (CPCs). Our unfunded requirements, after being vetted 
through our corporate process, reside on our Modernization List. Each 
year we review the list to determine where the best use of the allotted 
amount of NGREA will make the most impact. Additional supplemental 
funding has helped in procuring our needed equipment.
    Historically, the Air Force Reserve has been a prudent steward of 
NGREA funding with an average obligation rate of 99.7 percent prior to 
funding expiration.\3\ We are currently involved in a cooperative 
effort with the Air National Guard and the Active Component's 
acquisition communities to review our obligation processes and develop 
improvements to bring our obligation rates more in line with the 
Department's standards of 80 percent and 90 percent in the first and 
second years of execution.
---------------------------------------------------------------------------
    \3\ From fiscal year 1997 to fiscal year 2008, Congress provided 
the Air Force Reserve the following amounts in NGREA funding 
(associated obligation rates): 1997--$39,552,000 (99.05 percent); 
1998--$49,168,000 (99.99 percent); 1999--$20,000,000 (100 percent); 
2000--$19,845,000 (99.75 percent); 2001--$4,954,000 (99.98 percent); 
2002--$75,224,000 (99.88 percent); 2003--$9,800,000 (99.84 percent); 
2004--$44,666,000 (99.96 percent); 2005--$39,815,000 (100 percent); 
2006--$29,597,000 (99.75 percent); 2007--$34,859,000 (98.67 percent); 
and 2008--$44,695,000 (99.60 percent).
---------------------------------------------------------------------------
Military Construction (Milcon) and Infrastructure Modernization
    Along with challenges in modernizing our equipment, we face 
challenges modernizing our infrastructure. During the fiscal year 2011 
budget formulation, both the Active Component and the Air Force Reserve 
continued to take risk in military construction and facilities 
maintenance in order to fund higher priorities. Over time, this 
assumption of additional risk has resulted in a backlog exceeding $1 
billion for the Air Force Reserve.
    The Air Force Reserve budget request of $34 million in fiscal year 
2012 Milcon funding will fund the construction of an airfield control 
tower at March Air Reserve Base, California, and a RED HORSE \4\ 
readiness and training facility at Charleston Air Force Base, South 
Carolina. As we continue to work within fiscal constraints, we will 
optimize space allocation with increased facility consolidation and 
demolition. We will continue to mitigate risk where possible to ensure 
our facilities are modernized and provide a safe and adequate working 
environment.
---------------------------------------------------------------------------
    \4\ Rapid Engineer Deployable Heavy Operational Repair Squadrons 
(RED HORSE) provide the Air Force with a highly mobile civil 
engineering response force to support contingency and special 
operations worldwide.
---------------------------------------------------------------------------
Air Force Reserve Manpower
    To meet the current needs of the Air Force, the Air Force Reserve 
will grow to programmed end strength of 71,200 this year. In the fiscal 
year 2012 President's budget, we have requested an end strength of 
71,400. These manpower increases are placing a premium on recruiting 
highly qualified and motivated Airmen and providing them with the 
necessary training. The Air Force Reserve recruiting goal for fiscal 
year 2011 is 10,480. While we exceeded our highest goal ever of 10,500 
new Airmen for fiscal year 2010, with tightening budgets and cuts in 
advertising, our forecast models indicate we may continue to face 
challenges in some aspects of the recruiting process.
    To provide a single point of entry for accessing Air Force Reserve 
forces, we recently established a Force Generation Center (FGC). This 
organization modernizes our force management practices to provide a 
unified picture of our combat capability, our total support to the Air 
Force and Combatant Commanders, and provides our customers with a 
single point of entry with a consistent set of business rules. We now 
have visibility and accountability of reserve forces in categories 
where we previously had limited or no real time information. 
Additionally, the Force Generation Center allows the Air Force Reserve 
to be more responsive to the needs of individual Reservists, providing 
them greater predictability while making participation levels more 
certain. This ultimately provides Combatant Commanders with more 
operational capability. Collectively, these actions will contribute to 
the overall health of the Air Force by improving the sustainability and 
operational capability of the Air Force Reserve required today and 
tomorrow.
    A recent survey highlighted the fact that one-in-three Air Force 
Reservists has volunteered to deploy. Since 9/11, more than 60,500 Air 
Force Reservists, which equates to 76 percent of our current force, 
have answered our Nation's call and deployed to combat or supported 
combat operations on active duty orders. We cannot take this high-level 
of commitment for granted, and must do our best to ensure their 
continued service is used appropriately and efficiently. Accordingly, 
these enterprise-wide actions will make Air Force Reservists more 
accessible and should provide Reservists with a greater sense of 
satisfaction about their service.
                            force rebalance
    Total Force Initiatives are not just a priority for the Air Force 
Reserve and Air National Guard, but the Air Force as a whole. All three 
components are committed to aggressively examining Air Force core 
functions for integration and force rebalancing opportunities. This is 
critical in an environment focused on efficiencies. As weapons systems 
become increasingly more capable but expensive, their numbers 
necessarily decrease. Aging platforms are being retired and are not 
replaced on a one-for-one basis. As a result, the Air Force is required 
to maintain the same combat capability with a smaller inventory. To 
this end, we are integrating wherever practical, exploring associations 
across the Total Force. We have established a wide variety of associate 
units throughout the Air Force, combining the assets and manpower of 
all three components to establish units that capitalize on the 
strengths of each component. There are currently more than 90 
Associations across all Air Force mission areas.
    The Air Force uses three types of associations to leverage the 
combined resources and experience levels of all three components: 
``Classic Associations,'' ``Active Associations,'' and ``Air Reserve 
Component Associations.'' Under the ``Classic'' model a Regular Air 
Force unit is the host unit and retains primary responsibility for the 
weapon system, while a Reserve or Guard unit is the tenant. This model 
has flourished in the strategic and tactical airlift communities for 
over 40 years. We are also using this model in the Combat Air Forces 
(CAF). Our first fighter aircraft ``Classic'' association at Hill Air 
Force Base, Utah, attained Initial Operational Capability in June 2008. 
This association combined the Regular Air Force's 388th Fighter Wing, 
the Air Force's largest F-16 fleet, with the Air Force Reserve's 419th 
Fighter Wing, becoming the benchmark and lens through which the Air 
Force will look at every new mission. The 477th Fighter Group, an F-22 
unit at Joint Base Elmendorf, Alaska, continues to mature as the first 
Air Force Reserve F-22A associate unit. This unit also achieved Initial 
Operating Capability in 2008 and will eventually grow into a two-
squadron association.
    Under the ``Active'' model, the Air Force Reserve or Guard unit is 
host and has primary responsibility for the weapon system while the 
Regular Air Force provides additional aircrews to the unit. The 932nd 
Airlift Wing is the first ever Operational Support Airlift Wing in the 
Air Force Reserve with 3 C-9Cs and 3 C-40s. To better utilize the fleet 
at the 932nd, the Air Force created an Active Association of the C-40s.
    Under the ``Air Reserve Component (ARC)'' model, now resident at 
Niagara Falls Air Reserve Station (ARS), New York, the Air Force 
Reserve has primary responsibility for the equipment, while the Air 
National Guard works side-by-side in the operation and maintenance of 
the aircraft. At Niagara, the Air National Guard transitioned from the 
KC-135 air refueling tanker to the C-130, associating with the 914th 
Airlift Wing. The 914th added four additional C-130s, resulting in 12 
C-130s. This ARC Association model provides a strategic and operational 
force and capitalizes on the strengths of the Air National Guard and 
Air Force Reserve. Additionally, it provides the State of New York with 
the needed capability to respond to State emergencies.
    Associations are not simply about sharing equipment; they enhance 
combat capability and increase force-wide efficiency by leveraging the 
resources and strengths of the Regular Air Force, Air National Guard, 
and Air Force Reserve. But, they accomplish this while respecting 
unique component cultures and requirements. Air Force Reserve and Air 
National Guard members train to the same standards and maintain the 
same currencies as their Active Component counterparts. These Airmen 
also provide the insurance policy the Air Force and the Nation need: a 
surge capability in times of national crisis. As we have seen with the 
increased requirements in Afghanistan, the Air Force Reserve continues 
to play a vital role by mobilizing our strategic airlift resources and 
expeditionary support to provide capabilities needed for the joint 
effort.\5\
---------------------------------------------------------------------------
    \5\ In fiscal year 2010, Air Force Reserve C-5 and C-17 associate 
flying units flew 31,913 hours of overseas contingency support 
worldwide.
---------------------------------------------------------------------------
    To better accommodate the Air Force-wide integration effort, the 
Air Force Reserve is examining its four decades of association 
experience. With Regular Air Force and Air National Guard assessment 
teams, we developed analytical tools to evaluate different mixes of 
Reserve, Guard, and Active Component forces in any given mission set. 
This process for rebalancing of forces will give the Air Force a solid 
business case analysis tool for evaluating future associations and may 
lead to force decisions that support Reserve Component growth.
    For the Operational Reserve construct to remain viable, we must 
continue to use the long-term mobilization authorities that have been 
in continuous use for the past 10 years. If not, the Services will 
revert to volunteerism as the sole planning tool for force generation 
to meet Combatant Command requirements. The strategic nature of the 
Reserve Components historically made us vulnerable to reductions in 
resources and budgets. This often resulted in rebalancing resources 
among the components based on a strategy that favored near-term 
operational risk reduction over longer-term cost effectiveness and 
wartime surge capability. This was a logical approach to allocating 
risk at the time because Reserve Component daily operational 
capabilities depended almost exclusively on volunteerism, which was 
difficult for planners to quantify with a desired degree of assurance. 
That legacy model is now the exception rather than the rule, since risk 
associated with the Reserve Components can be both measured and 
controlled through management and integration of volunteerism with 
sustainable mobilization plans based on the force generation model 
construct. This allows the Services to make force rebalancing decisions 
today based on business case analysis rather than focusing exclusively 
on near-term risk avoidance.
    The traditional approach to rebalancing during a budget reduction 
has been to reduce Reserve Component force structure to preserve Active 
Component operational capabilities, or to reduce all components through 
some proportional or fair-share model to spread risk across the force. 
It is now possible to quantify and plan for a predictable level of 
access to operational support from the Reserve Components in critical 
capability areas, the traditional approach is no longer valid. Because 
access to operational support capability is quantifiable, it is 
possible to do reliable cost/capability tradeoff analysis to quantify 
both cost and risk for options placing greater military capability in 
the Reserve Components. This does not mean that Reserve Component 
growth will always be the prudent choice, but it does mean that the 
choice can be made based on measurable outcomes of cost, capability, 
and risk, rather than using arbitrary rules of thumb or notional 
ratios.
    A new approach to rebalancing allows for a force that is agile and 
responsive to uncertainty and rapid changes in national priorities, and 
mitigates the loss of surge capability and the high cost associated 
with the traditional approach to adjusting force mix. Any approach 
should acknowledge the Reserve Components have become and will remain a 
responsive operational force. Such a force necessarily allows the 
Services to respond quickly and efficiently to funding reductions 
without decreasing warfighting capability or incurring large Active 
Component recruiting and training costs.
                             force support
    While the Air Force meets the needs of new and emerging missions, 
we face some recruiting challenges. Not only will the Air Force Reserve 
have access to fewer prior-service Airmen, we will be competing with 
other services for non-prior service recruits \6\. In the past year, 
the Air Force Reserve has experienced the most accessions in 16 years 
and the highest amount of non-prior service recruits in over 20 years. 
To improve our chances of success, we have increased the number of 
recruiters working in the field to attract quality candidates. While we 
focus on recruiting, we must remain mindful of the experienced force we 
need to retain. Air Force Reserve retention continues to show positive 
gains in all categories. In fiscal year 2010, both officer and enlisted 
retention rates increased, with career Airmen retention at its highest 
level since 2004 and officer retention recovering to fiscal year 2007 
levels.
---------------------------------------------------------------------------
    \6\ According to the Office of the Secretary of Defense, Personnel 
and Readiness, only about 26 percent of today's youth are qualified to 
serve without obtaining a waiver. Shrinking numbers of qualified youth, 
coupled with AFR's increased reliance on Non-Prior Service members, and 
a highly competitive recruiting atmosphere will continue to challenge 
our recruiting force.
---------------------------------------------------------------------------
    With congressional support, we have implemented a number of 
successful programs to increase and maintain high recruiting and 
retention rates. For example, we implemented a ``Seasoning Training 
Program''. This program allows recent graduates of initial and 
intermediate level specialty training to voluntarily remain on active 
duty to complete upgrade training. Since its implementation, nearly 
13,000 Reservists have become trained and available at an accelerated 
rate. With the increased number of non-prior service recruits coming 
into the Air Force Reserve, seasoning training has become a force 
multiplier and ensures the Air Force Reserve maintains its reputation 
for providing combat-ready Airmen for today's joint fight.
    The Bonus program has also been pivotal to recruiting and retaining 
the right people with the right skills to meet our requirements. The 
Bonus program enhances our ability to meet the demand for ``Critical 
Skills''--those skills deemed vital to mission capability. Ordinarily, 
critical skills development requires extensive training over long 
periods of time, and members who have these skills are in high demand 
within the private sector. Your continued support, allows us to offer 
the appropriate combination of bonuses for enlistment, reenlistment, 
and affiliation. The Bonus Program is effective; 2,676 Reservists 
signed agreements in fiscal year 2010. This figure is up 31 percent 
from fiscal year 2009.
Preserving the Viability of the Reserve Triad
    Reservists balance relationships with their families, civilian 
employers, and the military--what we like to call ``The Reserve 
Triad.'' To ensure continued sustainability, our policies and actions 
must support these relationships. Open communication about 
expectations, requirements, and opportunities, will provide needed 
predictability and clearer expectations among sometimes competing 
commitments.
    The Air Force Reserve is proud of the close ties we have with our 
local communities. According to recent statistics provided by the 
Employer Support of the Guard and Reserve (ESGR), civilian employers 
continue to support and value the military service of their 
employees.\7\ Maintaining employer support and stability is critical to 
retaining the necessary experience at the unit level.
---------------------------------------------------------------------------
    \7\ ESGR USERRA case resolution statistics.
---------------------------------------------------------------------------
    The President has made supporting military families a top national 
security priority.\8\ Military families support and sustain troops, 
care for wounded warriors and bear the loss of our fallen heroes. The 
well-being of military families is a clear indicator on the well-being 
of the overall force. Less than 1 percent of the American population 
serves in uniform today. While the impact on war has had little direct 
impact on the general population, re-integration challenges faced by 
military families can have far reaching effects on local communities. 
We are committed to supporting our military families. Strong families 
positively impact military readiness and preserve the foundation of the 
``Reserve Triad.''
---------------------------------------------------------------------------
    \8\ The President of the United States released the final report on 
Presidential Study Directive-9 (PSD-9) on January 24, 11. The report 
identified the administration's priorities to addressing challenges 
facing military families.
---------------------------------------------------------------------------
    We have placed added emphasis on suicide prevention and resiliency. 
Airmen in high-stressed career fields undergo a 2-day decompression 
program at the Deployment Transition Center. Additionally, at each home 
station installation, we implemented a tiered system of suicide 
prevention to address mental health concerns. The well-being of our 
force is a priority and we will continue to give it our undivided 
attention.
    Thanks to congressional initiatives, our Yellow Ribbon 
Reintegration Office is up and running and fully implementing 
Department of Defense directives. Our program strives to provide 
guidance and support to military members and their families at a time 
when they need it the most, to ease the stress and strain of 
deployments and reintegration back into normal family life. Since the 
standup of the program in August 2008, we have hosted 125 events across 
39 Wings and Groups. Nearly 21,000 Reservists and 15,000 family members 
have attended these events. From Yellow Ribbon event exit surveys and 
through both formal and informal feedback, we know attendees feel 
better prepared and more confident about the deployment cycle. The Air 
Force Reserve is leaning forward in meeting pre-, during and post-
deployment needs of our members and their families.
                               conclusion
    We take pride in the fact that when our Nation calls on the Air 
Force Reserve, we are trained and ready for the fight. As an 
operational force over 70,000 strong, we are mission-ready and serving 
operationally throughout the world every day.
    In a time of constrained budgets and higher costs, in-depth 
analysis is required to effectively prioritize our needs. We must 
understand the vital role we play in supporting our Nation's defense 
and concentrate our resources in areas that will give us the most 
return on our investment. Optimizing the capabilities we present is a 
top priority, but we must simultaneously support our Airmen, giving 
them the opportunity to have a predictable service schedule that meets 
the needs of Reservists, their families and their employers.
    The Air Force Reserve must also remain flexible, capable of 
surging, refocusing, and continuously engaging without exhausting 
resources and people. Approaching fiscal year 2012 and beyond, it is 
imperative that we preserve the health of our strategic reserve and 
improve our ability to sustain our operational capability. Going 
forward, we need to continuously balance capabilities and capacity 
against both near-term and long-term requirements. The actions we 
initiated in 2010 and those we advance in 2011 will preserve the health 
of our force.

    Chairman Inouye. Thank you very much.
    Over the last several years, Reserve components have 
transitioned from strategic to operational, but annual budget 
requests have not been adequately addressed for additional 
equipment. Now, what remaining equipment shortfalls concern 
you, and how does this shortfall affect your ability to train 
and deploy?

                 EQUIPMENT SHORTFALLS AND MODERNIZATION

    General Stultz. Sir, on the part of the Army Reserve, as 
General Carpenter stated earlier with the Army Guard, one, 
thanks for the support we have received in the past years 
because we have gotten unprecedented levels of dollars to get 
new equipment. Unfortunately, we are still not there.
    If you look at the Army Reserve today, the good news is I 
can report about 90 percent of the equipment on hand that I am 
authorized. However, only about 65 percent of that equipment is 
modernized. And so, we still have a lot of legacy equipment. 
And in some areas, it is very severe because it is an aging 
fleet, and it is not a fleet that is deployable.
    An example I would use is if you look at my dump trucks in 
my engineer battalions, on paper it says I have 100 percent of 
the dump trucks that I am authorized. But only 26 percent of 
them are modernized. So almost three-quarters are the old 
legacy fleet. If you look at the MTVs--medium tactical 
vehicles--on paper it says I am at 92 percent authorized. But I 
am 25 percent modernized. So it is a legacy fleet.

                    TRAINING ON MODERNIZED EQUIPMENT

    And I could go on and on with that, the point being--to 
your point--if we are going to employ this force on the modern 
battlefield, we are going to have to employ it with the 
equipment that is used on the modern battlefield. If we are 
going to train the force back home, we are going to have to 
train them on the equipment they are going to operate on the 
battlefield.
    And that is where I am really concerned, is making sure 
that, just as you said earlier, every soldier we send into 
battle goes properly trained, properly equipped. We know they 
are going to be falling in on the latest and greatest equipment 
when they get to Afghanistan. The key is am I going to be able 
to train them back here on that same level of equipment so that 
when they get there, there is no training required. They can go 
immediately to mission.
    And just as importantly, for those Army Reserve soldiers 
who are coming back from their deployment--and oftentimes, 
their second and third deployment--can I keep them engaged back 
here during those off-years if they don't have the modern 
equipment that they have been operating? And they come back and 
say, ``Why am I wasting my time training on this obsolete 
equipment? I just was in Afghanistan, and I know what the 
modern equipment looks like.''
    So we have got a bill out there of something like $3.4 
billion just in shortages. But more importantly, I have got a 
bill of about $9 billion to get modernized where I need to be.

                       SUICIDE PREVENTION EFFORTS

    Chairman Inouye. Well, I would like to talk about the 
suicide rate. It has gone up 42 percent in 2010 with 50 
reservists taking their lives. I note that most of the suicides 
occurred while they were in the civilian status. What have you 
done to respond to this?
    Admiral Debbink. Mr. Chairman, I will offer a couple of 
programs that we have in the Navy Reserve that I think are 
particularly effective. And one of those is the Psychological 
Health Outreach Program.
    And with that program, we have a total of 25 psychological 
health outreach counselors stationed throughout the country, 5 
in each region, who are very proactive in reaching out to each 
of our sailors as they return from their mobilization, as well 
as being available as a constant resource to our Navy 
operational support centers throughout the country, should they 
identify a sailor in need.
    The other thing I would offer is that we have a very close 
relationship with the active Navy and the fleet and family 
service centers. That has improved greatly over the past 
several years. And we believe that is an engagement, one sailor 
at a time, that will have the greatest impact on reducing the 
suicide rate, which every single one is a tragedy.
    Chairman Inouye. Have you noted that the rate is coming 
down, or is it still the same?
    Admiral Debbink. We have been very fortunate, Mr. Chairman, 
in the Navy Reserve at least, maintaining approximately four 
suicides per year for the last several years, down from six 3 
years ago. As I said, though, every suicide is tragic, sir.

                         AIR FORCE WINGMAN DAY

    General Stenner. Senator, if I could add to that just a 
touch? I think that in the Air Force Reserve we have kind of 
flat-lined. Of course, zero is the place we want to be, but we 
have flat-lined on what we are, in fact, seeing happen. And a 
lot of that I attribute to leadership involvement.
    We have what we call a Wingman Day. And on Wingman Day, we 
take the time off to sit down with each other in the small 
groups that we have and discuss the kinds of things that go 
into de-stigmatizing any kind of thoughts that folks have, 
either if they have ideations--suicidal ideations--and/or if 
somebody sees something, they should not feel too hard over 
talking to that person. There is no stigma on either side of 
that.
    But along with the leadership intent comes some results. 
What I have seen and I have documented are six ``saves,'' if 
you will, in the last several months that could have turned 
into something tragic that was averted because we do have that 
leadership involvement. We have taken the time out of our 
schedules to do a Wingman Day.
    We are looking at resiliency training coming out of the 
theater, taking 2 days to go through a resiliency training 
center in Germany and getting those kinds of things talked 
about before they return to the States and then reintegrate 
with the families and the jobs.
    Leadership is a big deal, along with the rest of the ideas 
that are coming from leadership and coming with the programs 
that you have funded us with.
    Thank you.
    Chairman Inouye. General.
    General Moore. Yes, sir. As Admiral Debbink indicated, we 
are drawing very heavily on the regional siting of the mental 
health professionals. And I think that is paying real dividends 
and certainly a program that has earned its keep.
    We also, as General Stenner just mentioned, we do spend 
quite a bit of time on what I would call resiliency, hardening, 
with our combat operational stress programs, both pre- and 
post-mobilization. And then, finally, as we have for 235 years, 
we rely on small unit leadership, in particular our NCOs and 
staff NCOs. They know their marines.
    And when a marine is at risk because of stressors, both as 
a result of service and then also in his or her life outside of 
the Marine Corps, we rely on those NCOs and staff NCOs, in 
particular, to minister, if you will, to their marines.
    So the numbers are trending positively. I mean, one is too 
many. But nonetheless, this year is looking pretty good, 
compared to the last.
    Thank you.
    Chairman Inouye. You have had a pretty hefty deployment 
record. Let us see--60,000 reservists, and 20,000 have been 
deployed more than once. You keep track of all of those after 
they get back?
    General Moore. Well, we certainly try, sir.
    As you know, if a marine chose to drop from the active 
drilling Marine Corps Reserve to the Individual Ready Reserve 
after he or she returns from a deployment, they aren't seen 
quite as frequently if they are in the Individual Ready 
Reserve. But we do track as closely as we can and continue to 
be engaged with marines that have multiple deployments.
    I was with 1st Battalion, 25th Marines at Fort Devens 1 
week ago when we activated that battalion for its final workup 
and then deployment to Afghanistan. The sergeant major of that 
battalion, this will be his fifth combat deployment. He went 
twice as a gunnery sergeant, twice as a first sergeant, and 
then now going forward as a sergeant major.
    Chairman Inouye. Is the sergeant major here?
    General Moore. He is not with me today, sir. He is at Camp 
Pendleton with his battalion as they begin their final workup 
before they deploy in July.
    Chairman Inouye. General Stenner, the Air Force Reserve has 
had a very active time. I think you have had over 60,000 
reservists called into active service. To facilitate this high 
operational tempo, what are you doing?

                   AIR FORCE RESERVE OPERATIONS TEMPO

    General Stenner. Senator, that is a great question, and I 
am very proud that we have had 60,000 of our reservists, 75 
percent of our force, has raised their hand at least once to do 
what this Nation has called them to do and what they have 
volunteered to do.
    I have got to tell you, they are doing a great job around 
the world with a three-component Air Force that is seamlessly 
integrated, trained to the same standards. And that, to me, is 
a big part of what we are doing to facilitate keeping that 
force strong and keeping that force in a ready state, but not 
overusing the force and monitoring the dwell that we have that 
is facilitated by the structures that we have called 
associations, where we put active, Reserve together or Guard 
and Reserve together and have a package of capability that can 
flex and surge as required by this Nation, which allows us to 
monitor and manage that all-important dwell, that time back 
home, back to their employers, back to their families.
    And more of that will have to happen as we rebalance this 
force to maintain that ready force, rebalance it, and thereby 
support it, with the help of this subcommittee and the 
appropriations that come. Make it ready, keep it ready, 
rebalance it where the mission sets require it, and we will be 
that operational force that is leveraged from a strategic 
reserve, integrated seamlessly with our active and Guard 
partners.
    Chairman Inouye. I have several other questions I would 
like to submit to all of you, and if you would give me a 
response, I would appreciate it very much.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, I know that each chief has 
indicated they would like to have their service to be involved 
in Federal call-up, not only active duty military-type 
operations, but also in case of natural disasters.
    And I asked a question of an earlier panel about the 
capability of responding and what we could do to be helpful. 
And I wonder, in this situation, there is no certainty about 
what is going to happen with these emergency call-ups. Do you 
think you are organized to respond?
    And I will ask each of you that question. When, under the 
law, the President calls up Reserve units for active duty, is 
there anything we need to do in terms of appropriating for a 
special account to set aside for such operations, or can you 
manage that within your ability to borrow and then get 
reimbursed later from other accounts? What is your reaction to 
that?
    General Stenner.

            AIR FORCE RESERVE RESPONSE TO NATURAL DISASTERS

    General Stenner. Sir, I will start the conga line here with 
the responses. But are we organized to respond? As an Air Force 
Reserve and as a three-component Air Force, I do believe we 
have the ability to respond. And we will respond when there is 
life or limb at risk, and we will worry about how to get paid 
later.
    That happens, I think, on a more frequent basis than we 
might know because there are things going on across this 
country that need that kind of timely response.
    We are working today with our combatant command partners 
and the joint staff to figure out if there is, in fact, a more 
efficient way to do that. If there was some kind of a 
guaranteed funding stream, I am certain that that would be very 
much of an enticement to say, ``No worries, we will just keep 
on going.''
    But I will tell you that we haven't used that ``can we get 
reimbursed or not'' as the key to ``will we respond?'' We will 
respond, and we are working hard to make sure that we can send 
a unit, we can send a piece of a unit, or we can send an 
individual as required.
    Senator Cochran. Admiral.

                        RESERVE CALLUP RESPONSE

    Admiral Debbink. Senator Cochran, I am very pleased with 
the way the Navy and Navy Reserve is organized to respond to 
situations like Operation Tomodachi and Operation Odyssey Dawn, 
just most recently.
    Literally, in less than 24 hours, we had Navy Reserve 
sailors flowing to both of those, based upon the usage of our 
Navy Reserve order writing system and other electronic systems 
we had to notify people of the opportunities. So that is 
working well.
    With regard to the funding issue, my belief is that each of 
the services--in my case, the Navy--should be able to handle 
that within our MPN account. Because the opportunity to utilize 
these sailors will be such that it should be able to flow right 
in there side by side with the active duty. So I don't believe 
we need any additional funding.
    However, as I mentioned in my opening statement, the 
authority to deploy these sailors is important in a security 
force assistance environment in the future. And I believe that 
proposal is before you during this Congress.
    Senator Cochran. Thank you.
    General Stultz.

               ORGANIZED TO RESPOND TO EMERGENCY CALLUPS

    General Stultz. Yes, sir. First, are we organized? Yes, 
sir, exactly. We, in the Army Reserve, are organized with 
functional command and control structure across the United 
States. So, for instance, between the Army Reserve and the 
National Guard, we have 75 percent of the engineer capability 
of the Army in our ranks.
    Now, within the Army Reserve, I have two engineer commands, 
two two-star commands, who command the engineer brigades and 
the engineer battalions within the Army Reserve. So they can 
call, they can direct, they can command and control those 
formations across the country.
    One of those two-star commands is the 412th Engineer 
Command in Vicksburg, Mississippi. And so, the commander of the 
412th Engineer Command has one-half of the Army Reserve's 
engineer capability at his behest because he commands them. He 
has authority over them.

                TITLE X AUTHORITY FOR EMERGENCY CALLUPS

    So we are organized to respond with command and control, 
with capability, wherever needed. Do we have the authority? No. 
Currently, for the homeland, as you well know, for use of the 
title X reserve on an involuntary basis is limited to weapons 
of mass destruction instances.
    And we have proposed that that really is not fully utilized 
in the resources and the assets that we have available. The 
National Guard is going to always be the first military 
responder because the Governor has the capability in 
Mississippi to activate his National Guard, and they come forth 
and do a wonderful job.
    It is only when that State goes and says, ``We need more 
help beyond our capability, and we need Federal help,'' that we 
go to the Federal forces. But today, most likely, you will get 
the 82d Airborne coming from Fort Bragg, North Carolina, when, 
within the State of Mississippi, all of us sitting here 
probably have resources that are available, that are willing, 
and that are citizens of that State.
    So they have a vested interest in responding to those 
floods or whatever, if needed. And the other taxpayers within 
that State look and say, ``Why aren't they being utilized? We 
paid our tax dollars to buy that equipment for that engineer 
unit or for that medical unit or for that Medevac unit, or 
whatever. Why aren't they being utilized to help us when we 
need them?''
    And so, that is one area where we say we just need the 
authorities looked at to say we don't want to be the National 
Guard. We want to be the Federal, but let us be the Federal 
first response versus the active component, when we are 
available and we have the capabilities.

           ACCESS TO ARMY RESERVE FOR NON-EMERGENCY MISSIONS

    The second area, as Admiral Debbink has indicated, is for 
the overseas-type mission sets, the security cooperation 
theater engagement, those types, same thing.
    Give us the authority for the Secretary of Defense or the 
Secretary of the Services to utilize us when it is not a named 
contingency like New Dawn or Iraqi Freedom or Enduring Freedom, 
when it is just a need, and we need a Reserve unit to come in 
for 60, 90 days to help us out, provide medical support, 
whatever it is, to this Nation.
    Give us the authorities there. I think if we get the 
authorities, the funding streams will be worked out because the 
combatant commands have those types of funds for theater 
engagement. And as we have seen back home with FEMA and the 
other streams there, there are funds to respond for natural 
disasters. We will work that out once we get the authorities.
    Senator Cochran. Yes. Thank you, General Stultz.
    General Moore.

                      RESERVES AS FIRST RESPONDERS

    General Moore. Sir, we are organized to respond. Our 
capabilities are scalable and flexible. So I can answer ``rog'' 
on that one, or yes.
    As each of the other flag officers have indicated, it is 
the authorities piece that currently needs some attention. I 
think there are two legislative proposals up here, both for, 
let us call it OCONUS use, not named contingency operations, 
and we have all had an opportunity to participate in the making 
of that piece of sausage as it got out of the building and came 
over this way.
    And then, second, as you have put your finger on, the use 
of title X forces inside the continental United States for 
something other than for weapons of mass destruction. And 
again, I believe there is a legislative proposal over here that 
you will see certainly either as part of the NDAA 12 or 
attached to some other piece of legislation.
    So if the authorities are in place, our abilities, our 
capabilities are there. And I think, as each of the generals 
have said, if tasked through the global force management 
process, then we certainly would respond, and we are ready to 
do so.
    Senator Cochran. Thank you very much.
    General Moore. Yes, sir.
    Senator Cochran. Thank you, Mr. Chairman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Chairman Inouye. General Stultz, Admiral Debbink, General 
Moore, and General Stenner, the subcommittee thanks you for 
your testimony and for your service to our Nation.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted to General Craig R. McKinley
            Questions Submitted by Chairman Daniel K. Inouye
                     army and air guard--equipment
    Question. General McKinley, the equipment levels of the Army and 
Air Guard have improved significantly in the last 4 years, in large 
part due to additional equipment funding provided by the Congress. The 
Army Guard now has 77 percent of its equipment requirements, up from 40 
percent in fiscal year 2006. How have these increases improved 
readiness, and what additional equipment challenges remain?
    Answer. A recently completed review of Army National Guard (ARNG) 
Equipment On-Hand (EOH) indicates that the ARNG units have an average 
of 88 percent of their authorized equipment. Since the end of 2006, the 
number of ARNG units that met minimum readiness standards for equipment 
on hand increased from 31 percent to 49 percent. Despite the overall 
improvement in the ARNG's equipping posture, critical shortfalls 
remain. Current equipment shortages, which constrain readiness, include 
medium tactical trucks and trailers (many are programmed for delivery), 
Warfighter Information Network-Tactical equipment (provides mobile 
satellite communication and ground-based network capabilities) and its 
associated command and control systems, Firefinder Radars, and the 
newer generation of engineer equipment.
    Question. General McKinley, what remaining equipment shortfalls are 
you most concerned about?
    Answer. The Army continues to improve the EOH and modernization 
levels for the ARNG. The ARNG's most critical equipment shortfalls are 
provided below:
  --General Engineering Equipment.--Horizontal/vertical construction, 
        diving, and firefighting equipment for Homeland Defense 
        Response missions.
  --Family of Medium Tactical Vehicles.--Replacement vehicles for 
        existing, nondeployable M35 series, and 800/900 series 2.5- and 
        5-ton trucks in the ARNG fleet.
  --Shadow Tactical Unmanned Aircraft System.--Equipment sets and 
        associated Shadow Crew Trainers are high-value intelligence, 
        surveillance, and reconnaissance assets for support of war-
        fighting missions across the full spectrum, as well as for 
        homeland emergency support to civil authorities.
  --Command Posts (Tactical Operations Center and Standardized 
        Integrated Command Post System).--Integrated command posts with 
        Force XXI Battle Command, Brigade and Below.
  --Chemical/Biological Protective Shelter.--Chemical, Biological, 
        Radiological, Nuclear, and Explosives (CBRNE) collective 
        protective systems for Consequence Management Response Force 
        (CCMRF) missions.
    The Air National Guard (ANG) is most concerned with the following 
equipment needs:
  --Upgrades to the fleet of 11 RC-26Bs to include flight deck 
        avionics, Electro-optical/Infrared Full Motion Video sensor 
        suite, Main Sensor Operator station, and communications suite. 
        The upgrades would align the fleet with the current capability 
        provided by the MC-12.
  --The ANG vehicle fleet which represents 15 percent of the vehicles 
        operated by the Air Force. Approximately 2,300 of more than 
        14,000 are replacement eligible/legacy vehicles. Each fiscal 
        year, between 200 and 600 vehicles become replacement eligible.
  --F-16 and A-10 recapitalization and modernization and reducing 
        current delays which are significantly impacting the aging 
        fleets.
               family support and yellow ribbon programs
    Question. Gentlemen, this subcommittee recognizes the contributions 
made by reservists over the past 10 years of war and wants to ensure 
that they and their families receive the support services they need. 
Outreach efforts such as the Yellow Ribbon Reintegration Program are 
particularly important for guardsmen and their families who are 
geographically dispersed across the country. Please update the 
subcommittee on your service's Yellow Ribbon efforts and their 
effectiveness.
    Answer. The National Guard Yellow Ribbon Reintegration Program 
supports servicemembers and their families with events and activities 
that focus on their physical, mental, social, spiritual, and financial 
wellbeing throughout the deployment cycle.
    In fiscal year 2009, the National Guard held 958 events in 353 
locations nationwide. A total of 63,775 service members attended these 
events, along with 31,674 family members. Each event, on average, drew 
100 attendees. In fiscal year 2010, the National Guard held 1,657 
events in 498 locations nationwide. A total of 127,844 servicemembers 
attended these events, along with 125,255 family members. Each event, 
on average, drew 153 attendees. For fiscal year 2011, as of March 31, 
2011, the National Guard has held 964 events in 352 locations 
nationwide. A total of 53,871 servicemembers attended these events, 
along with 50,011 family members. Average attendance at these events 
has been 153 attendees.
    The National Guard utilizes After Action Reports to determine the 
effectiveness of individual events. Participants are asked to complete 
surveys to provide feedback on the information they received regarding 
resources available to them and their families throughout the 
deployment. Participants are also asked to provide feedback on 
information received about the benefits they have earned as a result of 
being deployed, and how to access these benefits. In an effort to 
expand the support and services that are provided, the National Guard 
is focusing on collaboration, communication, and training in order to 
reinforce a seamless, comprehensive network of support services. This 
initiative will allow the National Guard to reach a wide range of 
stakeholders by providing training on best practices using a variety of 
tools (i.e. classroom, e-learning and virtual workshops), while 
ensuring services provided recognize the unique, State-oriented needs 
of the National Guard, and are also applicable to all Reserve 
Components.
    Question. Are family support programs fully funded in the fiscal 
year 2012 budget request? Are there programs, from your perspective, 
that could be improved?
    Answer. Family Assistance Centers are funded at $26 million in the 
base. Overall, $71 million exists in validated requirements. Family 
Readiness Support Assistants are funded at $15.6 million in the base, 
while $17.5 million exists in validated requirements. Child and youth 
programs are funded at $28 million in the base while there is $68.3 
million in validated requirements.
    We are continually improving our family support through improved 
training, expansion of our volunteer network and coordination with 
other support networks including other military programs, Federal and 
local government, and the private sector. We are very excited about the 
work being done through the Chairman of the Joint Chiefs of Staff 
Family Support meeting to revitalize Inter-Service Family Assistance 
Committees in support of all military members, their families and 
veterans. Inter-Service Family Assistance Committees are voluntary 
military/community coalitions that facilitate support through a series 
of networks. Through these networks, we will continue to work toward 
increased collaboration, cooperation, and communication.
          national guard and reserve equipment account (ngrea)
    Question. Gentlemen, this subcommittee recognizes the importance of 
providing the Guard funding for necessary new equipment and 
modernization of aging equipment and have consistently done so through 
the National Guard and Reserve Equipment Appropriation (NGREA). Please 
describe the importance of this additional funding to providing 
Critical Dual-Use (CDU) equipment for the Guard.
    Answer. The Army continues to address shortfalls in the ARNG while 
striving to modernize ARNG capabilities. The ARNG estimates it needs 
$3-$4 billion in annual programmed funding to maintain interoperability 
with Army units, sustain current EOH levels, and continue modernizing 
our equipment. The additional funding the ARNG receives from the 
Congress through the NGREA enables the ARNG to enhance the Army's 
already robust procurement plans, by focusing complementary funding on 
CDU equipment.
    The Family of Medium Tactical Vehicles (FMTV) is one of the 
mainstays of CDU equipment and continues to play an integral part in 
most ARNG missions. As such, the ARNG has invested large portions of 
the NGREA funding in modernizing its Medium Tactical Vehicle (MTV) 
fleet. Funding from fiscal years 2008-2010 the NGREA allocated for FMTV 
will result in the modernization of 12 percent of the ARNG's MTV fleet.
    The ARNG has also invested the NGREA funds in Tactical Battle 
Command Systems to enhance interoperability with Army units. 
Specifically, the ARNG invested the NGREA funds in CDU systems, such as 
the Tactical Operation Combat System, Standard Integration Command Post 
System (SICPS), and Warfighter Information Network-Tactical. These 
systems provide standardized communication infrastructure for 
commanders and staff to digitally plan, prepare, and execute operations 
related to their missions. With the NGREA funding, the ARNG was able to 
purchase SICPS and Command Post Platform systems for more than 47 
brigade/battalion level units.
    The ARNG continues to posture itself toward the Army's full-
spectrum, ARFORGEN-based Equipping Strategy, by focusing on 
modernizing, improving equipment interoperability, and emphasizing CDU 
equipment. As a result of significant Army investment in ARNG equipment 
and the generous support from the Congress, the ARNG equipment on-hand 
percentage has risen to 88 percent, and the ARNG has 89 percent of its 
CDU EOH, as of March 2011.
    The NGREA is the life blood of the ANG modernization efforts. The 
Active Component's emphasis is on long-term recapitalization as 
Department of Defense budgets flatten, which increases the importance 
of the NGREA for modernizing legacy ANG aircraft. In addition, the 
Active Component has not yet recognized the unique requirements driven 
by the ANG's domestic mission--the NGREA is the primary means to 
fulfill these current domestic capability shortfalls.
    Question. Historically, the Department has had some trouble in 
obligating the NGREA funds in a timely manner. Please provide an update 
on current obligation rates.
    Answer. The ARNG obligation rates for the NGREA have significantly 
improved in the past 12 months, through the implementation of better 
business practices and communication with Department of the Army and 
Program Manager Offices. The ARNG NGREA obligation rates for fiscal 
year 2009 and fiscal year 2010 exceed both congressional and Office of 
the Secretary of Defense obligation standards. The ARNG NGREA 
obligation rates as of June 2011 are as follows: fiscal year 2009--98 
percent; fiscal year 2010--88 percent.
    The ANG changed the NGREA planning and execution process to meet 
the Office of the Secretary of Defense (OSD) goal of obligating 80 
percent of procurement funds in the first fiscal year of the 
appropriation. The Air Force is also providing assistance by issuing 
policy letters that will drive process changes to speed obligations. 
The ANG NGREA obligation rates are now within OSD standards, and as of 
June 2011 are as follows: fiscal year 2009--93.5 percent; fiscal year 
2010--83.5 percent.
                       hawaii army national guard
    Question. General McKinley, the National Guard Bureau (NGB) plans 
to relocate a Battalion Headquarters 29th Infantry Brigade from the 
Hawaii Army National Guard to the California Army National Guard upon 
conversion from the Brigade Special Troops Battalion (BSTB) to a 
Brigade Engineering Battalion (BEB). I am concerned that moving the 
headquarters to California would adversely affect Hawaii's homeland 
response capability, since this unit is currently dual-missioned as the 
command and control element of Hawaii's Chemical, Biological, 
Radiological and Nuclear Response Force Package (CERFP). Please provide 
an update on the decision to relocate the headquarters.
    Answer. The BEB Force Design Update (FDU) is pending approval by 
the Army Chief of Staff. It is one of several initiatives under 
consideration in the Total Army Analysis (TAA) 14-18. Until TAA 14-18 
resourcing requirements are clear--we anticipate this will be in 1st 
quarter fiscal year 2012--the ARNG will not make the BEB-related 
stationing decisions. Additionally, we will review the Hawaii National 
Guard's total force structure to ensure they have the necessary 
capabilities for homeland response.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                       marijuana on public lands
    Question. In the President's fiscal year 2012 budget, $179.7 
million is requested to support States' programs, again including 
eradication of marijuana on public lands.
    How effective can the National Guard be in fiscal year 2012 in 
eradicating marijuana on public lands without the kind of additive 
funding that was provided in fiscal year 2011? What would our 
operations look like without an additional $50 million?
    Answer. There is a direct correlation between funding and manning 
and results. By providing additional funding to State National 
Counterdrug Programs, they are able to resource more personnel to 
priority law enforcement counternarcotics missions and significantly 
impact there operations in a positive way. Marijuana eradication on 
public lands has historically benefited from additive funding. Without 
additive funding, all programs will be forced to curtail support 
operations to include priority missions aimed at specific threats. The 
second and third order of effects of no additive funding will sharply 
impact remaining priorities; thus, potentially allowing the always 
adapting threat to thrive in areas not fully resourced to meet 
requirements. Marijuana eradication is a deliberate 6-9 month operation 
for many States. Additive funding, if provided, is required early in 
the planning process to adequately meet customer requirements and also 
permit State programs to efficiently execute the additional resourcing.
    Without an additional $50 million, operations would be reduced from 
the fiscal year 2010 in the following manner: aviation reconnaissance 
would be reduced anywhere between 25-40 percent; high-priorities States 
could be impacted even more, potentially up to 50-60 percent of their 
historical support operations; and finally eradication efforts would 
not be in place to removed anywhere between 600,000 and 900,000 plants 
for fiscal year 2012.
    Question. How much of the National Guard's counterdrug funding is 
used for the eradication of marijuana on public lands? What other areas 
is it used for?
    Answer. For fiscal year 2010, 13 percent of the State Plans budget 
was used for aviation reconnaissance. Approximately 90 percent of 
aviation reconnaissance is used for marijuana spotting on public lands. 
This equates to a dollar value of $26.7 million for fiscal year 2010.
    For fiscal year 2011, 16 percent of the State Plans budget was used 
for aviation reconnaissance. Approximately 88 percent was used for 
marijuana spotting on public lands. This equates to a dollar value of 
$33.1 million for fiscal year 2011.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
   s. 325, embedded mental health providers for reserves act of 2011
    Question. General McKinley, I am very concerned about the 
increasing rise in Guardsmen suicides. I know it can be challenging to 
reach out to servicemembers are they return to their communities, but I 
feel more can be done. The California National Guard has embedded part-
time providers at some of their armories and they have noticed a 
dynamic increase in self-referrals over time.
    Do you think programs such as Embedded Mental Health Providers will 
increase the trust between Guardsmen and mental health providers; 
ultimately reducing some of the stigma associated with seeking mental 
health care?
    Answer. We do. One of our most interesting initiatives is a 
California National Guard (NGCA)-TRIWEST sponsored embedded counselor 
pilot program that started in 2006 and continues today. The program 
data elements collected so far indicates trust has been established.
    In 2006, only 36.28 percent of contacts by Guard members to 
embedded counselors were ``self-referred''; a Guard member initiated 
contact. To date, more than 50 percent of our Guard members are 
choosing to ``self-refer'' to an embedded counselor. In 2006, more than 
10 percent of Guard members were referred to an embedded counselor by a 
commander. To date, less than 3 percent are being referred by 
commanders. In 2006, 2.64 percent of the referrals were made by peers. 
To date, there have been no referrals suggested by a peer. Increased 
self referral rates, decreased command requested referrals, and a 
decrease in peer suggested referrals, most likely indicate either a 
reduction in stigma or an increase in trust associated with those 
seeking counseling services.
    In addition, most of the embedded counselors have remained with the 
units of original assignment. All have recently elected to continue 
contracting with TRIWEST in the embedded counselor program. Retention 
rates are indicators of positive job satisfaction; and clearly the 
embedded counselors must believe their efforts are making a difference.
    The design of the embedded counselor program places providers in 
high-risk units, at armories and wings well before deployment allowing 
``relationships'' to become well established. While Guard members are 
deployed, families and Guard members who have not deployed, have a 
familiar and reliable resource available to them.
    It is well known that cohesiveness is an important factor within 
military units and trust is critical. We believe the embedded counselor 
program has forged a bond between our embedded counselors and our Guard 
members beyond initial expectations.
    Question. Post-deployment, where do National Guard members and 
their family members turn for support when the member is not on Active 
Duty status?
    Answer. Many National Guard servicemembers are remotely located 
(isolated) in terms of support systems when released from Active Duty.
    Because of the existing relationship with the embedded counselor in 
a specific unit, the opportunity for critical intervention is greatly 
enhanced. Access to mental health care has been a continued challenge 
for the members of the National Guard. The majority of clinical 
referrals are made to local and county mental health departments.
    One of our most interesting initiatives is a NGCA-TRIWEST sponsored 
embedded counselor pilot program that started in 2006 and continues 
today.
    During the past 16 months, the NGCA has met and briefed nearly all 
of the 58 California county directors and staff members on the embedded 
counselor program and feedback has been enthusiastic and supportive. 
Through these discussions, a need for ``military culture'' training was 
identified, developed and currently more than 20 counties and 1,000 
civilian providers have received this important orientation, which is 
critical to understanding the nuances associated with deployment and 
combat stress. In addition, the NGCA has initiated a behavioral health 
outreach effort to enhance the embedded counselor program with ``strike 
team'' capability to respond to critical incidents.
    Most recently, in order to provide empirical data to the embedded 
counselor model, the Walter Reed Army Research Institute has initiated 
a research study involving 12 units scheduled to deploy in 2011. The 
results of this study may provide conclusive data as to the efficacy 
and cost effectiveness of the embedded counselor program model.
                  national guard military construction
    Question. General McKinley, 40 percent of Army National Guard 
Readiness Centers are more than 50 years old, including some in my 
State of Washington. I am very concerned that after serving with their 
Active-Duty counterparts in state-of-the-art facilities on deployment, 
our servicemembers return home to insufficient facilities.
    Has the National Guard reviewed the condition of all of their 
facilities as a whole?
    Answer. Yes, each quarter the Army National Guard (ARNG) captures 
the condition of all federally supported facilities, and updates the 
Army Installation Status Report (ISR) database. Each State, Territory, 
and the District of Columbia captures information on a variety of 
condition factors for each facility and provides analysis of the 
overall facility condition.
    In addition, Senate Report 111-201 (Senate Armed Services 
Committee) directed the Secretary of the Army to conduct an independent 
study of all Army National Guard Readiness Centers. This study--
considering several criteria, including size and condition--is in the 
pilot stage and defining the standards and methodology for conducting 
the study.
    Also, each year the Air National Guard (ANG) base leaders conduct 
facility assessments, prioritize requirements through a facility board 
process composed of senior leaders at the installation, and forward the 
prioritized requirements to the Installations and Mission Support 
Directorate at the National Guard Bureas (NGB) for inclusion in 
upcoming Sustainment, Restoration, and Modernization or Military 
Construction (MILCON) programs. While the ANG does have facility 
modernization needs, the sufficiency of our facilities continue to meet 
our airmen's needs.
    Question. How will the decrease in the MILCON funds in future years 
affect the ability to modernize and improve the quality of the 
facilities used by Guardsmen nationwide?
    Answer. The ARNG and its facilities will be adversely affected if 
the MILCON funds decrease in future years, as of today, 40 percent of 
the ARNG's 26,000 facilities are more than 50 years old in the States, 
Territories, and District of Columbia. Assuming current projected 
MILCON funding levels, the ARNG will replace less than 1 percent of 
these aging facilities each year. The result is an ARNG force supported 
by rapidly aging and outdated facilities that are inadequate to support 
operation readiness, and, because these facilities are not energy 
efficient, the structures are far more expensive to maintain.
    Decreased MILCON funding in future years will also adversely affect 
the ANG's ability to modernize and improve the quality of facilities 
used by Guardsmen. The ANG MILCON requirements are considered by the 
Air Force based on mission requirements and the merits of each project, 
and then ranked in priority with all Air Force and Air Force Reserve 
submissions. Each year the Air Force develops a total-force (ANG, 
Active Duty, and Air Force Reserve) prioritized list of new mission 
bed-down project requirements to address the needs for missions being 
changed, and a prioritized list of current mission recapitalization 
project requirements to address needs of existing missions with aging 
or degraded facilities.
    If future conditions fiscally constrain the Air Force MILCON 
program, fewer projects can be funded. A constrained MILCON program may 
only allow the Air Force to fund ``must do'' projects to bring new 
weapons systems on line, which may force difficult choices to defer 
current mission requirements. Should this lead to further constraints 
on the ANG MILCON funding, the ANG will continue to apply available 
sustainment, restoration, and modernization funds to existing 
facilities in order to keep the ANG missions viable as long as 
possible.
    Question. Is there a backlog of MILCON projects that need to be 
addressed? How large is it in cost?
    Answer. Yes, the Army ISR reflects a $28.2 billion backlog in 
MILCON. Today, 40 percent of the ARNG's 26,000 facilities are more than 
50 years old. Many of these older ANG facilities meet neither current 
anti-terrorism/force protection requirements, nor demographic shifts in 
population, and current square footage deficits have a direct effect on 
ANG mission readiness.
    The ANG submitted a fiscal year 2013-2016 Future Years Defense 
Program (FYDP) with requirements for major construction, unspecified 
minor military construction, and planning and design totaling more than 
$538 million. In addition, subject to the provisions of title 10, 
Section 10-543, the ANG submitted to Congress a prioritized list of 
more than $163 million in requirements that could be included in the 
FYDP, should additional capacity be provided through congressional 
action. These two prioritized lists of requirements, when combined, 
would exceed $700 million; thus, the ANG MILCON backlog of requirements 
is at least this large.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
                      army national guard director
    Question. General McKinley, which is more important to the National 
Guard Bureau (NGB) and the effective operation of the Army Guard: 
getting a Director of the Army Guard nominated and confirmed, or 
getting a three star Vice Chief position for the Bureau?
    Answer. The most immediate need is for a Director of the Army 
National Guard (ARNG) to be confirmed as soon as possible. The position 
has been encumbered by an Acting Director (two-star) for more than 2 
years, and a permanent three-star is needed in order for ARNG equities 
to be appropriately represented at the highest levels of the Army. At 
the same time, converting and upgrading the current Director, NGB Joint 
Staff billet to a three-star Vice Chief, the NGB is imperative. The 
establishment of the NGB as a Joint Activity of DOD and elevation of 
the Chief, the NGB to a four-star in November 2008 added significant 
new roles and responsibilities. The commensurate increased requirements 
within Joint decisionmaking forums, all requiring three- or four-star 
level participants, drive the re-establishment of the Vice Chief, NGB 
position.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell
    Question. What impact have National Guard counter-drug operations 
had on drug production? Why had this funding not been previously 
included in the National Guard's budget request? What steps does the 
National Guard Bureau (NGB) intend to take to keep these operations 
going in the future?
    Answer. In fiscal year 2010, the National Guard Counterdrug Program 
(NG CDP) assisted law enforcement in eradicating more than 10.1 million 
marijuana plants across the Nation. Of those, more than 7.6 million (or 
75 percent) marijuana plants were eradicated in the marijuana seven 
States (Hawaii, Washington, Oregon, California, West Virginia, 
Tennessee, and Kentucky).
    Each year, funding for the NG CDP is included in the President's 
budget request. Funding has been requested in the Program Objective 
Memorandum process to include additional unfunded requirements 
throughout the Future Years Defense Program (FYDP).
    Question. I am told that the National Guard will allocate proposed 
fiscal year 2012 counterdrug funding to States through a ``threat-based 
model'' formula. What facts and criteria were crafted for this model to 
be based on? Given that Kentucky consistently ranks as one of the top 
three States for marijuana production, where does Kentucky rank, 
according to this formula, in terms of States with serious drug 
threats? What will be the percent increase or decrease in funding for 
Kentucky compared to the fiscal year 2011 funding level? What rationale 
does the NGB have for this change in funding for Kentucky?
    Answer. The NG CDP is employing a new Threat Based Reduction Model 
(TBRM). This model uses an objective, threat based resourcing model 
that provides the Governors funding commensurate with their threat 
level yet flexible enough from year to year to adjust resourcing to 
meet emerging threats and the needs of our stakeholders and customers 
(States, law enforcement agencies, and community-based organizations)
    To properly identify the threat for each State, six separate 
vulnerability categories, or clusters, were identified that quantified 
the theat. These clusters align with the established National Drug 
Intelligence Center and NG CDP State Plan identification of threat 
criteria. These areas are: production, distribution, transportation, 
abuse, illicit finance and a catch-all cluster called related data. 
These areas are defined below:
  --Production.--Production vulnerabilities include producing crack 
        cocaine from powder, growing marijuana both indoor and outdoor, 
        and methamphetamine laboratories. These identify production 
        trends associated with drug-trafficking organization (DTO) or 
        criminal gangs.
  --Distribution.--Distribution vulnerabilities include a specific DTO 
        or criminal gang and methods of distribution such as an illicit 
        Internet pharmacy.
  --Transportation.--Transportation vulnerabilities include major 
        highways, ports, airports, points of entry, borders, offshore 
        locations, corridors passing from one State to another State, 
        or a High Intensity Drug Task Area.
  --Abuse.--Drug abuse vulnerabilities include sociological impact and 
        consumption amounts by demographics.
  --Illicit Finance.--Illicit finance includes common money laundering 
        techniques such as the use of digital currency over the 
        Internet, use of foreign banks or wire transmitters.
  --Related Data.--Those variables that do not fit into the above 
        categories yet still have impact and require inclusion. These 
        include interdiction, population and other contributing factors 
        that are not accounted for in the State plan process.

------------------------------------------------------------------------
                                     Distribution       Illicit finance
          Abuse cluster                 cluster             cluster
------------------------------------------------------------------------
Substance abuse treatment         Number of cities    Number of currency
 admissions (Ages  12-17).         reporting a         seizure incidents
                                   Mexican DTO         at ports of entry
                                   Presence.           or on internal
                                                       highways
Illicit drug use rates in the     Gang members per    Number of SARS
 past month.                       capita.             money laundering
                                                       cases
Illicit drug dependence in the    ..................  Amount of currency
 past year.                                            seized at land
                                                       ports of entry or
                                                       on internal
                                                       highways
Substance abuse treatment
 admissions (not including
 alcohol) (all ages).
Drug abuse violations...........
Rates of abuse for cocaine,
 heroin, marijuana, and
 methamphetamine.
Prescription drug abuse.........
------------------------------------------------------------------------

    The threat input from State counterdrug coordinators and 
Interagency partners is ongoing. The results of the model will not be 
known until mid-June at that time determinations for individual States 
will be made.
    The rationale comes from both Office of National Drug Control 
Policy (ONDCP) and the Deputy Assistant Secretary of Defense of 
Counternarcotics (DASD/CN) As of May 1, 2007, the ONDCP directed ``all 
national drug control programs to have a performance reporting program 
as an integral part of the agency's budget and management process.''
    The NG CDP's TBRM is the culmination of a 3-year effort to 
implement a more objective, threat-based methodology for determining 
overall threat levels within the States to better apportion individual 
State program appropriations. The ultimate objective is to allocate 
resources against the threat for the purpose of achieving clear 
outcomes under the National Security Strategy, National Drug Control 
Strategy and the Department of Defense Counternarcotics & Global 
Threats Strategy.
    If Kentucky's funding is reduced, it will be threat based and be 
supported by the customer's that request support in Kentucky, as well 
as supporting objectives and goals outlined in DASD/CN&GT and ONDCP 
strategies.
                                 ______
                                 
      Questions Submitted to Lieutenant General Harry M. Wyatt III
            Questions Submitted by Senator Dianne Feinstein
                          firefighting support
    Question. As you may know Lieutenant General Wyatt, the U.S. Forest 
Service (USFS) currently only has access to 19 firefighting aircraft in 
addition to your 8 planes. These planes are old, and they are all 
nearing the end of their operational service life. In order to make up 
this shortfall, some have proposed expanding the Air National Guard's 
(ANG) involvement in the firefighting mission.
    What is the status of the effort to obtain joint-use C-130J's to 
supplement the Guard's needs as well as the aerial firefighting needs 
of the USFS?
    Answer. The ANG is currently working with the Department of 
Agriculture and the Department of the Interior to examine how this can 
be accomplished. The ANG continues to work with the DOD on completion 
of the report on the joint use of Federal forest firefighting assets 
and C-130 firefighting capability, as required by the Fiscal Year 2010 
Defense Appropriations Bill. In addition, the ANG is examining the use 
of a ninth Modular Airborne Fire Fighting System and the best location 
to use that equipment. The pending RAND Studying (commissioned by the 
USFS to look at the possible purchase of additional C-130J's) will also 
help define the future strategy.
    Question. If additional planes were acquired, would the arrangement 
allow them to respond to a wildfire at a moment's notice? Would there 
be restrictions on the use of the planes that prohibit them from being 
used to perform initial wildfire attack?
    Answer. Yes. If deliberate planning is used, proper scheduling is 
defined, and an appropriated budget in place. There is no impediment to 
having our crews perform initial attack. The crews simply need to be 
properly trained and certified by the USFS.
    Question. If additional planes were acquired, would the planes be 
available for the duration of the fire season--between June and 
November in California--or would there be other demands that would 
render the planes unavailable for extended periods of time?
    Answer. There will always need to be a balance between the war-time 
mission and our domestic operations responsibility. Through proper 
scheduling of aircraft, aircrew, and maintenance personnel, aircraft 
and crews would actually be more available than they are currently to 
the State of California and other States.
                                 ______
                                 
                Questions Submitted by Senator Herb Kohl
    Question. Recently, the Air Force and National Guard Bureau (NGB) 
announced a decision to reduce the Primary Aircraft Authorization (PAA) 
at Truax Field in Madison, Wisconsin from 18 to 15 F-16 fighters. I 
understand that this was part of a larger reduction in the PAA for F-16 
fighters, which is being implemented over several years at many bases. 
According to General Schwartz, this decision was made early in 2006 as 
part of the President's budget for fiscal year 2008, and the Wisconsin 
Air National Guard was notified in December 2010 about this decision.
    When was the Air National Guard (ANG) notified of this decision? If 
the decision was made several years ago, why were the leaders in the 
Wisconsin ANG notified only recently?
    Answer. The decision to reduce the PAA at Truax Field was made 
early in 2006 in conjunction with the ANG as part of the fiscal year 
2008 President's budget. Due to the restrictions placed on release of 
information contained in the President's budget, the Air Force provides 
a force structure announcement in the fiscal year prior to 
implementation. The NGB provides a more specific announcement to the 
Adjutants General following the Air Force announcement. However, in 
this case the leadership of the Wisconsin ANG was informed of this 
action in December 2010 by the Director, the ANG, approximately 5 
months prior to the planned official force structure announcement.
    Question. Your testimony stressed the importance of maintaining the 
readiness of the ANG to be an operational partner of the Active Duty 
Air Force.
    Will the readiness of the fighter wing at Truax Field be impacted 
by the loss of flying hours from the reduction of three F-16 fighters 
in their primary aircraft authorization?
    Answer. Yes, the reduction of 3 PAA of Block 30 aircraft, resulting 
in 15 PAA incurs more risk by the Wisconsin ANG, due to the decrease in 
manpower and the loss of 720 flying hours. Due to the decrease of PAA, 
the unit will need to eliminate one full-time maintenance position and 
76 part-time maintenance positions. Furthermore, the 115th Fighter Wing 
is an Air Sovereignty Alert (ASA) unit with an Air Expeditionary Force 
(AEF) rotational requirement. When mobilized for their AEF rotation, 
they are required to keep no less than ten Active Guard/Reserve pilots 
at home station to cover the alert mission, which is not possible to 
accomplish while supporting the AEF. Reduction from 18-15 PAA also 
directly impacts ability to support AEF. Six jets must remain behind 
plus associated support equipment for ASA commitment, leaving only nine 
jets remaining for AEF support.
    Question. General Schwartz stated that the reduction of F-16 
fighters in the ANG's primary aircraft authorization ``was a deliberate 
decision to accept near term risk while bridging to a fifth generation 
fleet.''
    As the Air Force transitions to a fifth-generation fleet, does the 
ANG plan to deliver fifth generation fighters to Truax Field?
    Answer. Burlington, Vermont has been selected as the preferred 
alternative for the first ANG F-35 location. Future ANG F-35 bed down 
locations have not yet been determined. While the ANG realizes the 
importance of future F-35 basing in the ANG, including Truax Field, 
analysis and responsibility for F-35 basing decisions resides with the 
Air Force's Executive Steering Group for Strategic Basing (ESG-SB). The 
ESG-SB will recommend F-35 basing candidates, including ANG units, to 
the Secretary of the Air Force and Chief of Staff of the Air Force for 
final selection, pending environmental analysis.
                                 ______
                                 
              Question Submitted by Senator Lisa Murkowski
            168th air refueling wing communications facility
    Question. The project is not in the administration's fiscal year 
2012 request. Is the Air Force aware of the urgently needed repairs to 
the 168th Air Refueling Wing's Communications Facility and, if so, when 
would we expect to see funds requested?
    Answer. The Air National Guard (ANG) is aware of the proposed 
project to add to and alter the communications building in the ANG area 
of Eielson Air Force Base. At the request of the leadership of the 
Alaska ANG, the project was submitted to the Congress with ANG's fiscal 
year 2010, fiscal year 2011, and fiscal year 2012 President's budget 
justification materials as a requirement in the Future Year Defense 
Program. Other requirements of higher priority have been placed in the 
President's budget ahead of this project, and the Congress has not 
accelerated the project from future years into a current budget. 
Considering the continuing requirement, senior leaders from the ANG 
Readiness Center visited the site, examined the facility, and proposed 
a way forward to accommodate significant portions of the mission within 
available resources. The ANG will propose an unspecified minor military 
construction project to satisfy facility size shortfalls, and fund a 
sustainment, restoration, and modernization companion renovation of the 
existing facility to provide a safe, capable communications facility 
for the Alaska ANG at Eielson AFB in fiscal year 2012.
                                 ______
                                 
       Questions Submitted to Major General Raymond W. Carpenter
            Questions Submitted by Chairman Daniel K. Inouye
                national guard southwest border mission
    Question. General Carpenter and General Wyatt, can you please 
update the subcommittee on the Guard's efforts on the Southwest Border? 
The original mission was scheduled to be completed by the end of June 
2011. Is this still on track?
    Answer. Since the National Guard reached full operating capability 
on October 1, 2010, National Guard forces have contributed to more than 
17,549 apprehensions and seizures of more than 52,000 pounds of 
marijuana on the Southwest Border. The National Guard's presence on the 
Southwest Border has made a measurable difference in curbing the 
thousands of weapons and $19 billion that are estimated to flow into 
Mexico annually. The National Guard has been actively coordinating with 
CBP and ICE and the 1,200 National Guardsmen from four States 
(California, Arizona, New Mexico, Texas) provided criminal 
investigative analysts and Entry Identification Teams in support of the 
Customs and Border Patrol along the Southwest Border. The Southwest 
Border mission will end on September 30, 2011.
    Question. Guardsmen were supposed to begin withdrawing from the 
border in May 2011. Has this drawdown begun as planned?
    Answer. The State drawdown plans have been adjusted so that the 
main drawdown will not being until after September 1, 2011, with a 
rapid drawdown instead of the gradual 4-month drawdown that was 
originally planned. The mission will end on September 30, 2011 per the 
request of the President.
                             suicide rates
    Question. General Carpenter, the Army Guard's suicide rate 
increased an additional 13 percent last year after a 75 percent jump in 
2009. To respond to the increasing rate of suicides, the Army has added 
mental health professionals and launched a suicide prevention education 
program. Do you think these programs effectively target the Guard and 
address the wellness of Guard members beginning with recruitment and 
continuing throughout their entire service in the Guard?
    Answer. Note: the Army National Guard's (ARNG) suicide rate 
increased 81 percent last year, after a 3 percent jump in 2009.
    The additional, Army-contracted mental health professionals are 
extremely limited in what they may provide to ARNG soldiers. An ARNG 
soldier on title 10 Active Duty status is able to receive treatment at 
a military treatment facility, Veterans Administration (VA) facilities, 
and Military Medical Support Offices in remote areas. However, an ARNG 
soldier on title 32 status (participating in Inactive Duty for 
Training--traditional, once-a-month, ``drill status''--or Annual 
Training (AT)) may only receive prevention, crisis intervention, and 
referral services from Behavioral Health Officers (BHO). In addition, 
BHOs are typically only accessible during unit IDTs and ATs. If the 
ARNG Soldier neither qualifies for VA coverage, nor holds private 
health insurance, then the BHO may attempt to assist the ARNG soldier 
in finding pro-bono treatment. The BHOs cannot develop a treatment plan 
with or for the ARNG soldier.
    Much like the Active Army, services and treatment for behavioral 
health issues of geographically dispersed soldiers are critical to 
allaying the suicide rate, particularly for the many ARNG soldiers who 
lack traditional health insurance coverage.
    To alleviate the strain on the force, the ARNG recommends the 
following minimum actions:
  --Army provides emergency behavioral healthcare services to uninsured 
        and underinsured servicemembers, regardless of duty status;
  --The ARNG is authorized full-time, uniformed behavioral health 
        personnel; and
  --Add and embed behavioral health professionals to high-risk units, 
        units who have experienced suicides, soldiers killed in action, 
        or intense/prolonged combat.
    Question. General Wyatt, are you facing anything similar in the Air 
Guard with respect to suicide?
    Answer. After a low-suicide rate in 2008, we experienced a 65 
percent increase in 2009 and another 26 percent increase in 2010 for 
the highest rate we've had since tracking began. This year, we have 
lost nine members to suicide to date, compared to 9 of 19 at this time 
(June 15) last year. We have implemented a number of Air National Guard 
(ANG) initiatives and are continuing to build our Wingman Culture. Our 
primary fiscal year 2011 initiative is the embedding of Wing Directors 
of Psychological Health (WDPHs) in our 89 wings. These licensed mental 
health professionals provide consultation to wing commanders on wing 
psychological health issues and provide consultation, information, 
referral, and case management for airmen and their family members in 
need of assistance. Our Wingman Project provides training, awareness, 
and outreach to teach warfighters and their families how to identify 
symptoms of impending suicide and then intervene to save a life. The 
project provides customized marketing materials for each wing and 
provides tools accessible to airmen and their family members via a 
public website. We continue to train members how to assist fellow 
airmen in distress using the Ask, Care, Escort (ACE) suicide prevention 
model. We are having two Wingman Days this year, an opportunity for 
units to stand down and build resilience as a team, a key component in 
preventing suicide. The ANG suicide prevention booklets are being 
distributed to every airman. The Deployment Resiliency Assessment began 
April 1 and will aid in identifying and providing assistance to airmen 
at risk with an assessment prior to deployment and three follow up 
assessments. Our frontline supervisors in our high-risk-for-suicide 
career fields (security forces, communications, intelligence, and 
recommended for civil engineering) are being trained to identify and 
assist airmen in distress.
                    army guard equipment shortfalls
    Question. General Carpenter, in recent years the Army has made 
significant investments to more adequately resource the Guard and 
Reserve equipping requirements. The fiscal year 2012 budget request 
indicates that procurement funding for the Army Guard will decrease 
significantly from fiscal year 2012 onwards. Do you believe that the 
Army has adequately budgeted for Guard equipment requirements beyond 
fiscal year 2012?
    Answer. The Army continues to address shortfalls in the ARNG, while 
striving to modernize ARNG capabilities. The ARNG estimates it needs 
$3-$4 billion in annual programmed funding to maintain interoperability 
with Army units, sustain current Equipment On-Hand (EOH) levels, and 
continue modernizing ARNG equipment. Fiscal years 2012-2016 budgets 
average $2.4 billion per year for ARNG funding.
    Question. General Carpenter, what remaining equipment shortfalls 
are you most concerned about?
    Answer. The Army continues to improve the EOH and modernization 
levels for the ARNG. At this time, the ARNG's most critical equipment 
shortfalls are provided in the table below.

                        ARNG EQUIPMENT SHORTFALLS
------------------------------------------------------------------------
                  System                            Justification
------------------------------------------------------------------------
General Engineering Equipment.............  Horizontal/Vertical
                                             construction, diving, and
                                             firefighting equipment
                                             critically under filled.
                                             Required for Homeland
                                             Defense Response missions.
Family of Medium Tactical Vehicles (FMTV).  FMTV are replacement
                                             vehicles for existing,
                                             nondeployable M35 series,
                                             and 800/900 series 2.5- and
                                             5-ton trucks in the ARNG
                                             fleet.
Shadow Tactical Unmanned Aircraft System    TUAS equipment sets and
 (TUAS).                                     associated Shadow Crew
                                             Trainers are critically
                                             required high-value
                                             intelligence, surveillance,
                                             and reconnaissance assets
                                             for support of war-fighting
                                             missions across the full
                                             spectrum, as well as for
                                             homeland emergency support
                                             to civil authorities.
Command Posts (Tactical Operations Center   Integrated command posts
 & Standardized Integrated Command Post      with Force XXI Battle
 System).                                    Command, Brigade & Below
                                             continue to represent a
                                             critical shortfall for the
                                             ARNG.
Chemical/Biological Protective Shelter....  Chemical, Biological,
                                             Radiological, Nuclear, and
                                             Explosives (CBRNE)
                                             collective protective
                                             systems are required for
                                             Consequence Management
                                             Response Force (CCMRF)
                                             missions.
------------------------------------------------------------------------

                                 ______
                                 
              Questions Submitted by Senator Patty Murray
               national guard stryker brigade combat team
    Question. We in the State of Washington are very interested in 
adding a Stryker Brigade Combat Team (SBCT) to the ANG.
    How would an additional Stryker Brigade be beneficial to the ANG?
    Answer. The Army National Guard (ARNG) leadership validates the 
requirement for an additional Stryker Brigade in our Force Structure, 
based on a 2009 feasibility study. The ARNG study concluded that 
converting an existing Brigade Combat Team (BCT) to a Stryker Brigade 
would provide additional combat power, a more balanced mix of BCTs, and 
ensure relevancy within the Army Capstone Concept.
    A Stryker Brigade in the ARNG would be beneficial for many reasons:
  --The addition supports the Army Force Generation model;
  --A Stryker Brigade possesses necessary staff structure, facilities, 
        and communications to Command and Control, and facilitate joint 
        and inter-agency inter-operability; and
  --A Stryker Brigade provides additional capability for Homeland 
        Defense and Federal and State mission support, for example:
    --Consequence Management (CM).
    --Chemical, Biological, Radiological, Nuclear, and Explosives 
            (CBRNE) events and reconnaissance capability.
    --Domestic All-Hazards Response Team (DART) concept.
    --Engineer and wheeled vehicle capabilities for natural disasters.
    --Rapidly deployable, interstate navigable, and 100 percent mobile 
            command posts to establish or augment a local or regional 
            emergency operations centers.
    Requests for a force design update were submitted in November 2009 
from several States to Headquarters, Department of the Army (HQDA), and 
there are no plans to execute a conversion within the ARNG for any 
additional Stryker Brigades. Total Army Analysis 14-18 examines the 
feasibility, acceptability, and supportability of resourcing a second 
Stryker Brigade Combat Team via a holistic review of the Army's BCTs 
and enabler force requirements. Accordingly, the ARNG will work with 
HQDA to ensure the Army Operational Force is properly balanced.
    The stationing of a second SBCT will occur only after HQDA approval 
and is based on several factors: readiness for the least cost (to 
include geographic location, existing infrastructure, and level of 
modernization), available training areas and capacities, personnel 
strength, and demonstrated capacity to produce ready formations over 
time.
    Question. What are the prospects of adding a Stryker Brigade to the 
ARNG in Washington?
    Answer. The ARNG leadership validates the requirement for an 
additional Stryker Brigade in our Force Structure, based on a 2009 
feasibility study. The ARNG study concluded that converting an existing 
BCT to a Stryker Brigade would provide additional combat power, a more 
balanced mix of BCTs, and ensure relevancy within the Army Capstone 
Concept.
    Requests for a force design update were submitted in November 2009 
from several HQDA's, and there are no plans to execute a conversion 
within the ARNG for any additional Stryker Brigades. Total Army 
Analysis 14-18 examines the feasibility, acceptability, and 
supportability of resourcing a second SBCT via a holistic review of the 
Army's BCTs and enabler force requirements. Accordingly, the ARNG will 
work with HQDA to ensure the Army Operational Force is properly 
balanced.
    The stationing of a second SBCT will occur only after HQDA approval 
and is based on several factors: readiness for the least cost (to 
include geographic location, existing infrastructure, and level of 
modernization), available training areas and capacities, personnel 
strength, and demonstrated capacity to produce ready formations over 
time.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
                     army guard permanent director
    Question. General Carpenter, as Acting Director of the Army 
National Guard (ARNG), part of your responsibility is to be a steward 
of the position until a permanent director is named. Are there 
decisions the Army Guard has delayed making due to your 2-year 
stewardship of the position?
    Answer. The twin challenges of having an acting Director and one 
not being at the three-star level have put the ARNG at a disadvantage 
from two aspects. First, it has hindered the ability of the 
organization to formulate and execute a long-term strategic plan and 
has delayed permanent manning of key positions on the team. The 
perceptions and realities generated by a Director in ``acting'' status 
for an extended period of time are counterproductive. Second, the ARNG 
has occasionally not had access to meetings and discussions that are 
limited to three- and four-star generals. This exclusion becomes even 
more critical as contentious budget deliberations occur in the months 
ahead.
                                 ______
                                 
               Question Submitted by Senator Tim Johnson
    Question. With the increased reliance on the National Guard for 
operational mission support and the overwhelming need to improve 
facilities for training, are you receiving the appropriate support, 
despite eliminating earmarks, with getting construction projects onto 
the Future Years Defense Program (FYDP)?
    Answer. The Army National Guard (ARNG) and its facilities will be 
adversely affected if Military Construction (MILCON) funds decrease in 
future years, as of today, 40 percent of the ARNG's 26,000 facilities 
are more than 50 years old in the States, Territories, and District of 
Columbia. Assuming current projected MILCON funding levels, the ARNG 
will replace less than 1 percent of these aging facilities each year. 
Many of these older Army National Guard facilities meet neither current 
Anti-Terrorism/Force Protection requirements, nor demographic shifts in 
population, and current square footage deficits have a direct effect on 
the ARNG mission readiness. The result is an ARNG force supported by 
rapidly aging and outdated facilities that are inadequate to support 
operation readiness, and, because these facilities are not energy 
efficient, the structures are far more expensive to maintain.
    The Army Installation Status Report (ISR) currently reflects a 
$28.2 billion backlog in MILCON.
                                 ______
                                 
         Questions Submitted to Lieutenant General Jack Stultz
            Questions Submitted by Chairman Daniel K. Inouye
                   operational reserve's future role
    Question. General Stultz, the Army Reserve continues to transition 
from a strategic to an operational Reserve. What are the biggest 
challenges still remaining in making this transition, and what role do 
you see the operational Reserve playing in the near future as the wars 
in Iraq and Afghanistan wind down?
    General Stultz, do you believe the Army is adequately resourcing 
the Reserve to make this transition?
    Answer. Actually, the Army Reserve is now, and for the foreseeable 
future will continue to be, an operational force. Our soldiers and 
units are available to be mobilized worldwide in support of contingency 
operations and at home to respond to terrorism or threats of terrorism. 
We also have significant capabilities that can respond to natural and 
manmade disasters; however, our ability to do this readily is 
challenged by limited statutory call-up authority, which would like to 
see updated. We are planning on serving around the world with security 
cooperation and similar military engagement missions; however, here, 
too, updated statutory authority to access the Army Reserve and the 
other Reserve Component is needed.
    While the Army currently possesses an operational Reserve 
capability, we have yet to see an adequate investment of funding 
applied to our core manning and training base programs (which remain 
funded at the statutory minimum of approximately 39 days of training 
per year, throughout the force). All capabilities to train our 
operational force to a ``company level'' of proficiency have been 
realized through use of Overseas Contingency Operations (OCO) funding. 
Asthe OCO funding dwindles and eventually goes away, we are concerned 
that our operational capability will be lost when our primary source of 
funding is no longer available. The Army made a huge step toward 
formally recognizing this capability when the senior leadership 
recognized an increase to Army Reserve critical requirements in key 
manning and training base budget accounts; however, to this point the 
Army has elected to resource these additional requirements through OCO 
funding.
                       army reserve suicide rates
    Question. General Stultz, the Army Reserve's suicide rate increased 
42 percent in 2010 with 50 reservists taking their own lives. Most of 
these suicides occurred when the soldier was in civilian, rather than 
military, status. How is the Army Reserve responding to this trend and 
addressing the mental health of soldiers beginning with recruitment and 
continuing throughout their entire service in the Reserves?
    General Stultz, is the Army Reserve properly training recruiters to 
evaluate not only the physical but also the mental fitness of new 
recruits?
    Answer. Recruiters are not responsible for establishing an 
applicant's physical or mental qualification for military service and 
receive no training specific to evaluating mental suitability. 
Potential Army recruits are required to complete a ten page pre-
qualification questionnaire, which asks an individual about their 
personal, educational, moral, physical, military, financial, and 
employment history. Recruiters use the applicant's voluntarily 
disclosed information to conduct preliminary screening to determine 
whether the applicant meets minimum qualification standards for the 
Army. If minimum qualifications are met, the next phase of the process 
is to determine whether the applicant meets physical and mental health 
standards; this phase of the recruitment process is accomplished at a 
Military Entrance Processing Stations (MEPS).
    The MEPS plays a vital role in maintaining the Nation's All 
Volunteer Force by ensuring that each new member of the Armed Forces 
meets mental, moral and medical standards required by the Department of 
Defense (DOD) and the military services. In accordance with policies 
and regulations governed by the Military Entrance Processing Command 
(MEPCOM), medically trained personnel use a combination of tools 
including but not limited to the Report of Medical History (DOD form 
2807), Supplementary Health Questionnaire and one-on-one interface with 
medical professionals, to render a determination about an applicant's 
suitability for service. Based on the outcome of a series of 
evaluations conducted at MEPS, applicants may or may not be permitted 
to proceed with the recruitment process depending on the overall 
assessment of both the recruiter and the medical community.
    Numerous initiatives are underway to address strengthening the 
recruiting process both through the VCSA's Health Promotion/Risk 
Reduction/Suicide Prevention Task Force which has recommended to re-
scope Service entrance standards to evaluate candidates on their 
current/potential resiliency and maturity. An additional Assistant 
Secretary of the Army for Manpower & Reserve Affairs (ASA (M&RA)) work 
group is working with Accessions Command to develop tools to better 
identify candidates who may have pre-existing mental health problems. 
The United States Army Reserve has been involved and is supportive of 
these initiatives.
                      reserve equipment shortfalls
    Question. Gentlemen, over the last several years, the Reserve 
Components have transitioned from a strategic to an operational 
Reserve, but annual budget requests have not adequately addressed the 
additional equipment requirements associated with this new role. What 
remaining equipment shortfalls most concern you, and how do these 
shortfalls affect your ability to train and deploy?
    Gentlemen, how much additional funding would you need to fully 
equip your component?
    Answer. The Army Reserve equipment top equipment shortfalls are: 
Construction Equipment more specifically the Heavy Scraper; the Command 
Post Systems and Integration (SICPS); the Family of Medium Tactical 
Vehicles (FMTV), a replacement for the nonarmored HMMWV Ambulance and 
Simulators for training.
    The Army Reserve is able to train and deploy our units but is 
dependent on the use of the training sets and the availability of 
Theater Provide Equipment (TPE). However, the shortfall of this 
equipment limits our ability to support full spectrum operations.
    The Army Reserve estimates it would cost $8.9 billion to modernize 
100 percent of the current Army Reserve equipment requirements.
          national guard and reserve equipment account (ngrea)
    Question. Gentlemen, this Committee recognizes the importance of 
providing the Reserve Components funding for necessary new equipment 
and modernizations and has consistently done so through the the NGREA. 
Please describe the importance of this additional funding to providing 
critical equipment for the Reserves.
    Historically, the Department has had some trouble in obligating 
NGREA funds in a timely manner. Please provide an update on current 
obligation rates.
    Answer. NGREA is a valuable tool that enables the Army Reserve to 
procure un-resourced modernized equipment required to train and equip 
our soldiers and units in order to support Army Reserve missions for 
the Nation.
    The Army Reserve has obligate 100 percent of its NGREA within the 
3-year time period. The NGREA obligation rate for fiscal year 2008 was 
100 percent. As of May 11, the NGREA obligation rate for fiscal year 
2009 is 94 percent and for fiscal year 2010 is 93 percent. We do not 
anticipate any issues with obligating 100 percent by the end of the 
respective fiscal years. The Army Reserve has not received fiscal year 
2011 funds yet.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                                suicide
    Question. The Army Reserve experienced 50 suicides in the last 
year--an increase of 16 from the year before. I find this large 
increase to be disturbing and want to know more about what is being 
done upon the servicemember's return.
    Post-deployment, where do Army Reserves members and their family 
members turn for support when the member is not on Active Duty status?
    What programs do you feel will have the biggest impact and will be 
the most successful to mitigate future Army Reserve suicides?
    Answer. In addition to the support provided by unit commanders and 
their staff, Army Reserve Soldiers and their Families, not on Active 
Duty have several avenues they can turn to for post-deployment 
behavioral health support.
    The Army Reserve will continue to grow its Army Strong Community 
Centers (ASCCs). These centers were created to assist geographically 
dispersed soldiers and their families who may not have ready access to 
the services typically available on a military installation. The ASCC 
(currently operating as a Pilot Program at four locations), connects 
those Families with support resources in their own community. The ASCCs 
provide access, support and resources commensurate with what they would 
expect to find on a military installation.
    Soldiers and families members can also turn to their regional 
Directors of Psychological Health (DPH) who are located within one of 
four Army Reserve Regional Support Commands. In addition to supporting 
soldiers and families, these directorates were tasked to develop the 
networks within their communities that are essential in facilitating 
referrals to care providers, volunteer groups and support services that 
are critical components in delivering care, counseling and support to 
soldiers and families.
    On redeployment, soldiers and families attend the Army Reserve 
Yellow Ribbon Program (YRP) where information is provided to facilitate 
access to services and support agencies for their health and well-
being, and Families attend classes on suicide prevention. The Army 
Reserve YRP executes its mission by developing skills in each family 
member and soldier to assure they are prepared and able to cope with 
the difficulties of extended separation and deployment--helping 
families network together, connect with each other and their unit/
command leadership and family programs' staff.
    Military OneSource offers nonmedical counseling options to Active 
Duty, Guard, and Reserve members and their families. The counseling 
services are designed to provide help for soldiers and families with 
short-term issues such as adjustment to situational stressors, stress 
management, decisionmaking. Military OneSource also offers post-
deployment resource for soldiers and families is communication, grief, 
family issues, parenting-skills issues and short-term, solution-focused 
financial counseling. All of these services are offered at no cost to 
the soldiers and their family members.
    Currently the two programs that will have the biggest impact on 
reducing suicides in the Army Reserve are the Suicide Prevention 
Programs and the Comprehensive Soldier Fitness program.
    The Army Reserve's Suicide Prevention program is based around four 
pillars. These pillars involve educating the entire force; reducing the 
stigma associated with asking for help with behavioral/mental health 
issues; providing resources to geographically dispersed personnel; and 
involving Families in suicide prevention training. Examples of these 
efforts include the Ask, Care, and Escort (ACE) training for Soldiers 
and leaders; applied suicide intervention skills training (ASIST); 
battle buddy system with suicide prevention emphasis; and additional 
instructional material on suicide prevention at the Army Reserve's Pre-
Command Courses and Yellow Ribbon and Strong Bonds events.
    One program that will undoubtedly have a major impact on mitigating 
future Army Reserve Soldier suicides is the Comprehensive Soldier 
Fitness (CSF) Program. The CSF program initiative uses individual 
assessments, tailored virtual training, class room training and 
embedded experts to provide the critical resiliency skills our 
soldiers, family members and Army civilians need in today's Army. The 
program tools include the Global Assessment Tool (GAT); Training and 
distributing Master Resiliency Trainers (MRT) and leveraging its Human 
Capital Core Enterprise (HCCE) structure to support soldiers health and 
wellness needs. For example, the MRTs will deliver vital resiliency and 
coping skills which ultimately enhances soldiers' and their families' 
ability to manage/balance the daily challenges of family, social and 
professional obligations.
                                 ______
                                 
            Questions Submitted to Vice Admiral Dirk Debbink
            Questions Submitted by Chairman Daniel K. Inouye
                    navy reserve--officer recruiting
    Question. Vice Admiral Debbink, over the last several years the 
Navy Reserve has struggled with officer recruiting and is still facing 
a serious officer shortage due to years of low recruiting. In 2010, the 
Navy followed the lead of the other Services and began commissioning 
some Naval Reserve Officer Training Corps (NROTC) accessions directly 
into the Reserve Component.
    Do you think this policy change will be enough to reduce the 
officer shortage within the Reserves?
    Answer. The policy change, which will commission Navy Reserve 
Officer Training Corps accessions into the Individual Ready Reserve 
(IRR) will not address shortages in the Selected Reserve (SELRES), and 
was not intended to do so. These newly commissioned officers, who do 
not possess the requisite skills, experience or seniority required in 
SELRES communities experiencing shortfalls, will remain in the IRR in 
non-pay, non-drill status until their training commences, or the 
beginning of the next fiscal year.
    Question. What additional measures are being considered by the Navy 
Reserve to address remaining officer shortages?
    Answer. To address challenges in the Reserve officer mission, we 
have:
  --Established targeted bonuses and incentives to increase Reserve 
        affiliation and retention in specific officer communities based 
        on relative need, while an officer retention bonus is currently 
        being considered by OSD. In fiscal year 2011, an affiliation 
        bonus for prior service officers, an accession bonus for direct 
        commission officers, and health professional critical-skill 
        shortage incentives were offered to SELRES officers.
  --Implemented a mobilization deferment policy that stipulates that an 
        officer who affiliates within 6 months of release from Active 
        Duty is guaranteed a 2-year mobilization deferment, while an 
        officer who affiliates within 7-12 months receives a 1-year 
        deferment.
  --Increased the number of officers accessed through direct commission 
        (845 in fiscal year 2010 to 990 in fiscal year 2011) and the 
        number of officer communities that have a direct commission 
        officer program from 19 to 25.
  --Established a Career Transition Office (CTO) to increase Reserve 
        affiliation rates by educating members leaving Active Duty 
        about the benefits of continuing their Navy careers in the Navy 
        Reserve and to streamline the transition process. Since the CTO 
        was established in May 2009, we have increased, from 22 percent 
        to 47 percent, the percentage of officers affiliating in the 
        Reserve Component directly upon leaving Active Duty. 
        Affiliation rates in fiscal year 2011 to date have exceeded 50 
        percent, and we have increased from 25 percent to 99.8 percent 
        the percentage of officers leaving Active Duty who have been 
        educated about Reserve opportunities. The CTO has reduced 
        average AC to RC transition time from more than a month to 5 
        days, resulting in higher overall affiliation rates and fewer 
        pay problems.
  --Instituted targeted leadership development and Interactive Customer 
        Evaluation (ICE) at Reserve Forces Command to identify problem 
        areas and improve the Navy drilling Reserve experience to 
        increase retention.
                      reserve equipment shortfalls
    Question. Gentlemen, over the last several years, the Reserve 
Components have transitioned from a strategic to an operational 
Reserve, but annual budget requests have not adequately addressed the 
additional equipment requirements associated with this new role.
    What remaining equipment shortfalls most concern you, and how do 
these shortfalls affect your ability to train and deploy?
    Answer. The Navy Reserve equipment shortfalls are published in 
Table 8 of the National Guard and Reserve Equipment Report. The Navy 
Reserve's top equipment priorities continue to be aircraft procurement 
and the outfitting of the Navy Expeditionary Combat Command.
    Question. How much additional funding would you need to fully equip 
your component?
    Answer. The budget as submitted by the President will allow the 
Navy Reserve to carry out its mission as part of Navy's Total Force.
          national guard and reserve equipment account (ngrea)
    Question. Gentlemen, this Committee recognizes the importance of 
providing the Reserve Components funding for necessary new equipment 
and modernizations and has consistently done so through the NGREA.
    Please describe the importance of this additional funding to 
providing critical equipment for the Reserves.
    Answer. The NGREA has been a high-impact critical capital infusion 
for the Navy Reserve since its inception in 1981, but has taken on 
added importance in recent years with our transition to providing even 
more operational capabilities to the Navy and Marine Corps team, and 
joint forces. The appropriation has been instrumental in resourcing the 
capabilities of the Navy Expeditionary Combat Command (NECC) and has 
bolstered the recapitalization of critical Reserve Component (RC) 
equipment in both Naval Aviation and the Surface Navy. In fiscal year 
2010, the Navy Reserve executed NGREA funding to equip the Maritime 
Expeditionary Security Force (MESF), Explosive Ordnance Disposal (EOD), 
Naval Construction Force (NCF), Navy Expeditionary Logistics Support 
Group (NAVELSG), Naval Aviation and Surface Warfare units with: 
tactical and armored vehicles, civil engineering equipment, 
communications equipment, table of allowance items, aviation 
modernization upgrades and rigid hull inflatable boats.
    Question. Historically, the Department has had some trouble in 
obligating NGREA funds in a timely manner. Please provide an update on 
current obligation rates.
    Answer. Below are the current obligation rates for the three active 
NGREA appropriation years:

                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                              Final year        2nd year          1st year         Cong. Adds
----------------------------------------------------------------------------------------------------------------
Fiscal year 2009:
    Appropriated..........................           $51.9             $51.9             $51.9             $25
    Percent obligated.....................        \1\ 94.3              87.3              17.4          \2\ 89.4
Fiscal year 2010:
    Appropriated..........................  ..............             $55               $55    ................
    Percent obligated.....................  ..............          \3\ 65.5              37.1  ................
Fiscal year 2011:
    Appropriated..........................  ..............  ................             $70    ................
    Percent obligated.....................  ..............  ................         ( \4\ )    ................
----------------------------------------------------------------------------------------------------------------
\1\ The $3.2 million which is currently unobligated is for an F-5 Trainer upgrade and will be obligated before
  the end of the fiscal year.
\2\ The $2.6 million which is currently unobligated is for the C-130 Electronic Prop Control System and will be
  obligated before the end of the fiscal year.
\3\ The $19 million which is currently unobligated is for a C-130 Simulator upgrade and for some NCF equipment.
  Navy is on track to have all $55 obligated by the end of the 3rd year.
\4\ The $70 million has not yet been received by OSD.

                   operational reserve's future role
    Question. Gentlemen, the Reserve Components continue to transition 
from a strategic to an operational Reserve.
    What are the biggest challenges still remaining in making this 
transition, and what role do you see the operational Reserve playing in 
the near future as the wars in Iraq and Afghanistan wind down?
    Answer. The greatest challenge will be to communicate a common 
understanding of the transition to ensure we do not inadvertently 
overburden our Guard and Reserve Components. The Navy Reserve provides 
strategic depth and delivers operational capability. For the sake of 
the Nation and to ensure our long-term viability, the Reserve Force 
needs to be able to perform both these missions. If we 
``operationalize'' the entire Navy Reserve, it becomes unsustainable 
from a manpower and fiscal perspective. At any given time, 
approximately two-thirds of our Navy Reserve is providing strategic 
depth, while approximately one-third is in a more operational posture. 
To be able to deliver operational capabilities in the future, the other 
challenge in this period of transition is to provide timely access to 
Reserve Force personnel during periods of relative geopolitical 
stability. In an era in which emerging global contingencies, which do 
not warrant a congressional or Presidential declaration of war or 
national emergency, the Department of Defense lacks the flexibility to 
access RC members to participate in total force solutions to meet 
rapidly evolving requirements. Section 513 of the President's National 
Defense Authorization Request for fiscal year 2012, includes a 
provision which, if enacted, would amend title 10, United States Code, 
section 12304 to:
  --Enhance Total Force capacity by allowing RC units and members to be 
        included in long-range planning processes;
  --Provide the opportunity to enhance dwell/ITEMPO to desired levels 
        through increased capacity provided by RC units and members;
  --Enhance the overall readiness of RC units with high-demand skill 
        sets, ensuring a more robust total force response capacity for 
        future contingency operations;
  --Provide predictability of future routine military obligations for 
        individual Reserve members, their families and their employers; 
        and
  --Provide a mechanism to access RC members for routine requirements 
        assured of the various protections currently granted for other 
        involuntary duty assignments.
    I urge Congress to enact this important provision, to facilitate 
transition to an operational Reserve, as the National Defense 
Authorization Act is taken up in the weeks ahead.
    Question. Do you believe the Department is adequately resourcing 
the Reserves to make this transition?
    Answer. The Department is adequately resourcing the Navy Reserve as 
we continue transitioning from a strategic to an operational Reserve.
                                 ______
                                 
         Questions Submitted to Major General Darrell L. Moore
            Questions Submitted by Chairman Daniel K. Inouye
               marine corps reserve--strain on the force
    Question. General Moore, the Marine Corps Reserve has maintained a 
high-operational tempo with nearly 60,000 marine reservists activated 
since 2001 and more than 20,000 marine reservists deployed more than 
once.
    While the operational tempo is beginning to slow, how has the 
Marine Corps Reserve been keeping track of the welfare and mental 
health of deactivated reservists who are returning from deployments?
    Answer. Our marines, sailors, and their families remain our highest 
priority. Accordingly, we are keenly attentive to their health and 
resiliency, especially for our reservists who are deactivated after 
returning home from theater security cooperation and overseas 
contingency operation deployments. There are three current initiatives 
that specifically support our returning warriors: medical intervention, 
the Psychological Health Outreach Program (PHOP), and incorporating 
Veterans Administration (VA) OIF/OEF Group support.
    First, returning marines who need prompt intervention are retained 
on medical hold (MedHold) or have Line of Duty (LOD) packages opened. 
These marines or sailors are then tracked until they are returned to 
full duty or have their cases referred to the Disability Evaluation 
System for final adjudication.
    The second initiative we implemented is the PHOP, which provides 
psychological health professionals at six regional Marine Forces 
Reserve sites to screen and refer Selected Marine Corps Reserve 
personnel for behavioral health services. Marines who self-refer or are 
referred to the program can be screened for behavioral health issues, 
appropriately referred, and provided a road to recovery. Outreach 
members follow each referred reservist through to the resolution of 
that member's case, whether it is return to Active Reserve status or 
resolution through the Disability Evaluation System.
    Our third initiative is the inclusion of VA OIF/OEF Groups at the 
local VA hospitals and clinics that support individual returning 
marines. These groups meet those returning marines at the Reserve-
Intermediate Location (R-ILOC), enroll them in the VA healthcare system 
and provide them a medical home at the VA. The goal is to encourage 
every returning marine to be seen by the OIF/OEF Group at his or her 
local VA for a comprehensive evaluation as soon as possible after 
returning home and to have a primary care manager assigned.
    Our strategy is for the Medical Department Representative at the 
Home Training Center, the Psychological Health Outreach Coordinator, 
the VA OIF/OEF primary care manager, and the Wounded Warrior Regiment 
to work as a team to ensure that every returning marine is provided the 
care he or she needs. Every returning marine with a problem will be 
tracked to completion while we ensure he or she has a medical home at 
the VA.
    Question. General Moore, do you think the Marine Corps should 
follow the Army's lead and begin tracking Reserve Component suicides 
separately from the Active Component?
    Answer. The Marine Corps tracks and reports suicides of Reserve 
Component marines who are in an Active status in accordance with 
Department of Defense (DOD) policy. In January 2009, the Marine Corps 
began tracking suicides of Selected Reserve Marines who are not in an 
Active status, which is also consistent with DOD policy.
                      reserve equipment shortfalls
    Question. Gentlemen, over the last several years, the Reserve 
Components have transitioned from a strategic to an operational 
Reserve, but annual budget requests have not adequately addressed the 
additional equipment requirements associated with this new role.
    What remaining equipment shortfalls most concern you, and how do 
these shortfalls affect your ability to train and deploy?
    Answer. Current equipping priorities are focused on the 
modernization of existing capabilities. Since Marine Corps Reserve 
units deploy and fall in on equipment that is already in theater, it is 
essential that we continue to maintain our commitment to outfitting the 
Marine Corps Reserve with the same modernized equipment as the Active 
Component. This enables our Reserve Forces to be trained to the same 
standard on the same equipment that they will be using in combat. The 
top ten shortfalls listed in our fiscal year 2012 National Guard and 
Reserve Equipment Report fall into three main programs that continue to 
be our top priorities:
  --Light Armored Vehicles (LAV);
  --KC-130J refueler aircraft; and
  --Logistics Vehicle System Replacement (LVSR).
    The first priority is procurement of the few remaining A2-standard 
modernized LAVs. Through a combination of National Guard & Reserve 
Equipment Appropriation (NGREA) and baseline dollars, we have been able 
to close that gap to a shortfall of 18 vehicles. The estimated cost to 
procure those remaining vehicles is $50 million.
    The second priority is accelerating the transition from the KC-130T 
to the KC-130J aircraft. The Active Component has completely divested 
of legacy KC-130Ts and will complete KC-130J fielding in fiscal year 
2012. The Reserve KC-130J fielding schedule is programmed to begin in 
fiscal year 2015 and complete by fiscal year 2029. The additional cost 
to transition to a KC-130J-only fleet within this Future Years Defense 
Program (FYDP) is approximately $2.2B which equates to approximately 
$108 million per aircraft (total weapons system cost, which includes 
support equipment, tools, spares) for 20 aircraft plus $50 million for 
two KC-130J Weapons Systems Trainers.
  --The Marine Corps has eliminated all formal schooling and the Fleet 
        Replacement Squadron for the KC-130T pilots and reduced the 
        enlisted aircrew requirement from one enlisted crewmember in 
        each of four enlisted aircrew Military Occupational Specialties 
        (MOS) to two enlisted crewmen under one new enlisted aircrew 
        MOS. Additionally, MOS schools are no longer teaching all of 
        the KC-130T maintenance.
  --The elimination of all formal schooling and the Fleet Replacement 
        Squadron for the KC-130T pilots along with the reductions in 
        teaching KC-130T maintenance places an extensive on the job 
        training (OJT) burden with the Reserve Component for training 
        associated with the transition/conversion.
  --Because the Active Component and sister services have or are 
        currently completing the KC-130J transition, the RC KC-130T's 
        Full Mission Capability rate (FMC)--an individual aircraft's 
        ability to perform 100 percent of the possible missions--
        continues to decline. Prolonged transition to the KC-130J 
        increases risk for degraded operational capability due to 
        nonavailability of parts as manufacturers discontinue 
        production and civil Communication Navigation Surveillance and 
        Air Traffic Management (CNS/ATM) mandates. A recent KC-130 
        Program Office (PMA 207) Analysis of KC-130T FMC rates depicts 
        them dropping below acceptable levels before 2020.
    The third modernization priority is replacement of the legacy 
Logistics Vehicle System (LVS) with the LVSR. Using fiscal year 2011 
NGREA, we have closed this gap significantly and require about $8 
million to procure 22 vehicles and achieve 100 percent of the required 
training allowance.
    Question. How much additional funding would you need to fully equip 
your component?
    Answer. Excluding the cost to accelerate transition from the KC-
130T to the KC-130J, the Marine Corps Reserve's estimated wartime 
requirement shortfall is $776 million. Of that amount, $396 million 
represents today's best estimate of training allowance.
    In order to support and sustain combat operations, the Marine Corps 
has drawn equipment from many sources to include the Reserve Component. 
While the actual amount of equipment taken from the Reserve Component 
training allowance was very small, significant portions of ongoing 
procurements intended to be fielded to the Reserve Component were 
redirected to support combat operations that included both Active and 
Reserve units.
    Once the Marine Corps transitions from major combat operations and 
resets equipment, we expect that many of the current training allowance 
shortfalls will be filled. Additionally, as the Marine Corps works to 
define the right mix of ground equipment necessary to transition itself 
to a ``middleweight'' force, the character of the shortfall may change 
further. As this transition progresses, we will continue to focus 
resource advocacy toward the modernization programs listed above.
          national guard and reserve equipment account (ngrea)
    Question. Gentlemen, this subcommittee recognizes the importance of 
providing the Reserve Components funding for necessary new equipment 
and modernizations and has consistently done so through the National 
Guard and Reserve Equipment Appropriation (NGREA).
    Please describe the importance of this additional funding to 
providing critical equipment for the Reserves.
    Answer. For the last several years, the Marine Corps has relied on 
NGREA to accomplish three primary goals: availability of theater-
specific equipment; training improvement; and modernization.
    The first goal was to ensure that units and marines preparing for 
deployment had available to them for training the same theater-specific 
equipment represented in combat operations. We were able to accomplish 
this through NGREA purchases such as Rifle Combat Optics and M-4 
Carbines, various Counter Intelligence and Human Intelligence packages, 
and specialized communications and sensor packages.
    The second goal was to improve training efficiency, cost 
effectiveness, and throughput by investing in modeling and simulation 
programs that related directly to the tactics and equipment being used 
in theater. One of our most significant investments and most successful 
example of this is the Virtual Combat Convoy Training System.
    The third goal was to invest in modernization programs of record 
(POR) such as Light Armored Vehicles and aircraft upgrades such as 
Bright Star FLIR. We expect that in the future NGREA will continue to 
be used primarily in support of accelerating modernization efforts 
within the Marine Reserve.
    Question. Historically, the Department has had some trouble in 
obligating NGREA funds in a timely manner. Please provide an update on 
current obligation rates.
    Answer. Fiscal year 2009 NGREA ($62 million) is currently 91.9 
percent obligated. Cost variations and economies provided us with an 
opportunity to invest in more equipment than was originally planned. 
The Marine Corps recently received approval to do final NGREA program 
realignments and is in the process of applying those funds to program 
lines and contracts for execution. We expect to obtain a 100 percent 
obligation rate by year end.
    Fiscal year 2010 NGREA ($45 million) is currently 56.8 percent 
obligated. All but $300,000 of the total appropriated is being invested 
in the procurement of LAVs at the A2 standard. LAV procurement occurs 
in two phases: vehicle manufacture, then installation of Government 
Furnished Equipment (GFE) at a government site. Delay in funds 
obligation stems from waiting to order GFE until anticipated delivery 
of completed vehicles. This process of separating the purchase into two 
phases provides maximum contracting flexibility and potential order 
economies. The LAV Program office estimates that fiscal year 2010 NGREA 
will be 80 percent obligated by the end of this fiscal year and 
foresees no challenges in reaching 100 percent obligation by the end of 
fiscal year 2012.
    Fiscal year 2011 NGREA spending plan is $70 million. The Marine 
Corps is awaiting final plan approval from OSD in order to distribute 
funds. The portion of our plan that invests in additional LAVs ($19 
million) will be subject to the same contracting strategy as above. The 
portion of our plan that invests in LVSRs may be able to take advantage 
of a large scale contract currently being put in place. If the option 
remains available to us, we should be able to rapidly obligate that 
portion of the fiscal year 2011 funding.
                   operational reserve's future role
    Question. Gentlemen, the Reserve Components continue to transition 
from a strategic to an operational Reserve.
    What are the biggest challenges still remaining in making this 
transition, and what role do you see the operational Reserve playing in 
the near future as the wars in Iraq and Afghanistan wind down?
    Answer. One challenge is ensuring we are able to access our Reserve 
units for peacetime missions unrelated to overseas contingency 
operations. Our Reserves are well-suited to perform missions, such as 
theater security cooperation, which will continue after the wars in 
Iraq and Afghanistan are over. However, to be cost-effective, we need 
to be able to access cohesive units rather than cobble together groups 
of individual volunteers. For this reason, we consider the legislative 
proposal to revise 10 USC Sec. 12304 to be critical to the success of 
an operational Reserve.
    Question. Do you believe the Department is adequately resourcing 
the Reserves to make this transition?
    Answer. Post OEF, the Marine Corps is committed to retaining and 
employing an Operational Reserve as part of our Total Force. The exact 
size and scope has yet to be determined and is likely to fluctuate 
based on the National Security Strategy and operational tempo. The most 
significant cost of employing our Reserves as an operational force 
comes in the form of manpower funding necessary for pay, allowances, 
and entitlements for reservists when on Active Duty. The Marine Corps 
will need to prioritize funding for the Operational Reserve among the 
existing Total Force programs and capabilities within our baseline 
budget.
                                 ______
                                 
   Questions Submitted to Lieutenant General Charles E. Stenner, Jr.
            Questions Submitted by Chairman Daniel K. Inouye
               air force reserve--force generation center
    Question. General Stenner, since 2001, more than 60,500 Air Force 
Reservists have been called to Active Duty. In order to facilitate this 
high-operational tempo, the Air Force Reserve established the Force 
Generation Center (FGC) in 2010 to provide a standardized approach in 
preparing, processing, and deploying Reservists. What is the status of 
the FGC, and is it still on track to be fully operational by the end of 
2012?
    Answer. The FGC is up and running with 40 billets; about 25 moved 
from the Air Force Reserve Command Headquarters staff and 15 are new 
hires. The FGC is on track to be fully functional with 86 full time and 
27 part time reservists by August 2012.
    Question. How will the FGC benefit individual Air Force reservists?
    Answer. The establishment of the FGC provides the Air Force Reserve 
Command (AFRC) the ability to optimize force management and 
accountability of Air Force Reserve (AFR) forces by standardizing and 
streamlining coordination for the activation of Reserve Forces. The FGC 
does this by consolidating execution functions formerly fragmented 
across the AFRC HQ staff from the ``policy and guidance'' functions. 
The major commands and other users of Reserve Forces can now go to one 
center vice many sources to access AFR capability. The FGC also allows 
me to effectively track and validate from the AFR perspective where our 
folks are and how they are being used. This will increase visibility 
and accountability of Reserve Forces across all categories, some where 
we previously had limited or no real time information. As a result, the 
AFR can be more responsive to the needs of individual reservists, 
providing them greater predictability while making activation schedules 
more certain.
                      reserve equipment shortfalls
    Question. Gentlemen, over the last several years, the Reserve 
Components have transitioned from a strategic to an operational 
Reserve, but annual budget requests have not adequately addressed the 
additional equipment requirements associated with this new role. What 
remaining equipment shortfalls most concern you, and how do these 
shortfalls affect your ability to train and deploy?
    Answer. The most critical equipment shortfall for the Air Force 
Reserve (AFR) currently is the Large Aircraft Infrared Countermeasures 
System (LAIRCM) for our legacy mobility aircraft fleet. Our C-130 
fleet, with the help of National Guard and Reserve Equipment 
Appropriation (NGREA) funding, is well on its way to be completely 
modified. Air Mobility Command has a plan to modify our C-5's but 
currently is last in line to receive the upgrade. The KC-135 community 
has defined a cost-effective LAIRCM solution but is without funding. 
The Congress has been extremely generous to the AFR in the last few 
years with additive resources for modernizing our aircraft. The lack of 
these systems negatively affects our aircraft's ability to effectively 
operate and deploy in the combat environment. Non-LAIRCM equipped 
aircraft are easy prey for third- and fourth-generation man portable 
missiles being proliferated throughout the world.
    Question. Gentlemen, how much additional funding would you need to 
fully equip your component?
    Answer. The AFR currently has more than $957 million in unfunded 
equipment requirements. Of that, $70 million will be paid for with our 
fiscal year 2011 NGREA funding once our fiscal year 2011 Procurement 
Plan is approved through the Congress. We maintain the most efficient, 
experienced and operationally capable force, but operate some of the 
oldest aircraft in the Air Force fleet. The AFR is not programmed to 
recapitalize any of its legacy fleet through the current Future Years 
Defense Program (FYDP). Age of the fleet and more than 20 years of 
increased operations tempo will make replacement of our aircraft 
imperative in the years to come.
          national guard and reserve equipment account (ngrea)
    Question. Gentlemen, this Committee recognizes the importance of 
providing the Reserve Components funding for necessary new equipment 
and modernizations and has consistently done so through the NGREA. 
Please describe the importance of this additional funding to providing 
critical equipment for the Reserves.
    Answer. The NGREA is the cornerstone of the Air Force Reserve's 
(AFR) equipment modernization and replacement funding efforts. Congress 
has been extremely generous in providing the NGREA funding for the 
modernization and purchase of Air Reserve Component equipment. Without 
these funds, the modernization of AFR aircraft would have been almost 
nonexistent. The AFR does not usually rank high enough on Lead Major 
Command's modernization priority lists to receive Program Objective 
Memorandum funding. In today's constrained fiscal reality, that fact 
has even greater impact.
    Question. Historically, the Department has had some trouble in 
obligating NGREA funds in a timely manner. Please provide an update on 
current obligation rates.
    Answer. Full obligation and execution within the 3-year life of 
NGREA funds has never been an issue. In the last 12 years, the AFR has 
executed 99.7 percent of their allocated NGREA funds. The difficulty 
lies in our first year obligation rates and the reasons for those 
difficulties are many. We, in partnership with the Air National Guard, 
the Headquarters Air Force Acquisition Staff, Air Force Materiel 
Command, and the individual system program offices are currently 
working closely together to identify what the difficulties are and to 
implement new policies, procedures, and guidelines to ensure we meet 
the expectation of the Congress. As of our February 2011 NGREA 
Obligation Review, the obligation rates were: Fiscal year 2009 NGREA--
48.5 percent, fiscal year 2009 NGREA OCO--96.8 percent, and fiscal year 
2010 NGREA--10.9 percent. We have recently re-aligned fiscal year 2009 
and fiscal year 2010 funds away from nonperforming programs to 
performing ones which will improve our obligation rates.
                   operational reserve's future role
    Question. Gentlemen, the Reserve Components continue to transition 
from a strategic to an operational Reserve. What are the biggest 
challenges still remaining in making this transition, and what role do 
you see the operational Reserve playing in the near future as the wars 
in Iraq and Afghanistan wind down?
    Answer. The Citizen Airmen of the Air Force Reserve have been 
meeting continuous and recurring operational mission commitments since 
1990. Today's security environment has led to continued demand for the 
Reserve Component to augment Active Component steady-state operational 
missions. Despite a drawdown of operations in Iraq or Afghanistan, the 
Air Force Reserve maintains its operational role while providing 
strategic depth. Our operational involvement and strategic depth are 
institutionalized and sustained by new rules within the Department, new 
planning and execution processes within the Air Force and re-calibrated 
expectations by Reservists, their families, and their employers.
    As supplemental and Overseas Contingency Operations funding wanes, 
we are challenged to ensure adequate funding exists for Reserve 
Component operational use. Budgeting for the use of the Reserve 
Component within Service base budgets helps overcome this funding 
challenge. The Nation cannot afford to put the Reserve Component ``back 
on the shelf.'' Another challenge facing the Reserve Component is the 
potential reduction of prior-service members transitioning to the 
Reserve Component. With fewer eligible Active Component members, the 
Reserve Component is faced with increased recruiting and training costs 
normally absorbed when an Active member transitions. We must rely on 
adequate funding levels to offset potential increased costs.
    Question. Do you believe the Department is adequately resourcing 
the Reserves to make this transition?
    Answer. The Department as a whole is fiscally constrained. The 
Reserve Component has become a responsive operational force that allows 
the Air Force to respond quickly and efficiently to funding reductions 
without creating warfighting capacity gaps and recruiting and training 
bills associated with the traditional force planning models. That said, 
as supplemental and Overseas Contingency Operations funding is reduced 
and as military personnel appropriations funding decreases, the 
potential for inadequate resourcing exists unless provided for in the 
Services' base budget.
    Question. The Air Force Reserve's 932nd Air Wing located at Scott 
Air Force Base in Illinois is soon scheduled to retire their three C-9C 
aircraft. Although the plan is to retain their three currently 
authorized C-40 aircraft, the 932nd is only scheduled to gain one 
additional C-40, currently in production. How will the reduction in 
total aircraft assigned to the 932nd impact their ability to perform 
their mission? Will the reduction in total aircraft assigned to the 
unit result in a decrease in personnel assigned to the unit and if so 
by how many?
    Answer. The 932nd Airlift Wing operates and maintains three C-9C 
and three C-40C aircraft. The Air Force Reserve Command (AFRC) programs 
and manages the funding for the wing's facilities, flying hours, 
support equipment, personnel training, and maintenance requirements.
    The current program of record funds C-9C operations and force 
structure through fiscal year 2011. Beginning in fiscal year 2012, 
three C-9C aircraft will be retired. AFRC has projected a 45 percent 
loss in capability from fiscal year 2011 levels of support and a 
reduction of 252 Reserve personnel. An additional C-40C is programmed 
for delivery in early fiscal year 2012 and will increase aircraft 
availability for unit operations but the unit will remain a three 
primary aircraft authorization unit. The C-9C retirement will not 
impact the unit's ability to perform its mission, however, the 
capability to meet the current level of support will be reduced.
    Please know that current mission capability and future levels of 
support are of interest and as the C-40C has no official wartime 
mission, we will strive to execute an equivalent level of service that 
three primary aircraft authorization aircraft will provide.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. This Defense Subcommittee will reconvene 
on Tuesday, May 17 at 10:30 a.m., at which time we will meet in 
closed session to receive a briefing on fiscal year 2012 
Northern Command and Southern Command programs and budgets.
    Thank you very much.
    The session is recessed.
    [Whereupon, at 11:49 a.m., Wednesday, May 11, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              


                        WEDNESDAY, MAY 18, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:33 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senator Inouye, Leahy, Mikulski, Murray, Cochran, 
Shelby, Collins, Murkowski, and Coats.

                         DEPARTMENT OF DEFENSE

                         Department of the Army

                        Office of the Secretary

STATEMENT OF HON. JOHN M. McHUGH, SECRETARY

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. This morning we welcome the Honorable John 
M. McHugh, Secretary of the Army, who is providing testimony to 
our subcommittee for the second time. Beside him, we welcome 
for the first time General Martin Dempsey, the Army Chief of 
Staff. Gentlemen, I thank you on behalf of the subcommittee for 
being here with us today to review the budget request for 
fiscal year 2012.
    The Department of the Army's fiscal year 2012 base budget 
request is $144.9 billion, an increase of $7.2 billion over 
last year's enacted base budget.
    The Army is also requesting $71.1 billion for overseas 
contingency operations for fiscal year 2012, which is a 
decrease of $30.5 billion from last year's request and reflects 
the ongoing drawdown of forces from Iraq.
    As part of the fiscal year 2012 budget bill, Secretary 
Gates set a goal for the Department of Defense to achieve 
overall efficiency savings of $100 billion over the next 5 
years. The Army's share of this initiative is $29.5 billion, 
with only $2.7 billion of those savings programmed in fiscal 
year 2012, which the Army plans to achieve through aggressive 
plans to streamline headquarters, reduce overhead, terminate or 
reduce weapons systems.
    The fiscal year 2012 budget request comes at a time when 
the Army is at a turning point and is examining its post-war 
role. Your service is being challenged with sustaining an army 
at war, building readiness and strategic flexibility required 
to respond to future conflicts and accelerating the fielding of 
urgent warfighting capabilities while modernizing for future 
conflicts.
    Unfortunately, the Army does not have a good track record 
with its modernization efforts. A recent study noted that since 
2004 the service has spent between $3.3 billion and $3.8 
billion each year on programs that we eventually canceled. So I 
look forward to hearing from you today on some of the Army's 
modernization plans to develop and field a versatile and 
affordable mix of equipment to allow soldiers and units to 
succeed in both today and tomorrow's full operations.
    Along with challenges of modernizing the force, manpower 
issues are just as critical. The Army has been in continuous 
combat for 10 years, which puts a tremendous burden of stress 
on soldiers and their families. The Army has made progress in 
finding ways to mitigate the stress of multiple combat 
rotations and long family separations.
    The current size of the Army allows more time at home 
before being deployed. However, in a speech earlier this year 
at the U.S. Military Academy, Secretary Gates indicated that it 
will be increasingly difficult for Army leaders to justify the 
number, size, and costs of these heavy formations. Today I hope 
to hear your views on what the future Army force mix should be 
after operations in Iraq and Afghanistan wind down.
    Finally, I look forward to hearing from you both on your 
assessment of the Army's readiness to respond to unforeseen 
future military contingencies. We are all aware of potential 
threats from nations such as China and North Korea and Iran, 
but there are many more unknown flashpoints around the globe 
that the United States could be called upon to engage. With the 
Army continuing to support operations in Iraq and Afghanistan, 
efficiency initiatives and potentially large defense cuts to 
help reduce the national debt and difficult manpower decisions, 
I would like to get a better understanding of your concerns 
regarding the Army's readiness to respond to other 
contingencies around the world.
    And so, gentlemen, we sincerely appreciate your service to 
our Nation and the dedication and sacrifices made daily by men 
and women in our Army. We could not be more grateful for what 
those who wear our Nation's uniform do for our country each and 
every day. So I look forward to working with you to ensure that 
the fiscal year 2012 appropriations bill reflects the current 
and future needs of the U.S. Army.
    We have received your full statements, and I can assure you 
that they will be made part of the record.
    Now may I call upon the vice chairman, Senator Cochran?

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you. I am pleased to 
join you in welcoming our distinguished witnesses before the 
subcommittee this morning. We are here to review the budget 
request for the next fiscal year.
    The request proposes a number of significant changes and 
important budgetary issues for us to consider, but we look 
forward to working with you during the appropriations process 
as we review the budget request of the Department of the Army 
for this next fiscal year.
    We appreciate your service and we welcome you to the 
committee.
    Chairman Inouye. May I call upon Senator Shelby.
    Senator Shelby. Mr. Chairman, I look forward to hearing 
Secretary McHugh and General Dempsey. Thank you, Mr. Chairman.
    Chairman Inouye. Senator Mikulski.
    Senator Mikulski. Mr. Chairman, I just want to echo your 
remarks and that of the ranking member in thanking both 
Secretary McHugh and General Dempsey for all that they do to 
keep our country safe and to keep our troops safe. And I look 
forward to hearing their testimony in these frugal times, how 
we keep our commitment to the military in the same way that 
they keep their commitment to us.
    So thank you.
    Chairman Inouye. Senator Coats.
    Senator Coats. Mr. Chairman, I could not say it better than 
the four of you said it. I would just add a big ditto to all of 
that so we can get to the hearing.
    Chairman Inouye. Mr. Secretary.

               SUMMARY STATEMENT OF HON. JOHN M. MC HUGH

    Mr. McHugh. Thank you very much, Mr. Chairman, 
distinguished vice chairman, Senator Cochran, members of the 
subcommittee.
    As always, it is a pleasure to be back here in the halls of 
Congress where I had the honor of serving for some 17 years, 
but especially appreciate, as you noted, Mr. Chairman, my 
second opportunity to appear before this distinguished body and 
to discuss the status today as well as the future of the 
world's greatest force for freedom, the United States Army.
    But before I begin, with your indulgence, I would like to 
recognize--not introduce because I know you all know him--but 
to recognize and express my appreciation to the Senate as a 
whole for acting very expeditiously on a nomination that I 
think President Obama made very wisely of General Marty Dempsey 
as our new Chief of Staff, 37th Chief of Staff of the Army. And 
his is a career that spans some four decades, and at every 
level at which he has served, our new chief has made incredible 
contributions. And I can say very safely, having observed him 
and now approximately a month into the job, he has already 
begun to lead and shape our force for the future challenges 
that we may face. Simply put, he is an exceptional leader. He 
is a scholar and I do believe a friend. I and, indeed, the 
entire Army family are truly excited he is on board.
    With that, I want to thank each of you on this critically 
important subcommittee for your steadfast support of our 1.1 
million soldiers, 279,000 civilian employees, and as always, 
their families who also serve. With the leadership and 
assistance of the United States Congress and particularly all 
of you, America's Army continues to be at the forefront of 
combat, counterinsurgency, counterterrorism, and security 
assistance operations in nearly 80 countries around the world.
    In Iraq, our soldiers and civilians began one of the 
largest and most complex logistical operations in our Nation's 
history. As we continue to draw down our forces to meet the 
December 31, 2011 deadline, we have already closed or 
transferred over 86 percent of the bases that we formerly 
occupied to Iraqi authorities. We have reduced the number of 
United States personnel by over 75,000 and redeployed more than 
2.3 million pieces of equipment. And having just visited in 
Iraq in January, I can tell you firsthand the enormity of that 
retrograde operation and the exceptionally high morale of our 
remaining forces as they continue to advise and assist and 
train Iraqis to support what we all recognize is still a 
burgeoning democracy.
    Simultaneously, with drawdown operations in Iraq, your army 
has surged an additional 30,000 soldiers to Afghanistan to 
defeat the al Qaeda network and the Taliban insurgency. And 
this surge has enabled our soldiers and our Afghan partners to 
seize multiple sanctuaries in the traditional insurgent 
heartland of southern Afghanistan.
    Additionally, during this past year, our forces have 
trained 109,000 Afghan National Army soldiers, as well as 
41,000 Afghan National Police. And 2 weeks ago, I visited those 
great soldiers and their leaders in Afghanistan, and although 
operating, as you know, in an extraordinarily austere and 
dangerous environment against a determined enemy, our soldiers, 
your Army, alongside our Afghan and NATO partners are defeating 
those Taliban insurgents and al Qaeda terrorists. Each day they 
are taking back enemy strongholds, while simultaneously 
protecting and providing for the Afghan people.
    Although we have seen extraordinary success in recent days, 
including a heroic raid against a key al Qaeda leader, we 
should make no mistake. The stakes in Afghanistan are high. Our 
forces remain vigilant and committed to defeating our enemies, 
supporting our allies, and protecting our Nation's security.
    And overseas contingency operations are only one part of 
our Army's diverse requirements. Our soldiers and our 
civilians, all our Army components are committed to protecting 
our homeland not only from the threat of enemies who would harm 
us, but also from the ravages of natural and manmade disasters. 
From National Guard soldiers assisting with drug enforcement 
and border security to the Army Corps of Engineers, as we have 
seen in recent days responding to the catastrophic floods along 
the Mississippi, America's Army has been there to support 
local, State, and Federal partners in saving, protecting, and 
caring for our citizens.
    As the Army continues to fight global terrorists and 
regional insurgents, we must be ever mindful of the future and 
the enemies it may bring: hybrid threats, hostile state actors, 
to name just two. It is vital, therefore, that we have a 
modernization program, one that provides our soldiers with the 
full array of equipment necessary to maintain a decisive 
advantage over the enemies we are fighting today, as well as 
deter and defeat tomorrow's threats at a price that we can 
afford.
    Our fiscal year 2012 budget request is critical to 
achieving this goal by supporting the extraordinary strides 
being made in the Army's state-of-the-art network tactical 
wheeled vehicle and combat vehicle modernization programs.
    Regarding the network, this budget requests $974 million in 
procurement and $298 million in research and development for 
the Warfighter Information Network-Tactical, WIN-T, which will 
become the cornerstone of our battlefield communications 
system.
    The budget also contains $2.1 billion in procurement for 
the joint and combat communications systems, including the 
joint tactical radio system, or JTRS.
    As we look to modernize our vehicle fleets, we are asking 
for $1.5 billion for tactical wheeled vehicle modernization and 
over $1 billion to support vital research and development for 
combat vehicle modernization, including $884 million for the 
ground combat vehicle and $156 million for the modernization of 
Stryker, Bradley, and Abrams platforms.
    Along with advances in equipment, the Army is seeking new 
methods to use and secure our scarce energy resources. Clearly, 
future operations will depend on our ability to reduce our 
dependency, increase our efficiency, and use more renewable or 
alternative sources of energy. We have made great strides in 
this area. The Army has established a senior energy council, 
appointed a senior energy executive, and adopted a 
comprehensive strategy for energy security. Based on this 
strategy, we are developing more efficient generators and power 
distribution platforms. Factoring in fuel costs is part of our 
equipment modernizations, and we have instituted a net zero 
pilot program to holistically address our installations' 
energy, water, and waste needs.
    Moreover, we are changing how we do business by undertaking 
comprehensive emphasis to reform our procurement methods. In 
2010, General Casey and I commissioned an unprecedented blue 
ribbon review of the Army acquisition systems and did it from 
cradle to grave. We are currently analyzing the panel's 
insightful report and we will use it as a guide over the next 2 
years to improve the efficiency and the effectiveness of the 
Army acquisition process.
    But we did not stop there. To ensure that we purchased the 
right equipment to meet the soldiers' needs, we instituted a 
series of capability portfolio reviews to examine all existing 
Army requirements and terminate those programs that are 
redundant, do not work, or which are just too expensive. These 
broad-based reviews have already helped us to identify key gaps 
and wasteful redundancies while promoting good stewardship of 
our Nation's resources.
    I assure you we remain committed to using every effort to 
obtain the right system, supplies, and services at the right 
time in the most cost-effective, streamlined manner possible. 
Our soldiers and the taxpayers deserve no less. We look forward 
to working closely with this committee as we continue to 
implement these sweeping changes.
    Throughout it all, at its heart, our Army is people. 
Although our soldiers and civilians are better trained, led, 
and equipped and more capable than ever before, our forces are 
clearly stretched and our personnel are strained from a decade 
of war. This is evidenced by yet another year of discouraging 
rates of suicide and high-risk behavior not only among the 
regular Army, but the reserve components as well.
    In response, under the direct supervision of our Vice Chief 
of Staff, General Pete Chiarelli, the Army completed an 
unprecedented 15-month study to better understand suicide and 
related actions amongst our soldiers. In July, we published the 
first-ever health promotion, risk reduction, and suicide 
prevention report, a very frank and candid assessment designed 
to assist our leaders in recognizing and reducing high-risk 
behavior, as well as the stigma associated with behavioral 
healthcare. The lessons from this holistic review have been 
infused into every level of command and incorporated throughout 
our efforts to strengthen the resiliency of our soldiers, 
families, and civilians.
    Moreover, our fiscal year 2012 budget request provides $1.7 
billion to fund vital soldier and family programs to provide a 
full range of essential services to include the Army Campaign 
for Health Promotion, Risk Reduction, and Suicide Prevention; 
Sexual Harassment/Assault Response and Prevention; and 
Comprehensive Soldier Fitness.
    Caring for our personnel and their families, however, goes 
beyond mental, physical, and emotional health. We are committed 
to protecting their safety both at home and abroad from the 
internal and external threats. As part of our continuing 
efforts to learn and adapt from the Fort Hood shooting, the 
Army has instituted a number of key programs to enhance 
awareness, reporting, prevention, and response to such threats. 
For example, we have implemented Eye Watch and I Salute 
programs to improve our ability to detect and mitigate high-
risk behavior indicative of an insider threat.
    To enhance interoperability with local, regional, Federal 
agencies, Army installations will also fully implement the 
National Incident Management System by 2014. We will field the 
FBI's eGuardian system and require all installations to have 
emergency management equipment such as e-911 and mass warning 
notification systems.
    Let me close by mentioning my deep appreciation and 
admiration for all those who wear the Army uniform, as well as 
the great civilians and families who support them. Daily I am 
reminded that these heroes make enormous sacrifices for the 
defense of this Nation, sacrifices that simply cannot be 
measured.
    Moreover, I know that each of you plays a key role in the 
success of our Army. Your efforts and support ensure that our 
soldiers, civilians, and Army families receive the critical 
resources and authorities they need, and we cannot do it 
without you.

                           PREPARED STATEMENT

    So thank you. I deeply appreciate this opportunity to be 
before you, and I look forward to your questions.
    Chairman Inouye. Thank you very much, Mr. Secretary.
    [The statement follows:]
           Prepared Statement of the Honorable John M. McHugh
                              introduction
    In the past decade, America's Army has been challenged and 
prevailed in some of the most daunting tasks in the history of our 
military. Soldiers from the Active Army, Army National Guard and Army 
Reserve demonstrate indelible spirit, sacrifice and sheer determination 
in protecting our national interests and supporting our friends and 
allies around the world.
    In the coming years, our top priorities will be to maintain our 
combat edge while we reconstitute the force for other missions and 
build resilience in our people. The Army has made significant progress 
in restoring balance through the four imperatives we identified in 
2007--sustain, prepare, reset, and transform. We are on track to 
achieve a sustainable deployment tempo for our forces and restore 
balance to the Army beginning in fiscal year 2012. We successfully 
completed combat operations in Iraq, transitioning from Operation Iraqi 
Freedom to Operation New Dawn while executing one of the largest 
wartime retrogrades in the Nation's history. Operation New Dawn marks 
the beginning of a new mission for our Army while demonstrating our 
ongoing commitment to the government and people of Iraq. Concurrently, 
we surged Soldiers to Afghanistan in support of a new strategic 
direction in this vital theater. Even with all we have done, there is 
still much work to do.
    The war is not over yet, and we remain in an era of persistent 
conflict facing an uncertain and increasingly complex strategic 
environment. Hybrid threats made up of conventional, irregular, 
criminal and terrorist capabilities will continue to test our forces. 
These threats will avoid our strengths and attack us asymmetrically. 
Therefore, we must continue to organize our formations, update our 
doctrine and prepare our forces for the full spectrum of operations.
    Additionally we remain aware of the difficult economic conditions 
at home. These conditions will drive our efforts to transform our 
generating force into an innovative and adaptive organization. We must 
adapt our institutions to effectively generate trained and ready forces 
for Full Spectrum Operations, while seeking ways to improve efficiency 
and reduce overhead expenditures that demonstrate wise stewardship of 
our taxpayers' dollars. With the continued support of the American 
people and Congress, we remain committed to the readiness and well 
being of our Soldiers, Civilians and Family members. As the Strength of 
the Nation, the American Soldier is the centerpiece of everything we 
do.
                           where we have been
    For nearly a decade, the Army has been operating at an exhausting 
pace. High operational demands have stressed our ability to supply 
trained and ready forces during most of this period. The result was an 
Army out of balance, lacking strategic flexibility to respond to other 
contingencies and lacking the ability to sustain the all-volunteer 
force. This past year the Army continued to make great strides toward 
restoring balance to the force.
    The drawdown in Iraq and change of mission from Operation Iraqi 
Freedom to Operation New Dawn on September 1, 2010 represented a 
significant accomplishment made possible by the extraordinary 
determination, hard work and sacrifice of American Soldiers, their 
Families and the Civilian workforce. During Operation New Dawn, the 
remaining 50,000 U.S. service members serving in Iraq will conduct 
stability operations focused on advising, assisting and training Iraqi 
Security Forces, all while engineering the responsible drawdown of 
combat forces in one of the largest and most complex logistical 
operations in history. The Army closed or transferred over 80 percent 
of the bases to Iraqi authorities, reduced the number of U.S. personnel 
by over 75,000 and redeployed more than 26,000 vehicles.
    Concurrently, we implemented the President's direction to surge an 
additional 30,000 Soldiers to Afghanistan to defeat the al-Qaeda 
terrorist network and the Taliban insurgency. This surge enabled our 
Soldiers and our Afghan partners to take back insurgent sanctuaries in 
the traditional insurgent Taliban heartland of southern Afghanistan. 
Additionally, during this past year our forces have trained 109,000 
Afghan National Army Soldiers, as well as 41,000 Afghan National 
Police. As a result, we are beginning to see an improvement in Afghan 
National Security Force capability.
    Last year, the Army responded to three major natural and 
environmental disasters while continuing to support homeland defense. 
The Army provided humanitarian relief in response to the devastating 
earthquake in Haiti, the summer floods in Pakistan and the catastrophic 
oil spill in the Gulf of Mexico. Additionally, our National Guard 
Soldiers were sent to the Nation's southern border to help control 
increased illegal activity. They assisted Federal law enforcement 
agencies responsible for drug enforcement and the security of our 
borders.
    During this past year the Army continued to increase its knowledge 
and understanding of Full Spectrum Operations. Last October, the Army 
conducted the first full spectrum rotation against a hybrid threat at 
the Joint Readiness Training Center, Fort Polk, Louisiana. This was the 
first time in 5 years that we have been able to conduct a training 
rotation focused on anything other than operations in Iraq and 
Afghanistan. As we continue to build dwell and increase the time 
Soldiers have at home, more units will conduct full spectrum training 
rotations at the Combat Training Centers increasing our ability to 
hedge against the unexpected and restoring strategic flexibility to the 
force.
    Though we remain heavily engaged, the Army is regaining balance. We 
are starting to be able to breathe again. We must continue efforts to 
fully restore balance while maintaining the momentum we have achieved 
over the past 4 years. The strategic environment continues to be 
complex, and the stakes are too high to become complacent or 
underprepared.
                          restoring balancing
    Through the continued support of Congress and the American people, 
we will lessen the stress on America's Army by focusing on the 
imperatives we established 4 years ago. We must continue to sustain the 
Army's Soldiers, Families and Civilians; prepare forces for success in 
the current conflicts; reset returning units; and transform the Army to 
meet the demands of the second decade of the 21st century.
                                sustain
    Our first imperative is to sustain our all-volunteer force. We must 
reduce the stress on Soldiers, Families and Civilians who have borne 
the hardship of 9\1/2\ years of conflict. In addition to addressing 
this high level of stress, the Army invests time, energy and resources 
into quality of life programs. We must continue to inculcate resilience 
in the force, providing Soldiers, Families and Civilians the skill sets 
necessary to deal with adversity.
Goals
    The most important component required to restore balance within our 
Army is to increase the time between deployments, known as dwell time. 
A study completed in 2009 confirmed what we already intuitively knew: 
Soldiers require at least 2 to 3 years to fully recover, both mentally 
and physically, from the rigors of a 1 year combat deployment. Training 
and schooling necessary for a professional Soldier to sustain warrior 
and leader skills are also very important. With these critical 
considerations, our interim objective is to achieve and then maintain a 
dwell time of at least 2 years at home for every year deployed for the 
active component Soldier and 4 years at home for every year mobilized 
for the reserve component Soldier. In 2011 we will examine the cost and 
benefits of increasing dwell to 1:3 and 1:5 respectively with a 9 month 
Boots on the Ground policy.
    In addition to increasing dwell time, the Army must continue to 
recruit and retain quality Soldiers and Civilians from diverse 
backgrounds. People are our most important resource, and to sustain an 
all-volunteer force it is essential to attract those with an aptitude 
for learning and then retain them as they develop the tactical, 
technical and leadership skills the Army needs. To grow and develop the 
Army's future leadership, we need appropriate incentives to encourage 
sufficient numbers of high quality personnel to continue to serve 
beyond their initial term of service.
    Another important consideration is the health of the force. We must 
provide our Soldiers and Civilians, as well as their Families, the best 
possible care, support and services by establishing a cohesive holistic 
Army-wide strategy to synchronize and integrate programs, processes and 
governance. There are myriad programs available to accomplish this, 
such as Army Family Action Plan, the Army Family Covenant and other 
community covenants. Our focus is on improving access to and 
predictability of services. We will enhance support for the wounded, 
Families of the Fallen, victims of sexual assault and those with mental 
health issues. Our effort to build an entire spectrum of wellness--
physical, emotional, social, family and spiritual--will support 
achieving Army strategic outcomes of readiness, recruitment and 
retention. The Army is also building resilience in the force by 
addressing the cumulative effects of 9\1/2\ years of war. We have 
designed a comprehensive approach that puts mental fitness on the same 
level as physical fitness by establishing a Comprehensive Soldier 
Fitness program, developing Master Resiliency Trainers and implementing 
a campaign for Health Promotion and Risk Reduction. The Army has a 
requisite duty to provide world class healthcare for our wounded, ill 
or injured Warriors and to successfully transition these Soldiers and 
their Families back to the Army or civilian life. This is coordinated 
through the Warrior Care and Transition Program and ably led by well 
resourced Warrior Transition Units. Our final and most solemn 
responsibility is to respect and honor the sacrifice of our fallen 
comrades by continuing to support the needs of their Families.
Progress
    Achieved 101 percent of recruiting goals for 2010, exceeding both 
numeric goals and quality benchmarks for new recruits. Over 98 percent 
of recruits had high school diplomas, the highest percentage since 
1992.
    Exceeded reenlistment goals: 114 percent for the active component 
and 106 percent for the reserve component.
    Decreased accidents and mishaps in several key categories, to 
include: Off-duty fatalities down by 20 percent; on-duty critical 
accidents down by 13 percent; Army combat vehicle accidents down by 37 
percent; and manned aircraft accidents down by 16 percent.
    Expanded Survivor Outreach Services to over 26,000 Family members, 
providing unified support and advocacy, and enhancing survivor benefits 
for the Families of our Soldiers who have made the ultimate sacrifice.
    Graduated more than 3,000 Soldiers and Civilians from the Master 
Resilience Trainer course.
    Surpassed 1 million Soldiers, Civilians and Family members who have 
completed the Army's Global Assessment Tool to begin their personal 
assessment and resilience training.
Fiscal Year 2012 Budget Highlights for Sustain
    Provides $1.7 billion to fund vital Soldier and Family programs to 
provide a full range of essential services to include the Army Campaign 
for Heath Promotion, Risk Reduction, and Suicide Prevention; Sexual 
Harassment/Assault Response and Prevention; and Comprehensive Soldier 
Fitness. In addition, this funding supports Family services including 
welfare and recreation, youth services and child care, Survivor 
Outreach Services and education and employment opportunities for Family 
members.
    Provides Soldiers with a 1.6 percent military basic pay raise, a 
3.4 percent basic allowance for subsistence increase and a 3.1 percent 
basic allowance for housing increase.
    Continues to fund the Residential Communities Initiatives program 
which provides quality, sustainable residential communities for 
Soldiers and their Families living on-post and continues to offset out-
of-pocket housing expenses for those residing off-post.
                                prepare
    Properly preparing our Soldiers for combat against a ruthless and 
dedicated enemy is critical to mission success. To do so, we must 
provide the appropriate equipment and training to each Soldier and 
ensure units are appropriately manned. Our generating force must 
continuously adapt--tailoring force packages and quickly readjusting 
training, manning and equipping--to ensure units have the tools 
necessary to succeed in any conflict. At the same time, we are 
aggressively pursuing efficiency initiatives designed to reduce 
duplication, overhead and excess as well as to instill a culture of 
savings and restraint.
Goals
    The Army identified four key goals necessary to adequately prepare 
the force for today's strategic environment. The first was to 
responsibly grow the Army. The congressionally approved growth of the 
Army was completed ahead of schedule in 2009. However, after a decade 
of persistent conflict, a number of other factors--non-deployable 
Soldiers, temporary requirements in various headquarters and transition 
teams, our wounded Warriors, elimination of stop-loss--has impacted our 
ability to adequately man units for deployment. As a result, the 
Secretary of Defense approved an additional temporary end strength of 
22,000 Soldiers, 7,000 of whom were integrated in 2010. The Army will 
return to the congressionally approved active component end strength of 
547,400 by the end of fiscal year 2013. The second key goal addressed 
training. The Army will continue its commitment to leader, individual 
and collective training in order to remain mentally, physically and 
emotionally agile against a highly decentralized and adaptive foe. The 
third key goal is to provide the Army with effective equipment in a 
timely and efficient manner. We must implement a new materiel 
management approach to ensure a timely availability of equipment that 
not only protects our Soldiers and maintains our technological edge, 
but does so prudently.
    The final and most critical goal is to fully embrace our rotational 
readiness model--a process we call Army Force Generation (ARFORGEN). 
ARFORGEN will allow a steady, predictable flow of trained and ready 
forces to meet the Nation's needs across the full spectrum of conflict. 
Drawing from both active and reserve components, the ARFORGEN process 
allows us to consistently generate one corps headquarters, five 
division headquarters, 20 brigade combat teams, and 90,000 enabler 
Soldiers (i.e., combat support and combat service support). When the 
current demand comes down, it will allow us to build and maintain the 
ability to surge one corps headquarters, three division headquarters, 
10 brigade combat teams and 40,000 enabler Soldiers as a hedge against 
contingencies. ARFORGEN also allows a predictable and sustainable dwell 
time for Soldiers. We are currently working to better align the 
generating force activities and business processes that support 
ARFORGEN.
Progress
    Trained and deployed seven division headquarters, 16 brigade combat 
teams, four combat aviation brigades, and eight multi-functional/
functional brigades for deployments to Operation New Dawn and Operation 
Enduring Freedom in 2010.
    Increased Army inventory of Mine Resistant Ambush Protected 
vehicles to 20,000 vehicles.
    Deployed more than 4,300 Army Civilians to Iraq and Afghanistan to 
support operations in both theaters.
    Discontinued the Stop Loss program; last Soldiers affected by the 
policy will leave active duty in early 2011.
Fiscal Year 2012 Budget Highlights for Prepare
    Supports a permanent, all volunteer force end strength of 547,400 
for the active component, 358,200 for the National Guard and 205,000 
for the Army Reserve in the base budget. Provides for a 22,000 
temporary increase in the active component in the Overseas Contingency 
Operations request (14,600 end strength on September 30, 2012).
    Includes $2.1 billion in procurement for Joint and Combat 
Communications Systems, including the Joint Tactical Radio System 
(JTRS), and an additional $1.5 billion in Tactical Wheeled Vehicle 
modernization funding.
    Provides over $5.6 billion for the Army to implement training 
strategies in support of Full Spectrum Operations, designed to prepare 
units for any mission along the spectrum of conflict, i.e., to perform 
the fundamental aspects of offense, defense, and stability operations 
against hybrid threats in contemporary operational environments.
    Invests $1.5 billion in 71 UH-60M/HH-60M Black Hawk Helicopters--a 
critical step in modernizing the utility helicopter fleet. Provides a 
digitized cockpit, new engine for improved lift and range, and wide-
chord rotor blades.
    Devotes $1.4 billion to procure 32 new and 15 remanufactured CH-47F 
Chinook Helicopters with a new airframe, Common Avionics Architecture 
System (CAAS), digital cockpit and a digital advanced flight control 
system, as well as an additional $1.04 billion to modernize the AH-64 
Apache.
                                 reset
    In order to ensure a quality force and a level of readiness 
necessary for the complex range of future missions, we must continue to 
reset our units' Soldiers, Families and equipment. This is especially 
critical given the tempo of deployments. It is a process that must 
continue for two to three years after the end of operations in 
Afghanistan and Iraq.
Goals
    In order to achieve our reset goals, we continue every effort to 
revitalize Soldiers and Families by allowing them an opportunity to 
reestablish, nurture and strengthen personal relationships immediately 
following a deployment. This includes a review of our procedures for 
demobilization of reserve component Soldiers. We strive to make this 
post-deployment period as predictable and stable as possible. The Army 
also seeks to repair, replace and recapitalize equipment. As we 
continue the responsible drawdown in Iraq while simultaneously building 
up capability to complete our mission in Afghanistan, it is critical 
that we efficiently replace all equipment that has been destroyed, and 
that we repair or recapitalize equipment impacted by extreme 
environmental conditions or combat operations. We will achieve this by 
adapting the production and manufacturing processes in our arsenals and 
depots, sustaining existing efficiencies, improving collaboration and 
eliminating redundancies in materiel management and distribution. This 
will save the Army money in equipment costs and lessen the strain on 
the supply lines into and out of combat theaters. We finished the reset 
pilot program which was designed to improve the efficiency and 
effectiveness of the reset process, and we will continue to apply 
lessons learned. As we drawdown in Iraq and eventually in Afghanistan, 
we will continue to focus on retraining Soldiers, units and leaders in 
order to effectively reset the force. Too often over the last 9\1/2\ 
years, the Army had to prioritize deployment over certain education and 
training opportunities for Soldiers. Given the uncertain strategic 
environment we face in the future, it is critical that the Army focus 
on education and leader development as well as provide Soldiers, units 
and leaders training for full spectrum operations.
Progress
    Sponsored over 2,600 Strong Bonds events designed to strengthen 
Army Families with over 160,000 Soldiers and Family members 
participating.
    Completed the reset of 29 brigades' worth of equipment, and 
continued the reset of 13 more.
    Distributed 1.3 million pieces of equipment, closed or transferred 
418 bases, drew down 16 Supply Support Activities and redeployed over 
76,000 U.S. military, civilian and coalition personnel--all in support 
of the responsible drawdown of forces from Iraq.
    Deployed Army aircraft with Condition Based Maintenance plus (CBM+) 
technologies into combat theaters. CBM+ is a proactive maintenance 
capability that uses sensor-based health indications to predict failure 
in advance of the event providing the ability to take appropriate 
preventive measures. A cost-benefit analysis for CBM+ indicated that it 
has a Benefit-to-Investment Ratio of 1.2:1 given a 10 year operations 
period.
Fiscal Year 2012 Budget Highlights for Reset
    Provides $4.4 billion to reset Army equipment through the Overseas 
Contingency Operations (OCO) request.
    Continues to support training and sustainment of Army forces 
including individual skills and leader training; combined arms training 
toward full spectrum operations; and adaptable, phased training based 
on the Army Force Generation (ARFORGEN) process.
                               transform
    In order to provide combatant commanders with tailored, 
strategically responsive forces that can dominate across the spectrum 
of conflict in an uncertain threat environment, the Army continues to 
transform our operating force by building versatile, agile units 
capable of adapting to changing environments. We continue to convert 
brigades to more deployable, tailorable and versatile modular 
organizations while rebalancing our skills to better prepare for the 
future. This process not only positions us to win today's conflicts, 
but it also sets the conditions for future success.
    To support the operating force, our generating force must become a 
force driven by innovation, able to adapt quickly and field what our 
Soldiers and their Families will require. We must transform the 
business systems of our generating force by developing a fully 
integrated management system, improving the ARFORGEN process, adopting 
an enterprise approach and reforming the requirements and resource 
processes that synchronize materiel distribution, training and 
staffing. Transformation of the generating force is key to our ability 
to effectively manage, generate and sustain a balanced Army for the 
21st century.
Goals
    Our plan identifies five goals necessary for effective 
transformation. The first is completing our modular reorganization. Our 
plan calls for converting all Army brigades from cold war formations to 
more deployable, tailorable and versatile modular formations. Our 
reorganized units have proven themselves extremely powerful and 
effective on today's battlefields. The second goal involves accelerated 
fielding of proven, advanced technologies as part of our modernization 
of the force. The Army will develop and field versatile, affordable, 
survivable and networked equipment to ensure our Soldiers maintain a 
decisive advantage over any enemy they confront. In the Information 
Age, the Army must be networked at all times to enable collaboration 
with Joint, combined, coalition and other mission partners to ensure 
our Soldiers have a decisive advantage. Third, we must institutionalize 
the investment in our reserve component and obtain assured and 
predictable access to them, so that the Army can achieve the strategic 
flexibility and operational depth required to respond to emerging 
contingencies across the spectrum of conflict. We are systematically 
building and sustaining readiness while increasing predictability for 
reserve component Soldiers, Families, employers and communities through 
the ARFORGEN process. We must modify Army policies and update 
congressional authorizations in order to fully realize the potential of 
an operationalized reserve component and capitalize on their 
significant combat experience. The fourth goal is the re-stationing of 
forces and Families around the world based on the Base Realignment and 
Closure statute. The Army is in the final year of this complex and 
detailed 5 year effort that has created improved work and training 
facilities for our Soldiers and Civilians as well as new or improved 
housing, medical and child care facilities for our Families. The last 
aspect of transformation is Soldier and leader development, which is an 
important factor in maintaining the profession of arms. Today's Army 
has a tremendous amount of combat experience that must be augmented 
with continued professional education and broadening opportunities in 
order to develop agile and adaptive military and civilian leaders who 
are able to operate effectively in Joint, interagency, 
intergovernmental and multi-national environments.
Progress
    Reached 98 percent completion of the modular conversion of the 
Army. The fiscal year 2012 budget will support completion of this 
process.
    Restored nearly a brigade combat team's worth of equipment and its 
entire sustainment package in the Army Pre-Positioned Stocks program 
for the first time since 2002, greatly enhancing the Army's strategic 
flexibility.
    Provided identity management capabilities for the Department of 
Defense (DOD) and other U.S. Government and international partners 
through the DOD Automated Biometric Identification System. The nearly 
1.3 million biometric entries enabled latent identification of 
approximately 700 Improvised Explosive Device (IED) events, 1,200 IED-
related watch list hits, and 775 high-value individual captures in 
2010.
    Issued Soldiers in the 10th Mountain Division and 101st Airborne 
Division the Soldier Plate Carrier System--a lightweight vest that 
provides ballistic protection equal to the Improved Outer Tactical Vest 
in a standalone capacity while reducing the Soldier's load, enhancing 
comfort and optimizing mobility.
    Fielded 20 million Enhanced Performance Rounds, providing our 
Soldiers with leap-ahead performance over the previous 5.56 mm round. 
The Enhanced Performance Round provides excellent performance against 
soft targets, has an exposed penetrator that is larger and sharper to 
penetrate hard targets and is more effective at extended ranges. The 
round is also lead-free.
    Educated over 300 General Officers and Senior Civilian Leaders in 
business transformation concepts and management practices through the 
Army Strategic Leadership Development Program.
    Disposed of over 24,000 acres and closed three active installations 
and five U.S. Army Reserve Centers and is on course to complete BRAC in 
fiscal year 2011.
    Supported DOD in Chemical, Biological, Radiological, Nuclear and 
High Yield Explosives (CBRN) Consequence Management support required 
for a deliberate or inadvertent CBRN incident by transforming the CBRN 
Consequence Management Response Force (CCMRF) to a new response force 
within the CBRN Consequence Management Enterprise. The CBRN Consequence 
Management Enterprise consists of a Defense CBRN Response Force, two 
Command and Control CBRN Response Elements, 10 Homeland Response 
Forces, 17 CBRN Enhanced Response Force Packages, and 57 Weapons of 
Mass Destruction Civil Support Teams.
Fiscal Year 2012 Budget Highlights for Transform
    Provides $974 million in procurement and $298 million in continued 
Research, Development, Test and Evaluation of the Warfighter 
Information Network-Tactical (WIN-T) which will become the cornerstone 
tactical communications system by providing a single integrating 
framework for the Army's battlefield networks.
    Provides $1.04 billion in support of the Army's Combat Vehicle 
Modernization Strategy including $884 million for the Ground Combat 
Vehicle and $156 million for the modernization of the Stryker, Bradley 
and Abrams combat vehicles.
                           strategic context
    As America enters the second decade of the 21st century, the Army 
faces a broad array of challenges. First and foremost, we must succeed 
in Afghanistan and Iraq and continue to combat violent extremist 
movements such as al-Qaeda and other terrorist organizations. We must 
also prepare for future national security challenges that range across 
the spectrum of conflict. All of this must be accomplished within the 
context of challenging global economic conditions.
Global Trends
    Global trends will continue to shape the international environment. 
Although such trends pose both dilemmas and opportunities, their 
collective impact will increase security challenges and frame the 
conflicts that will confront the United States and our allies.
    Globalization has spread prosperity around the globe and will 
continue to reduce barriers to trade, finance and economic growth. 
However, it will also continue to exacerbate tensions between the 
wealthy and the poor. Almost 85 percent of the world's wealth is held 
by 10 percent of the population while only 1 percent of the global 
wealth is shared by the bottom 50 percent of the world's population. 
This disparity can create populations that are vulnerable to 
radicalization.
    Globalization is made possible through significant technological 
advances that benefit people around the world. Unfortunately, the same 
technology that facilitates an interconnected world is also used by 
extremist groups to proliferate their ideology and foment terrorism. 
Additionally, there are an increasing number of foreign government-
sponsored cyber programs, politically motivated individuals, non-state 
actors and criminals who are capable of initiating potentially 
debilitating attacks on the electronic infrastructure of our Nation and 
allies.
    Population growth in the developing world creates new markets, but 
the accompanying youth bulge can create a population of unemployed, 
disenfranchised individuals susceptible to extremist teachings that 
threaten stability and security. Furthermore, the bulk of the 
population growth is expected to occur in urban areas. Future military 
operations are more likely to occur in densely populated urban 
terrain--among the people rather than around them.
    The demand for resources such as water, energy and food will 
increase competition and the propensity for conflict. Even as countries 
develop more efficient uses of natural resources, some countries, 
particularly those with burgeoning middle classes, will exacerbate 
demands on already scarce resources.
    Proliferation and failing states continue to be the two trends of 
greatest concern. Proliferation of weapons of mass destruction 
increases the potential for destabilizing catastrophic attacks. 
Meanwhile, failed or failing states that lack the capacity or will to 
maintain territorial control can provide safe havens for terrorist 
groups to plan and export terror. The merging of these two trends is 
particularly worrisome: failing states that offer safe haven to 
terrorists seeking weapons of mass destruction. Al-Qaida and affiliated 
terrorist groups already seek weapons of mass destruction and will use 
them against Western interests given the opportunity.
Persistent Conflict
    Persistent conflict has characterized the environment in which the 
Army has operated over the last 9\1/2\ years. This protracted 
confrontation among state, non-state and individual actors, using 
violence to further their ideological and political goals, will likely 
continue well into the second decade of the 21st century. As a result, 
our commitments in the future will be more frequent and continuous. 
Conflicts will arise unpredictably, vary in intensity and scope and 
will be less susceptible to traditional means of conflict resolution. 
Concurrently, the Army's Soldiers and Civilians will respond to natural 
disasters and humanitarian emergencies in support of civil authorities 
both at home and abroad. The Nation will continue to rely upon the Army 
to be ready to conduct a wide range of operations from humanitarian and 
civil support to counterinsurgency to general war.
    Violent extremism in various forms will continue to constitute the 
most likely and immediate threat around the world. A more dangerous 
threat will come from emergent hybrid adversaries who combine the 
agility and flexibility of being an irregular and decentralized enemy 
with the power and technology of a nation state. These security 
challenges, in whatever form they are manifested, constitute the threat 
that the Army and our Nation will face for the foreseeable future. Our 
Army must remain alert to changes in this volatile environment and 
build the agility to anticipate and respond to change by maintaining 
our combat edge.
                            the next decade
    The Nation continues to be faced with persistent and ruthless foes 
that maintain a clear intent to attack us on our soil. Entering the 
future under these conditions, the Army remains a resilient but 
stretched force--one that has performed superbly while simultaneously 
transforming in the midst of a war. The high demand we have seen in 
Iraq and Afghanistan will likely recede over the next few years, but 
other demands will surely arise. Our Soldiers and Civilians will have 
more time at home, and that will necessitate a different type of 
leadership at our garrisons between deployments. Given this future, the 
Army's challenge in the second decade of the century is to maintain our 
combat edge while we reconstitute the force, and build resilience for 
the long haul.
Maintaining Our Combat Edge
    Beginning in 2012 we anticipate having about as many BCTs available 
that are not earmarked for Iraq and Afghanistan as we will have of 
those deploying. It will be imperative that we remain focused on tough, 
demanding training at home station and at our training centers to 
ensure that our Soldiers and units sustain their combat edge. This 
training must be accomplished at an appropriate tempo and while meeting 
the unique challenges associated with increased time at home. Those 
units who are not deploying to Iraq or Afghanistan will undergo full 
spectrum training and be available to combatant commanders for security 
cooperation engagements, exercises and other regional requirements as 
well as fulfilling our requirements for a Global Response Force and the 
CBRNE Consequence Management Response Force. To do this, the Army will 
need to revitalize home station and leader development programs. We 
must continue to challenge our young, combat-seasoned leaders who will 
lead our Army into the second decade of this century and beyond.
    Another aspect of maintaining our combat edge involves codifying 
our experience and lessons learned. Institutionally, we must refine our 
doctrine and warfighting concepts. While our understanding of Full 
Spectrum Operations has matured, we must continue to clarify how we 
define and how we conduct Full Spectrum Operations across the spectrum 
of conflict from stable peace to general war. As units have more time 
at home, we will train against the wider range of threats and in a 
broader range of environments. We will use these experiences to drive 
the continued adaptation of the Army.
Reconstituting the Force
    The Army must reconstitute the force, ensuring excellence in core 
competencies while building new capabilities to support an uncertain 
and complex future operating environment. Reconstitution requires not 
only completely resetting redeploying units, but also continuous 
adaptation of our forces as we move forward in a period of continuous 
and fundamental change. While the Army has almost finished transforming 
to modular formations and balancing the force, we continue to integrate 
the lessons learned from 9\1/2\ years at war with our expectations of 
the future. The Army's Training and Doctrine Command (TRADOC) commenced 
an in-depth study of our force mix and force design to ensure that we 
have the right capabilities in the right numbers in the right 
organizations for the future. We are committed to continually 
transforming our force to retain the flexibility and versatility it 
will need for the uncertain future environment.
    Another area that will require continual adaption is our mix of 
active and reserve component forces. The Nation has been at a state of 
national emergency for 9\1/2\ years. As a result, the Army has had 
continuous access to the reserve component through partial 
mobilization. The Army National Guard and Army Reserve have performed 
magnificently, and the relationship between components is better than 
it has ever been. Our Soldiers have fought together and bled together, 
and more than ever, we are one Army--a Total Force. Our Nation cannot 
lose the enormous gains we have made.
    Transforming the reserve component into an enduring operational 
force provides a historic opportunity for the Army to achieve the most 
cost effective use of the entire force. To that end, the Army recently 
completed a study of what the future role of our reserve component 
should be in an era of persistent conflict in which continuous 
deployment is the norm. The steady, consistent and recurring demand for 
reserve capabilities during this decade has posed significant 
challenges for a force organized and resourced as a strategic reserve. 
In response, the Army recast its reserve forces from the part-time 
strategic reserve role to a fully integrated and critical part of an 
operational, expeditionary Army. We are seeking changes to achieve 
affordable, predictable and assured access to the reserve component for 
the full range of assignments in the homeland and abroad. One thing is 
certain across every echelon of this Army; we cannot relegate the Army 
National Guard and Army Reserve back to a strategic reserve. The 
security of the Nation can ill afford a reserve force that is under-
manned, under-equipped or at insufficient levels of training and 
readiness.
    The other significant element of reconstitution--modernization--is 
designed to give our Soldiers a decisive advantage in every fight. The 
goal of our modernization strategy is to develop a versatile mix of 
tailorable and networked organizations that operate on a rotational 
cycle. This enables us to routinely provide combatant commanders 
trained and ready forces to operate across the spectrum of conflict. 
This involves developing and fielding new capabilities while 
modernizing and recapitalizing old capabilities. Our top two 
modernization initiatives will be to develop, test and field the 
network and to field a new Ground Combat Vehicle in 7 years. Throughout 
this process, our industrial base will continue to identify and adopt 
improved business practices and maximize efficiencies to repair, 
overhaul, produce and manufacture in support of modernization and 
recapitalization efforts.
Building Resilience
    As we look toward the next decade, we must also build resilience in 
our people. The last 9\1/2\ years have taken a physical, mental and 
emotional toll on our Soldiers, Civilians and Family members. No one 
has been immune to the impacts of war. This decade of experience, 
combined with the reality that our Nation is in a protracted struggle, 
underscores how important it is that we take advantage of our time at 
home to strengthen our force for the challenges ahead, even as we 
continue to deal with the continuing impacts of war. Although off-duty, 
high risk behavior is a continuing challenge, we have made significant 
progress in the last 10 years in reducing accidental fatalities. This 
highlights the resilience of our force as our Soldiers find healthier 
ways to handle the stresses of Army life. In addition to the Army 
Safety Program, last year the Army began two efforts designed to 
strengthen our Soldiers, Families and Civilians for the challenges 
ahead: Comprehensive Soldier Fitness and the Army Campaign for Health 
Promotion, Risk Reduction and Suicide Prevention. We will 
institutionalize the best of both of these programs into the force over 
the next year.
The Network
    The last 9\1/2\ years of war have demonstrated that the network is 
essential to a 21st century, expeditionary Army. Networked 
organizations provide an awareness and understanding required by 
leaders who must act decisively at all points along the spectrum of 
conflict, and by Soldiers on the ground who are executing the mission. 
The network is also essential for planning and operating with Joint, 
coalition and interagency partners. The network, therefore, is the 
Army's number one modernization effort.
    The Army's portion of the Department of Defense network, 
LandWarNet, must be able to provide Soldiers, Civilians and mission 
partners the information they need, when they need it and in any 
environment--from the garrison to the tactical edge. To do so, it must 
be a completely integrated and interoperable network, from the highest 
to the lowest echelon, forming a true enterprise network. The Army is 
pursuing critical initiatives to build this enterprise capability, 
including an enterprise e-mail, calendar-sharing and ID management 
service (through a partnership with the Defense Information Systems 
Agency), data center consolidation and Active Directory consolidation. 
These initiatives will increase warfighting effectiveness, improve 
network security, save hundreds of millions of dollars over the next 5 
years and reduce infrastructure. Additionally, the Army is transforming 
business systems information technology to better support our business 
operations and strategic leader decisionmaking.
    The Army is also changing the way it supplies network systems and 
capabilities to operational units by using an incremental approach to 
modernization. By aligning the delivery of new technology with the 
ARFORGEN process as it becomes available, we ensure the integration of 
network capability across our combat formations. This ``capability 
set'' approach will field enhanced performance in a more timely and 
efficient manner.
Ground Combat Vehicle
    To operate in austere conditions against a lethal, adaptive enemy, 
our Soldiers need a fighting vehicle that is capable of full spectrum 
operations with better levels of protection than our current vehicles. 
To meet that need, the Army is focused on developing a versatile ground 
combat vehicle that will meet an array of anticipated future 
requirements and see its first delivery in 7 years. It will provide the 
needed protection against a variety of threats, including that of 
improvised explosive devices, and deliver Soldiers to the fight under 
armor. Even with the significant capabilities that a new Ground Combat 
Vehicle will provide, it comprises only one element of the Army's 
overall combat vehicle modernization strategy. Our strategy also 
addresses improvements to vehicles like the Paladin howitzer and 
Stryker combat vehicles, integration of the MRAP into our formations 
and prudent divestment of obsolete systems.
                          strategic crossroads
    Our Nation and its Army are positioned at a unique point in 
history. This is not quite like any other year. We must now consider 
the hard-won lessons of recent combat experience, current and 
anticipated resource constraints and the uncertainty of the future. The 
decisions we make will have far reaching and long lasting implications. 
This calls for deliberate and thoughtful choices and actions as we 
determine where to best invest our Nation's precious resources.
Transforming the Generating Force
    Over the course of the past decade, the operational Army has 
evolved dramatically. The need for change was driven by a fundamental 
reality: daily contact with a decentralized, adaptive, creative and 
deadly enemy. The Army's generating force, which prepares, trains, 
educates and supports Army forces worldwide, is also working to rapidly 
address the demands placed on the organization by both the current and 
future operating environments. It has performed magnificently to 
produce trained and ready forces, even while seeking to adapt 
institutional business processes.
    Furthermore, the Army is working to provide ``readiness at best 
value'' in order to help us live within the constraints imposed by the 
national and international economic situation. In short, the need to 
reform the Army's institutional management processes and develop an 
Integrated Management System, while continuing to meet combatant 
commander requirements, has never been more urgent. Thus, to enhance 
organizational adaptive capacity, while wisely stewarding our 
resources, the Army initiated a number of efforts along three primary 
business transformation objectives: establish an enterprise mindset and 
approach; adapt institutional processes to align with ARFORGEN; and 
reform the requirements and resource process.
    To enable business transformation and foster an enterprise 
approach, we established the Office of Business Transformation and 
developed enterprise functions that are facilitated by teams of leaders 
who focus on the domains of Human Capital, Readiness, Materiel and 
Services and Infrastructure. At the most strategic level, we 
established the Army Enterprise Board to provide a forum for Army 
senior leaders to address organizational strategic choices and 
tradeoffs. Additionally, we established our Business Systems 
Information Technology Executive Steering Group to facilitate an 
enterprise approach to information technology investments.
    We are working collaboratively to reform our requirements and 
resourcing process in order to create an organizationally aligned set 
of capabilities. As part of that effort, we have initiated an Army 
Acquisition Review. This review will provide a blueprint for actions 
over the next 2 years to improve the efficiency and effectiveness of 
the Army acquisition processes. We've also commissioned a short-term 
task force to analyze costs, establish credible benchmarks and help us 
better understand not only where our investment dollars go, but also 
what we get in return. We are developing a systematic approach to the 
Army's business processes that will ensure that innovative ideas and 
efficiencies influence future budgets.
    Furthermore, we instituted a portfolio review process that is 
bringing discipline to our acquisition programs by evaluating and 
realigning requirements with the reality of today and what we will need 
in years to come. This Capability Portfolio Review process is providing 
an overarching detailed analysis and set of recommendations to 
revalidate, modify or terminate each of our requirements, including 
research and development, procurement and sustainment accounts. These 
reviews are helping us identify gaps and unnecessary redundancies, 
while ensuring good stewardship of our Nation's resources. We are 
building a foundation that will identify savings, manage strategic 
risks, maximize flexibility and posture us even more effectively for 
the future.
Civilian Workforce Transformation
    There are approximately 279,000 Civilians in the Army. Adding the 
Army Corps of Engineers and personnel supported by non-appropriated 
funds, the number exceeds 335,000 Civilians. That is about 23 percent 
of our total Army force. Army Civilians live and work in communities 
throughout our 50 States and U.S. territories and overseas theaters of 
operation. They comprise 60 percent of our generating force.
    This generating force performs many of the essential tasks that 
support ARFORGEN so our Soldiers can concentrate on their missions. 
Army Civilians have deployed and stood in support of our Soldiers 
during the most dangerous and difficult periods of conflict. In fact, 
over 4,300 Civilians deployed to Iraq or Afghanistan in 2010. The 
Nation's ability to sustain the all-volunteer force will be difficult 
and challenged if we do not prioritize development and investment in 
our most important institutional asset, our people. Now, as never 
before, we increasingly call upon our Civilian Corps to assume greater 
levels of responsibility and accountability at organizations throughout 
the Army, and we must invest in them accordingly. The goal is to become 
a generating force driven by innovation, able to adapt quickly and to 
field what our Soldiers and their Families will require. Therefore, the 
Army has embarked upon a Civilian Workforce Transformation initiative 
to pursue five lines of effort.
    First, we will integrate requirements determination, allocation and 
resourcing processes that identify the civilian workforce capabilities. 
Second, we will improve civilian workforce lifecycle strategy, planning 
and operations to enhance mission effectiveness. Third, we will 
establish an integrated management system to support civilian human 
capital decisionmaking. Fourth, we will deliberately develop Army 
civilian leaders. Fifth, we will reform the civilian hiring process. By 
the end of 2011, the Army will implement a comprehensive competency-
based Civilian Leadership Development Program and fully implement the 
Civilian Talent Management Program. These programs will ensure that 
employees and management understand what is required for success, with 
realistic career paths and developmental opportunities to achieve 
success.
    The pay-off for this program is four-fold. For Civilians, the 
transformation will provide an outline for success with the appropriate 
training and development opportunities to facilitate the achievement of 
their career goals within the Army. For Commanders, the Civilian 
Workforce Transformation will provide the right workforce with the 
right training and development for the current and future mission 
requirements. For the Army, it will provide a predictable and rational 
method to articulate requirements and make decisions about resourcing 
in a fluid environment. Finally, for the Nation, the transformation 
will provide the investment in human capital required to effectively 
manage the institutional Army now and in the future.
              stewardship, innovation and accomplishments
Fiscal Stewardship
    We take our responsibility to serve as good stewards of the 
financial resources the Nation has entrusted to our care very 
seriously, and we are taking action to improve our ability to manage 
those resources effectively.
    To help our leaders and managers make better resource-informed 
decisions, we have placed renewed emphasis on cost management 
throughout the Army. At all levels, from installation to Army 
Headquarters, we have implemented training and professional development 
programs to give our people improved cost management skills and a 
greater understanding of the cost implications of their decisions. 
Training programs include a graduate-level Cost Management Certificate 
Course for carefully selected mid-level analysts, professional 
development courses for general officers and members of the Senior 
Executive Service, training incorporated into existing courses 
throughout the Army's formal schooling system and hands-on training in 
cost-benefit analysis. These programs have reached over 2,700 Soldiers 
and Civilians, and training continues.
    In addition to providing training and professional development, we 
must give our people the essential tools that will enable them to carry 
out their cost management responsibilities. Toward this end, we have 
fielded the General Fund Enterprise Business System (GFEBS) to more 
than 11,000 users at 14 major installations. As reported by the 
Government Accountability Office, GFEBS development is on schedule and 
on budget. Much more than an accounting system, GFEBS is the Army's new 
business system. It gives managers a greatly improved capability to 
manage the cost, schedule and performance of their programs and, at the 
same time, is the centerpiece in our progress toward full auditability 
of our financial statements
Energy Security and Sustainability
    Energy security and sustainability are operationally necessary, 
financially prudent and are key considerations for Army installations, 
weapon systems and contingency operations. Energy security means that 
the Army retains access to energy and can continue to operate when 
catastrophe strikes and energy supplies are disrupted, cut off or just 
plain difficult to secure. To remain operationally relevant and viable, 
the Army must reduce its dependency on energy, increase energy 
efficiency, and implement renewable and alternate sources of energy.
    The Army has established a Senior Energy Council, appointed a 
Senior Energy Executive, created an Energy Security Office, and adopted 
a comprehensive energy security strategy. This strategy will not only 
lead to energy cost savings but help create a more sustainable force 
with increased endurance, resilience, and force protection. We will 
enhance our stewardship of our Nation's energy resources and less 
dependent upon foreign sources of fuel. The Army's logistical tail of 
the operational energy pipeline is a handicap that must be overcome 
through technological advances. We must leverage technology to improve 
our agility and flexibility against an irregular and decentralized 
enemy.
    On Army installations, we are developing a holistic approach, 
called Net Zero, to address energy, water, and waste. Net Zero is a 
force multiplier enabling the Army to appropriately steward available 
resources, manage costs and provide our Soldiers, Families and 
Civilians with a sustainable future. In an era of persistent conflict, 
with a mission of stabilizing war-torn nations, a true stabilizing 
factor can be that of appropriate resource management. The Net Zero 
plan ensures that sustainable practices will be instilled and managed 
throughout the appropriate levels of the Army, while also maximizing 
operational capability, resource availability and well-being.
    We have taken a significant step by incorporating all fuel costs 
throughout the lifecycle of the equipment as we analyze various 
alternatives for modernization programs such as the next ground combat 
vehicle, the Joint Light Tactical Vehicle and the Armed Aerial Scout. 
This approach enables us to make informed decisions about various 
alternatives and define energy efficiency performance parameters in 
capability documents for our program managers and original equipment 
manufacturers. Of course, not all solutions will involve big pieces of 
equipment or new vehicles. We are also pursuing technologies on a much 
smaller scale, such as spray foam tent insulation and shower water 
recycle systems--investments from which direct energy savings pay off 
in a matter of months.
    We are also working on more efficient generators and power 
distribution. Development of hardware, software and controls to perform 
micro-grid implementation is underway for buildings at the Field 
Artillery Training Center at Fort Sill, Oklahoma. This technology also 
has potential for use in a deployed operational environment. The Army 
is preparing to field ``smart grid'' capabilities for tactical command 
posts and forward operating base camps that will enable generators to 
support the larger grid instead of a single end user. As they become 
scalable and deployable, renewable energy technologies can also be 
integrated into these smart grids.
                         the profession of arms
    The last 9\1/2\ years of conflict have had significant impacts on 
the Army, its Soldiers, Families and Civilians. Many of these are well 
documented and are being addressed. There remain, however, other 
consequences that we seek to understand. We will examine the impacts of 
war on our profession of arms and take a hard look at ourselves--how 
have we changed as individuals, as professionals and as a profession.
    The Army is more than a job; it is a profession. It is a vocation 
composed of experts in the ethical application of land combat power 
serving under civilian authority and entrusted to defend the 
Constitution and the rights and interests of the American people. The 
level of responsibility is like no other profession--our Soldiers are 
entrusted to apply lethal force ethically and only when necessary. 
Also, unlike other professions, the profession of arms is practiced in 
the chaotic and deadly machinations of war. Along with that awesome 
responsibility comes both individual and organizational accountability, 
which we seek to examine as parts of our Profession of Arms.
    The American Professional Soldier is an expert and a volunteer, 
certified in the Profession of Arms and bonded with comrades in a 
shared identity and culture of sacrifice and service to the Nation and 
Constitution. The Soldier adheres to the highest ethical standards and 
is a steward of the future of the profession. Contrasting this are 
state, non-state and individual actors who operate outside generally 
accepted moral and ethical boundaries. Because of this, the Army has 
received tremendous support from the American people and their elected 
representatives. We are forever grateful for that support, and we do 
not take it for granted. We understand that this generous support is 
predicated on the Army's continued professionalism, guided by our Army 
creeds, our service oaths and the Army values that anchor our conduct 
(Loyalty, Duty, Respect, Selfless Service, Honor, Integrity and 
Personal Courage).
    In order to examine the impacts of our current experience on the 
Profession of Arms, the Army will continue a discussion at all levels 
in which we will ask ourselves three fundamental questions:
  --What does it mean for the Army to be a Profession of Arms?
  --What does it mean to be a Professional Soldier?
  --After 9 years of war, how are we as individual professionals and as 
        a profession meeting these aspirations?
    The dialogue will help inform our understanding on what it means to 
be a professional Soldier in an era of persistent conflict.
                               conclusion
    The professionalism, dedicated service and sacrifice of our all-
volunteer force are hallmarks of the Army--the Strength of our Nation. 
Soldiers, their Families and Army Civilians continue to faithfully 
serve our country as we prevail in one of the most challenging times in 
our Nation's history.
    The Army is achieving its goals to restore balance in fiscal year 
2011. We will be transitioning to a period where we must reconstitute 
the force for other missions; build resilience in our Soldiers, 
Families and Civilians and diligently maintain our combat edge. We are 
modernizing the force for the future by developing and fielding 
versatile, affordable, survivable and networked equipment to ensure 
Soldiers maintain a decisive advantage over any enemy they might face.
    We are responding to the lessons our operating force learned and 
the changes it made over the past 9\1/2\ years by adapting the 
institutional Army to effectively and efficiently generate trained and 
ready forces for full spectrum operations. The sector of the Army that 
trains and equips our Soldiers, the generating force, must be driven by 
innovation and be able to adapt quickly and field what our Soldiers and 
their Families will require. We must continue to improve efficiency and 
reduce overhead expenditures as good stewards of our Nation's valuable 
resources. We recognize that institutional change is not only about 
saving money, and efficiencies are not simply about improving the 
bottom line. Institutional change is about doing things better, doing 
them smarter and taking full advantage of the progress, technology, 
knowledge and experience that we have available to us.
    With the trust and confidence of the American public and the 
support of Congress with appropriate resources, America's Army will 
remain the Strength of the Nation.
                                 ______
                                 
     2011 Reserve Component Addendum to the Army Posture Statement
    Sections 517 and 521 of the National Defense Authorization Act 
(NDAA) 1994 require the information in this addendum. Section 517 
requires a report relating to implementation of the pilot Program for 
Active Component Support of the Reserves under Section 414 of the NDAA 
1992 and 1993. Section 521 requires a detailed presentation concerning 
the Army National Guard (ARNG), including information relating to 
implementation of the ARNG Combat Readiness Reform Act of 1992 (Title 
XI of Public Law 102-484, referred to in this addendum as ANGCRRA). 
Section 704 of the NDAA amended Section 521 reporting. Included is the 
U.S. Army Reserve information using Section 521 reporting criteria. The 
data included in the report is information that was available 30 
September 2010.
    Section 517(b)(2)(A). The promotion rate for officers considered 
for promotion from within the promotion zone who are serving as active 
component advisors to units of the Selected Reserve of the Ready 
Reserve (in accordance with that program) compared with the promotion 
rate for other officers considered for promotion from within the 
promotion zone in the same pay grade and the same competitive category, 
shown for all officers of the Army.

----------------------------------------------------------------------------------------------------------------
                                           Fiscal year 2009                          Fiscal year 2010
                              ----------------------------------------------------------------------------------
                                                                Army                                     Army
                                  AC in RC     Percent \1\    average       AC in RC    Percent \1\    average
                                                            percent \2\                              percent \2\
----------------------------------------------------------------------------------------------------------------
Major........................  56 of 63......         88.9         94.1  57 of 67.....         85.1         92.1
Lieutenant Colonel...........  16 of 20......         80.0         87.9  10 of 12.....         83.3         88.7
----------------------------------------------------------------------------------------------------------------
\1\ Active component officers serving in reserve component assignments at time of consideration.
\2\ Active component officers not serving in reserve component assignments at the time of consideration.

    Section 517(b)(2)(B). The promotion rate for officers considered 
for promotion from below the promotion zone who are serving as active 
component advisors to units of the Selected Reserve of the Ready 
Reserve (in accordance with that program) compared in the same manner 
as specified in subparagraph (A) (the paragraph above).

----------------------------------------------------------------------------------------------------------------
                                           Fiscal year 2009                          Fiscal year 2010
                              ----------------------------------------------------------------------------------
                                                                Army                                     Army
                                  AC in RC     Percent \1\    average       AC in RC    Percent \1\    average
                                                            percent \2\                              percent \2\
----------------------------------------------------------------------------------------------------------------
Major........................  2 of 4........         50.0          6.0  6 of 123.....          4.9          5.7
Lieutenant Colonel...........  0 of 1........  ...........          7.2  0 of 7.......  ...........         10.7
----------------------------------------------------------------------------------------------------------------
\1\ Below the zone active component officers serving in reserve component assignments at time of consideration.
\2\ Below-the-zone active component officers not serving in reserve component assignments at time of
  consideration.

Section 521(b)
    1. The number and percentage of officers with at least 2 years of 
active-duty before becoming a member of the Army National Guard or the 
U.S. Army Reserve Selected Reserve units.
      ARNG officers: 21,725 or 51.5 percent of which 1,998 were fiscal 
        year 2010 accessions.
      Army Reserve officers: 21,378 or 58.8 percent of which 589 were 
        fiscal year 2010 accessions.
    2. The number and percentage of enlisted personnel with at least 2 
years of active-duty before becoming a member of the Army National 
Guard or the U.S. Army Reserve Selected Reserve units.
      ARNG enlisted--101,896 or 31.9 percent of which 8,281 were fiscal 
        year 2010 accessions.
      Army Reserve enlisted--63,670 or 37.5 percent of which 5,592 were 
        fiscal year 2010 accessions.
    3. The number of officers who are graduates of one of the service 
academies and were released from active duty before the completion of 
their active-duty service obligation and, of those officers:
    a. The number who are serving the remaining period of their active-
duty service obligation as a member of the Selected Reserve pursuant to 
section 1112(a)(1) of ANGCRRA:
      In fiscal year 2010, there were two Service Academy graduates 
        released from active duty before completing their obligation to 
        serve in the Army Reserve.
    b. The number for whom waivers were granted by the Secretary of the 
Army under section 1112(a)(2) of ANGCRRA, together with the reason for 
each waiver:
      In fiscal year 2010, under section 1112(a)(2) of ANGCRRA the 
        Secretary of the Army granted no waivers to the Army National 
        Guard.
      In fiscal year 2010, under section 1112(a)(2) of ANGCRRA the 
        Secretary of the Army granted two waivers to the Army Reserve. 
        The waivers afforded Soldiers the opportunity to play a 
        professional sport and complete their service obligation.
    4. The number of officers who were commissioned as distinguished 
Reserve Officers' Training Corps graduates and were released from 
active duty before the completion of their active-duty service 
obligation and, of those officers:
    a. The number who are serving the remaining period of their active-
duty service obligation as a member of the Selected Reserve pursuant to 
section 1112(a)(1) of ANGCRRA:
      In fiscal year 2010, there are no distinguished Reserve Officers 
        Training Corps (ROTC) graduates serving the remaining period of 
        their active-duty service obligation as a member of the 
        Selected Reserve.
    b. The number for whom waivers were granted by the Secretary of the 
Army under section 1112(a)(2) of ANGCRRA, together with the reason for 
each waiver:
      In fiscal year 2010, the Secretary of the Army granted no 
        waivers.
    5. The number of officers who are graduates of the Reserve 
Officers' Training Corps program and who are performing their minimum 
period of obligated service in accordance with section 1112(b) of 
ANGCRRA by a combination of (a) 2 years of active duty, and (b) such 
additional period of service as is necessary to complete the remainder 
of such obligation served in the National Guard and, of those officers, 
the number for whom permission to perform their minimum period of 
obligated service in accordance with that section was granted during 
the preceding fiscal year:
      In fiscal year 2010, there were 20 ROTC graduates released early 
        from an active-duty obligation. The following is a breakdown of 
        the ROTC graduates that are completing the remainder of their 
        service obligation in a Reserve Component.
      ARNG: 1
      USAR: 19
    6. The number of officers for whom recommendations were made during 
the preceding fiscal year for a unit vacancy promotion to a grade above 
first lieutenant, and of those recommendations, the number and 
percentage that were concurred in by an active duty officer under 
section 1113(a) of ANGCRRA, shown separately for each of the three 
categories of officers set forth in section 1113(b) of ANGCRRA (with 
Army Reserve data also reported).
      There are no longer active and reserve component associations due 
        to operational mission requirements and deployment tempo. 
        Active component officers no longer concur or non-concur with 
        unit vacancy promotion recommendations for officers in 
        associated units according to section 1113(a). However, unit 
        vacancy promotion boards have active component representation.
      In fiscal year 2010, the ARNG recommended 1,913 ARNG officers 
        (Title 10; Title 32; ADSW; AD; M-Day) for a position-vacancy 
        promotion and promoted 1,913. The number consists of 265 U.S. 
        Army Medical Department, 1,595 Army Promotion List and 53 
        Chaplains. Of the 1,913 promoted officers, 1,053 were M-Day 
        Soldiers consisting of 175 U.S. Army Medical Department, 844 
        Army Promotion List and 34 Chaplains.
      In fiscal year 2010, the Army Reserve recommended 63 officers for 
        a position-vacancy promotion and promoted 63.
    7. The number of waivers during the preceding fiscal year under 
section 1114(a) of ANGCRRA of any standard prescribed by the Secretary 
establishing a military education requirement for non-commissioned 
officers and the reason for each such waiver.
      In fiscal year 2010, 1,607 ARNG Noncommissioned Officers received 
        a promotion to the next rank without the required military 
        education (based on a waiver agreement that extends the time 
        Soldiers have to complete the educational requirement). Of 
        those, 648 completed their military education requirements. The 
        majority of waivers were deployment related.
      In fiscal year 2010, 486 Army Reserve Noncommissioned Officers 
        received a military education waiver (based on a waiver 
        agreement that extends the time Soldiers have to complete the 
        educational requirement). Of those, 257 waivers received 
        approval based on deployment and/or operational mission 
        requirements.
      Waiver consideration is case-by-case. The criteria for waiver 
        consideration are: (1) eligible for promotion consideration, 
        (2) recommended by their State (for ARNG), (3) disadvantaged as 
        a direct result of operational deployment conflict, and (4) no 
        available training quota. This includes Soldiers deployed or 
        assigned to Warrior Transition Units (WTU) (Medical Hold or 
        Medical Hold-Over Units) with a medical condition. Some waiver 
        requests did not meet the criteria.
      The Secretary of the Army has delegated the authority for the 
        waivers referred to in section 114(a) of ANGCRRA to the 
        Director, ARNG and to the Commander, U.S Army Reserve Command. 
        The National Guard Bureau and the U.S. Army Reserve Command 
        maintain details for each waiver.
    8. The number and distribution by grade, shown for each State, of 
personnel in the initial entry training and non-deployability personnel 
accounting category established under section 1115 of ANGCRRA for 
members of the Army National Guard who have not completed the minimum 
training required for deployment or who are otherwise not available for 
deployment. (Included is a narrative summary of information pertaining 
to the Army Reserve.)
      In fiscal year 2010, the ARNG had 47,804 Soldiers considered non-
        deployable for reasons outlined in Army Regulation 220-1, Unit 
        Status Reporting (e.g., initial entry training; medical issues; 
        medical non-availability; pending administrative or legal 
        discharge; separation; officer transition; non-participation or 
        restrictions on the use or possession of weapons and ammunition 
        under the Lautenberg Amendment). The National Guard Bureau 
        (NGB) maintains the detailed information.
      In fiscal year 2010, the Army Reserve had 48,229 Soldiers 
        considered non-deployable for reasons outlined in Army 
        Regulation 220-1, Unit Status Reporting (e.g., initial entry 
        training; medical issues; medical non-availability; pending 
        administrative or legal discharge; separation; officer 
        transition; non-participation or restrictions on the use or 
        possession of weapons and ammunition under the Lautenberg 
        Amendment). The U.S. Army Reserve Command (USARC) maintains the 
        detailed information.
    9. The number of members of the Army National Guard, shown for each 
State, that were discharged during the previous fiscal year pursuant to 
section 1115(c)(1) of ANGCRRA for not completing the minimum training 
required for deployment within 24 months after entering the National 
Guard. (Army Reserve data also reported.)
      The number of ARNG Soldiers discharged during fiscal year 2010 
        pursuant to section 1115(c)(1) of ANGCRRA for not completing 
        the minimum training required for deployment after entering the 
        Army National Guard is 131 officers and 265 enlisted Soldiers 
        from all U.S. States and territories. NGB maintains the 
        breakdown by each State. The numbers represent improvement 
        driven by the Recruit Force Pool (RFP) and by miscellaneous 
        administrative actions. The RFP initiative changed the way ARNG 
        accounts for Soldiers. ARNG does not count Soldiers until the 
        accession process is complete and they have an assigned 
        position. Administrative improvements included an aggressive 
        effort to eliminate Negative End Strength (defined as Soldiers 
        who have been on the NOVAL Pay list for 3 months or more, have 
        expired ETS dates, in a Non-MOSQ status for 21 months or more, 
        or in the Training Pipeline with no class reservation). These 
        improvements helped the ARNG meet the End Strength Ceiling of 
        358,200 by the end of fiscal year 2010 by moving those Soldiers 
        into the Inactive National Guard (ING).
      The number of Army Reserve Soldiers discharged during fiscal year 
        2010 for not completing the minimum training required for 
        deployment after entering the Army Reserve is 30 officers and 
        62 enlisted Soldiers. Under AR 135-175, Separation of Officers, 
        separation actions are necessary for Officers who have not 
        completed a basic branch course within 36 months after 
        commissioning. Under AR 135-178, Separation of Enlisted 
        Personnel, separation actions are necessary for Soldiers who 
        have not completed the required initial entry training within 
        the first 24 months.
    10. The number of waivers, shown for each State, that were granted 
by the Secretary of the Army during the previous fiscal year under 
section 1115(c)(2) of ANGCRRA of the requirement in section 1115(c)(1) 
of ANGCRRA described in paragraph (9), together with the reason for 
each waiver.
      In fiscal year 2010, there were no waivers granted by the 
        Secretary of the Army for the U.S. Army Reserve or the Army 
        National Guard.
    11. The number of Army National Guard members, shown for each 
State, (and the number of AR members), who were screened during the 
preceding fiscal year to determine whether they meet minimum physical 
profile standards required for deployment and, of those members: (a) 
the number and percentage that did not meet minimum physical profile 
standards for deployment; and (b) the number and percentage who were 
transferred pursuant to section 1116 of ANGCRRA to the personnel 
accounting category described in paragraph (8).
    a. The number and percentage who did not meet minimum physical 
profile standards required for deployment:
      In fiscal year 2010, 163,457 ARNG Soldiers underwent a Periodic 
        Health Assessment (PHA). There were 7,936 or 4.8 percent of 
        personnel identified for review due to a profile-limiting 
        condition or failure to meet retention standards.
      In fiscal year 2010, 162,749 Army Reserve Soldiers underwent a 
        Periodic Health Assessment (PHA). There were 15,025 or 9.2 
        percent of personnel identified for review due to a profile 
        limiting condition or failure to meet retention standards.
    b. The number and percentage that transferred pursuant to section 
1116 of ANGCRRA to the personnel accounting category described in 
paragraph (8).
      In fiscal year 2010, the ARNG identified 7,936 or 4.8 percent of 
        Soldiers for a review due to a profile limiting condition or 
        failure to meet retention standards; and transferred to a 
        medically non-deployable status.
      In fiscal year 2010, the Army Reserve identified 15,025 or 9.2 
        percent of Soldiers for a review due to a profile limiting 
        condition or failure to meet retention standards; and 
        transferred to a medically non-deployable status.
      On August 23, 2010, the Department of Defense implemented a 
        change to how the Army measures Individual Medical Readiness 
        (IMR). The new way of measuring medical readiness by 
        classifying Soldiers into Medical Readiness Categories (MRC) 
        reduced the number of Soldiers considered medically non-
        deployable (MND) in the reserve component. This information is 
        available through the Army's medical readiness database, 
        MEDPROS.
    12. The number of members and the percentage total membership of 
the Army National Guard shown for each State who underwent a medical 
screening during the previous fiscal year as provided in section 1117 
of ANGCRRA.
      Public Law 104-106 (NDAA 1996), Division A, Title VII, Section 
        704(b), February 10, 1996, repealed Section 1117 of ANGCRRA.
    13. The number of members and the percentage of the total 
membership of the Army National Guard shown for each State who 
underwent a dental screening during the previous fiscal year as 
provided in section 1117 of ANGCRRA.
      Public Law 104-106 (NDAA 1996), Division A, Title VII, Section 
        704(b), February 10, 1996, repealed Section 1117 of ANGCRRA.
    14. The number of members and the percentage of the total 
membership of the Army National Guard shown for each State, over the 
age of 40 who underwent a full physical examination during the previous 
fiscal year for purposes of section 1117 of ANGCRRA.
      Public Law 104-106 (NDAA 1996), Division A, Title VII, Section 
        704(b), February 10, 1996, repealed Section 1117 of ANGCRRA.
    15. The number of units of the Army National Guard that are 
scheduled for early deployment in the event of a mobilization, and of 
those units, the number that are dentally ready for deployment in 
accordance with section 1118 of ANGCRRA.
      Public Law 104-106 (NDAA 1996), Division A, Title VII, Section 
        704(b), February 10, 1996, repealed Section 1118 of ANGCRRA.
    16. The estimated post-mobilization training time for each Army 
National Guard combat unit (and Army Reserve unit), and a description, 
displayed in broad categories and by State of what training would need 
to be accomplished for Army National Guard combat units (and AR units) 
in a post-mobilization period for purposes of section 1119 of ANGCRRA.
      Per January 2007 direction from the Secretary of Defense reserve 
        component unit mobilizations are now limited to 400-day 
        periods, including post-mobilization training time, a 30-day 
        post-mobilization leave and 5 days out-processing. Timely alert 
        for mobilization--at least 1 year prior to mobilization--is 
        crucial. Many training tasks previously conducted during post-
        mobilization occurs in local training areas before 
        mobilization. First Army, in CONUS, manages and directs post-
        mobilization training for reserve component conventional forces 
        conducts the theater-specified training required and confirms 
        the readiness of mobilized units to deploy. A unit's post-
        mobilization training time depends on how many of the pre-
        mobilization tasks they complete in pre-mobilization. Whatever 
        pre-mobilization tasks they do not complete during pre-
        mobilization training, they will complete the remaining tasks 
        at the mobilization station.
      First Army Pre-Deployment Training in support of Combatant 
        Commanders' guidance identifies four categories of deploying 
        units. CAT 1 includes units that rarely, if ever, travel off a 
        Contingency Operating Base/Forward Operating Base (COB/FOB). 
        CAT 2 includes units that will or potentially will travel off a 
        COB/FOB for a short duration. CAT 3 includes units that will 
        travel and conduct the majority of their missions off a COB/
        FOB. CAT 4 is maneuver units with an Area of Operations (such 
        as BCTs). The pre-mobilization tasks per category increase up 
        to CAT 4. A CAT 4 unit spends between 58-60 training days at 
        mobilization station for post-mobilization training. The target 
        is 45 training days. A CAT 4 unit is required to perform a 
        Combat Training Center (NTC or JRTC) culminating training event 
        (30 days) during post-mobilization in order to meet validation 
        requirements and deploy.
      Army goals for post-mobilization training for reserve component 
        headquarters and combat support, and combat service support 
        units range from 15 to 45 days, depending on the type/category 
        of the unit, and does not include administrative and travel 
        days. Post-mobilization training conducted by First Army 
        typically consists of counterinsurgency operations; counter-
        improvised-explosive-device training; convoy live-fire 
        exercises; theater orientation; rules of engagement and 
        escalation-of-force training; and completion of any theater-
        specified training not completed during the pre-mobilization 
        period. Below is an outline of typical post-mobilization 
        periods for various units:

------------------------------------------------------------------------
                                                    Post-MOB TNG days
                Unit structure                 -------------------------
                                                   Legacy      Current
------------------------------------------------------------------------
Military Police Battalion (I/R)...............           90           53
Engineer Company (Construction)...............           90           58
Medium Truck Company..........................           90           49
Transportation Detachment.....................           90           37
Infantry Battalion............................          174           71
Expeditionary Sustainment Command.............          168           37
------------------------------------------------------------------------

    17. A description of the measures taken during the preceding fiscal 
year to comply with the requirement in section 1120 of ANGCRRA to 
expand the use of simulations, simulators, and advanced training 
devices and technologies for members and units of the Army National 
Guard (and the Army Reserve).
      During fiscal year 2010, the Army Reserve and Army National Guard 
        continued to synchronize the use of existing and ongoing live, 
        virtual, and constructive training aids, devices, simulations 
        and simulators (TADSS) programs with the training requirements 
        of the ARFORGEN training model. By synchronizing the use of 
        TADSS with ARFORGEN, the ARNG continues to improve unit 
        training proficiency prior to mobilization.
      To support the training requirements of M1A1 Abrams and M2A2 
        Bradley equipped Brigade Combat Teams (BCT's) the ARNG 
        continued to use the Advanced Bradley Full-Crew Interactive 
        Simulation Trainer and Abrams Full Crew Interactive Simulation 
        Trainer, which provide full crew-simulations training for M1A1 
        and M2A2 units. The ARNG continued fielding Tabletop Full-
        fidelity Trainers for the M2A2 units and cross leveling of the 
        Conduct of Fire Trainer XXI for M1A1 units. When fully fielded, 
        these devices, in addition to the Conduct of Fire Trainer-
        Situational Awareness (COFT-SA) and Conduct of Fire Trainer 
        Advanced Gunnery Trainer System (CAGTS) will be the primary 
        simulation trainers to meet the virtual gunnery requirements of 
        M1A1 and M2A2 crews.
      In order to train all ARNG units on the tactics, techniques, and 
        procedures (TTPs) of convoy operations, the ARNG has fielded 
        the Virtual Convoy Operations Trainer (VCOT). The VCOT with 
        geo-specific databases provides commanders with unique and 
        critical mission rehearsal tool. Currently, all 54 States and 
        Territories have received this capability, providing a mobile 
        training capability available to all Soldiers throughout the 
        ARNG.
      To meet basic and advanced rifle marksmanship requirements, the 
        ARNG is continuing to field the Engagement Skills Trainer (EST 
        2000). This system is the Army's approved marksmanship training 
        device. The ARNG is also continuing the use of its previously 
        procured Fire Arms Training System (FATS) until EST 2000 
        fielding is completed. The EST 2000 and FATS also provides 
        static unit collective gunnery and tactical training, and 
        shoot/don't shoot training. These systems also support units 
        conducting vital homeland defense missions.
      The Army Reserve has a number of low-density simulators it 
        employs to reduce expensive ``live'' time for unique combat 
        service support equipment. For example, Army Reserve watercraft 
        units train on the Maritime Integrated Training System (MITS), 
        a bridge simulator that not only trains vessel captains but the 
        entire crew of Army watercraft. Other simulators include 
        locomotive simulators used by Army Reserve railroad units and a 
        barge derrick simulator for floating watercraft maintenance 
        units.
      The reserve components supplement their marksmanship-training 
        strategy with the Laser Marksmanship Training System (LMTS). 
        The use of LMTS helps to develop and maintain basic 
        marksmanship skills, diagnose and correct problems, and 
        assessing basic and advanced skills. The ARNG has over 900 
        systems fielded down to the company level. The LMTS is a laser-
        based training device that replicates the firing of the 
        Soldier's weapon without live ammunition. EST 2000 systems have 
        been fielded to many Army Reserve Engineer and Military Police 
        organizations to enable full use of its training capabilities 
        by units with high densities of crew-served weapons their at 
        home stations.
      The Improvised Explosive Device Effects Simulator (IEDES) 
        supports the training requirements for the detection, reaction, 
        classification, prevention and reporting of Improvised 
        Explosive Devices. The ARNG also continues to field IEDES kits. 
        The configuration of IEDES kits are set to simulate Small, 
        Medium, Large, and Extra Large Explosive signatures. The IEDES 
        kits provide realistic battlefield cues and the effects of 
        Explosive Hazards to Soldiers in both a dismounted and mounted 
        operational status.
      The ARNG continues to develop its battle command training 
        capability through the Battle Command Training Capability 
        Program (BCTCP). This program provides live, virtual, 
        constructive and gaming (LVC&G) training support at unit home 
        stations via mobile training teams. Units can also train at 
        Battle Command Training Centers (BCTC). The BCTCP consists of 
        three BCTCs at Camp Dodge, Iowa; Fort Indiantown Gap, 
        Pennsylvania; and Fort Leavenworth, Kansas, and a regional 
        Distributed Mission Support Team (DMST). The Army Campaign Plan 
        2010 requires the ARNG to train 172 units (Brigade equivalents 
        and above). The BCTCP synchronizes ARNG battle command training 
        capabilities to help units plan, prepare and execute battle 
        staff training. The objective is to develop proficient battle 
        command staffs and trained operators during pre-mobilization 
        training.
      In order to provide the critical Culminating Training Event for 
        the U.S. Army Forces Command (FORSCOM) Army Force Generation 
        (ARFORGEN) Cycle, the ARNG has implemented the Exportable 
        Combat Training Capability (XCTC) Program. The ARNG XCTC 
        program provides Battalion Battle Staff training to the level 
        organized, coupled with a theater immersed, mission focused 
        training event to certify company level proficiency prior to 
        entering the ARFORGEN Available Force Pool Defined as Certified 
        Company Proficiency with demonstrated Battalion Battle Staff 
        proficiency, competent leaders, and trained Soldiers prepared 
        for success on the battlefield.
    18. Summary tables of unit readiness, shown for each State, (and 
for the Army Reserve), and drawn from the unit readiness rating system 
as required by section 1121 of ANGCRRA, including the personnel 
readiness rating information and the equipment readiness assessment 
information required by that section, together with:
    a. Explanations of the information:
      Readiness tables are classified. The Department of the Army, G-3, 
        maintains this information. The States do not capture this 
        data.
    b. Based on the information shown in the tables, the Secretary's 
overall assessment of the deployability of units of the ARNG (and Army 
Reserve), including a discussion of personnel deficiencies and 
equipment shortfalls in accordance with section 1121:
      Summary tables and overall assessments are classified. The 
        Department of the Army, G-3, maintains this information.
    19. Summary tables, shown for each State (and Army Reserve), of the 
results of inspections of units of the Army National Guard (and Army 
Reserve) by inspectors general or other commissioned officers of the 
Regular Army under the provisions of Section 105 of Title 32, together 
with explanations of the information shown in the tables, and including 
display of:
    a. The number of such inspections;
    b. Identification of the entity conducting each inspection;
    c. The number of units inspected; and
    d. The overall results of such inspections, including the 
inspector's determination for each inspected unit of whether the unit 
met deployability standards and, for those units not meeting 
deployability standards, the reasons for such failure and the status of 
corrective actions.
      During fiscal year 2010, Army National Guard Inspectors General 
        and other commissioned officers of the Regular Army conducted 
        inspections of the Army National Guard. The total number of 
        ARNG units that were inspected were 1,193, plus an additional 
        26 United States Property and Fiscal Offices (USPFOs), totaling 
        1,219 inspections. Regular Army Officers assigned to the 
        respective States and Territories as Inspectors General 
        executed the inspections. The Department of the Army Inspector 
        General, 1st U.S. Army, U.S. Army Forces Command (FORSCOM); 
        Communications-Electronics Command (CECOM); and various 
        external inspection agencies conducted the remaining 128 
        inspections. Because the inspections conducted by Inspectors 
        General focused on findings and recommendations, the units 
        involved in these inspections did not receive a pass/fail 
        rating. Requests for inspections results must go through the 
        Inspector General of the Army.
      During fiscal year 2010, the Chief, Army Reserve, directed the 
        Inspector General to conduct special assessments in the areas 
        of Rear Detachment Operations (RDO) and Post Deployment Health 
        Reassessment (PHDRA). Commissioned officers of the Army Reserve 
        inspected 81 units. Because the inspections conducted by 
        Inspectors General focused on findings and recommendations, the 
        units involved in these assessments did not receive a pass/fail 
        rating. Requests for inspections results must go through the 
        Inspector General of the Army.
    20. A listing, for each ARNG combat unit (and U.S. Army Reserve FSP 
units) of the active-duty combat units (and other units) associated 
with that ARNG (and U.S. Army Reserve) unit in accordance with section 
1131(a) of ANGCRRA, shown by State, for each such ARNG unit (and for 
the U.S. Army Reserve) by: (A) the assessment of the commander of that 
associated active-duty unit of the manpower, equipment, and training 
resource requirements of that National Guard (and Army Reserve) unit in 
accordance with section 1131(b)(3) of the ANGCRRA; and (B) the results 
of the validation by the commander of that associated active-duty unit 
of the compatibility of that National Guard (or U.S. Army Reserve) unit 
with active duty forces in accordance with section 1131(b)(4) of 
ANGCRRA.
      There are no longer formal ground combat active or reserve 
        component associations due to ongoing theater operational 
        mission requirements and deployment tempo.
      First Army, as FORSCOM's executive agent, and the 196th Infantry 
        Brigade, as U.S. Army Pacific's executive agent, executes the 
        legislated active duty associate unit responsibilities through 
        both their pre-mobilization and post-mobilization efforts with 
        reserve component units. When reserve component units mobilize, 
        they are thoroughly assessed in terms of manpower, equipment, 
        and training by the appropriate chain of command, and that 
        assessment is approved by First Army or USARPAC as part of the 
        validation for unit deployment.
      Validation of the compatibility of the Reserve Component units 
        with the active duty forces occurs primarily during training 
        and readiness activities at mobilization stations, with direct 
        oversight of First Army, USARPAC, and FORSCOM.
    21. A specification of the active-duty personnel assigned to units 
of the Selected Reserve pursuant to section 414(c) of the National 
Defense Authorization Act for Fiscal Years 1992 and 1993 (10 USC 261 
note), shown (a) by State for the Army National Guard (and for the U.S. 
Army Reserve), (b) by rank of officers, warrant officers, and enlisted 
members assigned, and (c) by unit or other organizational entity of 
assignment.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                      Title XI (fiscal year 2010) authorizations             Title XI (fiscal year 2010) assigned
                                                 -------------------------------------------------------------------------------------------------------
                                                      OFF          ENL           WO         Total         OFF          ENL           WO         Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
U.S. Army Reserve...............................           97          110            8          215           21          117            1          139
TRADOC..........................................           50            3  ...........           53           36            3  ...........           39
FORSCOM.........................................          979        2,165          101        3,245          671        2,296           83        3,050
USARPAC.........................................           30           49            1           80           31           54            1           86
                                                 -------------------------------------------------------------------------------------------------------
      Total.....................................        1,156         2327          110        3,593          759        2,470           85        3,314
--------------------------------------------------------------------------------------------------------------------------------------------------------

      As of September 30, 2010, the Army had 3,314 active component 
        Soldiers assigned to Title XI positions. Army G-1, and U.S. 
        Army Human Resources Command carefully manages the 
        authorizations and fill of Title XI positions. The states do 
        not capture this data.

    Chairman Inouye. Now may I call upon the new Chief of Staff 
of the United States Army, General Dempsey. General.
STATEMENT OF GENERAL MARTIN E. DEMPSEY, CHIEF OF STAFF
    General Dempsey. Thank you very much, Chairman Inouye, Vice 
Chairman Cochran. Thank you for the opportunity to discuss our 
Army with you this morning.
    And thank you, Mr. Secretary, for the vote of confidence.
    Since I assumed the duties as the 37th Chief of Staff of 
the Army, I have worked to get a feel for where we are and help 
inform my thoughts about where we need to go in the future.
    One of the very first things I did was go to Iraq and 
Afghanistan to visit our troops to see firsthand their 
accomplishments and to thank them for their courage, their 
sacrifice, and their service. I visited soldiers and families 
back here in the continental United States as well, and this 
weekend, I will visit our Corps of Engineers who are working 
tirelessly to combat the historic flood levels along the 
Mississippi River valley. And then I will travel to Fort 
Carson, Colorado to hand out some awards at our Wounded Warrior 
Games.
    What we are able to do as an Army at home and abroad for 
soldiers, families, and for our wounded is a testament to the 
sustained support of this subcommittee. We have our challenges, 
but where it matters most on the ground around the world, 
American soldiers, Active, Guard, and Reserve, are getting it 
done and achieving the Nation's objectives in ways that should 
inspire all Americans.
    To ensure we continue to provide what the Nation needs from 
its Army, I have begun to articulate where I intend to focus my 
energy as Chief of Staff, and I would like to share just a few 
thoughts about that this morning.
    We recognize our responsibility to prevail in the wars that 
we are fighting, prepare for the challenges of an uncertain 
future, prevent and deter threats against the United States, 
its interests, our allies, and partners, and preserve the all-
volunteer force as those tasks are laid out for us in our 
national security strategy and in the Quadrennial Defense 
Review.
    To do that, we must maintain an appropriate end strength, a 
versatile force structure, and an array of capabilities. We 
must train and equip our forces to overmatch any adversary and 
we must meet our obligations to soldiers, families, and wounded 
warriors who have sacrificed much over the last 10 years of 
sustained conflict.
    We also recognize that we must not only be good stewards of 
the resources you have provided, but look for smarter and 
better ways to provide the Nation the capabilities that we 
need. We must find the right balance between end strength and 
operational tempo. To preserve our options, we are considering, 
for example, how best to reduce the 27,000 temporary end 
strength increase we received 2 years ago and the 27,000 
permanent end strength reduction plan between now and 2015.
    All of us have come to realize the impacts of end strength 
and demand on the Army's operational tempo, and we are always 
assessing our force generation models and what you know as our 
BOG/dwell ratio, boots on the ground/time at home. We are 
currently examining whether we can transition to a 9-month 
deployment with a 27-month dwell at home as our objective for 
the active component. We assess that this would alleviate some 
of the pressures on the force while still meeting the demands 
of the combatant commanders and fulfilling our obligations to 
the Nation.
    Our obligations to the soldiers, families, and Army 
civilians, Active, Guard, and Reserve who comprise this great 
Army are simple. Give them what they need to win, provide them 
and their families with support and services that recognize 
their sacrifice.
    The Secretary discussed several of our modernization 
programs. With his support, I have also initiated an analysis 
of the squad as our fundamental fighting element. As an Army, 
no one can challenge us at corps level, division level, brigade 
level, or battalion level. I want to ensure we have done as 
much as possible to make sure that that same degree of 
overmatch exists at the squad level. Simply stated, we have 
decided to take a look at our Army from the bottom up and see 
what we learn.
    This does not mean we are going to stack even more gear on 
the individual soldier who is already strained by the load they 
have to carry in combat. What it means is that we will look at 
the squad as a collective whole, not nine individual soldiers, 
and determine how to enable it from the bottom up to ensure 
that the squad as the training, leadership, doctrine, power and 
energy, protection and lethality to win when we send them into 
harm's way.
    I assure all of you that this Nation has never had a better 
organized, a better trained, or a better equipped Army. Of 
course, that is in large measure because we have never been 
better resourced, and for that our Army owes you a great debt 
of gratitude. As our resourcing changes, we will adapt as we 
have many other times in our history, but we will be adapting 
from a position of great strength. And I could not be prouder 
of what our soldiers have done and will continue to do to 
support our Nation's interests around the world.
    I look forward to working with Secretary McHugh and the 
members of this subcommittee to make our Army smarter, better 
and more capable with the resources we are given. We remain an 
Army at war and we will be for the foreseeable future. We will 
do whatever it takes to achieve our objectives in the current 
fights and we will provide the Nation with the greatest number 
of options for an uncertain future.
    Thank you very much, and I look forward to taking your 
questions.
    Chairman Inouye. Thank you very much, General Dempsey.

                         TEMPORARY END STRENGTH

    As noted by both of you, the Secretary of Defense has 
indicated a plan to reduce our active Army forces by 27,000 by 
fiscal year 2016 or 2015. First, I would like to know whether 
you consider this a reasonable plan, and second, how do you 
propose to do it?
    Mr. McHugh. Mr. Chairman, as I know you and the other 
members of the subcommittee understand, we have spent a lot of 
time with the Secretary and the people at OSD to make sure that 
the way forward on this makes sense, that we are not buying an 
unreasonable amount of risk.
    The two phases I think need to be considered very 
separately. The temporary end strength, the 22,000, was 
something that we always assumed would be coming down in the 
near term rather than the far term. We were concerned that we 
not have to begin that process immediately. We felt, at the 
time that discussions were ongoing, that indeed the OPSTEMPO 
was such that those 22,000 continue to serve a purpose, and the 
Secretary, I think it is fair to say, understood and agreed 
with that and has allowed us to hold that 22,000 until March of 
next year when we think, particularly given the ongoing 
drawdown in Iraq, that we can take that reduction in force 
structure in stride and, in fact, do it in a way that produces 
both savings and a responsible force at the end of it.
    As the Secretary has also said with respect to the second 
tranche, due to begin in 2015 and 2016, on the 27,000, that 
that is conditions-based. And based upon what the President has 
spoken about and our NATO allies with respect to beginning 
drawdowns of some yet-to-be-determined number this summer based 
on General Petraeus' recommendations--I assume that will be 
received by the White House in the near future--you can start 
to look for a path forward. Beyond that, as our NATO partners 
have agreed, they expect to have major operations begin to 
cease in 2014 in Afghanistan and if conditions on the ground 
allow that to continue, we feel very comfortable that the 
27,000 is a very achievable target as well.

                            FUTURE DRAWDOWN

    I think the question for us, frankly, is how do we shape 
that drawdown and what is the ramp in which we assume it. So we 
are looking through our total Army analysis that we do 
routinely with respect to how the Army looks as to where the 
numbers should come from, how the ramp should be structured in 
a way that can go forward reasonably in way that does not place 
our soldiers at greater risk.
    Chairman Inouye. General Dempsey.
    General Dempsey. Yes, I would simply add, Senator, that I 
think it is a reasonable plan. Like any plan, it is based on 
some assumptions, and if those assumptions play out, then the 
plan will be prudent. If the assumptions are changed in any 
way, then we would have to come back and readdress them.
    But as I mentioned to you earlier, we also want to look not 
just at this immediate challenge, but we want to look beyond 
and determine what does the Nation need of its Army notionally 
in 2020 and make sure that these changes are building toward 
that Army so that we do not end up making these adjustments on 
an annual basis.

                          ACQUISITION PROGRAMS

    Chairman Inouye. Mr. Secretary and General, the United 
States Army has been rather unsuccessful in fielding major 
acquisition programs in recent years. Significant terminations 
include future combat system, the armed reconnaissance 
helicopter, the Comanche, and many, many more. Last summer, you 
commissioned a study to identify the causes of these failures 
which have cost the taxpayers about $100 billion.
    Would you tell the committee what you discovered and how 
you plan to improve Army acquisition?
    Mr. McHugh. If I may, Mr. Chairman, I will start and then 
certainly would defer to the Chief for anything he would like 
to add.
    As you noted, we viewed that study as long overdue. This 
really was something that General Casey had been thinking about 
for some time before actually I came to the building. And I was 
pleased that we were able to work together and bring a cadre of 
top-notch people to take an outside look. It was headed by a 
former commander of the Army, Materiel Command, and a former 
Army acquisition executive, ASAALT, and the team that they put 
together was really a blue ribbon panel of folks who had both 
been involved, most of them over a career in acquisition and 
who probably understood it better than we did.
    They came back with 76 recommendations, some of which were 
revelatory. I had a meeting, in fact, this week with our 
acquisition people, including the ASAALT, to talk about those 
recommendations to see where we are in implementing them. It 
was, indeed, that report that pointed out the failures of the 
various platforms that you mentioned and the significant costs 
to the taxpayer.
    And I think the number one thing--and it was obvious on its 
face, but how we respond to it is another matter--was our 
inclination in the past to not control requirements. And we 
have seen that in a number of programs, and FCS I think is the 
poster child for it, as is the presidential helicopter where 
requirements keep getting built on and built on. The time of 
the acquisition stretches out, and pretty soon the cost has 
skyrocketed and you have an under-performing program to state 
the least.

                         GROUND COMBAT VEHICLE

    So we tried to do a better job in stating the requirements, 
keeping them less reliant on immature or unavailable 
technologies. We have introduced competition, for example, 
through the ground combat vehicle program so that we can have 
that cost containment influence there.
    And I think the ground combat vehicle is a very good 
example of how we are doing better. When the request for 
proposal (RFP) for the ground combat vehicle went out, there 
were 990 tier 1 requirements. That was at the outset before we 
had actually seen a spiral of increased requirements. To the 
Corps' credit on the acquisition side of the equation, they 
looked at it and said to themselves, here we go again. And it 
was a tough decision, but they recalled that RFP. And as a 
result of the reexamination, they reduced the tier 1 
requirements by 75 percent and put the rest of the requirements 
up into tier 2 and tier 3 where you can trade, as the 
development goes forward, for costs. So a tough decision, but 
one, at the end of the day, I think was very soundly supported 
by the industry and will serve not just the Army, but the 
taxpayers more fairly as well.
    So we want to do a better job. We are implementing the 
study's reports, and in fact, we have either implemented or are 
taking steps right now to implement all but 13 of the 76 
recommendations. We are taking a more careful look at 13 of 
those. So we are going to do a better job, and it is not just a 
matter of the Army's responsibility to the Army. It is a matter 
of our responsibility to the taxpayer.
    Chairman Inouye. General.
    General Dempsey. Thank you, sir.
    You know, we actually have done well on ACAT II and III 
programs and on some rapid adaptation and rapid equipment 
fielding initiatives. So the real challenge for us is to figure 
out why did we do so well in some of these rapid acquisition 
procedures and not so well in the very deliberate DOD 5000 
series of acquisitions.

                          PROCUREMENT PROCESS

    And I think we will learn that we have got some work to do 
merging the requirements with the procurement objectives. I 
think we will probably find ourselves in a position of 
believing that we should pull the future toward us and not have 
aspirations to deliver programs much beyond 7, 8, 9 years. When 
they stretch beyond that, they become, by the definition of the 
word, ``incredible,'' and we are lacking credibility.
    So I think it is a combination of the Decker-Wagner 
recommendations. I think we have to look at the acquisition 
regulations particularly for the long lead time procurement 
programs and we got to merge requirements in procurement and 
senior leadership integration much sooner in the process.
    Chairman Inouye. We will have to continue on discussions on 
this.
    But now may I call upon Senator Cochran.

                         HELICOPTER REPLACEMENT

    Senator Cochran. Mr. Chairman, I think it is disturbing to 
review the difficulties faced, not of their own making, but the 
current leadership of the Army is confronted with replacing 
helicopters and doing something about aging tanks. And so it 
seems like a lot of things are piling up at once that cost an 
awful lot of money.
    I listened carefully to your responses to Senator Inouye's 
question, and I am not exactly sure what you said. In terms of 
what is the plan for replacing reconnaissance helicopters, has 
the Army agreed on what it wants or what it needs? Is there a 
contract in place now that will replace the helicopters? And 
the same thing for the tank.
    Mr. McHugh. We do have an ongoing need for an armed 
reconnaissance helicopter, and we do have a plan by which we 
are going to approach that challenge. We are not, as yet, in an 
acquisition program. We have what we call a CASUP, which is 
what the cockpit upgrade program, in the near term for the 
Kiowa Warrior that I think with high reliability we will extend 
the viability of that platform probably till 2023, and in the 
interim, we have to begin to look at the analysis of 
alternatives and develop an RFP for a follow-on to the Kiowa 
Warrior. So when the Comanche was cancelled, it did not end the 
enduring requirement. So we have a plan, but we do not have 
answers yet as to what exactly the next platform will look 
like, but we have laid a process forward.
    As to the tank, actually the Abrams platform is amongst the 
most modern of any system in our Army. The average year of the 
M1A2 Abrams is about 2 years, but the ground combat vehicle is 
our critical development program to really provide the 
survivability of an MRAP with the maneuverability of a Stryker 
and the lethality of a Bradley. So as you know, Senator, this 
budget requests $884 million for that program. So we think the 
GCB is on track.
    We do have, as you noted, a lot of platforms out there that 
are aging out, and what we are trying to do is align ourselves 
in a responsible manner so we can use the dollars that we have 
for the follow-on developments wisely. In most of those cases, 
we have a way forward that we would be glad to talk to you 
about in greater detail at your convenience.
    Senator Cochran. General.
    General Dempsey. No, I have nothing further to add. I have 
nothing to add to the Secretary's response.
    Senator Cochran. Thank you, Mr. Chairman.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.

                            MISSILE DEFENSE

    Mr. Secretary, in the area of Army ballistic missile 
defense, I want to ask if you could comment on two programs in 
particular: Patriot and the Integrated Air and Missile Defense 
Battle Command System, or IBCS. Could you describe just for the 
subcommittee the importance of those programs to the 
warfighter, and how are those programs performing budget- and 
schedule-wise?
    Mr. McHugh. It would be hard to, from the Army perspective, 
overstate the importance of those programs.
    Senator Shelby. Would you say they are of the utmost 
importance?
    Mr. McHugh. I think that is a fair description, Senator. 
The PAC-3 is our protection system against ballistic, air-
breathing threats. We are very, very comfortable with the 
capabilities that it provides. All of our launchers now in the 
Army have PAC-3 capability. So we think that program has been 
incredibly important, and in the near term, I do not see that 
changing.
    Senator Shelby. It has recently come to our attention that 
the Army is considering perhaps transferring its missile 
defense budget and program responsibilities to the Missile 
Defense Agency (MDA). I am concerned that Patriot and IBCS 
which, as you have said, are critical to our warfighters in 
performing well, could be used as bill payers for programs that 
MDA considers a higher priority. Could you explain to the 
subcommittee the status and the details of this proposal, where 
it is, and how can you assure that the budget for Patriot and 
IBCS will be protected if MDA controls the funding?
    Mr. McHugh. Well, if that were to go forward--and we do 
think there are some efficiencies and some logic behind that, 
in fact, occurring. But if that were to go forward, there would 
be Army representation within that organization at the highest 
level. And as I just said to you, the Army would be very, very 
ill-disposed against using Patriot PAC-3 as a bill payer, and 
we would have to fight that battle as we go forward. But at 
this moment, I do not have any indication that that would be 
the case.

                   SPACE AND MISSILE DEFENSE COMMAND

    Senator Shelby. General Dempsey, in the area of the Space 
and Missile Defense Command (SMDC) which conducts space and 
missile defense operations for the Army, as you well know, and 
in support of the U.S. Strategic Command, as we look into the 
future, how would you think SMDC's mission will evolve and 
grow? Will it continue to be a vital part of the Army and 
contributor to STRATCOM? And finally, is the SMDC budget 
request adequate to fulfill the mission that you envision for 
the command?
    General Dempsey. I will begin at the latter part of your 
question, Senator. I do think that the budget submission is 
adequate to the current task load at SMDC.
    I also would agree with the Secretary that the role of 
space in support of ground military operations is vital. As you 
know, we have done some war gaming on a day without space, and 
what that might mean in terms of global positioning, precision 
weapons, and all of that. So we clearly understand the 
importance of it.
    I am quite confident that SMDC, as an Army subcomponent 
command of Strategic Command is well placed and well 
represented, but we will keep an eye on it.
    Senator Shelby. Thank you.
    Thank you, Mr. Chairman.
    Chairman Inouye. Senator Coats.
    Senator Coats. Mr. Chairman, I just want to state from the 
outset that we are all going to be facing difficult decisions 
in the days and months and years ahead relative to the budget, 
and I am hoping that we can work on sensible efficiencies 
within the military. It is clearly our number one 
constitutional responsibility, and we want to make sure we are 
adequately prepared and adequately funded to do that.
    Yet, at the same time, I think all of us have to stretch a 
little bit--and some more than others--to find those 
efficiencies and do more with less. So I look forward to 
working with the Department of the Army and the Department of 
Defense in finding that right balance.
    General, congratulations to you. It is a great complement 
to your service. I had the pleasure of knowing you before, and 
we served together--not together, but working with you on a 
number of items in Germany when I was there. So the highest 
congratulations. It is a great honor, and I think the President 
made the best selection he could possibly make.
    Congratulations to you also, Mr. Secretary.
    I want to get just a little bit parochial here and ask you 
a question just more for information purposes.

                           MILITARY VEHICLES

    It is my understanding that DARPA is now conducting 
ballistic tests on the new high mobility multipurpose vehicle, 
one with a stovepipe which provides protection for our troops. 
It comes in at less weight, considerably less weight, more 
mobility, one-third of the cost, and so forth of the MRAP. How 
do you see that playing out relative to the current budget 
situation and relative to your needs?
    My understanding is we are not getting the mobility out of 
the MRAP's that we need to get around in Afghanistan. A lot of 
them are not being used for that purpose. We now have something 
under test and evaluation that perhaps can give us that 
mobility at less cost and still provide security and safety for 
our soldiers. So could you comment on that?
    Mr. McHugh. Yes, I could. I have actually not seen the test 
in person, but I have seen the video. And watching it is pretty 
impressive. And as you noted, Senator, one of the problems we 
have with our Humvee fleet is the reluctance that commanders 
have had sending it outside, as we say, the wire because of the 
problems on survivability. And this stack defeat system holds a 
great deal of promise, and it is exciting. As you noted, it is 
in analysis and testing right now. So we are not sure exactly 
how it would fit, but it is something that we are very, very 
interested in and we intend to pursue it to its fullest.
    I am not necessarily suggesting we should limit it to a 
Humvee system. If it works in one configuration, it may work in 
others. So we want to take a broad-based look at it, and AM 
General, the company that brought the technology first to us, 
is working with us, and we appreciate that. As I said, we are 
excited about it.
    Senator Coats. General, could you comment also, but also 
relative to the question of the mobility and accessibility and 
need for something like this in Afghanistan vis-a-vis the 
MRAP's?
    General Dempsey. Well, it is, Senator. We have 
approximately 150,000 tactical wheeled vehicles in the Army. 
Some of them are intended for deployable purposes, some not. 
And as we look at our fleet, we have got to balance the 
existing inventory of MRAP vehicles and what they bring. And 
they did bring a considerable degree of protection at a very 
important time. And then the Humvee and then the other program, 
of course, that we are involved with, the Marine Corps and its 
JLTV, the joint light tactical vehicle.
    What we need to do is, again, determine what is that Army 
of 2020, what is the capability that it needs, and then have 
essentially a menu of options so that based on the threat we 
anticipate, we can employ the right capability. And I think 
that Humvee will be part of that in the future, but I cannot 
today say what part of that.
    Senator Coats. Thank you.

                              ABRAMS TANK

    One more question. The Abrams tank, M1A2, is scheduled--my 
understanding--to end production in 2013. Could you comment 
on--concerns have been raised with me relative to maintaining 
the skills and industrial base necessary to produce this type 
of component for you. Can you give me your thoughts on that and 
where we might be going with that program?
    Mr. McHugh. And those are legitimate concerns and we share 
them. The decision on the future production of the tank was 
simply made on the business case. The business case was clear. 
We, as I mentioned earlier, have an Abrams tank inventory that 
is amongst the most modern of any of our equipment, the average 
age being just over 2 years old. And our acquisition objective 
had been met. The cost of shutting down and mothballing the 
plant, including the cost of rebuilding the employee base, was 
far more economically sensible than maintaining the minimum 
production necessary through the period until we begin to 
develop a follow-on for the Abrams platform.
    Having said that, we are looking very carefully and working 
with DOD and Dr. Ash Carter and his acquisition folks to see 
what, if anything, we can do that can help preserve that expert 
force. These are not folks that you just find on the street. 
They have a developed expertise. We recognize it. We value it. 
They have contributed, as many of our contractors have over the 
years, in incredibly important ways, and we want to do the 
right thing by them as well. But also, as you noted in your 
opening comments, Senator, we have got to make some hard 
decisions, but we are looking at it very carefully.
    Senator Coats. Thank you for that.
    Thank you, Mr. Chairman.
    Chairman Inouye. Senator Mikulski.
    Senator Mikulski. Mr. Chairman, I love the names, 
``McHugh,'' ``Dempsey.'' It sounds like an Olympic boxing team 
representing the United States. And listening to you two, you 
two really are a one-two punch for the Army. Secretary McHugh, 
you know, you come from knowledge on the battlefields of 
Congress which really takes a lot of know-how. And, of course, 
General Dempsey, your incredible service plus your most recent 
deployment in Iraq.
    Let me get to my question, and it goes to the well-being of 
the troops, the need for resiliency, the need for their well-
being.

                             MENTAL HEALTH

    One of the most important things to deal with their mental 
health problems is the time at home. Now, I believe--and this 
is where I want to get to my question. And also the Surgeon 
General of the Army, General Schoomaker, said the same thing, 
that if you want to reduce PTSD, stress, the terrible strain on 
the family, have them home for a longer period of time.
    Well, you know how the old wars were. You went off to war. 
Usually it was for 5 years at most, and when you came back, the 
war was over. We had surrenders and so on. That is not the 
case.
    So here goes the question. You, meaning our Government, is 
saying we are going to shrink the number of men and women in 
the Army. Is that correct?
    Mr. McHugh. That is the plan forward, yes, Senator.

                              END STRENGTH

    Senator Mikulski. Right. And I would say a year ago that 
seemed like a good idea and made sense. Now we have the Jasmine 
Revolution. Now we have some of our colleagues who are calling 
for new deployments. I was at an international conference some 
months ago, and one of my colleagues said, let us go in Iran 
and take out the Guard, et cetera. You know, they put on camous 
for a day and they think they are it.
    Then there has been this whole thing with Libya, and the 
President has made a decision. A regime change means boots on 
the ground. But that also means what is the possibility.
    Then we have Syria. Then we have--there are so many 
unexpected consequences and dynamics in the world.
    My question is that as we look at--we thought when we were 
out of Iraq, pulling out of Afghanistan in the way that General 
Petraeus and the President are recommending, that would be kind 
of let us come home and get on with it.
    I am apprehensive that maybe we are going to need a larger 
standing Army to not only meet unintended things in the world, 
but that we have no elasticity anymore.
    So, one, what are you doing for the unexpected? Would you 
caution Congress to think twice before we shoot off our mouth 
while they are asking you to shoot off the guns?
    And then the other thing is, where do we get in here now 
with the National Guard who is really stressed and asked for 
one-third of the workforce, but are supposed to return to 
civilian jobs after 9 years of deploying them from everything 
from tornadoes to overseas?
    So the unexpected and how do we make sure we have not only 
resiliency which, General Dempsey, I really want to everything 
I can to work with you to do that. And I believe we speak for 
that.
    But what do you think about what I just said, Secretary 
McHugh?
    Mr. McHugh. I think you point out very accurately the 
challenge we all have as we make very important decisions in 
this 2012 budget and in the years that follow on.

                    BOOTS ON THE GROUND: DWELL TIME

    As to what we call BOG/dwell, as the Chief mentioned and 
you did, I do not want to simplify it because I think the 
issues of stress on the force and suicide are more complex than 
a silver bullet. The answers are not going to be like turning 
on a light in a dark room. It is going to be more like lifting 
the shades slowly.
    But we know, without any doubt, that one of the key drivers 
of these challenges is the very short time that troops have had 
over the last decade at home. And depending on what kind of job 
you had, most of these troops were coming home for 1 year, then 
going back out for 1 year. Some of them in certain high-demand, 
low-density MOS's were getting less than 1 year at home for 1 
year deployment. One of the things we have done and 
concentrated on is to stretch that out, and because, in large 
measure, of the drawdown in Iraq, we are now, on average, at 
about 1 year deployed and about 1.6 years back home. We think 
at a minimum, we need to have 2 years back home.
    Senator Mikulski. I understand that and I support that. But 
given the numbers that you are having here in the budget, do 
you think that there is enough elasticity, enough--you do not 
want to use the term ``redundancy'' in the troops, but enough 
manpower--and this is all based on the assumption that nothing 
new will happen----
    Mr. McHugh. That is true.
    Senator Mikulski [continuing]. And that the Nation will not 
ask them for nothing new to do or Congress does not go off on 
yet some urging of them to undertake a mission.
    Mr. McHugh. That is exactly true.
    Senator Mikulski. So my question is, is there that 
elasticity there to do that, or are we just making a plan that 
is going to be unrealistic and then we are going to have to 
ramp it up and place an even further intense stress on them 
while all of us in this room want to work with you on that 
mental health care, the right PTSD, the help for the families 
which are so essential to recovery and resetting and 
resiliency? Do you think you have that?
    Mr. McHugh. I think it is our responsibility to provide it, 
and I think we have charted a way forward by which that will 
happen. I cannot predict the future. As you said, it is 
uncertain at best. Secretary Gates mentioned it in his speech 
at West Point that we have a perfect record in predicting the 
future. We have been wrong 100 percent of the time.
    But what we do know is that under the current conditions 
and under the way that we now know forward, the drawdown we 
have planned, beginning with the temporary end strength 
starting in March of next year and then the 27,000 drawdown 
beginning in 2015 and 2016 is doable and is doable in a way 
that will provide the BOG/dwell that we think is necessary and 
hopefully, we believe, sufficient to return to normal stress 
levels at garrison.
    If conditions change, then we are going to have to 
reevaluate. And that is why, as I mentioned earlier, the Chief 
and I and the entire Army staff are looking through total Army 
analysis to how we ramp those drawdowns in the months ahead so 
that if conditions change, we have the flexibility to stop and 
then to build up to whatever level.
    Senator Mikulski. But conditions are changing. They are 
changing by the tweet.
    I know you. You are an outstanding public servant and you 
are a man of honor. I believe you are all putting your best 
thinking in it, but there is these other events.
    I know my time is up. I think we need to talk really more 
about this issue so that we are prepared. We could always buy 
more equipment, but you cannot always buy more troops as if you 
can pull them in off the shelf. We have already pulled them off 
of the shelf for 9 years.
    So my time is up, unless General Dempsey----
    General Dempsey. No. I just would add very briefly if you 
ask me the question today, yes, we are both elastic. We use the 
term ``expansible.'' This budget that we are here to discuss 
provides us the flexibility we need.

                             BALANCED FORCE

    As we look forward, we know there are changes coming. The 
key for us in making those changes is to have time to balance 
what are essentially three rheostats in maintaining a balanced 
force, and those three rheostats are manning, manpower, 
modernization or equipment, and operations and maintenance and 
training. If decisions come to us precipitously, oftentimes we 
will lose one of those three rheostats, and then we lose the 
flexibility. If they come to us deliberately, we can do this.
    And by the way, it took us 10 years to build the 
magnificent Army we have today. It is not one that can be 
disassembled overnight.
    Senator Mikulski. And we do not want to.
    Thank you, Mr. Chairman.
    Chairman Inouye. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman.
    Secretary McHugh and General Dempsey, good to see you both. 
Secretary McHugh was my neighbor across the lake for years when 
he served in the House and I enjoyed very much my work with him 
during that time. I found him to be extraordinarily dedicated 
not only to his district but to making Government work right, 
and it is nice to see you here.
    Mr. McHugh. Good to see you, Senator. Thank you.

                          ARMY NATIONAL GUARD

    Senator Leahy. I want to thank both of you for all the work 
you do to improve the lives of soldiers in the Vermont Army 
National Guard, but of course across the entire Army. As you 
know, Vermont's 86th Infantry Brigade deployed to Afghanistan 
last year. As members of the brigade returned home, usually my 
wife and I would be there to greet them as they came back. I 
saw that the warrior transition system designed for active duty 
soldiers was not meeting the needs of our Guard. We worked 
together to set up a new pilot program, as you know, at Fort 
Drum, and that was a big step forward.
    A month ago, I asked General Schoomaker if he would help me 
to continue the National Guard outreach programs in Vermont and 
around the country. It is so important for mental health 
services for our Guard, and my colleague, Senator Sanders, and 
others helped to establish it. And with the help of the Army, 
the Vermont Guard has received the funding it needs to extend 
this to fiscal year 2011 and it is an impressive example of 
what the Army can do and what it has done.
    And I should also mention I hear from my staff, one of your 
liaison officers, Lieutenant Colonel Kelly Laurel, represented 
both you and the Army on these issues and has been extremely 
helpful. So it is a long way around of just saying I want to 
thank you. When we have brought up issues that affected us, you 
have been there to help. I wear two hats, one as a member of 
this subcommittee, but also along with Senator Lindsay Graham 
as co-chair of the Guard Caucus, and when we have called on you 
for help, you have always been there.

                   MEDIUM EXTENDED AIR DEFENSE SYSTEM

    Secretary McHugh, I would like to ask you about the Medium 
Extended Air Defense System, or MEADS. The Army has asked for 
another $800 million for its development 2002-2013. I 
understand it will not be purchased even after it is developed. 
Somehow we are in an international agreement that obligates the 
spending.
    We are having to pay so many cuts both in the civilian life 
and our social safety net but also in the military. Why do we 
not just cut off money for MEADS? We are not going to deploy it 
anyway. Do we just need to renegotiate whatever those 
international agreements are?
    Mr. McHugh. That would be ideal if we were successful in 
getting our international partners to renegotiate.
    This was a litany of bad choices. The reality is, based on 
the negotiated agreement of 2004 that I was not a part of, so I 
cannot speak to the motivations, any one of the three 
partners--and as you know, Senator, our two other international 
partners are Italy and Germany--who unilaterally withdraw are 
required to pay the set closeout costs, which in the case of 
MEADS is about $840 some million. So if we were to cancel the 
program today unilaterally, we would bear a bill that would be 
almost identical to the budget proposal that the administration 
has put forward.
    Now, the difference is for the $804 million that the 
President has requested and that the Army fully supports is 
that that will fund our participation through and into 2014. 
And at that time, we will be able, along with our international 
partners, to at least reap some of the technology that has been 
developed under the years that this program has been going 
forward. I cannot tell you at this point what that technology 
package will look like, but we know it will be of some 
substance. We will probably have applicability to 360 degree 
systems that right now are beyond our current capabilities. But 
it will be far more than the nothing we will get if we were to 
cancel unilaterally today.
    Senator Leahy. But these other countries must be spending 
money and they must be asking themselves whether they want to 
continue too. Is it a case that everybody wants to see who goes 
first, or is it a case where we might sit down with them and 
say, hey, look, guys, all this money we are spending--if we 
want to do something together, why do we not spend it on 
something that might work?
    Mr. McHugh. I cannot speak to the motivations of our 
partner nations. And it is important to note, the Army is the 
executive agent here. We do not negotiate it. It is a 
Department of Defense and a Department of State lead on those 
things. But my understanding is, according to what I have been 
told through OSD, that our two partner nations, for whatever 
reasons, are not interested in coming to an agreement of early 
termination prior to 2014.
    Senator Leahy. Well, I raise it and please keep it on your 
radar screen because I worry about it when we are cutting out 
so many other things. It is a big hunk of change.
    General Dempsey. Senator, could I add related to another 
question about the importance of air defense? What we do get 
out of this, besides the technology, is a better increased 
capability by our partners at a time when our particular air 
defense community is at any given time 50 percent deployed. So 
50 percent of our air defenders are either in a deployment 
cycle or forward deployed. Anything we can do to improve the 
capability of our partners is worth the investment.

                     ARMY NATIONAL GUARD THREE STAR

    Senator Leahy. My last question. Secretary McHugh, we have 
had 2 years that the Army National Guard has been without a 
full three-star director. And last year, Kit Bond and I, when 
he was in the same position as Senator Graham now, sent a 
letter to Secretary Gates asking that the position be filled. I 
understand there have been two nominees. A second nominee is 
waiting for full administration clearance before his name is 
sent to the Senate for confirmation.
    General Carpenter has been doing a great job, but can you 
kind of prod them? Please encourage them to get this moving.
    Mr. McHugh. I can, I think, do better than that. I had a 
meeting with the Vice Chief of Staff of the Army on this this 
week. He is the guy I have kind of asked to spearhead it. It 
has actually been administrative problems and certain issues 
that the current nominee had to work through. I have been 
informed this week that we are at the very end of that process, 
and I think we will hopefully have you a nominee up here in the 
very near future.
    Senator Leahy. That would be very good.
    Again, thank you both. I agree with so many others that sit 
here. We are very proud of your service. I am delighted to see 
you both here.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    First of all, General, congratulations on your new 
position.

   MENTAL HEALTH SERVICES FOR ARMY NATIONAL GUARD AND RESERVE FORCES

    Recently I welcomed home a company from the Maine National 
Guard which had returned from a 9-month tour of duty in 
Afghanistan. And it was a great day of celebration and 
happiness. But when I was looking at these men and women, I 
could not help but think about the mental health challenges 
that many of them will face, particularly in light of the 
alarming increase in suicides among our National Guard and 
Reserve members.
    I know that in your budget you have proposed a new 
prevention program, and I believe it is called the Army 
Campaign Plan for Health Promotion, Risk Reduction, and Suicide 
Prevention.
    My concern, however, is how is this program going to reach 
the Reserve and National Guard. Obviously, those who go back to 
an active duty base have support structures already built in 
easily accessible, readily available. They have people in the 
command structure watching out for them. But those who are 
going back to rural towns in Maine resuming their civilian 
lives, do not have those kind of support structures. And I 
think that is one reason you are seeing this alarming increase 
that is not present in the active duty troops.
    Could you comment on how the program you have proposed will 
reach those guardsmen and women, those reservists who are going 
back to their civilian lives?
    General Dempsey. Yes. Thank you, Senator.
    What I would like to do is offer that someone would come 
over and actually brief you on the entire program so that we 
can show you where I think we are probably going to hit the 
mark and show you where we think we may still miss the mark 
slightly.
    But I will tell you this program was designed and developed 
from the ground up from its inception to address all three 
components of our Army, Active, Guard, and Reserve. And so 
going in, we recognized the different challenges that each of 
those components have, and we would like to brief you on that.
    Senator Collins. Thank you. I do think that it is 
absolutely critical that we recognize that there are a lack of 
mental healthcare providers in rural areas of my State and I 
suspect throughout the country, and I am just really worried 
about getting those individuals, who are going back to rural 
communities to their old lives who lack that kind of support 
structure, those services.
    Mr. McHugh. May I respond briefly, Senator Collins?
    Senator Collins. Yes, Mr. Secretary.
    Mr. McHugh. And it is a huge problem. And as you noted, if 
you are in the active component, we can get our hands on you 
far more easily than when they go back.
    The interesting thing about the reserve component and Guard 
soldiers, 50 percent of these soldiers who commit suicide in 
the Guard and Reserve have never deployed. So we have other 
issues. And the comment earlier about we do not want to look 
for the one silver bullet, I think, particularly applies to the 
Guard and Reserve. And what we are trying to do--and one part, 
as you mentioned, is overcome this nationwide challenge in both 
the civilian, as well as the military sector, to get enough 
behavioral health specialists so that everybody, all three 
components have accessibility to that to extend through 
distance technologies, IT, into the home so that we can provide 
them, first of all, predeployment resiliency tools; second of 
all, those resiliency tools as follow-up, but also to continue 
to assess their mental health when they have gone back home.
    In States like Vermont and other places, the Guard units 
and the TAG's have stepped up and helped enormously. We are 
looking at everything from the Yellow Ribbon program 
reintegration program and such. But the distance challenges are 
going to provide hurdles that frankly we do not know yet how we 
are going to get over.
    Senator Collins. It is something that we are going to have 
to keep working on.

                        ALS/LOU GEHRIG'S DISEASE

    Secretary McHugh, I want to bring up an issue. I know you 
are aware of a tragic case that I have been working directly 
with you on of a 33-year-old sergeant who has ALS, Lou Gehrig's 
disease. He has three young children. He is now in the advanced 
stage of the disease. It has to be the saddest constituent 
meeting that I have had in quite some time.
    And as you are well aware, numerous studies funded by DOD, 
the VA, NIH, and the Institutes of Medicine have found a link 
between military service and ALS. And that link led the VA in 
2008 to establish a presumption of service connection 
regardless of whether there is a gap between when the ALS 
manifested itself. And yet, DOD takes a different approach.
    In this particularly tragic case, at first we received a 
letter saying that the sergeant was going to qualify for 
benefits and that his ALS was the result of military service. 
We then just 1 week ago subsequently received a letter that 
said the opposite. And I want to continue to work with you 
about that.

                       DISABILITY RATING SYSTEMS

    But on a broader issue, I am troubled that the VA and the 
Department of Defense have different standards in this area. 
The VA assumes there is a presumption of connection between 
military service and ALS, and yet as this latest letter in this 
case shows, the Army concludes otherwise. We have been trying 
to have a better integration between DOD and the VA, and the 
conflicting rulings in Sergeant Kennedy's case seemed to run 
completely counter to the intent of the new integrated 
disability evaluation system and the recommendations of the 
Dole-Shalala report.
    So my broader question for you is would it not make sense 
for there to be more consistency between the system used by the 
VA and the system used by DOD.
    Mr. McHugh. It would make the soldiers, sailors, marines, 
airmen, Coast Guard lives a lot easier.
    As I visit warrior transition units--and the case that you 
have been, to your credit, if I may, so aggressively trying to 
advance and remediate is a particularly tragic example of it. 
But every time I go to a WTU, I do not hear, usually, about bad 
medical care, bad food. I hear about this disconnect in the 
disability rating system between military and the VA. And this 
is something that Secretaries Shinseki and Gates in fact had a 
meeting at the Pentagon about 3 weeks ago in an effort to take 
it to their level to try to see what they could do to finally 
overcome the hump. Even when we had the IDES program, there are 
places where we have enacted it at Fort Carson, for example, 
where it actually expanded the disability rating system rather 
than helped it. So it has been very, very problematic.
    When I received your letter, to narrow it down now to the 
case that you spoke about, I asked that our Army folks--and 
there is a DOD equity here. So we have to kind of work at a 
higher level. But I have asked our Army folks--I told them I 
have a personal interest in this and let us see if there is any 
possible way we can work this out. I cannot make you a promise 
other than I promise you we are looking at it hard.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you very much.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    General, Mr. Secretary, thank you for being here and your 
testimony.

                 ALS AND CONNECTION TO MILITARY SERVICE

    I want to thank you, Senator Collins, for bringing up not 
only the suicide issue, which I think we are all so keyed in 
on, but this issue of ALS and the connection within the 
military. It is something that I have been following for a 
period of years now as I have a relative that is struggling 
with this terrible disease. But what we are learning in these 
past few years about the connections to those who are serving 
and to this horrible disease is really quite significant.
    I think most of us associate Lou Gehrig's disease with 
those that are older. What we are seeing now with the number of 
veterans are contracting this disease at an early, early age--I 
was at the ALS conference here in Washington, DC a couple weeks 
ago, and they had brought in, I think was, about 30 different 
veterans from around the country who are relatively young who 
have ALS. And how we reconcile what Senator Collins has been 
talking about--but again, I think appreciating perhaps what is 
going on with the nature of this disease that we know so little 
about.
    So I understand your commitment to Senator Collins here to 
look into this one specific case, but I do believe that we need 
to look much more broadly. We do have the research program that 
DOD helps to fund through the disease-specific programs. I 
think we need to encourage that. But it is an issue that I find 
very, very troubling.

                      IMPROVISED EXPLOSIVE DEVICES

    General, I want to ask you this morning about where we are 
in terms of improving how we deal with IED's. I think this has 
been so frustrating over the years. We recognize that this is 
the number one killer on the battlefield, and yet our sources 
are indicating that our ability to detect and really to defeat 
these IEDs has remained relatively level versus improved.
    I was out at Walter Reed on Monday and met with an airman 
who was an explosive ordnance disposal technician. I found it 
absolutely fascinating to learn that his position, his job 
requires that he go in and render this IED safe, but he does 
that through a paintbrush and a knife on his belly.
    And we talked about the robots and whether or not the 
robots were as effective as they might be. I will tell you that 
when we look at what we are able to do on Mars with a robot, 
when we think back to a year ago under water with the Deepwater 
Horizon and what we were able to detect a mile below the 
surface, it seems incredible to me that we really have not made 
the progress that we would hope when it comes to how we handle 
the IED's.
    Can you give me an update, give me a little more optimism?
    General Dempsey. I would be loathe to give you optimism 
because as long as there is one soldier at risk for the 
technology--you know, I think we all should remain sort of 
pessimistic.
    I cannot speak to that one airman's experience, but the 
technology has actually progressed remarkably. And in some ways 
actually we have moved away from technological solutions and 
back to things like bomb-sniffing dogs. So, for example, our 
brigades in southern Afghanistan, which are the brigades taking 
the greatest number of IED strikes, are all now outfitted with 
tactical dog teams. We give them an acronym naturally called 
TEDS that have been delivering on their training.
    We have got ground penetrating radars. We have got other 
technologies that have sensors that seek to be able to identify 
the different kinds of explosives and triggering devices. Some 
of that is classified, of course. And our state of training and 
partnership with JIEDDO, the Joint IED Defeat Organization, has 
reaped a lot of benefits in not only defeating the device 
itself but defeating the network, the supply chain that 
delivers it.
    So actually in my time in Iraq and Afghanistan, which spans 
roughly 7 years between 2003 and 2010, I mean, we have made 
exponential improvements, but we should never be satisfied with 
them. Of course, then we carry that to the technology to defeat 
the device when it explodes and MRAP technology and so forth. 
So we have made a lot of progress, but I would not sit here and 
express optimism.
    Senator Murkowski. And I appreciate that. I guess I was 
just more than a little bit disconcerted to learn that still 
with a milk jug and some fertilizer and some diesel, they can 
continue to do the kind of damage and inflict the death and the 
mutilation that we continue to see.
    I was a little bit concerned, though, about what I learned 
about the robots, that in order to really be effective and be 
able to dig through the earth, you have got to have a heavier 
one, but you cannot carry the heavier ones, and the lighter 
ones are not effective. Are we doing more with that technology 
or is that going away as we get more dogs?
    General Dempsey. No, not at all. In fact, we continue to 
look for opportunities with robotics not only in encountering 
IED's but even the technology that might some day produce 
vehicles that are robotic so we do not put soldiers on roads 
that we know are susceptible to mining and IED's. So we are 
pursuing robotic technology aggressively.

                          ALASKA RANGE COMPLEX

    Senator Murkowski. One last quick question, if I may, and 
this relates to the joint Pacific Alaska Range Complex regarded 
as one of the finest joint training ranges in the Nation, I 
think perhaps the world, certainly when it comes for 
preparedness for cold-climate battlefields. When I flew over 
Afghanistan, I looked down and it looks like home. It looks 
like Alaska with the mountains and the terrain there.
    We have been doing a pretty good job with the Alaska troops 
in terms of training on the range, but I am a little bit 
disappointed that the Army does not make broader use of this 
tremendous resource for training a larger number of troops to 
fight in our cold climates. And I guess I would just ask if you 
agree that in fact we do have superior training range 
capability up there when it comes to the cold climate and if 
that is the case, what we can do to perhaps encourage the Army 
to perhaps make more extensive utilization of what we have up 
north.
    General Dempsey. Well, I could not argue against the fact 
that you have the best cold, and we cannot replicate cold the 
way you can anyplace else in our country. That is for sure.
    And we are excited about the potential that that facility 
brings and the joint capability that it brings as well.
    As you know, part of our challenge in using it especially 
to deliver cold weather training right now is we are consumed 
in a cycle of deployments and preparation for deployment that 
really is based on the exact opposite climate challenges. And 
so as these particular conflicts wane, I think we will seek 
opportunities to expand our training, and I would certainly be 
open to the use of that facility.
    Senator Murkowski. We look forward to working with you. 
Thank you. Thank you both for your service.
    Chairman Inouye. Thank you very much.
    Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.

                        WARRIOR TRANSITION UNITS

    Thank you to both of our witnesses today. Nice to see you 
here. I apologize for being late. I was chairing a Veterans 
Affairs Committee where we had a joint hearing with the DOD and 
the VA to talk about the warrior transition units and the fact 
that we are still seeing a lot of delays and seriously 
concerned about the high percentage of suicide rates on our 
warrior transition units and people still waiting. So we are 
working.
    But I would say to the chairman and to Senator Collins, who 
brought it up, we are seeing both the DOD and VA work together 
better today than we have in the past, and I do want to thank 
you and commend you for that.
    One area that I am really focusing on at the VA is the high 
unemployment rate for our service members who are exiting, much 
higher than their peers, 27 percent. And I recently introduced 
The Hiring Heroes Act to start to address how we can better 
transition our service members with these tremendous skills 
that they learn on the ground for us, whether it is a mechanic 
or driving a truck or whether they work in healthcare. Whatever 
their service is, they have tremendous experience, but they 
come out and they cannot translate that into a skill in the 
civilian side and end up unemployed at very high rates.

                     TRANSITION ASSISTANCE PROGRAMS

    In my legislation, I mandate that the transition assistance 
program become mandatory for all service members. That effort 
will go beyond the required pre-separation counseling that we 
currently see many soldiers receive, but actually say what did 
you do in the service and what are the skills and experience 
you have and how can we translate that into a career once you 
leave.
    I wanted to ask you, General Dempsey, today what percentage 
of soldiers currently use the TAP program that is available?
    General Dempsey. Well, again, one of the realities of the 
pace of operations is that we have not been using our ACAP 
programs and other transition assistance programs to the extent 
that we should. And so we have got to find a way to jump start, 
if you will, or rekindle the interest in it because 15 years 
ago, it was mandatory and we met the gates necessary to 
transition.
    And I will just tell you. We feel an obligation to do 
better at this not only because we owe it to our transitioning 
soldiers, but it is an enormous cost to us as well to pay the 
unemployment insurance. So we agree with your concern.
    Senator Murray. Yes. I am startled by the rapidly 
increasing cost of unemployment insurance. For the Army alone, 
it has gone from $500 million in 2010 to $800 million in 2011. 
That is a cost that, obviously, we all have to pay for, but it 
is a cost in lives too for these young men and women who come 
out and do not get a job and become disillusioned, and we see 
the results in everything from drug and alcohol abuse to 
divorce rates to suicide. So it is a cost to society as well as 
a cost to the services.
    So this is something I am very focused on. I would like you 
to take a look at my legislation. I would love to see your 
support in getting that done because I think it is an 
obligation that we have to meet.
    I do know that the Army recently conducted a holistic 
review of the ACAP transition program, and I really am looking 
forward to see the results of that review and a timeline for 
implementing it and wondered if you could share with me today 
what the timeline is for completing that assessment and when 
Members of Congress will be briefed on it.
    Mr. McHugh. If I may, Senator. Thank you for your efforts 
there. We always recognize our responsibility to take care of 
soldiers when they are in the Army and service. We are 
beginning to recognize we have got to go beyond that and help 
them----
    Senator Murray. And the Nation pays a lot for the 
experience that they get there. We should benefit from it.
    Mr. McHugh. Absolutely. And we need to do a better job 
helping employers understand the incredible talent that these 
young--largely young--soldiers bring to the field.
    Under the ACAP program, it is our intent right now to put 
out an RFP this October. We would look for that RFP to 
establish three main locations and 15 satellite locations for 
the ACAP program for demobilization locations to begin to 
provide that. And we are also looking at how do we meld the 
ACAP initiative with some of our existing employment programs. 
We have partnership programs with the Fortune 500 companies and 
others, and bringing those two together seamlessly seems to us 
to be a very logical place by which employers who already 
recognize the value of these soldiers. So as we plan right now, 
you should begin to see some real changes in this fall.
    Senator Murray. In this fall. Okay. I look forward to that.
    And I did want you to know I am very supportive of the 
Joint Base Lewis-McChord ACAP model. They provide 70 hours of 
transition over 12 months. So rather than just putting somebody 
in a class a few days before they leave and they could care 
less, they actually are looking at what they are doing a year 
before they leave and saying you may need to do something 
additional if you want to get a job in the civilian world. And 
I think that is a very smart investment.
    Can you tell me when the pilot of that model begins by any 
chance?
    Mr. McHugh. As I said, we have to set out and make the 
contract let this fall. I do not expect once that is done, it 
should not be too long from enactment, but if I may, let us go 
back and get you some more detail on that.
    Senator Murray. All right. I just do not want to lose 
anybody else here.
    Mr. McHugh. Understood.
    Senator Murray. I think we have got a lot of soldiers 
transitioning and a few months means a few hundred more 
soldiers who are getting left behind.
    All right. Well, I look forward to working with both of 
you. I would like you to take a look at our legislation and 
would love to have your help and support with it.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you very much.
    Gentlemen, I have a lot of questions to ask, but I will 
submit them to you for your consideration.

                         WEIGHT OF COMBAT GEAR

    But I have one question. Ten years ago, the Army Science 
Board made a study, and after that study, they recommended that 
no soldier should carry more than 50 pounds of gear. Today, it 
is estimated that the weight of the gear that a soldier carries 
is 125 pounds. As a result, musculoskeletal injuries have 
increased tenfold in the last 4 years. And the cost of medical 
benefits or disability benefits exceed this annually $500 
million.
    And Johns Hopkins just made a study that indicates that 
injuries from musculoskeletal spinal injuries are double that 
of combat injuries.
    Do you have anything to say to that?
    General Dempsey. Only that this is a constant issue on our 
minds and the minds of Training and Doctrine Command, as well 
as the acquisition side of our Army. And we are looking at it 
in two parallel paths: one that you are very familiar with, 
which is the work on lightening the individual soldier's load. 
And we have made some progress with plate carriers, the weight 
of the helmet, the weight of optics on the rifle, the weight of 
the boots. But frankly, those are kind of marginal changes. 
They are important changes but they tend to be marginal 
changes.
    The other path is to do what I mentioned in my opening 
statement, Senator, which is look at the Army from the bottom 
up. What does a squad need, to take one example, in terms of 
power and energy because we have introduced so many new 
emitters that we have actually increased the burden because of 
the batteries required to run the emitters. We have connected 
the individual soldier to this network, but it requires power 
and energy to maintain it. So by looking at the squad, what we 
hope to find out is what are the squad's power and energy needs 
not just the individual soldier. And we might find our way 
forward in bringing capabilities to the squad external to the 
individual soldier, whatever that happens to be, robotic 
devices, some kind of automotive mule to take some of the load 
off the individual soldier.
    But I can only assure you that it is probably a weekly 
issue for the Chief of Staff of the Army, and I hope that lends 
the gravity to the issue that you would expect.
    Chairman Inouye. As one who served in the infantry, I feel 
for them because I believe my combat gear never exceeded 20 
pounds, including by rifle, boots, helmet, grenades, and all 
that ammo I carried. So I hope we can lighten the load and 
lighten the injuries. What shocked me was the Johns Hopkins 
report that indicated that musculoskeletal injuries exceed 
combat injuries twice.
    General Dempsey. Senator, could I add something to that, 
though? Part of the reason, we have also discovered, that young 
men and women coming in the Army today are not as fit or as 
skeletally sound as you were. And what I mean by that is the 
proliferation of bad nutritional habits and carbonated 
beverages. Even in basic training before we load the soldier 
with the gear that eventually they will have to learn to bear, 
we have these same kind of musculoskeletal injuries. It is 
really a generation of Americans that have this problem, but it 
is exacerbated by the load we ask them to bear.

                     ADDITIONAL COMMITTEE QUESTIONS

    Chairman Inouye. I thank you very much, Mr. Secretary and 
General Dempsey, and we thank you for your service to our 
Nation. And we look forward to working with you on all the 
problems that you brought up today.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted to Secretary John M. McHugh
            Questions Submitted by Chairman Daniel K. Inouye
                     fiscal year 2012 efficiencies
    Question. Secretary McHugh, with the current state of our economy, 
the Nation is challenged with becoming good stewards of our valuable 
resources. One of the major themes of the fiscal year 2012 budget 
submission is cost-savings as a result of efficiencies. The Army 
contributed $2.7 billion in fiscal year 2012 and plan to contribute $30 
billion over fiscal years 2012-2016. How confident are you that these 
savings will come to fruition?
    Answer. The Army is confident projected efficiency savings will be 
realized. We understand that savings resulting from better business 
processes may take years to materialize, so we focused our efficiencies 
during the first 3 years of the program in two limited areas: weapons 
systems with declining relevance or unnecessary redundancy, as 
identified through comprehensive capability portfolio reviews, and a 
balanced facilities strategy that reduces military construction by 
leveraging investment in Base Operations Support (BOS) and Sustainment, 
Restoration and Modernization (SRM).
    Of the approximately $9 billion of savings associated with better 
business practices, reorganizations, and contract management, $8 
billion is projected to be realized in fiscal years 2015 and 2016. This 
phased approach provides the time needed to develop and successfully 
implement future initiatives.
                        family support programs
    Question. Secretary McHugh, the American people recognize that 
soldiers and families make considerable sacrifices as they serve to 
defend the Nation. Because of these sacrifices, the Army has dedicated 
a large amount of manpower and resources toward a full range of support 
programs. Are any of these programs at risk in the Department's efforts 
to find efficiencies?
    Answer. Army family programs are not at risk in the Department's 
efforts to find efficiencies. Because of the tremendous sacrifices our 
soldiers and their families make every day, the Army has committed to 
provide them with the best possible family support services to enhance 
readiness, retention, and resiliency. We have resourced fiscal year 
2012 family programs to provide soldiers and families with a quality of 
life commensurate with their level of service and sacrifice to the 
Nation. Army family programs serve Active and Reserve Component 
soldiers and families whether they reside on or near an installation, 
or are geographically dispersed. The Army continually evaluates the 
quality, cost, and value of these programs. Our efforts ensure a 
balanced portfolio of services that are fiscally sustainable to 
strengthen soldier and family programs for the long term.
                            future force mix
    Question. Secretary McHugh, while trying to make decisions on the 
composition of the future force mix, how will you make sure the Army 
can maintain its battle-proven current capabilities and invest in 
future capabilities within a fiscally constrained environment?
    Answer. We have an Army that is poised to prevail in the current 
fight. We will smartly manage the reduction and change in size and 
composition along with changes in the demand for overseas contingency 
operations. We will sustain the warfighting capabilities to prevail, 
even as we increase our ability to prevent conflict. We will ensure 
full spectrum operational readiness and continue important 
modernization programs as we correctly apply efficiency efforts across 
our training, manning and other title 10 activities.
                         ground combat vehicle
    Question. Secretary McHugh, the fiscal year 2012 budget includes 
over $1 billion for the Ground Combat Vehicle. This is a 7-year 
development program that will cost over $40 billion. However, the 
Ground Combat Vehicle will replace less than half of your combat 
vehicle fleet, and your budget contains little funding to modernize 
those vehicles. Is this modernization strategy truly affordable?
    Answer. The Combat Vehicle Modernization Strategy, including the 
development and fielding of the Ground Combat Vehicle, is affordable. 
The Army conducted a rigorous analysis to determine an affordable cost 
for the Ground Combat Vehicle. After examining planned modernization 
efforts and new start programs across the combat vehicle fleet, the 
Army determined a Ground Combat Vehicle with a $13 million Average 
Procurement Unit Cost is affordable. The Army included a cost target 
range in the Request For Proposals, encouraging industry to submit 
proposals the Army can afford.
    We require a new ground combat vehicle to provide soldiers the 
protected mobility they need to operate across the full spectrum of 
operations. Nine years of combat experience, ranging from major 
combined-arms maneuver and close combat action, to stability operations 
and security force assistance missions, have underscored this need. 
Current and product-improved Infantry Fighting Vehicles do not provide 
the protected mobility required to operate across the spectrum of 
operations or the growth potential required to incorporate advances in 
protection or network capabilities for the full infantry squad.
    Question. Secretary McHugh, we understood that savings generated by 
the Army during the Department's efficiency initiative were going to be 
reinvested in combat vehicle modernization. Could you please detail for 
us where and when those funds will be invested?
    Answer. A sizeable portion of the funds from the efficiency 
initiative will be applied from fiscal year 2012 through fiscal year 
2017 in support of the Army's Combat Vehicle Modernization Strategy. 
The Army will take a holistic approach to the development of the Ground 
Combat Vehicle, replacement of the M113 Family of Vehicles and the 
incremental modernization of the Bradley, Abrams, Paladin, and Stryker. 
Modernization imperatives across the fleet include improved protection, 
lethality, mobility and sustainment, mitigation of existing Space, 
Weight and Power (SWaP) shortfalls and Network integration.
                          healthcare proposals
    Question. Secretary McHugh, the increases in co-pays have been 
proposed previously. Could you explain how these proposals are 
different and why they should be reconsidered by the Congress at this 
time?
    Answer. Previous proposals sought higher enrollment fees and higher 
pharmacy co-pays than the current proposal. While the cost of military 
healthcare has continued to grow because of an increase in eligible 
beneficiaries, expansion of benefits, increased healthcare utilization, 
and the growth in health inflation, TRICARE premiums have remained the 
same since the TRICARE program began in 1995. These fiscal year 2012 
proposals balance our commitment to preserve the healthcare benefit 
while slowing future growth in healthcare costs through various 
healthcare efficiencies. The Army believes these proposals to raise the 
TRICARE enrollment fees for working age retirees and adjust retail 
pharmacy co-pays for all beneficiaries except Active Duty to be modest, 
gradual, and responsible.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell
                                suicide
    Question. The Congress has established a national suicide hotline 
for returning troops, as well as increased funding for mental health 
programs for Active Duty military personnel. However, there remain a 
high number of soldier suicides. For example, it was reported that 21 
suicides involving Fort Campbell soldiers alone occurred in 2009. What 
preventative measures are the Army and the Department of Defense (DOD) 
taking to address this problem writ large and at Fort Campbell in 
particular?
    Answer. The Army has implemented several near-term projects to 
improve our understanding of suicide prevention and to improve the 
programs and services provided to soldiers and their families--such as 
the Army Campaign Plan for Health Promotion, Risk Reduction and Suicide 
Prevention and the Vice Chief of Staff's monthly suicide review 
meetings. The Army has also enlisted the help of the National Institute 
of Health (NIH) to conduct a long-term study on risk and resilience in 
the Army.
    In the past year, the Army has implemented the Comprehensive 
Behavioral Health System of Care Campaign Plan. This initiative is 
nested under the Army Campaign Plan for Health Promotion, Risk 
Reduction and Suicide Prevention. The Comprehensive Behavioral Health 
System of Care is intended to further standardize and optimize the vast 
array of Behavioral Health (BH) policies and procedures across the U.S. 
Army Medical Command. The goal is to ensure seamless continuity of care 
to better identify, prevent, treat, and track BH issues that affect 
soldiers and families.
    There has been a robust Combat and Operational Stress Control 
presence in theater since the beginning of the war, with deployed BH 
assets supporting both Operation Enduring Freedom and Operation New 
Dawn.
    The Army is enhancing BH services provided to its family members 
through Child, Adolescent and Family Assistance Centers and the School 
Behavioral Health Programs.
    We continue to invest significant resources in researching BH. The 
BH research program supports development and evaluation for prevention, 
treatment, and long term recovery needs. This includes over 150 
projects addressing post-traumatic stress disorder and 10 projects 
dedicated toward suicide prevention and intervention research.
    All of these programs and services are available to soldiers and 
their families at Fort Campbell. The soldiers of the 101st Airborne 
Division (Air Assault) were the first soldiers in the Army to implement 
the Army Campaign Plan for Warrior Traumatic Brain Injury (mTBI) 
Management. This campaign plan increased the forward screening, 
treatment and documentation for soldiers exposed to concussive events. 
The program will help the healthcare providers at Fort Campbell improve 
the medical care and treatment for soldiers who are displaying signs or 
symptoms of mTBI following their deployment. Additionally, under the 
direction of the Army's Assistant Surgeon General, a detailed plan for 
improved postdeployment behavioral health screening and treatment has 
been implemented. The plan increased both the number of providers on-
hand at Fort Campbell, and also increased the access to behavioral 
health specialists through Virtual Behavioral Health.
                          counseling services
    Question. With the current deployment schedule, a heavy toll is 
being placed upon the spouses and children of servicemembers. How 
accessible are counseling services for deployed servicemembers' spouses 
and children?
    Answer. The Army has an extensive array of behavioral health 
services and resources for soldiers and their families. These services 
include, but are not limited to, routine behavioral healthcare, School 
Behavioral Health Programs, Child and Family Assistance Centers, Army 
Community Service, the Family Assistance for Maintaining Excellence 
program, Warrior Resiliency Program, use of chaplains, Military One 
Source, and Comprehensive Soldier Fitness for Families. The Army 
developed its Comprehensive Behavioral Health System of Care Campaign 
Plan to standardize, synchronize, and coordinate behavioral healthcare 
across the Army, to optimize care and maximize limited behavioral 
health resources to ensure the highest care to soldiers and their 
families.
    Question. Are these services available on all major military 
installations?
    Answer. Yes. Counseling services are available for deployed 
servicemembers' spouses and children at all major installations.
    Question. What programs are available for those living away from 
major military installations?
    Answer. Eligible stateside TRICARE beneficiaries can access 
behavioral healthcare services through the TRICARE Assistance Program 
and are also eligible for counseling support through secure, two-way 
audio-visual conferencing to connect with authorized providers as part 
of TRICARE's Tele-mental Health program. Military OneSource provides 
access to face-to-face, telephone, online and email supportive 
counseling services and is available 24 hours a day, 7 days a week for 
Active Duty servicemembers and their families.
                    ireland army community hospital
    Question. Ireland Army Community Hospital at Fort Knox is one of 
the oldest hospitals in the Army. With the new Brigade Combat Team 
stationed at the post, I am concerned over the state of the current 
hospital and its ability to meet the increased demands placed upon it. 
What is the status of the Army's decision on when to build a 
replacement?
    Answer. The Army intends to replace Ireland Army Community Hospital 
(IACH). The current Defense Health Program Future Year Defense Program 
includes a phased funded replacement project for IACH beginning in 
fiscal year 2013.
  post-traumatic stress disorder (ptsd)/traumatic brain injuries (tbi)
    Question. Are there any further legislative steps that the Congress 
could take to improve screening and the delivery of care to soldiers 
with PTSD and TBI?
    Answer. At this time there are no further legislative steps 
necessary to improve the screening of PTSD and TBI brain injury. The 
Army's Comprehensive Behavioral Health System of Care campaign plan was 
launched in February 2010 to standardize, synchronize, and coordinate 
behavioral healthcare across the Army and through the Army Force 
Generation cycle.
                               fort knox
    Question. With the addition of the new Brigade Combat Team at Fort 
Knox, what is the Army doing specifically to ensure that the 
installation is capable of deploying the unit with dispatch?
    Answer. In March 2006, an assessment by the Transportation 
Engineering Agency calculated a rail deployment requirement of 360 
railcars in a 48-hour period to deploy a Brigade Combat Team. In order 
to achieve that deployment tempo, the Army has programmed a 2014 
project to upgrade the Brandenburg Station Road railhead in the fiscal 
year 2012 through 2016 Future Year Defense Program. The Army is 
currently reviewing all projects in anticipation of expected military 
construction reductions.
    Question. What additional transportation or logistics facilities 
are needed to enhance Fort Knox's capabilities in this respect?
    Answer. Two other projects will enhance the installation's 
deployment capabilities. A Container Handling Facility will support the 
increase in container processing that must occur for deployment. 
Additionally, a Vehicle/Equipment Processing Facility will assist with 
the tasks necessary to process the increased number of vehicles and 
other equipment that comes with deploying a Brigade Combat Team from 
the installation. Both projects are programmed to be funded in 2015 in 
the fiscal year 2012 through 2016 Future Year Defense Program. The Army 
is currently reviewing all projects in anticipation of expected 
military construction reductions.
                          servicemember census
    Question. It is my understanding that there are at least three ways 
that the DOD could count servicemembers for purposes of the Census. The 
DOD today apparently uses ``home of record'' as the means of 
determining where servicemembers ``live''. This appears to be the case 
even though such data are often many years old. What is the policy 
justification for the DOD using this means of counting as opposed to 
other approaches, such as legal residence or last duty station, which 
might entail a more accurate methodology?
    Answer. Using a servicemember's home of record (HOR) provides 
greater consistency and accuracy in the census in comparison to the 
other two approaches. The HOR is established at initial entry and can 
only be changed if there is an administrative error or when a 
servicemember re-enlists after having a 24-hour break in service. The 
HOR is also used to calculate a servicemember's Government travel 
expenses upon separation, therefore, returning the servicemember to the 
State of initial entry.
                       chemical weapons disposal
    Question. Please provide the Program Office Estimate (POE) 
projected date for completion of operations for chemical weapons 
disposal at Blue Grass Army Depot (BGAD), Kentucky.
    Answer. The Assembled Chemical Weapons Alternatives (ACWA) POE 
developed in 2010 estimated the completion of chemical weapons 
destruction operations at Blue Grass in May 2021. During the recently 
completed Nunn-McCurdy review of the program, risk elements were 
identified that will likely extend the schedule by approximately 24 
months. The ACWA program continues to evaluate options to improve the 
overall schedule including the consideration of the use of explosive 
destruction technology. A new Acquisition Program Baseline will be 
developed by the fourth quarter of fiscal year 2011.
             assembled chemical weapons alternatives (acwa)
    Question. I am told that the Office of the Secretary of Defense 
Efficiency Initiatives memorandum, dated March 14, abolishes the 
Program Manager position of the Assembled Chemical Weapons Alternatives 
(ACWA). I am concerned that abolishing the ACWA Program Manager could 
leave the program without the leadership necessary to fulfill the 
mission--unless the Chemical Materials Activity Director remains as 
interim ACWA Program Manager indefinitely. I believe clarity is needed 
as to who is going to take long-term responsibility of the ACWA 
mission, consistent with existing law. If the reports are true, what 
impact would eliminating this position have on chemical weapons 
disposal efforts and the greater ACWA mission at BGAD?
    Answer. In accordance with the Office of the Secretary of Defense 
Efficiency Initiatives Decisions memorandum dated March 14, 2011, the 
Program Manager, Assembled Chemical Weapons Alternatives (PM ACWA) 
Senior Executive Service (SES) position was eliminated.
    However, as a result of the ACWA Program Nunn-McCurdy review, the 
Secretary of the Army is tasked to establish and fill the PM ACWA 
position by the first quarter of fiscal year 2012. Pursuant to section 
1421 of Public Law 111-383, the PM ACWA shall report to the Under 
Secretary of Defense for Acquisition, Technology and Logistics. The 
U.S. Army Chemical Materials Agency (CMA) Director, Mr. Conrad Whyne, 
is the Acting PM ACWA, and will manage the ACWA program until the 
position is permanently filled.
    The DOD understands the importance of the ACWA Program and will 
continue to maintain long-term responsibility and the essential 
management structure for the destruction of the chemical weapons 
stockpiles in Kentucky and Colorado.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
                  research and development innovation
    Question. Secretary McHugh, in the Fiscal Year 2011 Department of 
Defense Appropriations bill passed last month the Congress provided the 
Army with $105 million for ``Research and Development Innovation''. 
This was a new program line for the Army and the bill contained no 
explicit language prescribing the uses of that money. Does the Army 
currently have a detailed plan for how the $105 million will be spent?
    Answer. The Army is developing guidance for the execution of the 
$105 million Rapid Innovation Program. We currently plan on defining a 
set of broad topic areas of importance to the Army, and issuing Request 
For Proposals (RFPs) on these topics. The RFPs should be issued in the 
next several months.
    Question. Will the Congress be briefed on a spending plan in the 
near future?
    Answer. Detailed plans will be provided to the Congress when the 
Army finalizes guidance for the Rapid Innovation Program, which should 
occur in the next several months. The Army will also provide regular 
reports on the use of this funding, as required by law.
                            industrial base
    Question. Secretary McHugh, there has been much discussion in 
recent weeks on the combat vehicle industrial base but there appears to 
be an increasing concern over the weapon system industrial base writ 
large. What analysis does the Army conduct on the impact of ending 
programs on the industrial base?
    Answer. On an annual basis, the Army conducts analysis and 
assessments on key industrial base sectors which produce weapon systems 
and critical components. The broad assessments and sector studies are 
utilized to make informed industrial base investment decisions, to 
include decisions on program termination impacts. These Army industrial 
base assessments are summarized in the Annual Industrial Base Report to 
the Congress. As an example of an Army assessment of ending combat 
vehicle production, the Army assessed and determined it prudent to 
temporarily close our primary assembly plant for heavy vehicles but 
keep critical suppliers like special armor in active production status 
to protect our ability to restart production. As a result, the Army 
programmed needed funds to maintain that capability.
    Question. Is the industrial base a manageable problem from your 
perspective?
    Answer. Yes, however the current decline in the number of 
suppliers, a lack of surge capability, a dependence on foreign sources 
of supply, and a low-productivity growth rate in some important 
industries could prove to be challenging. We need to continue pursuing 
comprehensive and integrated approaches to determine which industrial 
capabilities are unique and vital to our national defense and if our 
military will be jeopardized if a company decides to terminate a vital 
activity or move production offshore. The national defense environment 
is dynamic and, unfortunately, no single criterion applies to all 
situations. Identifying vital, at-risk capabilities requires program 
managers and other logisticians to become involved.
                        technology advancements
    Question. Secretary McHugh, recent technologies have begun to 
emerge which enhance the capabilities of our tactical assets to 
acquire, target and mitigate enemy rocket and mortar fire from the 
ground. How does the Army assess advancements in targeting sensors, 
missile guidance and control, and seeker technologies? Will the 
department pursue miniaturized, cost-effective, and deployable force 
protection systems?
    Answer. There have been significant advancements in targeting 
sensors, missile guidance and control, and seeker technologies. The 
Army has ongoing Science and Technology investments to mature and 
evaluate these technologies. We plan to demonstrate their ability to 
target and mitigate enemy rocket and mortar fire over the next few 
years.
    We have sought enhancements to all baseline components to ensure 
the capability to acquire, target and mitigate enemy rocket and mortar 
fire. At the same time, we are responding to changes in insurgent 
tactics and weapons. We have sought both mature and emerging 
technologies across the various services. We are demonstrating and 
evaluating these and programmed enhancements to existing systems over 6 
major tests/demonstrations and 20 smaller events. The Counter-Rocket, 
Artillery, and Mortar (C-RAM) Program Office has integrated existing 
Navy, Marine Corp, and Air Force systems, in many cases employing them 
to perform new functions. The C-RAM Program Directorate works with DOD 
Program Mangers of existing systems as well as the Science and 
Technology organizations and industry to identify technologies and 
systems that can improve force protection in Iraq and Afghanistan.
    The Army is developing requirements consistent with emerging war 
fighter needs that provide better force protection. Miniaturization and 
cost-effectiveness are always considerations when developing force 
protection capabilities.
                     injury prevention and control
    Question. Mr. Secretary, physical readiness is critical to mission 
success. Musculoskeletal injuries are the #1 issue inhibiting military 
readiness, resilience and deployability. At any given time we have a 
full brigade of soldiers that cannot deploy due to musculoskeletal 
injury. These injuries also strongly influence the quality of life in 
our older personnel decreasing productiveness and increasing medical 
costs. After Active Duty, these old injuries continue to affect the 
lives of our veterans. Nonetheless, the vast majority of our research 
funds are focused on battlefield injuries.
    Today only 6 percent of the United States population meets current 
enlistment standards. While TRADOC has put in motion the ``Soldier 
Athlete Initiative'' and is exploring the Musculoskeletal Action Team 
concept within the training brigades, this leaves the largest number of 
soldiers (FORSCOM) without direct support in this area. In addition, if 
the Army were to expand its efforts beyond TRADOC, I understand there 
is a severe shortage in personnel, whether military, civilian DOD, or 
contractors, trained in sports medicine and orthopedic health available 
to address this critical need.
    What is the Army currently doing to reduce the number of 
musculoskeletal injuries and the recovery time from those injuries 
across the Army? Please provide full background and statistics on 
improvement and cost savings to TRADOC, FORSCOM, and MEDCOM.
    Answer. The U.S. Army Medical Command (MEDCOM) has initiated its 
comprehensive Soldier Medical Readiness Campaign (SMRC) to address and 
improve the medical readiness of the Army. Under SMRC, the Office of 
The Surgeon General and MEDCOM are partnering with the Headquarters 
Department of the Army, FORSCOM, TRADOC, U.S. Army Special Operations 
Command, Human Resources Command, and others to promote a healthy 
population and ready force. The SMRC focuses on evidence-based health 
promotion, injury prevention, and human performance optimization. The 
U.S. Army is initiating/monitoring multiple programs that target both 
TRADOC and FORSCOM soldiers. These programs include, but are not 
limited to, the Initial Entry Training--Soldier Athlete Initiative, 4th 
Infantry Division Iron Horse Performance Optimization Program, 25th 
Infantry Division Advanced Tactical Athlete Conditioning Program, and 
the Fort Hood Physical Readiness Training Program. Additionally, the 
Army initiated the new Physical Readiness Training (PRT) in 2010.
    This is a phased program that safely focuses on training the 
fundamentals first while enhancing strength, endurance, and mobility. 
We designed the PRT to incorporate appropriate intensity and duration 
of physical conditioning while allowing for adequate rest, recovery, 
and nutrition. A study conducted by the U.S. Army Public Health Command 
(Provisional) (PHC) found that soldiers in an infantry battalion were 
1.2 to 1.4 times less likely to suffer an overuse injury when 
participating in the PRT versus traditional physical training programs.
    It is still too early to draw definitive data on cost savings that 
have been realized from these programs. MEDCOM has ongoing 
collaborative efforts with PHC and U.S. Army Research Institute of 
Environmental Medicine to identify best practices for reducing 
injuries, improving readiness, and subsequently reducing costs.
    Question. How does the Army propose to overcome the serious lack of 
sports medicine and orthopedic healthcare providers it now faces?
    Answer. Currently, the U.S. Army does not face a lack of sports 
medicine or orthopedic healthcare providers. Numerous training programs 
specifically address sports medicine and orthopedic training for 
physician providers as well as physician extender providers. Physician 
programs include fellowships in both orthopedics and sports medicine. 
Nonphysician healthcare providers also have multiple programs that 
offer training in these specific subspecialties. For example, physical 
therapists are selected each year to attend residency programs in 
orthopedics or in sports medicine and physician assistants are selected 
for attendance to an orthopedic residency program. Additionally, our 
medics and specialty technicians (physical therapy, occupational 
therapy, and dieticians) receive extensive training and education 
within their respective programs in orthopedic and sports injury 
assessment and rehabilitation.
    Question. Is the Army considering the development of training 
protocols that will increase the number of trained healthcare providers 
and as importantly the ability of officers and NCO's with oversight of 
physical training to recognize injuries or the precursor to injuries in 
an effort to prevent or control injury? If not, how will this issue be 
addressed?
    Answer. The Army has a variety of healthcare providers, from medics 
and primary care physicians to specialists, who are trained in sports 
medicine and orthopedic specialties. Numerous programs exist to sustain 
the current base and provide leading edge training opportunities for 
physician and nonphysician providers. For example, entry level training 
by the U.S. Army Baylor University doctoral program in physical therapy 
is currently recognized as a leader in orthopedic and sports physical 
therapy education, including injury prevention and human optimization 
performance training. Postgraduate education for physician and 
nonphysician providers extends opportunities as fellowships, 
residencies and short courses. These programs include, but are not 
limited to, the military sports medicine fellowship for primary care 
physicians, advanced residencies in sports medicine and orthopedics for 
physical therapists, occupational therapists, physician assistants and 
other military providers.
    Question. I understand that a number of small scale efforts are 
underway across the Army that have shown great success and cost savings 
surrounding musculoskeletal injuries. Are you aware of these efforts? 
Has the Army considered expansion of these efforts, and what would the 
impact of expansion mean for readiness?
    Answer. We are aware of numerous small scale efforts across the 
Army aimed at addressing musculoskeletal injuries. These programs 
include, but are not limited to, the Initial Entry Training--Soldier 
Athlete Initiative, 4th Infantry Division Iron Horse Performance 
Optimization Program, the 25th Infantry Division Advanced Tactical 
Athlete Conditioning Program as well as programs throughout Special 
Operations Command. These programs augment the Army's validated 
physical readiness training. Army research and public health experts 
seek to identify objective and valid measures for success and cost 
savings in these programs. The collaboration among commanders, 
researchers and medical experts will assist in identifying best 
practices in order to expand these across the Army. It will be 
difficult to determine the impact on readiness and efficacy in reducing 
the risk and incidence of musculoskeletal injury until the ongoing 
studies are complete.
                      canine explosives detection
    Question. Mr. Secretary, IEDs seem to be a growing issue in 
Afghanistan and a continuing issue in Iraq, yet statistics provided by 
the Joint IED Defeat Organization (JIEDDO) indicate little improvement 
in our ability to detect and defeat IEDs in theater. There is, however, 
one technology that has proven to have greater success--explosive 
detection canines. The current and previous Directors of JIEDDO, 
Generals Oates and Barbero, as well as General Petraeus, have all 
acknowledged that canine detection teams remain the best technology to 
detect and defeat IEDs. In fact, units with canines have an 80 percent 
detection rate compared to 50-55 percent detection rate for all units 
with differing technology.
    How many detection dogs are currently deployed or being trained for 
deployment?
    Answer. The Army has 7 Patrol Explosive Detector Dogs (PEDD) 
assigned in Iraq. There are 174 explosive detection dogs assigned in 
Afghanistan: 5 PEDD, 25 Specialized Search Dogs (SSD), 12 Mine Detector 
Dogs (MDD) and 82 Tactical Explosive Detection Dogs (TEDD). 
Additionally, there are 40 TEDD teams in training.
    Question. Where were these dogs bred, acquired and trained?
    Answer. Procurement and training of all Military Working Dogs is 
the responsibility of the DOD Executive Agent (EA) thru the 341st 
Training and Readiness Squadron at Lackland Air Force Base in Texas. 
Current inventory of canines are bred and acquired through domestic and 
nondomestic vendors. The 341st also provides dogs through their in-
house breeding program.
    Question. What is the Army doing to acquire more quality trained 
dogs for deployment?
    Answer. The DOD EA continues to procure/train Military Working Dogs 
for the Army. Additionally, based on an Operational Needs Statement 
(ONS) for a single purpose explosive detection capability in support of 
combatant commanders, the Army developed TEDD as an emergent 
requirement for additional capacity. Headquarters, Department of the 
Army validated that each deploying Brigade Combat Team will receive 20 
TEDD dogs.
    Question. Does the Army have standards on detection dogs that must 
be met by suppliers?
    Answer. The DOD EA thru the 341st Training and Readiness Squadron 
creates and enforces the standards by which they procure dogs from a 
supplier. All dogs are screened and approved by veterinary personnel to 
ensure the dog is physically fit to meet the rigorous training 
standards. Once the dogs have completed training, all teams are 
certified by a Department of the Army certification authority before 
being accepted into the DOD program. Certification standards requires 
all teams to demonstrate the ability of finding explosives at a 95 
percent find rate with a less than 10 percent false response rate. All 
TEDD must meet the same standards.
    Question. What is the average total cost of a detector dog?
    Answer. According to the 341st Training and Readiness Squadron at 
Lackland Air Force Base, Texas, the estimated costs are $16,000 per 
dog; the average cost of a Tactical Explosive Detection Dog is $14,000 
per dog.
    Question. Is the Army currently conducting R&D on detection dogs 
and methods to increase their effectiveness? If so, please provide 
details including costs and successes.
    Answer. The Army is not conducting any Research and Development on 
detection dogs, but strives to meet operational needs by incorporating 
lessons learned and Techniques, Tactics and Procedures (TTPs) directly 
from theater into ongoing TEDD classes. One example is the introduction 
of homemade explosives into the training protocol of all explosive 
detector dogs. Army Testing and Evaluation has conducted an initial 
review of the first iteration of theTEDD. The Army is in close 
coordination with each of the services' Military Working Dog programs 
to incorporate pertinent lessons learned.
    Question. What is the total amount to date the Army has spent 
directly on or with JIEDDO on IED detection and defeat R&D and asset 
acquisition? What percentage of that does the most successful asset, 
explosive detection dogs, represent?
    Answer. The Army received $7.5 million from JIEDDO over the past 8 
years for Military Working Dog programs. Of that, $5 million was split 
over 2 years to develop the Specialized Search Dog program, an off 
leash explosive detector dog team trained by the DOD dog center at 
Lackland Air Force Base in Texas. The remaining $2.5 million was used 
to develop a combat tracking dog program in which the dog was used to 
track backwards from known IED sites.
    We do not know what that represents as JIEDDO's total budget.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
                   reserve component discharge issues
    Question. In 2007, I had the opportunity to visit with Alaska Army 
National Guard troops who were returning from Iraq and Kuwait at Camp 
Shelby in Mississippi. I was particularly interested in learning 
whether the returning guardsmen were getting medical and psychological 
screening similar in quality to the screenings that our Active Duty 
soldiers received upon their return. I was left with the sense that 
there were limited opportunities for returning Guard members to get 
help at Camp Shelby and those who sought help were referred to an Army 
medical facility in the Southeast United States rather than returned 
home to a military treatment facility in Alaska. This created an 
incentive for a soldier not to express a medical concern.
    In 2010, my colleague Senator Wyden of Oregon exposed the concern 
that Oregon National Guard members returning to Fort Lewis were being 
discharged without receiving adequate treatment or counseling. To add 
insult to injury, it appeared that some members of the Fort Lewis 
medical staff were exposed to a briefing that suggested members of the 
National Guard were gaming the system and would feign injuries in order 
to continue on Active Duty.
    All of this was deeply troubling to me . . . confirming my worst 
fears when I visited with Alaska troops at Camp Shelby.
    Has the Army completed its investigation of the complaints arising 
from Fort Lewis and what was learned?
    Answer. The investigation is complete. Based upon these 
experiences, the Army established a Demobilization Assessment Tiger 
Team (DAT2) to conduct a review of the demobilization process. The Army 
published Execution Order 178-11: Mobilization Command Support 
Relationships and Requirements Based Demobilization Process on April 
14, 2011 based on the DAT2 findings. DAT2 found the demobilization 
process lacked standardization and oversight. In other words, the 
soldier's experience was very different at each demobilization site 
which led to possible gaps in fully identifying and evaluating 
battlefield injuries prior to a Reserve Component soldier's discharge 
from Active Duty.
    The solutions currently being implemented to close the gaps 
identified include:
  --Publishing specific standards for Reverse Soldier Readiness 
        Processing (i.e., demobilization) medical processes to include 
        specified behavioral health tasks;
  --Coordinating with TRICARE Management Activity to update and 
        standardize the TRICARE briefing provided to each RC member; 
        and
  --Standardizing the Medical Briefing provided at each demobilization 
        site in order to ensure each soldier has the same understanding 
        of medical and dental screening tasks to be completed, medical 
        evaluation and treatment options to include retention on Active 
        Duty under medical retention processing authorities or care 
        options if the soldier chooses to be released from Active Duty.
    U.S. Army MEDCOM and its subordinate commands will continue to 
utilize the Organization Inspection Program and Staff Assistance Visits 
to ensure compliance with these new policies and procedures throughout 
the command.
    Question. What steps are being taken to ensure that battlefield 
injuries sustained by members of the Reserve Component are being fully 
identified and evaluated before a soldier is discharged from Active 
Duty? I would like you to speak both to physical injuries and 
behavioral health issues in answering this question.
    Answer. In April 2011, the Army published a Department of the Army 
Execution Order (EXORD) to address standardization and oversight within 
the demobilization process. Specific steps to fully identify and 
evaluate battlefield injuries before a soldier is discharged from 
Active Duty includes the utilization of a down-range assessment tool. 
This assessment is used to provide early indications of who may be at 
high risk for behavioral health issues so that the receiving 
demobilization platform is ready to care for them. Additionally, along 
with the postdeployment health assessment that all soldiers receive 
upon redeployment, U.S. Army Medical Command has implemented a Periodic 
Health Assessment for Reserve Component soldiers at the demobilization 
site to ensure a comprehensive assessment of their medical and dental 
readiness is documented.
    To ensure proper coordination with Reserve Component commands, DA 
EXORD 178-11 incorporated a deployment support cell (DSC) from the 
Reserve Components' command into the demobilization process. The 
medical element of the DSC monitors and assists with line of duty 
completion for all soldiers requiring documentation of medical 
conditions sustained in the line of duty and ensuring continuity of 
care for those soldiers choosing to be released from Active Duty. DA 
EXORD 178-11 also mandates that a demobilization validation board 
reviews each soldier's record prior to departure from the 
demobilization station in order to validate whether the soldier meets 
the criteria for release from Active Duty or requires further medical 
care.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
                              competition
    Question. Mr. Secretary, what assurances can you give the Committee 
that the results of the new carbine competition will consider best 
value--a competitive procurement cost coupled with due consideration of 
the total life cycle cost of the new carbine--rather than simply 
awarding the contract to the lowest bidder?
    Answer. The IC procurement strategy is being conducted as a full 
and open competition to ensure that the soldier receives the best 
overall weapon at the best value to the Government. Full and Open 
Competition permits the Army to exploit commercially available advances 
in small arms capabilities. In addition to cost, IC candidates will be 
evaluated against a number of factors, including accuracy, reliability/
durability, fielding, facility capability, and operational and 
supportability impacts. As part of the competition, a Limited User 
Evaluation (LUE) will be conducted in order to obtain user assessment 
of the system. At the end of the competition a Cost Benefit Analysis 
(CBA) will be conducted to consider the performance, life-cycle cost, 
and terms and conditions of the selected system as compared to the 
current carbine.
    Question. Do you agree that it would be wrong to the taxpayer and 
the soldier if the Army simply goes with the cheapest solution, only to 
have the contract winner potentially recoup its profit via engineering 
changes, delays and other modifications, as has occurred with other 
small arms contracts?
    Answer. Yes, the IC procurement strategy is designed to ensure that 
the soldier receives the best overall weapon at the best value to the 
Government. While cost is one of many considerations, best value does 
not mean lowest cost. Best value also includes an array of 
considerations, including weapon performance and reliability in test 
and evaluation, past vendor performance, soldier input, and numerous 
other factors.
                                 ______
                                 
              Questions Submitted by Senator Daniel Coats
                            tactical radios
    Question. In 2009, the Army initiated the Rifleman Radio 
Competition Integration (RRCI) to support the test, evaluation and 
certification of alternative Rifleman Radio (RR) offerings to meet the 
warfighter's requirements at a competitive price. It is my 
understanding that to date, the RRCI has not been fully implemented. In 
January 2011, the Undersecretary of Acquisition, Technology and 
Logistics (AT&L) issued an Acquisition Decision Memorandum asking the 
Army to report back by 1 February 2011 on a new radio acquisition 
strategy with the twin goals of ``focusing on that capability which is 
within reach for near term delivery to the warfighter'' and ``providing 
potential competition for production at the earliest possible time.'' 
The RRCI initiative was undertaken to increase competition, drive up 
the capability and drive down the cost of acquiring the RR. What is the 
Army doing to implement this program and are you currently expecting a 
higher than projected cost per radio?
    Answer. The RRCI efforts have been implemented as a voluntary 
program for interested vendors. The RRCI program allows the vendors to 
complete as much, as or as little testing, at their own expense, based 
on their business decisions. To date, only one vendor (ITT) has 
participated in any Joint Program Executive Office supported testing. 
ITT will complete certification testing in July 2011. ITT has not 
indicated that they are willing or interested in participating in any 
further testing. Also, no other vendors have expressed any interest in 
participating in any testing. Nevertheless, the Rifleman full-rate 
production contract will be a full and open competition allowing any 
vendor who deems their radio technically acceptable to compete. The 
Unit Cost of RR is not expected to be higher than projected. The 
current Program of Record RR has been able to reduce the number of 
components in the radio while increasing reliability, resulting in a 
lower cost radio.
                        acoustic hailing device
    Question. I commend the Army for adopting a centralized acquisition 
strategy to acquire the advanced acoustic technology Acoustic Hailing 
Device (AHD) as a supplemental component of the Program Management 
Office of the Close Combat Systems, Joint Munitions and Lethality, 
United States Army located in Picatinny Arsenal, New Jersey. Tactical 
use of AHDs has the potential to save lives and deter catastrophic 
attacks, and they should be widely fielded at the earliest opportunity. 
Can you provide me an estimate of the acquisition schedule as well as 
the status of the funding required?
    Answer. Based on an approved Capabilities Production Document, the 
Army plans to initiate the Acoustic Hailing Device (AHD) procurement 
program with a Material Development Decision in the 4th Quarter, fiscal 
year 2011, and anticipates issuing a Request For Proposal (RFP) for a 
Full and Open Competition by the end of the 1st Quarter, fiscal year 
2012. Our market research has shown that we can expect up to six 
vendors to respond to the RFP. Testing and analysis of the vendor's 
products will consume most of the remaining fiscal year. We plan to 
award a contract to a single vendor in the 4th Quarter, fiscal year 
2012. The fiscal year 2012 President's budget requested $34.923 
million, split between base budget and Overseas Contingency Operations 
funds, to procure approximately 1,209 AHDs. There is also approximately 
$50 million in fiscal years 2013 through 2016 to procure additional 
AHDs.
                                 ______
                                 
            Questions Submitted to General Martin E. Dempsey
            Questions Submitted by Chairman Daniel K. Inouye
                     fiscal year 2012 efficiencies
    Question. General Dempsey, are you confident that the efficiencies 
that the Army has identified are in areas that could be reduced with 
minimal risk to operational capabilities?
    Answer. The Army's efficiency initiatives proposed in the fiscal 
year 2012 budget request do not create undue risk to operational 
forces. We used comprehensive capability portfolio reviews to terminate 
or reduce weapons systems with declining relevance or unneeded 
redundancy; the Army ensured training programs and equipment programs 
terminated, reduced or deferred would not pose a threat to its ability 
to conduct the full range of military operations and represented the 
lowest priority requirements. Army efficiency initiatives include 
implementing an aggressive plan to streamline management headquarters 
and reduce overhead by consolidating organizations. Some service and 
support contracts were reduced within the Army's Generating Force, 
leveraging investments in existing infrastructure and consolidating 
information technology, which will provide efficiency and maintain or 
improve effectiveness in supporting the Operating Force. In accordance 
with the Office of the Secretary of Defense's direction for us to plan 
to reduce our end strength by 27,000 by fiscal year 2015, we are 
conducting deliberate analysis now to determine which capabilities 
should be reduced and how the drawdown plan will proceed to ensure that 
our operational capability is minimally affected.
                        family support programs
    Question. General Dempsey, the Army has worked hard over the last 
several years to build resilience in the force by institutionalizing 
programs such as the Comprehensive Soldier Fitness (CSF), the Army 
Campaign for Health Promotion, and Suicide Prevention. These programs 
teach soldiers, families, and civilians coping skills for dealing with 
the stress of deployments in everyday life. What role will your quality 
of life programs take in preparing the Army over the next decade?
    Answer. The Army's senior leadership is fully committed to the 
well-being of soldiers, families and civilians. They have adopted two 
major programs to address these issues: the CSF, which is designed to 
build psychological strength and resilience; and the Army Campaign Plan 
for Health Promotion and Risk Reduction, which is designed to improve 
programs and services that identify, respond and treat individuals in 
need of assistance.
    The CSF Program will play a significant role in quality of life of 
the force over the next decade. The CSF represents the Army's 
investment in the readiness of the force and the quality of life of our 
soldiers, family members, and Army civilians. It is a long-term 
strategy to provide soldiers the critical skills they need to take care 
of themselves, their families, and their teammates. The program 
develops the ``whole person,'' by giving the same emphasis to 
psychological strength that is often given to physical strength. The 
CSF training focuses on increasing physical, emotional, social, 
spiritual, and family strengths through a program of continuous self--
development and education. Additionally, mid-level noncommissioned 
officers from both the operating and generating forces are being taught 
to train resilience concepts to soldiers in their units. This enables 
members of the Army community to more easily manage various physical 
and psychological challenges in their personal and professional lives. 
The program takes a deliberate approach to equip the force with the 
psychological tools to deal with a variety of ambiguous threats.
    The Army Campaign Plan for Health Promotion and Risk Reduction is 
the Army's method to create enduring changes to policies, programs and 
services that are designed for early identification of ``high-risk'' 
behavior, such as substance abuse and behavior problems, that will 
allow leaders to intervene early. The Army is focusing its efforts on 
ensuring that policies and programs are synchronized and effective. We 
are developing a comprehensive Health Promotion and Risk Reduction 
Program Portfolio to support integration across the Army while 
leveraging the Department of Defense (DOD), Federal, VA and civilian 
community-based programs, services and initiatives. The commitment of 
Army senior leadership and the efforts of leaders at all levels will 
make significant changes to the way Army does business with respect to 
Health Promotion and Risk Reduction. This is an enduring problem that 
requires enduring solutions.
                            future force mix
    Question. Along with end strength decisions, the Army is currently 
assessing its future force composition. Recent press has reported that 
both the DOD and Army leadership have raised concerns over how the 
future Army will structure itself, including the size and the number 
and composition of its deployable units, such as combat brigades. 
General Dempsey, what is your assessment on the composition of the 
future force?
    Answer. Our plan is to reduce the Army's end strength and 
restructure the force mix consistent with reductions in overseas 
contingency operations commitments and in conjunction with the needs of 
the Department and the combatant commanders. Even with budgetary 
constraints, our intent is to have the right mix of capabilities to 
meet current demands as well as future challenges. We will achieve this 
by ensuring our forces have the greatest possible versatility while 
maintaining core capabilities. We are conducting a deliberate analysis 
for 2014-2018 to determine the correct Army capabilities and force 
structure mix and the correct path to implement. We are also working 
closely with the Joint Staff in their strategic review to ensure our 
analysis is consistent with their ongoing efforts.
                         ground combat vehicle
    Question. General Dempsey, what added fighting capability will the 
Army receive from its Ground Combat Vehicle?
    Answer. The Ground Combat Vehicle will provide soldiers the 
protected mobility they need to operate across the full spectrum of 
operations. It will also have the growth potential required to 
incorporate advances in protection or network capabilities for the full 
infantry squad. The GCV will combine the protection of the Mine 
Resistant Ambush Protected (MRAP), the mobility of the Bradley, and the 
operational flexibility of the Stryker. No single vehicle currently 
provides those attributes. Nor does a single vehicle address the 
capability gaps associated with MRAP mobility, Bradley internal 
capacity, and Stryker force protection. The GCV uses lessons learned to 
provide our soldiers a vehicle with the capabilities they need to 
accomplish the mission and provide better protection.
                          healthcare proposals
    Question. General Dempsey, I believe that the healthcare benefits 
we provide to our servicemembers and their families are one of the most 
basic benefits we can provide to the men and women serving our Nation 
and I also believe it is one of the most effective recruiting and 
retention tools you have at your disposal. The DOD is proposing several 
changes to the military health system that could go into effect as 
early as October of this year. Do you support these cost saving 
measures?
    Answer. Yes. These proposals balance our commitment to preserve the 
healthcare benefit while slowing future growth in healthcare costs.
    Question. Could you please explain what impact they might have on 
recruiting and retention?
    Answer. Healthcare benefits are an important component in 
motivating applicants to join the Army and remain for a career. Current 
accession propensity research shows the top reasons that youth would 
consider joining are extrinsic: pay/money, pay for education, and 
benefits (health, retirement, etc.). However, we believe that possible 
increases to TRICARE premiums for retirees would have little to no 
effect on recruiting and a minimal effect on retention.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
                                 tanks
    Question. General Dempsey, regarding the Abrams tank program, no 
one on this subcommittee would support continued procurement of tanks 
for the sake of simply buying more tanks. However, it is our 
understanding that the Army plan includes the fielding of more than 600 
M1A1 Abrams tanks to National Guard forces for the next several 
decades. These tanks are a generation old and cannot accommodate modern 
technologies such as communications equipment. Why would we not procure 
and field the most modern tank available--the M1A2 SEP tank--to all 
Army heavy forces?
    Answer. The Army agrees with the subcommittee's position that we 
should not buy tanks for the sake of buying tanks. The M1A1 SA remains 
one of the best tanks in the world, providing overmatch against known 
threats and digital command interoperability within the Heavy Brigade 
Combat Team formation. The Army does not plan to immediately replace 
this very capable and relatively young portion of the Abrams fleet. The 
Army National Guard (ARNG) began receiving the M1A1 SA tank in August 
2008 and will complete fielding in June 2014. The ARNG will also 
receive a brigade set of M1A2SEPv2 Abrams tanks in June 2011. The Army 
plans to invest in the Combat Vehicle Modernization Strategy which 
includes modernization of the Abrams fleet to give it the power 
generation and power distribution needed to allow for the integration 
of modern technologies.
                            missile defense
    Question. General Dempsey, the DOD has spent considerable effort 
over the last decade developing a comprehensive roadmap for Integrated 
Air and Missile Defense and improving combat identification and 
friendly protection capabilities. The Army, Navy, and Air Force have 
significant joint efforts ongoing to solve these complex theater-
dominated issues. If Army Ballistic Missile Defense (BMD) efforts 
transition to the Missile Defense Agency (MDA) control, how will the 
MDA and the Army ensure that the Army multi-purpose weapons and sensors 
remain tied to the Joint architecture and operating concepts since MDA 
is not required to participate in the Joint Capabilities Integration 
Development System (JCIDS) process?
    Answer. It is the responsibility of both organizations to ensure 
Army and the JCIDS operational requirements and Army system 
requirements are achieved and included in synchronized budget 
submittals. The Army is working closely with the MDA to ensure that 
critical issues, such as the one raised here and others along the 
Doctrine, Organization, Training, Logistics, Materiel, Personnel, and 
Facilities spectrum, are addressed in the transfer discussion. The Army 
appreciates the complexities of meeting Joint Architectures when MDA is 
not required to participate in the JCIDS process. Our initial approach 
is to designate the Program Executive Officer for Missiles and Space 
(PEO M&S) to simultaneously serve as MDA's program executive for Army 
BMD Systems to manage the development, integration, testing and 
production of Army BMD capabilities in conjunction with Army Air and 
Cruise Missile Defense (ACMD) programs. Additionally, before BMD 
materiel development responsibility transfers in October 2012, the Army 
will address how best to align JCIDS requirements with the ``Warfighter 
Involvement Process'' (WIP), which results in a ``Prioritized 
Capability List'' (PCL), a major factor in determining MDA's resource 
prioritization. Having a single PEO responsible for BMD and ACMD should 
ensure an integrated materiel solution. Including the WIP/PCL processes 
in conjunction with JCIDS should allow the Army to clearly articulate 
its needs to both communities.
    Additionally, the Missile Defense Executive Board (MDEB) will 
provide further collaborative oversight and guidance to supplement and 
integrate the work of the WIP/PCL across the Department of Defense 
(DOD). The Army expects that the current Joint Operational Concepts 
will be unaffected by transfer of BMD material development 
responsibilities.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
                                suicide
    Question. The prevention of suicide presents very complex 
challenges. But I believe it is important that we get the issue out in 
the open and do all that we can to reduce our suicide rates to zero. I 
understand that suicide among Active Duty troops declined somewhat in 
2010 but suicide rates among members of the Reserve Component spiked.
    What, if anything, are we learning in our efforts to prevent 
suicide among our soldiers?
    Answer. While the Army has greatly increased its knowledge about 
suicidal behavior in our population, we have not found a single factor 
or issue that is the prevalent risk factor. The Army's Vice Chief of 
Staff conducts monthly ``after action reviews'' of recent suicide 
deaths via a world-wide video teleconference with senior Army leaders. 
This forum allows the Army senior leaders to learn from other 
commanders what actions are proving to be most effective at addressing 
these problems.
    The Army released the Health Promotion, Risk Reduction, and Suicide 
Prevention (HP/RR/SP) Report in July 2010. This report was the result 
of a focused 15-month effort to better understand the increasing rate 
of suicides in the force. This candid report is intended to inform and 
educate Army leaders on the importance of recognizing and reducing 
high-risk behavior related to suicide and accidental death, and 
reducing the stigma associated with behavioral health and treatment. It 
represents the next phase in the Army's ongoing campaign to promote 
resiliency in a force that has been at war for nearly a decade. Key 
findings include:
  --There are gaps in the current HP/RR/SP policies, processes and 
        programs necessary to mitigate high-risk behaviors;
  --There has been an erosion of adherence to existing Army policies 
        and standards;
  --The Army has seen an increase in indicators of high-risk behavior 
        including illicit drug use, other crimes and suicide attempts;
  --Lapses in surveillance and detection of high-risk behavior;
  --There is an increased use of prescription antidepressants, 
        amphetamines and narcotics; and
  --Degraded accountability of disciplinary, administrative and 
        reporting processes exacerbate the problem of high-risk 
        behavior.
    General Chiarelli sent a message to all the senior leaders in the 
Army this past month to reinforce leadership responsibilities. In it he 
told leaders: ``When it comes to suicide and other high-risk behavior, 
we cannot afford to relearn past lessons. Incumbent leaders must train 
and familiarize new leaders with the principles discussed in chapter 
three of the Task Force's July 2010 report (The Lost Art Of Leadership 
In Garrison). The report can be accessed at www.preventsuicide.army.mil 
in the commander's tool kit. The report emphasizes the need for leaders 
to respond when soldiers engage in risky behavior--first to protect 
their health and then to hold them accountable as appropriate. The 
lessons in leadership presented in this chapter are still relevant 
today and critically vital to the health of the force.''
    Finally, the Army has entered into a long term study with the 
National Institute of Mental Health (NIMH), the largest behavioral 
health epidemiological study that the Armed Forces has ever undertaken 
(The Army Study to Assess Risk and Resilience in Servicemembers or Army 
STARRS). After 1 year of finalizing the study design, obtaining 
institutional review board approval, and constructing the necessary 
capability to gather and analyze data; the Army STARRS team is 
beginning to conduct the new soldier study and all Army study. To date, 
just over 10,000 soldiers have been interviewed. No definitive results 
or conclusions have been obtained to date.
    Question. Are you identifying any innovations that offer the 
promise of further reducing the rates of suicide?
    Answer. The Army continues to evaluate and modify programs and 
services that are related to health promotion, risk reduction and 
suicide prevention. We believe that early identification of ``high-
risk'' behavior, such as substance abuse and behavioral problems, will 
allow leaders to intervene early. The Army has engaged leaders at all 
levels to improve education and awareness of behavioral health issues 
and high-risk behaviors. The Army has increased behavioral health 
providers at the brigade level in active, National Guard, and Army 
Reserve units; required increased behavioral health screening before 
and after deployments; improved training for chaplains and suicide 
prevention coordinators; and improved training for primary care medical 
providers to identify and respond to behavioral health issues. Some of 
the actions that Army has taken include:
  --Released the Health Promotion, Risk Reduction and Suicide 
        Prevention Report 2010.
  --Produced the interactive ``Home Front'' training video, which 
        included scenarios for Active, National Guard and Reserve 
        soldiers; Army civilians; and family members.
  --Produced the ``Shoulder to Shoulder: No Soldier Stands Alone'' 
        training video.
  --Initiated ``face-to-face'' postdeployment behavioral health 
        screening (in person or virtual) for all Brigade Combat Teams.
  --From December 2009 to November 2010, 218,868 soldiers completed 
        Post-Deployment Health Assessments (PDHA) (141,381 Active 
        Component and 77,487 Reserve Component). The PDHA is used to 
        help identify soldiers who may need a more detailed behavioral 
        health screening by behavioral health providers or specially 
        trained medical personnel.
  --Expanded behavioral health providers and services across the Army. 
        During fiscal year 2010, the Army funded 40 unique 
        psychological health programs providing a range of expanded 
        healthcare services to our beneficiaries and obligated over 
        $168 million additional dollars to behavioral health services.
  --Increased the number of Military Family Life Consultants (MFLCs) 
        that work with children and families to provide them support 
        during transitions and separations. Increased from 23 in fiscal 
        year 2007 to over 270 in fiscal year 2010. These MFLCs are 
        embedded in youth service facilities and in on- and off-post 
        schools.
  --Implemented standardized screening protocols for soldiers exposed 
        to concussive events to improve early diagnosis and treatment.
    Question. Is the Congress providing the Army with adequate funds to 
meet this challenge?
    Answer. Yes, adequate funding for suicide prevention has been 
provided. The Army budget adequately funds suicide prevention 
coordinators across the Active Duty force, Army National Guard, and 
Army Reserve. In fiscal year 2012 the Army intends to fund Applied 
Suicide Intervention Skills Training (ASSIST) training/kits, Shoulder 
to Shoulder and Home Front training videos, Suicide Awareness Guide for 
Leaders, and training aids/products for the Active Army, Army Reserve, 
and Army National Guard soldiers similar to previous years.
    The budget request for fiscal year 2012 includes adding 24 
behavioral health officers and enlisted technicians to National Guard 
Brigade Combat Teams and expands the Reserve Component substance abuse 
program. It also included additional funding for 54 Suicide Prevention 
Program Managers for the National Guard, 38 Suicide Prevention Program 
Managers for the Army Reserve, and ASSIST training and kits for the 
Reserve Component.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
                         carbine weapon systems
    Question. In 2004, Special Operations Command (SOCOM) began a 
carbine competition. Nine vendors submitted a dozen designs for a new 
modular, multi-caliber weapons system. SOCOM chose a winner without 
protest. Over the next 6 years of research, development, testing and 
evaluation (RDT&E) and millions of taxpayer and private dollars spent, 
SOCOM ultimately approved a new carbine family of weapons for full-rate 
production in July 2010. This carbine remains a DOD program of record 
and is currently deployed in combat.
    Last July, General Chiarelli, Vice-Chief of Staff of the Army, 
stated in the National Defense Magazine that ``the Army is wasting 
money on systems that already exist within the service or in other 
branches of the military. New weapon requirements often are conceived 
`in a stovepipe.' '' He went on to say, ``that approach prevents the 
Army from taking advantage of technology that is already being 
purchased elsewhere.'' In September 2010, Army Colonel Doug Tamillo, 
the Program Executive Officer (PEO)-soldier and manager responsible for 
the Army's new carbine competition, noted the Army will spend over $30 
million of taxpayer money just in testing to make sure we get [the new 
carbine competition] right.'' He went on to describe a dual path 
strategy and how industry will be able to design a new carbine ``that 
can outperform the M4.''
    In December 2010, PEO-soldier, through Picatinny Arsenal, received 
an unsolicited proposal to obtain the new SOCOM carbine Technical Data 
Package (TDP). PEO-soldier rejected the proposal. SOCOM's carbine 
underwent 6 years of RDT&E, has fired over three million rounds, and is 
deployed in combat. Adopting SOCOM's carbine TDP would save the 
taxpayer over $30 million associated with the carbine competition, 
while minimizing acquisition timelines. The Army would therefore be 
able to have a full and open competition on continued development and 
manufacturing of an already competed and tested solution.
    Why would the Army ignore SOCOM's 2004 carbine competition that 
resulted in full-rate production only last July? Doesn't that represent 
the waste of money and the ``stovepipe'' functionality that the Vice 
Chief of Staff of the Army wants to avoid?
    Answer. The Army did give consideration to the United States Army 
Special Operations Command's (SOCOM) 2004 carbine competition. However, 
the SOCOM requirement, in which the 2004 competition was based, was for 
a multi-caliber, configurable weapon, which is not the same as the Army 
requirement. Further, since 2004, competition in the small arms 
industry has increased and there are many more competitors in the 
market today. In addition, on October 14, 2008, the Duncan Hunter 
National Defense Authorization Act for Fiscal Year 2009, Public Law 
110-417 (attached), stated that, ``If the small arms capabilities based 
assessments by the Army identifies gaps in small arms capabilities and 
the Secretary of the Army determines that a new individual weapon is 
required to address such gaps, the Secretary shall procure the new 
individual carbine using full and open competition . . .'' The 
Secretary of the Army, in a memorandum dated October 2, 2008, directed 
the Army to ``take all necessary actions to initiate a best value, Full 
and Open Competition . . . for a carbine that addresses current and 
emerging threats.''
    The Full and Open Competition for a new Individual Carbine (IC) 
will be conducted in accordance with the Competition in Contracting Act 
in order to ensure that the soldier receives the best overall weapon at 
the best value to the Government. The Government is conducting a dual 
path strategy to deliver the best carbine to the Warfighter and reduce 
the risk to the taxpayer. This approach is in-line with the Defense 
Acquisition Executive's (DAE) direction to promote real competition 
across the Department of Defense. The vendor is open to submit the 
Special Operations Forces Combat Assault Rifle (SCAR) proposal in the 
IC competition for best value evaluation.
    Question. If you believe that SOCOM and the Army have different 
weapons requirements, what steps did the Army conduct to evaluate and 
analyze SOCOM's carbine development before engaging in a similar 
carbine development effort?
    Answer. Project Manager (PM), Soldier Weapons informally 
participated in SOCOM's carbine evaluation and was kept abreast of the 
process, test results, and scoring. The PM was not authorized to use 
SOCOM's criteria and adopt the Special Operations Forces Combat Assault 
Rifle because the Army was directed to conduct a Full and Open 
Competition to consider all weapons to equip our soldiers. We are 
therefore looking beyond SOCOM-specific requirements for this 
capability.
    Question. What analysis of existing alternative capabilities did 
the Army conduct before beginning the new carbine competition?
    Answer. The Army waived the regulatory requirement for an Analysis 
of Alternatives (AoA) in December 2010. It was determined that an AoA 
would not produce additional relevant information in support of the 
program since the Key Performance Parameters and Key Systems Attributes 
were baselined on the current M4 Carbine capability as directed by the 
Army Requirements Oversight Council (AROC). Instead the Army will 
conduct a Cost Benefit Analysis (CBA) using actual data collected 
during test and evaluation of the IC candidates and proposals at the 
conclusion of the competition to determine whether the Army should 
pursue procurement of the new IC or continue to procure the current 
M4A1 carbine.
    Question. If the Army did not conduct such an analysis, please 
provide this committee with documentation demonstrating that a waiver 
was granted.
    Answer. The waiver recommendation and Acquisition Decision 
Memorandum that approve the waiver are attached.
memorandum for deputy for acquisition and system management, assistant 
    secretary of the army for acquisition, logistics and technology
    Subject.--Individual Carbine Materiel Development Decision (MDD) 
Review
  --References:
    --Memorandum, ASA (ALT) Policy, Subject: Materiel Development 
            Decision (MDD) Reviews, 02 Dec 09.
    --Memorandum, DAMO-CIC, Subject: Approval of the Individual Carbine 
            (IC) Capability Development Document (CDD), 09 Aug 10.
    --Memorandum, DAMO-CIA, Subject: Individual Carbine (IC) Analysis 
            of Alternatives (AoA) Waiver, 31 Aug 10.
  --Request the Army Acquisition Executive (AAE) conduct an MDD Review 
        to address the Individual Carbine (IC) Capabilities 
        Development.
    --The IC CDD, approved on 09 August 2010, establishes the 
            operational requirements to be addressed by the IC materiel 
            solution.
    --Preliminary cost estimates indicate the proposal represents a 
            potential ACAT II program.
    --I believe an Analysis of Alternatives (AoA) is not required to 
            support the recommended IC Program. The proposed IC Program 
            will execute a Commercial-off-the-Shelf/Nondevelopmental 
            Items System Competition. Key Performance Parameters and 
            Key System Attributes in the IC CDD were baselined on the 
            current M4 Carbine capability as directed by the June 2008 
            Army Requirements Oversight Counsel (AROC). An AoA would 
            not provide relevant information in support of the MDD.
  --This IC CDD addresses the capability gaps identified in the January 
        2008 Small Arms Capabilities Based Assessment. In June 2008 the 
        AROC directed Training and Doctrine Command (TRADOC) to write a 
        carbine requirement based on current capabilities with 
        objective performance enhancements. In October 2008, the 
        Secretary of the Army concurred with the AROC direction and 
        further directed the Army Acquisition Executive to initiate a 
        best value, full and open competition based on the new carbine 
        requirement to provide our Warriors with an enhanced carbine 
        that will maintain their weapons superiority.
  --Request that the Army MDD be scheduled in Oct 2010 so that 
        decisions can be executed in conjunction with the Program 
        Budget Review (PBR) 13-17. Army G-3/5/7 will coordinate with 
        TRADOC, Program Executive Officer-Soldier, and the Army Staff 
        to organize the information required for the MDD briefing.
  --The HQDA G-3/5/7 POC for Soldier Weapon Systems is LTC Karl 
        Petkovich, DAMO-CIC.
           memorandum for program executive officer, soldier
    Subject.--Acquisition Category (ACAT) II Designation for the 
Individual Carbine Capability (IC) and Designation of Milestone 
Decision Authority (MDA)
  --I have reviewed and approve your request to designate the IC 
        program as ACAT II as outlined in Chapter 3 of Army Regulation 
        70-1 and I will retain the MDA as the Army Acquisition 
        Executive. You are approved to initiate the IC program at pre-
        Milestone (MS) B.
  --Once I have approved the Acquisition Strategy, I authorize you to 
        expend the appropriate funding to execute the strategy and 
        release the final request for proposals to initiate and conduct 
        the IC competition under Full and Open competition procedures.
  --In view of the recent approval of the Capability Development 
        Document and the request from the Army G-3/5/7 to waive the 
        regulatory requirement for an Analysis of Alternatives, I 
        approve that waiver and direct that you return within 60 days 
        with all the required documentation to obtain a positive MS B 
        decision and enter the Engineering and Manufacturing 
        Development phase.
  --The point of contact is Mr. Shelby Stevens.
    Question. If the Army did not conduct an analysis of existing 
alternatives, and received no waiver, why did you not attempt to 
thoroughly analyze current DOD programs of record before spending 
taxpayer dollars?
    Answer. As discussed previously, a waiver was granted by the Army 
Acquisition Executive.
    Question. Do you believe that the Army's new carbine competition 
indicates that the Army was not fully aware of SOCOM's competition? Do 
you think the Army's lack of proper analysis of existing programs may 
have contributed to this?
    Answer. No, the Army was fully aware of the SOCOM carbine 
competition. The Army Requirements Oversight Council directed the 
Training and Doctrine Command to develop a new carbine requirement and 
to provide our soldiers with the best carbines available in the world. 
If the Special Operations Forces Combat Assault Rifle is submitted as 
an IC candidate, it will be evaluated against the IC requirements.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. The subcommittee will reconvene on 
Wednesday, May 25, at 10:30 a.m. to listen and receive 
testimony from the Missile Defense Agency.
    We will now stand in recess.
    [Whereupon, at 12:06 p.m., Wednesday, May 11, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
May 25.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              


                        WEDNESDAY, MAY 25, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Cochran, Shelby, Murkowski, and 
Graham.

                         DEPARTMENT OF DEFENSE

                         Missile Defense Agency

STATEMENT OF LIEUTENANT GENERAL PATRICK J. O'REILLY, 
            DIRECTOR, U.S. ARMY

                 STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. This morning we are pleased to welcome 
Lieutenant General Patrick O'Reilly, the Director of the 
Missile Defense Agency (MDA), to discuss the administration's 
fiscal year 2012 budget request for missile defense programs. 
For fiscal year 2012, MDA is requesting $8.6 billion, an 
increase of $120 million over amounts appropriated in the last 
fiscal year, to support a viable homeland defense, finance 
European regional defenses, continue testing the current 
system, and to develop new capabilities to address emerging 
threats.
    Fiscal year 2012 will mark the 10-year anniversary of the 
Missile Defense Agency, although its predecessor organizations 
track their origins way back to 1983 when President Reagan 
launched the Strategic Defense Initiative 28 years ago. Since 
its inception MDA has developed and fielded highly complex 
integrated missile defenses against short-range, medium-range, 
and intercontinental ballistic missiles.
    For the defense of our homeland, the agency has emplaced 30 
ground-based interceptors in Alaska and California, and for 
regional defenses MDA and the Navy have delivered 23 aegis 
ballistic missile defense ships capable of engaging short to 
medium-range missiles. In addition, the President has tasked 
MDA with carrying out the European phased adaptive approach to 
provide regional missile defense for allies. Finally, MDA 
continuously develops and fields upgraded capabilities to 
counter evolving threats.
    So, General, I congratulate you and your dedicated team at 
MDA for your many, many successes. As you know, development of 
these highly sophisticated systems has not always been easy, 
and it carries a large price tag. For example, last year the 
ground-based interceptor failed two flight tests within the 
span of 11 months. From an operational perspective, this is 
obvious cause for concern. From the taxpayers' standpoint, 
these tests cost over $200 million apiece, so we can no longer 
afford to fail.
    In addition, last year the terminal high altitude area 
defense (THAAD) interceptor requested some redesign work that 
resulted in significant production delays. I strongly support 
the THAAD program and these missiles need to be fielded. 
However, it is critical that the new design works and is 
producible in quantities that have been requested.
    This subcommittee was also concerned last year over the 
procurement strategy of the standard missile program and 
redirected funding to continue buying the block 1A standard 
missile since the block 1B development was delayed.
    The fiscal year 2012 budget request again includes no funds 
for the block 1A missile. Yet the request includes over $500 
million for the procurement of 1B missiles. Although we will 
not know until the test late this summer whether the redesigned 
missile works, this seems like a risky strategy, especially 
when the Navy requires more missiles to respond to real-world 
threats than are in the inventory today.
    So I look forward to hearing from you, sir, and hearing 
your thoughts on how you plan to address the challenges 
mentioned.
    However, before we proceed I'd like to turn to the vice 
chairman of the subcommittee for any remarks he may wish to 
make.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you. I'm very pleased 
to join you in welcoming General O'Reilly to be here today to 
testify before our subcommittee as we continue our review of 
the President's budget request for fiscal year 2012 for the 
Department of Defense.
    Specifically, we are interested in the provisions relating 
to our missile defense capabilities. We recognize the 
seriousness of purpose that this office requires of General 
O'Reilly and we appreciate the experience and know-how he 
brings to this task. He's got a very challenging job. We look 
forward to hearing the testimony and working with him and 
others in the Department of Defense on making sure that we are 
allocating the funds we need and that they are justified and 
that they will lead to the development and deployment of an 
effective missile defense system.
    Thank you.
    Chairman Inouye. Thank you very much.
    Senator Shelby.
    Senator Shelby. Mr. Chairman, I too would join you and 
Senator Cochran in welcoming General O'Reilly and we look 
forward to his testimony.
    Chairman Inouye. Care to make a statement?
    Senator Graham. Thank you. I'm ready to listen.
    Chairman Inouye. Then it's your show, sir.

      SUMMARY STATEMENT OF LIEUTENANT GENERAL PATRICK J. O'REILLY

    General O'Reilly. Thank you, Chairman Inouye, Ranking 
Member Cochran, and other distinguished members of the 
subcommittee. I thank you for the opportunity to testify today 
on the Missile Defense Agency's $8.6 billion fiscal year 2012 
budget request to develop protection of our Nation, our armed 
forces, allies, and friends against the growing threat of 
proliferating--the proliferation of increasingly capable 
ballistic missiles of all ranges.
    In fiscal year 2012 we propose to complete the initial 
fielding of the Ground-based Midcourse Defense, or GMD, system 
for homeland defense against first generation intercontinental 
ballistic missiles, or ICBMs. We are also on track to develop, 
test, and deliver the phased adaptive approach to regional 
defense announced by the President in September 2009. We will 
deliver initial defense of Southern Europe by December of this 
year, enhance that defense against medium-range ballistic 
missiles in 2015, further enhance the defense of all European 
NATO countries against intermediate-range ballistic missiles by 
2018, and provide an early intercept capability against 
missiles of all range classes by the end of this decade.
    During the past year, we achieved many accomplishments, 
including the first two-stage ground-based interceptor, or GBI, 
flight test, the third missile intercept by the Japanese aegis 
program, the lowest altitude intercept by the terminal high 
altitude area defense, or THAAD, system, the destruction of two 
boosting ballistic missiles with our Airborne Laser Testbed, 
the collection of the most accurate missile tracks in history 
by our Space Tracking and Surveillance System satellites, and a 
successful intercept by Israel's Arrow 2 missile. We also 
delivered 25 SM-3 1A interceptors, began THAAD interceptor 
production, emplaced the 30th GBI, and completed the upgrade of 
the early warning radar in Thule, Greenland.
    Last year our aggressive test program also identified an 
issue with the latest version of the GBI's exo-atmospheric kill 
vehicle, or EKV. It's MDA's top priority to verify the 
resolution of the problem by conducting extensive ground 
testing this summer, conducting a non-intercept test with an 
upgraded EKV and repeating the previous failed intercept test 
in 2012. We suspended EKV--the resolution of the GMD test 
failure is dependent upon technical progress, not funding.
    We suspended the EKV production and applied funding to 
rapidly initiate activities to correct the EKV problem. Thus, 
our proposed fiscal year 2012 GMD program today differs from 
the one we proposed in the President's budget request that we 
developed prior to the latest GMD flight test failure. We are 
still requesting $1.16 billion for fiscal year 2012 to recover 
from the GBI flight test failure and continue to enhance the 
defense of our homeland by completing Missile Field 2 at Fort 
Greely, Alaska, in 2012, beginning the procurement of five new 
GBIs, upgrading the early warning radar in Clear, Alaska, and 
initiating the installation of a GBI communications system on 
the east coast of the United States.
    Today 30 operational GBIs protect the United States against 
a limited ICBM attack if current regional threats successfully 
develop an ICBM capability. We continually monitor intelligence 
assessments, and to address the possibility that our current 
GMD capability is determined to be insufficient in the future 
we are developing options to increase the number of operational 
GBIs and accelerate the delivery of new sensor and interceptor 
capabilities.
    The Department is committed to bringing to Congress soon 
our strategy to hedge against uncertainties in the threat 
estimates. But, given the two GBI flight test failures, the 
need for a new non-intercept flight test, and the repeat of the 
last flight test, we will assess the total procurement quantity 
of the additional GBIs as part of the 2013 President's budget 
request.
    We also are on schedule to execute our phased adaptive 
approach, or PAA, for regional defense. For phase 1, our first 
aegis ballistic missile ship deployment, the USS Monterey, is 
on station today. The latest command and control system 
upgrades are being installed in the European Command and the 
AN/TPY-2 forward-based radar is on track for deployment in 
southern Europe by the end of this year.
    Of note, a critical European PAA phase 1 milestone was 
achieved in March of this year when an intermediate range 
ballistic missile target was intercepted in the Pacific using 
the phase 1 aegis AN/TPY-2 radar and the European Command's 
command and control system, architecture, and configuration.
    For phase 2, we will conduct the first flight test of the 
next generation aegis interceptor, the SM-1 1B, this summer. 
Additionally, the design of the aegis Ashore system began last 
summer. The test site will be installed in Hawaii in 2013 and 
flight testing will begin in 2014. Furthermore, the Romanian 
Government recently announced the site of the aegis Ashore 
system that will be operational in 2015.
    For phase 3, the SM-3 block 2A interceptor has completed 57 
of its 60 preliminary design reviews and is on track to support 
flight testing in 2015 and deployment in 2018.
    Key to achieving cost-effective assured missile defense and 
to enable early intercepts of ballistic missiles is the 
development of the Precision Tracking Space System, or PTSS, 
and AirBorne InfraRed, or ABIR, missile sensor capabilities. 
PTSS will provide three to six times the simultaneous tracking 
capability at a small fraction of the high operations cost of 
an AN/TPY-2 or ABIR air combat patrol, and the PTSS does not 
require host nation basing or overflight approvals of other 
countries for deployment.
    Additionally, to optimize the integration of the PTSS with 
all contracted activities developing our ballistic missile 
defense system, we are using federally funded research and 
development centers to lead an industry-government team to 
develop a non-proprietary design to enable full and open 
competition for the production of PTSS satellites.
    For phase 4, we competitively awarded the design concept 
contracts for the SM-3 2B interceptor to three industry teams 
on a time line consistent with the average development of 
missile interceptors, to ensure the lowest risk delivery of an 
early intercept capability. While not necessary for the defense 
of the United States against limited attacks by early 
generation ICBMs, the SM-3 2B will augment the GMD system to 
significantly increase the cost effectiveness of homeland and 
regional missile defense.
    Beyond PAA phase 4, we are pursuing advanced technologies, 
including very efficient, lightweight, high energy laser 
systems.
    Finally, MDA continues to collaborate with over 20 
countries and NATO in international missile defense projects 
and cooperative activities.

                           PREPARED STATEMENT

    In conclusion, our requested fiscal year 2012 budget funds 
the development and deployment of missile defense capabilities 
that are adaptable, survivable, cost-effective, and tolerant of 
uncertainties in intelligence estimates of both nation-state 
and extremist ballistic missile threats.
    Thank you, Mr. Chairman. I look forward to answering the 
subcommittee's questions.
    [The statement follows:]
      Prepared Statement of Lieutenant General Patrick J. O'Reilly
    Good morning, Chairman Inouye, Ranking Member Cochran, other 
distinguished Members of the subcommittee. I thank you for the 
opportunity to testify today on the Missile Defense Agency's (MDA) $8.6 
billion fiscal year 2012 budget request to develop protection for our 
Nation, our Armed Forces, allies, and friends against a growing 
threat--the proliferation of increasingly capable ballistic missiles of 
all ranges. We continue to test and improve the reliability and 
performance of our homeland and regional missile defenses to defeat a 
growing variety of ballistic missiles over the next decade while 
posturing our Nation to respond to the uncertainties in estimates of 
future missile threats. By the end of fiscal year 2012, we will 
complete the initial fielding of the Ground-based Midcourse Defense 
(GMD) system for homeland defense against first generation 
Intercontinental Ballistic Missiles (ICBMs) potentially being developed 
by current regional threat actors. We will also continue our initial 
fielding of regional defenses against today's short-range (1,000 km or 
less), medium-range (1,000 to 3,000 km), and intermediate-range 
ballistic missiles (3,000 to 5,500 km), or SRBMs, MRBMs and IRBMs, 
respectively.
               fiscal year 2010 accomplishment highlights
    During this past year, we have improved our homeland defense by 
emplacing the 30th Ground Based Interceptor (GBI), upgrading two 
additional GBIs, installing a training node at Fort Greely, Alaska 
(FGA), and completing a significant upgrade of the Early Warning Radar 
in Thule, Greenland. Additionally, we had a successful two-stage Ground 
Based Interceptor (GBI) booster test and conducted a three-stage GBI 
intercept test where we did not achieve our primary objective, but we 
did demonstrate integrated sensors and command, control, battle 
management, and communication (C\2\BMC) during the longest range flight 
test to date. In fiscal year 2010, we also improved our regional 
defenses by converting two Aegis BMD ships, delivering 25 SM-3 IA 
interceptors, and increasing the Aegis BMD fleet to 20 operationally 
configured BMD ships. Aegis BMD ships carrying SM-3 IA interceptors are 
currently deployed and on-station in forward operating areas, including 
the USS Monterey as part of the first phase of the European Phased 
Adaptive Approach (EPAA). We also commenced production of Terminal High 
Altitude Area Defense (THAAD) Batteries 3 and 4 and the associated 
interceptors. We accelerated the refurbishment of an AN/TPY-2 radar for 
phase 1 of the EPAA and installed a C\2\BMC system and prepared a 
second AN/TPY-2 for deployment to U.S. Central Command. Moreover, we 
successfully flew 14 target missions, including a successful intercept 
of a separating MRBM with our Japanese allies using an SM-3 IA 
interceptor (thus completing the first BMD Foreign Military Sales (FMS) 
case), and conducted a successful intercept of a unitary SRBM with 
THAAD. For future capabilities, we demonstrated the ability of the two 
Space Tracking and Surveillance System (STSS) satellites to provide 
stereo, high-fidelity tracking capabilities and transfer tracks into 
C\2\BMC. Our Airborne Laser Test Bed successfully destroyed two 
boosting ballistic missiles. We achieved our goal of demonstrating NATO 
Active Layered Theater Ballistic Missile Defense interoperability with 
the U.S. C\2\BMC in Joint Project Optic Windmill. Finally, we completed 
United States and Israeli Government project agreements on the Arrow 3 
Upper Tier Interceptor, the David's Sling Weapon System, and an Israeli 
Test Bed. Recently, we supported Israel's successful intercept mission 
of a separating threat missile off the coast of California.
                       enhancing homeland defense
    MDA's top priority is to confirm the root cause of the most recent 
GBI flight test failure, verify the resolution of the problem, and 
successfully execute the previous flight test. The Failure Review Board 
(FRB) has identified the most likely cause, but more ground testing 
this summer and an additional non-intercept flight test in fiscal year 
2012 of an upgraded GBI Exo-atmospheric Kill Vehicle (EKV) will be 
required before the next intercept in late 2012. We suspended 
production of the latest version of the EKV until the required design 
modifications are completed and verified, and we diverted fiscal year 
2011 GMD funding to expedite these modifications. Until we can resolve 
this technical issue, advancement of our GMD capability is primarily 
limited by technical progress, not funding.
    Initiation of activities to quickly recover from the GMD flight 
test failure caused us to revise our proposed fiscal year 2012 GMD 
schedule of work after we developed the current fiscal year 2012 
President's budget request. By deferring lower priority fiscal year 
2011 activities not associated with the flight test failure resolution, 
we were able to rapidly begin our resolution of the GMD flight test 
issues; however, we still need the requested $1.16 billion for fiscal 
year 2012 to complete the test failure resolution and the initial 
fielding of the defense of our homeland against limited ICBM attacks, 
including the completion of the hardened power plant and Missile Field 
2 at Fort Greely Alaska.. During the suspension of EKV production, we 
will accelerate the refurbishment of the existing GBI fleet, and also 
begin acquiring material needed to produce new GBIs to meet our minimum 
requirement of 26 operational GBIs at FGA, 4 at Vandenberg Air Force 
Base (VAFB), California, and 22 GBIs for testing, stockpile reliability 
testing, and spares. Given the two flight test failures, the need for a 
new non-intercept flight, and a repeat of the last flight test, we will 
assess the procurement quantity of additional GBIs as part of the 
fiscal year 2013 President's budget request after we have confirmation 
that we have resolved the EKV issue. As a hedge against uncertainties 
in ICBM threat estimates, we will place Missile Field 1 in a storage 
mode for possible upgrade for operational use in the future. 
Additionally, we will complete the construction of a second fire 
control node at FGA to allow testing or exercises to be conducted while 
simultaneously controlling the operational system. We will also begin 
the planning, design and environment work for a GBI In-Flight 
Interceptor Communication System (IFCS) Data Terminal (IDT) on the east 
coast of the United States by 2015. This East Coast IDT will enable 
communication with GBIs launched from FGA and VAFB on longer flights, 
thus improving the defense of the eastern United States against 
potential ICBM threats from the Middle East. Finally, we are requesting 
$177.1 millionin RDT&E funding for the Sea-Based X-band (SBX) radar in 
fiscal year 2012, which includes software upgrades to improve its 
discrimination capability.
    In addition to GMD upgrades, we are requesting $222.4 million in 
fiscal year 2012 for BMDS Sensors for homeland defense, including 
support of the Upgraded Early Warning Radars (UEWRs) and AN/TPY-2 
radars. Integration of the Thule, Greenland radar in fiscal year 2012 
will make it a fully operational UEWR in the BMDS. We will begin 
upgrade of the Clear Early Warning Radar in Alaska for full missile 
defense capability by 2016. In addition, a forward-based AN/TPY-2 X-
band radar will be deployed to southern Europe to provide early 
tracking for both enhanced homeland and regional defense. We will 
continue to upgrade system software to address new and evolving 
threats, including enhancing Exo-atmospheric Kill Vehicle 
discrimination algorithms by 2015, improving GBI avionics, and 
increasing GBI interoperability with the Command and Control, Battle 
Management and Communications (C\2\BMC) system.
    After last year's successful initial flight of a two-stage GBI, we 
plan to conduct an intercept flight test with a two-stage GBI as a 
potential hedge to allow for a longer intercept window of time if ICBMs 
were launched against the United States from Northeast Asia or the 
Middle East. However, as a consequence of the need to repeat the failed 
three-stage GBI flight tests, we plan to delay the first intercept test 
of the two-stage GBI from fiscal year 2012 to fiscal year 2014. 
Finally, we will continue development of the Standard Missile 3 (SM-3) 
IIB to complement the GMD system's protection of our homeland in the 
future by adding an additional layer of ICBM defense, which will 
provide an early intercept capability against first generation ICBMs 
within the regions from which they were launched.
               hedge for protection of the united states
    Today, 30 operational GBIs protect the United States against a 
medium ICBM raid size launched from current regional threats. If this 
capability is determined to be insufficient for protection of the U.S. 
homeland based on intelligence estimations of future threats, we have 
options to increase the number of operational GBIs and accelerate the 
delivery of new sensor and interceptor capabilities. The Department is 
committed to brief Congress soon on the results of our ongoing BMD 
analysis and our recommended hedge strategy.
                       enhancing regional defense
    We are also currently deploying our initial missile defense 
capability against SRBMs, MRBMs, and IRBMs. Over the next decade, we 
are enhancing this initial capability by developing increasingly 
capable missile defenses that can be adapted to the unique 
circumstances of each Combatant Command region. In regions where 
ballistic missile threats are a concern, the United States will tailor 
Missile Defense Phased Adaptive Approaches (PAAs) (like the European 
PAA, or EPAA) to plan the establishment of command and control, sensor, 
fire control, and interceptor infrastructures to provide fundamental 
defenses and facilitate the effective surge of transportable missile 
defense assets to their regions when needed.
    The EPAA focuses on addressing missile defense interoperability 
with NATO and our allies and partners as the threat from the Middle 
East is anticipated to increase over the next decade. In November 2010, 
NATO Heads of State and Government agreed to develop an Alliance 
territorial missile defense capability to ``provide full coverage and 
protection for all NATO European populations, territory and forces 
against the increasing threats posed by the proliferation of ballistic 
missiles.'' The United States has committed to provide the EPAA as a 
national contribution to this capability, built on the Active Layered 
Theater Ballistic Missile Defense (ALTBMD) command and control system, 
and we are encouraging our allies to field and provide national 
capabilities as well.
    Phase 1: Initial SRBM, MRBM, and IRBM Defense in Europe--to be 
completed by the end of 2011.--In this phase, our goal is to achieve an 
initial missile defense capability in Europe using the Aegis BMD 3.6.1 
weapon system with SM-3 IA interceptors, forward-based AN/TPY-2 and 
SPY-1 radars, and the C\2\BMC system at Ramstein Air Force Base, 
Germany, which will improve connections to NATO command and control 
structures. The USS Monterey is at sea today and, when paired with the 
AN/TPY-2 radar, will provide initial BMD protection of southern Europe 
from existing SRBM, MRBM and IRBM threats. While no decision on the 
location of the radar has been made, we expect to meet our 2011 
deployment timeline. Additionally, THAAD batteries will be available 
for deployment in this and subsequent phases. The Army activated a 
second THAAD battery in October 2009, which is scheduled to complete 
training by the end of calendar year 2011. We are requesting $290.5 
million in RDT&E funding to enhance communications and enable THAAD's 
launch-on-sensor network capability, which will allow THAAD to 
intercept threat missiles tracked by many different missile defense 
sensors. We also request $833.2 million for the production of 63 THAAD 
interceptors, six launchers, and one Tactical Station Group to be 
delivered by fiscal year 2014, and $380.2 million for the production of 
two AN/TPY-2 radars. A critical EPAA phase 1 milestone was achieved in 
March 2011 when an IRBM range target was intercepted in the Pacific by 
a SM-3 IA interceptor using the current Aegis fire control system and 
the EPAA forward based AN/TPY-2 and Command and Control architecture. 
Additionally, we will conduct two critical ground tests this year to 
demonstrate the EPAA Phase 1 capability for defending European allies 
and deployed forces from multiple and simultaneous SRBM and MRBM 
threats.
    Phase 2: Enhanced MRBM Defense in Europe by 2015.--Our goal in this 
phase is to provide a robust capability against SRBMs and MRBMs by 
launching several different interceptors to engage each threat missile 
multiple times in its flight. This architecture includes the deployment 
of the Aegis BMD 4.0.1/5.0 weapon fire control systems with SM-3 IB 
interceptors at sea and at an Aegis Ashore site at Deveselu Airbase in 
Romania. When compared to the current SM-3 IA, the IB will have an 
improved two-color seeker for greater ability to discriminate threat 
Reentry Vehicles from other objects, and it will have improvements to 
enhance reliability and producibility of the SM-3 IB's divert and 
attitude control system. These improvements also provide greater 
capability against larger sized raids. Later this summer, we will 
demonstrate Aegis BMD 4.0.1 fire control and the first flight test of 
the SM-3 IB interceptor. We are requesting $565.4 million for the 
production of 46 SM-3 Block IB interceptors to be delivered by fiscal 
year 2014 and $960 million for Aegis BMD to fund continued development 
and testing of the SM-3 IB as well as upgrades to Aegis 5.0 fire 
control software to support the operation of the SM-3 IB and IIA 
interceptors and associated flight tests. In fiscal year 2012, we are 
requesting $306.6 million to begin acquiring Aegis Ashore Missile 
Defense Systems (land-based SM-3) batteries--one for testing at the 
Pacific Missile Range Facility (PMRF), and one for deployment in 
Romania by fiscal year 2015. We request $364.1 million for the C\2\BMC 
program for continued development of software and engineering to 
incorporate enhanced C\2\BMC capability into the C\2\BMC battle 
management architecture and enable interoperability among the BMDS 
elements, incorporate boost phase tracking, and improve system-level 
correlation and tracking.
    Phase 3: Enhanced IRBM Defenses in Europe by 2018.--Key to 
achieving more cost-effective missile defense, expanding the engagement 
range of our interceptors, improving discrimination and enabling early 
intercepts of ballistic missiles is our phase 3 sensor strategy. This 
strategy is based on complementing our forward based AN/TPY-2 radars 
with the development and deployment of the Precision Tracking Space 
System (PTSS) satellites, enhanced Airborne Infrared (ABIR) capability, 
and the algorithms to rapidly fuse all our data sources to provide the 
most precise tracking for the GMD, Aegis BMD, and THAAD fire control 
systems. The PTSS is the principal capability in this sensor strategy 
as, unlike AN/TPY-2 and aircraft that require host nation and over 
flight permissions respectively, the PTSS will provide assured, 
persistent capability to detect and track large raid sizes of hostile 
ballistic missiles over their entire flight in the Northern Hemisphere 
and enable earlier engagements to improve both homeland and regional 
defense. In sum PTSS provides three to six times the simultaneous 
tracking capability of the AN/TPY-2 radars or ABIR Combat Air Patrols 
at a smaller percentage of the operations and support costs. 
Furthermore, to maximize competition and integration of the PTSS into 
all elements of the BMDS, we are executing an acquisition strategy in 
which Government federally Funded Research and Development Centers 
(FFRDCs) develop non-proprietary preliminary designs and government 
owned intellectual property, which will be used to enable full and open 
competition for the production of the satellite constellation while we 
are validating the performance of prototype satellites on orbit. Recent 
flight tests using the Space Tracking and Surveillance System (STSS) 
demonstrator satellites on orbit today have repeatedly shown the 
significant improvement in our ability to acquire and track ballistic 
missiles.
    In concert with the Phase 3 sensor architecture, the SM-3 Block IIA 
interceptor is being co-developed with the Japanese Government to 
nearly double the range of our SM-3 interceptors. The SM-3 IIA project 
is on schedule to be deployed at the Aegis Ashore site in Romania and 
at an additional Aegis Ashore site in Poland, and at sea, in 2018. The 
fiscal year 2012 request for SM-3 Block IIA co-development is $424.5 
million. Additional BMDS improvements during this phase include 
expanded coordination of missile defense fire control systems and 
improvements to radar discrimination.
    Phase 4: Early Intercept Defense in Europe by 2020.--Based on the 
enhanced early tracking capability of the PTSS and ABIR systems, the 
SM-3 IIB will provide an early intercept (pre-apogee) capability 
against MRBMs and IRBMs and provide an additional layer for a more 
enhanced homeland defense against ICBMs launched from today's regional 
threats. In fiscal year 2012, we are requesting $123.5 million to fund 
three industry teams to continue concept analysis and development of 
the SM-3 IIB design while MDA develops relevant advanced propulsion and 
lightweight material technologies. Advanced discrimination technologies 
also will be deployed during EPAA Phase 4 including GMD's use of fused 
data from the entire network of BMDS sensors (including enhancements 
from PTSS and ABIR sensor capabilities) to improve homeland defense.
         proving missile defense works through enhanced testing
    In fiscal year 2012, we are requesting nearly $1 billion of RDT&E 
funding for Testing and Targets. In collaboration with the Director, 
Operational Test and Evaluation (DOT&E) and the Operational Test 
Agencies (OTAs), MDA updated its Integrated Master Test Plan (IMTP). 
The updated test plan (version 11.1), consisting of 53 flight tests and 
74 ground tests from fiscal year 2011 through fiscal year 2016, cost-
effectively conducts increasingly complex flight tests to achieve more 
objectives and enhance the realism of each test.
    We will hold a series of system-level operational flight and ground 
tests to demonstrate the initial capability against SRBMs and MRBMs for 
theater/regional defense as well as planning in fiscal year 2012 the 
first entirely operational test of the defense of the homeland by 2015. 
Each operational test will be conducted as realistically as possible 
and involve multiple targets of different ranges. These tests are being 
planned and will be executed in concert with the BMDS Operational Test 
Agencies and under the oversight of the Department of Defense Director 
for Operational Test & Evaluation. The BMD system under test will be 
operated by the soldiers, sailors, and airmen assigned to their 
respective missile defense equipment and placed under realistic wartime 
conditions to truly document the capabilities and limitations of the 
system. Finally, in fiscal year 2011, THAAD will execute a near-
simultaneous engagement of an MRBM and SRBM.
                      developing new capabilities
    After completing all of their original on-orbit testing in 2010, we 
continue to operate the two STSS demonstration satellites to conduct 
cooperative tests with other BMDS elements and demonstrate the 
capability of STSS satellites against targets of opportunity. These 
tests demonstrate the ability of space sensors to provide high 
precision, real-time, tracking of missiles and midcourse objects that 
enable the fire control solutions BMDS interceptors. Two recent flight 
tests demonstrated that STSS dramatically improved the precision of 
threat missile tracks and provided more accurate fire control quality 
data to the Aegis ships several minutes earlier than less accurate data 
provided by organic radars in the Aegis or THAAD systems. We are 
requesting $96.4 million for the STSS system in fiscal year 2012 and 
are planning for an Aegis intercept in fiscal year 2013 using the STSS 
data. Lessons learned from the two STSS demonstration satellites inform 
PTSS development decisions. We are requesting $160.8 million for PTSS 
in fiscal year 2012. The PTSS, a new program, will use simple designs 
and mature technologies to provide persistent classification and 
tracking capability of enemy ballistic missiles for areas of the globe 
that have ballistic missile activity. PTSS project scope includes the 
delivery of ground segments and the launch of the first two PTSS 
spacecraft in fiscal year 2017.
    In fiscal year 2012, we are requesting $46.9 million for the 
Airborne Infrared (ABIR) program. The ABIR program will provide a 
capability to track large ballistic missile raids with an airborne 
forward-based sensor, decreasing the time between the enemy's launch of 
the first ballistic missile and the first launch of a ballistic missile 
interceptor. Initially, we will integrate an advanced sensor from the 
Multi-spectral Targeting System family of infrared sensors onto an MQ-9 
Reaper Remotely Piloted Vehicle to prove that we can enable Aegis fire 
control solutions with forward-based airborne assets. In fiscal year 
2012, using platforms and operators supplied by the Air Force, and 
working closely with the Navy, we propose to continue to demonstrate 
sensor performance and the ability to provide timely and accurate 
ballistic missile tracking. Our objective is to integrate the ABIR 
sensor into a pod that can be attached universally to the wing of a 
variety of aircraft. Additionally, in fiscal year 2012 we are enhancing 
our command and control capability to handle larger threat missile raid 
sizes and leverage airborne and space sensor missile tracking data 
networks. We will continue our development and testing of a multi-
sensor application (ABIR and space sensors) tasking and signal 
processing capability that will provide data with sufficient quality to 
enable Aegis, THAAD, and GMD fire control solutions for launching 
interceptors.
    In fiscal year 2012, we are requesting $96.3 million for Directed 
Energy Research ($92.6 million for Airborne Laser Test Bed). Following 
the successful shoot downs of liquid-fueled and solid-fueled boosting 
ballistic missile targets with an airborne laser in fiscal year 2010, 
the Assistant Secretary for Defense Research and Engineering designated 
the Airborne Laser Test Bed (ALTB) as a science and technology test bed 
for high power laser research and development. In fiscal year 2012, we 
are teaming with the Air Force's Research Laboratory to use the ALTB 
for testing advanced directed energy technologies and conducting beam 
propagation and lethality testing. A primary objective of our directed 
energy program is to continue our partnership with Lawrence Livermore 
National Laboratory to develop Diode Pumped Alkaline-gas Laser System 
(DPALS) technology, which offers great potential for high efficiency, 
electrically driven, compact, and lightweight high energy lasers for a 
wide variety of missions of interest to MDA and the Department of 
Defense.
                       international cooperation
    As stated in the 2010 Ballistic Missile Defense Review (BMDR), 
developing international missile defense capacity is a key aspect of 
our strategy to counter ballistic missile proliferation. In Europe, we 
remain committed to working with our NATO allies to make NATO lower 
layer missile defense assets interoperable with U.S. upper-tier missile 
defense assets deployed under the EPAA through NATO's territorial 
missile defense capability. In East Asia, we are improving missile 
defenses through bilateral relationships. And in the Middle East, we 
continue to work with long-term partners and pursue strengthened 
cooperation with other countries that have expressed interest in 
missile defense. MDA is currently engaged in missile defense projects, 
studies and analyses with over 20 countries, including Australia, the 
Czech Republic, Denmark, France, Germany, Israel, Japan, Kuwait, NATO, 
Poland, Romania, Saudi Arabia, South Korea, the United Arab Emirates, 
and the United Kingdom.
    MDA continues its close partnership with Japan on the SM-3 IIA 
interceptor (Japan is leading the development efforts on the SM-3 IIA 
second and third stage rocket motors and the nosecone), studying future 
architectures, and supporting that Nation's SM-3 IA flight test 
program. We also continue collaboration with Israel on the development 
and employment of several missile defense capabilities that are 
interoperable with the U.S. BMDS. In February of this year, at a U.S. 
test range off the coast of California, the Arrow Weapon System 
successfully intercepted a target representative of potential ballistic 
missile threats facing Israel today. We are requesting $106.1 million 
for Israeli Cooperative Programs (including Arrow System Improvement 
and the David's Sling Weapon System) in fiscal year 2012. We are 
working with our partners from the United Arab Emirates on the 
development of a Foreign Military Sales (FMS) case for the THAAD system 
that would represent the first sale of this capability.
    Additionally, MDA is actively engaged with the Russian Federation 
through three missile defense working groups led by the State 
Department, Office of the Secretary of Defense, and the Joint Staff. We 
are optimistic from the outcomes of both the NATO Russia Council 
meeting at Lisbon and the U.S. bilateral working groups that we will 
make meaningful progress this year in defining how we will cooperate 
with the Russian Federation on missile defense, including considering 
leveraging the combined early warning and surveillance radars of both 
countries.
                               conclusion
    Our fiscal year 2012 budget funds completing the initial deployment 
of SRBM, MRBM, IRBM, and ICBM defenses while meeting the warfighters' 
near-term missile defense development priorities. In parallel, we are 
developing enabling capability to create an enhanced, international 
network of integrated BMD capabilities that is flexible, survivable, 
cost-effective, and tolerant of uncertainties of estimates of both 
nation-state and extremist ballistic missile threats.
    Thank you, Mr. Chairman. I look forward to answering the 
committee's questions.

                 GROUND-BASED MIDCOURSE DEFENSE SYSTEM

    Chairman Inouye. Thank you very much, General.
    I'm happy that you have responded to our concerns rather 
fully. But are you personally satisfied that you've been able 
to identify the causes of the failures of the GMD?
    General O'Reilly. Yes, Mr. Chairman, I am. The first cause 
was a quality control problem, because we've had two failures. 
We have identified and confirmed that we had an error in the 
assembly process of our new EKV. I should stress that this is a 
new EKV. The ones we have deployed, most of them out there, 
have been successfully tested and we've seen no problems with 
them. But the newest one, the first test did have a quality 
control problem, which we have corrected.
    When we flew the second test last December, again that 
quality control problem was found to be resolved, but we ran 
into another problem very late in the flight, in the last few 
seconds of flight. We have assembled a nationally renowned team 
of experts that's been working extensively on this. We 
completed almost all of the ground testing to confirm what the 
problem was and have identified that problem. We are now in the 
process of correcting the problem, confirming it on the ground.
    But the nature of these types of problems make it very 
difficult to confirm in ground testing. So that is why I'm 
proposing to have another flight test added for the GMD system 
to verify the confirmation in space, and then we will proceed 
on with the intercept test that we've been trying to conduct in 
the last two flights.

                  TERMINAL HIGH ALTITUDE AREA DEFENSE

    Chairman Inouye. Are you also satisfied with the progress 
being made on the THAAD?
    General O'Reilly. Yes, sir, I am. The THAAD, we have a very 
extensive test program and the component that was giving us 
problems was a safety device. So it requires absolute 
confirmation over an extensive series of tests that in fact 
it's working properly, and the Army is independently confirming 
that that component is working properly. And all of our testing 
has indicated that we have resolved that issue. We have four 
THAAD missiles delivered today. There are five more in 
production, and we do believe we are beyond that problem and 
are reaching a steady production rate on the THAAD program.
    Chairman Inouye. Have you resolved the block 1B and 1A 
problem?
    General O'Reilly. Sir, with the block 1A we have had--over 
time have indicated that in our testing we do reveal shortfalls 
or concerns. We've corrected each one of them before the 
previous flight test and the last series of flight tests have 
shown that we have none of those issues today.
    We do have an issue that still allows an intercept to 
occur, but we want to confirm that it is not a greater problem 
than that, and we're working that right now. We are still on 
track for testing.
    When we test the 1B later this summer, we actually--most of 
the 1B is a 1A booster configuration. For the 1B, we did have 
an issue in--not the operation of the missile, but it was more 
to do with the shelf life in the environments that a Navy 
missile will be exposed to. The testing on the ground to date 
has indicated we have resolved that, but we have a couple more 
tests in the next 2 months to validate that we will be ready 
for a flight test in August.

                          JAPANESE GOVERNMENT

    Chairman Inouye. As you noted in your remarks, you're 
pleased with the partnership you have developed with the 
Japanese on the development of the MDA. But do you have 
concerns about the recent earthquake and tsunami? Will that 
slow down the development?
    General O'Reilly. Sir, we are working very closely with the 
Japanese Government. They have been outstanding partners to 
work with, meet every commitment, and are very meticulous in 
their planning, and it's made it very helpful for us to work 
together in the fashion which we have.
    Regarding the tsunami and earthquake, it did not interrupt 
the operations of our major activity in Nagoya with MHI, 
Mitsubishi Heavy Industry. Some of their subcontractors were 
affected. They were not stopped. It slowed down some 
deliveries. We do not anticipate, nor does the Japanese 
Government, that this will affect the ultimate delivery of the 
program.
    But in that regard, we do rely outside that program on some 
of the foundries in Japan that develop our focal plane arrays, 
and they have been affected by their proximity to their nuclear 
powerplant and we are concerned about that and we work closely 
with them. But that is an ongoing concern of our reliance on 
only one or two foundries around the world to produce these 
focal plane arrays that have wide application beyond just 
missile defense.
    Chairman Inouye. General, I have a few more questions, but 
I'd like to call upon the vice chairman.
    Senator Cochran. Mr. Chairman, thank you very much.

                 GROUND-BASED MIDCOURSE DEFENSE SYSTEM

    General O'Reilly, I was interested in your response to the 
chairman's question, questions plural. Let me ask you about the 
Ground-based Midcourse Defense System. There were two failures 
last year. Are these of particular concern to you, and if so 
what are we able to do to overcome those challenges?
    General O'Reilly. Sir, they are a concern to me. These are 
very expensive missiles and our tests are very expensive. The 
good news is we are aggressively testing these systems, and by 
``aggressively'' I mean we are operating the GBI at the very 
longest ranges it could ever possibly have to operate and 
protect the United States.
    But from that, we have uncovered a quality control problem. 
We revised, because of this, both at Raytheon and Boeing and 
our Defense Contract Management Agency and MDA our inspection 
processes, and we have shown that we have overcome that issue 
in changing processes in the plant.
    The second problem was of a nature that made it extremely 
difficult to uncover on the ground because of the sensitivity 
of the instruments that are on board this system. We needed to 
be in space. We have uncovered the problem. I believe because 
we know that we will be able to correct that problem, and so 
when we need the system in combat we will absolutely have one 
that we can rely on.
    At that, we still have a few more tests to do and, as I 
said, a couple more flight tests, which will confirm that we 
have in fact fixed it. I am confident we will.

                                ARROW 3

    Senator Cochran. Yesterday we had a very persuasive speech 
made in a joint session with President Netanyahu of Israel. I 
was interested in hearing what your reaction is to the fact 
that Israel is developing and fielding a missile defense system 
to protect its nation. I wonder if you can give us an update on 
the status as you understand it of the Arrow 3 and David's 
Sling programs in Israel and how that fits in with our own 
missile defense interests?
    General O'Reilly. Senator, the Missile Defense Agency is a 
co-partner to manage both of those programs with the state of 
Israel. They have demonstrated--what we have established is a 
program for Arrow 3 that's based on milestones, achieving 
technical milestones to confirm we have the capability that 
both they want and we want them to have.
    Those milestones are very aggressive, more aggressive than 
a U.S. program would normally take on. But I understand the 
risks to their country and why they're being so aggressive. 
They have successfully achieved those milestones last year, the 
ones that they were supposed to achieve. As time goes on, those 
technical milestones get more difficult to achieve. I do 
anticipate that they will achieve those milestones. The 
schedule is the question, and they are having some delays and 
repeated attempts to accomplish the technical tasks that they 
have to accomplish on Arrow 3.
    But they have shown that they do ultimately achieve the 
technical capability that they need, and we are closely 
tracking that with them. So my confidence is very high they 
will be successful in developing this missile capability. The 
question we have is the schedule associated with that might be 
a little longer than what, tracking it the way we do, than what 
they're currently projecting.
    On the David's Sling program, that is an exceptional 
capability for short and medium-range missiles, and the David's 
Sling program--also we're working with them. They've had--in 
their flight tests, they have also uncovered problems, which is 
the reason we do the flight tests, and they've shown that 
they're very quick to react to those problems and successfully 
fly afterwards.
    So the David's Sling program is experiencing the type of 
developmental issues that we all experience in developing new 
missiles. But again, they've shown their commitment and their 
technical prowess to overcome those, and we're working closely 
with them. Again, the question will be not are they going to 
develop this capability; it's the time line in which they will 
ultimately have an operational capability.
    Thank you, Mr. Chairman.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.

                 GROUND-BASED MIDCOURSE DEFENSE SYSTEM

    You've talked about some of this, General O'Reilly, but 
I'll get back into the GMD. This administration has scaled back 
planned production and deployments of ground-based interceptors 
in favor of more research and development into futuristic SM-3 
block 2B missiles. You and I both agree that it's necessary to 
hedge against uncertainty as we seek to develop the block 2B.
    Senior defense officials, including yourself, have stated 
that we need to continue modernizing and testing GBIs in the 
event that the rogue ICBM threat develops more quickly than 
expected or that the block 2B development encounters 
unanticipated technical hurdles. Recent test failures that 
you've alluded to have called into question the status of the 
GBI hedge.
    I understand that MDA has developed a plan to fix problems 
with GBI that would cost an additional--getting into a little 
money here--$281 million in 2012. Even with full funding of the 
2012 GMD budget, this plan would require MDA to delay, I 
understand, critical development work and to slip an intercept 
test of the two-stage GBI from 2012 to 2014.
    I'm confused in a way here by a recent GAO claim that the 
GMD budget for 2012 could be cut by as much as $400 million 
with no significant impact to the program. Do you agree with 
GAO's assessment and could you explain to us what the impact of 
a significant cut in 2012 would be on the GMD program?
    General O'Reilly. Senator, I do not agree with the 
Government Accountability Office (GAO) assessment. If we 
received a $400 million cut as they proposed, it would delay 
our recovery of the program by a minimum of a year. What I 
don't believe they took into account is the additional activity 
that we're doing right now that required reapplying funding 
from production to fixing the problem.
    Senator Shelby. I assume or I believe that the problem 
resides in the EKV and not the GBI booster; is that right?
    General O'Reilly. That's correct, sir.

                        GROUND-BASED INTERCEPTOR

    Senator Shelby. Is there any reason to delay funding for 
procurement of the GBI boosters?
    General O'Reilly. Sir, the GBI has no problems with the 
booster. It has no problems with it. It is a matter of storage 
and our supply chain management. But I do want to clarify, 
there are no problems with the GBI booster. We are at a point, 
though, that we were to be applying those to the EKVs and 
producing those GBIs, and so we have to manage the rate at 
which those boosters are produced.
    Senator Shelby. You referenced earlier some quality control 
in some of the failures perhaps, whatever. In your judgment, is 
the architecture sound you're dealing with?
    General O'Reilly. Yes. Yes, Senator, it is. This work is 
very precise. When you're hitting a missile at 20,000 miles an 
hour--and we have shown over and over again we can hit it 
within inches of a point on an object--it requires extreme 
precision. But our aerospace industry has shown that they can 
have the discipline to produce those type of production 
processes.
    There is over 2,000 components in a GBI, and so, as we are 
seeing, it's very unforgiving if there is a problem.
    Senator Shelby. Very complicated.
    General O'Reilly. Yes, sir. But we have shown we can do 
this. We've adjusted our processes so that we can reliably 
produce these.
    Senator Shelby. And you--I know the chairman asked you this 
question, basically. You feel that you have, you and your team, 
have found some of the flaws in some of your testing, and 
you're in the process of correcting them; is that correct?
    General O'Reilly. That is correct, Senator. We found one 
flaw and we are aggressively working to resolve it and prove 
it.
    Senator Shelby. Okay. In your testimony today you outline a 
plan to conduct previously unplanned-for flight and intercept 
tests of GBI to ensure that you've solved the problem with the 
EKV. Do these additional tests mean that you will eventually 
need to procure more GBIs than currently planned for in the 
budget? In other words, you planned--with the test thing you're 
into production in a sense, are you not?
    General O'Reilly. Senator, it's my personal assessment--
we're still developing the budget, but it is still my personal 
assessment that when we developed a previous number of GBIs 
that was 52 we had assessed the need for 4 spares. However, as 
you just said, in the first year since we've done that we have 
consumed two in failed flight tests. I've identified the need 
and proposed for another flight test, and then we have to 
repeat it.
    So my personal assessment is, yes, we need to procure 
additional GBIs.
    Senator Shelby. You've also stated previously that the 
threat to U.S. interests from short-range missiles is growing 
even more rapidly than the ICBM threat at the moment. One of 
the assets that we have in seeking to understand and encounter 
these threats is the Missile and Space Intelligence Center 
(MISIC) that you work with. Can you talk about here--I don't 
know if you can--about the kind of intelligence that you get 
from MISIC and how it contributes to your efforts to design 
defenses against short-range ballistic missiles? I know some of 
that is highly classified, but you do have a working 
relationship there, do you not?
    General O'Reilly. Senator Shelby, we have a very strong 
working relationship. It goes beyond that. It's a dependency on 
MISIC, with their great resources. You're correct, we can't 
talk about a lot of it, but I would like to say the accuracy of 
these short-range missiles and the ease in which they now can 
be launched is quite disturbing, and MISIC has been very good 
at identifying that in order to reduce the uncertainty that 
we're talking about of the threat. And then we can take that 
through our engineering process and develop missile systems 
more effectively to counter those threats.
    Senator Shelby. So you have a close working relationship 
there?
    General O'Reilly. Yes, Senator Shelby, yes.

        INTEGRATED AIR AND MISSILE DEFENSE BATTLE COMMAND SYSTEM

    Senator Shelby. My last question, if the chairman will 
indulge me. I understand that the Army has proposed 
transferring its missile defense budget and program 
responsibilities to the Missile Defense Agency. Programs such 
as Patriot and the Integrated Air and Missile Defense Battle 
Command System, or IBCS, I believe are critical to Army 
warfighters here. I worry, am concerned at times that the 
arrangement could dilute Army control over these critical 
systems or even put their budgets at risk.
    Could you explain for the subcommittee the status and the 
details of this proposal? Will the budget for Patriot and IBCS 
be protected if MDA controls some or all the funding? Has that 
crossed your mind?
    General O'Reilly. Yes, Senator, it has. The process in 
which MDA develops its budget is a joint process that the Army 
is a full partner in. The Army 2 years ago started asking me 
questions about why does the Missile Defense Agency manage the 
ballistic missile defense capability of every service except--
and THAAD--except the one aspect of the Patriot program, which 
does have ballistic missile capability?
    We have provided a lot of information to the Army and from 
that the Army has been very positive on a potential transfer, 
but not this year, in the fiscal year 2013 timeframe, for a 
change. That is still being deliberated in the Department. A 
final decision hasn't been made on that.
    However, I would--to answer your question, we have very 
closely coupled budget development processes that have been 
established by the Deputy Secretary of Defense between MDA and 
the services, so the Army does review and we actually build our 
budgets together before we submit them to OSD, and then they're 
reviewed again by the Joint Chiefs and others to ensure that 
there is a prioritized budget that matches the Army's needs and 
the Joint Chiefs' needs.
    Senator Shelby. So you don't believe you would suffer in 
the management of that if it came about?
    General O'Reilly. Senator, no, I don't. And the particular 
proposal we have made for the Army's case is literally to take 
their leadership that does currently oversee Patriot; they 
would become part of the Missile Defense Agency, but still they 
are--they still have rating responsibilities to the Army, back 
to the Army and me both.
    Senator Shelby. Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.

                             MISSILE FIELD

    General, welcome. Thank you for the time that you have 
given me in talking through some of the issues that you have 
before you.
    I'd like to ask just for perhaps a more general description 
of the plans as they relate to Fort Greely and the intent to 
place Missile Field 1 into the storage mode, in basically 
mothball status, as opposed to a decommissioning; and then 
further, why the launch capabilities at these three missile 
fields at Fort Greely are necessary to hedge against ICBM 
threats? So if you can just speak to the mothballing versus 
decommissioning and then why it's so critical that we continue 
to have these in place?
    General O'Reilly. Yes, Senator. Last year's budget, 
previous budget, the plan, the proposal was to decommission the 
missile field, which effectively puts it in a--returns it as 
much as possible to its pre-construction condition, and it 
would make it very difficult in the future if we needed to use 
that missile field again to bring it back into an operational 
capability.
    It was a test missile field, so for example it is not 
hardened, it doesn't have backup power and other attributes 
that we would want in an operationally hardened system.
    So we have identified in this year's budget that, instead 
of decommissioning the field, we put it into a storage mode. 
The cost is $4 million and then every year it's about $500,000 
to maintain it in that mode. But if it's in that mode, within 2 
years we can complete the upgrade of that missile field and 
bring it back into operation as a potential hedge.
    The reason for the hedge is the uncertainty in the 
intelligence estimates on exactly what is the progress being 
made for successful development of ICBMs by regional threats 
today in northeast Asia, such as North Korea, or in the Middle 
East. And we are closely monitoring those programs, but we need 
to have capability to expand if we find that the number that we 
have is insufficient.
    That is also the reason why we completed Missile Field 2 in 
the original design, so that we have 30 operational missiles, 
but we have 8 spare silos that could be very quickly, in a 
matter of weeks, made operational with the test GBIs that we 
are producing for test purposes, that's effectively building a 
stockpile for us.
    So between the additional silos and if it was deemed 
necessary the ability to bring back Missile Field 1, we do have 
contingency plans to have a fully operational missile site, as 
we've laid out, depending on the indications and warnings from 
our intelligence community.
    Senator Murkowski. So essentially the $4 million that you 
indicate that it will take to put it into this storage mode 
allows us a level of flexibility, the option, if you will, if 
we need to, to reconfigure. We have that ability. If we 
decommission, we lose that flexibility; we do not have the 
nimbleness--I don't know if that's a word, but we don't have 
the ability to turn back as readily and in a manner that 
hopefully will be a cost savings to us?
    General O'Reilly. That is correct.
    Senator Murkowski. Let me ask you also--I think most when 
they look at the ground-based midcourse defense operations Fort 
Greely, given where Fort Greely sits up in Alaska there, they 
view this more as a defense for the west coast against any ICBM 
threats that may be coming from North Korea. But I think we 
recognize that the system is effective also against missile 
threats to the east coast by actors that may be out there in 
the Middle East. But sometimes the geography doesn't allow us 
to perhaps look that broadly.
    As you mention, it helps to look at a globe and figure it 
out from there, rather than the world of flat maps. But the 
decision to place an in-flight communications system data 
terminal on the east coast by 2015, this extends the 
communication with the ground-based interceptors that may be 
launched from Greely or from Vandenberg on in-flights, longer 
flights.
    I understand that what this will do is allow for enhanced 
communications capability to really help bolster that missile 
defense of the east coast. Can you characterize, General, in 
perhaps qualitative terms the system's effectiveness against 
the missile, any missile threats that might be directed to the 
east coast, and how Alaska's strategic location can contribute 
to all of this? Just put that out, because we haven't had a lot 
of discussion about how the east coast and this in-flight 
communication system data terminal will coordinate or integrate 
together.
    General O'Reilly. Yes, Senator. From a polar view, as you 
say, from the global view, literally the globe, you will notice 
that from the East--from the Middle East to the east coast or 
all of the United States, the most likely trajectories are over 
the poles or in the northern regions, far northern latitudes.
    Therefore, Alaska actually is in a great position in order 
to launch from there and have a side shot at a missile. Instead 
of defending the missiles head-on, which is the most difficult 
way to hit a missile, Alaska gives us the positioning, the 
geometries, so that we can intercept a missile as it's passing 
by, which is the highest probability of an intercept.
    However, there are great ranges involved in these launches. 
Due to the great distance of communication between the missile 
and the fire control center at Alaska or the one in Colorado 
Springs, we need the ability to talk to the missile late in 
flight, because so much time goes by as that missile is flying. 
We're learning about the threat missile while it is in flight, 
and the more we learn--we want to pass that on to the kill 
vehicle so that it has as much information as possible before 
it begins its final maneuvers.
    The east coast in-flight data terminal would allow us the 
opportunity to communicate late in flight, where today we only 
have those communications sites in Alaska and on the west coast 
at Vandenberg. So this is a significant improvement to the 
capability for intercepts that would occur over the Atlantic or 
heading toward the southeastern United States especially.
    Senator Murkowski. So it really does give us that full 
umbrella of protection that we talk about when we discuss the 
advantages of a missile defense system that truly does cover 
all of the United States?
    General O'Reilly. Yes. Today we do have coverage of the 
United States, but this greatly enhances the probability of 
intercepts in the first couple interceptors we launch, because 
we have this opportunity now, or will have this capability, to 
communicate late in a flight.
    Senator Murkowski. Well, I appreciate that, General.
    I know that you've spent considerable time in Alaska 
looking at the operations there at Greely. I appreciate the 
fact that you're willing to go up in January, when many others 
would prefer to find warmer climes. But I look forward to the 
opportunity to visit with you when you perhaps head north when 
the daylight hours are longer and it's a little bit warmer.
    General O'Reilly. Senator, we have a fantastic work force 
up there.
    Senator Murkowski. Yes, we do.
    General O'Reilly. And when you're working with them at 50 
below zero and you see their dedication and how professional 
they are, we don't lose a step in that operation. That's where 
that workforce shines the best, is during those parts of the 
year, and it's my honor to be up there and observe that and 
witness that in those extreme environments.
    Senator Murkowski. Well, I think your visits help to 
contribute to good strong morale and commitment to the work as 
well. So we thank you for that.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you very much.

                               IRON DOME

    General O'Reilly, you have assessed what you consider to be 
the value of the Arrow program and the David's Sling program. 
Can you tell us about the recent employment, deployment, of the 
Iron Dome in combat? This was the first time they used this in 
combat, and apparently they consider that to have been a great 
success. What is your assessment?
    General O'Reilly. Senator, I don't have today and did not 
have responsibility for the development of Iron Dome. But I 
have observed their testing and I have been to their plants 
where they manufacture it, and my assessment is that it has 
been very successful in intercepting the missiles that are--the 
short-range, very short-range missiles, that are extremely 
difficult to hit because of the very short time flight, time of 
flight.
    However, the issue we have or the Israelis face with the 
Iron Dome is the great number of rockets and short-range 
missiles that they face. Therefore, in our budget we have a 
proposal to assist with the procurement for four more 
batteries. So the system has shown to be effective in 
developmental testing and in actual combat, or defending their 
civilian populations. The issue is the great number, the sheer 
volume of the threat they're facing.
    In our budget, I would assist with the procurement of four 
more batteries, and that is a good capability. But obviously 
when you look at the threat numbers it shows how daunting a 
task it is and the need for additional short-range type defense 
systems.
    The Army also faces that problem, the U.S. Army. So this is 
one that's shared between our country--any of our countries 
that have deployed forces very close in a combat theater to a 
potential threat. And this is one which the United States 
benefits from understanding and studying exactly how they've 
been successful with the Iron Dome system.
    Chairman Inouye. We have spent much time today discussing 
failures, test failures and delays in production. Does that 
concern you on the basis of your industrial base?
    General O'Reilly. Sir, the challenge we have in this 
business is that--and I fully support production decisions to 
be supported by tests. But with the threat and the rate at 
which the threat continues to evolve and emerge and, even more 
importantly, the uncertainties associated with exactly what the 
threat is due to the clandestine activities in which these 
threat missiles are developed and proliferated, it makes it--we 
do need to take risks at times to move forward with the supply 
chain and the production of facilitization so that we can as 
quickly as possible, once we've completed successful testing, 
minimize the time between a decision to go to production to 
actually starting to produce these missiles.
    The need for long lead procurements is critical in this so 
that we can begin purchasing the components that take 2 or 3 
years to build before they go into final assembly. That is the 
approach we're taking with the SM-3 1B. As you stated, Senator, 
in your opening remarks, we do have technical development 
issues, which are not unusual for an interceptor at this point.
    I believe we have addressed all of them and we have no 
indication that we will not be successful this summer. However, 
instead of going to a full--or requesting a full production 
decision based on one test for the SM-3 1B, we are proposing to 
make a decision on the procurement of the long lead items in 
order to keep the industrial base set and ready to go to 
deliver components that, when we have subsequent tests over the 
next year with the 1B, we'll have enough data so that the 
operational test agencies can independently concur that this 
system is ready to be fielded or go into production.
    So we are balancing between the needs, which are urgent, 
the technical achievement, and making sure that we have a 
thoroughly tested system before we put it in the field, and we 
have to balance that with the industrial base and the need to 
keep the supply chain healthy.
    So it is a challenge, sir, and, as I described with the 1B, 
those are approaches which we're using in order to reduce the 
risk to all three.
    Chairman Inouye. Because of the nature of our 
responsibilities--we're the Appropriations Committee--we seem 
to be focusing and concentrating on failures and delays. 
However, I want the record to show that the subcommittee is 
very pleased with your leadership and with the work of your 
team, because you've had a lot of successes. But in most cases 
we cannot discuss these successes because of its 
classification. But I just wanted the record to show that we 
are pleased.
    General O'Reilly. Thank you, Senator. I have a great, great 
industry-government-FFRDC-academia team across the United 
States that does this great work. And the Missile Defense 
Agency, it's my honor to be their leader, but this truly shows 
the prowess of our country and all of the agencies that are 
involved that deliver this capability.
    Chairman Inouye. I will be submitting further questions, 
but may I call upon the vice chairman.
    Senator Cochran. Mr. Chairman, thank you. I'm pleased to 
join you in commending the distinguished witness, the Director 
of our Missile Defense Agency, on the excellent job that he has 
done leading us in this very challenging enterprise and one 
that is so essential to our national defense capability and the 
safety and security of American citizens here and around the 
world. We thank you for your service.
    Chairman Inouye. Thank you.
    Senator Shelby.
    Senator Shelby. Mr. Chairman, I just want to associate 
myself with your remarks here. I think this has been a good 
hearing. I appreciate General O'Reilly's candor with us. I 
know, as you alluded to and I did earlier, there's a lot of 
this program that's highly classified and we have to get into 
it in another meeting. But I like the idea for the moment that 
the General feels good about the architecture, which is very 
important, the scheme that you lay out, and feels good about 
correcting some of the problems that he's recognized, and he's 
got an excellent team to deal with it.
    So thank you, Mr. Chairman, for the hearing.
    Chairman Inouye. I thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Thank you, General, for your testimony today and for your 
service to our Nation, and we look forward to working with you 
in the coming months.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Chairman Daniel K. Inouye
                 pacific missile range facility (pmrf)
    Question. General O'Reilly, can you provide the Committee a 
schedule of THAAD tests that will be conducted at PMRF over the next 5 
years?
    Answer. THAAD tests planned for the next 5 years at PMRF are listed 
below:

                                         THAAD FLIGHT TEST SCHEDULE (U)
----------------------------------------------------------------------------------------------------------------
 Flight test (fiscal year 2011-
       fiscal year 2016)                                Description                                 Date
----------------------------------------------------------------------------------------------------------------
FTT-12.........................  Initial Operational Test to demonstrate soldiers' ability  4Q fiscal year 2011
                                  to plan, deploy, emplace, and operate the THAAD System
                                  using approved Tactics, Techniques, and Procedures.
                                  Demonstrate THAAD closed-loop operations and engagement
                                  functions. Demonstrate the capability to conduct a
                                  multiple, simultaneous engagement of two Short-Range
                                  Ballistic Missiles (SRBM).
FTT-13.........................  THAAD endo-atmospheric engagement of a separating Medium-  3Q fiscal year 2012
                                  Range Ballistic Missile (MRBM) with associated objects.
FTT-11a........................  THAAD exo-atmospheric engagement of a complex, separating  3Q fiscal year 2013
                                  SRBM with associated objects.
FTT-15.........................  THAAD exo-atmospheric engagement of a complex, separating  3Q fiscal year 2014
                                  maximum range MRBM using Launch-on Network Track.
FTT-17.........................  THAAD operational engagement of a MRBM with associated     3Q fiscal year 2016
                                  objects using Launch-on Network Track.
----------------------------------------------------------------------------------------------------------------
Based on IMTP v11.1 as approved on February 23, 2011.

    Question. What is the current schedule for Aegis Ashore testing at 
PMRF?
    Answer. Aegis Ashore tests currently planned at PMRF are listed 
below:

                                      AEGIS ASHORE FLIGHT TEST SCHEDULE (U)
----------------------------------------------------------------------------------------------------------------
 Flight test (fiscal year 2011-
       fiscal year 2018)                                Description                                 Date
----------------------------------------------------------------------------------------------------------------
Aegis Ashore Controlled Test     Aegis Ashore first launch events (total of 2)              4Q fiscal year 2013
 Vehicle 01 (AA CTV-01).          demonstrating system ability to launch, capture, and
                                  control the Standard Missile-3 (SM-3) Block (Blk) IB
                                  interceptor.
AAFTM-01 (Event 1).............  Aegis Ashore will detect, track, and engage an air-        3Q fiscal year 2014
                                  launched Medium-Range Ballistic Missile (MRBM) with the
                                  SM-3 Blk IB interceptor.
AAFTM-01 (Event 2).............  Aegis Ashore will detect, track, and engage an MRBM with   3Q fiscal year 2014
                                  an SM-3 Blk IB interceptor using Integrated Fire Control
                                  capability with AN/TPY2 (FB) (common designator for Army
                                  Navy/Transportable Radar Surveillance Forward Based).
FTO-02.........................  Demonstrate initial BMDS operational effectiveness         4Q fiscal year 2015
                                  against full range of ballistic missile threats with SM-
                                  3 Blk IB interceptor.
FTO-03.........................  Demonstrate initial BMDS operational effectiveness         4Q fiscal year 2018
                                  against full range of ballistic missile threats with SM-
                                  3 Blk IIA interceptor.
----------------------------------------------------------------------------------------------------------------
Per IMTP v11.1 dated February 23, 2011.

    Question. I understand that within a few seconds of an SM-3 missile 
launch from the test Aegis Ashore facility on PMRF, it must be 
determined that the missile is moving in the intended direction, and, 
if not, the missile must be quickly destroyed. For safety 
considerations, PMRF is likely to require an exceptionally fast 
capability that can accurately determine missile condition and 
location, during the first few seconds of launch, something that radar 
alone may not be able to address. This is a critical requirement for 
PMRF and for safety considerations in any European country where the 
Aegis Ashore is deployed, since it will be in proximity to populated 
areas. Please provide an update on how the Navy and MDA will address 
this safety concern.
    Answer. PMRF requires extra safety considerations during Aegis 
Ashore/SM-3 testing that will not be required when proven systems are 
deployed to Host Nations. When Aegis Ashore/SM-3 is tested at PMRF, the 
range requires two independent data sources to provide SM-3 position 
and velocity to enable the Flight Safety Officer to make a decision in 
the first few seconds of flight as to whether the missile is flying a 
nominal profile. To that end, MDA is funding two independent Early 
Launch Tracking Radar's which will be installed at PMRF by fiscal year 
2013 to support the Aegis Ashore/SM-3. MDA is also funding a Telemetry 
Link Best Source Selector (BSS) upgrade which will provide fully 
automated and seamless source selection between the multiple telemetry 
antennas tracking the same link source from the missile during flight. 
In addition, MDA is funding modifications to the SM-3 Blk IB flight 
test configured missile to enable the existing destruct mechanism 
during the first few seconds after launch. These measures ensure safety 
at PMRF and allow safe developmental testing of the system to ensure it 
will perform in a safe manner when fielded in populated areas. When the 
system is fielded, the extra safety precautions required on the test 
range are no longer needed as the system has been proven to be reliable 
based on multiple successful flight tests.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
                     naval force structure support
    Question. General O'Reilly, the Navy recently submitted a report 
outlining some challenges it will face in providing the necessary force 
structure to support ballistic missile defense. In this report, the 
Navy admitted that it presently does not have the capacity to meet 
geographic combatant commanders needs without breaking personnel 
deployment lengths or dwell time rotations.
    Do the Navy's concerns affect how you deploy future phases of the 
Phased Adaptive Approach, and how is MDA working with the Navy to 
mitigate these concerns?
    Answer. The European Phased Adaptive Approach (EPAA) concept took 
the Aegis BMD program of record and anticipated availability of Aegis 
BMD ships into consideration when developed. The Joint Staff and Navy 
deploy Aegis BMD ships as requested by the Combatant Commanders and 
adjudicated by the Global Force Management (GFM) process.
    The Navy and MDA work collaboratively to combine resources and 
maximize Aegis BMD capability development for the fleet. In a joint 
review by the Secretary of the Navy and the Director of the MDA, a 
Report to Congress was submitted entitled ``Additional Requirements for 
Investment in Aegis Ballistic Missile Defense'' dated April 2010. In 
conducting the analysis for the report, consideration was given to the 
projected number of surface combatants required to provide Aegis BMD-
capable multi-mission ship presence as requested by the geographic 
Combatant Commanders (CCDRs) and approved by the Secretary of Defense. 
Navy and MDA have jointly worked a plan for 38 funded surface 
combatants with Aegis BMD (by fiscal year 2015) which reflects an 
achievable balance of capacity and capability while sustaining the 
requisite number of multi-mission Aegis cruisers and destroyers 
deployed worldwide to meet concurrent surface combatant requirements. 
The plan is consistent with the Quadrennial Defense Review force-sizing 
guidance and the Navy's 30 year Shipbuilding Plan.
    Navy and MDA are jointly responding to the Combatant Commanders' 
(COCOM) need for operational Aegis BMD capability in a three phase 
approach; through BMD upgrades to Aegis ships, Aegis Modernization 
Program and new construction. Today, MDA and the Navy have upgraded 22 
Aegis combatants to conduct ballistic missile defense operations. 
Sixteen of these ships are assigned to the Pacific Fleet and six ships 
assigned to the Atlantic Fleet. The Chief of Naval Operations (CNO) has 
designated Ballistic Missile Defense as a core Navy mission and looks 
to populate the BMD capability throughout the Aegis Fleet to meet the 
COCOM demand signal.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. The Defense Subcommittee will reconvene 
tomorrow, May 26, at 10:30 a.m. for a classified briefing from 
U.S. Central Command and Africa Command. The subcommittee 
stands in recess.
    [Whereupon, at 11:30 a.m., Wednesday, May 25, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              


                        WEDNESDAY, JUNE 15, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 11 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Leahy, Feinstein, Mikulski, Kohl, 
Murray, Cochran, Shelby, Hutchison, Alexander, Collins, 
Murkowski, and Coats.

                         DEPARTMENT OF DEFENSE

                   Office of the Secretary of Defense

STATEMENT OF HON. ROBERT M. GATES, SECRETARY OF DEFENSE

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. This morning I'd like to welcome Dr. 
Robert Gates, Secretary of Defense, and Admiral Mike Mullen, 
Chairman of the Joint Chiefs of Staff, to testify on the 
administration's budget request for fiscal year 2012.
    Gentlemen, it's my pleasure and privilege to welcome you 
back to your last testimony before this subcommittee, and to 
thank you for your many years of admirable and dedicated 
service to our Nation.
    You entered your current positions during a tumultuous 
period for this country, when we were losing ground in both 
Iraq and Afghanistan, and you agreed to take on what was 
arguably two of the most difficult jobs in the country. And 
your leadership not only turned the tide on the ongoing wars, 
but also maintained the capacity, capability and public 
appreciation for the United States military. You have served 
tirelessly, and you have served honorably. This subcommittee 
and this country are truly thankful to both of you.
    I understand that Secretary Gates has to leave by 2:30 
today, so, in order to have time for testimony and questions, I 
will submit my full statement for the record.
    And I will now turn to the Vice Chairman, Senator Cochran, 
for his opening remarks.
    [The statement follows:]

            Prepared Statement of Chairman Daniel K. Inouye

    Today, I would like to welcome Dr. Robert Gates, the 
Secretary of Defense and Admiral Mike Mullen, the Chairman of 
the Joint Chiefs of Staff, to testify on the administration's 
budget request for fiscal year 2012. Gentlemen, it is my 
privilege to welcome you back to your last testimony before 
this subcommittee and to thank you for your many years of 
admirable and dedicated service to our country.
    You both entered your current positions during a tumultuous 
period for this country when we were losing ground in both Iraq 
and Afghanistan. You agreed to take on what are arguably two of 
the most difficult jobs in the country, and your leadership not 
only turned the tide of the ongoing wars, but also maintained 
the capacity, capability, and public appreciation for the 
United States military. You have served tirelessly, and you 
have served honorably; this subcommittee and this country are 
truly thankful to both of you.
    But, as you know, there is no rest for the weary. Before we 
say farewell, the subcommittee has more business for you both 
and many issues to discuss regarding the budget.
    The Department's fiscal year 2012 base budget request is 
$553 billion, an increase of $40 billion over last year's 
enacted base budget. The Department is also requesting $118 
billion for overseas contingency operations for fiscal year 
2012.
    Secretary Gates, as a part of the fiscal year 2012 budget, 
you insightfully set a goal for the Department to achieve 
efficiency savings of $178 billion over the next 5 years. Since 
that time, President Obama has challenged the Department to cut 
an additional $400 billion over the next 12 years. I'd like to 
get your perspective of this reduction and your assessment of 
the impact this reduction will have on military personnel and 
warfighting capability.
    Since submitting the President's budget, many events around 
the globe have changed. The U.S. military is now engaged in 
operations over Libya, Osama bin Laden is dead, and 
longstanding dictatorships namely in the Middle East and Africa 
are being challenged or have been overthrown in favor of 
democratic governments. Yet our traditional threats remain and 
continue to grow while our attention has been focused 
elsewhere. I'd like to hear your thoughts on future force size, 
structure, and capability that will be necessary to combat 
future threats.
    Your leadership brought about a significant change in the 
way the Department buys weapons. You boldly came into the 
office and challenged the military services, the defense 
industry, and the Congress to cancel programs you deemed to be 
exquisite technologies built for a different war than the ones 
we were fighting.
    Although the enemy's tactics and tools constantly changed, 
you forced the traditionally slow-moving Pentagon bureaucracy 
to respond swiftly with better capabilities, such as systems to 
defeat improvised explosive devices and increasing much needed 
intelligence, surveillance, and reconnaissance assets. I look 
forward to hearing from you both on other lessons that you have 
learned from the last 10 years of war on how to improve the 
Department's acquisition programs.
    Gentlemen, we sincerely appreciate your service to our 
Nation, and the dedication and sacrifices made daily by the men 
and women of our armed services. We could not be more grateful 
for what those who wear our Nation's uniform do for our country 
each and every day.
    Your full statements will be included in the record. I now 
turn to the Vice Chairman, Senator Cochran, for his opening 
statement.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, it's a pleasure to join you 
in welcoming these distinguished witnesses to our subcommittee. 
They have demonstrated through their service--the Secretary of 
Defense, the Chairman of the Joint Chiefs--a skill, knowledge 
and dedication they have to keeping our country safe, and to 
helping protect the security interests of our Nation around the 
world. That's a big job. That is a huge challenge. And, in my 
view, they have provided distinguished leadership, for which 
our Nation is very grateful.
    Chairman Inouye. Mr. Secretary.
    Secretary Gates. Thank you, Mr. Chairman. And thanks for 
the kind words.
    One correction is--12:30.
    And it's in a good cause. I'm meeting with the Director of 
the Office of Management and Budget (OMB) on the Fiscal year 
2012 budget. So, wish me luck.
    Mr. Chairman, members of the sucommittee, I appreciate the 
opportunity to discuss the President's budget request for 
fiscal year 2012--as noted, my last budget testimony before 
this, or any other congressional committee ever. And, this time 
I mean it.
    The budget request for the Department of Defense being 
presented today includes a base budget request of $553 billion, 
and an overseas contingency operations request of $117.8 
billion.
    My submitted statement includes many more details of this 
request, but I would like to take this opportunity to address 
several issues that I know have been a subject of debate and 
concern in recent weeks and months: First, the planned future 
reductions in the size of the ground forces; second, the 
proposed reforms and savings to the TRICARE program for 
working-age retirees; and, third, the budget and the strategy 
choices required to meet the savings targets recently laid out 
by President Obama.
    Nearly 4\1/2\ years ago, one of my first acts as Defense 
Secretary was to increase the permanent end strength of our 
ground forces--the Army by 65,000, for a total of 547,000, and 
the Marine Corps by 27,000, to 202,000.
    At the time, the increase was needed to relieve the severe 
stress on the force from the Iraq war as the surge was getting 
underway. To support the later plus-up of troops in 
Afghanistan, I subsequently authorized a temporary further 
increase in the Army of some 22,000--an increase always planned 
to end in 2000--fiscal year 2013. The objective was to reduce 
stress on the force; limit, and eventually end, the practice of 
stop-loss; and to increase troops' home station dwell time. 
This has worked, and I can tell you that those stop-lossed in 
the Army is now over. There are no Army soldiers stop-lossed.
    As we end the U.S. troop presence in Iraq this year 
according to our agreement with the Iraqi Government, the 
overall deployment demands on our force are decreasing 
significantly. That is why we believe that, beginning in 2015, 
the United States can, with minimal risk, begin reducing Army 
active duty end strength by 27,000, and in the Marine Corps by 
somewhere between 15,000 and 20,000.
    These projections assume that the number of troops in 
Afghanistan will be significantly reduced by the end of 2014, 
in accordance with the President's and NATO's strategy. If our 
assumptions prove incorrect, there's plenty of time to adjust 
the size and schedule of this change.
    These reductions are supported by both the Army and Marine 
Corps leadership. However, I believe no further reductions 
should be considered without an honest and thorough assessment 
of the risks involved, to include the missions we may need to 
shed in the future.
    Let me turn to another issue relating to the Department's 
personnel costs--the proposed reforms to the TRICARE program. 
As you know, sharply rising healthcare costs are consuming an 
ever-larger share of this Department's budget, growing from $19 
billion in 2001 to $52.5 billion in this request. Among other 
reforms, this fiscal year 2012 budget includes modest increases 
to TRICARE enrollment fees, later indexed to the national 
health expenditures, for working-age retirees, most of whom are 
employed while receiving pensions. All six members of the Joint 
Chiefs of Staff have strongly endorsed these and other cost-
saving TRICARE reforms in a letter to the Congress.
    Let me be clear. The current TRICARE arrangement--one in 
which fees have not increased for 15 years--is simply 
unsustainable, and if allowed to continue, the Department of 
Defense risks the fate of other corporate and government 
bureaucracies that were ultimately crippled by personnel costs 
and, in particular, their retiree benefit packages.
    The House approved most of our proposed changes in its 
version of the fiscal year 2012 authorization bill, and I 
strongly urge the Senate to endorse all of our proposals.
    Which brings me to the third and last point--the difficult 
budget choices ahead for the Department. Last spring we 
launched a comprehensive effort to reduce the Department's 
overhead expenditures. The goal was, and is, to sustain the 
U.S. military's size and strength over the long term by 
reinvesting efficiency savings in force structure and other key 
combat capabilities.
    The results of these efforts, frankly, were mixed. While 
the services leaned forward and found nearly $100 billion in 
efficiency savings, efforts to trim overhead costs of DOD 
components outside the military services were not as 
successful. I believe there are more savings to be found by 
culling more overhead, and better accounting for--and, thus, 
better managing--the funds and people we have.
    But one thing is quite clear. The efficiencies efforts the 
Department has undertaken will not come close to meeting the 
$400 billion in savings layed out by the President. To realize 
the projected savings target will require real cuts, given the 
escalating costs of so many parts of the defense budget, and, 
as a result, real choices.
    Here I would leave you with a word of caution: We must not 
repeat the mistakes of the past, where budget targets were met 
mostly by taking a percentage off the top of everything--the 
simplest and most politically expedient approach, both inside 
the Pentagon and outside of it. That kind of salami-slicing 
approach preserves overhead and maintains force structure on 
paper, but results in a hollowing out of the force from a lack 
of proper training, maintenance and equipment, and manpower. 
And that's what happened in the 1970s--a disastrous period for 
our military--and, to a lesser extent, during the late 1990s.
    That is why I launched the, a comprehensive review to be 
completed by the end of this summer to ensure that future 
spending decisions are focused on priorities, strategy and 
risks, and are not simply a math and accounting exercise. In 
the end, this process must be about identifying options for the 
President and for you, the Congress, to ensure that the nation 
consciously acknowledges and accepts additional risk in 
exchange for reduced investment in the military.
    Above all, if we are to avoid a hollowing effect, this 
process must address force structure, with the overarching goal 
to preserve a U.S. military capable of meeting crucial national 
security priorities--even if fiscal pressure requires 
reductions in that force's size. I've said repeatedly I'd 
rather have a smaller, superbly capable military than a larger, 
hollow, less capable one. However, we need to be honest with 
the President, with you, with the American people, and, indeed, 
with ourselves about what the consequences are. A smaller 
military, no matter how superb, will be able to go fewer places 
and be able to do fewer things.
    As we embark on this debate about the future size and 
composition of the American military, it would be well to 
remember that we still live in a very dangerous and often 
unstable world. Our military must remain strong and agile 
enough to face a diverse range of threats--from non-state 
actors attempting to acquire and use weapons of mass 
destruction and sophisticated missiles, to the more traditional 
threats of other states, both building up their conventional 
forces, and developing new capabilities that target our 
traditional strategies.
    Today, I ask your support for a leaner, more efficient 
Pentagon and continued sustainable, robust investments in our 
troops and future capabilities. Our troops have done more than 
their part. Now it's time for us in Washington to do ours.
    In conclusion, I want to thank this subcommittee for all 
you have done to support our troops as well as their families. 
From my earliest days as Secretary of Defense, I have made a 
point of reminding officers--from midshipmen and cadets to 
admirals and generals--that Congress is a co-equal branch of 
government that, under the Constitution, raises armies and 
provides for navies, and now air forces. Members of both 
parties serving in Congress have long been strong supporters of 
our military, and are owed candid--honesty and candor from the 
military, and from the Department.
    I've just returned from my 12th, and last, visit to 
Afghanistan as Secretary of Defense. The progress we have made 
there since President Obama announced his new strategy has been 
impressive. The sacrifices our troops are willing to endure to 
protect this country is nothing short of amazing. And all they 
ask in return is that the country support them in their efforts 
through to success.
    It has been the greatest privilege of my life to lead this 
great military for the past 4\1/2\ years. Every day, I've 
considered it my responsibility to get our troops everything 
they need to be successful in their mission and to come home 
safely. In my visits to the combat theaters, military 
hospitals, and in bases and posts at home and around the world, 
I continue to be amazed by their decency, their resilience, and 
their courage. Through the support of the Congress and our 
nation, these young men and women will prevail in the current 
conflicts, and be prepared to confront the threats that they, 
their children, and our Nation may face in the future.

                           PREPARED STATEMENT

    Thank you, Mr. Chairman.
    Chairman Inouye. Mr. Secretary, I thank you very much.
    [The statement follows:]
                 Prepared Statement of Robert M. Gates
    Mr. Chairman, members of the committee: I appreciate the 
opportunity to discuss the President's budget request for fiscal year 
2012--my last budget testimony before this, or any other, congressional 
committee.
    The budget request for the Department of Defense being presented 
today includes a base budget request of $553 billion and an Overseas 
Contingency Operations request for $117.8 billion. These budget 
decisions took place in the context of a nearly 2 year effort by this 
Department to reduce overhead, cull troubled and excess programs, and 
rein in personnel and contractor costs--all for the purpose of 
preserving the fighting strength of America's military at a time of 
fiscal stress for our country. The goal was not only to generate 
savings that could be applied to new capabilities and programs, but for 
our defense institutions to become more agile and effective 
organizations as a result.
    In all, these budget requests, if enacted by the Congress, will: 
Continue our efforts to reform the way the department does business; 
fund modernization programs needed to prepare for future conflicts; 
reaffirm and strengthen the Nation's commitment to care for the all-
volunteer force; and ensure that our troops and commanders on the front 
lines have the resources and support they need to accomplish their 
mission.
                          reform--efficiencies
    The fiscal year 2012 budget decisions took place in the context of 
a nearly 2 year effort by the Department of Defense to reform the way 
the Pentagon does business--to change how and what we buy, to replace a 
culture of endless money with one of savings and restraint. To not only 
make every defense dollar count, but also become a more agile and 
effective organization in the process. This process culminated in my 
announcement in January that summarized the impact of these reforms on 
the fiscal year 2012 budget.
    The military services conducted a thorough scrub of their 
bureaucratic structures, business practices, modernization programs, 
civilian and military personnel levels, and associated overhead costs. 
They identified potential savings that totaled approximately $100 
billion over 5 years. More than $70 billion is being reinvested in high 
priority needs and capabilities, while about $28 billion is going to 
higher than expected operating costs--``must pay'' bills that would 
otherwise be paid from investment accounts.
    We then looked at reducing costs and deriving savings across the 
department as a whole--with special attention to the substantial 
headquarters and support bureaucracies outside the four military 
services--savings that added up to $78 billion over 5 years.
    Ten billion dollars of that total came from restructuring the Joint 
Strike Fighter program and reducing Army and Marine Corps end strength 
starting in fiscal year 2015.
    The rest of the DOD-wide savings came primarily from shedding 
excess overhead, improving business practices, and reducing personnel 
costs. Key examples include:
  --$13 billion from holding the civilian workforce at fiscal year 2010 
        levels for 3 years, with limited exceptions such as growth in 
        the acquisition workforce;
  --$12 billion through the governmentwide freeze on civilian salaries;
  --$8 billion by reforming military health programs to maintain high 
        quality care while slowing cost growth;
  --$11 billion from resetting missions, priorities, functions for the 
        defense agencies and the Office of the Secretary of Defense;
  --$6 billion by reducing staff augmentation and service support 
        contracts by 10 percent annually for 3 years;
  --$2.3 billion by disestablishing Joint Forces Command and the 
        Business Transformation Agency;
  --$1 billion by eliminating unnecessary studies and internal reports;
  --$4 billion in changed economic assumptions, such as a lower than 
        expected inflation rate;
  --$100 million by reducing more than 100 flag officer and about 200 
        civilian senior executive positions; and
  --$11 billion in a variety of smaller initiatives across the 
        department.
    To better track how and where taxpayer dollars are spent, the 
department is also reforming its financial management systems and 
practices--with the goal of having auditable financial statements by 
the congressionally mandated date of 2017. We are pursuing a 
streamlined approach that focuses first on the information we most use 
to manage the department.
                             choices ahead
    I believe there are more savings possible by culling more overhead 
and better accounting for, and thus better managing, the funds and 
people we have. But one thing is quite clear. These efficiencies 
efforts will not come close to meeting the budget targets laid out by 
the President, much less other, higher targets being bandied about.
    Nonetheless, meeting this savings target will require real cuts--
given the escalating costs of so many parts of the defense budget--and, 
as a result, real choices. That is why I launched a comprehensive 
review last month to ensure that future spending decisions are focused 
on priorities, strategy and risks, and are not simply a math and 
accounting exercise. In the end, this process must be about identifying 
options for the President and the Congress, to ensure that the Nation 
consciously acknowledges and accepts additional risk in exchange for 
reduced investment in its military.
    As we embark on this debate about the future size and composition 
of the American military, it would be well to remember that we still 
live in a very dangerous and often unstable world. Our military must 
remain strong and agile enough to face a diverse range of threats--from 
non-state actors attempting to acquire and use weapons of mass 
destruction and sophisticated missiles, to the more traditional threats 
of other states both building up their conventional forces and 
developing new capabilities that target our traditional strengths.
                  fiscal year 2012 base budget request
    The President's request for the base defense budget is for $553 
billion, which represents about 3.5 percent real growth over the fiscal 
year 2011 defense bill enacted by Congress this year. The four major 
components are: $207.1 billion for operations, maintenance, logistics, 
and training; $142.8 billion for military pay and benefits; $188.3 
billion for modernization; and $14.8 billion for military construction 
and family housing.
                             modernization
    In all, the fiscal year 2012 budget request includes $188.3 billion 
for modernization in the form of Procurement, Research, Development, 
Testing and Evaluation. Key modernization initiatives include:
  --$4.8 billion to enhance ISR capabilities and buy more high demand 
        assets, including the MC-12 surveillance aircraft, Predator, 
        Reaper, and Global Hawk UAVs--with the aim of achieving 65 
        Predator-class Combat Air Patrols by the end of fiscal year 
        2013;
  --More than $10 billion to modernize our heavily used rotary wing 
        fleet;
  --$3.9 billion to upgrade the Army's combat vehicles and 
        communications systems;
  --$4.8 billion to buy new equipment for the reserves;
  --$14.9 billion to buy new fighters and ground attack aircraft;
  --$24.6 billion to support a realistic, executable shipbuilding and 
        investment portfolio that buys 11 ships in fiscal year 2012 and 
        modernizes existing fleet assets;
  --$10.5 billion to advance the modernization portion of the 
        administration's approach to ballistic missile defense--
        including $8.4 billion for the Missile Defense Agency; and
  --$2.3 billion to improve the military's cyber capabilities.
    Questions have been raised about whether we are too focused on 
current conflicts and are devoting too few resources to future possible 
high-end conflicts. This budget should put those questions to rest. The 
fiscal year 2012 base request provides for significant investments at 
the high end of the conflict spectrum, including:
  --$1 billion ($4.5 billion over the Future Years Defense Program 
        (FYDP)) for a tactical air modernization program that would 
        ensure that the F-22 will continue to be the world's preeminent 
        air-to-air fighter. This effort will leverage radar and 
        electronic protection technologies from the JSF program;
  --$204 million ($1.6 billion over the FYDP) to modernize the radars 
        of F-15s to keep this key fighter viable well into the future;
  --$30 million ($491 million over the FYDP) for a follow-on to the 
        AMRAAM, the medium range air-to-air weapon, that would provide 
        greater range, lethality, and protection against electronic 
        jamming;
  --$200 million ($800 million over the FYDP) to invest in technologies 
        to disrupt an opponent's ability to attack our surface ships;
  --$1.1 billion ($2.2 billion over the FYDP) to buy more EA-18 
        Growlers than originally planned, plus $1.6 billion over the 
        FYDP to develop a new jamming system, expanding our electronic 
        warfare capabilities;
  --$2.1 billion ($14 billion over the FYDP) to fund Aegis-equipped 
        ships to further defend the fleet from aircraft and missile 
        attack and provide theater-wide tactical ballistic missile 
        defense; and
  --To improve anti-submarine capabilities, $2.4 billion for P-8 
        Poseidon aircraft ($19.6 billion over the FYDP) and $4.8 
        billion for procurement of Virginia-class attack submarines 
        ($27.6 billion over the FYDP).
    The fiscal year 2012 budget also supports a long-range strike 
family of systems, which must be a high priority for future defense 
investment given the anti-access challenges our military faces. A key 
component of this joint portfolio will be a new long-range, nuclear-
capable, penetrating Air Force bomber, designed and developed using 
proven technologies and with an option for remote piloting. It is 
important that we begin this project now to ensure that a new bomber 
can be ready before the current aging fleet goes out of service.
    The budget request includes $10.6 billion to maintain U.S. 
supremacy in space, in keeping with the recently released National 
Security Space Strategy. This new strategy will help bring order to the 
congested space domain, strengthen international partnerships, increase 
resiliency so our troops can fight in a degraded space environment, and 
improve our acquisition processes and reform export controls to 
energize the space industrial base.
    As the military services were digging deep for excess overhead, 
they were also taking a hard look at their modernization portfolio for 
weapons that were having major development problems, unsustainable cost 
growth, or had grown less relevant to real world needs.
    The Joint Strike Fighter program received special scrutiny given 
its substantial cost and its central place in ensuring that we have a 
large inventory of the most advanced fifth generation stealth fighters 
to sustain U.S. air superiority well into the future. The fiscal year 
2012 budget reflects the proposed restructuring of the F-35 Joint 
Strike Fighter program to stabilize its schedule and cost. The 
department has adjusted F-35 procurement quantities based on new data 
on costs, on likely orders from our foreign nation partners, and on 
realigned development and test schedules.
    The proposed restructuring adds over $4 billion for additional 
testing through 2016. It holds F-35 procurement in fiscal year 2012 at 
32 aircraft and reduces buys by 124 aircraft compared with last year's 
plans. Even after these changes, procurement ramps up sharply to 108 
aircraft by fiscal year 2016. This is the fastest that future 
procurement can prudently be increased.
    The F-35 restructuring places the Marine's STOVL variant on the 
equivalent of a 2 year probation. If we cannot fix this variant during 
this timeframe and get it back on track in terms of performance, cost 
and schedule, then I believe it should be canceled. To compensate for 
any delays in F-35 deliveries, we propose buying 41 more F/A-18s 
between fiscal year 2012 to 2014.
    I also want to reiterate the President's and my firm opposition to 
buying an extra engine for the F-35--a position echoed by the Air 
Force, Navy and Marine Corps leadership. We consider it an unnecessary 
and extravagant expense, particularly during this period of fiscal 
contraction.
    This budget proposes cancelling the Expeditionary Fighting Vehicle 
and reallocating funds to existing Marine ground combat requirements, a 
decision based on the recommendation of the Secretary of the Navy and 
the Commandant of the Marine Corps.
    Ultimately, the Navy and Marine Corps leadership based their 
recommendations on two main principles: affordability and balance. The 
EFV, a program originally conceived in the 1980s, has already consumed 
more than $3 billion to develop and will cost another $12 billion to 
build. The EFV as designed would have cost many times more than the 
system it would replace, with much higher maintenance and service 
costs. If continued over the next two decades, the EFV program would 
consume fully half of all Marine Corps procurement dollars while 
swallowing virtually the Corps' entire ground vehicle budget--
procurement, operations, and maintenance--with all the risk to 
readiness that entails.
    To be sure, the EFV would, if pursued to completion without regard 
to time or cost, be an enormously capable vehicle. But as with several 
other high end programs completed or cancelled in recent years--the F-
22, the Army Future Combat Systems, or the Navy's DDG-1000 destroyer--
the mounting cost of acquiring this specialized capability must be 
judged against other priorities and needs.
    Let there be no doubt--we are committed to sustaining the Marine 
Corps amphibious mission. This fiscal year 2012 request proposes that 
the $2.8 billion previously budgeted to the EFV for the next 5 years 
instead be reinvested towards an integrated new vehicle program for the 
Marine Corps, including:
  --New armor, weaponry and engines, plus a life-extension program for 
        the existing amphibious assault vehicles;
  --The development of a new, more affordable, sustainable and 
        survivable amphibious vehicle;
  --Accelerated procurement of new personnel carriers; and
  --Enhancement of existing Marine vehicles such as the Abrams tank and 
        Light Armored Vehicle.
    Throughout this process, we will harness the lessons learned--in 
terms of engineering, design, and testing--from the development of the 
EFV.
                               personnel
    The fiscal year 2012 budget request includes $142.8 billion for 
military pay and benefits and continues our strong support for troops 
and their families. This includes funding for wounded, ill and injured 
care, enhancing the military healthcare system and supporting military 
families under stress. Examples in this request include: $2.3 billion 
to provide care for our Wounded Warriors and their families; and $8.3 
billion for supporting families, including child care and school 
programs.
    While the department continues to insist on and pay for the highest 
quality healthcare, we are also mindful of sharply rising health 
costs--which have risen over the last decade from $19 billion in 2001 
to $52.5 billion in this budget request. The department has taken a 
comprehensive look at all facets of the military healthcare model--
emphasizing the need to balance the number one priority of continuing 
to provide the highest care and service, while ensuring fiscally 
responsible management.
    One area we have identified are benefits provided to working-age 
retirees under the TRICARE program. Many of these beneficiaries are 
employed full time while receiving full pensions, often forgoing their 
employer's health plan to remain with TRICARE. This should come as no 
surprise, given that the current TRICARE enrollment fee was set in 1995 
at $460 a year for the basic family plan and has not been raised since. 
By comparison, the fees for a comparable health insurance program for 
Federal workers total roughly $5,000 per year.
    Accordingly, we propose a modest increase to TRICARE Prime 
enrollment fees for working age retirees: $2.50 per month for 
individuals and $5 per month for families in fiscal year 2012, and then 
indexed to increases in national health expenditures in future years.
    We are proposing other healthcare initiatives such as efficiencies 
in pharmacy co-pays designed to provide incentives to make greater use 
of generic prescriptions and those ordered by mail. We also seek to 
phase out, over several years, special subsidies offered to a small 
group of hospitals that treat military families and retirees. 
Additionally, we are proposing providing TRICARE-for-Life to all 
Medicare-eligible retirees aged 65 and over, including future enrollees 
in the Uniformed Services Family Health Plan. It is important to note 
that none of these changes would affect healthcare benefits for active-
duty personnel.
                       security assistance reform
    The fiscal year 2012 request includes funding and authorization for 
a key step forward in a critical policy area: helping other countries 
to protect and defend themselves. The Pentagon and the State Department 
have agreed to a 3-year pilot pooled fund--called the Global Security 
Contingency Fund--that will be used to build partner capacity, prevent 
conflicts, and prepare for emerging threats. The proposed fund would 
incentivize interagency collaboration through a new business model. It 
would provide a more agile and cost effective way to reduce the risk of 
future conflicts by allowing our Government to respond to unforeseen 
needs and take advantage of emerging opportunities to help partners 
secure their own territories and regions.
    The request is modest, an initial $50 million State Department 
appropriation, along with a request for authority to transfer an 
additional $450 million into the fund from either department if needed. 
The Department of Defense intends to make significant contributions 
from its own resources into this pooled fund. We will be requesting in 
parallel an authorization for this initiative in the fiscal year 2012 
NDAA.
                    overseas contingency operations
    Finally, this budget request includes $117.8 billion in fiscal year 
2012 to support Overseas Contingency Operations, primarily in 
Afghanistan, and to wind down our operations in Iraq--this is a 
significant reduction from the $159 billion enacted for OCO in fiscal 
year 2011. The request, which fully funds our wartime requirements, 
includes:
  --$86.4 billion for wartime operations and related costs;
  --$425 million for the Commander's Emergency Response Fund;
  --$475 million for the Afghan Infrastructure Fund;
  --$2.6 billion to support counter-IED efforts;
  --$3.2 billion for MRAP vehicles, including the MRAP All Terrain 
        Vehicles developed for Afghanistan;
  --$11.9 billion to replace and restore worn, damaged or destroyed 
        equipment; and
  --$12.8 billion for training and equipping of the Afghan security 
        forces.
                  office of security cooperation--iraq
    I also want to mention a request in fiscal year 2012 for $524 
million for the Office of Security Cooperation--Iraq (OSC-I). The OSC-
I, which will be jointly funded with the State Department, will execute 
our Foreign Military Sales program in Iraq. OSC-I will help ensure the 
continuation of military-to-military relationships that advise, train, 
and assist Iraq's security forces.
                               conclusion
    In conclusion, I want to thank this committee for all you have done 
to support our troops as well as their families. From my earliest days 
as Secretary of Defense, I have made a point of reminding officers--
from cadets to admirals and generals--that Congress is a co-equal 
branch of government that under the Constitution raises armies and 
provides for navies and air forces. Members of both parties serving in 
Congress have long been strong supporters of our military and are owed 
honesty and candor from the military and from the Department.
    It has been the greatest privilege of my life to lead this great 
military for the past 4\1/2\ years. Every day, I've considered it my 
responsibility to get our troops everything they need to be successful 
in their mission and to come home safely. In my visits to the combat 
theaters, in military hospitals, and in bases and posts at home and 
around the world, I continue to be amazed by their decency, resilience, 
and courage.
    Finally, I want to thank this committee once again for all you have 
done to support our troops as well as their families. In visits to the 
combat theaters, in military hospitals, and in bases and posts at home 
and around the world, I continue to be amazed by their decency, 
resilience, and courage. Through the support of the Congress and our 
Nation, these young men and women will prevail in the current conflicts 
and be prepared to confront the threats that they, their children, and 
our nation may face in the future.
    Thank you Mr. Chairman.
STATEMENT OF ADMIRAL MIKE MULLEN, U.S. NAVY, CHAIRMAN, 
            JOINT CHIEFS OF STAFF
    Chairman Inouye. And may I now call upon the Chairman of 
the Joint Chiefs of Staff, Admiral Mullen.

                             DEFENSE BUDGET

    Admiral Mullen. Mr. Chairman, Senator Cochran, and 
distinguished members of this subcommittee, I'm honored to 
appear before you today to discuss the President's fiscal year 
2012 Defense budget.
    As the Secretary laid out, this budget, combined with the 
efficiencies effort that he led, provides for the well-being of 
our troops and families; fully funds current operations in 
Afghanistan and Iraq; and helps balance the global risk, 
through streamlined organizations, smarter acquisitions, and 
prudent modernization.
    The Army, for instance, will cancel procurement of the 
surface-to-air missile and the non-line-of-sight launch system; 
but it will continue production of the joint light tactical 
vehicle, and spearhead the development of a whole new family of 
armored vehicles.
    The Navy will give up its 2d Fleet headquarters, reduce its 
manpower ashore, and increase its use of multi-year procurement 
for ships and aircraft, allowing it to continue development of 
the next generation ballistic missile submarine, purchase 40 
new F/A-18s, four littoral combat ships, and another LPD-17.
    The marines will cancel the expeditionary fighting vehicle, 
and, like the Army, reduce their end strength starting in 2015. 
But they will reinvest these savings to sustain and modernize 
the amphibious assault vehicle and the light armored vehicle, 
even as they advance a new concept of operations and restore 
much of their naval expeditionary skills.
    And the Air Force will be able to continue development of 
the next-generation tanker, a new bomber, and modernize its 
aging fleet of F-15 fighters, all the while finding savings of 
more than $33 billion through reorganization, consolidation and 
reduced facilities requirements.
    None of this balancing will come on the backs of our 
deployed troops.
    We are asking for more than $84 billion for readiness and 
training, nearly $5 billion for increased Israel capabilities, 
and more than $10 billion to recapitalize our rotary aircraft 
fleet.
    These funds, plus those we are requesting to help build our 
partnership capacity in places like Afghanistan and Pakistan, 
Iraq and Yemen, all speak to the emphasis we are placing on 
giving our troops and their partners in the field everything 
they need to do the difficult jobs we've asked of them.

                      MILITARY HEALTHCARE PROGRAM

    We must also give them and their families everything they 
need to cope with the stress and the strain of almost 10 years 
at war. That's why I'm so pleased with the funds devoted in 
this proposal--almost three-quarters as much as the $200 
billion budgeted for operations and maintenance--to personnel, 
housing and healthcare issues.
    As you may know, the chiefs and I penned a rare 24-star 
letter to Congress expressing our unqualified support for the 
military healthcare program changes included in this budget. We 
sought equity across all healthcare programs, with 
beneficiaries and healthcare delivery providers having the same 
benefits and equivalent payment systems regardless of where 
they live or work. That in turn led us to propose increases in 
TRICARE enrollment fees for working-age retirees. These 
increases are modest and manageable, and leave fees well below 
the inflation-adjusted out-of-pocket costs set in 1995, when 
the current fees were established. We sincerely hope you will 
see fit to pass it. It is clearly eating us alive.
    Please know that we will continue to invest in critical 
care areas, to include research, diagnosis, and treatment of 
mental health issues and traumatic brain injury; enhanced 
access to health services; and new battlefield technologies. We 
understand that changes to healthcare benefits will cause 
concern among people we serve, and the communities from which 
we receive care. But we also understand and hold sacred our 
obligation to care completely for those who have borne the 
brunt of these wars, as well as those for whom the war never 
ends.
    I remain convinced that we haven't begun to understand 
completely the toll that war extracts from our people. Just as 
the grandchildren of World War II vets still struggle to 
comprehend the full scope of the horror those men conceal, so, 
too, will our grandchildren have to come to grips with the 
wounds unseen from these wars, unless we get it right. I 
believe the investments we are making in wounded care and 
family readiness will pay off in that regard. But it will take 
time and patience and money--three things we rarely seem to 
possess.
    That brings me back to this particular budget request. With 
limited resources and two wars in progress--three, if you count 
our support to NATO operations in Libya--we should be prudent 
in defining our priorities, in controlling our costs, and in 
slaking our thirst for more and better systems. We should also 
be clear about what the Joint Force can and cannot do, just as 
we should be clear about what we expect from our interagency 
and international partners.
    Our global commitments have not shrunk. If anything, they 
continue to grow. And the world is a lot less predictable now 
than we could have ever imagined. You need look no further than 
the events across the Middle East and North Africa to see the 
truth in that. In fact, I just returned from a trip to Egypt, 
and 1 week before that I was in Pakistan with Secretary Clinton 
as we tried to find ways to move forward our relationship with 
that nation in the wake of Osama bin Laden's killing.
    The challenges in both Egypt and Pakistan are distinct, to 
be sure, but at each stop--and, in fact, in just about every 
country I visit--I've been struck by the degree to which 
civilian and military leaders alike desire to keep our military 
partnerships strong. This desire isn't rooted in the fear of 
revolt or recrimination, but rather, a shared understanding of 
the external threats to their security and ours, which still 
plague the region. Therefore, changes to these relationships in 
either aid or assistance ought to be considered only with an 
abundance of caution and a thorough appreciation for the long 
view, rather than the flush of public passion and the urgency 
to save a dollar. The support we provide many of these 
militaries has helped them become the capable professional 
forces they are and, in that regard, has been of inestimable 
value.
    Of equal or greater value is increased appropriations for 
the State Department, and our request in this budget for 
something called the Global Security Contingency Fund--a 3-year 
pooled fund between the Pentagon and the State Department that 
will be used to build partnership capacity, prevent conflicts, 
and prepare for emerging threats. The request is modest--an 
initial $50 million appropriation--along with a request for 
authority to reprogram an additional $450 million if needed. 
But, what it will buy us is an agile and cost-effective way to 
better respond to unforeseen needs and take advantage of 
emerging opportunities for partners to secure their own 
territories and regions.
    We must get more efficient--absolutely. But, we must get 
more pragmatic about the world we live in. We can no longer 
afford bloated programs or unnecessary organizations without 
sacrificing fighting power. And we can no longer afford to put 
off investments in future capabilities or relationships that 
preserve that power across the spectrum of conflict.
    As you know, the President announced his framework for 
addressing our Nation's long-term fiscal challenges, setting a 
goal of reducing Defense spending by $400 billion. This will be 
hard work and will require difficult choices about matching 
strategy to resources. Those choices will be painful, even 
unnatural for the Services, for the Department, and for the 
Congress. But they are absolutely necessary.
    The President also directed that, before making specific 
budget decisions, the Department of Defense will assess their 
impact by conducting a fundamental review of America's military 
missions, capabilities, and roles in a changing world. 
Secretary Gates and I have begun this review, and will work 
with the service chiefs to ensure we can meet our national 
security priorities, even in the face of fiscal pressure. Our 
review will be based on strategy and risks, not simply 
budgetary math. And our goal will be to ensure that we do not 
repeat the mistakes of the past, nor, at the end of this 
endeavor, find ourselves with a hollow force--a force that 
retains an organizational structure, but lacks the people, the 
training, and equipment necessary to perform the tasks we 
expect from it.
    In my view, then, this proposed budget gives us a good 
start. It builds on the balance we started to achieve last 
year, and represents the best of both fiscal responsibility and 
sound national security.
    I would be remiss, indeed, if I did not close by praising 
the incredible efforts of our troops overseas and their 
families as they finish one war in Iraq, begin to turn corners 
in Afghanistan, and help save innocent lives in Libya. I know 
you share my pride in them and that you will keep them foremost 
in mind as you consider the elements of this proposal.

                           PREPARED STATEMENT

    I, too, would like to thank you for your longstanding 
support of our military, of our families. You have set a 
standard in many ways that those of us who are fortunate enough 
to interact with you appreciate, and I know our troops and our 
families appreciate it, as well.
    Thank you, Mr. Chairman.
    Chairman Inouye. Admiral Mullen, thank you very much.
    [The statement follows:]
            Prepared Statement of Admiral Michael G. Mullen
    Chairman Inouye, Senator Cochran, and distinguished members of the 
Committee, it is my privilege to report on the posture of the United 
States Armed Forces.
    We remain a Nation at war on multiple fronts. In the face of 
daunting challenges, our Armed Forces have successfully carried out 
their far-ranging missions over the past year. They have improved 
security in Afghanistan, continued on a path to soon end the war in 
Iraq, and promoted stability in the Pacific Rim. They have supported 
NATO in its U.N. mission to protect civilians in Libya and have 
provided humanitarian assistance, such as in Japan in the aftermath of 
the recent devastating earthquakes and tsunami. And they displayed 
their characteristic bravery and precision in the May 2 operation 
targeted against al-Qaeda leader Osama Bin Laden, the leader of al-
Qaeda. You can be very proud of your military. However, the cumulative 
stress of 9 years of war is substantial and growing. We will need your 
sustained support, even in the midst of fiscal difficulties, to reset 
the Joint Force so it can continue to protect the American people.
    Our country is fortunate to be served by the best Armed Forces I 
have seen in over 43 years of wearing the uniform. Despite continuous 
deployments and combat operations, our men and women in uniform and 
their families have been resilient beyond all expectations. They are 
patriots who care deeply for this country and serve under very trying 
conditions. They are the most combat experienced and capable force we 
have ever had, and they continue to learn and adapt in ways that are 
truly remarkable. I am continuously humbled as I visit them around the 
country and the world. Time and again, these men and women and their 
families have proven that our All Volunteer Force is the Nation's 
greatest strategic asset.
    This Force cannot thrive without the support of the American 
people. Everything we are and everything we do comes from them. I am 
grateful for the Congress' and the American people's constant reminders 
that the service, heroism, and sacrifices of our service members and 
their families are valued. However, I am concerned that because our 
military hails from a shrinking percentage of the population, some day 
the American people may no longer know us. We cannot allow this to 
happen. With your help, we will endeavor to stay connected and to 
maintain a strong and open relationship.
    As we look to our military's posture and budget, we recognize that 
our country is still reeling from a grave and global economic downturn 
and is maintaining nearly historic fiscal deficits and national debt. 
Indeed, I believe that our debt is the greatest threat to our national 
security. If we as a country do not address our fiscal imbalances in 
the near-term, our national power will erode. Our ability to respond to 
crises and to maintain and sustain our influence around the world will 
diminish.
    Our national economic health is creating real budgetary pressures. 
For too much of the past decade we have not been forced to be fully 
disciplined with our choices. But for the foreseeable future, cost will 
be a critical element of nearly every decision we face. We must now 
carefully and deliberately balance the imperatives of a constrained 
budget environment with the requirements we place on our military in 
sustaining and enhancing our security. We must identify areas where we 
can reduce spending while minimizing risk. This will affect our 
posture, force structure, modernization efforts, and compensation and 
benefits. The Defense Department must and will become more efficient 
and disciplined, while simultaneously improving our effectiveness.
    In April, the President announced his framework for addressing our 
Nation's long-term fiscal challenges, setting a goal of reducing 
defense spending by $400 billion. This will be hard work and will 
require choices that will be painful to many, but it is necessary. The 
President also directed that before making specific budget decisions, 
the Department of Defense assess their impact by conducting a 
fundamental review of America's military missions, capabilities, and 
role in a changing world. Secretary Gates and I have launched this 
review and will work with Service Chiefs to ensure our ability to meet 
our crucial national security priorities even in the face of fiscal 
pressures. Our review will be based on strategy and risks, not simply 
budgetary math, and our goal will be to ensure that we do not repeat 
the mistakes of the past nor at the end of this endeavor find ourselves 
with a hollow force--a force that retains an organizational structure 
but lacks the people, training, and equipment necessary to perform the 
tasks we expect from it.
    In the near-term, the President's fiscal year 2012 Department of 
Defense budget of $553 billion represents a balance of military risks 
and fiscal realities we face today. The return on U.S. defense spending 
over the past two decades has been immense and historic: preventing 
world war between great powers, securing the global commons and the 
free flow of international trade and natural resources, combating 
terrorism across the globe, and protecting the American people and our 
allies. But our operations have come with stresses and strains as well 
as costs to our readiness. If we are to continue to execute the 
missions set out by our strategy, we must recognize that recovering 
from war and resetting the force is costly and will require several 
years of continued investment. Congressional support is required for 
our forces, their families, their equipment and training, and our 
military infrastructure to ensure the success of our ongoing efforts 
and for us to be ready to respond to new and emerging security 
challenges.
    The President's National Security Strategy, the National Military 
Strategy, and the President's Strategy for Afghanistan and Pakistan 
describe our military approaches and ongoing operations in great 
detail. This posture statement will focus on the strategic priorities 
for the military and the Congressional support we need. My priorities 
remain defending our vital interests in the broader Middle East and 
South Central Asia, improving the Health-of-the-Force, and balancing 
global strategic risk.
 defending our vital national interests in the broader middle east and 
                           south central asia
    Over the past year, our Armed Forces have continued to shoulder a 
heavy burden, particularly in the Middle East and South Central Asia. 
The balance of this burden and our wartime focus has shifted, however, 
from Iraq to Afghanistan. This was made possible by drawing down 
military forces in Iraq and transitioning security responsibilities to 
the Iraqis. Meanwhile, we committed additional forces and resources to 
Afghanistan and Pakistan as well as participated in NATO operations in 
Libya.
    Removing Osama Bin Laden from al-Qaeda's leadership is a signature 
achievement, and it came only after years and years of painstaking and 
difficult work by intelligence and military professionals. Although the 
full import will not be known for some time, his death contributes to 
the larger struggle and steady progress we must make toward disrupting, 
dismantling, and ultimately defeating al-Qaeda. As a result of our 
operations with our Coalition, Afghan, and Pakistani partners, and 
extensive cooperation with other partners, al-Qaeda's senior leadership 
in Pakistan is weaker and under greater pressure than at any other time 
since being forced out of Afghanistan in late 2001. They have suffered 
the losses of numerous senior leaders and face significant challenges 
to coordinating operations, maintaining safe havens, and acquiring 
funding. Despite this operational progress, al-Qaeda retains the intent 
and capability to attack the United States and other Western countries. 
The movement's leaders continue to operate in the Afghanistan-Pakistan 
border region, planning operations and guiding the efforts of al-Qaeda 
networks operating out of the Arabian Peninsula, Africa, and even 
Europe. We, in turn, remain committed to our deepening and broadening 
partnerships in the region and to our goal of ultimately defeating al-
Qaeda and creating the conditions to prevent their return to 
Afghanistan and Pakistan.
    We continue to implement our national strategy for Afghanistan and 
Pakistan with great urgency. This past November, we completed the 
deployment of the 30,000 additional U.S. forces, and we are seeing 
signs of improving security on the ground. These forces have allowed us 
to go on the offensive with our Afghan and ISAF partners, force the 
Taliban out of safe havens in its heartland of Kandahar and Helmand, 
better protect the Afghan population, and reduce civilian casualties. 
Our counterinsurgency operations, conducted in close partnership with 
Afghan forces, have reduced the Taliban's influence, reversed the 
insurgency's momentum in key areas of the country, and forced many 
Taliban leaders to flee. Our forces will consolidate recent gains in 
Helmand and Kandahar Provinces and further expand security in other 
critical parts of the country.
    This success against the Taliban and other insurgent groups is 
essential to prevent the return of al-Qaeda, gain time to build the 
Afghan National Security Forces (ANSF), and force insurgents to 
reconcile with the Afghan government on acceptable terms. We expect the 
violence in 2011 to be greater than last year. The fighting this summer 
will be tough and often costly, but it is necessary to sustain and even 
increase the pressure we have been placing on the insurgent groups. We 
cannot allow the Taliban to reorganize and reconstitute as they did in 
2004 and 2005, regain their oppressive influence over the Afghan 
people, and once again provide safe haven to al-Qaeda or its 
affiliates.
    For the success of our military operations to be enduring, it is 
critical that the ANSF be able to provide adequate security for the 
Afghan people. Our greatest success story this past year has been the 
growth and development of the ANSF. With the help of additional ISAF 
trainers, the ANSF added 49,000 soldiers and 21,000 policemen to their 
ranks--an astonishing growth of 36 percent. The ANSF also continue to 
improve on the battlefield and increasingly contribute to the war 
effort. They are fighting beside us and have grown in their ability to 
plan and conduct complex operations. In fact, their expanding 
capabilities and presence have already allowed International Security 
Assistance Forces (ISAF) units to ``thin out'' in some parts of central 
Helmand and Kabul Province. We are on track to begin the transition of 
security responsibilities and drawdown of our forces in July 2011. In 
the coming year, while continuing to grow the ANSF in size, we will 
place greater emphasis on improving its quality, professionalism, and 
self-sufficiency, to ensure that they remain on track to assume the 
overall lead for security in 2014. To this end, the Afghan Security 
Forces Fund remains critical to the building of the ANSF's capabilities 
and to the ANSF's eventual assumption of security responsibilities.
    Despite our successes, numerous other challenges remain. Achieving 
sustainable security requires developing Afghan governing capacity, 
countering corruption, cultivating the conditions needed for conflict 
resolution, and neutralizing insurgent sanctuaries in Pakistan. Absent 
these conditions, we will not succeed. Despite a dramatic increase in 
our civilian presence in Afghanistan this past year, improvements in 
sub-national governance and reconstruction have not kept pace with 
progress in improving security. This has impeded our ability to 
``hold,'' ``build,'' and ``transfer.'' For this reason, the Commander's 
Emergency Response Program remains the most responsive means for 
addressing a local community's needs and is often the only tool our 
commanders have to address pressing requirements in areas where 
security is challenged. Along with development projects, we believe 
that new transparency and anti-corruption efforts may counter the 
deleterious effects of Afghanistan's criminal patronage networks, 
mitigate the distortive effects of international aid and development 
programs, and ultimately improve the confidence the Afghan people have 
in their government and their governing officials.
    To complement this ``bottom-up'' development, we will support the 
Afghan government's reconciliation and reintegration efforts in order 
to achieve the political solution that is an imperative to sustainable 
peace. Their efforts will only succeed if the Taliban and other 
insurgents believe they have more to gain by negotiating an end to the 
conflict than by continuing to fight. Achieving reconciliation and 
reintegration will take time, skillful diplomacy, and sustained 
military pressure, but we will not achieve a favorable and durable 
outcome unless we meet this challenge.
    Though our operational efforts are focused on Afghanistan, our 
diplomatic efforts have increasingly focused on Pakistan, a country 
critical to our strategy in the region. We must continue to pursue a 
partnership with Pakistan even as we are realistic about the difficulty 
in overcoming years of mistrust. The alternative--drifting toward a 
more contentious or fractured relationship--is far more detrimental to 
U.S. interests in strategically defeating al-Qaeda and ensuring nuclear 
weapons do not fall into terrorists' possession. We therefore should 
remain committed to close coordination, cooperation, and friendship 
with Pakistan.
    It is manifestly in our interest to enable the Pakistani military's 
counterterror and counterinsurgency operations. The series of offensive 
operations undertaken by the Pakistani military in the tribal areas 
expanded dramatically in 2009. There, the Pakistanis have fought 
bravely and sacrificed much--losing thousands of soldiers in the 
process. We have steadfastly supported them in a variety of ways, 
primarily in the development of the counterinsurgency capabilities of 
Pakistan's security forces. This development and the military's 
operations have kept pressure on al-Qaeda's senior leadership and the 
militant groups threatening Pakistan and Afghanistan.
    However, insurgent groups such as the Quetta Shura and the Haqqani 
network continue to operate unhindered from sanctuaries in Pakistan, 
posing a significant threat to NATO and Afghan forces. Our efforts to 
enable the Pakistani Military depend on several critical programs, such 
as the Pakistan Counterinsurgency Fund and Pakistan Counterinsurgency 
Capability Fund and the Multi-Year Security Assistance Commitment 
announced by Secretary Clinton last fall. It is also important that 
through exchange programs, such as the International Military Education 
and Training (IMET) program, we establish relationships with the 
generation of Pakistani officers with whom we had cut ties. In 
addition, because we so heavily depend on Pakistan as a supply route 
supporting our efforts in Afghanistan, Coalition Support Funds remain 
critical to reimbursing the Pakistanis for their assistance in securing 
those supply routes.
    In terms of our broader engagement with Pakistan and the region, 
reducing some of the long-standing enmity and mistrust between India 
and Pakistan would greatly contribute to our efforts. As neighbors, it 
is in both India and Pakistan's interests to reduce the tension between 
them and strengthen their political, security, and economic ties. While 
we acknowledge the sovereign right of India and Pakistan to pursue 
their own foreign policies, we must demonstrate our desire for 
continued and long-term partnership with each, and offer our help to 
improve confidence and understanding between them in a manner that 
builds long-term stability across the wider region of South Asia.
    Another increasingly important aspect of our engagement in South 
Central Asia is the development of the Northern Distribution Network. 
This line of communication has proven critical to maintaining 
flexibility in our logistical support to our efforts in Afghanistan. We 
will continue to work with our partners to ensure access, expand 
throughput, and sustain the viability of redundant supply routes for 
our forces.
    We have ended our combat mission in Iraq, Operation Iraqi Freedom, 
and started a new chapter in our partnership, Operation New Dawn. We 
successfully transferred lead for security responsibilities to the 
Iraqi Security Forces on August 31, 2010. Iraq's military and political 
leaders are responding to the residual, but still lethal, threat from 
al-Qaeda. As a result, and despite a drawn-out government formation 
process, the security situation there remains stable, and the Iraqi 
people are increasingly able to focus on jobs and development. Beyond 
this security transition, the State Department has taken the lead for 
U.S. efforts in Iraq, and our diplomats and other civilians are 
increasingly the face of our partnership with the Iraqi people and 
their government. Sustained funding for our civilian efforts, 
commensurate with the State Department's growing responsibilities--
particularly our development assistance and police training programs--
is needed to ensure we are able to successfully turn our military 
accomplishments into lasting political ones.
    However, the end of the war in Iraq will not mean the end of our 
commitment to the Iraqi people or to our strategic partnership. We must 
focus on the future to help Iraq defend itself against external threats 
and consolidate a successful, inclusive democracy in the heart of the 
Middle East. As we continue to draw down forces through December 31, 
2011, in accordance with the United States-Iraqi Security Agreement, we 
will transition to a more typical military-to-military relationship. We 
will shift the focus of our assistance from Iraq's internal domestic 
security to its external national defense, keeping in consideration the 
interests and sensitivities of all Iraqis as well as Iraq's neighbors. 
While Iraqi security forces have made great improvements, they will 
require external assistance for years to come. The cornerstone of our 
future security partnership with the Iraqis will be a robust Office of 
Security Cooperation, performing both security assistance and security 
cooperation functions, as part of the U.S. Embassy in Iraq. Key to our 
assistance and not squandering our hard won gains will be continued 
support to the Iraqi Security Forces fund through fiscal year 2011, 
IMET and other traditional security assistance programs, as well as an 
extension of Section 1234 authority to transfer equipment from 
Department of Defense stocks.
    Despite the energy we commit to defeating al-Qaeda and to 
stabilizing the situations in Afghanistan, Pakistan, and Iraq, we 
remain vigilant against other security challenges and sources of 
aggression and proliferation throughout this critical region. The 
Iranian regime continues to threaten regional stability. Despite 
growing isolation from the international community and a fourth round 
of increasingly costly U.N. sanctions, the regime has neither ceased 
providing arms and other support to Hezbollah, HAMAS, and other 
terrorist groups nor accepted a verifiable end to its pursuit of 
nuclear weapons. Many of the long-standing potential flashpoints in the 
Levant and the gulf region bear Iran's signature, and the Iranian 
regime is also attempting to seize on opportunities presented by the 
recent unrest in the region.
    That said, strong social, economic, and political tensions pull on 
the region and its people--as evidenced by the turmoil we have recently 
witnessed in Tunisia, Egypt, Libya, Yemen, Syria, and Bahrain. 
Volatility in regional affairs can often follow volatility in domestic 
affairs. Strong military-to-military relationships can help reduce and 
mitigate the risks of instability, but sometimes use of force is 
necessary. The most recent example of this is our rapid response to the 
crisis in Libya. Since mid-March, after Muammar Gaddafi turned his 
armed forces against his own, U.S. forces have participated in the 
NATO-led effort to implement and enforce U.N. Security Council 
Resolution 1973. We provided rapid planning, command and control, and 
electronic attack capabilities for the coalition force that has halted 
the regime's assault on the city and people of Benghazi, and 
subsequently transitioned the leadership responsibility of the effort 
over to NATO.
    We will continue to help counter terrorist threats, deter Iranian 
aggression, and protect our partners from coercive influence. To do 
this we will continue to build the capabilities of our partners. More 
important, we will nurture the development of a regional security 
architecture based on multi-lateral partnerships that address a wide 
range of security issues including counterproliferation, maritime 
security, counterterrorism, air and missile defense, and emergency 
response. As with our other partnerships across the globe, our security 
assistance programs are the cornerstone of our relationships. In 
particular, our Section 1206 and 1208 programs provide a unique and 
necessary flexibility and responsiveness to Combatant Commander 
requirements that we cannot currently get with our Foreign Military 
Financing (FMF) programs.
                   improving the health-of-the-force
    The ``back end'' of war--the continued care of our veterans and 
their families and the resetting of our force--cannot be an 
afterthought, and getting it right will be expensive. Moreover, because 
of the duration of these conflicts, we have begun to reset our units 
even in the midst of conflict. The stress of over 9 years of constant 
warfare has come at a great cost to the Force and its ability to 
continue to conduct operations and respond to other emergent crises. We 
must care for our people and their families and reset and reconstitute 
our weapon systems to restore our readiness, capabilities, and wartime 
effectiveness. This will require a sustained commitment of at least 3 
to 5 years, and could continue well beyond the end of our involvement 
in Iraq and Afghanistan.
Care for our People
    Our foremost focus is on our servicemen and women, their families, 
and their supporting communities--the bedrock of our Armed Forces. They 
each play unique and growing roles in our national security fabric, but 
they have been under great, often unrecognized, stress for the past 9 
years. Over 2 million of our service members have deployed to fight 
overseas. Some have served multiple grueling tours, a great number have 
suffered significant injuries, and thousands have sacrificed their 
lives. Even those serving stateside enjoy only short respites between 
deployments. We have asked a great deal from our people, and we must 
invest in them and their families--through appropriate pay, healthcare, 
family care, education, and employment opportunities--as they are the 
single greatest guarantee of a strong military. And they become our 
best recruiters.
    The many accomplishments of our All Volunteer Force over the past 9 
years of continuous combat operations have been unprecedented. That we 
remain competitive in attracting the country's best talent during this 
period is simply extraordinary. All of our Services in the Active Duty, 
Reserve, and National Guard components continue to have exceptional 
recruiting and retention rates. Ninety-six percent of our accessions 
have earned at least a high school diploma, which helps explain why 
this is one of the finest forces we have ever fielded. Competitive 
compensation and selective bonuses are critical to our ability to 
recruit and retain talent, as are other ``people programs,'' such as 
the new GI Bill, improvements in housing, access to quality schooling 
for military children, mental health counseling, adequate child care, 
and attractive family support centers. All of these programs make the 
harsh burdens of military life easier to bear. I ask for Congress' 
continued support for them in order to sustain the Force while our 
overseas operations continue.
    I also urge Congress to continue funding the programs that will 
create a continuum of healthcare for our veterans and their families 
that seamlessly spans active duty and veteran status. With a focus on 
our enduring commitment, we must continue to improve our active and 
veteran care services, with special emphasis on Wounded Warrior 
Support. We will expand our public and private partnerships and tap 
into the ``sea of goodwill'' toward our veterans found in our Nation's 
communities and civic organizations. That will be important, but it is 
not sufficient. Long-term fiscal support for the Department of Veterans 
Affairs will serve the growing number of veterans requiring care.
    One issue that demands acute national attention is the challenge of 
Traumatic Brain Injury (TBI). The Improvised Explosive Device (IED) is 
the signature weapon of the conflicts in Iraq and Afghanistan and is 
directly responsible for many of these injuries. Many of our heroes 
suffer from severe TBI and have had their lives dramatically changed in 
ways we do not yet fully understand, and over 150,000 others have been 
exposed to events that may have caused moderate TBI. As such, we need 
to aggressively identify the victims of TBI, both within the serving 
force and among our veterans, and the treatment and rehabilitation they 
need and deserve. The effects of these efforts will pay dividends for 
some time, because we can expect to face IEDs in future conflicts as 
well.
    In addition, suicides and the many other stresses and social health 
costs that lag behind war--divorce, domestic violence, post-traumatic 
stress, depression, and even homelessness--are becoming alarmingly 
evident. Suicide rates remain unacceptably high, although programs such 
as the Department's Suicide Prevention Task Force and our improved 
leadership efforts have helped to lower the rates in 2010 in three of 
our four Services. Leaders must remain focused on this issue, as we 
work to improve our systematic understanding of the problem's scope, 
warning signs, and at-risk populations. As a society we must work to 
end the stigma that prevents our service members, veterans, and 
families from seeking early help.
    By more effectively leveraging public-private partnerships, we can 
pursue solutions and treatment for all of these health issues 
afflicting the Force with great urgency and compassion and honor the 
sacred trust our Nation has with all of our combat veterans.
Reset and Reconstitute
    The grueling pace of deployments has not allowed for the training 
needed to keep our forces ready along the entire spectrum of military 
operations and, as a result, our readiness in some mission areas has 
atrophied over the past decade. There are some modest reasons for hope, 
though. The Army now has fewer soldiers deployed than it has had at any 
time since the invasion of Iraq. In addition, this past year we 
completed the increases in the Army and Marine Corps end strengths 
authorized in 2007. As a result, we are beginning to see some 
stabilizing deployment rates and modestly improving dwell times. We 
appreciate the Congressional support to our wartime manning needs that 
has enabled this. However, our overseas contingency operations do 
continue to demand significant numbers of ground and special operations 
forces and low-density, high-demand specialties. For our Army combat 
units, we do not expect to begin to reach our interim goal of 1:2 
deploy-to-dwell ratios until the end of 2012. After reset and 
reconstitution activities and as demand decreases, we expect to begin 
off-ramping some of our recent temporary force level increases.
    However, my concerns about the health of our force go beyond our 
people and training--we must also restore the readiness of our combat 
systems and capabilities, which have similarly been under extraordinary 
stress. In the ``back end'' of previous conflicts, we were able to 
contract our equipment inventory by shedding our oldest capital assets, 
thereby reducing the average age of our systems. We cannot do this 
today, because the high pace and durations of combat operations have 
consumed the equipment of all our Services much faster than our 
peacetime programs can recapitalize them. We must actually recapitalize 
our systems to restore our readiness and avoid becoming a hollow force. 
All of this will force us to be more efficient and disciplined in our 
choices.
    We must focus resources where they matter most, and we will reset 
and reconstitute by prioritizing people, readiness, capabilities, and 
essential modernization to maintain a technological edge. In the short-
term, we will continue previous efforts to reconstitute and expand our 
rotary wing and tilt-rotor capacity in our Combat Aviation units and to 
convert one heavy Brigade Combat Team to a Stryker Brigade. However, 
over a period of years, we will modernize our battle fleet of ground 
combat vehicles, including replacing the Bradley Fighting Vehicle. We 
require enhancements to our manned and unmanned Intelligence, 
Surveillance, and Reconnaissance (ISR) assets, a new bomber program, 
extending the service life of a portion of our F-16 fleet, and 
continuing improvements in our missile defense and electronic warfare 
systems. We hope to modernize and extend the service life of our F/A-18 
fleet and invest in additional P-8A aircraft and tankers. Last, we ask 
for full resourcing of the Air and Missile Defense Radar, the Next-
Generation Jammer, and communications and integrated fire control 
systems designed for operating in contested environments. These 
investments are, without question, costly, but they are critically 
demanded by our current and likely future challenges.
    Just as important as the reconstitution of these combat systems are 
the acquisition processes and production capacities underlying them. 
Our procurement systems remain complex and in need of streamlining to 
help us acquire needed capabilities faster and more affordably. Last 
year we committed to adding 20,000 experts to our acquisition corps by 
2015. In doing so we seek to improve stability in our programs, conduct 
more comprehensive design reviews, improve cost estimates, utilize more 
mature technology, and increase competition in order to make the entire 
process more responsive and effective.
    In addition, as I stated last year, I am concerned about the 
capabilities of our defense industrial base, particularly in ship 
building and space. Our ability to produce and support advanced 
technology systems for future weapon systems may be degraded by 
decreasing modernization budgets as well as mergers and acquisitions. 
Left unchecked, this trend will impact our future warfighting 
readiness. Although we are properly focusing on near-term reset 
requirements, the Department, our industry leaders, and the Congress 
need to begin considering how to equip and sustain the military we 
require after our contemporary wars come to an end.
                    balancing global strategic risk
    Balancing global risk requires maintaining a ready, forward 
presence with available forces that, overall, can meet the full scope 
of our security commitments. To meet these requirements, we must reset, 
sustain, and properly posture a force that includes both our active 
force and our National Guard and Reserve Components. But we must also 
make prudent investments and continuously evolve the force so as a 
whole it can meet the challenges of an increasingly complex global 
security environment.
    For many decades, our overmatch in our general purpose forces has 
underwritten our national security and our prosperity, as well as that 
of our many allies and partners. This credible strength has deterred 
aggression and reduced the likelihood of inter-state conflict like 
those of the 19th and early 20th centuries. With these capabilities, we 
have stood side by side with our allies in the face of belligerent 
aggression, helped secure access and responsible use of increasingly 
contested domains, and provided timely humanitarian assistance in 
response to natural disasters across the globe. However, our recent 
experience reminds us that we must continue to adapt some of our 
systems and tactics to counter anti-access and area-denial strategies, 
which may involve both the most advanced and simplest technologies.
    We already know some of the contours of what our future force will 
need to do. We know that, in addition to the current array of 
aggressive states and transnational terrorists we face, we must adjust 
to a changing global environment impacted by the rise of China and 
other emerging powers as well as the growing worldwide use and 
capabilities of cyber space. Such a world requires an agile, adaptive, 
and expeditionary force. It must ensure access, protect freedom of 
maneuver, and project power globally. It should retain decisive 
overmatch with air, land, sea, and special operations forces and be 
able to operate in degraded space and cyber environments. As such, 
transitioning to this future force will likely involve a greater 
emphasis on ISR, command and control, long range strike, area denial, 
undersea warfare, missile defense, and cyber capabilities. This 
transition will also involve further developing flexible leaders, 
operators, and technicians who are highly proficient and able to fully 
integrate our efforts with our partners from other agencies and other 
countries.
    In addition to maintaining our regular and irregular warfare 
capabilities, we will also continue to rely on secure and stable 
nuclear deterrence. It is also important that we maintain the safety 
and surety of our nuclear forces, even as we seek to reduce them in 
accordance with the Nuclear Posture Review and implement the recently 
ratified New Strategic Arms Reduction Treaty. We need to modernize our 
nuclear force and its supporting infrastructure to ensure that a 
smaller force is nonetheless safe, secure, and effective. Last, our 
missile defense systems should support the stability of our deterrence 
architectures.
    And while we work to reduce, safeguard, and provide confidence in 
our nuclear force and those of treaty signatories, we acknowledge that 
the proliferation of nuclear technology and other weapons of mass 
destruction by state and non-state actors remains one of the most 
significant and urgent worldwide threats. Effectively countering 
proliferation requires strong international partnerships, new 
surveillance technologies, and layered defenses. These are supported by 
ongoing expansion of the Cooperative Threat Reduction Program, 
establishment of a standing joint headquarters for weapons of mass 
destruction elimination, and investments in nuclear forensics 
technology and programs. These relatively small programs can have a 
disproportionately large positive impact on our security.
    Balancing global strategic risk also requires improving our 
capabilities in cyberspace. Today we face a range of threats to our 
computer systems from other states, mercenaries, and even civilian 
hackers, and their ability to wreak havoc cannot be overstated. Lower 
grade cyber threats conducted by organized criminals and talented 
individuals do not necessarily put the Nation at serious risk. But the 
effects of a well coordinated, state-sponsored cyber attack against our 
financial, transportation, communications, and energy systems would be 
catastrophic.
    Though there has been important progress across the government, 
such as the recent release of the International Strategy for Cyberspace 
and the standing up U.S. Cyber Command, more work is needed. Critical 
to Cyber Command's future success will be our ability to recruit, 
train, and most importantly, retain the right people. We must devote 
the same time and attention to cultivating this Nation's future cyber 
workforce as we do to our combat specialists. We must also empower 
Cyber Command and the combatant commands by working with the Executive 
Office of the President and other agencies to develop appropriate cyber 
authorities and by refining our cyber doctrine, tactics, and 
procedures. We will need to engage with NATO allies in the area of 
cyberdefense, as a contributing partner at the NATO Cooperative 
Cyberdefense Center of Excellence in Estonia. Last, we need to actively 
foster public discussion about international observance of cyber space 
norms.
    Balancing global strategic risk requires strong military-to-
military engagement programs. These collaborative efforts engender 
mutual responsibility and include ongoing combined operations, multi-
lateral training exercises, individual exchanges, and security 
assistance. They help demonstrate the United States' responsible 
military leadership in critical regions, reassure our allies, and 
strengthen the international norms that serve the interests of all 
nations. They also foster connections with other governments that 
reinforce our diplomatic channels and have proven critical during times 
of crisis.
    We currently benefit from numerous strong and well appreciated 
military partnerships, such as our North American and NATO 
relationships. For example, at the November NATO Summit in Lisbon, we 
and our allies recommitted to our alliance, ongoing operations, and a 
new Strategic Concept for the next decade. This spring, NATO released 
its Alliance Maritime Strategy and agreed to streamline its Command 
Structure, based in part on lessons learned from ongoing operations 
related to Libya. In Asia, though still underpinned by U.S. bilateral 
alliances, the region's security architecture is becoming a more 
complex mixture of multi-level multilateralism and expanded bilateral 
security ties among states. As the region's military capability and 
capacity increases, we seek new ways to catalyze greater regional 
security cooperation.
    Unfortunately, the global economic downturn is placing pressure on 
the resources of partner nations' security forces. We foresee no 
decrease in the commitment of our partners to us or to any of our 
mutual security efforts, but we must face the reality of less spending 
by our partners on our combined security and stability efforts. Any 
measures we take to strengthen our partnerships, such as the 
Administration's Export Control Reform effort, can only improve our 
collective security.
    We should not engage only with like-minded allies. Military-to-
military engagement, in coordination with other diplomatic efforts, can 
help foster cooperation in areas of mutual interest between nations 
with varying levels of amity. We have seen the fruits of our engagement 
programs in strengthening cooperation in the Middle East, countering 
piracy in the Red Sea and the Straits of Malacca, and countering 
proliferation across the globe. We will seek out military-to-military 
relations even where they have not existed before because sound 
relations can prevent miscommunication and miscalculation that could 
lead to crisis or conflict. In particular, we are nurturing increased 
engagement with China--recently hosting the Chief of the Chinese 
General Staff for the first U.S. visit in 7 years. I intend to 
reciprocate and will visit China in July. China's peaceful, 
constructive rise would have a positive economic and security impact on 
the world, and we encourage continued improvements in transparency to 
ensure that this rise is properly understood. In addition, by 
increasing our military-to-military engagement with China we hope to 
increase understanding and cooperation on a multitude of issues, 
including encouraging North Korea to refrain from further provocation 
and ensuring access to and equitable use of the global commons.
    A significant component of our engagement program is the security 
sector assistance we provide to build the capabilities of our partner 
nations' security forces. These cost-effective programs properly place 
security responsibilities in the hands of other sovereign governments 
and reduce the tactical strain on our own forces by helping to prevent 
conflicts and instability. In many places, across the range of U.S. 
interests, investments in capacity building result in strong 
foundations for the future. These investments are often small but, if 
persistent, can yield a high return. I urge your continued support for 
Theater Security Cooperation programs, Acquisition and Cross-Servicing 
Agreements to lend military equipment for personnel protection and 
survivability (under 1202 authorities), Global Train and Equip 
initiatives (under 1206 authorities), funding for special operations to 
combat terrorism (under 1208 authorities), as well as the many security 
assistance programs managed by the Department of State, including FMF 
and IMET programs.
    However, just as these programs require full funding, they also 
need wholesale reform. Our security assistance structures are designed 
for another era--our authorities are inflexible, and our processes are 
too cumbersome to effectively address today's security challenges in a 
timely manner. I urge your assistance in modifying the laws and 
regulations surrounding security cooperation and assistance to create a 
better coordinated, pooled-resource approach--the Global Security 
Contingency Fund. This approach would create a new business model we 
believe will lead to collaborative programs to respond to emergent 
challenges and opportunities. We should not allow bureaucratic 
resistance to trump operational effectiveness when security sector 
assistance is essential to our national strategy of helping others 
secure and defend themselves.
    On this last point of interagency cooperation, I want to reiterate 
our commitment to comprehensive approaches to our security challenges 
that employ all elements of national and international power in 
coordination. Our future security concerns require a whole of 
government effort, not just a military one, and we serve best when we 
serve hand-in-hand with all of our partners and support, rather than 
lead, foreign policy. As such, we will work closely with the State 
Department and the U.S. Agency for International Development (USAID) to 
support their implementation of the Quadrennial Diplomacy and 
Development Review, particularly in the areas of conflict prevention 
and response. The capabilities and success of our interagency partners 
are inextricably linked to our own. As such, I reiterate my unequivocal 
support to Secretary Clinton and her efforts to fully resource the 
State Department's and USAID's activities and an expansion of its 
diplomacy and development capabilities, particularly in Iraq to support 
the transition from a military to a civilian-led mission. In addition, 
I support interagency cooperation programs and work to expand the 
number of exchanges between the Department of Defense and other 
Executive Agencies to institutionalize an enduring capacity to solve 
global problems using whole-of-government approaches.
                               conclusion
    In the upcoming year, our Armed Forces will build on the past 
year's achievements and continue to provide the common defense our 
Constitution directs with distinct honor and effectiveness. We will 
advance our ongoing efforts and maintain the credibility of our forces 
while learning, adapting, and preparing for new security challenges. We 
know that the military's role in national security will remain 
substantial, and the demands on our servicemen and women will be high. 
However, we also know that we can never let our actions move us away 
from the American people, and that the quality of our work and our 
personal conduct will say far more about who we are and what we stand 
for than anything else we do. In all of our efforts, we will maintain a 
strength of character and professionalism, at the individual and 
institutional levels, that is beyond reproach and continues to be a 
source of pride for our Nation.
    Again, on behalf of all our men and women under arms, I thank this 
Committee, and the entire Congress, for your unwavering support for our 
troops in the field and their families at home during this time of war 
and for our efforts to maintain a strong, agile, well-trained, and 
well-equipped military that can prevail in our current conflicts and 
remain poised to deter or respond to new challenges.

    Chairman Inouye. I'm pleased to note the extraordinary 
attendance of members of the subcommittee. However, as a 
result, I will have to limit the questions and answers to 4 
minutes.
    Secretary Gates, you have made a couple of public 
statements on how to achieve our President's $400 billion 
reduction over the next 12 years. Instead of gutting the 
modernization programs, I know that you would prefer to see 
additional organizational reductions, in addition to changes in 
military pay, retirement, and the healthcare systems.
    Do you wish to elaborate more on these ideas, and any other 
areas that might be reduced?
    Secretary Gates. Mr. Chairman, the four areas that we're 
looking at in terms of how we would come up with $400 billion 
in reductions are, first, as I indicated in my remarks, looking 
for additional efficiencies and changes in bureaucratic 
expenditures, and the way we go about our business, and the way 
we do business on a day-to-day basis. We think there is still 
more money to be extracted out of overhead, but also in 
negotiating contracts on acquisitions, and so on. So, the first 
category is--more cuts in overhead.
    The second category is looking for marginal missions and 
marginal capabilities that can be eliminated. This would be in 
situations where, perhaps, two services have comparable 
capabilities, and we can get by having that capability in just 
one service. Or, there may be missions that we can set aside.
    The third category is the hardest, and it's the one that 
Admiral Mullen and I both talked about in our remarks, and that 
is the comprehensive review to look at what are the options 
that are available in terms of making reductions in force 
structure, and what is the impact of that on the capabilities 
of our forces and our ability to carry out our strategies? And 
how do we adjust our strategies, and how do we evaluate added 
risk by reduced investment in defense?
    One example of this, just to give you the flavor of what 
we're talking about--for many years we have had a strategy of 
being able to wage two fairly major regional conflicts 
simultaneously. If you tell yourself you're willing to accept 
the risk that won't happen, that two conflicts of that 
magnitude would not take place at the same time, but might be 
sequential, if you had to take on two others--then that has 
real impact for force structure.
    I would just note that in terms of assessing risk, between 
2007 and 2009 we, in fact, had two major regional conflicts 
going on simultaneously. So, this is not far-fetched in terms 
of risk.
    The fourth category, then, is, are the issues that, 
frankly, are politically challenging, and that have been very 
difficult for us and for the Congress to take on--working age 
retiree healthcare--and I want to make clear--none of us are 
talking about any impact on healthcare for the active force. 
This is about working-age retirees. Compensation--and 
particularly I would say in that respect, retirement, and 
whether the time has come to look at retirement.
    I think we have two challenges on the retirement side. One 
is about 70 to 80 percent of our force does not stay in the 
service long enough to retire, but they leave with nothing. So, 
if you've served 5 years, or 10 years, or a dozen years, you 
walk out the door with nothing. That doesn't make any sense. 
The private sector is well ahead of us in that respect.
    The second problem is, we get a lieutenant colonel or a 
sergeant first class with 20 years of service--they are at 
their peak, we are at their, they are at their prime--and we 
make it financially silly for them not to retire at 20 years. 
How do you incentivize them to give us another 5 years of 
service? I don't pretend to have the answers to these 
questions, but they are issues that I think we need to address 
both in terms of what's good for the force, but also in areas 
where we could save some money.
    So, those four areas, Mr. Chairman, are the areas that we 
are looking at in terms of how we can find this $400 billion.
    Chairman Inouye. I thank you very much.
    Senator Cochran.
    Admiral Mullen. Mr. Chairman, could I just make two brief 
comments?
    Chairman Inouye. Please.
    Admiral Mullen. First of all, not unlike the Government 
itself, where the Defense Department has roughly one-half of 
the discretionary spending, inside our budget, a little more 
than one-half is discretionary. And so, while we look at 
reductions in the future in where we would take the funds, 
there are obligations that we have that we just fundamentally 
have to fund as we transition to whatever this new budget 
environment is going to be for us.
    And then, second, if we don't come to grips with some of 
the most difficult issues, it is as clear as anything to me 
that the only answer is--we're going to get a lot smaller with 
a chance we could go hollow. We will give us force structure to 
sustain these benefits, to do all those things. And that, I 
think, is very dangerous in the world that we're living in, to 
meet the national, the growing national security requirements 
that I see.
    Chairman Inouye. Thank you very much.
    Senator Cochran.
    Senator Cochran. Mr. Chairman.
    Mr. Secretary, let me ask, in view of the situation in 
Libya, are we learning something about the ability of our 
allies, who volunteer to try to take up the slack in situations 
where we're not moving forward and trying to run a military 
operation? What are we learning from their capabilities or 
inadequacies that give you the most concern?

                      DEFENSE BUDGET CUTS AND NATO

    Secretary Gates. Well, I addressed this last week in 
Brussels in my usual subtle form.
    The reality is that, as they cut their defense budgets, and 
have been--have not been investing in their defense 
capabilities for a number of years, by default, the additional 
burden falls on the United States. So, I think that there is a 
genuine worry that our allies have looked to us to pick up the 
slack, as they cut their defense budgets. And the message that 
I had for them in Europe last week was that a, because of our 
financial problems--and, frankly, a growing number of Members 
of Congress who, for whom the cold war and our connection to 
Europe and to NATO are not in their genes, as they are for me, 
are going to be unwilling to pick up 75 percent of the defense 
burden of the NATO alliance.
    So I think this is a serious problem. It's been a problem 
for some years. But, I think our own financial difficulties, 
and what we're now going to face in looking at the American 
defense budget, brings this issue to center stage in a way that 
it really has not been in the past.
    Senator Cochran. Admiral Mullen, on the same subject, what 
affect does that specifically have on our ability to project 
power to other regions of the world--the Far East, for example, 
areas where we have been involved in actual combat operations, 
the Vietnam era, and what that brings in terms of expense of 
operations and training of our forces? Can you give us an 
assessment of the direct impact on the U.S. Navy?
    Admiral Mullen. Well, I share the Secretary's concerns and 
views with respect to the investment, or, the dramatically 
decreased investment in our NATO partners, or, by our NATO 
partners.
    The affect, or, one of the affects that it's had is, it's 
certainly, they don't have the depth, the resources in some 
cases, to do what their political leadership has directed them 
to do. Although, I also would say that, both in Afghanistan and 
in Libya, NATO is more together than I've seen, in terms of 
commitment, over the course of the last 10 to 15 years. And, 
while they do get criticized, they also stood this operation up 
in incredibly quick fashion. We hadn't operated an air, had an 
air operation like this in a long time. And from my 
perspective, they have executed that well. The resources to do 
it is something we're watching very carefully. And they are, in 
some ways, dependent on us.
    The other thing is, for countries who recently did their 
own strategic review, they found themselves getting rid of 
capabilities that, now that they're in a combat environment, 
they're giving second thought to that. Combat has a way of 
bringing that kind of reality to them--which just argues, for 
me, that we and others have to be very careful in our review, 
given the world that we're living in, about what capabilities 
we decide to either get rid of or trim back.
    Longstanding--where we are right now--and in particular, I 
mean, as you talk about the Western Pacific, Senator Cochran--
we're, we've got tremendous relationships with the Japanese, 
with the Republic of Korean military, we have had with our 
Australian friends, as well as growing relationships with the 
Association of Southeast Asian Nations (ASEAN) countries. And 
so, I'm actually pretty comfortable with where we are right 
now. We've got overseas home-ported forces--as you know, both 
marines and Navy--in fairly significant numbers in that part of 
the world. And that makes a long, a lot of difference in terms 
of stability.
    The pressure over time, though--it gets back to what I 
said--is, if we get into this force structure--part of us, in 
terms of the defense review--and have to reduce our force 
structure, there will be pressure there, which in the long run, 
I think, will start to undermine stability in a place like 
that.
    Chairman Inouye. Thank you.
    Senator Shelby.
    Senator Cochran. Thank you, Mr. Chairman.
    Senator Shelby. Thank you, Mr. Chairman.
    Mr. Secretary and Admiral Mullen, thank you for your 
service.
    Mr. Chairman, I'd like for my opening statement to be made 
part of the record.
    Chairman Inouye. Without objection.
    [The statement follows:]

            Prepared Statement of Senator Richard C. Shelby

    I want to join the Chairmen in thanking both of you for 
your years of dedicated public service. Mr. Secretary, the 
title of a recent book describes the job you will soon be 
vacating as ``nearly impossible.'' Yet, you managed to take the 
helm of the Pentagon at one of the most difficult times in our 
Nation's history and succeed beyond all expectation. You 
successfully prosecuted a war in Iraq that many had assumed was 
lost. You have helped to oversee a surge in Afghanistan that, 
we hope, is turning the tide there, as well. Perhaps even more 
importantly, you have launched a much-needed battle to control 
defense spending in a responsible way that will help reduce our 
national debt while preserving our national security. All of 
these things you have accomplished while retaining the full 
confidence of two very different Presidents and the United 
States Congress. We all are duly impressed by your 
accomplishments, and owe you a sincere debt of gratitude for 
your service.
    Admiral Mullen, you assumed the Chairmanship in 2007, also 
under very difficult circumstances, and have acquitted yourself 
admirably in the post. I have been most impressed by your 
powerful advocacy on behalf of those who wear the uniform. You 
have spoken repeatedly about the strains on the force from a 
decade of persistent conflict, and about the need to care for 
those who have been wounded, physically or psychologically, 
defending our Nation. You have also, properly, placed our 
financial stability on the table as a fundamental issue of 
national security. All would do well to remember your words as 
we try to get our debt under control. Many thanks to you for 
everything you have done for this country.

                 NUCLEAR WEAPONS MODERNIZATION PROGRAMS

    Senator Shelby. Mr. Secretary, last year you transferred 
about $6 billion of your budget authority to the Department of 
Energy to pay for nuclear weapons modernization programs 
because, as I understood it, you're concerned about the neglect 
that had befallen the U.S. nuclear deterrent.
    How concerned are you, now that the House is considering 
appropriations legislation that we would cut the program by 
almost 10 percent from what the President requested and what 
you've already paid for out of your own very tight budget? And, 
what are the implications of failing to fund the modernization 
program here?
    Secretary Gates. Well, I'm very concerned. And, as I 
recall, the actions taken by the House cut about $1 billion 
from this modernization program.
    This modernization program was very carefully worked out 
between ourselves and the Department of Energy. And frankly, 
where we came out on that, also, I think, played a fairly 
significant role in the willingness of the Senate to ratify the 
new START agreement.
    So, the risks are to our own program, in terms of being 
able to extend the life our weapons systems; to modernize 
them--not in the sense of capability, but in terms of security 
and reliability. And this requires new construction. We have a 
lot of buildings at Los Alamos that date from the Manhattan 
Project. And so, this modernization project is, in my view, 
both from a security and a political standpoint, really 
important.
    Senator Shelby. Mr. Secretary, in my short time--missile 
defense. I understand that the Defense Science Board has 
compiled a report on the concept of what we call Early 
Intercept for Missile Defense, and the report's unclassified 
conclusion is that the Missile Defense Agency (MDA) plans to 
achieve an early intercept capability as part of the phase-
adaptive approach are simply not credible. This is disturbing 
to some of us, since MDA's promise to develop by 2020 an early 
intercept capability for the SOME-3 Block IIB was the central 
justification, as I understood it, of, to cancel the third site 
in Europe and to kill the KEI boost-phase defense program.
    Now it looks like the Nation may be left without an 
inadequate--with an inadequate defense in Europe, and no boost-
phase intercept capability.
    Is the Department re-examining the phase-adaptive approach 
in light of the Defense Science Board? And should the 
Department be looking at ways to use funding currently 
programmed for this SOME-3 Block IIB, to improve the GMD 
system, or, to evolve more rapidly?
    What's your thoughts on that?
    Secretary Gates. We have resources in the 2012 budget to do 
both. To fund----
    Senator Shelby. That's good.
    Secretary Gates [continuing]. The phased-adaptive approach, 
and to strengthen the ground-based interceptor (GBI) program. 
The 2012 budget buys 52 GBIs, both for deployment and for test 
purposes; it makes investments in upgrades to long-range radars 
in Greenland and the United States and Canada.
    We also have money for developmental work in terms of other 
kinds of interception of ballistic missiles. But, I believe 
that the balance between the ground-based interceptor system 
and the money we are investing in that, plus the money that we 
are investing in the phased-adaptive approach--first of all, 
the latter will give us a missile defense capability several 
years earlier than would have been the case with the third site 
in Europe. And, let's be blunt. The third site in Europe was 
not going to happen, because the Czech Government wouldn't 
approve the radar.
    Senator Shelby. Sure.
    Secretary Gates. And so, if it was going to happen at all, 
it would have taken years longer. And we still hadn't 
negotiated the required agreements with the Poles in terms of 
the interceptors. So, I think that the balanced approach 
between the GBIs, the phased-adaptive approach, and the 
developmental work we have underway, plus the additional half 
billion dollars we've added to the budget for fiscal year 2012, 
puts us in a pretty good place on missile defense.
    Senator Shelby. Admiral Mullen.

                            MISSILE DEFENSE

    Admiral Mullen. Just very quickly--and while I am not 
exceptionally close to it in this job, I've been around missile 
defense for the last 15 years--and, the whole issue of boost-
phase intercept is an extraordinarily difficult technical 
challenge. And, at least, if someone's broken through on that, 
I haven't seen that. It doesn't mean we shouldn't seek it, but 
I've seen an awful lot of efforts go after that. And I was very 
supportive of the program adjustments that we made--
particularly with respect to that, because I thought, my view 
was, I thought we were throwing good money after bad.
    Second--and I haven't seen this report, I'll take a look at 
it. And I certainly, I would not, without, push back on it. The 
only thing I can say is, the path through the standard missile 
is the most well-developed, robust, reliable path over time, 
with respect to developing missile defense. And it's, we're 
still almost a decade away. And I have confidence that we can 
continue to pursue that path. It's an incredibly well-tested 
system. The missile you're talking about, I know, doesn't exist 
yet. But, it's a path that----
    Senator Shelby. But it could exist, couldn't it?
    Admiral Mullen. Huh?
    Senator Shelby. It could exist.
    Admiral Mullen. No, I think--yes, sir. I think we can get 
there in that timeframe, based on my understanding.
    Senator Shelby. Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman.
    I want to join the others who have thanked you for the 
extraordinary service you've both shown to this country. You 
came to your roles at very challenging time.
    Admiral Mullen, I appreciate our friendship, and your trip 
to Vermont, you and Mrs. Mullen, when you joined Marcelle and 
me up there to meet with our troops when they were deploying.
    Secretary Gates, I've told you before, but I'll say it here 
publicly. I've enjoyed our friendship of, it must be about 30 
years now.
    With that said, unfortunately there's one issue we don't 
all agree on, and that's the war in Afghanistan. I think like 
most Americans--certainly most Vermonters I talk with, and an 
increasing number of Members of Congress--I think we have to 
dramatically accelerate our withdrawal of troops from that 
country.
    I supported going into Afghanistan for the purpose of 
getting Osama bin Laden after 9/11. And the subcommittee and 
all of us here on the Appropriations Committee have been 
strongly supportive of that.
    I did not support the invasion of Iraq, which distracted us 
from that goal. Iraq had nothing to do with 9/11, and we'll be 
paying for this cost for years to come. We borrowed the money 
to go into that war. It's an extraordinary thing in a war--to 
borrow the money. We're still borrowing the money. At the same 
time, we gave a tax cut for anybody who makes as much as a 
Member of Congress. So, what we said was, we'll let our 
children and our grandchildren pay for these two wars.
    I don't think we can continue to sacrifice so many lives 
and spend billions of dollars a week in a war with no end. I 
think we have to identify achievable goals in Afghanistan. I 
think we have to reduce our military footprint there.
    And then we look at Pakistan. Well, just this morning we 
see word that our putative ally arrested five people on the 
suspicion that they helped the United States to get Osama bin 
Laden. After publicly saying, of course, they wanted us to get 
Osama bin Laden, they arrested people who helped us get him.

                           AFGHAN GOVERNMENT

    Now, we could overlook the problems probably in Pakistan if 
the Afghan Government was any better, but we have President 
Karzai, who can't seem to make up his mind if he's on our side 
or the Taliban. We support them with our tax dollars when at 
the same time we say we've got to privatize Medicare, 
eviscerate education funding, shred social safety net here in 
this country, and stop all the investments that might make our 
industries more competitive.
    It's not a criticism of our military--I've visited them 
there. They are performing extraordinarily well, under very 
difficult circumstances. But, how long do we support 
governments that lie to us? When do we say enough is enough?
    Secretary Gates, I'll start with you.
    Secretary Gates. Well, first of all, I would say, based on 
27 years in the CIA and 4\1/2\ years in this job, most 
governments lie to each other. That's the way business gets 
done.
    Senator Leahy. Do they arrest----
    Secretary Gates. And we ought to----
    Senator Leahy. Do they also arrest the people that help 
us----
    Secretary Gates. Sometimes.
    Senator Leahy [continuing]. When they say they're our 
allies?
    Secretary Gates. Sometimes.
    Senator Leahy. Not often.
    Secretary Gates. And sometimes they send people to spy on 
us. And they're our close allies. So----
    Senator Leahy. And we give aid to them.
    Secretary Gates [continuing]. I mean, that's the real world 
that we deal with. But I would tell you this. First of all, 
this is not a war without end. The Lisbon Summit has made clear 
that the transfer to Afghan security responsibility and 
leadership will be complete not later than the end of 2014. 
Troops will be coming down during that period. The costs of 
these wars is coming down dramatically. The costs of these wars 
will drop between 2011--fiscal year 2011 and 2012 by $40 
billion, and between 2012 and 2013 probably by several tens of 
billions of dollars more.
    And I asked the question--first of all, I think the 
prospects of having a more stable Afghanistan, in terms of a 
country that can defend itself--I'm not talking about a Vermont 
democracy here, but a country that can defend itself----
    Senator Leahy. Neither am I, Mr. Secretary, and you know 
that.
    Secretary Gates. I know. But what I'm talking about is, we 
are not in the business of nation building. What we are trying 
to do is build the Afghan National Security Forces to the point 
where they have the ability to defend that country, and so that 
the Taliban and Al Qaeda cannot reconstitute themselves in that 
country. And I think we are making considerable headway in that 
respect.
    So I think that--I know people are frustrated. The 
country's been at war for 10 years. I know people are tired. 
But people also have to think in terms of stability and in 
terms of the potential for reconstitution. What's the cost of 
failure?

                                PAKISTAN

    Senator Leahy. Do you want to add to that, Admiral Mullen?
    Admiral Mullen. What I would talk about, I think, in this, 
Senator Leahy, and you know I've talked about this many times, 
is Pakistan. And we are in the midst, and have been, of trying 
to, in the middle of this war, with threats that they have in 
their territory, trying to build a relationship that was badly 
broken when we left the last time, when we terminated our 
relationship with them in the late 1980s and early 1990s. And 
we are back. And it's actually my belief that if we--if we were 
to do that again, it may not be 5 years or 10 years, but we'll 
be back in a much more difficult situation. And so seeking to 
support stability in that part of the world to the degree that 
these two countries can evolve is, I think, a goal that we must 
continue to pursue--or the danger associated with a country 
that's got a nuclear arsenal, that is an--that lives next to a 
country that they view as an existential threat, it's just a 
matter of time before we're back.
    So I don't--I don't push back on the challenge associated 
with it. Some of the criticism is more than warranted. Nobody's 
worked that harder than me, very frankly, with the leadership. 
And it's a--it's a conscious decision I think that we have to 
make. And if we walk away from it, it's my view it'll be a much 
more dangerous place a decade from now, and we'll be back.
    Chairman Inouye. Thank you very much, Senator.
    Senator Coats.
    Senator Coats. Thank you, Mr. Chairman.

                        RUNAWAY DEBT AND DEFICIT

    I can't speak for other States, but I can speak for the 
people of Indiana, who are grateful for your lifetime of 
service--not only commitment to public service, but execution, 
brilliantly, in your jobs. You've been a model for us. And I 
thank you, and I know the people of Indiana thank you.
    Second, I would like to, I guess, just reaffirm that, 
Secretary Gates, your statements about one of the greatest, if 
not the greatest, threat to our future security is a runaway 
debt and a trillion dollars deficit on an annual basis, and 
that, if that is not addressed, even the difficulties and scale 
back of, ability to respond to challenges around the world that 
won't go away, are potentially reduced--that's nothing in 
comparison to the strains and stresses that will be placed on 
our ability to do that in the future if we can't get ahold of 
this runaway debt and deficit. So, that ever shrinking part of 
the pie that goes to discretionary and defense spending is 
going to keep shrinking if we don't deal with mandatory 
spending. And I appreciate you speaking out on that basis.

                            HEALTH RESEARCH

    A question that I have goes to where possibly we can get 
some savings. I note that the House Appropriations Defense 
Subcommittee passed out a bill which includes research on a 
number of health issues: $223 million cancer research, $125 
million for traumatic brain injury, $30 million for orthopedic 
research, $15 million for restoration of health research.
    I'm just wondering, are there savings that--that's $393 
million. That's a long way from $400 billion, but it's a fairly 
good chunk of money. Are there savings possible in that 
category where there is duplicative research, paid for by 
Government or conducted by the private industry, which 
addresses the very same issues?
    In the past, Defense has kind of been a go-to place for 
health research that, in many cases, is duplicated elsewhere. 
For instance, orthopedic research. I mean, our State is the 
leader of the world in orthopedic research. Some of the, all 
the leading technology and so forth comes out of the private 
sector for that. I don't know exactly what the military does in 
addition to that, but, I guess the question is, are there 
places like that we can get some--you know, I know it's the 
holy grail not to touch anything having to do with health of 
service members. I'm not suggesting that. I'm simply saying 
there may be some duplications there that we ought to be 
looking at.
    Secretary Gates. I think, you know, any of these things are 
worth looking into in detail. But, and I can't speak to the 
cancer piece of it, but I will say this--I think that we have 
funded some of the leading research being done in the country 
on traumatic brain injury, and probably also on prosthetics, 
and almost certainly on post-traumatic stress. The Congress has 
given us quite a bit of money in those areas in particular. And 
I would argue that, in terms of the practical applications of 
those things, as opposed to pure research, that those funds, I 
think there would be a strong bias to keeping those in the 
Defense budget, because we have a very direct interest in 
making sure that there is progress in, particularly, those 
three areas, because those are the areas in which our service 
members are suffering the most in these wars.

                                  NATO

    Senator Coats. I'll accept that.
    I've got 4 seconds left, so a quick yes or no. Is a 
hollowed-out NATO worse than no NATO? The reality that NATO 
just is not stepping up to its responsibilities--we're going to 
have to do it all anyway?
    Secretary Gates. Well, I would say that a NATO that has 
reduced capabilities is still better than no NATO at all. And, 
I'd just add one point to the chairman's comment--to Admiral 
Mullen's comment earlier. One of the things that has happened 
to our allies is that they really have stepped up in 
Afghanistan. But, the result of that has been that the costs of 
their participation in Afghanistan has brought further pressure 
on the modernization budgets of those European countries. And 
so, it's contributed to their overall narrowing of military 
capability, but partly it's because of the contribution that 
they've made in Afghanistan.
    Senator Coats. Thank you.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you very much.
    Senator Mikulski.
    Senator Mikulski. Mr. Chairman.
    Secretary Gates, Admiral Mullen, again, like all of my 
colleagues, thank you for your service. I think the enormous 
turnout of members, and also the fact that we're actually 
staying--staying longer than you--is a tribute, really, to the 
high regard that we regard your service, and your service, 
Admiral Mullen. So, we want to thank you for it from the 
incredible job that you've done keeping America safe, your 
strong support for the military, your many trips to actually 
get out of Washington and listen to the troops and talk to our 
allies.
    And for me, one of the special things was the way--always, 
always, will be the way you responded unflinchingly with the 
Walter Reed scandal, in the way you took ownership, the way you 
ensured accountability and responsibility and corrective 
action. And I want to just thank you for that.
    And I've just watched you with the troops, not only in 
uniform and so on, but in things like the Army-Navy game, where 
you mingled with them. And the wounded warriors had such access 
to you, and the way that they felt that they could approach you 
and talk to you, and the warmth and regard you have. So, I 
think that's what a real inspirational leader is, which is the 
difference in management.
    But let me tell you, your trips, your farewell trips and 
speeches you've given, have been eyebrow-raising, jaw-dropping, 
and for me, a must-do list, from the Eisenhower Library speech 
in which you called for major fiscal reform, to the most recent 
one at NATO. You've dropped more bombs in some of these than 
the Air Force.
    But, let me get to my questions. I'd like to, really, 
follow up on, really, the questions raised about NATO. And many 
of this will have to be done with your successor. What is NATO? 
What are we going to require of NATO members? What actions 
should NATO undertake? When we ask for a coalition of the 
willing, we're going to need a coalition of the capable. Or, 
are we ever going to ask that again?
    But, let me go to something very specific, because those 
are big policy questions to be sorted out. I wonder what your 
thoughts are on an overseas base closing. And, is this the time 
where we look at the major policy and make sure we don't have a 
hollowed-out NATO? Is it time to have an overseas base closing, 
where we bring a lot of assets home, close assets, and so on? 
What would be your thought on that? Because, I think we spend 
about, the President's Commission on Deficit Reduction said we 
could save about $9 billion in that area.
    Secretary Gates. Well, first of all, any overseas base 
reductions will necessarily--first of all, just the practical 
thing--overseas base reductions would require Milcon here in 
the United States, so there would be--at least in the beginning 
it would be more expensive to bring them home than to leave 
them where they are, because they have facilities already 
built. And we do get support from the Germans, the Japanese and 
the South Koreans in supporting those facilities.
    Senator Mikulski. I'm not advocating closing all bases----
    Secretary Gates. I understand.
    Senator Mikulski [continuing]. But that kind of scrub we do 
here.
    Secretary Gates. Well, we've just been through that in the 
Department of Defense, and it's now working its way through the 
interagency in terms of an assessment of our global posture and 
our presence in a lot of these different places. Secretary 
Clinton and I will meet with the Japanese the first of next 
week in our periodic two-plus-two meetings to talk about 
Okinawa and Guam, and Japan, and the force presence there.
    I think that the biggest policy question that I think has 
to be asked is--what kind of a signal do you want to send the 
rest of the world, in terms of America's role in the world? 
And, if we, at the same time, we're cutting our Defense budget, 
and we cut our State Department budget, and State has fewer 
assets to deploy abroad, we have fewer assets to deploy abroad, 
and then we begin to close one or another foreign base, are we 
basically sending the message to the rest of the world--and, I 
would say, to China, to Iran, to North Korea, to a variety of 
other places--the United States is closing up shop and going 
home, and we're headed toward Fortress America again?
    So I think this, as I leave, I think this is a huge 
question for the country to consider, and for you to consider, 
is, what kind of a role do you want for the United States in 
the world? And frankly, I believe, for example, our presence in 
Europe, if--one of the benefits it has brought, in addition to 
the financial benefit of having troops be able to rotate from 
Germany into Iraq and Afghanistan at, actually, less cost than 
from here--but, one of the things it has brought is, if 
anything, it has slowed, I think, this deterioration of the 
NATO military capabilities.
    Senator Mikulski. Because we're there----
    Secretary Gates. Because we're there and we train----
    Senator Mikulski [continuing]. They feel we're glued 
together?
    Secretary Gates. We train with them and we work with them. 
And they have to have capabilities that match us when we're 
doing that.
    Senator Mikulski. Mr. Chairman, may Admiral Mullen respond?
    Admiral Mullen. Just very briefly--and maybe it's just 
because of my roots, and I'm a Navy guy--there's just nothing 
like being there. And you can be there a couple of ways. You 
can live there, or you can rotate there. And what I have found 
in our relationships--I just came back from Egypt, and we've 
had a long relationship with Egypt--but, the mil-to-mil 
relationship we have with Egypt is different than the one we 
have with Japan, because we live with Japan. We interact with 
their families. We know the Japanese people in ways that we 
just don't know other countries. The same is true in Germany. 
The same is true in the Republic of Korea. Extraordinarily 
strong relationships. When we are in a crisis, we can use those 
relationships, I think, to prevent a crisis, or prevent 
escalation.
    So, I don't know if--I certainly wouldn't say that it isn't 
worth a scrub. I just think the presence piece of this is so 
powerful in so many ways, and it's enduring, and it prevents 
conflicts in ways that sometimes we don't think about in the 
short term, when we're looking for savings in moves. It's not--
our investment is significant. I understand that. And, worth a 
scrub. I just think we really need to be careful.
    Senator Mikulski. Thank you.
    Chairman Inouye. Thank you.
    Mr. Kohl.
    Senator Mikulski. Mr. Chairman, I just want to, if I could. 
If I could submit questions for the record, both in terms of 
military health care and, quite frankly, in the follow-up, in 
the undersecretary of acquisition, technology and logistics. 
That's $400 billion. The House is dragging its feet. They've 
reinvented earmarks. And I'd like to have, maybe, three to five 
items out of that area, where you think we should definitely 
stay the course in reducing our expenditures.
    And, I hope somewhere we can get a chance to ask his 
opinion on the House and earmarks.
    Chairman Inouye. We will discuss that.
    Senator Kohl.
    Senator Kohl. Thank you, Mr. Chairman.

                              AFGHANISTAN

    Secretary Gates and Secretary Mullen, we thank you for 
being here today, and we congratulate both of you on a job well 
done. Your leadership has been critical to the progress that 
we've made in Afghanistan, Iraq, and in the global war on 
terror, most recently the death of Osama bin Laden.
    In light of this progress, many Americans are hoping that 
our forces can soon come home from Afghanistan after a decade 
of war. I share this desire to begin withdrawing our forces 
from Afghanistan, beginning with a sizable and sustained 
reduction in forces this summer.
    I'd like to ask both of you about the government of 
Afghanistan and President Karzai. President Karzai seems 
increasingly hostile to the American presence in Afghanistan, 
and his government, as we know, is plagued by corruption.
    My first question is whether you see President Karzai 
playing a positive or a negative role in Afghanistan.
    But I'd also like to hear from both of you about what comes 
after Karzai. Presumably he'll not be President forever. What 
kind of relationships are we building with Afghan leaders from 
other political parties and ethnic groups, both in power, as 
well as in the opposition?
    Mr. Secretary.
    Secretary Gates. Well, first of all, I have spent a lot of 
time with President Karzai over the last 4\1/2\ years. Frankly, 
I think that we have often not done a very good job of 
listening to President Karzai. The problems that he often 
raises in public are problems that he has often raised with us 
1 year or 2 years before in private. And, I'll give a perfect 
example--and that's private security companies. This became a 
crisis in our relationship late last year. We've worked our way 
through it, and he has participated in working his way through, 
in our working our way through this.
    But we knew from Iraq that private security companies are a 
problem in these countries, and we should have begun this 
transition to Afghan oversight of these companies a long time 
ago. So, my point is--yes, he reacts publicly to things that 
are done and said. He's very sensitive to civilian casualties. 
This has been a continuing theme. It's not a surprising theme. 
But, I think you would find, if you talked to our commanders, 
if you talked to the people that I talk to, he is somebody who 
understands the campaign plan, who understands the importance 
of our role, who wants a long-term U.S. relationship with 
Afghanistan after he's President. He told me he plans to step 
down in 2014.
    I will tell you, both our military people and our diplomats 
are in touch with a very broad range of Afghan leaders--and not 
just in Kabul, but all around the country.
    And finally, on the governance side, I would just say, at 
the NATO Defense Ministers meeting late last week, the NATO 
senior civilian representative, Ambassador Gass, reported 
that--he had just gotten back from Afghanistan--75 percent of 
deputy district governors now in Afghanistan are chosen on the 
basis of merit. And he told the defense ministers further that, 
as the provincial governors change, the quality is steadily 
improving.
    So, I think you have the Kabul environment, and you have 
the outside of Kabul environment. And, frankly, it's a lot 
better outside Kabul, in terms of what's going on around the 
country and in terms of governance, than is often reported.
    But it's a relationship from, where we're dealing with a 
President whose country has been at war, like us, for 10 years. 
And, he is very sensitive to the fact the Afghans are exhausted 
with war, too. And so, I find that, when I sit down with 
President Karzai, we have a very productive conversation. And 
it's clear that he buys into what we are trying to do, and that 
we are allies, not occupiers. And he also does see a post-2014 
relationship with the United States going forward.
    Senator Kohl. Admiral Mullen, any comments?

                          SECURITY ENVIRONMENT

    Admiral Mullen. The only thing I'd add is, as the security 
environment continues to improve--and I'd reemphasize what 
Secretary Gates said in terms of what we're seeing on the 
ground--in subdistricts and districts and provinces, it's 
getting better from a governance standpoint which, between 
security and governance, gets you to a point where you can 
start to develop the areas, which is really what the Afghan 
people care about. They're tired of war.
    There is this disparity between Kabul and what we see 
locally throughout the country. And we have to continue to 
engage. This is the elected leader of a country we're heavily 
engaged in, or, with. And, we can't do it without decent 
governance. We can get the security pieces necessary, but it's 
not sufficient, and we have to continue to push on better 
governance, the reduction of corruption, and the development 
piece of this. We're just getting to point, from my 
perspective, in the south, where security has gotten to a point 
where those other pieces can really start to kick in. We're not 
there throughout the country. But, from an overall proof of 
concept, if you will, that this approach is having the impact 
we thought it would, we're there.
    Secretary Gates. The other, one other point I would make 
is, having talked about the rest of the country being better in 
some respects than Kabul, in another respect, Kabul is a model, 
because the Afghans have had the security lead in Kabul for 
over a year now. And that's the transition we're trying to make 
throughout the rest of the country on a district-by-district, 
province-by-province basis. And at this point, about 25 percent 
of the Afghan population live in areas that are now under 
Afghan security lead.
    Senator Kohl. Thank you.
    Chairman Inouye. Thank you.
    Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, Admiral Mullen, for extraordinary 
public service.
    Mr. Secretary, for the historical record, for young people 
who may be planning a career in public service, what's better 
preparation for Secretary of Defense--president of a big 
university, or director of the CIA?
    Secretary Gates. President of a big university.
    As you well know.
    Senator Alexander. Yeah.
    Mr. Secretary, how many, about how many military men and 
women do our European allies have?
    Secretary Gates. About 2 million in uniform.
    Senator Alexander. About how many are available to be 
deployed in an exercise like Libya or Afghanistan?
    Admiral Mullen. I would guess, Senator Alexander, it would 
be in the 10 to 15 to 20 percent in terms of----
    Senator Alexander. Twenty percent?
    Admiral Mullen [continuing]. Any single time. But that 
number can be very deceptive because, for all of us, we find 
out--we have 2.2 million men and women Active and Reserve, and 
we have about 250,000, almost 300,000 people deployed around 
the world right now. And we're going at a pretty good clip.
    Senator Alexander. I thought I'd had heard somewhere that 
they might only have 25,000 or 40,000 troops available for----
    Secretary Gates. What you heard was in my speech last week, 
where I said they'd struggled to maintain 25,000 to 40,000 
troops in Afghanistan.
    Senator Alexander. Mr. Secretary, in the gulf war, the 
first Iraq war, if I remember correctly, other countries paid 
for a large part of that. How much of that did they pay for?
    Secretary Gates. Virtually all.
    Senator Alexander. Yeah. In the Iraq, Afghanistan, and 
Libya war, how much have other countries paid for?
    Secretary Gates. Well, the other countries are essentially 
paying their own way, in the sense of they're paying for their 
own airplanes, and they're paying for their own munitions, and 
things like that.
    Senator Alexander. But, the United States is paying for 
virtually all of Iraq, Afghanistan and Libya. Is that right?
    Secretary Gates. Well, not Libya. But, we certainly have 
paid the bulk of the money in Iraq and Afghanistan.
    Senator Alexander. And was your testimony that, in NATO, 
the United States is supposed to pay what percent of the costs? 
And what percent do we actually pay?
    Secretary Gates. Well, the line that I had was that, up 
until about, well, until the end of the cold war, we paid about 
50 percent of the military costs of the alliance. Since the 
cold war, that has--since 1991, that has risen to about 75 
percent of the total military expenditures in NATO.
    Senator Alexander. Is there a lesson for this President and 
future Presidents, this Congress, as we look back at the gulf 
war and as we prepare for any future military action, that we 
might keep in mind not just getting approval of other countries 
for the, agreeing that we ought to take the action, or to join 
with us and take the action, but to do as was done in 1991 and 
1992, to actually get their commitment to help pay for it?
    Secretary Gates. Well, I think you, we can look at that two 
ways. One is, the answer is absolutely yes. One of the things 
that I pointed out last week at the NATO Defense Ministers 
meeting is that the trust fund to support the Afghan national 
security forces going forward is, in terms of the dollars or 
Euros that have been contributed, is a joke, because it's about 
350 million Euros at a time when the United States is spending 
billions of dollars to support the development of those 
military forces. So, one of the things that I have talked to 
all of our allies about is the fact that it's imperative for 
them to contribute to that trust fund.
    On the other hand, the circumstances of the gulf war were, 
I think, unique, in the sense that the countries we were 
dealing with that felt the most threatened were Kuwait, Saudi 
Arabia, the gulf states and so on. I will tell you that, sort 
of looking back, the two people who led the groups, the teams 
going around to talk to our allies about their contributions 
were led by Secretary of State Baker and Secretary of Treasury 
Nick Brady. And, somehow through the luck of the draw, Baker 
ended up with Saudi Arabia, Kuwait, the gulf states, and so on, 
and Nick Brady had to go talk to the Japanese, the Germans, and 
others. And, let's just say, Nick wasn't nearly as successful 
as Jim was.
    Senator Alexander. Thank you, Mr. Chairman.
    Chairman Inouye. Thank you very much.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Secretary, since this is your last hearing, it seems 
ungracious to do anything except thank you and heap praise upon 
you for your service. But since you're before a group of 
senators, of course, while we'll do that, we'll also ask some 
questions. But, I do sincerely thank you for a lifetime of 
public service that has made an extraordinary difference to our 
country, and to our troops, in particular.
    I'm very concerned about the $400 billion that the 
President has assigned the Department of Defense for additional 
cuts. You have already made a tremendous effort to squeeze out 
waste and inefficiency, and to reduce unnecessary spending. I'm 
concerned that we could end up with the kind of hollow force 
that you've warned us against, and that was so devastating to 
our troops, and our security, potentially, in the 1970s, and to 
a lesser extent, two decades later.
    Were you consulted by the President or OMB on the size of 
the target--that $400 billion that has been assigned to the 
Department of Defense?
    Secretary Gates. I was informed about it the day before it 
was announced.
    Senator Collins. My concern, Mr. Chairman, is, I believe 
that military requirements have to drive the budget, and not 
the other way around. And----
    Secretary Gates. I will say this, though, Senator. When I 
was informed, I did get immediate agreement that this--before 
any specific budget decisions were made--this comprehensive 
review that the chairman and I have been talking about, would 
be carried out, that we would present options to the President 
and to the Congress that shows relative levels of risk of 
different kinds of cuts and changes in the force structure. So, 
there was agreement immediately to that review before specific 
decisions were made.
    Senator Collins. Thank you. It still seems backwards to me, 
as far as the targets given. You're going to assess the risk of 
various scenarios to meet the target, but that, to me, is the 
opposite of the way we should be proceeding.
    Admiral Mullen, let me switch just quickly to Libya, and 
ask you a question. I personally have a lot of concerns about 
our involvement in Libya and the transition from it being a 
humanitarian exercise, to the goal of having Colonel Gaddafi 
leave and relinquish power.
    Let's assume that that does happen, that Colonel Gaddafi 
does give up power. The Transitional National Council is made 
up almost exclusively of the eastern Libyans, I'm told. And I 
believe it's a real question, whether or not that council could 
effectively govern the country, given the intense regional 
rivalries and tribal nature of Libyan society. But also, I'm 
concerned that we're not really certain who we're dealing with.
    Do you feel confident that we have a plan for what we would 
do post-Gaddafi?
    Admiral Mullen. Just having come out of both Egypt and also 
Europe last week, I'm actually encouraged that there are 
countries and organizations, NATO being one, that are very 
specifically looking at--What after Gaddafi? Because I think we 
need to do that.
    I'm more encouraged, more confident that the more we learn 
about the TNC--and in fact, I also see them now linking to the 
West more than they had in the past--that there are, you know, 
civilian leaders and military leaders who recognize the 
challenge that you just described.
    What I don't, or, I just haven't seen yet, is the kind of 
comprehensive collective view of how they would run the 
country. I think they recognize that internally. Their focus on 
this is improving, but I think we're sort of at the beginning 
of that, and that there is an awful long way to go. So, I'm 
more positive than I was a few weeks ago. There's an awful lot 
that's being brought to the table in terms of international 
focus on this from our government, as well as many governments. 
But I still think we've got a long way to go.
    Secretary Gates. One of the actions taken by the NATO 
defense ministers last week was to resolve that NATO would not 
be in the lead in any kind of a transition, but also that the 
Secretary General would be in communication with the contact 
group and the United Nations, and tell them that it's our view, 
as NATO Defense Ministers, that the planning for this 
transition should get underway now--not wait until Gaddafi 
falls.
    Senator Collins. Thank you.
    And thank you both for your service.
    Chairman Inouye. Thank you very much.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Gentleman, thank you both for your service.
    Secretary Gates, I, too, echo the high praise that we all 
have for you and for your efforts.
    Speaking about Afghanistan now, going back from Libya 
here--as we deal with the reality of a drawdown coming ahead, 
and the numbers, and all the discussion that goes on there, I'm 
going to make it a little more parochial. We had several 
thousand troops with the 1st Stryker Brigade Combat Team of the 
25th Infantry up in Fort Wainwright just deploy. They moved out 
just this past month. And the concern that I'm hearing from 
some of the folks up North is, well, okay, we want to be in 
that phase where we are withdrawing and coming out of 
Afghanistan. But we're concerned that our loved ones, who have 
just now gone in, are going to be on the back end of that 
withdrawal, so you will have these forces moving out.
    You've mentioned that between now and 2014, the amount of 
money that we will see going into Afghanistan will be, sounded 
pretty dramatically reduced. What assurances can you give to 
those who are just now going into Afghanistan, and who will be 
there through the end of this next year, that their situation 
is not increasingly riskier?
    Secretary Gates. I would make two points. First of all, the 
reduction in cost in Afghanistan, beginning in fiscal year 2013 
and beyond--so fall, let's say, of 2012--is, really correlates 
to the level of troop drawdowns. And so, the amount of money 
that is saved is associated with the number of troops that we 
have in country, not by any skimping on the support----
    Senator Murkowski. Okay.
    Secretary Gates [continuing]. Or the enablers that we have 
there to support the troops we have.
    Second, I have had conversations with the President about 
this, and I will tell you that he and I are both committed 
that, whatever decisions are made, the foremost consideration 
will be to ensure that whatever steps are taken do not put the 
troops that are leaving at greater risk, or the troops that are 
remaining at greater risk.
    Senator Murkowski. Okay. I appreciate that.
    Let me ask you a question about Guam. In light of where we 
are with the budget issues, you responded to a question about, 
to Senator Mikulski, about the overseas bases in Europe. But, 
in light of what we're seeing with the tightening budgets, can 
we expect any significant changes, perhaps in the current 
direction, with regards to the buildup in Guam? Are we going to 
meet that 2014 completion date, that target that has been set, 
given what the cost estimates are at this point in time?
    Secretary Gates. Senator, in all honesty, as I mentioned 
earlier, Secretary Clinton and I will be meeting with the 
Japanese on Monday and Tuesday, and quite honestly, I'll have a 
better answer to your question after we have that meeting.
    Senator Murkowski. Okay. We look forward to that.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you very much.
    Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.
    Secretary Gates, Admiral Mullen, it's been a great pleasure 
to work with both of you, and I want to thank both of you for 
your tremendous service to this country. It is very much 
appreciated at a very challenging time.
    And Secretary Gates, I look forward to you coming home to 
our home State at some point, and continuing that relationship. 
But, I know you must be looking forward to that.
    Secretary Gates. Fifteen days.
    Senator Murray. Hopefully, the weather's better when you 
get there than it has been.
    Secretary Gates, last Friday, I visited the National Naval 
Medical Center up in Bethesda and had an opportunity to talk 
with a number of our wounded warriors, and their providers and 
caregivers. And as you well know, many of these service members 
have sacrificed life and limb in Afghanistan, and we, as a 
country, are going to be taking care of them, and their 
families, not just today, not just when they return home, for 
but a lifetime.
    As chairman of the Senate Veterans Affairs Committee, I 
take this issue very seriously, and I've been trying to draw 
attention to some of the all too often unseen costs of war, and 
thinking about how we should consider that as part of our 
decision in any long-term conflict.
    I think you know the major components of this long-term war 
have had real and significant impacts. Death from suicides 
among veterans and service members from the war are now on par 
with combat deaths; many of our warriors are facing difficult 
challenges with mental healthcare, as you well know, when they 
return home; and a lot of our service members have served now 
not just two, three or four, but sometimes even five times, and 
the costs of these are real.
    So, while we all talk a lot on this subcommittee about 
rebuilding projects, and Afghan aid, and military resources, 
and all the costs and components of a defense system, I wanted 
to ask you today what you and the Pentagon consider to be the 
biggest costs of this war to our wounded warriors and their 
families--particularly, those costs that we'll be paying for 
for a very long term; and whether that is ever considered in, 
those costs are factored in, when we are making decisions about 
drawing down in Afghanistan.
    Secretary Gates. I would, I mean, I think it is self-
evident that the costs are exactly as you've described them, in 
lives that are shattered, in bodies that are shattered, in 
minds that are shattered.
    I would tell you that one of the things that we've done 
over the last 2 to 3 years is to ensure that all of the funding 
that we have gotten in the past in supplementals and overseas 
contingency operations, dealing with family programs, and with 
some of the medical research we were talking about, and care 
for our wounded warriors--that all of that money has been 
shifted into the base budget, knowing that we will deal with 
this problem for many, many years to come. So, from our part--
in addition to Virginia--we have tried to make sure that these, 
the funds for these programs have been protected, and will be 
protected in the future.
    But it, I cannot say that decisions in terms of drawdowns 
or military strategy are made bearing in mind the cost of the 
soldiers and sailors, airmen and marines, who suffer. It is on 
the minds of everybody who makes those decisions. But, by the 
same token, it is the nature of war, and it is, frankly, one of 
the reasons why, as I told an interviewer a couple of weeks 
ago, I feel like I've become more conservative, more cautious 
about when we use force, because I've seen the consequences up 
front.
    But Admiral Mullen has devoted a huge amount of effort to 
this. He probably ought to say something.
    Senator Murray. Admiral Mullen.
    Admiral Mullen. Senator, first of all, I just appreciate 
your leadership on this because it has to, it has to have a 
voice. And, I actually believe we're just beginning to 
understand the costs.
    Your units--very specifically, I'll use Fort Lewis. I mean, 
we're now, we have more soldiers and airmen at Joint Base 
Lewis-McChord than we've ever had, and they're going to be home 
for a couple of years. Many of those units have had only 1 year 
between deployments up to now. Now, they're going to have two. 
And, I think they've been compartmentalizing challenges, and 
they're going to start unpacking that. And it's going to be 
pretty tough now, that we're back home, and addressing, the 
leadership focusing on addressing the challenges that will come 
with that.
    Medically, in the PTS-TBI world in particular, the more 
quickly we get at the problem, the less likely the damage, or, 
the damage is reduced significantly. And yet, there's still a 
great deal on the TBI side that we don't understand.
    Senator Murray. And it's changing, by the way.
    Admiral Mullen. Right.
    Senator Murray. When soldiers are home after 3 years, and 
we're finding the impacts are different 3 years later----
    Admiral Mullen. Right.
    Senator Murray [continuing]. And they're coming back into 
the system.

                           MILITARY FAMILIES

    Admiral Mullen. Right. There are time bombs set up that we 
know are out there. We just don't know when they're going to go 
off.
    The relationship that the Pentagon has with the Veterans 
Administration (VA) and with communities throughout the country 
has got to get stronger. And we've worked that in ways to try 
to focus on that. And where you and Chairman Inouye and others 
can help is, when we get into budget crunches like this, this 
incredible amount of money that we put into family programs, 
into medical research--it's some of the first money that budget 
types like to take out, historically. We like airplanes before 
we would keep our family programs intact. That's something the 
Secretary of Defense and I have talked about. And, unless we 
watch that very carefully, it will not be there when we need 
it. And so, we have to have it in a way that it is sustained 
over time. Because I think these costs are longstanding. We 
don't understand them as well as we should--not just for our 
members, but also, for our families. We see that time and time 
again.
    Our families have become as much, almost as much as part of 
our readiness, as anything else. And it wasn't that way 10 or 
15 years ago. Always critical. But, without them we would be 
nowhere in these wars.
    And so, leaders have to continue to focus on--what are 
these costs? And, I thought you said it very well--It is to 
repay this debt for the rest of their lives. And we need to 
stay with them, so that we understand what that means.
    Secretary Gates. I would just say that I've told the 
service secretaries and the chiefs to fence two areas in all of 
these budget exercises that we're going through. One is 
training, and the other is all of our family programs, that I 
don't want any money taken out of those.
    Senator Murray. Well, I appreciate that very much. And I do 
think we have to really seriously be considering this, because 
it does impact our troops today. But, it also impacts our 
ability in the future for the next big one, if we've depleted 
all of our resources, and we are not taking care of our folks.
    Admiral Mullen. The other thing--and I know that you know, 
Senator Murray--is, we are, we did it in Vietnam, and we are 
doing it again. We're generating a homeless generation; many 
more homeless female vets, because they're now, I think a 
quarter of a million have served in Iraq and Afghanistan 
incredibly well. And if we're not careful, we'll do the same 
thing we did last time--and we'll pay for them long-term, when 
an up-front investment would really make a difference right 
now. Everybody's got to be----
    Senator Murray. Because we're about to make some of the 
same mistakes we made after the Vietnam war.
    Admiral Mullen. We are.
    Senator Murray. And this country will be paying for it 20 
years from now.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Hutchison.
    Senator Hutchison. Well, thank you, Mr. Chairman.
    And I will add to what has been said already. Washington 
State's gain is Texas' loss. We would take you back in a 
heartbeat if you would come, because you did a great job at 
Texas A&M, and the Bush Library and School.

                           MILCON BUDGET CUTS

    I want to go back to Senator Mikulski's line of 
questioning. We have had an overseas base closing commission. 
And after the last American BRAC, we had the overseas BRAC that 
was going in the same track, and it was decided to bring 70,000 
troops back from certain foreign locations--Germany and Korea 
especially, and then Guam, of course, in question. And now we 
are looking, Mr. Secretary, at a Fort Bliss military 
construction project that has just been completed this year, 
that would take one of the BCTs that was designated to come 
back from Germany--it is prepared and ready for taking that BCT 
from Germany. But, the Department changed the previous decision 
that was going to bring back two BCTs from Germany, to just 
basically say, we're not sure yet. So, you've got the Milcon 
that has been done in America--about $450 million worth--to 
take one BCT back, and on the five-year plan for military 
construction, there is $1 billion to be done in Germany. 
Germany contributes 7 percent of the cost of our Milcon, as 
compared with Japan, that contributes 40 percent.
    So, I would just ask you, as you are leaving in your last 2 
weeks, if you can give serious consideration to the fact that 
we don't get an effort from Germany--$1 billion of military 
construction for changing Army headquarters and bases--couldn't 
that money be saved, rather than saving it out of either 
personnel, or healthcare, or weapons systems that would 
modernize for our troops in America? Can't we take $1 billion 
out of Milcon that was supposed to be taken care of in a 
previous administration? It just seems like there's a 
disconnect from what Senator Mikulski was suggesting, and what 
seems to be an opportunity here.
    Secretary Gates. The President's decision on the posture in 
Germany was that we would come down from four brigade combat 
teams to three. Where the uncertainty is, is in the Army, in 
terms of whether that fourth BCT in 2015-2016 is simply 
disbanded, or whether, in fact, it comes back to the United 
States. The only Milcon that I'm aware of in Germany is the 
consolidation of command, control, communications, computers, 
and intelligence at Weisbaden. The original budget for that was 
$482 million. One-half of that has already been spent. There is 
no money for it, as I understand, in the fiscal year 2012 
budget, but then, there is about another $150 million between 
2013 and 2016.
    So, we'll go back and take another look at that piece of 
it. But, the decision was not made just by the Department of 
Defense, but by the President--that we would, in fact, come 
down by one BCT in Germany.
    Senator Hutchison. The original proposal was two.
    Secretary Gates. Right.
    Senator Hutchison. And in the interim time, I think we all 
believe, or, I'll speak for myself, and, along the lines of 
what you talked about in Europe last week--the Germans have 
fewer than 5,000 troops in Afghanistan. They have rules of 
engagement that are very restrictive. And I would just ask you 
to look at, and perhaps work with the incoming secretary, to 
determine if it is in our best interest to have the places 
ready at Fort Bliss for a BCT? And with the lack of German 
effort, is it in our best interest to keep three BCTs there, 
rather than two, which had been the previous decision?
    And, I certainly support having joint efforts, and working 
with our partners. But, you yourself have said our partners are 
not stepping up to the plate as they should. And I agree with 
you. So, I would just ask if, in your last 2 weeks, you could 
look at this, and could work with Secretary Panetta, to 
determine if it is in our best interests, with the lack of 
effort that the Germans make in Milcon, and the lack of effort, 
frankly, in our NATO alliance, and with the preparation that's 
already been made--$450 million in Milcon here to take the new 
troops back--I'd just ask if you would look at it one more 
time.
    Mr. Secretary, I still have time, if I could just, if 
you're not going to answer that question, then I would just ask 
if we could, if you could elaborate on your view of NATO. And, 
you said that some NATO is better than no NATO. Is there 
something that we could do proactively, besides encouraging our 
allies to be more of a player, an equal player, that would make 
the NATO alliance more effective?
    Secretary Gates. Well, I think one thing where the Congress 
could make a contribution is that, I know that the Congress has 
a variety of parliamentary exchanges with European 
legislatures. And, I think just voicing, both in those 
exchanges, but also, publicly, essentially the message that I 
delivered last week--that the American people are going to 
become increasingly skeptical about this alliance if the United 
States has to bear three quarters of the burden.
    Chairman Inouye. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Mr. Secretary and Admiral Mullen, thank you very much for 
your candid testimony, but more importantly, for your service 
to our Nation. Your astute vision, and ability to quickly 
implement your vision through others, is a testament to your 
leadership ability, and this Nation is truly in your debt for 
turning the tide in Iraq and Afghanistan, and setting the stage 
for a withdrawal. So, on behalf of the subcommittee, we wish 
you the very best as you transition to the next phase.
    And we will have written questions submitted, if we may.
    Because of the time limitation, we're not able to go 
through the questions and answers.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Dianne Feinstein
                                pakistan
    Question. In the wake of the death of Osama bin Laden and 
Pakistan's claims that they had no knowledge of his whereabouts, and 
the ousting of United States military trainers from Pakistan, I 
question our financial relationship with Pakistan and their commitment 
to our partnership.
    Secretary Gates, this week you sat down with an interview with the 
Associated Press and urged patience with Pakistan. You have seen 
Pakistan's actions over the past few months. When should our patience 
with Pakistan run out?
    Answer. The United States relationship with Pakistan is far from 
ideal, but we should be working to improve the relationship. Although 
our respective views on how best to counter regional security 
challenges are not always congruent, we do have shared interests in a 
stable South Asia. A comprehensive long-term partnership with Pakistan, 
however, is not just in the interest of regional security, but in the 
United States national security interest as well. Therefore, the United 
States needs to work with Pakistan to overcome the tensions currently 
straining the relationship.
    First, let me be clear that we have seen no evidence that senior 
Pakistani leaders were aware of Osama Bin Laden's whereabouts or 
involved in harboring him. Nevertheless, the raid in Abbottabad has 
created an opportunity for Pakistan's leadership to make choices that 
advance United States and Pakistani shared interests in eradicating 
terrorist networks threatening both countries' interests.
    Since the raid on May 2, senior members of this administration, 
including Secretary Clinton and Admiral Mullen, have had very frank 
discussions with Pakistani civilian and military leadership to make 
clear that the United States will not tolerate safe-havens for 
terrorists, and to urge decisive steps to expand existing United 
States-Pakistani counterterrorism cooperation. In conversations with 
Pakistan's leaders, the administration has been unambiguous regarding 
its expectations for clear, verifiable, and sustained action against 
terrorists operating in Pakistan. Progress on this front will be 
beneficial for Pakistan's security, and will also demonstrate 
Pakistan's commitment to a positive and enduring relationship with the 
United States.
    The fact remains that Pakistan's cooperation is central to United 
States and coalition efforts to defeat al Qaeda and prevent its return 
to the region. Pakistan's participation will also be integral to 
achieving a durable political solution in Afghanistan. More broadly, 
Pakistan is the sixth most populous country in the world, with a 
majority of its population under the age of 30. It possesses nuclear 
weapons, has unresolved border issues with its neighbors, and a weak 
economy. These are just some of the factors that make continued United 
States engagement with Pakistan so important. So even when the United 
States relationship with Pakistan is strained, I believe we should 
continue to communicate clearly our commitment to a long-term 
relationship that is supportive of both countries' interests, and that 
the United States will not ``abandon'' Pakistan or disengage from the 
region.
    Question. What more can we do to improve our relationship with 
Pakistan?
    Answer. Our relationship with Pakistan is currently being tested. 
In Islamabad, and here in Washington, people are asking if both sides 
can maintain an effective partnership. I believe we can. The recent 
turbulence in the United States relationship with Pakistan, although 
troubling, is not insurmountable.
    Pakistan's Government and people harbor concerns that our 
engagement in the region will not extend beyond what is required for 
the success of the United States mission in Afghanistan. Pakistan's 
strategic importance, however, goes beyond United States objectives in 
neighboring Afghanistan. A stable, prosperous, and democratic Pakistan 
is critical to long-term regional prosperity and security. Therefore 
the United States must demonstrate its commitment to a sustained 
partnership with Pakistan that both addresses and extends beyond 
immediate security threats to both countries. Such a commitment does 
not mean we are locked into a specific menu or level of assistance 
funding, but does require that effective and needed assistance be 
available when the two countries' interests intersect.
    Question. Last week General Ashfaq Kayani said in a statement that 
U.S. assistance now being spent to support the military is more 
urgently needed for ``reducing the burden on the common man.'' Why 
should we continue to fund military operations in Pakistan?
    Answer. Pakistan's strategic importance is related to both the 
United States mission in Afghanistan and broader regional and 
international security interests. And although the United States-
Pakistan relationship is not perfect, I do believe it is vital that the 
United States continues to advance a lasting partnership with Pakistan 
in order for it to increase its stability and prosperity over the long 
term. Cooperation--including civilian, law enforcement, and military--
on shared security interests is a necessary component of this 
partnership.
    Since September 11, 2001, Pakistan has been a key partner in the 
fight against terrorism that threatens both countries. In partnership 
with the Government of Pakistan, we have made significant progress 
toward disrupting, dismantling, and ultimately defeating al Qaeda. U.S. 
security assistance has directly enabled Pakistan to conduct its 
counterinsurgency campaign against violent extremists in Pakistan more 
effectively. Our assistance has also allowed for greater Pakistani 
cross-border coordination with International Security Assistance Force 
(ISAF) and Afghan Forces, which has reduced the space in which al Qaeda 
and other militants intent on attacking United States, Pakistani, and 
Afghan interests can operate. Specifically, the Department of Defense 
(DOD) ``train-and-equip'' efforts, supported by the Pakistan 
Counterinsurgency Fund/Pakistan Counterinsurgency Capability Fund, are 
central to United States efforts to build the capacity of the Pakistan 
military and paramilitary forces to enable Pakistan to defeat the 
insurgents within its borders. Coalition Support Fund reimbursements 
also remain a critical enabler in combating terrorism and helping 
Pakistan to sustain its forces in their operations to reduce safe 
havens.
    In short, continued United States support to Pakistan's military 
operations against violent extremists is a clear national security 
interest. Pakistan has made progress against militants operating in its 
territory, though the gains remain tenuous, and the Pakistan military 
has struggled to ``hold'' and ``build'' in the areas it has cleared. In 
all, Pakistan has sacrificed more than 11,000 military personnel in 
this fight, and has also lost upwards of 30,000 civilian lives to 
continued insecurity. So long as Pakistan continues to advance shared 
security objectives, we should continue our support.
                               detainees
    Question. The DOD currently has hundreds of individuals detained in 
Afghanistan that will, at some point, need to be transferred to Afghan 
control, released, charged, or held by the United States in a different 
kind of detention regime than they are at Bagram (now called Parwan).
    What is the Department's plan for handling these detainees in the 
long run?
    Answer. Drawing on our experiences in Iraq will help to ensure that 
the transition in Afghanistan is accomplished responsibly. United 
States forces will remain involved until the Government of Afghanistan 
has the trained personnel and infrastructure to be able to assume 
detention operations. Further, as necessitated by the presence of 
United States and coalition forces who are conducting operations in 
concert with Afghan forces to defeat the Taliban, al Qaeda, and 
associated forces, United States forces may need to maintain some 
detention capacity in Afghanistan, pursuant to the law of war, as long 
as military operations continue.
    Question. What is your assessment of the Afghan justice system and 
its ability to adjudicate these cases?
    Answer. The formal Afghan justice system is still developing. 
Primary issues include a shortage of adequately trained, educated, and 
compensated judges and attorneys, limitations and gaps in the Afghan 
legal code, and in some cases a lack of political will to try, 
prosecute, and incarcerate national security threats in a transparent 
and influence-free manner.
    In support of its goals, the United States--under the leadership of 
the Department of State--conducts a broad range of programs that aim to 
increase the capacity of the Afghan justice system. DOD provides 
support to these efforts through the Combined Joint Interagency Task 
Force 435 (CJIATF-435) and its subordinate command, the Rule of Law 
Field Force--Afghanistan (ROLFF-A).
    Although CJIATF-435 is primarily responsible for United States 
Government detention operations in Afghanistan, CJIATF-435 also trains 
Afghan military police detention guards, and mentors Afghan national 
security prosecutors in preparation for the conditions-based transition 
of detention operations in Afghanistan. CJIATF-435 also has made 
progress in discussions with Afghan officials about a national security 
legal framework that will be necessary for a complete transition to 
Afghan authority.
    Question. How do you compare the status of the Afghan justice 
system to the Iraqi justice system that the United States has helped 
build up?
    Answer. The Iraqi judicial system has historically been more 
advanced than the formal Afghan judicial system, reflecting a more 
centralized and urbanized state and higher literacy and education 
levels in Iraq. In contrast, rural Afghans, who comprise a significant 
majority of the population, often make use of their own community 
justice systems that are outside the purview of the Afghan Government.
    United States forces, in concert with civilian partners, have 
provided support to both the Iraqi and Afghan justice systems, 
including building physical capacity and training correctional 
officials. The United States also has provided training to Iraqi and 
Afghan investigative judges regarding the use of evidentiary files 
prepared to support criminal charges brought against detainees held by 
United States forces. In both countries, we have endeavored to develop 
rule of law systems that are adapted to, and sustainable within, the 
distinct cultural contexts of Afghanistan and Iraq.
                              afghanistan
    Question. There has been a lot of discussion lately about the 
United States presence in Afghanistan and what the drawdown of forces 
there should look like. I am a supporter of a conditions based drawdown 
and do not want to see a hasty withdrawal jeopardize the gains that we 
have made. That being said, I think that because we are 10 years after 
9/11 we need to emphasize that this is not going to be an open-ended 
operation.
    What progress has been made in determining the specific plan for 
withdrawal and how involved has the Afghan Government been in 
determining the metrics to evaluate the withdrawal plans?
    Answer. As you know, during his December 2009 speech at West Point, 
President Obama specified that the surge would not be open-ended, and 
that he would reduce U.S. surge forces beginning in July 2011 based on 
conditions on the ground. The United States strategy in Afghanistan is 
working as designed, and the beginning of a drawdown of the surge 
forces this July is part of that strategy. The momentum has shifted to 
coalition and Afghan forces, and together these forces have degraded 
the Taliban's capability, achieved significant security gains, 
especially in the Taliban's heartland in the south, and set the 
conditions for beginning the transition of security for provinces and 
districts to Afghan lead.
    The United States is working very closely with the Government of 
Afghanistan on the transition process, which will ultimately put the 
Afghan National Security Forces in the lead of security nationwide by 
the end of 2014. The growth of the Afghan National Security Forces 
(ANSF) in quality and quantity over the past 18 months, including the 
additional 100,000 new personnel, is a key part of the progress to date 
that enables the initiation of the transition and the drawdown of U.S. 
forces. The President will take these factors into consideration when 
making his decision about the size and pace of the drawdown.
    Question. Are the Afghans in agreement on the metrics that should 
be used?
    Answer. The Afghans understand that President Obama will decide on 
the size and pace of the drawdown of our surge forces, and that it will 
be based on conditions on the ground. They recognize the substantial 
progress achieved over the past 18 months, including the progress in 
the growth and quality of their own forces and the reversal of the 
Taliban momentum that makes the initiation of the drawdown and the 
transition of several provinces and districts to Afghan security lead 
possible.
    The United States, with our allies, is in the process of building a 
350,000-man ANSF. There has been some conflicting reporting on the 
quality of that force, specifically the Afghan National Police. There 
are increasing reports of infiltrators and Afghan servicemembers 
turning their weapons on coalition forces. I am concerned that we are 
focusing on quantity and not quality.
    Question. How is Afghanistan going to build the security force it 
needs, and will they have the resources to maintain a National Army?
    Answer. The NATO Training Mission--Afghanistan, working closely 
with the Afghan Ministry of Defense and Afghan Ministry of the 
Interior, has made substantial progress over the past 18 months in 
growing the Afghan National Army (ANA) and Afghan National Police (ANP) 
while also improving their quality. U.S. forces and the Afghan 
Government have also helped establish the Afghan local police, which 
are increasingly denying the insurgents' access to rural populations. 
Although there have been instances of infiltration and Afghan 
servicemembers turning their weapons on coalition forces, as well as 
cases of insurgents mimicking the ANA or ANP, overall reporting from 
the coalition units who partner with the ANSF reflects continued 
improvement in the capability and performance of the fielded ANSF.
    Efforts are underway to ensure the long-term sustainability of the 
ANSF. The sustainment effort is in two areas, fiscal and human capital. 
NTM-A and ISAF are scrutinizing all aspects of contracting, 
infrastructure development, equipping, and sustainment to find cost 
savings. Examples include an ``Afghan First'' contracting policy that 
employs Afghan constructions standards, ensuring designs meet cultural 
and socio-economic norms, and are sustainable by Afghan maintenance 
capabilities. In order to set Afghans on the track to self-sustainment, 
DOD and its United States Government partners are working with the 
Afghans to increase revenue generation through activities such as 
collecting taxes from border stations. We project that by 2017 the 
Afghans will be spending $1.25 billion of their own funds on operations 
and maintenance, up from a projected $690 million in 2013. Regarding 
human capital we have been working to develop institutional 
professionalism and individual Afghan capacity across a broad range of 
functions within the force, including operations, leadership 
development and accountability, literacy, gender integration programs, 
transparency and development of an Afghan instructor corps. Our 
literacy training program has just reached a milestone in that the 
100,000th ANSF trooper has successfully completed a literacy course.
    Developing the ANSF remains a central element of our strategy in 
Afghanistan, and sustaining the ANSF will be an essential means of 
securing the results that so many have sacrificed to achieve. While 
Afghanistan's own resources will grow over time, it is also true that 
the international community will need to help sustain the ANSF for some 
time to come. To that end, I recently renewed my challenge to other 
ISAF members that they contribute 1 billion Euros annually to the NATO 
Afghan Nation.
    Question. What is the coalition doing to ensure we are building a 
quality security force that will serve the Afghan people?
    Answer. Coalition forces are heavily focused on improving the 
quality of the ANSF--not just its size--so that the ANSF can operate 
more independently and the Coalition can successfully transition 
security lead to the Afghans. Up until June, the primary focus was on 
building a force to provide immediate security. In June 2011, the last 
of the 97 Infantry Kandaks were fielded. This has allowed ISAF to shift 
its focus to professionalizing the force and building sustainment 
capability. Coalition initiatives to improve quality include partnering 
with ANSF units in the field, programs geared toward increasing 
literacy rates, and addressing leadership shortfalls.
    As of May 31, advisors partner with or mentor 148 of 156 Afghan 
National Army units and 223 of 239 Afghan National Police units. 
Embedded coalition military personnel live and fight with their ANSF 
partners, which enables coalition forces to provide additional on-the-
job training, prevent and address corruption, and demonstrate how a 
professional military conducts its operations.
    Literacy training has also improved ANSF performance and morale and 
the NATO Training Mission--Afghanistan projects more than 50 percent of 
the ANSF will achieve third-grade literacy by 2012. A more literate 
force will increasingly allow the Afghans to develop the necessary 
enablers and combat support systems to develop self-sufficiency.
    Officer and noncommissioned officer (NCO) leader shortfalls have 
been a key impediment in the quality development of the ANSF, but 
leader gaps are also closing. Officer Candidate School, the National 
Military Academy, and strengthened NCO training programs, combined with 
improved Afghan Ministry of Interior and Defense personnel policies 
that are addressing problems of attrition and retention, are enabling a 
new generation of better trained and qualified ANSF officers to ascend 
in the leadership ranks.
                                  iraq
    Question. The U.S.-Iraqi Security Agreement will result in the 
departure of United States military forces from Iraq by the end of 
2011. Both of you have testified that, if asked by the Government of 
Iraq to do so, the United States should keep United States armed forces 
personnel in Iraq. In the absence of that, the Department of State will 
be assuming several of the missions now being conducted by the United 
States military.
    What is your assessment of the likelihood that the Government of 
Iraq will ask United States military forces to stay? By what date would 
that request need to be made?
    Answer. We intend to abide by our commitments in the 2008 U.S.-Iraq 
Security Agreement. The United States would be willing to consider a 
limited United States military presence should the Iraqi Government so 
request; however, to date, no such request has been made. For planning 
purposes, we would like to receive any such request from Iraq as soon 
as possible.
    It remains unclear whether the Iraqi Government will request a 
post-2011 U.S. military presence beyond the Office of Security 
Cooperation--Iraq (OSC-I). The OSC-I will operate under Chief of 
Mission authority and facilitate the transition from a military-led to 
a civilian-led mission by continuing to support development and 
modernization of the Iraqi Security Forces (ISF).
    Question. Do you both still agree that United States forces should 
stay in Iraq if asked?
    Answer. I believe it is in our mutual interest to have a limited 
U.S. military presence to help address ISFs' needs and gaps, if 
requested by the Iraqi Government.
    Question. What types of forces and what mission should they have if 
they do stay?
    Answer. We intend to abide by our commitments in the 2008 U.S.-Iraq 
Security Agreement. There are a number of areas where the ISF could 
benefit from additional assistance, such as intelligence fusion, air 
sovereignty, combined arms training, and sustainment and logistics. 
However, any post-2011 U.S. military presence would require a formal 
request from the Iraqi Government, which we would be willing to 
consider. To date, no such request has been made.
    Question. How limited can our presence be and remain effective?
    Answer. Any discussion of specific military personnel numbers and 
footprint at this point would be premature, as any post-2011 U.S. 
military mission would require a formal request from the Iraqi 
Government. To date, no such request has been made.
    Question. In your assessment, what effect will the departure of 
United States military forces have on the stability of Iraq?
    Answer. The ISF are currently functioning well as a counter-
insurgency force and demonstrating the capability to maintain internal 
security and stability in Iraq. We believe an increase in security 
incidents is possible, but within the capacity of the ISF to handle.
    Question. Will a complete withdrawal jeopardize the progress we 
have made in the region?
    Answer. We believe an increase in security incidents is possible. 
However, ISF have the capacity to counter potential increases in 
security incidents.
    In a recent hearing by the Commission on Wartime Contracting, the 
State Department indicated that it will spend close to $3 billion on 
security forces in Iraq if the U.S.-Iraqi Security Agreement is 
enforced.
    Question. Would keeping United States military forces in Iraq be 
more cost effective than having the Department of State contract out to 
accomplish their expanded missions and their security?
    Answer. It is premature to speculate on any potential cost savings 
for the Department of State from a potential post-2011 United States 
military presence in Iraq. Any post-2011 U.S. military mission would 
require a formal request from the Iraqi Government, which we would be 
willing to consider. To date, no such request has been made.
                                 libya
    Question. This month, NATO agreed to extend the mission in Libya 
for 90 days until the end of September. Press reporting indicates that 
Gaddafi has no intention of peacefully stepping down from power and the 
United Kingdom's most senior naval officer, Admiral Stanhope, said this 
week that the campaign has been a strain on UK forces and big 
compromises will have to be made if the operations are extended any 
longer than 6 months.
    How much money are we spending every day on this campaign?
    Answer. If the current tempo of support operations continues 
through September 30, 2011, the DOD estimates it will spend $1.1 
billion in fiscal year 2011, or approximately $3 million a day from now 
to the end of the fiscal year. The amount pays to fund military 
personnel pay costs, travel and sustainment of personnel, operations 
(e.g., flying hours), expended munitions, supplies, airlift, drawdown 
of DOD supplies (up to $25 million), and a small amount for lift and 
sustainment costs for coalition partners supporting operations in 
Libya. The DOD spent more per day at the beginning of the campaign due 
to a higher level of kinetic operations.
    Question. If NATO terminates the campaign in September and Gaddafi 
is still in power, is there a plan?
    Answer. It is unlikely that NATO will terminate Operation UNIFIED 
PROTECTOR (OUP) until the Gaddafi regime complies with the criteria 
adopted at the April 14 NATO Foreign Ministers' Meeting:
  --All attacks and threats of attack against civilians and civilian-
        populated areas have ended;
  --The regime has verifiably withdrawn to bases all military forces, 
        including snipers, mercenaries and other paramilitary forces, 
        including from all populated areas they have forcibly entered, 
        occupied or besieged throughout all of Libya; and
  --The regime must permit immediate, full, safe, and unhindered 
        humanitarian access to all the people in Libya in need of 
        assistance.
    This resolve was reiterated on June 8, when NATO and Partner 
Defense Ministers issued a statement extending operations for a further 
90 days from June 27, 2011. If, for some reason, NATO does not continue 
OUP into the fall, it is highly likely that a small coalition of 
capable allied and partner nations would continue the mission in Libya. 
Again, we find the scenario of NATO terminating operations to enforce 
U.N. Security Council Resolutions 1970 and 1973 highly unlikely.
                                 china
    Question. We have all been watching as the Chinese military 
continues to expand and modernize their military. We have seen 
concerning developments with the ``carrier killer'' missile and the J-
20 stealth fighter. There are numerous open-source reports of the 
Chinese Army conducting cyber attacks on U.S. entities. Additionally, 
the Chinese continue to flaunt international norms with respect to 
their assertive attempts to expand their maritime territorial claims in 
the East and South China Sea.
    Can you please give us your assessment on the capabilities and 
intentions of the Chinese military?
    Answer. China appears to be building the capability to fight and 
win short-duration, high-intensity conflicts along its periphery. The 
country's near-term focus appears to be on preparing for potential 
contingencies involving Taiwan, including possible U.S. military 
intervention. Its modernization efforts emphasize anti-access and area 
denial capabilities. China is also devoting increased attention and 
resources to prepare to conduct operations beyond Taiwan and China's 
immediate periphery. Beijing's growing focus on military missions other 
than war includes humanitarian assistance, noncombat evacuation 
operations, and counter-piracy support. Lastly, China is strengthening 
its nuclear deterrent and enhancing its strategic strike capabilities 
through modernization of its nuclear forces and improving other 
strategic capabilities such as space and counter-space operations and 
computer network operations. Recent public revelations about its 
advanced fighter program and aircraft carrier underscore the progress 
it is making.
    Question. Can you expand on how the Chinese military expansion has 
affected regional stability?
    Answer. China's economic growth has increased the country's 
international profile and influence, and enabled its leaders to embark 
upon and sustain a comprehensive transformation of the country's 
military forces. China's continued investment in programs designed to 
improve extended-range power projection has the potential to make 
positive contributions in the delivery of international public goods--
such as peacekeeping, disaster relief, and counter-terrorism 
operations--but also increases Beijing's options for military coercion 
to gain diplomatic advantage, advance its interests, or resolve 
disputes in its favor. The pace and scale of China's military 
modernization, coupled with the lack of transparency, raise many 
questions, both within the United States and the Asia-Pacific region as 
a whole, about China's future intentions.
    In addition, China's recent assertive behavior in the South China 
Sea has raised concerns in the region, reinforcing littoral states' 
appreciation for a robust and sustained United States presence. 
Multiple competing territorial claims have existed for decades, but 
China is increasingly confident in asserting its claims in the 
resource-rich region. Although not a claimant to any territory in the 
region, the United States has interests in the South China Sea, and we 
remain committed to the stability and prosperity of Southeast Asia as 
reflected in our extensive bilateral and multilateral engagements and 
defense activities with regional allies and partners.
    Question. Are our forces, particularly those forward based in the 
Pacific Command area of responsibility prepared to counter these 
threats?
    Answer. The U.S. forward presence in the region has played a key 
role in ensuring decades of stability in Asia. The United States will 
continue to be globally postured to secure our homeland and citizens 
from direct attack and to advance our interests around the world. 
Although there are many demands on our forces in the Asia-Pacific, the 
fiscal year 2012 defense budget ensures that we will remain prepared to 
meet challenges and fulfill our security commitments in the region.
    The fiscal year 2012 budget proposal would make a number of 
investments that would enhance the ability of U.S. forces to project 
power into the Asia-Pacific region and elsewhere. Chief among these is 
the commencement of a new long-range bomber program.
    We have worked with--and will continue to work with--our regional 
allies and partners to maintain peace and ensure stability throughout 
Asia. With the fiscal year 2012 budget, we intend to enhance our 
forward presence in the Pacific as the most critical region for long-
term U.S. security. We will make a number of investments to ensure the 
DOD has the necessary capabilities to project power into the Asia-
Pacific region and elsewhere if necessary. Examples include:
  --expanding future long-range strike capabilities;
  --exploiting advantages in subsurface operations;
  --increasing the resiliency of U.S. forward posture and base 
        infrastructure;
  --ensuring access to space and the use of space assets;
  --enhancing the robustness of key Command, Control, Communications, 
        and Computers, Intelligence, Surveillance, and Reconnaissance 
        (C\4\ISR) C\4\ISR capabilities; and
  --enhancing the presence and responsiveness of U.S. forces abroad.
                           taiwan arms sales
    Question. I have expressed concerns in the past about additional 
United States arms sales to Taiwan. Admiral Willard testified at the 
PACOM hearing before this Committee that the military balance in the 
Straits of Taiwan has shifted to the mainland. In my view, we would 
best advance our national interest of peace in Asia by pursuing a goal 
to reduce military posture across the Taiwan Strait.
    What significant action could China take to ease its military 
posture in the strait in a manner that was substantive enough for the 
Pentagon to consider or reconsider the future arms sales to Taiwan?
    Answer. We welcome steps taken by both sides of the Taiwan Strait 
to improve relations. We remain committed to our one China policy based 
on the Three Joint U.S.-PRC Communiques and the Taiwan Relations Act. 
Our one China policy has been consistent for the past eight United 
States administrations. In accordance with the Taiwan Relations Act, we 
do not support independence for Taiwan, but at the same time, the 
United States makes available to Taiwan defense articles and services 
necessary to enable Taiwan to maintain a sufficient self-defense 
capability. If the environment changed, the relationship between China 
and Taiwan continues to improve, and over time, the security 
environment for Taiwan changed, then this would potentially create the 
conditions for reexamining this issue. Of course, this would be an 
evolutionary and a long-term process.
    It is difficult to identify specific steps or actions that could 
change our assessment of Taiwan's defense needs. Actions such as 
removing forces, halting the missile buildup, reducing missile 
stockpiles, or establishing a policy rejecting the reunification of 
China by force would be welcomed steps that could be taken by the 
People's Republic of China (PRC) to improve the security environment. 
However, the Department's assessment of Taiwan's defense needs is not 
predicated on a single Chinese action or even the combination of 
several actions. Our calculus is based on our understanding of the 
totality of the security environment, which not only includes actions 
taken by the PRC, but also those taken by Taiwan.
    In the interim, the DOD will continue to monitor military trends in 
the Taiwan Strait and work with the authorities on Taiwan as they 
pursue defense reform and modernization to improve the Taiwan's ability 
to defend against an attack from the mainland. Organizational reforms, 
improvement in joint operations, the hardening of infrastructure and 
weapons systems, and long-term acquisition management are all 
significant steps that will enhance Taiwan's security.
    Question. Can you identify major steps that the PRC could take, 
such as removing forces, halting the missile build up, reducing the 
missile stock, or establishing a policy rejecting reunification of 
China by force, which could change our assessment of Taiwan's defense 
needs?
    Answer. It is difficult to identify specific steps or actions that 
could change our assessment of Taiwan's defense needs. Actions such as 
removing forces, halting the missile buildup, reducing missile 
stockpiles, or establishing a policy rejecting the reunification of 
China by force would be welcomed steps that could be taken by the PRC 
to improve the security environment. However, the Department's 
assessment of Taiwan's defense needs is not predicated on a single 
Chinese action or even the combination of several actions. Our calculus 
is based on our understanding of the totality of the security 
environment, which not only includes actions taken by the PRC, but 
those taken by Taiwan.
    As documented in the Department's ``Military and Security 
Developments Involving the People's Republic of China'' annual reports 
to Congress, we remain concerned about the pace and scope of China's 
military buildup including its short- and medium-range ballistic 
missiles, cruise missiles, submarines, surface combatants, advanced 
fighter aircraft, integrated air defense systems, and space and cyber 
capabilities. We also remain concerned about the lack of transparency 
surrounding the development of these capabilities.
    In the interim, the DOD will continue to monitor military trends in 
the Taiwan Strait and work with the authorities on Taiwan as they 
pursue defense reform and modernization to improve the Taiwan's ability 
to defend against an attack from the mainland. Organizational reforms, 
improvement in joint operations, the hardening of infrastructure and 
weapons systems, and long-term acquisition management are all 
significant steps that will enhance Taiwan's security.
                              acquisitions
    Question. Cost over-runs and delays seem to plague the Defense 
acquisitions program. The Joint Strike Fighter alone is projected to 
cost 80 percent more than the initial estimates and 30 percent more 
than when the baseline cost was redefined 4 years ago, and I am sure it 
is not the only program in this situation. In the current fiscal 
environment, it is becoming increasingly difficult to justify these 
extreme costs.
    What concrete steps are being taken to reform the acquisitions 
program and when can we expect to see results?
    Answer. On September 14, 2010, with my input and support, Dr. 
Carter, the Under Secretary of Defense for Acquisition, Technology and 
Logistics (USD(AT&L)), launched an initiative called ``Better Buying 
Power'' (BBP). In it, we issued a set of 23 points that indicated how 
we were going to ``get more without more.'' We are implementing BBP 
aggressively and are already experiencing savings on current programs.
    On November 3, 2010, Dr. Carter issued BBP guidance for the Service 
Secretaries and Directors of the Defense Agencies indicating that 
affordability will be treated as a requirement at all Milestones and 
Decision Points for our programs, and program managers will be required 
to demonstrate affordability before being granted Milestone Authority 
to proceed with a program. Independent cost estimates will be used to 
evaluate what a program will cost based on historical data, but program 
managers have been instructed to manage based on what a program should 
cost. The ``should cost'' method is already being used to drive down 
future costs in all acquisition programs.
    Another facet of the BBP initiative is incentivizing productivity 
and innovation in industry partly through use of fixed-price incentive 
(firm target) contracts, where appropriate, where the reward for saving 
as well as the burden of risk is appropriately shared with the 
contractor. The Department is also renewing its commitment to small 
business by increasing its goals and investments and placing greater 
emphasis on new technology.
    In line with President Obama's March 2009 memorandum on Government 
contracting, the BBP initiative promotes real competition as the most 
powerful tool the Department has to drive productivity. The USD(AT&L) 
requires program managers to present competitive strategies to him, 
even when there is not a traditional head-to-head competition. In those 
cases, we will harness competitive energy at the subcontract level 
where contractors can approach program managers with value engineering 
change proposals to achieve program goals in the most cost-effective 
manner.
        counternarcotics spending in mexico and central america
    Question. While the State Department is the primary U.S. agency 
providing security assistance to the Mexican and Central American 
Governments, according to a July 2010 report from the Government 
Accountability Office (GAO), ``In Mexico and Central America, the 
Department of Defense provides support to U.S. and foreign agencies 
with counternarcotics responsibilities which has increased in recent 
years and is separate from that provided under [the] Merida 
[Initiative].''
    How much Defense Department funding will support the Mexican and 
Central American Governments in their counternarcotics efforts in 
fiscal year 2012?
    Answer. The President's budget request for fiscal year 2012 
includes approximately $75.5 million in DOD counternarcotics support to 
Mexico; $4 million for Belize; $9 million for Guatemala; $2.7 million 
for Honduras; $2.1 million for El Salvador (excluding funds to operate 
and maintain the U.S. Navy's Counternarcotics Forward Operating 
Location in Comalapa, El Salvador); $2.7 million for Nicaragua; $2.6 
million for Costa Rica; and $8.2 million for Panama.
    Question. What will that funding be used for?
    Answer. U.S. Department of Defense counternarcotics (DOD CN) 
support includes training, equipment, infrastructure, and information 
sharing. DOD CN programs complement State Department-led security 
cooperation programs, principally the Merida Initiative with Mexico and 
the Central America Regional Security Initiative.
    Cooperation with Mexico concentrates on helping Mexican forces 
improve their tactical and operational proficiency, as well as air 
mobility, maritime law enforcement, communications, and reconnaissance 
capacities. Training includes air operations and maintenance, 
helicopter pilot training, rule of law, tactics for urban and night 
operations, logistics/resources management, maritime operations, ship 
maintenance and repair, search-and-rescue and lifesaving, and 
operational planning. Training includes an emphasis on intelligence-
driven and interagency operations as well as incorporating principles 
of respect for human rights. Equipment includes rigid hull inflatable 
boats, communications equipment, nonintrusive inspection scanners, 
aircraft avionics and sensors, and navigation equipment.
    Cooperation with Central America includes building and equipping 
maritime forward operating sites, maintenance facilities, land border 
crossing control posts and related facilities; providing intercept 
boats, night vision equipment, radar equipment, ground vehicles, 
ballistic flotation vests and other equipment; providing operational 
support for partner country maritime interdiction; and training, which 
incorporates an emphasis on respect for human rights.
    In addition to providing direct support to foreign security forces, 
DOD CN operates, supports, or employs U.S. intelligence, radar, 
communications, computer, air and sea lift, counterdrug detection and 
monitoring, technology development, and related activities. Since these 
DOD activities help reduce drug trafficking and related threats to 
partner countries as well as the United States, they may in part be 
considered indirect support to those countries. This includes the work 
of Joint Task Force--North (JTF-N), which supports drug law enforcement 
agencies in the United States with an emphasis on the United States-
Mexico border region, and Joint Interagency Task Force--South (JIATF-
S), which conducts interagency and international counterdrug detection 
and monitoring operations. El Salvador also hosts a critical DOD CN 
Forward Operating Location to detect and monitor suspected drug 
trafficking.
    Question. How do you coordinate security funding for these 
countries with other U.S. agencies?
    Answer. Policy and strategic coordination are conducted by the DOD 
primarily through Interagency Policy Coordination (IPC) committees and 
related processes chaired by the national security staff which include 
the Office of National Drug Control Policy and the Office of Management 
and Budget (OMB). A variety of working groups support the IPC process. 
DOD requests for Drug Interdiction and Counterdrug Activities 
appropriations are coordinated with other agencies through OMB. DOD 
does not request specific levels of appropriation for CN cooperation 
with foreign countries, but allocates funding from the total 
appropriation provided.
    DOD CN support to foreign countries is requested by U.S. Military 
Groups (or equivalents) after coordination with the U.S. Embassy 
country team. DOD CN support may only be considered if requested by an 
appropriate official of a department or agency that has counter-drug 
responsibilities, as well as by an official of the recipient country. 
Proposals are forwarded to the geographic combatant command (GCC) for 
validation and prioritization and then to the Joint Staff and the 
Office of the Secretary of Defense for consideration. U.S. Northern 
Command and U.S. Southern Command are also responsible for JTF-N and 
JIATF-S respectively, while the U.S. Navy is responsible for the CN 
Forward Operating Location (FOL) in Comalapa, El Salvador. While JTF-N, 
JIATF-S, and FOL Comalapa do not provide capacity-building support to 
foreign countries, they conduct CN detection and monitoring, 
information-sharing, and related international cooperation.
    The Deputy Assistant Secretary of Defense for Counternarcotics and 
Global Threats (DASD CN&GT) conducts consultations with military 
commands, the Armed Services, Defense agencies, and other U.S. 
Government agencies to ensure that activities are prioritized and 
funded in line with policy and to make budgetary adjustments. Those 
processes are supplemented by a variety of working groups, program 
reviews, and similar mechanisms. The DASD CN&GT coordinates CN policy 
within DOD and other agencies, and provides policy, program, and 
budgetary guidance and oversight to the military commands, Armed 
Services, and Defense agencies which execute DOD CN activities.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski
    Question. Since 1997, there have been 74 Nunn-McCurdy breaches 
involving 47 major defense acquisition programs. The Government 
Accountability Office has identified proven management practices--many 
of which have been incorporated into Department of Defense (DOD) 
policy, but have yet to be fully implemented in practice--that can 
serve as tools to prevent DOD cost overruns. Greater adherence to 
practices at key phases of the acquisition process can help reduce 
weapon system costs, contain pressures for increased funding, and 
better address critical warfighter needs.
    What is being done within the DOD to incorporate better acquisition 
practices?
    Answer. With my support and input the Under Secretary of Defense 
for Acquisition, Technology and Logistics (USD(AT&L)) launched the 
Better Buying Power (BBP) initiative to reform the way we do business, 
affecting all of our acquisition programs. Treating affordability as a 
requirement and applying this standard at every milestone decision will 
have huge impacts to the Department's overall savings and will prevent 
cost overruns. Similarly, the Department's mandatory use of 
competition--even when there is not a traditional head-to-head 
situation--and requiring program managers to present a competitive 
strategy will have profound effects on the cost of weapon systems. The 
Department has set the goal of increasing the amount of contract 
obligations competitively awarded every year.
    The BBP initiative includes various other significant strategies to 
reduce nonproductive processes and bureaucracy, to incentivize 
productivity and innovation in industry, and to improve tradecraft in 
services acquisition, each with detailed focus areas and goals.
    Question. How does the DOD plan to incentivize acquisition program 
managers and contractors to drive down acquisition costs?
    Answer. Since early last year, Dr. Carter, USD(AT&L), has been 
working with the Component Acquisition Executives (CAEs) to craft and 
implement a series of initiatives geared toward gaining greater 
efficiencies and productivity. On September 14, 2010, he issued a 
memorandum for acquisition professionals, ``Better Buying Power (BBP): 
Guidance for Obtaining Greater Efficiency and Productivity in Defense 
Spending.'' He provided additional guidance with an implementation 
memorandum for the CAEs on November 3, 2010. These memoranda establish 
a framework for the enterprise to institutionalize the BBP reforms.
    To incentivize contractors, we are increasing our use of fixed-
price-type contracts with incentives structured to reward performance 
and share risks more equitably between Government and industry. Dr. 
Carter and Mr. Hale, the Under Secretary of Defense (Comptroller), have 
jointly issued guidance addressing conditions when savings are 
realized. The intent is to seek and eliminate low-value-added 
ingredients of program cost and to reward those doing so. Program 
managers' and Program Executive Officers' performance will, in part, be 
evaluated on this basis. Realized savings may mean additional resources 
to enhance their programs, for example, by freeing up funds to buy more 
warfighting capability or quantities. For industry, it means sharing in 
savings realized in the form of increased profit and enhanced corporate 
recognition for delivering value.
    Question. How will the Department measure success in achieving 
reform of its acquisition process?
    Answer. The Department is measuring success by implementation of 
the BBP initiative across the Department's acquisition programs. This 
implementation will result in quantifiable savings for the Department.
    The BBP initiative mandates treating affordability as a 
requirement. Program managers must establish an affordability target as 
a Key Performance Parameter equivalent for all ACAT I Milestone 
programs. The 100 percent application of this standard at all Milestone 
decisions will result in savings. For example, by conducting 
engineering tradeoff analysis with the commencement of the Ohio-class 
replacement--for example, examining the submarine design and evaluating 
what could be changed in the interests of lowering costs--the Navy has 
already reduced the estimated average procurement cost by 16 percent, 
with a goal of reaching a 27 percent reduction. This savings would not 
have been achieved without making affordability a requirement.
    As a part of the BBP initiative, the Department is increasing the 
use of competition to control costs of goods and services. Again, 
success in this initiative will be measured by implementation; for 
instance, every ACAT program milestone acquisition strategy must 
contain a competitive strategy for evaluation at each milestone review. 
Another measurable competition goal of the Department is to increase 
the amount of contract obligations competitively awarded by 1 percent 
every year.
    We expect each program to have aggressive goals. These goals will 
be tracked and monitored to ensure implementation and to harvest and 
share good ideas with broader applicability.
    Continued aggressive application of the BBP initiative will 
continue to bring measurable success in terms of real cost savings to 
the Department.
    Many aspects of wounded warrior care in the military healthcare 
system is in need of reform. The Dole-Shalala Report on military 
healthcare reform has still not been fully implemented. Many wounded 
warriors still find that the Medical and Physical Evaluation Board 
process takes too long, is too adversarial, and is duplicative with the 
VA process. Less than 40 percent of active, reserve, or guard members 
were even ``somewhat'' satisfied with the disability evaluation system 
and less than 50 percent said they ``completely'' or ``mostly'' 
understood the system.
    Question. What is the status of implementing the Dole-Shalala 
Report recommendations pertinent to the reform of the military health 
system?
    Answer. The Dole-Shalala recommendation to reform the disability 
evaluation system requires considerable legislative action to fully 
implement. In the meantime, the DOD and VA have implemented new 
processes to improve and coordinate what was previously two separate 
disability evaluation systems, while preserving DOD's requirement for 
determining fitness for military duty and the VA's requirement to 
compensate for disabling conditions as a result of military service. 
Both Departments are committed to use existing authorities to reform 
and continuously improve existing processes.
    Question. What is DOD's goal for implementing a single disability 
evaluation system with the VA that will ensure when wounded warriors 
are discharged, they do not have to wait months with mo income or 
support to access the VA medical system?
    Answer. In order to address the challenges in the prior systems 
created to address disability evaluation for our wounded warriors, the 
Integrated Disability Evaluation System (IDES) (a joint DOD/VA program) 
was created beginning in November 2007. The DOD goal is that IDES will 
be available at all Military Treatment Facilities (MTFs) by September 
2011. The IDES combines two previously separate and sequential systems 
(the military Disability Evaluation System and the VA Compensation & 
Benefit process) into one concurrent process. This simplifies 
Disability evaluation processes, eliminates duplicate disability 
examinations and ratings and places VA counselors (Military Service 
Coordinators (MSCs)) in MTFs to ensure a smooth transition to Veteran 
status. This eliminates the benefits gap, provides a VA disability 
rating, (amount of benefits they will receive from VA) before leaving 
the service and provides a more simple, seamless, fast and fair 
Disability Evaluation System for servicemembers.
    The US Family Health Plan (USFHP) designed by the Congress in 1996 
provides the full TRICARE Prime benefit for military beneficiaries in 
16 States and the District of Columbia for more than 115,000 
beneficiaries. Beneficiaries are highly satisfied with this healthcare 
option. In 2010, more than 91 percent of USFHP beneficiaries were 
highly satisfied with the care they received, making it the highest-
rated healthcare plan in the military health system. The fiscal year 
2012 President's budget request includes a proposed legislative 
provision that future enrollees in US Family Health Plan would not 
remain in the plan upon reaching age 65.
    Question. Shouldn't DOD be using USFHP as a model to improve access 
to care and achieve better health outcomes? How are you planning to 
utilize the experience of USFHP in expanding these principles across 
the military health system for all beneficiaries?
    Answer. Yes, DOD is currently using USFHP as a model. US Family 
Health Plans, like all TRICARE contractors, have embraced the following 
goals: improved health, a positive patient experience, and responsible 
management of the costs; all in support of the central aim of assured 
military readiness. Their emphasis on preventive care, disease 
management, and enrollment of 30,000 of their 115,000 TRICARE 
beneficiaries in Patient Centered Medical Homes is significant. All 
TRICARE programs now offer preventive care with no copays; disease 
management programs are widely available for those diagnosed with 
chronic illness; and hundreds of thousands of TRICARE patients across 
the Nation are enrolled in Medical Home practices.
    The President's budget initiative would limit enrollment of any new 
patients older than age 65 under the current financial structure. In 
planning to utilize the experience of USFHP in expanding these 
principles across the military health system for all beneficiaries, we 
have encouraged USFHP leaders to continue to care for these patients 
under Medicare and TRICARE for Life. We expect the early investment in 
prevention will result in greater wellness later in life, independent 
of the payment model; that loyal patients will choose to remain with 
their doctors; and the Federal Government will still accrue important 
savings.
    The most recent data for those older than age 65, our dual-eligible 
DOD/Medicare population, shows that satisfaction with the TRICARE For 
Life benefit is equal to the satisfaction of USFHP enrollees. We 
anticipate that this satisfaction will remain equivalent for the long 
term.
    Question. DOD has proposed that, after a certain date, Medicare 
eligible beneficiaries will no longer be able to enroll in USFHP. What 
is DOD's plan to reach out to, and work with CMS and the USFHPs to 
explore options that ensure continuity of care for those beneficiaries?
    Answer. The Department's primary concern is the effect of this 
proposal on the beneficiaries, and we believe that there will be no 
impact on continuity of care. The following plan details how DOD will 
work with CMS and the USFHP's to explore options to ensure continuity 
of care.
    Current enrollees will be grandfathered into the program and will 
see no change in their coverage. For those who enroll in the USFHP in 
the future, they would be transitioned to TRICARE For Life (TFL) upon 
reaching age 65, consistent with other TRICARE Prime enrollees. Under 
TFL, beneficiaries will receive comprehensive healthcare coverage with 
minimal out-of-pocket expenses.
    Although Medicare becomes the primary payer when beneficiaries age 
out of Prime, with TFL paying the difference, USFHP providers accepting 
Medicare can continue to see and treat TFL beneficiaries.
    Providers can also continue to manage care and referrals for their 
primary care patients as well as offer disease management and 
prevention program which are hallmarks of quality patient care.
    The Department remains deeply committed to the continued success of 
the USFHPs. These six plans, covering approximately 115,000 of our 9.6 
million beneficiaries, are a valued part of our military healthcare 
system. We will continue to work with the USFHPs on behalf of all of 
our patients to meet the goals of improved health, a positive patient 
experience, and responsible management of the costs.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                 minimum essential security conditions
    Question. The President has made it clear that he intends to 
withdraw troops from Afghanistan in the coming months, and while I am a 
supporter of this drawdown, I am concerned with the security situation 
on the ground for our remaining forces.
    What are the minimum essential conditions in Afghanistan that can 
sustain stability with a minimum level of support from the United 
States and other countries?
    Answer. The ability to transition provinces and districts to Afghan 
security lead while reducing the support required of the United States 
will depend first and foremost on the readiness and capability of 
Afghan forces to provide security to the population relative to the 
threat in each area. Governance and development are also crucial as 
they are ultimately the keys to providing secure communities the basic 
levels of services and economic opportunity that will keep them 
resistant to insurgency. Continuing progress and efforts to dismantle 
and defeat al Qaeda and to degrade the insurgency are also essential to 
achieving these conditions. Finally, we are negotiating a strategic 
partnership with Afghanistan that will help ease uncertainty in the 
region by underscoring the continued United States interest in and 
commitment to Afghanistan's stability and security.
                     joint electronic health record
    Question. However, the agreement to develop a joint electronic 
health record is only one step in a very difficult multi-step process.
    What steps have you taken to ensure that the progress you have made 
on the joint electronic health record continues, and is ultimately 
successful, once you leave the Department?
    Answer. I have taken critical steps with Secretary Shinseki to 
ensure forward progress on the integrated electronic health record 
(iEHR).
  --At the highest departmental levels, we have reaffirmed our 
        commitment, to jointly chair recurring oversight meetings and 
        are establishing a robust governance structure which is 
        essential to the continued success of the iEHR.
  --A critical component of this governance structure is the iEHR 
        Advisory Board, which will include clinical proponents 
        appointed by the Assistant Secretary of Defense Health Affairs, 
        Service Surgeons General, and their clinical counterparts from 
        the VA.
  --Additionally, a Program Executive and the Deputy Director will be 
        selected jointly by the SECDEF and the Secretary of Veterans 
        Affairs (VA). The Program Executive will make decisions related 
        to requirements, design methodologies, application priorities, 
        implementation schedule, and deployment sequence.
                integrated disability evaluation system
    Question. Just last week, I met with an amputee at Bethesda who has 
been in the process of getting his Medical Evaluation Board (MEB) 
completed since January. This is a young man who was severely injured 
several years ago and is ready to leave the service and begin the next 
phase of his life. Six months is much too long for a servicemember to 
languish in this process.
    Will the Department of Defense commit to looking at the overall 
issue of MEB timeliness and come back with a plan to improve the 
process?
    Answer. Yes, DOD agrees that such delays for our transitioning 
servicemembers are unacceptable. The Department is committed to not 
only looking at the MEB timeliness but to improving it.
                            wounded warriors
    Question. I am concerned about the human cost of this war. We have 
invested more than $421 billion in combat operations, but this war is 
fought by people. Last Friday I met with Corporal Todd Nicely, 1 of 3 
quadruple amputees from the wars in Iraq and Afghanistan.
    What efforts are underway to better address the injuries faced by 
dismounted troops?
    Answer. The Department's efforts are underway to continuously study 
the injuries from the current conflict and more effective ways to treat 
them. For example:
  --The Armed Forces Medical Examiner reviews all fatalities to 
        document cause of death and assesses the performance of 
        personal protective equipment (PPE) to document its 
        effectiveness and opportunities for improvement. The Services 
        are continually looking for ways to improve PPE to prevent 
        injury.
  --Combat trauma surgical teams are continually improving their 
        techniques for care. Stateside surgical teams are enhancing 
        limb salvage techniques and improving amputation care.
  --The U.S. Army Surgeon General (SG) recently appointed the 
        ``Dismounted Complex Blast Injury Task Force'' which has 
        studied the causation, prevention, protection, treatment, and 
        long-term care options of these more serious and complex battle 
        injury patterns. The Task Force was comprised of clinical and 
        operational medical experts from the Departments of Defense 
        (DOD) and Veterans Affairs (VA) and solicited input from 
        subject matter experts in both Federal and civilian sectors. 
        Efforts to act upon these recommendations of the Task Force are 
        ongoing.
    Question. Will the DOD commit to working with Secretary Shinseki to 
collaboratively improve the ability of the VA to address some of the 
new prosthetics provided to servicemembers? I am concerned the VA is 
receiving these amputees into their system and they do not have the 
capacity to properly service their new limbs.
    Answer. Yes, the DOD is committed to working with Secretary 
Shinseki. There is already close coordination between the two agencies 
to ensure we meet the needs of our wounded warriors. Our Center of 
Excellence for Extremity Injuries and Amputations will offer 
opportunities to share best practices and technical innovation in 
rehabilitation. Two of the current activities between VA and DOD to 
improve prosthetic care are:
  --evaluation of the new highly technical prostheses and the 
        ``legacy'' less complicated devices; and
  --creating a joint network of prosthetic care to improve service 
        delivery for servicemembers and veterans.
    Oversight of this collaborative work is conducted by the VA/DOD 
Joint Executive Council, composed of leaders from both agencies and the 
Services.
    In addition to our collaborative work on prosthetics, VA and DOD 
participate in many additional joint activities, including processes to 
share healthcare resources, development of clinical practice 
guidelines, joint facility planning, information sharing and electronic 
health record development, integrating the disability evaluation 
systems, improving transitions and coordination of care, and suicide 
prevention efforts. Both agencies are committed to ongoing and 
developing collaborative strategies and coordinated efforts to assist 
servicemembers and veterans.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell
    Question. What is the Department of Defense doing to recover 
missing U.S. military personnel in the Global War on Terror?
    Answer. Searching for and rescuing captured servicemembers in the 
Global War on Terror are top priorities for the U.S. military. U.S. and 
coalition forces, along with the Intelligence Community and other 
agencies, continue to make every effort to facility this recovery. Upon 
their return, these servicemembers will undergo a methodical process 
designed to assist those who have experienced the ordeals of capture 
and captivity. In addition, we continue to assist family members during 
this difficult period.
    Question. Please explain the purpose behind the recently directed 
project #1892/AT&L 10-402 Rand Study entitled ``A review of the 
Department of Defense's Plans to Disposal of its Existing Stockpile of 
Chemical Weapons.'' It was reported that $500,000 was spent on this 
project. Please provide the project's justification and cost.
    Answer. The purpose of the RAND Study was to conduct an independent 
review of DOD plans for completing destruction of the remaining 
stockpiles of chemical weapons. Specific areas of review included 
identifying potential schedule and cost efficiencies, determining 
whether the planned acquisition strategy is most advantageous for 
meeting the Government's treaty obligations and other national 
priorities, and examining the current organizational construct of the 
chemical demilitarization program. The study was a key element in 
identifying performance and schedule risks leading to congressional 
notification of a Nunn-McCurdy breach.
    Increased program cost projections justified the review, which will 
ensure appropriate steps are taken to maximize efficiencies in 
completing destruction of the remaining U.S. chemical weapons 
stockpile.
    The RAND Study cost $502,000.
    Question. Please explain why the study ``A review of the Department 
of Defense's Plans to Disposal of its Existing Stockpile of Chemical 
Weapons'' does not mention communication with the Citizens Advisory 
Commissions at either ACWA site when these Commissions were 
specifically established under Public Law 102-484, subtitle G, section 
172 to receive citizen concerns regarding the chemical weapons disposal 
program.
    Answer. The RAND National Defense Research Institute, a federally 
funded research and development center, was commissioned to conduct an 
objective independent review of DOD plans for completing destruction of 
the remaining stockpiles of chemical weapons. The specific tasks 
originally assigned to RAND were:
  --Task 1: Review the pending (January 2010) contract between the 
        Government and the Bechtel-Parsons contractor team for the next 
        construction phase of the Blue Grass Army Depot;
  --Task 2: Conduct a detailed examination of the acquisition strategy/
        business plan for the ACWA program and provide recommendations 
        for improvement;
  --Task 3: Analyze the Government's management structure for running 
        the ACWA and U.S. Army Chemical Materials Agency (CMA) 
        programs; and
  --Task 4: Describe an appropriate close-out plan for CMA sites.
    During the study effort, Task 4, which would have more directly 
involved the Citizens Advisory Commissions, was de-scoped to allow RAND 
to allocate more resources to Task 2.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. So, the subcommittee will reconvene on 
Wednesday, June 22, at 10:30 a.m. for our last hearing, and 
we'll close our books then.
    The subcommittee stands in recess.

    [Whereupon, at 12:35 p.m., Wednesday, June 15, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, June 22.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              


                        WEDNESDAY, JUNE 22, 2011

                                       U.S. Senate,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:39 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Cochran, and Shelby.

                       NONDEPARTMENTAL WITNESSES

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. First, I'd like to apologize to all of you 
for this lateness. Last night we were deluged with 
thunderstorms, and I live in Rockville, Maryland. It took me 2 
hours to get in. No traffic lights, and American drivers 
without traffic lights.
    So I'd like to welcome all of you to this hearing to 
receive testimony pertaining to the various issues related to 
defense appropriations requests. Because we have so many 
witnesses, I will have to remind the witnesses that they will 
be limited to 4 minutes apiece. I'm sorry about that.
    At this point I'd like to recognize my vice chairman, 
Senator Cochran.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you. It's a pleasure 
to join you in welcoming the witnesses to the hearing. We 
appreciate your interest in our work and it will make a 
contribution to helping improve our national security and the 
work we do here in supporting our military forces and related 
interests around the world.
    Chairman Inouye. Our first witness is Dr. Matthew King of 
the American Thoracic Society. Dr. King.
STATEMENT OF MATTHEW KING, M.D., ON BEHALF OF THE 
            AMERICAN THORACIC SOCIETY
    Dr. King. Mr. Chairman, members of the subcommittee: Thank 
you for hearing me today. My name is Matt King. I'm a pulmonary 
physician in Nashville, Tennessee, and I've worked at both 
Vanderbilt University and the Nashville Veterans Administration 
(VA) Hospital with military personnel and veterans.
    I'm testifying today on behalf of the American Thoracic 
Society, which is a medical professional organization dedicated 
to the prevention, treatment, and cure of lung disease. Many of 
the members of the American Thoracic Society work in the 
military and with the VA, and as such we've become deeply 
concerned with the respiratory issues that some of our military 
personnel are suffering.
    There is a real cause for concern here. As you may have 
read in the New York Times over the weekend, there have been 
several studies reporting a startling number of respiratory 
disorders in our military personnel returning from Iraq and 
Afghanistan. In fact, military personnel that have served in 
Iraq and Afghanistan are reporting severe respiratory diseases 
at a rate seven times higher than people who are serving 
elsewhere.
    Studies have documented increases in asthma, fixed 
obstructive lung disease, allergic rhinitis, and several other 
rare pulmonary disorders. I personally have been involved in a 
study that's going to be published next month of 50 veterans 
returning from Iraq and Afghanistan that have a rare incurable 
pulmonary disease caused constrictive bronchiolitis. These 
patients often have normal pulmonary function tests, but, 
despite their normal tests, are having severe respiratory 
symptoms.
    We don't know exactly why, but Iraq and Afghanistan 
veterans are exposed to a number of inhalational insults, 
ranging from dust storms to inhaled smoke from burn pits to 
aerosolized metal and chemicals from exploding improvised 
explosive devices (IEDs), blast overpressure or shock waves to 
the lung, outdoor allergens such as date pollen, and indoor 
allergens such as the mold aspergillus. We think many of these 
are contributing. We've identified many respiratory illnesses, 
but we really don't know the scope of the problem.
    So there are several questions: What are the key causative 
agents? How many veterans are experiencing this disease? What 
is the best way to identify and treat the servicemen and women? 
Attention is needed to address these and other important 
questions.
    The American Thoracic Society recommends the following 
steps: All service men and women should have pre- and post-
deployment pulmonary function testing. The Department of 
Defense (DOD) and VA should support projects to establish a 
more comprehensive normative pulmonary function test database 
used to evaluate military men and women. The DOD and VA should 
jointly create and fund a program to study the respiratory 
exposures that may be contributing to these respiratory 
illnesses. Potential goals of this kind of research program 
could include identifying the exact agents to which people are 
exposed and that may be causing the illnesses, considering 
potential population-based and individual interventions that 
could prevent or at least reduce exposure to these causative 
agents, and supporting research and to improve prevention, 
detection, and treatments for deployment-related respiratory 
diseases.
    Also, the DOD and VA should consider establishing centers 
of excellence to enhance research and clinical treatment of 
these service men and women that are returning with deployment-
related respiratory illnesses.
    Finally, we believe that the DOD and VA should create a 
standard administrative approach to determining respiratory 
disability for the Operation Iraqi Freedom and Enduring Freedom 
service personnel.
    Thank you. The American Thoracic Society appreciates the 
opportunity to testify here. I'd be happy to answer any 
questions.
    [The statement follows:]
                 Prepared Statement of Dr. Matthew King
    The American Thoracic Society appreciates the opportunity to 
testify before the Senate Department of Defense Appropriations 
Subcommittee regarding the fiscal year 2012 budget.
    The American Thoracic Society is a medical professional society of 
over 15.000 members who are dedicated to the prevention, detection, 
treatment and cure of respiratory, sleep and critical care related 
illnesses. Our physicians, nurses, respiratory therapists and basic 
scientists are engaged in research, education and advocacy to reduce 
the worldwide burden of respiratory diseases.
    Many members of the American Thoracic Society service as 
researchers and clinicians in the U.S. military and at VA medical 
centers. As such, we are deeply concerned about the respiratory health 
of U.S. military personal.
    And there is cause for concern.
    A surprising number of returning service men and women from Iraq 
and Afghanistan are experiencing moderate to server respiratory 
diseases. There are several anecdotes of military personal who were 
elite athletes--marathon runners, road cyclists--before deployment are 
no longer able to complete the 2 mile physical readiness run. Even more 
puzzling, is in many cases, these service men and women have normal 
pulmonary function text values. Despite having normal pulmonary 
function test values, these service members severely de-saturate during 
exercise.
    Physicians have described a new disease called Iraq-Afghanistan War 
lung injury (IAW-LI), among soldiers deployed to these countries as 
part of Operation Iraqi Freedom, Operation Enduring Freedom, and 
Operation New Dawn. Not only do soldiers deployed to Iraq and 
Afghanistan suffer serious respiratory problems at a rate seven times 
that of soldiers deployed elsewhere, but the respiratory issues they 
present with show a unique pattern of fixed obstruction in half of 
cases, while most of the rest are clinically reversible new-onset 
asthma, in addition to the rare interstitial lung disease called 
nonspecific interstitial pneumonitis associated with inhalation of 
titanium and iron.
    Iraq and Afghanistan veterans are faced with a barrage of 
respiratory insults, including: (1) dust from the sand, (2) smoke from 
the burn pits, (3) aerosolized metals and chemicals from exploded IEDs, 
associated with (4) blast overpressure or shock waves to the lung, (5) 
outdoor aeroallergens such as date pollen, and (6) indoor aeroallergens 
such as mold aspergillus. Researchers have experimentally exposed mouse 
models to samples of the dust taken from Iraq and Afghanistan and found 
that it produces extreme histological responses, underscoring the 
severe exposures that these soldiers undergo.
    A case series study was recently presented at the American Thoracic 
Society international conference by Robert Miller, MD, of Vanderbilt 
University. Dr. Miller discussed a cohort of patients with constrictive 
bronchiolitis who were deployed in Iraq.
    While clinicians and researchers have defined the condition, there 
is much we don't know. There are uncertainties regarding the number of 
service men and women who are experiencing deployment related 
respiratory illnesses. Complicating both clinical and research efforts 
is that fact that deployed troops do not receive pre and post 
deployment pulmonary function tests--in this case a simple spirometry 
test--that would help doctors know the extent of lung damage.
    Further challenges include the spectrum of possible lung diseases 
that may be occurring from Southwest Asia exposures, such as asthma, 
constrictive bronchiolitis, acute eosinophilic pneumonia and 
rhinosinusitis, and the variability in exposures that may confer risk, 
including particulate matter from desert dusts, burn pits, vehicle 
exhaust and tobacco smoke.
    Clinicians face a different set of challenges with this patient 
population, including the role of targeted medical surveillance in 
determining need for further respiratory diagnostic evaluation, and, 
importantly, the role of surgical lung biopsy in clinical diagnosis of 
post-deployment lung disease.
    Attention is needed to address the respiratory illnesses suffered 
by returning service men and women. The ATS recommends the Department 
of Defense and the Department of Veterans Affairs take the following 
steps:
  --The American Thoracic Society recommends all military personal 
        deployed in combat receive a pre- and post-deployment pulmonary 
        function test.
  --Support projects to establish more comprehensive normative 
        pulmonary function test values for military men and women.
  --The Department of Defense and the Department of Veterans Affairs 
        jointly create and fund a program to study respiratory 
        exposures of servicemen and women deployed in Iraq and 
        Afghanistan. Potential goals of this joint research program 
        could include:
    --Identify likely agents responsible for respiratory illnesses of 
            returning OEF and OIF personal;
    --Consider potential population based and individual interventions 
            to prevent or reduce exposure to causative agents; and
    --Support research into improved prevention, detection and 
            treatments for deployment-related respiratory disease.
  --Establish Centers of Excellence to facilitate improved research and 
        clinical treatment of service men and women experiencing severe 
        deployment-related respiratory illnesses.
  --The Department of Defense and the Department of Veterans Affair 
        consider administrative standardized approaches to determining 
        respiratory disability for deployment related respiratory 
        illnesses.
    The American Thoracic Society appreciates the opportunity to 
testify before the House Department of Defense Appropriations 
Subcommittee. We would be happy to answer any questions or provide 
follow up information.

    Chairman Inouye. Dr. King, I thank you very much. Will you 
share with this subcommittee the results of your testing, your 
findings?
    Dr. King. Of my personal study?
    Chairman Inouye. Yes.
    Dr. King. We have had 80 to 100 people from Fort Campbell 
in Kentucky referred to Vanderbilt University, where we've done 
extensive testing in patients, in whom we were unable to 
identify any other cause of potential respiratory symptoms. We 
did open-lung biopsies and found this constrictive 
bronchiolitis, which is an untreatable and irreversible 
condition, to which we speculate it is a reaction to some 
inhalational toxin experienced in Southwest Asia.
    Chairman Inouye. Thank you.
    Senator Cochran.
    Senator Cochran. I think we owe you a debt of gratitude and 
thanks for bringing this to our attention. I think you can be 
assured we'll look into it and try to make a decision that 
responds to the challenge.
    Dr. King. Thank you very much.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. No comments. I just want to hear the 
witnesses. Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Our next witness is Ms. Dee Linde of the Dystonia Medical 
Research Foundation. Ms. Linde.
STATEMENT OF DEE LINDE, PATIENT ADVOCATE, DYSTONIA 
            MEDICAL RESEARCH FOUNDATION
    Ms. Linde. Thank you, Mr. Chairman, and aloha nui loa to 
you.
    Mr. Chairman and members of the Senate Defense 
Appropriations Subcommittee: Thank you for the opportunity to 
testify today. My name is Dee Linde and I am a dystonia patient 
and volunteer with the Dystonia Medical Research Foundation, or 
DMRS. As a veteran and former Navy petty officer, I am honored 
to testify before this subcommittee.
    The DMRS is a patient-centered nonprofit organization 
dedicated to serving dystonia patients and their families. 
Dystonia is a neurological movement disorder that causes 
muscles to contract and spasm involuntarily. Dystonia is a 
chronic disorder whose symptoms vary in degrees of frequency, 
intensity, disability, and pain. Dystonia can be generalized or 
focal. Generalized dystonias affect all major muscle groups, 
resulting in twisting repetitive movements and abnormal 
postures. Focal dystonias affect a specific part of the body, 
such as the legs, arms, eyelids, or vocal cords.
    Dystonia can be hereditary or caused by trauma, and it 
affects approximately 300,000 persons in the United States. At 
this time there is no cure for dystonia and treatment is highly 
individualized. Patients frequently rely on invasive therapies.
    In 1995, after my Navy career, I started feeling symptoms 
for what would later be diagnosed as tardive dystonia, which is 
medication-induced dystonia. The symptoms started as 
uncontrollable shivering sensations. Over the next 2 years, the 
symptoms continued to worsen and I started feeling like I was 
being squeezed in a vise. My diaphragm was constricted and I 
couldn't breathe. I also had blepharospasm, a form of dystonia 
that forcibly shut my eyes, leaving me functionally blind even 
though there was nothing wrong with my vision.
    My dystonia affected my entire upper body and for years my 
spasms wouldn't allow me to sit in a chair or sleep safely in 
bed with my husband. I spent those years having to sleep and 
even eat on the floor.
    After I developed dystonia, I was forced to give up my 
private practice as a psychotherapist. Since I am a veteran, I 
receive all my medical care through the VA system. In 2000, I 
underwent surgery to receive deep brain stimulation (DBS). The 
neurosurgeon implanted leads into my brain that emit constant 
electrical pulses which interrupt the bad signals and help 
control my symptoms. Thanks to DBS, I have gone from being 
completely nonfunctional to having the ability to walk and move 
like a healthy individual. I'm happy to say that I am now 
almost completely symptom free.
    The DMRS has received reports that the incidence of 
dystonia in the United States has noticeably increased since 
our military forces were deployed to Iraq and Afghanistan. A 
June 2006 article in Military Medicine titled ``Post-Traumatic 
Shoulder Dystonia in an Active Duty Soldier'' stated that: 
``Dystonia after minor trauma can be as crippling as a 
penetrating wound, with disability that renders the soldier 
unable to perform his duties.''
    Awareness of this disorder, dystonia, is essential to avoid 
mislabeling and possibly mistreating a true neurological 
disease. The Department of Defense peer-reviewed medical 
research program is the most essential program studying 
dystonia in military and veteran populations, and I myself was 
the consumer reviewer on this panel. This program is critical 
to developing a better understanding of the mechanisms 
connecting trauma and dystonia.
    The dystonia community would like to thank the subcommittee 
for adding dystonia to the list of conditions eligible for 
study under the program in the fiscal year 2010 and 2011 
defense appropriation bills. We urge the subcommittee to 
maintain dystonia as an eligible condition in the defense peer-
reviewed medical research program in fiscal year 2012.
    Thank you for allowing me the opportunity to address the 
subcommittee today.
    Chairman Inouye. Ms. Linde, I thank you very much for your 
testimony and we will do our best.
    Ms. Linde. Thank you.
    Chairman Inouye. Senator Cochran.
    Senator Cochran. Mr. Chairman, I have nothing further to 
add. We appreciate your presence and your advice and 
observations for the benefit of the subcommittee.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. Nothing to add either, but I appreciate all 
of you being here.
    Ms. Linde. Thank you.
    Chairman Inouye. Thank you very much.
    [The statement follows:]
                    Prepared Statement of Dee Linde
    Mr. Chairman and members of the Senate Appropriations Defense 
Subcommittee, thank you for the opportunity to testify today. My name 
is Dee Linde, and I am a dystonia patient and volunteer with the 
Dystonia Medical Research Foundation or ``DMRF.'' I am also a former 
Navy service member and I am honored to testify before this 
subcommittee. The DMRF is a patient-centered, nonprofit organization 
dedicated to serving dystonia patients and their families. The DMRF 
works to advance dystonia research, increase dystonia awareness, and 
provide support for those living with the disorder.
    Dystonia is a neurological movement disorder that causes muscles to 
contract and spasm involuntarily. Dystonia is not usually fatal, but it 
is a chronic disorder whose symptoms vary in degrees of frequency, 
intensity, disability, and pain. Dystonia can be generalized or focal. 
Generalized dystonia affects all major muscle groups, resulting in 
twisting repetitive movements and abnormal postures. Focal dystonia 
affects a specific part of the body such as the legs, arms, hands, 
neck, face, mouth, eyelids, or vocal chords. Dystonia can be hereditary 
or caused by trauma, and it affects approximately 300,000 persons in 
the United States. At this time, there is no cure for dystonia and 
treatment is highly individualized. Patients frequently rely on 
invasive therapies like botulinum toxin injections or deep brain 
stimulation (DBS) to help manage their symptoms.
    In 1995, after my Navy career, I started feeling symptoms for what 
would later be diagnosed as tardive dystonia, which is medication-
induced dystonia. The symptoms started as an uncontrollable shivering 
sensation that often prompted people to ask me if I was cold. Over the 
next 2 years, the symptoms continued to worsen and I started feeling 
like I was being squeezed: my diaphragm was constricted and I couldn't 
breathe. I also had belpharospasm which meant that my eyes would shut 
forcibly and uncontrollably, leaving me functionally blind even though 
there was nothing wrong with my vision.
    The tardive dystonia affected my entire upper body and for years my 
spasms didn't allow me to sit in a chair, or sleep safely in the bed 
with my husband. As a family joke, my mother made my husband a nose 
guard to wear because I kept hitting him during the night. I spent 
those years having to sleep and even eat on the floor. Before I 
developed dystonia, I had my own private practice as a licensed 
psychotherapist which I had to give up as a result of my spasms.
    Because I have other service-connected disabilities and am 
considered 100 percent unemployable, I receive care at the Veterans 
hospital in Portland, Oregon. In 2000, I underwent surgery to receive 
deep brain stimulation (DBS). The surgeons implanted leads into my 
basil ganglia which is the part of the brain that controls movement. 
The leads emit electric pulses that interrupt the bad signals that my 
brain is sending to my body and allow me to control my movement. Thanks 
to DBS, I have gone from being completely non-functional, to having the 
ability to walk and to move like a healthy individual. I am happy to 
say that I am now almost completely symptom free. The battery packs for 
the DBS are implanted under my clavical, and I used to return to the 
hospital every 2 years to surgically replace them. In 2010, I had the 
new rechargeable battery implanted. This battery lasts for 9 years, and 
now I literally ``recharge my batteries'' for 2.5 hours at the end of 
every week.
    The DMRF has received reports that the incidence of dystonia in the 
United States has noticeably increased since our military forces were 
deployed to Iraq and Afghanistan. This recent increase is widely 
considered to be the result of a well-documented link between traumatic 
injuries and the onset of dystonia. A June 2006 article in Military 
Medicine, titled ``Post-Traumatic Shoulder Dystonia in an Active Duty 
Soldier'' reported on dystonia experienced by military personnel and 
stated that ``Dystonia after minor trauma can be as crippling as a 
penetrating wound, with disability that renders the soldier unable to 
perform his duties . . . awareness of this disorder [dystonia] is 
essential to avoid mislabeling, and possibly mistreating, a true 
neurological disease.'' As military personnel remain deployed for 
longer periods, we can expect dystonia prevalence in military and 
veterans populations to continue to rise.
    Although Federal dystonia research is conducted through a number of 
medical and scientific agencies, the Department of Defense (DOD) Peer-
Reviewed Medical Research Program remains the most essential program 
studying dystonia in military and veteran populations. This program is 
critical to developing a better understanding of the mechanisms 
connecting trauma and dystonia. The DMRF would like to thank the 
Subcommittee for adding dystonia to the list of conditions eligible for 
study under the DOD Peer-Reviewed Medical Research Program in the 
fiscal year 2010 and 2011 Defense Appropriation bills. The DMRF is 
excited to report that dystonia researchers were granted two awards in 
fiscal year 2010. We urge the Committee to maintain dystonia as a 
condition eligible for study through the Peer-Reviewed Medical Research 
Program in fiscal year 2012.
    Thank you again for allowing me the opportunity to address the 
Subcommittee today. I hope you will continue to include dystonia as a 
condition eligible for study under the DOD Peer-Reviewed Medical 
Research Program. Below is a poem that I composed during one of my most 
difficult moments, and I hope this poem provides greater insight to the 
hardships and loneliness faced in enduring this disorder.
                              dysharmonia
The twitch \1\ doctor says it's dystonia
Which is far from the likes of harmonia
The muscles don't work in dystonia
But how graceful they are in harmonia
I can walk down the street
Without two left feet
I can hold my head high
Not low like a geek
I can keep both my eyes wide open
And swallow my food without chokin'
But that's with harmonia
And I've got dystonia
Which leaves me just feelin'
Alonia

    \1\ twitch doctor = Movement Disorder Specialist.

    Chairman Inouye. Our next witness is Ms. Barbara Zarnikow, 
Interstitial Cystitis Association.
STATEMENT OF BARBARA ZARNIKOW, CO-CHAIR, INTERSTITIAL 
            CYSTITIS ASSOCIATION
    Ms. Zarnikow. Chairman Inouye, Ranking Member Cochran, and 
distinguished members of the Defense Subcommittee: Thank you 
for the opportunity to testify today, to present testimony 
today on interstitial cystitis, commonly known as ``IC.'' I am 
Barbara Zarnikow from Buffalo Grove, Illinois. I am an IC 
patient and co-chair of the Interstitial Cystitis Association, 
a nonprofit organization which provides advocacy, research 
funding, and education for patients living with IC.
    IC is a chronic debilitating condition characterized by 
recurring pain, pressure, and discomfort in the bladder and 
pelvic region. It is often associated with frequent and urgent 
urination. There is no known cause and it can take years to 
diagnose because it is often misdiagnosed. There is not a test 
to diagnose IC, so it is diagnosed through the process of 
elimination of other diseases with similar symptoms.
    IC affects an estimated 3 to 8 million women in the United 
States and is often believed to be primarily a women's disease. 
However, recent research shows that 1 to 4 million men suffer 
from IC as well. IC is a debilitating disease that has an 
impact on the quality of life similar to what's been reported 
by individuals suffering from end stage renal disease and 
rheumatoid arthritis. IC can cause patients to suffer from 
severe pain, sleep deprivation, high rates of depression, 
anxiety, and overall decline in quality of life. IC affects all 
aspects of a patient's life.
    A study conducted between 1992 and 2002 found that 
approximately 1.4 percent of veterans served by the Veterans 
Health Administration were being treated for IC. The study also 
showed a 14 percent increase in patients being treated for IC 
in VHA during this same period.
    IC is currently part of the Department of Defense peer-
reviewed medical research program. This is so important because 
studies have shown that the incidence of IC in our population 
is much higher than previously thought.
    A prime example of how IC can impact members of the 
military is former Navy Captain Gary Mowrey, retired, who was 
forced to cut his career short as a result of IC. Captain 
Mowrey was in the Navy for 25 years and has served as commander 
of the VAQ133 Squadron, operations officer on the USS Dwight D. 
Eisenhower, chief of the Enlisted Performance Division in the 
Bureau of Naval Personnel, and earned a Southwest Asia Service 
Medal with two stars for his service in Operation Desert Storm.
    In 1994 he began to experience significant pelvic pain and 
could not always make it to the bathroom. He was not even able 
to sit through normal meetings. After months of unsuccessful 
antibiotic treatments for urinary tract infections, Captain 
Mowrey was diagnosed with IC, and shortly after retired due to 
the pain and limitations imposed by IC.
    He then attempted to teach high school math, but had to 
retire from this position as well due to the pain, frequent 
urination, and fatigue associated with having to urinate 20 to 
30 times each night. If you've ever had a bladder infection or 
know someone who has, imagine if that infection never went away 
and you had to live with these symptoms your entire life. That 
is IC.
    On behalf of IC patients, including many veterans, we 
request IC continue to be eligible for the peer-reviewed 
medical research program for fiscal year 2012. Thank you for 
your time and consideration.
    Chairman Inouye. Ms. Zarnikow, I thank you very much on 
behalf of the subcommittee. We appreciate it very much.
    [The statement follows:]
     Prepared Statement of Barbara Gordon, RD, Executive Director, 
                   Interstitial Cystitis Association
    Chairman Inouye, Ranking Member Cochran, and distinguished members 
of the Subcommittee, thank you for the opportunity to present 
information on Interstitial Cystitis (IC). The Interstitial Cystitis 
Association (ICA) provides advocacy, research funding, and education to 
ensure early diagnosis and optimal care with dignity for people 
affected by IC. Until the biomedical research community discovers a 
cure for IC, our primary goal remains the discovery of more efficient 
and effective treatments to help patients live with the disease.
    IC is a chronic condition characterized by recurring pain, 
pressure, and discomfort in the bladder and pelvic region. The 
condition is often associated with urinary frequency and urgency, 
although this is not a universal symptom. The cause of IC is unknown. 
Diagnosis is made only after excluding other urinary and bladder 
conditions, possibly causing 1 or more years of delay between the onset 
of symptoms and treatment. Men suffering from IC are often misdiagnosed 
with bladder infections and chronic prostatitis. Women are frequently 
misdiagnosed with endometriosis, inflammatory bowel disease (IBD), 
irritable bowel syndrome (IBS), vulvodynia, and fibromyalgia, which 
commonly co-occur with IC. When healthcare providers are not properly 
educated about IC, patients may suffer for years before receiving an 
accurate diagnosis and appropriate treatment.
    Although IC is considered a ``women's disease,'' scientific 
evidence shows that all demographic groups are affected by IC. Women, 
men, and children of all ages, ethnicities, and socioeconomic 
backgrounds develop IC, although it is most commonly found in women. 
Recent prevalence data reports that 3 to 8 million American women and 1 
to 4 million American men suffer from IC. Using the most conservative 
estimates, at least 1 out of every 77 Americans suffer from IC, and 
further study may indicate prevalence rates as high as 1 out of every 
28 people. Based on this information, IC affects more people than 
breast cancer, Alzheimer's diseases, and autism combined.
    The effects of IC are pervasive and insidious, damaging work life 
and productivity, psychological well-being, personal relationships, and 
general health. Quality of life studies have found that the impact of 
IC can equal the severity of rheumatoid arthritis and end-stage renal 
disease. Health-related quality of life in women with IC is worse than 
in women with endometriosis, vulvodynia, or overactive bladder alone. 
IC patients have significantly more sleep dysfunction, higher rates of 
depression, increased catastrophizing, anxiety and sexual dysfunction.
    Although IC research is currently conducted through a number of 
Federal entities, including the National Institutes of Health (NIH) and 
the Centers for Disease Control and Prevention (CDC), the DOD's Peer-
Reviewed Medical Research Program (PRMRP) remains essential. The PRMRP 
is an indispensable resource for studying emerging areas in IC 
research, such as prevalence in men, the role of environmental 
conditions such as diet in development and diagnosis, barriers to 
treatment, and IC awareness within the medical military community. 
Specifically, IC education and awareness among military medical 
professionals takes on heightened importance, as neither the 
President's fiscal year 2012 budget request nor the Centers for Disease 
Control and Preventions fiscal year 2011 Operating Plan include renewed 
funding for the CDC's IC Education and Awareness Program.
    On behalf of ICA, and as an IC patient, I would like to thank the 
Subcommittee for including IC as a condition eligible for study under 
the DOD's PRMRP in the fiscal years 2010 and 2011 DOD Appropriations 
bills. The scientific community showed great interest in the program, 
responding to the initial grant announcement with an immense outpouring 
of proposals. We urge Congress to maintain IC's eligibility in the 
PRMRP in the fiscal year 2012 DOD Appropriations bill, as the number of 
current military members, family members, and veterans affected by IC 
is increasing.

    Ms. Zarnikow. Thank you.
    Senator Cochran. Thank you for your attendance. We 
appreciate your giving us this information and the observations 
you have about this problem.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. I thank the whole panel and I thank this 
woman who just gave this presentation. This is very 
interesting. It affects a lot of people. I know that.
    Thank you, Mr. Chairman.
    Ms. Zarnikow. It does affect a lot of people.
    Chairman Inouye. Thank you very much.
    Ms. Zarnikow. Thank you.
    Chairman Inouye. Our next witness is Mr. Dane Christiansen, 
International Foundation for Functional Gastrointestinal 
Disorders.
STATEMENT OF DANE R. CHRISTIANSEN, DEVELOPMENT 
            COORDINATOR, INTERNATIONAL FOUNDATION FOR 
            FUNCTIONAL GASTROINTESTINAL DISORDERS
    Mr. Christiansen. Chairman Inouye, Ranking Member Cochran, 
Senator Shelby, and the distinguished members of the Defense 
Appropriations Subcommittee: Thank you for the opportunity to 
present testimony. My name is Dane Christiansen and I am 
testifying on behalf of the International Foundation for 
Functional Gastrointestinal Disorders, or IFFGD. We request 
that the subcommittee include functional gastrointestinal 
disorders on the list of conditions deemed eligible for study 
through the Department of Defense peer-reviewed medical 
research program within fiscal year 2012 defense appropriations 
legislation.
    Founded in 1991, IFFGD is a nonprofit patient-driven 
organization dedicated to helping individuals affected by 
functional gastrointestinal and motility disorders. The phrase 
``functional gastrointestinal disorder'' or ``functional GI 
disorder'' refers to a family of conditions where the nerves, 
muscles, and related mechanisms of the digestive tract do not 
function properly. The result is multiple, persistent, and 
often painful symptoms, ranging from nausea and vomiting to 
altered bowel habit.
    Over two dozen functional gastrointestinal disorders have 
been identified. Severity ranges from bothersome to disabling 
and life-altering. The conditions may strike anywhere along the 
GI tract. One thing they have in common is that little is 
understood about their underlying mechanisms and as a result 
little is understood about treatment.
    The few treatments available reduce symptoms in some but 
not all patients. These conditions are chronic, costly from a 
healthcare standpoint, impair productivity, and exact a 
tremendous toll in terms of quality of life. The onset of a 
functional gastrointestinal disorders can be triggered by 
infection of the GI tract and/or severe stress. Deployed 
military personnel face an elevated chance of experiencing 
these risk factors.
    The 2010 Institute of Medicine (IOM) report that looked at 
health effects of serving in the gulf war concluded that there 
is sufficient evidence for an association between deployment 
and symptoms consistent with functional gastrointestinal 
disorders. Functional gastrointestinal disorders are one of the 
hallmarks of what was previously described as gulf war 
syndrome.
    The Veterans Administration recognizes a presumption of 
service connection for the purposes of soldiers with functional 
gastrointestinal disorders applying for disability benefits.
    In order to better articulate the suffering associated with 
functional gastrointestinal disorders, I would like to be the 
voice of Dr. Brennan Spiegel, a physician who regularly sees 
military personnel affected by these conditions. I'm quoting 
now:
    ``Those of us in the VA are now witnessing a near-epidemic 
emerging and that is chronic GI symptoms, like abdominal pain, 
nausea, vomiting, and diarrhea. The stories are heartbreaking 
and compelling and they are constant and unrelenting. Imagine 
having the stomach flu. Now think about having that every day 
and being told that we can't treat it very well.
    ``Every Monday morning at the West Los Angeles VA Medical 
Center, our clinic cares for at least 5 to 10 patients with 
service-related GI symptoms. Recently, a soldier entered my VA 
exam room square-jawed and battle-tested. Within minutes, he 
was crying, averting eye contact, and trying to explain that 
his life came to a near halt after kicking in a door one day in 
Tikrit. His abdomen was burning while in the moment and he 
stifled nausea to get through the event. Then, when it was 
over, he broke from his troop and threw up. It's never stopped 
and that was 2 years ago.
    ``There are so many other stories like this. We're making 
progress, but we don't have good answers or good treatments.''
    Please consider including functional gastrointestinal 
disorders on the eligible conditions list for the DOD peer-
reviewed medical research program within fiscal year 2012 
defense appropriations legislation. This would allow 
researchers to begin working to better understand, diagnose, 
and treat these conditions, particularly as they impact 
veterans and active duty military personnel.
    Thank you for your time and your consideration of this 
request.
    [The statement follows:]
   Prepared Statement of Nancy J. Norton, President and Co-Founder, 
   International Foundation for Functional Gastrointestinal Disorders
    Thank you for the opportunity to present the views of the 
International Foundation for Functional Gastrointestinal Disorders 
(IFFGD) regarding functional gastrointestinal disorders (FGIDs) among 
service personnel and veterans. I am here today to request that that 
the Subcommittee include FGIDs as a condition eligible for study in the 
Department of Defense (DOD) Peer-Reviewed Medical Research Program in 
fiscal year 2012.
    Established in 1991, IFFGD is a patient-driven nonprofit 
organization dedicated to assisting individuals affected by functional 
GI disorders, and providing education and support for patients, 
healthcare providers, and the public at large. Our mission is to inform 
and support people affected by painful and debilitating digestive 
conditions, about which little is understood and few (if any) treatment 
options exist. The IFFGD also works to advance critical research on 
functional GI and motility disorders, in order to provide patients with 
better treatment options, and to eventually find a cure.
    FGIDs are disorders in which the movement of the intestines, the 
sensitivity of the nerves of the intestines, or the way in which the 
brain controls intestinal function is impaired. People who suffer from 
FGIDs have no structural abnormality which makes it difficult to 
identify their condition using X-rays, blood tests or endoscopies. 
Instead, FGIDs are typically identified and defined by the collection 
of symptoms experienced by the patient. For this reason, it is not 
uncommon for FGID suffers to have unnecessary surgery, medication, and 
medical devices before receiving a proper diagnosis. Examples of FGIDs 
include irritable bowel syndrome (IBS) and functional dyspepsia. IBS is 
characterized by abdominal pain and discomfort associated with a change 
in bowel pattern, such as diarrhea and/or constipation. Symptoms of 
functional dyspepsia usually include an upset stomach, pain in the 
belly, and bloating.
    FGIDs can be emotionally and physically debilitating. Due to 
persistent pain and bowel unpredictability, individuals who suffer from 
this disorder may distance themselves from social events, work, and 
even may fear leaving their home. Stigma surrounding bowel habits may 
act as barrier to treatment, as patients are not comfortable discussing 
their symptoms with doctors. Because FGID symptoms are relatively 
common and not life-threatening, many people dismiss their symptoms or 
attempt to self-medicate using over-the-counter medications.
    In April 2010, the National Academy of Sciences (NAS) published a 
report titled ``Gulf War and Health, Volume 8: Update on the Health 
Effects of Serving in the Gulf War'' which determined that there is 
sufficient evidence to associate deployment to the gulf war and FGIDs, 
including IBS and functional dyspepsia. According to the report, there 
have been a large number of FGID cases among gulf war veterans, and 
their symptoms have continued to be persistent in the years since that 
war. The NAS report focused on the incidence of GI disorders among 
veterans and did not attempt to determine causality. However, the 
report provides compelling evidence linking exposure to enteric 
pathogens during deployment and the development of FGIDs. The NAS 
recommended that further research be conducted on this association.
    The Department of Defense (DOD) Peer-Reviewed Medical Research 
Program conducts important research on medical conditions that impact 
veterans and active duty military personnel. Given the conclusions of 
the NAS report, and the report's recommendations for further research 
on the link between FGIDs and exposures experienced by veterans in the 
gulf war, FGIDs would make an appropriate addition to the eligible 
conditions list for the Defense Medical Research Program. Therefore, we 
ask that you include ``functional gastrointestinal disorders'' as a 
condition eligible for study in the fiscal year 2012 DOD Peer-Reviewed 
Medical Research Program.
    Thank you again for the opportunity to address the Subcommittee 
today. I hope you agree that the evidence linking FGIDs to service in 
the gulf war is compelling, and that you will include ``functional 
gastrointestinal disorders'' as a condition eligible for study in the 
Department of Defense Peer-Reviewed Medical Research Program in fiscal 
year 2012.
                            ibs information
    IBS, one of the most common functional GI disorders, strikes all 
demographic groups. It affects 30 to 45 million Americans, 
conservatively at least 1 out of every 10 people. Between 9 to 23 
percent of the worldwide population suffers from IBS, resulting in 
significant human suffering and disability. IBS as a chronic disease is 
characterized by a group of symptoms that may vary from person to 
person, but typically include abdominal pain and discomfort associated 
with a change in bowel pattern, such as diarrhea and/or constipation. 
As a ``functional disorder'', IBS affects the way the muscles and 
nerves work, but the bowel does not appear to be damaged on medical 
tests. Without a definitive diagnostic test, many cases of IBS go 
undiagnosed or misdiagnosed for years. It is not uncommon for IBS 
suffers to have unnecessary surgery, medication, and medical devices 
before receiving a proper diagnosis. Even after IBS is identified, 
treatment options are sorely lacking and vary widely from patient to 
patient. What is known is that IBS requires a multidisciplinary 
approach to research and treatment.

    Chairman Inouye. I thank you very much, Mr. Christiansen. 
Your request will be very seriously considered. Thank you.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you for bringing the 
witnesses to the subcommittee today to let us hear about these 
situations. I think we have an obligation to look carefully 
into the suggestions of service connection between the events 
in their military deployment and the symptoms that are later 
discovered. I hope we have enough people who are willing to 
devote attention to this so we can figure out a way to find a 
cure or medicinal palliatives that make it better or in any 
other way possible to help restore them to good health.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. What are the, say, two most promising areas 
of research in this area to date, dealing with all of these 
issues?
    Mr. Christiansen. I am not a physician like Dr. King. I 
would hate to comment. But we do work extensively to support 
and encourage research whenever possible. There is a number of 
areas where we're learning more and more about gut flora and 
the type of bacteria that is normally within the gut and how 
something like a GI infection or eating food or drinking water 
from a country or an area where health conditions aren't up to 
par may throw that balance off, allow things, pathogens, to 
leak deeper into the gut than they would normally be, and that 
would explain why the conditions are chronic as opposed to it 
just goes through your system and then you're okay a couple 
weeks later. So looking at the gut flora is becoming more and 
more of a promising area.
    I would also say--and this is a little bit off of 
functional gastrointestinal disorders directly, but it applies 
to this whole larger family of functional GI motility 
disorders, particularly as it applies to veterans and members 
of the military--that tremendous steps are being made in 
regenerative medicine, trying to actually regrow parts of the 
digestive system that may not be working. The anal sphincter is 
a perfect example. There is tremendous efforts underway to 
actually in a lab setting repair and regrow anal sphincters, 
and if this--for example, if there's a soldier who suffered an 
IED attack and significant pelvic floor damage, regenerative 
medicine could one day be at a point where he could get a new 
anal sphincter and return to a normal quality of life. So those 
are two areas I'd acknowledge off the top.
    Senator Shelby. Have there been studies to show that this 
is a higher rate of problems with military service personnel as 
opposed to the general population?
    Mr. Christiansen. Yes. The IOM report I previously cited, 
there was actually two IOM studies that looked at this. I'd be 
happy to share the results of those studies with the 
subcommittee. But it is--they had a very high threshold for 
acknowledging service connection and they found that the 
incidence was higher than it would be in the general population 
as a result of military service.
    Senator Shelby. Thank you.
    Chairman Inouye. I thank you very much. I'd like to thank 
the panel.
    Our next panel consists of: Ms. Kathleen Moakler, National 
Military Family Association; Chief Master Sergeant John R. 
``Doc'' McCauslin, Air Force Sergeants Association; Captain 
Charles D. Connor, U.S. Navy retired, American Lung 
Association; Mr. Rick Jones, National Association for Uniformed 
Services.
    Our first witness, Ms. Kathleen Moakler. Welcome.
STATEMENT OF KATHLEEN B. MOAKLER, GOVERNMENT RELATIONS 
            DIRECTOR, NATIONAL MILITARY FAMILY 
            ASSOCIATION
    Ms. Moakler. Thank you, Chairman Inouye, Senator Cochran, 
Senator Shelby, for allowing us to speak with you this morning 
about military families, our Nation's families. We continue to 
share the concerns of military families with policymakers, as 
we have for over 40 years.
    In the past several years, the National Military Family 
Association has done informal surveys with military families on 
our web site. In our most recent survey, when 1,200 family 
members responded on their top priorities, over 84 percent felt 
it was important that Congress and DOD focus on ensuring 
support programs meet the needs of families experiencing 
multiple deployments. Almost 80 percent felt that helping 
wounded service members and their families should be a top 
priority, and 78 percent felt that helping surviving families 
was an important priority.
    We applaud the words of Defense Secretary Gates and 
Chairman Mullen before this subcommittee last week when they 
stressed the need for continued funding for military family 
programs and support of the wounded. Our association agrees 
that we will be dealing with the costs of these wars for years 
to come and we cannot afford to shortchange our wounded 
warriors and our military families, who have sacrificed so much 
and will continue to sacrifice.
    We also agree with Admiral Mullen that communities must 
join with DOD and the services to support service members, 
veterans, and military families in their midst. To help with 
that effort, our association has developed ``Finding Common 
Ground,'' a toolkit for communities supporting military 
families that includes easily achievable action items and 
useful resources to guide anyone who wants to support military 
families, but doesn't know where to start. It can be downloaded 
for free at our website, militaryfamily.org.
    Child care remains a concern for military families, as 
evidenced by a recent Pew Center on the States survey. We are 
pleased that, in addition to building new child development 
centers, DOD and the services are taking innovative steps to 
address these concerns by working to improve capacity in 
private child care agencies within States. But the need 
remains, especially for the families of the deployed National 
Guard and Reserve.
    At our Operation Purple Healing Adventures Camp for 
families of the wounded, ill, and injured, families continue to 
tell us there is a tremendous need for child care services at 
or near military treatment facilities. Families need child care 
to attend medical appointments, especially mental healthcare 
appointments. Our association urges Congress to sustain funding 
and resources to meet the child care needs of military 
families, to include hourly, drop-in, and increased respite 
care across all services, for families of deployed service 
members and the wounded, ill, and injured, as well as those 
with special needs family members.
    Our association also feels that funding to provide more 
dedicated resources, such as youth or teen centers, and 
enhanced partnerships with national youth-serving 
organizations, would be important ways to better meet the needs 
of our older youth and teens during deployment.
    In 2009 the policy concerning the attendance of the media 
at the dignified transfer of remains at Dover Air Force Base 
was changed. Family members are now given the option of flying 
to Dover. In previous years only about 3 percent of family 
members attended this ceremony. Since the policy change, over 
90 percent of families are sending members to Dover to attend. 
This is provided by the--the money for this is provided by the 
services and none of the costs have been funded. We would ask 
that funds be appropriated to cover the costs of this 
extraordinary expense.
    Thank you for your long-term interest in support of--and 
support for military families. I look forward to any questions 
you may have.
    [The statement follows:]
               Prepared Statement of Kathleen B. Moakler
    The National Military Family Association is the leading nonprofit 
organization committed to improving the lives of military families. Our 
over 40 years of accomplishments have made us a trusted resource for 
families and the Nation's leaders. We have been at the vanguard of 
promoting an appropriate quality of life for active duty, National 
Guard, Reserve, retired service members, their families and survivors 
from the seven uniformed services: Army, Navy, Air Force, Marine Corps, 
Coast Guard, Public Health Service and the National Oceanic and 
Atmospheric Administration.
    Association Volunteers and Representatives in military communities 
worldwide provide a direct link between military families and the 
Association staff in the Nation's capital. These volunteers are our 
``eyes and ears,'' bringing shared local concerns to national 
attention.
    The Association does not have or receive Federal grants or 
contracts.
    Chairman Inouye and Distinguished Members of the Subcommittee, the 
National Military Family Association would like to thank you for the 
opportunity to present testimony for the record concerning the quality 
of life of military families--the Nation's families. In the 10th year 
of war, we continue to see the impact of repeated deployments and 
separations on our service members and their families. We appreciate 
your recognition of the service and sacrifice of these families. Your 
response through legislation to the increased need for support as 
situations have arisen has resulted in programs and policies that have 
helped sustain our families through these difficult times.
    We recognize, too, the emphasis that the Administration is placing 
on supporting military families. The work of Mrs. Obama and Dr. Biden 
through the Joining Forces initiative in raising awareness of the 
sacrifices military families are making has been well received by the 
Nation and appreciated by our families. The American people are 
beginning to understand how 1 percent of our population in the United 
States is being called upon to bear 100 percent of the burden of 
defending our Nation, giving up years of family life together, and how 
they need the support of the other 99 percent of Americans to continue 
carrying that burden.
    The recent Presidential Study Directive-9, which called on Federal 
agencies to outline how they are presently or could in the future 
support military families, reinforced Administration support as well. 
The vision of the study, as contained in the report Strengthening Our 
Military Families, Meeting America's Commitment, is, ``to ensure that:
  --The U.S. military recruits and retains the highest-caliber 
        volunteers to contribute to the Nation's defense and security;
  --Service members can have strong family lives while maintaining the 
        highest state of readiness;
  --Civilian family members can live fulfilling lives while supporting 
        their service member(s); and
  --The United States better understands and appreciates the 
        experience, strength, and commitment to service of our military 
        families.
    This vision resonates with all that our Association has tried to 
work for during our 42 year history. We believe policies and programs 
should provide a firm foundation for families challenged by the 
uncertainties of deployment and transformation. Our Association cares 
about the health and resilience of military families. Innovative and 
evidence based approaches are essential to address the needs of 
military children. Families promote a service member's well-being. We 
realize support for service members and their families is not solely 
provided by the government. Communities also uphold the families.
    Our Nation did not expect to be involved in such a protracted 
conflict. Our military families continue to require effective tools and 
resources to remain strong. We ask Congress, policymakers, non-
government organizations, and communities to remain vigilant and 
respond in a proactive manner. Our Nation can express recognition for 
their sacrifices by promoting the well-being of military families.
    In this statement, the National Military Family Association will 
expand on several issues of importance to military families: Family 
readiness, family health, and family transitions.
Family Readiness
    Policies, programs and services must adapt to the changing needs of 
service members and families. Standardization in delivery, 
accessibility, and funding are essential. Educated and resourced 
families are able to take greater responsibility for their own 
readiness. Recognition should be given to the unique challenges facing 
families with special needs. Support should provide for families of all 
components, in every phase of military life, no matter where they live.
    We appreciate provisions in the National Defense Authorization Acts 
and Appropriations legislation in the past several years that 
recognized many of these important issues. Excellent programs exist 
across the Department of Defense (DOD) and the Services to support our 
military families. There are redundancies in some areas and times when 
a new program was initiated before anyone looked to see if an existing 
program could be adapted to answer an evolving need. We realize all 
Americans will be asked to tighten their belts in this time of tighter 
budgets and some military family programs may need to be downsized or 
eliminated. We ask your support for programs that do work when looking 
for efficiencies, rewarding best practices and programs that are truly 
meeting the needs of families. While we understand that communities and 
non-government organizations may fill gaps in areas where government 
programs are lacking, we maintain DOD and the Department of Veterans 
Affairs (VA) still have a responsibility to provide an appropriate 
level of support for our service members, veterans, their families, and 
survivors. In this section we will highlight some of these best 
practices and identify needs.
            Child Care
    Child care remains a concern for military families, as evidenced by 
a recent Pew Center on the States survey (http://www.preknow.org/
documents/2011_MilitaryFamiliesSurvey.pdf). We are pleased that in 
addition to building new Child Development Centers, DOD and the 
Services are taking innovative steps to address these concerns.
    In December, DOD announced a new pilot initiative in 13 States 
aimed at improving the quality of child care within communities, which 
should translate into increased child care capacity for military 
families living in geographically dispersed areas. Last year, DOD 
contracted with SitterCity.com to help military families find 
caregivers and military subsidized child care providers. The military 
Services and the National Association of Child Care Resource and 
Referral Agencies (NACCRRA) continue to partner to provide subsidized 
child care to families who cannot access installation based child 
development centers.
    At our Operation Purple Healing Adventures camp for families of 
the wounded, ill and injured, families continue to tell us there is a 
tremendous need for child care services at or near military treatment 
facilities. Families need child care to attend medical appointments, 
especially mental health appointments. Our Association encourages the 
expansion of drop-in child care for medical appointments on the DOD or 
VA premises or partnerships with other organizations to provide this 
valuable service.
    We appreciate the requirement in the fiscal year 2010 National 
Defense Authorization Act calling for a report on financial assistance 
provided for child care costs across the Services and Components to 
support the families of service members deployed in support of a 
contingency operation and we look forward to the results.
    Our Association urges Congress to sustain funding and resources to 
meet the child care needs of military families to include hourly, drop-
in, and increased respite care across all Services for families of 
deployed service members and the wounded, ill, and injured, as well as 
those with special needs family members.
            Working with Youth
    Older children and teens must not be overlooked. School personnel 
need to be educated on issues affecting military students and must be 
sensitive to their needs. To achieve this goal, schools need tools. 
Parents need tools, too. Military parents constantly seek more 
resources to assist their children in coping with military life, 
especially the challenges and stress of frequent deployments. Parents 
tell us repeatedly they want resources to ``help them help their 
children.'' Support for parents in their efforts to help children of 
all ages is increasing, but continues to be fragmented. New Federal, 
public-private initiatives, increased awareness, and support by DOD and 
civilian schools educating military children have been developed. 
However, many military parents are either not aware such programs exist 
or find the programs do not always meet their needs.
    Through our Operation Purple camps, our Association has begun to 
identify the cumulative effects multiple deployments are having on the 
emotional growth and well-being of military children and the challenges 
posed to the relationship between deployed parent, caregiver, and 
children in this stressful environment. Understanding a need for 
qualitative analysis of this information, we commissioned the RAND 
Corporation to conduct a longitudinal study on the experience of 1,500 
families. RAND followed these families for 1 year, and interviewed the 
non-deployed caregiver/parent and one child per family between 11 and 
17 years of age at three time points over the year. Recruitment of 
participants was extremely successful because families were eager to 
share their experiences. The research addressed three key questions:
  --How are school-age military children faring?
  --What types of issues do military children face related to 
        deployment?
  --How are non-deployed caregivers handling deployment and what 
        challenges do they face?
    In January 2011, RAND released the report, ``Views from the 
Homefront: The Experience of Youth and Spouses from Military Families'' 
(http://www.rand.org/pubs/technical_reports/TR913.html), detailing the 
longitudinal findings. The research showed:
  --Older teens reported more difficulties during deployment and 
        reintegration.
  --Girls reported more difficulties during reintegration.
  --There were few differences on military characteristics, but reserve 
        component youth reported more difficulties during deployment.
  --Reserve component caregivers reported more challenges with 
        deployment and reintegration.
  --The total number of months away mattered more than the number of 
        deployments.
  --There is a direct correlation between the mental health of the 
        caregiver and the well-being of the child.
  --Quality of family communication mattered to both children and 
        caregiver well-being.
    What are the implications of these findings? Families facing longer 
deployments need targeted support--especially for older teens, girls 
and the reserve component. Support needs to be in place across the 
entire deployment cycle, including reintegration, and some non-deployed 
parents may need targeted mental health support. One way to address 
these needs would be to create a safe, supportive environment for older 
youth and teens. Dedicated installation Youth Centers with activities 
for our older youth would go a long way to help with this. Since many 
military families, especially those with older children, live off the 
installation, enhanced partnerships between DOD and national youth-
serving organizations are also essential. DOD's current work with the 
4-H program is an example of this outreach and support of military 
children in the community. DOD can encourage other organizations to 
share outreach strategies and work together to strengthen a network of 
support for military youth in their civilian communities. We must 
ensure, however, that, once we have encouraged these community 
organizations and services to engage with families, we also encourage 
installations and installation services to be collaborative and not set 
up roadblocks to interaction and support.
    To address the issues highlighted by our research, our Association 
hosted a summit in May 2010, where we engaged with experts to develop 
research-based action items. Our Blue Ribbon Panel outlined innovative 
and pragmatic ideas to improve the well-being of military families, 
recognizing it is imperative solutions involve a broad network of 
government agencies, community groups, businesses, and concerned 
citizens.
    We've published the recommendations from the summit in Finding 
Common Ground: A Toolkit for Communities Supporting Military Families. 
The toolkit is organized in a format similar to our Association's well-
received Military Kids and Teens Toolkits. It contains cards for each 
of the intended communities--including Educators, Friends and Family, 
Senior leaders, Employers, and Health Care Providers--whose help is so 
important to military families. It also contains the summary document 
with the recommendations formulated by our Blue Ribbon Panel and summit 
participants.
    Our goal was to create a user-friendly resource, with easily 
achievable action items and pertinent resources to guide everyone who 
wants to support military families, but may not know how. The toolkit 
lists concrete actions individuals, organizations, and communities can 
take to assist and support our military families. We hope that when 
someone receives a copy, they will go first to the card that most fits 
their relationship to military families and look for ideas and 
resources. We would like them to then take the time to explore other 
cards and the summit summary. While many of the suggested actions are 
simple, we've also presented some of the tougher things that require 
the building of partnerships and a longer-term focus. These actions are 
not exhaustive. It is our hope this toolkit will start conversations 
and stimulate action. Everyone can contribute--it doesn't need to be 
complicated or expensive. Just remembering to include military families 
in outreach is the beginning.
    Our Association feels that funding to provide more dedicated 
resources, such as youth or teen centers and enhanced partnerships with 
national youth-serving organizations, would be important ways to better 
meet the needs of our older youth and teens during deployment.
            Military Housing
    In our recent study conducted by RAND, researchers found that 
living in military housing was related to fewer caregiver-reported 
deployment-related challenges. Fewer caregivers who lived in military 
housing reported their children had difficulties adjusting to parent 
absence (e.g., missing school activities, feeling sad, or not having 
peers who understand what their life is like) as compared to caregivers 
who rented homes. The study team explored the factors that determine a 
military family's housing situation in more detail. Among the list of 
potential reasons provided for the question, ``Why did you choose to 
rent?'' researchers found that the top three reasons parents/caregivers 
cited for renting included: military housing was not available (31 
percent), renting was most affordable (28 percent), and preference to 
not to invest in the purchase of a home (26 percent).
    Privatized housing expands the opportunity for families to live on 
the installation and is a welcome change for military families. We are 
pleased with the annual report that addresses the best practices for 
executing privatized housing contracts. As privatized housing evolves, 
the Services are responsible for executing contracts and overseeing the 
contractors on their installations. With more joint basing, more than 
one Service often occupies an installation. The Services must work 
together to create consistent policies not only within their Service, 
but across the Services as well. Pet policies, deposit requirements, 
and utility policies are some examples of differences across 
installations and across Services. How will Commanders address these 
variances under joint basing? Military families face many transitions 
when they move, and navigating the various policies and requirements of 
each contractor is frustrating and confusing. It's time for the 
Services to increase their oversight and work on creating seamless 
transitions by creating consistent policies across the Services.
    In the GAO Report ``Military Housing: Enhancements Needed to 
Housing Allowance Process and Information Sharing among Services'' GAO 
published in May 2011, GAO highlighted the military Services have 
consistently underestimated the amount needed to pay the basic 
allowance of housing by $820 million to $1.3 billion each year since 
2006. Since the Services have underestimated the amount needed to pay 
the allowance, DOD has had to shift funds budgeted from other 
programs--which disrupts the funding to these program.
    The key factor to underestimation is the timing of developing the 
budget process--it takes nearly 1 year to determine the rates. While 
this process is needed, it causes the Services to underestimate the 
true cost of the housing allowance. Rates are set in December--10 
months after the President's budget is submitted to Congress and 2 
months after the new fiscal year begins. In addition, changes in 
planned force structure (i.e. grow the force initiatives), and the 
increased use of mobilized reserve personnel (more personnel eligible 
to receive a housing allowance) present other challenges.
    The same GAO report highlighted housing deficits ranging from 1 
percent to 20 percent of the total demand at growth installations. 
While Military construction does not fall under the purview of this 
Committee, this Committee can help address the housing deficient by 
extending the use of the Temporary Lodging Expense Allowance. This 
allowance is designed to partially offset expenses when the service 
member occupies temporary quarters while relocating from one 
installation to another. Generally payable for up to 10 days--the Army 
has extended it up to 60 days at growth installations, such as Fort 
Drum and Fort Bliss.
    We ask Congress to consider the importance of family well-being by 
addressing Basic Allowance for Housing (BAH) inequities.
    We also ask for additional money to cover the housing allowance 
shortage.
    We recommend that DOD provide the Services with the flexibility to 
extend the Temporary Lodging Expense Allowance at growth installations 
where there is a shortage of available housing.
            Commissaries and Exchanges
    The Military Personnel Subcommittee of the House Armed Services 
Committee (HASC) held two hearings this year to discuss the importance 
of sustaining Morale, Welfare, and Recreation (MWR) programs and the 
commissary and exchange systems. We maintain that these programs must 
not become easy targets for the budget cutters. The military resale 
hearing reinforced the importance of the commissary and exchange and 
stressed the need for them to remain fiscally sound without reducing 
the benefit to military families. Our Association feels strongly that 
these quality programs for military families should be preserved, 
especially during this era of increased budget austerity.
    Our Association is concerned about one issue raised at the recent 
HASC resale hearing: the potential negative repercussions of the Tax 
Increase Prevention and Reconciliation Act of 2005 (TIPRA) on the 
military community. This legislation included a provision, Section 511, 
mandating Federal, State, and local governments to withhold 3 percent 
from payments for goods and services to contractors after December 31, 
2010. While the implementation has been delayed until December 31, 
2011, we believe this withholding requirement will have a direct impact 
on military families. We believe vendors who provide products sold in 
exchanges and commissaries will end up passing on the implementation 
costs to patrons and will be less willing to offer deals, allowances, 
promotions, and prompt payment discounts, which will thus diminish the 
value of the benefit for military families. The implementation costs 
for the exchange systems may also result in reduced dividends for MWR 
programs, which already operate on tight budgets. Although our 
Association realizes this tax issue does not fall under the Senate 
Appropriations Committee's jurisdiction, we ask Congress to repeal 
Section 511 of TIPRA in order to protect this important benefit for 
military families. If full repeal is not possible, we urge Congress to 
exempt the Defense Commissary Agency, Exchanges and MWR programs from 
the withholding requirement. Military families, who have borne the 
burden of this war for nearly 10 years, should not have to incur 
additional costs at commissaries and exchanges due to the effects of 
this law, which will compromise their quality of life programs when 
they need them most.
    The commissary benefit is a vital part of the compensation package 
for service members and retirees, and is valued by them, their 
families, and survivors. Our surveys and those conducted by DOD 
indicate that military families consider the commissary one of their 
most important benefits. In addition to providing average savings of 
more than 30 percent over local supermarkets, commissaries provide a 
sense of community. Commissary shoppers gain an opportunity to connect 
with other military families and are provided with information on 
installation programs and activities through bulletin boards and 
publications. Commissary shoppers also receive nutritional information 
through commissary promotions and campaigns, as well as the opportunity 
for educational scholarships for their children.
    Active duty and reserve component families have benefitted greatly 
from the addition of case lot sales. Our Association thanks Congress 
for allowing the use of proceeds from surcharges collected at these 
sales to help defray their costs. Case lot sales continue to be 
extremely well received and attended by family members not located near 
an installation. According to Army Staff Sgt. Jenny Mae Pridemore, 
quoted in the Charleston Daily Mail, ``We don't have easy access to a 
commissary in West Virginia and with the economy the way it is everyone 
is having a tough time. The soldiers and the airmen really need this 
support.'' On average, case lot sales save families between 40 and 50 
percent compared to commercial prices. This provides tremendous 
financial support for our remote families, and is a tangible way to 
thank them for their service to our Nation.
    In addition to commissary benefits, the military exchange system 
provides valuable cost savings to members of the military community, 
while reinvesting their profits in essential MWR programs. Our 
Association strongly believes that every effort must be made to ensure 
that this important benefit and the MWR revenue is preserved, 
especially as facilities are down-sized or closed overseas.
    Our Association urges Congress to continue to protect the 
commissary and exchange benefits, and preserve the MWR revenue all of 
which are vital to maintaining a health military community.
    We also ask Congress to repeal Section 511 of TIPRA. If full repeal 
is not achievable, we urge Congress to exempt the Defense Commissary 
Agency, Exchanges and MWR programs from this withholding requirement.
            National Guard and Reserve
    Our Association has long recognized the unique challenges our 
National Guard and Reserve families face and their need for additional 
support. Reserve component families are often geographically dispersed, 
live in rural areas, have service members deployed as individual 
augmentees, and do not consistently have the same family support 
programs as their active duty counterparts. According to the research 
conducted for us by the RAND Corporation, spouses of service members in 
the National Guard and Reserves reported poorer emotional well-being 
and greater household challenges than their full-time active duty 
peers. Our Association believes that greater access to resources 
supporting National Guard and Reserve caregivers is needed to further 
strengthen our reserve component families.
    We appreciate the great strides that have been made in recent years 
by both Congress and the Services to help support our reserve component 
families. Our Association would like to thank Congress for the fiscal 
year 2011 NDAA provision authorizing travel and transportation for 
members of the Uniformed Services and up to three designees to attend 
Yellow Ribbon Reintegration Program events, and for the provision 
enhancing the Yellow Ribbon Reintegration Program by authorizing 
service and State-based programs to provide access to all service 
members and their families. We appreciate your ongoing support of the 
Yellow Ribbon Reintegration Program and ask that you continue funding 
this quality of life program for reserve component families.
    Our Association is gratified that family readiness is now seen as a 
critical component to mission readiness. We have long believed that 
robust family programs are integral to maintaining family readiness, 
for both our active duty and reserve component families. We are pleased 
the Department of Defense Reserve Family Readiness Award recognizes the 
top unit in each of the Reserve Components that demonstrate superior 
family readiness and outstanding mission readiness.
    Our Association asks Congress to continue funding the Yellow Ribbon 
Reintegration Program and stresses the need for greater access to 
resources supporting our Reserve Component caregivers.
            Flexible Spending Accounts
    Congress has provided the Armed Forces with the authority to 
establish Flexible Spending Accounts (FSA), yet the Service Secretaries 
have not established these important tax savings accounts for service 
members. We are pleased H.R. 791 and S. 387 have been introduced to 
press each of the seven Service Secretaries to create a plan to 
implement FSAs for uniformed service members. FSAs were highlighted as 
a key issue presented to the Army Family Action Plan at their 2011 
Department of the Army level conference. FSAs would be especially 
helpful for families with out-of-pocket dependent care and healthcare 
expenses. It is imperative that FSAs for uniformed service members take 
into account the unique aspects of the military lifestyle, such as 
Permanent Change of Station (PCS) moves and deployments, which are not 
compatible with traditional FSAs. We ask that the flexibility of a 
rollover or transfer of funds to the next year be considered.
    Our Association supports Flexible Spending Accounts for uniformed 
service members that account for the unique aspects of military life 
including deployments and Permanent Change of Station moves.
            Financial Readiness
    Ongoing financial literacy and education is critically important 
for today's military families. Military families are not a static 
population; new service members join the military daily. For many, this 
may be their first job with a consistent paycheck. The youthfulness and 
inexperience of junior service members makes them easy targets for 
financial predators. Financial readiness is a crucial component of 
family readiness. The Department of Defense Financial Readiness 
Campaign brings financial literacy to the forefront and it is important 
that financial education endeavors include military families.
    Our Association looks forward to the establishment of the Office of 
Service Member Affairs this July. We encourage Congress to monitor the 
implementation of this office to ensure it provides adequate support to 
service members and their families. Military families should have a 
mechanism to submit a concern and receive a response. The new office 
must work in partnership with DOD.
    Military families are not immune from the housing crisis. We 
applaud Congress for expanding the Homeowners' Assistance Program to 
wounded, ill, and injured service members, survivors, and service 
members with Permanent Change of Station orders meeting certain 
parameters. We have heard countless stories from families across the 
Nation who have orders to move and cannot sell their home. Due to the 
mobility of military life, military homeowners must be prepared to be a 
landlord. We encourage DOD to continue to track the impact of the 
housing crisis on military families.
    We appreciate the increase to the Family Separation Allowance (FSA) 
that was made at the beginning of the war. In more than 10 years, 
however, there has not been another increase. We ask that the Family 
Separation Allowance be indexed to the Cost of Living Allowance (COLA) 
to better reflect rising costs for services.
    Our Association asks Congress to increase the Family Separation 
Allowance by indexing it to COLA.
Family Health
    When considering changes to the healthcare benefit, our Association 
urges policymakers to recognize the unique conditions of service and 
the extraordinary sacrifices demanded of military members and families. 
Repeated deployments, caring for the wounded, and the stress of 
uncertainty create a need for greater access to professional behavioral 
healthcare for all military family members.
    Family readiness calls for access to quality healthcare and mental 
health services. Families need to be assured the various elements of 
their military health system are coordinated and working as a 
synergistic system. The direct care system of Military Treatment 
Facilities (MTFs) and the purchased care segment of civilian providers 
under the TRICARE contracts must work in tandem to meet military 
readiness requirements and ensure they meet access standards for all 
military beneficiaries.
    Congress must provide timely and accurate funding for healthcare. 
DOD healthcare facilities must be funded to be ``world class,'' 
offering state-of-the-art healthcare services supported by evidence-
based research and design. Funding must also support the renovation of 
existing facilities or complete replacement of out-of-date DOD 
healthcare facilities. As we close Walter Reed Army Medical Center and 
open the new Fort Belvoir Community Hospital and the new Walter Reed 
National Military Medical Center, as part of the National Capitol 
Region BRAC process, we must be assured these projects are properly and 
fully funded. We encourage Congress to provide any additional funding 
recommended by DOD and the Defense Health Board's BRAC Subcommittee's 
report.
    Our Association recommends that DOD be funded to ``world class'', 
offering state-of-the-art healthcare services. Funding must also 
support renovation of existing facilities or replacement of out-of-date 
DOD healthcare facilities.
            TRICARE Reimbursement
    Our Association is concerned that continuing pressure to lower 
Medicare reimbursement rates will create a hollow benefit for TRICARE 
beneficiaries. We are appreciative Congress passed the Medicare and 
Medicaid Extenders Act of 2010 (Public Law 111-309), which provided a 
1-year extension of current Medicare physician payment rates until 
December 31, 2011. As the 112th Congress takes up Medicare legislation 
this year, we ask you to consider how this legislation will impact 
military healthcare, especially our most vulnerable populations, our 
families living in rural communities, and those needing access to 
mental health services.
    While we have been impressed with the strides TMA and the TRICARE 
contractors are making in adding providers, especially mental health 
providers to the networks, we believe more must be done to persuade 
healthcare and mental healthcare providers to participate and remain in 
the TRICARE system, even if that means DOD must raise reimbursement 
rates. We frequently hear from providers who will not participate in 
TRICARE because of what they believe are time-consuming requirements 
and low reimbursement rates. National provider shortages in the mental 
health field, especially in child and adolescent psychology, are 
exacerbated in many cases by low TRICARE reimbursement rates, TRICARE 
rules, or military-unique geographic challenges, such as large military 
beneficiary populations in rural or traditionally underserved areas. 
Many mental health providers are willing to see military beneficiaries 
on a voluntary status. We need to do more to attract mental health 
providers to join the TRICARE network. Increasing reimbursement rates 
is just one way of enticing them.
    Since TRICARE payments are linked to Medicare payments, we need 
Medicare reimbursement rates to be increased to improve access to 
providers.
    DOD will need additional funding to offset proposed TRICARE savings 
through increasing TRICARE Prime Retiree enrollment fees and changes to 
the Pharmacy copays enacted by Congress.
            Cost Saving Strategies in the 2012 Budget
    We appreciate DOD's continued focus on cost savings strategies in 
the 2012 budget. DOD's proposed TRICARE changes include a change in 
enrollment fees for TRICARE Prime for under age 65 retirees and a 
change in pharmacy co-pays. DOD should also incur savings through 
better management of healthcare costs. Our Association has always 
supported a mechanism to provide for modest increases to TRICARE Prime 
enrollment fee for retirees under age 65. TRICARE Prime, the managed 
care option for military beneficiaries, provides guaranteed access, low 
out of pocket costs, additional coverage, and more continuity of care 
than the basic military health benefit of TRICARE Standard. The annual 
enrollment fee of $230 per year for an individual retiree or $460 for a 
family has not been increased since the start of TRICARE Prime in 1995.
    We agree that DOD's proposed fiscal year 2012 increase of $5 per 
month per family and $2.50 per month per individual plan is indeed 
modest. We applaud DOD for deciding not to make any changes to the 
TRICARE benefit for active duty, active duty family members, medically 
retired service members, and survivors of service members and for not 
making any changes to the TRICARE Standard and TRICARE for Life (TFL) 
benefit.
    We have some concerns regarding DOD's selection of a civilian-based 
index in determining TRICARE Prime retiree enrollment fee increases 
after 2012. Our Association has always supported the use of Cost of 
Living Allowance (COLA) as a yearly index tied to TRICARE Prime retiree 
enrollment fee increases. We believe if DOD thought the rate of $230 
for individual and $460 for family was appropriate in 1995, then yearly 
increases tied to COLA would maintain that same principle. Our 
objection to the utilization of a civilian index is based on our 
concern that civilian healthcare experts cannot agree on an accurate 
index on which to base civilian healthcare yearly cost increases. The 
Task Force on the Future of Military Health Care ``strongly recommended 
that DOD and Congress accept a method for indexing that is annual and 
automatic.'' However, the Task Force recommended ``using a civilian-
only rather than total cost (including civilian and MTF costs for Prime 
beneficiaries) because the Task Force and DOD have greater confidence 
in the accuracy of the civilian care data and its auditability.'' We 
ask Congress to adopt the Task Force's DOD accountability 
recommendation and require DOD to become more accurate and establish a 
common cost accounting system across the MHS. Until it can do so, 
however, we believe increases tied to COLA are the most fair to 
beneficiaries and predictable for DOD.
    We do not support DOD's budget proposal to change the U.S. Family 
Health Plan (USFHP) eligibility, asking newly enrolled beneficiaries to 
transition from USFHP once they become Medicare/TRICARE for Life 
eligible. Our Association believes USFHP is already providing TMA's 
medical home model of care, maintaining efficiencies, capturing 
savings, and improving patient outcomes. Every dollar spent in 
preventative medicine is captured later when the onset of beneficiary 
co-morbid and chronic diseases are delayed. It is difficult to quantify 
the long-term savings not only in actual cost to the healthcare plan--
and thus to the government--but to the improvement in the quality of 
life for the beneficiary. Removing beneficiaries from USFHP at a time 
when they and the system will benefit the most from their preventative 
and disease management programs would greatly impact the continuity and 
quality of care to our beneficiaries and only cost shift the cost of 
their care from one government agency to another. Almost all USFHP 
enrollees already purchase Medicare Part B in case they decide to leave 
the plan or spend long periods of time in warmer parts of the country. 
There must be another mechanism in which beneficiaries would be allowed 
to continue in this patient-centered program. USFHP also meets the 
Patient Protection and Accountability Care Act's definition of an 
Accountable Care Organization. They certainly have the model of care 
desired by civilian healthcare experts and should be used by DOD as a 
method to test best-practices that can be implemented within the direct 
care system.
    Our Association understands the need for TRICARE to align itself 
with Medicare reimbursement payments. DOD's proposal to implement 
reimbursement payment for Sole Community Hospitals is another example 
of its search for efficiencies. According to TMA, 20 hospitals that 
serve military beneficiaries could be affected by this change. We 
appreciate the 4-year phased-in approach. However, our Association 
recommends Congress encourage TMA to reach out to these hospitals and 
provide waivers if warranted and provide oversight to ensure 
beneficiaries aren't unfairly impacted by this proposal.
    Our Association approves of DOD's modest increase to TRICARE Prime 
enrollment fees for working age retirees.
    We recommend that future increases to TRICARE Prime enrollment fees 
for working age retirees be indexed to retired pay cost of living 
adjustments and support legislative language in the House NDAA fiscal 
year 2012.
    We recommend that Medicare-eligible beneficiaries using the USFHP 
be allowed to remain in the program and Congress should continue to 
fund this TRICARE option for beneficiaries.
    We recommend Congress encourage TMA to reach out to Sole Community 
hospitals serving large numbers of military beneficiaries and provide 
waivers if warranted. Congress may need to provide additional funding 
to help offset this proposed reimbursement change by TMA.
            Other Cost Saving Proposals
    We ask Congress to establish better oversight for DOD's 
accountability in becoming more cost-efficient. We recommend:
  --Requiring the Comptroller General to audit MTFs on a random basis 
        until all have been examined for their ability to provide 
        quality healthcare in a cost-effective manner.
  --Creating a committee, similar in nature to the Medicare Payment 
        Advisory Commission, to provide oversight of the DOD Military 
        Health System (MHS) and make annual recommendations to 
        Congress. The Task Force on the Future of Military Health Care 
        often stated it was unable to address certain issues not within 
        their charter or within the timeframe in which they were 
        commissioned to examine the issues. This Commission would have 
        the time to examine every issue in an unbiased manner.
  --Establishing a Unified ``Joint'' Medical Command structure. This 
        was recommended by the Defense Health Board in 2006 and 2009 
        and included in the U.S. House Armed Service Committee's fiscal 
        year 2011 NDAA proposal and passed by the House of 
        Representatives.
    We are supportive of TMA's movement toward a medical home model of 
patient and family centered care within the direct and purchase care 
systems. An integrated healthcare model, where beneficiaries will be 
seen by the same healthcare team focused on well-being and prevention, 
is a well-known cost saver for healthcare expenditures. Our concern is 
with the individual Services' interpretation of the medical home model 
and its ability to truly function as designed. Our MTFs are still 
undergoing frequent provider deployments; therefore, the model must be 
staffed well enough to absorb unexpected deployments to theater, normal 
staff rotation, and still maintain continuity of providers within the 
medical home.
    Our Association believes right-sizing to optimize MTF capabilities 
through innovating staffing methods; adopting coordination of care 
models, such as medical home; timely replacement of medical facilities 
utilizing ``world class'' and ``unified construction standards;'' and 
increased funding allocations, would allow more beneficiaries to be 
cared for in the MTFs. This would be a win-win situation because it 
increases MTF capabilities, which DOD asserts is the most cost 
effective. It also allows more families, who state they want to receive 
care within the MTF, the opportunity to do so. The Task Force made 
recommendations to make the DOD MHS more cost-efficient, which we 
support. They conclude the MHS must be appropriately sized, resourced, 
and stabilized and make changes in its business and healthcare 
practices. We encourage Congress to include the recommendations of the 
Task Force on the Future of Military Health Care in this year's fiscal 
year 2012 NDAA. These include:
  --Restructuring TMA to place greater emphasis on its acquisition 
        role.
  --Examining and implementing strategies to ensure compliance with the 
        principles of value-driven healthcare.
  --Incorporating health information technology systems and 
        implementing transparency of quality measures and pricing 
        information throughout the MHS. (This is also a civilian 
        healthcare requirement in the recently passed Patient 
        Protection and Affordable Care Act.)
  --Reassessing requirements for purchased care contracts to determine 
        whether more cost effective strategies can be implemented.
  --Removing systemic obstacles to the use of more efficient and cost-
        effective contracting strategies.
            Wounded Service Members Have Wounded Families
    Our Association asserts that behind every wounded service member 
and veteran is a wounded family. It is our belief the government, 
especially the DOD and VA, must take a more inclusive view of military 
and veterans' families. Those who have the responsibility to care for 
the wounded, ill, and injured service member must also consider the 
needs of the spouse, children, parents of single service members and 
their siblings, and the caregivers. DOD and VA need to think 
proactively as a team and one system, rather than separately; and 
addressing problems and implementing initiatives upstream while the 
service member is still on active duty status.
    Reintegration programs become a key ingredient in the family's 
success. For the past 3 years, we have piloted our Operation Purple 
Healing Adventures camp to help wounded, ill, and injured service 
members and their families learn to play again as a family. We hear 
from the families who participate in this camp, as well as others 
dealing with the recovery of their wounded service members, that, even 
with Congressional intervention and implementation of the Services' 
programs, many issues still create difficulties for them well into the 
recovery period. Families find themselves having to redefine their 
roles following the injury of the service member. They must learn how 
to parent and become a spouse/lover with an injury. Each member needs 
to understand the unique aspects the injury brings to the family unit. 
Parenting from a wheelchair brings a whole new challenge, especially 
when dealing with teenagers. Parents need opportunities to get together 
with other parents who are in similar situations and share their 
experiences and successful coping methods. Our Association believes all 
must focus on treating the whole family, with DOD and VA programs 
offering skill based training for coping, intervention, resiliency, and 
overcoming adversities. Injury interrupts the normal cycle of 
deployment and the reintegration process. DOD, the VA, and non-
governmental organizations must provide opportunities for the entire 
family and for the couple to reconnect and bond, especially during the 
rehabilitation and recovery phases.
    DOD and the VA must do more to work together both during the 
treatment phase and the wounded service member's transition to ease the 
family's burden. They must break down regulatory barriers to care and 
expand support through the Vet Centers the VA medical centers, and the 
community-based outpatient clinics (CBOCs). We recommend DOD partner 
with the VA to allow military families access to mental health services 
throughout the VA's entire network of care using the TRICARE benefit. 
Before expanding support services to families, however, VA facilities 
must establish a holistic, family centered approach to care when 
providing mental health counseling and programs to the wounded, ill, 
and injured service member or veteran.
    We remain concerned about the transition of wounded, injured, and 
ill service members and their families from active duty status to that 
of the medically retired. While we are grateful, DOD has proposed to 
exempt medically retired service members, survivors, and their families 
from the TRICARE Prime enrollment fee increases, we believe wounded 
service members need even more assistance in their transition. We 
continue to recommend that a legislative change be made to create a 3-
year transition period in which medically retired service members and 
their families would be treated as active duty family members in terms 
of TRICARE fees, benefits, and MTF access. This transition period would 
mirror that currently offered to surviving spouses and would allow the 
medically retired time to adjust to their new status without having to 
adjust to a different level of TRICARE support.
    Case Management.--Our Association still finds families trying to 
navigate a variety of complex healthcare systems alone, trying to find 
the right combination of care. Our most seriously wounded, ill, and 
injured service members, veterans, and their families are often 
assigned multiple case managers. Families often wonder which one is the 
``right'' case manager. We believe DOD and the VA must look at whether 
the multiple, layered case managers have streamlined the process or 
have only aggravated it. We know the goal is for a seamless transition 
of care between DOD and the VA. However, we continue to hear from 
families, whose service member is still on active duty and meets the 
Federal Recovery Coordinator (FRC) requirement, who have not been told 
FRCs exist or that the family qualifies for one. We are awaiting the 
Government Accountability Office's (GAO) FRC report to determine how 
that program is working in caring for our most seriously wounded, ill, 
and injured service members and veterans and what can be done to 
improve the case management process.
            Caregivers of the Wounded
    Caregivers need to be recognized for the important role they play 
in the care of their loved one. Without them, the quality of life of 
the wounded service members and veterans, such as physical, psycho-
social, and mental health, would be significantly compromised. They are 
viewed as an invaluable resource to DOD and VA healthcare providers 
because they tend to the needs of the service members and the veterans 
on a regular basis. And, their daily involvement saves DOD, VA, and 
State agency healthcare dollars in the long run. Their long-term 
psychological care needs must be addressed. Caregivers of the severely 
wounded, ill, and injured service members who are now veterans have a 
long road ahead of them. In order to perform their job well, they will 
require access to mental health services.
    The VA has made a strong effort in supporting veterans' caregivers. 
DOD should follow suit and expand its definition, which still does not 
align with Public Law 111-163. We appreciate the inclusion in fiscal 
year 2010 NDAA of compensation for service members with assistance in 
everyday living and the refinement in fiscal year 2011 NDAA. The VA 
recently released their VA Caregiver Implementation Plan. Our 
Association had the opportunity to testify at a recent House Veterans' 
Affairs Committee hearing Implementation of Caregiver Assistance: Are 
we getting it right? about our concerns related to the VA's caregiver 
implementation plan. We believe the VA is waiting too long to provide 
valuable resources to caregivers of our wounded and injured service 
members and veterans who had served in Operation Iraqi Freedom/
Operation Enduring Freedom/Operation New Dawn (OIF/OEF/OND). The intent 
of the law was to allow caregivers to receive value-added benefits in a 
timely manner in order to improve the caregiver's overall quality of 
life and train them to provide quality of care to their service member 
and veteran. The VA's interpretation also has the potential to impact 
the DOD's Special Compensation for Service Members law passed as part 
of fiscal year 2010 NDAA and modified in fiscal year 2011. The one area 
of immediate concern is the potential gap in financial compensation 
when the service member transitions to veteran status. The VA's 
application process and caregiver validation process appear to be very 
time intensive. The DOD compensation benefit expires at 90-days 
following separation from active duty. Other concerns include:
  --Narrower eligibility requirements than what the law intended;
  --Lack of illness being covered, such as cancer from a chemical 
        exposure;
  --Delay in the caregiver's receipt of healthcare benefits if 
        currently uninsured, respite care, and training; and
  --Exclusion of non-medical care from the VA's caregiver stipend.
    The VA's decision to delay access to valuable training may force 
each Service to begin its own training program. Thus, each Service's 
training program will vary in its scope and practice and may not meet 
VA's training objectives. This disconnect could force the caregiver to 
undergo two different training programs in order to provide and care 
and receive benefits.
    Our Association also believes the current laws do not go far 
enough. Compensation of caregivers should be a priority for DOD and the 
Secretary of Homeland Security. Non-medical care should be factored 
into DOD's compensation to service members. The goal is to create a 
seamless transition of caregiver benefit between DOD and the VA. We ask 
Congress to assist in meeting that responsibility. Congress will need 
to be ready to fully fund both DOD and VA caregiver benefit programs.
    The VA currently has eight caregiver assistance pilot programs to 
expand and improve healthcare education and provide needed training and 
resources for caregivers who assist disabled and aging veterans in 
their homes. DOD should evaluate these pilot programs to determine 
whether to adopt them for caregivers of service members still on active 
duty. Caregivers' responsibilities start while the service member is 
still on active duty. Congress will need to fund these pilot programs.
    Relocation Allowance and Housing for Medically-Retired Single 
Service Members.--Active Duty service members and their spouses qualify 
through the DOD for military orders to move their household goods when 
they leave the military service. Medically retired service members are 
given a final PCS move. Medically retired married service members are 
allowed to move their family; however, medically retired single service 
members only qualify for moving their own personal goods.
    Our Association suggests that legislation be passed to allow 
medically retired single service members the opportunity to have their 
caregiver's household goods moved as a part of the medical retired 
single service member's PCS move. This should be allowed for the 
qualified caregiver of the wounded service member and the caregiver's 
family (if warranted), such as a sibling who is married with children, 
or mom and dad. This would allow for the entire caregiver's family to 
move, not just the caregiver. The reason for the move is to allow the 
medically retired single service member the opportunity to relocate 
with their caregiver to an area offering the best medical care, rather 
than the current option that only allows for the medically retired 
single service member to move their belongings to where the caregiver 
currently resides. The current option may not be ideal because the area 
in which the caregiver lives may not be able to provide all the 
healthcare services required for treating and caring for the medically 
retired service member. Instead of trying to create the services in the 
area, a better solution may be to allow the medically retired service 
member, their caregiver, and the caregiver's family to relocate to an 
area where services already exist.
    The decision on where to relocate for optimum care should be made 
with the FRC (case manager), the service member's medical physician, 
the service member, and the caregiver. All aspects of care for the 
medically retired service member and their caregiver shall be 
considered. These include a holistic examination of the medically 
retired service member, the caregiver, and the caregiver's family for, 
but not limited to, their needs and opportunities for healthcare, 
employment, transportation, and education. The priority for the 
relocation should be where the best quality of services is readily 
available for the medically retired service member and his/her 
caregiver.
    The consideration for a temporary partial shipment of caregiver's 
household goods may also be allowed, if deemed necessary by the case 
management team.
    We ask Congress to allow medically retired service members and 
their families to maintain the active duty family TRICARE benefit for a 
transition period of 3 years following the date of medical retirement, 
comparable to the benefit for surviving spouses.
    Service members medically discharged from service and their family 
members should be allowed to continue for 1 year as active duty for 
TRICARE and then start the Continued Health Care Benefit Program 
(CHCBP) if needed.
    Congress will need to fully fund training, compensation and other 
support programs for caregivers of the wounded, ill and injured because 
of the important role they play in the successful rehabilitation and 
care of the service member and veteran.
    We request legislation funding medically retired single service 
members to have their caregiver's household goods moved as a part of 
their final PCS move.
    Congress will need to fully fund DOD's Caregiver Compensation 
benefit for military service members and the VA's caregiver benefit for 
caregivers.
            Senior Oversight Committee
    Our Association is appreciative of the provision in the fiscal year 
2009 NDAA continuing the DOD and VA Senior Oversight Committee (SOC) 
until December 2010. The DOD established the Office of Wounded Warrior 
Care and Transition Policy to take over the SOC responsibilities. The 
Office has seen frequent leadership and staff changes and a narrowing 
of its mission. We urge Congress to put a mechanism in place to 
continue to monitor this Office for its responsibilities in maintaining 
DOD and VA's partnership and making sure joint initiatives create a 
seamless transition of services and benefits for our wounded, ill, and 
injured service members, veterans, their families, and caregivers.
            Defense Centers of Excellence
    A recent GAO report found the Defense Centers of Excellence (DCoE) 
for Psychological Health and Traumatic Brain Injury has been challenged 
by a mission that lacked clarity and by time-consuming hiring 
practices. DCoE has experienced a lack of adequate funding hampering 
their ability to hire adequate staff and begin to provide care for the 
patient population as they were created to address. These include the 
Vision Center of Excellence, Hearing Center of Excellence, and the 
Traumatic Extremity Injury and Amputation Center of Excellence. We 
recommend Congress immediately fund these Centers and require DOD to 
provide resources to effectively establish these Centers and meet DOD's 
definition of ``world class'' facilities.
    The Defense Centers of Excellence is providing a transition benefit 
for mental health services for active duty service members, called 
inTransition. Our Association recommends this program be expanded to 
provide the same benefit to active duty spouses and their children. 
Families often complain about the lack of seamless transition of care 
when they PCS. This program will not only provide a warm hand-off 
between mental health providers when moving between and within Regions, 
but more importantly, enable mental health services to begin during the 
move, when families are between duty stations and most venerable.
    We must educate those who care for our service members and veterans 
about the effects of Traumatic Brain Injury (TBI), Post-Traumatic 
Stress (PTS), Post-Traumatic Stress Disorder (PTSD), and suicide in 
order to help accurately diagnose and treat the service member/
veteran's condition. These families are on the ``sharp end of the 
spear'' and are more likely to pick up on changes attributed to either 
condition and relay this information to their healthcare providers. 
Families need tools to help them deal with the daily issues that arise 
when living with and caring for a service member or veteran with TBI 
and/or PTS/PTSD. Programs are being developed by each Service. However, 
they are narrow in focus targeting line leaders and healthcare 
providers, but not broad enough to capture our military family members 
and the communities they live in. As Services roll out suicide 
prevention programs, we need to fund programs that include our 
families, communities, and support personnel. The Deployment Health 
Clinical Center (DHCC), an umbrella organization to DCoE, offers a 3 
week PTSD course for service members and a separate 1-week course for 
their family members. These programs are making a difference in the 
quality of the service members and their families lives. Currently, the 
family member PTSD program is funded by a nonprofit organization. These 
programs need to continue; therefore, they need to be fully funded by 
Congress.
    Our Association encourages all Congressional Committees with 
jurisdiction over military personnel and veterans matters to talk on 
these important issues. Congress, DOD, and VA can no longer continue to 
create policies in a vacuum and focus on each agency separately because 
our wounded, ill, and injured service members and their families need 
seamless, coordinated support from each.
    We recommend Congress immediately fund the Vision Center of 
Excellence, Hearing Center of Excellence, and the Traumatic Extremity 
Injury and Amputation Center of Excellence and require DOD to provide 
resources to effectively establish these Centers and meet DOD's 
definition of ``world class'' facilities.
    We recommend Congress fully fund DHCC's PTSD programs for service 
members and their family members s they may continue uninterrupted.
    We recommend the ``inTransition'' program be expanded to provide 
the same benefit to active duty family members. This program would need 
to be funded to be expanded to include them.
Family Transitions
    Policies and programs must provide training and support for 
families during the many transitions military families experience. 
Quality education for spouses and children, financial literacy, and 
spouse career progression need attention. When families experience a 
life-changing event, they require a responsive system to support them. 
Our Nation must continue to ensure our surviving family members receive 
the support they deserve.
            Survivors
    The Services continue to improve their outreach to surviving 
families. In particular, the Army's SOS (Survivor Outreach Services) 
program makes an effort to remind these families they are not 
forgotten. We most appreciate the special consideration, sensitivity, 
and outreach to the families whose service members have committed 
suicide. We would like to acknowledge the work of the Tragedy 
Assistance Program for Survivors (TAPS) in this area as well. They have 
developed unique outreach to these families and held support 
conferences to help surviving family members navigate what is a very 
difficult time with many unanswered questions. DOD and the VA must work 
together to ensure surviving spouses and their children can receive the 
mental health services they need, through all of VA's venues. We 
believe Congress must grant authority to allow coverage of bereavement 
or grief counseling under the TRICARE behavioral health benefit. The 
goal is the right care at the right time for optimum treatment effect.
    In 2009, the policy concerning the attendance of the media at the 
dignified transfer of remains at Dover AFB was changed. Primary next-
of-kin (PNOK) of the service member who dies in theater is asked to 
make a decision shortly after they are notified of the loss as to 
whether or not the media may film the dignified transfer of remains of 
their loved one during this ceremony. Family members are also given the 
option of flying to Dover themselves to witness this ceremony. In 
previous years, only about 3 percent of family members attended this 
ceremony. Since the policy change, over 90 percent of families send 
some family members to Dover to attend. The travel of up to 3 family 
members and the casualty assistance officer on a commercial carrier are 
provided for. In the NDAA fiscal year 2010, eligible family member 
travel to memorial services for a service member who dies in theater 
was authorized. This is in addition to travel to the funeral of the 
service member. None of the costs associated with this travel has been 
funded for the Services. We would ask that funds be appropriated to 
cover the costs of this extraordinary expense.
    Our Association recommends that grief counseling be more readily 
available to survivors as a TRICARE benefit.
    We ask that funding be appropriated for the travel costs for 
surviving family members to attend the dignified transfer of remains in 
Dover and for eligible surviving family members to attend memorial 
services for service members who die in theater.
    Our Association still believes the benefit change that will provide 
the most significant long-term advantage to the financial security of 
all surviving families would be to end the Dependency and Indemnity 
Compensation (DIC) offset to the Survivor Benefit Plan (SBP). Ending 
this offset would correct an inequity that has existed for many years. 
Each payment serves a different purpose. The DIC is a special indemnity 
(compensation or insurance) payment paid by the VA to the survivor when 
the service member's service causes his or her death. The SBP annuity, 
paid by DOD, reflects the longevity of the service of the military 
member. It is ordinarily calculated at 55 percent of retired pay. 
Military retirees who elect SBP pay a portion of their retired pay to 
ensure that their family has a guaranteed income should the retiree 
die. If that retiree dies due to a service-connected disability, their 
survivor becomes eligible for DIC.
    Surviving active duty spouses can make several choices, dependent 
upon their circumstances and the ages of their children. Because SBP is 
offset by the DIC payment, the spouse may choose to waive this benefit 
and select the ``child only'' option. In this scenario, the spouse 
would receive the DIC payment and the children would receive the full 
SBP amount until each child turns 18 (23 if in college), as well as the 
individual child DIC until each child turns 18 (23 if in college). Once 
the children have left the house, this choice currently leaves the 
spouse with an annual income of $13,848, a significant drop in income 
from what the family had been earning while the service member was 
alive and on active duty. The percentage of loss is even greater for 
survivors whose service members served longer. Those who give their 
lives for their country deserve more fair compensation for their 
surviving spouses.
    We believe several other adjustments could be made to the Survivor 
Benefit Plan. Allowing payment of the SBP benefits into a Special Needs 
Trust in cases of disabled beneficiaries will preserve their 
eligibility for income based support programs. The government should be 
able to switch SBP payments to children if a surviving spouse is 
convicted of complicity in the member's death.
    We believe there needs to be DIC equity with other Federal survivor 
benefits. Currently, DIC is set at $1,154 monthly (43 percent of the 
Disabled Retirees Compensation). Survivors of Federal workers have 
their annuity set at 55 percent of their Disabled Retirees 
Compensation. Military survivors should receive 55 percent of VA 
Disability Compensation. We are awaiting the overdue report. We support 
raising DIC payments to 55 percent of VA Disability Compensation. When 
changes are made, we ask Congress to ensure that DIC eligibles under 
the old system receive an equivalent increase.
    Imagine that you have just experienced the death of your spouse, a 
retired service member. In your grief, you navigate all the gates you 
must, fill out paperwork, notify all the offices required. Then, the 
overdrawn notices start showing up in your mailbox. Bills that you 
thought had been paid at the beginning of the month suddenly appear 
with ``overdue'' on them. Retirees are paid proactively, that is, they 
receive retired pay for the upcoming month i.e. on May 31, a retiree 
receives retired pay for the month of June. Presently, the government 
has the authority to take back the full month's pay from the retiree's 
checking account when that retiree dies. Payment for the number of days 
the retiree was alive in the month is subsequently returned to the 
surviving spouse. The VA, on the other hand, allows the surviving 
spouse to keep the last month of disability pay. We support H.R. 493, 
which would allow the surviving spouse or family to keep the last month 
of retired pay to avoid financial penalties caused by the decrease of 
funds in a checking account.
    We ask the DIC offset to SBP be eliminated to recognize the length 
of commitment and service of the career service member and spouse. We 
support H.R. 178 and S. 260, which both provide for that elimination.
    We also request that SBP benefits be allowed to be paid to a 
Special Needs Trust in cases of disabled family members.
    We ask that DIC be increased to 55 percent of VA Disability 
Compensation.
    We support H.R. 493, ``The Military Retiree Survivor Comfort Act'', 
to provide for forgiveness of overpayments of retired pay paid to 
deceased retired members of the Armed Forces following their death.
            Education of Military Children
    Military families place a high value on the quality of their 
children's education. It is a leading factor in determining many 
important family decisions, such as volunteering for duty assignments, 
choosing to accompany the service member or staying behind, selecting 
where a family lives within their new community, deciding whether to 
spend their financial resources on private school, or considering 
homeschooling options. It can even impact a families' decision to 
remain in the Service.
    Military families want quality education for their children just as 
their civilian counterparts do. It is important to remember that 
military families define ``quality of education'' differently. For 
military families, it is not enough for children to be doing well in 
their current schools they must also be prepared for the next location. 
Most military children will move at least twice during their high 
school years and most will attend six to nine different schools between 
kindergarten and 12th grade. Although the Interstate Compact on 
Educational Opportunity for Military Children is helping to alleviate 
many of the transition issues our families face when moving, it does 
not address the quality of education in our schools. Though many of our 
civilian schools are already doing an excellent job of educating and 
supporting our military children, we believe military children deserve 
a quality education wherever they may live. That is why our Association 
has spent over 40 years working to improve education for our military 
children and empowering parents to become their children's best 
advocate.
    With more than 90 percent of military-connected students now 
attending civilian schools, our Association is pleased that the 
Department of Defense has completed a 90-day preliminary assessment of 
how to provide a world-class education for all of the 1.2 million 
school-aged children, not just those under the Department of Defense 
Education Activity's (DODEA) purview. Our Association was invited by 
Dr. Clifford L. Stanley, Under Secretary of Defense for Personnel and 
Readiness, to participate in the Education Review Debriefing and to 
offer our insights on the way ahead. We look forward to the final 
report and to working with DOD to support its implementation. We thank 
the Department of Defense for the educational support programs already 
available to military children, such as the tutoring program for 
deployed service member families, and DODEA's virtual high schools. Our 
Association believes these programs are making a difference and would 
be beneficial to all military families.
    We were also pleased the President's landmark directive, 
``Strengthening Our Military Families,'' listed as one of its top 
priorities the need to ensure excellence in military children's 
education and their development. We greatly appreciate the Department 
of Education committing to making military families one of its 
priorities for its discretionary grant programs and for including our 
Association as a military stakeholder in finding ways to strengthen 
military families within the Reauthorization of the Elementary and 
Secondary Education Act.
    Our Association thanks Congress for providing additional funding to 
civilian school districts educating military children through DODEA's 
Educational Partnership Grant Program. We are aware that DODEA's 
expanded authority to shares its expertise, experience and resources to 
assist military children during transitions, to sharpen the expertise 
of teachers and administrators in meeting the needs of military 
children, and to provide assistance to local education agencies on 
deployment support for military children is set to expire in 2013. We 
ask Congress to extend the authority for the Educational Partnership 
Grant Program past 2013.
    We strongly urge Congress to ensure it is providing appropriate and 
timely funding of Impact Aid through the Department of Education. We 
also ask that you allow school districts experiencing high levels of 
growth, due to military base realignment, to apply for Impact Aid funds 
using current student enrollment numbers rather than the previous year. 
In addition, we call on Congress to increase DOD Supplemental Impact 
Aid funding for schools educating large numbers of military connected 
students. Our Association has long believed that both Impact Aid 
programs are critical to ensuring that school districts can provide 
quality education for our military children.
    We strongly urge Congress to ensure it is providing appropriate 
funding of Impact Aid through the Department of Education at authorized 
levels and to allow school districts experiencing high growth due to 
base realignments to apply for Impact Aid funds using current student 
enrollment numbers.
    We ask Congress to increase the DOD supplement to Impact Aid to $60 
million.
    We also ask Congress to extend the authority for the DODEA 
Educational Partnership Grant Program.
            Spouse Education and Employment
    We are pleased the NDAA fiscal year 2011 calls for a report on 
military spouse education programs. Our recent surveys and feedback we 
have received from military families indicates they appreciate in-state 
tuition and the Post 9/11 G.I. Bill transferability. Our Association 
would like to thank Congress for the enhancements made to the Post 9/11 
G.I. Bill last session. We are especially pleased that spouses of 
active duty service members are now eligible for the book stipend and 
the authority to grant transferability has been extended to families of 
the Commissioned Corps of NOAA and the U.S. Public Health Service.
    DOD's most-cited program success for military spouses is the 
Military Spouse Career Advance Account (MyCAA)--in its original form. 
In October 2010, MyCAA was significant revised and seasoned spouses who 
are no longer eligible feel their education pursuits are not supported 
by the Department of Defense. Many military spouses delay their 
education to support the service member's career. Since 2004, our 
Association has been fortunate to sponsor our Joanne Holbrook Patton 
Military Spouse Scholarship Program, with the generosity of donors who 
wish to help military families. Of particular interest, 33.5 percent of 
applicants from our 2011 scholarship applicant pool stated their 
education was interrupted because of the military lifestyle (frequent 
moves, TDYs, moving expenses, etc.) and 12.2 percent of those directly 
attributed the interruption to deployment of the service member. 
Military spouses remain committed to their education and need 
assistance from Congress to fulfill their educational pursuits. We ask 
Congress to push DOD to fully reinstate the MyCAA program to include 
all military spouses, regardless of their service member's rank and to 
ensure the funding is available for this reinstatement. We also ask 
Congress to work with the appropriate Service Secretaries to extend the 
MyCAA program to spouses of the Coast Guard, the Commissioned Corps of 
NOAA, and the U.S. Public Health Service.
    The fiscal year 2011 NDAA report on military spouse education 
programs only addresses one aspect--education. In order to determine if 
the education programs are working, we recommend a report on spouse 
employment programs. The NDAA fiscal year 2010 created a pilot program 
to secure internships for military spouses with Federal agencies. 
Funding for the program continues through fiscal year 2011. A report on 
military spouse employment programs should include an assessment of the 
military spouse Federal internship program. Military spouses want more 
Federal employment opportunities. Should the pilot become a permanent 
program? We urge Congress to monitor the pilot to ensure spouses are 
able to access the program and eligible spouses are able to find 
Federal employment after successful completion of the internship. Our 
Association recommends Congress requests a report on military spouse 
employment programs.
    To further spouse employment opportunities, we recommend an 
expansion to the Work Opportunity Tax Credit for employers who hire 
spouses of active duty and reserve component service members as 
proposed through the Military Spouse Employment Act, H.R. 687. This 
employer tax credit is one way to encourage corporate America to hire 
military spouses.
    We also recommend providing a tax credit to military spouses to 
offset the expense of obtaining a career license or credential when the 
service member is relocated to a new duty station. Military spouses are 
financially disadvantaged by government ordered moves when they are 
required to obtain a career license in a new State to practice in their 
profession. Many military spouses must maintain a career license in 
multiple States, costing hundreds of dollars. For example, a pharmacist 
can only reciprocate to another State from their original license, 
which requires a military spouse pharmacist to maintain a license in 
more than one State. When our Association asked military spouses to 
share their employment challenges with us, a military spouse of 26 
years stated, ``The very most frustrating part about the process, is 
that obtaining a license does not guarantee that I will find 
employment. I have been licensed in [Kentucky] for a full year and in 
that time have gotten one 6-hour shift of work. That one shift does not 
even begin to recover the expense of obtaining my license here.'' We 
recommend that Congress pass the Military Spouse Job Continuity Act or 
similar legislation to reduce the financial barrier licensed military 
spouses must overcome with each move in order to find employment.
    Our Association urges Congress to recognize the value of military 
spouses by fully funding the MyCAA program for all military spouses, 
expand the Work Opportunity Tax Credit to include military spouses, and 
provide a tax credit to offset state license and credential fees.
            Support for Special Needs Families
    The NDAA fiscal year 2010 established the Office of Community 
Support for Military Families with Special Needs to enhance and improve 
DOD support around the world for military families with special needs, 
whether medical or educational. Our Association remains concerned that 
the Office has not received the proper resources to address the 
medical, educational, relocation, and family support resources our 
special needs families often require. This Office must address these 
various needs in a holistic manner in order to effectively implement 
change. The original intent of the legislation was to have the office 
reside in the Office of the Under Secretary of Defense for Personnel 
and Readiness in order to bring together all entities having 
responsibility for the medical, educational, relocation, and family 
support needs of special needs military family member. At present, 
however, the office comes under the jurisdiction of the Deputy 
Assistant Secretary of Defense for Military Community and Family 
Policy.
    Case management for military beneficiaries with special needs is 
not consistent across the Services or the TRICARE Regions because the 
coordination care for the military family is being done by a non-
synergistic healthcare system. Beneficiaries try to obtain an 
appointment and then find themselves getting partial healthcare within 
the MTF, while other healthcare is referred out into the purchased care 
network. Thus, military families end up managing their own care. 
Incongruence in the case management process becomes more apparent when 
military family members transfer from one TRICARE Region to another and 
when transferring within the same TRICARE Region. This incongruence is 
further exacerbated when a special needs family member is involved and 
they require not only medical intervention, but non-medical care as 
well. Families need a seamless transition and a warm hand-off between 
and within TRICARE Regions and a universal case management process 
across the MHS. Each TRICARE Managed Care Support Contractor (MCSC) has 
created different case management processes. TRICARE leaders must work 
closely with their family support counterparts through the Office of 
Community Support for Military Families with Special Needs to develop a 
coordinated case management system that takes into account other 
military and community resources.
    We applaud the attention Congress and DOD have given to our special 
needs family members in the past 2 years and their desire to create 
robust healthcare, educational, and family support services for special 
needs family members. But, these robust services do not follow them 
when they retire. We encourage the Services to allow these military 
families the opportunity to have their final duty station be in an area 
of their choice, preferably in the same State in which they plan to 
live after the service member retires, to enable them to begin the 
process of becoming eligible for State and local services while still 
on active duty. We also suggest the Extended Care Health Option (ECHO) 
be extended for 1 year after retirement for those family members 
already enrolled in ECHO prior to retirement. More importantly, our 
Association recommends if the ECHO program is extended, it must be for 
all who are eligible for the program because we should not create a 
different benefit simply based on medical diagnosis.
    The Office of Community Support is beginning a study on Medicaid 
availability for special needs military family members. Our Association 
is anxiously awaiting this report's findings. We will be especially 
interested in the types of value-added services individual State 
Medicaid waivers offer their enrollees and whether State budget 
difficulties are making it more difficult for military families to 
qualify for and participate in waiver programs. This information will 
provide yet another avenue to identify additional services ECHO may 
include in order to help address our families' frequent moves and their 
inability to often qualify for these additional value-added benefits in 
a timely manner.
    There has been discussion over the past several years by Congress 
and military families regarding the ECHO program. The ECHO program was 
originally designed to allow military families with special needs to 
receive additional services to offset their lack of eligibility for 
State or federally provided services impacted by frequent moves. We 
suggest that before making any more adjustments to the ECHO program, 
Congress should request a GAO report to determine if the ECHO program 
is working as it was originally designed and if it has been effective 
in addressing the needs of this population. We also hear from our ECHO 
eligible families that they could benefit from additional programs and 
healthcare services to address their special needs. We request a DOD 
pilot study to identify what additional service(s), if any, our special 
needs families need to improve their quality of life, such as cooling 
vests, diapers, and some nutritional supplements. We recommend families 
have access to $3,000 of additional funds to purchase self-selected 
items, programs, and/or services not already covered by ECHO. DOD would 
be required to authorize each purchase to verify the requested item, 
program, or service is appropriate. The pilot study will identify gaps 
in coverage and provide DOD and Congress with a list of possible extra 
ECHO benefits for special needs families. We need to make the right 
fixes so we can be assured we apply the correct solutions. Our 
Association believes the Medicaid waiver report, the GAO report, along 
with the pilot study will provide DOD and Congress with the valuable 
information needed to determine if the ECHO program needs to be 
modified in order to provide the right level of extra coverage for our 
special needs families. We also recommend a report examining the impact 
of the war on special needs military families.
    We ask Congress to request a GAO report to determine if the ECHO 
program is working as it was originally designed and if it has been 
effective in addressing the needs of this population.
    We request Congress fund a DOD pilot study to identify what 
additional service(s), if any, our special needs families need to 
improve their quality of life.
    We recommend that the Extended Care Health Option (ECHO) program be 
extended for 1 year after retirement for those already enrolled in ECHO 
prior to retirement.
    We also recommend a report examining the impact of the war on our 
special needs families.
            Families on the Move
    A Permanent Change of Station (PCS) move to an overseas location 
can be especially stressful for our families. Military families are 
faced with the prospect of being thousands of miles from extended 
family and living in a foreign culture. At many overseas locations, 
there are insufficient numbers of government quarters resulting in the 
requirement to live on the local economy away from the installation. 
Family members in these situations can feel extremely isolated; for 
some the only connection to anything familiar is the local military 
installation. Unfortunately, current law permits the shipment of only 
one vehicle to an overseas location, including Alaska and Hawaii. Since 
most families today have two vehicles, they sell one of the vehicles.
    Upon arriving at the new duty station, the service member requires 
transportation to and from the place of duty leaving the military 
spouse and family members at home without transportation. This lack of 
transportation limits the ability of spouses to secure employment and 
the ability of children to participate in extracurricular activities. 
While the purchase of a second vehicle alleviates these issues, it also 
results in significant expense while the family is already absorbing 
other costs associated with a move. Simply permitting the shipment of a 
second vehicle at government expense could alleviate this expense and 
acknowledge the needs of today's military family.
    Travel allowances and reimbursement rates have not kept pace with 
the out-of-pocket costs associated with today's moves. In a recent PCS 
survey conducted by our Association, more than 50 percent of survey 
respondents identified uncovered expenses related to the move as their 
top moving challenge. Military families are authorized 10 days for a 
housing hunting trip, but the cost for trip is the responsibility of 
the service member. Families with two vehicles may ship one vehicle and 
travel together in the second vehicle. The vehicle will be shipped at 
the service member's expense and then the service member will be 
reimbursed funds not used to drive the second vehicle to help offset 
the cost of shipping it. Or, families may drive both vehicles and 
receive reimbursement provided by the Monetary Allowance in Lieu of 
Transportation (MALT) rate. MALT is not intended to reimburse for all 
costs of operating a car but is payment in lieu of transportation on a 
commercial carrier. Yet, a TDY mileage rate considers the fixed and 
variable costs to operate a vehicle. Travel allowances and 
reimbursement rates should be brought in line with the actually out-of-
pocket costs borne by military families.
    Our Association supports the Service Members Permanent Change of 
Station Relief Act, S. 472 and believes it will reduce some of the 
additional moving expenses incurred by many military families.
    Our Association requests that Congress authorize the shipment of a 
second vehicle to an overseas location (at least Alaska and Hawaii) on 
accompanied tours, and that Congress address the out-of-pocket expenses 
military families bear for government ordered moves.
            Military Families--Our Nation's Families
    Military families have been supporting their warriors in time of 
war for 10 years. DOD and the military Services, with the help and 
guidance of Congress have developed programs and policies to respond to 
their changing and developing needs over this time. Families have come 
to rely on this support. They appreciate the spotlight of recognition 
that has been shone on their experience by the First Lady and Dr. 
Biden. They are heartened by the new sense of cooperation between 
government agencies in coordinating support. They know that it is up to 
them to make use of the tools and programs provided to become more 
resilient with each deployment. Congress provides the authorization and 
funding for these tools and programs. Even in a time of austere 
budgets, our Nation needs to sustain this support in order to maintain 
readiness. Our military families deserve no less.

    Chairman Inouye. I thank you very much, Ms. Moakler.
    Senator Cochran.
    Senator Cochran. I'm curious, what's the estimated cost of 
the reimbursement if the Congress desired to or decided to 
respond to that request?
    Ms. Moakler. I don't know, because it depends on how long, 
how far the family is coming from. But right now the units 
themselves are taking that money out of hide, out of their 
family support funds.
    Senator Cochran. Thank you.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. Mr. Chairman, just an observation. I know 
Ms. Moakler is her as an advocate and she's got a great record 
of family support. I believe this subcommittee has a good 
record of support for our military through the appropriation, 
and their families, which we think are very important to the 
wellbeing and the readiness of our soldiers.
    Ms. Moakler. We agree.
    Senator Shelby. Thank you.
    Chairman Inouye. Thank you very much.
    Our next witness, Chief Master Sergeant John McCauslin, Air 
Force Sergeants Association.
STATEMENT OF CHIEF MASTER SERGEANT JOHN R. ``DOC'' 
            McCAUSLIN, CHIEF EXECUTIVE OFFICER, AIR 
            FORCE SERGEANTS ASSOCIATION
    Sergeant McCauslin. Good morning, Chairman Inouye, Ranking 
Member Cochran, Senator Shelby, and other members of this 
subcommittee. On behalf of the 110,000 members of the Air Force 
Sergeants Association, thanks for this opportunity to offer our 
views of our members on the fiscal year 2012 priorities. This 
morning I will briefly cover some specific areas we urge your 
subcommittee to provide funding for.
    Let me begin with healthcare. In coordination with the 
Military Coalition and governmental agencies, we want to ensure 
that our military members and their families continue to 
receive a cost-effective sustainable healthcare benefit, and we 
greatly appreciate the past efforts of you and this 
subcommittee to make that happen.
    Last week the Senate Armed Services Committee marked the 
National Defense Authorization Act and we were greatly 
disappointed that the bill permits TRICARE fee increases. 
Before seeking increases in military healthcare, we would urge 
that you consider all funding options relative to adequate and 
sustainable healthcare for our military and their families and 
get full detailed justification for the raise of such from DOD.
    The care of those who have borne the horrors and hazards of 
battle needs your constant attention. More than 42,000 service 
members have been wounded in action since the conflicts began. 
Thousands more suffer from the unseen wounds of war. We support 
full funding for the care of wounded warriors, including moneys 
for research and treatment of traumatic brain injuries, post-
traumatic stress disorder, and all those other war-related 
issues.
    On a related matter, this Nation owes those heroes an 
everlasting gratitude and compensation that extends well beyond 
their time in the military. It calls attention to the 
importance of proper documentation of care received on the 
battlefield and their recovery afterward. DOD and VA have made 
great strides in recent years developing a joint electronic 
health record. But it's imperative that this work continue 
until that job is done. This is one that actually saves the 
taxpayers money.
    We also urge continued funding of military base pay, so 
that annual military pay raises exceed the ECI index by at 
least one-half of 1 percent, and we support targeted pay raises 
for midgrade enlisted personnel who have recently assumed 
increased responsibility. The bottom line here is regular 
military pay raises must be maintained by DOD so that we can 
continue to recruit and retain the very best and brightest.
    Another hot button issue is the homelessness and 
unemployment of our veterans. The VA has estimated that 25 
percent of all homeless individuals in the United States are 
veterans. According to the Bureau of Labor Statistics, the 
estimated jobless rate among male veterans ages 18 to 24 was 
more than 30 percent just last month, compared to 18 percent 
among civilians of the same age and gender group. This is an 
absolute shame. DOD and VA recently agreed to tackle this issue 
jointly, so we encourage you to provide enough resources to 
make that happen.
    Caring for survivors of military members is always a matter 
of concern. Those with military survivor plan annuities should 
be able to also receive VA's dependency and indemnity 
compensation payments without offset. The special survivors 
indemnity allowance created by Congress in 2008 to minimize 
those losses is appreciated, but it only restores a fraction of 
the nearly $1,200 surviving spouses lose each month. We as a 
Nation must be able to do better than that.
    We would like to thank Senator Bill Nelson for introducing 
S. 260 and the 38 Senators, 8 of which are on your 
subcommittee, sir, who have co-sponsored this important 
legislation. You may recall that in the 111th Congress there 
were 62 co-sponsors in the Senate to fix this. It's high time 
we act.
    Another precious asset is, the National Guard and Air Force 
Reserve currently have to wait until they reach age 60 before 
they draw their retirement pay. They are currently over 50 
percent of our mission completion, yet subject to this holding 
situation. A provision in last year's NDAA allows the reserve 
components to shave off some time of their minimum retired age 
in exchange for equal periods of active duty service in combat 
zones. We are nowhere near resolving this issue and appreciate 
your continued attention.
    Mr. Chairman, that's all I have today. On behalf of our 
association, I thank you and the members of your subcommittee 
for their dedication to those of us who serve.
    [The statement follows:]
            Prepared Statement of John R. ``Doc'' McCauslin
    Chairman Inouye, Ranking Member Cochran, and distinguished members 
of the Defense subcommittee, on behalf of the 111,000 members of the 
Air Force Sergeants Association, thank you for this opportunity to 
offer the views of our members on the military personnel programs that 
affect those serving (and who have served) our Nation. This hearing 
will address issues critical to those serving and who have served our 
Nation.
    AFSA represents active duty, guard, reserve, retired, and veteran 
enlisted Air Force members and their families, and this year marks our 
50th Anniversary in doing so. Your continuing efforts toward improving 
the quality of their lives make a real difference, and our members are 
grateful. In this statement, I will list several specific goals that we 
hope this committee will consider funding in fiscal year 2012 on behalf 
of current and past enlisted members and their families. The content of 
this statement reflects the views of our members as they have 
communicated them to us. As always, we are prepared to present more 
details and to discuss these issues with your staffs.
                           basic military pay
    Tremendous progress has been made in recent years to close the gap 
between civilian sector and military compensation. AFSA appreciates 
these steady efforts and we hope they will continue. We believe linking 
pay raises to the employment cost index (ECI) is essential to 
recruiting and retaining the very best and brightest volunteers.
    The President's fiscal year 2012 budget proposal calls for a 1.6 
percent pay increase for active duty service members--the minimum 
amount by law. AFSA believes that the formula for determining annual 
pay increases to be ECI + 0.5 percent until the gap is completed 
eliminated. If we want to continue having an all volunteer force, we 
must continue on the path to close the aforementioned pay gap!
                            quality of life
    Our Nation's military should not be considered a financial burden 
but considered a national treasure as they preserve our national 
security for all that live here. If we expect to retain this precious 
resource, we must provide them and their families, with decent and safe 
work centers, family housing and dormitories, healthcare, child care 
and physical fitness centers, and recreational programs and facilities. 
These areas are a prime recruitment and retention incentive for our 
Airmen and their families. This directly impacts their desire to 
continue serving through multiple deployments and extended separations 
from family and friends.
    This Nation devotes considerable resources to train and equip 
America's sons and daughters--a long term investment--and that same 
level of commitment should be reflected in the facilities and equipment 
they use and in where they live, work, and play.
    We urge extreme caution in deferring these costs, especially at 
installations impacted by base realignment and closure (BRAC) decisions 
and mission-related shifts.
    We applaud congressional support for military housing privatization 
initiatives. This has provided housing at a much faster pace than would 
have been possible through military construction alone.
    AFSA urges Congress to fully fund appropriate accounts to ensure 
our installations eliminate substandard housing and work centers as 
quickly as possible. Those devoted to serving this Nation deserve 
better.
    Tremendous strides have been made to improve access to quality 
child care and fitness centers on military installations, and we are 
grateful to the Department of Defense and Congress for these collective 
efforts. However, there is still much more work to be done. I have 
personally visited over 125 Air Force installations in the States and 
overseas these past 3 years and I can assure you that the demand for 
adequate child care is a top priority among our Airmen and their 
families. The availability of on base Child Development Centers (CDC) 
plays a critical role in each military family's decision whether or not 
to remain in the service. So I urge Congress to dedicate the funding 
necessary to build more CDCs and eliminate the space deficit that 
exists today.
                               healthcare
    Like many Military and Veterans Service Organizations (MSO/VSO's), 
AFSA wants to ensure that past, present and future service members and 
families receive the inexpensive, high quality healthcare benefit that 
they so richly deserve. And we are concerned with repeated attempts by 
DOD to shift healthcare costs onto the back of retirees--particularly 
how they are perceived by active duty service members, many of whom 
have fought in Iraq and Afghanistan over the past 10 years.
    As Abraham Lincoln correctly observed, ``The willingness with which 
our young people are likely to serve in any war, no matter how 
justified, shall be directly proportional to how they perceive the 
Veterans of earlier wars were treated and appreciated by their 
nation.''
    To date, Congress has rejected the Pentagons proposed raids on 
earned medical benefits, and we greatly appreciate your work which 
allowed that to happen.
    This year the Pentagon is once again asking for higher fees and 
their current plan would raise enrollment fees for ``working age'' 
retirees and their families who use TRICARE Prime would increase by 13 
percent in fiscal year 2012. The National Health Expenditure index, 
produced by the Centers for Medicare and Medicaid Services, would be 
used beginning in fiscal year 2013, to determine annual enrollment fee 
increases thereafter.
    Co-pays for prescription drugs obtained at retail pharmacies would 
also rise under DOD's plan--from $3 to $5 for generics, $9 to $12 for 
brand name, and $22 to $25 for non-formulary medications at retail 
pharmacies. Non-formulary medications obtained through TRICARES Home 
Delivery would also increase to $25 from $22.
    At first glance, the increases DOD is proposing appear modest but 
we view them as the ``foot in the door'' which will provide the impetus 
for a long line of future TRICARE program changes. Regrettably, the 
House recently chose to include, or rather exclude, language in its 
version of the fiscal year 2012 National Defense Authorization Act 
(H.R. 1540) which would allow DOD's plan to move forward. It does 
however, limit increases in fiscal year 2013 and beyond to the rate of 
the annual COLA.
    AFSA does not discount the country's current fiscal dilemma, or the 
need to get the Federal budget under control. Nor is it is an issue of 
sacrificing a little more so everyone shares a greater portion of the 
load. The question is should they pay more before lesser priority 
programs are cut first? No one has sacrificed more then the men and 
women who have worn or are wearing the Nation's uniform. We simply 
believe it is unwise to raise TRICARE fees at a time when we have 
thousands of men and women in harms way overseas. What kind of message 
are we sending to them? Many of the individuals that would be affected 
by the proposed increases were promised free lifetime healthcare by 
DOD's recruiters to entice them to enlist, and career counselors to 
induce them to reenlist. Right, wrong, or indifferent, a decision to 
increase fees at this time would likely be viewed as another breech of 
promises made by the government. This in turn could adversely affect 
the services quality recruiting and retention efforts.
    I urge this Subcommittee to ensure continued, full funding for 
Defense Health Program. Before seeking increases in enrollment fees, 
deductibles or co-payments, DOD should pursue any and all options to 
contain the growth of healthcare spending in ways that do not 
disadvantage beneficiaries and provide incentives to promote healthy 
lifestyles.
    Again, we appreciate your consistent support in recent years to 
protect beneficiaries from disproportional healthcare fee increases.
Support Judicious VA-DOD Sharing Arrangements
    We encourage this Subcommittee to fund programs that eliminate 
waste and increase efficiency between DOD and VA.
    AFSA supports the judicious use of VA-DOD sharing arrangements 
involving network inclusion in the DOD healthcare program, especially 
when it includes consolidating physical examinations at the time of 
separation. It makes no sense to order a full physical exam on your 
retirement from the military and then within 30 days the VA has ordered 
their own complete physical exam with most of the same exotic and 
expensive exams.
    The decision to begin this process represents a good, common-sense 
approach that should eliminate problems of inconsistency, save time, 
and take care of veterans in a timely manner. These initiatives will 
save funding dollars. AFSA recommends that Congress closely monitor the 
collaboration process to ensure these sharing projects actually improve 
access and quality of care for eligible beneficiaries. DOD beneficiary 
participation in VA facilities must never endanger the scope or 
availability of care for traditional VA patients, nor should any VA-DOD 
sharing arrangement jeopardize access and/or treatment of DOD health 
services beneficiaries. One example of a successful joint sharing 
arrangement is the clinic with ambulatory care services being in 
Colorado Springs, Colorado. This will aid the large number of veterans 
remaining in the area and support the increases in Colorado Springs as 
a result of BRAC initiatives. The VA and DOD each have a lengthy and 
comprehensive history of agreeing to work on such projects, but follow-
through is lacking. ``We urge these committees to encourage joint VA-
DOD efforts, but ask you to exercise close oversight to ensure such 
arrangements are implemented properly.''
                          caring for survivors
    Support of Survivors.--AFSA commends this committee for previous 
legislation, which allowed retention of Dependency and Indemnity 
Compensation (DIC), burial entitlements, and VA home loan eligibility 
for surviving spouses who remarry after age 57. However, we strongly 
recommend the age 57 DIC remarriage provision be reduced to age 55 to 
make it consistent with all other Federal survivor benefit programs.
    We also endorse the view that surviving spouses with military 
Survivor Benefit Plan (SBP) annuities should be able to concurrently 
receive earned SBP benefits and DIC payments related to their sponsor's 
service-connected death.
    We strongly recommend the Subcommittee fund Senator Bill Nelson's 
(D-FL) bill, S. 260 which would eliminate this unfair offset.
    Survivors of retirees who draw the final full month's retired pay 
for the month in which retirees die should not have to pay this 
compensation back. This is however, what current law requires.
    At a time when the surviving spouse and family members are trying 
to put their lives back together, DOD comes and takes the money back. 
Not some of it; all of it. The entire month. Weeks later, the 
proportionate amount of retired pay may be returned to the spouse but 
the damage has already been done.
    AFSA believes it is wrong to subject survivors to this kind of 
``financial nit-picking'' at a tragic time lives. If there's ever a 
time for the Government to give a military beneficiary a tiny break, 
surely this is it. And we encourage this subcommittee to provide 
sufficient funding to remove this requirement from the books.
    Other Survivor issues included in our Top Priorities are:
  --Permit the member to designate multiple SBP beneficiaries with a 
        presumption that such designations and related allocations of 
        SBP benefits must be proportionate to the allocation of retired 
        pay.
  --Provide for eligibility for housing loans guaranteed by the 
        Department of Veterans Affairs for the surviving spouses of 
        certain totally disabled veterans.
                       debt commission proposals
    Oppose the following Debt commission recommendations:
  --Freeze Federal salaries, bonuses and other comp for 3 years 
        including military non-combat pay;
  --Reduce spending on base support and facility maintenance;
  --Integrate military kids into local schools in the United States;
  --Use highest 5 years for civil svc and military retiree pay;
  --Reform military retiree system to vest after 10 years and defer 
        collection to age 60; and
  --Full 20+ years of military retired pay starts age 57.
    Work Toward a Consistent Funding Formula and Program Permanence.--
This association believes that the parameters of who will be served, 
what care will be provided, the facilities needed, and the full funding 
to accomplish those missions should be stabilized as mandatory 
obligations. If that were so, and Congress did not have to go through 
redefinition drills as economic philosophies change, the strength of 
the economy fluctuates, and the numbers of veterans increases or 
decreases--these committees and this Nation would not have to re-debate 
obligations and funding each year. We believe that these important 
programs should be beyond debate and should fall under mandatory rather 
than discretionary spending.
    The following are a few of the Debt Commission issues recognized in 
our Top Priorities:
  --Make adjustments to the Household Goods (HHG) weight allowances 
        that take into consideration the number of family members;
  --If advantageous to the Government, reimburse transportation 
        expenses for PCSing members to take their POVs to a location 
        other than a commercial storage facility;
  --Resist DOD/DECA efforts to reduce the benefit that negatively alter 
        current pricing policies, or provide the benefit to non-
        military beneficiaries;
  --Resist the Base Exchange merger process to prevent degradation of 
        the benefit; and
  --Monitor/scrutinize housing privatization efforts to preclude 
        adverse impact on all military members.
               air national guard and reserve retirement
    Reduce the earliest Guard and Reserve retirement compensation age 
from 60 to 55.--Legislation was introduced in previous years to provide 
a more equitable retirement for the men and women serving in the Guard 
and Reserves. This proposed legislation would have reduced the age for 
receipt of retirement pay for Guard and Reserve retirees from 60 to 55. 
Active duty members draw retirement pay the day after they retire. Yet, 
Guard and Reserve retirees currently have to wait until they reach age 
60 before they can draw retirement pay.
    Provide Concurrent Retirement and Disability Pay (CRDP) For Service 
Incurred Disabilities.--National Guard and Reserve with 20 or more good 
years are currently able to receive CRDP, however, they must wait until 
they are 60 years of age and begin to receive their retirement check. 
This policy must be changed, and along with the reduction in retirement 
age eligibility, is a benefit our Guard and Reserve deserve. They have 
incurred a service connected disability and we must provide concurrent 
retirement and disability pay to them.
    Many Guard/Reserve retirees have spent more time in a combat zone 
than their active duty counterparts. The DOD has not supported 
legislation to provide Guard/Reserve men and women more equitable 
retirement pay in the past. Additional requirements and reliance has 
been placed on the Guard/Reserve in recent years. It is time to 
recognize our men and women in uniform serving in the Guard and Reserve 
and provide them a more equitable retirement system.
    Provide employer and self-employed tax credits and enhance job 
security.--AFSA supports legislation to allow the work opportunity 
credit to small businesses, which hire members of the Reserve 
Components. We encourage this Subcommittee to provide the funding 
necessary to make this happen.
    Award Full Veterans Benefit Status to Guard and Reserve Members.--
It is long overdue that we recognize those servicemembers in the Guard 
and Reserve who have sustained a commitment to readiness as veterans 
after 20 years of honorable service to our country. Certain Guard and 
Reserve members that complete 20 years of qualifying service for a 
reserve (non-regular) retirement have never been called to active duty 
service during their careers. At age 60, they are entitled to start 
receiving their reserve military retired pay, Government healthcare, 
and other benefits of service including some veterans' benefits. But, 
current statutes deny them full standing as a ``veteran'' of the armed 
forces and as a result they are not entitled to all veteran benefits. 
Our goal, along with our TMC partners, is to support pending 
legislation that will include in the definition(s) of ``veteran'' 
retirees of the Guard/Reserve components who have completed 20 years or 
more of qualifying service, but are not considered to be veterans under 
the current statutory definitions.
                           education programs
    There's no escaping the fact that college costs are rising. As the 
gap between the cost of an education and value of the Montgomery GI 
Bill (MGIB) widened, the significance of the benefit became less 
apparent. For that reason, the Post-9/11 GI Bill is a giant step 
forward. However, we must make sure that the new Post-9/11 GI Bill 
stays current at all times, so that this benefit will not lose its 
effectiveness when it comes to recruiting this Nation's finest young 
men and women into service. As a member of The Military Coalition and 
the Partnership for Veterans' Education, we strongly recommend you make 
the remaining technical corrections to the Post-9/11 GI Bill. Examples 
that standout are active duty not receiving the $1,000 annual book 
stipend, Title 32 credit for Guard and Reserve service, and BAH for 
those veterans or retirees taking on-line college courses full-time.
    Providing in-State tuition rates at federally supported State 
universities and colleges.--Regardless of residency requirements, is an 
important goal for AFSA due to the rise in servicemembers and their 
families returning to institutions to further their education and other 
numerous PCS moves involved with the CONUS.
    Ensure full funding for the mission of the Impact Aid Program.--
Impact Aid Program is to disburse payments to local educational 
agencies that are financially burdened by Federal activities and to 
provide technical assistance and support services.
    Preserve Tuition Assistance.--The discretionary Air Force Tuition 
Assistance (TA) Program is an important quality of life program that 
provides tuition and fees for courses taken by active duty personnel. 
The program is one of the most frequent reasons given for enlisting and 
re-enlisting in the Air Force.
    Implement the Interstate Compact!.--The Interstate Compact on 
Educational Opportunity for Military Children works to correct the 
inequalities that military children face as they transfer from one 
school (system) to another due to deployments or permanent change of 
station moves by their servicemember parent.
    By implementing this Compact, States can work together to achieve 
cohesive education goals and assure military students are well prepared 
for success after high school graduation. We encourage your strong 
support for those who serve this Nation and ask that you take necessary 
measures to pass this Act in your State and implement this important 
program. The States that thus far are absent from supporting the 
``sense of the Senate'' are Nebraska, Massachusetts, Vermont, West 
Virginia, Minnesota, New Hampshire, and Wyoming.
    Repeal or Greatly Modify the Uniformed Services Former Spouses 
Protection Act (USFSPA--Public Law 97-252).--AFSA urges this 
Subcommittee to support some fairness provisions for the USFSPA. While 
this law was passed with good intentions in the mid 1980s, the 
demographics of military service and their families have changed. As a 
result, military members are now the only U.S. citizens who are put at 
a significant disadvantage in divorce proceedings.
    Because of the USFSPA, the following situations now exist:
  --A military member is subject to giving part of his/her military 
        retirement pay (for the rest of his/her life) to anyone who was 
        married to him/her during the military career regardless of the 
        duration of the marriage.
  --The divorce retirement pay separation is based on the military 
        member's retirement pay--not what the member's pay was at the 
        time of divorce (often many years later).
  --A military retiree can be paying this ``award'' to multiple former 
        spouses.
  --It takes a military member 20 years to earn a retirement; it takes 
        a former spouse only having been married to the member (for any 
        duration, no matter how brief) to get a portion of the member's 
        retirement pay.
  --Under this law, in practice judges award part of the member's 
        retirement pay regardless of fault or circumstances.
  --There is no statute of limitations on this law; i.e., unless the 
        original divorce decree explicitly waived separation of future 
        retirement earnings, a former spouse who the military member 
        has not seen for many years can have the original divorce 
        decree amended and ``highjack'' part of the military member's 
        retirement pay.
  --The former spouse's ``award'' does not terminate upon remarriage of 
        the former spouse.
  --The ``award'' to a former spouse under this law is above and beyond 
        child support and alimony.
  --The law is considered unfair, illogical, and inconsistent. The 
        member's military retired pay which the Government refers to as 
        ``deferred compensation'' is, under this law, treated as 
        property rather than compensation. Additionally, the law is 
        applied inconsistently from State to State.
  --In most cases, the military retiree has no claim to part of the 
        former spouse's retirement pay.
  --Of all U.S. citizens, it is unconscionable that military members 
        who put their lives on the line are uniquely subjected to such 
        an unfair and discriminatory law.
  --While there may be unique cases (which can be dealt with by the 
        court on a case-by-case basis) where a long-term, very 
        supported former spouse is the victim, in the vast majority of 
        the cases we are talking about divorces that arise which are 
        the fault of either or both parties--at least half of the time 
        not the military member. In fact, with the current levels of 
        military deployments, more and more military members are 
        receiving ``Dear John'' and ``Dear Jane'' letters while they 
        serve.
  --This is not a male-vs.-female issue. More and more female military 
        members are falling victim to this law. These are just a few of 
        the inequities of this law. We believe this law needs to be 
        repealed or, at the least, greatly modified to be fairer to 
        military members. We urge the Subcommittee to support any 
        funding requirement that may be necessary to take action on 
        this unfair law--for the benefit of those men and women who are 
        currently defending the interests of this nation and its 
        freedom.
                               conclusion
    Chairman Inouye, Ranking Member Cochran, in conclusion, I want to 
thank you again for this opportunity to express the views of our 
members on these important issues as you consider the fiscal year 2012 
budget. We realize that those charged as caretakers of the taxpayers' 
money must budget wisely and make decisions based on many factors. As 
tax dollars dwindle, the degree of difficulty deciding what can be 
addressed, and what cannot, grows significantly.
    AFSA contends that it is of paramount importance for a nation to 
provide quality healthcare and top-notch benefits in exchange for the 
devotion, sacrifice, and service of military members. So, too, must 
those making the decisions take into consideration the decisions of the 
past, the trust of those who are impacted, and the negative 
consequences upon those who have based their trust in our Government? 
We sincerely believe that the work done by your committees is among the 
most important on the Hill. On behalf of all AFSA members, we 
appreciate your efforts and, as always, are ready to support you in 
matters of mutual concern.
    The Air Force Sergeants Association looks forward to working with 
you in this 112th Congress.

    Chairman Inouye. I can assure you that the matter of the 
unemployed and homeless will be a very high priority. Thank you 
very much.
    Sergeant McCauslin. Thank you, Senator.
    Chairman Inouye. Senator Cochran.
    Senator Cochran. Thank you for bringing these facts and 
figures to our attention. It occurs to me that we need to give 
this our best consideration. I think you can be assured that 
that will happen.
    Sergeant McCauslin. Thank you, sir.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. Mr. Chairman, just an observation. 
Sergeant, Mr. McCauslin----
    Sergeant McCauslin. Yes, sir.
    Senator Shelby [continuing]. You speak well for the 
Sergeants Association. There are a lot of you, but you had a 
distinguished military record yourself. I was just reading 
that. You're to be commended. You're a good spokesman for them. 
Thank you. We respect that.
    Sergeant McCauslin. Thank you, sir.
    Chairman Inouye. Thank you very much, Sergeant.
    Our next witness is Captain Connor, American Lung 
Association. Captain.
STATEMENT OF CAPTAIN CHARLES D. CONNOR, UNITED STATES 
            NAVY (RETIRED), PRESIDENT AND CHIEF 
            EXECUTIVE OFFICER, AMERICAN LUNG 
            ASSOCIATION
    Captain Connor. Thank you very much, Senator. It's a 
pleasure to be here. Mr. Chairman, with your permission, I 
would like to pass on the greetings of two of your admirers in 
Honolulu I met with last week, Dr. Michael Chun and Aaron Mahi. 
I'm passing on their greetings to you this morning.
    I'm, as you said, a retired Navy captain. I'm President and 
CEO of the American Lung Association. The American Lung 
Association has been around for more than 100 years and our 
mission is to save lives by improving lung health and fighting 
lung disease. We do this through three big things: research, 
advocacy, and educational programs.
    I'd like to take a few seconds of the subcommittee's time 
to talk about three big things today: the terrible burden on 
the military caused by tobacco use and the need for DOD to 
start combatting it; to ask your consideration for restoring 
funding for the peer-reviewed lung cancer research program to 
$20 million; and third, to discuss briefly what you've heard 
about this morning already, which is the threat posed by our 
soldiers in Iraq and Afghanistan to toxic pollutants in the 
air.
    Firstly, let me address tobacco use if I may. Tobacco use, 
as you well know, is the leading cause of preventable death in 
the United States today. Not surprisingly, it is also a very 
significant problem in our military as well. DOD has made some 
small progress, but much, much more needs to be done. Currently 
the smoking rate for civilians in America is about 20 percent. 
It's about 30 percent in the military, 30.5 exactly, and we 
think the combat arms people in deployed status, it's probably 
much higher than that. The highest smoking rates in the 
military are for those people between 18 and 25, especially 
soldiers and marines.
    More than one in seven active duty personnel begin smoking 
after they join the military. So it's a very, very severe 
problem.
    The use of tobacco is a severe compromiser of readiness and 
performance. Studies have shown that smoking is the best 
predictor of training failure and it's also been shown to 
increase soldiers' chances of physical injury and 
hospitalization. Now, you may have been surprised, as I was, to 
see the Secretary of Defense in the last year for the first 
time in my recollection complain about the cost of military 
healthcare. The biggest driver of healthcare is tobacco use. So 
the Pentagon spends over $1.6 billion of appropriated funds in 
treating tobacco-related medical care, increased 
hospitalization, and lost days of work.
    Just 2 years ago, the Institute of Medicine issued a big 
thick report I could have brought today entitled ``Tobacco Use 
in the Military and Veterans Population.'' The panel found that 
tobacco control does not have a very high priority in the 
military--that's what we think as well--and that it will take a 
long time to get the military off tobacco. They suggested as 
long as 20 years.
    So the American Lung Association believes now is the time 
to attack this problem if it's going to take that long, and DOD 
is overdue in announcing how it intends to implement those 
recommendations.
    Two other things briefly in the minute I have left. We 
strongly support the lung cancer research program in the 
congressionally directed medical research program. We urge you 
to restore it to its original intent and the $20 million. The 
original intent was for competitive research grants and 
priority given to deployment of integrated components to 
identify, treat, and manage early curable lung cancer.
    Last, I will not repeat what you've heard already today, 
but we are extremely concerned about the respiratory disease of 
soldiers and marines coming back from theater. We recommend DOD 
immediately begin to find alternatives to burning trash for 
waste disposal and to make burn pits more efficient. We also 
urge DOD to take steps to minimize troop exposure to pollutants 
and to further monitor pollution efforts. We think military 
people should be measured for respiratory illness before they 
go to theater and then coming back, so that we can compare 
apples to apples, so to speak, without comparing military 
respiratory disease with the civilian population. So I think 
there's some attention that needs to be paid to that.
    Thank you very much.
    [The statement follows:]
                Prepared Statement of Charles D. Connor
    Mr. Chairman and members of the Committee, the American Lung 
Association is honored to present this testimony to the Senate 
Appropriations Subcommittee on Defense. The American Lung Association 
was founded in 1904 to fight tuberculosis and today, our mission is to 
save lives by improving lung health and preventing lung disease. We 
accomplish this through research, advocacy and education.
    The American Lung Association wishes to call your attention to 
three issues for the Department of Defense's (DOD) fiscal year 2012 
budget: the terrible burden on the military caused by tobacco use and 
the need for the Department to aggressively combat it; the importance 
of restoring funding for the Peer-Reviewed Lung Cancer Research Program 
to $20 million; and the health threat posed by soldiers' exposure to 
toxic pollutants in Iraq and Afghanistan.
    First, the American Lung Association is concerned about the use of 
tobacco products by the troops. The effects of both the health and 
performance of our troops are significantly hindered by the prevalence 
of smoking and use of smokeless tobacco products. As a result, we urge 
the Department of Defense to immediately implement the recommendations 
in the Institute of Medicine's 2009 Report, Combating Tobacco Use in 
Military and Veteran Populations.
    Next, the American Lung Association recommends and supports 
restoring funding to $20 million for the Peer-Reviewed Lung Cancer 
Research Program (LCRP) within the Department of Defense 
Congressionally Directed Medical Research Program (CDMRP). Finally, the 
American Lung Association is deeply concerned about the respiratory 
health of our soldiers in Iraq and Afghanistan. We urge the DOD to 
immediately find alternatives to using burn pits, to track the 
incidence of respiratory disease related to service, and to take other 
steps that will improve the lung health of soldiers.
Combating Tobacco Use
    Tobacco use remains the leading cause of preventable death in the 
United States and not surprisingly, is a significant problem within the 
military as well. The DOD has made some small progress, including its 
recent smokefree policy on submarines, but significantly more will need 
to be done to reduce the billion dollar price tag that comes with 
military personnel using tobacco products.
    The 2008 Department of Defense Survey of Health Behaviors among 
Active Duty Personnel found that smoking rates among active duty 
personnel have essentially remained steady since 2002. However, smoking 
rates among deployed personnel are significantly higher and, 
alarmingly, more than one in seven (15 percent) of active duty 
personnel begin smoking after joining the service.
    Currently, the smoking rate for active duty military is 30.5 
percent, with smoking rates highest among personnel ages 18 to 25--
especially among soldiers and Marines. The Department of Veterans 
Affairs estimates that more than 50 percent of all active duty 
personnel stationed in Iraq smoke.\1\ The use of tobacco compromises 
military readiness and the performance of our men and women in the 
armed forces. Studies have found that smoking is one of the best 
predictors of training failure, and it has also been shown to increase 
soldiers' chances of physical injury and hospitalization.\2\ Tobacco 
use not only costs the DOD in troop readiness and health--it also costs 
the DOD money. The Pentagon spends over $1.6 billion on tobacco-related 
medical care, increased hospitalization and lost days of work.\3\
---------------------------------------------------------------------------
    \1\ Hamlett-Berry, KW, as cited in Beckham, JC et al. Preliminary 
findings from a clinical demonstration project for veterans returning 
from Iraq or Afghanistan. Military Medicine. May 2008; 173(5):448-51.
    \2\ Institute of Medicine. Combating Tobacco Use in Military and 
Veteran Populations. 2009; 3-4.
    \3\ Institute of Medicine. Combating Tobacco Use in Military and 
Veteran Populations. 2009; 56.
---------------------------------------------------------------------------
    In 2009, the prestigious Institute of Medicine (IOM) issued a 
report entitled, Combating Tobacco Use in Military and Veteran 
Populations. The panel found ``tobacco control does not have a high 
priority in DOD or VA.'' This report, which was requested by both 
departments, issued a series of recommendations, which the American 
Lung Association fully supports and asks this Committee to ensure are 
implemented.
    The IOM recommendations include commonsense approaches to 
eliminating the use of tobacco in the U.S. military. Some of the IOM's 
recommendations include:
  --Phase in tobacco-free policies by starting with military academies, 
        officer-candidate training programs, and university-based 
        reserve officer training corps programs. Then the IOM 
        recommends new enlisted accessions be required to be tobacco-
        free, followed by all active-duty personnel;
  --Eliminate tobacco use on military installations using a phased-in 
        approach;
  --End the sales of tobacco products on all military installations. 
        Personnel often have access to cheap tobacco products on base, 
        which can serve to start and perpetuate addictions;
  --Ensure that all DOD healthcare and health promotion staff are 
        trained in the standard cessation treatment protocols;
  --Ensure that all DOD personnel and their families have barrier-free 
        access to tobacco cessation services.
    A recent investigation conducted by American Public Media \4\ 
highlights that the discount price for tobacco products on base is 
significantly more--in some cases 20 percent--than the 5 percent 
permitted under law. The easiest way to end this problem is to end 
tobacco sales on all military installations.
---------------------------------------------------------------------------
    \4\ Herships, Sally. ``Military underprices tobacco more than law 
allows.'' American Public Media. http://marketplace.publicradio.org/
display/web/2011/06/01/pm-military-underprices-tobacco-more-than-law-
allows/. Accessed June 3, 2011.
---------------------------------------------------------------------------
    The American Lung Association recommends that the Department of 
Defense implement all recommendations called for in the 2009 IOM 
report. The IOM has laid out a very careful, scientifically based road 
map for the DOD to follow and the American Lung Association strongly 
urges the Committee to ensure that the report's recommendations be 
implemented without further delay.
Peer Reviewed Lung Cancer Research Program
    The American Lung Association strongly supports the Lung Cancer 
Research Program (LCRP) in the Congressionally Directed Medical 
Research Program (CDMRP) and its original intent to research the scope 
of lung cancer in our military.
    In fiscal year 2011, LCRP received $12.8 million. We urge this 
Committee to restore the funding level to the fiscal year 2009 level of 
$20 million. In addition to the reduced funding, the American Lung 
Association is troubled by the change in governance language of the 
LCRP authorized by the Congress in fiscal year 2010. We request that 
the 2012 governing language for the LCRP be returned to its original 
intent, as directed by the 2009 program: ``These funds shall be for 
competitive research . . . . Priority shall be given to the development 
of the integrated components to identify, treat and manage early 
curable lung cancer''.
Troubling Lung Health Concerns in Iraq and Afghanistan
    The American Lung Association is extremely troubled by reports of 
soldiers and civilians who are returning home from Iraq and Afghanistan 
with lung illnesses including asthma, chronic bronchitis and sleep 
apnea. Several new studies discussed below show that the airborne 
particle pollution our troops breathe in these areas may cause or 
contribute to these problems.
    A recent DOD study found that air in several Middle East locations 
contained high concentrations of desert sand, as well as particles that 
likely came from human-generated sources--especially trash burned in 
open pits and diesel exhaust. Breathing particulate matter causes heart 
attacks, asthma attacks, and even early death. People most at risk from 
particulate matter include those with underlying diseases such as 
asthma, but the health impact of particle pollution is not limited to 
individuals with pre-existing chronic conditions. Healthy, young adults 
who work outside--such as our young men and women in uniform--are also 
at higher risk. Data from a 2009 study of soldiers deployed in Iraq and 
Afghanistan found that 14 percent of them suffered new-onset 
respiratory symptoms, a much higher rate than their non-deployed 
colleagues. In a review of the DOD studies, the National Academy of 
Sciences National Research Council (NRC) concluded that troops deployed 
in the Middle East are ``exposed to high concentrations'' of 
particulate matter associated with harm ``affecting troop readiness 
during service'' and even ``occurring years after exposure.'' \5\
---------------------------------------------------------------------------
    \5\ National Academy of Sciences, National Research Council. Review 
of the Department of Defense Enhanced Particulate Matter Surveillance 
Program Report. 2010. http://www.nap.edu/catalog/12911.html. Accessed 
June 7, 2011.
---------------------------------------------------------------------------
    Several studies, released in May at the American Thoracic Society 
2011 International Conference, show mounting evidence for the 
importance of solving these problems. One large study showed that 
asthma rates in soldiers deployed to Iraq are higher than in soldiers 
deployed elsewhere. The study also showed that soldiers who served in 
Iraq had more serious asthma--i.e., lower lung function--than non Iraq 
personnel. In fact, records show that 14 percent of medic visits in 
Iraq are for respiratory issues, which is a higher percentage than from 
the previous Iraq war.\6\
---------------------------------------------------------------------------
    \6\ Szema, Anthony M. Overview of Exposures And New Onset Asthma In 
Soldiers Serving In Iraq And Afghanistan. As presented at American 
Thoracic Society 2011 International Conference, May 18, 2011.
---------------------------------------------------------------------------
    There are several probable causes for this alarming prevalence of 
respiratory disease in our current war arenas. The most obvious cause 
is exposure to dust. There are multiple kinds of dust from multiple 
sources in the Middle East. Measurements show that the amount of 
harmful particles in the air is over 600 percent higher than the levels 
considered acceptable for public health in the United States. More 
significant sources of toxic air pollution are burn pits, which are lit 
with jet fuel and sometimes burn continuously for years. This method of 
disposing of trash can be incredibly harmful to soldiers who work in 
the pits' vicinity. Major explosions, IEDs, and fungus can also cause 
harmful respiratory effects.\7\
---------------------------------------------------------------------------
    \7\ Szema, Anthony M. Overview Of Exposures And New Onset Asthma In 
Soldiers Serving In Iraq And Afghanistan. As presented at American 
Thoracic Society 2011 International Conference, May 18, 2011.
---------------------------------------------------------------------------
    While we know these problems exist, it is also clear that the DOD 
needs to do a better job at identifying and tracking them. Respiratory 
disease is difficult to detect, especially in personnel who are 
younger, healthier and more athletic than the general population. 
Military personnel need to be tested for respiratory and lung function 
pre-deployment so that doctors can make useful comparison with post-
deployment results, instead of comparing soldiers to the population 
average. Another possible solution is to use non-traditional measures 
to detect problems--such as ability to complete a 2-mile run, as 
suggested by one researcher.\8\
---------------------------------------------------------------------------
    \8\ Miller, Robert. Constrictive Bronchiolitis Among Soldiers 
Exposed To Burn Pits, Desert Dust And Fires In Southwest Asia. As 
presented at American Thoracic Society 2011 International Conference, 
May 18, 2011.
---------------------------------------------------------------------------
    To protect the troops from the hazards discussed and resulting lung 
disease, the American Lung Association recommends that DOD begin 
immediately to find alternatives to burning trash for waste disposal 
and/or make burn pits more efficient. We also strongly urge DOD to take 
steps to minimize troop exposure to pollutants and to further monitor 
pollution levels. Military doctors also must develop better ways to 
measure and track lung disease in military personnel, including taking 
baseline measures prior to deployment and creating a national registry 
to track all veterans who were exposed to these pollutants while in 
Iraq and Afghanistan. These problems are pervasive throughout the 
military, and DOD officials need to take leadership roles in creating 
positive change.
Conclusion
    Mr. Chairman, in summary, our Nation's military is the best in the 
world and we should do whatever necessary to ensure that the lung 
health needs of our armed services are fully met. Our troops must be 
protected from tobacco and unsafe air pollution and the severe health 
consequences. Thank you for this opportunity.

    Chairman Inouye. I thank you very much, Captain. I'm one of 
the one out of seven. I began smoking after I got in, but I 
quit. But all of us received in our K rations a pack of four 
cigarettes free. That's how we learned.
    Senator Cochran.
    Senator Cochran. We appreciate very much your being here 
today and bringing this reminder to our attention. It's 
something that we need to work hard on and I hope we can be 
successful. It seems to me that this is probably the most 
preventable kind of medical problem that we can work on and the 
chairman has certainly indicated a willingness to cooperate, so 
I think you can look forward to cooperation from this 
subcommittee.
    Captain Connor. Thank you.
    Mr. Vice Chairman, if I may, I'd like to leave behind a 
very recent article from the American Journal of Public Health, 
which fully reveals the extent to which the tobacco industry 
has got its hands in the Senate and the House. We actually have 
enshrined into law, if you can believe it, obstacles to DOD 
attacking the smoking problem. So with your permission, I'd 
like to leave that behind.
    Chairman Inouye. Without objection, it will be made part of 
the record.
    [The information follows:]

        [From the American Journal of Public Health, March 2011]

Forcing the Navy to Sell Cigarettes on Ships: How the Tobacco Industry 
             and Politicians Torpedoed Navy Tobacco Control

   (Naphtali Offen, Sarah R Arvey, Elizabeth A Smith, Ruth E Malone)

    In 1986, the U.S. Navy announced the goal of becoming smoke-free by 
2000. However, efforts to restrict tobacco sales and use aboard the USS 
Roosevelt prompted tobacco industry lobbyists to persuade their allies 
in Congress to legislate that all naval ships must sell tobacco. 
Congress also removed control of ships' stores from the Navy. By 1993, 
the Navy abandoned its smoke-free goal entirely and promised smokers a 
place to smoke on all ships. Congressional complicity in promoting the 
agenda of the tobacco industry thwarted the Navy's efforts to achieve a 
healthy military workforce. Because of military lobbying constraints, 
civilian pressure on Congress may be necessary to establish effective 
tobacco control policies in the armed forces. (Am J Public Health. 
2011;101:404-411. doi: 10.2105/AJPH.2010.196329)
    At more than 30 percent,\1\ \2\ the prevalence of smoking in the 
military is 50 percent higher than is the civilian rate, with a 40 
percent prevalence among those aged 18 to 25 years \3\ and nearly 50 
percent among those who have been in a war 
zone.\2\ \4\ From 1998 to 2005, tobacco use in the military increased 
7.7 percent, from 29.9 percent to 32.2 percent, reversing the decline 
of prior decades.\4\ A tobacco-friendly military culture persists, 
including the availability of cheap tobacco products,\5\ liberal 
smoking breaks,\6\ and easily accessible smoking areas.\6\ \7\ Smoking 
damages health and readiness \8\ \9\ \10\ \11\ and increases medical 
and training 
costs.\12\ \13\ \14\ \15\ In addition to short-term effects, such as 
impairment to vision and hearing, long-term consequences include lung 
and other cancers, cardiovascular disease, chronic obstructive 
pulmonary disease, and problematic wound healing.\4\ The U.S. 
Department of Defense spends more than $1.6 billion annually on 
tobacco-related health care and absenteeism.\4\
---------------------------------------------------------------------------
    \1\ Bray RM, Hourani LL. Substance use trends among active duty 
military personnel: findings from the United States Department of 
Defense Health Related Behavior Surveys, 1980-2005. Addiction. 
2007;102(7):1092-1101.
    \2\ Volkow ND. Director's perspective: substance abuse among 
troops, veterans, and their families. NIDA Notes. 2009; 22(5):1092-
1101.
    \3\ Bray RM, Hourani LL, Olmsted DLR, et al. 2005 Department of 
Defense survey of health related behaviors among active duty military 
personnel: a component of the Defense Lifestyle Assessment Program 
(DLAP). December 2006. Prepared by RTI International. Report No. DAMD 
17-00-2-0057. Available at: http://www.ha.osd.mil/special_reports/
2005_Health_Behaviors_Survey_1-07.pdf. Accessed May 10, 2010.
    \4\ Institute of Medicine. Combating Tobacco Use in Military and 
Veteran Populations. Washington, DC: National Academic Press; 2009.
    \5\ Smith EA, Blackman VS, Malone RE. Death at a discount: how the 
tobacco industry thwarted tobacco control policies in U.S. military 
commissaries. Tob Control 2007;16(1):38-46.
    \6\ Haddock CK, Hoffman KM, Peterson A, et al. Factors which 
influence tobacco use among junior enlisted in the United States Army 
and Air Force: a formative research study. Am J Health Promot. 
2009;23(4):241-246.
    \7\ Jahnke SA, Haddock CK, Poston WS, Hoffman KM, Hughey J, Lando 
HA. A qualitative analysis of the tobacco control climate in the U.S. 
military. Nicotine Tob Res. 2010;12(2):88-95.
    \8\ Dept of the Navy, Office of the Secretary. SECNAV instruction 
5100.13E, Navy and Marine Corps tobacco policy. Available at: http://
www. mccsmiramar.com/pdfs/5100_13E.pdf. Accessed March 3, 2010.
    \9\ Conway T, Cronan T. Smoking, exercise, and physical fitness. 
Prev Med. 1992;21(6):723-734.
    \10\ Zadoo V, Fengler S, Catterson M. The effects of alcohol and 
tobacco use on troop readiness. Mil Med. 1993;158(7): 480-484.
    \11\ Conway TL. Tobacco use and the United States military: a 
longstanding problem. Tob Control. 1998;7(3):219-221.
    \12\ Helyer AJ, Brehm WT, Perino L. Economic consequences of 
tobacco use for the Department of Defense, 1995. Mil Med. 
1998;163(4):217-221.
    \13\ Klesges RC, Haddock CK, Chang CF, Talcott GW, Lando HA. The 
association of smoking and the cost of military training. Tob Control. 
2001;10(1):43-47.
    \14\ Dall TM, Zhang Y, Chen YJ, et al. Cost associated with being 
overweight and with obesity, high alcohol consumption, and tobacco use 
within the military health system's TRICARE prime-enrolled population. 
Am J Health Promot. 2007; 22(2):120-139.
    \15\ Woodruff SI, Conway TL, Shillington AM, Clapp JD, Lemus H, 
Reed MB. Cigarette smoking and subsequent hospitalization in a cohort 
of young U.S. Navy female recruits. Nicotine Tob Res. 2010; 12(4):365-
373.
---------------------------------------------------------------------------
    In addition to compromised military readiness and Department of 
Defense expenses, a tobacco-friendly military culture takes a societal 
toll--economic and human--long after military personnel return to 
civilian life. The Department of Veterans Affairs spent $5 billion in 
2008 treating veterans with chronic obstructive pulmonary disease, a 
diagnosis most often associated with smoking.\4\ Lifelong smokers have 
a 50 percent chance of dying prematurely.\4\ Most costs must be borne 
by the veteran: in 1998, Congress denied disability pensions to 
tobacco-sickened veterans who began to smoke during their service, 
initially labeling smoking in the military as ``willful misconduct.'' 
\16\
---------------------------------------------------------------------------
    \16\ Offen N, Smith EA, Malone RE. ``Willful misconduct'': how the 
U.S. government prevented tobacco-disabled veterans from obtaining 
disability pensions. Am J Public Health. 2010;100(7):1166-1173.
---------------------------------------------------------------------------
    Department of Defense Directive 1010.10, issued in 1986, 
established a baseline ``policy on smoking in the DOD [Department of 
Defense] occupied buildings and facilities.'' \17\ The policy 
emphasized a healthy military that discouraged smoking and designated 
authority to the services and to individual commanders to set specific 
policies.\18\ However, subsequent attempts to set such policies 
achieved limited results,\19\ \20\ in part because of the tobacco 
industry's influence on Congress.\5\ \18\
---------------------------------------------------------------------------
    \17\ Taft WH. Department of Defense Directive 1010.10 Health 
Promotion. March 11, 1986. Philip Morris collection. Bates no. 
2047563159/3166. Available at: http://legacy.library.ucsf.edu/tid/
des52e00. Accessed October 23, 2006.
    \18\ Arvey S, Malone RE. Advance and retreat: tobacco control 
policy in the U.S. military. Mil Med. 2008;173(10):985-991.
    \19\ Smith EA, Malone RE. Tobacco targeting of military personnel: 
``The plums are here to be plucked.'' Mil Med. 2009;174(8):797-806.
    \20\ Smith EA, Malone RE. ``Everywhere the soldier will be'': 
wartime tobacco promotion in the U.S. military. Am J Public Health. 
2009;99(9):1595-1602.
---------------------------------------------------------------------------
    The industry successfully lobbied Congress to prevent the military 
from raising the prices of tobacco products sold in military stores,\5\ 
and to ensure that in-store tobacco promotions would not be 
prohibited.\18\ Congress also prevented the army from implementing a 
stronger tobacco control policy than that set by Directive 1010.10, 
although the directive was intended to be a policy floor upon which the 
services could expand.\18\ To achieve its goals, Congress privately 
pressured military tobacco control advocates,\18\ publicly scolded 
them,\5\ interfered with funding for military programs,\5\ and passed 
laws preventing the establishment of recommended tobacco control 
policies.\5\ \16\
    We examined an attempt by a former captain of the USS Theodore 
Roosevelt to ban smoking on the aircraft carrier and showed how tobacco 
industry lobbyists, working through their allies in the U.S. Congress, 
were successful in stymieing his efforts and forcing the Navy to sell 
cigarettes on all ships.
                                methods
    As part of a larger project examining tobacco industry influence on 
the U.S. military, we searched internal tobacco industry documents 
released following the Master Settlement Agreement.\21\ Data were 
collected from the University of California, San Francisco Legacy 
Tobacco Documents Library (available at: http://legacy. 
library.ucsf.edu) and Tobacco Documents Online (available at: http://
tobaccodocuments.org). Initial search terms included ``Navy/smokefree'' 
and ``Navy/cigarettes''; we used a snowball approach to locate 
additional material.\22\ We also searched the LexisNexis database for 
media coverage,\23\ the Library of Congress Thomas database of 
legislative history,\24\ and the U.S. Code collection at Cornell 
University Law School,\25\ and conducted Internet searches for 
supplemental documents. We attempted to interview all principals in 
this case study and spoke with the former captain of the USS Roosevelt, 
Admiral Stanley Bryant (November 9, 2009) and former Navy Master Chief 
Petty Officer James Herdt (January 14, 2010), both of whom advocated 
for the USS Roosevelt policy change. We also interviewed former 
Secretary of the Navy John Dalton (October 22, 2009), who opposed the 
policy. Otherwise unattributed quotations from these individuals are 
taken from the interviews. Our inability to secure other interviews is 
a limitation of this study. We analyzed approximately 340 industry 
documents and 80 documents from other sources using an interpretive 
approach, chronologically organizing our findings as a descriptive case 
study.\26\ \27\
---------------------------------------------------------------------------
    \21\ National Association of Attorneys General. Master Settlement 
Agreement. Available at: http://www.naag.org/upload/
1109185724_1032468605_cigmsa.pdf. Accessed July 7, 2009.
    \22\ Malone RE, Balbach ED. Tobacco industry documents: treasure 
trove or quagmire? Tob Control. 2000;9(3):334-338.
    \23\ LexisNexis Academic Web site. Available at: http://
www.lexisnexis.com/us/lnacademic. Accessed September 20, 2008.
    \24\ Library of Congress Thomas Web page. Available at: http://
thomas.loc.gov/home/multicongress/multicongress.html. Accessed 
September 20, 2008.
    \25\ Cornell University Law School US Code collection. Available 
at: http://www.law.cornell.edu/uscode. Accessed September 13, 2008.
    \26\ Hill MR. Archival Strategies and Techniques. Newbury Park, CA: 
Sage Publications; 1993.
    \27\ Yin RK. Case Study Research Design and Methods. Thousand Oaks, 
CA: Sage Publications; 1994.
---------------------------------------------------------------------------
                                results
    Following Directive 1010.10, some Navy leaders began to propose 
policies to reduce smoking among their personnel. As early as 1986, 
Chief of Naval Operations James Watkins (1982-1986) proposed a tobacco-
free Navy,\28\ a goal reiterated in 1990 by the Navy surgeon general, 
Vice-Admiral James Zimble (1987-1990).\29\ In February 1992, the Navy 
issued Instruction 6100.2, emphasizing tobacco-use prevention, 
cessation, and the protection of nonsmokers from secondhand smoke.\30\ 
As a result, a number of ships restricted tobacco sales by limiting the 
number of brands carried, raising prices, or not selling tax-free 
cigarettes.\31\ Some ships restricted smoking to limited venues,\31\ 
tobacco-related promotional activities were curtailed at one Navy 
exchange,\32\ and naval hospitals ashore went smoke-free.\33\ In early 
1993, Navy Surgeon General Donald Hagen (1991-1995) asked the Office of 
the Secretary of Defense to end tobacco product price subsidies in 
commissaries and exchanges in all service branches, arguing that low 
cigarette prices contributed to high rates of smoking in the 
military.\34\ By late 1993, the Office of the Secretary of Defense had 
not responded.\35\ \36\ (Cigarette prices in commissaries remained low, 
and only in 1996 were they marginally increased, at the instigation of 
an Assistant Secretary of Defense.) \5\
---------------------------------------------------------------------------
    \28\ Taylor M, Stump D. Sailors are under the ``smoking gun.'' 
September 6, 1995. Philip Morris collection. Bates no. 2048895176/5180. 
Available at: http://legacy.library.ucsf.edu/tid/yre35c00. Accessed 
January 16, 2008.
    \29\ Zimble JA. I am writing to strongly object to Camel cigarette 
advertising that includes naval vessels and aircraft in the background. 
June 11, 1990. RJ Reynolds collection. Bates no. 507471512. Available 
at: http://legacy.library.ucsf.edu/action/document/view?tid=eso24d00. 
Accessed January 24, 2007.
    \30\ Dept of the Navy, Office of the Chief of Naval Operations. 
OPNAV Instruction 6100.2, Health Promotion Program. Available at: 
http://www-nehc.med.navy.mil/bumed/tcat/tobacco/opnav%206100.2.pdf. 
Accessed March 3, 2010.
    \31\ Glennie L. Navy ship smoking restrictions. May 18, 1992. 
Philip Morris collection. Bates no. 2023176786. Available at: http://
legacy.library.ucsf.edu/tid/trs95e00. Accessed April 15, 2008.
    \32\ O'Rourke R. Dept of the Navy, Sale and use of tobacco 
products. June 19, 1992. Philip Morris collection. Bates no. 
2076220349/0350. Available at: http://legacy.library.ucsf.edu/tid/
bqc62c00. Accessed April 28, 2009.
    \33\ Navy News & Undersea Technology. First steps to a smoke-free 
Navy are under way. May 14, 1990. Philip Morris collection. Bates no. 
2023175502. Available at: http://legacy.library.ucsf.edu/tid/oqx83e00. 
Accessed April 8, 2008.
    \34\ Hagen DF. Tobacco use reduction. March 24, 1993. Philip Morris 
collection. Bates no. 2023172986. Available at: http://
legacy.library.ucsf.edu/tid/iuc85e00. Accessed December 6, 2006.
    \35\ Juliana J. Key issues: DOD smoking policies. May 6, 1993. 
Available at: http://tobaccodocuments.org/nysa_ti_s1/TI03081755.html. 
Accessed April 8, 2008.
    \36\ Linehan K. Washington outlook for 1994. December 29, 1993. 
Philip Morris collection. Bates no. 2025774681/4698. Available at: 
http://legacy.library.ucsf.edu/tid/vho14e00. Accessed January 5, 2008.
---------------------------------------------------------------------------
USS Roosevelt Bans Smoking
    Shortly after assuming command of the aircraft carrier Theodore 
Roosevelt, Captain Stanley W. Bryant announced that the ship would 
become entirely smoke-free by July 1993, including an end to cigarette 
sales in the ship's store. Motivated by a recently released report that 
secondhand smoke caused cancer in nonsmokers, Bryant felt obliged to 
act. He said, ``I'm the commanding officer of these kids and I can't 
have them inhaling secondhand smoke. I wouldn't put them in the line of 
fire. I'm not going to put them in the line of smoke.'' Navy Surgeon 
General Hagen and Chief of Naval Operations Admiral Frank B. Kelso 
(1990-1994) supported Bryant's efforts.\37\ \38\
---------------------------------------------------------------------------
    \37\ Law Offices of Shook. Hardy & Bacon. Report on recent ETS and 
IAQ developments. August 6, 1993. Lorillard collection. Bates no. 
87806034/6062. Available at: http://legacy.library.ucsf.edu/tid/
tzb40e00. Accessed April 15, 2008.
    \38\ Tobacco Institute. Executive summary. August 6, 1993. Tobacco 
Institute collection. Bates no. TICT0004527/4528. Available at: http://
legacy.library.ucsf.edu/tid/lgc42f00. Accessed April 28, 2009.
---------------------------------------------------------------------------
    The Roosevelt left port in March 1993 for 6 months at sea, having 
informed the crew in advance of the impending policy change. Cigarettes 
were removed from the ship's store, but chew tobacco was available 
because, according to Bryant, ``although it's bad for the person, it 
doesn't adversely affect the other crew members.'' Crewmen were allowed 
to bring cigarettes aboard and would be able to smoke them in the few 
lavatories set aside for that purpose until the ban went into effect 
July 4. Thereafter, they would be able to smoke only in ports of call. 
Those lavatories were among the only spaces on board where the air was 
vented directly to the outside and not recirculated; however, 
maintaining smoking in the lavatories was untenable because 
measurements of the air quality in the lavatories showed high levels of 
toxicity and the smoke strayed to nearby berths.
    According to Bryant, crew reaction was mixed: many nonsmokers 
expressed support, and some smokers complained. Command Master Chief 
James Herdt, who served as the highest-ranking enlisted person under 
Bryant, said the new policy was opposed by an ``incredibly small group 
of people.'' When a crew member asked Bryant how he could take away his 
right to smoke, Bryant told him the military regulates the length of 
hair and fingernails, how one dresses, and other such matters that many 
things, such as conjugal privileges and alcohol consumption, are 
prohibited on ship; and that smoking cigarettes, like drinking alcohol 
and smoking marijuana, affected the health and welfare of the rest of 
the crew. Bryant reported that few infractions occurred and that he 
received many letters from his crew's family members thanking him for 
protecting their loved ones from smoke and making it easier for smokers 
to quit.
Tobacco Industry Reaction
    Philip Morris and the Tobacco Institute, the industry's lobbying 
arm, observed that Navy Instruction 6100.2 represented a policy shift 
from accommodating both smokers and nonsmokers to privileging 
nonsmokers. One Philip Morris military sales executive said, ``We are 
very concerned that the Navy appears to be getting to the point where 
they are mandating non-smoking.'' \31\ His colleague, Rita O'Rourke, 
noted that Instruction 6100.2 established that ``where conflicts arise 
between the rights of smokers and rights of the nonsmokers, those of 
the nonsmokers shall prevail.'' \39\ She called attention to permission 
given to commanders to punish violations, and argued that the provision 
forced smokers to quit.\39\ With the emergence of stricter policies 
than Department of Defense Directive 1010.10, O'Rourke wondered whether 
to suggest that the Department of Defense revisit the issue, although 
that would risk a decision that ``all Services . . . become smoke-
free.'' \40\
---------------------------------------------------------------------------
    \39\ O'Rourke R. Department of the Navy violations of Department of 
Defense Directive 1010.10. March 6, 1993. Philip Morris collection. 
Bates no. 2023172961/2965. Available at: http://
legacy.library.ucsf.edu/tid/ouc85e00. Accessed November 17, 2006.
    \40\ O'Rourke R. DOD-sale and use of tobacco products. March 16, 
1993. Philip Morris collection. Bates no. 2023172957/2959. Available 
at: http://legacy.library.ucsf.edu/tid/muc85e00. Accessed October 17, 
2006.
---------------------------------------------------------------------------
    Bryant's tobacco control measures on the Roosevelt elicited 
particular industry concern. In a list of suggested talking points, 
Tobacco Institute counsel Jim Juliana told colleagues that the policy 
constituted ``discrimination,'' a denial of freedom of choice, and a 
breach of contract. He argued,

    People are recruited and granted certain privileges and rights 
which now seem to be denied in the middle of their service to their 
country.\35\

    (Bryant noted that when recruits ledge an oath to the Constitution, 
``it doesn't say a damn thing about smoking.'') Juliana argued that the 
Roosevelt was home as well as workplace and suggested that tobacco 
products would be smuggled aboard and ``used illegally and unwarranted 
and unnecessary punitive actions'' would result.\35\
Congressional Hearing
    Only a month after the Roosevelt went smoke-free, the Morale, 
Welfare, and Recreation (MWR) Panel of the House Armed Services 
Committee (HASC) took up the issue of tobacco control in the Navy, and 
the USS Roosevelt in particular.\41\ The panel had oversight of MWR 
activities offered to sailors, such as entertainment and sports 
programs. MWR was funded by profits from the ships' stores. Tobacco-
friendly politicians challenged Rear Admiral Commander John Kavanaugh 
of Navy Exchange Command on the Navy's tobacco control policies, using 
many of the arguments suggested in a memo prepared by Juliana. For 
example, Representative Herbert Bateman (R-VA) characterized not being 
able to smoke aboard ship as a ``trauma'' for crew.\41\ He likened Navy 
smoking restrictions to the failed national policy of Prohibition 
(although alcohol use is prohibited on Navy ships).\42\ Representative 
John Tanner (D-TN), thought it was ``entirely appropriate to perhaps 
restrict smoking for the convenience of those who object violently.'' 
\41\ ``But,'' he added, ``somebody is banning a legal commodity.'' \41\ 
He wondered if lottery tickets or hair spray might be next.\41\ 
Representative Solomon Ortiz (D-TX), chair of the panel, assured 
Kavanaugh that forcing sailors to remain smoke-free for months-long 
deployments would ``cause problems.'' \41\
---------------------------------------------------------------------------
    \41\ Exchange operations and activities: hearing before the Morale, 
Welfare, and Recreation Panel of the Committee on Armed Services, House 
of Representatives, 103rd Congress (1993).
    \42\ Moore RS, Ames GM, Cunradi CB. Physical and social 
availability of alcohol for young enlisted naval personnel in and 
around home port. Subst Abuse Treat Prev Policy. 2007;2:17.
---------------------------------------------------------------------------
    The panel was most concerned about eliminating cigarette sales in 
the ship's store. Will Cofer, MWR Panel staff member and long-time 
tobacco industry ally,\43\ contended that the Roosevelt policy 
prohibiting sales had ``created a black market within the Navy of 
selling cigarettes from one ship to another ship.'' He said, ``[S]ome 
GIs are selling cigarettes at inflated prices to guys on the ship that 
can't buy cigarettes.'' \41\ (Bryant and Herdt acknowledged there was 
some profiteering on the Roosevelt when cigarettes were removed from 
the ship's store, but said that it was minimal.)
---------------------------------------------------------------------------
    \43\ Gaillard RC. Project Breakthrough. March 24, 1994. RJ Reynolds 
collection. Bates no. 509721550/1552. Available at: http://
legacy.library.ucsf.edu/tid/ofz63d00. Accessed February 17, 2010.
---------------------------------------------------------------------------
    The real question about sales, however, involved the profits from 
the ship's stores. These profits supported MWR activities, and 
eliminating tobacco sales would reduce funding for them. Representative 
Bateman found it ``incredible'' that implementing a smoke-free base 
policy wouldn't ``impact revenues generated from the sale of tobacco 
products on that base.'' Kavanaugh acknowledged that ``profits and 
sales will be reduced,'' assuring the panel that there had been ``no 
move to take cigarettes out of Navy exchanges,'' and that only 2 out of 
the Navy's ``500 some ships'' had banned sales.\41\ Representative 
Martin Lancaster (D-NC) questioned Kavanaugh about allowing local-level 
leaders to implement site-specific policy, expressing concern about how 
MWR funds would be equitably distributed among units that profited from 
tobacco sales and those that did not.\41\
    Under congressional pressure, Kavanaugh said that he would report 
the panel's concerns to the Office of the Secretary of the Navy and the 
Chief Naval Officer.\41\ After Kavanaugh delivered the message that the 
MWR Panel was very disturbed by Captain Bryant's decision, the Navy 
sent the panel an official response, stating, ``The Navy's smoking 
policy, for both afloat and ashore commands, is under review by Navy 
leadership.'' \41\
    During the first 3 Congresses of the 1990s, the percentage of 
members of the MWR Panel who accepted contributions from the tobacco 
industry was higher than the congressional average. Although MWR Panel 
members received about 15 percent more industry money than other 
members during the first 2 Congresses of the 1990s, they accepted 93 
percent more than all House members during the 103rd Congress (1993-
1994), when this issue was considered (Table 1). In total, the tobacco 
industry contributed at least $4.4 million to members of the House 
during these 3 Congresses.\44\
---------------------------------------------------------------------------
    \44\ Center for Responsive Politics. Tobacco: Money to Congress. 
Available at: http://www.opensecrets.org/industries/
summary.php?cycle=1990&ind=A02. Accessed May 12, 2010.

  TABLE 1.--CAMPAIGN CONTRIBUTIONS FROM THE TOBACCO INDUSTRY TO MEMBERS OF THE MORALE, WELFARE AND RECREATIONAL
                    (MWR) PANEL OF THE HOUSE OF REPRESENTATIVES' COMMITTEE ON ARMED SERVICES
                                              [Amounts in dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                 Contributions
                                                             ---------------------------------------------------
                                                                1990 \1\     1992 \2\     1994 \3\      Career
----------------------------------------------------------------------------------------------------------------
MWR Panel recipient:
    Neil Abercrombia (D-HI).................................  ...........          500        1,500        9,500
    Herbert H. Bateman (R-VA)...............................        8,100        8,450        5,260       41,548
    Earl Hutto (D-FL).......................................  ...........  ...........  ...........  ...........
    John R. Kasich (R-OH)...................................          500          500        1,500        9,500
    H. Martin Lancaster (D-NC)..............................       18,200       22,198       44,720       85,118
    Donald H. Machtley (R-RI)...............................        1,750  ...........  ...........        1,750
    Solomon P. Ortiz (D-TX).................................        1,000          500        6,000       33,000
    Owen B. Pickett (D-VA...................................        2,850        2,000        6,500       25,750
    Bob Stump (R-AZ)........................................        2,000        3,500        2,500       15,250
    John S. Tanner (D-TN)...................................        5,700        4,700        5,500      157,700
    Robert A. Underwood (D-GU)..............................  ...........  ...........  ...........  ...........
                                                             ---------------------------------------------------
      Total contributions received..........................       40,100       42,348       73,480      379,116
                                                             ===================================================
Average donation received by all MWR Panel members..........        3,645        3,850        6,680  ...........
Average donation received by all House members..............        3,118        3,393        3,458  ...........
----------------------------------------------------------------------------------------------------------------
\1\ MWR Panel members received on average 16.9 percent more than all House members.
\2\ MWR Panel members received on average 13.5 percent more than all House members.
\3\ MWR Panel members received on average 93.2 percent more than all House members.

Congress Retaliates
    Tobacco industry observers interpreted the outcome of the HASC MWR 
Panel hearing as favorable to the industry. Internal industry 
communique's described various members of the panel as supportive of 
the industry's position and noted that ``the military commanders who 
appeared before the panel stated that they would not support 
eliminating sales of tobacco products and would make their opposition 
known to officials.'' \45\
---------------------------------------------------------------------------
    \45\ [Philip Morris.] House panel voices opposition to DOD efforts 
to establish ``smoke-free'' military. August 9, 1993. Philip Morris 
collection. Bates no. 2047992778/2785. Available at: http://
legacy.library.ucsf.edu/tid/rgi57d00. Accessed January 25, 2008.
---------------------------------------------------------------------------
    However, industry reports were overly optimistic. Just 3 days after 
the hearing, the Tobacco Institute learned that Admiral Kelso had 
endorsed Bryant's decision to ban smoking and cigarette sales aboard 
the USS Roosevelt. The Institute reported to tobacco companies that

    Several Members of Congress believe they were betrayed by this 
decision and intend to take legislative action including the removal of 
all Naval ship stores from the commissary system, thus eliminating the 
subsidy and forcing price increases on all other products.\38\

    Command Master Chief Herdt of the USS Roosevelt received a 
shipboard call from the highestranking enlisted person in the Navy, 
Master Chief Petty Officer John Hagan, urging a reversal of the ban. 
Hagan had been summoned to the office of a HASC MWR congressman, who 
chastised him severely about the nosmoking policy. Hagan reportedly 
said he had never been treated so abusively in his role as Master Chief 
Petty Officer. Nonetheless, Herdt and Bryant decided to continue the 
no-smoking policy.
    A month after the hearing, in September 1993, Representative Owen 
Pickett (D-VA) and Representative Ortiz sponsored an amendment to the 
Defense Authorization Act for Fiscal Year 1994, stripping Federal 
subsidies from Navy ships' stores and requiring that they all sell 
tobacco products.\46\ The amendment did not contain obviously pro-
tobacco language, but merely revised the applicable section to replace 
the word ``may'' with ``shall,'' thus reading: ``(c) Items Sold.--
Merchandise sold by ship stores afloat shall include items in the 
following categories . . .'' and listed ``tobacco products'' as one 
among many items that must be made available.\47\ The law does not 
mention specific tobacco products.
---------------------------------------------------------------------------
    \46\ Tobacco Institute. Executive summary. September 17, 1993. 
Lorillard collection. Bates no. 87686227/6228. Available at: http://
legacy.library.ucsf.edu/tid/txt21e00. Accessed April 15, 2008.
    \47\ Cornell University Law School U.S. Code collection. Title 10, 
Subtitle C, Part IV, Chapter 651, Sec. 7604 ships' stores: sale of 
goods and services. Available at: http://www.law.cornell.edu/uscode/
html/uscode10/usc_sec_10_00007604--000-.html. Accessed August 14, 2009.
---------------------------------------------------------------------------
    The amendment also transferred ``the authority over all ships [sic] 
stores from ship captains to the Navy Exchange Command (NEXCOM).'' \48\ 
This transfer meant that oversight would now reside in ``the Morale 
Welfare, and Recreation (MWR) Panel of the House Armed Services 
Committee.'' \49\
---------------------------------------------------------------------------
    \48\ Scott GR. Sale of tobacco products on ships stores. April 7, 
1994. Philip Morris collection. Bates no. 2073010489. Available at: 
http://legacy.library.ucsf.edu/tid/xps57c00. Accessed January 16, 2008.
    \49\ [Philip Morris.] Washington Report: Defense Authorization Bill 
conferees adopt provision requiring ship stores to sell tobacco 
products. November 29, 1993. Philip Morris collection. Bates no. 
2046215439/5445. Available at: http://legacy.library.ucsf.edu/tid/
vuh92e00. Accessed January 16, 2008.
---------------------------------------------------------------------------
    The tobacco industry reported that the legislation was prompted by 
the Navy's tobacco control efforts. Philip Morris observed that 
``Congressional intervention reversed the imposition of a `smokefree' 
policy aboard Navy ships.'' \36\ The Tobacco Institute noted that the 
Chief of Naval Operations angered Congressman Pickett and others by 
``reneging on his promise to reverse the order by the Commanding 
Officer of the USS Roosevelt banning smoking and tobacco sales aboard 
ship.'' \46\
Navy Response
    Before the Defense Authorization Act had been approved and signed 
by the President, the Navy implemented a new service-wide policy that 
prevented local-level personnel from banning smoking entirely.\50\ On 
October 21, 1993, Secretary of the Navy John Dalton issued the 
``Smoking policy for Department of Navy controlled spaces,'' effective 
January 1, 1994, which described exactly where designated smoking 
spaces would be established on ships or submarines.\50\
---------------------------------------------------------------------------
    \50\ Dept of the Navy. Smoking policy for Department of the Navy 
(DoN) controlled spaces. October 22, 1993. Philip Morris collection. 
Bates no. 2023172656/2658. Available at: http://
legacy.library.ucsf.edu/tid/jtt14e00. Accessed December 1, 2006.
---------------------------------------------------------------------------
    Dalton sent Ortiz a copy of the policy.\51\ He wrote, 
``Appreciating your interest in the issue of smoking aboard Navy ships, 
I am pleased to advise you that . . . I have approved a policy that 
will be applicable to all Navy ships.'' \51\ He continued, ``Tobacco 
products will be sold in ship's stores and will be priced similarly to 
those sold in Navy Exchanges ashore.'' The new policy addressed only 
smoking regulations and not sales, suggesting that Dalton may have 
raised the sales issue in his cover letter and implemented the policy 
in an effort to forestall the adoption of the Pickett-Ortiz amendment. 
Ortiz immediately shared the victory with his tobacco industry allies, 
faxing the documents to Philip Morris just ``minutes after'' receiving 
Dalton's letter and policy memo.\52\
---------------------------------------------------------------------------
    \51\ Dalton JH. Letter from John Dalton to Solomon Ortiz. October 
21, 1993. Philip Morris collection. Bates no. 2023172654. Available at: 
http://legacy.library.ucsf.edu/tid/suc85e00. Accessed December 7, 2006.
    \52\ Scott G. Navy smoking policy. October 22, 1993. Philip Morris 
collection. Bates no. 2023172653. Available at: http://
legacy.library.ucsf.edu/tid/ruc85e00. Accessed January 25, 2008.
---------------------------------------------------------------------------
    A naval press release characterized the policy as protecting people 
from ``involuntary exposure to environmental tobacco smoke'' \53\ 
rather than reinstating smoking areas on ships that had eliminated 
them. The media thus reported Dalton's policy as a crackdown on 
smoking, as opposed to a capitulation to members of the HASC MWR 
Panel.\54\ When interviewed, Dalton was unable to recall additional 
details of the incident.
---------------------------------------------------------------------------
    \53\ Navy announces new smoking policy [press release]. Washington, 
DC: U.S. Navy; October 21, 1993. Available at: http://www.navy.mil/
navydata/news/mednews/med93/med93041.txt. Accessed November 9, 2009.
    \54\ Morris P. Navy cracks down on smoking with uniform new 
regulations. November 17, 1993. Philip Morris collection. Bates no. 
2048159074/9146. Available at: http://legacy.library.ucsf.edu/tid/
xrs65e00. Accessed April 24, 2008.
---------------------------------------------------------------------------
    Despite Dalton's policy, the Pickett-Ortiz amendment passed. The 
Navy tried to argue for amending it, contending that it would 
``increase the cost of merchandise to sailors, reduce funding for their 
ship's morale, welfare, and recreation (MWR) programs and result in a 
less efficient program.'' \55\ In response, Pickett inserted language 
into the act delaying the date of implementation for 1 year, which 
successfully thwarted the Navy's attempt to repeal the law.\56\
---------------------------------------------------------------------------
    \55\ Roark D. Impact on afloat sailors by converting ships stores 
from appropriated to non-appropriated funding. April 6, 1994. Philip 
Morris collection. Bates no. 2073010490. Available at: http://
legacy.library.ucsf.edu/tid/wps57c00. Accessed April 10, 2008.
    \56\ U.S. Congress. Sec. 382. Ships' stores. May 4, 1994. Philip 
Morris collection. Bates no. 2073010557. Available at: http://
legacy.library.ucsf.edu/tid/fps57c00. Accessed April 15, 2008.
---------------------------------------------------------------------------
    In September 1995, the Navy newspaper Soundings reported that the 
Navy had ``thrown in the towel'' and abandoned plans to become smoke-
free by 2000.\28\ The Navy was reported to have ``conceded'' that the 
goal was ``unrealistic.'' \28\ Instead, it established a goal to reduce 
smoking rates to 35 percent, the equivalent civilian rate at the 
time.\28\ As of 2005, the smoking prevalence in the Navy was 32 
percent,\4\ still more than 50 percent above the corresponding civilian 
rate of 21 percent.
Tobacco Industry Confidence
    Internal industry communique's with wording such as ``the provision 
we put through last year'' \57\ reveal the extent to which the industry 
was confident of the power it wielded. At the end of 1993, one Philip 
Morris executive wrote, ``We are continuing to stimulate congressional 
opposition to efforts to restrict the sale of tobacco products in the 
military.'' \36\ Another Philip Morris employee wrote in 1994, ``We 
will be working with the MWR Panel to attempt to ensure that the 
Pickett-Ortiz provision is not repealed.'' \48\ Industry lobbyists 
enjoyed access to key committee members.\40\
---------------------------------------------------------------------------
    \57\ Scott GR. DOD--cigarettes. May 5, 1994. Philip Morris 
collection. Bates no. 2073010555. Available at: http://
legacy.library.ucsf.edu/tid/hps57c00. Accessed April 10, 2008.
---------------------------------------------------------------------------
    Kelso visited the Roosevelt when it was deployed in the 
Mediterranean in August 1993 and told Bryant he was doing the right 
thing in banning smoking. However, when the Roosevelt returned to port 
in September 1993, Kelso told Bryant he was taking ``immense heat'' 
from every corner, including Congress and the Secretary of the Navy, 
for Bryant's actions and that all ships, including the Roosevelt, would 
have to accommodate smokers by providing a dedicated smoking area. In 
retrospect, Bryant was grateful that Kelso had put off overriding the 
Roosevelt's smokefree policy until after its deployment. Bryant said, 
``I'm taking care of my crew. Who's going to take me to task for that? 
And in fact, the military did not.'' He added, ``You've got to do what 
you think is right. For the most part, the media and Congress respect 
that, but then you've got big money and the tobacco industry that work 
against it.''
                               discussion
    In this case, the tobacco industry's influence over Congress 
clearly has harmed sailors in 2 ways. Foremost, sailors have been left 
exposed to secondhand smoke while deployed, compromising their safety 
and health. Congressional action mandating cigarette sales also ensured 
that this exposure would continue; the Navy could not in the future 
adopt strong tobacco control policies without congressional approval, 
since doing so would likely be difficult--and obviously hypocritical--
to enforce a smokefree ship while still selling cigarettes. For 
instance, smoking on submarines continued to be allowed until it was 
prohibited at the end of 2010.\58\ \59\ Second, an opportunity to 
denormalize smoking was lost, and a tobacco-friendly atmosphere was 
maintained.
---------------------------------------------------------------------------
    \58\ U.S. Navy. Smoking to be extinguished on submarines. Available 
at: http://www.navy.mil/search/display.asp?story_id=52488. Accessed May 
12, 2010.
    \59\ Shanker T. To protect health of nonsmokers, Navy bans tobacco 
use on its submarine fleet. The New York Times. June 21, 2010:A16. 
Available at: http://www.nytimes.com/2010/06/21/us/21smoking.html. 
Accessed June 24, 2010.
---------------------------------------------------------------------------
    The tobacco industry appears to have had significant influence on 
Navy tobacco control efforts. Between 1988 and 1994, nearly 70 percent 
of Members of Congress received tobacco industry money,\44\ which has 
been found to be associated with legislative support for tobacco 
industry positions.\60\ \61\ \62\ House MWR Panel members, many of whom 
represented tobacco States, accepted on average more and larger 
campaign contributions than other Housemembers. Certainly the industry 
and its consultants believed their actions resulted in reversing the 
smoke-free policies aboard the USS Roosevelt.
---------------------------------------------------------------------------
    \60\ Luke DA, Krauss M. Where there's smoke there's money: tobacco 
industry campaign contributions and U.S. Congressional voting. Am J 
Prev Med. 2004; 27(5):363-72.
    \61\ Glantz SA, Begay ME. Tobacco industry campaign contributions 
are affecting tobacco control policymaking in California. Journal of 
the American Medical Association. 1994;272(15):1176-82.
    \62\ Monardi F, Glantz SA. Are tobacco industry campaign 
contributions influencing State legislative behavior? Am J Public 
Health. 1998;88(6):918-23.
---------------------------------------------------------------------------
    The U.S. military is one of the most powerful institutions in the 
world. Its mission, the protection of the country, requires personnel 
at peak readiness and performance; hence, military training stresses 
physical and mental fitness. The ultimate responsibility for 
maintaining this force lies with Congress, which retains essential 
civilian oversight of the military. Such oversight, however, leaves 
military policy vulnerable to other interests.
    A consistent pattern of congressional interference with military 
tobacco control efforts suggests several lessons for advocates. First, 
the industry-scripted response to military tobacco control policy that 
positions tobacco use as a ``right'' to be defended by Congress must be 
countered. Military readiness requires restrictions on activities or 
characteristics that interfere with fitness. All branches of the 
military, for example, set healthy weight parameters for recruits \63\; 
restricting tobacco use is no more a violation of rights than is 
requiringmaintenance of appropriate weight.
---------------------------------------------------------------------------
    \63\ 10 Steps to joining the military: height and weight charts. 
Available at: http://www.military.com/Recruiting/Content/
0,13898,rec_step07_hw,00.html. Accessed May 3, 2010.
---------------------------------------------------------------------------
    Second, congressional intervention has largely taken place out of 
public view; the MWR Panel's actions ultimately took the form of small, 
seemingly technical changes to a comprehensive and necessary piece of 
legislation. It is likely that most Members of Congress were unaware of 
these amendments and their long-term impact on the health of Navy 
personnel. Such action is in keeping with other pro-tobacco legislative 
efforts, such as the passage of an amendment to the 1986 defense 
authorization bill requiring military commissaries to sell tobacco and 
forbidding them to raise prices.\5\ Directing public attention to such 
legislation, and making its proponents justify it in public, will 
likely be a necessary part of changing military tobacco control policy.
    Finally, civilian public health organizations must play a stronger 
role in these efforts. The public may believe that the military is 
resistant to tobacco control; however, multiple studies have 
demonstrated that advocates at all levels of tobacco control in the 
military find themselves or their services to be the target of 
political attacks.\5\ \18\ Because all active-duty military personnel 
are constrained by the structural controls on their lobbying activity, 
their ability to respond to these attacks is limited. A coalition of 
public health, tobacco control, and veterans' service groups and 
health-focused congressional allies needs to organize to achieve 
effective military tobacco control policies. Such a coalition could 
shine a light on congressional actions that thwart military tobacco 
control efforts and facilitate those that help the military achieve the 
goal recently called for by the Institute of Medicine: a tobacco-free 
military.\4\
    This coalition could reframe military tobacco control issues. 
Veterans might be particularly effective at debunking the idea that 
military personnel deserve the freedom to smoke by talking about years 
of postservice addiction that began in a tobaccofriendly military.\16\ 
Similar reframing should be used in advocating for clean indoor air for 
all military personnel. Tobacco-sickened veterans could help drive home 
the point that military policy lags behind civilian policy in the 
percentages of people fully protected by proven, effective tobacco 
control policies recommended for use globally,\64\ including smoke-free 
spaces and high tobacco taxes. Members of the services assume 
unavoidable risks as part of the military mission, but exposure to 
cigarette smoke should not be one of them.
---------------------------------------------------------------------------
    \64\ World Health Organization. WHO Framework Convention on Tobacco 
Control. Available at: http://www.who.int/tobacco/framework/en. 
Accessed February 26, 2010.

    Senator Cochran. Thank you.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. Have there been studies comparing, say, the 
returning veterans' respiratory and lung problems, say, with 
the ones that came out of the Gulf in 1991?
    Captain Connor. Senator Shelby, I would like to research 
that and get right back to you with a full answer to that.
    Senator Shelby. Would you do that for the record?
    Captain Connor. We certainly will get right back to you on 
that.
    [The information follows:]

    I wanted to thank you and the Senate Appropriations 
Subcommittee on Defense for allowing me the opportunity to 
testify on June 22 about lung health and the military. I also 
wanted to follow up with some information regarding questions 
you asked me about lung health problems in veterans and steps 
the Department of Defense (DOD) has taken regarding tobacco.
    First, you asked me if there were any data comparing the 
lung health of veterans of the 1991 gulf war to veterans of the 
current conflict. Researchers and doctors are beginning to 
address this question. The evidence thus far shows that 
veterans of the first gulf war had a variety of respiratory 
problems, which we are likely to find in veterans of the 
current war. However, there are also differences in the toxins 
personnel were exposed to, and in length of time they were 
exposed. As you know, the first gulf war was much shorter than 
the current one. We are still learning how these differences 
affect the lung health of today's troops.
    There is certainly enough evidence to warrant concern for 
our current troops and action from DOD. One study conducted by 
Vanderbilt University suggests that certain exposures during 
the current conflict have caused serious cases of constrictive 
bronchiolitis, a condition associated with damage or 
destruction of over 50 percent of small airways.\1\ In a review 
of DOD studies, the National Academy of Sciences' National 
Research Council (NRC) concluded that troops deployed in the 
Middle East are ``exposed to high concentrations'' of 
particulate matter associated with harm ``affecting troop 
readiness during service'' and even ``occurring years after 
exposure.'' \2\ Much more surveillance and research is needed, 
which is why I urged in my testimony that DOD be required to 
develop better ways to measure and track lung disease in 
military personnel, including taking baseline measures prior to 
deployment and creating a national registry to track all 
veterans who were exposed to pollutants while in Iraq and 
Afghanistan.
---------------------------------------------------------------------------
    \1\ Robert F. Miller, MD. Vanderbilt University Medical Center. 
Testimony before the United States Senate Committee on Veterans' 
Affairs. ``Airway injury in U.S. soldiers following service in Iraq and 
Afghanistan'' October 8, 2009.
    \2\ National Academy of Sciences, National Research Council. Review 
of the Department of Defense Enhanced Particulate Matter Surveillance 
Program Report. 2010. http://www.nap.edu/catalog/12911.html. Accessed 
June 7, 2011.
---------------------------------------------------------------------------
    I also wanted to follow-up with you regarding your question 
about what the DOD has done so far to help tobacco users in the 
military quit. As I shared in my testimony, the Institute of 
Medicine (IOM) found that the Pentagon spends $1.6 billion 
annually on tobacco-related medical care, increased 
hospitalization and lost days of work. While there have been 
some efforts--notably the ``Quit Tobacco, Make Everyone Proud'' 
website \3\--they have not been enough, especially in light of 
the severity of the problem. Access to tobacco cessation 
programs and medication varies among bases and military 
branches. And despite urgings from the Institute of Medicine 
report on the subject,\4\ and a requirement in the Duncan 
Hunter National Defense Authorization for Fiscal Year 2009,\5\ 
TRICARE still does not cover treatments to help tobacco users 
quit.
---------------------------------------------------------------------------
    \3\ www.ucanquit2.org.
    \4\ Institute of Medicine. Combating Tobacco Use in Military and 
Veteran Populations. 2009. http://www.nap.edu/
catalog.php?record_id=12632.
    \5\ http://www.dod.gov/dodgc/olc/docs/2009NDAA_PL110-417.pdf.
---------------------------------------------------------------------------
    The American Lung Association recommends that the 
Department of Defense implement all recommendations called for 
in the 2009 IOM report Combating Tobacco Use in Military and 
Veterans Populations that I discussed in my testimony. The IOM 
has laid out a very careful, scientifically based road map for 
the DOD to follow and the American Lung Association strongly 
urges the Committee to ensure that the report's recommendations 
be implemented without further delay.

    Senator Shelby. Second, what is the Department of Defense 
doing to discourage smoking? As the chairman noted, they used 
to promote smoking, I guess, or help, aid, and abet it. What 
are they doing to discourage it, because a lot of the young 
people, not just soldiers but in our college campuses, a lot of 
them smoke. A lot of them quit. A lot of them quit too late.
    Captain Connor. Right. It's a two-part question, what are 
they doing to prevent it and stop it; and then what are they 
doing to help people get off cigarettes.
    Senator Shelby. Right.
    Captain Connor. There are some smoking cessation efforts 
which we believe could be better resourced. We don't feel 
they're doing nearly enough to prevent it. The study that I 
referred to has very excellent concrete recommendations, like 
let's suggest all officers not smoke. When kids come into boot 
camp, they can't smoke. So we could start by grandfathering 
that starting today, saying, okay, when you get through boot 
camp, guess what, you can't go back smoking.
    So there's a number of things that could be done to attack 
this problem over time. Nobody's suggesting that the knife come 
down tomorrow and say no smoking. But I think steps could be 
taken to arrest this problem and stop it from growing.
    Senator Shelby. I think all of us know that the more you 
smoke the less you're going to run, probably the fewer miles 
you're going to march, the fewer minutes you can do exercise, 
too. That's just common sense.
    Captain Connor. That's right. The other thing, you've got 
the military exchanges are making money from the cigarettes. 
That's a big issue, too. Then there's a reluctance of combat 
commanders that we hear about from the health people in DOD, a 
reluctance to deprive troops of something that they say affects 
their morale and things like that.
    Senator Shelby. Thank you.
    Chairman Inouye. Thank you very much, Captain.
    The next witness is Mr. Rick Jones, National Association 
for Uniformed Services.
STATEMENT OF RICK JONES, LEGISLATIVE DIRECTOR, NATIONAL 
            ASSOCIATION FOR UNIFORMED SERVICES
    Mr. Jones. Chairman Inouye, Vice Chairman Cochran, Senator 
Shelby: Thank you very much.
    The National Association for Uniformed Services is 
concerned about the investment we're making in our defense. As 
hard as you work, too often we still depend on aging fleets of 
aircraft, ships, and vehicles across the services. We must 
continue to drive toward modernization and that means 
investment.
    The message our members ask me to bring is simple and 
direct: Anyone who goes into harm's way under the flag of the 
United States needs to be deployed with the best our Nation can 
provide. Our troops in the field depend on America's support. 
Critical funding provides them the margins they need for 
success.
    TRICARE, the provision of quality, timely healthcare, is 
considered one of the most important non-cash earned benefits 
afforded those who serve a career in the military. Our service 
members and their families make great sacrifices for all of us. 
The TRICARE benefit reflects the commitment of a Nation to 
those who serve, and it deserves your wholehearted support.
    Our fiscal situation, of course, requires shared sacrifice. 
But our military and our military retirees should bear no more 
than their share. For those who give their career to a 
uniformed service, our organization asks you to provide full 
funding for the securing of their earned benefit.
    It's our understanding that certain leaders in Congress 
have agreed with the Department of Defense regarding a 13 
percent increase in TRICARE fees paid by military retirees. 
NAUS does not agree and, after hearing for more than a year the 
Secretary of Defense and the Chairman of the Joint Chiefs say 
that rising costs of retiree healthcare was crippling our 
Nation's national security, we read that the House 
Appropriations Committee intends to use $330 million of 
unexecuted money in the TRICARE health program for funding 
additional congressionally directed medical research programs, 
many of which are outside traditional battlefield medicine and/
or duplicate subjects covered by the National Institutes of 
Health. It's not appropriate. Our folks might be outraged when 
they hear this, that their healthcare they'll have to pay more 
for, but the money's going for additional research in areas 
unrelated to the military.
    My association urges you to provide adequate funding for 
military construction and family housing accounts. The funds 
for base allowance and housing should ensure that those serving 
our country are able to afford to live in quality housing.
    Walter Reed. Another matter of great interest to our 
members is the plan to realign the National Capital area's 
military health programs. While we herald this development, 
we're hearing that things may not be quite in order or ready by 
the September BRAC deadline. The deadline may have to be 
extended and we hope that you'll take a look at that to make 
sure that our wounded warriors don't fall through the cracks in 
this transfer from the old Walter Reed to the new Bethesda 
facility.
    DOD prosthetic research. My organization and association 
encourages the subcommittee to ensure that funding for DOD 
prosthetic research is adequate to support the full range of 
programs needed to meet current and future challenges facing 
wounded warriors.
    Post-traumatic stress and traumatic brain injury are indeed 
signature injuries and they deserve your support.
    We would also ask that the Armed Forces Retirement Home 
receive your attention. We encourage both the home in 
Washington, DC, and the home in Gulfport, Mississippi, give 
your attention to both of those for adequate funding. The 
Gulfport home has been open now for about 9 months, the new 
one, and we're encouraged to read what's going on down there 
with regard to care. But we're also concerned about some of the 
investigations regarding employees.
    The Uniformed Services Health System deserves your support 
and we thank you very much for the opportunity to testify.
    [The statement follows:]
                    Prepared Statement of Rick Jones
    Chairman Inouye, Vice Chairman Cochran, and members of the 
Subcommittee: It is a pleasure to appear before you today to present 
the views of The National Association for Uniformed Services on the 
fiscal year 2012 Defense Appropriations bill.
    My name is Rick Jones, Legislative Director of the National 
Association for Uniformed Services (NAUS). And for the record, NAUS has 
not received any Federal grant or contract during the current fiscal 
year or during the previous 2 fiscal years in relation to any of the 
subjects discussed today.
    As you know, the National Association for Uniformed Services, 
founded in 1968, represents all ranks, branches and components of 
uniformed services personnel, their spouses and survivors. The 
Association includes personnel of the active, retired, Reserve and 
National Guard, disabled veterans, veterans community and their 
families. We love our country and our flag, believe in a strong 
national defense, support our troops and honor their service.
    Mr. Chairman, the first and most important responsibility of our 
government is the protection of our citizens. As we all know, we are at 
war. That is why the defense appropriations bill is so very important. 
It is critical that we provide the resources to those who fight for our 
protection and our way of life. We need to give our courageous men and 
women everything they need to prevail. And we must recognize as well 
that we must provide priority funding to keep the promises made to the 
generations of warriors whose sacrifice has paid for today's freedom.
    We simply must have a strong investment in the size and capability 
of our air, land and naval forces. And we must invest in fielding new 
weapons systems today to meet the challenges of tomorrow.
    We cannot depend on aging fleets of aircraft, ships and vehicles 
across the services. We must continue to drive toward modernization and 
make available the resources we will need to meet and defeat the next 
threats to our security.
    Our Nation is protected by the finest military the world has ever 
seen. The message our members want you to hear is simple and direct: 
Any one who goes into harm's way under the flag of the United States 
needs to be deployed with the best our Nation can provide. We need to 
give our brave men and women everything they need to succeed. And we 
must never cut off or unnecessarily delay critical funding for our 
troops in the field.
    The National Association for Uniformed Services is very proud of 
the job this generation of Americans is doing to defend America. Every 
day they risk their lives, half a world away from loved ones. Their 
daily sacrifice is done in today's voluntary force. What they do is 
vital to our security. And the debt we owe them is enormous.
    Our Association also carries concerns about a number of related 
matters. Among these is the provision of a proper healthcare for the 
military community and recognition of the funding requirements for 
TRICARE for retired military. Also, we will ask for adequate funding to 
improve the pay for members of our armed forces and to address a number 
of other challenges including TRICARE Reserve Select and the Survivor 
Benefit Plan.
    We also have a number of related priority concerns such as the 
diagnosis and care of troops returning with post traumatic stress 
disorder (PTSD) and traumatic brain injury (TBI), the need for enhanced 
priority in the area of prosthetics research, and providing improved 
seamless transition for returning troops between the Department of 
Defense (DOD) and the Department of Veterans Affairs (VA). In addition, 
we would like to ensure that adequate funds are provided to defeat 
injuries from the enemy's use of improvised explosive devices (IEDs).
TRICARE and Military Quality of Life: Health Care
    Quality healthcare is a strong incentive to make military service a 
career. The provision of quality, timely care is considered one of the 
most important benefits afforded the career military. The TRICARE 
benefit, earned through a career of service in the uniformed services, 
reflects the commitment of a Nation, and it deserves your wholehearted 
support.
    It should also be recognized that discussions have once again begun 
on increasing the retiree-paid costs of TRICARE earned by military 
retirees and their families. We remember the outrageous statement of 
Dr. Gail Wilensky, a co-chair of the Task Force on the Future of 
Military, calling congressional passage of TRICARE for Life ``a big 
mistake.''
    And more recently, we heard Admiral Mike Mullen, the current 
Chairman of Joint Chiefs of Staff, call for increases in TRICARE fees. 
Mullen said, ``It's a given as far as I'm concerned.''
    Our Association does not believe those who have given so much to 
their country in service and sacrifice should again be placed at the 
head of the line for budget reductions. We have testified before the 
authorizing committee to ``hold the line'' on fee increases. However, 
with comments like these from those in military leadership positions, 
there is little wonder that retirees and active duty personnel are 
concerned.
    Seldom has NAUS seen such a lowing in confidence about the 
direction of those who manage the program. Faith in our leadership 
continues, but it is a weakening faith. And unless something changes, 
it is bound to affect recruiting and retention, even in a down economy.
Fraud and Criminal Activity Costs Medicare and TRICARE Billions of 
        Dollars
    Reports continue from the Government Accountability Office (GAO), 
the investigative arm of the United States Congress, and related 
government agencies that show us that multi-billions of Medicare money 
is being ripped off every year. While those in government responsible 
for the management of Medicare and TRICARE tell us that their 
investigations into these matters are working, the clear sign suggests 
otherwise. Our Medicare and TRICARE programs are desperately in need of 
improved management to stop the loss of billions of dollars.
    Here are a couple of examples. GAO reports that one company billed 
Medicare for $170 million for HIV drugs. In truth, the company 
dispensed less than $1 million. In addition, the company billed $142 
million for nonexistent delivery of supplies and parts and medical 
equipment.
    In another example, fake Medicare providers billed Medicare for 
prosthetic arms on people who already have two arms. The fraud amounted 
to $1.4 billion of bills for people who do not need prosthetics.
    We need action to corral fraud and bring it to an end. What we've 
seen, however, is delay and second-hand attention with insufficient 
resources dedicated to TRICARE fraud conviction and recovery of money 
paid wrongly to medical care thieves.
    Last year, we cited the lack of information on TRICARE fraud 
activities. We suggested that one need only view the TRICARE Program 
Integrity Office web site to see a reflection of this inactivity. At 
that time the most recent Fraud Report was dated 2008 there were only 
two items listed under ``News'' for 2010 and no items for 2009.
    This year, it's good, though hardly adequate, to see the TRICARE 
Program Integrity Office update its information on its activities. The 
report for 2010 indicates that a TRICARE Anti-Fraud Conference took 
place last April. While these is no related ``News'' on this conference 
as there was in 2007, the report notes, ``the education, information 
sharing and networking that takes place during and after each 
conference creates a surge in fraud case identification and referrals 
from attendees.'' Yet there is nothing in the ``News'' that supports 
such a surge of beneficial activity took place. It seems more gloss 
than fact.
    Our members tire of hearing they should pay more for the healthcare 
earned in honorable service to country when they hear stories about or 
see little evidence of our government doing anything but sitting on its 
hands, often taking little to no action for years on this type of 
criminal activity, with the exception of an annual conference.
    NAUS urges the Subcommittee to challenge DOD and TRICARE 
authorities to put some guts behind efforts to drive fraud down and out 
of the system. If left unchecked, fraud will increasingly strip away 
resources from government programs like TRICARE. And unless Congress 
directs the Administration to take action, we all know who will be left 
holding the bag and paying higher fees to cover fraud losses--the law-
abiding retiree and family.
    We urge the Subcommittee to take the actions necessary for honoring 
our obligation to those men and women who have worn the Nation's 
military uniform. Use your spending power to move TRICARE to root out 
the corruption, fraud and waste. And help confirm America's solemn, 
moral obligation to support our troops, our military retirees, and 
their families. They have kept their promise to our Nation, now it's 
time for us to keep our promise to them.
Military Quality of Life: Pay
    For fiscal year 2012, the Administration recommends a 1.6 percent 
across-the-board pay increase for members of the Armed Forces. The 
proposal is designed, according to the Pentagon, to keep military pay 
in line with civilian wage growth.
    The National Association for Uniformed Services commends Congress 
and the Administration for its attention to troops pay. A good job has 
been done over the recently past years to narrow the gap between 
civilian-sector and military pay. The differential, which was as great 
as 14 percent in the late 1990s, has been reduced to just below 3 
percent with the January 2011 pay increase.
    The National Association for Uniformed Services applauds you, Mr. 
Chairman, for the strides you have made, and we encourage you to 
continue your efforts to ensure DOD manpower policy maintains a 
compensation package that is attractive and competitive to our fighting 
men and women.
    We also encourage your review of providing bonus incentives to 
entice individuals with certain needed skills into special jobs that 
help supply our manpower for critical assets. These packages can also 
attract ``old hands'' to come back into the game with their skills.
    The National Association for Uniformed Services asks you to do all 
you can to fully compensate these brave men and women for being in 
harm's way, we should clearly recognize the risks they face and make 
every effort to appropriately compensate them for the job they do.
Military Quality of Life: Family Housing Accounts
    The National Association for Uniformed Services urges the 
Subcommittee to provide adequate funding for military construction and 
family housing accounts used by DOD to provide our service members and 
their families quality housing. The funds for base allowance and 
housing should ensure that those serving our country are able to afford 
to live in quality housing whether on or off the base. The current 
program to upgrade military housing by privatizing Defense housing 
stock is working well. We encourage continued oversight in this area to 
ensure joint military-developer activity continues to improve housing 
options. Clearly, we need to be particularly alert to this challenge as 
we implement BRAC and related rebasing changes.
    The National Association for Uniformed Services also asks special 
provision be granted the National Guard and Reserve for planning and 
design in the upgrade of facilities. Since the terrorist attacks of 
September 11, 2001, our Guardsmen and reservists have witnessed an 
upward spiral in the rate of deployment and mobilization. The mission 
has clearly changed, and we must recognize that Reserve Component 
Forces account for an increasing role in our national defense and 
homeland security responsibilities. The challenge to help them keep 
pace is an obligation we owe for their vital service.
Increase Force Readiness Funds
    The readiness of our forces is in decline. The long war fought by 
an overstretched force tells us one thing: there are simply too many 
missions and too few troops. Extended and repeated deployments are 
taking a human toll. Back-to-back deployments means, in practical 
terms, that our troops face unrealistic demands. To sustain the service 
we must recognize that an increase in troop strength is needed and it 
must be resourced.
    In addition, we ask you to give priority to funding for the 
operations and maintenance accounts where money is secured to reset, 
recapitalize and renew the force. The National Guard, for example, has 
virtually depleted its equipment inventory, causing rising concern 
about its capacity to respond to disasters at home or to train for its 
missions abroad.
    The deficiencies in the equipment available for the National Guard 
to respond to such disasters include sufficient levels of trucks, 
tractors, communication, and miscellaneous equipment. If we have 
another overwhelming storm, tornado, hurricane or, God forbid, a large-
scale terrorist attack, our National Guard is not going to have the 
basic level of resources to do the job right.
Walter Reed Army Medical Center
    Another matter of great interest to our members is the plan to 
realign and consolidate military health facilities in the National 
Capital Region. The proposed plan includes the realignment of all 
highly specialized and sophisticated medical services currently located 
at Walter Reed Army Medical Center in Washington, DC, to the National 
Naval Medical Center in Bethesda, Maryland, and the closing of the 
existing Walter Reed by September 15, 2011.
    Our members are concerned about recent reports that the newly 
expanded medical center in Bethesda, Maryland, and the new community 
hospital at Fort Belvoir in Fairfax County, Virginia, are unready for 
the move. According to these reports, a number of operating rooms and 
patient services are not in conditions to allow transferring patients 
and staff from Walter Reed.
    The National Association for Uniformed Services believes that 
Congress must continue to provide adequate resources for WRAMC to 
maintain its base operations' support and medical services required for 
uninterrupted care of our catastrophically wounded soldiers and Marines 
as they move through needed treatment in this premier medical center.
    We request that funds be in place to ensure that Walter Reed 
remains open, fully operational and fully functional, until the planned 
facilities at both Bethesda and Fort Belvoir are in place, fully 
functional and ready to give appropriate care and treatment to the men 
and women wounded in armed service. A 9-month delay would make a world 
of difference for our retirees and for the wounded warriors and their 
families.
    Our wounded warriors deserve our Nation's best, most compassionate 
healthcare and quality treatment system. They earned it the hard way. 
And with application of the proper resources, we know the Nation will 
continue to hold the well being of soldiers and their families as our 
number one priority.
Department of Defense, Seamless Transition Between the DOD and VA
    The development of electronic medical records remains a major goal. 
It is our view that providing a seamless transition for recently 
discharged military is especially important for servicemembers leaving 
the military for medical reasons related to combat, particularly for 
the most severely injured patients.
    The National Association for Uniformed Services is pleased to 
receive the support of President Obama and the forward movement of 
Secretaries Gates and Shinseki toward this long-supported goal of 
providing a comprehensive e-health record.
    The National Association for Uniformed Services calls on the 
Appropriations Committee to continue the push for DOD and VA to follow 
through on establishing a bi-directional, interoperable electronic 
medical record. Since 1982, these two departments have been working on 
sharing critical medical records, yet to date neither has effectively 
come together in coordination with the other.
    Taking care of soldiers, sailors, airmen and marines is a national 
obligation, and doing it right sends a strong signal to those currently 
in military service as well as to those thinking about joining the 
military.
    DOD must be directed to adopt electronic architecture including 
software, data standards and data repositories that are compatible with 
systems in use at the Department of Veterans Affairs. It makes absolute 
sense and it would lower costs for both organizations.
    If our seriously wounded troops are to receive the care they 
deserve, the departments must do what is necessary to establish a 
system that allows seamless transition of medical records. It is 
essential if our Nation is to ensure that all troops receive timely, 
quality healthcare and other benefits earned in military service.
    To improve the DOD/VA exchange, the transfer should include a 
detailed history of care provided and an assessment of what each 
patient may require in the future, including mental health services. No 
veteran leaving military service should fall through the bureaucratic 
cracks.
Defense Department Force Protection
    The National Association for Uniformed Services urges the 
Subcommittee to provide adequate funding to rapidly deploy and acquire 
the full range of force protection capabilities for deployed forces. 
This would include resources for up-armored high mobility multipurpose 
wheeled vehicles and add-on ballistic protection to provide force 
protection for soldiers in Iraq and Afghanistan, ensure increased 
activity for joint research and treatment effort to treat combat blast 
injuries resulting from improvised explosive devices (IEDs), rocket 
propelled grenades, and other attacks; and facilitate the early 
deployment of new technology, equipment, and tactics to counter the 
threat of IEDs.
    We ask special consideration be given to counter IEDs, defined as 
makeshift or ``homemade'' bombs, often used by enemy forces to destroy 
military convoys and currently the leading cause of casualties to 
troops deployed in Iraq. These devices are the weapon of choice and, 
unfortunately, a very effective weapon used by our enemy. The Joint 
Improvised Explosive Device Defeat Organization (JIEDDO) is established 
to coordinate efforts that would help eliminate the threat posed by 
these IEDs. We urge efforts to advance investment in technology to 
counteract radio-controlled devices used to detonate these killers. 
Maintaining support is required to stay ahead of our enemy and to 
decrease casualties caused by IEDs.
Defense Health Program--TRICARE Reserve Select
    Mr. Chairman, another area that requires attention is reservist 
participation in TRICARE. As we are all aware, National Guard and 
Reserve personnel have seen an upward spiral of mobilization and 
deployment since the terrorist attacks of September 11, 2001. The 
mission has changed and with it our reliance on these forces has risen. 
Congress has recognized these changes and begun to update and upgrade 
protections and benefits for those called away from family, home and 
employment to active duty. We urge your commitment to these troops to 
ensure that the long overdue changes made in the provision of their 
heathcare and related benefits is adequately resourced. We are one 
force, all bearing a critical share of the load.
Department of Defense, Prosthetic Research
    Clearly, care for our troops with limb loss is a matter of national 
concern. The global war on terrorism in Iraq and Afghanistan has 
produced wounded soldiers with multiple amputations and limb loss who 
in previous conflicts would have died from their injuries. Improved 
body armor and better advances in battlefield medicine reduce the 
number of fatalities, however injured soldiers are coming back 
oftentimes with severe, devastating physical losses.
    In order to help meet the challenge, Defense Department research 
must be adequately funded to continue its critical focus on treatment 
of troops surviving this war with grievous injuries. The research 
program also requires funding for continued development of advanced 
prosthesis that will focus on the use of prosthetics with 
microprocessors that will perform more like the natural limb.
    The National Association for Uniformed Services encourages the 
Subcommittee to ensure that funding for Defense Department's prosthetic 
research is adequate to support the full range of programs needed to 
meet current and future health challenges facing wounded veterans. To 
meet the situation, the Subcommittee needs to focus a substantial, 
dedicated funding stream on Defense Department research to address the 
care needs of a growing number of casualties who require specialized 
treatment and rehabilitation that result from their armed service.
    We would also like to see better coordination between the 
Department of Defense Advanced Research Projects Agency and the 
Department of Veterans Affairs in the development of prosthetics that 
are readily adaptable to aid amputees.
Post Traumatic Stress Disorder (PTSD) and Traumatic Brain Injury (TBI)
    The National Association for Uniformed Services supports a higher 
priority on Defense Department care of troops demonstrating symptoms of 
mental health disorders and traumatic brain injury.
    It is said that traumatic brain injury (TBI) is the signature 
injury of the Iraq war. Blast injuries often cause permanent damage to 
brain tissue. Veterans with severe TBI will require extensive 
rehabilitation and medical and clinical support, including neurological 
and psychiatric services with physical and psycho-social therapies.
    We call on the Subcommittee to fund a full spectrum of TBI care and 
to recognize that care is also needed for patients suffering from mild 
to moderate brain injuries, as well. The approach to this problem 
requires resources for hiring caseworkers, doctors, nurses, clinicians 
and general caregivers if we are to meet the needs of these men and 
women and their families.
    The mental condition known as Post Traumatic Stress Disorder (PTSD) 
has been well known for over a hundred years under an assortment of 
different names. For example more than 60 years ago, Army psychiatrists 
reported, ``That each moment of combat imposes a strain so great that . 
. . psychiatric casualties are as inevitable as gunshot and shrapnel 
wounds in warfare.''
    PTSD is a serious psychiatric disorder. While the government has 
demonstrated over the past several years a higher level of attention to 
those military personnel who exhibit PTSD symptoms, more should be done 
to assist service members found to be at risk.
    Pre-deployment and post-deployment medicine is very important. Our 
legacy of the gulf war demonstrates the concept that we need to 
understand the health of our service members as a continuum, from pre- 
to post-deployment.
    The National Association for Uniformed Services applauds the extent 
of help provided by the Defense Department, however, we encourage that 
more resources be made available to assist. Early recognition of the 
symptoms and proactive programs are essential to help many of those who 
must deal with the debilitating effects of mental injuries, as 
inevitable in combat as gunshot and shrapnel wounds.
    We encourage the Members of the Subcommittee to provide these 
funds, to closely monitor their expenditure and to see they are not 
redirected to other areas of defense spending.
Armed Forces Retirement Home
    The National Association for Uniformed Services is pleased to note 
the Subcommittee's continued interest in providing funds for the Armed 
Forces Retirement Home (AFRH). We urge the Subcommittee to meet the 
challenge in providing adequate funding for the facilities in 
Washington, DC, and Gulfport, Mississippi.
    And we thank the Subcommittee for the provision of funding that has 
led to the successful reopening of the Armed Forces Retirement Home in 
Gulfport, destroyed in 2005 as a result of Hurricane Katrina. The 
Gulfport facility has the capacity to provide independent living, 
assisted living and long-term care to more than 500 residents.
    Regarding Gulfport, members of our association are seriously 
concerned about a recent investigation into healthcare and related 
operations at the Mississippi Retirement Home. According to published 
reports five employees have resigned as a result of the investigation 
initiated by the AFRH acting chief operating officer. We ask that you 
ensure that residents' care and health is not put at risk by the 
reported troubles at Gulfport.
    The National Association for Uniformed Services applauds the 
Subcommittee's clear recognition of the Washington AFRH as a historic 
national treasure. And we look forward to working with the Subcommittee 
to continue providing a residence for and quality-of-life enhancements 
to these deserving veterans. We ask that continued care and attention 
be given to the mixed-use development to the property's southern end, 
as approved.
    The AFRH homes are historic national treasures, and we thank 
Congress for its oversight of this gentle program and its work to 
provide for a world-class care for military retirees.
Improved Medicine with Less Cost at Military Treatment Facilities
    The National Association for Uniformed Services is also seriously 
concerned over the consistent push to have Military Health System 
beneficiaries age of 65 and over moved into the civilian sector from 
military care. That is a very serious problem for the Graduate Medical 
Education (GME) programs in the MHS; the patients over 65 are required 
for sound GME programs, which, in turn, ensure that the military can 
retain the appropriate number of physicians who are board certified in 
their specialties.
    TRICARE/HA policies are pushing these patients out of military 
facilities and into the private sector where the cost per patient is at 
least twice as expensive as that provided within Military Treatment 
Facilities (MTFs). We understand that there are many retirees and their 
families who must use the private sector due to the distance from the 
closest MTF; however, where possible, it is best for the patients 
themselves, GME, medical readiness, and the minimizing the cost of 
TRICARE premiums if as many non-active duty beneficiaries are taken 
care of within the MTFs. As more and more MHS beneficiaries are pushed 
into the private sector, the cost of the MHS rises. The MHS can provide 
better medicine, more appreciated service and do it at improved medical 
readiness and less cost to the taxpayers.
Uniformed Services University of the Health Sciences
    As you know, the Uniformed Services University of the Health 
Sciences (USUHS) is the Nation's Federal school of medicine and 
graduate school of nursing. The medical students are all active-duty 
uniformed officers in the Army, Navy, Air Force and U.S. Public Health 
Service who are being educated to deal with wartime casualties, 
national disasters, emerging diseases and other public health 
emergencies.
    The National Association for Uniformed Services supports the USUHS 
and requests adequate funding be provided to ensure continued 
accredited training, especially in the area of chemical, biological, 
radiological and nuclear response. In this regard, it is our 
understanding that USUHS requires funding for training and educational 
focus on biological threats and incidents for military, civilian, 
uniformed first responders and healthcare providers across the nation.
    Our members would also like to recognize the high quality of the 
medical education and training provided at the Uniformed Services 
University of the Health Sciences. The care given Congresswomen 
Gabrielle Giffords offers a clear example.
    USUHS trained three of the key physicians who performed life-saving 
procedures in the hours following the tragedy in Tucson. Retired Navy 
Captain Peter Rhee relied on more than 20 years of military medical 
experience to provide experienced trauma care to the Congresswoman. 
Interim Chief of Neurology Army Colonel Geoffrey Ling assisted and Dr. 
Jim Ecklund, another highly regarded neurosurgeon, was also part of the 
brain injury team. All are graduates of the military university, and by 
the way, Dr. Ecklund was a classmate of Dr. Rhee's at USUHS.
Joint POW/MIA Accounting Command (JPAC)
    We also want the fullest accounting of our missing servicemen and 
ask for your support in DOD dedicated efforts to find and identify 
remains. It is a duty owed to the families of those still missing as 
well as to those who served and who currently serve.
    NAUS supports the fullest possible accounting of our missing 
servicemen. It is a duty we owe the families, to ensure that those who 
wear our country's uniform are never abandoned. We request that 
appropriate funds be provided to support the JPAC mission for fiscal 
year 2012.
Appreciation for the Opportunity to Testify
    As a staunch advocate for our uniformed service men and women, The 
National Association for Uniformed Services recognizes that these brave 
men and women did not fail us in their service to country, and we, in 
turn, must not fail them in providing the benefits and services they 
earned through honorable military service.
    Mr. Chairman, The National Association for Uniformed Services 
appreciates the Subcommittee's hard work. We ask that you continue to 
work in good faith to put the dollars where they are most needed: in 
strengthening our national defense, ensuring troop protection, 
compensating those who serve, providing for DOD medical services 
including TRICARE, and building adequate housing for military troops 
and their families, and in the related defense matters discussed today. 
These are some of our Nation's highest priority needs, and we are 
confident you will give them the level of attention they deserve.
    The National Association for Uniformed Services is confident you 
will take special care of our Nation's greatest assets: the men and 
women who serve and have served in uniform. We are proud of the service 
they give to America every day. They are vital to our defense and 
national security. The price we pay as a Nation for their service and 
their earned benefits is a continuing cost of war, and it will never 
cost more nor is it ever likely to equal the value of their service.
    Again, the National Association for Uniformed Services deeply 
appreciates the opportunity to present the Association's views on the 
issues before the Defense Appropriations Subcommittee.

    Chairman Inouye. Mr. Jones, your concerns will be seriously 
considered, I guarantee you, sir.
    Senator Cochran. Mr. Chairman, I can't help but compliment 
the witness for mentioning the retirement home in Gulfport. I'm 
happy to report the last time I drove by the facility it looked 
like it was on the road to full recovery. Residents who had 
lived there before Hurricane Katrina are returning and happy to 
be back home. So thank you for the support that you've given to 
that initiative.
    Mr. Jones. Great to hear that report. Thank you, Senator.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. Mr. Chairman, I just want to thank the 
whole panel, and add Mr. Jones's testimony to that. Thank you 
very much.
    Chairman Inouye. Thank you very much.
    May I thank the panel on behalf of the subcommittee.
    Our next panel: Ms. Fran Visco, National Breast Cancer 
Coalition; Ms. Mary Hesdorffer, Mesothelioma Applied Research 
Foundation; Major General David Bockel, Reserve Officers 
Association; Captain Mike Smith, National Military and Veterans 
Alliance.
STATEMENT OF FRAN VISCO, PRESIDENT, NATIONAL BREAST 
            CANCER FOUNDATION
    Ms. Visco. Thank you very much. Thank you, Chairman Inouye, 
Ranking Member Cochran, and Senator Shelby, for inviting me to 
testify today. I'm Fran Visco, a 23-year breast cancer survivor 
and President of the National Breast Cancer Coalition, which is 
a coalition of hundreds of organizations from across the 
country.
    I also want to thank you so very much for launching and 
supporting the DOD peer-reviewed breast cancer research 
program. It's meant so much to women and men across the 
country, both within the military and without. You know that 
you created something innovative, something very special, that 
has saved lives, and it's given hope to very many.
    But there are still too many women and men who die of 
breast cancer. Like you may remember Lieutenant Colonel Karen 
Moss of the U.S. Air Force, who spoke to the subcommittee many 
times about the importance of this program. Lieutenant Colonel 
Yvonne Andejeski of the U.S. Army, who died of breast cancer in 
her 30s while she was a director of the peer-reviewed program. 
And just yesterday, at a meeting of the DOD program we took a 
moment to remember Lieutenant Commander Yowanna Maria Collins 
Wilson of the U.S. Navy, who died of breast cancer in her 30s 
while on active duty.
    The partnership that has developed over the years between 
the military, the public, and the scientists who are involved 
in this program is extremely important and helpful to all of 
us. I cannot say enough about the dedication and passion the 
military has brought to this program. The breast cancer 
research program is the only government program focused solely, 
funding program focused solely, on ending breast cancer. It is 
a program that leverages years of this Nation's investment in 
biomedical research and in breast cancer and applies the 
results of that investment to women and men everywhere. It is 
known and respected worldwide and it expands this Nation's 
preeminence in scientific research.
    Ninety percent of the funds appropriated go to research. 
The administrative costs of this program are minimal and that 
is because of the military and how well they operate this 
program. It is a transparent program. It's accountable to the 
taxpayers, and it is complementary and not duplicative of other 
programs.
    Because of the way it is structured and because of the fact 
that it is in the Army, it is able to rapidly respond to 
scientific discoveries and quickly fill gaps in scientific and 
patient needs. I recall General Martinez Lopez, who led these 
efforts a number of years ago, telling us how important this 
program was to the military, not just because of the morale 
that it brought, but also because of the relationships that had 
been created between DOD and a part of the scientific community 
that is important to their work, but not typically engaged with 
the military, and also because of the models that the program 
created that have been replicated elsewhere within the military 
and actually even in other countries.
    This program has been a resounding success, and I'm here to 
express our appreciation for your leadership in getting this 
program started and in making certain that it continues.
    Thank you very much.
    [The statement follows:]
                    Prepared Statement of Fran Visco
    Thank you, Mr. Chairman and members of the Appropriations 
Subcommittee on Defense, for the opportunity to submit testimony today 
about a program that has made a significant difference in the lives of 
women and their families.
    I am Fran Visco, a 22-year breast cancer survivor, a wife and 
mother, a lawyer, and President of the National Breast Cancer Coalition 
(NBCC). My testimony represents the hundreds of member organizations 
and thousands of individual members of the Coalition. NBCC is a 
grassroots organization dedicated to ending breast cancer through 
action and advocacy. Since its founding in 1991, NBCC has been guided 
by three primary goals: to increase Federal funding for breast cancer 
research and collaborate with the scientific community to implement new 
models of research; improve access to high quality healthcare and 
breast cancer clinical trials for all women; and expand the influence 
of breast cancer advocates wherever breast cancer decisions are made. 
Last September, in order to change the conversation about breast cancer 
and restore the sense of urgency in the fight to end the disease, NBCC 
launched Breast Cancer Deadline 2020--a deadline to end breast cancer 
by January 1, 2020.
    Chairman Inouye and Ranking Member Cochran, we appreciate your 
longstanding support for the Department of Defense peer reviewed Breast 
Cancer Research Program. As you know, this program was born from a 
powerful grassroots effort led by NBCC, and has become a unique 
partnership among consumers, scientists, Members of Congress and the 
military. You and your Committee have shown great determination and 
leadership in funding the Department of Defense (DOD) peer reviewed 
Breast Cancer Research Program (BCRP) at a level that has brought us 
closer to ending this disease. I am hopeful that you and your Committee 
will continue that determination and leadership.
    I know you recognize the importance of this program to women and 
their families across the country, to the scientific and healthcare 
communities and to the Department of Defense. Much of the progress in 
the fight against breast cancer has been made possible by the 
Appropriations Committee's investment in breast cancer research through 
the DOD BCRP. To support this unprecedented progress moving forward, we 
ask that you support a separate $150 million appropriation, level 
funding, for fiscal year 2012. In order to continue the success of the 
Program, you must ensure that it maintain its integrity and separate 
identity, in addition to level funding. This is important not just for 
breast cancer, but for all biomedical research that has benefited from 
this incredible government program.
Vision and Mission
    The vision of the Department of Defense peer reviewed Breast Cancer 
Research Program is to ``eradicate breast cancer by funding innovative, 
high-impact research through a partnership of scientists and 
consumers.'' The meaningful and unprecedented partnership of scientists 
and consumers has been the foundation of this model program from the 
very beginning. It is important to understand this collaboration: 
consumers and scientists working side by side, asking the difficult 
questions, bringing the vision of the program to life, challenging 
researchers and the public to do what is needed and then overseeing the 
process every step of the way to make certain it works. This unique 
collaboration is successful: every year researchers submit proposals 
that reach the highest level asked of them by the program and every 
year we make progress for women and men everywhere.
    And it owes its success to the dedication of the U.S. Army and 
their belief and support of this mission. And of course, to you. It is 
these integrated efforts that make this program unique.
    The Department of the Army must be applauded for overseeing the DOD 
BCRP which has established itself as a model medical research program, 
respected throughout the cancer and broader medical community for its 
innovative, transparent and accountable approach. This program is 
incredibly streamlined. The flexibility of the program has allowed the 
Army to administer it with unparalleled efficiency and effectiveness. 
Because there is little bureaucracy, the program is able to respond 
quickly to what is currently happening in the research community. Its 
specific focus on breast cancer allows it to rapidly support innovative 
proposals that reflect the most recent discoveries in the field. It is 
responsive, not just to the scientific community, but also to the 
public. The pioneering research performed through the program and the 
unique vision it maintains has the potential to benefit not just breast 
cancer, but all cancers as well as other diseases. Biomedical research 
is literally being transformed by the DOD BCRP's success.
Consumer Participation
    Advocates bring a necessary perspective to the table, ensuring that 
the science funded by this program is not only meritorious, but that it 
is also meaningful and will make a difference in people's lives. The 
consumer advocates bring accountability and transparency to the 
process. They are trained in science and advocacy and work with 
scientists willing to challenge the status quo to ensure that the 
science funded by the program fills important gaps not already being 
addressed by other funding agencies. Since 1992, more than 600 breast 
cancer survivors have served on the BCRP review panels.
    Two years ago, Carolina Hinestrosa, a breast cancer survivor and 
trained consumer advocate, chaired the Integration Panel and led the 
charge in challenging BCRP investigators to think outside the box for 
revelations about how to eradicate breast cancer. Despite the fact that 
her own disease was progressing, she remained steadfast in working 
alongside scientists and consumers to move breast cancer research in 
new directions. Unwilling to give up, she fought tirelessly until the 
end of her life for a future free of breast cancer.
    Carolina died in June 2009 from soft tissue sarcoma, a late side 
effect of the radiation that was used to treat her breast cancer. She 
once eloquently described the unique structure of the DOD BCRP:

    ``The Breast Cancer Research Program channels powerful synergy from 
the collaboration of the best and brightest in the scientific world 
with the primary stakeholder, the consumer, toward bold research 
efforts aimed at ending breast cancer.''

    No one was bolder than Carolina, who was fierce and determined in 
her work on the DOD BCRP and in all aspects of life she led as a 
dedicated breast cancer advocate, mother to a beautiful daughter, and 
dear friend to so many. Carolina's legacy reminds us that breast cancer 
is not just a struggle for scientists; it is a disease of the people. 
The consumers who sit alongside the scientists at the vision setting, 
peer review and programmatic review stages of the BCRP are there to 
ensure that no one forgets the women who have died from this disease, 
and the daughters they leave behind, and to keep the program focused on 
its vision.
    For many consumers, participation in the program is ``life 
changing'' because of their ability to be involved in the process of 
finding answers to this disease. In the words of one advocate:

    ``Participating in the peer review and programmatic review has been 
an incredible experience. Working side by side with the scientists, 
challenging the status quo and sharing excitement about new research 
ideas . . . it is a breast cancer survivor's opportunity to make a 
meaningful difference. I will be forever grateful to the advocates who 
imagined this novel paradigm for research and continue to develop new 
approaches to eradicate breast cancer in my granddaughters' 
lifetime.''------Marlene McCarthy, two-time breast cancer ``thriver'', 
Rhode Island Breast Cancer Coalition

    Scientists who participate in the Program agree that working with 
the advocates has changed the way they do science. Let me quote Greg 
Hannon, the fiscal year 2010 DOD BCRP Integration Panel Chair:

    ``The most important aspect of being a part of the BCRP, for me, 
has been the interaction with consumer advocates. They have currently 
affected the way that I think about breast cancer, but they have also 
impacted the way that I do science more generally. They are a constant 
reminder that our goal should be to impact people's lives.''------Greg 
Hannon, PhD, Cold Spring Harbor Laboratory
Unique Structure
    The DOD BCRP uses a two-tiered review process for proposal 
evaluation, with both steps including scientists as well as consumers. 
The first tier is scientific peer review in which proposals are weighed 
against established criteria for determining scientific merit. The 
second tier is programmatic review conducted by the Integration Panel 
(composed of scientists and consumers) that compares submissions across 
areas and recommends proposals for funding based on scientific merit, 
portfolio balance and relevance to program goals.
    Scientific reviewers and other professionals participating in both 
the peer review and the programmatic review process are selected for 
their subject matter expertise. Consumer participants are recommended 
by an organization and chosen on the basis of their experience, 
training and recommendations.
    The BCRP has the strictest conflict of interest policy of any 
research funding program or institute. This policy has served it well 
through the years. Its method for choosing peer and programmatic review 
panels has produced a model that has been replicated by funding 
entities around the world.
    It is important to note that the Integration Panel that designs 
this Program has a strategic plan for how best to spend the funds 
appropriated. This plan is based on the state of the science--both what 
scientists and consumers know now and the gaps in our knowledge--as 
well as the needs of the public. While this plan is mission driven, and 
helps ensure that the science keeps to that mission of eradicating 
breast cancer in mind, it does not restrict scientific freedom, 
creativity or innovation. The Integration Panel carefully allocates 
these resources, but it does not predetermine the specific research 
areas to be addressed.
Distinctive Funding Opportunities
    The DOD BCRP research portfolio includes many different types of 
projects, including support for innovative individuals and ideas, 
impact on translating research from the bench to the bedside, and 
training of breast cancer researchers.
            Innovation
    The Innovative Developmental and Exploratory Awards (IDEA) grants 
of the DOD program have been critical in the effort to respond to new 
discoveries and to encourage and support innovative, risk-taking 
research. Concept Awards support funding even earlier in the process of 
discovery. These grants have been instrumental in the development of 
promising breast cancer research by allowing scientists to explore 
beyond the realm of traditional research and unleash incredible new 
ideas. IDEA and Concept grants are uniquely designed to dramatically 
advance our knowledge in areas that offer the greatest potential. They 
are precisely the type of grants that rarely receive funding through 
more traditional programs such as the National Institutes of Health and 
private research programs. They therefore complement, and do not 
duplicate, other Federal funding programs. This is true of other DOD 
award mechanisms as well.
    Innovator awards invest in world renowned, outstanding individuals 
rather than projects, by providing funding and freedom to pursue highly 
creative, potentially groundbreaking research that could ultimately 
accelerate the eradication of breast cancer. For example, in fiscal 
year 2008, Dr. Mauro Ferrari of the University of Texas Health Science 
Center at Houston was granted an Innovator Award to develop novel 
vectors for the optimal delivery of individualized breast cancer 
treatments. This is promising based on the astounding variability in 
breast cancer tumors and the challenges presented in determining which 
treatments will be most effective and how to deliver those treatments 
to each individual patient. In fiscal year 2006, Dr. Gertraud 
Maskarinec of the University of Hawaii received a synergistic IDEA 
grant to study effectiveness of the Dual Energy X-Ray Absorptiometry 
(DXA) as a method to evaluate breast cancer risks in women and young 
girls.
    The Era of Hope Scholar Award supports the formation of the next 
generation of leaders in breast cancer research, by identifying the 
best and brightest scientists early in their careers and giving them 
the necessary resources to pursue a highly innovative vision of ending 
breast cancer. Dr. Shiladitya Sengupta from Brigham and Women's 
Hospital, Harvard Medical School, received a fiscal year 2006 Era of 
Hope Scholar Award to explore new strategies in the treatment of breast 
cancer that target both the tumor and the supporting network 
surrounding it. In fiscal year 2007, Dr. Gene Bidwell of the University 
of Mississippi Medical Center received an Era of Hope Postdoctoral 
Award to study thermally targeted delivery of inhibitor peptides, which 
is an underdeveloped strategy for cancer therapy.
    One of the most promising outcomes of research funded by the DOD 
BCRP was the development of the first monoclonal antibody targeted 
therapy that prolongs the lives of women with a particularly aggressive 
type of advanced breast cancer. Researchers found that over-expression 
of HER-2/neu in breast cancer cells results in very aggressive biologic 
behavior. The same researchers demonstrated that an antibody directed 
against HER-2/neu could slow the growth of the cancer cells that over-
expressed the gene. This research, which led to the development of the 
targeted therapy, was made possible in part by a DOD BCRP-funded 
infrastructure grant. Other researchers funded by the DOD BCRP are 
identifying similar targets that are involved in the initiation and 
progression of cancer.
    These are just a few examples of innovative funding opportunities 
at the DOD BCRP that are filling gaps in breast cancer research.
            Translational Research
    The DOD BCRP also focuses on moving research from the bench to the 
bedside. DOD BCRP awards are designed to fill niches that are not 
addressed by other Federal agencies. The BCRP considers translational 
research to be the process by which the application of well-founded 
laboratory or other pre-clinical insight result in a clinical trial. To 
enhance this critical area of research, several research opportunities 
have been offered. Clinical Translational Research Awards have been 
awarded for investigator-initiated projects that involve a clinical 
trial within the lifetime of the award. The BCRP has expanded its 
emphasis on translational research by also offering five different 
types of awards that support work at the critical juncture between 
laboratory research and bedside applications.
    The Multi Team Award mechanism brings together the world's most 
highly qualified individuals and institutions to address a major 
overarching question in breast cancer research that could make a 
significant contribution toward the eradication of breast cancer. Many 
of these Teams are working on questions that will translate into direct 
clinical applications. These Teams include the expertise of basic, 
epidemiology and clinical researchers, as well as consumer advocates.
            Training
    The DOD BCRP is also cognizant of the need to invest in tomorrow's 
breast cancer researchers. Dr. J. Chuck Harrell, Ph.D. at the 
University of Colorado, Denver and the University of North Carolina at 
Chapel Hill, for example, received a Predoctoral Traineeship Award to 
investigate hormonal regulation of lymph node metastasis, the majority 
of which retain estrogen receptors (ER) and/or progesterone receptors. 
Through his research, Dr. Harrell determined that lymph node 
microenvironment alters ER expression and function in the lymph nodes, 
effecting tumor growth. These findings led Dr. Harrell to conduct 
further research in the field of breast metastasis during his 
postdoctoral work. Jim Hongjun of the Battelle Memorial Institute 
received a postdoctoral award for the early detection of breast cancer 
using post-translationally modified biomarkers.
    Dr. John Niederhuber, former Director of the National Cancer 
Institute (NCI), said the following about the Program when he was 
Director of the University of Wisconsin Comprehensive Cancer Center in 
April, 1999:

    ``Research projects at our institution funded by the Department of 
Defense are searching for new knowledge in many different fields 
including: identification of risk factors, investigating new therapies 
and their mechanism of action, developing new imaging techniques and 
the development of new models to study [breast cancer] . . . Continued 
availability of this money is critical for continued progress in the 
nation's battle against this deadly disease.''

    Scientists and consumers agree that it is vital that these grants 
continue to support breast cancer research. To sustain the Program's 
momentum, $150 million for peer reviewed research is needed in fiscal 
year 2012.
Outcomes and Reviews of the DOD BCRP
    The outcomes of the BCRP-funded research can be gauged, in part, by 
the number of publications, abstracts/presentations, and patents/
licensures reported by awardees. To date, there have been more than 
12,241 publications in scientific journals, more than 12,000 abstracts 
and nearly 550 patents/licensure applications. The American public can 
truly be proud of its investment in the DOD BCRP. Scientific 
achievements that are the direct result of the DOD BCRP grants are 
undoubtedly moving us closer to eradicating breast cancer.
    The success of the DOD peer reviewed Breast Cancer Research Program 
has been illustrated by several unique assessments of the Program. The 
Institute of Medicine (IOM), which originally recommended the structure 
for the Program, independently re-examined the Program in a report 
published in 1997. They published another report on the Program in 
2004. Their findings overwhelmingly encouraged the continuation of the 
Program and offered guidance for program implementation improvements.
    The 1997 IOM review of the DOD peer reviewed Breast Cancer Research 
Program commended the Program, stating, ``the Program fills a unique 
niche among public and private funding sources for cancer research. It 
is not duplicative of other programs and is a promising vehicle for 
forging new ideas and scientific breakthroughs in the Nation's fight 
against breast cancer.'' The 2004 report spoke to the importance of the 
program and the need for its continuation.
    The DOD peer reviewed Breast Cancer Research Program not only 
provides a funding mechanism for high-risk, high-return research, but 
also reports the results of this research to the American people every 
2 to 3 years at a public meeting called the Era of Hope. The 1997 
meeting was the first time a federally funded program reported back to 
the public in detail not only on the funds used, but also on the 
research undertaken, the knowledge gained from that research and future 
directions to be pursued.
    Sixteen hundred consumers and researchers met for the fifth Era of 
Hope meeting in June, 2008. As MSNBC.com's Bob Bazell wrote, this 
meeting ``brought together many of the most committed breast cancer 
activists with some of the Nation's top cancer scientists. The 
conference's directive is to push researchers to think `out of the box' 
for potential treatments, methods of detection and prevention . . .'' 
He went on to say ``the program . . . has racked up some impressive 
accomplishments in high-risk research projects . . ..''
    One of the topics reported on at the meeting was the development of 
more effective breast imaging methods. An example of the important work 
that is coming out of the DOD BCRP includes a new screening method, 
molecular breast imaging, which helps detect breast cancer in women 
with dense breasts--which can be difficult using a mammogram alone. I 
invite you to log on to NBCC's website http://
influence.breastcancerdeadline2020.org/ to learn more about the 
exciting research reported at the 2008 Era of Hope. The next Era of 
Hope meeting will occur this August.
    The DOD peer reviewed Breast Cancer Research Program has attracted 
scientists across a broad spectrum of disciplines, launched new 
mechanisms for research and facilitated new thinking in breast cancer 
research and research in general. A report on all research that has 
been funded through the DOD BCRP is available to the public. 
Individuals can go to the Department of Defense website and look at the 
abstracts for each proposal at http://cdmrp.army.mil/bcrp/.
Commitment of the National Breast Cancer Coalition
    The National Breast Cancer Coalition is strongly committed to the 
DOD BCRP in every aspect, as we truly believe it is one of our best 
chances for reaching Breast Cancer Deadline 2020's goal of ending the 
disease by the end of the decade. The Coalition and its members are 
dedicated to working with you to ensure the continuation of funding for 
this Program at a level that allows this research to forge ahead. From 
1992, with the launch of our ``300 Million More Campaign'' that formed 
the basis of this Program, until now, NBCC advocates have appreciated 
your support.
    Over the years, our members have shown their continuing support for 
this Program through petition campaigns, collecting more than 2.6 
million signatures, and through their advocacy on an almost daily basis 
around the country asking for support of the DOD BCRP.
    Consumer advocates have worked hard over the years to keep this 
program free of political influence. Often, specific institutions or 
disgruntled scientists try to change the program though legislation, 
pushing for funding for their specific research or institution, or try 
to change the program in other ways, because they did not receive 
funding through the process, one that is fair, transparent and 
successful. The DOD BCRP has been successful for so many years because 
of the experience and expertise of consumer involvement, and because of 
the unique peer review and programmatic structure of the program. We 
urge this Committee to protect the integrity of the important model 
this program has become.
    There are nearly 3 million women living with breast cancer in this 
country today. This year, more than 40,000 will die of the disease and 
more than 260,000 will be diagnosed. We still do not know how to 
prevent breast cancer, how to diagnose it in a way to make a real 
difference or how to cure it. It is an incredibly complex disease. We 
simply cannot afford to walk away from this program.
    Since the very beginning of this Program in 1992, Congress has 
stood with us in support of this important approach in the fight 
against breast cancer. In the years since, Chairman Inouye and Ranking 
Member Cochran, you and this entire Committee have been leaders in the 
effort to continue this innovative investment in breast cancer 
research.
    NBCC asks you, the Defense Appropriations Subcommittee, to 
recognize the importance of what has been initiated by the 
Appropriations Committee. You have set in motion an innovative and 
highly efficient approach to fighting the breast cancer epidemic. We 
ask you now to continue your leadership and fund the Program at $150 
million and maintain its integrity. This is research that will help us 
win this very real and devastating war against a cruel enemy.
    Thank you again for the opportunity to submit testimony and for 
giving hope to all women and their families, and especially to the 
nearly 3 million women in the United States living with breast cancer 
and all those who share in the mission to end breast cancer.

    Chairman Inouye. I thank you very much, Ms. Visco. My wife 
of 57 years died of cancer, so I'm constantly reminded.
    Ms. Visco. Yes.
    Chairman Inouye. Senator Cochran.
    Senator Cochran. Thank you very much for your presence. We 
appreciate the information that you've provided to the 
subcommittee.
    Ms. Visco. You're welcome.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. Mr. Chairman, I appreciate the testimony 
and her commitment to finding a cure. We all are supporting 
this on the subcommittee.
    Mr. Chairman, I would be interested--and the subcommittee 
may have done some work in this, because we all support this 
because this is the right thing to do, connected to our service 
people, we all benefit. What connection and how does this 
correlate with, what we're doing in DOD, to what they're doing 
in NIH? Because I serve on that subcommittee, as all of you do, 
and that would be interesting, to make sure that we're spending 
all we can and getting the bang that we can with the taxpayers' 
money and make sure that there's not a lot of overlap there.
    I don't know this, but as an appropriator with all of us--
and you're the chair--we're going to have to look at this, 
because we're all committed to helping you.
    Ms. Visco. Yes. Actually, Senator, the program is 
structured in a way to make certain that there is no overlap. I 
know that members of the military have been and are perfectly 
willing and capable of briefing you on exactly how that works.
    Senator Shelby. Thank you.
    Ms. Visco. Thank you.
    Chairman Inouye. Thank you very much.
    Ms. Hesdorffer.
STATEMENT OF MARY HESDORFFER, MS, CRNP, MEDICAL 
            LIAISON, MESOTHELIOMA APPLIED RESEARCH 
            FOUNDATION
    Ms. Hesdorffer. Thank you, Chairman Inouye and Ranking 
Member Cochran and members of the subcommittee. Thank you for 
the opportunity to discuss mesothelioma and its connection to 
the military service. Your support is critical to our mission 
and I look forward to continuing our relationship with the 
committee.
    My name is Mary Hesdorffer. I'm a nurse practitioner with 
over a decade's experience in mesothelioma treatment and 
research, and I serve as the medical liaison to the 
Mesothelioma Applied Research Foundation, as well as being on 
staff at Johns Hopkins Medical Institution.
    The Mesothelioma Applied Research Foundation is a national 
nonprofit dedicated to eradicating mesothelioma as a life-
ending disease by funding research, providing education and 
support for patients, and leading advocacy for the national 
commitment to end this tragedy.
    Mesothelioma, as many of you know, is an aggressive cancer. 
It's directly caused by asbestos. It's one of the most painful 
and fatal of cancers. It invades the chest, destroys vital 
organs, and crushes the lungs. Long-term survivors of 
mesothelioma are described as 3-year survivors, so you know the 
seriousness of what we are facing.
    It disproportionately affects our service men and women and 
their families. As you may know, until its fatal toxicity 
became fully recognized it was considered a magic mineral. It 
was used extensively in the Navy right up until the 1970s. It 
was used in engines, nuclear reactors, conditioners, packing, 
brakes, clutches, winches. In fact, it was used all over Navy 
ships, even in living spaces, where pipes were overhead, and in 
kitchens, where asbestos was used in the ovens. It was used in 
wiring of appliances. Aside from the Navy ships, it was used on 
military planes extensively, on military vehicles, insulating 
materials on quonset huts, and in living quarters.
    As a result, millions of Navy--millions of defense 
personnel, servicemen and shipyard workers, have been exposed 
to asbestos. A study at a Groton, Connecticut, shipyard found 
that over 100,000 workers have been exposed to asbestos over 
the years at just this one shipyard.
    Following the time of exposure, the disease can manifest 
itself any time from 10 to 50 years. So we still have many, 
many, many patients who were diagnosed or who were exposed to 
asbestos in the 70s who will still be developing this disease 
in future years.
    As the daughter of a merchant marine and the mother of a 
veteran of the war in Iraq, it's an issue that's very close to 
my heart. These are the people who have defended our country 
and built its fleet. They're heroes like former Chief Naval 
Officer Admiral Elmo Zumwalt, who led the Navy during Vietnam. 
He was diagnosed in the year 2000 and just 3 months after his 
diagnosis he was dead from this disease.
    Lewis Deets was another one of our Navy veterans. He was 
serving on a ship where a fire broke out. He was exposed to 
asbestos during the burning and then he was also exposed as he 
replaced the burned asbestos blocks. In 1999 he was diagnosed 
with mesothelioma and died 4 months later at the age of 55.
    Bob Tregget, another retired sailor, was diagnosed in 2008. 
He was exposed as a sailor.
    I can go on and talk to you about all of these military 
personnel, but I think we all understand the connection between 
asbestos and this disease.
    Since 1992 the Department of Defense has been charged with 
promoting research on diseases related to military service. 
Since then it has funded over $5.4 billion for a range of 
diseases, some only tangentially related to military service, 
but overlooked mesothelioma research for 16 years, even though 
asbestos was used all over military installations and vehicles, 
especially Navy ships. This is an injustice to the estimated 
one-third of mesothelioma patients who were exposed to asbestos 
on U.S. Navy ships and shipyards.
    Currently there are about 3,500 patients a year diagnosed 
with mesothelioma and 3,000 patients a year die from the 
disease. If we look at one-third of the patients having been 
Navy vets, we're looking at about 1,000 patients a year of 
former people who were exposed on the Navy ships.
    In fiscal year 2009 the DOD took responsibility more 
seriously and made awards totaling $2.7 million for two 
mesothelioma projects. In January of this year, we had two 
people awarded technology development awards. We have many 
people applying for the awards, but we're giving less than 2.6 
percent of these awards out.
    We feel that all of these research areas warrant attention, 
but since mesothelioma is a rapidly fatal, excruciating and 
painful cancer, we ask the subcommittee to appropriate to DOD 
for fiscal year 2012 $5 million for a dedicated mesothelioma 
research program. I'm asking for your help. We can't do this 
alone.
    Thank you.
    [The statement follows:]
                 Prepared Statement of Mary Hesdorffer
    Chairman Inouye, Ranking Member Cochran, and Members of the 
Committee, thank you for the opportunity to discuss the Mesothelioma 
connection to military service. Your support is critical to our 
mission, and I look forward to continuing our relationship with this 
committee.
    My name is Mary Hesdorffer, I am a nurse practitioner with over a 
decade's experience in mesothelioma treatment and research, and serve 
as the Medical Liaison to the Mesothelioma Applied Research Foundation. 
The Mesothelioma Applied Research Foundation is the national nonprofit 
dedicated to eradicating mesothelioma as a life-ending disease by 
funding research, providing education and support for patients, and 
leading advocacy efforts for a national commitment to end the 
mesothelioma tragedy.
    Mesothelioma is an aggressive cancer caused by asbestos. It is 
among the most painful and fatal of cancers, as it invades the chest, 
destroys vital organs, and crushes the lungs. Mesothelioma 
disproportionally affects our service men and women and their families.
    As you may know, until its fatal toxicity became fully recognized, 
asbestos was regarded as the magic mineral. It has excellent 
fireproofing, insulating, filling and bonding properties. By the late 
1930's and through at least the late 70's the Navy was using it 
extensively. It was used in engines, nuclear reactors, decking 
materials, pipe covering, hull insulation, valves, pumps, gaskets, 
boilers, distillers, evaporators, conditioners, rope packing, and 
brakes and clutches on winches. In fact it was used all over Navy 
ships, even in living spaces where pipes were overhead and in kitchens 
where asbestos was used in ovens and in the wiring of appliances. Aside 
from Navy ships, asbestos was also used on military planes extensively, 
on military vehicles, and as insulating material on Quonset huts and 
living quarters.
    As a result, millions of military defense personnel, servicemen and 
shipyard workers, were heavily exposed. A study at the Groton, 
Connecticut shipyard found that over 100,000 workers had been exposed 
to asbestos over the years at just one shipyard. The disease takes 10 
to 50 years to develop, so many of these veterans and workers are now 
being diagnosed. As the daughter of a merchant marine and the mother of 
a veteran of the war in Iraq, this is an issue close to my heart.
    These are the people who defended our country and built its fleet. 
They are heroes like former Chief Naval Officer Admiral Elmo Zumwalt, 
Jr., who led the Navy during Vietnam and was renowned for his concern 
for enlisted men. Despite his rank, prestige, power, and leadership in 
protecting the health of Navy servicemen and veterans, Admiral Zumwalt 
died at Duke University in 2000, just 3 months after being diagnosed 
with mesothelioma.
    Lewis Deets was another of these heroes. Four days after turning 
the legal age of 18, Lewis joined the Navy. He was not drafted. He 
volunteered, willingly putting his life on the line to serve his 
country in Vietnam. He served in the war for over 4 years, from 1962 to 
1967, as a ship boilerman. For his valiance in combat operations 
against the guerilla forces in Vietnam he received a Letter of 
Commendation and The Navy Unit Commendation Ribbon for Exceptional 
Service. In December 1965, while Lewis was serving aboard the USS Kitty 
Hawk in the Gulf of Tonkin, a fierce fire broke out. The boilers, 
filled with asbestos, were burning. Two sailors were killed and 29 were 
injured. Lewis was one of the 29 injured; he suffered smoke inhalation 
while fighting the fire. After the fire, he helped rebuild the boilers, 
replacing the burned asbestos blocks. In 1999 he was diagnosed with 
mesothelioma, and died 4 months later at age 55.
    Bob Tregget was a 57 year old retired sailor who was diagnosed with 
mesothelioma in 2008. Bob was exposed to asbestos as a sailor in the 
U.S. Navy from 1965 to 1972, proud to serve his country aboard a 
nuclear submarine whose mission was to deter a nuclear attack upon the 
United States. To treat his disease, Bob had the state of the art 
treatment. He had 3 months of systemic chemotherapy with a new, and 
quite toxic, drug combination. Then he had a grueling surgery, to open 
up his chest, remove his sixth rib, amputate his right lung, remove the 
diaphragm and parts of the linings around his lungs and his heart. 
After 2 weeks of postoperative hospitalization to recover and still 
with substantial postoperative pain, he had radiation, which left him 
with second degree burns on his back, in his mouth, and in his airways. 
Less than 1 year later, in 2009, he lost his battle with Mesothelioma.
    Admiral Zumwalt's, Boilerman Deets' and Sailor Tregget's stories 
are not atypical. Many more meso patients were exposed in the Navy, or 
working in a shipyard. Almost 3,000 Americans die each year of meso, 
and one study found that one-third of patients were exposed on U.S. 
Navy ships or shipyards. That's 1,000 U.S. veterans and shipyard 
workers per year, lost through service to country, just as if they had 
been on a battlefield.
    I am currently working with Mike Clements, who was diagnosed with 
Mesothelioma in 2005 at the age of 59. Mike served in active duty for 6 
years, at which time he worked in 3 different shipyards and spent time 
on a submarine. While he cannot pinpoint this exposure to asbestos, he 
is certain there is a correlation between his service and diagnosis. 
Further, he lost his father to Mesothelioma, who was also a Navy 
veteran.
    Asbestos exposure among naval personnel was widespread from the 
1930s through the 1980s, and exposure to asbestos still occurred after 
the 1980s during ship repair, overhaul, and decommissioning. We have 
not yet seen the end of exposures to asbestos. Asbestos exposures have 
been reported among the troops in Iraq and Afghanistan. On July 14, 
2004, members of the 877th Engineer Battalion of Alabama's Army 
National Guard were exposed to asbestos in their camp in Mosul, Iraq. 
Soldiers in wars that extend into third world countries, where asbestos 
use is increasing without stringent regulations, may also be at risk 
for exposure during tours of duty. Even low-dose, incidental exposures 
cause mesothelioma. For all those who will develop mesothelioma as a 
result of these past or ongoing exposures, the only hope is that we 
will develop effective treatment.
    Since 1992, the Department of Defense (DOD) has been charged with 
promoting research on diseases related to military service. Since then 
it has funded over $5.4 billion for a range of diseases--some only 
tangentially related to military service, but overlooked mesothelioma 
research for 16 years even though asbestos was used all over military 
installations and vehicles, especially Navy ships. This is an injustice 
to the estimated one-third of mesothelioma patients were exposed to 
asbestos on U.S. Navy ships and shipyards.
    There are brilliant researchers are dedicated to mesothelioma. The 
Food and Drug Administration (FDA) has now approved one drug which has 
some effectiveness, proving that the tumor is not invincible. 
Biomarkers are being identified. Two of the most exciting areas in 
cancer research--gene therapy and biomarker discovery for early 
detection and treatment--look particularly promising in mesothelioma. 
The Meso Foundation has funded $7.1 million to support research in 
these and other areas. Now we need the Federal Government's partnership 
to develop the promising findings into effective treatments.
    Your subcommittee has recognized the need and taken the lead. For 
the past 3 years a budget has been passed (fiscal years 2008, 2009 and 
2010), you have directed DOD to spur research for this service-related 
cancer by including it as an area of emphasis in the Peer Reviewed 
Medical Research Program.
    As a result, in early 2008 the DOD awarded its first mesothelioma 
research grant ever, a $1.4 million award to Courtney Broaddus, M.D. 
for exciting work to understand the role of macrophage induced 
inflammation in mesothelioma.
    The mesothelioma community greatly appreciated this important first 
step. Thirty-eight mesothelioma researchers applied for support in 
2008. The single award represents only a 2.6 percent success rate for 
mesothelioma applications. This does not comply with the Senate's 
directive that DOD begin to seriously address this critical disease. 
Thirty-seven other researchers put in the time, effort and expense to 
gather preliminary data and apply, and then were rejected. Such a low 
success rate of 2.6 percent will discourage top researchers from 
interest in mesothelioma; they will direct their effort and expertise 
into other, better funded cancers. Mesothelioma research will not 
advance, effective treatments will not be found, and veterans and 
current members exposed to asbestos through their military service will 
be left without hope.
    In fiscal year 2009, the DOD took its responsibility more 
seriously, and made awards totaling $2,750,549 for two important 
mesothelioma projects: Harvey Pass, M.D. and Margaret E. Huflejt, Ph.D. 
to investigate new markers for early detection of mesothelioma and 
identify new therapeutic targets. Lee Krug, M.D. received an award to 
lead a multi-site clinical trial of a promising new therapy based on 
the WT-1 vaccine, which will directly impact patients and offers them 
new hope. For the 2009 grants, two mesothelioma projects were awarded, 
out of 56 applications submitted. This is slightly better, but still an 
awards-to-applications ratio of only 4 percent.
    In January of this year, Michel Sadelain, M.D., Ph.D., and Prasad 
Adusumilli, M.D. were awarded a $2.6 million Technology/Therapeutic 
Development Award to translate mesothelin-targeted immunotherapy for 
fiscal year 2010. This is a reduction of $150,000 from fiscal year 2009 
funding levels for mesothelioma.
    Such low success rates will not encourage top young researchers to 
move into mesothelioma, or experienced researchers to stay in meso. 
Rather than mere eligibility, mesothelioma needs to be one of the 
diseases that is assigned a specific appropriation.
    Since the Committee's intent to spur mesothelioma research is not 
being executed through the PRMRP, we believe the Committee must respond 
by directing DOD to establish a dedicated mesothelioma program. For 
2009, Congress added dedicated funding for all of the following as new 
programs, in addition to the DOD's existing programs for Breast Cancer, 
Prostate Cancer, Ovarian Cancer, Neurofibromatosis, Tuberous Sclerosis 
Complex, and the Peer Reviewed Medical Research Program:
  --Autism Research Program--$8 million;
  --Gulf War Illness Research Program--$8 million;
  --Amyotrophic Lateral Sclerosis Research Program--$5 million;
  --Bone Marrow Failure Research Program--$5 million;
  --Multiple Sclerosis Research Program--$5 million;
  --Peer Reviewed Lung Cancer Research Program--$20 million; and
  --Peer Reviewed Cancer Research Program--$16 million.
    The Peer Reviewed Cancer Research Program funds are restricted as 
follows: $4 million for research of melanoma and other skin cancers as 
related to deployments of service members to areas of high exposure; $2 
million for research of pediatric brain tumors within the field of 
childhood cancer research; $8 million for genetic cancer research and 
its relation to exposure to the various environments that are unique to 
a military lifestyle; and $2 million for non-invasive cancer ablation 
research into non-invasive cancer treatment including selective 
targeting with nano-particles.
    In 2010, Congress added dedicated funding for the following as new 
programs:
  --Chiropractic Clinical Trial--$8.2 millionl; and
  --Defense Medical Research and Development $275 million.
    All of these research areas warrant attention, but mesothelioma is 
a rapidly fatal, excruciatingly painful cancer directly related to 
military service. We ask the Committee to appropriate to DOD for fiscal 
year 2012 $5 million for a dedicated Mesothelioma Research Program or 
as a specific restriction within the Peer Reviewed Cancer Research 
Program. This will boost the long-neglected field of mesothelioma 
research, enabling mesothelioma researchers to build a better 
understanding of the disease and develop effective treatments. This 
will translate directly to saving lives and reducing suffering of 
veterans battling mesothelioma.
    We look to the Senate Defense Appropriations Subcommittee to 
provide continued leadership and hope to the servicemen and women and 
veterans who develop this cancer after serving our Nation. Thank you 
for the opportunity to provide testimony before the Subcommittee and we 
hope that we can work together to develop life-saving treatments for 
mesothelioma. We thank you for considering our fiscal year 2012 request 
for $5 million for Mesothelioma research.

    Chairman Inouye. Thank you very much, Ms. Hesdorffer.
    Senator Cochran.
    Senator Cochran. Thank you very much. I think your 
testimony has added to our understanding of how devastating 
some of these physical problems and life and death issues are, 
particularly for those of us who served in the Navy. As you 
were reciting that list of names, I couldn't help but remember 
my service in the Navy aboard a ship out of Boston, 
Massachusetts--a wonderful opportunity for me, growing up in 
the Deep South, to get to know about things around the world 
that I would have never been exposed to. But to find out I was 
also exposed to some of these life-threatening situations 
brings to me the realization of how lucky so many of us are who 
have led healthy lives in spite of the fact that we've been 
exposed to these dangerous situations.
    But I think we have a definite obligation to do everything 
we can to try to save lives now and improve the quality of life 
of those who have been more unfortunate than I was.
    Ms. Hesdorffer. Thank you.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.
    I appreciate your testimony here. We know this is a 
horrible situation. I've known people--I had a former 
congressional colleague of mine from Alabama who worked one 
summer, who's dead now, as an asbestos worker, because it was a 
great insulator, as you point out. They didn't know then or, if 
they knew, the workers didn't know what danger they were 
playing with.
    I guess my question--we know that a lot of this lies 
dormant for years and years and years. I guess we've all been 
exposed, but some to more degree than others, to a lot of this 
and didn't even know it. We used to--oh, gosh, all over America 
we used to have asbestos siding on homes, asbestos everywhere, 
because it was, as you pointed out, the so-called perfect 
mineral for insulation. It had great qualities, but a big 
danger.
    What is the real danger today of our troops as they are in 
harm's way, posted everywhere in the world? Is it third world 
countries using asbestos because it's there and it's available 
and maybe they don't appreciate the danger to it?
    Ms. Hesdorffer. Well, I think part of the problem is life 
is cheap, it's expendable. Canada is still mining asbestos and 
still exporting it. So we have India, we have so many patients 
are dying of mesothelioma, probably before they're diagnosed 
because it's mistaken often for tuberculosis.
    Our troops have been exposed in Afghanistan, Iraq, in many 
of the third world countries. An epidemic now is occurring in 
Japan, because Japan probably has used asbestos now for a 
number of years, where they're just beginning to see diagnosed 
cases.
    Senator Shelby. Are they still using--a lot of countries in 
the world, like you mentioned Japan, are they still using 
asbestos because of the properties of a great insulator?
    Ms. Hesdorffer. Yes.
    Senator Shelby. Irrespective of the danger?
    Senator Shelby. Slumdog Millionaire, if you look at that 
movie and you saw those huts that those children were running 
over, those were asbestos huts. Those roofs were all made of 
asbestos. We're using it as a fire retardant in many countries.
    Senator Shelby. My last question: Briefly, tell us what 
drug, pharmaceutical breakthroughs, other things, methods of 
treatment, either help alleviate some of the problems, or is 
that just too far away?
    Ms. Hesdorffer. Well, I'd like to just briefly--we had 
Olympta was approved in 2004. Prior to that, there was no 
approved agent. Patients who get Olympta now--without 
treatment, the life expectancy is 9.2 months. With Olympta, the 
life expectancy is 12.3 months. Surgery where----
    Senator Shelby. It's a killer, period.
    Ms. Hesdorffer. It's a uniformly fatal disease. That's how 
every research article starts out.
    Senator Shelby. Thank you.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Ms. Hesdorffer. Thank you.
    Chairman Inouye. Major General Bockel.
STATEMENT OF MAJOR GENERAL DAVID BOCKEL, UNITED STATES 
            ARMY (RETIRED), EXECUTIVE DIRECTOR, RESERVE 
            OFFICERS ASSOCIATION
    General Bockel. Mr. Chairman, Mr. Vice Chairman, Senator 
Shelby: The Reserve Officers Association thanks you for the 
invitation to appear and give testimony. I'm Major General 
David Bockel, Executive Director of the Reserve Officers 
Association. I'm also authorized to speak in behalf of the 
Reserve Enlisted Association.
    As both the Congress and the Pentagon are looking at 
reducing defense expenses, ROA finds itself again confronted 
with protecting one of America's greatest assets, the reserve 
components. The National Guard and the other Reserve components 
are proud members of the total force who fully understand their 
duty and are proudly serving operationally. Not only have they 
contributed to the war effort, but they have made a difference 
in maintaining an all-volunteer military force and providing 
the active force more time at home.
    Yet, as discussions occur in both Congress and the Pentagon 
on how to reduce the budget and the deficit, the peril of lower 
defense spending is that the Reserve components will become the 
billpayer. As seen in the past, the risk exists where defense 
planners may be tempted to put the National Guard and title 10 
reserve on the shelf by providing them hand-me-down outmoded 
equipment and underfunded training.
    With over 800,000 Guard and Reserve members having been 
mobilized, this Nation has a generation of warfighters who have 
the knowledge and experience that hasn't existed in the Reserve 
component since the end of the Vietnam war. Almost every 
officer and enlisted leader is a combat-tested veteran. To 
waste this capability is a poor return on the investment of 
money already spent. Only by establishing parity in training, 
equipment, pay, and compensation will permit us to keep them 
available for use as an enduring operational force.
    ROA and REA's written testimony includes a list of unfunded 
requirements that we hope this subcommittee will fund, but we 
also urge the subcommittee to specifically identify funding for 
both the National Guard and other Reserve components 
exclusively to train and equip the Reserve components by 
providing funds for the National Guard and Reserve equipment 
appropriation. Dedicating funds to Guard and Reserve equipment 
provides Reserve chiefs and National Guard directors with the 
flexibility of prioritizing their funding.
    But some in the active component would cut National Guard 
and Reserve pay for the active duty, undermining the concept of 
the total force. Some would have you believe that the National 
Guard and Reserve are more expensive to maintain than the 
active duty forces. However, when citizen warriors are recalled 
for an extended period the cost is about the same as for an 
active duty member. It's the lower overhead in the years when 
the National Guard and Reserve member is not on active duty 
that provides the economy. The citizen warrior cost over a life 
cycle is far less than the cost of an active component 
warfighter.
    Additional cost savings are found when civilian knowledge 
and proficiencies can be called upon at no cost to the military 
for training. DOD officials have admitted that many Reserve 
component members are working in state-of-the-art industries as 
civilian employees, an asset that the Pentagon can't match.
    Another concern ROA and REA share is legal support for 
veterans and Guard and Reserve members returning from 
deployment to face ever-increasing challenges of reemployment. 
On June 1, 2009, ROA established the Servicemembers Law Center. 
This is a service to provide active, Guard, and Reserve, as 
well as separated veterans. The center is averaging over 5,000 
inquiries a year, with the majority of them about employment 
and reemployment rights.
    This is a no-fee service and it does not provide legal 
representation. But such a service does cost money. Currently, 
through ROA's financial support it allows this center to be a 
one-man shop. Our vision is to grow this, to increase the staff 
and services provided to our veteran and Reserve component 
community, which will take additional funding.
    ROA would love to meet with your staff to discuss how this 
subcommittee can provide monetary support, and it appears that 
the language may be included in the Senate NDAA that would 
provide an authorizing source for such funding.
    Another concern that I personally have been working for is 
on the treatment for the victims of traumatic brain injury. 
Anecdotal evidence of hyperbaric oxygen therapy as well as 
other alternative treatments have shown significant success and 
needs to be better funded.
    Thank you again for your consideration of our testimony. 
I'm available to answer any questions.
    [The statement follows:]
            Prepared Statement of Major General David Bockel
    The Reserve Officers Association of the United States (ROA) is a 
professional association of commissioned and warrant officers of our 
Nation's seven uniformed services, and their spouses. ROA was founded 
in 1922 during the drawdown years following the end of World War I. It 
was formed as a permanent institution dedicated to National Defense, 
with a goal to teach America about the dangers of unpreparedness. When 
chartered by Congress in 1950, the act established the objective of ROA 
to: ``. . . support and promote the development and execution of a 
military policy for the United States that will provide adequate 
National Security.''
    The Association's 65,000 members include Reserve and Guard 
Soldiers, Sailors, Marines, Airmen, and Coast Guardsmen who frequently 
serve on Active Duty to meet critical needs of the uniformed services 
and their families. ROA's membership also includes officers from the 
U.S. Public Health Service and the National Oceanic and Atmospheric 
Administration who often are first responders during national disasters 
and help prepare for homeland security.
    The Reserve Enlisted Association is an advocate for the enlisted 
men and women of the United States Military Reserve Components in 
support of National Security and Homeland Defense, with emphasis on the 
readiness, training, and quality of life issues affecting their welfare 
and that of their families and survivors. REA is the only Joint Reserve 
association representing enlisted reservists--all ranks from all five 
branches of the military.
                               priorities
    CY 2011 Legislative Priorities are:
  --Recapitalize the Total force to include fully funding equipment and 
        training for the National Guard and Reserves.
  --Ensure that the Reserve and National Guard continue in a key 
        national defense role, both at home and abroad.
  --Provide adequate resources and authorities to support the current 
        recruiting and retention requirements of the Reserves and 
        National Guard.
  --Support citizen warriors, families and survivors.
Issues to help fund, equip, and train
    Advocate for adequate funding to maintain National Defense during 
times of war and peace.
    Regenerate the Reserve Components (RC) with field compatible 
equipment.
    Improve and implement adequate tracking processes on Guard and 
Reserve appropriations and borrowed Reserve Component equipment needing 
to be returned or replaced.
    Fully fund Military Pay Appropriation to guarantee a minimum of 48 
drills and 2 weeks training.
    Sustain authorization and appropriation to National Guard and 
Reserve Equipment Account (NGREA) to permit flexibility for Reserve 
Chiefs in support of mission and readiness needs.
    Optimize funding for additional training, preparation and 
operational support.
    Keep Active and Reserve personnel and Operation and Maintenance 
funding separate.
Issues to assist recruiting and retention
    Support continued incentives for affiliation, reenlistment, 
retention and continuation in the Reserve Component.
            Pay and Compensation
    Simplify the Reserve duty order system without compromising drill 
compensation.
    Offer Professional pay for Reserve Component medical professionals, 
consistent with the Active Component's pay.
    Eliminate the one-thirtieth rule for Aviation Career Incentive Pay, 
Career Enlisted Flyers Incentive Pay, Diving Special Duty Pay, and 
Hazardous Duty Incentive Pay.
            Education
    Continue funding the GI Bill for the 21st Century.
            Health Care
    Provide Medical and Dental Readiness through subsidized preventive 
healthcare.
    Extend military coverage for restorative dental care for up to 90 
days following deployment.
            Spouse Support
    Repeal the Survivor Benefits Plan--Dependency Indemnity Clause 
(DIC) offset.
             national guard and reserve equipment accounts
    It is important to maintain separate equipment and personnel 
accounts to allow Reserve Component Chiefs the ability to direct 
dollars to vital needs.
    Key Issues facing the Armed Forces concerning equipment:
  --Developing the best equipment for troops fighting in overseas 
        contingency operations.
  --Procuring new equipment for all U.S. Forces.
  --Modernize by upgrading the equipment already in the inventory.
  --Replacing the equipment deployed from the homeland to the war.
  --Making sure new and renewed equipment gets into the right hands, 
        including the Reserve Component.
    Reserve Component Equipping Sources:
  --Procurement.
  --Cascading of equipment from Active Component.
  --Cross-leveling.
  --Recapitalization and overhaul of legacy (old) equipment.
  --Congressional add-ons.
  --National Guard and Reserve Appropriations (NGREA).
  --Supplemental appropriation, such as OCO funding.
           national guard and reserve equipment appropriation
    Once a strategic force, the Reserve Components are now also being 
employed as an operational asset; stressing an ever greater need for 
procurement flexibility as provided by the National Guard and Reserve 
Equipment Appropriations (NGREA). Much-needed items not funded by the 
respective service budget are frequently purchased through NGREA. In 
some cases, it is used to procure unit equipment to match a state of 
modernizations that aligns with the battlefield.
    The Reserve and Guard are faced with the ongoing challenges of how 
to replace worn out equipment, equipment lost due to combat operations, 
legacy equipment that is becoming irrelevant or obsolete, and, in 
general, replacing what is lost in combat, or aged through the abnormal 
wear and tear of deployment. The Reserve Components benefit greatly 
from a National Military Resource Strategy that includes a National 
Guard and Reserve Equipment Appropriation.
    Congress has provided funding for the NGREA for over 30 years. At 
times, this funding has made the difference in a unit's abilities to 
carry out vital missions.
    ROA thanks Congress for approving $850 million for NGREA for fiscal 
year 2011, but more dollars continue to be needed. ROA urges Congress 
to appropriate into NGREA an amount that is proportional to the 
missions being performed, which will enable the Reserve Component to 
meet its readiness requirements.
End Strength
    The ROA would like to place a moratorium on any potential 
reductions to the Guard and Reserve manning levels. Manpower numbers 
need to include not only deployable assets, but individuals in the 
accession pipeline. ROA urges this subcommittee to fund the support of:
  --Army National Guard of the United States, 358,200.
  --Army Reserve, 206,000.
  --Navy Reserve, 66,200.
  --Marine Corps Reserve, 39,600.
  --Air National Guard of the United States, 106,700.
  --Air Force Reserve, 71,400.
  --Coast Guard Reserve, 10,000.
    In a time of war and force rebalancing, it is wrong to make cuts to 
the end strength of the Reserve Components. We need to pause to permit 
force planning and strategy to catch-up with budget reductions.
               nonfunded army reserve component equipment
    While General Martin E. Dempsey, U.S. Army Chief of Staff, has said 
that the Army is not going forward with any unfunded requirements in 
his letter to Congress, this is not the case for the Army Reserve or 
the Army National Guard.
Army Reserve (USAR) Unfunded Requirements
    While the Army Reserve has 80 percent of its equipment on-hand, 
only 65 percent of it modernized. Further, the USAR remains short in 
several areas of critical equipment. Around 35 percent of its required 
equipment lines are at less than 65 percent on hand. A percentage of 
the USAR equipment is deployed.
    An enduring operational force cannot be fully effective if it is 
underfunded and has to borrow personnel and equipment from one unit to 
shore up another to meet mission requirements. Currently in the basic 
budget, the USAR is funded at strategic levels rather than for its 
operational contributions.
    Top USAR Equipping Challenges of an Operational Reserve:
  --Equip USAR formations to optimal operational levels for full 
        spectrum operations.
  --Maintain USAR equipment at the Army standard of 90 percent fully 
        mission capable.
  --Increase equipment modernization in an era of decreasing resources.
  --Increase facility and manpower capabilities to sustain modernized 
        and emerging equipment.
  --Modernize the Army Reserve Tactical Wheeled Vehicle (TWV) fleet.
  --Increase Resourcing for logistics automation technology required 
        refresh.
  --Increase Funding for state-of-the-art maintenance facilities.
  --Gain full transparency for equipment procurement through unit level 
        receipt.

                          [Dollars in millions]
------------------------------------------------------------------------
                                                               Amount
------------------------------------------------------------------------
Ground Vehicles:
    Heavy Expanded Mobility Tactical Truck (HEMTT-LET),           $161
     1086 req'd...........................................
    Rough Terrain Container Handler, 215 req'd............         192
    Truck, Forklift, ATLAS, 71 req'd......................          11.8
    Tractor Line Haul M915, 169 req'd.....................          29
    HEMTT Common Bridge Transporter, M1977, 69 req'd......          15.4
Command Post of the Future (CPOF), 49 req'd...............          16
Soldier Weapons...........................................          15.7
    Machine Gun, 7.62 mm, M240B, req'd 1,000..............
    Carbine, 5.56 mm, M4, req'd 3,233 $1,329 20,058 23,291
    Machine Gun, Grenade, 40 mm, MK19 MOD III,............
Helicopter, Utility, UH-60L, 8 req'd......................          38.4
Power Plants and Generators:
    100KW Distribution System, 1,062 req'd................          15.5
    Power Plant, 5kW, TM, AN/MJQ-35, 250 req'd............          11.6
    Generator Set, 10kW, MEP-803A TQG, 445 req'd..........           6.4
    Generator Set, 10kW, PU-798 TQG, 242..................           6.2
------------------------------------------------------------------------

    Simulators.--The use of simulations and simulators minimizes 
turbulence for USAR Soldiers and their families caused by training 
demands during the first 2 years of the ARFORGEN process by enabling 
individuals and units to train at their home station and during 
exercises in a safe environment without the increased wear and tear on 
equipment.
Army National Guard (ARNG) Unfunded Equipment Requirements
    Even though Congress has provided $37 billion in equipment to the 
Army National Guard (ARNG) in the past 6 years, the on-hand percentage 
for all equipment is currently at 92 percent, there is a need for 
modernization and restoration. The Army National Guard provides more 
than 40 percent of the Army's rotary wing assets. With the increased 
optemp there is an increase in need for aircraft modernization. 
Required land force maintenance results in shortages as the ARN does 
not have a quantity of selected end-items authorized for use by units 
as immediate replacements when critical equipment is sent to depots for 
repair.
    Top ARNG Equipping Challenges:
  --Improve interoperability with AC forces.
  --Equip units for pre-mobilization training and deployment.
  --Equip units for their Homeland Missions.
  --Modernize ARNG helicopter fleet.
  --Modernize ARNG Tactical Wheeled Vehicle (TWV) fleet.

                          [Dollars in millions]
------------------------------------------------------------------------
                                                               Amount
------------------------------------------------------------------------
Ground Transportation:
    Light, Med, and Heavy Tactical Trailers, 6,675 req'd..        $200
    Armored Security Vehicle (ASV), M1117.................          91
    Bradley Fighting Vehicle, Infantry, M2A2, 95 req'd....         123
    HMMWV Shelter Carrier, Heavy, M1097, 707 req'd........          43.6
Aviation:
    Helicopter, Utility, UH-60L, 30 req'd.................         145.7
    Light Utility Helicopter, UH-72A, 44 req'd............         171.6
    Helicopter, Cargo CH-47F, 3 req'd.....................          90
Medical Field Systems, 2,249 req'd........................          11
------------------------------------------------------------------------

    The Assistant Secretary of the Army (Acquisitions, Logistics & 
Technology) recently directed the Program Executive Office--Aviation to 
divest the C-23 Sherpa aircraft not later than December 31, 2014 as the 
Army had decided that it shouldn't be in the fixed wing business. Yet 
these aircraft are needed in the ARNG because the assets would be 
utilized in state missions, if not Federal.
           air force reserve components equipment priorities
Air Force Reserve Unfunded Requirements
    The Air Force Reserve (AFR) is focused on rebalancing its force, 
recapitalizing its equipment and infrastructure, and supporting its 
Reservists. Sustaining operations on five continents, the resulting 
wear and tear weighs heavily on aging equipment. When Legacy aircraft 
are called upon to support operational missions, the equipment is 
stressed at a greater rate. Since the start of combat, the majority of 
AFR equipment requirements have been aircraft upgrades.
    Top AFR Equipping Challenges:
  --Defensive Systems.--LAIRCM, ADS, and MWS: equip aircraft lacking 
        adequate infrared missile protection for combat operations.
  --Data Link and Secure Communications.--Data link network supporting 
        image/video, threat updates, and SLOS/BLOS communications for 
        combat missions.

                          [Dollars in millions]
------------------------------------------------------------------------
                                                               Amount
------------------------------------------------------------------------
F-16 Systems, CDU, Combined AIFF w/Mode 5/S, Sim Trainer           $10
 Upgrade..................................................
C-130 Systems, New Armor, RWR, TAWS, VECTS, LED posit               92.8
 Lights...................................................
LAIR Countermeasures KC-135 (15)..........................         118.4
Infra-Red Counter Measures C-17s..........................          60
Security Forces Weapons & Tactical Equipment..............           3.2
Guardian Angel Weapon System (GAWS):
    Tactical Communication Headset........................           5
    HC-130 Wireless Intercom..............................           6
    CSAR Common Data Link.................................           6
------------------------------------------------------------------------

Air National Guard Unfunded Equipment Requirements
    Given adequate equipment and training, the Air National Guard (ANG) 
will continue to fulfill its Total Force obligations. As the Nation's 
first military responder, the Air Force has increased reliance on its 
Reserve Components, requiring equipment and training comparable to the 
active component Air Force. The Air National Guard's support to civil 
authorities is based upon the concept of ``dual use,'' equipment 
purchased by the Air Force for the Air National Guard's Federal combat 
mission, which can be adapted and used domestically when not needed 
overseas.
    Shortfalls in equipment will impact the Air National Guard's 
ability to support the National Guard's response to disasters and 
terrorist incidents in the homeland.
    ANG Equipping Challenges:
  --Modernize aging aircraft and other weapons systems for both dual-
        mission and combat deployments.
  --Equipment to satisfy requirements for domestic operations in each 
        Emergency.
  --Support Function (ESF).
  --Maintain C-5: Failing major fuselage structures and funding for 
        depot maintenance.
  --Define an Air Force validation process for both Federal and state 
        domestic response needs.
  --Program aging ANG F-16 aircraft for the Service Life Extension 
        Program (SLEP).
    An ANG wing contains not only aircraft but fire trucks, forklifts, 
portable light carts, emergency medical equipment including ambulances, 
air traffic control equipment, explosives ordinance equipment, etc., as 
well as well trained experts--valuable in response to civil 
emergencies.

                          [Dollars in millions]
------------------------------------------------------------------------
                                                               Amount
------------------------------------------------------------------------
C-27J Airlift, 4 req'd....................................        $124
C-40C Airlift, 1 req'd....................................          98
C-38 Replacement Aircraft, 4 req'd........................         254
C-5 Structural Repair.....................................         310
C-17 Next Generation Threat Detection System..............          59
MC-130 Integrated BLOS/LOS/Data Link/VDL, 167, req'd......          66.8
F-16 Advanced Targeting Pod Upgrades......................         260
------------------------------------------------------------------------

                    navy reserve unfunded priorities
    Active Reserve Integration (ARI) aligns Active and Reserve 
component units to achieve unity of command. Operationally, the Navy 
Reserve is fully engaged across the spectrum of Navy, Marine Corps, and 
joint operations, from peace to war. It has been the primary provider 
of Individual Augmentees for the overseas contingency operations 
filling Army, and Air Force assignments.
    Top U.S. Navy Reserve Equipping Challenges:
  --Aircraft procurement (C-40A, P-8, KC-130J, C-37B and F/A-18E).
  --Expeditionary equipment procurement (MESF, EOD, NCF, NAVELSG, 
        MCAST, EXPCOMBATCAM, and NEIC).

                          [Dollars in millions]
------------------------------------------------------------------------
                                                               Amount
------------------------------------------------------------------------
C-40 A Combo cargo/passenger Airlift, 5 req'd.............        $425
    Aircraft recapitalization is necessary due to the C-
     9B's increasing operating and depot costs, decreasing
     availability and inability to meet future avionics/
     engine mandates required to operate worldwide. The C-
     40A has twice the range, payload, days of
     availability of the C-9B, and also has the unique
     capability of carrying hazardous cargo and passengers
     simultaneously with no restrictions. C-40 replaces an
     aging fleet of C-9, C-12 and C-20.
Maritime Expeditionary Security Force.....................          20
    Navy Expeditionary Combat Command has 17,000 Navy
     Reservists and requires $3.1 billion in Reserve
     Component Table of Allowance equipment. Force Utility
     Boat MPF-UB, 3 req'd $3 million.
KC-130J Super Hercules Aircraft tankers, 2 req'd..........         168
    Aircraft needed to fill the shortfall in Navy Unique
     Fleet Essential Airlift. Procurement price close to
     upgrading existing C-130Ts with the benefit of a
     longer life span. 24 req'd.
Helicopter, Combat SAR, HH-60H (Seahawk), 1 req'd.........          15.5
C-37 B (Gulf Stream) Aircraft (1).........................          64
    The Navy Reserve helps maintain executive transport
     airlift to support the Depart. of the Navy.
Civil Engineering Support Equipment--Tactical Vehicles....           4.4
------------------------------------------------------------------------

                marine corps reserve unfunded priorities
    Marine Forces Reserve (MFR) has two primary equipping priorities--
outfitting individuals who are preparing to deploy and sufficiently 
equipping units to conduct home station training. Individuals receive 
100 percent of the necessary warfighting equipment. MFR units are 
equipped to a level identified by the Training Allowance (TA). MFR 
units are equipped with the same equipment that is utilized by the 
Active Component, but in quantities tailored to fit Reserve training 
center needs. It is imperative that MFR units train with the same 
equipment they will utilize while deployed.
    Top MCR Equipping Challenges:
  --Providing units the ``right amount'' of equipment to effectively 
        train in a pre-activation environment.
  --Achieving USMCR goal that the Reserve TA contains the same 
        equipment as the active component.
  --Resetting and modernizing the MRF to prepare for future challenges.

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
KC-130J Super Hercules Aircraft tankers, 21 remaining...    $1.5 billion
    The ``T'' and ``J'' aircraft are very different
     airframes, requiring different logistical,
     maintenance, and aircrew requirements. The longer
     both airframes are maintained, the longer twice the
     cost for logistics, maintenance training, and
     aircrew training will be spent.
Light Armored Vehicles--LAV-25, procure 27 remaining,...     $68 million
    Completing modernization of Light Armored Vehicle
     (LAV) family filling a shortfall in a USMCR light
     armor reconnaissance company. It provides strategic
     mobility to reach and engage the threat, tactical
     mobility for effective use of fire power.
Logistics Vehicle System Replacement (LVSR) 108 required   $650,000 each
    Supports accelerated modernization and rapid
     fielding.
Simulators: KC-130J Weapons System Trainer..............     $25 million
    Training transformation remains the cutting-edge
     arena of simulation and simulators.
Training Allowance (T/A) Shortfalls.....................    $145 million
    Shortfalls consist of over 300 items needed for
     individual combat clothing and equipment, including
     protective vests, ponchos, liners, gloves, cold
     weather clothing, environmental test sets, tool
     kits, tents, camouflage netting, communications
     systems, engineering equipment, combat and
     logistics vehicles and weapon systems.
------------------------------------------------------------------------

                       service members law center
    The Reserve Officers Association developed a Service Members Law 
Center, advising Active and Reserve service members who are subject to 
legal problems that occur during deployment.
    In the last year, the Service Members Law Center has received over 
6,000 calls and e-mails with legal questions. Eighty percent of them 
deal with the issue of employment and reemployment of veterans. Of 
those who have contacted us, the ROA Service Members Law Center has 
referred about 5 percent to attorneys.
    The American Bar Association supports legislation S. 1106, Justice 
for the Troops, to support programs on pro bono legal assistance for 
members of the Armed Forces. The Service Members Law Center has already 
been educating the law community on just that, and provides over 700 
case studies for online use by law offices.
    The Law Center refers names of attorneys who work on related legal 
issues, encouraging law firms to represent service members. The Center 
also educates and trains lawyers, especially active and reserve judge 
advocates, on service member protection cases. It is also a resource to 
Congress. Last year, the Supreme Court gave judgment on its first 
USERRA case. The Service Members Law Center filed an amicus curiae 
(friend of the court) brief on this case.
    ROA sets aside office spaces and staffs a lawyer to answer 
questions of serving members and veterans. Legal services, as suggested 
by S. 1106, could be sought by the Service Members Law Center if it 
expanded its staff. This would require additional financial support.
    Anticipated overall cost for expansion in fiscal year 2012: 
$150,000.
Military Voting
    The Service Members Law Center also answers questions about 
Military Voting. Its director works with the Federal Voting Assistance 
Program staff to help communicate information to improve military voter 
participation in Federal elections. FVAP announced a $16 million grant 
program to expand those online voting support tools at the State and 
local level, all of which will be linked to the voter through the FVAP 
website portal.
    ROA and REA fully support additional funding of DOD's Federal 
Voting Assistance Program for $35.107 million.
                       cior/ciomr funding request
    The Interallied Confederation of Reserve Officers (CIOR) was 
founded in 1948, and the Interallied Confederation of Medical Reserve 
Officers (CIOMR) was founded in 1947. These organizations are 
nonpolitical, independent confederations of national reserve 
associations of the signatory countries of the North Atlantic Treaty 
Organization (NATO). Presently, there are 16 member nation delegations 
representing over 800,000 reserve officers. CIOR supports several 
programs to improve professional development and international 
understanding. The Reserve Officers Association of the United States 
represents the United States as its official member to CIOR.
    Military Competition.--The CIOR Military Competition is a strenuous 
3 day contest on warfighting skills among Reserve Officers teams from 
member countries. The contest emphasizes combined and joint military 
actions relevant to the multinational aspects of current and future 
Alliance operations.
    Language Academy.--The two official languages of NATO are English 
and French. As a non-government body operating on a limited budget, it 
is not in a position to afford the expense of providing simultaneous 
translation services. The Academy offers intensive courses in English 
and French as specified by NATO Military Agency for Standardization, 
which affords international junior officer members the opportunity to 
become fluent in English as a second language.
    Young Reserve Officers Workshop.--The workshops are arranged 
annually by the NATO International Staff (IS). Selected issues are 
assigned to joint seminars through the CIOR Defense and Security Issues 
(SECDEF) Commission. Junior grade officers work in a joint seminar 
environment to analyze Reserve concerns relevant to NATO.
    Dues do not cover the workshops, and individual countries help fund 
the events. Presently no service has Executive Agency for CIOR, so 
these programs aren't being funded.
    Military Competition funding needs at $150,000 per fiscal year.
                               conclusion
    The impact of operations in Iraq and Afghanistan is affecting the 
very nature of the Guard and Reserve, not just the execution of Roles 
and Missions. It makes sense to fully fund the most cost efficient 
components of the Total Force, its Reserve Components.
    At a time of war, we are expending the smallest percentage of GDP 
in history on National Defense. Funding now reflects close to 4 percent 
of GDP including supplemental dollars. ROA has a resolution urging that 
defense spending should be 5 percent to cover both the war and homeland 
security. While these are big dollars, the President and Congress must 
understand that this type of investment is what it will take to equip, 
train and maintain an all-volunteer force for adequate National 
Security.
    The Reserve Officers Association, again, would like to thank the 
subcommittee for the opportunity to present our testimony. We are 
looking forward to working with you and supporting your efforts in any 
way that we can.

    Chairman Inouye. Thank you very much, General Bockel.
    Senator Cochran.
    Senator Cochran. Thank you, General Bockel. We appreciate 
your coming here today and giving us your observations and your 
service, too, to veterans who have served in our military. When 
you mentioned the hyperbaric chamber, I just recalled the use 
of that in rehabilitating horses, thoroughbreds for racing. The 
fellow who really put the biggest bit of attention and his own 
personal funds into that had a horse that finally won the 
Kentucky Derby a couple of years ago.
    General Bockel. There it is.
    Senator Cochran. It didn't make him run any faster, but it 
showed the capabilities of treatment for damaged tissues, and 
it led to the use by men and women who had been in the service. 
Out at our Bethesda Naval Hospital, I think they have planned 
for a unit to be installed for trial, and we now will have an 
opportunity for a higher rate of recovery from a lot of things 
because of that initiative.
    General Bockel. In the case of traumatic brain injury, 
there is no uniform understanding of the condition and the 
treatment. It is also a continuity of care issue. From DOD 
healthcare through Veterans Affairs into the private healthcare 
arena, there is no continuity, no common understanding. The 
treatment does work. It's been proven anecdotally. There's a 
doctor at LSU by the name of Paul Harch who's the leader in the 
treatment, and I personally know of a retired Army Reserve 
brigadier general who's a judge in Fort Walton Beach, Florida, 
who spent 2 years in Walter Reed, most of that time suffering 
from traumatic brain injury, who received the hyperbaric 
therapy at George Washington University Hospital, and he's back 
on the bench practicing today.
    Senator Shelby. That's remarkable.
    Well, thank you very much for being here. Your testimony 
will be given very careful consideration.
    General Bockel. Thank you.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. Mr. Chairman, I appreciate the General's 
testimony and his advocacy here through the paper. He had a 
distinguished military career before he came to that. We share 
one thing in common: We both are graduates of the University of 
Alabama. When he was there he was a distinguished student, but 
he was also a distinguished graduate of their ROTC program, 
which served him well in his career.
    General Bockel. They never thought I would get this far, 
Senator.
    Senator Shelby. But you have.
    Chairman Inouye. Thank you very much.
    Captain Smith.
STATEMENT OF CAPTAIN MIKE SMITH, UNITED STATES NAVY 
            (RETIRED), NATIONAL MILITARY AND VETERANS 
            ALLIANCE
    Captain Smith. Chairman Inouye, Senator Cochran, and 
Senator Shelby: The National Military and Veterans Alliance, or 
NMVA, is honored to again testify. The alliance represents 
military retiree veterans and survivor associations with over 
3.5 million members. The NMVA supports a strong national 
security.
    The challenges of the deficit and an adequately funded 
defense are at the forefront of discussions in Congress and, 
while the alliance is well aware that the subcommittee faces 
certain budget constraints, the NMVA continues to urge the 
President and Congress to increase defense spending to 5 
percent of gross domestic product during times of high 
utilization of the military to cover procurement, prevent 
unnecessary personnel cuts, and afford needed benefits for 
serving members and retirees. With the U.S. military taking 
action in four different countries, no one can deny that it is 
being decidedly used.
    It is crucial that military healthcare is funded. NMVA is 
concerned that as new programs are initiated they won't receive 
the funding that they need. Treating PTS and TBI shouldn't be 
on the cheap and alternative treatments should be explored so 
that our serving members can return to a normal life.
    The alliance is concerned that the President's DOD 
healthcare budget continues to undercut the military's 
beneficiaries' needs. We ask that you continue to fully fund 
military healthcare in fiscal year 2012.
    It is also important that we have parity in equipment and 
training for the new operational Guard and Reserve. Cuts in the 
strength of the Reserve component seem counterintuitive to 
prevent any unforeseen strategic event. The willingness of our 
young people today to serve in future conflicts will relate to 
their perception of how the veterans of this war are being 
treated.
    The NMVA thanks this subcommittee for funding the phased-in 
survivor benefit plan dependency and indemnity compensation 
offset. But widows of members who were killed in the line of 
service are continuing to be penalized. Even under the present 
offset, the vast majority of our enlisted families receive 
little benefit from this new program because SBP is almost 
completely offset by DIC. The NMVA respectfully requests that 
this subcommittee find excess funding to expand this provision.
    The alliance also hopes that this subcommittee will fully 
fund the $67.7 million authorized by the Senate Armed Services 
Committee for the two armed forces retirees homes.
    As the overseas contingency operations wind down, the 
challenges faced by our active and Reserve serving members will 
not go away. The alliance is confident of your ongoing support 
of national security and that you will keep the budgeting 
burden off the shoulders of the warriors, the retirees, their 
families, and survivors.
    The NMVA would like to thank the subcommittee for its 
efforts and, of course, this morning's opportunity to testify. 
Thank you.
    [The statement follows:]
                Prepared Statement of Captain Mike Smith
                               membership
American Logistics Association
American Military Retirees Association
American Military Society
American Retirees Association
American Veterans (AMVETS)
American WWII Orphans Network
Armed Forces Marketing Council
Armed Forces Top Enlisted Association
Army Navy Union
Association of the U.S. Navy
Catholic War Veterans
Gold Star Wives of America
Hispanic War Veterans Association
Japanese American Veterans Association
Korean War Veterans Foundation
Legion of Valor
Military Order of Foreign Wars
Military Order of the Purple Heart
Military Order of the World Wars
National Association for Uniformed Services
National Gulf War Resource Center
Naval Enlisted Reserve Association
Paralyzed Veterans of America
Reserve Enlisted Association
Reserve Officers Associations
Society of Military Widows
TREA Senior Citizen League
The Flag and General Officers' Network
The Retired Enlisted Association
Tragedy Assistance Program for Survivors
Uniformed Services Disabled Retirees
Veterans of Foreign Wars of the U.S.
Veterans of Modern Warfare
Vietnam Veterans of America
Women in Search of Equity
                              introduction
    Mister Chairman and distinguished members of the Committee, the 
National Military and Veterans Alliance (NMVA) is very grateful to 
submit testimony to you about our views and suggestions concerning 
defense funding issues. The overall goal of the National Military and 
Veterans Alliance is a strong National Defense. In light of this 
overall objective, we would request that the committee examine the 
following proposals.
    The ``Alliance'' is made up of 35 organizations, which provide it 
with a scope of expertise in military, veteran, family, and survivor 
issues.
    While the NMVA highlights the funding of benefits, we do this 
because it supports National Defense. A often quoted phrase, ``The 
willingness with which our young people are likely to serve in any war, 
no matter how justified, shall be directly proportional as to how they 
perceive the Veterans of earlier wars were treated and appreciated by 
their country,'' has been frequently attributed to General George 
Washington. Yet today, many of the programs that have been viewed as 
being veteran or retiree are viable programs for the young serving 
members of this war and shouldn't be discounted.
    The NMVA is very concerned over comments made by the leadership at 
the Pentagon that pay and compensation of serving members should be 
cut. This is very short sighted, based on a false premise that 
recruiting and retention successes will continue. To make such cuts 
will just hasten a hollowing of the force.
    The young men and women who serve do so under enormous pressures. 
Telltale signs of this strain include growing post traumatic stress, 
upsetting suicide rates, and increasing divorce rates. The impact goes 
beyond just the serving member and affects extended families and 
communities with further unintended consequences and sometimes tragic 
results.
    The National Military and Veterans Alliance, through this 
testimony, hopes to address funding issues that apply to the current 
and future veterans who have defended this country.
                        funding national defense
    NMVA is pleased to observe that the Congress continues to discuss 
how much should be spent on National Defense, but the baseline defense 
budget is now 3.5 percent of America's Gross Domestic Product (GDP). 
The Alliance urges the President and Congress to maintain defense 
spending at 5 percent of GDP during times of war to cover procurement 
and prevent unnecessary personnel end strength cuts.
                          pay and compensation
    Our serving members are patriots willing to accept peril and 
sacrifice to defend the values of this country. All they ask for is 
fair recompense for their actions. At a time of war, compensation 
rarely offsets the risks.
    The NMVA requests funding so that the annual enlisted military pay 
raise exceeds the Employment Cost Index (ECI) by at least half of 1 
percent.
    If unable to provide a pay raise higher than the President's 
request, this committee should target pay raises for the mid-grade 
members, who have increased responsibility in relation to the overall 
service mission, are also at the highest risk of leaving the service.
    NMVA supports applying the same allowance standards to both Active 
and Reserve when it comes to Aviation Career Incentive Pay, Career 
Enlisted Flyers Incentive Pay, Diving Special Duty Pay, Hazardous Duty 
Incentive Pay and other special pays. Guard and Reserve members are 
performing more specialized hours, but are currently being paid less.
    The Service chiefs have admitted one of the biggest retention 
challenges is to recruit and retain medical professionals. NMVA urges 
the inclusion of bonus/cash payments (Incentive Specialty Pay) into the 
calculations of Retirement Pay for military healthcare providers. NMVA 
has received feedback that this would be incentive to many medical 
professionals to stay in longer.
    G-R Bonuses.--Guard and Reserve component members may be eligible 
for one of three bonuses, Prior Enlistment Bonus, Reenlistment Bonus 
and Reserve Affiliation Bonuses for Prior Service Personnel. These 
bonuses are used to keep men and woman in mission critical military 
occupational specialties (MOS) that are experiencing falling numbers or 
are difficult to fill. This point cannot be understated. The operation 
tempo, financial stress and competition with Active Duty recruiting 
necessitate continuing incentives. The NMVA supports expanding and 
funding bonuses to the Reserve Components.
    Reserve/Guard Funding.--NMVA is concerned about a possible 
recommendation from the 11th Quadrennial Review of Military 
Compensation to end ``2 days pay for 1 days work,'' and replace it with 
a plan to provide one-thirtieth of a month's pay model, which would 
include both pay and allowances.
    Even with allowances, pay would be less than the current system, 
and the accounting would be far more complex. Allowances differ between 
individuals and can be affected by commute distances and even zip 
codes. Certain allowances that are unlikely to be uniformly paid 
include geographic differences, housing variables, tuition assistance, 
travel, and adjustments to compensate for missing healthcare.
    Additionally there have been DOD suggestions that pay should differ 
for those in the Guard and Reserve who are in strategic units and 
operational units. This concept would undermine the Force Generation 
Plan, which would have the readiness of a Reserve Component unit 
increase over a 5 year cycle, favored by both the Army and the Marine 
Reserve. In the early years a unit would be in a strategic status, and 
for the final 2 years be in an operational mode. Pay should not differ 
during different stages of FORCGEN.
    The NMVA strongly recommends that the reserve pay system continue 
on a ``2 days pay for two drills in a day,'' be funded and be retained, 
as is.
                           educational issues
    Practically all active duty and Selected Reserve enlisted 
accessions have a high school diploma or equivalent. A college degree 
is the basic prerequisite for service as a commissioned officer, and is 
now expected of most enlisted as they advance beyond E-6.
    Officers to promote above O-4 are expected to have a post graduate 
degree. The ever-growing complexity of weapons systems and support 
equipment requires a force with far higher education and aptitude than 
in previous years.
Post 9/11 GI Bill
    According to a survey conducted by military.com, 36 percent of 
individuals on active duty want to transfer the benefit to their spouse 
and 48 percent would transfer it to their children. The Post 9/11 GI 
Bill provides the much desired transferability option to spouses and 
children in exchange for an agreement from the serving member that they 
will continue to serve another 4 years in military service.
    The National Military and Veterans Alliance supports future funding 
to continue the transferability of the Post 9/11 GI Bill, as it is an 
important retention and recruiting resource.
MGIB-SR Enhancements
    The Montgomery G.I. Bill for Selective Reserves (MGIB-SR) will 
continue to be an important recruiting and retention tool for the 
Reserve Components. With massive troop rotations, the Reserve forces 
can expect to have retention shortfalls, unless the government provides 
enhanced education incentives as well.
    The problem with the current MGIB-SR is that the Selected Reserve 
MGIB has failed to maintain a creditable rate of benefits with those 
authorized in Title 38, Chapter 30. MGIB-SR has not even been increased 
by cost-of-living increases since 1985. In that year MGIB rates were 
established at 47 percent of active duty benefits. The MGIB-SR rate is 
28 percent of the Chapter 30 benefits. Overall the allowance has inched 
up by only 7 percent since its inception, as the cost of education has 
climbed significantly.
    The NMVA requests appropriations funding to raise the MGIB-SR and 
lock the rate at 50 percent of the active duty benefit. Cost: $25 
million/first year, $1.4 billion over 10.
                       force policy and structure
End Strength
    The NMVA is concerned about cuts in the end strength boosts of the 
Active Duty Component of the Army and Marine Corps as have been 
recommended by Defense Authorizers. The goal for active duty dwell time 
is 1:3. This has yet to be achieved under current operations tempo, and 
end strength cuts will only further impact dwell time. Trying to pay 
the defense bills by premature manpower reductions will have 
consequences.
Manning Cut Moratorium
    The NMVA would also like to put a freeze on reductions to the Guard 
and Reserve manning levels. A moratorium on reductions to End Strength 
is needed until the impact of rebalancing of the force is understood. 
The Alliance is pleased to see a recommended increase in the Navy and 
Air Force Reserves. NMVA urges this subcommittee to at least fund to 
last year's levels for other Reserve Components.
         survivor benefit plan (sbp) and survivor improvements
    The Alliance wishes to deeply thank this Subcommittee for your 
funding of improvements in the myriad of survivor programs, including 
funding the Special Survivor Indemnity Allowance.
    However, there is still an issue remaining to deal with:
    Providing funds to end the SBP/DIC offset.
    SBP is a purchased annuity, available as an elected earned employee 
benefit. This program provides a guaranteed income payable to survivors 
of retired military upon the member's death. Dependency and Indemnity 
Compensation (DIC) is an indemnity program to compensate a family for 
the loss of a loved one due to a service connected death. They are 
different benefits created to fulfill different purposes and needs. At 
this time the SBP annuity the service member has paid for is offset 
dollar for dollar for the DIC survivor benefits paid through the 
Department of Veteran Affairs.
    SBP/DIC Offset affects several groups. The first is the family of a 
medically retired member of the uniformed services. If the service 
member is leaving the service disabled it is only wise to enroll in the 
Survivor Benefit Plan (perhaps being uninsurable in the private 
sector). If a later death is service connected then the survivor loses 
their SBP annuity to DIC.
    A second group affected by this offset is families whose service 
member died on active duty. Recently Congress created active duty SBP. 
These service members never had the chance to pay into the SBP program. 
But clearly Congress intended to give these families a benefit. With 
the present offset in place, the vast majority of families receive no 
benefit from this new program, because the vast numbers of our losses 
are young men or women in the lower paying ranks.
    Other affected families are service members who have already served 
a substantial time in the military. Their surviving spouse is left in a 
worse financial position that a younger widow. The older widows will 
normally not be receiving benefits for her children from either Social 
Security or the VA and will normally have more substantial financial 
obligations (mortgages etc). This spouse is very dependent on the SBP 
and DIC payments and should be able to receive both.
    The NMVA respectfully requests that this Subcommittee fund the SBP/
DIC offset.
          current and future issues facing uniformed services
Healthcare
    The National Military and Veterans Alliance once again thanks this 
Committee for the great strides that have been made over the last few 
years to improve the healthcare provided to the active duty members, 
their families, survivors and Medicare eligible retirees of all the 
Uniformed Services. The improvements have been historic. TRICARE for 
Life and the Senior Pharmacy Program have improved the life and health 
of Medicare Eligible Military Retirees, their families, and survivors. 
Yet many serious problems need to be addressed:
Wounded Warrior Programs
    The Alliance supports continued funding for the wounded warriors, 
including monies for research and treatment on Traumatic Brain Injuries 
(TBI), Post Traumatic Stress Disorder (PTSD), the blinded, and our 
amputees. The Nation owes these heroes an everlasting gratitude and 
recompense that extends beyond their time in the military. These 
casualties only bring a heightened need for a DOD/VA electronic health 
record accord to permit a seamless transition from being in the 
military to being a civilian.
Full Funding for the Military Health Program
    The Alliance applauds the Subcommittee's role in providing adequate 
funding for the Defense Health Program (DHP) in the past several budget 
cycles. As the cost of healthcare has risen throughout the country, you 
have provided adequate increases to the DHP to keep pace with these 
increases.
    Full funding for the defense health program is a top priority for 
the NMVA. With the additional costs that have come with the deployments 
to Southwest Asia, Afghanistan and Iraq, we must all stay vigilant 
against future budgetary shortfalls that would damage the quality and 
availability of military healthcare. NMVA is confident that this 
subcommittee will continue to fund the DHP so that there will be no 
budget shortfalls.
    The National Military and Veterans Alliance urges the Subcommittee 
to continue to ensure full funding for the Defense Health Program 
including the full costs of all new programs.
TRICARE Pharmacy Programs
    NMVA supports the continued expansion of use of the TRICARE Mail 
Order pharmacy.
    To truly motivate beneficiaries to a shift from retail to mail 
order adjustments need to be made to both generic and brand name drugs 
co-payments. NMVA recommends that both generic and brand name mail 
order prescriptions be reduced to zero dollar co-payments to align with 
military clinics.
    Ideally, the NMVA would like to see the reduction in mail order co-
payments without an increase in co-payments for Retail Pharmacy.
    The National Military and Veterans Alliance urges the Subcommittee 
to adequately fund adjustments to co-payments in support of 
recommendations from Defense Authorizers.
TRICARE Standard Improvements
    TRICARE Standard grows in importance with every year that the 
global war on terrorism continues. A growing population of mobilized 
and demobilized Reservists depends upon TRICARE Standard. A growing 
number of younger retirees are more mobile than those of the past, and 
likely to live outside the TRICARE Prime network.
    An ongoing challenge for TRICARE Standard involves creating 
initiatives to convince healthcare providers to accept TRICARE Standard 
patients. Healthcare providers are dissatisfied with TRICARE 
reimbursement rates that are tied to Medicare reimbursement levels. The 
Alliance is pleased by Congress' plan to prevent near-term reductions 
in Medicare reimbursement rates, which will help the TRICARE Program.
    Yet this is not enough. TRICARE Standard is hobbled with a 
reputation and history of low and slow payments as well as what still 
seems like complicated procedures and administrative forms that make it 
harder and harder for beneficiaries to find healthcare providers that 
will accept TRICARE. Any improvements in the rates paid for Medicare/
TRICARE should be a great help in this area. Additionally, any further 
steps to simplify the administrative burdens and complications for 
healthcare providers for TRICARE beneficiaries hopefully will increase 
the number of available providers.
    The Alliance asks the Defense Subcommittee to include language 
encouraging continued increases in TRICARE/Medicare reimbursement 
rates.
TRICARE Retiree Dental Plan (TRDP)
    The focus of the TRICARE Retiree Dental Plan (TRDP) is to maintain 
the dental health of Uniformed Services retirees and their family 
members. With ever increasing premium costs, NMVA feels that the 
Department should assist retirees in maintaining their dental health by 
providing a government cost-share for the retiree dental plan. With 
many retirees and their families on a fixed income, an effort should be 
made to help ease the financial burden on this population and promote a 
seamless transition from the active duty dental plan to the retiree 
dental plan in cost structure. Additionally, we hope the Congress will 
enlarge the retiree dental plan to include retired beneficiaries who 
live overseas.
    The NMVA would appreciate this Committee's consideration of both 
proposals.
                 national guard and reserve healthcare
Mobilized Healthcare--Dental Readiness of Reservists
    The number one problem faced by Reservists being recalled has been 
dental readiness. A model for healthcare would be the TRICARE Dental 
Program, which offers subsidized dental coverage for Selected 
Reservists and self-insurance for SELRES families.
    In an ideal world, this would be universal dental coverage. 
However, reality is that the services are facing challenges. Premium 
increases to the individual Reservist have caused some junior members 
to forgo coverage. Dental readiness has dropped. The Military services 
are trying to determine how best to motivate their Reserve Component 
members but feel compromised by mandating a premium program if 
Reservists must pay a portion of it.
    Services have been authorized to provide dental treatment as well 
as examination, but have no funding to support this service. By the 
time many Guard and Reserve are mobilized, their schedule is so short 
fused that the processing dentists don't have time for extensive 
repair.
    The National Military Veterans Alliance supports funding for 
utilization of Guard and Reserve Dentists to examine and treat 
Guardsmen and Reservists who have substandard dental hygiene. The 
TRICARE Dental Program should be continued, because the Alliance 
believes it has pulled up overall Dental Readiness.
Demobilized Dental Care
    Under the revised transitional healthcare benefit plan, Guard and 
Reserve, who were ordered to active duty for more than 30 days in 
support of a contingency, have 180 days of transition healthcare 
following their period of active service, but similar coverage is not 
provided for dental restoration.
    Dental hygiene is not a priority on the battlefield, and many 
Reserve and Guard are being discharged with dental readiness levels 
much lower than when they were first recalled. At a minimum, DOD must 
restore the dental state to an acceptable level that would be ready for 
mobilization, or provide a subsidy for 180 days after demobilization to 
permit restoration from a civilian source. Current policy is a 30 day 
window with dental care being space available at a priority less than 
active duty families.
    NMVA asks the committee for funding to support a DOD's 
demobilization dental care program. Additional funds should be 
appropriated to cover the cost of TRICARE Dental premiums and co-
payments for the 6 months following demobilization if DOD is unable to 
do the restoration.
                     other guard and reserve issues
    Ensure adequate funding to equip Guard and Reserve at a level that 
allows them to carry out their mission. Do not turn these crucial 
assets over to the active duty force. In the same vein we ask that the 
Congress ensure adequate funding that allows a Guardsman/Reservist to 
complete 48 drills and 15 annual training days per member per year. DOD 
has been tempted to expend some of these funds on active duty support 
rather than personnel readiness.
    The NMVA strongly recommends that Reserve Program funding remain at 
sufficient levels to adequately train, equip and support the robust 
reserve force that has been so critical and successful during our 
Nation's recent major conflicts.
    While Defense Authorizers provided an early retirement benefit in 
fiscal year 2008, only those who have served in support of a 
contingency operation since January 28, 2008 are eligible, which is 
nearly 6 years and four months after Guard and Reserve members first 
were mobilized to support the active duty force in this conflict. Over 
725,000 Reservists, who have served during this period, were excluded 
from eligibility. The explanation given was lack of mandatory funding 
offset. To exclude a portion of our warriors is akin to offering the 
original GI Bill to those who served after 1944.
    NMVA hopes that this subcommittee can help identify excess funding 
that would permit an expanded early retirement benefit for those who 
have served.
                            military voting
    NMVA also feels that significant progress has been made in military 
voting rights in the past 2 years through passage of the MOVE Act of 
2009, and the new programs implemented by the Federal Voting Assistance 
Program. These new programs include such innovations as online tools to 
assist voters in filling out registration forms and back-up ballots, as 
well as the online ballot delivery tools developed by 17 States, with 
FVAP support, and fielded for the 2010 election. Recently, FVAP 
announced a $16 million grant program to expand those online voting 
support tools at the State and local level, all of which will be linked 
to the voter through the FVAP website portal.
    NMVA fully supports additional funding of DOD's Federal Voting 
Assistance Program for $35.107 million, and the budget PE Numbers are 
0901220SE and 0605803SE, Project 4.
                         reintegration programs
    As overseas contingency operations wind down, a temptation will be 
to reduce funds to yellow ribbon and other reintegration programs, but 
young men and women will continue to leave active duty, and members 
serving and the Guard and Reserve will likely continue to be called up 
to active duty. NMVA supports continued funding to Yellow Ribbon and 
TAP programs.
    These programs must be further examined to enhance the resilience 
training. Resilience survival training prepares one to better adapt to 
life's misfortunes and setbacks. While programs are in place to focus 
on suicide, there are other challenges to be faced such as unemployment 
and military divorce that need to be addressed, including seminars to 
better understand the current laws.
                     armed forces retirement homes
    Dormitories and buildings at the AFRH--Washington, DC campus 
continue to need refurbishing. While the AFRJ--Gulfport facility has 
reopened, the Navy/Marine Corps residents continue to need funding for 
the finishing touches of the site.
    NMVA urges this subcommittee to continue funding upgrades at the 
Washington, DC facility and improvements at the Gulfport facility.
                               conclusion
    Mr. Chairman and distinguished members of the Subcommittee, the 
Alliance again wishes to emphasize that we are grateful for and 
delighted with the large steps forward that the Congress has affected 
the last few years. We are aware of the continuing concern all of the 
subcommittee's members have shown for the health and welfare of our 
service personnel and their families. Therefore, we hope that this 
subcommittee can further advance these suggestions in this committee or 
in other positions that the members hold. We are very grateful for the 
opportunity to submit these issues of crucial concern to our collective 
memberships. Thank you.

    Chairman Inouye. Thank you very much, Captain Smith.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.
    Let me again reiterate our appreciation for the 
participation of those of you who have served in the military 
and through your experience have direct knowledge of a lot of 
these issues that we are now confronting. The information that 
you're providing and the suggestions are deeply appreciated. 
Thank you.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. I thank Captain Smith and the whole panel. 
I was looking at your membership. You represent the umbrella of 
all these groups, so you do it well.
    So thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    I'd like to thank the panel. Now the next panel: Captain 
Ike Puzon, U.S. Navy retired, Associations for America's 
Defense; Dr. Donald Jenkins, National Trauma Institute; Rear 
Admiral Casey Coane, U.S. Navy retired, Association for the 
U.S. Navy; Ms. Karen Goraleski, American Society of Tropical 
Medicine and Hygiene.
    May I call on Captain Puzon.
STATEMENT OF CAPTAIN IKE PUZON, UNITED STATES NAVY 
            (RETIRED), ON BEHALF OF THE ASSOCIATIONS 
            FOR AMERICA'S DEFENSE
    Captain Puzon. Mr. Chairman, Senator Cochran, Senator 
Shelby: The Associations for America's Defense is very grateful 
to testify today. We would like to thank the subcommittee for 
your stewardship on the defense issues and setting an example 
through your nonpartisan leadership.
    The Associations for America's Defense is concerned that 
U.S. defense policy is sacrificing security due to budget 
pressures and readiness. Most concerning is the vigorous 
pursuit to cut existing programs. Chairman of the Joint Chiefs 
of Staff Admiral Mike Mullen in his testimony before the Senate 
Armed Services Committee in February recognized that: ``In the 
back end of previous conflicts, we were able to contract our 
equipment inventory by shedding our oldest capital assets, 
reducing the average age of our systems. We cannot do this 
today because of the high pace and duration of combat 
operations. We must actually recapitalize our systems to 
restore our readiness and avoid becoming a hollow force.''
    A4AD is in agreement, and in addition we are alarmed that 
the fiscal year 2012 unfunded program list submitted by the 
military services was not made publicly available and that the 
Army do not even have such a list this year. Moreover, the past 
2 years we saw significant reductions in the unfunded lists 
submitted, leading to a speculation that military services are 
no longer permitted to produce their full unfunded needs.
    Additionally, the results of such budgetary policy could 
again lead to a hollow force whose readiness and effectiveness 
has been subtly degraded and lessened efficiency will not be 
immediately evident.
    We support increasing defense spending to 5 percent of the 
gross domestic production during times of war to cover 
procurement and prevent unnecessary personnel end strength 
cuts. As always, our military will do everything possible to 
accomplish its missions, but response time is measured by 
equipment readiness and availability.
    Defense Secretary Robert Gates has warned against hollowing 
out the force from a lack of proper training, lack of proper 
maintenance and equipment and manpower. Also, U.S. Joint Forces 
Command General Ray Odierno said recently: ``We must avoid the 
trap of doing more with less, which is a recipe for creating a 
hollow force.'' He further qualified this by asking: ``What are 
we going to stop doing?''
    Ominously, both the 30-year shipbuilding and aviation plans 
are at risk of achieving their goals. The Navy's plan to build 
a 313-ship fleet doesn't match reality, in which funding is 
highly unlikely to meet this goal. In addition, there are plans 
to extend the service life of already 40-year-old ships another 
28 years. For the aviation plan, the original assumption 
forecasted a 3 percent average annual growth for aviation 
programs over the next decade. But now there are predicted a 
zero-growth aviation budget for 2017.
    As these plans are not bearing the fruit that was 
originally projected, it is imperative that until the new 
systems are acquired in sufficient quantities to replace legacy 
fleets, legacy systems must be sustained and kept operational.
    As the military continues to become more expeditionary, 
more airlifts are needed, such as C-17s, C-130Js, and C-40s. 
They will be required. Yet DOD has decided to shut down 
production of C-17. Procurement needs to be accelerated, 
modernized, and mobility requirements need to be acknowledged. 
We ask this subcommittee to continue to provide appropriations 
for unfunded National Guard and Reserve equipment requirements.
    Of great concern is the potential to revert the Reserve 
component back to a strategic reserve. Our national security 
demands both an operational and strategic reserve. We urge the 
subcommittee to study the comprehensive review of the future 
role of Reserve components, which calls for reserve equipment.
    We genuinely appreciate the support of the subcommittee, 
particularly at the time when there is growing pressure on the 
congressional members promoting further cuts. Thank you again. 
I look forward to your questions.
    [The statement follows:]
                Prepared Statement of Captain Ike Puzon
                   associations for america's defense
    Founded in January 2002, the Association for America's Defense 
(A4AD) is an adhoc group of Military and Veteran Associations that have 
concerns about National Security issues that are not normally addressed 
by The Military Coalition (TMC) and the National Military Veterans 
Alliance (NMVA), but participants are members from each. Members have 
developed expertise in the various branches of the Armed Forces and 
provide input on force policy and structure. Among the issues that are 
addressed are equipment, end strength, force structure, and defense 
policy. A4AD, also, cooperatively works with other associations, who 
provide input while not including their association name to the 
membership roster.
                       participating associations
American Military Society
Army and Navy Union
Association of the U.S. Navy
Enlisted Assoc. of the National Guard of the U.S.
Hispanic War Veterans of America
Marine Corps Reserve Association
Military Order of World Wars
National Assoc. for Uniformed Services
Naval Enlisted Reserve Association
Reserve Enlisted Association
Reserve Officers Association
The Flag and General Officers' Network
The Retired Enlisted Association
                              introduction
    Mister Chairman and distinguished members of the committee, the 
Associations for America's Defense (A4AD) is again very grateful for 
the invitation to testify before you about our views and suggestions 
concerning current and future issues facing the defense appropriations.
    The Association for America's Defense is an adhoc group of 13 
military and veteran associations that have concerns about national 
security issues. Collectively, we represent armed forces members and 
their families, who are serving our Nation, or who have done so in the 
past.
              current versus future: issues facing defense
    The Associations for America's Defense would like to thank this 
subcommittee for the ongoing stewardship that it has demonstrated on 
issues of defense. While in a time of war, this subcommittee's pro-
defense and non-partisan leadership continues to set an example.
Force Structure: Erosion in Capability
    The 2010 Quadrennial Defense Review's (QDR) objectives include: 
further rebalance the Armed Force's capabilities to prevail in today's 
wars while building needed capabilities to deal with future threats; 
and reform Department of Defense's (DOD) institutions and processes to 
better support warfighters' urgent needs; purchase weapons that are 
usable, affordable, and needed; and ensure that taxpayer dollars are 
spent wisely and responsibly. The new QDR calls for DOD to continually 
evolve and adapt in response to the changing security environment.
    Retiring Secretary of Defense Robert Gates said that, ``It is 
vitally important to protect the military modernization accounts,'' and 
to, ``push ahead with new capabilities, from an air refueling tanker 
fleet to ballistic missile submarines.'' Additionally when referring to 
paying America's budget by defense Gates also stated that, ``If you cut 
the defense budget by 10 percent, which would be catastrophic in terms 
of force structure, that's $55 billion out of a $1.4 trillion 
deficit,'' further saying, ``We are not the problem.''
    The Chairman of the Joint Chiefs of Staff Admiral Mike Mullen well-
known for his saying that the ``national debt is the greatest threat to 
national security,'' in his testimony before the Senate Armed Services 
Committee in February 2011 also recognized the following regarding 
equipment:
    In the ``back end'' of previous conflicts, we were able to contract 
our equipment inventory by shedding our oldest capital assets, reducing 
the average age of our systems. We cannot do this today, because the 
high pace and durations of combat operations have consumed the 
equipment of all our Services much faster than our peacetime programs 
can recapitalize them. We must actually recapitalize our systems to 
restore our readiness and avoid becoming a hollow force.
Hollow Force
    A4AD strongly disagrees with placing budgetary constraints on 
defense especially in light of the fact that many have recommended 
cutting defense in order to pay off debt despite it only being 20 
percent of the overall budget. Member associations also question the 
current administration's spending priorities which place more 
importance on the immediate future rather than a short and long term 
approach. The result of such a budgetary policy again lead to a hollow 
force whose readiness and effectiveness has been subtly degraded and 
lessened efficiency will not be evident immediately. This process, 
echoing the past, raises no red flags and sounds no alarms, and the 
damage can go unnoticed and unremedied until a crisis arises 
highlighting readiness decay.
    Even Secretary Gates has ominously warned against ``. . . hollowing 
out of the force from a lack of proper training, maintenance and 
equipment--and manpower.'' But he's not the only one, the commander of 
U.S. Joint Forces Command General Raymond Odierno also has said 
recently, ``We must avoid the trap of doing more with less, which is a 
recipe for creating a hollow force,'' and further qualified this by 
asking, ``what are we going to stop doing?''
Emergent Risks
    Members of this group are concerned that U.S. defense policy is 
sacrificing future security for near term readiness. Our efforts are so 
focused to provide security and stabilization and then withdrawal in 
Afghanistan and Iraq. While risk is being accepted as an element of 
future force planning, current planning is driven by current overseas 
contingency operations, and progressively more on budget limitations.
    What seems to be overlooked is that the United States is involved 
in a Cold War in S.E. Asia as well as a Hot War with two theaters in 
S.W. Asia. Security issues in North Africa, the Middle East, North 
Korea, China, Iran, and Russia add to the growing areas of risk.
Arab Awakening
    The Middle East is in the midst of great turmoil in which multiple 
countries have and continue to see uprisings, there's a widening gap 
between Christians and Muslims in Egypt, Syria has seen numerous 
civilian deaths, Israel is increasingly defensive, Yemen edges closely 
to civil war, more attacks are surfacing in Iraq, Libya remains in a 
stalemate, in addition to other problems.
    It is concerning that while in the thick of continuing protests and 
instability numerous western nations are pledging significant funding 
for alleged ``Arab countries in transition to democracy''. The United 
States' best interest is to ensure that there is reliable leadership in 
Arab states, civil relations toward Israel, and reduced violence 
against civilians. Also any assistance given must be targeted to 
support the U.S. National Security Strategy and have detailed goals 
attached.
Korean Peninsula
    North Korea has 1.2 million active and 7.7 million reserve forces 
while South Korea had 653,000 active and 3.2 million reserve soldiers 
in 2010, and there are 28,500 U.S. troops stationed to the South. While 
not an immediate danger to the United States, North Korea is viewed as 
an increased threat to its neighbors, and is potentially a 
destabilizing factor in Asia. North Korea may be posturing, but it is 
still a failed state, where misinterpretation clouded by hubris could 
start a war.
    Recently South Korea has admitted that it has held secret 
discussions with North Korea in May, yet North Korea utilized the 
opportunity to embarrass the South. Some analysts actually believe that 
the two nations may be entering into a new dangerous phase. This is 
further emphasized by the cool relations of the past year in which 
North Korea committed attacks against South Korea on Yeonpyeong Island 
and the sinking of the navy vessel ROKS Cheonan, which resulted in 50 
deaths. In fact South Korea intends to increase its defense budget by 
nearly 5.8 percent in 2011, which is partially in response to these 
attacks.
China
    China has worked very hard to create a facade to the world to 
conceal its true strengths and weaknesses. According to Chief of Naval 
Operations Admiral Gary Roughead, at a SAC-D hearing, ``The Chinese 
Navy is the fastest-growing in the world today.''
    Of great concern is China's defense budget which `officially' will 
increase 12.7 percent, 600 billion Yuan or roughly $91 billion, for 
2011. Some of the increase will go toward the strategic nuclear force, 
the strategic missile unit, and the Navy. But this is not the whole 
budget and in fact it doesn't include the cost for procuring or 
building new weapons which could almost double the defense budget. 
What's more experts across the board estimate that China's actually 
spends far more than is reported, ranging from over $150 billion as DOD 
reported in 2010 (up to 250 percent higher than figures reported by the 
Chinese government ) to as much as $400 billion as estimated by 
GlobalSecurity.org based on ``a more appropriate purchasing power 
parity (PPP) basis''.
    In addition their cost of materials and labor is much lower. 
China's GDP climbed to 9.6 percent while the United States is at 2.6 
percent as of the third quarter for 2010. According to the CIA World 
Fact Book ``because China's exchange rate is determine by fiat, rather 
than by market forces, the official exchange rate measure of GDP is not 
an accurate measure of China's output; GDP at the official exchange 
rate substantially understates the actual level of China's output vis-
a-vis the rest of the world; in China's situation, GDP at purchasing 
power parity provides the best measure for comparing output across 
countries.''
    China's build-up of sea and air military power appears aimed at the 
United States, according to Admiral Michael Mullen. Furthermore China 
is reluctant to support international efforts in reproaching North 
Korea. China has stated that it will field its advanced new J-20 
stealth fighter in 2017-19.
    Furthermore there is also the aggressive behavior. Recently the 
Philippines deployed two warplanes when a ship searching for oil 
complained of being harassed by two Chinese patrol boats in the South 
China Sea, Japan deployed F-15 fighter jets when Chinese surveillance 
and anti-submarine aircraft flew near the East China Sea disputed 
islands, and at all times China pursues overtaking Taiwan. China also 
associates with adversarial nations, specifically Iran and Venezuela 
who both openly antagonize the United States.
Iran
    While Iran lobs petulant rhetoric toward the United States, the 
real international tension is between Israel and Iran, and Iran's 
handiwork in various Middle Eastern uprisings such as Bahrain which is 
already considered to be an Iranian quasi-satellite state.
    Israel views Tehran's atomic work as a threat, and would consider 
military action against Iran as it has threatened to ``eliminate 
Israel.'' Israeli leadership has warned Iran that any attack on Israel 
would result in the ``destruction of the Iranian nation.'' Israel is 
believed to have between 75 to 200 nuclear warheads with a megaton 
capacity.
    Two Iranian warships passed through the Suez Canal upon receiving 
approval from Egypt, which Israel called a provocation. Iran has also 
sent a submarine into the Red Sea.
Russia
    While the Obama Administration has been working on a ``reset'' 
policy toward Russia, including a new START treaty, there are areas of 
concern. A distressing issue is their ongoing relationship with Iran. 
Additionally Russia sells arms to countries like Syria and Venezuela.
    Prime Minister Vladimir Putin stated recently, ``Despite the 
difficult environment in which we are today, we still found a way to 
not only maintain but also increase the total amount of state defense 
order.'' Russia's defense budget rose by 34 percent in 2009, as 
reported by the International Institute of Strategic Study, and has 
plans for incremental defense spending increases starting 2011 with a 
$19.2 billion, $24.3 billion in 2012, and then $38.8 billion in 2013.
Funding for the Future
    Since Secretary Gates initiated the practice of reviewing all the 
services' unfunded requirements lists prior to testifying before 
Congress the unfunded lists have shown a dramatic reduction from $33.3 
billion for fiscal year 2008 and $31 billion for fiscal year 2009 to 
$3.8 billion for fiscal year 2010 and $2.6 billion for fiscal year 
2011.
    Secretary Gates instituted a plan to save $100 billion over 5 
years. Two-thirds of the savings are supposed to come from decreasing 
overhead and one-third from cuts in weapons systems and force 
structure. For the 2012 budget, the military services and defense 
agencies have been asked to find $7 billion in savings. In addition 
President Obama has ordered $400 billion in national security spending 
cuts over 10 years as the administration identifies ways to reduce the 
Federal deficit. These impending cuts are in addition to weapon systems 
cuts from the past couple years amounting to more than $330 billion.
    Secretary Gates stated, ``. . . sustaining the current force 
structure and making needed investments in modernization will require 
annual real growth of 2 (percent) to 3 percent, which is 1 (percent) to 
2 percent above current top line budget projections,'' in a briefing at 
DOD in Aug. 2010.
Defense as a Factor of GDP
    Secretary Gates has warned that that each defense budget decision 
is ``zero sum,'' providing money for one program will take money away 
from another. A4AD encourages the Appropriations Subcommittee on 
Defense to scrutinize the recommended spending amount for defense. Each 
member association supports defense spending at 5 percent of Gross 
Domestic Product during times of war to cover procurement and prevent 
unnecessary end strength cuts.
A Changing Manpower Structure
    The 2010 QDR reduces the number of active Army brigade combat teams 
to 45 and Air Force tactical fighter wings to 17, while maintaining the 
202,100 Marine Corps active manpower level. The Navy's fiscal year 2011 
budget keeps the goal of a 313 ship battle fleet, but its 30 year 
shipbuilding plan includes 276 ship, thus not reaching the goal. As a 
result of these planned cuts, the Heritage Foundation projects there 
will be a 5 percent decrease in manpower over the next 5 years.
    A4AD supports a moratorium on further cuts including the National 
Guard and Title 10 Reserve. We further suggest that a Zero Based Review 
(ZBR) be performed to evaluate the current manning requirements. 
Additionally, as the active force is cut, these manpower and equipment 
assets should be transferred into the Reserve Components.
Maintaining a Surge Capability
    The Armed Forces need to provide critical surge capacity for 
homeland security, domestic and expeditionary support to national 
security and defense, and response to domestic disasters, both natural 
and man-made that goes beyond operational forces. A strategic surge 
construct includes manpower, airlift and air refueling, sealift 
inventory, logistics, and communications to provide a surge-to-demand 
operation. This requires funding for training, equipping and 
maintenance of a mission-ready strategic reserve composed of active and 
reserve units.
Dependence on Foreign Partnership
    Part of the U.S. military strategy is to rely on long-term 
alliances to augment U.S. forces. As stated in a DOD progress report, 
``Our strategy emphasizes the capacities of a broad spectrum of 
partners . . .. We must also seek to strengthen the resiliency of the 
international system . . . helping others to police themselves and 
their regions.'' The fiscal year 2012 budget request included $500 
million for fiscal year 2012, which helps build capabilities of key 
partners. Yet many allies are cutting their forces.
    The risk of basing a national security policy on foreign interests 
and good world citizenship is increasingly uncertain because their 
national objectives can differ from our own. Alliances should be viewed 
as a tool and a force multiplier, but not the foundation of National 
Security.
Seapower Dominance
    The United States, as a maritime Nation, is on the cusp of losing 
it dominance at sea. The U.S. Navy has been incrementally depreciating 
through reductions and ever-more aging assets. Now, there are plans to 
extend the service life of already 40-year old ships another 28 years 
through 2039. While service life extension programs may cost effective 
in the short term, continual repairs and downgraded readiness will 
prove to be more expensive than replacing an asset in the long term.
    The cost will not just be defense based, but will impact the 
national and world economy. The United States has maintained its 
presence and strength throughout the world, attributing greatly to 
reducing aggressive behavior such as dealing with piracy, regional 
disorder, drug trade, human trafficking and much more. According to 
MacKenzie Eaglen of Heritage Foundation, ``The U.S. Navy's global 
presence has added immeasurably to U.S. economic vitality and to the 
economies of America's friends and allies, not to mention those of its 
enemies.''
    A4AD is particularly concerned that the Navy is no longer as of 
2011 required to submit a full plan each year to Congress, but rather 
ties it to the QDR which is only updated once every 4 years, causing 
the Navy to be slow to respond to changing threats. Once the U.S. 
seapower capability is lost, it will be extremely difficult to regain a 
dominant position in the world seas.
                         unfunded requirements
    The Unfunded Program Lists submitted by the military services to 
Congress have been reduced significantly since fiscal year 2009 and 
A4AD has concerns that these requests continue to be driven more by 
budgetary factors than risk assessment. Of particular concern is the 
Army who officially has no unfunded requirements, in spite of the fact 
that its equipment has been the most highly utilized in overseas 
contingency operations in Iraq and Afghanistan, leading to high wear 
and tear. A4AD is distressed that by limiting the unfunded lists, 
Congress is unable to make informed decisions on appropriating for 
defense.
Aviation Plans
    Although the first long-term aviation plan was submitted to 
Congress in fiscal year 2011 forecasting a 3 percent average annual 
real growth for aviation programs over the next decade, in the fiscal 
year 2012 report investment assumptions changed and now predict a zero 
real growth aviation budget after 2017. Regrettably the aviation plan 
did not consider rotary wing, tilt-rotor, or trainer aircraft.
Tactical Aircraft
    The Air Force has accelerated a plan to retire 250 fighter jets 
including 112 F-15s and 134 F-16s. Also the Air Force plans to ground 
18 F-16s in the USANG due to the fiscal year 2012 presidential budget 
request that didn't include funding for three F-16s for six States 
each.
    The Air Force-Navy-Marine Corps fighter inventory will decline 
steadily from 3,264 airframes in fiscal year 2011 to 2,883 in fiscal 
year 2018, at which point the air fleet is supposed to have a slow 
increase.
    Until new systems are acquired in sufficient quantities to replace 
legacy fleets, legacy systems must be sustained and kept operationally 
relevant. The risk of the older aircraft and their crews and support 
personnel being eliminated before the new aircraft are on line could 
result in a significant security shortfall.
Airlift
    Hundreds of thousands of hours have been flown, and millions of 
passengers and tons of cargo have been airlifted. Air Force and Naval 
airframes and air crews are being stressed by these lift missions. As 
the military continues to be more expeditionary it will require more 
airlift. Procurement needs to be accelerated and modernized, and 
mobility requirements need to be reported upon.
    While DOD has decided to shut down production of C-17s, existing C-
17s are being worn out at a higher rate than anticipated. Congress 
should independently examine actual airlift needs, and plan for C-17 
modernization, a possible follow-on procurement. Furthermore shutting 
down production of C-17s or any equipment causes great difficulty for 
reopening such lines and will cause unnecessary delays in the future.
    The Navy and Marine Corps need C-40A replacements for the C-9B 
aircraft; only nine C-40s have been ordered since 1997 to replace 29 C-
9Bs. The Navy requires Navy Unique Fleet Essential Airlift. The C-40A, 
a derivative of the 737-700C a Federal Aviation Administration (FAA) 
certified, while the aging C-9 fleet is not compliant with either 
future global navigation requirements or noise abatement standards that 
restrict flights into European airfields.
NGREA
    A4AD asks this committee to continue to provide appropriations for 
unfunded National Guard and Reserve Equipment Requirements. The 
National Guard's goal is to make at least half of Army and Air assets 
(personnel and equipment) available to the Governors and Adjutants 
General at any given time. To appropriate funds to Guard and Reserve 
equipment provides Reserve Chiefs with a flexibility of prioritizing 
funding.

                     UNFUNDED EQUIPMENT REQUIREMENTS
  [The services and lists are not in priority order. Amounts are total
  cost, not individual. If item is preceded by a number in parentheses
                      that is the quantity needed.]
------------------------------------------------------------------------
                                                             Amount
------------------------------------------------------------------------
Air Force Active:
    F-35 Joint Strike Fighter.........................           Unknown
    Aircraft Training Simulators......................           Unknown
    F-16 SLEP.........................................           Unknown
Air Force Reserve (USAFR):
    C-130--requirement of LAIRCOM and SLOS/BLOS            $73.3 million
     capability.......................................
    A-10/F-16--requirement of Day/Night Helmet Mounted      $9.8 million
     Integrated Targeting (HMIT) (PA, SP).............
    ACS--requirement of Grissom R-12 Refuelers........      $0.9 million
    HC-130--requirement of Integrated EW suite (ALQ-          $6 million
     213) with VECTS..................................
    C-130--requirement of SAFIRE Look Out Capability       $19.3 million
     and MASS Spray System............................
Air Force Reserve (USAFR) Submitted MILCON
 Requirements:
    Airfield Control Tower/Base Ops, March, CA........    $16.39 million
    RED HORSE Readiness and Training Facility,            $9.593 million
     Charleston, SC...................................
    Unspecified Minor Construction--Reserve, Various      $5.434 million
     Locations........................................
    Planning and Design--Reserve, Various Locations...      $2.2 million
Air Force Reserve (USAFR) Significant Major Item
 Shortages Submitted:
    (21) C-130 Large Aircraft Infrared Countermeasures       $63 million
     (LAIRCOM)........................................
    (55) C-130 SLOS/BLOS Capability...................     $20.7 million
    (148) A-10/F-16 Mounted Cueing System (HMCS)......      $4.3 million
    (4) Grissom R-12 Refuelers........................      $0.9 million
    (5) HC-130 Integrated EW suite (ALQ-213) with             $3 million
     VECTS............................................
Air National Guard (USANG):
    F-15 AESA--Continues to be a high priority for               Unknown
     adds because it is too expensive to spend NGREA
     on. Some could be a purchased if NGREA is
     significantly increased..........................
    A-10 and F-16 HMIT................................           Unknown
    KC-135 IRCM.......................................           Unknown
    C-130 IRCM........................................           Unknown
    Guardian Angel (GA) Recovery Vehicles. This is               Unknown
     also called ``PJ recovery vehicles'', but GA is
     the weapon system encompassing PJs, Special
     Tactics Squadrons, and Combat Controllers and
     they all need recovery vehicles..................
Air National Guard (USANG) Significant Major Item
 Shortages Submitted:
    (322) A-10/F-16 Helmet Mounted Integrated             $38.64 million
     Targeting System.................................
    (77) Large Aircraft Infrared Countermeasures          $431.2 million
     (LAIRCOM) (C-140, C-17, C-5).....................
    (68,272) Security Force Mobility Bag Upgrades,        $86.15 million
     Personal Protective Equipment (PPE), and Wea-
     pons.............................................
    C-130 Loadmaster Lookout Windows and Crashworthy        $164 million
     Loadmaster Seats.................................
    (30) F-15 Active Electronically Scanned Array         $261.6 million
     (AESA) Radar.....................................
Army Active:
    Ground Combat Vehicle.............................           Unknown
    Mobile, Secure Wireless Network--Brigade Combat              Unknown
     Team Modernization (BCTM)........................
    HMWWV Modernization...............................           Unknown
    CH-47 Chinook Helicopter..........................           Unknown
    AH-64 Apache Longbow Block III upgrade............           Unknown
Army National Guard (USARNG) Significant Major Item
 Shortages Submitted:
    (30,442) Command Posts--Tactical Operations Center    $1.166 million
     (TOC) & Standardized Integrated Command Post
     System (SICPS)...................................
    (5,428) Family of Medium Tactical Wheeled Vehicles    $1.519 million
    (11) Shadow Tactical Unmanned Aircraft Systems....      $297 million
    (3,614) General Engineering Equipment--for            $366.7 million
     homeland response missions.......................
    (290) Chemical/Biological protective Shelter......    $208.8 million
Army National Guard (USARNG) Top Equipment MOD and
 Capability Shortfall List:
    Army Battle Command System (ABCS).................           Unknown
    Air & Missile Defense Systems (Avenger                       Unknown
     Modernization)...................................
    ATLAS (All Terrain Lifter-Army System I and II)...           Unknown
    Aviation Ground Support Equipment.................           Unknown
    Aviation Systems (CH-47F, UH60 A-A-L Mod, UH-60M,            Unknown
     AH64 MOD, LUH-72 MEP)............................
Army Reserve (USAR) Significant Major Item Shortages
 Submitted:
    (34) Command Post System and Integration (SICPS)..      $6.8 million
    (4,860) Medium Tactical Vehicles..................    $1.701 billion
    (63) HMMWV Ambulance..............................    $25.01 million
    (4,541) Light Medium Tactical Truck Cargo.........    $1.589 billion
    (98) Heavy Scraper--for Horizontal Construction       $30.58 million
     mission..........................................
Marine Corps Reserve (USMCR) Significant Major Item
 Shortages Submitted:
    (5) Light Armored Vehicle (LAV), 25 mm (LAV-25A2).       $16 million
    (5) LAV, Maint/Recovery (LAV-R)...................       $11 million
    (15) LAV, Logistics (LAV-L).......................       $30 million
    (3) LAV, Mortar (LAV-M)...........................      $7.5 million
    (14) LAV, Anti-tank (LAV-AT)......................     $44.8 million
Navy and Marine Corps Active \1\:
    F-35 Joint Strike Fighter.........................           Unknown
    Attack Submarines.................................           Unknown
    LPD-17............................................           Unknown
Navy Reserve (USNR) Significant Major Item Shortages
 Submitted:
    (5) C-40A.........................................    $408.5 million
    Naval Construction Force (NCF) Tactical Vehicles         $38 million
     and Support Equipment Table of Allowances (TOA)..
    Navy Expeditionary Logistics Support Group               $75 million
     (NAVELSG) TOA Equipment..........................
    Explosive Ordnance Disposal (EOD) TOA Equipment...    $58.89 million
    Maritime Expeditionary Security Force (MESF) TOA        $119 million
     Equipment........................................
------------------------------------------------------------------------
\1\ The Navy's fleet is the smallest it has been in almost 100 years.
  While the service has made plans to expand in the coming years; to 324
  ships by 2021; funding doesn't support this growth. Shipbuilding costs
  continue on an exponential path and at the same time domestic
  shipbuilding yards are beginning to close, putting a larger fleet at
  risk; the ship building budget needs to be increased.

Reserve Components (RCs)
    According to the National Guard and Reserve Equipment Report 
(NGRER) for fiscal year 2012 the aggregate equipment shortage for all 
of the RCs is about $54.2 billion as compared to $45 billion from last 
year. Common challenges for the RCs are ensuring that equipment is 
available for pre-mobilization training, transparency of equipment 
procurement and distribution, and maintenance.
                               conclusion
    A4AD is a working group of military and veteran associations 
looking beyond personnel issues to the broader issues of National 
Defense. This testimony is an overview, and expanded data on 
information within this document can be provided upon request.
    Thank you for your ongoing support of the Nation, the Armed 
Services, and the fine young men and women who defend our country. 
Please contact us with any questions.

    Chairman Inouye. Thank you very much, Captain Puzon.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, I want to join you in 
welcoming and thanking this panel of witnesses for being here 
today. We have a copy of the testimony and background 
information that our staff has provided us. It's a shame that 
we have such a pressurized situation that we're facing here 
with many commitments all during the same day and at the same 
time we're supposed to be here. I was just looking at my 
schedule to see where I was supposed to be right about now and 
it was somewhere else.
    But that's something that you shouldn't have to suffer 
from, and that's why I wanted to simply say, because we are not 
spending 2 or 3 hours, which we probably ought to do, with this 
one panel because of the pressure of so many other activities 
and issues, we are forced to make decisions that are 
troublesome to us.
    So, having said that, I'm going to yield to my good friend 
from Alabama for specific questions that he may have of this 
witness. But thank you very much for taking time to provide us 
with your testimony.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.
    Thank you for your testimony and also your complete written 
testimony. I think one of your strong statements is in the 
record. You say members of this group--that's your group--``are 
concerned that the U.S. defense policy is sacrificing future 
security for near-term readiness.'' That is a concern of all of 
us. We've got to balance that, because if we have near-term 
readiness where are we going to be in 10 years, 5 years, 
because we've been on the cutting edge a long time, and it's 
served us well and we cannot give this up.
    The other point that you make in your written testimony, 
the Chinese navy is the fastest growing navy in the world 
today. I think we realize this on this Defense Appropriation 
Committee, and we've got to consider today, but we've also got 
to consider tomorrow, because if we're not prepared for 
tomorrow, as you pointed out, we've not served our country 
well, have we?
    Captain Puzon. That's correct, sir. Thank you.
    Senator Shelby. Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Dr. Jenkins.
STATEMENT OF DONALD H. JENKINS, M.D., VICE CHAIRMAN, 
            NATIONAL TRAUMA INSTITUTE
    Dr. Jenkins. Mr. Chairman, Vice Chairman Cochran, Senator 
Shelby: Thank you for the opportunity to testify today on 
behalf of the National Trauma Institute, or NTI, to urge the 
subcommittee to invest a greater amount of Department of 
Defense medical research funds in the primary conditions which 
kill our soldiers.
    According to military medical officials, non-compressible 
hemorrhage is the leading cause of death among combatants whose 
deaths are considered potentially survivable. NTI believes an 
accelerated program of research into non-compressible 
hemorrhage will result in the first truly novel advances in 
treating this difficult problem, will save the lives of 
soldiers wounded in combat, and will have a tremendous impact 
on civilian casualties and costs as well.
    I'm currently the Chief of Trauma for the Mayo Clinic and 
serve on the Defense Health Board. Prior to retiring from the 
United States Air Force, I was Chairman of General Surgery and 
Chief of Trauma at Wilford Hall Air Force Medical Center, the 
Air Force flagship medical facility. I'm here today in my 
capacity as Vice Chairman of the nonprofit National Trauma 
Institute, which was formed in 2006 by leaders of America's 
trauma organizations in response to frustration over lack of 
trauma research funding.
    NTI advocates for trauma research and is a national 
coordinating center for trauma research and funding. Military 
officials estimate that 19 percent of combat deaths are 
potentially survivable. To put that in context of our current 
war operations, 1,100 warriors wounded in the current wars 
might have survived, but didn't because treatment strategies 
were lacking.
    Over 84 percent of those deaths were due to hemorrhage and 
about 600 potentially survivable deaths resulted from 
hemorrhage in regions of the body, such as the neck, chest, 
abdomen, groin, and back, that couldn't be treated by 
tourniquets or compression. New tourniquets and hemostatic 
bandages have had major impact on the decline in trauma combat 
deaths due to extremity hemorrhage, but compression is rarely 
effective for penetrating wounds to the torso, where major 
vessels can be damaged, resulting in massive hemorrhage. At 
present such wounds are normally only treatable through surgery 
and typically such patients do not survive to reach the 
operating table.
    Current combat casualty care guidelines for medics do not 
include strategies to stop bleeding from non-compressible 
hemorrhage, because there are none. There is not even a method 
to detect whether a soldier is bleeding internally or how much 
blood has been lost. It should be a priority to develop simple, 
rapid, and field-expedient techniques which can be used by 
medics on the battlefield or first responders in the civilian 
setting to detect and treat non-compressible hemorrhage.
    Turning to that civilian context, trauma is responsible for 
over 60 percent of deaths of Americans under the age of 44. 
That's more than all other causes of death combined in that age 
group. It's responsible for the deaths of nearly 180,000 
Americans and nearly 30 million injuries every year. And it's 
the second most expensive public health problem facing the 
United States. Hemorrhage is responsible for nearly 40 percent 
of deaths following traumatic injury in the civilian setting.
    Advances in research can be applied to both military and 
civilian casualties. It has been proven repeatedly that medical 
research saves lives. In 1950 a diagnosis of leukemia was a 
death sentence. Research led to chemotherapy and treatments 
such as bone marrow transplant, such that today 90 percent of 
those patients survive. Imagine even a 5 percent decrease in 
trauma-related death, injury, and economic burden. That would 
save the United States $35 billion a year, prevent 1.5 million 
injuries, and save nearly 9,000 American lives every year.
    NTI recommends the subcommittee fund research into the 
major cause of preventable death of our military and set aside 
at least $15 million for peer-reviewed research into non-
compressible hemorrhage for the fiscal year 2012 DOD 
appropriations bill.
    Mr. Chairman, Senator Cochran, Senator Shelby, thank you 
for the opportunity to present the views of the National Trauma 
Institute.
    [The statement follows:]
              Prepared Statement of Dr. Donald H. Jenkins
    Mr. Chairman, Vice Chairman Cochran and Members of the 
Subcommittee: Thank you for the opportunity to testify today to urge 
the subcommittee to invest a greater amount of DOD medical research 
funds in the primary conditions which kill our soldiers. According to 
military medical officials, non-compressible hemorrhage is the leading 
cause of death among combatants whose deaths are considered 
``potentially survivable.'' The National Trauma Institute (NTI) 
believes an accelerated program of research into non-compressible 
hemorrhage will result in the first truly novel advances in treating 
this difficult problem, will save the lives of soldiers wounded in 
combat, and will have tremendous impact on civilian casualties and 
costs.
    I am currently the Chief of Trauma for the Mayo Clinic and serve on 
the Defense Health Board. Prior to retiring from the Air Force in 2008, 
I was Director of the Joint Theater Trauma System, Chair of General 
Surgery and Chief of Trauma Services at Wilford Hall Medical Center, 
the Air Force's flagship medical facility. During my Air Force career, 
I also served as principal advisor to the Air Force Surgeon General on 
all surgery and trauma-related issues for first-strike deployable 
teams.
    I am here today in my capacity as vice chairman of the nonprofit 
National Trauma Institute which was formed in 2006 by leaders of 
America's trauma organizations in response to frustration over lack of 
funding of trauma research. With the support and participation of the 
national trauma community, NTI advocates and manages funding for trauma 
research and is a national coordinating center for trauma research 
funding. Since September 2009, NTI has issued two national calls for 
proposals and has received a total of 177 pre-proposals from 32 States 
and the District of Columbia. After rigorous peer-review, the 
organization awarded $3.9 million to 16 proposals--seven single-center 
studies and nine multi-center studies involving an additional 32 
centers. Studies are ongoing, and NTI expects the first research 
outcomes within 6 months. However, $3.9 million is a drop in the 
bucket, and these studies will barely begin to build the body of 
knowledge necessary for improved treatments and outcomes in the field 
of trauma in the United States.
                      non compressible hemorrhage
    According to military documents and officials, the major cause of 
death from combat wounds is hemorrhage. Nineteen percent of combat 
deaths are judged to be potentially survivable \1\. In other words, 
1,100 warriors wounded in Iraq or Afghanistan might have survived to 
come home to their loved ones, but didn't because treatment strategies 
were lacking. Over 900 (84 percent) deaths were due to hemorrhage, and 
66 percent of these, about 600 potentially survivable deaths, resulted 
from hemorrhage in regions of the body such as the neck, chest, 
abdomen, groin, and back that couldn't be treated by a tourniquet or 
compression \1\.
---------------------------------------------------------------------------
    \1\ Kelly, J.F., Ritenour, A.E., McLaughlin, D.F., Bagg, K.A., 
Apodaca, A.N., Mallak, C.T., Pearse, L., Lawnick, M.M., Champion, H.R., 
Wade, C.E., and Holcomb, J.B. (2008) Injury severity and causes of 
death from Operation Iraqi Freedom and Operation Enduring Freedom: 
2003-2004 versus 2006. J Trauma 64, S21-26.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Extremity wounds are amenable to compression to stop bleeding, and 
new tourniquets and hemostatic bandages have had a major impact on the 
decline in combat deaths due to extremity hemorrhage. But compression 
is rarely effective for penetrating wounds to the torso and major 
vessels can be damaged resulting in massive hemorrhage. At present, 
such wounds are normally only treatable through surgical intervention 
and typically such patients do not survive to reach the operating room.
    Currently, there is no active intervention for noncompressible 
hemorrhage available to military medics, who along with civilian 
responders have only the tools their predecessors had in the early 20th 
century. There is not even a method to detect whether the wounded 
warrior is bleeding internally, and if so, how much blood has been 
lost. The current Tactical Combat Casualty Care guidelines for medics 
and corpsmen do not include strategies to stem bleeding from non-
compressible hemorrhage because no solutions are available \2\. NTI 
hopes to decrease the mortality of severely injured patients suffering 
from torso hemorrhage. This can only be accomplished through research 
into the development of simple, rapid and field-expedient techniques 
which can be used by medics on the battlefield or first responders in a 
civilian context to detect and treat non-compressible hemorrhage. 
Examples of current NTI research in non-compressible hemorrhage 
include:
---------------------------------------------------------------------------
    \2\ (2009) Tactical Combat Casualty Care Guidelines. http://
www.usaisr.amedd.army.mil/tccc/TCCC%20Guidelines%20091104.pdf. Accessed 
June 2, 2011.
---------------------------------------------------------------------------
  --The use of ultrasonography to measure the diameter of the vena cava 
        to determine whether this will give an accurate indication of 
        low blood volume.
  --An observational study to determine the incidence and prevalence of 
        clotting abnormalities in severely injured patients and to 
        study the complex biology of proteins to better understand, 
        predict, diagnose and treat bleeding after trauma.
  --Supplementation of hemorrhagic shock patients with vasopressin, a 
        hormone needed to support high blood pressure. Vasopressin at 
        high doses has been shown to improve blood pressure, decrease 
        blood loss and improve survival in animal models with lethal 
        blood loss. This study will investigate the use of vasopressin 
        in trauma patients.
    Another challenge in hemorrhage is resuscitation--the restoration 
of blood volume and pressure. Traditional resuscitation includes large 
volumes of intravenous fluids followed by blood and finally plasma. 
However, now this large intravenous fluid load is thought to worsen the 
trauma patient's coagulopathy (blood clotting problems), increasing 
bleeding. There is strong retrospective evidence that for patients 
requiring massive transfusion, a higher proportion of plasma and 
platelets, when compared to red cells, results in improved survival. 
Based on a 2004 research study \3\, the current Joint Theater Trauma 
Clinical Practice Guideline for Forward Surgical Teams and Combat 
Support Hospitals advocates a plasma, platelet, and red cell 
resuscitation regime in lieu of the standard intravenous fluids. 
Currently, there is no blood substitute available for in-theater use. 
The Army Medical Department/USA Institute of Surgical Research is 
working on a freeze dried plasma solution; however this product has not 
yet received FDA approval. Remarkably, current treatments used by 
military medics for restoration of blood volume are very similar to 
those originally used in 1831 when saline was first given as an 
intravenous fluid to cholera patients \4\.
---------------------------------------------------------------------------
    \3\ Holcomb, J.B., Jenkins, D., Rhee, P., Johannigman, J., Mahoney, 
P., Mehta, S., Cox, E.D., Gehrke, M.J., Beilman, G.J., Schreiber, M., 
Flaherty, S.F., Grathwohl, K.W., Spinella, P.C., Perkins, J.G., 
Beekley, A.C., McMullin, N.R., Park, M.S., Gonzalez, E.A., Wade, C.E., 
Dubick, M.A., Schwab, C.W., Moore, F.A., Champion, H.R., Hoyt, D.B., 
and Hess, J.R. (2007) Damage Control Resuscitation: Directly Addressing 
the Early Coagulopathy of Trauma. The Journal of Trauma 62, 307-310.
    \4\ Blackborne, L.H.C. (2011) 1831. The Army Department Medical 
Journal April-June 2011, 6-10.
---------------------------------------------------------------------------
              impact of trauma on united states civilians
    Traumatic injury is the cause of death of nearly every soldier in 
combat. On the civilian front, trauma/injury is responsible for over 61 
percent of the deaths of Americans between the ages of 1 and 44 each 
year \5\. That's more than all forms of cancer, heart disease, HIV, 
liver disease, stroke and diabetes combined. An American dies every 3 
minutes due to trauma. That's 179,000 deaths in addition to 29.6 
million injuries every year \5\.
---------------------------------------------------------------------------
    \5\ CDC (2006) Centers for Disease Control/WISQARS. http://
webappa.cdc.gov/sasweb/ncipc/mortrate10_sy.html. Accessed March 16, 
2011.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Trauma is the second most expensive public health problem facing 
the United States. Data from the Agency for Healthcare Research and 
Quality (AHRQ) on the 10 most expensive health conditions puts the 
annual medical costs from trauma at $72 billion, second only to heart 
conditions at $76 billion, and ahead of cancer and all other diseases 
\6\. The National Safety Council estimates the true economic burden to 
be more than $690 billion per year, since trauma has an ongoing cost to 
society due to disability, and is the leading cause of years of 
productive life lost \7\.
---------------------------------------------------------------------------
    \6\ AHRQ (2008) Big Money: Cost of 10 Most Expensive Health 
Conditions Near $500 Billion. Agency for Healthcare Research and 
Quality http://www.ahrq.gov/news/nn/nn012308.htm. Accessed June 2, 
2011.
    \7\ NSC (2011) Summary from Injury Facts, 2011 Edition. National 
Safety Council http://www.nsc.org/news_resources/
injury_and_death_statistics/Documents/Summary%202011.pdf. Accessed 
March 16, 2011.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Advances in research can be applied to both military and civilian 
casualties. Many of the problems associated with hemorrhage of all 
kinds are potentially solvable and are transferable between military 
and civilian trauma care. The funding recommended by NTI could have a 
dramatic impact on civilian mortality in the U.S. Hemorrhage is 
responsible for 30 percent to 40 percent of deaths following a 
traumatic injury to civilians \8\.
---------------------------------------------------------------------------
    \8\ Holcomb, J.B. (2010) Optimal Use of Blood Products in Severely 
Injured Trauma Patients. Hematology, 465-469.
---------------------------------------------------------------------------
                 why trauma research is so challenging
    Trauma research is challenging for many reasons. Injury can be 
severe, and diagnosis of extent and location of injury can be 
difficult. Sometimes the patient is unconscious or unable to 
communicate, unable to give consent. Patients are often unaccompanied 
by next-of-kin to assist in decisionmaking. Enrolling patients in 
trauma studies sometimes requires community consent and involvement 
because treatments may need to be started en route to the hospital or 
military treatment facility. Placebos are not usually an option, 
because real treatment must be given to injured patients.
    In trauma, there is no time to try different treatments, consider 
alternatives or have multiple appointments to discuss care. We must arm 
medical personnel with the tools they need to make the right decisions 
quickly. Lives can be saved. Focused clinical research will provide 
knowledge, tools and answers.
    Often a single Level 1 Trauma Center can't recruit enough patients 
with specific enrollment criteria to conduct a statistically 
significant study that provides enough evidence to reach a conclusion 
that would alter clinical practice. Therefore large, multi-center 
studies are required, and these necessitate substantial funding. Due to 
limited funding, studies have often been narrow in size, sporadic, and/
or conducted on the basis of a physician's personal interest, rather 
than a cohesive approach borne from a national trauma research agenda.
    The majority of the funding added by Congress in fiscal year 2011 
did not go to trauma-related research \9\. The Congressionally Directed 
Medical Research Program did fund some research into areas that cause a 
high degree of disability in wounded warriors returning home, such as 
orthopaedic, eye, ear, craniofacial, and traumatic brain injury. NTI 
urges the subcommittee to equally fund the major cause of preventable 
death of our soldiers, sailors, airmen and marines.
---------------------------------------------------------------------------
    \9\ (2011) H.R.1473.
---------------------------------------------------------------------------
    For fiscal year 2011, Congress added over $700 million to the 
President's budget request for DOD medical research funding. 
Recognizing the need to reduce overall Federal spending, this sum is 
significantly less than Congress provided in fiscal year 2009 and 
fiscal year 2010 when over $1 billion was added each year.
    The National Trauma Institute believes that whatever additional sum 
Congress determines can be allocated to DOD medical research for fiscal 
year 2012 should be directed more specifically to research of the 
traumatic medical conditions which most severely affect our soldiers.
                             research works
    It has been proven repeatedly that medical research saves lives. 
For instance, in 1950 a diagnosis of leukemia was tantamount to a death 
sentence. Research led to chemotherapy treatments in the 1950s and bone 
marrow transplantations in the 1970s. A substantial investment in 
research has led to safer and more effective treatments, and today 
there is a 90 percent survival rate for leukemia \10\. Another example 
is breast cancer. Thirty years ago only 74 percent of women who were 
diagnosed lived for another 5 years. Due to research into early 
detection, chemotherapy and pharmaceuticals, the 10-year survival rate 
for breast cancer is now 98 percent \11\.
---------------------------------------------------------------------------
    \10\ (2011) Research Successes. Leukemia and Lymphoma Society 
http://www.lls.org/#/aboutlls/researchsuccesses/. Accessed June 2, 
2011.
    \11\ (2011) Our Work. Susan G. Komen For the Cure http://
ww5.komen.org/AboutUs/OurWork.html. Accessed June 2, 2011.
---------------------------------------------------------------------------
    Fifty years of dedicated research into proper diagnosis and 
treatment of leukemia has led to an 80 percent reduction in the death 
rate. Imagine even a 5 percent reduction in trauma deaths, injuries and 
economic burden--this would save the United States $35 billion, prevent 
1.5 million injuries, and save almost 9,000 lives every year.
    Recommendation.--Hence NTI recommends that Congress set aside a 
major portion of DOD medical research funding--at least $15 million--in 
the Defense Health Program account for a peer-reviewed research program 
to spur better technology to treat non-compressible hemorrhage.

    Chairman Inouye. I thank you very much, Dr. Jenkins.
    Senator Cochran. I may have missed it, but what 
specifically would you recommend that we do in terms of 
procedure or education requirements that would help address the 
problem that you've described in your testimony?
    Dr. Jenkins. Yes, sir. Hemorrhage from the extremities has 
been treated with a number of devices that have been developed, 
invented specifically for use in combat, that have now been 
translated over into the civilian setting, so that EMS agencies 
carry tourniquets and hemostatic bandages. There is no such 
device if your liver or spleen is damaged in a traumatic event. 
The soldiers on the battlefield when injured, cared for by 
medics, the medic has no tools to treat that non-compressible 
hemorrhage except to get him to surgery as soon as possible. 
These soldiers have died awaiting the opportunity to get to 
surgery.
    We need treatments that we can render to those soldiers on 
the battlefield, to those citizens in the field, by EMS 
agencies, so that we can stop that hemorrhage and stop that 
death.
    Senator Cochran. Thank you very much.
    Chairman Inouye. Thank you.
    Senator Shelby.
    Senator Shelby. Mr. Chairman, just a quick observation and 
question. We've learned a lot and we've also, with helicopters 
and medical treatment, which have changed a lot. We've learned 
a lot since Vietnam, certainly since Korea, since the Second 
World War, and so forth. What is the basic survival rate in 
combat, heavy combat, now compared to, say, Vietnam, Korea? Do 
you have some statistics on that, because I know from what I 
have observed at Walter Reed and Bethesda and talking to a lot 
of veterans they probably wouldn't have survived, a lot of 
them, even in Vietnam, in the Second World War, Korea, and so 
forth.
    You're doing a lot better that way, but also they're facing 
great challenges. The sooner you get to them and the sooner 
they get medical help and sometimes get to the hospital, the 
better.
    Have you got any comments on that? Am I right, on the right 
track here?
    Dr. Jenkins. You are on the right track, sir. The Joint 
Trauma Registry keeps very specific data on this and keeps a 
rolling number that they look at. We look specifically at what 
one would call the case fatality rate, if injured the risk of 
dying.
    Senator Shelby. Can you furnish this to the subcommittee? 
You may have, but as I said earlier, I serve on another 
committee, subcommittee, dealing with the NIH and everything, 
and we're all interested in all of it. Right now we're focused 
on the military. But trauma is everywhere and what goes on in 
the military translates to others too, does it not?
    Dr. Jenkins. Yes, sir. Survival is better because of 
advances in combat medicine, because of better body armor. 
We're at the point now where we have--we're looking 
specifically at casualties who should have survived had we only 
better tools and techniques to be able to get them to live 
through it.
    Senator Shelby. Thank you, Mr. Chairman.
    Chairman Inouye. Thank you, Dr. Jenkins.
    Rear Admiral Coane.
STATEMENT OF REAR ADMIRAL CASEY COANE, UNITED STATES 
            NAVY (RETIRED), EXECUTIVE DIRECTOR, 
            ASSOCIATION FOR THE UNITED STATES NAVY
    Admiral Coane. Mr. Chairman, Senator Cochran, Senator 
Shelby: The Association for the United States Navy is once 
again very pleased to have this opportunity to testify. Our 
association focuses its legislative activity on both personnel 
issues and the equipment necessary for the Navy and Navy 
Reserve to accomplish its missions. It is only through the 
attention of Congress and SUBcommittees such as yours that we 
can be sure that their needs are met.
    We are grateful for this annual opportunity and, in a 
departure from many of my colleagues earlier this morning, I'm 
going to speak about equipping the Navy. The ships and aircraft 
of which I am speaking are vital to this war effort and 
directly support the thousands of Navy and other services' men 
and women serving on the ground in Iraq, Afghanistan, or other 
places ashore in operations worldwide, 53,000 sailors deployed 
today, including 5,300 mobilized reservists.
    I have a few general statements and then I will address 
specific programs. We are pleased with the increased emphasis 
that the House and Senate have shown toward Navy shipbuilding 
in order to fulfil the Nation's maritime strategy. To meet 
those requirements, the Navy needs your support for the current 
shipbuilding plans. The Navy is behind on the 313-ship plan due 
to funding shortages and the only means to achieve a realistic 
plan is through this subcommittee's efforts.
    As the current efforts in Iraq and Afghanistan wind down, 
the need for our Navy to protect our sea lines of 
communication, through which 90 percent of our commerce flows, 
will, as always, remain an issue of national security.
    Regarding the Navy Reserve, the irreversible transition 
from a strategic reserve to an operational reserve with 
predictable and periodic mobilization increases the need for 
these Reserve components to be properly resourced for 
equipment. The recent comprehensive review on Reserve component 
report stresses the need to ensure that these components have 
both the equipment necessary to do the job and also the 
equipment necessary to train for the mission.
    The Navy's 30-year aircraft program, the Naval Aviation 
Plan 2030, is well laid out and moving forward, but it still 
has significant challenges ahead in the areas of tactical 
fighters and logistics for out-CONUS operations. Aircraft 
programs of great concern are the C-40 replacement for the C-9s 
and the KC-130J tactical airlifters to replace the C-130s. Both 
of these aircraft are extensively used for intra-theater 
operations for Iraq, Afghanistan, and support Navy fleet 
movements worldwide, including disaster relief operations.
    The issue is not just newer aircraft. The C-40As are Navy-
unique fleet essential airlift, not VIP transport. The issue is 
that the current C-9 aircraft and C-20Gs have turned the 
maintenance expense curve to the extent that prudent business 
practices dictate replacement now. These aircraft in Hawaii, 
Fort Worth, and Maryland are scheduled to be decommissioned in 
fiscal year 2012 to 2014.
    The Navy needs five to six more C-40s to finish the program 
and it needs some of them this year. Anything that this 
subcommittee could do to fund and accelerate that program, 
perhaps by utilization of the National Guard and Reserve 
equipment accounts, would be most beneficial to the Navy and 
the Navy Reserve.
    The 30-year plan has the requirement for the replacement of 
the C-130Ts with the KC-130J aircraft. Currently this essential 
tactical intra-theater airlift is operating five aircraft short 
of requirement. Each year that the new aircraft is delayed will 
force the Navy to spend more money to upgrade worn-out aircraft 
to meet the new worldwide aviation equipment standards. We urge 
the committee to bring the KC-130J forward in the FYDP or by 
adding to the NGRE account.
    The P-8 aircraft is an on-time, on-budget program to 
replace the P-3 aircraft, the backbone of the Navy's 
reconnaissance effort in theater, as well as the Navy's current 
anti-submarine and anti-shipping combat aircraft, as 
demonstrated recently in Libyan operations. Unfortunately, P-8 
procurement was planned so far to the right that many, many P-
3s are already grounded with broken wings. Anything that this 
subcommittee could do to accelerate that program, perhaps again 
by use of the NGRE accounts, would be most beneficial.
    Again, the Association of the United States Navy thanks the 
subcommittee for their tireless efforts on behalf of the Navy 
and for providing this opportunity to be heard today.
    [The statement follows:]
             Prepared Statement of Rear Admiral Casey Coane
               the association of the united states navy
    The Association of the United States Navy (AUSN) recently changed 
its name as of May 19, 2009. The association, formerly known as the 
Naval Reserve Association, traces its roots back to 1919 and is devoted 
solely to service to the Nation, Navy, the Navy Reserve and Navy 
Reserve officers and enlisted. It is the premier national education and 
professional organization for Active Duty Navy, Navy Reserve personnel, 
Veterans of the Navy, families of the Navy, and the Association Voice 
of the Navy and Navy Reserve.
    Full membership is offered to all members of the U.S. Navy and 
Naval Reserve. Association members come from all ranks and components.
    The Association has active duty, reserve, and veterans from all 50 
States, U.S. Territories, Europe, and Asia. Forty-five percent of AUSN 
membership is active reservists, active duty, while the remaining 55 
percent are made up of retirees, veterans, and involved DOD civilians. 
The National Headquarters is located at 1619 King Street Alexandria, 
Virginia. 703-548-5800.
    Mister Chairman and distinguished members of the Committee, the 
Association of the United States Navy is very grateful to have the 
opportunity to testify.
    Our transitioned VSO-MSO association works diligently to educate 
Congress, our members, and the public on Navy equipment, force 
structure, policy issues, personnel and family issues and Navy 
veterans.
    I thank this Committee for the ongoing stewardship on the important 
issues of national defense and, especially, the reconstitution and 
support of the Navy during wartime. At a time of war, non-partisan 
leadership sets the example.
    Your unwavering support for our deployed Service Members in Iraq 
and Afghanistan (of which over 14,000 Sailors are deployed at Sea in 
the AOR and over 10,000 are on the ground--Active and Reserve) and for 
the world-wide fight against terrorism is of crucial importance. 
Today's Sailors watch Congressional actions closely. AUSN would like to 
highlight some areas of emphasis.
    As a Nation, we need to supply our service members with the 
critical equipment and support needed for individual training, unit 
training and combat as well as humanitarian and peacekeeping 
operations. Additionally, we must never forget the Navy families, 
reserve members and the employers of these unselfish volunteers--Active 
and Reserve.
    In recent years, the Maritime Strategy has been highlighted, 
debated and disputed. We feel this is a time where the Total Navy force 
needs to be stabilized, strengthened, and be reconstituted--because of 
the consistent, constant, and increasing National Security crisis in a 
dangerous world--
  --Piracy is on the rise in many areas of the world, and especially in 
        the 5th Fleet AOR;
  --The flow of commerce still remains a top priority for our economy;
  --Naval engagement and support on the ground, in the air, and on the 
        seas for OIF and OEF has not decreased;
  --Ever increasing Middle East instability;
  --Ballistic missile threats (N Korea-Iran) and the Navy requirement 
        to be the front line of defense for missile defense threat;
  --U.S. Navy response to natural disasters; tsunami, Haiti, Chile, and 
        possible man made disasters (oil spill support);
  --Humanitarian assistance in the Philippines, Indonesia, and American 
        Samoa; and
  --Ever increasing and changing Arctic issues.
    In addition to equipment to accomplish assigned missions, the AUSN 
believes that the administration and Congress must make it a high 
priority to maintain, if not increase, but at least stabilize the end 
strengths of already overworked, and perhaps overstretched, military 
forces. This includes the Active Navy and the Navy Reserve.
  --Reductions in manpower are generally resource driven within the 
        Service, not because people are not needed, and the reductions 
        of their benefits are resource driven.
    Our current maritime history and strategy--requires that our Nation 
must achieve the 313+ Navy Ships, not decrease them, and there should 
be a balance between personnel end-strengths and equipment.
    As proven in recent events (Libya, Piracy, Osama Bin Laden, OCO 
operations) Naval Special Operations, U.S. Carriers, submarines, and 
Naval Aviation are more relevant than ever--as proven by constant 
actions in Iraq and Afghanistan and ongoing operations in OIF-OEF and 
throughout Southwest Asia. Additionally--Navy weapon systems and 
personnel play a critical role in Natural disasters around the world! 
Therefore, it is not a time--to cut back. Our adversaries are only 
waiting for the time for us to cut back or to stall. China is 
developing a peer Chinese Navy.
    We must fund the Navy for proper shipbuilding and aviation programs 
which the House this year authorized funds to accomplish.
    As you know, neither the Navy nor the Navy Reserve has ever been a 
garrisoned force--but, a deployed force. Nothing has changed in recent 
contingency operations or wars, except that the Navy's forces needs 
equipment as much as anyone. We have worn out current equipment and we 
need the manpower and infrastructure to ensure that current and future 
equipment stays ready.
    We recognize that there are many issues and priorities that need to 
be addressed by this Committee and this Congress. The Association of 
the United States Navy supports the Navy's fiscal year 2012 budget 
submission and the past years Unfunded Programs List provided by the 
Chief of Naval Operations that addressed an increased shipbuilding and 
increase aircraft procurement to relieve the documented shortages and 
maintenance requirements.
    Overwhelmingly, we have heard Service Chiefs, Reserve Chiefs and 
Senior Enlisted Advisors discuss the need and requirement for more 
equipment and unit equipment for training in order to be ready as well 
as combat equipment in the field. Navy needs to have equipment and unit 
cohesion to keep personnel trained. This means--Navy equipment and Navy 
Reserve equipment with units.
Equipment Ownership
    Issue: Sharing of equipment has been done in the past. However, 
nothing could be more of a personnel readiness issue and is ill 
advised. This issue needs to be addressed if the current National 
Security Strategy is to succeed.
    Position: The overwhelming majority of Navy and Navy Reserve 
members join to have hands-on experience on equipment. The training and 
personnel readiness of members depends on constant hands-on equipment 
exposure. History shows, this can only be accomplished through 
appropriate equipment, since the training cycles are rarely if ever--
synchronized with the training or exercise times or deployment times. 
Additionally, historical records show that units with unit hardware 
maintain equipment at higher than average material and often have 
better training readiness. This is especially true with Navy Reserve 
units. Current and future warfighting requirements will need these 
highly qualified units when the Combatant Commanders require fully 
ready units.
    Navy has proven its readiness. The personnel readiness, retention, 
and training of all members will depend on them having equipment that 
they can utilize, maintain, train on, and deploy with when called upon. 
AUSN recommends the Committee strengthen the Navy equipment 
appropriation as the House has done in the fiscal year 2012 NDAA in 
order to maintain optimally qualified and trained Navy and Navy Reserve 
forces.
Equipment Needs and Request
    AUSN respects the tremendous pressure on the U.S. budget. However, 
the Navy and the Navy Reserve where a deployed force prior to September 
11, 2001 and the Navy and the Navy Reserve will remain a deployed force 
for foreseeable future. Therefore we request that you give strong 
consideration to: Funding one C-40A in the fiscal year 2012 
appropriations bill for replacement of aged aircraft in Maryland and 
Hawaii; fund two C-130J aircraft for Navy and Navy Reserve in the 
fiscal year 2012 appropriations bill; and ensure the proper lead 
funding is available to maintain TACAIR aircraft for 11 Carrier Air 
Wings.
Manpower issues--Pay, and End-strength
    Pay needs to be competitive. If pay is too low, or expenses too 
high, a service member knows that time may be better invested 
elsewhere.
    The current discussions about changes in retirement and increases 
in healthcare is woefully inappropriate when the Nation considers what 
service members, Navy members, are doing in defense of this Nation, and 
in support of natural disasters. The risks and sacrifices of every 
service member, to defend this great Nation, make it illogical to 
formulate a policy change in retirement pay for military when they 
sacrifice so much. It just does not make common sense.
    End-strength is the core of any service accomplishing the mission. 
Navy and Navy Reserve has taken a fair share of budget driven end-
strength cuts in the previous 10 years. It is time to stop the cuts and 
ensure that we have the right number of people to conduct operations.
    Care must be taken that the current tremendous reservoir of 
operational capability be maintained and not lost due to resource 
shortages. Officers, Chief Petty Officers, and Petty Officers need to 
exercise leadership and professional competence to maintain their 
capabilities. In the current environment of Navy Individual Augmentee 
in support of ground forces, there is a risk that Navy mid-grade 
leadership will not be able to flourish due to the extended ground war 
of OIF and OEF. Having the right equipment is critical to our Maritime 
Strategy.
    In summary, we believe the Committee needs to address the following 
issues for Navy and Navy Reserve in the best interest of our National 
Security:
  --Fund one C-40A for the Navy, per the past years documented request;
    --Navy must replace the C-9s and replace the C-20Gs in Hawaii and 
            Maryland.
  --Fund the FA-18 E/F and FA-18 E/F Growlers per the House fiscal year 
        2011 NDAA and include unit assets for Navy Reserve units 
        currently in EA-6B aircraft.
  --Fund the Navy Ships provided for in the House fiscal year 2012 
        NDAA.
  --Just as other services are having difficulties with intra theater 
        C-130 assets, the Navy needs to replace their C-130 aircraft 
        with C-130J for the Navy and Navy Reserve.
    --Request you fund 2 C-130J Aircraft for Navy Reserve for combat 
            support for Navy and Navy Reserve assets in theater 
            operations for OCO.
  --Increase funding for Naval Reserve equipment in NGREA
    --Increase Navy Reserve NGREA by $100 million
    --Naval Expeditionary Combat Equipment
  --Ensure proper lead funding for TACAIR Navy Aircraft.
    For the foreseeable future, we must be realistic about what the 
unintended consequences are from a high rate of usage. History shows 
that an Active force and Reserve force are needed for any country to 
adequately meet its defense requirements, and to enable success in 
offensive operations. Our Active Duty Navy and the current operational 
Reserve members are pleased to be making a significant contribution to 
the Nation's defense as operational forces; however, the reality is 
that the added stress on Active Navy and the Reserve could pose long 
term consequences for our country in recruiting, retention, family and 
employer support. In a time of budget cut discussions, this is not the 
time to cut end-strengths on an already stressed force. We have already 
been down this road previously. This issue deserves your attention in 
pay, maintaining end-strengths, proper equipment, Family Support 
Programs, Transition Assistance Programs and for the Employer Support 
for the Guard and Reserve programs.
    Thank you for your ongoing support of the Nation, the Armed 
Services, the United States Navy, the United States Navy Reserve, their 
families, and Navy veterans, and the fine men and women who defend our 
country.

    Chairman Inouye. Thank you very much, Rear Admiral Coane.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, I was wondering about our 
other witness at the table here. We're to ask you questions 
now?
    Let me ask you. If the funding is added as you request, is 
this going to be additional funding that we'll have to come up 
with over and above the allocation of the subcommittee, or do 
you recommend any offsets in funding that would have to be 
undertaken?
    Admiral Coane. No, sir. I'm concerned--we have--in this 
year's budget there's one C-40, but in the 2012, 2013, and 2014 
budgets those have been zeroed out. The Navy's program is to 
buy 17 of them. There are still five more they've got to have. 
As I mentioned, the C-20Gs are falling off the table, 
literally.
    So this is additional National Guard and Reserve equipment 
funding that we're suggesting. The unfunded list, as has been 
mentioned before, for the Navy is virtually nonexistent. That's 
not because they don't need things. That's because of DOD 
policy. So we need to look further into supporting these 
aircraft.
    The C-20Gs in Hawaii and the ones here at Andrews have 
flown thousands of hours beyond what Gulfstream ever intended 
those airplanes to fly, because they were built as corporate 
jets. The Navy operates them with cargo doors, but they're used 
up and they're going to just simply go away. We've got to 
replace that asset.
    Senator Shelby. Do we run the risk of having accidents and 
failures if we don't replace those with other assets?
    Admiral Coane. Senator, I'm careful. I had a 34-year career 
in the airline world as well as an aviator, so I'm very careful 
to talk about--are we running the risk? Well, flying aircraft 
is always a risk-reward or risk-benefit business. Any time we 
get airborne, as you know, there's risk involved. Does the risk 
go up on the aircraft? I would say that our military people 
manage the aging of the aircraft. What goes up is the expense 
of operating the aircraft. In the case of broken-wing P-3s, 
they're simply worn out and you can't do anything about it.
    So I wouldn't suggest to you that--I wouldn't ring the 
safety bell and say that our military won't continue to be 
safe, because they're good at that. But the financial 
obligation--when an aircraft turns the maintenance curve, the 
dollars go significantly higher very, very quickly. Our C-9s 
and our C-20s and the C-130Ts are at that point.
    Senator Cochran. Thank you very much for your perspective. 
I think that's very helpful to our subcommittee.
    Admiral Coane. Yes, sir.
    Senator Cochran. Thank you.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. Mr. Chairman, I'll try to be brief here. 
The Admiral here has gotten my attention on some things, and 
I'm sure the subcommittee.
    The survivability rate--well, the death rate of 
hemorrhage--hemorrhage is a big cause of death, right, 
battlefield, hemorrhaging?
    Admiral Coane. Senator, are you referring to my colleague 
here to my right?
    Senator Shelby. Yes, hemorrhaging; is that right, on the 
battlefield?
    Dr. Jenkins. Yes, sir.
    Senator Shelby. So what they're trying to do, you're trying 
to get into research whether you can deal with wounds to the 
torso, the neck, the blood vessels, all of this, because if you 
can do that you'll save lives, right?
    Dr. Jenkins. Yes, sir, precisely correct.
    Senator Shelby. But a lot of that is--you're using, a lot 
of it's the same treatment we've used for years. We haven't had 
a super-breakthrough there, have we?
    Dr. Jenkins. And that's directly related to the lack of 
research funding and why NTI exists, sir, yes, sir.
    Senator Shelby. Thank you.
    Chairman Inouye. Thank you very much.
    Ms. Goraleski.
STATEMENT OF KAREN A. GORALESKI, EXECUTIVE DIRECTOR, 
            AMERICAN SOCIETY OF TROPICAL MEDICINE AND 
            HYGIENE
    Ms. Goraleski. Chairman Inouye, Ranking Member Cochran, 
Senator Shelby, and subcommittee staff: My name is Karen 
Goraleski and I am the Executive Director of the American 
Society of Tropical Medicine and Hygiene. Thank you for the 
privilege of testifying before you today. We are the principal 
professional membership organization of scientists, physicians, 
clinicians, epidemiologists, and program professionals 
dedicated to the prevention and control of tropical diseases.
    We are here today to request that the subcommittee expand 
funding for the DOD's efforts to develop new preventions, 
treatments, vaccines, and diagnostics that will prevent--that 
will protect our service members and other Americans from 
tropical diseases and at the same time will reduce premature 
deaths and disability in the developing world.
    The central public policy priority of the Society is to 
reduce the burden of infectious disease in the developing 
world, areas of the world where many of our military serve. 
Many of our top health concerns align with the superbly 
executed and longstanding DOD research on tropical diseases and 
on what are also called the neglected tropical diseases. 
Mission success and readiness will be hampered without 
sustained efforts to reduce these no longer so-called 
``exotic'' health threats.
    Infectious disease is the ever-present enemy. The drugs and 
preventive measures used in earlier conflicts in tropical 
regions no longer are as reliable as they once were. Therefore, 
our task list for new and effective tools must not only focus 
on today, but on tomorrow.
    There are three particular DOD facilities working to 
strengthen mission readiness and success: The Army Medical 
Research Institute for Infectious Diseases, the Walter Reed 
Army Institute for Research, and the U.S. Naval Medical 
Research Center.
    First, USAMRID. Its mission is to protect our military from 
biological threats. Through its biosafety levels 3 and 4 labs 
and its world-class highly trained personnel, they are in the 
business of generating countermeasures to biological threats to 
our country. Like each of these facilities, their work delivers 
a return on investment that extends beyond our military to 
citizens.
    Next is WRAIR. A large part of the DOD investment in 
infectious disease research and development is facilitated 
through WRAIR. In addition to DOD funding, WRAIR has advanced 
infectious disease research and provided cost-effective 
solutions, in part by working smart through domestic and 
international public-private partnerships. Their portfolio 
includes work on a malaria vaccine and efforts to control its 
transmission, as well as that of other vector-borne diseases, 
drug developments for leishmaniasis, enteric disease research, 
and HIV/AIDS research.
    Through its collaborative efforts, WRAIR has developed 
several exciting vaccine candidates, including one that 
recently began the ever-large phase 3 trial for a malaria 
vaccine, RTSS. Is this encouraging? Yes. Do we need to find out 
more? Yes.
    Last, NMRC. The premier research facility includes a focus 
on malaria, enteric diseases, causes of traveler's diarrhea, 
dengue fever, now seen in southern Florida, and scrub typhus. 
In addition to its work accomplished in the United States, the 
Navy's three overseas medical research laboratories located in 
Peru, Egypt, and Indonesia offer outstanding scientific 
collaborations and equally productive relationships with their 
governments that in turn help the United States.
    In closing, all three facilities offer state-of-the-art 
technologies to protect our troops and can save millions of 
lives of people around the world. Closer to home, they also 
provide good-paying, quality jobs to American scientists, lab 
personnel, and ancillary businesses. ASTMH is confident that 
increased support for efforts to reduce these global and in 
some instances U.S. health threats is the smart thing to do for 
America and the right thing to do for the world.
    Thank you for this opportunity. The Society stands ready to 
serve as an expert resource to you. We are all in this 
together.
    [The statement follows:]
                Prepared Statement of Karen A. Goraleski
                           executive summary
    The American Society of Tropical Medicine and Hygiene (ASTMH)--the 
principal professional membership organization representing, educating, 
and supporting scientists, physicians, clinicians, researchers, 
epidemiologists, and other health professionals dedicated to the 
prevention and control of tropical diseases--appreciates the 
opportunity to submit written testimony to Senate Defense 
Appropriations Subcommittee.
    The central public policy priority of ASTMH is reducing the burden 
of infectious disease in the developing world. To that end, we advocate 
implementation and funding of Federal programs that address the 
research, prevention, and control of infectious diseases that are 
leading causes of death and disability in the developing world, and 
which pose threats to U.S. citizens. Many of our current priorities 
overlap with the excellent and long-standing tropical medicine and 
neglected disease research work being done within the Department of 
Defense, including malaria and other vector-borne diseases; tropical 
diseases such as dengue fever and leishmaniasis; and enteric diseases.
    Because U.S. servicemen and women are often deployed to tropical 
regions endemic to tropical diseases, reducing the risk that these 
diseases present to servicemen and women is often critical to mission 
success. Our military has long taken a primary role in the development 
of treatments for tropical diseases, such as anti-malarial drugs. As a 
result of this investment and the innovation employed by these military 
scientists, they have developed many of the most effective and widely 
used treatments for these diseases.
    For this reason, we respectfully request that the Subcommittee 
expand funding for the Department of Defense's longstanding and 
successful efforts to develop new drugs, vaccines, and diagnostics 
designed to protect service members from malaria and tropical diseases. 
Specifically, ASTMH requests that increased funding be allocated to the 
Army Medical Research Institute for Infectious Diseases (USAMRIID), the 
Walter Reed Army Institute of Research (WRAIR), and the U.S. Naval 
Medical Research Center (UNMC), who work closely together to maximize 
and ensure the most efficient research portfolios.
 united states army medical research institute for infectious diseases
    USAMRIID's mission includes advancing research to develop medical 
solutions--vaccines, drugs, diagnostics, and information--to protect 
our military service members from biological threats. USAMRIID has 
Biosafety Level 3 and Level 4 laboratories and world-class expertise in 
the generation of countermeasures for biological threats playing a 
critical role in the status of our country's preparedness for 
biological terrorism and biological warfare. While their primary 
mission is to protect the service members, like each of the research 
facilities, their important work benefits civilians as well.
                 walter reed army institute of research
    A large part of DOD investments in infectious disease research and 
development are facilitated through WRAIR, which since fiscal year 2007 
has performed more that $250 million in DOD research. Through critical 
public private partnerships with companies such as GSK and Sanofi, as 
well as nonprofits such as the Gates Foundation and Medicines for 
Malaria Venture, WRAIR invests in malaria vaccine and drug development, 
drug development for leishmaniasis, enteric disease research, vector 
control for malaria and other vector-born infections, and HIV/AIDS 
research and treatment. While each of these investments is crucial to 
the protection of U.S. troops abroad, WRAIR is also a partner to the 
global health community in saving the lives of some of the world's 
poorest people suffering from some of the most neglected diseases.
    WRAIR has research laboratories around the globe, including a 
public health reference laboratory in The Republic of Georgia; dengue 
fever clinical trials in the Philippines; malaria clinical studies and 
Global Emerging Infectious Surveillance in Kenya; military entomology 
network field sites in Thailand, the Philippines, Nepal, Cambodia, 
Korea, Kenya, Ethiopia, Egypt, Libya, Ghana, Liberia and Peru; as well 
as several other coordination efforts with national health ministries 
and defense units. This diversity in research capacity puts WRAIR in 
the unique position to be a leader in research and development for 
tropical diseases--research that will aid our military men and women as 
well as people living in these disease-endemic countries.
              united states naval medical research center
    NMRC is a premier medical and health research organization whose 
focus includes tropical medicine and infectious disease. The Infectious 
Disease Directorate (IDD) of NMRC focuses on malaria, enteric diseases, 
and viral rickettsial diseases. IDD has an annual budget exceeding $10 
million and conducts research on infectious diseases that are 
considered to be a significant threat to our deployed sailors, marines, 
soldiers and airmen. Their current research efforts are focused on 
malaria, bacterial causes of traveler's diarrhea, dengue fever, and 
scrub typhus with particular emphasis on vaccine discovery and testing. 
The research is enhanced by IDD's close working relationship with the 
Navy's three overseas medical research laboratories located in Peru, 
Egypt, and Indonesia. These laboratories also afford diplomatic 
advancement through the close working relationships they have developed 
with governments and citizens of those countries.
                tropical medicine and tropical diseases
    The term ``tropical medicine'' refers to the wide-ranging clinical, 
research, and educational efforts of physicians, scientists, and public 
health officials with a focus on the diagnosis, mitigation, prevention, 
and treatment of vector borne diseases prevalent in the areas of the 
world with a tropical climate. Most tropical diseases are located in 
either sub-Saharan Africa, parts of Asia (including the Indian 
subcontinent), or Central and South America. Many of the world's 
developing nations are located in these areas; thus tropical medicine 
tends to focus on diseases that impact the world's most impoverished 
individuals.
    U.S. troops are currently deployed or likely to be deployed in many 
of these same tropical areas. U.S. citizens, working, traveling and 
vacationing overseas are similarly impacted by these same tropical 
diseases, many of which have been ignored and neglected for decades. 
Furthermore, some of the agents responsible for these diseases could be 
introduced and become established in the United States (as was the case 
with West Nile virus), or might even be weaponized.
    The United States has a long history of leading the fight against 
tropical diseases which cause human suffering and pose a great 
financial burden that can negatively impact a country's economic and 
political stability. The benefits of U.S. investment in tropical 
diseases extend beyond economics and humanitarianism and into diplomacy 
as well.
         malaria--a formidable foe for u.s. military operations
    Service members deployed by the U.S. military comprise a majority 
of the healthy adults traveling each year to malarial regions on behalf 
of the U.S. Government. Malaria has long been a threat to U.S. military 
deployment success. In fact, more person-days were lost among U.S. 
military personnel due to malaria than to bullets during every military 
campaign fought in malaria-endemic regions during the 20th century. For 
this reason, the U.S. military has long taken a primary role in the 
development of anti-malarial drugs, and nearly all of the most 
effective and widely used anti-malarials were developed in part by U.S. 
military researchers. Drugs that have saved countless lives throughout 
the world were originally developed by the U.S. military to protect 
troops serving in tropical regions during WWII, the Korean War, and the 
Vietnam War.
    In recent years the broader international community has increased 
its efforts to reduce the impact of malaria in the developing world, 
particularly by reducing childhood malaria mortality, and the U.S. 
military plays an important role in this broad partnership. However, 
military malaria researchers at NMRC and WRAIR are working practically 
alone in the area most directly related to U.S. national security: 
drugs and vaccines designed to protect or treat healthy adults with no 
developed resistance to malaria who travel to regions endemic to the 
disease. NMRC and WRAIR are working on the development of a malaria 
vaccine and on malaria diagnostics and other drugs to treat malaria--an 
especially essential investment as current malaria drugs face their 
first signs of drug resistance.
    The malaria parasite demonstrates a notorious and consistent 
ability to quickly develop resistance to new drugs. The latest 
generation of medicines is increasingly facing drug-resistance. Malaria 
parasites in Southeast Asia have already shown resistance to 
mefloquine; resistant strains of the parasite have also been identified 
in West Africa and South America. There are early indications that 
parasite populations in Southeast Asia may already be developing 
limited resistance to artemisinin, currently the most powerful anti-
malarial available. Further, the most deadly variant of malaria--
Plasmodium falciparum--is believed by the World Health Organization to 
have become resistant to ``nearly all anti-malarials in current use.''
    Resistance is not yet universal among the global Plasmodium 
falciparum population, with parasites in a given geographic area having 
developed resistance to some drugs and not others. However, the sheer 
speed with which the parasite is developing resistance to mefloquine 
and artemisinin--drugs developed in the 1970s--bodes of a crisis of 
such significance that military malaria researchers cannot afford to 
rest on their laurels.
    WRAIR, in concert with multiple organizations including the CDC and 
vaccine manufacturers, has developed several exciting vaccine 
candidates, including one that recently began the first ever large-
scale Phase 3 trial for a malaria vaccine, (RTS,S). In earlier trials, 
the vaccine has been shown to decrease clinical episodes of malaria by 
over 50 percent in children in Africa. Despite these advances, the 
vaccine might be unsuitable for deploying personnel and travelers, 
because of its efficacy level. As a result, there is still a 
significant need for continued funding for ongoing research.
    Developing new antimalarials as quickly as the parasite becomes 
resistant to existing ones is an extraordinary challenge, and one that 
requires significant resources, especially as U.S. military operations 
in malaria-endemic countries increase. Without new anti-malarials to 
replace existing drugs as they become obsolete, military operations 
could be halted in their tracks by malaria. The recent malaria outbreak 
affecting 80 of 220 Marines in Liberia in 2003 serves as an ominous 
reminder of the impact of malaria on military operations. Humanitarian 
missions also place Americans at risk of malaria as evidenced by 
several Americans contracting malaria while supporting Haitian 
earthquake relief efforts.
             tropical disease impact on military operations
    Few other U.S. Government agencies devote as much time, funding, 
manpower, and direct research to tackling these devastating diseases as 
the DOD. The work ultimately goes beyond protecting soldiers and 
benefits the people living in the countries where these diseases cause 
the most harm. The recent success of the RTS, S malaria vaccine and its 
advancement to Phase 3 trials is just one success story from this 
program. DOD also does great research for other tropical diseases 
including leishmaniasis and dengue fever, two potentially deadly 
diseases of great risk to our troops and even greater risk to the 
citizens of these disease endemic regions.
    Leishmaniasis is a vector borne disease that is caused by the 
parasite leishmania. It is transmitted through the bite of the female 
phlebotomine sandfly. Leishmaniasis comes in several forms, the most 
serious of which is visceral leishmaniasis, which affects internal 
organs and can be deadly if left untreated.
    According to the WHO, over 350 million people are at risk of 
leishmaniasis in 88 countries around the world. It is estimated that 12 
million people are currently infected with leishmaniasis and 2 million 
new infections occur annually. Coinfection of leishmaniasis and HIV is 
becoming increasingly common, and WHO notes that because of a weakened 
immune system leishmaniasis can lead to an accelerated onset of AIDS in 
HIV-positive patients.
    Because of leishmaniasis' prevalence in Iraq, the DOD has spent 
significant time and resources on the development of drugs and new 
tools for the treatment of leishmaniasis. As more troops return from 
Iraq and Afghanistan, it is likely DOD will see an increase in 
leishmaniasis cases in our soldiers. WRAIR discovered and developed 
Sitamaquine, a drug that once completed, will be an oral treatment for 
leishmaniasis. While essential for the safety of our servicemen and 
women abroad, these types of innovations will also be extremely 
beneficial to the at risk populations world wide that are living in 
leishmaniasis endemic countries.
    Dengue fever, according to the WHO is the most common of all 
mosquito-borne viral infections. About 2.5 billion people live in 
places where dengue infection is possible and last year we saw a few 
cases pop up in the United States. There are four different viruses 
that can cause dengue infections. While infection from one of the four 
viruses will leave a person immune to that strain of the virus, it does 
not prevent them from contracting the other three, and subsequent 
infections can often be more serious.
    The DOD has seen about 28 cases of dengue in soldiers per year. 
While none of these cases resulted in the death of a soldier, 
hospitalization time is lengthy. Currently, there are several research 
and development efforts underway within the department of defense both 
for treatments and vaccines for dengue.
         u.s. government action is needed for mission readiness
    The role of infectious disease in the success or failure of 
military operations is often overlooked. Even a cursory review of U.S. 
and world military history, however, underscores that the need to keep 
military personnel safe from infectious disease is critical to mission 
success. The drugs and prophylaxis used to keep our men and women safe 
from malaria and tropical diseases during previous conflicts in 
tropical regions are no longer reliable. Ensuring the safety of those 
men and women in future conflicts and deployments will require research 
on new tools. Additional funds and a greater commitment from the 
Federal Government are necessary to make progress in malaria and 
tropical disease prevention, treatment, and control.
    ASTMH feels strongly that increased support for efforts to reduce 
this threat is warranted. A more substantial investment will help to 
protect American soldiers and potentially save the lives of millions of 
individuals around the world. We appreciate the opportunity to share 
our views in our testimony, and please be assured that ASTMH stands 
ready to serve as a resource on this and any other tropical disease 
policy matters.
    Thank you for your attention to this matter.

    Chairman Inouye. I thank you very much, Ms. Goraleski.
    Senator Cochran.
    Senator Cochran. Ms. Goraleski, how close do you think we 
are to developing a new vaccine or a more effective vaccine 
against malaria? It seems to be a big threat.
    Ms. Goraleski. We are at a very positive place in terms of 
a malaria vaccine. We're just starting that phase 3 clinical 
trial. We're very hopeful.
    Chairman Inouye. Thank you very much.
    Senator Shelby.
    Senator Shelby. Besides malaria, what are, say, one or two 
of the most challenging tropical diseases? I know there are 
many out there.
    Ms. Goraleski. The parasitic diseases are very, very 
challenging. Sandflies transmit leishmaniasis. We also have 
other parasites that are equally debilitating and often hard to 
diagnose at first and then can last for decades.
    Senator Shelby. Thank you.
    Chairman Inouye. I thank the panel very much.
    Now may I call upon: Major General Gus Hargett, National 
Guard Association of the United States; Mr. Dale Lumme, Navy 
League of the United States; Mr. John R. Davis, Fleet Reserve 
Association; Ms. Susan Leighton, Ovarian Cancer National 
Alliance.
    May I call upon Major General Hargett.
STATEMENT OF MAJOR GENERAL GUS HARGETT, UNITED STATES 
            ARMY (RETIRED), PRESIDENT, NATIONAL GUARD 
            ASSOCIATION OF THE UNITED STATES
    General Hargett. Mr. Chairman, thank you for the 
opportunity to testify on behalf of the 470,000 national 
guardsmen across the country, our citizen soldiers and airmen.
    As our Nation struggles with how to get its financial house 
in order, I propose we give a hard look at how we could 
leverage the cost efficiencies inherent in the National Guard 
to reduce defense costs without reducing capabilities. Every 
day soldiers and airmen of the National Guard are serving 
across the Nation and around the world in more places than any 
component of the armed forces, and they do it for a fraction of 
the cost. To best meet its Federal and State missions, the 
National Guard must be resourced adequately and 
proportionately, increasing National Guard personnel end 
strength and ensuring the force has the equipment and resources 
needed to provide more capabilities at a lower cost to the 
taxpayer.
    Our National Guard has been an integral part of the war 
fight. Hundreds of thousands of Army national guardsmen have 
deployed overseas since September the 11th, many serving 
multiple deployments. We have a battle-proven operational force 
and it would be a disservice for our National Guard to revert 
back to pre-9-11 levels of equipment, readiness, and training.
    It has been estimated that the annual requirement for the 
Army Guard to maintain its current operational level is $400 
million. While DOD has asked more and more of our National 
Guard, the funding requests for the Guard have not kept pace. 
Thankfully, Congress has helped bridge the gap. Since 1982 
Congress has provided valuable funding through the National 
Guard and Reserve equipment account, enabling both the Army and 
Air Guard to procure more needed equipment and provide 
essential modernization upgrades. With this funding, the Army 
Guard has been able to significantly close the gap on many of 
its unfunded requirements. It has enabled units across the 
Nation to go from 40 percent of its required dual use equipment 
on hand just a few years ago to nearly 75 percent today. While 
the Army Guard has made significant progress in recent years, 
the need for equipment, additional equipment, remains.
    The Air Guard also continues to use NGREA funding for vital 
modernization efforts and domestic operation requirements. 
Along with NGREA, Congress has been instrumental in other 
modernization efforts for the Air Guard. This subcommittee has 
led the way in funding the active electronic scanned array 
radar, or AESAR, for the Air Guard F-15s. However, even with 
the progress made to date, there remains a shortfall in funding 
of $52.8 million to complete this program.
    Without adequate funding from NGREA and other sources, the 
Air Guard will be unable to modernize fighter and mobility 
legacy platforms. The Air Guard must remain an equal and 
effective partner in all fielding modernization, to include the 
C-130Js, C-27s, F-35s, the KC-45.
    While equipment funding is vital, the true strength of the 
National Guard is its people. An unrivaled blend of civilian 
and military skills ensures that our National Guard members are 
effective when conducting missions abroad and at home. The 
National Guard State Partnership Program, the Agricultural 
Development Teams, and the Southwest Border Missions are 
shining examples of the unique skill set of our National Guard 
men and women. However, the current budget request creates a 
shortfall of $12 million for the State Partnership Program and 
$75 million for the counterdrug program.
    In conclusion, as America's first military organization, 
the National Guard has proven for 375 years that it is right 
for America. Drawing on the experience of the last 10 years of 
the war fight, we are convinced that the National Guard will 
emerge as a more cost effective and more mission-capable force 
into the future.
    Thank you for the opportunity to testify today on behalf of 
our Guard men and women.
    [The statement follows:]
            Prepared Statement of Major General Gus Hargett
    The National Guard Association of the United States is a 
nonpartisan organization representing nearly 45,000 current and former 
Army and Air National Guard officers. Formed in 1878, NGAUS is focused 
on procuring better equipment, standardized training and a more combat-
ready force by petitioning Congress for resources. Well over a century 
later, NGAUS has the same mission.
    Our goal is to maintain the freedom and security of this Nation by 
guaranteeing a strong national defense through the provision of a 
vital, dynamic National Guard as a part of the Total Force.
               the national guard--``right for america''
    ``A National Guard in balance is one that adds value to America. It 
is structured and resourced with adaptive and innovative citizen 
Soldiers and Airmen, ready to provide global security and assistance. A 
National Guard in balance works as a critical interagency partner at 
the local, State and Federal levels . . . anytime, anywhere.''------
General Craig R. McKinley, Chief, National Guard Bureau

    Following the Vietnam war, General Creighton Abrams was determined 
to establish a clear linkage between the employment of the Army and the 
engagement of public support for military operations. General Abrams 
reasoned that by creating a force structure that integrated Reserve and 
Active Components so closely as to make them inextricable would ensure 
Presidents would never again send the Army to war without the Reserves 
and the commitment of the American people.
    Today, with locations in more than 3,300 communities across the 
Nation, the National Guard provides an indispensable link between the 
military and the citizens of our great Nation.
    The key to National Guard efficiency is the predominantly part-time 
(traditional) force that can mobilize quickly for combat operations, or 
respond when needed for disaster response or homeland defense.
    Unless activated for combat service, fully trained traditional 
National Guard members cost approximately 25 percent of their Active 
counterparts. National Guard efficiencies compared to regular military 
components include: fewer ``pay days'' per year, lower medical costs, 
significantly lower training costs beyond initial qualification 
training, virtually no costs for relocating families and household 
goods to new duty assignments every 3 or 4 years, fewer entitlements 
such as basic allowance for housing, lower base support costs in terms 
of services and facilities including commissaries, base housing, base 
exchanges, and child care facilities.
    On average, 17 United States Governors call out their National 
Guard each day to protect life or property, and the Guard responds 
immediately, effectively, appropriately, and in-force.
    The Air National Guard (ANG) has 106,700 personnel and provides 33 
percent of the Total Air Force capabilities for less than 7 percent of 
the Total Force Defense Budget including: 100 percent of the Air 
Force's air defense interceptor force, 33 percent of the general 
purpose fighter force, 45 percent of the tactical airlift and 6 percent 
of the special operations capability, 43 percent of the air refueling 
KC-135 tankers, 28 percent of the rescue and recovery capability, 23 
percent of tactical air support forces, 10 percent of the bomber force 
and 8 percent of the strategic airlift forces. Additionally, Air Guard 
members provide a wide variety of support missions to include: 
security, medical support, civil engineering, air refueling, strike, 
airlift, and Intelligence, Surveillance, and Reconnaissance (ISR).
    The Army National Guard has 358,200 personnel and provides 32 
percent of the Total Army end-strength for only 11 percent of the Total 
Army Defense Budget. By the end of fiscal year 2010, the Army National 
Guard force structure will include 8 Division Headquarters, seven 
Brigade Combat Teams (BCT), and 44 multi-functional Support Brigades. 
Additionally, the Army National Guard will have continued the 
conversion of 21 BCTs, completing transformation of the second set of 
seven BCTs in fiscal year 2010. Since 9/11/2001, more than 340,000 Army 
National Guard men and women have been activated in support of ongoing 
combat operations. On any given day, more than 50,000 Guard soldiers 
are ``on point'' for the Nation.
    As the Department of Defense implements policies to reform the way 
the Pentagon does business by directing the Service chiefs to find more 
than $100 billion in savings over the next 5 years, the National Guard 
is ready and able to play an important role in achieving these 
necessary goals.
    The National Guard provides vast capabilities to our country in its 
dual-use, domestic support missions and overseas defense, missions 
while continuing to maintain cost-effectiveness. Increasing National 
Guard end strength and resourcing and recapitalizing its force will 
offer more capability and value at a lower cost to America.
Maintaining a Ready, Relevant, and Accessible National Guard
    For the National Guard to best meet it's Federal and State missions 
it must be resourced adequately and proportionately. Since fiscal year 
1982 Congress has funded the National Guard and Reserve Equipment 
Account (NGREA) enabling both the Army and Air National Guard to 
procure much needed equipment and provide essential modernization 
upgrades. Since its start in fiscal year 1982, the Army National Guard 
has received more $9.29 billion and the Air National Guard has received 
$6 billion in NGREA funding.
    Since fiscal year 2006 Congress has provided the ARNG with 50 
percent of its total NGREA funding. With this funding, the ARNG has 
been able to significantly close the gap on many of its emerging 
requirements and new equipment program procurements. This has enabled 
our units across the country to go from 40 percent of required 
equipment on-hand a few years ago, to nearly 75 percent today. This 
dramatic turnaround is the direct result of congressional support and 
action.
    For example, using NGREA funds, the ARNG has been able to purchase 
an additional 1,500 Family of Medium Tactical Vehicles (FMTVs), with 
plans to purchase another 1,100. The ARNG has been able to invest 
millions in critical updates to systems such as Tactical Operation 
Combat System (TOCS), Standard Integration Command Post System (SICPS), 
and War fighter Information Network-Tactical (WIN-T).
    While the ARNG has made significant progress, the need for 
additional equipment funding remains. The National Guard and Reserve 
Equipment Report for Fiscal Year 2012 (Fiscal Year 2012 NGRER), 
completed in accordance with Section 10541, Title 10, United States 
Code, identifies several challenges for the ARNG. The fiscal year 2012 
NGRER identifies a $40 billion total shortfall for the ARNG (Page 1-4). 
Additionally, the ARNG estimates it needs ``$3.5 to $4.5 billion in 
annual programmed funding (versus a $2.3 billion per year average in 
the current Future Years Defense Program) to continue to modernize and 
maintain current EOH levels and interoperability'' (Fiscal Year 2012 
NGRER, Page 2-9).
    The Fiscal Year 2012 NGRER also identifies the following challenges 
regarding equipment:
  --Achieving full component-level transparency for equipment 
        procurement and distribution;
  --Equipping ARNG units for pre-mobilization training and deployment; 
        and
  --Equipping ARNG units for their homeland missions (pages 1-8, 1-9).
    NGAUS has worked with Congress over the years to increase the 
transparency of equipment procurement and better equip the force for 
training requirements and homeland missions.
    The ARNG helicopter fleet remains an area of concern. The Army 
National Guard Black Hawk fleet will soon grow to 849 helicopters. Five 
hundred of these are older UH-60A models, with an average age exceeding 
25 years. Many UH-60As are in need of immediate replacement/conversion. 
The ``A'' model is more expensive to operate, cannot operate at higher 
altitudes, and has a 1,000 lbs lower payload capability than the newer 
``L'' and ``M'' models.
    The ARNG currently has a documented requirement for 210 UH-72A 
Lakota helicopters to support domestic missions in ``permissive'' 
environments. With over 150 aircraft now delivered to the Army on-cost 
and within schedule, the UH-72A has proven to be a robust and efficient 
multirole platform. Leveraging the success of this program for 
additional missions could lead to even greater efficiencies in meeting 
operational needs.
    The Army National Guard Chinook helicopter fleet total requirement 
is 161 aircraft. Currently, the shortage is 17 aircraft, and all 
aircraft in this fleet are CH-47D models except 3 new CH-47Fs that were 
delivered in May. The average age of the CH-47D aircraft are 25 years, 
with many that are older. The need for replacement is immediate because 
the helicopters are not only being utilized at home to support many 
missions, but also in deployments abroad especially in Afghanistan. 
This is compounded with the CH-47D's deterioration from age, recent 
operational tempo, and losses in theater. The new CH-47F provides 
better survivability, upgraded avionics (CAAS cockpit), a new airframe, 
and improved operational capability. The new features save lives and 
allow missions to be completed that wouldn't have been attempted with 
the CH-47D models.
    Finally, modernizing the ARNG Tactical Wheeled Vehicle fleet is an 
issue. While the ARNG has reached 100 percent of the requirement for 
High-Mobility Multipurpose Wheeled Vehicles (HMMWV), 72 percent of the 
fleet has already reached its Economic Useful Life of 20 years and over 
60 percent of the ARNG's HMMWV inventory are legacy vehicles, and are 
between 20 to 25 years old. Additionally, the ARNG remains short of its 
requirement for Family of Medium Tactical Vehicles.
    The ANG continues to use NGREA funding for vital modernization 
efforts and specialized domestic operations requirements. They have 
procured essential equipment such as satellite communications kits for 
our Tactical Air Control Party (TACP), medical equipment for 
pararescue, body armor for security forces, helmet mounted cuing 
systems for fighter aircraft, defensive systems for mobility aircraft, 
firefighting vehicles, and more. With the need to fully fund ongoing 
operations and continued pressure on defense budgets, obtaining 
adequate funding for procuring equipment and modernization efforts will 
continue to be a challenge. Without adequate funding from NGREA or 
other sources, the ANG will be unable to modernize legacy platforms and 
equipment and will no longer remain an equal and effective partner in 
the Total Force.
    In the last year the National Guard Bureau has implemented process 
changes in order to better obligate these funds and field the procured 
equipment and upgrades to our Soldiers and Airmen at a more rapid rate.
    Along with NGREA, Congress has been instrumental in other 
modernization efforts for the Air National Guard. It was Congress that 
funded the LITENING Targeting pods for the Air National Guard F-16 
which killed the insurgent leader Abu Musab al-Zarqawi in Iraq. And it 
is Congress that has continued to fund the Active Electronic Scanned 
Array (AESA) radar for Air National Guard F-15Cs. Since fiscal year 
2006, Congress has provided $313 million for the AESA radar program for 
ANG F-15s. The AESA radar is being fielded to our fighter wings which 
currently perform the air sovereignty alert mission in the skies over 
our Nation. This new radar provides our pilots with the combat 
capability necessary to perform the homeland defense mission by 
providing the ability to detect asymmetric threats like cruise missiles 
or low observable aircraft threatening our Nation's security. However, 
there remains a shortfall in funding to complete this program. The 
fiscal year 2012 President's budget request again did not provide the 
necessary funding to continue this essential program. For fiscal year 
2012, the ANG has recognized an unfunded requirement of $52.8 million 
for F-15C AESA radars in its Weapons System Modernization Book.
    The Fiscal Year 2012 NGRER identifies a $7 billion shortfall for 
modernization programs and shortfalls (page 5-11) in the ANG documented 
in the Weapons System Modernization Book. NGAUS has identified unfunded 
modernization priorities to include (in addition to the already 
identified AESA radar):
  --$13.85 million for the Helmet Mounted Integrated Targeting (HMIT) 
        for A-10's (Aircraft Procurement);
  --$8.3 million for the HMIT for F-16's (Aircraft Procurement);
  --$12.12 million for the Center Display Unit for F-16's (Aircraft 
        Procurement);
  --$32.8 million for the Center Display Unit for F-16's (RDTE);
  --$9 million for the Center Display Unit for F-15's (RDTE);
  --$20.5 million for LC-130 Eight Bladed Propeller Upgrade (Aircraft 
        Procurement);
  --$10.74 million for Advanced Infrared Countermeasures (IRCM) Self 
        Protection Suite for C-130's (Aircraft Procurement);
  --$70.3 million for Infrared Counter Measures (IRCM) Defensive 
        Systems for KC-135's (Aircraft Procurement);
  --$6 million for Infrared Counter Measures (IRCM) Defensive Systems 
        for KC-135's (RDTE);
  --$2.4 million for Improved Watercraft and Ground Recovery Vehicles 
        (Other Than Aircraft Procurement); and
  --$46 million for two D-RAPCON Systems (Other than Aircraft 
        Procurement).
    In the near future the ANG will be fully submerged into the 
recapitalization crisis that the entire Air Force has become victim 
too. When the F-22 buy was cut off at 187 aircraft (from the 750 
originally planned to be purchased) the ANG lost most hope of being 
assigned those aircraft, with the exception of the classic associate 
relationship at Langley (Richmond, Virginia ANG) and Hawaii.
    Although the USAF is planning to acquire 1763 F-35's, the only ANG 
facility identified to receive the F-35 to date has been Burlington, 
Vermont. Beyond that, the USAF has been very slow to make any other 
final decisions as to which, if any other, ANG locations will receive 
these aircraft beyond the first six Active units, leaving ANG leaders 
wondering if the Guard will make the cut if the F-35 buy is cut short.
    The USAF has announced that it will perform a Service Life 
Extension Program (SLEP) to approximately 300 F-16s, most of which will 
be Active Component (AC) Block 50 and 40's. The question remains, how 
will the USAF ensure the longevity of older ANG F-16s, or will they 
eventually ``cascade'' the modernized Block 40/50's F-16's to the ANG 
as the AC receives new F-35's? And, what happens if the AC does not 
receive F-35's as anticipated? The Air Force has lacked transparency 
with the Air National Guard leadership. We believe it is time to end 
this and use the ANG as a model of how to field and execute the fighter 
mission in the future.
    When discussing the crisis as related to the airlift and transport 
fleet one should remember how the ANG received the aircraft they now 
have. During the 1980's and early 1990's, the Air National Guard 
acquired a significant number of C-130 Hercules via congressional ad's, 
even though the effort was opposed by the Pentagon. Today, however, the 
Pentagon is either looking to transfer some of the newer models to AC 
locations, or claiming there is an excess of up to 40 of these 
aircraft, which, they indicate are offsetting an equal amount of C-
27Js.
    The USAF is modernizing its C-5B/C fleet with both the Avionics 
Modernization Program (AMP) and Reliability Enhancement and Re-engining 
Program (RERP), to the C-5M configuration. However, even though the Air 
Force has programmed the C-5A's (only operated in the Reserve 
Component) for AMP, these aircraft are not programmed to receive the 
RERP upgrade. Today, the USAF has begun to retire some of these 
aircraft. Despite not having the same upgraded range and fuel 
efficiency, unmodified C-5A's would not be inter-flyable by Active/
Reserve Component crews. This lack of commitment to the ANG C-5 fleet 
has left units that operate these aircraft wondering what lies ahead in 
their future, thereby negatively impacting their ability to recruit the 
future generation of militia airmen.
    After several years of the Army and Air Force coordinating to 
determine how many C-27J's would be required to provide direct ``last 
tactical mile'' airlift support for the Army, and homeland response 
capabilities for the ANG, the Joint Requirements Oversight Council 
(JROC) validated that 78 aircraft were necessary to fill this 
requirement. However, subsequently, the Secretary of Defense (SECDEF) 
seemed to ``arbitrarily'' change that number to 38, assigned the 
mission to the ANG, and justified the cut in C-27's to the Mobility 
Capabilities Requirements Study 16 (MCRS) that had identified an excess 
of 40 older C-130's. Unfortunately, the MCRS had not included the C-27 
direct support mission in this study. When the total number of C-27's 
were reduced from 78 to 38, this caused the Air Force to also reduce 
the number of aircraft based in any one location from the standard 8 
Primary Assigned Aircraft (PAA) per unit to 4, which hampers effective 
training and operations. Additionally, since the Army has declared that 
``fixed wing aviation is not a core competency,'' the Pentagon is also 
divesting the ARNG of its aging C-23 fleet before the ANG will be in a 
position to provide comparable airlift support stateside, since it will 
be focused on fulfilling its combat mission in the Middle East.
    Although the USAF has finally selected a new tanker aircraft, to 
date, it is unclear where these aircraft will be stationed.
    Finally, even though the Army does not consider fixed-wing aviation 
to be a core competency, logic tells us that some level of fixed-wing 
capability makes economic and functional sense as a niche mission, 
which has always been acknowledged and authorized under Joint Doctrine. 
And, even though the ANG may fully commit to providing direct support 
(primarily during combat operations), there will always be ``pop up'' 
missions, both stateside and deployed, that would justify a small fleet 
of fixed-wing support aircraft for the ARNG. Thus, a program to replace 
the aging C-12 and C-26 aircraft with a fleet of new light aircraft to 
take on this requirement should be pursued.
The Added Value of Citizen Soldiers and Airmen
    The true strength of the National Guard is in its people. It's our 
citizen soldiers and airmen who juggle two jobs and a family life are 
invaluable to our Nation's defense. An unrivaled blend of civilian and 
military skills ensures that our members are effective when conducting 
missions abroad and at home.
    The National Guard supports programs unmatched to other Active and 
Reserve Components. Members of the National Guard actively work on 
global engagement programs, domestic support programs and youth 
programs to improve our communities.
    The State Partnership Program (SPP) was created in 1993 with only a 
handful of partner nations. Today, these mutually beneficial 
relationships are established with more than 60 foreign nations. They 
work together to improve regional security, stability and prosperity. 
The fiscal year 2012 President's budget request creates a shortfall of 
$12 million for the SPP.
    The Agribusiness Development Teams (ADT) is another great example 
of the National Guard's fusion of military capability and civilian 
skills. The ADTs are working with the Afghan Ministry of Agriculture, 
Irrigation and Livestock to educate and train Afghan farmers in modern 
agriculture methods and techniques. These efforts will undoubtedly 
increase the quality of life and economic stability for the region 
while leading to improved opportunities for the Afghanistan agriculture 
community.
    The domestic support realm ranges depending on the immediate needs 
of the regions and the longer term outcomes that they will produce. The 
National Guard has successfully supported the Southwest border security 
mission during Operation Jump Start from 2006-2008 and has continued to 
assist the U.S. Customs and Border Protection, Department of Homeland 
Security and the Immigrations and Customs Enforcement. Along with 
border security, National Guard members are assisting these entities by 
engaging in counter-narcotic missions on the Southwest border.
    The National Guard's Counter Drug Programs help local law 
enforcement agencies with analysis and ground support resulting in tens 
of billions of dollars worth of drugs, property, weapons and cash each 
year. The National Guard's Training Centers in Mississippi, Florida, 
Iowa, Pennsylvania, and Washington train over 100,000 military 
personnel, law enforcement officers, and interagency members each year. 
The fiscal year 2012 funding shortfall for the Counterdrug Program is 
$75 million.
    When a crisis occurs, whether man-made or natural, the National 
Guard is ready to respond. National Guard members have responded to an 
unprecedented number of devastating tornadoes across the Nation in from 
Alabama to Massachusetts, including the town of Joplin, Missouri; they 
are currently performing flood relief missions in Arkansas, Louisiana, 
Mississippi, Montana, North and South Dakota, Nebraska, Vermont and 
Wyoming; and just a few months ago they were fighting wildfires over 
West Texas with their C-130Js from the California ANG.
    The National Guard has designed structured response packages which 
are scalable to provide tiered response to local, State, regional or 
national level chemical, biological, radiological, nuclear, or 
explosives (CBRNE) incidents. In addition, the National Guard is 
working with the Department of Defense to stand up 10 Homeland Response 
Forces (HRFs). These HRFs will consist of 566 personnel and provide 
life saving capabilities during emergencies, bridging the gap between 
the initial National Guard response and Title 10 capabilities.
    Our citizen soldiers and airmen are dedicated to improving their 
communities and our Nation's future. This is why the National Guard 
Youth ChalleNGe Program exists. The NGYCP is an award winning, 
community based program which mentors high school dropouts and leads 
them to become successful and productive citizens and lead successful 
and fulfilling lives. Since 1993, the NGYCP has graduated over 95,500 
students and saved over $175 million annually in juvenile correction 
costs.
Conclusion
    In today's fiscally challenged environment, it is imperative that 
our Nation looks to our cost effective and mission proven National 
Guard as a solution to maintain our high level of national security at 
an affordable cost. As America's first military organization, the 
National Guard has proven for 375 years that it is ``Right for 
America.'' With the continued support of Congress, the National Guard 
will emerge as an even more cost-effective and mission capable force in 
the future.

    Chairman Inouye. Thank you very much, General Hargett.
    Senator Cochran.
    Senator Cochran. You may have mentioned this in your 
statement and I didn't notice the specifics, but is the 
National Guard being called on for deployments at this time in 
any conflict going on anywhere outside the United States?
    General Hargett. Yes, sir. There are still guardsmen in 
Iraq, Afghanistan, and Kuwait, and probably Kosovo and other 
places around the world.
    Senator Cochran. Do you have any estimation or any 
indication--you can't predict when the war's going to be over 
and we can come home and declare victory, but what do you hear 
from people you trust about the future for the Guard's 
deployment? At some point you're going to have to say, hey, 
wait a minute, we don't have anybody to send.
    General Hargett. I predict that we will be deploying 
guardsmen long into the future. I think we're an integral part 
of the force and I think to continue to even do the 
peacekeeping operations we will continue to deploy some 
guardsmen.
    Senator Cochran. It seems to me that, with the continued 
pressures and strains on family relationships and 
unpredictability of deployment schedules, how you can maintain 
a job at home, in the traditional sense of the Guard and 
Reserve being mobilized for emergencies only, things that 
aren't anticipated or couldn't be handled by regular forces--do 
you see any breakdown in the system?
    General Hargett. You know, as the former Adjutant General 
of the Tennessee Guard, I can speak for Tennessee. But I will 
tell you that the one thing that's unrecognized in what we have 
done for the last 10 years are the families and employers who 
have--I will tell you that I think the guardsmen are willing to 
do this forever. I think the strain will be families and 
employers as we go forward, and I think we've got to have 
programs that take care of families, programs that take care of 
employers, and look toward the future.
    But I think continued use of the Guard and Reserve can 
easily be accomplished with the proper programs with employers 
and families involved in those programs.
    Senator Cochran. Well, I know just from my personal 
experience, my son was a National Guard officer in the 
Mississippi Army National Guard and he loved it and was ready 
to go any minute, anywhere. I think that's an indication of the 
way most people felt in our State. I just wonder how long they 
can sustain that, though, and manage family, homes, careers, 
which is what they do.
    But thank you very much. It's a real compliment, I think, 
to those who are involved in the Guard and continue to make it 
an important force for our national security.
    General Hargett. Thank you.
    Senator Cochran. Thank you for your service.
    Chairman Inouye. Thank you.
    Senator Shelby.
    Senator Shelby. I just appreciate his appearance here and 
his testimony. All of you, I think this has been a good 
hearing. I know you've had limited time, but we're going to 
absorb a lot of this.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Mr. Lumme.
STATEMENT OF DALE LUMME, NATIONAL EXECUTIVE DIRECTOR, 
            NAVY LEAGUE OF THE UNITED STATES
    Mr. Lumme. Chairman Inouye, Ranking Member Cochran, 
distinguished members of the subcommittee: Thank you for the 
opportunity to appear before you today to discuss the most 
urgent needs of our sea services and maritime industry. As a 
retired Navy captain and naval aviator, and on behalf of the 
thousands of worldwide members of the Navy League, I would like 
to thank this subcommittee for its diligent stewardship and 
oversight of the sea services. I think, as witnessed by 
Chairman Inouye receiving the highest Navy League award 3 years 
ago for his maritime stewardship and then the reigning Navy 
League Award winner Senator Cochran, thank you for your service 
to the Navy, Marine, Coast Guard, and flag merchant marine.
    The Navy League is a nonprofit civilian organization whose 
mission it is to educate the American people about the enduring 
importance of sea power to a maritime Nation and to support the 
men and women of the United States sea services. Since the Navy 
League's founding in 1902 with the support of President Teddy 
Roosevelt, the organization has vigorously promoted America's 
maritime interests through our strong advocacy of our sea 
services, the U.S. flag merchant marine, Coast Guard, Marine 
Corps, and Navy.
    President Roosevelt asserted that a Navy could justify its 
existence only by the protection of maritime shipping. He 
stated that ``True national greatness has in all ages and in 
all countries throughout the world been based upon waterborne 
commerce.''
    Just this past weekend, in response to the President's 
weekend address, North Dakota Senator John Hoeven stated: 
``Over 100 years ago, President Roosevelt launched a Navy 
mission known as the Great White Fleet on a voyage around the 
world. President Roosevelt's leadership put the world on notice 
that the United States was a global maritime Nation open for 
business.''
    The Navy League strongly believes that a vibrant U.S. 
maritime industry is a critical part of our national security 
and now a vital part of our economic recovery. Navy veteran 
President John F. Kennedy in June 1963 aboard the USS Kitty 
Hawk stated: ``Recent events have indicated that control of the 
sea means security, control of the seas can mean peace, and the 
United States must control the seas to protect its own national 
security.''
    Over the last 20 years, a disturbing trend has emerged. We 
continue to ask our sea services to do more and more for our 
country, yet the size of our naval fleet continues to shrink. 
The Congress has heard recent testimony that our Navy is at its 
lowest level since 1916.
    It is not the job of the Navy League to advise the U.S. 
Congress how to tackle our national debt crisis, but it is the 
job to pass appropriations bills and not continuing 
resolutions. The Navy and Marine Corps and Coast Guard is still 
recovering from the continuing resolution from fiscal year 2011 
and we implore upon you for fiscal year 2012 not to pass 
another continuing resolution to harm our combat readiness.
    It may appear an easy way to cut spending is to cut defense 
and big procurement items like ships and aircraft, and that may 
be considered some of the easiest targets. The national 
security of the United States depends on a Navy with sufficient 
number of ships to maintain a forward global presence critical 
to the U.S. economy and the protection of our democratic 
freedoms that we take for granted.
    The number one problem facing the United States Navy today 
is the lack of a fully funded, achievable shipbuilding program 
that produces the right ships with the right capabilities for 
the right cost, in the most cost-efficient, economic 
quantities. The Navy League of the United States fully supports 
rebuilding the fleet to a goal, as recently stated by the 
Secretary of the Navy, of 325 ships to properly execute the 
maritime strategy.
    The Navy League also supports pursuit of multi-year 
procurement strategies for the MH-60 helicopter, continued 
acquisition of the F-35 to replace the AV-8, the acquisition of 
an affordable combat vehicle to replace the aging and costly 
amphibious assault vehicle, and, importantly, supports the 
sustainment of a significant deterrent capability of our 
ballistic missile submarine forces, including the replacement 
of the Ohio class submarines, and strongly believes this should 
be funded on a national imperative outside of the Navy's FCN. 
The Navy is buying what they can afford, not what our Nation's 
security needs.
    The CNO recently commented at a current strategy forum: 
``It is our persistent forward presence that allows for speed 
and flexibility of response for our Nation that has been called 
upon repeatedly over the last 2 decades, and most recently in 
ongoing ops in Libya and Japan.''
    The Secretary of the Navy recently commented that: 
``Sometimes the U.S. Navy-Marine Corps team follows the storm 
to the shore and sometimes it must bring the storm.'' The 
United States is a maritime Nation with global 
responsibilities. With a forward-engaged naval tradition as a 
foundation of our existence, the Navy-Marine Corps team is 
inseparable.
    The future success of shipbuilding and many of our Navy 
programs is contingent upon our Nation's support of science, 
technology, engineering, and math education programs. The Navy 
League strongly supports additional funding levels for STEM and 
is working to support efforts to expand this program through 
our Navy Sea Cadets and Worldwide Councils.
    In conclusion, America is a maritime Nation and must 
maintain its status of maritime superiority if there is to be 
peace and prosperity and economic prosperity throughout the 
world.
    Thank you for your continued support of America's sea 
services.
    [The statement follows:]
                    Prepared Statement of Dale Lumme
    Chairman Inouye, Ranking Member Cochran, distinguished members of 
the Subcommittee, thank you for the opportunity to appear before you 
today to discuss the most urgent needs of our sea services and maritime 
industry.
    On behalf of the 50,000 members of the Navy League worldwide, I 
would like to thank this committee for its diligent work to ensure our 
sea services are provided with the very best our country can give them.
    The Navy League is a nonprofit civilian organization whose mission 
is to educate the American people and their leaders about the enduring 
importance of sea power to a maritime nation, and to support the men 
and women of the U.S. sea services.
    Since the Navy League's founding, in 1902, with the support of 
President Theodore Roosevelt, the organization has vigorously promoted 
America's maritime interests through our strong advocacy of all the sea 
services--to include the U.S.-Flag Merchant Marine, the U.S. Coast 
Guard, the U.S. Marine Corps and the U.S. Navy--and the industries that 
support them.
    The founding direction of the Navy League--adopted 109 years ago--
is still appropriate today. The Navy League mission strongly supports 
the long-standing U.S. policy that a viable U.S. maritime industry is a 
critical part of our national security and now a vital part of our 
economic recovery.
    President Roosevelt asserted that a navy could justify its 
existence only by the protection of maritime shipping. He described the 
sea as a network of trade routes, and stated that true national 
greatness has, in all ages and in all countries throughout the world, 
been based upon waterborne commerce.
    It is the Navy League's firm belief that providing for maritime 
security is--and must always be--the first and most important 
cornerstone of national security.
    However, over the last 20 years, a disturbing trend has emerged. We 
continue to ask our sea services to do more and more for our country, 
yet the size of our naval fleet continues to shrink and plans to fund 
and rebuild naval platforms continue to be plagued by unchecked cost 
growth and significant construction delays. The security and prosperity 
of our Nation lies in our ability to protect and defend our people, our 
shores and our economic interests at home and abroad. Until we change 
the tone of the conversation on the industrial base and future 
readiness from ``like to have'' to ``urgent priority,'' we may be 
putting the security and prosperity of the American people in jeopardy.
With respect to the Navy League's support of the United States Navy
    The number one problem facing the Navy today is the lack of a fully 
funded, achievable shipbuilding program that produces the right ships, 
with the right capabilities, for the right costs, in the most cost 
effective economic quantities.
    The goal of a 325-ship Navy is a long way from reality, but as we 
have seen in recent operations this Nation's fleet is in high demand on 
a daily basis.
    Our fleet already is stretched to the breaking point and it will 
become more difficult to react rapidly to humanitarian and disaster 
situations and stand ready to defeat aggression. The United States will 
not be able to meet all of our global commitments as the number of 
ships continues to decline.
    In order to provide our Nation with the maritime security 
capability needed to meet our global commitments, our Shipbuilding and 
Conversion, Navy (SCN) account should be funded at $25 billion per year 
(or more) to achieve a force level of 325 ships.
    A 325-ship Navy is not just a number. It means hulls with the 
capability to maintain presence, project power and influence events. 
They must be capable of prevailing in conflict, whether alone or as 
part of a task force.
    The fleet must have sufficient aircraft of the right mix, and key 
to that requirement is getting the next-generation fighter/attack 
aircraft--the carrier variant and the short take-off and vertical-
landing (STOVL) variant of the F-35 Lightning II, also known as the 
Joint Strike Fighter (JSF)--operational in numbers. The timely delivery 
of the JSF, along with the recently extended multiyear buy of F/A-18E/F 
Super Hornet multirole fighters and EA-18G Growler airborne electronic 
attack aircraft, will help close the projected strike fighter gap in 
the latter part of this decade.
    Finally, it is vitally important that the Navy maintain a credible 
cyber force and develop leap-ahead, interoperable and resilient 
capabilities in cyberspace to successfully counter and defeat a 
determined, asymmetric threat.
    Chief of Naval Operations Admiral Gary Roughead recently commented 
at the Current Strategy Forum in June 2011 that:
    The Navy's forward presence and flexible range of capabilities 
gives our Nation options to remain globally engaged with partners, and 
ensure our access wherever our Nation's interests might dwell.
    While our ships are able to surge on short notice, it is our 
persistent forward presence that allows for the speed and flexibility 
of response the Nation has called upon repeatedly over the last two 
decades, and most recently in ongoing operations in Libya and Japan.
    Specifically, the CNO stated:

    ``Off Libya, deployed ships and submarines broke off their patrol 
and maritime ballistic missile defense missions to deliver tomahawk 
missiles against radar and command and control sites, creating in short 
order the conditions under which a no-fly zone could be imposed.
    ``Off Japan, the deployed Ronald Reagan Strike Group responded 
immediately to the natural disaster there, with helicopter flights to 
deliver humanitarian aid and medical capabilities, with nuclear 
expertise and heavy lift to participate in the relief effort.''

    The Navy League of the United States:
  --Fully supports rebuilding the fleet to a level of 325 ships to 
        properly execute the Maritime Strategy and, inclusive in this 
        ship count, should be not less than: 11 aircraft carriers; 38 
        amphibious ships, four more if the Global Fleet Station concept 
        is adopted; 48 attack submarines; and 55 Littoral Combat Ships 
        (LCSs).
  --Supports the sustainment of a minimum of 10 carrier air wings, 
        including the continued multi-year procurement of the F/A-18E/F 
        Super Hornet, the pursuit of multi-year procurement strategies 
        for the MH-60 helicopter and the E-2C/D Hawkeye airborne early 
        warning (AEW) aircraft, and full development and follow-on 
        procurement of the F-35 Lightning II.
  --Supports the continuing development, procurement and deployment of 
        the Navy portion of the Ballistic Missile Defense System, 
        including long-range surveillance and tracking capability to 
        queue ground-based intercept systems and, ultimately, the 
        ability to detect, track and engage medium and long-range 
        ballistic missiles well distant from the United States.
  --Supports the sustainment of the significant deterrent capability 
        that our ballistic-missile submarine, or SSBN, force offers, 
        including the replacement of the Ohio-class SSBNs at the rate 
        of one per year, which should be funded as a national 
        imperative outside of the Navy's SCN plan.
  --Strongly supports the acquisition of two new Virginia-class 
        submarines per year.
  --Supports maintaining two U.S.-owned sources for building Navy 
        submarines, and maintaining a teaming agreement for 
        constructing Virginia-class submarines wherein one shipyard 
        serves as the prime contractor and the other serves as its 
        major subcontractor.
  --Supports the Navy's LCS acquisition strategy to select 10 units of 
        each hull form, based on sea trials and operating experience of 
        the initial hulls, to attain the unique attributes of each for 
        the LCS class.
  --Supports the P-8A Multi-mission Maritime Aircraft and Broad Area 
        Maritime Surveillance System, which will contribute 
        surveillance data to Maritime Operations Centers and Regional 
        Operations Centers. These centers will fuse information for 
        dissemination to Navy, Coast Guard and Joint Force Maritime 
        Component Commanders and our allies for military and 
        counterdrug operations.
  --Supports the continuing integration of unmanned aircraft systems 
        (UASs) into the fleet, including the expansion of the 
        deployment of the MQ-8B Fire Scout vertical takeoff unmanned 
        aerial vehicle, and deploying an unmanned aircraft squadron on 
        an aircraft carrier at the earliest opportunity.
  --Believes that increased emphasis and funding is required to allow 
        Navy and Coast Guard operations in the polar regions to protect 
        our access to natural resources as well as preclude these 
        regions from becoming sanctuaries for potential adversaries. 
        Communications, logistics, ship and aircraft modifications are 
        essential for such operations.
  --Supports continued funding for Combat Logistics Force assets, 
        including oiler/ammunition carriers and dry cargo/ammunition 
        carriers; large, medium-speed roll-on/roll-off ships; and new 
        classes of special mission vessels, all of which will be 
        employed in the Maritime Preposition Force (Future) squadrons.
  --Urges that naval C\4\ISR systems have increased levels of 
        information flow, resource assignments and adaptability, and 
        that procurement processes be modified to ensure the rapid 
        insertion of new technology.
  --Supports Navy emphasis on cyber warfare to ensure the viability of 
        our C\2\ systems even in the face of increased cyber attacks.
  --Supports rapid passage of the United Nations Convention on the Law 
        of the Sea, or Law of the Sea Treaty, which seeks to establish 
        a comprehensive set of rules governing the oceans.
With respect to the Navy League's support of the United States Marine 
        Corps
    The United States is a maritime nation with global 
responsibilities. With a forward engaged naval tradition as the 
foundation of our existence, the Navy-Marine Corps Team is inseparable. 
The forward presence allows for the Navy-Marine Corps Team to build 
relationships around the globe. But, we must remember, countries, like 
mothers-in-law, are happy to see you come, but you are just as happy to 
see you go.
    The Navy-Marine Corps Team's persistent forward presence and 
multimission capability present an unparalleled ability to rapidly 
project U.S. power across the global commons--land, sea, air, space and 
cyber.
    Amphibious forces with robust and organic logistical sustainment 
bring significant advantages, including the ability to overcome the 
tyranny of distance and to project power where there is no basing or 
infrastructure--a strong deterrent capability for our Nation. To 
Marines, ``expeditionary'' is a state of mind that drives the way they 
organize, train, develop and procure equipment.
    By definition, the role of the Navy-Marine Corps Team as America's 
crisis response force necessitates a high state of unit readiness and 
an ability to sustain ourselves logistically.
    The Corps must regain its expertise in amphibious operations and 
maintain that capability in force structure. The service also must be 
provided the resources to reset the force; restore or acquire anew the 
equipment capabilities consumed in the ongoing wars; and field the F-
35B STOVL variant, develop a new, affordable Amphibious Combat Vehicle 
and field sufficient amphibious lift, starting with an additional LPD 
17.
    The new Marine Armor System, the up-armored High Mobility 
Multipurpose Wheeled Vehicle (or Humvee), the Marine Personnel Carrier 
and the Joint Light Tactical Vehicle will be instrumental in achieving 
these goals. To enhance the forcible-entry ability, the Corps must 
develop the expeditionary fighting vehicle replacement vehicle, the 
Amphibious Combat Vehicle.
    Significant support is needed for weapon improvements for the 
MAGTF, particularly in the 155 mm Howitzer, the High Mobility Artillery 
Rocket System (HIMARS) and Naval Surface Fire Support.
    Within Marine Aviation, the F-35B STOVL variant of the Lightning 
II, the MV-22 Osprey tiltrotor, the CH-53K heavy-lift helicopter, the 
UH-1 and AH-1 helicopters will provide the MAGTF commander with 
unsurpassed warfighting capability.
    The combatant commanders (COCOMs) multiple missions require more 
than the planned number of amphibious ships to meet their demand for 
forward presence and crisis response. At a minimum, 38 amphibious ships 
are needed to provide an adequate number of Expeditionary Strike Groups 
(ESGs) and Marine Expeditionary Units, deploy naval forces in single 
ships as Global Fleet Stations and provide adequate time for training 
and maintenance.
    The COCOMs know that in a natural disaster or humanitarian crisis, 
a large-deck amphibious ship is the most utilitarian platform in the 
naval fleet. The Amphibious Force brings helicopter lift, mobile 
communications, medical and engineering, all the capabilities most 
needed in a humanitarian assistance or disaster relief scenario.
    The Nation requires a fleet of amphibious ships to support the 
forcible entry amphibious force of two brigades. In light of fiscal 
constraints, the Department of the Navy stated that it will sustain a 
minimum of 33 amphibious ships in the assault echelon. Amphibious 
capability demands sea basing and the Maritime Prepositioning Force. 
Protecting U.S. interests around the globe and forcible entry are 
directly tied to these amphibious capabilities.
    The Navy League of the United States supports:
  --The full funding of costs associated with resetting the force to 
        meet current and future requirements.
  --The acquisition of an affordable amphibious combat vehicle to 
        ensure we have the ability to maneuver against adversaries that 
        are becoming increasingly capable, and to replace the aging and 
        costly Amphibious Assault Vehicle force.
  --The continued acquisition of the F-35B to replace the AV-8 Harrier 
        and F/A-18 Hornet aircraft, and the acquisition of unmanned air 
        and ground systems to further enhance the flexibility, mobility 
        and versatility of Marine Corps forces.
  --Adequate Navy shipping and sealift platforms to provide the 
        expeditionary lift to support present and future COCOM 
        requirements.
  --Continued full-rate production of the MV-22 Osprey. Recent 
        successful deployments to Afghanistan of the MV-22 reinforce 
        the immediate need for this capability for both the Marine 
        Corps and U.S. Special Operations Command.
  --The recapitalization of the workhorses of Marine Corps aviation--
        the KC-130J aircraft, equipped with an improved aerial 
        refueling system, and the CH-53K, and the acquisition of UH-1Y 
        Huey and AH-1Z Super Cobra helicopters.
  --The acquisition of modern air, ground and logistics C\2\ systems 
        such as Combat Operations Centers, the Joint Tactical Radio 
        System, the Common Air C\2\ System, Joint Tactical Common 
        Operational Picture Workstation and the Global Combat Support 
        System to support joint and coalition operations.
  --The successful and continuous armor upgrades of vehicles as well as 
        anti-sniper technology and anti-improvised explosive device 
        technologies.
  --The continued acquisition of MAGTF fires improvements, particularly 
        in the 155 mm Howitzer and HIMARS, and sufficient naval surface 
        fire for joint forcible-entry operations.
  --The ongoing reconstitution and modernization efforts in the wake of 
        the extremely demanding rotation cycle of personnel and 
        equipment in Afghanistan.
  --The transition to network-centric expeditionary forces able to 
        execute the war on terrorism with ready, relevant and capable 
        forces, supported by ISR assets that strengthen joint and 
        combined capabilities, ensure presence and provide surge.
With respect to the Navy League's support of the United States Coast 
        Guard
    The U.S. Coast Guard, the 5th Armed Force, is the lead agency for 
maritime homeland security. The USCG is in the process of determining 
operational requirements for the Offshore Patrol Cutter, and then will 
build the ships as soon as feasible to replace outdated and unreliable 
Medium Endurance Cutters. The total requirement is for 25 vessels 
delivered at two per/year.
    Global climate change is opening up polar sea lanes, highlighting 
competing territorial claims. Therefore, it is essential that 
responsibility for ensuring our national sovereignty and interests in 
the Polar Regions is assigned appropriately to the U.S. Coast Guard.
    The NLUS Supports the transfer of icebreaker maintenance funds from 
the National Science Foundation to the Coast Guard. The need for a 
robust presence in the polar regions is supported by the Joint Chiefs 
of Staff to accommodate security and sovereignty concerns. The first 
step is to put the management of the Nation's icebreaking capability 
where it belongs--with the Coast Guard.
With respect to the Navy League's support of the United States Flag 
        Merchant Marine
    A strong commercial U.S. Flag Merchant Marine is more critical than 
ever.
    95 percent of the equipment and supplies required to deploy U.S. 
forces is delivered by U.S. flagged and government owned vessels, 
manned by U.S. citizen mariners.
    The Navy League of the United States supports the Jones Act and the 
Passenger Vessels Services Act which requires U.S. built ships and U.S. 
citizen crews--because they protect critical national infrastructure 
and provide added sealift capacity, are important to economic and 
national security.
    The recapitalization of the ready reserve force (RRF) is vitally 
important to our maritime industry. The RRF should not be cut back 
until sufficient replacement capacity and capability are available.
    A strong strategic sealift merchant reserve component is needed in 
the U.S. Navy to ensure that critical mariner skills and experience are 
retained to support Navy and strategic sealift transportation.
    The Navy League of the United States supports combined government 
and industry efforts to counter piracy by introducing new technologies, 
and if requested by the shipping companies, placing armed guards aboard 
ships to prevent boardings.
                              shipbuilding
    The Navy continues to struggle to meet its operational demand for 
deployable warships. The Navy deploys as many ships today as it did in 
the early 1990s, but with only two-thirds the number of ships in the 
fleet. The Navy is hard pressed to match and outpace threats from 
ballistic missiles, cruise missiles, aircraft and submarines.
    All three of the U.S. Navy's fleets--the fleet in planning, the 
fleet in construction and the fleet in being--are stressed with budget 
limitations.
    Good news lies with the success of aircraft carrier construction 
and the midlife refueling overhauls of the existing Nimitz class. The 
Virginia-class submarine construction continues with two boats a year 
authorized and funded beginning in 2011.
    The Ohio SSBN replacement is under design, with efforts to restrain 
costs and still meet the expected operational demands. This development 
and construction program, if allowed to remain in the Navy's SCN 
funding accounts, will create havoc with other vital construction 
programs. These costs should be funded independently as a national 
strategic investment.
    Major shipyards along the gulf coast have suffered from modest 
amounts of facility modernization and significant storm damage repair 
over the past decade. These shipyards must be able to plan on a 
sustainable and predictable workload, which will provide the revenue to 
support a trained work force, and facilities needed to construct our 
fleet.
    Along with constructing and supporting the Navy fleet, these yards, 
with the Naval Sea Systems Command, must support and cooperate closely 
with the U.S. Coast Guard, Military Sealift Command and MARAD. The 
plans, best practices, procedures, and research and development all 
must be shared with the industrial base. There also must be development 
in the domestic oil and gas industry's emergency response capability, 
sufficient to handle large and small oil spill response, such as the 
Deepwater Horizon oil spill.
    The shipbuilding industry needs increased investment in maritime 
research and development that includes dual-use vessels for America's 
Marine Highway System, with military-useful capabilities that can be 
called upon for DOD strategic sealift capability.
    The Navy must continue to strengthen and improve research and 
reassess its design, procurement and integration processes to produce 
affordable, combat-credible and survivable surface ships and 
submarines. Research is vital to the future fleet and its capabilities.
    The Navy League of the United States supports:
  --An increase of shipbuilding funds to the level of at least $25 
        billion per year, with the associated research and development 
        dollars to fund the requirements and design work that precedes 
        contracting for ship and submarine construction.
  --Ensuring that the funds for the SSBN(X), the Ohio-class submarine 
        replacement, are provided as needed outside of the Navy's SCN 
        budgets to preclude the disruption and delay of other vital 
        shipbuilding programs.
  --Adequate funding to recover and continue to build and sustain a 
        vital organic Navy Shipbuilding Technical Authority, including 
        a robust design and research capability and capacity, which has 
        dwindled and remains at a reduced and inadequate size.
                            industrial base
    The industrial base that services this Nation's Sea Services is, at 
best, stagnant and most likely declining. This is cause for great 
concern because it inhibits efficient ship construction, ship repair 
(battle damage) and ship modernization in a time of increased tension 
or crisis. It also inhibits price and technical competition, which 
results in paying more for goods and services and acquiring less 
advanced equipment and systems for warships and aircraft.
    The Navy and Coast Guard are only purchasing what they can afford--
not what they require to meet fleet needs. Our stocks of spare parts 
are reduced in number and our critical battle spares (shafts, 
propellers, reduction gears) are nearly nonexistent. The same limited 
availability of combat system components, such as weapon launchers, 
guns and sensors, would preclude our performing meaningful battle 
damage repairs and restoration, which with a small fleet is an 
important capability.
    The only practical source of this equipment today is found in the 
new-construction shipyards. The manufacturing lead time is extensive, 
therefore we need spares. The defense supply system stocks little if 
any of the critical steel, aluminum, piping and electric cable needed 
for major repairs.
    The labor pool possessing the critical skills necessary to produce 
our equipment and systems and construct our warships is aging, with key 
personnel leaving and not being replaced in kind. Ship construction and 
related industries are not viewed by today's younger generation as a 
viable career path.
    The key element to achieving on-time and on-price production for 
our technically advanced systems and ships is a trained and dedicated 
workforce. These shortages result in the all-too-common poor 
performance experienced in shipyards and manufacturing plants. The only 
solution is additional training and education at all levels. We are 
especially stressed with the low number of experienced ship design 
personnel and senior managers within the Navy and in industry.
    The future success of shipbuilding and many other Navy programs is 
contingent on our Nation's support of Science, Technology, Engineering, 
and Mathematics (STEM) education programs. According to the Office of 
Naval Research, more than 30 percent of current DOD Science and 
Technology professionals are expected to retire within the next 9 
years.
    STEM education equips our next-generation Sailors, Marines, 
scientists, architects, and engineers with the tools they need to 
develop new technologies and platforms that will defend America in the 
future.
    The National Science Foundation notes that roughly half of all U.S. 
economic growth over the last 50 years was the product of scientific 
innovation. It is vital to our economic and national security that we 
encourage and support math and science education programs at all 
levels. A host of programs have been designed and funded in STEM 
disciplines in order to reach kids in middle school and high school and 
inspire them to explore the opportunities and rewards that exist with a 
technical major.
    From its beginnings, the U.S. Navy has been a leader in leveraging 
technology and developing science-based solutions to defend U.S. 
interests. Today's investments in science and technology research will 
help the Navy maintain its edge as the high-tech service of the future. 
The Navy League supports additional funding levels for STEM and is 
working to support efforts to expand this program.
    Global trade is still robust, yet our own foreign commerce is 
carried in mostly foreign-built and foreign-crewed ships. A modest 
increase, beyond Jones Act construction, in commercial shipbuilding 
would give a substantial boost to our shipyards and marine vendors.
    Facilities at the larger shipyards in the United States are capable 
of constructing merchant ships as well as warships, but cannot match 
the costs, schedules and efficiencies of shipyards in Europe and Asia. 
On the other hand, U.S. yards construct and equip the best warships, 
aircraft carriers and submarines in the world. They are unmatched in 
capability, but are struggling to maintain that lead.
    No nation can support and sustain a capable and sizeable Navy 
without a strong and sustaining industrial base manned with adequate 
numbers of skilled personnel. It is essential that this Nation have a 
policy at the highest levels of government to support and sustain an 
adequate industrial base capable of providing and supporting a strong 
Navy and maritime commerce.
    The Navy League of the United States urges:
  --The U.S. Government to develop and institute an effective 
        industrial base policy that addresses critical issues such as 
        the development of improved ships, ship systems and weapons 
        with the capacity to annually produce multiple ships of a class 
        and the capability to increase capacity rapidly in time of 
        national need or emergency.
  --An increased and stable level of predictable funding for the ships, 
        submarines, aircraft and combat systems that are the essential 
        elements of our fleet. The cost of these programs continues to 
        rise beyond normal inflation rates, which is linked to low 
        production rates and unstable funding. Improved staffing, 
        additional research and stable programs with a reasonable 
        annual production rate will help contain rising costs. Costs 
        are related to schedule and, at present, our production times 
        are excessive and should be reduced. A strong industrial base 
        will assist in achieving affordable pricing for the Navy's 
        programs.
  --Capital investments in our existing infrastructure to allow us to 
        stay abreast of the latest technological advances, attract the 
        best young engineers and skilled workers, and ensure that we 
        have the capability and capacity to surge repair, produce and 
        construct the nation's fleet in time of crisis.
  --Expanded use of advanced acquisition strategies, including block 
        buys, multiyear-priced options with innovative funding 
        approaches, such as time-phased and advanced appropriations 
        that stabilize accounts and avoid disruptive funding spikes and 
        voids.
  --Support of the provision included in the fiscal year 2012 National 
        Defense Authorization Act that allows the Secretary of the Navy 
        the authority of advance purchase of major components during 
        construction of the next two Ford-class aircraft carriers and 
        to achieve cost savings by entering into multiyear advance 
        procurement agreements.
  --Adopting incentives to cut costs and schedules and reward firms 
        that achieve significant savings in both money and time, while 
        maintaining quality. This will create an environment in which 
        high-performing companies can achieve returns on capital 
        comparable to those commercial enterprises of similar risk and 
        capitalization. Contracts should be structured so that earning 
        higher fees for higher performance is achievable.
                          resetting our forces
    The national imperative to reset our Maritime Forces requires, not 
only the replacement of equipment, but also demands the continued 
effort to attract, train and retain intelligent and capable men and 
women.
    The resetting of our Maritime Forces requires the will of the 
American people, the President and Congress to commit the necessary 
resources to be prepared for our Nation's next battle. We can no longer 
demand more from an already stressed manpower pool to respond to 
worldwide disasters while redeploying to war zones and maintaining a 
high operational tempo.
    Combat operations have been continuous and equipment has been 
subjected to intense use in harsh environments. Aside from the 
requirement to buy new equipment for the increased end strength, the 
entire force needs extensive rehabilitation, repair and replacement as 
weapons and equipment are rotated out of combat.
    Likewise, prepositioned stocks and training base stocks must be 
replenished. The current reset cost estimate exceeds $15.6 billion, of 
which only about $10.9 billion has been funded. As the fight continues, 
the reset costs for equipment and training will increase apace, and 
Congress needs to understand and support this requirement.
    As the Marine Corps modernizes its combat forces, funding must be 
continued for individual survivability programs, to include personal 
protective equipment, lighter-weight gear and modern force-protection 
systems. Ground mobility must be improved to provide the Marine Corps 
the capability to effectively operate across the mission spectrum yet 
remain tailored in size to be deployable and employable.
Navy League Community Service
    Every year, the Navy League participates in countless activities 
that support service members and their families. Highlights of some of 
the accomplishments of the Navy League this past year include:
  --$1,395,712 was given by Navy League of the United States to support 
        the members of the sea services and their families.
  --Navy League supported 1,545 Welcome Home Receptions, Holiday 
        Parties, Child Care, R&R Programs, Ship Dinners and Luncheons 
        and BBQ's totaling $603,046.
  --Navy League adopted or supported 401 Navy, Coast Guard and Merchant 
        Marine ships and Marine Corps units in 2010.
  --Navy League organized or provided substantial support for 16 Navy 
        and Coast Guard ship commissioning ceremonies.
  --1,925 Sea Service Awards were given in 2010 totaling $185,720.
  --$41,970 was given in support of 546 transitioning sea service 
        members and their families.
  --$230,227 was provided to 146 Sea Cadets.
  --$103,158 was provided to 415 JROTC units.
  --$112,981 in scholarships were given to 71 sea service youths.
  --Over $20,000 worth of care packages were sent to the USO and troops 
        overseas.
  --Over 1 million paperback books have been sent to Operation 
        Paperback for overseas military personnel.
    Additionally, the Navy League of the United States is the sponsor 
of the Naval Sea Cadet Corps (NSCC). The Sea Cadets were founded by the 
Navy League in 1958 at the request of then-CNO Admiral Arleigh Burke. 
The goal was to establish a youth organization that would ``create a 
favorable image of the Navy on the part of American youth.'' The Naval 
Sea Cadet Corps was subsequently chartered by Congress in 1962 as a 
nonprofit, civilian development and training organization for youth 
ages 13 through 17, sponsored by the Navy League and supported by both 
the U.S. Navy and U.S. Coast Guard.
    The Sea Cadets recently signed a Memorandum of Understanding with 
the Coast Guard Auxiliary for training and support, and have also 
discussed Sea Cadet participation in the activities of NOAA. Included 
under the NSCC umbrella is the Navy League Cadet Corps, a junior 
program for children ages 11 through 13. The NSCC program has grown 
nationally to 10,487 participants in 387 units in all 50 States, Guam 
and Puerto Rico. The program is run by volunteers with the objective of 
developing within youth an interest and skill in seamanship and 
seagoing subjects; developing an appreciation for our navy's history, 
customs, traditions and its significant role in national defense; 
developing positive qualities of patriotism, courage, self-reliance, 
confidence, and pride in our Nation and other attributes which 
contribute to development of strong moral character, good citizenship 
traits and a drug-free, gang-free lifestyle; and to present the 
advantages and prestige of a military career.
    Many cadets enlist in the services, estimated at about 2,000 per 
year from an eligibility pool of about 20,000. Admiral Roughead 
recently indicated that every ex-Sea Cadet that enlists in the Navy 
represents a $14,000 saving in recruiting costs to the Navy. We are 
very proud that over 12 percent of the current brigade of Naval Academy 
Midshipmen are former Naval Sea Cadets.
                               conclusion
    Forward deployed forces provide a forward presence creating global 
engagements that are critical to the U.S. economy, world trade and the 
protection of democratic freedoms that so many take for granted. The 
guarantors of these vital elements are hulls in the water, boots on the 
ground and aircraft overhead.
    Since ``presence with the capability to engage'' is the primary 
strength of the Sea Services, it is imperative that we fund an 
aggressive shipbuilding and modernization program. Sustained maritime 
superiority is paramount to supporting the American economy.
    America is a maritime nation and must maintain its status of 
maritime superiority if there is to be peace and economic prosperity 
around the world. Secretary of the Navy Mabus recently commented that: 
``Sometimes the U.S. Navy-Marine Corps Team follows the storm to the 
shore--sometimes we must bring the storm''.
    In 2020, 40 percent of the U.S. Gross Domestic Product will be 
dependent on ocean shipping and maritime trade. Maritime superiority is 
essential to our economy.
    The Navy League is committed to educating and informing, the senior 
leadership in the Executive and Legislative branches of the U.S. 
Government, as well as the media and the American people, of the 
continuing need for U.S. sea power, both naval and commercial, to 
protect U.S. interests throughout the world and ensure the Nation's 
economic well-being.
    The most important ``reform'' that can be made in the field of 
national defense is to provide adequate funding for America's Sea 
Services, which are the greatest force for peace in the world.

    Chairman Inouye. Thank you very much, Mr. Lumme.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.
    Thank you very much, Mr. Lumme, for your comments and 
observations. I know the Navy League is a voluntary 
organization of mostly former officers or enlisted active duty 
persons who have served in the U.S. Navy; is that right?
    Mr. Lumme. Actually, it's not, sir. We only have 28 percent 
that are former military, so we have over 70 percent that are 
volunteers that had no military service at all.
    Senator Cochran. How do you sell people on the fact that 
they ought to pay dues to the Navy League? What is the purpose 
of the organization?
    Mr. Lumme. Our advocacy of the sea service is not only for 
the combat readiness and support of maritime--because we do 
flag merchant marine and Coast Guard also. We also support the 
families. We have individual augmentee programs, we have adopt 
a sailor programs, adopt a ship programs. Most of the ship 
commissionings that go on around the United States, Coast Guard 
and Navy, are done by the Navy League as a sponsor.
    So we sell that because of patriotic support by the members 
who didn't join the military, but maybe want to help in other 
ways.
    Senator Cochran. Well, I think that's admirable and I 
commend you for the work you do. I enjoyed serving in the Navy. 
We were lucky we weren't at war at the time. I might not have 
enjoyed it so much if somebody had been shooting at us or 
trying to sink our ship.
    But the Navy has really done a great job in projecting 
power and a presence and influence throughout the world, I 
guess for the last--how many years? When did the Navy League 
start?
    Mr. Lumme. The Navy League started in 1902.
    Senator Shelby. 1902. Quite a record of service and 
accomplishment.
    Thank you.
    Chairman Inouye. Thank you.
    Senator Shelby.
    Senator Shelby. Mr. Chairman, I just want to tell Mr. Davis 
I appreciate his testimony and appearing here today.
    Chairman Inouye. Our next witness is Mr. John Davis of the 
Fleet Reserve Association.
STATEMENT OF JOHN R. DAVIS, DIRECTOR, LEGISLATIVE 
            PROGRAMS, FLEET RESERVE ASSOCIATION
    Mr. Davis. Chairman Inouye, Vice Chairman Cochran, and 
Senator Shelby: My name is John Davis and I want to thank you 
for the opportunity to express the views of the Fleet Reserve 
Association.
    Ensuring adequate funding for the military health system is 
a top legislative priority for the association and very 
important to every segment of our membership. This is reflected 
in responses to the association's 2011 online survey, which 
revealed that over 90 percent of all active duty, reserve, 
retired, and veteran respondents cited healthcare access as a 
critically important quality of life benefit associated with 
their military service.
    FRA opposes drastic TRICARE enrollment fee increases and 
opposed the 2006 proposed increase, which was up to $2,000 
increase every year for TRICARE Prime and an estimated index 
which would cause an increase every year of about 7.5 percent.
    The association opposes the current administration's 
proposal. Although it provides a modest increase in 2012, it 
does mandate further increases past 2012 based on an index that 
measures healthcare inflation and assumes a 6.2 percent 
increase every year.
    The FRA prefers the TRICARE provisions in the House and 
Senate defense authorization bills. That, like the 
administration's proposals, provides a modest adjustment, $2.50 
per month for individuals and $5 per month for families that 
are getting TRICARE Prime, and--and I can't overestimate this 
enough--in the out-years it provides a cap for any future 
increases that is no more greater than the percentage increase 
for the cost of living adjustment for retirees. This ensures 
that the military retirees' compensation will not be eroded by 
their healthcare costs in future years.
    We are also thankful that there are no increases for 
TRICARE Standard, for their survivors, for TRICARE for Life, 
and of course for active duty military.
    The House version also eliminates copays for mail order 
generic drug prescriptions. That is something that FRA has long 
supported.
    FRA welcomes the administration's focus on creating an 
electronic health record for service members that can follow 
them to the Department of Veterans Affairs and for the rest of 
their life.
    Notwithstanding the oversight limitations, adequate funding 
for an effective delivery system between DOD and VA to 
guarantee a seamless transition and quality of service for 
wounded personnel is very important to our membership.
    The association notes that the administration has not 
proposed authorizing chapter 61 retirees to receive full 
military retired pay and veterans disability compensation, as 
it has done the last 2 years. FRA continues to seek 
authorization and funding of full concurrent receipt from all 
disabled retirees.
    Family support is also important and should include funding 
for compensation, training, and certification for respite care 
for family members functioning as full-time caregivers for 
wounded warriors. These provisions were enacted in the fiscal 
year 2011 defense authorization and are similar to the 
Caregivers and Veterans Omnibus Health Care Service Act, S. 
1963, that was enacted for the VA. Both acts improve 
compensation, training, and assistance for caregivers of 
severely disabled active duty service members.
    FRA also supports the funding for a 1.6 percent active duty 
pay increase, which at least keeps pace with salaries in the 
private sector. If authorized, FRA supports funding retroactive 
eligibility for early retirement benefit, to include reservists 
who have supported contingency operations since September 11, 
2001.
    Again, I want to thank you for allowing me to submit my 
views, the FRA's views, to this subcommittee.
    [The statement follows:]
                  Prepared Statement of John R. Davis
                                the fra
    The Fleet Reserve Association (FRA) is the oldest and largest 
enlisted organization serving active duty, Reserves, retired and 
veterans of the Navy, Marine Corps, and Coast Guard. It is 
Congressionally Chartered, recognized by the Department of Veterans 
Affairs (VA) as an accrediting Veteran Service Organization (VSO) for 
claim representation and entrusted to serve all veterans who seek its 
help. In 2007, FRA was selected for full membership on the National 
Veterans' Day Committee.
    FRA was established in 1924 and its name is derived from the Navy's 
program for personnel transferring to the Fleet Reserve or Fleet Marine 
Corps Reserve after 20 or more years of active duty, but less than 30 
years for retirement purposes. During the required period of service in 
the Fleet Reserve, assigned personnel earn retainer pay and are subject 
to recall by the Secretary of the Navy.
    FRA's mission is to act as the premier ``watch dog'' organization 
in maintaining and improving the quality of life for Sea Service 
personnel and their families. FRA is a leading advocate on Capitol Hill 
for enlisted active duty, Reserve, retired and veterans of the Sea 
Services. The Association also sponsors a National Americanism Essay 
Program and other recognition and relief programs. In addition, the 
newly established FRA Education Foundation oversees the Association's 
scholarship program that presents awards totaling nearly $120,000 to 
deserving students each year.
    The Association is also a founding member of The Military Coalition 
(TMC), a consortium of more than 30 military and veteran's 
organizations. FRA hosts most TMC meetings and members of its staff 
serve in a number of TMC leadership roles.
    FRA celebrated 86 years of service in November 2010. For nearly 
nine decades, dedication to its members has resulted in legislation 
enhancing quality of life programs for Sea Services personnel, other 
members of the uniformed services plus their families and survivors, 
while protecting their rights and privileges. CHAMPUS, now TRICARE, was 
an initiative of FRA, as was the Uniformed Services Survivor Benefit 
Plan (USSBP). More recently, FRA led the way in reforming the REDUX 
Retirement Plan, obtaining targeted pay increases for mid-level 
enlisted personnel, and sea pay for junior enlisted sailors. FRA also 
played a leading role in advocating recently enacted predatory lending 
protections and absentee voting reform for service members and their 
dependents.
    FRA's motto is: ``Loyalty, Protection, and Service.''
                                overview
    Mr. Chairman, the Fleet Reserve Association salutes you, members of 
the Subcommittee, and your staff for the strong and unwavering support 
for essential programs important to active duty, Reserve Component, and 
retired members of the uniformed services, their families, and 
survivors. The Subcommittee's work in funding these programs has 
greatly enhanced care and support for our wounded warriors, improved 
military pay, eliminated out-of-pocket housing expenses, improved 
healthcare, and enhanced other personnel, retirement and survivor 
programs. This funding is critical in maintaining readiness and is 
invaluable to our Armed Forces engaged in a long and protracted two 
front war, sustaining other operational commitments and fulfilling 
commitments to those who've served in the past. But more still needs to 
be done.
    A continuing high priority for FRA is full funding of the Military 
Health System (MHS) to ensure quality care for active duty, retirees, 
Reservists, and their families. FRA's other 2011 priorities include 
annual active duty pay increases that are at least equal to the 
Employment Cost Index (ECI), to help keep pace with private sector pay, 
retirement credit for reservists that have been mobilized since 
September 1, 2001, enhanced family readiness via improved 
communications and awareness initiatives related to benefits and 
quality of life programs, retention of full final month's retired pay 
for surviving spouse, and introduction and enactment of legislation to 
eliminate inequities in the Uniformed Service Former Spouses Protection 
Act (USFSPA).
    The Association also supports additional concurrent receipt 
improvements to expand the number of disabled military retirees 
receiving both their full military retired pay and VA disability 
compensation as proposed in the administration's budget request from 
last year.
    The fiscal year 2012 budget calls for a 1.6-percent active duty pay 
increase that equals the Employment Cost Index (ECI) and FRA supports 
that increase. The Association also supports efforts to reduce the so-
called ``Military Widows tax'' imposed on beneficiaries whose Survivor 
Benefit Plan (SBP) annuity is offset by the amount they receive in 
Dependency and Indemnity Compensation (DIC), and if authorized, funding 
to support this change.
                               healthcare
    Healthcare is especially significant to all FRA Shipmates 
regardless of their status and protecting and/or enhancing this benefit 
as noted above is the Association's top legislative priority. Responses 
to a recent FRA survey indicate that nearly 90 percent of active duty, 
Reserve, retired, and veteran respondents cited healthcare access as a 
critically important quality-of-life benefit.
    The administration is proposing an increase to the TRICARE Prime 
annual enrollment fee from $230 to $260 for individuals and from $460 
to $520 per retired family. Starting in 2013 the annual enrollment fee 
would be increased to keep pace with a medical inflation index. The 
proposal also eliminates pharmacy co-pays for mail-order generic drugs 
and increases the current retail formulary pharmacy $9 co-pay by $2 to 
$3. There are no proposed increases for TRICARE Standard, survivors, 
TRICARE-for-Life beneficiaries, and those who are medically retired. 
There are also no out-of-pocket costs for active duty service members. 
This proposed fee increase would represent a 13 percent increase in the 
TRICARE Prime annual enrollment fee in the first year and would 
apparently be indexed to Medicare Part B coverage cost increases in the 
out-years. FRA is opposed to using Medicare costs for disabled and 65 
and older beneficiaries as a basis for adjusting premiums for military 
retirees age 38-64 that undoubtedly have lower healthcare costs than 
individuals under Medicare.
    If approved, FRA believes future premium adjustments for TRICARE 
Prime beneficiaries under age 65 should be based on the Consumer Price 
Index (CPI) since military retired pay cost-of-living-adjustments 
(COLAs) are based on that measure. Any index in excess of the CPI would 
grind down the value of their retired pay and would counter the purpose 
of the COLA which to maintain the purchasing power of the beneficiary. 
The House Defense Authorization bill (H.R. 1540) authorizes the 2012 
fees increase per the administration's budget, but limits further 
increases to no more than the annual COLA, and provides the requested 
changes to pharmacy co-pays.
    The House Defense Appropriations Subcommittee bill provides $32.3 
billion for the Military Health System (MHS) in 2012 which is $935 
million more than the last fiscal year and $119 million more than 
requested by the administration. In conjunction with this, FRA strongly 
supports funding to fully implement bidirectional electronic health 
records that will follow service members as they transition from DOD to 
the VA.
    FRA also notes recommendations in recent Government Accountability 
Office (GAO) testimony before the House Committee on Oversight and 
Government Reform which identified Federal programs, agencies, offices 
and initiatives that have duplicative goals or activities. Number two 
on a list of 81 areas for consideration is realigning DOD's military 
medical command structures and consolidating common functions to 
increase efficiency which would result in projected savings of from 
``$281 million to $460 million'' annually. In addition, GAO cites 
opportunities for DOD and the Department of Veterans' Affairs (VA) to 
jointly modernize their respective electronic health record systems, 
and also control drug costs by increasing joint contracting.
    DOD must continue to investigate and implement other TRICARE cost-
saving options. The Association notes the elimination of 780 contract 
positions in conjunction with streamlining TRICARE Management Activity 
functions along with increasing inter-service cooperation and co-
locating medical headquarters operations.
    FRA also notes progress in expanding use of the mail order pharmacy 
program, Federal pricing for prescription drugs, a pilot program of 
preventative care for TRICARE beneficiaries under age 65, and 
elimination of co-pays for certain preventative services. The 
Association believes these efforts will prove beneficial in slowing 
military healthcare spending in the coming years.
                          wounded warrior care
    Last year Congress authorized a monthly stipend under the DOD 
family caregiver program for catastrophically injured or ill wounded 
warriors that is equal to the caregiver stipend provided by the 
Department of Veterans' Affairs (VA). The new program will help many 
caregivers, however, the enactment and implementation of the 
legislation is only the first step and effective oversight and 
sustained funding are also critical to ensuring future support for 
these caregivers. A recent Navy Times survey on wounded warrior care 
(November 29, 2010) indicates that 77 percent of caregivers have no 
life of their own; 72 percent feel isolated; and 63 percent suffer from 
depression.
                                  des
    In response to the Dole/Shalala Commission Report a pilot program 
was created (NDAA--fiscal year 2008--Public Law 110-181) known as the 
Disability Evaluation System (DES). The pilot provides a single 
disability exam conducted to VA standards that will be used by both VA 
and DOD and a single disability rating by VA that is binding upon both 
Departments. This pilot program has expanded and become the Integrated 
Disability Evaluation System (IDES) and is viewed as a common-sense 
approach that FRA believes will reduce bureaucratic redtape and help 
streamline the process and warrants expansion to the entire disability 
rating system. Despite jurisdictional concerns, the Association urges 
the Subcommittee to provide oversight and adequate funding as the IDES 
is implemented.
                           concurrent receipt
    The Association notes that the administration has not proposed 
authorizing Chapter 61 retirees to receive their full military retired 
pay and veteran's disability compensation as it has the last two fiscal 
years. FRA continues to seek timely and comprehensive implementation of 
legislation that authorizes and funds the full concurrent receipt for 
all disabled retirees and supports ``The Retired Pay Restoration Act'' 
(S. 344) sponsored by Majority Leader Senator Harry Reid (Nevada) which 
is comprehensive legislation that authorizes concurrent receipt for all 
disabled retirees, including those with less than 20 years of service 
who have been medically retired (Chapter 61s).
                         full final month's pay
    Current regulations require survivors of deceased armed forces 
retirees to return any retirement payment received in the month the 
retiree passes away or any subsequent moth thereafter. Upon the demise 
of a retired service member in receipt of military retired pay the 
surviving spouse is to notify the Department of Defense of the death. 
The Defense Department's finance arm, Defense Finance and Accounting 
Service (DFAS) then stops payment on the retirement account, 
recalculates the final payment to cover only the days in the month the 
retiree was alive, forwards a check for those days to the surviving 
spouse (beneficiary) and, if not reported in a timely manner, recoups 
any payment(s) made covering periods subsequent to the retiree's death. 
The recouping is made without consideration of the survivor's financial 
status.
    At a most painful time, the surviving spouse is faced with the task 
of arranging and paying for the deceased retiree's interment and that 
difficulty is only amplified by the loss of retirement income when it 
is needed most.
    That is why FRA is supporting ``The Military Retiree Survivor 
Comfort Act,'' (H.R. 493) sponsored by Rep. Walter Jones (North 
Carolina).
    The measure is related to a similar pay policy enacted by the 
Department of Veterans Affairs (VA). Congress passed a law in 1996 that 
allows a surviving spouse to retain the veteran's disability and VA 
pension payments issued for the month of the veteran's death. FRA 
believes military retired pay should be no different.
    To offset some of the costs, if the spouse is entitled to survivor 
benefit annuities (SBP) on the retiree's death, there will be no 
payment of the annuity for the month the retirement payment is provided 
the surviving spouse. If authorized, FRA urges this subcommittee to 
provide adequate funding to correct inequities associated with this 
policy.
                             defense budget
    FRA supports a defense budget of at least 5 percent of GDP to fund 
both people and weapons programs. The current level of defense spending 
(4.7 percent including supplemental spending in fiscal year 2010) is 
significantly lower than past wartime periods as a percentage of GDP 
and the Association is concerned that the administration's 5-year 
spending plan of 1 percent above inflation may not be enough for both 
people programs and weapon systems.
                            active duty pay
    The military has been appropriately excluded from the pay freeze 
for Federal employees announced by President Obama on November 29, 2010 
and FRA strongly supports the proposed 1.6 percent pay increase that 
equals the 2010 Employment Cost Index (ECI). The United States however, 
is in the 10th year of war and there is no more vital morale issue for 
our current warriors than adequate pay.
    A total of 92 percent of active duty personnel who responded to 
FRA's recent quality of life issues survey consider pay as ``very 
important,'' which was the highest rating. The Association appreciates 
the strong support from this distinguished Subcommittee in reducing the 
13.5 percent pay gap to 2.4 percent since 1999 and reiterates the fact 
that the ECI lags 15 months behind the effect date of pay adjustments 
due to budget preparation and associated Congressional action on annual 
authorizing and appropriations legislation. It should also be noted 
that the enacted fiscal year 2011 1.4 percent pay increase and the 
proposed fiscal year 2012 adjustment are the smallest pay increases in 
recent memory and do not further reduce the pay gap .
    The Association recommends that this distinguished Subcommittee 
provide funding for an active duty pay increase at least equal to the 
ECI so as not to increase the pay gap between civilian and military 
pay.
                             end strengths
    Sufficient funding to support adequate end strengths for the 
military is vital for success in Afghanistan and to sustaining other 
operations vital to our national security. FRA is concerned about calls 
for reducing end strength in the out-years to save money on the defense 
budget while still engaged for almost 10 years of war in Iraq and 
Afghanistan, a third war in Libya, renewed violence in Korea late last 
year, and support for the natural disaster in Japan. The strain of 
repeated deployments continues and is reflected in troubling stress-
related statistics that include alarming suicide rates, prescription 
drug abuse, alcohol use and military divorce rates. These are also 
related to the adequacy of end strengths and the need for adequate 
dwell time between deployments--issues that have been repeatedly 
addressed in Congressional oversight hearings.
                             reserve issues
    FRA stands foursquare in support of the Nation's Reservists. Due to 
the demands of the War on Terror, Reserve units are increasingly 
mobilized to augment active duty components. As a result, the Reserve 
component is no longer a strategic Reserve, but is an essential 
operational Reserve that is an integral part of the total force that 
has been at war for almost a decade. And because of these increasing 
demands, including missions abroad over longer periods of time, it is 
essential to ensure adequate funding for military compensation and 
benefits to retain currently serving personnel and attract quality 
recruits.
    Retirement.--If authorized, FRA supports funding retroactive 
eligibility for the early retirement benefit to include Reservists who 
have supported contingency operations since 9/11/2001 (H.R. 181). The 
fiscal year 2008 Defense Authorization Act (H.R. 4986) reduces the 
Reserve retirement age (age 60) by 3 months for each cumulative 90-days 
ordered to active duty after the effective date (January 28, 2008) 
leaving out more than 600,000 Reservists mobilized since 9/11 for duty 
in Afghanistan and Iraq.
    Family Support.--FRA supports resources to allow increased outreach 
to connect Reserve families with support programs. This includes 
increased funding for family readiness, especially for those 
geographically dispersed, not readily accessible to military 
installations, and inexperienced with the military. Unlike active duty 
families who often live near military facilities and support services, 
most Reserve families live in civilian communities where information 
and support is not readily available. Congressional hearing witnesses 
have indicated that many of the half million mobilized Guard and 
Reserve personnel have not received transition assistance services they 
and their families need to make a successful transition back to 
civilian life.
                               conclusion
    FRA is grateful for the opportunity to present these 
recommendations to this distinguished Subcommittee. The Association 
reiterates its gratitude for the extraordinary progress this 
Subcommittee has made in funding a wide range of military personnel and 
retiree benefits and quality-of-life programs for all uniformed 
services personnel and their families and survivors.

    Chairman Inouye. Thank you very much, Mr. Davis.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, I think we should express 
our appreciation to Mr. Davis for being here and helping us 
understand the recommendations of his organization. We know 
it's one of the oldest organizations supporting active duty 
military personnel and has a record of achievement. We thank 
you for your continued interest.
    Mr. Davis. Thank you.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. Mr. Chairman, I already thanked him. I got 
ahead of the panel a minute ago. But I will reiterate that.
    Mr. Davis. You can thank me again.
    Senator Shelby. We appreciate you being here.
    Mr. Davis. Thank you.
    Senator Shelby. Thank you.
    Chairman Inouye. Thank you.
    Now may I call upon Ms. Leighton. Ms. Leighton.
STATEMENT OF SUSAN LEIGHTON ON BEHALF OF THE OVARIAN 
            CANCER NATIONAL ALLIANCE
    Ms. Leighton. Good morning, Mr. Chairman, Mr. Vice 
Chairman, and Senator Shelby. I'm honored to appear before you 
in support of the Ovarian Cancer National Alliance's request of 
$20 million for the Department of Defense ovarian cancer 
research program, which I will henceforth refer to as the 
``OCRP.''
    My name is Susan Leighton. I'm from Huntsville, Alabama, 
where my husband and I settled after his retirement from the 
United States Army as a chief warrant officer 3. I am also a 
veteran.
    In the summer of 1997, at the age of 48, I was diagnosed 
with stage 3C ovarian cancer. Women diagnosed in later stages 
like myself have only a 20 percent chance of surviving 5 years. 
In an instant, I went from preparing to take my daughter to 
college to wondering whether I would see her graduate.
    I was treated at the University of Alabama in Birmingham. 
My healthcare was paid for by my husband's military health 
plan. I was fortunate to enter treatment the year after two 
chemotherapeutic agents had been approved for use as first-time 
treatment of ovarian cancer. The combination of surgery and 
those two agents put me into remission. With the exception of 
one recurrence, I have remained with no evidence of disease.
    The research that led to the discovery of those two agents 
saved my life. I saw my daughter graduate from Auburn 
University, begin a career, and walk down the aisle to marry. 
Unfortunately, the majority of women diagnosed do not have this 
fairy tale ending.
    Ovarian cancer is a heterogeneous disease. Many women do 
not respond to the type of chemotherapy that helped me. The 
survival rate for this disease has remained fairly stable. 
Fewer than 50 percent of the approximately 21,000 women 
diagnosed each year will be alive in 5 years.
    The solution to improving the survival rates is simple: 
Research. Being one of the handful of long-term survivors, I 
feel a responsibility to speak for other ovarian cancer 
patients. I have participated as a consumer reviewer on the 
OCRP panels for 2 years, bringing the patient's perspective to 
the table. As a reviewer, I help decide which research will 
benefit women diagnosed with ovarian cancer and those at risk 
of developing it in the future.
    I have seen the focus move toward studying cellular 
pathways of cancer. We are on the precipice of understanding 
how ovarian cancer develops, grows, and spreads, and ultimately 
eliminating it.
    I recently returned from the annual meeting of the American 
Society of Clinical Oncology, where I heard about studies of 
PARP inhibitors and anti-angiogenesis agents, which are showing 
promising results for ovarian cancer survivors. Many of those 
studies were funded by grants from the OCRP.
    We are very aware of the current economic climate and 
understand the constraints you face when determining where best 
to allocate funds. For that reason, we are asking for flat 
funding of the OCRP in fiscal year 2012.
    My cancer support group in Alabama has a memorial statue in 
our garden of life and remembrance. I have watched over the 
years as we have added name after name to that statue. The 
young man who engraves those names for us each year refuses to 
take payment, telling us that the only payment he wants is a 
call telling him that we have no new names to add. The only way 
this will happen is by eliminating ovarian cancer.
    The situation in Alabama is no different than in Hawaii, 
Tennessee, Texas, or any other State. By flat funding the OCRP 
we will be able to maintain our current level of research and 
move closer to that goal.
    Thank you for the opportunity to speak on behalf of women 
battling ovarian cancer today, and I'm happy to answer any 
questions.
    [The statement follows:]
                  Prepared Statement of Susan Leighton
    Good morning, Mr. Chairman, Mr. Vice Chair and Members of the 
Subcommittee. I am honored to appear before you in support of the 
Ovarian Cancer National Alliance's request of $20 million for the 
Department of Defense Ovarian Cancer Research Program (DOD OCRP), which 
I will henceforth refer to as the OCRP. My name is Susan Leighton. I am 
from Huntsville, Alabama, where my husband and I settled after his 
retirement from the United States Army as a Chief Warrant Officer, 
Three.
    The Ovarian Cancer National Alliance (the Alliance) thanks the 
Subcommittee for the opportunity to submit comments for the record 
regarding the Alliance's fiscal year 2012 funding recommendations. We 
believe these recommendations are critical to ensure that advances can 
be made to help reduce and prevent suffering from ovarian cancer. For 
the last 14 years, the ovarian cancer community has worked to increase 
awareness of ovarian cancer and advocated for additional Federal 
resources to support research that would lead to more effective 
diagnostics and treatments.
    As an umbrella organization representing more than 50 State and 
local groups, the Alliance unites the efforts of grassroots activists, 
women's health advocates and healthcare professionals to bring national 
attention to ovarian cancer.
    As part of these efforts, Alliance advocates for continued Federal 
investment in the Department of Defense Congressionally Directed 
Medical Research Programs (CDMRP). The Alliance respectfully requests 
that the Senate Appropriations Subcommittee on Defense maintain the 
fiscal year 2011 funding level of $20 million for the DOD OCRP in 
fiscal year 2012.
    In the summer of 1997, at the age of 48, I was diagnosed with stage 
IIIC ovarian cancer. Women diagnosed in later stages, like me, have 
only a 20 percent chance of surviving 5 years. In an instant, I went 
from preparing to take my daughter to college to wondering whether I 
would see her graduate.
    I was treated at the University of Alabama. I was fortunate to 
enter treatment the year after two chemotherapeutic agents had been 
approved for use as first line treatment of ovarian cancer. The 
combination of surgery and those two agents put me into remission. With 
the exception of one recurrence, I have remained with no evidence of 
disease. The research that led to the discovery of those two agents 
saved my life. I saw my daughter graduate from Auburn University, begin 
a great career and walk down the aisle to marry. Unfortunately, the 
majority of women diagnosed do not have this fairy tale ending.
    Ovarian cancer is a heterogeneous disease. Many women do not 
respond to the type of chemotherapy that helped me. The survival rate 
for this disease has remained relatively stable; fewer than 50 percent 
of the approximately 21,000 women diagnosed each year will be alive in 
5 years. The solution to improving these survival rates is simple: 
research.
    Being one of a handful of long-term survivors, I feel a 
responsibility to speak for other ovarian cancer patients. I have 
participated as a consumer reviewer on the OCRP panels for 2 years, 
bringing the patient's perspective to the table. As a reviewer, I help 
decide which research will benefit women diagnosed with ovarian cancer 
and those at risk of developing it in the future. I have seen the focus 
move toward studying cellular pathways of cancer. We are on the 
precipice of understanding how ovarian cancer develops, grows and 
spreads--and ultimately eliminating it. I recently returned from the 
annual meeting of the American Society of Clinical Oncology, where I 
heard about studies of PARP inhibitors and anti-angiogenesis agents, 
which are showing promising results for ovarian cancer survivors. Many 
of those studies were funded by grants from the OCRP.
    The DOD OCRP, which belongs to U.S. Army Medical Research and 
Materiel Command (USAMRMC), complements but does not duplicate the 
important ovarian cancer research carried out by the National Cancer 
Institute (NCI). There are three critical differences between these 
research programs.
    First, the OCRP funds innovative, high risk, high reward research 
which many large, non-DOD Federal research agencies do not have the 
flexibility to engage in.
    Second, the OCRP is designed to prevent funding research that 
overlaps with other ovarian cancer research that has been funded by the 
NCI or other agencies. Before funding an award, OCRP grant managers are 
required to thoroughly check all sources of information to determine if 
a proposal is redundant of a previous OCRP grant or a grant awarded by 
another Federal agency such as the NCI.
    Third, the OCRP pushes investigators to make rapid progress in 
their research by requiring them to reapply every funding cycle. 
Because proposal reviews conducted by the OCRP are double-blinded by 
investigator and research institution, an investigator's progress is 
evaluated on its own merit and must have sufficient new findings, data 
or ideas to warrant new funding. The OCRP's unique method of funding 
ovarian cancer research has yielded tremendous breakthroughs in the 
fight against ovarian cancer, including:
  --a new treatment using nanoparticles to deliver diphtheria toxin-
        encoding DNA to ovarian cancer cells, leaving healthy cells 
        unaffected;
  --the discovery of a compound that potentially inhibits a form of 
        ovarian cancer that makes up 40 percent of ovarian cancer 
        tumors;
  --the finding that ovarian cancer cells are sensitive to glucose 
        deprivation and resveratrol treatment; and
  --identification of the earliest molecular changes associated with 
        BRCA1- and BRCA2-related ovarian cancers, leading to biomarker 
        identification for early detection.
    Cancer research performed by the DOD has been responsible for 
fundamentally changing the way cancer research is conducted. Many 
innovative practices and methods created by the CDRMPs have been 
adopted by the NCI, such as the use of cancer patients as consumer 
reviewers in the proposal review process. Furthermore, the CDRMP has 
created funding mechanisms to incentivize research that would fill 
voids in our understanding of cancer, which NCI has closely duplicated. 
One such example is the Idea Award Other awards originated by CDRMPs 
that have been duplicated by NCI are the Era of Hope Scholar and 
Concept Award mechanisms.
A Modest Research Program that Creates Jobs
    The OCRP remains a modest program compared to the other cancer 
programs in the CDMRP:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    However, even with limited funding, the OCRP has been able to make 
vast strides in the fight against ovarian cancer. With flat funding for 
fiscal year 2012, the program can maintain current levels of research 
regarding screening, early diagnosis and treatment of ovarian cancer.
    In a time that necessitates fiscal constraint, the OCRP has been 
designed to fund ovarian cancer research with extremely low overhead: 
only 4 to 8 percent of the Federal funding is used for administrative 
costs.
    Additionally, biomedical research like that conducted through the 
DOD OCRP, is a major provider of jobs in the United States economy. A 
2008 Families USA study found that for every NIH dollar invested in 
States, $2 of economic output were created. Additionally, the report 
estimated that approximately 350,000 jobs were supported by medical 
research in 2007.
Ovarian Cancer's Deadly Statistics
    In the 40 years since the War on Cancer was declared, ovarian 
cancer mortality rates have not significantly improved. We are very 
concerned that without continued funding in fiscal year 2012 for the 
DOD OCRP to continue ovarian cancer research efforts, the Nation will 
see growing numbers of women losing their battle with ovarian cancer.
    The American Cancer Society estimates that in 2011, more than 
21,000 American women will be diagnosed with ovarian cancer, and 
approximately 15,000 will lose their lives to this terrible disease. 
Ovarian cancer is the fifth leading cause of cancer death in women. 
Currently, more than one-half of the women diagnosed with ovarian 
cancer will die within 5 years. When detected early, the 5-year 
survival rate increases to more than 90 percent, but when detected in 
the late stages, the 5-year survival rate drops to less than 29 
percent.
    A valid and reliable screening test--a critical tool for improving 
early diagnosis and survival rates--still does not exist for ovarian 
cancer. Behind the sobering statistics are the lost lives of our loved 
ones, colleagues and community members. While we have been waiting for 
the development of an effective early detection test, thousands of our 
mothers, daughters, sisters and friends have lost their lives to 
ovarian cancer.
    In 2007, a number of prominent cancer organizations released a 
consensus statement identifying the early warning symptoms of ovarian 
cancer. Without a reliable diagnostic test, we can rely only on this 
set of vague symptoms of a deadly disease, and trust that both women 
and the medical community will identify these symptoms promptly. 
Unfortunately, we know that this does not always happen. Too many women 
are diagnosed at late stage due to the lack of a test; too many women 
and their families endure life-threatening and debilitating treatments 
to kill cancer; too many women are lost to this horrible disease.
    Our organization exists to ensure that women are diagnosed early, 
receive appropriate treatments, are active participants in their care 
and not just survive, but thrive. All women should have access to 
treatment by a gynecologic oncology specialist. All women should have 
access to a valid and reliable detection test. We must deliver new and 
better treatments to patients and the physicians and nurses who treat 
them. Until we have a test, we must continue to increase awareness and 
educate women and health professionals about the signs and symptoms 
associated with this disease.
Even with Limited Funding, OCRP Expands
    Large ovarian cancer research teams do not exist in many academic 
medical or research centers. In order to provide much-needed mentoring, 
networking and a peer group for young ovarian cancer researchers, the 
OCRP created an Ovarian Cancer Academy award in fiscal year 2009. The 
OCRP Ovarian Cancer Academy is intended to develop a unique, 
interactive virtual academy that will provide intensive mentoring, 
national networking and a peer group for junior faculty. The 
overarching goal of this award is to develop young scientists into the 
next generation of successful and highly productive ovarian cancer 
researchers within a collaborative and interactive research training 
environment.
    Additionally, in fiscal year 2010 the OCRP allowed ovarian cancer 
researchers to compete for the Consortium Award. The Consortium 
Development Award is an infrastructure development mechanism that 
provides support to create a Coordinating Center and establish the 
necessary collaborations at potential research sites for the 
development of a multi-institutional ovarian cancer research team. 
Participants in these consortiums will be scientists and/or clinicians 
who have made significant contributions to the field of ovarian cancer 
or who have a specific expertise related to the early changes 
associated with ovarian cancer progression.
Senate Support for Fiscal Year 2012 Appropriation Request
    This year, the ovarian cancer community has been proactive in 
securing support for our fiscal year 2012 appropriation request. A 
letter addressed to you in support of the $20 million appropriation for 
the OCRP was signed by Senators Robert Menendez and Olympia Snowe, who 
were joined by Richard Blumenthal, Susan Collins, Dick Durbin, Kirsten 
Gillibrand, Kay Hagan, John F. Kerry, Herb Kohl, Jeffrey Merkley, 
Debbie Stabenow and Ron Wyden.
    A letter from Senator Robert Casey addressed to you in support of 
all medical research conducted by the Department of Defense through the 
Congressionally Directed Medical Research Program (CDMRP) was signed by 
Senators Barbara Boxer, Al Franken, Kirsten Gillibrand, Tim Johnson, 
John Kerry, Patrick Lautenberg, Jack Reed, Olympia Snowe, Jon Tester 
and Ron Wyden.
Summary
    The Alliance maintains a long-standing commitment to work with 
Congress, the Administration, and other policymakers and stakeholders 
to improve the survival rate from ovarian cancer through education, 
public policy, research and communication. Please know that we 
appreciate and understand that our Nation faces many challenges and 
that Congress has limited resources to allocate; however, we are 
concerned that without the funding to maintain ovarian cancer research 
efforts, the Nation will continue to see many women lose their lives to 
this terrible disease.
    We are very aware of the current economic climate, and understand 
the constraints you face when determining where best to allocate funds. 
For that reason, we are asking for flat funding of the OCRP in fiscal 
year 2012 at $20 million.
    My cancer support group in Alabama has a memorial statue in our 
Garden of Life and Remembrance. I have watched over the years as we 
added name after name to the statue. The young man who engraves those 
names each year refuses to take payment, telling us that the only 
payment he wants is a call telling him that we have no new names to 
add. The only way this will happen is by eliminating ovarian cancer. 
The situation in Alabama is no different than that in Hawaii, 
Tennessee, Texas or any other State. By flat-funding the Ovarian Cancer 
Research Program, we will be able to maintain our current level of 
research and move closer to that goal.
    Thank you for this opportunity to speak on behalf of women battling 
ovarian cancer today. I am happy to answer any questions.

    Chairman Inouye. I thank you very much, Ms. Leighton.
    Ms. Leighton. Thank you.
    Chairman Inouye. Senator Cochran.
    Senator Cochran. Mr. Chairman, I am reminded of the 
leadership that you and former Chairman Senator Ted Stevens 
have given to research in many different areas of troubling 
concern, not only to traditional threats to the life and good 
health of men and women in active duty situations, but to 
families and how they can be affected by misfortune and 
illness.
    So I think of Ted Stevens and you working together over the 
years to make sure that funds are found where there is a need 
that exists. I think this is an indication of one of those 
instances and we should respond in a favorable way.
    Ms. Leighton. Thank you.
    Chairman Inouye. Thank you.
    Senator Shelby.
    Senator Shelby. Mr. Chairman, I appreciate my constituent 
testifying here today. I also appreciate her sharing her story, 
because she is a survivor where a lot of women with ovarian 
cancer have not. As she said in her testimony, her written 
testimony, she was fortunate to enter a treatment the year 
after two breakthrough agents had come through, through 
research, for the treatment.
    She also mentions in her--answers one of my questions that 
I posed to the subcommittee earlier, whether or not we were 
duplicating any of these things. She points out in her 
testimony--I think it's very important--that a lot of this 
research complements, but does not duplicate, the important 
ovarian research, cancer research, carried out by the National 
Cancer Institute, and the differences there. I think that's 
very, very important.
    I'm proud to have her testify here. I like her story and 
what she's doing is trying to save other people's lives.
    Thank you.
    Ms. Leighton. Thank you.
    Chairman Inouye. I thank the panel very much. Thank you 
very much.
    Our last panel: Dr. John Elkas, Society of Gynecologic 
Oncologists; and Mr. Jonathan Schwartz, representing ZERO--The 
Project to End Prostate Cancer.
    May I call upon Dr. Elkas.
STATEMENT OF JOHN C. ELKAS, M.D., COMMANDER, U.S. NAVAL 
            RESERVE, ON BEHALF OF THE SOCIETY OF 
            GYNECOLOGIC ONCOLOGISTS
    Dr. Elkas. Chairman Inouye, Senator Cochran, Senator 
Shelby: Thank you for inviting me to testify in today's 
hearing. My name is Dr. John Elkas and I am here today on 
behalf of the Society of Gynecologic Oncologists and the 
millions of Americans touched each year by ovarian cancer, 
including our military families.
    I practice medicine in the D.C. metropolitan area, where I 
am an associate clinical professor in the department of 
obstetrics and gynecology at the George Washington University 
Medical Center, and I am also a commander in the United States 
Naval Reserve and an adjunct associate professor of obstetrics 
and gynecology at the Uniformed Services University of the 
Health Sciences.
    I am honored to be here and pleased that this subcommittee 
is focusing attention on the Department of Defense 
congressionally directed medical research program in ovarian 
cancer. Since its inception 14 years ago, the OCRP has targeted 
the highest needs in ovarian cancer research, funding high-
risk, high-reward research on a range of issues from early 
cancer detection to personalized treatment and quality of life.
    One in 69 women will develop ovarian cancer and less than 
one-half will survive for 5 years. One woman dies of ovarian 
cancer every hour in our country. It is expected that more than 
22,000 women will be diagnosed with the disease this year and 
14,000 women will die from the disease in 2011.
    During the last 5 years, over 2600 members of our military 
or their families have been hospitalized for ovarian cancer or 
suspected ovarian cancer. These individuals have spent over 
14,000 bed-days in military treatment facilities.
    The Department of Defense ovarian cancer research program, 
which belongs to the U.S. Army Medical Research and Material 
Command, supports the forward momentum of critical research to 
understand, prevent, and treat this disease that affects the 
warfighter, military beneficiaries, and the general public.
    The DOD OCRP is able to facilitate collaboration between 
civilian and military research programs and because of this it 
is able to share successes, such as raising the standard of 
care of both military and civilian populations, lowering the 
incidence, mortality, and burden of ovarian cancer, while in 
turn reducing the economic drain on society.
    The OCRP's unique method of funding ovarian cancer research 
has yielded tremendous breakthroughs in the fight of ovarian 
cancer, such as a new treatment using nanoparticles to attack 
ovarian cancer cells while leaving healthy cells unaffected, 
the finding that ovarian cancer cells are sensitive to glucose 
deprivation, leading to more targeted treatments, and 
identifying the earliest molecular changes associated with 
BRCA1- and BRCA2-related ovarian cancers, leading to biomarker 
identification, again for early detection.
    Today ovarian cancer researchers are still struggling to 
develop the first ovarian cancer screening test. With 
traditional research models largely unsuccessful, the innovator 
grants awarded by the DOD OCRP are integral in moving this 
field of research forward.
    The Society of Gynecologic Oncology joins with the Ovarian 
Cancer National Alliance and the American Congress of 
Obstetricians and Gynecologists to urge this subcommittee to 
maintain Federal funding for the OCRP at $20 million for fiscal 
year 2012. Military beneficiaries will benefit in the same way 
the American general public stands to gain from research on 
this deadly disease. For every dollar that is saved from 
reducing the cost of cancer care for our military, another 
dollar can be used to support the warfighter. The DOD ovarian 
cancer research program is making a difference in the lives of 
our military beneficiaries and the general public.
    Thank you again for your attention to this request and for 
allowing me to testify before you today.
    [The statement follows:]
                  Prepared Statement of John C. Elkas
    Mr. Chairman, Ranking Member and members of the subcommittee, thank 
you for inviting me to testify at today's hearing. My name is Dr. John 
C. Elkas and I am here today on behalf of the Society of Gynecologic 
Oncology. I practice medicine in the D.C. metropolitan area, where I am 
an associate clinical professor in the department of obstetrics and 
gynecology at the George Washington University Medical Center and in 
private practice in Annandale, Virginia. I am also a Commander in the 
U.S. Naval Reserve and an adjunct associate professor of obstetrics and 
gynecology for the Uniformed Services University of the Health Sciences 
in Bethesda, Maryland.
    I am honored to be here and pleased that this subcommittee is 
focusing attention on the Department of Defense (DOD) Congressionally 
Directed Medical Research Program in Ovarian Cancer (OCRP). Since its 
inception now 14 years ago, the OCRP has targeted the highest needs in 
ovarian cancer research, funding high-risk, high-reward research on a 
range of issues from early cancer detection to personalized treatment 
and quality of life.
    This morning, I will try to outline some of the important 
contributions this DOD program has made to ovarian cancer research, the 
well-being of our patients, and its relevance to our military and to 
their families. In fact, it is quite easy to demonstrate that this 
investment by the Federal Government has resulted in substantial 
benefits and value to medicine, to science and most importantly 
improved patient care.
    As this subcommittee may know, ovarian cancer usually arises from 
the cells on the surface of the ovary and can be extremely difficult to 
detect. According to the American Cancer Society, in 2010, more than 
22,000 women were diagnosed with ovarian cancer and approximately 
14,000 lost their lives to this terrible disease. Ovarian cancer causes 
more deaths than all the other cancers of the female reproductive tract 
combined, and is the fourth highest cause of cancer deaths among 
American women. One of our biggest challenges lies in the fact that 
only 19 percent of all ovarian cancers are detected at a localized 
stage, when the 5-year relative survival rate approaches 93 percent. 
Unfortunately, most ovarian cancer is diagnosed at late or advanced 
stage, when the 5-year survival rate is only 31 percent.
    Nationally, biomedical research funding has grown over the last 
decade through increased funding to the National Institutes of Health, 
in no small part to the amazing efforts of members of this 
Subcommittee. Yet funding for gynecologic cancer research, especially 
for the deadliest cancer that we treat, ovarian cancer, has been 
relatively flat. Since fiscal year 2003, the funding levels for 
gynecologic cancer research and training programs at the NIH, NCI, and 
CDC have not kept pace with inflation, with the funding for ovarian 
cancer programs and research training for gynecologic oncologists 
actually suffering specific cuts in funding due to the loss of an 
ovarian cancer Specialized Project of Research Excellence (SPORE) in 
2007 that had been awarded to a partnership of DUKE and the University 
of Alabama-Birmingham. Were it not for the DOD OCRP, many researchers 
might have abandoned their hopes of a career in basic and translation 
research in ovarian cancer and our patients and the women of America 
would be waiting even longer for reliable screening tests and more 
effective therapeutic approaches.
    As a leader in the Society of Gynecologic Oncology (SGO) and as a 
gynecologic oncologist who has provided care to women affiliated with 
the United States Navy, I believe that I bring a comprehensive 
perspective to our request for increased support. The SGO is a national 
medical specialty organization of physicians who are trained in the 
comprehensive management of women with malignancies of the reproductive 
tract. Our purpose is to improve the care of women with gynecologic 
cancer by encouraging research, disseminating knowledge which will 
raise the standards of practice in the prevention and treatment of 
gynecologic malignancies and cooperating with other organizations 
interested in women's healthcare, oncology and related fields. More 
information on the SGO can be found at www.sgo.org.
    We, the members of the SGO, along with our patients who are 
battling ovarian cancer every day, depend on the DOD OCRP research 
funding. It is through this type of research funding that a screening 
and early detection method for ovarian cancer can be identified which 
will allow us to save many of the 14,000 lives that are lost to this 
disease each year.
    During the last 5 years, over 2,600 members of our military or 
their families have been hospitalized for ovarian cancer or suspected 
ovarian cancer. These individuals have spent over 14,000 bed days of 
care in military treatment facilities.
    The Department of Defense Ovarian Cancer Research Program (DOD 
OCRP) which belongs to U.S. Army Medical Research and Materiel Command 
(USAMRMC) supports the forward momentum of critical research to 
understand, prevent, and treat this disease that affects the 
warfighter, military beneficiaries, and the general public. DOD OCRP is 
able to facilitate collaboration between civilian and military research 
programs. Because the military is involved in research performed at 
civilian health facilities nationwide, the DOD OCRP is able to share 
successes and assist in raising the standard of care for both military 
and civilian populations, lowering the incidence, mortality and burden 
of this cancer, while in turn reducing the economic drain on society.
    Therefore, on behalf of the SGO, I respectfully request that the 
Senate Appropriations Subcommittee on Defense maintain the fiscal year 
2011 funding level of $20 million for the OCRD for fiscal year 2012.
Department of Defense Ovarian Cancer Research Program: Building an Army 
        of Ovarian Cancer Researchers
            New Investigators Join the Fight
    Since its inception in fiscal year 1997, the DOD OCRP has funded 
236 grants totaling more than $160 million in funding. The common goal 
of these research grants has been to promote innovative, integrated, 
and multidisciplinary research that will lead to prevention, early 
detection, and ultimately control of ovarian cancer. Much has been 
accomplished in the last decade to move us forward in achieving this 
goal.
    In Senator Mikulski's home State of Maryland, where many of my 
patients also live, the DOD OCRP has funded research on important 
questions such as:
  --Defining biomarkers of serous carcinoma, using molecular biologic 
        and immunologic approaches, which are critical as probes for 
        the etiology/pathogenesis of ovarian cancer. Identifying 
        biomarkers is fundamental to the development of a blood test 
        for diagnosis of early stage disease and also ovarian cancer-
        specific vaccines;
  --Developing and evaluating a targeted alpha-particle based approach 
        for treating disseminated ovarian cancer. Alpha-particles are 
        short-range, very potent emissions that kill cells by incurring 
        damage that cannot be repaired; one to three alpha-particles 
        tracking through a cell nucleus can be enough to kill a cell. 
        The tumor killing potential of alpha-particles is not subject 
        to the kind of resistance that is seen in chemotherapy; and
  --Understanding of the molecular genetic pathways involved in ovarian 
        cancer development leading to the identification of the cancer-
        causing genes (``oncogenes'') for ovarian cancer.
    In Senator Murray's home State of Washington, the DOD OCRP has 
funded five grants in the last 5 years to either the University of 
Washington or to the Fred Hutchinson Cancer Center to study research 
questions regarding:
  --The usefulness of two candidate blood-based microRNA markers for 
        ovarian cancer detection, and the identification of microRNAs 
        produced by ovarian cancer at the earliest stages, which may 
        also be the basis for future blood tests for ovarian cancer 
        detection;
  --The first application of complete human genome sequencing to the 
        identification of genes for inherited ovarian cancer. The 
        identification of new ovarian cancer genes will allow 
        prevention strategies to be extended to hundreds of families 
        for which causal ovarian cancer genes are currently unknown; 
        and
  --Proposed novel technology, stored serum samples, and ongoing 
        clinical studies, with the intend of developing a pipeline that 
        can identify biomarkers that have the greatest utility for 
        women; biomarkers that identify cancer early and work well for 
        the women in most need of early detection, that can immediately 
        be evaluated clinically.
    One of the first, and very successful, grant recipients from the 
DOD OCRP hails from the Fred Hutchinson Cancer Research Center in 
Seattle, Washington, Dr. Nicole Urban. Dr. Urban has worked extensively 
in the field of ovarian cancer early detection biomarker discovery and 
validation. Her current program in translational ovarian cancer 
research was built on work funded in fiscal year 1997 by the OCRP, 
``Use of Novel Technologies to Identify and Investigate Molecular 
Markers for Ovarian Cancer Screening and Prevention.'' Working with 
Beth Karlan, M.D. at Cedars-Sinai and Leroy Hood, Ph.D., M.D. at the 
University of Washington, she identified novel ovarian cancer 
biomarkers including HE4, Mesothelin (MSLN), and SLPI using comparative 
hybridization methods. These discoveries lead to funding in 1999 from 
the National Cancer Institute (NCI) for the Pacific Ovarian Cancer 
Research Consortium (POCRC) Specialized Program of Research Excellence 
(SPORE) in ovarian cancer.
    The DOD and NCI funding allowed her to develop resources for 
translational ovarian cancer research including collection, management, 
and allocation of tissue and blood samples from women with ovarian 
cancer, women with benign ovarian conditions, and women with healthy 
ovaries. The DOD grant provided the foundation for what is now a mature 
specimen repository that has accelerated the progress of scientists at 
many academic institutions and industry.
    In Senator Feinstein's home State of California, 25 grants have 
been funded by the DOD OCRP since the program was created in 1997 to 
study research questions such as:
  --Strategies for targeting and inhibiting a protein called focal 
        adhesion kinase (FAK) that promotes tumor growth-metastasis. 
        With very few viable treatment options for metastatic ovarian 
        cancer, this research could lead to drug development targeting 
        these types of proteins;
  --Developing a tumor-targeting drug delivery system using Nexil 
        nanoparticles that selectively adhere to and are ingested by 
        ovarian carcinoma cells following injection into the peritoneal 
        cavity. The hypothesis for this research is that the 
        selectivity of Nexil can be substantially further improved by 
        attaching peptides that cause the particle to bind to the 
        cancer cells and that this will further increase the 
        effectiveness of intraperitoneal therapy; and
  --Using several avenues of investigation, based on our understanding 
        of the biology of stem cells, to identify and isolate cancer 
        stem cells from epithelial ovarian cancer. This has significant 
        implications for our basic scientific understanding of ovarian 
        cancer and may drastically alter treatment strategies in the 
        near future. Therapies targeted at the cancer stem cells offer 
        the potential for long-term cures that have eluded most 
        patients with ovarian cancer.
    In Senator Hutchinson's home State of Texas, 20 grants have been 
funded since the inception of the DOD OCRP in 1997, to study research 
questions regarding:
  --Understanding the pre-treatment genomic profile of ovarian cancer 
        to then isolate the predictive response of the cancer to anti-
        vasculature treatment, possibly leading to the identification 
        of targets for novel anti-vasculature therapies;
  --Ovarian cancer development directly in the specific patient and her 
        own tumor. While this process has lagged behind in ovarian 
        cancer and improving patient outcomes, it has shown great 
        promise in other solid, tumor cancers; and
  --Identifying the earliest molecular changes associated with BRCA1- 
        and BRCA2-related and sporadic ovarian cancers, leading to 
        biomarker identification for early detection.
    As you can see from these few examples, the 236 grants have served 
as a catalyst for attracting outstanding scientists to the field of 
ovarian cancer research. In the 4 year period of fiscal year 1998-
fiscal year 2001 the OCRP enabled the recruitment of 29 new 
investigators into the area of ovarian cancer research.
            Federally Funding is Leveraged Through Partnerships and 
                    Collaborations
    In addition to an increase in the number of investigators, the 
dollars appropriated over the last 13 years have been leveraged through 
partnerships and collaborations to yield even greater returns, both 
here and abroad. Past-President of the SGO, Dr. Andrew Berchuck of Duke 
University Medical Center leveraged his OCRP DOD grants to form an 
international Ovarian Cancer Association Consortium (OCAC) that is now 
comprised of over 20 groups from all across the globe. The consortium 
meets biannually and is working together to identify and validate 
single nucleotide polymorphisms (SNPs) that affect disease risk through 
both candidate gene approaches and genome-wide association studies 
(GWAS). OCAC reported last year in Nature Genetics the results of the 
first ovarian cancer GWAS, which identified a SNP in the region of the 
BNC2 gene on chromosome 9 (Nature Genetics 2009, 41:996-1000.)
    Dr. Berchuck and his colleagues in the association envision a 
future in which reduction of ovarian cancer incidence and mortality 
will be accomplished by implementation of screening and prevention 
interventions in women at moderately increased risk. Such a focused 
approach may be more feasible than population-based approaches, given 
the relative rarity of ovarian cancer.
    The DOD OCRP program also serves the purpose of strengthening U.S. 
relationships with our allies, such as Australia, the United Kingdom, 
and Canada. Dr. Peter Bowtell, from the Peter MacCallum Cancer Centre 
in Melbourne, Australia, was awarded a fiscal year 2000 Ovarian Cancer 
Research Program (OCRP) Program Project Award to study the molecular 
epidemiology of ovarian cancer. With funds from this award, he and his 
colleagues formed the Australian Ovarian Cancer Study (AOCS), a 
population-based cohort of over 2,000 women with ovarian cancer, 
including over 1,800 with invasive or borderline cancer. With a bank of 
over 1,100 fresh-frozen tumors, hundreds of formalin-fixed, paraffin-
embedded (FFPE) blocks, and very detailed clinical follow-up, AOCS has 
enabled over 60 projects since its inception, including international 
collaborative studies in the United States, United Kingdom, and Canada. 
AOCS has facilitated approximately 40 publications, most of which have 
been released in the past 2 years.
    One last important example of the value of the DOD OCRP's 
contribution to science is the program's focus on inviting proposals 
from the Historically Black Colleges and Universities and Minority-
Serving Institutions. This important effort to reach beyond established 
clinical research partnerships expands the core research infrastructure 
for these institutions which helps them to attract new investigators, 
leveraging complementary initiatives, and supporting collaborative 
ventures.
    Over the decade that the OCRP has been in existence, the 236 
grantees have used their DOD funding to establish an ovarian cancer 
research enterprise that is much greater in value than the annually 
appropriated Federal funding.
            Opportunities are Lost Because of Current Level of Federal 
                    Funding
    These examples of achievement are obscured to a great degree by 
opportunities that have been missed. At this current level of funding, 
this is only a very small portion of what the DOD OCRP program could do 
as we envision a day where through prevention, early detection, and 
better treatments, ovarian cancer is a manageable and frequently 
curable disease. Consistently, the OCRP receives over 500 letters of 
intent for the annual funding cycle. Of this group, about 50 percent 
are invited to submit full proposals. Prior to fiscal year 2009, the 
OCRP was only able to fund approximately 16 grants per year, a pay line 
of less than 7 percent. With an increase in funding to $20 million in 
fiscal year 2009, $18.75 million in fiscal year 2010 and $20 million in 
fiscal year 2011, the program had been able to consistently fund more 
grants with the DOD being able to account for every dollar and how it 
is used.
Department of Defense Ovarian Cancer Research Program: Exemplary 
        Execution with Real World Results
            Integration Panel Leads to Continuous Evaluation and 
                    Greater Focus
    By using the mechanism of an Integration Panel to provide the two-
tier review process, the OCRP is able to reset the areas of research 
focus on an annual basis, thereby actively managing and evaluating the 
OCRP current grant portfolio. Gaps in ongoing research can be filled to 
complement initiatives sponsored by other agencies, and most 
importantly to fund high risk/high reward studies that take advantage 
of the newest scientific breakthroughs that can then be attributed to 
prevention, early detection and better treatments for ovarian cancer. 
An example of this happened in Senator Mikulski's and my home State of 
Maryland regarding the development of the OVA1 test, a blood test that 
can help physicians determine if a woman's pelvic mass is at risk for 
being malignant. The investigator, Zhen Zhang, Ph.D. at Johns Hopkins 
School of Medicine, received funding from an Idea Development Award in 
fiscal year 2003. Dr. Zhang discovered and validated five serum 
biomarkers for the early detection of ovarian cancer. This bench 
research was then translated and moved through clinical trials. The OVA 
test was approved by the FDA and is now available to clinicians for use 
in patient care.
            More Than a Decade of Scientific Success
    The program's successes have been documented in numerous ways, 
including 469 publications in professional medical journals and books; 
576 abstracts and presentations given at professional meetings; and 24 
patents, applications and licenses granted to awardees of the program. 
Investigators funded by the OCRP have succeeded with several crucial 
breakthroughs in bringing us closer to an algorithm for use in 
prevention and early detection of ovarian cancer.
    The Society of Gynecologic Oncology joins with the Ovarian Cancer 
National Alliance and the American Congress of Obstetricians and 
Gynecologists to urge this Subcommittee to maintain Federal funding for 
the OCRP at $20 million for fiscal year 2012. Military beneficiaries 
will benefit in the same way the general American public stands to gain 
from research in these deadly diseases. For every dollar that is saved 
from reducing the cost of cancer care for our military, another dollar 
can be used to support the warfighter. The DOD Ovarian Cancer Research 
Program is making a difference in the lives of military beneficiaries 
and the general public. I thank you for your leadership and the 
leadership of the Subcommittee on this issue.

    Chairman Inouye. I thank you very much, Dr. Elkas.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, we appreciate very much Dr. 
Elkas being here and bringing us up to date on the ovarian 
cancer research program. This subcommittee has supported this. 
Interesting how many women members of our Committee on 
Appropriations are mentioned in the testimony. It just reminds 
us that throughout not only the military, but our civilian 
population, more and more of our leaders are women, and it's 
certainly appropriate that this insidious illness is being 
targeted by your organization. We wish you well.
    Dr. Elkas. Thank you, sir.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. Mr. Chairman, I just want to pick up on 
some of his testimony.
    One of our biggest challenges, you say, lies in the fact 
that only 19 percent of all ovarian cancers are detected at a 
localized and early stage, when the 5-year relative survival 
rate then would approach 93 percent. You point out most ovarian 
cancer is diagnosed at a later, advanced stage when the 5-year 
survival rate drops down to 31 percent.
    Tell me what research is being done and what promise is 
there to help do the early detection when the survival rate 
could be so high?
    Dr. Elkas. Thank you for your question, Senator. I'm 
excited because I think what makes the DOD OCRP program so 
unique and so wonderful is its ability to fund programs that 
would be otherwise very difficult to get funded through the NIH 
funding mechanism. Very recently, the FDA approved a screening 
test, a serum, a blood test that was developed through these 
dollars, that now better allows us to screen and detect ovarian 
cancer. It's not a perfect test, but it's certainly a step 
forward.
    In the coming weeks, in my practice at Fairfax I'll operate 
on 20 women in the coming weeks and find one ovarian cancer. 
That's 19 unnecessary surgeries. From my 14 years on active 
duty service, bringing women back from overseas for surgeries, 
many of which unnecessary, but certainly had to be done because 
of our lack of a screening modality--we hope that advances like 
we've already made will continue to be made, and it's certainly 
your help that allows us to do that.
    Senator Shelby. What is your approach to the early 
treatment? If you could diagnose something or indications real 
early, would it, one, save a lot of lives? Obviously. It would 
save a lot of money, too, would it not?
    Dr. Elkas. Oh, absolutely, absolutely, Senator. Our 
survival for early stage ovarian cancer, stage 1 and stage 2, 
approaches 88, 85 percent.
    Senator Shelby. Something else that got my attention in 
here because, as I said earlier, I'm the ranking Republican on 
another subcommittee dealing with NIH and so forth, and I'm new 
as far as ranking. But you're pointing out that funding for 
this cancer research in this area has remained flat, if not 
declined, through that; and that there was one ovarian cancer 
specialized project of research excellence that had been 
awarded to Duke and the University of Alabama-Birmingham and it 
was cancelled. What happened there? Was it not promising or 
what happened, because I'd be very interested in that.
    Dr. Elkas. The specific details of that I will certainly 
forward you.
    Senator Shelby. Will you send it to me?
    Dr. Elkas. Absolutely.
    Senator Shelby. And I'll share it with the subcommittee.
    Dr. Elkas. Please.
    Senator Shelby. Thank you so much.
    Dr. Elkas. Thank you. Thank you for your time.
    Chairman Inouye. Thank you very much.
    Now may I call on Mr. Schwartz.
STATEMENT OF JONATHAN D. SCHWARTZ, CHAIRMAN, BOARD OF 
            DIRECTORS, ZERO--THE PROJECT TO END 
            PROSTATE CANCER
    Mr. Schwartz. Thank you. Mr. Chairman and distinguished 
members of the subcommittee: Thank you for the opportunity to 
share my thoughts. I know this has been a long session and I 
admire your dedication. Hopefully the last is not least here.
    My name is Jonathan Schwartz and I am the Chairman of the 
Board of Directors of ZERO--The Project to End Prostate Cancer. 
I'm here to stress the importance of research and the 
congressionally directed medical research program, and 
particularly the prostate cancer research program.
    ZERO is a patient advocacy organization that raises 
awareness and educates men and their families about prostate 
cancer. Of particular importance to us is the issue of early 
detection. Not only do we operate a mobile screening program, 
we also work with policymakers in Congress and throughout 
Government and other organizations to ensure that men have 
access to information and services to make decisions that are 
in the best interest of their health.
    My dad was William Schwartz. He was diagnosed with prostate 
cancer at the age of 55. We thought he'd be okay because the 
cancer was detected early. Unfortunately, his cancer was very 
aggressive and had already spread to his lymph nodes. The 
doctors gave him just 2 years to live because back then there 
were very few treatment options for prostate cancer.
    Thankfully, new treatments became available that extended 
his life. He fought the disease for 8 years, and during that 
gift of time he saw all his children get married, became a 
grandfather, and between chemo sessions was able to travel and 
enjoy the company of family and friends. He also volunteered as 
the first CEO of the National Prostate Cancer Coalition, which 
is now ZERO. He worked tirelessly to increase Federal research 
funding because he knew that research would help him and 
countless other men.
    As a family, we enjoyed much of my dad's last years. But he 
also experienced great suffering. We saw firsthand the impact 
of this cruel disease.
    My dad died at age 63, younger than when most people 
retire. We all miss him dearly and wonder what it would be like 
to have him in our lives today. I still find it hard to accept 
that he will never get to meet my two daughters and they'll 
never get to know their ``Papa Bill.''
    Our family's experience has led me, my brother and sister, 
and of course our mom to care deeply about dad's cause. We 
don't want other families to go through this. We want the 
number of men suffering from prostate cancer to be as small as 
possible. Eventually we want that number to be zero.
    I'm here today because of my dad. I'm here today because 
prostate cancer affects the family, not just the man. And as I 
mentioned, I'm here today because I want to stress the 
importance of research at the prostate cancer research program.
    Prostate cancer is a disease that's diagnosed in over 
200,000 American men each year and will kill nearly 34,000 men 
in 2011. It's the second leading cause of cancer-related deaths 
among men. One in six men, one in four African American men, 
will get prostate cancer, and some of them will be in their 
30s. It is not just an old man's disease.
    There is much controversy about prostate cancer and 
particularly the controversy over testing, when men should 
start getting tested, how often they should be tested, what 
type of treatment a man should undergo when diagnosed. I 
recently met with my Georgia Senators on this topic. Senator 
Chambliss, a prostate cancer survivor whose live was saved by 
early detection, said it well when he said: ``You have to know 
you have it to have a choice about treatment.''
    Despite what some people call overdiagnosis, the number of 
men dying from prostate cancer is rising. So, Mr. Chairman, the 
problem isn't the number of men we are or should be testing. 
The problem is knowing whether they have aggressive or indolent 
disease and whether or not they should be treated. The only way 
doctors will ever really know the answer to these questions is 
through advances that may be closer than we think.
    Last year, research partially funded by the prostate cancer 
research program identified 24 different types of prostate 
cancer. Eight of these are aggressive forms of the disease. If 
we could identify what type of prostate cancer a man has, we 
could more effectively determine if he needs treatment and how 
aggressive that treatment should be. This would render moot the 
argument some make about the disease being overtreated and 
ultimately save men's lives.
    Another innovative funding mechanism of the prostate cancer 
research program is the Clinical Trials Consortium. To address 
the significant logistical challenges of multi-center clinical 
research, the Clinical Trials Consortium was started to promote 
rapid phase 1 and phase 2 trials of promising new treatments 
for prostate cancer. Since 2005, nearly 90 trials with more 
than 2,600 patients have taken place, leading to potential 
treatments that will soon be available to patients. Two 
recently approved drugs, Xgeva and Zytiga, benefited from the 
consortium, accelerating their approval time by over 2 years.
    Today, without adequate funding, the program could not 
support this award mechanism.
    The prostate cancer research program is funding some of the 
most critical work in cancer today. The program uses innovative 
approaches to funnel research dollars directly into the best 
research to accelerate discovery, translate discoveries into 
clinical practice, and improve the quality of care and quality 
of life of men with prostate cancer. It is the only federally 
funded program that focuses exclusively on prostate cancer, 
which enables them to identify and support research on the most 
critical issues facing prostate cancer patients today. The 
program funds innovative, high-impact studies, the type of 
research most likely to make a difference.
    I understand that the subcommittee is working under 
extremely tight budgetary constraints this year and the many 
tough decisions are ahead. This program is important to the 
millions of men who are living with the disease, those who have 
survived the disease, and those who are at risk for the 
disease, including our veterans and active duty military 
personnel.
    Active duty males are twice as likely to develop prostate 
cancer as their civilian counterparts. While serving their 
country, the United States armed forces are exposed to 
deleterious contaminants such as Agent Orange and depleted 
uranium. These contaminants are proven to cause prostate cancer 
in American veterans. Unfortunately, the genomes of prostate 
cancer caused by Agent Orange are the most aggressive strands 
of the disease and they also appear earlier in a man's life. In 
addition, a recent study showed that Air Force personnel were 
diagnosed with prostate cancer at an average age of just 48.
    In closing, I ask that you support our fight against all 
cancers and in particular prostate cancer. Prostate cancer can 
and should be a 100 percent detectable and treatable cancer, 
and hopefully some day a preventable one. Please support the 
research conducted through the congressionally directed medical 
research program and the prostate cancer research program by 
maintaining their funding levels.
    Thank you very much for your time. I'll be happy to answer 
any questions.
    [The statement follows:]
               Prepared Statement of Jonathan D. Schwartz
    Mr. Chairman and distinguished members of the subcommittee, thank 
you for the opportunity to share my thoughts. My name is Jonathan 
Schwartz, and I am Chairman of the Board of Directors of ZERO--The 
Project to End Prostate Cancer (ZERO). I am the son of William 
Schwartz, who fought prostate cancer for 8 years and volunteered as the 
first CEO of the National Prostate Cancer Coalition, which is now ZERO.
    My dad was diagnosed at the age of 55. We thought that he would be 
okay since the cancer was detected early. The strain of prostate cancer 
that he was diagnosed with was very aggressive and had spread to his 
lymph nodes. Thankfully there were new treatments that extended his 
life. During that 8 year gift, he was there to see his children get 
married, become a grandfather, travel, and enjoy family and friends. He 
worked tirelessly because he knew that research would help him and 
countless other men.
    My dad enjoyed much of his last years, but we also experienced 
great suffering. We saw firsthand the impact of this cruel disease. We 
all miss him dearly, and we are so saddened by all he has missed, 
including five more grandchildren. We often wonder what it would be 
like to have him in our lives today. Our family's experience has led me 
and my brother and sister to care deeply about dad's cause. We don't 
want other men and their families to go through this. We want the 
number of men suffering from prostate cancer to be as small as 
possible. Eventually, we want that number to be ZERO.
    I am here today because of my dad. I am here today because prostate 
cancer affects the family, not just the man. I am here today because I 
want to stress the importance of research and particularly the Prostate 
Cancer Research Program and the other programs of the Congressionally 
Directed Medical Research Program.
    Prostate cancer is a disease that is diagnosed in over 200,000 men 
each year and will kill nearly 34,000 men in 2011. It is the second 
leading cause of cancer related deaths among men and will inflict 1 in 
6 men in their lifetime.
    There are too many questions that continue to surround prostate 
cancer and too many uncertainties for us to just ignore this disease. 
It has been well publicized that cancer is killing less people every 
year, but the same cannot be said for prostate cancer. Prostate cancer 
deaths have continued to increase.
    The answers to these questions are found in research. The 
Congressionally Directed Medical Research Program and the Prostate 
Cancer Research Program are funding some of the most critical work in 
cancer today. The program uses innovative approaches to funnel research 
dollars directly into the best research to accelerate discovery, 
translate discoveries into clinical practice, and improve the quality 
of care and life of men with prostate cancer.
    An example of the innovative nature of the PCRP is the Clinical 
Trials Consortium. To address the significant logistical challenges of 
multicenter clinical research, the PCRP began support of a clinical 
trials consortium for rapid Phase I and Phase II clinical trials of 
promising new treatments for prostate cancer.
    Since their first PCRP award in 2005, each site has fulfilled key 
responsibilities in clinical trials design and recruitment. Nearly 70 
trials with more than 1,800 patients have taken place, leading to 
potential treatments that will soon be at patients' bedsides. Two 
recently approved drugs (XGEVA and ZYTIGA) benefited from PCRP funding 
and the consortium accelerating their approval time by over 2 years.
    The PCRP has played a unique role by identifying two key research 
gaps inhibiting forward movement of clinical trials, multicenter 
intellectual property and regulatory issues. The program developed and 
funded mechanisms to reduce those barriers resulting in unprecedented 
accomplishments for recruiting participants over an 18-month period.
    Today, without adequate funding, the PCRP cannot support this award 
mechanism.
    I understand that the committee is working under extremely tight 
budgetary constraints this year and that many tough decisions are 
ahead. This program is important to the millions of men who are living 
with the disease, those who have survived the disease and those who are 
at risk for the disease including our veterans and active duty military 
personnel.
    Active duty males are twice as likely to develop prostate cancer as 
their civilian counterparts. While serving our country, the United 
States' Armed Forces are exposed to deleterious contaminants such as 
Agent Orange and Depleted Uranium. These contaminants, particularly 
Agent Orange, are proven to cause prostate cancer in American Veterans. 
Unfortunately, the genomes of prostate cancer caused by Agent Orange 
are the more aggressive strands of the disease and appear earlier in a 
man's life. Studies have shown that military personnel at risk for the 
disease are also more likely to be diagnosed earlier in life.
    In closing, I ask that you support our fight against all cancers 
and in my case in particular, prostate cancer. Support the research 
conducted through the Congressionally Directed Medical Research Program 
and the Prostate Cancer Research Program by maintaining their funding 
levels.

    Chairman Inouye. Thank you, Mr. Schwartz.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, I think it's important to 
note that the testimony here reminds us that, while we are 
learning more about cancer, we are wondering why cancer is 
killing more people every year in the general population, 
including more prostate cancer. Prostate cancer seems to be on 
the rise. Some other life-threatening cancers seem to be on the 
decline.
    Another thing I think in the witness's testimony that's 
appropriate for this subcommittee to consider when we decide 
how much funding is available, if any, for this program is that 
Agent Orange has been identified as a causal connector with 
prostate cancer for those who have been exposed to that 
substance. This is something I think is peculiarly of interest 
to the military and appropriate for this subcommittee's 
attention. So I'm hopeful that we can find a way to support, as 
this witness suggests, an increase in funding for prostate 
cancer research.
    We appreciate your bringing these facts to the attention of 
the subcommittee.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. Mr. Chairman, I'll be brief, but I would be 
remiss if I didn't--I'm a 17-year-old--``17-year-old''--I'm a 
17-year survivor of prostate cancer. I've been through that, as 
you went through it with your father and your family. A lot of 
people don't survive. It's my understanding that--I've been 
told that prostate cancer is the number two killer of men in 
this country. Research in new surgery procedures, everything, 
early diagnosis, has helped save a lot of lives.
    I agree with Senator Cochran. We don't need to cut back on 
this because if we do break through the research, we're going 
to not only save lives, but on a policy level we will save 
money down the road. You can do both if we do it right.
    Thank you, Mr. Chairman, for calling this hearing. This has 
been a very good hearing for me. As I've pointed out, I am the 
ranking Republican over on the other subcommittee dealing with 
NIH and all the other, and I'm curious as to how this works and 
I've found out a lot today.
    Thank you, Mr. Chairman.
    Chairman Inouye. I thank you very much.
    Three organizations have submitted testimony. Without 
objection, the testimony of Cummins, Incorporated, Washington 
State Neurofibromatosis Families, and the American Foundation 
for Suicide Prevention will be made part of the record along 
with any other statements that the subcommittee may receive.
    On behalf of the subcommittee, I thank all the witnesses 
for their testimony, and the subcommittee will take these 
issues in consideration and I can assure you will look at it 
very seriously.
    [The statements follow:]
 Prepared Statement of Dr. Wayne A. Eckerle, Vice President, Research 
                      and Technology, Cummins Inc.
    Cummins Inc., headquartered in Columbus, Indiana, is a corporation 
of complementary business units that design, manufacture, distribute 
and service engines and related technologies, including fuel systems, 
controls, air handling, filtration, emission solutions and electrical 
power generation systems. The funding requests outlined below are 
critically important to Cummins' research and development efforts, and 
would also represent a sound Federal investment toward a cleaner 
environment and improved energy efficiency for our Nation. We request 
that the Committee fund the programs as identified below.
                         department of the army
Other Procurement
    Budget Activity 03, Other Support Equipment, Line No. 177, 
Generators and Associated Equipment (MA9800), Medium generator Sets (5-
60 kW) (M53500), Advanced Medium Mobile Power System (AMMPS).--Increase 
the Administration's request of $11.6 million by $28.4 million to bring 
the program total to $40 million in fiscal year 2012. $40 million was 
appropriated in fiscal year 2011 and fiscal year 2010. This program is 
critical to providing our troops with the latest technology in power 
generation. AMMPS generators are the latest generation of Prime Power 
Generators for the DOD and will replace the obsolete Tactical Quiet 
Generators (TQG's) developed in the 1980s. The AMMPS gensets are 21 
percent more fuel-efficient, 15 percent lighter, 35 percent quieter, 
and 40 percent more reliable than the TQG. Generators are the Army's 
biggest consumer of diesel fuel in current war theatres. When AMMPS 
gensets are fully implemented, the Army and Marines will realize annual 
fuel savings of approximately 52 million gallons of JP-8 fuel and over 
$745 million in savings based on fuel costs and current use pattern. 
This will mean fewer fuel convoys to bases in active war zones 
resulting in saved lives of military and civilian drivers. AMMPS 
generators are fully EPA compliant and will result in annual carbon 
emissions reductions of 509,698 metric tons CO<INF>2</INF> or 7.7 
million metric tons over the expected life of the generators.
Research and Development Test and Evaluation Programs
    Volume V-B, Budget Activity 05, System Development & Demonstration, 
Line No. 120, Program Element No. 0604854A: Artillery Systems, Paladin 
Integrated Management (PIM).--Support the Administration's request of 
$120.1 million in fiscal year 2012. The M109A6 Paladin is the primary 
indirect fire weapons platform in the U.S. Army's Heavy Brigade Combat 
Team (HBCT) and is expected to be in the Army inventory through 2050. 
This request is to further develop Paladin Integrated Management (PIM) 
vehicles and conclude testing. The PIM effort is a program to ensure 
the long-term viability and sustainability of the M109A6 Paladin and 
its companion ammunition resupply vehicle, the M992 Field Artillery 
Ammunition Support Vehicle (FAASV). PIM is vital to ensuring the long-
term viability and sustainability of the M109 family of vehicles 
(Paladin and FAASV). The program will significantly reduce the 
logistics burden placed on our soldiers, and proactively mitigate 
obsolescence. The system will feature improved mobility (by virtue of 
Bradley-based automotive systems), allowing the fleet to keep pace with 
the maneuver force.
    Volume VII, Budget Activity 07, Operational Systems Development, 
Line No. 163, Program Element No. 0203735A: Combat Vehicle Improvement 
Program, Armored Multi-Purpose Vehicle (AMPV).--Support 
Administration's request of $53.3 million in fiscal year 2012. The 
Armored Multi-Purpose Vehicle (AMPV) is a new Army initiated program to 
replace the M113 platforms, which cannot be optimized for future U.S. 
Army combat operations. The Army has identified a significant 
capability gap within the Heavy Brigade Combat Team (HBCT) formation. 
The Bradley Family of Vehicles are the most capable and cost effective 
platform for replacement of the M113. Along with established 
production, the recapitalized Bradley vehicles bring combat-proven 
mobility, survivability, and adaptability to a variety of missions. The 
Army currently has approximately 1,900 Bradley hulls that could be 
inducted into the production process. This low cost, low risk, 
Military-off-the-Shelf (MOTS) to replace the M113 addresses the 
significant capability shortfalls within the HBCT formation and is an 
efficient use of existing Government owned assets and existing Public-
Private Partnership arrangements to bridge the modernization gap. 
Recapitalizing existing Bradley chassis provides the most survivable, 
mobile and protected solution for our soldiers at a significant lower 
cost.
Procurement of Weapons and Tracked Combat Vehicles (W&TCV)
    Activity No. 01 Tracked Combat Vehicles, Line No. 07, Howitzer, Med 
Sp Ft 155MM M109A6 (MOD) (GA0400), Paladin Integrated Management 
(PIM).--Support Administration's request of $46.88 million in fiscal 
year 2012. This is to begin low rate initial production vehicles for 
Paladin Integrated Management (PIM) procurement. The M109A6 Paladin is 
the primary indirect fire weapons platform in the U.S. Army's Heavy 
Brigade Combat Team (HBCT) and is expected to be in the Army inventory 
through 2050. The PIM program will incorporate Bradley-based drive-
train and suspension components which reduce logistics footprint and 
decrease operations and sustainment costs. PIM is vital to ensuring the 
long-term viability and sustainability of the M109 family of vehicles 
(Paladin and FAASV). The program will significantly reduce the 
logistics burden placed on our soldiers, and proactively mitigate 
obsolescence. The system will feature improved mobility (by virtue of 
Bradley-based automotive systems), allowing the fleet to keep pace with 
the maneuver force. The system will improve overall soldier 
survivability through modifications to the hull to meet increased 
threats.
                      department of the air force
Other Procurement
    Budget Activity 04, Other Base Maintenance and Support Equip, Item 
No. 61, Mobility Equip, Basic Expeditionary Airfield Resources.--
Maintain the Administration's request of $27 million in fiscal year 
2012. Appropriations in fiscal year 2010 and fiscal year 2011 totaled 
$29.7 million. Basic Expeditionary Airfield Resource (BEAR) is funded 
by the U.S. Air Force and is administered by the PM-MEP office. The 
BEAR product is an 800kW prime power mobile generator used by Combat 
Air Forces to power mobile airfields in-theatre and around the world. 
The finished product will replace the existing MEP unit that is 25 
years old and will offer greater fuel economy, increased fuel options 
(JP8), improved noise reduction, and the latest innovative control 
technology and functionality. With the ever increasing global reach of 
the U.S. military, the need for reliable mobile power is paramount. 
This program is currently funded for the design, development and 
preproduction of 8 individual BEAR units. These units will undergo a 
battery of validation tests. Design and development of the BEAR product 
is on schedule. There is interest from other branches of the military 
for the BEAR product as well given the increased need for mobile 
electric power.
                                 ______
                                 
 Prepared Statement of Karen Gunsul, Vice President, Washington State 
                       Neurofibromatosis Families
    Thank you for the opportunity to submit testimony to the 
Subcommittee on the importance of continued funding for research on 
Neurofibromatosis (NF), a terrible genetic disorder closely linked too 
many common diseases widespread among the American population.
    On behalf of Washington State Neurofibromatosis Families (WSNF) a 
participant in a national coalition of NF advocacy groups, I speak on 
behalf of the 100,000 Americans who suffer from NF as well as 
approximately 175 million Americans who suffer from diseases and 
conditions linked to NF such as cancer, brain tumors, heart disease, 
memory loss and learning disabilities. I also speak from the heart as 
the mother of a son who deals with NF every day. To find treatments 
and, ultimately, a cure, for this disorder would benefit him and 
countless others.
    In fiscal year 2012, I am requesting $16 million to continue the 
Army's highly successful Neurofibromatosis Research Program (NFRP), the 
same amount that was included for the NFRP in fiscal year 2011. The 
Peer-Reviewed Neurofibromatosis Research Program, one of the Department 
of Defense's Congressionally Directed Medical Research Programs 
(CDMRP), is now conducting clinical trials at nationwide clinical 
trials centers created by NFRP funding. These clinical trials involve 
drugs that have already succeeded in eliminating tumors in humans and 
rescuing learning deficits in mice. Administrators of the Army program 
have stated that the number of high-quality scientific applications 
justify a much larger program.
What is Neurofibromatosis (NF)?
    NF is a genetic disorder involving the uncontrolled growth of 
tumors along the nervous system which can result in terrible 
disfigurement, deformity, deafness, blindness, brain tumors, cancer, 
and even death. NF can also cause other abnormalities such as unsightly 
benign tumors across the entire body and bone deformities. In addition, 
approximately one-half of children with NF suffer from learning 
disabilities. While not all NF patients suffer from the most severe 
symptoms, all NF patients and their families live with the uncertainty 
of not knowing whether they will be seriously affected because NF is a 
highly variable and progressive disease.
    NF is not rare. It is the most common neurological disorder caused 
by a single gene and three times more common than Muscular Dystrophy 
and Cystic Fibrosis combined, but is not widely known because it has 
been poorly diagnosed for many years. Approximately 100,000 Americans 
have NF, and it appears in approximately 1 in every 2,500 births. It 
strikes worldwide, without regard to gender, race or ethnicity. 
Approximately 50 percent of new NF cases result from a spontaneous 
mutation in an individual's genes and 50 percent are inherited. There 
are three types of NF: NF1, which is more common, NF2, which primarily 
involves tumors causing deafness and balance problems, and 
schwannomatosis, the hallmark of which is severe pain. In addition, 
advances in NF research stand to benefit over 175 million Americans in 
this generation alone because NF is directly linked to many of the most 
common diseases affecting the general population.
NF's Connection to the Military
    Neurofibromatosis Research addresses areas of great clinical need 
directly affecting the health of the warfighter. NF is a complicated 
condition closely connected to many common diseases and disorders that 
can lead to unmanageable pain, learning disabilities, cancer, 
orthopedic abnormalities, deafness, blindness, memory loss, and 
amputation. NF also involves inflammation similar to that involved in 
wound healing.
    Pain Management.--Severe and unmanageable pain is seen in all forms 
of NF, particularly in one form of NF called schwannomatosis. Over the 
past 3 years, schwannomatosis research has made significant advances 
and new research suggests that the molecular or root cause of 
schwannomatosis pain may be the same as phantom limb pain. Research is 
currently moving forward to identify drugs that might be able to treat 
this pain, and these exciting findings could have broad applications 
for the military.
    Wound Healing, Inflammation and Blood Vessel Growth.--Wound healing 
requires new blood vessel growth and tissue inflammation. Mast cells 
are critical mediators of inflammation in wound healing, and they must 
be quelled and regulated in order to facilitate this healing. Mast 
cells are also important players in NF1 tumor growth. In the past few 
years, researchers have gained deep knowledge on how mast cells promote 
tumor growth, and this research has led to ongoing clinical trials to 
block this signaling. The result is that tumors grow slower. As 
researchers learn more about blocking mast cell signals in NF, this 
research could be translated to the management of mast cells in wounds 
and wound healing.
    Orthopedic Abnormalities and Amputation.--One-third of children 
with NF1 are at risk of developing orthopedic abnormalities that as a 
result break easily. In the leg particularly, repeated injuries lead to 
amputation below the knee, often in very young children. Recent 
research has identified the molecular basis of this, and drug trials in 
humans will begin in the next year. This research will lead to a deeper 
understanding of how to heal challenging bone breaks and directly 
benefit warfighters with major bone breakages or recurring bone breaks 
that heal poorly.
    Three-Dimensional Clinical Imaging Technologies.--Because NF tumors 
are often large and abnormally shaped, they lend themselves well to the 
emerging technology of volumetric MRI. This is used to monitor tumor 
volume and growth as well as to monitor the effectiveness of a drug 
treatment to induce tumor shrinkage or cessation of tumor growth. It is 
anticipated that MRI volumetric imaging could have broad applications 
in military use.
Link to Other Illnesses
    Researchers have determined that NF is closely linked to cancer, 
heart disease, learning disabilities, memory loss, brain tumors, and 
other disorders including deafness, blindness and orthopedic disorders, 
primarily because NF regulates important pathways common to these 
disorders such as the RAS, cAMP and PAK pathways. Research on NF 
therefore stands to benefit millions of Americans.
    Cancer.--NF is closely linked to many of the most common forms of 
human cancer, affecting approximately 65 million Americans. In fact, NF 
shares these pathways with 70 percent of human cancers. Research has 
demonstrated that NF's tumor suppressor protein, neurofibromin, 
inhibits RAS, one of the major malignancy causing growth proteins 
involved in 30 percent of all cancer. Accordingly, advances in NF 
research may well lead to treatments and cures not only for NF 
patients, but for all those who suffer from cancer and tumor-related 
disorders. Similar studies have also linked epidermal growth factor 
receptor (EGF-R) to malignant peripheral nerve sheath tumors (MPNSTs), 
a form of cancer which disproportionately strikes NF patients.
    Heart disease.--Researchers have demonstrated that mice completely 
lacking in NF1 have congenital heart disease that involves the 
endocardial cushions which form in the valves of the heart. This is 
because the same ras involved in cancer also causes heart valves to 
close. Neurofibromin, the protein produced by a normal NF1 gene, 
suppresses ras, thus opening up the heart valve. Promising new research 
has also connected NF1 to cells lining the blood vessels of the heart, 
with implications for other vascular disorders including hypertension, 
which affects approximately 50 million Americans. Researchers believe 
that further understanding of how an NF1 deficiency leads to heart 
disease may help to unravel molecular pathways involved in genetic and 
environmental causes of heart disease.
    Learning disabilities.--Learning disabilities are the most common 
neurological complication in children with NF1. Research aimed at 
rescuing learning deficits in children with NF could open the door to 
treatments affecting 35 million Americans and 5 percent of the world's 
population who also suffer from learning disabilities. In NF1 the 
neurocognitive disabilities range includes behavior, memory and 
planning. Recent research has shown there are clear molecular links 
between autism spectrum disorder and NF1; as well as with many other 
cognitive disabilities. Tremendous research advances have recently led 
to the first clinical trials of drugs in children with NF1 learning 
disabilities. These trials are showing promise. In addition because of 
the connection with other types of cognitive disorders such as autism, 
researchers and clinicians are actively collaborating on research and 
clinical studies, pooling knowledge and resources. It is anticipated 
that what we learn from these studies could have an enormous impact on 
the significant American population living with learning difficulties 
and could potentially save Federal, State, and local governments, as 
well as school districts, billions of dollars annually in special 
education costs resulting from a treatment for learning disabilities.
    Memory loss.--Researchers have also determined that NF is closely 
linked to memory loss and are now investigating conducting clinical 
trials with drugs that may not only cure NF's cognitive disorders but 
also result in treating memory loss as well with enormous implications 
for patients who suffer from Alzheimer's disease and other dementias. 
Indeed, one leading Army funded researcher is pursuing parallel 
research into both NF and Alzheimer's simultaneously.
    Deafness.--NF2 accounts for approximately 5 percent of genetic 
forms of deafness. It is also related to other types of tumors, 
including schwannomas and meningiomas, as well as being a major cause 
of balance problems.
The Army's Contribution to NF Research
    While other Federal agencies support medical research, the 
Department of Defense (DOD) fills a special role by providing peer-
reviewed funding for innovative, high-risk/high-reward medical research 
through the CDMRP. CDMRP research grants are awarded to researchers in 
every State in the country through a competitive two-tier review 
process. These well-executed and efficient programs, including the 
NFRP, demonstrate the government's responsible stewardship of taxpayer 
dollars.
    Recognizing NF's importance to both the military and to the general 
population, Congress has given the Army's NF Research Program strong 
bipartisan support. From fiscal year 1996 through fiscal year 2011 
funding for the NFRP has amounted to $230.05 million, in addition to 
the original $8 million appropriation in fiscal year 1992. In addition, 
between fiscal year 1996 and fiscal year 2009, 245 awards have been 
granted to researchers across the country.
    The Army program funds innovative, groundbreaking research which 
would not otherwise have been pursued, and has produced major advances 
in NF research, including conducting clinical trials in a nationwide 
clinical trials infrastructure created by NFRP funding, development of 
advanced animal models, and preclinical therapeutic experimentation. 
Because of the enormous advances that have been made as a result of the 
Army's NF Research Program, research in NF has truly become one of the 
great success stories in the current revolution in molecular genetics. 
In addition, the program has brought new researchers into the field of 
NF. However, despite this progress, Army officials administering the 
program have indicated that they could easily fund more applications if 
funding were available because of the high quality of the research 
applications received.
    In order to ensure maximum efficiency, the Army collaborates 
closely with other Federal agencies that are involved in NF research, 
such as the National Institutes of Health (NIH). Senior program staff 
from the National Institute of Neurological Disorders and Stroke 
(NINDS), for example, sits on the Army's NF Research Program 
Integration Panel which sets the long-term vision and funding 
strategies for the program. This assures the highest scientific 
standard for research funding, efficiency and coordination while 
avoiding duplication or overlapping of research efforts.
    Thanks in large measure to this Subcommittee's support; scientists 
have made enormous progress since the discovery of the NF1 gene. Major 
advances in just the past few years have ushered in an exciting era of 
clinical and translational research in NF with broad implications for 
the general population. These recent advances have included:
  --Phase II and Phase III clinical trials involving new drug therapies 
        for both cancer and cognitive disorders;
  --Creation of a National Clinical and Pre-Clinical Trials 
        Infrastructure and NF Centers;
  --Successfully eliminating tumors in NF1 and NF2 mice with the same 
        drug;
  --Developing advanced mouse models showing human symptoms;
  --Rescuing learning deficits and eliminating tumors in mice with the 
        same drug;
  --Determining the biochemical, molecular function of the NF genes and 
        gene products;
  --Connecting NF to more and more diseases because of NF's impact on 
        many body functions.
Fiscal Year 2012 Request
    The Army's highly successful NF Research Program has shown tangible 
results and direct military application with broad implications for the 
general population. The program has now advanced to the translational 
and clinical research stages, which are the most promising, yet the 
most expensive direction that NF research has taken. The program has 
succeeded in its mission to bring new researchers and new approaches to 
research into the field. Therefore, continued funding is needed to take 
advantage of promising avenues of investigation, to continue to build 
on the successes of this program, and to fund this promising research 
thereby continuing the enormous return on the taxpayers' investment.
    I respectfully request an appropriation of $16 million in the 
fiscal year 2012 Department of Defense Appropriations bill for the 
Army's Neurofibromatosis Research Program.
    In addition to providing a clear military benefit, the DOD's 
Neurofibromatosis Research Program also provides hope for the 100,000 
Americans who suffer from NF, as well as over 175 million Americans who 
suffer from NF's related diseases and disorders. Leading researchers 
now believe that we are on the threshold of a treatment and a cure for 
this terrible disease. With this Subcommittee's continued support, we 
will prevail. Thank you for your support.
                                 ______
                                 
  Prepared Statement of the American Foundation for Suicide Prevention
    Chairman Inouye, Ranking Member Cochran and members of the 
Subcommittee. My name is John Madigan, Senior Director of Public Policy 
with The American Foundation for Suicide Prevention (AFSP). AFSP thanks 
you for the opportunity to provide testimony on the funding needs of 
programs within the Department of Defense that play a critical role in 
suicide prevention efforts.
    AFSP is the leading national not-for-profit organization 
exclusively dedicated to understanding and preventing suicide through 
research, education and advocacy, and to reaching out to people with 
mental disorders and those impacted by suicide. You can find more 
information at www.asfp.org and www.spanusa.org.
    More than 1.9 million warriors have deployed for Operation Iraqi 
Freedom (OIF) and Operation Enduring Freedom (OEF), two of our Nation's 
longest conflicts (IOM, 2010). The physical and psychological demands 
on both the deployed and non-deployed warriors are enormous. From 2005 
to 2009, more than 1,100 members of the Armed Forces took their own 
lives, an average of 1 suicide every 36 hours. In that same period, the 
suicide rates among Marines and Soldiers sharply increased; the rate in 
the Army more than doubled. Numerous commissions, task forces, and 
research reports have documented the ``hidden wounds of war''--the 
psychological and emotional injuries that have so affected our military 
members and their families. The years since 2002 have placed 
unprecedented demands on our Armed Forces and military families. 
Military operational requirements have risen significantly, and manning 
levels across the Services remain too low to meet the ever-increasing 
demand. This current imbalance places strain not only on those 
deploying, but equally on those who remain in garrison. The cumulative 
effects of all these factors are contributing significantly to the 
increase in the incidence of suicide and without effective action will 
persist well beyond the duration of the current operations and 
deployments. Heightened concern regarding this increase in suicides has 
led to development of scores of initiatives across the DOD to reduce 
risk (Final Report of DOD Task Force on the Prevention of Suicide by 
Members of the Armed Forces, August, 2010).
    In testimony before this Subcommittee on May 18, Secretary of the 
Army John McHugh and General Martin Dempsey, Chief of Staff of the 
United States Army, called for the sustainment of $1.7 billion to fund 
vital Soldier and Family programs. These programs provide a full range 
of essential services and include the Army Campaign for Health 
Promotion, Risk Reduction, and Suicide Prevention. Additionally, The 
fiscal year 2012 budget request includes adding 24 behavioral health 
officers and enlisted technicians to the National Guard Brigade Combat 
Teams and expands the Reserve component substance abuse program. It 
also included additional funding for 54 Suicide Prevention Program 
managers for the National Guard, 38 Suicide Prevention Program Managers 
for Army Reserve, and Applied Suicide Intervention Skills Training 
(ASIST) and kits for the Reserve component. AFSP commends the 
Department of the Army for their efforts to reduce suicides within 
their ranks, and urges this Subcommittee to provide the $1.7 billion 
requested to sustain their important efforts.
    While there is sufficient funding for suicide prevention research 
within DOD right now, these efforts need to be sustained to ensure 
sufficient resources are devoted to research in the long term. We 
believe that funding needs to be sustained for confidential treatment 
programs like the Army Confidential Alcohol Treatment and Education 
Pilot (CATEP) and TRICARE Assistance Program (TRIAP) which are helping 
to change the culture and decrease stigma toward behavioral health 
treatment. AFSP also urges this Subcommittee to fully fund the OSD 
Office for Suicide Prevention that was created this month.
    In addition to Secretary McHugh and General Dempsey's request, AFSP 
urges this Subcommittee to fund the following programs or initiatives 
at the highest levels possible to address the unacceptably high rates 
of suicide among our military personnel.
Comprehensive Behavioral Health System of Care (CBHSOC)
    General Eric Shoomaker outlined this program in his testimony 
before this Subcommittee on April 6. CBHSOC is based on outcome studies 
that demonstrate the profound value of using the system of multiple 
touch points in assessing and coordinating health and behavioral health 
for a soldier and Family. The CBHSOC creates an integrated, 
coordinated, and synchronized behavioral health service delivery system 
that will support the total force through all ARFORGEN (Army Force 
Generation) phases by providing full spectrum behavioral healthcare.
    The CBHSOC is a system of systems built around the need to support 
an Army engaged in repeated deployments and its intent is to optimize 
care and maximize limited behavioral health resources to ensure the 
highest quality of care to Soldiers and Families through a multi-year 
campaign with a long-term goal of preventing suicide.
Yellow Ribbon Reintegration Campaign (YRRP)
    The Yellow Ribbon Reintegration Program provides information, 
services, referrals, and proactive outreach to Soldiers, spouses, 
employers, and youth through the different stages of mobilization: pre-
alert, alert, pre-deployment, deployment, post-deployment and 
reintegration.
    Public Law 111-84, Section 595 gave the YRRP Office the 
responsibility for establishing a program to provide Reserve and 
National Guard Service members, and their families, training in suicide 
prevention, community healing, and response to suicide. The YRRP Office 
has engaged several national associations to provide ongoing assistance 
in coordinating with community based behavioral health providers and 
conducted a needs and gap analysis of all the Reserve Components 
existing suicide prevention programs. Continuation of these efforts 
will be vital in lowering the rate of suicides among our National Guard 
and Reserve personnel.
Air Force Suicide Prevention Efforts
    In testimony before this Subcommittee on April 6, Lt. General (Dr.) 
Charles Green discussed numerous efforts on behalf of the United States 
Air Force that AFSP believes will reduce the rate of suicide in the Air 
Force. This includes the additional support the Air Force provides its 
most at-risk airmen with frontline supervisor's suicide prevention 
training given to all supervisors in career fields with elevated 
suicide rates, expanded counseling services beyond those available 
through chaplains and mental health clinics, Military Family Life 
Consultants and Military OneSource which provides counseling to active 
duty members off-base for up to 12 sessions.
    Chairman Inouye, Ranking Member Cochran and Members of the 
Committee, AFSP once again thanks you for the opportunity to provide 
testimony on the funding needs of programs within the Department of 
Defense that play a critical role in suicide prevention efforts. With 
your help, we can assure those tasked with leading the Department of 
Defense's response to the unacceptably high rate of suicide among our 
military personnel will have the resources necessary to effectively 
prevent suicide.

                         CONCLUSION OF HEARINGS

    Chairman Inouye. The subcommittee will stand in recess, but 
we will reconvene on Tuesday, June 28, at which time we'll meet 
in closed session to receive testimony on the fiscal year 2012 
budget for intelligence activities. The subcommittee is 
recessed.
    [Whereupon, at 1:06 p.m., Wednesday, June 22, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
American Foundation for Suicide Prevention, Prepared Statement of 
  the............................................................   716
Amos, General James F., Commandant, United States Marine Corps, 
  Office of the Secretary, Department of the Navy, Department of 
  Defense........................................................    70
    Prepared Statement of........................................    72
    Questions Submitted to.......................................   126

Bockel, Major General David, United States Army (Retired), 
  Executive Director, Reserve Officers Association...............   632
    Prepared Statement of........................................   634

Carpenter, Major General Raymond W., Director, Army National 
  Guard, Department of Defense...................................   311
    Prepared Statement of........................................   312
    Questions Submitted to.......................................   397
Christiansen, Dane R., Development Coordinator, International 
  Foundation for Functional Gastrointestinal Disorders...........   568
Coane, Rear Admiral Casey, United States Navy (Retired), 
  Executive Director, Association for the United States Navy.....   663
    Prepared Statement of........................................   665
Coats, Senator Daniel, U.S. Senator From Indiana, Questions 
  Submitted by...................................................   470
Cochran, Senator Thad, U.S. Senator From Mississippi:
    Prepared Statement of........................................   303
    Questions Submitted by...30, 113, 123, 128, 180, 184, 394, 400, 500
    Statements of..............2, 36, 132, 188, 303, 414, 480, 502, 559
Collins, Senator Susan, U.S.Senator From Maine:
    Questions Submitted by................................114, 124, 180
    Statement of.................................................     3
Connor, Captain Charles D., United States Navy (Retired), 
  President and Chief Executive Officer, American Lung 
  Association....................................................   597
    Prepared Statement of........................................   599

Davis, John R., Director, Legislative Programs, Fleet Reserve 
  Association....................................................   690
    Prepared Statement of........................................   692
Debbink, Vice Admiral Dirk, Chief, Navy Reserve, Department of 
  Defense........................................................   357
    Prepared Statement of........................................   358
    Questions Submitted to.......................................   403
Dempsey, General Martin E., Chief of Staff, Department of the 
  Army, Office of the Secretary, Department of Defense...........   440
    Questions Submitted to.......................................   471
Donley, Michael B., Secretary, Office of the Secretary, 
  Department of the Air Force, Department of Defense.............   131
    Prepared Statement of........................................   135
    Questions Submitted to.......................................   173

Eckerle, Dr. Wayne A., Vice President, Research and Technology, 
  Cummins Inc., Prepared Statement of............................   712
Elkas, John C., M.D., Commander, U.S. Naval Reserve, on Behalf of 
  the Society of Gynecologic Oncologists.........................   701
    Prepared Statement of........................................   702

Feinstein, Senator Dianne, U.S. Senator From California, 
  Questions Submitted by..........26, 107, 121, 127, 175, 391, 395, 543

Gates, Hon. Robert M., Secretary of Defense, Office of the 
  Secretary of Defense, Department of Defense....................   501
    Prepared Statement of........................................   505
Goraleski, Karen A., Executive Director, American Society of 
  Tropical Medicine and Hygiene..................................   668
    Prepared Statement of........................................   670
Gordon, Barbara, RD, Executive Director, Interstitial Cystitis 
  Association, Prepared Statement of.............................   566
Graham, Senator Lindsey, U.S. Senator From South Carolina, 
  Questions Submitted by.......................................470, 475
Green, Lieutenant General Charles B., Surgeon General, Department 
  of the Air Force, Department of Defense........................   213
    Prepared Statement of........................................   214
    Questions Submitted to.......................................   290
Gunsul, Karen, Vice President, Washington State Neurofibromatosis 
  Families, Prepared Statement of................................   713

Hale, Robert F., Under Secretary of Defense, Comptroller, 
  Department of Defense..........................................     1
Hargett, Major General Gus, United States Army (Retired), 
  President, National Guard Association of the United States.....   673
    Prepared Statement of........................................   675
Harkin, Senator Tom, U.S. Senator From Iowa, Questions Submitted 
  by.............................................................    25
Hesdorffer, Mary, MS, CRNP, Medical Liaison, Mesothelioma Applied 
  Research Foundation............................................   627
    Prepared Statement of........................................   628
Horoho, Major General Patricia, Chief, Army Nurse Corps, 
  Department of the Army, Department of Defense..................   237
    Prepared Statement of........................................   239
    Questions Submitted to.......................................   278
Hutchinson, Senator Kay Bailey, U.S. Senator From Texas, 
  Questions Submitted by.........................................    32

Inouye, Chairman Daniel K., U.S. Senator From Hawaii:
    Opening Statements of...........1, 35, 131, 187, 301, 413, 501, 559
    Prepared Statement of........................................   502
    Questions Submitted by.......................................  103,
                                115, 126, 173, 181, 278, 283, 290, 295, 
                                296, 388, 397, 400, 403, 409, 461, 471, 
                                498, 405
    Statement of.................................................   479

Jenkins, Donald H., M.D., Vice Chairman, National Trauma 
  Institute......................................................   656
    Prepared Statement of........................................   658
Johnson, Senator Tim, U.S. Senator From South Dakota, Questions 
  Submitted by.............................179, 184, 283, 289, 294, 400
Jones, Rick, Legislative Director, National Association for 
  Uniformed Services.............................................   612
    Prepared Statement of........................................   613

King, Matthew, M.D., on Behalf of the American Thoracic Society..   559
    Prepared Statement of........................................   561
Kohl, Senator Herb, U.S. Senator From Wisconsin, Questions 
  Submitted by............................................111, 182, 396

Leighton Susan, on Behalf of the Ovarian Cancer National Alliance   696
    Prepared Statement of........................................   697
Linde, Dee, Patient Advocate, Dystonia Medical Research 
  Foundation.....................................................   562
    Prepared Statement of........................................   564
Lumme, Dale, National Executive Director, Navy League of the 
  United States..................................................   680
    Prepared Statement of........................................   682
Lynn, William J., III, Deputy Secretary of Defense, Department of 
  Defense........................................................     1
    Prepared Statement of........................................     7
    Questions Submitted to.......................................    25
Mabus, Hon. Ray, Secretary of the Navy, Office of the Secretary, 
  Department of the Navy, Department of Defense..................    35
    Prepared Statement of........................................    39
    Questions Submitted to.......................................   103
    Summary Statement of.........................................    37
McCauslin, Chief Master Sergeant John R. ``Doc'', Chief Executive 
  Officer, Air Force Sergeants Association.......................   590
    Prepared Statement of........................................   592
McConnell, Senator Mitch, U.S. Senator From Kentucky, Questions 
  Submitted by.......................................124, 394, 462, 556
McHugh, Hon. John M., Secretary, Department of the Army, Office 
  of the Secretary, Department of Defense........................   413
    Prepared Statement of........................................   419
    Questions Submitted to.......................................   461
    Summary Statement of.........................................   415
McKinley, General Craig R., Chief, National Guard Bureau, 
  Department of Defense..........................................   301
    Prepared Statement of........................................   305
    Questions Submitted to.......................................   388
Mikulski, Senator Barbara, U.S. Senator From Maryland:
    Questions Submitted by......................................29, 552
    Statement of.................................................     3
Moakler, Kathleen B. Government Relations Director, National 
  Military Family Association....................................   571
    Prepared Statement of........................................   572
Moore, Major General Darrell L., Acting Commander, Marine Forces 
  Reserve, United States Marine Corps, Department of Defense.....   364
    Prepared Statement of........................................   364
    Questions Submitted to.......................................   405
Mullen, Admiral Mike, U.S. Navy, Chairman, Joint Chiefs of Staff, 
  Department of Defense..........................................   510
    Prepared Statement of........................................   513
Murkowski, Senator Lisa, U.S. Senator From Alaska, Questions 
  Submitted by........................115, 126, 128, 184, 397, 469, 473
Murray, Senator Patty, U.S. Senator From Washington, Questions 
  Submitted by....113, 123, 177, 183, 280, 286, 292, 392, 399, 402, 555

Niemyer, Rear Admiral Elizabeth S., Director, Navy Nurse Corps, 
  Department of the Navy, Department of Defense..................   244
    Prepared Statement of........................................   246
    Questions Submitted to.......................................   295
Norton, Nancy J., President and Co-Founder, International 
  Foundation for Functional Gastrointestinal Disorders, Prepared 
  Statement of...................................................   569

O'Reilly, Lieutenant General Patrick J., Director, U.S. Army, 
  Missile Defense Agency, Department of Defense..................   479
    Prepared Statement of........................................   483
    Summary Statement of.........................................   481

Puzon, Captain Ike, United States Navy (Retired), on Behalf of 
  the Associations for America's Defense.........................   648
    Prepared Statement of........................................   649

Robinson, Vice Admiral Adam M., Jr., Surgeon General, Department 
  of the Navy, Department of Defense.............................   201
    Prepared Statement of........................................   203
    Questions Submitted to.......................................   283
Roughead, Admiral Gary, Chief of Naval Operations, United States 
  Navy, Office of the Secretary, Department of the Navy, 
  Department of Defense..........................................    51
    Prepared Statement of........................................    53
    Questions Submitted to.......................................   115

Schoomaker, Lieutenant General Eric B., Surgeon General, 
  Department of the Army, Department of Defense..................   187
    Prepared Statement of........................................   192
    Questions Submitted to.......................................   278
Schwartz, General Norton A., Chief of Staff, Office of the 
  Secretary, Department of the Air Force, Department of Defense..   154
    Questions Submitted to.......................................   181
Schwartz, Jonathan D., Chairman, Board of Directors, Zero--The 
  Project to End Prostate Cancer.................................   707
    Prepared Statement of........................................   710
Shelby, Senator Richard C., U.S. Senator From Alabama:
    Prepared Statement of........................................   525
    Questions Submitted by.....................................465, 473
Siniscalchi, Kimberly, Assistant Surgeon General for Nursing 
  Services, Department of the Air Force, Department of Defense...   254
    Prepared Statement of........................................   256
    Questions Submitted to.......................................   296
Smith, Captain Mike, United States Navy (Retired), National 
  Military and Veterans Alliance.................................   641
    Prepared Statement of........................................   642
Stenner, Lieutenant General Charles E., Jr., Chief, Air Force 
  Reserve, Department of Defense.................................   375
    Prepared Statement of........................................   376
    Questions Submitted to.......................................   409
Stultz, Lieutenant General Jack, Chief, Army Reserve, Department 
  of Defense.....................................................   335
    Prepared Statement of........................................   336
    Questions Submitted to.......................................   400

Visco, Fran, President, National Breast Cancer Foundation........   620
    Prepared Statement of........................................   621

Wyatt, Lieutenant General Harry M., III, Director, Air National 
  Guard, Department of Defense...................................   307
    Prepared Statement of........................................   309
    Questions Submitted to.......................................   395

Zarnikow, Barbara, Co-Chair, Interstitial Cystitis Association...   565


                             SUBJECT INDEX

                              ----------                              

                         DEPARTMENT OF DEFENSE

                                                                   Page

Additional Committee Questions...................................    25
Alternative Fuels................................................    19
Arctic Policy....................................................    20
Budget Proposal for Fiscal Year 2012.............................     7
Contract Oversight and Audit.....................................    22
Cost-Share.......................................................    21
DOD Financial Statements.........................................    31
Decreased NASA Funding--Impact on DOD............................    32
Defense Department Budget Cuts...................................    28
Defense Procurement..............................................    27
Efficiency Initiatives...........................................30, 31
Energy Issues....................................................    18
Fiscal Year 2012 Legislative Proposal on U.S. Family Health Plan.    29
Handheld Global Positioning Systems (GPS) for Platoon Leaders....    32
Impact on Private Sector Employment..............................    16
Iraq Drawdown....................................................    31
MilCon/Deferred Maintenance......................................    15
Military:
    Equipment....................................................    28
    Medicine.....................................................    13
Must-Pay Bills...................................................    14
Operating Under a Continuing Resolution..........................    12
Operations in Iraq...............................................    26
Overseas Contingency Operations..................................    27
    Budget.......................................................    20
Paying More......................................................    16
Reprogramming....................................................    14
    Issue........................................................    15
Research and Development.........................................    23
Serious Problems Associated With a Year-Long Continuing 
  Resolution.....................................................     9
Shortfall in Military Personnel Accounts.........................    11
TRICARE..........................................................    14
Uniformed Services Family Health Plan............................    17

                      Department of the Air Force

                        Office of the Secretary

Additional Committee Questions...................................   172
Affordability of Air Force Recapitalization Strategy.............   173
Agile Combat Support.............................................   149
Air Force:
    Financial Services Center....................................   163
    Global Operations............................................   133
    Role in Libya..............................................175, 181
Air Superiority..................................................   143
Analysis of Alternatives on JSTARS GMTI..........................   183
Building Partnerships............................................   149
    With Emerging Air Force......................................   159
B-1 Fleet:
    Modernization..............................................161, 167
    Reductions and Consolidation.................................   179
B-1s in Libya....................................................   184
Caring for:
    Airmen and Their Families....................................   157
    Total Force Airmen...........................................   135
Coal to Liquids Technology.......................................   168
Command and Control..............................................   148
Controlling DOD Healthcare Costs.................................   157
Countering Violent Extremism.....................................   156
Cyberspace Superiority...........................................   147
Difficult Resource Allocation Decisions..........................   160
Effects of Operating Under Fiscal Year 2011 Continuing 
  Resolutions....................................................   133
Efficiencies Across the FYDP.....................................   134
Full Spectrum of Air Operations..................................   155
F-22 and Activities in North Africa..............................   165
F-35 Production..................................................   166
Global Integrated Intelligence, Surveillance and Reconnaissance..   144
Global Precision Attack..........................................   141
Healthcare Proposals...........................................173, 181
Helicopter Acquisition...........................................   176
Increased Intelligence Surveillance and Reconnaissance 
  Capabilities...................................................   176
Joint Strike Fighter Alternate Engine............................   164
KC-46A:
    Base Selection and Number of Aircraft........................   178
    Basing:
        And Active Duty Associate Units..........................   180
        Criteria.................................................   178
        Process..................................................   177
    Clear Winner.................................................   177
    Milestone in Basing Process..................................   178
    Timeline.....................................................   177
Large Military Aircraft Defense Industrial Base..................   175
Military Sexual Assault..........................................   184
New Penetrating Bomber...........................................   158
    Aircraft Program...........................................180, 184
Nuclear Deterrence Operations....................................   140
Operating Under Fiscal Year 2011 Continuing Resolutions..........   156
Operation Odyssey Dawn Costs.....................................   161
Pacific Range Complex............................................   170
Personnel Recovery...............................................   148
Powder River Training Complex EIS................................   162
Preparing/Delivering Space Shuttle ``Atlantis'' to Ohio..........   167
Primary Aircraft Authorized by Truax Field, Wisconsin............   182
Rapid Global Mobility............................................   144
Realization of Efficiencies......................................   158
Remotely Piloted Aircraft Personnel Requirements...............174, 181
Reshaping the Air Force for Present and Future Threats...........   134
Role for F-22 in Libya...........................................   182
Satellite Acquisition Strategy...................................   174
Space Superiority................................................   145
Special Operations...............................................   148
Strategic Basing Process for KC-46A Tanker.......................   171
Strengthening International and Regional Security................   157

                         Department of the Army

                        Office of the Secretary

ALS and Connection to Military Service...........................   455
ALS/Lou Gehrig's Disease.........................................   454
Abrams Tank......................................................   447
Acoustic Hailing Device..........................................   470
Acquisition Programs.............................................   442
Additional Committee Questions...................................   461
Alaska Range Complex.............................................   457
Army National Guard..............................................   451
    Three Star...................................................   452
Assembled Chemical Weapons Alternatives (ACWA)...................   465
Balanced Force...................................................   450
Boots on the Ground: Dwell Time..................................   449
Canine Explosives Detection......................................   468
Carbine Weapon Systems...........................................   475
Chemical Weapons Disposal........................................   464
Competition......................................................   470
Counseling Services..............................................   463
Disability Rating Systems........................................   455
End Strength.....................................................   448
Family Support Programs........................................461, 471
Fiscal Year 2012 Efficiencies..................................461, 471
Fort Knox........................................................   464
Future:
    Drawdown.....................................................   442
    Force Mix..................................................461, 472
Ground Combat Vehicle.....................................443, 462, 472
Healthcare Proposals...........................................462, 472
Helicopter Replacement...........................................   444
Improvised Explosive Devices.....................................   456
Industrial Base..................................................   465
Injury Prevention and Control....................................   466
Ireland Army Community Hospital..................................   464
Medium Extended Air Defense System...............................   451
Mental Health....................................................   448
    Services for Army National Guard and Reserve Forces..........   453
Military Vehicles................................................   446
Missile Defense................................................445, 473
Post-Traumatic Stress Disorder (PTSD)/Traumatic Brain Injuries 
  (TBI)..........................................................   464
Prepare..........................................................   421
Procurement Process..............................................   444
Research and Development Innovation..............................   465
Reserve Component Discharge Issues...............................   469
Reset............................................................   422
Restoring Balancing..............................................   420
Servicemember Census.............................................   464
Space and Missile Defense Command................................   446
Stewardship, Innovation and Accomplishments......................   429
Strategic:
    Context......................................................   424
    Crossroads...................................................   427
Suicide........................................................462, 473
Sustain..........................................................   420
Tactical Radios..................................................   470
Tanks............................................................   473
Technology Advancements..........................................   466
Temporary End Strength...........................................   441
The Next Decade..................................................   425
The Profession of Arms...........................................   430
Transform........................................................   423
Transition Assistance Programs...................................   458
2011 Reserve Component Addendum to the Army Posture Statement....   431
Warrior Transition Units.........................................   458
Weight of Combat Gear............................................   460
Where We Have Been...............................................   419

                         Department of the Navy

                        Office of the Secretary

Additional Committee Questions...................................   103
Aegis:
    Ballistic Missile Defense....................................   113
        Operations...............................................   117
    Missile Defense..............................................   116
America's Expeditionary Force in Readiness.......................    72
Amphibious Warfare Ships.........................................    61
Arctic Considerations--Convention on Law of the Sea..............    98
Aviation Programs................................................    56
Bow Wave in Ship Procurement.....................................   118
Brunswick Naval Air Station Closure..............................   114
Build Tomorrow's Navy............................................    55
Chinese:
    Military Advances............................................   121
    Missile Development..........................................   100
    Navy:
        Assessment...............................................    92
        Strategic Intentions.....................................    99
Continuing Resolution Impacts on 313 Ship Goal...................    91
Creating Acquisition Excellence..................................    48
Current Operations...............................................    42
DDG 51 Multiyear Procurement...................................124, 125
Departmental Priorities..........................................    41
Develop and Support Our Sailors, Navy Civilians and Their 
  Families.......................................................    66
Development and Deployment of Unmanned Systems...................    50
Earthquake.....................................................126, 128
Effects of Continuing Resolution on Military Personnel.........119, 126
Energy Security and Leadership...................................    46
Evolving Arctic Considerations...................................    96
    Task Force Climate Change....................................    97
Fiscal Year 2012:
    Budget Submission............................................    43
    Budgetary Submission.........................................    75
Future Security Environment......................................    73
F-35B (STOVL) Development........................................   101
Great Green Fleet................................................   123
Health Care Proposals............................................   103
High Performance Computing.......................................   123
Humanitarian Relief..............................................   110
Information Dominance Programs...................................    61
Littoral Combat Ship Split Buy Plan..............................    90
Military Health..................................................   107
Naval Tactical Aircraft Shortfall................................   121
Navy:
    Cybersecurity and the Tenth Fleet............................   119
    Energy.......................................................   104
    Shift in Sea Billets.........................................   115
    Shipbuilding Plan............................................   125
Next-Generation Ballistic Missile Submarine......................   120
Nuclear Funding..................................................   109
Operational Impact of Amphibious Ship Decommissionings...........   128
Phalanx Close-In Weapon System...................................   124
P-8A Basing......................................................   113
Remain Ready to Fight Today......................................    63
Role of the Marine Corps.........................................    73
Russian Navy Assessment..........................................    91
Seapower: A Critical Strategic Enabler...........................    41
Ship to Shore Connector..........................................   111
Shipbuilding.....................................................   122
Submarine Programs...............................................    60
Surface Ship Programs............................................    58
Taking Care of Sailors, Marines, Civilians, and Their Families...    45
U.S. Navy:
    And Marine Corps Readiness Posture...........................   103
    Chinese Navy Relationships...................................    99
    Disaster Relief Assistance to Japan:
        CMC......................................................    95
        CNO......................................................    95
        SECNAV...................................................    94
    Environmental Remediation on Adak............................   115
United States Marine Corps:
    Force Structure Change Impacts...............................    93
    F-35 Joint Strike Fighter....................................   127
    Priorities...................................................    74

                        Medical Health Programs

Acquisition Community Interaction................................   282
Additional Committee Questions...................................   278
Advanced in Medical Training.....................................   255
Aeromedical Crews Save Lives.....................................   254
Alternative Treatment............................................   281
Assessing Physical Disability....................................   225
Capability Building..............................................   241
Caring for Our Heroes, Their Families and Caregivers.............   206
Collaboration Engagement.........................................   212
Concept of Care..................................................   206
Continuously Improving Readiness Assets..........................   217
Disability Services..............................................   226
Electronic Health Record..................................236, 283, 289
Elmendorf Hospital--A Joint Venture Facility.....................   231
Excellence in Research and Development and Health Education......   210
Force:
    Development..................................................   259
    Health Protection............................................   204
    Management...................................................   262
Funding to Support an Incentive Special Pay Program..............   271
Future Direction.................................................   254
Global Operations................................................   257
Humanitarian Assistance and Disaster Relief......................   205
Incidence of Sexual Assault in the Military......................   277
Information Management...........................................   253
Joint Veterans Eye Injury And Vision Registry....................   290
Medical:
    Acquisition Programs.........................................   288
    Community....................................................   280
    Force Structure..............................................   286
    Pay Scales...................................................   220
    Services to Deployed Marines.................................   221
    Training.....................................................   282
        Programs.................................................   288
Mental Health....................................................   280
    Force Structure..............................................   286
    Issues.......................................................   268
    System Achievements..........................................   213
Military:
    Medicine...................................................284, 291
    Nursing Leadership...........................................   267
Naval Bethesda--Walter Reed Nurse Staffing.......................   272
Nurse Transition Programs........................................   255
Nursing:
    Issues.....................................................280, 298
    Knowledge....................................................   249
    Research.........................................252, 279, 296, 297
Operational Support..............................................   246
Optimizing Patient Care Delivery.................................   239
Our Workforce....................................................   248
Patient:
    CareTouch System.............................................   239
    Centered:
        Care.....................................................   263
        Medical Homes................................214, 279, 286, 292
Pediatric Injuries on the Battlefield............................   295
Portfolio of Expertise...........................................   242
Psychological Health...........................................278, 285
Recapturing Care and Maintaining Currency........................   216
Recruiting:
    And Retention................................................   284
    Medical Professionals........................................   220
Recruitment and Retention.................................279, 295, 296
Sexual Assault...................................................   274
Sources of Help for Servicemembers and Their Families.....278, 283, 290
Strategic:
    Alignment, Integration and Efficiencies......................   203
    Partnerships.................................................   252
Task Force Treatment.............................................   281
The Navy Medicine Team...........................................   210
The Way Ahead....................................................   219
The Way Forward..................................................   212
Tiered-based Model of Resiliency.................................   269
Vision Center Of Excellence......................................   289
Warrior Care.....................................................   240
Way Ahead........................................................   265

                         Missile Defense Agency

Additional Committee Questions...................................   498
Arrow 3..........................................................   490
Developing New Capabilities......................................   487
Enhancing:
    Homeland Defense.............................................   484
    Regional Defense.............................................   485
Fiscal Year 2010 Accomplishment Highlights.......................   483
Ground-based:
    Interceptor..................................................   492
    Midcourse Defense System..............................488, 490, 491
Hedge for Protection of the United States........................   485
Integrated Air and Missile Defense Battle Command System.........   493
International Cooperation........................................   487
Iron Dome........................................................   496
Japanese Government..............................................   489
Missile Field....................................................   494
Naval Force Structure Support....................................   500
Pacific Missile Range Facility (PMRF)............................   498
Proving Missile Defense Works through Enhanced Testing...........   486
Terminal High Altitude Area Defense..............................   489

                             National Guard

A Great Value For America........................................   307
ARNG Resilience..................................................   315
Air National Guard in National Defense...........................   309
Aviation Support.................................................   314
Citizen Soldiers as Part of the Operational Force................   312
Domestic:
    Operations...................................................   310
    Response Mission.............................................   307
Equipment and Critical Dual Use..................................   313
Medical Readiness................................................   317
Military Construction (Milcon)...................................   315
National Guard:
    And Reserve Equipment Appropriation..........................   314
    Overview.....................................................   305
Overseas Defense Mission.........................................   306
Quality Facilities...............................................   313
Soldiers, Airmen, and Family Support Programs....................   307
Support to Global Engagements....................................   306

                   Office of the Secretary of Defense

Acquisitions.....................................................   551
Additional Committee Questions...................................   543
Afghan Government................................................   528
Afghanistan....................................................533, 546
Balancing Global Strategic Risk..................................   519
China............................................................   549
Choices Ahead....................................................   506
Counternarcotics Spending in Mexico and Central America..........   551
Defending our Vital National Interests in the Broader Middle East 
  and South Central Asia.........................................   514
Defense Budget...................................................   510
    Cuts and NATO................................................   523
Detainees........................................................   545
Fiscal Year 2012 Base Budget Request.............................   507
Health Research..................................................   530
Improving the Health-of-the-Force................................   517
Integrated Disability Evaluation System..........................   555
Iraq.............................................................   547
Joint Electronic Health Record...................................   555
Libya............................................................   548
Milcon Budget Cuts...............................................   542
Military:
    Families.....................................................   540
    Healthcare Program...........................................   511
Minimum Essential Security Conditions............................   555
Missile Defense..................................................   527
Modernization....................................................   507
NATO.............................................................   530
Nuclear Weapons Modernization Programs...........................   525
Office of Security Cooperation--Iraq.............................   510
Overseas Contingency Operations..................................   509
Pakistan.......................................................529, 543
Personnel........................................................   509
Reform--Efficiencies.............................................   506
Runaway Debt and Deficit.........................................   529
Security:
    Assistance Reform............................................   509
    Environment..................................................   534
Taiwan Arms Sales................................................   550
Wounded Warriors.................................................   556

                                Reserves

Access to Army Reserve for Non-emergency Missions................   387
Additional Committee Questions...................................   388
Air Force:
    Reserve:
        Force Generation Center..................................   409
        Operations Tempo.........................................   385
        Priorities...............................................   375
        Response to Natural Disasters............................   386
    Wingman Day..................................................   383
An Operational:
    Force Benefits the Nation....................................   337
    Reserve......................................................   365
Army:
    And Air Guard--Equipment.....................................   388
    Guard:
        Equipment Shortfalls.....................................   398
        Permanent Director.......................................   400
    National Guard Director......................................   394
    Reserve Suicide Rates........................................   401
Casualty Assistance and Military Funeral Honors..................   374
Defining our Future..............................................   362
Equipment........................................................   368
    Shortfalls and Modernization.................................   382
Facilities.......................................................   371
Family Support and Yellow Ribbon Programs........................   389
Firefighting support.............................................   395
Force:
    Readiness....................................................   377
    Rebalance....................................................   379
    Support......................................................   380
Hawaii Army National Guard.......................................   391
Health Services and Behavioral Health............................   372
Initial Steps Taken to Date......................................   337
Marijuana on Public Lands........................................   391
Marine Corps Reserve--Strain on the Force........................   405
National Guard:
    Military Construction........................................   393
    Southwest Border Mission.....................................   397
    Stryker Brigade Combat Team..................................   399
    And Reserve Equipment Account (NGREA).......390, 402, 404, 407, 409
        And Supplemental Funding.................................   376
Navy Reserve--Officer Recruiting.................................   403
168th Air Refueling Wing Communications Facility.................   397
Operational Reserve's Future Role....................400, 405, 408, 410
Organized to Respond to Emergency Callups........................   386
Personnel........................................................   367
    Policies.....................................................   360
Priorities for the Next Year.....................................   337
Quality of Life..................................................   373
Reserve:
    Callup Response..............................................   386
    Equipment Shortfalls.............................401, 404, 406, 409
Reserves as First Responders.....................................   388
Road Map for the Next Decade.....................................   336
S. 325, Embedded Mental Health Providers for Reserves Act of 2011   392
Suicide..........................................................   402
    Prevention Efforts...........................................   383
    Rates........................................................   397
Supporting our Wounded, Ill, and Injured Marines and their 
  Families.......................................................   374
Title X Authority for Emergency Callups..........................   387
Training.........................................................   370
    On Modernized Equipment......................................   382
2010: Fully Engaged--From Peace to War...........................   359
United States Army Reserve 2011 Posture Statement................   337
    An Enduring Operational Force................................   337
    Army Reserve:
        Priorities...............................................   340
        Snapshot.................................................   355
    Conclusion: The Force is in Good Hands.......................   354
    Equipping....................................................   352
    Personnel....................................................   342
    Program Provides Advantage to Local Communities and the 
      Military...................................................   346
    Readiness....................................................   348
    The Employer Partnership Promotes Skills and Opportunity 
      Sharing With the Home Front................................   346
    The Fiscal Year 2012 Budget Request: Where We Are Going......   342
    The Posture of the Army Reserve: Where We Stand Today........   340
    The President's Budget.......................................   340
    Your Army Reserve............................................   355

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
